<html>
<title> - NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, SECOND SESSION, 109TH CONGRESS</title>
<body><pre>[Senate Hearing 109-928]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 109-928
 
        NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, 
                     SECOND SESSION, 109TH CONGRESS 

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   on

                             NOMINATIONS OF

  HON. PRESTON M. GEREN; HON. MICHAEL L. DOMINGUEZ; JAMES I. FINLEY; 
THOMAS P. D'AGOSTINO; CHARLES E. McQUEARY; ANITA K. BLAIR; BENEDICT S. 
 COHEN; FRANK R. JIMENEZ; DAVID H. LAUFMAN; SUE C. PAYTON; WILLIAM H. 
 TOBEY; ROBERT L. WILKIE; LT. GEN. JAMES T. CONWAY, USMC; GEN BANTZ J. 
CRADDOCK, USA; VADM JAMES G. STAVRIDIS, USN; NELSON M. FORD; RONALD J. 
     JAMES; SCOTT W. STUCKY; MARGARET A. RYAN; AND ROBERT M. GATES

                               __________

      FEBRUARY 15; JULY 18, 27; SEPTEMBER 19; DECEMBER 4, 5, 2006

                               __________

         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

36-311 PDF                      WASHINGTON : 2007 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



  

































                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
JEFF SESSIONS, Alabama               JOSEPH I. LIEBERMAN, Connecticut
SUSAN M. COLLINS, Maine              JACK REED, Rhode Island
JOHN ENSIGN, Nevada                  DANIEL K. AKAKA, Hawaii
JAMES M. TALENT, Missouri            BILL NELSON, Florida
SAXBY CHAMBLISS, Georgia             E. BENJAMIN NELSON, Nebraska
LINDSEY O. GRAHAM, South Carolina    MARK DAYTON, Minnesota
ELIZABETH DOLE, North Carolina       EVAN BAYH, Indiana
JOHN CORNYN, Texas                   HILLARY RODHAM CLINTON, New York
JOHN THUNE, South Dakota

                    Charles S. Abell, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                  (ii)














































                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES

                                                                   Page

                           february 15, 2006

Nominations of Hon. Preston M. Geren to be Under Secretary of the 
  Army; Hon. Michael L. Dominguez to be Deputy Under Secretary of 
  Defense for Personnel and Readiness; James I. Finley to be 
  Deputy Under Secretary of Defense for Acquisition and 
  Technology; and Thomas P. D'Agostino to be Deputy Administrator 
  for Defense Programs, National Nuclear Security Administration.     1

Statements of:

Hutchison, Hon. Kay Bailey, U.S. Senator from the State of Texas.     2
Allard, Hon. Wayne, U.S. Senator from the State of Colorado......     4
Geren, Hon. Preston M., to be Under Secretary of the Army........     9
Dominguez, Hon. Michael L., to be Deputy Under Secretary of 
  Defense for Personnel and Readiness............................    10
Finley, James L., to be Deputy Under Secretary of Defense for 
  Acquisition and Technology.....................................    11
D'Agostino, Thomas P., to be Deputy Administrator for Defense 
  Programs, National Nuclear Security Administration.............    11

                             july 18, 2006

Nominations of Charles E. McQueary to be Director of Operational 
  Test and Evaluation, Department of Defense; Anita K. Blair to 
  be Assistant Secretary of the Air Force for Manpower and 
  Reserve Affairs; Benedict S. Cohen to be General Counsel of the 
  Department of the Army; Frank R. Jimenez to be General Counsel 
  of the Department of the Navy; David H. Laufman to be Inspector 
  General, Department of Defense; Sue C. Payton to be Assistant 
  Secretary of the Air Force for Acquisition; William H. Tobey to 
  be Deputy Administrator for Defense Nuclear Nonproliferation, 
  National Nuclear Security Administration; and Robert L. Wilkie 
  to be Assistant Secretary of Defense for Legislative Affairs...   155

Statements of:

Lott, Hon. Trent, U.S. Senator from the State of Mississippi.....   156
Cox, Hon. Christopher, Former Representative from the State of 
  California.....................................................   158
Allen, Hon. George, U.S. Senator from the State of Virginia......   159
Martinez, Hon. Mel, U.S. Senator from the State of Florida.......   161
Blair, Anita K., to be Assistant Secretary of the Air Force for 
  Manpower and Reserve Affairs...................................   165
Cohen, Benedict S., to be General Counsel of the Department of 
  the Navy.......................................................   166
Jimenez, Frank R., to be General Counsel of the Department of the 
  Navy...........................................................   167
Laufman, David H., to be Inspector General, Department of Defense   168
Payton, Sue C., to be Assistant Secretary of the Air Force for 
  Acquisition....................................................   169

                                 (iii)

Tobey, William H., to be Deputy Administrator for Defense Nuclear 
  Nonproliferation, National Nuclear Security Administration.....   171
Wilkie, Robert L., to be Assistant Secretary of Defense for 
  Legislative Affairs............................................   172
McQueary, Hon. Charles E., to be Director of Operational Test and 
  Evaluation, Department of Defense..............................   173

                             july 27, 2006

Nomination of Lt. Gen. James T. Conway, USMC, for Appointment to 
  the Grade of General and to be Commandant of the Marine Corps..   327

Statements of:

Conway, Lt. Gen. James T., USMC, for Appointment to the Grade of 
  General and to be Commandant of the Marine Corps...............   333

                           september 19, 2006

Nominations of GEN Bantz J. Craddock, USA, for Reappointment to 
  be General and to be Commander, U.S. European Command; VADM 
  James G. Stavridis, USN, for Appointment to be Admiral and to 
  be Commander, U.S. Southern Command; Nelson M. Ford to be 
  Assistant Secretary of the Army for Financial Management and 
  Comptroller; and Ronald J. James to be Assistant Secretary of 
  the Army for Manpower and Reserve Affairs......................   367

Statements of:

Craddock, GEN Bantz J., USA, for Reappointment to be General and 
  to be Commander, U.S. European Command.........................   371
Stavridis, VADM James G., USN, for Appointment to be Admiral and 
  to be Commander, U.S. Southern Command.........................   371
Ford, Nelson M., to be Assistant Secretary of the Army for 
  Financial Management and Comptroller...........................   392
James, Ronald J., to be Assistant Secretary of the Army for 
  Manpower and Reserve Affairs...................................   392

                            december 4, 2006

Nominations of Scott W. Stucky to be a Judge of the United States 
  Court of Appeals for the Armed Forces; and Margaret A. Ryan to 
  be a Judge of the United States Court of Appeals for the Armed 
  Forces.........................................................   495

Statements of:

Stucky, Scott W., to be a Judge of the United States Court of 
  Appeals for the Armed Forces...................................   501
Ryan, Margaret A., to be a Judge of the United States Court of 
  Appeals for the Armed Forces...................................   503

                            decmber 5, 2006

Nomination of Robert M. Gates to be Secretary of Defense.........   529

Statements of:

Dole, Hon. Robert, Former U.S. Senator from the State of Kansas..   535
Boren, Hon. David L., Former U.S. Senator from the State of 
  Oklahoma.......................................................   536
Gates, Robert M., to be Secretary of Defense.....................   541

                            december 5, 2006

Continuation of the Nomination of Robert M. Gates to be Secretary 
  of Defense.....................................................   589

                            december 5, 2006

To Consider Certain Pending Civilian and Military Nominations....   681

APPENDIX.........................................................   685


NOMINATIONS OF HON. PRESTON M. GEREN TO BE UNDER SECRETARY OF THE ARMY; 
 HON. MICHAEL L. DOMINGUEZ TO BE DEPUTY UNDER SECRETARY OF DEFENSE FOR 
 PERSONNEL AND READINESS; JAMES I. FINLEY TO BE DEPUTY UNDER SECRETARY 
OF DEFENSE FOR ACQUISITION AND TECHNOLOGY; AND THOMAS P. D'AGOSTINO TO 
BE DEPUTY ADMINISTRATOR FOR DEFENSE PROGRAMS, NATIONAL NUCLEAR SECURITY 
                             ADMINISTRATION

                              ----------                              


                      WEDNESDAY, FEBRUARY 15, 2006

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:46 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, 
Chambliss, Cornyn, Thune, Levin, and Dayton.
    Also present: Senators Allard and Hutchison.
    Committee staff members present: Charles S. Abell, staff 
director; Leah C. Brewer, nominations and hearings clerk; and 
John H. Quirk V, security clerk.
    Majority staff members present: William M. Caniano, 
professional staff member; William C. Greenwalt, professional 
staff member; Elaine A. McCusker, professional staff member; 
David M. Morriss, counsel; Lucian L. Niemeyer, professional 
staff member; Stanley R. O'Connor, Jr., professional staff 
member; Kristine L. Svinicki, professional staff member; Diana 
G. Tabler, professional staff member; and Richard F. Walsh, 
counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Jonathan D. Clark, minority counsel; 
Daniel J. Cox, Jr., professional staff member; Madelyn R. 
Creedon, minority counsel; Gabriella Eisen, research assistant; 
Richard W. Fieldhouse, professional staff member; Gerald J. 
Leeling, minority counsel; and Peter K. Levine, minority 
counsel.
    Staff assistant present: Pendred K. Wilson.
    Committee members' assistants present: Christopher J. Paul 
and Paul C. Hutton IV, assistants to Senator McCain; Clyde A. 
Taylor IV, assistant to Senator Chambliss; Russell J. 
Thomasson, assistant to Senator Cornyn; Stuart C. Mallory, 
assistant to Senator Thune; William K. Sutey, assistant to 
Senator Bill Nelson; Kimberly Jackson and Luke Ballman, 
assistants to Senator Dayton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning, everyone. This is a very 
important day in the lives of four individuals together with 
their wonderful families who've joined us here this morning. So 
we'll get underway very promptly. As protocol has it, we always 
want to start promptly such that our colleagues who've come for 
purposes of introduction can return to their respective duties.
    So this morning we welcome the Honorable Pete Geren who has 
been nominated to be Under Secretary of the Army, the Honorable 
Michael Dominguez who has been nominated to be the Principal 
Deputy Under Secretary of Defense for Personnel and Readiness, 
better known as Charlie Abell's replacement. We also welcome 
James L. Finley who has been nominated to be Principal Deputy 
Under Secretary of Defense for Acquisition and Technology, and 
Thomas P. D'Agostino, nominee to be the Deputy Administrator 
for Defense Programs in the National Nuclear Security 
Administration. We have with us the distinguished Senator from 
Texas, I think there were two here--oh, there they are, and 
we'll at this point in time recognize our colleague, Senator 
Hutchison.

 STATEMENT OF HON. KAY BAILEY HUTCHISON, U.S. SENATOR FROM THE 
                         STATE OF TEXAS

    Senator Hutchison. Thank you very much, Mr. Chairman. I am 
very pleased to be here to be able to support and ask your 
support for Pete Geren who has been a friend of mine for a very 
long time. He comes from Fort Worth and I know he is going to 
do a terrific job as Under Secretary of the Army. He served in 
Congress. When I first got here, he was serving in Congress 
representing his district in Fort Worth for four terms and he 
was a member of the House Armed Services Committee. He did a 
lot of really good work, particularly in coming up with the 
first joint Reserve base concept which is now Naval Air 
Station, Fort Worth, that included units from the Navy, Air 
Force, Marine Corp, and the Texas National Guard. It really 
became a model for joint Reserve bases that has been followed 
throughout the rest of the country.
    He then came back to government, couldn't stay away after 
he retired from Congress voluntarily, I might add, and started 
working in the Pentagon as an assistant to the Secretary of 
Defense, really being very low key. He went to Iraq several 
times to try to be helpful there spending a month at a time per 
visit. Then when the Secretary of the Air Force position was in 
flux, he became the acting Secretary of the Air Force and did 
such a great job in all of these positions that he then was 
nominated for Under Secretary of the Army.
    I know that he knows the military, he knows the Pentagon, 
he is very familiar with the efforts to modernize our military 
so that it best serves not only our country but also helps to 
serve the people in the military as well. I recommend him most 
highly, and I hope that you will take an expedited initiative 
on this so that he can be confirmed and become an official 
Under Secretary with Senate confirmation.
    Chairman Warner. Senator, we thank you very much. Indeed we 
did expedite this hearing. We had not intended to have it 
before the recess, but in consultation with Senator Levin we 
also felt it very important. Secretary Rumsfeld is quite 
anxious to get this team in place as is the President, of 
course, and I compliment both for their selection of 
outstanding individuals. I've never seen a better panel. We 
thank you for your remarks and I associate myself with your 
high regard for this distinguished individual.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman. It's a pleasure to 
join my colleague, Senator Hutchison, in introducing Pete Geren 
to the committee, but obviously he needs no introduction. He's 
well known to the committee and has done outstanding work over 
the past 4 years in the Department of Defense, most recently as 
Acting Secretary of the Air Force. Mr. Chairman, we always 
focus on the nominees but really this is a family matter----
    Chairman Warner. Would you undertake the honors then.
    Senator Cornyn. I'd be delighted. If people will allow me, 
I'd like to ask for his wife, Becky, and their three daughters, 
Tracy, Annie, and Mary to stand and be recognized. We're glad 
to have all of them here, and I know Pete's glad to have them 
here as well.
    Chairman Warner. We welcome you. This is a very special day 
because each of you in your respective ways have contributed to 
making possible this day. Let me just give you a little bit of 
advice. If he isn't home by around 7:30, forget it, because 
they have a tendency in the Department of Defense to work into 
the late hours. I had the privilege of spending many years 
there myself, and everything done after about 7:30 is changed 
the next morning so go home. [Laughter.]
    Senator Cornyn. That sounds like sage advice, Mr. Chairman. 
Thank you very much.
    Senator Levin. I was going to say, Senator Cornyn, that if 
he's not home by 7:30 blame us because he is probably preparing 
some report which we demanded. Who are the three daughters 
here? Which is the wife? [Laughter.]
    This is the way I win elections, folks! [Laughter.]
    Senator Cornyn. Now we know the winning formula for Senator 
Levin. Just in conclusion, let me add, Mr. Chairman, our Army, 
as we all know, is undergoing major changes while fighting the 
war on terror, and we are, of course, working closely with the 
Pentagon to ensure that as the Army and our Armed Forces are 
transformed that it becomes an even more effective fighting 
machine while we at the same time watch the budget, 
procurement, and acquisition process very carefully to make 
sure the taxpayers get all they can for their hard-earned 
dollars. Secretary Harvey will be fortunate to have such a 
dedicated public servant as Pete Geren working for him. I want 
to welcome him to the committee and commend him to you. Thank 
you.
    Senator Hutchison. Mr. Chairman?
    Chairman Warner. Oh, yes.
    Senator Hutchison. Could I reclaim one more minute?
    Chairman Warner. Yes, of course.
    Senator Hutchison. I'm very remiss not to have mentioned 
that he is a graduate of the University of Texas and the 
University of Texas Law School.
    Senator Levin. How about elementary school? Where did he 
go? [Laughter.]
    Mr. Geren. You might note that they played in the Rose Bowl 
last year against Michigan.
    Senator Hutchison. Yes, I won't mention the Rose Bowl last 
year, maybe just this year, Senator Levin.
    Senator Levin. You had my vote until then. [Laughter.]
    Chairman Warner. We enjoy these moments of levity. They 
often occur in connection with the confirmation process, but I 
can tell you from my own personal experience, having gone 
through this process so many years ago that I don't want to 
mention it, but it's something you'll always remember and your 
children will remember it. So I thank each of you for bringing 
your families.
    Now, at this point in time, Senator Allard, you've waited 
very patiently. You're a former member of this committee so you 
understand the protocol here.
    Senator Allard. I do, Mr. Chairman, and thank you. Senator 
Hutchison, I appreciated your introductory remarks. Once a 
cheerleader, always a cheerleader, I guess.
    Chairman Warner. Oh, you're in trouble. [Laughter.]

STATEMENT OF HON. WAYNE ALLARD, U.S. SENATOR FROM THE STATE OF 
                            COLORADO

    Senator Allard. I've been looking forward to appearing 
before the committee. It's a great committee, and one of the 
opportunities you afforded me early on in my serving on the 
committee was to be chairman of the Personnel Subcommittee and 
Charlie Abell, at that time, was my staff person. I 
congratulate him on his duties here now with the committee. I 
think he's a great person, and I was enthralled that we now 
have Mike Dominguez who'll be Charlie Abell's replacement, but 
I'd also want to say that in his own right he deserves to be 
the Deputy Under Secretary for Personnel and Readiness there in 
the Office of Secretary of Defense.
    I've known Michael Dominguez for nearly 5 years. It's a 
pleasure for me to be able to introduce him to your committee. 
I worked with him on a number of personnel issues, even though 
I wasn't on the Personnel Subcommittee. Because of the Air 
Force Academy, over the last couple of years, Michael and I 
have worked together. I've always valued Michael's candor, 
openness, and willingness to pursue the facts. He grew up in 
the Air Force as a dependent but later switched services and 
attended the U.S. Military Academy at West Point. After serving 
5 years in the Army, Michael attended Stanford's Business 
School and later joined the Office of Secretary of Defense 
(OSD) as an analyst during the Reagan administration. Michael 
entered the senior executive service in 1991 as the OSD 
Director of Program Analysis and Evaluation, and in 2001, 
Michael returned to the Air Force when he was nominated and 
confirmed to be the Assistant Secretary of the Air Force for 
Manpower and Reserve Affairs.
    I've worked most closely with Michael in solving several 
difficult challenges at the Air Force Academy involving sexual 
assault and religious intolerance. Michael took a prominent 
role in restoring public trust and confidence in the Academy 
and was willing to consult with concerned Members of Congress. 
He was wise enough to seek outside expertise, particularly when 
it came to the difficult issue of sexual assault. I'm pleased 
to say that the Air Force Academy's sexual assault response has 
become the model for the other Service academies and for many 
public universities now.
    From March to July 2005, Michael took on the challenging 
role of Acting Secretary of the Air Force. His expanded role 
included the Base Realignment and Closure round, the 
Quadrennial Defense Review, and the restructuring of several 
major Air Force Space Acquisition Programs. Michael is well-
prepared for this new position and understands the importance 
of leadership. He is willing to tackle the tough issues that 
can make things happen in the Department of Defense (DOD), and 
I'm confident that Michael can accomplish his new duties with 
the same degree of success that he enjoyed elsewhere in his 
career. I just want to thank you, Mr. Chairman, for the 
opportunity to introduce Mr. Dominguez and to say hello to you 
today.
    Chairman Warner. Senator Allard, we thank you very much. 
You keep a continuing interest in all areas of national 
security, but you have made a major contribution with regard to 
the Air Force Academy. Understandably. You're proud that it is 
in your State, but we must focus on the importance of these 
academies. They are symbols throughout the educational system 
of this Nation, and they attract the finest of individuals to 
come from all over our Nation. It is extremely important that 
all of us work with these academies to make them the models 
that America views them as and looks up to them.
    Senator Allard. Thank you for your comments, Mr. Chairman. 
I couldn't agree more with you.
    Chairman Warner. Thank you. Now we'll proceed with the 
regular order here. We thank our colleagues.
    Senator Dayton. Mr. Chairman, if I may make one more 
introduction, please.
    Chairman Warner. I beg your pardon. Of course, we're 
delighted to have you.
    Senator Dayton. Thank you.
    Chairman Warner. Yes.
    Senator Dayton. Thank you, sir. I'm honored to introduce 
James I. Finley from Chanhassen, Minnesota, who has been 
nominated by the President to be Deputy Under Secretary of 
Defense for Acquisition and Technology. Accompanying Mr. 
Finley, and I ask them to stand and be recognized please, are 
his wife, Sharon, one of his six children, Dan, and Dan's wife, 
Jessica. Welcome. As true Minnesota natives, Dan and Jessica 
dug out from about 2\1/2\ feet of snow in Connecticut to be 
here in Washington and join their father today.
    Chairman Warner. We welcome you and that's wonderful.
    Senator Dayton. Mr. Finley is superbly qualified for this 
key position. He has 30 years of experience in successfully 
designing and managing acquisition and technology systems in 
the aerospace industry. He's held management and senior 
management positions at General Electric, Singer, Lear Sigler, 
United Technologies, and General Dynamics where he was a 
Corporate Officer, President of Information Systems, and Chair 
of the Business Development Council.
    In 2002, Mr. Finley formed his own consulting company, the 
Finley Group. His biography states that his leadership and 
strategic planning abilities have led many companies to achieve 
double-digit financial growth which commends him very well for 
this position. I told him that we would settle for double-digit 
improvements in efficiencies for acquisitions, technology, and 
logistics.
    Mr. Chairman, I am pleased to introduce Jim Finley to our 
committee and also to enthusiastically support his nomination. 
Thank you.
    Chairman Warner. Senator, that's very important that you've 
joined in. We thank you very much for that contribution. Given 
that my colleagues have fairly well introduced three of them, 
with your permission, I'll introduce you.
    Thomas P. D'Agostino is the nominee to be the Deputy 
Administrator for Defense Programs in the National Nuclear 
Security Administration (NNSA), which was created by Congress. 
I remember well participating in establishing that. He 
currently serves as the Assistant Deputy Administrator for 
Program Integration in NNSA and directs the Stockpile 
Stewardship Program. He is responsible for maintaining the 
safety, security, and reliability of the Nation's nuclear 
weapons stockpile. That's an extraordinarily important function 
that you fulfill. That stockpile is carefully monitored by this 
committee and in the course of our proceedings today I'll 
direct questions to you about that.
    He's a captain in the Navy Reserve, served over 8 years on 
Active-Duty in the submarine service, and served on the U.S.S. 
Skipjack during Admiral Rickover's tenure as the Director of 
Naval Nuclear Propulsion Program. When you visited with me, we 
exchanged our particular reminiscences of that distinguished 
American, Admiral Rickover, an extraordinary person in the 
annals of the history of our Nation. During our office call 
last week, I learned that you served under that Navy legend, 
Admiral Bulkeley. I knew him so well when I was Secretary of 
the Navy. He was an extraordinary man. He was a D-Day 
Congressional Medal of Honor winner, and he stayed on in the 
Navy many years for the sole purpose of assuring the Navy that 
no ship went to sea unless it was technically perfect and you 
learned a lot under that wonderful man. So we congratulate you, 
sir. Do you have family here today that you would introduce?
    Mr. D'Agostino. Yes, Mr. Chairman. I have both my parents, 
Anne Claude D'Agostino, my mother, my father, Tom D'Agostino, 
my son, Tommy, and my wife, Beth. They're all here. They live 
locally and were able to make it for the hearing and are here 
to look after me.
    Chairman Warner. All right. We thank you very much for 
coming. Now, Mr. Dominguez, would you introduce your family.
    Mr. Dominguez. Yes, Senator, thank you very much. I have 
with me here today my wife, Sheila; my daughter, Michelle; and 
my brother, who is also serving the Nation as an Assistant U.S. 
Attorney in the District of Columbia, John.
    Chairman Warner. Delighted to have you. Regarding your 
brother, I know the audience is weary of hearing about me but I 
served 5 years in that office and they were marvelous years. 
That was back in the good old rough and tumble days. I'll 
insert the balance of my statement for the record.
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
    I am pleased to have four distinguished nominees before the 
committee this morning.
    We welcome the Honorable Pete Geren, who has been nominated to be 
the Under Secretary of the Army, and the Honorable Michael L. 
Dominguez, who has been nominated to be the Principal Deputy Under 
Secretary of Personnel and Readiness. We also welcome James I. Finley, 
who has been nominated to be the Principal Deputy Under Secretary of 
Defense for Acquisition and Technology, and Thomas P. D'Agostino, the 
nominee to be the Deputy Administrator for Defense Programs in the 
National Nuclear Security Administration.
    I understand our colleagues, Senator Hutchison and Senator Cornyn, 
will introduce Mr. Geren. Following those introductions, Senator Allard 
will introduce Mr. Dominguez and Senator Dayton will introduce Mr. 
Finley.
    I now ask our nominees to introduce their family members and 
guests. Mr. Geren, please start, followed by Secretary Dominguez, Mr. 
Finley, and Mr. D'Agostino.
    We welcome all of you, and thank you for the vitally important 
support you provide to our nominees. They cannot succeed in these 
demanding positions without your continued encouragement and support, 
as I'm sure they all recognize.
    As our colleagues from Texas indicated, Mr. Geren has had a very 
distinguished career in public service. He represented the 12th 
District of Texas--Fort Worth--for four terms, from 1989 to 1997, 
serving on the Committees on Armed Services, Science and Technology, 
and Public Works and Transportation. He joined the Department of 
Defense in September 2001 to serve as a Special Assistant to Secretary 
Rumsfeld. On July 29, 2005, Mr. Geren was appointed Acting Secretary of 
the Air Force and served in that capacity until November 3, when 
Secretary Wynne assumed that office. Mr. Geren, thank you for your 
public service, and, in particular, for your assistance to this 
committee as Secretary Rumsfeld's representative. Congratulations on 
your nomination for this critically important position.
    Michael L. Dominguez has served as Assistant Secretary of the Air 
Force for Manpower and Reserve Affairs since August 2001. He also 
served as the Acting Secretary of the Air Force from March 2005 through 
July 2005. I note that Mr. Dominguez is a 1975 West Point graduate and 
served on Active-Duty in the U.S. Army with the 509th Infantry 
(Airborne) and the Southern European Task Force. He will succeed 
Charlie Abell, current staff director of the Committee on Armed 
Services, who left the Department in August of last year . . . 
obviously, for greener pastures. Secretary Dominguez, we thank you for 
your public service to date and your willingness to continue serving.
    James I. Finley has been nominated to be the Principal Deputy Under 
Secretary of Defense for Acquisition and Technology. Mr. Finley has had 
a remarkable career in the private sector with over 30 years of multi-
national business leadership and management experience. Programs he has 
headed have included air, land, sea, and space projects for the 
Department of Defense, NASA, and the FAA. Mr. Finley has demonstrated 
expertise in the challenges posed by advanced research projects and 
business transformations, and has most recently headed his own 
consulting company focusing on all facets of the business cycle. Mr. 
Finley, welcome.
    Thomas P. D'Agostino is the nominee to be the Deputy Administrator 
for Defense Programs in the National Nuclear Security Administration 
(NNSA). Mr. D'Agostino currently serves as the Assistant Deputy 
Administrator for Program Integration in the NNSA and directs the 
Stockpile Stewardship program, which is responsible for maintaining the 
safety, security, and reliability of the Nation's nuclear weapons 
stockpile. Mr. D'Agostino is a captain in the Navy Reserve having 
served over 8 years on Active-Duty in the submarine service. He served 
in U.S.S. Skipjack during Admiral Rickover's tenure as the Director of 
the Naval Nuclear Propulsion program. During our office call last week, 
I learned that Mr. D'Agostino also served under another Navy legend, 
Vice Admiral John D. Bulkeley, the renowned Medal of Honor winner, who, 
for many years headed the Navy's Board of Inspection and Survey. 
Congratulations on your nomination.

    Chairman Warner. Senator Levin, do you have some comments 
you'd like to make at this time?
    Senator Levin. No, Mr. Chairman. I will just join you in 
welcoming our nominees and their families. As you and others 
have already pointed out, the families are truly as important 
as the nominees in terms of getting this work done. We thank 
particularly the children who are here today. They will not see 
their dads as often as they would like and your fathers would 
like but that's part of the territory. That's some of the 
dedication that you will see and have seen all your life in 
your parents. So we just want to particularly thank the 
children, as well as the brothers, fathers, spouses, and others 
who have contributed to their being here today and to their 
commitments and to their success.
    Chairman Warner. Thank you, Senator Levin. As in all 
nominations, again, we commend our President and the Secretary 
of Defense and others who made it possible to recruit this 
extraordinary team for public service. We asked you a series of 
advance policy questions. You have responded to those 
questions, and without objection they'll be made a part of 
today's record. There are certain standard questions that the 
chairman of this committee always propounds to each nominee, 
and I will do that now and if you will indicate your 
concurrence or nonconcurrence with these questions. Please do 
so as a group.
    Have each of you adhered to the applicable laws and 
regulations governing conflicts of interest?
    Mr. Dominguez. Yes.
    Mr. Finley. Yes.
    Mr. D'Agostino. Yes.
    Mr. Geren. Yes, sir.
    Chairman Warner. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Mr. Dominguez. No, sir.
    Mr. Finley. No, sir.
    Mr. D'Agostino. No, sir.
    Mr. Geren. No, sir.
    Chairman Warner. Will you ensure that your staff complies 
with deadlines established for requested communications coming 
from the Congress of the United States, including questions for 
the record in hearings such as this?
    Mr. Dominguez. Yes.
    Mr. Finley. Yes.
    Mr. D'Agostino. Yes.
    Mr. Geren. Yes, sir.
    Chairman Warner. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Mr. Dominguez. Yes.
    Mr. Finley. Yes.
    Mr. D'Agostino. Yes.
    Mr. Geren. Yes, sir.
    Chairman Warner. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    Mr. Dominguez. Yes.
    Mr. Finley. Yes.
    Mr. D'Agostino. Yes.
    Mr. Geren. Yes, sir.
    Chairman Warner. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Mr. Dominguez. Yes.
    Mr. Finley. Yes.
    Mr. D'Agostino. Yes.
    Mr. Geren. Yes, sir.
    Chairman Warner. Do you agree to provide documents, 
including copies of electronic forms of communications, in a 
timely manner when requested by a duly constituted committee of 
the Congress of the United States or to consult with the 
committee regarding the basis for any good faith delay or 
denial in providing such documents?
    Mr. Dominguez. Yes.
    Mr. Finley. Yes.
    Mr. D'Agostino. Yes.
    Mr. Geren. Yes, sir.
    Chairman Warner. Thank you very much. That concludes our 
questions. Now, as you observed, several colleagues came in to 
introduce an individual or nominee here this morning. I must 
depart for a few minutes to introduce an individual from my 
State who's becoming a United States Marshal for the United 
States, the entire country. To ensure that, if I'm locked up, 
I'll get good treatment, I'm going to get up there and 
introduce him. Would you kindly take over?
    Senator Chambliss [presiding]. Not that I am a capable 
replacement for the gentleman from Virginia, but let me extend 
my personal welcome to each of you here. Pete, it's always good 
to see you back. You've been here several times before. We're 
always glad to see you come back. Gentlemen, we'll begin with 
opening statements at this time and Mr. Geren, we'll start with 
you.

 STATEMENT OF HON. PRESTON M. GEREN, TO BE UNDER SECRETARY OF 
                            THE ARMY

    Mr. Geren. Thank you, Mr. Chairman. Mr. Chairman, Senator 
Levin, members of the committee, I'm honored that the President 
has nominated me to serve as Under Secretary of the Army and to 
appear before your committee. I want to thank President Bush 
and Secretary Rumsfeld for their confidence in me and the 
members of this committee for your consideration. I 
particularly want to thank Senator Hutchison for being here 
this morning and Senator Cornyn, both of them for their very 
kind and charitable words. They've been great friends over the 
years, and I appreciate very much their taking the time to be 
here today. I want to thank Senator Cornyn for recognizing my 
family. I'm delighted that they could be here. I want to thank 
Becky and our girls for their love and support. We appreciated 
the words of Senator Levin and Senator Warner, warm words that 
they gave to all these family members. Thank you very much.
    All of us in public life have people who have helped us 
along the way, friends and family, people too numerous to 
mention. There's one person, however, I'd like to recognize 
today and thank for his friendship and help with my career. He 
was one of your colleagues, Senator Lloyd Bentsen. He's not in 
good health today. I wanted the record to reflect the personal 
affection, appreciation, and gratitude I hold for him. When I 
was young, his leadership drew me into politics. He gave me the 
privilege of working on his Senate staff, and he gave 
generously of his counsel and his support during my time in 
elected politics. I want to thank him and his devoted wife, 
Beryl Ann, for the friendship and generosity they've shown 
Becky and me over the years. Without them, my life would have 
taken a different course.
    To serve as Under Secretary of the Army at this time in our 
Nation's history is a daunting and humbling task. If confirmed, 
I recognize that my success in the job will depend on my 
ability to reach out to others, to those who have devoted their 
lives to the Active, Guard, and Reserve components of the Army, 
to build a team and work effectively with the many stakeholders 
dedicated to the success of the Army.
    I've been asked my top priority. That is an easy one: the 
soldier and his or her family. Everything the Army must 
accomplish depends on recruiting, training, equipping, and 
retaining the finest soldiers in the world, and the family 
cannot be neglected. The old adage, you recruit the soldier, 
you retain the family, is more true today than ever before. Our 
policies and practices must reflect that reality.
    As a former Member of the House, I understand fully Article 
I, Section 8, of the Constitution. If confirmed, I look forward 
to working with this committee in service to the Army. I stand 
ready to answer your questions. Thank you, Mr. Chairman.
    Senator Chambliss. Thank you, Pete, and I would be remiss 
because Watson Brown would be curious why you don't have your 
orange tie on today.
    Mr. Geren. I wore it yesterday.
    Senator Chambliss. Mr. Dominguez.

   STATEMENT OF HON. MICHAEL L. DOMINGUEZ TO BE DEPUTY UNDER 
        SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS

    Mr. Dominguez. Thank you, Mr. Chairman, and thank you to 
this committee for all you do to support the men and women who 
defend the Nation. I am grateful to Senator Allard for his kind 
introduction and to Chairman Warner for recognizing my family 
with me here today. I am also deeply grateful to the President 
for nominating me to this position and to Secretary Rumsfeld 
for his confidence in me and his support of this nomination.
    For the last 4\1/2\ years, I have been privileged to serve 
as Assistant Secretary of the Air Force for Manpower and 
Reserve Affairs. These past years have been a time of trial and 
challenge as well as enormous opportunity. I am proud of the 
airmen with whom I have served, of their sacrifice, their 
achievement, and together with their joint service and 
coalition partners, of the contribution they make to a secure 
future for people who love peace and freedom. It is a great 
honor to be offered another opportunity in service to our 
soldiers, sailors, airmen, marines, and their families. Thank 
you, Mr. Chairman. I look forward to your questions.
    Senator Chambliss. Thank you. Mr. Finley.

 STATEMENT OF JAMES L. FINLEY TO BE DEPUTY UNDER SECRETARY OF 
             DEFENSE FOR ACQUISITION AND TECHNOLOGY

    Mr. Finley. Thank you, Mr. Chairman. Good morning. Mr. 
Chairman, Senator Levin, members of the Senate Armed Services 
Committee, I am deeply honored and humbled with the trust and 
confidence of President Bush to nominate me for the position of 
Deputy Under Secretary of Defense for Acquisition and 
Technology. I'm also very appreciative of Secretary of Defense 
Rumsfeld for his support, trust, and confidence in me 
throughout this nomination process. I particularly also want to 
thank Senator Dayton for his introductory remarks.
    For me, this is a very special occasion. It will be my 
first time, if confirmed, to serve in our government. With over 
30 years of extensive business leadership, it is with great 
passion and experience in acquisition and technology systems 
that I come before you today for consideration of confirmation. 
I am delighted to have my lovely wife, best friend, Sharon, and 
my son, Daniel, and his wife, Jessica, from Connecticut to join 
me here today. Dan is a marine, and needless to say, I feel 
very safe with a marine at our side.
    Mr. Chairman, Mr. Levin, and members of the committee, I 
have further prepared for this hearing by having read the 
recently released Quadrennial Defense Review, as well as the 
Defense Acquisition Performance Assessment Report. I've also 
read title 8, the 800 series section of the National Defense 
Authorization Act for Fiscal Year 2006. As an outsider and 
coming in from Minnesota, it was with great glory to see so 
much snow here this weekend which helped keep me inside 
reading, reading, and reading a fair mountain of documentation.
    Mr. Chairman, thank you for your kind remarks and the 
opportunity to appear before this committee. If confirmed, I 
look forward to working with you and this committee and 
Congress. I stand ready for your questions.
    Senator Chambliss. Thank you.
    Mr. D'Agostino.

 STATEMENT OF THOMAS P. D'AGOSTINO TO BE DEPUTY ADMINISTRATOR 
 FOR DEFENSE PROGRAMS, NATIONAL NUCLEAR SECURITY ADMINISTRATION

    Mr. D'Agostino. Mr. Chairman, Senator Levin, members of the 
committee, I am both humbled and honored to be the President's 
nominee for Deputy Administrator for Defense Programs in the 
National Nuclear Security Administration. I appreciate deeply 
the confidence that the President, Secretary Bodman, and 
Ambassador Brooks have placed in me.
    If confirmed, I'll work with Congress and the 
administration as we continue to assure the safety, security, 
and reliability of our Nation's nuclear stockpile. I am blessed 
to be entrusted by the President to be his nominee and if 
confirmed by the Senate, I hope to lead this organization as we 
continue to move forward in maintaining our Nation's security.
    I've been with the Department of Energy's nuclear weapon's 
program for over 15 years and I've seen great changes in that 
time. Through the Treaty of Moscow, we will reduce 
operationally deployed strategic nuclear weapons to about 1,700 
to 2,200 warheads by December 2012. In addition, the President 
took further steps to reduce the size of the stockpile, both 
deployed and nondeployed. At his direction by 2012, the 
stockpile will be lower by nearly one-half from the 2001 level, 
resulting in the smallest stockpile since the Eisenhower 
administration.
    Also, as described in the administration's Nuclear Posture 
Review, we're in the midst of transforming the nuclear weapons 
complex to implement a responsive infrastructure and to provide 
for a deterrent that does not rely on significant number of 
nondeployed warheads and weapons as a hedge against technical 
uncertainty or geopolitical changes.
    If confirmed, I look forward to working with Congress on 
the transformation of the stockpile and shift to the responsive 
infrastructure. This will present challenges that will shape 
our nuclear forces to reflect the reality that the Cold War is 
over while at the same time maintaining that credible deterrent 
consistent with our national security needs. This is the better 
future for the nuclear weapons program. It's a future of an 
integrated and responsive nuclear weapons enterprise that is 
modernized, cost effective, safe, and secure.
    Service is important to me, and as Chairman Warner 
mentioned earlier, I have over 29 years of military service in 
the United States Navy and 16 years of civil service in the 
Department of the Navy as well as the Department of Energy 
(DOE) and National Nuclear Security Administration. As an 
officer in the United States Navy, I was selected by Admiral 
Rickover and trained as a submarine officer, and in this 
capacity, I managed technically complex high hazard operations 
onboard nuclear submarines. This training instilled in me a 
commitment to quality, discipline, and integrity that are so 
vital and important when dealing with nuclear operations.
    After over 8 years on Active-Duty in the submarine force, I 
continued to serve in the national security arena as a Naval 
Reserve Officer and the civil service as a Propulsion Systems 
Program Manager for the Seawolf Submarine Program. I then moved 
to the DOE and worked in a wide variety of technical and 
management positions in the area of tritium reactor restart, as 
a Deputy Director for the Office of Stockpile Computing, as the 
Deputy Director for the Nuclear Weapons Research and 
Development and Simulation Program, and most recently as the 
Assistant Deputy Administrator for Program Integration. In that 
capacity, I reported directly to the Deputy Administrator for 
Defense Programs to integrate the Stockpile Stewardship Program 
and budget across our three national laboratories, four 
production sites, and the Nevada Test Site.
    For all my professional life, I have focused on service in 
support of our Nation's security and with your support I hope 
to be able to continue this service as a Deputy Administrator 
for Defense Programs. I'm privileged to have been able to serve 
my country and am confident that my experience will serve me 
well, if confirmed.
    Along with service, integrity, perseverance, and the proper 
attitude are important to me. My father taught me that nothing 
is beyond reach as long as you have these attributes. In 1st 
Chronicles, King David said, ``I know my God that you test the 
heart and are pleased with integrity. All these things have I 
given willingly and with honest intent.'' If confirmed, I will 
bring all these things to the Deputy Administrator position and 
to the men and women of Defense Programs who work so hard on 
the important task of preserving our Nation's security. With 
your approval, it will be my great privilege to lead Defense 
Programs as we meet our challenges and work towards a better 
future. Thank you for your consideration.
    [The prepared statement of Mr. D'Agostino follows:]
               Prepared Statement by Thomas P. D'Agostino
    Mr. Chairman, Senator Levin, and members of the committee, I am 
both humbled and honored to be the President's nominee as Deputy 
Administrator for Defense Programs in the National Nuclear Security 
Administration at the Department of Energy. I appreciate the confidence 
that the President, Secretary Bodman, and Ambassador Brooks have placed 
in me. If confirmed, I will work with Congress and the administration 
as we continue to assure the safety, security and reliability of the 
nuclear weapons stockpile to meet our national security requirements. I 
am blessed to be entrusted by the President to be his nominee, and if 
confirmed by the Senate, I hope to lead this organization as we 
continue to move forward in the work of maintaining our Nation's 
security.
    I have been with the Department of Energy's (DOE) nuclear weapons 
program for over 15 years, and have seen great changes in that time. 
Through the Treaty of Moscow we will reduce operationally-deployed 
strategic nuclear weapons to 1,700-2,200 by December 2012. In addition 
the President took further steps to reduce the size of the stockpile, 
both deployed and nondeployed. At his direction, by 2012, the stockpile 
will be lower by nearly one-half from the 2001 level, resulting in the 
smallest stockpile since the Eisenhower administration. Also, as 
described in the administration's Nuclear Posture Review, we are in the 
midst of transforming the nuclear weapons complex to implement a 
responsive infrastructure to provide for a deterrent that does not rely 
on a significant number of nondeployed weapons as a hedge against 
technical problems or geopolitical changes.
    If confirmed, I look forward to working with Congress on the 
transformation of the stockpile and the shift to a responsive 
infrastructure. This will present challenges that will shape our 
nuclear forces to reflect the reality that the Cold War is over, while 
at the same time maintaining a credible nuclear deterrent consistent 
with our national security needs. This is the better future for the 
nuclear weapons program--a future of an integrated and responsive 
nuclear weapons enterprise that is modernized, cost-effective, safe, 
and secure.
    Service is important to me. I have over 29 years of military 
service in the United States Navy and over 16 years of civil service in 
the Department of the Navy and then the DOE and National Nuclear 
Security Administration. As an officer in the U.S. Navy, I was selected 
by Admiral Rickover and trained as a nuclear submarine officer. In this 
capacity I managed technically complex, high-hazard operations on board 
nuclear submarines. This training instilled in me a commitment to 
quality, discipline, and integrity that are so important when dealing 
with nuclear operations. After over 8 years on Active-Duty in the 
submarine force, I continued to serve in the national security arena as 
a Naval Reserve Officer and in the civil service as a propulsion 
systems program manager for the Sea Wolf submarine program. I then 
moved to the DOE and worked in a wide variety of both technical and 
management positions, in the areas of tritium reactor restart, as 
Deputy Director in the Office of Stockpile Computing, as the Deputy 
Director for Nuclear Weapons Research, Development and Simulation, and 
most recently, as the Assistant Deputy Administrator for Program 
Integration. In that capacity, I reported directly to the Deputy 
Administrator for Defense Programs to integrate the Stockpile 
Stewardship Program and budget across four production sites, three 
national laboratories, and the Nevada Test Site.
    For all of my professional life I have focused on service in 
support of our Nation's security. With your support I hope to be able 
to continue this service as the Deputy Administrator for Defense 
Programs. I am privileged to have been able to serve my country and am 
confident that my experience will serve me well if confirmed.
    Along with service, integrity, perseverance, and the proper 
attitude are important to me as well. My father taught me that nothing 
is beyond reach as long as you have these attributes. In First 
Chronicles, King David said, ``I know, my God, that you test the heart 
and are pleased with integrity. All these things have I given willingly 
and with honest intent.'' If confirmed, I will bring all of these 
things to the Deputy Administrator position, and to the men and women 
of Defense Programs who work so hard on the important task of 
preserving our Nation's security. With your approval, it would be my 
great privilege to lead Defense Programs as we meet our challenges and 
work towards a better future. Thank you for your consideration.

    Senator Chambliss. Thank you.
    Senator Levin.
    Senator Levin. Mr. Chairman, thank you. First, Mr. Geren, 
let me ask you a few questions. The Army plans to increase the 
operational force by about 40,000 people. In your written 
answers to the committee you wrote that there's a two-phase 
approach to reduce the institutional Army by first converting a 
total of 27,000 spaces from military to civilian, and I'm 
wondering if you can tell us about that plan. Is it 
progressing?
    Mr. Geren. I don't know the details of the plan, Senator, 
but the plan is to move 40,000 faces into the operational Army. 
They intend to meet the needs in the institutional Army three 
ways: one through military/civilian conversions, another is in 
some cases discontinuing practices that are determined no 
longer to be relevant, and the other is through contracting, 
outsourcing, and other business transformation initiatives. 
They have, as I understand it, have moved 7,000 or 8,000 
already into the operational Army. I don't know the timetable. 
I'd be glad to furnish the details of it for the record.
    [The information referred to follows:]

    The Army has been evaluating force requirements within the End 
Strength Plan outlined by the Secretary of the Army in August 2005. 
Under this plan, the Army is building an expeditionary, campaign 
quality force capable of meeting the broad and complex array of 
challenges while ensuring its forces remain the preeminent land power 
and ultimate instrument of national resolve. The operational force grew 
by approximately 20,000 spaces from fiscal year 2004 to fiscal year 
2005 (315,000 to 335,000) and is forecasted to grow another 10,000 
spaces from fiscal year 2005 to fiscal year 2006 (335,000 to 345,000). 
The Army will achieve the goal of a 355,000 space operational force in 
fiscal year 2007. The Army will realize this growth through gaining 
efficiencies in its institutional force and through Business Process 
Transformation. The Army's goal is to attain a reduction to 75,000 
soldiers in its institutional force and reduce the transients, 
trainees, holdees, and students (TTHS) to 52,400 Soldiers. The 
military/civilian conversion plan is a key component of the overall 
Army End Strength Plan. A two-phase approach to reduce the 
Institutional Army through military-to-civilian conversion is being 
executed. Phase I (fiscal year 2005-2009) will convert up to 11,000 
positions. Phase II (fiscal year 2008-2011) will convert up to 14,000 
additional positions and is under review by major commands. Through 
fiscal year 2006, we have converted 9,644 Active military positions. 
Business Process Transformation will streamline or eliminate redundant 
operations to free up human resources to redirect to the operational 
force.

    Senator Levin. Thank you. In your written answers to the 
committee you wrote that one of your highest priorities would 
be to work with the Secretary of the Army to enhance the Army's 
coordination and communication with Members of Congress and 
staff. As a prior member of the House of Representatives and 
its Armed Services Committee, I think you have personal 
experience. Your commitment is very important to us. Do you 
have any specific recommendations that you would give to the 
Secretary of the Army on how to improve the Army's relationship 
with Congress?
    Mr. Geren. I know that he shares the same commitment to 
work with the House and with the Senate, and understands fully 
Article 1, Section 8 of the Constitution. I believe strongly 
that if we are going to do our jobs well in the DOD or, if 
confirmed, the United States Army, we cannot do it without 
being full partners with Congress. The Army has to remain 
connected to the people that we represent, has to remain 
connected to the people of the Nation, and in addition to the 
partnership serving our ability to make the right decisions 
about the Army and lead the Army properly, Congress helps us 
stay connected with the American people. The American people 
must retain faith in the United States Army. They entrust their 
sons and their daughters to the care of the Army. They send 
their Army all over the world, and I believe a strong, vital 
relationship with Congress is key to maintaining that 
connection to the people.
    Senator Levin. As Special Assistant to the Secretary of 
Defense, you were the liaison to Congress on detainee abuse 
issues. You may know that I have initiated a factfinding effort 
to fill in some of the gaps in the DOD investigations into 
detainee abuses and to examine issues of accountability for 
policies, practices, and activities that may have contributed 
to such mistreatment. Will you cooperate with me in that 
effort?
    Mr. Geren. I will cooperate, Senator. As I understand it, 
the Office of Secretary of Defense has your request under 
consideration, but I can assure you, sir, as I have over these 
last 2 years, I worked very hard to be forthcoming and provide 
transparency and work with you and with your staff in making 
sure that we answer all your questions and provide you the 
information you need.
    Senator Levin. Will you help us get answers from persons 
that you have some control over or influence with?
    Mr. Geren. Yes, sir, to the extent I can. As I said, the 
Office of Secretary of Defense is, I believe, taking that issue 
on and I'll work with them and work with Congress. I know their 
goal would be to cooperate to the extent possible.
    Senator Levin. We also would appreciate, not just that kind 
of support and cooperation, but also prompt responses as well. 
Can we count on you for that?
    Mr. Geren. I understand the value of promptness, yes, sir.
    Senator Levin. Are you aware of any additional authority 
that the Army needs to mobilize the Army National Guard and 
Army Reserve personnel when they are needed?
    Mr. Geren. Yes, sir. As I understand it, there are a couple 
of initiatives that the Army would like see enacted to support 
their mobilization needs. One is, under the President's 
authority to call up the Guard, we would like to extend it from 
270 days to a year, I believe, and also provide the opportunity 
on a voluntary basis, to make guardsmen available for training 
in advance of mobilization in excess of 39 days a year. I think 
those are the priorities for the Army.
    Senator Levin. Thank you. Mr. Dominguez, the Washington 
Post a few days ago reported that the Army is projecting a 
shortage of 3,500 Active-Duty officers in career fields 
strained by the wars in Iraq and Afghanistan. They indicated 
one of the measures the Army is taking to address this 
shortfall is recalling officers who have completed their 
Active-Duty commitments and are fulfilling the remainder of 
their military service obligations in the Individual Ready 
Reserve. Are you familiar with those alleged shortages in the 
junior officer ranks?
    Mr. Dominguez. Sir, only generally from my conversations 
with my counterparts and my reading in the media.
    Senator Levin. Okay. Now, the Air Force as well as the Navy 
is downsizing and seeking incentives for excess officers to 
leave the Service. If confirmed, will you take actions to 
attempt to ensure that Air Force and Navy officers who have the 
skills, training, and experience that are in short supply in 
the Army are encouraged to serve in or with the Army?
    Mr. Dominguez. Oh, absolutely, Senator.
    Senator Levin. Mr. Chairman, I just have a few questions of 
our other nominees. With your permission, and if Senator Dayton 
would allow me; then I'd be able to get on to another 
commitment that I have, and I would appreciate that.
    Secretary Dominguez, there is an article in the Washington 
Post on February 9, 2006, where the columnist, Robert Novak, 
asserted that Active-Duty servicemembers are being offered to 
Republican county chairmen to speak in a duty status about 
their experiences in Iraq. Are you aware of any such activity?
    Mr. Dominguez. No, Senator, I am not.
    Senator Levin. Mr. Finley, you've indicated you have read 
the Defense Acquisition Performance Assessment (DAPA). I'm 
wondering now if you would tell us what you see as the most 
serious problems in the DOD's acquisition of major weapons 
systems and what steps you believe we should take to address 
those problems, either from that review or from your own 
personal experience.
    Mr. Finley. Thank you, Senator Levin. The problems and 
issues are fairly detailed in the DAPA Report. The number one 
issue that was identified was oversight, number two issue was 
acquisition strategy, and the number three issue was the 
requirements and instability requirements. What I see is 
bringing my experience from the business world into this arena 
of requirements creep. Scheduled growth and budgeting would put 
more stability in what they call the bigger A concept as 
opposed to just focusing on individual program performance 
areas.
    Senator Levin. Mr. Finley, the acquisition of contract 
services is too often neglected by senior DOD acquisition 
officials who spend much of their time on major weapons 
systems. If you are confirmed, can you make it a top priority 
to improve the management of contract services within the DOD?
    Mr. Finley. Yes, sir.
    Senator Levin. All right. I just have one question for Mr. 
D'Agostino and that has to do with the Robust Nuclear Earth 
Penetrator (RNEP) Program. Do you know if the budget request 
for fiscal year 2007 includes any money for RNEP or RNEP-
related activities?
    Mr. D'Agostino. Senator Levin, there's no money requested 
or resources requested for the RNEP in the fiscal year 2007 
President's budget.
    Senator Levin. Thank you. Mr. Chairman, again, my thanks to 
you and to Senator Dayton.
    Senator Chambliss. Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman. I want to thank 
all four of you for your willingness to serve. Mr. Geren, 
yesterday we had a hearing with the Secretary of the Army and 
the Chief of Staff of the Army and a subject that came up 
frequently was the plans for the National Guard. This occurred 
in part because of a lack of ongoing communication with the 
Adjutant Generals and even Governors that led to quite a flurry 
of contacts between Members of the Senate and the House in the 
last couple of weeks. Yesterday, both the Secretary and the 
Chief of Staff made a commitment to involve the Adjutant 
Generals in ongoing communication about the future plans. I 
would ask if you'd be willing to make that same commitment and 
assure us when you arrive in your position that ongoing 
communication does in fact occur.
    Mr. Geren. Yes, sir, I certainly would.
    Senator Dayton. All right. Thank you. Secretary Dominguez, 
Senator Allard referenced the situation with the Air Force 
Academy and the plan, or the program, to combat sexual abuse. I 
wonder if you could give some particulars because that's a 
subject of great interest to the members of this committee. 
What has been done there? What has been instituted? How is it 
judged to be effective, and why is it a model for the other 
academies?
    Mr. Dominguez. Yes, sir. Thank you. Senator, my colleagues 
and I responded aggressively to this challenge. We addressed 
this problem openly, consulting with Congress and keeping the 
press informed. We sought, from outside experts, assistance in 
understanding the problem and in fashioning our attack upon the 
problem. We focused on prevention through clarified roles and 
responsibilities, and we improved training. We improved our 
response capabilities through assignment of full-time sexual 
assault response coordinators, training for victim advocates, 
training for first-responders, and, importantly, implementation 
of a confidential reporting avenue. We regained the trust and 
confidence of our men and women so that they know when they 
report this crime they'll be protected and we will seek 
justice.
    Senator Dayton. Let me ask, how do you know you have their 
trust and confidence? How do you determine that?
    Mr. Dominguez. Sir, we monitor that through surveys, both 
incidents of sexual assault as well as surveys of the attitudes 
of our young men and women regarding their trust and confidence 
in command. We've seen a major turn-around in that. The 
openness with which we address it and continue to address it, 
the specific actions that we took, and the monitoring of that 
data and putting that data out in front, again, in the open, is 
one of the ways we do that. If you're interested, Senator, the 
Academy Board of Visitors will be meeting this week, and 
they'll see the statistics from the surveys in that public and 
open forum.
    Senator Dayton. I thank you for your contributions to that. 
That's a very important, urgent in fact, reform. Thank you.
    Mr. Finley, acquisitions and better efficiencies in 
contracting seems to be the Sisyphus that afflicts the DOD. 
You've been on the other side in the private sector. Could you 
identify what you think are the principal problems and 
therefore, opportunities for improvements that will make the 
system process more efficient, save taxpayers dollars? What's 
going to be critical now is to stretch every defense dollar to 
go even farther.
    Mr. Finley. Yes, sir. Senator Dayton, I feel a fundamental 
common denominator from a business point of view is the 
workforce. The people in the workforce make things happen, both 
in the senior management all the way down to the people who 
clean the floors at night. The first ingredient, I believe, you 
need to have is good people. Fundamentally, I believe our men 
and women in uniform, as well as our civilian forces, are good 
people.
    The second requirement is: do they have the right skill 
sets and have we trained them properly and have we supported 
them properly to get that training? The third requirement is 
getting those skilled people in the right place. I believe that 
is one of management's biggest challenges, and yet an 
opportunity to stop requirements creep, stop cost growth, get 
things that are stable from a planning point of view, and push 
this ability of the people, accountability, responsibility, 
down to the lowest level.
    If confirmed, sir, in OSD, I would see a more value-added 
approach to business, looking strategically at the services 
from the standpoint of eliminating duplication and focusing on 
core competencies of technologies to enable our acquisition 
systems to be more successful, reducing the cycle of time and 
meeting or beating the budget requirements.
    Senator Dayton. Thank you. Mr. Chairman, that concludes the 
questions I have.
    Chairman Warner. Senator Chambliss, thank you, sir, for 
taking the chair while I had to be upstairs for a minute.
    Senator Chambliss. Thank you, Mr. Chairman. Mr. Geren, you 
and I go back to our days in the House, particularly serving 
together on the House Armed Services Committee where you were 
such a strong supporter of our men and women in uniform as well 
as various weapons systems that they need to make sure that we 
are the world's strongest military. I can't thank you enough 
for your service that you gave to them and to people of Texas, 
both in the House and in DOD.
    In your service in the Pentagon since September 2001, I 
have had the opportunity to work with you on a number of issues 
but to also observe your commitment to the defense of this 
country. I thank you for your continued willingness to serve 
the people of our country.
    Mr. Geren. Thank you for your kind words. I appreciate it 
very much.
    Senator Chambliss. Mr. Dominguez, let me focus on an issue 
with you that is very critical to the national security of this 
country. About a year ago, we had an issue in the budget 
relative to the multiyear purchase of the C-130J airplane. 
Obviously, coming from Georgia, that program is very important 
to me from a parochial standpoint, but more significantly, it's 
been important to me long before it became a parochial issue 
with me because not one nut or bolt of that airplane was made 
in my former congressional district.
    Last year when the budget coming from the President sought 
to terminate that multiyear contract, there was a lot of angst 
raised on Capitol Hill not just by my office but by dozens of 
Members of the Senate, dozens of Members of the House, and the 
end result of that was the reinstatement of that multiyear 
contract. Now, one of the problems we had was the fact that 
that contract when it was initiated was a commercial contract, 
which is a little bit unusual from a procurement standpoint, 
and at the request of Senator McCain and in discussion within 
this committee, the decision was made to convert that 
commercial contract back to a more traditional contract.
    Would you tell me what your involvement has been from the 
early days of last year in the conversion of that contract back 
to the more traditional form of procurement contract?
    Mr. Dominguez. Certainly, Senator. My involvement was or 
began when I became the Acting Secretary of the Air Force on 
March 28, 2005, and continued through to July 28 when I handed 
the baton off as Acting Secretary. So I inherited a budget 
proposal that was under review by the Secretary of Defense. I 
also inherited this discussion with Congress over the propriety 
of terminating the contract and of the propriety of it being a 
commercial acquisition. We had as you're very aware, Senator, 
several years of struggle, controversy, between the United 
States Air Force and Congress of the United States with regard 
to some of our acquisition programs, and I inherited that as 
well. I made it my priority, therefore, during my tenure as 
Acting Secretary, the number one objective I sought was to 
restore the trust and confidence that the Members of Congress 
of the United States had in the Air Force leadership and our 
ability to acquire weapons systems for the use of the Armed 
Forces of the United States.
    With that background and the controversy about the 
commercial acquisition of that platform, I made the commitment 
to convert that platform or that multiyear contract into a more 
traditional acquisition contract. We approached that, again as 
you pointed out, sir, decision to terminate the contract which 
was in the President's budget and was reversed by the Secretary 
of Defense about May 10. About May 11, Congress legislated a 
prohibition against termination of the contract.
    So our efforts focused on modifying the clauses in the 
contract to acquire the visibility into production costs that 
would be analogous to the kind of visibility we would have had 
if back in the 1990s we had started this as a traditional 
weapons system acquisition. That's the course I set. That 
journey was continuing at the time I left, but we had not 
achieved success yet.
    Senator Chambliss. Now, were you involved in the original 
decision to make this a commercial contract?
    Mr. Dominguez. Oh, no, sir.
    Senator Chambliss. During the time that you were involved 
in this, did you ask the question, or what was the answer to 
the question, of whether or not this had ever been done before?
    Mr. Dominguez. Sir, I knew that this had not been done 
before. I can't say for sure that I knew before I made the 
commitment, but I was confident in our acquisition community 
and in our partners in Lockheed Martin that they could do what 
needed to be done.
    Senator Chambliss. During the course of the work that 
you've done on this conversion, have you found the Air Force as 
well as Lockheed Martin to be very open in trying to come to 
the type of conclusion that this committee mandated in the 
legislation that was passed in May 2005, and that ultimately, 
became law in January 2006?
    Mr. Dominguez. Sir, absolutely. As I said, my first 
priority was restoring trust and confidence of Congress in our 
leadership and our stewardship. I insisted that we be open, and 
as a result of that, the Air Force acquisition professionals 
reached out to the Office of the DOD Inspector General (IG) to 
bring them into the discussions. They reached out to the 
Defense Contract Audit Agency to bring them into the 
discussions. After they had made what they considered 
sufficient progress and thought they had the target in sight, 
they reached out to Congress and the staff of this committee to 
get feedback on their concept.
    Senator Chambliss. So the involvement of the Office of 
Inspector General was initiated by you as opposed to somebody 
questioning what was happening relative to the conversion?
    Mr. Dominguez. That's correct, sir.
    Senator Chambliss. During all of this time that you were 
involved in this, and tell me again the exact time period that 
you were so involved.
    Mr. Dominguez. March 28 was when I became the Acting 
Secretary of the Air Force. About April 13 is when I visited 
with Senator McCain. General Jumper and I committed to convert 
this contract to a more traditional acquisition footing, and 
then July 28 was when I handed the baton as Acting Secretary 
off to my successor.
    Senator Chambliss. So, basically, about a 4-month period 
was all of the time that you were involved in this and that was 
at the initial time of the conversion of this contract to the 
more traditional form.
    Mr. Dominguez. That's absolutely correct.
    Senator Chambliss. Now, during that time, what were the 
comments or findings of the Office of Inspector General 
relative to the work towards converting this contract?
    Mr. Dominguez. Sir, I don't know of any specific comments 
during my tenure. I know because in preparation for this 
hearing I've reviewed the history of what transpired. The 
consultant that the Air Force acquisition team had working with 
them through the summer and from the period of about July 28 
when I actually left the office through the early fall, that 
consultant was onboard with the approach the Air Force had 
proposed. He thought it met the spirit of the congressional 
intent and was supportive, and I know by participating in the 
ongoing dialogue with Members of Congress and Congress' staff.
    Senator Chambliss. After the meeting that you and General 
Jumper had with Senator McCain, which I believe you said was 
April 13, was there any further discussion between you or 
members of your staff with members of this committee or staff 
of this committee?
    Mr. Dominguez. No, sir. I think that is my deepest regret 
at this point, that I did not initiate during my tenure a 
followup conversation with the important members of this 
committee to apprise you of our strategy and the fact that we 
were, in fact, just modifying clauses in an existing multiyear 
contract to add the cost visibility.
    I did not come back and say, ``that was our strategy, are 
you okay with it?'' Nor did I apprise you of the fact that we 
planned, and to iterate we were going to bring back a product 
that had never been done before for us all to look at and see 
if we liked it. But I didn't communicate that clearly, and so 
there was an unfortunate misunderstanding that erupted 
downstream as a result of that omission on my part, sir.
    Senator Chambliss. Was there ever any intention to deceive 
this committee relative to the language which was included in 
the authorization bill in May 2005?
    Mr. Dominguez. Absolutely not, Senator.
    Senator Chambliss. By the same token, did you receive any 
questions relative to the work on this contract during that 4-
month period from any member of this committee or staff of a 
member of this committee?
    Mr. Dominguez. I do not recall, Senator, receiving any 
communication. I hope that there was communication between our 
team and the staff but I don't know it. They didn't apprise me 
of it, and I received no direct inquiry.
    Senator Chambliss. Now, was it your intention to carry out 
the terms of the directive that this committee made in the 
authorization bill?
    Mr. Dominguez. Yes, sir. I have scrupulously followed the 
law, the intent of Congress, and the committee reports.
    Senator Chambliss. At the time you left on July 28, 2005, 
did you think that was well underway?
    Mr. Dominguez. Absolutely, Senator. I thought we were 
making great progress.
    Senator Chambliss. Have you had any further involvement in 
this program or in the transformation of this contract since 
that time?
    Mr. Dominguez. No, Senator, only the last week of fact-
gathering so that I might be able to answer questions at this 
hearing.
    Senator Chambliss. Who replaced you from the standpoint of 
the Air Force's participation in the conversion of this 
contract?
    Mr. Dominguez. Sir, I was replaced as the Acting Secretary 
of the Air Force by the Honorable Pete Geren who, as a result 
of there not being an Assistant Secretary of the Air Force for 
Acquisition, also became the Service Acquisition Executive. I 
handed the baton off to my friend, Mr. Geren.
    Senator Chambliss. Were you satisfied at that time that 
everything requested by this committee was in fact moving 
forward in accordance with the directions of the legislation 
that had been passed by this committee?
    Mr. Dominguez. Sir, that was my belief.
    Senator Chambliss. Okay. Mr. Geren, let me ask you, you've 
served as Acting Secretary of the Air Force from April 28 until 
I believe, sometime that fall.
    Mr. Geren. July to early November.
    Senator Chambliss. Tell me what involvement you had with 
respect to the changing of this contract from a commercial 
contract to the more traditional form?
    Mr. Geren. I had no involvement with it at all, sir.
    Senator Chambliss. Okay. Mr. Chairman, I thank you for your 
leniency, and I have some documents that I would request I be 
authorized to enter into the record, particularly the testimony 
of Under Secretary of Defense for Acquisition, Technology, and 
Logistics, Ken Krieg, during his confirmation hearing, news 
release coming out of the Air Force dated April 13----
    Chairman Warner [presiding]. Senator, you just advise the 
staff and without objection we'll put those in.
    Senator Chambliss. Thank you.
    [The information referred to follows:]
      
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Chairman Warner. I'd like to advise the witnesses that I 
anticipate Senator McCain will be down. He's been very active 
in this matter, and he will, I hope, have the opportunity to 
come down and pursue a line of questions on it, but I thank 
you, I think you inquired into it very thoroughly. It's a 
matter of concern to the committee, but this is an aircraft 
that's been a workhorse. It's an essential one for the 
inventory of our services, and I think it's important that this 
committee look at the continuing needs and requirements for 
this aircraft and make a decision. I thank the distinguished 
Senator for his participation in filling in for a while for me 
this morning.
    Senator Chambliss. Thank you, Mr. Chairman.
    Chairman Warner. I think I'll depart again from formal 
procedure and recognize our colleague, Senator Thune. You've 
always been very patient to wait. Why don't you take your 
opportunity at this time, and then I'll come back in with a 
series of questions.
    Senator Thune. Thank you, Mr. Chairman. That's the 
disadvantage of being at the end of this line. I appreciate 
your leadership on this committee and getting the active 
participation of all of us here, including the freshmen 
members.
    Mr. Geren, Mr. Dominguez, Mr. Finley, and Mr. D'Agostino, I 
want to welcome you and thank you for your commitment to public 
service, for your records of service, and your careers and all 
the things you have done for this country, and for your 
willingness to put your names forward and continue to be 
involved. I appreciate as well, the opportunities that I've had 
to visit with you, your responsiveness to questions and issues 
that we have raised that apply to not only my State but also to 
this Nation, and the important work that our military is 
undertaking all over the planet.
    Just a couple of questions, and I direct this one to Mr. 
Geren. The Air Force and the Army have been working since 2004 
to create a joint program with the Army's future cargo aircraft 
which addresses the Army's organic lift gap and the Air Force's 
light cargo airlift, which addresses the Air Force's gap in 
intra-theater airlift capability. There have been some reports 
that, in addition to organic lift, Army wants to take over the 
intra-theater airlift and that there is supposedly a fight 
brewing between the Services.
    With your time as Acting Secretary of the Air Force, you're 
probably aware of this issue. I guess my question has more to 
do with any implications based on which direction this program 
leads, and how you will work to resolve this issue to meet the 
needs of both Services.
    Mr. Geren. Thank you for that question. I'm not familiar 
with the details of the program or the discussions or 
negotiations. I know organic fixed wing and rotary transport 
within theater is a high priority for the Army and, if 
confirmed, it's a matter which I would want to be involved with 
in advising the Secretary as part of his consideration. Beyond 
that, I don't have familiarity with details sufficient to offer 
an opinion at this time. I'd be glad to offer something for the 
record.
    Senator Thune. Okay. That would be great if you could. We'd 
welcome that.
    Mr. Geren. Thank you.
    [The information referred to follows:]

    The Future Cargo Aircraft is a complementary system that fills a 
gap at the tactical (as opposed to operational or strategic) level; 
what we refer to as the Last Tactical Mile. The jointness of the 
program is already reflected in the Acquisition Strategy Report (ASR) 
for Future Cargo Aircraft (FCA)/Light Cargo Aircraft (LCA). In 
addition, the Services have developed a draft memorandum of agreement 
we anticipate will be signed by the Vice Chiefs of Staff no later than 
May 1, 2006, and a Joint Program Office (JPO) charter that will be 
signed by the Services' Acquisition Executives about the same 
timeframe. These two documents will establish the JPO effective October 
1, 2006, in Huntsville, Alabama, with the Army as the lead agency. The 
Army still plans to begin fielding FCA to its aviation force in fiscal 
year 2008. The USAF plans to field the LCA approximately 2 years later. 
In summary, we are a joint (Army/Air Force) team working together to 
field the best equipment possible to meet the combatant commander's 
needs.

    Senator Thune. Mr. Dominguez, several of these issues I 
suspect have been touched upon. I don't want to plow ground 
that's already been covered, but one of the issues that has 
been raised relates to transforming the force into the modern, 
lean force of the future. That's been, obviously, a top 
priority for the Department, and some would argue that that 
transformation into a smaller force is not feasible when we're 
fighting a global war on terrorism. We have a lot of airmen, 
soldiers, marines, and sailors who have served multiple tours 
supporting the war effort, and I guess my question is how do we 
effectively cut end strength while simultaneously fighting the 
war without burning out our troops?
    Mr. Dominguez. Sir, thank you. Senator, that's an important 
question. The answer to it is likely to be service specific. 
The Navy and the Air Force, in particular, sir, are platform-
centric and technology-driven arms. While we have in the Air 
Force, for example, some career fields that are challenged as a 
result of the demands of the global war on terror, many other 
career fields are not. So it's a question of rationalizing that 
structure in those Services. With regards to the Army, I am 
just generally familiar with Secretary Harvey's plan that to 
move soldiers out of what they call the institutional Army, 
that part of the Army that runs the infrastructure, runs the 
training establishment, does the acquisition programs, and try 
and move soldiers out of that so that those soldiers are freed 
to meet the needs and demands in the combat force structure. I 
think that strategy of getting leaner and more efficient in our 
business operations, getting soldiers out of those jobs that 
don't require soldiers, and move the soldiers back into the 
combat structure that'll take the stress out of that component 
of force structure. I think Secretary Harvey is fairly 
confident he can accomplish that within the end strength plans 
that he's shared with this committee.
    Senator Thune. Let me direct one question to Mr. Finley 
that has to do with acquisition reform. That's something I know 
that you also probably covered this morning. There are, in that 
whole process, factors including cost growth and schedule 
delays that continue to drive a decrease in procurement 
quantities. I know some of the contributing factors in cost 
growth are under-estimating programs, technical problems, 
schedule slips, requirements changes, those sorts of things. 
I'll take the F-22, and I don't single that out for any 
particular reason, but originally the Air Force sought to 
procure, I think it was, over 600, 648 F-22s at a unit cost of 
approximately $125 million and due to late maturation of 
technology, costs have skyrocketed and the schedule has 
slipped. Now the Air Force is procuring, I think the number is 
183, F-22s at a unit cost of approximately $361 million. That 
amounts to 189 percent increase in the cost per unit. Again, 
just selecting the F-22 for no particular reason other than to 
demonstrate the extent of the problem. This is not an easy 
issue to resolve overnight but at the same time we can't take 
years to get it right. I'd be interested in what your thoughts 
or observations are on actions that we need to take in the area 
of acquisition reform.
    Mr. Finley. Thank you, Senator Thune. I couldn't agree with 
you more, sir. Great to see you again, sir.
    Senator Thune. Good to see you again.
    Mr. Finley. I believe these problems are not simple. I 
think they're complex. Reading a Government Accountability 
Office (GAO) report over the weekend, I forget the exact title 
of it, but one of the things that did strike me in the F-22 
program in particular was something in the neighborhood of 14 
baselines. The ways to solve these problems I think are also 
complex, but we have to keep them simple. One way is to help 
get technology maturity faster in the program sooner rather 
than later. Sooner rather than later on technology maturity 
affects a lot of things in terms of the fielding and the 
operational capability of the aircraft. The F-22 is certainly 
not the only major weapon system. I've now become familiar with 
a number of them. Getting technology maturity upfront earlier 
in the acquisition process, I believe, is absolutely critical 
as one dimension in stabilizing a program and also firming up 
requirements so you do not have this situation, requirements 
creep, over and over again. That needs to be stopped.
    If confirmed, sir, it will be a very high priority on my 
agenda to dig into these details and try to assist and help 
stop these events from happening.
    Senator Thune. I appreciate your answers to those questions 
and look forward to working with each of you in your various 
capacities to make sure that we have the leanest, meanest, most 
effective warfighter out there and at the best possible cost to 
the taxpayer. I think it's really important recognizing that 
it's expensive to be the world's super power and to have the 
strongest, most lethal military in the world. I know that is 
something that we have to deal with in terms of budgets and 
that's obviously something that I, and I think every member of 
this committee and hopefully most Members of Congress, are 
incredibly committed to.
    At the same time, we also have a responsibility to make 
sure we're getting the best possible return to the taxpayers to 
accomplish that objective. So we thank you for your service and 
look forward to working with each of you. Mr. Chairman, I yield 
back the balance of my time.
    Chairman Warner. I thank you, Senator, and I'd like to 
recognize right away Senator McCain and I'll follow with my 
questions after Senator McCain.
    Senator McCain. Thank you very much, Mr. Chairman. For some 
time, this committee has been concerned with accountability in 
defense procurement practices. So much so that on May 17, 2005, 
this committee reported out the National Defense Authorization 
Bill with a provision which prohibited purchase of C-130J 
aircraft unless it was a Federal Acquisition Regulation (FAR) 
Part 15 traditional military procurement contract. The statute 
which is now law is simple. Any C-130J, KC-130J aircraft 
procured after fiscal year 2005, including C-130J, KC-130J 
aircraft procured through a multiyear contract continuing in 
force, et cetera, et cetera, should be procured through a 
contract under Part 15 of the FAR relating to acquisition of 
items by negotiated contract rather through a contract under 
Part 12 of the FAR. What it means is that we required the C-
130J procurement to go through the normal contracting 
procedures which apply to any major procurement. The Part 12 of 
the FAR, and I could quote from the law, is for commercial or 
small business entrance, clearly not applying to the C-130J.
    Now, with regard to the same program, I was assured by Mr. 
Dominguez and General Jumper that in fact the Air Force had 
begun to clean up its act. However, recent developments have 
dissuaded me from that conclusion.
    Today, Mr. Dominguez, I'd like to talk about your 
commitments to me about the C-130J contract. Air Force 
contracting officers and their leadership should never have 
acquired the C-130J using a commercial item acquisition 
strategy, but they did. It was done for 10 years. Had it not 
been for my staff and the DOD Inspector General, not the Air 
Force Inspector General, you with the advice of your 
acquisition experts, would have continued to procure the C-130J 
aircraft under the multiyear procurement as a commercial item 
procurement contract.
    Mr. Chairman, I don't want to take too much time, but there 
was a press release put out by the United States Air Force on 
April 13, 2005, that the Air Force has begun to implement a 
more traditional contract structure with the C-130J. This is an 
Air Force press release. This includes future modifications 
sustainment, they've initiated discussions with Lockheed to 
convert the multiyear to a more traditional structure. I also 
met, oh, it's been quite long ago, the Lockheed Martin CEO who 
assured me that he would be coming forward with information 
concerning this contract, and I've not heard from him since.
    Just a brief chronology: on April 26, 2005, the Airland 
Subcommittee heard testimony which confirmed the Air Force 
acquired the C-130J as a commercial item. So we didn't get the 
cost and pricing information that was to assure it was 
acquiring this aircraft at a fair and reasonable price. On 
April 13, 2005, Acting Secretary Dominguez and Chief of Staff 
of the Air Force Jumper indicated they shared my concerns and 
in so doing they informed me that the Air Force would convert 
the C-130J commercial item procurement contract to a 
traditional military item procurement contract and issued a 
press release stating the same.
    I expressed gratitude at the Air Force receptiveness to the 
subcommittee's concerns. On May 17, the Armed Services 
Committee reported out the Defense Authorization Bill, part of 
the statute I already noted. On June 22, 2005, I wrote 
Secretary Rumsfeld, reiterating my concerns concerning the C-
130J multiyear commercial contract and informed him of the 
commitment by Acting Air Force Secretary Dominguez and Air 
Force Chief of Staff Jumper to change the FAR Part 12 
commercial item to Part 15. Mr. Dominguez received a copy of 
that letter. I also requested my office be advised when the C-
130J contract would revert to a traditional Part 15 program. On 
February 13, 2006, I received a letter from Mr. Dominguez. In 
his letter, he stated he never intended to change the existing 
commercial item procurement contract and instead pressed ahead 
with a modification of the current contract as a commercial 
item procurement contract with FAR Part 15-like clauses added. 
This statement is fundamentally different from what Mr. 
Dominguez and General Jumper committed to me on April 13, 2005, 
concerning the C-130J contract. His position is materially and 
inexplicably changed.
    Furthermore, this statement is in direct contradiction to 
legislation that this committee drafted, the Senate passed, and 
the President signed into law last year.
    Mr. Dominguez, early yesterday evening, my staff received 
the Air Force IG's report on matters related to the C-130J 
program. I wanted to know who authorized using the original FAR 
Part 12 contract with only some terms and conditions changed 
instead of changing the original to FAR Part 15 contract. The 
entire report is based on a false premise that I expected the 
current contract to be terminated and a new one to be rebid. 
That's totally false. Accordingly, its conclusion that only I 
left the meeting last year with you and General Jumper with an 
understanding that so ending the Part 12 multiyear contract was 
required to effect a conversion is nothing more than a 
strawman.
    Equally offensive and ridiculously self-serving is the 
report's conclusion that Air Force officials found it 
``impossible to meet with my military legislative assistant.'' 
It just so happens he was the one who found out that the Air 
Force's new proposal was not substantially different from what 
it had planned to do all along.
    I am gratified by Secretary Wynne's recent assurance to me 
that as of 10 February 2006 the Air Force has executed an 
undefinitized contract action for the fiscal year 2006 aircraft 
procurements under FAR Part 15 embracing all the features for 
audit and cost visibility, but given the IG's report, I need to 
clear up a few points for the record.
    Mr. Dominguez, you and General Jumper met with me in my 
office on April 13, 2005, is that correct?
    Mr. Dominguez. Yes, Senator.
    Senator McCain. During that meeting, you and General Jumper 
assured me--and we'll get a deposition, and remember that when 
you testify before this committee you are testifying under 
oath--during that meeting, you and General Jumper assured me 
that the Air Force would convert the C-130J Part 12 contract to 
a Part 15 contract. Now, before you proceed with that answer, I 
had two staff members in the room taking notes at the time. 
Now, is that correct?
    Mr. Dominguez. To the best of my knowledge, it is, Senator.
    Senator McCain. In providing me that assurance, you never 
intended that only select terms and conditions in the Part 12 
contract be changed, ``to provide the government with nearly 
the same visibility'' into the contractor's cost as would be 
available under a Part 15 approach, is that correct?
    Mr. Dominguez. Senator, I intended to get the cost 
visibility, the visibility into the cost of production of that 
airplane that you and I both needed to assure the American 
people and this committee that we were getting value for the 
taxpayer dollars, Senator. I absolutely wanted to achieve that 
goal.
    Senator McCain. The Air Force IG alleges that you neither 
sought nor received any advice on the feasibility of converting 
the Part 12 contract to a Part 15 version. Is that allegation 
true?
    Mr. Dominguez. Yes. I relied on General Jumper's assurance 
to me. He consulted with our acquisition professionals and with 
the CEO of Lockheed Martin who also agreed that we needed to 
move in this direction and agreed to cooperate with us to get 
there.
    Senator McCain. Of course, this is a multi-billion dollar 
procurement contract program we're talking about here. Were you 
aware that according to the Air Force IG, the legal community 
at the Air Force said that such a conversion was impossible?
    Mr. Dominguez. I was not, Senator.
    Senator McCain. According to the Air Force IG, the Army's 
conversion of the Future Combat Systems (FCS) Operational 
Tasking Authority (OTA) to a Part 15 acquisition was ``much 
simpler than the C-130J situation.'' As you likely know, the 
$168 billion FCS is probably the most complex weapon system in 
the history of the Pentagon. By all estimates, the FCS by an 
order of magnitude more complex than the current $2.4 billion 
C-130J procurement program. I'd like to have the production of 
the December 16, 2005, Memorandum of Understanding between the 
Air Force and Lockheed Martin on the C-130J procurement program 
under which, according to the Air Force Inspector General, 
Lockheed Martin agreed to modify the Part 12 contract to be 
Part 15 compliant. Can you provide the committee with that?
    Mr. Dominguez. Sir, I don't have the authority to do that.
    Senator McCain. Mr. Chairman, I ask that the committee 
subpoena--it's clearly under the supervision and the oversight 
of this committee--a Memorandum of Understanding between the 
DOD and Lockheed Martin on the C-130J procurement program. Why 
don't you have the authority, Mr. Dominguez?
    Mr. Dominguez. Sir, I am not any longer the Acting 
Secretary of the Air Force nor the Service Acquisition 
Executive. I handed those jobs off on July 28, 2005.
    Senator McCain. But they happened on your watch.
    Mr. Dominguez. Sir, I was the Acting Secretary from March 
28, 2005, until July 28, 2005.
    Chairman Warner. If I might interject, Senator, I think 
your request is an important one. We'll take it under immediate 
advisement.
    Senator McCain. Mr. Chairman, I'd like to tell my friends 
at the Pentagon that we went through 3 years on the Boeing 
tanker scam. People went to jail. It was established that we 
saved the taxpayers of America $8 billion by pursuing this, and 
it took us 3 years. I intend to pursue this issue until it is 
completely resolved, and Lockheed Martin is held accountable 
for whatever part they played in this disgraceful performance. 
I do not intend, Mr. Dominguez, to move forward with your 
nomination until this issue is cleared up.
    What has happened here, Mr. Chairman, is the contract--
since I used a lot of legalese and Pentagon jargon--but for the 
record, what has happened here is the C-130J contract was let 
by individuals who still have not been held responsible under a 
``commercial contract.'' Any rational observer knew that there 
was no possible way that there was going to be any commercial 
airline going to purchase a C-130J. Indeed, none did, and none 
has shown any intention of doing so. But using this cover in 
collusion with Lockheed Martin, the contract was let under FAR 
Part 12 which relieves both the manufacturing company and the 
DOD from any accountability of any significant amount. In other 
words, the regular acquisition checks, the audits, et cetera, 
are waived because of that kind of contract. Now, we don't know 
what the cost of a C-130J is going to be. We hear all different 
kinds of numbers. Then, as a result of the Boeing problem, Mr. 
Dominguez and General Jumper, then Chief of Staff of the Air 
Force, come into my office. I said, ``look, this isn't right, 
this isn't right to have this done as a commercial contract 
when it's clear there's going to be no commercial use for this 
aircraft.'' Both Mr. Dominguez and the then Chief of Staff of 
the Air Force not only told me, but issued a press release that 
I just quoted from, that they would convert to FAR 15. My 
staff, looking through the contract, finds out a year later 
that it was really not changed to FAR 15. We pointed it out to 
them at that time, and to my knowledge, it is still not. So 
then we get incredibly, a Department of the Air Force IG 
report, and this is why we're going to need a GAO investigation 
and other organizations looking at this, which by the way, was 
complicit, the Department of the Air Force IG was complicit in 
the Boeing deal, that I believed that there was no conversion, 
or conveyed the impression that there was no requirement to 
convert from a noncommercial acquisition.
    Mr. Chairman, really what this brings up and what we're 
going to have to concentrate on for the next several years here 
is that the procurement system in the DOD is badly broken. 
We've seen the FCS go from $90 billion to $120 billion. In a 
hearing that had to be cancelled yesterday, the GAO will report 
that 9 of the 11 major acquisitions were behind schedule and 
overpriced, and yet received incentive bonuses for being 
overpriced and behind schedule. We've gone in the 1980s, when 
we used to have fixed-cost contracts now to cost plus contracts 
which, of course, in a noncompetitive environment which is 
basically what we have now due to the consolidation of the 
defense industry, an unregulated monopoly. Meanwhile, people 
bounce back and forth from the DOD to the defense industry and 
back and forth. Where are the David Packards of this world? 
Where are the Mel Lairds, even, of this world?
    Mr. Dominguez, I'm sure you're a good man and I'm sure 
you're a decent person and you've tried to be very honest with 
me, but we have to get this cleared up and now we're going to 
get the C-130J cleared up and we're going to get the FCS 
cleared up and we're going to get procurement cleared up so 
that the taxpayers of America can have some kind of confidence 
that their hard-earned dollars are being spent in an efficient 
fashion. I thank you for allowing me this time, Mr. Chairman. I 
have some documents relating to this matter I'd like to submit 
for the record.
    Chairman Warner. Thank you. Good.
    Senator McCain. I look forward to working with you on this 
and what I'm afraid may be another emerging scandal.
    Chairman Warner. Senator, I'll simply say that this 
committee was the last stop for the tanker reprogramming after 
three other committees of the Congress of the United States had 
approved that program. But in consultation with my longtime 
friend and associate here, we decided the buck was going to 
stop on this desk and it did. You have recounted the subsequent 
history where it was determined that this committee was right, 
I repeat, absolutely right in stopping that contract and 
requiring certain other considerations be given to that 
program. Those considerations revealed the flaws that the 
Senator and I felt were present.
    We will similarly handle the matters that you have just 
recited. Do bear with us, Mr. Dominguez. I share the Senator's 
observation that you're a decent and honest man, and you were. 
You've been called on by the President to perform this duty. At 
this time, the Senator and I will continue to work as partners 
until we get to the bottom of this situation. I thank you, 
Senator.
    Senator McCain. Thank you, Mr. Chairman.
    [The information referred to follows:]
               Additional Remarks of Senator John McCain
    For some time now I have been concerned about the Air Force 
acquiring C-130J aircraft as commercial FAR Part 12, rather than as 
military FAR Part 15, items. As a result, the Air Force has not 
required the aircraft's manufacturer to provide it with certified cost, 
pricing, and profit information it needs in order to assure that 
taxpayers are not getting ripped off. Against this backdrop, on 
February 15, 2005, the aircraft's manufacturer Lockheed Martin agreed 
to provide me with specific information necessary to alleviate my 
concerns.
    On April 21 and July 7, 2005, Lockheed Martin did supply me with 
relevant information, regarding cumulative earnings, numbers of C-130Js 
produced, whom they were sold to, aggregate development and 
nonrecurring costs, and pricing history of C-130Js. But, while helpful, 
this information was unfortunately not as responsive to my concerns as 
I would have liked. Because the C-130J program is a commercial FAR Part 
12 contract, Lockheed Martin Corporation is not required, by 
regulation, to apply the same accounting standards and audit provisions 
that are required under FAR Part 15 traditional military procurement 
contracts. This is the basis for my concern.
    Last year, Congress took strong action to reverse the Air Force's 
decision to purchase C-130J aircraft as commercial items and directed 
them to change the contract to a FAR Part 15 traditional military 
contract. The National Defense Authorization Act for Fiscal Year 2006 
includes two provisions (sections 135 and 803 of Public Law 109-163, 
attached) regarding commercial item procurements of major weapon 
systems. One prohibited purchases of C-130J aircraft unless it was 
under a FAR Part 15 traditional military procurement contract. The 
other provision would require the express congressional authorization 
to purchase a major weapon system as a commercial item.
    Since then, the Air Force's plan to convert the C-130J multiyear 
procurement contract from a commercial, to a military acquisition has, 
regrettably, not proceeded as I expected and in accordance with the 
National Defense Authorization Act for Fiscal Year 2006. However, Air 
Force Secretary Wynne has recently assured me that the future 
procurement of C-130J aircraft will proceed in a manner that fully 
embraces all the audit and cost visibility features associated with a 
FAR Part 15 military item procurement contract. I am gratified by this 
assurance and am hopeful that Lockheed Martin and the Air Force will 
work together to resolve the substantial difficulties that have 
beleaguered this program.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Chairman Warner. I'm going to ask Senator Thune if he would 
chair. I'm on another committee and Secretary Chertoff is about 
to be the witness, and my presence is needed there. I hope to 
return here a little later this morning though. Mr. Thune, if 
you will chair the committee.
    Before going though, I do want to ask you one question, Mr. 
D'Agostino, and that is about the $6 billion for the Stockpile 
Stewardship Program. We've followed that very carefully.
    Mr. D'Agostino. Yes, sir.
    Chairman Warner. When I return, I will press on that 
question so be prepared to give me a complete answer.
    Mr. D'Agostino. Yes, sir.
    Chairman Warner. I thank the witnesses. I thank Senator 
Thune for taking over for a few minutes.
    Senator Thune [presiding]. All right. We will continue. 
Chairman Warner has a series of questions that we want to get 
on the record and so I'll start with those. This is directed at 
Mr. D'Agostino. The Secretary of Energy Advisory Board recently 
issued a report titled ``Recommendations for the Nuclear 
Weapons Complex of the Future.'' This report recommended bold 
changes, including shutting down many of the current facilities 
and creating one large consolidated site at a new location. You 
have been part of a DOE team reviewing this report. Do you 
believe this report contained recommendations which merit 
further evaluation or potential adoption by DOE?
    Mr. D'Agostino. Mr. Chairman, I do believe the report 
identified some areas that we should look at. Since last 
November, I have held meetings, brought a team together, we 
have looked at the report very closely. There are basically 
five major recommendations in the report. It turns out we're 
basically proceeding on four of those five recommendations. The 
big open question has to do with the consolidated nuclear 
production complex which you alluded to in your question with 
respect to closing sites across the complex. It's a very 
difficult question to address. It's one that we are proceeding 
on with a certain methodology. The report was clear that there 
are a lot of details behind their broad recommendations that 
they have not yet had a chance to examine, and they recommended 
the Department take a look at the business cases underneath 
their recommendations. We're in the process of taking a look at 
those business cases, running them down and putting something 
together which essentially, as I mentioned in my opening 
statement, would be a responsive infrastructure that brings a 
certain amount of integration and interdependency across our 
production complex. So we are running that down quite seriously 
and we will be briefing the Secretary probably within the next 
few weeks on my recommendations to the Secretary, and we'll be, 
of course, talking and consulting with Members of Congress as 
well.
    Senator Thune. As that process moves forward, I'm sure this 
committee would welcome your insights and recommendations with 
respect to that issue.
    For Secretary Dominguez and Mr. Geren, both of you served 
as Acting Secretary of the Air Force last year and were 
involved in the formulation of interim religious guidelines, 
aimed not only at responding to allegations of religious 
intolerance at the U.S. Air Force Academy, but also at 
providing useful, practical guidance to commanders, chaplains, 
and those in positions of authority. How would you assess the 
initial guidelines and changes that recently were made at the 
direction of Air Force Secretary Wynne? I'll let you answer 
that question first and then I'll do a followup question to 
that. Mr. Geren.
    Mr. Geren. Thank you, Mr. Chairman. I've not had an 
opportunity to see the final product that Secretary Wynne 
issued so I can't speak to the details. I'd like to comment on 
the process though. I think the process was very open. 
Religious matters for all the Services involves some very 
difficult issues to work with as a government and as a 
military, and the Army works with the same issues as well. You 
have to carefully balance the religious freedom that's 
guaranteed under our Constitution, as well as make sure that as 
a Service you don't run afoul of the establishment clause. It's 
an area that Congress has legislated in. In the mid-1990s the 
Religious Freedom Act was enacted by Congress which provides 
the Services guidance, and the Services all have the 
constitutional mission of protecting and defending the United 
States, so there's many competing issues that have to be 
balanced. I think the multiple Secretaries, Acting Secretaries, 
as well as the current Secretary, work very hard to reach out 
to many different people, both inside the Service and outside 
the Service to achieve a proper balance. I have not seen the 
final product but I commend the Air Force for the process they 
went thorough. It was open, it was inclusive, and I'm confident 
that the product was well thought through and well balanced.
    Senator Thune. Secretary Dominguez, do you think that the 
Secretary of Defense should assume a leadership role in the 
effort to devise a comprehensive policy? It certainly would 
appear that the Services are all wrestling with these issues.
    Mr. Dominguez. Senator, as we worked through the issue of 
guidelines, one of the things that we actually discovered was 
the Department's policy in this area is actually quite good, 
and that's really what was necessary, was a conversation to 
help the force understand how to balance these twin 
responsibilities of the non-establishment clause and the free 
exercise clause. I think that we have had a conversation in the 
Air Force, and between the Air Force and the Nation, because 
many thousands of people have commented on these guidelines 
with us. I think that the benefits to the departments now are 
in taking lessons learned from that conversation and rolling it 
into our training, our curriculums, and our professional 
military education so that we don't forget these lessons and 
then err on one side of that fine balance.
    Senator Thune. Mr. Finley. We have covered some of the 
issues with respect to procurement and the length of time it's 
taking to get these weapons systems fielded. We've touched on 
that a little bit, so I won't necessarily re-ask that question, 
but I do want to ask you a question about rapid acquisition 
initiatives. The Department has initiated several technology 
accelerations in rapid fielding initiatives over the last few 
years to respond to emergent needs, such as increased armor 
protection and to counter-improvised explosive device (IED) 
capabilities. In your view, what are the key lessons learned in 
technology transition, test and evaluation, production 
training, and procurement from these processes? I'll let you 
answer that and I'll have a follow-up question to you.
    Mr. Finley. Thank you, Mr. Chairman. I'm not particularly 
familiar with those, the armor initiative nor the IED 
initiative. In industry, having met with numbers of people to 
get a perspective on the rapid deployment of technology, in 
industry, there are very similar processes. As an outsider more 
or less looking in and not knowing the details, but one of the 
key ones is to get the technology maturity up to a level that's 
fieldable for our joint warfighter. If confirmed, sir, I will 
investigate this as a top area of importance in an open and 
transparent fashion and make it a high priority to continue the 
momentum built from those programs, take those lessons learned, 
and factor them into our processes to make them even more 
effective and more efficient.
    Senator Thune. I think it's fair to say that, if you are 
confirmed, those are things that this committee would have a 
great interest in, in learning about a particular plan of 
action that you would take to evaluate the long-term 
application of those expedited processes for rapidly deploying 
needed equipment. It's something that's been discussed a lot in 
front of this committee in trying to shorten up the timeframe 
to get things out there, and to come up with a plan that would 
accomplish that. So from the committee's standpoint, with 
regard to the oversight responsibility we have, we're very 
interested in specifically what you might undertake in order to 
accomplish that objective.
    Mr. Finley. Yes, sir.
    Senator Thune. Again, for Secretary Dominguez and Mr. 
Geren, last year there was strong support in Congress for 
legislation that was aimed at curtailing the ability of so-
called payday lenders to target military personnel for short-
term exorbitant interest loans. We've been told by the senior 
enlisted advisors that financial difficulties at times related 
to payday loans result in indebtedness, lost security 
clearances, and so on. What is your assessment of the steps 
that can be taken within DOD and the Services to put these 
predatory lenders out of business or at least to limit their 
ability to take advantage of the most vulnerable service 
members?
    Mr. Dominguez. Sir, I don't have any detailed knowledge 
right now of the steps. I acknowledge the nature of the 
problem. I do know that we have a pretty extensive financial 
education outreach to the men and women in our Services because 
their financial readiness is critical. Their financial 
situation, as you clearly point out, can affect their ability 
to do their job, so we pay attention to it. We have outreach 
programs and we limit access to our military installations to 
institutions that are credible, that we evaluate to ensure that 
they are not for profit and, in fact, are educational 
institutions and not selling. So that there's not a ``hook and 
bait and switch operation'' going on. I hope that answers the 
question, sir.
    Mr. Geren. I've not worked in the area in my time in the 
Pentagon, but I understand the seriousness of the problem and 
if I'm confirmed look forward to working with this committee 
and looking into the matter.
    Senator Thune. It's something that there's been a 
considerable amount written on. There have been a number of 
reports. The New York Times and other newspapers have sort of 
exposed what some of these lenders are doing in terms of 
preying on servicemembers and clearly that's something that I 
think we want to see addressed. As I said, I assume that 
somewhere within the Department there are some people who have 
given some attention to this subject, and we would again 
welcome as you get an opportunity to further review that, your 
comments and what might be done. We don't want to see 
servicemembers who are in tight financial situations being 
preyed on by financial institutions that are clearly trying to 
take advantage of them. Some of the interest rates that are 
charged are exorbitant. There's a lot of that activity and it 
seems to be congregating very closely around some of the 
military installations in this country.
    Mr. Dominguez. Senator, if I might followup. That issue in 
terms of policy and practice is clearly within the portfolio 
that I have now in the Air Force and that I aspire to, subject 
to this committee's and the Senate's confirmation. I do want to 
point out also, as you very well know, some of the best things 
that can be done are between the installation commander, the 
commander of the troops, and those local communities, the law 
enforcement, the mayors, and the administrations. The 
partnerships that we form with our communities in which we live 
are invaluable in terms of providing that kind of support and 
protection to the men and women in those areas. I wouldn't 
discount that, and I would say that's a huge piece of the 
solution.
    Senator Thune. This one, again, is for Secretary Dominguez, 
and Mr. Geren. Another thing that it's been troubling to hear 
about is cases in which soldiers are determined to be overpaid 
and indebted to the Army, often in large amounts, due to pay 
errors. The old pay systems for National Guardsmen regrettably 
often contribute to confusion over payment between the State 
Guard, the Defense Finance and Accounting Service, the Internal 
Revenue Service, and others who have an interest in pay 
matters. There appears to be limited ability to quickly assess 
these cases and rapidly come to a conclusion. Can you comment, 
either of you, on the experience of the Air Force, Air Force 
Reserve, Air National Guard, in these matters, and if 
confirmed, will you give consideration and study to these 
problems within the Army and try to find a remedy for the many 
guardsmen who are trying to resolve pay issues?
    Mr. Geren. I know pay issues, confusion, and mixups in the 
pay system have been a very serious concern of all the 
Services. I don't have details about efforts to correct it, but 
we've seen some examples recently on some need for reimbursing 
soldiers who had been improperly charged with different 
expenses against their pay. It's a very serious issue. We've 
asked men and women of our Active-Duty, Guard, and Reserve to 
leave their families, make great sacrifices on the part of our 
country, and we have to do everything we can to ensure that 
they're paid promptly, fairly, and that we have a system in 
place to correct mistakes quickly and not force the soldiers 
through a bureaucratic maze that unfortunately, too often, 
they're forced to contend with these days. It's a very serious 
matter and, if confirmed, I look forward to working on it, sir.
    Mr. Dominguez. Senator, if I might add to that, I know that 
all of the Services have worked with the Office of the 
Secretary of Defense to put task forces in place to work 
personnel pay issues. In fact, there is a personnel pay council 
that's running in the DOD to work these issues and there are 
mechanisms in place to try and get rapid adjudication of the 
errors. Those are brute force, bandaid solutions to the 
fundamental problem which is that our basic information 
technology infrastructure that does the personnel pay business 
is antiquated. The long-term solution to this problem, Senator, 
is the deployment of the Defense Integrated Military Human 
Resources System (DIMHRS), and we in the Air Force are 
aggressively pursuing that. That system has now been elevated 
to the personal attention of the Deputy Secretary of Defense 
and with the committee's continued support, the Department 
intends to aggressively deploy DIMHRS and that's going to be 
the long-term solution so we get a 21st century personnel and 
pay system where it's integrated into one information 
technology (IT) system and a lot of these problems then will go 
away.
    Senator Thune. Thank you all for your responses to 
questions. Chairman Warner may return, and I have other 
commitments, so what I'm going to do is recess the hearing 
subject to the call of the chair. If Chairman Warner does not 
return, there are some questions that we would like to have 
answered for the record. Again, we appreciate your time here 
today and your responsiveness to the questions and look forward 
to working with you. At this point, we will recess. [Recess.]
    Chairman Warner [presiding]. I thank you for your 
indulgence which you have given us, I appreciate that, and the 
understanding why so many members could not be with us.
    I'd like to return to the stockpile issue because I've 
taken a particular interest in it. I can remember vividly in 
this room one day, we had the directors of each of the labs 
here. This was a critical juncture in this program, and I 
remember one in particular. He sort of got up and--they're 
unique people, the directors of those laboratories, they're 
technically trained, magnificently, and have an enormous 
responsibility, and they don't care anything about politics or 
anything else, they just state the facts. I remember one of 
them saying, ``this committee's going to have to exercise a lot 
of patience, and be careful in its oversight to keep watch on 
this program, because it's so essential.'' For those not 
familiar with it, our Nation, by necessity, has a very large 
inventory of nuclear weapons.
    We'd all like to see all nuclear weapons exterminated from 
the face of the earth, but the reality is they have thus far 
proven to be a deterrent to the utilization of that weapon by 
any nation subsequent to the experiences in World War II which 
was, in my judgment, having been in uniform at that time, an 
absolute necessity on behalf of our President and our 
Government given the circumstances.
    Anyway, I won't go into all that. I can assure you our 
committee's going to keep a watchful eye. We have $6 billion, I 
repeat that, $6 billion in this budget going to that program. 
You have a lot of experience in this area, beginning with 
Admiral Rickover's tutorial and your own experience in the 
United States Navy, which I would say, having had the privilege 
of association with that Navy for so many years myself, we've 
never had a major accident. I want America to understand that.
    At one time, I'm trying to think, we had over 100 ships and 
nuclear operations going on, some ashore, most at sea, and 
today every one of our submarines with the exception of some 
test models are powered by nuclear power. Our entire aircraft 
carrier fleet, save two conventional ships which are being 
phased out in due course, is operated with that system. I point 
that out because I hope America can transition to more 
dependence upon nuclear power to supply our daily needs for 
electricity and other things derived from that power. It's 
interesting, France has 85 percent of its power requirements 
today met by nuclear plants. France spends, I'm told by a very 
able staff member, and I think you know this fine person, she 
worked for you or worked with you, 10 percent of France's 
military budget goes to its own concept of the Stockpile 
Stewardship Program.
    Now, to those following this, what is the purpose of the 
Stockpile Stewardship Program? One purpose is to monitor these 
weapons to make sure they're safe in storage. Remember, they're 
stored in various places throughout the United States. 
Communities are dependent upon that security. Cities are 
dependent upon that security. From time to time these weapons 
have to be transported so that those systems which remain in 
the state of readiness as a part of our defense mechanism, this 
country, they have to be safe for transportation. Most 
significantly, in my view, Congress established the Stockpile 
Stewardship Program to ensure that the enduring stockpile 
remains safe, secure, and reliable. This program provides the 
technical data to support this assurance. We owe a high 
obligation to the men and women or the Armed Forces and the 
civilians who are working with these weapons. So bring us up-
to-date on your opinion as to the stockpile, what does the 
future hold, and why is this enormous sum of $6 billion needed 
for one program? I'm not questioning it. I support that $6 
billion, but I think others would ask that question.
    Mr. D'Agostino. Thank you, Mr. Chairman, I'll be happy to 
answer that question. The $6 billion is indeed a tremendous 
amount of money. Over time, within that resource, we have taken 
a renewed focus particularly in the area of physical security 
of the assets themselves as well as security of the eight sites 
that we have across the country to maintain these weapons, 
including the security associated with transporting the weapons 
and the material between our particular sites, and as we 
deliver and receive weapons from the DOD, particularly.
    So the security budget within the $6 billion you will 
notice over time has increased and appropriately so given the 
changing world environment. There is, one could say, close to 
but not quite 20 percent of our resources devoted to ensuring 
and protecting the material to protect our citizens, to protect 
and ensure that these weapons and materials stay in the proper 
control and custody.
    It's more than just the security part of it that makes up 
this $6 billion. We have three national laboratories that are 
supported, and they are in charge, as you pointed out earlier, 
with providing an annual assessment to the Secretaries and 
ultimately to the President which gets delivered to Congress on 
an annual basis on asserting the safety, reliability, and 
security of the stockpile without underground testing. In order 
to do that large task, because we have not taken underground 
testing as something that we need to do, we invested a lot of 
resources in a broad array of scientific tools and 
computational tools as well as gathered data, material aging 
data, on our weapons systems themselves and to be able to 
process that data, to understand how the weapon changes over a 
period of time.
    In addition to developing tools, doing this surveillance 
activity that gets done on each weapon system, and running them 
through our tools and simulation tools, we have a periodic set 
of activities known as limited life component exchanges where 
there are certain components, in various weapons systems that 
periodically over time have to be changed out. So jointly, with 
the DOD, we produce these components at our various plants and 
transport them for installation by the DOD themselves. There's 
a supporting the current stockpile aspect of the $6 billion. 
There is an aspect of the $6 billion that's to ensure the long-
term capability for the Nation and the continuance of ensuring 
ultimately to the President that this stockpile is safe. Then 
there is the question of maintaining this large infrastructure 
of three laboratories in the Nevada Test Site as well as four 
production plants around the country.
    Chairman Warner. When do you think the system will be up 
and fully operative?
    Mr. D'Agostino. I'm assuming the system you're talking 
about is the Stockpile Stewardship Program.
    Chairman Warner. Yes, yes.
    Mr. D'Agostino. In fact, it is fully up and operating right 
now. We are gathering data, we continue to learn on a daily 
basis about how our weapons age.
    Chairman Warner. All right. So you think it is, at present, 
up and fully operating.
    Mr. D'Agostino. It's fully operating, however, what I would 
say is that there are opportunities for efficiency 
improvements. Where we are right now with the complex is we 
have a roughly 50-year-old nuclear weapons complex that is at a 
certain stage in need of capital reinvestment. A question 
earlier dealt with responsive infrastructure, and we'll be 
looking at that seriously with you, sir.
    Chairman Warner. I have other questions here. I'll ask all 
witnesses to provide answers for the record for those 
questions.
    Mr. Finley, in your response to advance policy questions, 
you noted continued importance of an independent Director of 
Operational Test and Evaluation (OT&E) to ensure effectiveness 
and suitability of major weapons systems. This is something 
this committee has followed very carefully, this subject, 
because as addressed by Senator McCain, we have to make certain 
our procurement and our systems are up and running. What are 
your views on the effectiveness of the Department's test and 
evaluation process in an era of rapid fielding and proposed new 
acquisition processes?
    Mr. Finley. Mr. Chairman, my view is that effectiveness is 
good. I think we can improve upon the effectiveness by 
providing a process where the OT&E folks are at the front of 
the process, not mid-range, not 25 percent of the way through 
the process. We should bring our testing community right up at 
the front end of the process where requirements are being 
defined, and make this an iterative process of making help 
underpin the requirements, if you will, from an OT&E point of 
view, so we know going in what our baselines are. That's so we 
do not get into a catch-22 situation down the pike after 
Milestone A or even Milestone B, all of a sudden we have 
ourselves into extremis where the requirements guy says, I'm 
raising a red flag about a problem, sir. I think the OT&E folks 
are great. I believe strongly in checks and balances. I believe 
in the process of open and transparent discussions. Bringing 
OT&E further up into the process, I believe, will help make our 
process there even more effective, sir.
    Chairman Warner. That's a very thorough and reassuring 
response. I thank you, Mr. Finley.
    Secretary Dominguez, currently DOD has a policy that limits 
the involuntary recall of Reserve and National Guard personnel 
to 24 cumulative months during this period of national 
emergency. In the Air Force, guardsmen and reservists have 
performed magnificently in providing air support to the 
combatant commander but the 24-month clock has run on many of 
these patriotic airmen. The same is true for Army reservists 
and national guardsmen. It's an extraordinary chapter in our 
history, the performance of the Guard and Reserve. I came up 
through the ranks in that system myself, and I tell you it's 
far more effective than most realize. In my time, I remember 
very well when the Korean War sprung upon us, we had to resort 
to the Guard and Reserve very quickly, and it was extraordinary 
how quickly in the aviation community our reservists were in 
the cockpit flying with the regular forces in a matter of 
months. Anyway, given the demands on the Reserve and Guard 
since 2001, what is the impact of this policy on the 
availability of manpower, in your judgment?
    Mr. Dominguez. Sir, thank you for the question. I also 
acknowledge the extraordinary achievement and service of our 
citizen warriors in the Guard and Reserve and their families. 
You are correct in pointing out, Senator, they have been 
tested, and they met the test in an extraordinary fashion. This 
committee can take some credit for that in your stewardship 
over the years of the Guard and Reserve.
    Chairman Warner. Well, it really started with Secretary 
Laird who brought about what we call the Total Force concept. 
He did an admirable job in that and also the discontinuance of 
the draft which was important. I was a part of the Laird team 
at the time those decisions were made and this All-Volunteer 
Force has been extraordinary.
    Mr. Dominguez. It is, Senator. It is extraordinary. Second 
to none, and it will stay that way.
    Chairman Warner. But it needs the support of the Guard and 
Reserve.
    Mr. Dominguez. Absolutely. That is essential and that 
partnership between the Guard and Reserve and the Active-Duty 
Force is essential. I've seen that partnership in its highest 
form of evolution, I believe, in the United States Air Force 
today. The Guard and Reserve are intermixed, and entwined with 
the Active Force in virtually every mission that force does, 
forward or back home, and you can't tell those airmen apart by 
their capabilities.
    Now, the 24-month mobilization is a barrier but it's a 
barrier that, in preparing this Nation and preparing our force 
for a very long conflict, we have to figure a way through. 
Secretary Rumsfeld is adamant, at least in my conversations or 
knowledge of this from in the policy circles in which I 
operate, that he's not going to budge on that because we can't 
involuntarily mobilize our way through a 50-year conflict. We 
have to find mechanisms to bring the volunteers from the Guard 
and Reserve into the fight or change the nature of their 
enlistment and participation contracts so that as they come 
into the Reserve, there's a clear period of when they will be 
on Active service. We're thinking through all of those things 
now, sir. But I think Secretary Rumsfeld is right on target. 
Involuntary mobilization is not the right tool for a very long 
conflict. We're in a very long conflict, we'll need our citizen 
warriors or citizen soldiers, airmen, sailors, and marines in 
this fight and we'll have to find mechanisms to be able to 
bring them in, in the true spirit of the volunteer force.
    Chairman Warner. All right. I thank you, because it's 
absolutely essential and needs to be addressed early on.
    Mr. Dominguez. Yes, sir.
    Chairman Warner. Mr. Geren, I commented earlier about the 
importance of the academies when Senator Allard was making his 
introduction. It's essential that DOD and the Army leadership 
continues to support the wounded soldiers throughout their 
treatment and for those who are medically retired as they 
return to civilian life. There are many challenges in making 
the Wounded Warrior Program or Marine for Life Program and so 
on successful in ensuring our present day veterans have 
successful transitions. One area I'm concerned about is 
ensuring the health care services and rehab to be available for 
convalescing personnel as needed, even if it means seeing a 
civilian doctor instead of a military doctor. Will you inquire 
into these problems as it relates to your department, the 
Department of the Army, and perhaps you can help others with 
health care access that wounded personnel receive long after 
they've left the military system, and determine what 
improvements we can make?
    Mr. Geren. Yes, sir. If I'm confirmed, I'll consider that a 
top priority. The Wounded Warrior Program is an excellent 
program and it is reaching out to service men and women who----
    Chairman Warner. Marine for Life, that's a comparable 
program.
    Mr. Geren. Yes, sir.
    Chairman Warner. It has a very unique name.
    Mr. Geren. Yes, sir, I understand that, and it's a program 
that has to remain a top priority. It can't fade from our view 
when this conflict is in the distant past. We have to maintain 
that commitment. I know Congress feels that way, the Department 
of the Army feels that way, and I can assure you if I'm 
confirmed it will be a top priority for me. I want to see us 
innovate in that area and do everything we can possibly do.
    Chairman Warner. I opened up on the question about the 
academies but I realize that was asked by my colleague before 
he left. That's a very important issue, and you better check on 
West Point. When I was in the Department of the Navy's 
Secretary's Office we spent a lot of time working Annapolis and 
indeed the under secretaries were constituted as a team of 
three individuals who used to make periodic inspections of the 
academies to make sure that experience gained in one academy 
was transferred to the other academy whether it related to 
education, religion, or preventing sexual harassment and the 
like. I think it might be well-advised that some day when 
you're talking to Secretary Rumsfeld to suggest maybe the three 
under secretaries be constituted as a team to travel 
periodically and do some oversight for the Secretary on those 
academies because if one of them has a problem it pops up on 
the screen right to the top. It was a very effective system 
that Secretary Laird put in place.
    Gentlemen, I thank you very much. I thank your families. 
The day has been a productive one for all of us and one that 
will be remembered in many respects. The President has chosen 
well in selecting you, and I wish each of you well and I'll 
look to trying to get the confirmation process completed in the 
Senate as quickly as possible. In your case, Mr. Dominguez, as 
my distinguished colleague has mentioned, we have a little more 
to work through but let's hope we can work through that. I'll 
give you the assurance that I'll do it fairly and objectively.
    Mr. Dominguez. Thank you, Senator.
    Chairman Warner. This meeting is adjourned. Thank you all.
    [Whereupon, at 11:54 a.m., the committee adjourned.]

    [Prepared questions submitted to Hon. Preston M. Geren by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Joint Chiefs of Staff. These reforms have also 
vastly improved cooperation between the Services and the combatant 
commanders in the strategic planning process, in the development of 
requirements, in joint training and education, and in the execution of 
military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions based on your experience in the Department of Defense?
    Answer. The Goldwater-Nichols Act has made a profound and positive 
change within the operation of the Department of Defense. While I 
believe that the framework established by Goldwater-Nichols has 
significantly improved interservice and joint relationships and 
responsibilities, the Department, working with Congress, should 
continually assess the law in light of improving capabilities, evolving 
threats and changing organizational dynamics.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. This milestone legislation is now 20 years old and has 
served our Nation well. If confirmed, I would like to consider with 
Congress whether the act should be revised to better address the 
requirements of the combatant commanders and the needs and challenges 
faced by the Services in today's security environment. I also would 
like to assess whether the law could be modified to more effectively 
allocate roles and responsibilities among the Joint Staff, the military 
departments, and the Office of the Secretary of Defense. For example, 
the Department has encountered questions about the proper division of 
responsibility between the Army and CENTCOM for investigating 
allegations of misconduct arising in Iraq and Afghanistan. It is 
critical that the Department is optimally organized to meet the 
challenges of a dynamic security environment.
                                 duties
    Question. Section 3015 of title 10, U.S.C., states the Under 
Secretary of the Army shall perform such duties and exercise such 
powers as the Secretary of the Army may prescribe.
    Assuming you are confirmed, what duties and powers do you expect to 
be assigned?
    Answer. The Under Secretary of the Army is the Secretary's senior 
civilian advisor on the effective and efficient functioning of the 
Army. The Under Secretary carries out those responsibilities and 
functions specifically delegated by the Secretary. The Secretary has 
not discussed his plans with me in this regard. The Under's 
responsibilities also require him, from time to time, to issue guidance 
and direction to the Army Staff.
    What background and experience do you possess that you believe 
qualifies you to perform these duties?
    Answer. I believe that my experience--including serving as a four-
term Member of the U.S. Congress, representing the 12th Congressional 
District of Texas, in the private sector, and most recently as Special 
Assistant to the Secretary of Defense--has provided me with the 
knowledge and insight necessary to contribute in a meaningful way to 
the Army's ability to address the challenges it faces today. I served 
on the House Armed Services Committee during my tenure in Congress and 
worked with DOD on a wide range of policy and acquisition matters. My 
service in the House gave me a profound understanding and appreciation 
of the important role in national defense matters conferred on Congress 
by article I, section 8 of the Constitution. My work in the private 
sector has given me experience in the governance of a large 
organization that I believe will be valuable in discharging the 
management responsibilities of the Under Secretary of the Army. My work 
with the DOD, including serving as Acting Secretary of the Air Force, 
has enhanced my knowledge and understanding of the unique demands on 
today's military. Should I be confirmed, I look forward to serving the 
Nation during this era of change and transformation. If confirmed, I 
pledge my best effort every day to be worthy of the trust placed in me 
and to uphold the proud tradition of selfless service that 
characterizes the United States Army.
    Do you believe that there are actions you need to take to enhance 
your ability to perform the duties of the Under Secretary of the Army?
    Answer. If I am confirmed, I will work to further my understanding 
and knowledge of the Army, its people, the resources necessary to 
sustain and transform it and the challenges it faces. I will take 
advantage of the many educational programs available to senior Army 
officials and draw on the wealth of knowledge and experience available 
from dedicated professionals, civilian and military, in DOD and 
throughout the Army family--Active-Duty, Guard and Reserve, Active and 
retired. I will seek advice and counsel from the many and diverse 
stakeholders dedicated to the success of the Army, including Members 
and staff of Congress.
                             relationships
    Question. If confirmed, what would your working relationship be 
with:
    The Secretary of the Army.
    Answer. If confirmed, my relationship with the Secretary of the 
Army would be close, direct, and supportive. Within the Department of 
the Army, my responsibilities would also involve communicating the Army 
Staff's plans to the Secretary of the Army and supervising the 
implementation of the Secretary's decisions through the Army. In this 
capacity, my actions would be subject to the authority, direction and 
control of the Secretary of the Army.
    Question. The Chief of Staff of the Army.
    Answer. The Chief of Staff of the Army is the Secretary's principal 
military adviser. If confirmed, I will work closely with the Chief of 
Staff to supervise the implementation of the Secretary's decisions 
through the Army Staff and Army commands and agencies. In this 
capacity, my actions would be subject to the authority, direction and 
control of the Secretary of the Army. I anticipate working closely and 
in concert with the Chief of Staff.
    Question. The Assistant Secretaries of the Army.
    Answer. The Assistant Secretaries of the Army set the strategic 
direction by formulating and overseeing policies and programs within 
their functional areas of responsibilities, consistent with statutes 
and the objectives of the Secretary of the Army. If confirmed, I will 
establish and maintain close, professional relationships with each of 
the Assistant Secretaries and seek to foster an environment of 
cooperative teamwork as we work together on the day-to-day management 
and long-range planning needs of the Army.
    Question. The General Counsel of the Army.
    Answer. The General Counsel is the chief legal officer of the 
Department of the Army. His duties include providing legal and policy 
advice to all members of the Army as well as determining the position 
of the Army on any legal question or procedure. If confirmed, I will 
establish and maintain a close and professional relationship with the 
General Counsel.
    Question. The Vice Chief of Staff of the Army.
    Answer. If confirmed, I will cooperate fully with the Vice Chief of 
Staff to further the Secretary of the Army's policies and to advance 
the interests of the Army. I will establish a close and professional 
relationship with the Vice Chief of Staff and communicate directly and 
openly with him on matters involving the Department of the Army.
    Question. The Judge Advocate General of the Army.
    Answer. The Judge Advocate General plays a significant role in 
providing legal advice to the Secretary and Under Secretary of the Army 
and Department of Army officers, particularly concerning matters of 
military justice. If confirmed, I will establish and maintain an 
appropriate and professional relationship with The Judge Advocate 
General of the Army. This relationship would be grounded in direct and 
open communication. I will seek his counsel on the important legal 
issues confronting the Army.
                            major challenges
    Question. In your view, what are the major challenges that will 
face the Under Secretary of the Army?
    Answer. As the senior civilian advisor to the Secretary, the Under 
Secretary will work in support of the Secretary in his duties. 
Conducting a global war against an asymmetric enemy while 
simultaneously planning and executing broad strategic transformation 
efforts presents unprecedented challenges. In my view, the Army's major 
challenge is to meet the Nation's global land power requirements and 
sustain its strategic balance while fighting the global war on terror, 
synchronizing transformational initiatives, executing Base Realignment 
and Closure activities, and implementing the Integrated Global Presence 
Basing Strategy. Force protection should also be an Army top priority 
as it faces an evolving enemy. Initiating comprehensive Army-wide 
business transformation will improve overall efficiency and reorient 
available resources better to support the Army's warfighting 
capabilities and meet current and future threats. Other major 
challenges facing the Army are to sustain the All-Volunteer Force and 
to provide the best possible training and equipment for all of its 
soldiers. Force protection in irregular warfare poses challenges that 
require constant attention from senior leadership. The Army must push 
to develop the techniques, tactics, and procedures to enhance force 
protection, push research in relevant technology and continue to 
improve body and vehicle armor.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. Providing ready, relevant land power to meet global 
commitments now and in the future will require resourcing the Army's 
requirements for resetting and restructuring the Army to achieve a 
proper balance of capabilities in all components. It will be necessary 
to obtain adequate funding to achieve critical recruiting and retention 
goals needed to sustain the All-Volunteer Force and grow its 
operational forces. The Army must work relentlessly to improve force 
protection.
    Housing and other Army initiatives to provide predictability and 
stability for soldiers and their families in both the Active and 
Reserve components are critical to this effort. The Army must develop 
training to shape military and civilian leaders to lead in the complex 
and uncertain 21st century security environment. The Army must continue 
to support efforts that speed state-of-the-art force protection systems 
and weapons to its soldiers in the field.
    The Army must be funded to execute a synchronized plan to achieve a 
new global basing posture, implement stationing decisions, execute Base 
Realignment and Closure decisions, and advance the Modular Force 
initiative. Adopting management reforms and best business practices are 
necessary to achieve targeted efficiencies and secure the financial 
resources needed for operational needs and Army initiatives. Force 
protection must remain a top priority of the civilian Army leadership 
with the Secretary and the Under continuing to push the system to make 
improvements.
                 reserve and national guard deployments
    Question. Deployments completed since the attacks of September 11 
of the Army National Guard and Army Reserve have significantly depleted 
the number of soldiers available for involuntary mobilization under the 
Department's policy limiting involuntary recalls of Reserve personnel 
to 24 cumulative months.
    How should the Army's Reserve component forces best be managed to 
provide essential support for operational deployments in Afghanistan 
and Iraq?
    Answer. The Army National Guard and the Army Reserve are critical 
to the success of the Nation in fighting and winning the global war on 
terrorism. Given the demand of the global war on terror, the use of the 
Army National Guard and Army Reserve will continue to be necessary. To 
best manage and meet requirements, the Army is instituting the Army 
Force Generation Model (ARFORGEN), a rotational system to supply Army 
units to meet the demands of the national security objectives. This 
system enables predictable, rotational deployments for soldiers on a 6-
year cycle for Army National Guard and Reserve units. The Army must 
also move toward making the Reserve components more capable to respond 
to missions in the homeland and abroad. The Army is committed to fully 
man, train, and equip the Guard units with $21 billion in funding over 
the POM to address equipment shortfalls. Additionally, the President is 
committed to funding the National Guard at current manning levels and 
up to the congressional authorization of 350,000 as the National Guard 
continues recruiting. To ensure that the Army and Air National Guard 
are prepared, the President's budget more than doubles the funding for 
equipment and modernization over the next 5 years. If I am confirmed, I 
would fully support the President and the Department's commitments in 
this critical area.
    Question. What is your understanding of the Army's plans to avoid 
excessive demands on personnel and units in low density, high demand 
specialties whose skills are found primarily in the Reserve, such as 
civil affairs, military policy, and logistics?
    Answer. I understand that the Army plans to rebalance the force and 
move the Guard toward more high demand skill sets as it transitions six 
combat brigades into Combat Support, Combat Service Support, and 
Engineering missions. The Army anticipates that the rebalance will 
generate more high demand forces to meet requirements. In conjunction 
with the implementation of the Army Force Generation Model, a larger 
pool of critical capabilities is available in a predictable manner, 
providing the necessary trained and ready units to meet requirements.
                        recruiting and retention
    Question. The Army's Active-Duty recruiting goal for fiscal year 
2006 is 80,000. The Army has achieved its monthly recruiting goals so 
far this fiscal year, but the first quarter has only produced about 
11,000 new soldiers. Retention in fiscal year 2005 exceeded the Army's 
goal, but signs in early fiscal year 2006 have shown some weakening of 
retention behavior, particularly among soldiers completing their first 
term of service.
    What is your assessment of the Army's ability to reach its Active-
Duty recruiting goal by component in fiscal year 2006?
    Answer. Although the current recruiting environment remains 
challenging, the Army is optimistic about achieving Active and Reserve 
component goals for fiscal year 2006. Mission accomplishment in 06 and 
follow on years requires greater recruiter productivity, incentives and 
other resources necessary to meet these goals, effective communication 
of the Army message to the Nation's youth and influencers, and 
continued congressional support. Congressional support was evident in 
the recent passage of the National Defense Authorization Act for Fiscal 
Year 2006 which provided the crucial foundation for this year's 
recruiting efforts. The Active component has achieved its recruiting 
goals for the last 8 months, the Guard the last 5 months, with only the 
Army Reserve component falling short of its goals.
    Question. If the Army is able to achieve its recruiting goal of 
80,000 recruits, will the Army meet its authorized end strength for 
fiscal year 2006 of 512,400 soldiers?
    What are the fiscal year 2007 recruiting goals by component?
    Answer. I have been informed that the Army's projected Active-Duty 
end strength for fiscal year 2006 is 500,334 soldiers. As of the end of 
January 2006, counting Active Army, mobilized Guard and Reserve, 
Active-Duty special work, and retiree recalls, the Army strength was 
approximately 574,000 soldiers. The Army's current recruiting goals for 
fiscal year 2007 are: 80,000 for the Regular Army; 36,500 for the U.S. 
Army Reserve; and 70,000 for the Army National Guard.
    Question. What is your assessment of the impact of multiple 
deployments of troops to Afghanistan and Iraq having on retention, 
particularly among young enlisted and officer personnel after their 
initial obligated service has been completed?
    Answer. The Army has not seen a negative impact on the retention of 
enlisted soldiers who have served in deployments to Afghanistan and 
Iraq. It is my understanding that the 3rd Infantry Division recently 
returned from its second deployment to Iraq and achieved 166 percent of 
their year-to-date initial term retention mission. The 4th Infantry 
Division and 101st Airborne Division are currently on their second 
deployment to Iraq and have accomplished 114 percent and 109 percent of 
their year-to-date initial term retention mission, respectively. As of 
31 January 2006, the Army has achieved 109 percent of its year-to-date 
initial term retention mission and 107 percent of its overall year-to-
date retention mission. Recent results are satisfactory, but this 
matter requires constant attention. It is a barometer of the health of 
the Army and must be watched, analyzed in whole and in subsets, and 
understood.
                            women in combat
    Question. Section 541 of the National Defense Authorization Act for 
Fiscal Year 2006 requires the Secretary of Defense to report to 
Congress not later than March 31, 2006, on his review of the current 
and future implementation of the policy regarding assignment of women 
in combat. In conducting the review, the Secretary of Defense must 
examine Army unit modularization efforts and associated personnel 
assignment policies to ensure their compliance with the Department of 
Defense policy on women in combat that has been in effect since 1994.
    What lessons have been learned about the feasibility of current 
policies regarding women in combat from Operation Iraqi Freedom and 
Operation Enduring Freedom?
    Answer. The Department no longer confronts the prospects of a Cold 
War linear battlefield. The irregular warfare and nonlinear battlefield 
of today's conflicts raises questions about the application of the 
policy regarding the assignment of women in combat regions. Women make 
up about 14 percent of the Active Army, 23 percent of the Army Reserve, 
and 13 percent of the Army National Guard. Approximately 10 percent of 
the forces deployed in support of the global war on terrorism are women 
soldiers. Today, almost 14,000 women soldiers are serving in Iraq and 
Afghanistan. Forty-seven women soldiers have made the ultimate 
sacrifice in support of the global war on terrorism. Women soldiers 
have been killed in action, have suffered wounds from hostile action, 
and have been held captive by our enemies. The study requested by 
Congress and underway at DOD will help the Department understand the 
implications for and feasibility of current policies regarding women in 
combat.
    Question. How do you anticipate you will participate in the review 
of the policy required by section 541?
    Answer. The Office of the Secretary of Defense has undertaken to 
complete the comprehensive review requested by this committee and 
Congress. The Army will support OSD to complete this review. This issue 
poses complex and critical issues for the Department. If confirmed, I 
will look to the Secretary for guidance with regard to any role he asks 
me to undertake in this matter. It is an important study and will 
inform Department and congressional review of this critical matter. The 
Army and Congress must work together closely if this matter is to be 
addressed properly.
                            missile defense
    Question. In December 2002, President Bush announced the deployment 
of an initial set of missile defense capabilities, including ground-
based interceptors, sea-based interceptors, and additional Patriot PAC-
3 units.
    In your view, is the Army fielding Patriot PAC-3 missiles in 
sufficient numbers to meet the threat posed by short-range ballistic 
missiles?
    Answer. I do not have sufficient background in this highly 
technical area to offer an informed opinion on this matter. The Army 
has advised me that the Combined Acquisition Program strategy has 
allocated sufficient numbers of PAC-3 missiles to defeat the short 
range ballistic missile threat. If confirmed, I will study this 
further.
    Question. Do you support continued development of the multi-
national Medium Extended Air Defense System (MEADS) as a follow-on to 
the Patriot system, and what is the Army's timeframe for fielding of 
this important capability?
    Answer. I do not have sufficient background in this highly 
technical area to offer an informed opinion on this program. From the 
information I have received thus far, the direction the Department has 
taken in the development of the Medium Extended Air Defense System 
appears reasonable. On July 1, 2004, the Defense Acquisition Board 
approved Milestone B for all three increments of the Patriot/MEADS 
Combined Aggregate Program with a MEADS First Unit Equipped date by 
fiscal year 2015. If confirmed, I will study this further.
    Question. What is your understanding of when the Department plans 
to authorize the transfer of the ground-based midcourse defense (GMD) 
system from the Missile Defense Agency to the Army?
    Answer. I understand that the transfer of the GMD System will be 
governed by the BMDS Transfer Plan that currently is in staffing 
between the Missile Defense Agency and the Military Departments. 
Transfer will be based on technical maturity and demonstrated military 
utility.
    Question. Do you believe the fielding of ground-based interceptors, 
which began in 2004, is keeping pace with the long-range ballistic 
missile threat to the United States?
    Answer. I do not have sufficient background in this matter to offer 
an informed opinion. I have been advised by the Army that the pace of 
missile fielding is consistent with intended defensive capability. If 
confirmed, I will look into this further.
    Question. The Army's Space and Missile Defense Command (SMDC) has 
been developing laser concepts for application on the battlefield. What 
are the Army's plans with respect to fielding laser weapons capable of 
defending against rockets and tactical missiles?
    Answer. The SMDC Solid-State Laser (SSL) Science and Technology 
(S&T) program goal is to develop a SSL demonstrator of at least 100 kW 
by 2013. The Army intent is to begin the weapon system development 
process to employ this rapidly emerging SSL technology as soon as it 
reaches the required maturity level. The Army's current weapon system 
development goal for fielding a Multi-mission Directed Energy Weapon 
System (MDEWS) interim capability is 2014, and to attain the MDEWS 
objective weapon system capability by 2020. These future weapon systems 
are envisioned to counter the rocket/artillery/mortar (RAM), 
manportable Air Defense System (MANPADS), and other tactical missile 
threats.
              tricare fee increases for military retirees
    Question. Press reports indicate that the Department of Defense 
will recommend significant increases in TRICARE costs for certain 
beneficiaries, including higher enrollment fees for military retirees 
and their families.
    What is your understanding of the Department's proposals for 
changes in TRICARE fees for retired soldiers, and, if they are 
implemented, what do you see as the likely impact of these changes on 
the Department of the Army?
    Answer. I understand that the President's budget is proposing a new 
fee structure for retirees under 65 that will increase enrollment fees 
for TRICARE Prime, and assess new enrollment fees and increased 
deductibles for Standard coverage. I understand that the proposed 
rebalancing of cost contributions is intended to slow the rate of 
increase in health care costs and compensate for the increases in 
covered benefits. Currently, 8 percent of the total DOD budget is spent 
on health care, with a projection of 12 percent in 2015. This proposal 
will have no impact on Active-Duty personnel and minimal to no impact 
on TRICARE for Life beneficiaries.
    Question. What is your personal view of the justification for 
increases in TRICARE enrollment fees for retirees and are there 
alternatives to such increases you would recommend if confirmed?
    Answer. The DOD faces the problem of escalating health care costs 
shared by everyone in the United States. I do not understand all the 
implications of the proposal, but the provision in the President's 
budget appears to me to be a reasonable approach to an undeniable 
problem. This year's budget and authorization process will not be the 
final word on this matter. If confirmed, I would work with DOD 
officials and Congress, learn from the experience in the private sector 
and other governmental entities, and seek creative solutions to this 
challenge. There are few issues more difficult to address, both 
substantively and politically. In my opinion, the Department of Defense 
must partner with Congress and tackle this problem. The path we are on 
is unaffordable in the long run.
                 sexual assault prevention and response
    Question. The Department of the Army is in the process of 
implementing changes in policy and procedures aimed at preventing and 
responding appropriately to incidents of sexual assault.
    What is your view of the appropriate role for senior military and 
civilian leaders in the Department of the Army in overseeing the 
effectiveness of implementation of new policies relating to sexual 
assault?
    Answer. The Army has initiated the Sexual Assault Prevention and 
Response Program. Support for this program must come from the top and 
address both the subtle and blatant factors that contribute to the 
persistence of this problem. Senior leaders in the Department must 
communicate by word and deed a zero tolerance policy of sexual 
harassment and must become personally involved in sexual assault 
prevention programs if they are to succeed in attacking this problem. 
Sexual assault is a national problem and the most under-reported crime 
in America. The military should provide a model for the Nation in 
addressing this issue. While at the Air Force, I worked on this issue 
and, if confirmed, would consider it a high priority. If confirmed, I 
will work with the Army leadership to ensure that Army leaders at all 
levels understand their responsibility to support fully the 
implementation of this critical program.
    Question. What is your view of the confidential reporting options 
made available to victims of sexual assault as part of the revised 
policy?
    Answer. I support affording victims of sexual assault the 
confidential reporting options to ensure first and foremost that 
victims receive the help and care they need as quickly as possible.
                     united states military academy
    Question. Complaints of sexual assault and harassment at the U.S. 
Air Force Academy in 2003 demonstrated, among other things, the 
importance of focused, informed oversight by service civilian and 
military senior leaders of conditions for female cadets and midshipmen. 
The Service Academy 2005 Sexual Harassment and Assault Survey completed 
by the Defense Manpower Data Center in December 2005 found that even 
with the implementation of corrective measures, sexual assault and 
harassment continue to be factors negatively affecting female cadets at 
the military academies and that the highest reported rates by cadets 
came from the U.S. Military Academy.
    What actions would you expect to take, if confirmed, to address the 
problems of sexual assault and sexual harassment at the U.S. Military 
Academy and with respect to the Army's programs in this regard?
    Answer. Senior Army leaders must communicate clearly and 
consistently that sexual harassment will not be tolerated and ensure 
that leaders at the U.S. Military Academy understand the gravity of 
this matter. If confirmed, I will work to ensure that the 
Superintendent of the U.S. Military Academy has the resources and 
support necessary to advance the Army's commitment to attacking this 
problem. The Academy must improve support for victims, together with 
preventive education and awareness efforts. The Academy must continue 
to evaluate and shape its culture to create an environment in which the 
cadets understand that sexual harassment is antithetical to everything 
the Army stands for and will not be tolerated. If confirmed, I will 
support the Academy's progress toward these goals.
               national security personnel system (nsps)
    Question. The National Defense Authorization Act for 2004 provided 
significant new authorities for the Department of Defense to hire, pay, 
and manage its civilian workforce.
    What is your assessment of the high priority skill needs within the 
Army's civilian workforce, and, if confirmed, how would you anticipate 
employing the new authorities of NSPS to achieve a more effective 
civilian workforce?
    Answer. NSPS is a key pillar in the Department of Defense's 
transformation plans and is essential to creating an environment in 
which the Total Force (military personnel, civilian employees, and 
contractors) thinks and operates as one cohesive unit. While retaining 
the core values of the civil service and merit principles, NSPS allows 
employees to be paid and rewarded based on performance, innovation, and 
results. Army civilians must complement and support the military around 
the world in every time zone, every day. If confirmed, I will seek to 
leverage authorities within NSPS to promote a performance culture in 
which the performance and contributions of the civilian workforce are 
more fully recognized and rewarded. NSPS will allow the Army to be more 
competitive in setting salaries and afford it the ability to adjust 
salaries based on various factors, including labor market conditions, 
performance, and changes in duties. The Army will use the flexibilities 
provided in NSPS to attract and retain skilled, talented, and motivated 
people. NSPS will provide greater opportunities for Army civilians by 
easing the administrative burden routinely required by the current 
system and providing incentives for managers to turn to them first to 
accomplish certain vital tasks. This will free Army soldiers to focus 
on matters unique to the military.
    Question. With respect to the Army's Senior Executive Service, what 
recommendations, if any, do you have to improve professional 
development and overall management of the Army's senior civilian 
executives?
    Answer. I understand that the Army recently centralized the day-to-
day management of its senior executives into a new office that reports 
directly to the Secretary of the Army. This new organization contains a 
separate branch dedicated exclusively to the ongoing professional 
development of its civilian executives. It is the Army's intent to 
develop these executives in a manner similar to that in which they have 
historically developed their general officers. This includes 
implementing a systematic and progressive assignment pattern leading to 
positions of greater responsibility. Such a program also includes 
periodic educational experiences to complement such an assignment plan.
          support for army families in the rebasing initiative
    Question. Plans for the relocation of numerous Army units under the 
Department's rebasing initiative will present significant challenges to 
continental United States (CONUS) installations and their surrounding 
local communities in order to ensure adequate resources, including 
housing and schools, are made available.
    What is your understanding of the steps being taken by the Army to 
ensure the successful implementation of rebasing for both soldiers and 
receiving communities?
    Answer. Full and open communication between military officials and 
state and community leaders is the key to successfully implementing 
rebasing for soldiers. At locations impacted by rebasing, installation 
and garrison commanders must work closely with state officials, mayors, 
city managers, county commissioners and school officials to ensure that 
adequate schools, housing, and child care services are being planned to 
support an increased military population. The Army must form an 
effective partnership with all stakeholders to make this a success for 
soldiers and their families.
    Question. What actions will you take, if confirmed, to ensure that 
the challenges associated with rebasing are met?
    Answer. I do not know what my responsibilities would be in this 
area if I am confirmed. Realizing that rebasing must be resourced and 
executed over time, the Army has developed a detailed plan that 
prioritizes the movement and relocation of operational units, schools 
and headquarters. It is necessary that senior Army leadership work with 
Congress to ensure that the rebasing initiatives are adequately funded 
and supported. I believe that my experience in working in the political 
arena could be valuable in this effort.
                         interservice transfers
    Question. At the same time that the Army and Marine Corps are 
working harder than ever to achieve recruiting goals, the Navy and the 
Air Force are planning for significant reductions in military 
personnel. Under section 641 of the National Defense Authorization Act 
for Fiscal Year 2006, an inter-service bonus for transfer of $2,500 was 
authorized. Additional incentives may be necessary, however, to 
encourage ``blue to green'' transfers in order to retain sailors and 
airmen with valuable military training, skills, and experience.
    What is your assessment of the adequacy of existing incentives for 
interservice transfers?
    Answer. This program has not achieved its goals so far and should 
be re-evaluated to determine what it will take to make it a success. It 
is in our national defense interest to promote interservice transfers. 
The Services must work together to make this program a success. 
Financial incentives alone may not be sufficient to make it succeed. 
Force shaping tools should be designed to support the effort. This size 
of the bonus should be reconsidered as, after taxes, it essentially 
covers only the cost of new uniforms and other expenses related to the 
transfer. If confirmed, subject to the direction of the Secretary, I 
will work with Department leadership and Congress to identify and 
establish programs to attract quality personnel from the other 
Services.
    Question. If confirmed, and given your experience as Acting 
Secretary of the Air Force, what steps would you take to enhance the 
number of ``blue to green'' interservice transfers?
    Answer. The program has not worked up to expectations so far. I 
believe the Army needs additional research to better understand the 
program's shortcomings and the lack of attractiveness of the 
interservice transfer option. My experience at the Air Force leads me 
to believe that there are issues that must be better understood if the 
program is to succeed and that will not be addressed solely by 
financial incentives.
                       quadrennial defense review
    Question. The 2005 Quadrennial Defense Review (QDR) is the first 
major review of defense strategy, policies, and force structure since 
the attacks of September 11, 2001.
    Do you think the review adequately positions the Army to face the 
future threats to our national security?
    Answer. The 2006 QDR provides a sound strategic game plan to guide 
the Army in meeting the challenges it faces in today's national 
security environment. The 2006 QDR also recognizes the unique needs of 
the long global war in which the Army is engaged, including the need to 
rebalance Active and Reserve capabilities, expand capacity of both 
multipurpose and Special Operations Forces, and transform the Army 
Reserves from the strategic Reserve of the Cold War era to an 
operational force trained and equipped to meet current and future 
challenges. To ensure Army forces are prepared for anticipated 
challenges, the QDR endorses robust and continuous modernization, 
including accelerating the spin-outs of advanced capabilities from its 
Future Combat Systems into the Army modular force.
    Question. Aside from validating the ongoing Army transformation to 
modularity, are there other structural changes you would suggest 
resulting from the QDR review?
    Answer. Structurally, I think the Army's organizational 
transformation is sound, including fully manning, equipping, and 
training its Reserves as an operational force.
    Question. Do you see the Army's roles and missions transforming 
along with the move to modularity?
    Answer. The Army's roles and missions continue to expand. In large 
measure, the Nation's ground forces--multipurpose and special 
operations, Army and Marine Corps, Active and Reserve--are the 
principal deterrence force for the challenges the Army will face in the 
early decades of the 21st century. The roles and missions of the 
Reserve component is a priority of the Guard and Reserve Commission 
established by Congress. Future planning for the Reserve component can 
be enhanced by the Commission's findings.
    Question. What are your views regarding the QDR recommendation to 
increase the role of the combatant commanders in the budget and 
acquisition process?
    Answer. It is my opinion that the budget and acquisition process 
would benefit from better input from the combatant commands in 
identifying operational needs that influence departmental priorities; 
however, the Department must be careful to properly balance short-term 
and long-term needs. Near-term needs must not be allowed to crowd out 
necessary long-term investments. Military departments must continue to 
serve as the developers, integrators, and providers of decisive and 
interdependent joint capabilities, supporting the needs and priorities 
of the combatant commands.
                 army force structure and end strength
    Question. The Army, pursuant to the 2005 QDR, has modified its plan 
to increase the number of combat brigades in the Active and Reserve 
components. The Army will increase the Active component force structure 
to 42 combat brigades and will increase the Army National Guard force 
structure to 28 combat brigades. This action represents a reduction 
from previous planning of one Active component combat brigade and six 
Army National Guard Brigades.
    What are your views regarding the QDR recommendation to reduce the 
number of Army and Army National Guard combat brigades?
    Answer. As a result of detailed analysis and the application of the 
professional judgment of senior leaders across the Department in the 
context of the 2006 QDR, the Army will continue to expand the 
capabilities and capacity of Army forces to meet the demands of the 
National Defense Strategy. The Army is growing capacity and building 
readily available combat and support forces that are fully manned, 
equipped, and trained. The rebalanced force will be more relevant and 
ready for the needs at home and abroad, today and tomorrow. The 
decision to change the planned 43rd Active component brigade to Special 
Forces is a reasonable response to the challenges facing our Nation. 
The Army's plan to fully man, train, and equip the Guard will provide 
enhanced CONUS and outside CONUS (OCONUS) capability in the Reserve 
component. The transition of six combat brigades to Engineering, Combat 
Service and Combat Service Support will provide resources better suited 
to the homeland and the national defense needs of our Nation.
    Question. Do you believe that the QDR has sufficiently taken into 
consideration the Army National Guard's state mission, especially 
homeland security and disaster relief?
    Answer. Yes, the rebalanced force will significantly increase the 
forces and capabilities readily available for State missions, and will 
provide a broader set of capabilities of increased applicability to 
homeland security and disaster relief operations. The Army is committed 
to ending the ``haves and have nots'' paradigm of the past. The ongoing 
transformation is creating, in all components, combat and support 
forces that are fully manned, equipped, and trained, posturing its 
Reserves as a ready and relevant operational force.
    Question. The Army has asserted that 43 Active component combat 
brigades and the 34 Army National Guard combat brigades would ensure 
the Army could maintain a 17 brigade force deployed with Active 
component brigades having 2 years between rotations and the Army 
National Guard combat brigades having 5 years between rotations.
    How will fewer combat brigades impact on the anticipated ``dwell'' 
time in the U.S. between rotations?
    Answer. The current projected force pool will sustain operational 
commitments over the long-term without compromising the ``dwell'' time 
goals of 6:1 and 3:1. The Army Force Generation model (ARFORGEN) was 
developed to support sustained operations, as well as additional 
contingencies, and to help manage unit rotations. ARFORGEN will help 
reduce stress on the force by using a reset-train-deploy cycle that 
allows units to anticipate deployment timelines.
    Question. Despite the continuing pace of operational deployments, 
the Army does not intend to seek permanent increases to its Active-Duty 
end strength as part of its overall plan to increase the number of 
combat brigades that can be operationally deployed.
    What is your view of the Active-Duty end strength necessary to 
support worldwide Army operational deployments, including Operations 
Iraqi Freedom and Enduring Freedom?
    Answer. It appears to me that there is general agreement on the 
need to increase the size of the pool of soldiers available for world-
wide deployments. Some experts advocate a permanent strength increase. 
The Army leadership has developed a plan to accomplish this goal with a 
temporary increase in end strength and transformation of all three 
components of the Army to increase the number of high demand soldiers 
and assets. Included in this plan is the increase in the size of the 
Operational Force from 315,000 to 355,000 and reduction of the size of 
the Institutional Force. The plan appears sound to me. It will require 
careful execution and sustained support and funding to be successful. 
The Army has been evaluating force requirements within the End Strength 
Plan outlined by the Secretary of the Army in August 2005. Under the 
Secretary's End Strength Plan, the Army is building an expeditionary, 
campaign quality force, capable of meeting a broad and complex array of 
challenges, while ensuring its forces remain the preeminent land power 
and ultimate instrument of national resolve. Key to this plan is the 
President's approval of the 30,000 temporary end strength increase 
above the 482,400 program that allows the operational force to undergo 
transformation while at the same time deploying to meeting force 
commitments. The effort has focused on the completion of modular 
transformation, aligning the force to QDR and BRAC, incorporating 
institutional force restructuring, to include business practice 
initiatives, addressing risk in combat support and combat service 
support structures and continuing the refinement of Active Army and 
Reserve component balance. The Active Army will revert to a 482,400 
force in the later years of the POM.
    Question. What is your assessment of the impact on individual state 
National Guard mission capability of the proposed cut in the Army 
National Guard force structure and end strength by 17,000 soldiers?
    Answer. The Army leadership has committed to Congress to fund the 
National Guard at its actual troop strength level. This commitment was 
confirmed by the President Bush in his remarks on February 9. The Army 
will fund to whatever that level the Guard is able to recruit, up to 
the statutory limit of 350,000. The Army's plan to train and equip all 
National Guard brigades and invest $21 billion over the FYDP will 
enhance the ability of the National Guard to respond to state and 
national defense missions. This will also enhance mission capabilities 
and provide skills better suited to mission requirements. The plan 
builds up to 28 Brigade Combat Teams (BCTs) and retains 78 supporting 
brigades, for a total of 106. Importantly, this includes the transition 
of six Guard combat brigades to support and engineering brigades, 
increasing the number of currently high demand low density assets and 
personnel. The National Guard plays a central role in homeland 
security, while simultaneously supporting operational deployments. The 
Army could not perform full-spectrum operations without the 
contributions of the Army Guard and Army Reserve. For example, last 
year the Army National Guard had 10 BCTs and a Division Headquarters 
serving in Iraq, Afghanistan, and the Balkans for at least a portion of 
the year. Despite that overseas commitment, the National Guard was 
still capable of responding with 42,000 soldiers in 7 days to support 
Hurricane Katrina relief operations, with tens of thousands more 
National Guard and Army Reserve soldiers available as needed. The Army 
is committed to balancing its capabilities within and across the 
Active, Guard, and Reserve components. The work that the Army is doing 
will increase the quality and effectiveness of its fighting force and 
create a more capable force across all components. The Army is also 
increasing its capacity to ensure that the right capabilities are 
available to support current global operations, prevail in the war on 
terrorism, and respond to expanded homeland defense requirements by 
broadening the options available to civil authorities. This effort is 
essential to having the kinds of current and future capabilities and 
forces needed across the Army for sustaining the warfight and support 
to civil authorities.
    Question. Based on the current demands on the Army Reserve and 
existing policies pertaining to involuntary mobilization, what is your 
view of the justification of proposed cuts in the Army Reserve Force 
structure and end strength from 205,000 to about 188,000?
    Answer. The Army is working to balance force capabilities within 
and across the Active, Guard, and Reserve to develop a total force with 
greater capabilities and greater accessibility. This rebalancing is 
designed to create a larger operational Army and should improve 
readiness and reduce the impact on Reserve component structure. It is 
my understanding that the Army is budgeted to go to a 200,000 end 
strength, and that the Army Reserve will retain 58 supporting brigades.
    Question. Based on the current demands on the Army National Guard 
and existing policies pertaining to involuntary mobilization, what is 
your view of the justification of proposed cuts in the Army National 
Guard force structure and end strength from 350,000 to 333,000?
    Answer. President Bush and the Army leadership have made the 
commitment to fund the ARNG to the level it can recruit--up to its 
Congressionally mandated end strength of 350,000. Within this end 
strength, the ARNG will retain 28 combat BCTs and 78 supporting 
brigades.
    Question. What is your opinion about the plan to reduce the total 
number of Active and Reserve brigade combat teams from a total of 77 to 
70? Will this provide an adequate basis for the frequency of rotations 
planned while still ensuring adequate assurance for successful 
recruiting, retention, and training?
    Answer. The Army is restructuring to form a rotational pool of 70 
BCTs and 211 supporting brigades of various types among the 3 
components. This effort will increase the quality and effectiveness of 
the fighting force and create a more capable force across all 
components. This work also increases Army capacity to ensure that the 
right capabilities are available to support current global operations, 
prevail in the war on terrorism, and respond to expanded homeland 
defense requirements by broadening the options available to civil 
authorities.
    Question. What is your understanding of the overall number of 
personnel the Army seeks to move from the ``institutional Army'' to the 
operational Army and how many soldier billets have already been moved?
    Answer. The military/civilian conversion plan is a key component of 
the overall Army End Strength Plan. The Army plan optimizes the 
Operational Force, that portion of the Army that deploys to meet world-
wide requirements, at 355,000, a growth of nearly 40,000 spaces over 
the fiscal year 2004 total. A two-phase approach to reduce the 
Institutional Army through military-to-civilian conversion is being 
executed. The Phase I (fiscal year 2005-2009) plan to convert 13,000 
military positions to civilian fills are currently underway. Phase II 
(fiscal year 2008-2011) proposes to convert an additional 14,000 
military-to-civilian positions and is under review by major commands. 
Through fiscal year 2006 the Army will have converted 9,644 Active 
military positions to civilian positions.
    Question. What are the means the Army plans to use to accomplish 
these moves?
    Answer. I am advised that the Army intends to accomplish this with 
military-to-civilian conversion, business process changes, and 
divestiture of functions.
    Question. How does the Army propose to accomplish the functions the 
military billets being transferred were intended to perform?
    Answer. I am advised that the Army intends to accomplish this with 
military-to-civilian conversion, business process changes, and 
divestiture of functions.
           quadrennial defense review ``execution roadmaps''
    Question. The Department has announced that it will initiate eight 
follow-on assessments, or ``2005 QDR Execution Roadmaps,'' following 
completion of the QDR with the objective of continuing to examine a 
wide range of key issues, including such topics as DOD Institutional 
Reform and Governance, Irregular Warfare, Joint Command and Control, 
and Strategic Communications. You have been designated to lead an 
assessment of ``Authorities,'' i.e., the need for legislative and 
regulatory change to ensure operational effectiveness in the face of 
new threats.
    What do you consider to be the most significant recommendations of 
the QDR relating to necessary changes in existing law and 
regulationsand what legislative and regulatory areas, in general, do 
you anticipate your group will explore?
    Answer. The tasking of the authorities group is to seek interagency 
and congressional approval of the legislative proposals endorsed by the 
QDR. The senior leadership of the Department endorsed the proposals as 
key to advancing the goals of the QDR. The initiatives are top 
legislative priorities of the Department. The group is not tasked to 
consider or develop additional initiatives. The proposals are:
Building Partner Capacity
        <bullet> Creation of Presidential Security Investment Fund
        <bullet> Exception to Legislative Restrictions on IMET
        <bullet> Expansion of COCOM's Initiative Fund
        <bullet> Extension of CERP-Plus Authority to Every SSTR 
        Operation
        <bullet> Increase of Funding Cap on Counterterrorism Fellowship 
        Program
Homeland Defense
        <bullet> Expansion of WMD-CST Operations Across U.S./Canada/
        Mexico Borders
Human Capital Strategy
        <bullet> Creation of Operational Reserve Force (15 percent 
        SELRES)
        <bullet> Expansion of Presidential Reserve Call-Up from 270 to 
        365 days
        <bullet> Expansion of Presidential Reserve Call-Up to include 
        response to natural disaster
        <bullet> Creation of Force Shaping Options for USAF and USN
Medical Transformation
        <bullet> Expansion of bonuses for Pre-Trained Specialists' 
        Recruitment
        <bullet> Increase Unspecified Minor MILCON and O&M Construction
        <bullet> Health care rates

    Question. Based on your experience in both the legislative branch 
and in the Department of Defense, what areas are in need of change?
    Answer. The Department would be well served by more interagency 
collaboration, and early and continuous consultation between DOD and 
our Nation's Congress. Congress should consider expanding both the 
Defense and State Departments' authorities to train and equip foreign 
security forces. The Department should institutionalize authorities 
from Operations Enduring Freedom and Iraqi Freedom to conduct 
humanitarian assistance and stability operations. Additionally, 
increasing opportunities similar to International Military Education 
and Training (IMET) can assist in shaping relations and developing 
future partners.
                       acquisition program reform
    Question. At an Air Force Association conference in Washington, DC, 
in September 2005, you outlined what you viewed as the ``root causes of 
poor program execution'' within the Air Force. You indicated that these 
included: unstable and expanding requirements; a lack of test community 
buy-in; inadequate systems engineering; unstable and unpredictable 
funding levels; and faulty cost estimates for new weapon systems.''
    Do you believe that these conditions are problems for the 
Department of the Army?
    Answer. Yes, all of the Services face these challenges. Stability 
of programs is essential to delivering needed capability to the 
warfighter in a timely manner. This includes the requirements process, 
the budgeting and funding process, and testing--as well as what the 
Department thinks of as ``traditional acquisition.'' Without the 
stability and integration of these aspects, root causes of poor program 
execution will not be adequately addressed.
    Question. If confirmed, what role, if any, would you expect to play 
in the oversight of the Army's acquisition programs?
    Answer. The Secretary has not informed me of his plans for my role 
in the acquisition process. Reform of major acquisition programs is a 
priority in the Secretary of the Army's Business Transformation 
Initiatives. His goal is to streamline or eliminate redundant 
operations to free financial and human resources to redirect to core 
warfighting missions. If confirmed, I would enthusiastically support 
the Secretary's initiative.
                               detainees
    Question. If confirmed, what do you see as your role, if any, with 
respect to issues pertaining to detainees?
    Answer. The Secretary has not told me of his plans for my 
involvement in detainee matters. The Army is the DOD Executive Agent 
for administering detainee operations policy. The Secretary of the Army 
should continue to coordinate with OSD, the combatant commands and 
Joint Staff, and with other Services to broaden its capability to 
source and sustain short-term and long-term detainee operations in 
support of the global war on terrorism. I have worked in this area 
since May 2004. I believe I could offer relevant experience in this 
area if asked to by the Secretary.
    Question. In addition to corrective actions taken by the Army to 
correct detention and interrogation policies, what are the leadership 
lessons the Army learned from incidents involving abuse of detainees, 
and, in your view, how should these lessons be incorporated into the 
professional military education of Army officers?
    Answer. In post September 11 operations, the Department of Defense 
experienced a paradigm shift in detainee operations from the Cold War 
model--in which DOD detained a disciplined, uniformed Enemy Prisoner of 
War (EPW) population--to the current environment in which DOD detains a 
complex set of enemy combatants, characterized by high-risk insurgents 
and terrorists. The Department is adapting to meet these challenges. 
The Army should continue to leverage the lessons learned in over a 
dozen strategic detainee assessment and investigative reports. Army 
leaders must ensure that the Army completes and effectively implements 
the programmed adjustments to its current doctrine, organizations, 
training, leadership and education. These adjustments will better 
enable Army leaders to anticipate, plan, prepare, and execute detainee 
and detainee interrogation operations.
                         domestic surveillance
    Question. Policies relating to domestic surveillance currently are 
a matter of intense interest currently as a result of Presidential 
directives to the National Security Agency following the attacks of 
September 11, 2001. The activities of Army intelligence components 
which affect United States persons are governed by Executive Order 
12333, DOD Directive 5240-1 (DOD Intelligence Activities), and Army 
Regulation 381-10 (U.S. Army Intelligence Activities).
    What is your understanding of how the Department of the Army 
oversees the implementation of its intelligence oversight program?
    Answer. The Army employs a number of mechanisms to ensure effective 
oversight of intelligence activities at all levels of staff and 
command. The Deputy Chief of Staff, G-2 is responsible for formulating 
the Army's Intelligence Oversight policy and maintaining its currency 
and compliance with the laws of the United States. Army policy on 
intelligence oversight requires that intelligence oversight officers be 
appointed in all Army organizations with an intelligence mission. The 
Army General Counsel exercises oversight of Army intelligence 
activities on behalf of the Secretary of the Army, especially as 
pertains to the legality and propriety of such. The Inspector General 
(TIG) of the Army has a cadre of personnel with intelligence expertise 
who conduct inspections worldwide of Army intelligence organizations 
for the purpose of ensuring compliance with intelligence oversight 
directives. The TIG is also responsible for receiving and coordinating 
reports of questionable intelligence activity in the Army. The Army has 
mandated annual training on intelligence oversight in all intelligence 
organizations. The Commander, Intelligence and Security Command, 
employs staff legal officers at all levels of command to oversee 
intelligence operation, ensuring legality and propriety.
    Question. How does the civilian leadership of the Department 
maintain effective oversight to ensure compliance?
    Answer. The principal mechanism for ensuring compliance with 
intelligence oversight policy in the Army is the intelligence chain of 
command, which maintains oversight of intelligence activities through 
the use of intelligence oversight and staff legal officers embedded in 
their organizations. In addition, all intelligence personnel, 
supervisors, and commanders in the Army are required to be familiar 
with Army policies and to ensure that their intelligence activities are 
compliant. The Deputy Chief of Staff, G-2 exercises oversight through 
his staff, which is responsible for ensuring that he is knowledgeable 
of significant intelligence activities in the Army. Additionally, the 
Department of the Army Inspector General conducts periodic inspections 
of intelligence unit oversight programs and processes.
                 military role in domestic emergencies
    Question. The shortfalls in the emergency response to Hurricane 
Katrina along the Gulf Coast have resulted in debate about the 
appropriate role of the Department of Defense and the Armed Forces in 
responding to domestic emergencies.
    In your view, should the Army have a more expansive role in 
responding to natural disasters?
    Answer. The administration and Congress are engaged in a 
comprehensive review of our Nation's preparedness for domestic 
disasters in the light of the Katrina response. Until that review is 
complete, I want to reserve judgment on the question of an expanded 
Army role. As far as Army capability, the Army plan to invest $21 
billion over 5 years in the Guard and transitioning six Guard combat 
brigades to Engineering, Combat Service and Combat Service Support will 
enhance the Guard's ability to respond to domestic incidents. The 
Department of Defense's primary missions are to protect the United 
States, prevent conflict and surprise attacks, and prevail in war.
    Question. What is your assessment of the Army National Guard's 
ability to meet its state contingency and homeland defense missions, 
given its operational commitments overseas, current equipment 
shortfalls, and proposed reductions in force structure and budget?
    Answer. The Army National Guard has proven itself capable of 
meeting its homeland defense mission while providing vital support to 
international operations, even with the heavy demands placed on it 
following Hurricane Katrina last year. The Guard has been stretched in 
responding to the demands placed upon it since September 11, but it has 
met all of the challenges it has been asked to undertake. As the 
President recently acknowledged, ``Across the world and on every front, 
the men and women of the Guard are serving with courage and 
determination, and they're bringing us to victory in the global war on 
terror.'' The Army's 5-year plan will further enhance the Guard's 
ability to meet domestic and international obligations. The Army plans 
to fully man, train and equip all Guard units and invest $21 billion in 
equipping the Guard over the next 5 years. By converting six combat 
brigades to Engineering, Combat Support and Combat Service Support, and 
increasing the availability of high demand assets and skills, the 
Guard's ability to respond to domestic and international contingencies 
will be strengthened. The plan to institute a 1 out of 6-year 
deployment maximum will provide predictability and stability for 
members of the Guard, their families and their employers. I am 
confident that the Army's plan for the Guard will improve its ability 
and continue its record of service so vital to security of the country 
and peace in the world.
                          aerial common sensor
    Question. On 2 August 2004, the U.S. Army awarded a $879 million 
system design and development contract for the Aerial Common Sensor 
(ACS). ACS was intended to serve as the next-generation airborne 
intelligence, surveillance, reconnaissance (ISR) and target 
identification system. Furthermore, ACS was designed to replace current 
aircraft including, the Army's Guardrail Common Sensor, the Airborne 
Reconnaissance Low aircraft, and the Navy's fleet of E-P3 aircraft. The 
ACS program was terminated on 12 January 2006.
    What is your assessment of the Army's ability to meet the near-term 
signals intelligence needs given a current shortage of Guardrail Common 
Sensor systems?
    Answer. The Guardrail Common Sensor fleet has been in heavy demand 
since September 11, providing the tactical maneuver commander with 
actionable signals intelligence in both Iraq and Afghanistan. The fleet 
will remain in high demand for the foreseeable future. I understand 
that the Army is modernizing the system's core capabilities, based on 
feedback from commanders, better to support the warfighter. 
Additionally, the Army is modernizing the Airborne Reconnaissance-Low 
fleet with a modern signals intelligence payload to help prosecute high 
priority targets in Iraq and relieve demands on the Guardrail fleet.
    Question. In your opinion should the Army, and its initial ACS 
partner, the Navy, continue to collaborate to find a joint service 
solution to meet the needs of the ISR gap particularly since some Navy 
EP-3s have already reached retirement age?
    Answer. I do not have the knowledge to offer an informed opinion on 
the value of continued collaboration. I understand that the Army and 
Navy are in the process of completing the Joint ISR study that was 
directed by OSD as a result of the ACS contract termination. The study, 
which will be completed sometime this summer, will help inform the 
Services' discussions on the best path forward regarding ACS.
                      support for wounded soldiers
    Question. Wounded soldiers from Operations Enduring Freedom and 
Iraqi Freedom deserve the highest priority from the Army for support 
services, healing and recuperation, rehabilitation, evaluation for 
return to duty, successful transition from Active-Duty if required, and 
continuing support beyond retirement or discharge.
    What is your assessment of the effectiveness of Army programs now 
in place to care for the wounded, including the Wounded Warrior 
Program, and programs for soldiers in a medical hold status?
    Answer. The U.S. Army Wounded Warrior Program (AW2) is an 
outstanding program and has been effective, but the Army must always 
strive to improve services in this critical area. This outreach-driven 
program provides severely-wounded soldiers and their families with a 
system of advocacy and personal support from the time of initial 
casualty notification to return to military service or to the civilian 
sector. If confirmed, I will be committed to ensuring that injured 
soldiers receive the best care possible and receive support to address 
their needs and issues throughout the recovery process and beyond. I 
will continually assess the effectiveness of this program and would 
like to work with Congress and the private sector to develop innovative 
programs tailored to the long-term needs of our severely wounded 
soldiers.
    Question. How does the Army provide follow-on assistance to wounded 
personnel who have separated from Active service? How effective are 
those programs?
    Answer. I understand that AW2 Soldier Family Management Specialists 
initiate and maintain contact with Veterans Affairs (VA) personnel 
providing VA services to soldiers while they are on Active-Duty and 
through their transition to veteran status. The AW2 and the VA have 
forged a strong relationship to provide comprehensive assistance to 
wounded Army personnel. The Army assigns a VA Liaison in the VA 
Seamless Transition Office to allow the AW2 to ensure wounded soldiers 
receive optimal and timely services and to close potential gaps that 
may arise in the transition process. Based on the information I have 
received thus far, the Army is doing a good job in providing necessary 
follow on assistance to wounded personnel; however, as stated above, I 
would like to see DOD (all Services), VA and Congress continue to 
explore innovative approaches to this challenge.
    Question. If confirmed, are there additional strategies and 
resources that you would pursue to increase the Army's support for 
wounded soldiers, and to monitor their progress in returning to 
civilian life?
    Answer. If confirmed, I would work with Department leaders, 
Department of Veteran Affairs (VA) and Congress to continue to seek 
innovative approaches to this critical challenge. To properly monitor 
progress of its wounded soldiers, the Army must continue to develop and 
implement a decision support and soldier tracking system. The 
Department must also continue strategies that will result in health 
care advances and promote rehabilitation research for its severely 
injured soldiers with traumatic injuries. Private industry should be 
engaged in pursuing strategies for expanded employment opportunities.
                       joint acquisition programs
    Question. What are your views regarding joint acquisition programs, 
such as the Joint Tactical Radio System (JTRS) and the Joint Strike 
Fighter?
    Answer. There are great efficiencies to be gained by joint programs 
as opposed to individual Service procurements. Joint programs have the 
advantages of: economies of scale, reduction in Service spares 
inventories, and Service sharing of training costs. However, the 
critical start-point for a joint program is a ``joint'' requirement. 
Without a solid joint requirement, it is doubtful that a joint 
acquisition program will be cost effective.
    The JTRS program has been plagued with problems. The management of 
the program was not established with a clearly defined chain of command 
and decision making mechanism. The Army, as executive agent, attempted 
to manage the JTRS program, but different Service desires, lack of 
discipline in requirements growth, and the complexity of the program, 
hampered those efforts. Earlier this year, the Department changed the 
management structure by establishing a Joint Program Executive Office 
with the requisite authority to manage the program. I believe this to 
have been a positive change that will accelerate the development and 
fielding of the JTRS program.
    Question. Do you see utility in encouraging the Services to conduct 
more joint development, especially in the area of helicopters and 
unmanned systems?
    Answer. Yes, I believe a joint development approach has utility for 
helicopters and unmanned systems and for all types of systems used by 
multiple Services. A successful joint program demands that the Services 
develop a well defined joint requirement as a starting point and 
vigilant oversight and discipline thereafter.
    Question. If so, what enforcement mechanisms would you recommend to 
implement more joint program acquisition?
    Answer. I have not received sufficient information on the scope of 
the problems and the challenges confronting joint programs acquisition 
to make fully informed recommendations. If confirmed, I will, pursuant 
to the Secretary's guidance, work with Army Department acquisition 
leadership to address this area.
                    morale, welfare, and recreation
    Question. Morale, welfare, and recreation (MWR) programs are 
critical to enhancement of military life for members and their 
families, and must be relevant and attractive to all eligible users, 
including Active-Duty and Reserve personnel and retirees.
    What are the challenges in sustaining Army MWR programs that you 
foresee, and, if confirmed, what improvements would you seek to 
achieve?
    Answer. I agree that high quality and affordable MWR programs are 
critical in providing the quality of life that soldiers, their families 
and retirees deserve. This must be a priority for all the Services and 
must be properly funded. The challenge is for Garrison Commanders to 
provide quality programs and effectively compete for and manage 
resources to maintain viability of Army MWR programs. If confirmed, I 
will seek to ensure that MWR programs meet the Army's standards for 
service delivery and satisfy soldiers' priorities and needs.
               soldiers' post-deployment health concerns
    Question. The health-related problems experienced after Operations 
Desert Shield and Desert Storm led to the Department, at Congressional 
direction, undertaking extensive efforts to establish a comprehensive 
health database on deployed forces based on pre- and post-deployment 
health surveys.
    If confirmed, what actions would you expect to take to ensure that 
the Army uses available data on the health of returning soldiers to 
ensure that appropriate treatment is available and that all signs of 
deployment-related illnesses or potential illnesses are identified?
    Answer. It is critical that all the Services have in place an 
effective system to identify deployment-related illnesses as quickly as 
possible, evaluate and address the adequacy of available behavioral 
health support services, and address any shortfalls. In an effort to 
ensure early identification and treatment of emerging deployment-
related conditions, the Army has implemented the Post-Deployment Health 
Reassessment Program. Under this program, soldiers will be evaluated 
90-180 days post-deployment in an effort to identify health concerns.
                  requirements and planning processes
    Question. For the last several years, the Department of Army has 
relied on supplemental and reprogrammed funds to help pay for ongoing 
operations in the global war on terrorism and for Army modularity. 
Funding for expected ongoing operations and planned Army modernization 
efforts are not yet part of the Army's annual requirements and planning 
process.
    What changes in the Army's planning process do you view as 
necessary to mitigate the need for supplemental funding and extensive 
reprogramming requests?
    Answer. Recent years' supplemental funding and reprogramming 
requests were to support the sustained level of conflict in Iraq and 
Afghanistan, evolving operational and security requirements, and repair 
or replacement of the equipment used in those conflicts. Such wartime 
needs are immediate in nature, unpredictable, and difficult to 
incorporate in budgets planned a year in advance of their execution. If 
confirmed, I will work to identify and incorporate better planning 
tools, recognizing however, that annual budgeting will never accurately 
anticipate nor fully incorporate the costs of war and obviate the need 
for supplemental funding.
    Question. As rising personnel and operations and maintenance costs 
expend an increasing portion of the Army's budget authority, and as 
competing demands for Federal dollars increase in the future years, the 
Army will have to address the challenges of modernization and 
transformation with fewer and fewer resources.
    What changes would you recommend to the way the Army prioritizes 
resources to maintain the momentum of Army transformation, while at the 
same time reducing future force protection shortfalls?
    Answer. While I cannot speak to the criteria currently used in Army 
prioritization, the QDR sets the course for future capabilities and 
defense forces. The transformation to Army Modular Force structure and 
continued investments in force protection will be key elements of the 
Army's role in achieving that force. I believe the roadmap for change 
in the QDR should provide the overall framework for Army resource 
priorities. From that will follow sustained transformation momentum and 
enhanced force protection. I expect budgets will continue to be a 
struggle in years ahead. The Army must work closely with Congress to 
ensure that the mission critical needs are funded.
                      relationships with congress
    Question. Effective coordination and consultation between the 
Department and the congressional defense committees--especially with 
regard to force structure issues--continues to be a challenge. Having 
served four terms in the House of Representatives, as a Special 
Assistant to Secretary Rumsfeld, and as Acting Secretary of the Air 
Force, you have extensive knowledge and experience about the manner in 
which effective legislative and executive branch relationships should 
be conducted.
    If confirmed, what proposals or suggestions for the Department of 
the Army, if any, would you expect to make?
    Answer. If confirmed, one of my highest priorities would be to work 
with the Secretary of the Army to enhance the Army's coordination and 
communication with Congress, Members, and staff. Given my background, I 
understand the constitutional role of Congress in national defense 
matters and the need for effective, prompt, and accurate communication 
with Congress. Effective and trusted working relationships with 
Congress are critical to the success of every Army endeavor.
                         future cargo aircraft
    Question. What is your view of the proper roles and missions for 
the Army and Air Force in supplying front line troops?
    Answer. When it comes to intratheater airlift, specifically at the 
strategic and operational levels, no one in the world can match the 
U.S. Air Force's ability to deliver personnel, supplies, equipment, or 
outsized cargo rapidly across strategic distances. Within a theater of 
operations, it is necessary that the Army maintain an organic rotary 
and fixed wing capability to meet the Army's need to transport 
personnel and mission critical materiel within a theater of operations.
                     army modularity infrastructure
    Question. The Army used emergency authorities in 2004 to procure 
and install temporary facilities to support modularity units preparing 
for deployments in support of the global war on terrorism. The cost of 
installing these temporary facilities will exceed $1.4 billion in 
combined military construction, procurement, and operations and 
maintenance funds, resulting in hundreds of trailers at each of ten 
locations around the country to house and provide work areas for over 
40,000 Army personnel for an undetermined amount of time.
    If confirmed, what plans would you propose to address the Army's 
requirement to provide adequate, permanent living quarters and work 
facilities for personnel affected by the Army's transformation 
initiatives?
    Answer. The Army provided temporary facilities over the last 2 
years because permanent Army Modular Force basing decisions were not 
made until BRAC decisions were approved. The fiscal year 2007 budget 
requests funding to start providing adequate, permanent facilities at 
U.S. installations impacted by Army Modular Force transformation 
initiatives. Soldiers and their families are the foundation of the Army 
and they must have the quality housing they deserve. If confirmed, I 
will work to ensure budgets provide sufficient funding to give all 
personnel and their family's quality living and working conditions.
    Question. In your opinion, what policy and guidance should be 
implemented in order to ensure that the relocation of forces into 
temporary facilities does not detrimentally affect morale and the 
quality of life afforded Army personnel and their families?
    Answer. Where interim facilities are being used, the Army must 
continue to ensure that they are quality structures, while at the same 
time programming and budgeting for permanent facilities. Local 
commanders must carefully monitor living conditions and the impact on 
morale and be prepared to address any problems that occur. Senior Army 
leadership should be prepared to support commanders in their efforts to 
address concerns. ``You recruit the soldier, you retain the family.''
                   housing and barracks privatization
    Question. In recent years, the Department of Defense and Congress 
have taken significant steps to improve family housing. However, it 
will take many more years and a significant amount of funding to 
adequately meet the Department's housing needs. The housing 
privatization program was created as an alternative way to speed the 
improvement of military family housing and relieve base commanders of 
the burden of managing their family housing.
    What are your views regarding the privatization of family housing?
    Answer. I strongly support using the authorities provided by 
Congress in 1996 to privatize military family housing. The program 
continues to demonstrate success in leveraging appropriated funds and 
housing assets to improve the quality of family housing quickly and 
economically. As of 1 February 2006, the Army has privatized family 
housing at 27 locations--over 64,000 homes. At these 27 locations, the 
scope of work during the initial development period is estimated to be 
$8.4 billion, of which the Army contributed $562 million in direct 
support. Although most projects are in the early stages of initial 
development, the Army has constructed over 4,700 new homes and 
renovated 6,600 more. I expect the program will continue to show 
success in improving the quality of life for soldiers and their 
families.
    Question. What are your views regarding the privatization of 
unaccompanied barracks?
    Answer. In light of the successes in family housing privatization, 
the Army should examine the potential costs and benefits for 
privatizing unaccompanied personnel housing (including barracks, and 
single senior noncommissioned officer and officer housing). However, 
any decision regarding replacing current barracks with privatized 
apartments must consider: standardization, impact on warrior ethos and 
unit cohesion, access of non-military personnel, and costs.
    Question. If confirmed, how would you recommend that the Army use 
privatization as a means to address the Army's unaccompanied housing 
requirements?
    Answer. Further study is required before committing to a large 
scale program. The Army is reviewing some smaller scale projects for 
possible implementation in the near future.
    Question. In addition to MILCON and privatization, do you believe a 
change in existing unaccompanied housing policy to permit more 
unaccompanied personnel to reside off base is needed?
    Answer. I am not sufficiently familiar with this issue to ascertain 
whether policy changes are required at this time. In 2005, the Army 
began allowing unaccompanied personnel in the grade of E-6 to receive 
basic allowance for housing and reside off-post. (Personnel in the 
grade of E-7 and above already were allowed to receive BAH and reside 
off-post.) Garrison Commanders may authorize unaccompanied junior 
enlisted soldiers to reside off-post when space is not available on 
post. I believe that the Army should continue to review its policies to 
ensure that all soldiers are adequately housed.
                oversight of the army corps of engineers
    Question. In the wake of Hurricanes Katrina and Rita, the U.S. Army 
Corps of Engineers has assumed a key role in the development and 
supervision of repairs to our critical infrastructure in the region, in 
particular, the levee system in New Orleans, Louisiana.
    If confirmed, what role do you expect to have in the oversight of 
activities conducted by the Corps of Engineers?
    Answer. Under current Army guidance, the Under Secretary of the 
Army exercises oversight responsibility for Army Civil Works functions. 
If confirmed, barring a change in guidance, I would provide this 
oversight through the Assistant Secretary for Civil Works who is 
responsible for supervision of the Army Civil Works program, the Corps 
of Engineers' reimbursable activities in support of other non-
Department of Defense agencies, and the Corps international activities 
other than those directly in support of U.S. forces overseas. If I am 
confirmed, I would expect to serve as an advisor to the Secretary of 
the Army on all matters related to these programs that may come to the 
Secretary's attention.
                     base closures and realignments
    Question. The 2005 Defense Base Realignment and Closure (BRAC) has 
concluded and the military services are in the process of developing 
business plans for the implementation of BRAC decisions.
    What do you see as the responsibilities of the Department of the 
Army in implementing BRAC decisions?
    Answer. The Army is responsible for executing both the Army's BRAC 
recommendations and a portion of the joint cross service group 
recommendations, as assigned by the Under Secretary of Defense 
(Acquisition, Technology, and Logistics). For this part of the BRAC 
recommendations, the Army is developing implementation plans and budget 
justification materials, and will execute the program in accordance 
with those plans and the BRAC appropriations.
    Question. What do you see as the priorities of the Department of 
the Army in implementing BRAC decisions?
    Answer. I understand that the Army, faced with the Iraq/Afghanistan 
deployments, the Army plans to invest the bulk of the BRAC funding for 
fiscal year 2006 and 2007 in the movement of the tactical Army units 
that are in rotation schedule for deployment to support modularity and 
the return of overseas forces. The Army also plans to invest in the 
movement of two schools that train soldiers and the movement of 
associated headquarters and administrative organizations. While 
completing these three priorities, the Army will construct 125 Armed 
Forces Reserve Centers over the 6-year implementation period.
    Question. When will the Army have the BRAC implementation plans 
completed?
    Answer. The Army has developed implementation plans and these plans 
become the basis for the initial BRAC budget justification material for 
fiscal year 2006-2011. This budget document was submitted to OSD and is 
currently in review with the Deputy Under Secretary of Defense 
(Comptroller) and the Deputy Under Secretary of Defense (Installations 
and Environment).
    Question. When will Congress be able to review this plan?
    Answer. It is my understanding that DOD will release the Army's 
volume of the BRAC budget justification materials along with the other 
component's budget justification materials as part of the fiscal year 
2007 President's budget detail. It is also my understanding that the 
Army does not yet have a release date.
    Question. The DOD installation closure process resulting from BRAC 
decisions has historically included close cooperation with the affected 
local community in order to allow these communities an active role in 
the reuse of property. In rare cases, the goals of the local community 
may not be compatible with proposals considered by the Department of 
Defense. For example, the recent closure of the Walter Reed Medical 
Center in Washington, DC, will present opportunities for both the local 
community and the Federal Government to re-use the land based on 
potentially competing plans.
    If confirmed, what goals and policies would you propose to assist 
affected communities with economic development, revitalization, and re-
use planning of property received as a result of the BRAC process?
    Answer. As a Member of Congress, I represented a community that had 
an Air Force base closed in the 1991 BRAC. I worked extensively on the 
re-use plan for the facility. If confirmed, and with the guidance of 
the Secretary, I will work closely with the Office of Economic 
Adjustment, the Local Redevelopment Authorities, the Governors, and 
other appropriate State and Local officials to accelerate the property 
disposal process whenever possible. The Army has completed the initial 
phase of Federal screening and is in the process of evaluating 
applications and notifying local communities of the Federal interest in 
the Army BRAC properties. This process will be complete with the 
determination of surplus decisions. From there the Local Redevelopment 
Authorities must submit redevelopment plans that will be folded into 
the Army property disposal process.
    Question. What lessons did the Army learn during the BRAC process 
that you would recommend be included in future BRAC legislation?
    Answer. I believe the Army is generally satisfied with the current 
BRAC authorities, and, if confirmed, I look forward to working with 
Congress to execute BRAC 2005.
                     contractors on the battlefield
    Question. More and more of the Department's maintenance and support 
functions are outsourced. These ``contractor logistics support'' 
agreements have resulted in the deployment and employment of civilian 
contractors in combat areas.
    What problems have emerged for the Department as a result of 
increased numbers of contractors on the battlefield?
    Answer. The Department has identified several focus areas, 
including knowing the exact location of contractor personnel who are 
deployed with the armed forces; force protection issues and arming of 
civilians; delineating command/control responsibilities over contractor 
personnel with contract language; and providing life support for 
deployed contractors which have proven to be problematic. The Army has 
developed doctrine and policy to address accountability and force 
protection for contractor personnel. The Army is working to improve 
housing, dining facilities and other life support to deployed 
contractor personnel. If confirmed, I would work to ensure that the 
Army policies and procedures effectively address these areas.
    Question. What is the status of the Department's initiative to 
review over 300,000 military billets to determine the feasibility of 
shifting various functions into the civil service and private sector 
for potential outsourcing?
    Answer. The 300,000 military billets are Department-wide. I 
understand that the Army's goal is to grow the Operational Army from 
315,000 to 355,000 soldiers by 2013. The Army plans to rely on 
military-to-civilian conversions and business transformation to 
accomplish this change. Through fiscal year 2006, the Army will have 
converted 9,644 Active military positions and realigned these positions 
to the operating forces.
                investment in weapon systems acquisition
    Question. The investment budget for weapon systems has grown 
substantially over the past few years to $150 billion per year. An 
increasing share of this investment is being tied up in ``mega 
systems'' like Joint Strike Fighter, Future Combat Systems, and Missile 
Defense Agency.
    How can we sustain this growth at the same time we are covering the 
increasing costs of operations, Army modularity, and asset 
recapitalization?
    Answer. The DOD cannot sustain the rate of increase and cost 
overruns in major defense systems that it has experienced over the last 
decade. Acquisition reform is necessary and should be a top priority of 
the Department and Congress. I understand that the Army is attempting 
to mitigate cost growth first by using evolutionary development 
strategies. The Army plans to reduce costs through standardization, 
economies of scale, equipment standardization, requirement discipline, 
and common unit designs. More needs to be done DOD-wide. If confirmed, 
I would seek to work with Congress in this critical area.
    Question. How can the budget absorb this kind of cost growth in 
mega systems?
    Answer. The Army has terminated numerous programs and reinvested 
the proceeds into FCS and into technologies that could be quickly 
fielded to current forces. The Army has leveraged technologies 
developed in these terminated systems into the development of FCS 
systems such as the Non-Line-of-Sight Cannon. If confirmed, I will 
continue to leverage resources by examining how the Army could use 
equipment jointly and multiplying its capabilities through joint 
networks, such as the Single Integrated Air Picture. I also would seek 
the reduction of costs in all areas of operations through business 
transformation initiatives. In my opinion, this must be a high priority 
for the Department and for Congress if progress is to be made in this 
critical area.
                       force protection programs
    Question. Over the past several years, the Army, with the 
assistance of Congress, has spent billions of dollars on force 
protection measures (e.g., Interceptor Body Armor, up-armored high 
mobility multipurpose vehicles, counter-improvised explosive device 
measures) primarily using supplemental appropriations.
    If confirmed, how would you ensure that the Army continues to 
support and fund force protection programs, even in the absence of 
supplemental appropriations provisions?
    Answer. If confirmed, I would share the view held by Army 
leadership and place the highest priority on force protection measures 
in developing the Army budget and support OSD and the other Services in 
this area. In the area of force protection, the war drove dramatic 
changes to respond to an adaptive enemy. The Army has worked diligently 
to provide the best and tested force protection equipment in the world 
to soldiers, but can never be satisfied and must be relentless in its 
efforts to do better. Supplemental funding has been required to support 
the costs associated with quantities, technology, and tactics required 
to quickly respond to the changes. The effort has received strong 
support and leadership from Congress, with over $5 billion in funding 
for Up-Armored HMMWVs and Armor Kits, for over $2 billion in body 
armor, and millions of dollars for other efforts. While the loss of one 
soldier is too many, these programs are showing dramatic results in 
protecting soldiers. For the longer term, the Army is integrating force 
protection initiatives into the Army at large. Force protection is a 
broader issue than adequate funding and fielding improved equipment. It 
requires innovative research and development, evolving training, 
refinement of tactics, and changes in doctrine to adapt to an adaptive 
enemy. If confirmed, I am committed to continuing a proactive and 
aggressive approach to this area.
                         technology transition
    Question. The Department's efforts to quickly transition 
technologies to the warfighter have yielded important results in the 
last few years. Challenges remain in institutionalizing the transition 
of new technologies into existing programs of record and major weapons 
systems and platforms.
    What challenges to transition do you see within the Army?
    Answer. In fighting the current war on terrorism, the Army has had 
significant success in fielding improved technology to its soldiers and 
the other Services as part of the Joint Forces. These include Force 
Protection technologies, such as the Warlock family of Improvised 
Explosive Devices countermeasures and the Soldiers' Enhanced Small Arms 
Protective Inserts. Rapid technology transition challenges are not 
unique to the Army. The major challenges are technical complexity and 
maturity, programmatic timing and stable resources. Fielding new 
technologies has inherent risks. The Army's strategy is to maintain its 
science and technology (S&T) investments to mature technology 
sufficiently for rapid transition into its acquisition programs based 
on operational needs and the flexibility within Programs of Record to 
accept new technology.
    Question. If confirmed, how would you ensure that technologies are 
rapidly transitioned from the laboratory into the hands of the 
warfighter?
    Answer. If confirmed, I will work with the Secretary and the Chief 
of Staff to improve the Army's acquisition processes to reduce cycle 
time for technology transition into useful capability. The Army, with 
the help of Congress, has embraced the concept of Spiral Technology 
Development and has applied that to its largest program of record, the 
Future Combat System. If I am confirmed, I will work to overcome 
obstacles or inefficiencies and ensure the Army seizes opportunities to 
insert technology into the Current Force to meet operational needs and 
improve capability.
    Question. What steps would you take to enhance the effectiveness of 
technology transition efforts?
    Answer. If confirmed, I will work with the Army Acquisition and its 
warfighting requirements professionals to ensure that we identify 
improvements to warfighting systems capabilities that are offered by 
new technologies. The decisions to transition these technologies must 
be based on operational needs. The Army is enhancing technology 
transition efforts by increasing its use of Technology Transition 
Agreements between the S&T developers and the FCS Program Manager (PM). 
These agreements between the technology community and the acquisition 
PM clearly define the technology ``products'' relevant to the program 
and when they are available.
                   officer promotion selection boards
    Question. Under section 506 of the National Defense Authorization 
Act for Fiscal Year 2006, the Services must provide substantiated 
adverse information to promotion selection boards for officers in the 
grades of O-7 and above.
    What problems, if any, do you foresee in the Army's ability to 
implement this requirement?
    Answer. At this time, I am informed that the Army does not 
anticipate problems implementing this requirement. The Army has a 
system for providing adverse information to General Officer Selection 
Boards. In the event an officer is selected and adverse information is 
discovered or substantiated after the board adjourns, the Army has a 
post-board review process. This process, if necessary, could require 
the convening of a Promotion Review Board to determine if the adverse 
information is grounds for changing a board's recommendation.
    Question. OSD is preparing guidance for the Services concerning the 
implementation of this provision and the Army is awaiting specific 
guidance on any revisions the Army might need to make to its current 
processes.
    If confirmed, what guidance would you provide to promotion 
selection board members about the manner in which such adverse 
information should be considered?
    Answer. When considering the impact of substantiated adverse 
information on an officer being considered for promotion, board members 
must make a determination that the qualifications and potential of that 
officer outweigh the qualifications and potential of the next officer 
on the Order of Merit List who was not tentatively recommended for 
promotion. In applying this standard, board members must keep in mind 
that the selection of an officer for promotion to (or within) the 
general officer ranks should be based on the highest standard that 
exists. The substantiated information must be considered as part of an 
officer's overall record and performance of duty, and should be weighed 
to determine how it may reflect on an officer's judgment, integrity, or 
other qualities necessary to demonstrate potential to perform at a 
higher grade. Ultimately, board members must endeavor to recommend 
officers who have consistently demonstrated the highest standards of 
integrity, personal responsibility, and professional ethics. Board 
members must be convinced that the selection of an officer with 
substantiated adverse information is in the Army's best interest. It is 
their discretion to recommend for promotion a clearly deserving officer 
despite substantiated adverse information.
                      investment in infrastructure
    Question. Witnesses appearing before the committee in recent years 
have testified that the military services underinvest in their 
facilities compared to private industry standards. Decades of 
underinvestment in installations has led to increasing backlogs of 
facility maintenance needs, substandard living and working conditions, 
and has made it harder for the Services to take advantage of new 
technologies that could increase productivity.
    Do you believe the Department of the Army is investing enough in 
its infrastructure? Please explain.
    Answer. Despite the current operations tempo, the Army is making 
steady progress in reducing the backlog of restoration and 
modernization with current levels of military construction funding. 
However, unless the Army is able to maintain these investments through 
a steady and predictable infusion of sustainment dollars, gains will 
erode. The Army continues to focus on its most critical needs and 
balance resources against competing requirements, i.e., quality of 
life, equipping and resetting the force, military pay, medical care, 
enlistment/reenlistment incentives. Facilities are a high priority but 
compete for scarce resources.
                               body armor
    Question. Since combat operations began in Afghanistan in 2001, 
there has been a need to improve individual protection for our service 
members on the battlefield. As requirements emerge, the Army has 
responded in several ways, e.g., by speeding up production of the new 
Interceptor Body Armor (IBA) to replace the older, less capable, Kevlar 
body armor for everyone in the combat zone, not just the ground combat 
units. Most recently, as a result of a study done for the Marine Corps, 
by the Armed Forces Institute of Pathology (AFIP), the Army is in the 
process of buying side plates to improve the overall effectiveness of 
the IBA.
    Do you believe the Army's programs to protect its soldiers 
adequately address the requirements for its personnel in combat zones, 
and if confirmed, what, if anything, would you do to accelerate the 
program?
    Answer. Soldier protection is the highest priority at all levels 
within the Department and, if I am confirmed, will be my top priority. 
The Army continually receives input from commanders in the field and 
rapidly provides solutions to the battlefield commander. As new 
technologies emerge, the Army must continue to work aggressively with 
industry to develop, test, produce, and rapidly field the best possible 
equipment for its soldiers. Body and vehicle armor is only part of the 
answer. The Department must continue its focus on counter-IED 
technology and improving operations. The enemy constantly changes its 
tactics to exploit seams. Techniques, tactics, and procedures must 
constantly evolve to meet the changing threat. If confirmed, I will, 
pursuant to the Secretary's guidance, work with Army leadership in 
support of these efforts.
                            equipment reset
    Question. The ongoing requirements of the global war on terror have 
significantly increased usage rates on the services equipment. As a 
result, we know there will be a requirement to ``reset'' the force once 
combat operations wind down. However, given the ongoing nature of both 
the war in Iraq, and the larger war on terror, we need to ensure that 
our force remains ready to respond to whatever contingencies are 
required.
    Do you think that the Army's equipment reset program meets the 
requirements of the global war on terror, as well as the requirements 
for changing to a modular force?
    Answer. The Army's budget provides a reset program that meets the 
equipment requirements for the global war on terror as well as the 
requirements for changing to a modular force. The Army is committed to 
ensure that soldiers have what they need to fight and win the global 
war on terror. The Army's primary supporting effort is transforming to 
a more agile and lethal force--modularity. The purpose of the total 
Army's (Active and Reserve) reset program is to restore unit equipment 
used in the global war on terror to full operational capability. Reset, 
together with the procurement of new equipment, and the Army's Force 
Generation Management Model (ARFORGEN), meets the Army's equipment 
needs for both missions. In order for the Army to continue resourcing 
its equipment requirements for the global war on terror and transition 
to Modularity, it is essential that the Army work with Congress to gain 
its ongoing support.
                 special operations civil affairs unit
    Question. What is your view on whether all Civil Affairs (CA) units 
should remain within the Special Operations Command? Please explain.
    Answer. In accordance with the QDR 2005 directive, all U.S. Army 
Reserve Civil Affairs (CA) and Psychological Operations (PSYOP) Forces 
will transfer from the U.S. Special Operations Command (USSOCOM) to the 
U.S. Army Reserve Command (USARC). USSOCOM will retain the proponency 
function for all Army CA and PSYOP capabilities and thereby remain 
connected to the USAR CA and PSYOP for qualification training, doctrine 
development, and force structure design. In close coordination, 
USSOCOM, USARC, and the US Army Special Operations Command (USASOC) are 
analyzing the requirements and developing the execution plan for this 
action. USSOCOM will provide the plan to OSD Programs, Analysis and 
Evaluation by March 30, 2006.
    Question. With the goal of maintaining skills and enhancing 
professional advancement of CA personnel, what advantages and 
disadvantages do you see in integrating Reserve and Active component 
units and personnel?
    Answer. It has been explained to me that the advantages of 
integration for Active and Reserve Forces outweigh the disadvantages. 
Army Modularity and the ARFORGEN model formally link AC and USAR 
capabilities and doctrine. The proponency and responsibility for all CA 
and PSYOP is in the Active Army under USSOCOM. This ensures a common 
baseline standard for qualification, doctrine and force structure. 
Integrating the AC and USAR Civil Affairs and Psychological Operations 
capabilities operationally has been shown to be beneficial to both 
components as they each bring complimentary capabilities to the 
supported force and receive the benefit of learning from the strengths 
of the other. Integrating these CA and PSYOP capabilities enhances the 
overall capability available to the Regional Combatant Commander to 
address Civil-Military issues from the tactical to the strategic, 
National Policy, level.
                          stability operations
    Question. What do you view as the highest priorities for the Army 
in implementing the recently issued DOD Directive 3000.05, ``Military 
Support for Stability, Security, Transition, and Reconstruction 
Operations''?
    Answer. I believe that the Department should work toward building 
strong International and Interagency partnership capabilities to 
enhance Stability, Security, Transition and Reconstruction Operations. 
Continued support for existing proven programs, such as IMET, Foreign 
Military Training, Security Assistance and Cooperation should continue. 
The Services should also focus on improving planning, information 
sharing, increasing language and cultural awareness training and 
education.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary of the 
Army?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John Warner
    1. Senator Warner. Mr. Geren, in fiscal year 2005, the Army Reserve 
achieved less than half of its goal in recruiting physicians, and a 
quarter of its goal in recruiting dentists. For an Army that relies so 
heavily on its Reserves for medical support in war, this is a troubling 
and dangerous situation. Are you aware of the critical shortages in 
medical personnel?
    Mr. Geren. The Army Reserve is acutely aware of this situation. The 
Army Reserve provides the bulk of medical support to the total force 
picture. As an example, the Army Reserve provides 63 percent of the 
total force's plastic surgeons, a critical specialty with regard to our 
current operations. The bulk of nurse anesthetists are also within the 
Army Reserve. Thoracic surgeons, also in high demand, are found 
primarily within the Army Reserve (61 percent) and over half of the 
surgical nurses are within the Army Reserve ranks. This highlights the 
importance of ensuring we get the correct formula for attracting these 
professionals.
    What is troubling about our medical professional recruiting picture 
is we are in the same place that we were last year (production) and 
will probably conclude this year in a similar fashion. The numbers show 
little change in the actual mission number, a mere nine-person 
difference between fiscal year 2005 and fiscal year 2006 for Army 
Nurses, for example. Unfortunately, the production rate is stagnant as 
well. This will not begin to address the critical shortages we are 
experiencing of these professional personnel. If we continue to 
approach the problem with the same tools, the trend will continue. We 
have to be more aggressive in terms of incentives. We are not the only 
agency competing for their skills. These professionals have several 
choices. There are both civilian and government entities competing for 
their skill sets, and many attract these potential candidates with a 
more appealing incentive package, to include full tuition reimbursement 
and stipends.
    Tuition rates have been rising at double-digit rates for years. 
Medical, dental, and other health professional students are stuck with 
crushing debt following their college experience. Two hundred thousand 
dollars in student loans is not unheard of medical and dental school 
graduates Our Health Professional Loan Repayment Program doesn't begin 
to address it with a $50,000 lifetime cap (payable at no more than 
$20,000 per year on current principal balances) at the end of each year 
of satisfactory service in the Selected Reserve. We can begin to get 
realistic by raising the maximum levels from $50,000 to $250,000.
    The Specialized Training Assistance Program (STRAP) is another 
avenue to assist health care professionals in critically short 
specialties complete their rigorous training programs. This program 
provides a monthly stipend of $1,279 per month adjusted annually on 1 
July (full rate). Due to the critical shortage of company grade Army 
Nurse Corps officers, we are also able to offer STRAP to Nurse Corps 
officers that were commissioned with less than a baccalaureate degree 
in nursing, who will complete that requirement before consideration to 
Major. Medical and Dental students may also participate in the STRAP-JR 
program, for a stipend of $1,235 per month. The Army Nurse Candidate 
program assists those looking to become an Army Nurse with a $1,000 per 
month stipend.
    Realistically, with tuition rates at their current levels, and 
their rate of inflation, is this enough? No. It is imperative we be 
flexible with these programs and adjust them when needed. Currently, 
these programs are only updated when a ``crisis'' in manning occurs. No 
intense management occurs unless there is an emergency. This is not a 
cost-effective way of doing business, nor does it assure we'll have the 
personnel we need, when we need them.
    The Army Reserve provides for a ``bonus'' incentive for medical 
professionals through the Health Professions Bonus Program (BONUS) and 
the Health Professions Bonus Program (Retention). The ``Bonus'' program 
pays an annual bonus of up to $10,000, not to exceed $30,000, in return 
for participation in the Selected Reserve (SELRES).
    Payments will be made effective on the date of orders. The 
specialties included in the BONUS Program are reviewed and revised 
annually, as needs change and funding is available.
    The Health Professional Bonus Program-Retention (HPB-R) may be used 
as a retention bonus for Medical Corps and Dental Corps officers. 
Individuals contracting for the HPB-approved Army Reserve critical 
skills specialties will receive up to $10,000 per year. Participants 
must choose 1, 2, or 3 years of affiliation with the Army Reserve 
Selected Reserve (SELRES) at the time of application.
    We can recognize the commitment medical professionals are making 
and the additional sacrifice with the mobilization/deployment schedule 
we're asking them to take. We can recognize this commitment by 
establishing a dental special incentive pay, as well as increase the 
retention bonuses for our health service professionals. There are 
several actions we are pursuing and will need assistance in getting the 
authorizations for them.
    When soldiers, professional or otherwise, are not content, they 
speak with their feet and walk, and choose another agency or company to 
work for. It is imperative we make it more attractive for them to join 
our ranks as well as stem the tide of losing these professionals.

    2. Senator Warner. Mr. Geren, what authorities or initiatives are 
needed to remedy this situation?
    Mr. Geren. The Army Reserve provides over half of the Army's assets 
for nurse anesthetists, thoracic surgeons, operating room and surgical 
nurses, and occupational therapists. We are looking at several 
initiatives to address the critical shortfall of medical personnel. 
First, incentives in the form of retention bonuses and loan repayment 
will target the significant educational costs incurred by individuals 
completing their medical education. Most students leave academic 
institutions with a debt load of over $100,000. Tuition costs have 
outpaced the inflation rate for several years, usually at a double-
digit pace. We can begin to address this by improving the Health 
Professional Loan Repayment Program (HPLRP). We are asking for an 
increase in this program to a maximum of $50,000 per year, with a cap 
at $250,000. This will begin to address the double-digit inflation in 
tuition rates and the crushing debt these students incur in order to 
complete their programs of professional education. Our Health 
Professions Bonus Program currently pays $10,000 annually to a maximum 
of $30,000 for participation in a Reserve unit. We believe that 
increasing the Health Professions Bonus from $10,000 per year to 
$25,000 per year annually, until 15 years of service, will have a 
positive impact on recruiting.
    Competition from the private sector for top quality medical 
professionals continues to challenge the military's capability to 
recruit. Without increased bonuses and loan repayment programs that 
provide substantial reduction in the economic impact of these 
educational debts, we will continue to be challenged to recruit top 
caliber officers. With the significant percentage of medical 
professionals within the Reserve component, we must look to creative 
recruiting opportunities. Currently, the U.S. Army Recruiting Command 
is looking at several innovative initiatives, and with congressional 
support, we believe we can address these critical issues.

                         women in combat report
    3. Senator Warner. Mr. Geren, section 541 of the National Defense 
Authorization Act for Fiscal Year 2006 codified the Department of 
Defense (DOD) policy that has been in effect since October 1, 1994, 
which excludes women from assignment to units or positions--below the 
brigade level--whose primary mission is to engage in direct ground 
combat. That provision also required the Secretary of Defense to review 
current and future implementation of the women in combat policy, and to 
closely examine personnel policies associated with creating the Army's 
new modular combat units to ensure compliance with the ground combat 
exclusion rule. What is your understanding of whether the full report 
reviewing the Army's current and future assignment policies will be 
provided to Congress by March 31, 2006?
    Mr. Geren. The Department of Defense plans to provide an initial 
reply to Congress by the end of February 2006; the final report is 
targeted for completion within the next 180 days. This report is 
considerably broader in scope than the question outlined in section 
541. The Department of Defense, with the assistance of the Department 
of the Army, owes Congress, the men and women who serve the military, 
as well as the American people, an unassailable and comprehensive 
report which thoroughly examines the current women in ground combat 
policy and analyzes its implications for the future. That task demands 
considerable research effort, understanding, and expertise. The RAND 
Corporation will conduct extensive research regarding women in ground 
combat policy and its implications given the emerging Army modularity. 
Thereafter, the Secretary of the Defense will report conclusions to 
Congress.

                       support for army families
    4. Senator Warner. Mr. Geren, you understand the importance to 
readiness and morale of providing support for families of soldiers, 
particularly those who have deployed to combat zones. We noted, 
however, that the Army's budget for family center support has declined 
since 2004. In particular, family support for the Guard and Reserve 
since that time has declined by half. What is your understanding of the 
rationale for these reductions?
    Mr. Geren. Senator Warner, funding for Guard and Reserve family 
support since fiscal year 2004 is as follows: fiscal year 2004-$10 
million; fiscal year 2005-$25 million; fiscal year 2006-$41 million; 
and we are requesting $20 million for fiscal year 2007. Fiscal year 
2004-2006 includes additional global war on terror funds in support of 
family support centers during periods of high operational tempo. If the 
high operational tempo of family centers continues into fiscal year 
2007, additional global war on terrorism funding will be provided to 
meet the increased needs.

    5. Senator Warner. Mr. Geren, if confirmed, will you determine 
where the impact of these cuts will be felt and report back to us on 
your assessment of whether these reductions for family support are 
justified?
    Mr. Geren. Although there is no intent to decrease funding for 
family support centers experiencing high rates of operational tempo, I 
will report back on any reductions, should this occur. Each year, the 
Army National Guard and Army Reserve will assess requirements for 
global war on terrorism funding and request the additional funds as 
necessary to address family center needs.

   impact of brac, army modularity, and rebasing on local communities
    6. Senator Warner. Mr. Geren, the Army modular force initiative, 
restationing of forces from Europe, and base realignment and closure 
(BRAC), will have a significant impact on local communities which 
receive large increases in military personnel. Quality education for 
school-aged children is one important concern for military families 
affected by these realignments. What is DOD, and the Army in 
particular, doing to ensure that local school districts are prepared to 
receive and educate military children when they arrive as a result of 
the realignment of forces or BRAC?
    Mr. Geren. The Army is working closely with the Department of 
Defense and Department of Education. The Army has identified the need 
for an Army School Transition Plan to develop strategies for successful 
transition of more than 35,000 military-connected students transferring 
from overseas locations to continental United States schools systems as 
a result of the Army Modular Force transformation, the Integrated 
Global Presence and Basing Strategy, and Base Realignment and Closure.
    Local education agencies have expressed concerns about adequate 
school facilities to accommodate the influx of transitioning students. 
Some communities have moved ahead with bond issues, and others have 
made contact with the Department of Education and/or Department of 
Defense to explore new avenues for funding facilities, transportation, 
teachers, and textbooks.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                          future combat system
    7. Senator McCain. Mr. Geren, in the NDAA for Fiscal Year 2006, 
Congress instructed the Pentagon to report on every program that costs 
at least 50 percent more than initial projections. The provision was 
designed to tie programs to their original cost estimates, rather than 
updated cost and schedule baselines. The Pentagon has been allowed to 
change its baseline without invoking the penalty. For example, the 
Army's Boeing-led FCS program has not triggered an official breach 
despite a $161 billion cost estimate that is more than double its 
original baseline estimate. What plans do you propose to ensure 
programs are held to their original baseline figures instead of 
allowing the current practice of rebaselining?
    Mr. Geren. While the Army's implementation plans for this new 
requirement will be influenced by guidance from the Office of the 
Secretary of Defense, the Army intent is full, timely compliance with 
the law. Oversight of the program baselines will continue through 
milestone decision reviews and program executive officer updates to the 
Army Acquisition Executive. Deviation reports using the new criteria 
outlined in the amendment will be reported using current processes and 
procedures.
    While this amendment does not prohibit the re-baselining of 
programs, it does hold program managers accountable to the original 
baseline estimate. By keeping the original estimate as a data point in 
Selected Acquisition Reports (SAR), the entire Department of Defense 
acquisition chain is sensitive to the cost growth of the entire 
program. This is an improvement of the current practice of re-
baselining which does not retain the original baseline estimate in 
official reports.
    With respect to the FCS program, the $161 billion figure cited in 
the question represents the total acquisition cost in then-year 
dollars, and was reported in the November 2005 SAR. The comparable 
original baseline figure is $92.2 billion, a 75-percent increase. When 
calculated using base-year dollars so that the rate of inflation (which 
is beyond a program manager's control) does not influence the result, 
the overall increase is 54 percent (from November 2005 SAR: SAR 
Development Baseline of $77.8 billion; acquisition program baseline 
objective of $120.15 billion.)

    8. Senator McCain. Mr. Geren, how do you plan to implement this new 
amendment with regard to Nunn-McCurdy specifically as it applies to the 
FCS?
    Mr. Geren. In compliance with the new amendment, each Selected 
Acquisition Report (SAR) must reflect the originally established 
baseline estimate along with the estimate deemed to be the original 
under this amendment. Under this amendment, the FCS current baseline 
would be deemed the original baseline estimate. The current FCS 
acquisition program baseline was signed by the Defense Acquisition 
Executive on November 2, 2005, and reported in the November 2005 SAR.
    Oversight of the program baselines will continue through milestone 
decision reviews and program manager updates to the Army Acquisition 
Executive. The Army will not lose sight of the baseline estimate that 
was originally established for the program in 2003.

    9. Senator McCain. Mr. Geren, what is the status of the transition 
of the FCS contract from an OTA to a FAR Part 15 (traditional military 
procurement) contract which was enacted in the NDAA for Fiscal Year 
2006 and which the Secretary of the Army agreed to do in April 2005?
    Mr. Geren. The Army awarded a System Development and Demonstration 
(SDD) Federal Acquisition Regulation (FAR)-based letter contract on 
September 23, 2005, consistent with section 212 of the National Defense 
Authorization Act for Fiscal Year 2006 (Public Law 109-163). The Future 
Combat Systems (FCS) SDD contract (W56HZV-05-C-0724) is a negotiated, 
sole source contract in accordance with FAR Part 15. The FCS SDD 
contract is fully compliant with the Uniform Contract Format (UCF) 
specified in FAR Subpart 15.2 and includes all appropriate FAR 
prescribed clauses. The FCS SDD FAR-based letter contract was 
definitized on March 28, 2006.

                           kc-135 replacement
    10. Senator McCain. Mr. Geren, in August 2005, as Acting Secretary 
of the Air Force, you released a request for information (RFI) for the 
KC-135 Replacement Tanker Aircraft program prior to an analysis of 
alternatives (AOA) being completed. Why did you feel it was necessary 
to release the RFI?
    Mr. Geren. The RFI should not have been released prior to the 
completion of the AOA. After discussion with Senate staff and with DOD 
officials it was rescinded.

    11. Senator McCain. Mr. Geren, please explain why it should be 
assumed the AOA was not conducted in an unbiased and untainted manner 
with a predetermined outcome?
    Mr. Geren. Based on congressional concern, OSD took extraordinary 
steps to ensure that an unbiased and objective process was established, 
to include the creation of an independent, joint Senior Steering Group 
to provide oversight and guidance on the conduct of the AoA. The 3-star 
level Senior Steering Group, with members from all Services, the Joint 
Staff, OSD, and USTRANSCOM, oversaw the study.
    In addition to the SSG's oversight, USD(AT&L) contracted with the 
Institute of Defense Analyses (IDA), another FFRDC, to conduct an 
independent assessment of the AoA. IDA focused on the RAND methodology 
and their objectivity. IDA worked closely with RAND for over 18 months 
as members of AoA Integrated Product Teams and as participants in cost 
and effectiveness panels. IDA obtained AMC and RAND computer models and 
ran them independently to substantiate results, suggest new approaches, 
conduct excursion analyses, and comment on draft versions of the AoA 
report. IDA's assessment, pending receipt of RAND's formal report, is 
that the AoA is objective based on study balance; correctness; clarity 
in explanation; verifiability and traceability; logic and consistency; 
completeness; and clarity in presentation. IDA stated in their outbrief 
that they had never seen a more complete and thorough AoA and that the 
AoA provides a good foundation for the Department's acquisition 
planning.
    OSD(PA&E), after delivery of the draft AoA in August 2005, also 
performed a sufficiency review of the AoA. PA&E assessed the extent to 
which the AoA illuminated capability advantages and disadvantages; 
considered joint operation plans; examined sufficient feasible 
alternatives; discussed key assumptions and variables; assessed 
technology risk and maturity; and calculated costs. In addition PA&E 
worked closely with RAND in a collaborative, transparent environment 
throughout the entire development of the AoA. PA&E participated in AoA 
working groups, Integrated Product Teams, and SSG meetings. PA&E made 
site visits and reviewed and analyzed all of the data, assumptions, 
models, spreadsheets and programs used in the AoA. PA&E also performed 
independent research, using outside sources to verify the results of 
the models used in the AoA through validation of input data, 
assumptions, and methodology. Their assessment, pending receipt of 
RAND's formal report, is that the AoA is sufficient. PA&E found that 
all discrepancies were resolved, the rigor of review and analysis were 
unprecedented, that the AoA met all guidance provided by USD(AT&L), and 
that a competitive acquisition strategy based on the AoA results should 
yield the best value for the Department.

                        guidance at army prisons
    12. Senator McCain. Mr. Geren, what specific Army guidance will you 
give to soldiers, military police (MPs), interrogators, translators, 
intelligence soldiers, etc. at army prisons throughout Iraq and 
Afghanistan, and at Guantanamo Bay (GITMO)?
    Mr. Geren. All members of the U.S. Armed Forces, regardless of 
specialty or profession, must understand the requirement to treat all 
detainees humanely at all times and under all circumstances, from the 
moment a detainee falls under U.S. custody and control to the moment of 
release or repatriation. A soldiers also must understand their 
obligation to report any deviation from this standard to the proper 
authority. These basic concepts of responsibility and accountability 
are emphasized in the recently published DODD 3115.09, Intelligence 
Interrogation, Detainee Debriefing, and Tactical Questioning and 
Medical Program Memorandum, Medical Program Principles and Procedures 
for the Protection and Treatment of Detainees in the Custody of the 
Armed Forces of the United States, and in AR 190-8, Enemy Prisoners of 
War, Retained Personnel, Civilian Internees, and Other Detainees. DOD 
and the Army are in the process of reviewing and updating other 
policies, doctrine and training plans to ensure that these core 
concepts are trained, emphasized, and implemented in each and every 
military operation in which members of the U.S. Armed Forces are 
involved.
    Current pre- and post-deployment training for all military 
services, civilians, and contractors is continuously updated, based on 
training guidance, theater mission requirement, and the Center for Army 
Lessons Learned (CALL) data, with additional training requirements for 
contract interrogators. Internment/Resettlement (I/R) mission pre-
deployment training for Army and Sister Service units is conducted at 
Fort Dix, NJ, Fort Lewis, WA, and Fort Bliss, TX. The Combat Training 
Center (CTC) Program has incorporated detainee operations lessons 
learned vignettes in all rotations since January 2004. Current 
Operational training guidance includes increased cultural awareness 
leader training and country orientation, updated and increased Law of 
War training, theater specific training that includes handling enemy 
personnel and equipment, and an introduction to detainee operations 
using the US Army Military Police School exportable Detainee Operations 
Training Support Packages. The Army continues to support ongoing 
training with Mobile Training Teams tailored to meet unit mission 
requirements.
    Additionally, all soldiers deployed to Iraq and Afghanistan are 
under the combatant command of the U.S. Central Command (USCENTCOM) 
while they are deployed. Because USCENTCOM organizes and employs 
forces, assigns tasks, designates objectives, and gives 
theauthoritative direction necessary to accomplish the missions in Iraq 
and Afghanistan, it is imperative that deployed soldiers are aware of 
and follow any AOR specific orders or policies pertaining to detainees 
which are published by USCENTCOM through the operational chain of 
command.

    13. Senator McCain. Mr. Geren, Major General Geoffrey Miller, who 
ran the GITMO camp from October 2002 to March 2004 and GITMO-ized Abu 
Ghraib and has been linked to the abuse scandal in certain reports, is 
declining to answer questions in two court martial cases involving the 
use of dogs during interrogations at the camp. I would like to hear 
your thoughts on this issue and if you are confirmed, what are you 
going to do about it?
    Mr. Geren. I have been informed that Major General Miller has 
invoked his Article 31 rights under the Uniform Code of Military 
Justice by declining to answer pretrial questions in a court-martial 
case involving other service members. It would be inappropriate for me 
to comment on his invocation of rights. Since General Miller's original 
declination, I have been informed that he has since met with the 
service member's attorneys in the ongoing court-martial and answered 
their questions. I understand that the SASC plans hearings on this 
matter and the Army will support the committee in its effort.
    As far as the Army's review of MG Miller, the Department of the 
Army Inspector General (DAIG) independently investigated the 
allegations made against General Miller concerning detainee operations. 
The DAIG determined the allegations to be unsubstantiated. After 
multiple reviews, the DAIG report of investigation has been approved by 
the Army leadership. I have been informed General Miller has cooperated 
with the DAIG throughout its investigation of the allegations against 
him.

    14. Senator McCain. Mr. Geren, can you provide the current 
procedures under which DOD makes available to Congress the confidential 
reports the U.S. receives from the International Committee of the Red 
Cross concerning U.S.-operated places of detention in Guantanamo Bay, 
Afghanistan, and Iraq?
    Mr. Geren. DOD policy requires that the International Committee of 
the Red Cross (ICRC) reports received by a military or civilian 
official of the DOD at any level shall, within 24 hours, be transmitted 
to the Under Secretary of Defense for Policy (USD(P)). The DOD policy 
further provides that all ICRC communications shall be marked with the 
statement ``ICRC communications are provided to DOD as confidential, 
restricted-use documents. As such they will be safeguarded the same as 
SECRET NODIS information using classified information channels. 
Dissemination of ICRC communications outside of DOD is not authorized 
without the approval of the Secretary or Deputy Secretary of Defense.''
    According to an agreement worked out between DOD and Armed Services 
Committees leadership, the OUSD(P) has committed to provide the Senate 
Armed Services Committee (SASC) and House Armed Services Committees 
(HASC) with access to ICRC working papers, reports, and letters on DOD 
detention facilities. Under the agreement, OUSD(P) will provide ICRC 
working papers, reports, and letters to the SASC and the HASC on a 
quarterly basis. Prior to this hearing on February 15,2006, our last 
brief on ICRC documents to the SASC occurred in November 2005.
                                 ______
                                 
                Question Submitted by Senator John Thune
                        army/air force aircraft
    15. Senator Thune. Mr. Geren, the Air Force and the Army have been 
working together since 2004 to create a joint program with the Army 
Future Cargo Aircraft (FCA) and the Air Force Light Cargo Aircraft 
(LCA). There have been reports that in addition to organic lift the 
Army wants to take over the Air Force intra-theater airlift mission as 
well, which has created some tension between the Services. If 
confirmed, how will you work to resolve this contentious issue to meet 
both Services' needs?
    Mr. Geren. There are ongoing discussions and agreements between the 
Army and the Air Force on the FCA and LCA programs. When it comes to 
intratheater airlift, specifically at the strategic and operational 
levels, no one in the world can match the U.S. Air Force's ability. The 
Army's FCA was never intended to compete with the Air Force's C-17 or 
C-130 aircraft roles and missions. The FCA is a complementary system 
that fills a gap at the tactical level. That gap is the movement of 
time sensitive, mission critical resupply and key personnel transport 
from the Initial Staging Base or Port of Debarkation (POD) to the 
brigade combat team (BCT); what we like to describe as the last 
tactical mile in the end-to-end distribution system. These BCTs are 
often deployed to austere locations across the noncontiguous 
battlefield. Today we are mitigating our risk associated with this gap 
through employment of a combination of tactical wheeled vehicle 
convoys, CH-47 helicopters, and the use of our smaller, less capable 
cargo and utility aircraft such as the C-23, C-12, and C-26. The FCA 
will enable the Army to lighten the heavy burden on our CH-47 (Chinook) 
helicopter fleet so they can focus on supporting division-level and 
modular brigade force structure warfighting requirements. Furthermore, 
the FCA will reduce the risk to soldiers' lives associated with convoy 
operations and forward arming and refueling points required to support 
extended CH-47 helicopter long haul cargo operations.
    We are in the process of developing a Joint Program Office (JPO) 
that will be established, at least initially, with an Army lead. The 
Services anticipate a JPO Charter will be approved by the Services' 
Acquisition Executives prior to the Army reaching Milestone C on the 
FCA program. The Army still plans to begin fielding FCA to its aviation 
force in fiscal year 2008. The USAF will follow with the fielding the 
LCA approximately two years later.
    In summary, we are a Joint (Army/Air Force) team working together 
to field the best equipment possible to meet the combatant commander's 
needs.
                                 ______
                                 
    [The nomination reference of Preston M. Geren follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 18, 2006.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Preston M. Geren, of Texas, to be Under Secretary of the Army, vice 
R.L. Brownlee, resigned.
                                 ______
                                 
    [The biographical sketch of Preston M. Geren, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

                Biographical Sketch of Preston M. Geren

    Pete Geren joined the Department of Defense in September 
2001 to serve as Special Assistant to the Secretary of Defense 
with responsibilities in the areas of interagency initiatives, 
legislative affairs and special projects. Mr. Geren served as 
Acting Secretary of the Air Force from July to November 2005.
    Prior to joining the Department of Defense, Geren was an 
attorney and businessman in Fort Worth, Texas.
    From 1989 until his retirement in 1997, Geren was a Member 
of the U.S. Congress, representing the 12th Congressional 
District of Texas for four terms. He served on the Armed 
Services, Science and Technology, and the Public Works and 
Transportation Committees during his tenure in Congress.
    Geren received his BA degree from the University of Texas 
in 1974 and his JD from University of Texas Law School in 1978. 
He and his wife, Beckie, have three daughters: Tracy, Annie, 
and Mary.
                                ------                                

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Preston M. 
Geren in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Preston ``Pete'' Murdoch Geren III.

    2. Position to which nominated:
    Under Secretary of the Army.

    3. Date of nomination:
    January 18, 2006.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    January 29, 1952; Fort Worth, Texas.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Rebecca Ray Geren.

    7. Names and ages of children:
    Tracy Elizabeth Geren, 16; Sarah Anne Geren, 12; and Mary Caroline 
Geren, 9.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Georgia Tech, 1970-1973, no degree.
    University of Texas, B.A., 1974.
    University of Texas, J.D., 1978.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    November 2005-present - Special Assistant to the Secretary of 
Defense.
    July 2005-November 2005 - Acting Secretary of the Air Force.
    September 2001-July 2005 - Special Assistant to the Secretary of 
Defense.
    April 1999-August 2001 - Attorney, self-employed - 210 W. 6th 
Street, Fort Worth, Texas.
    January 1997-April 1999 - Management Consultant, Public Strategies, 
Inc., 2421 Westport Parkway, Fort Worth, Texas.
    September 1989-January 1997 - Member of Congress, 12th 
Congressional District of Texas.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    D/FW International Airport - Board of Directors, 1999-2001.
    Executive Assistant to Senator Lloyd Bentsen, 1983-1985.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    See SF 278 and Ethics Agreement.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Honorary Member, Rotary Club of Fort Worth.
    Member, Excahnge Club of Fort Worth.
    Member, State of Bar of Texas.
    Member, Fort Worth Club.
    Member, City Club of Fort Worth.
    Member, Rivercrest Country Club.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    Candidate for U.S. Congress: 1986, 1989, 1990, 1992, 1994.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    January 5, 2001, Presidential Inaugural Committee, $475.
    February 19, 2001, Jim Lane for City Council, $100.
    February 26, 2001, Wendy Davis for City Council, $100.
    March 20, 2001, Martin Frost for Congress, $250.
    March 21, 2001, Frank Moss for City Council, $100.
    March 22, 2001, Granger for Congress, $250.
    April 25, 2001, Dionne Bagsby for County Commissioner, $150.
    June 25, 2001, Blunt for Congress, $500.
    October 8, 2003, Charlie Geren for State Representative, $1,000.
    December 16, 2003, Friends of the University of Texas PAC, $500.
    April 15, 2004, Koehler for School Board, $250.
    April 25, 2005, Carter Burdette for City Council, $100.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Honorary PhD University of North Texas.
    Outstanding Young University of Texas Alumnus.
    Distinguished alumnus, University of Texas Law School.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None, other than newsletter-type material when I was in Congress. I 
do not have copies.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.

                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Preston M. Geren.
    This 23rd day of January, 2006.

    [The nomination of Preston M. Geren was reported to the 
Senate by Chairman Warner on February 16, 2006, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on February 17, 2006.]
                              ----------                              

    [Prepared questions submitted to Michael L. Dominguez by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the Military Departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    In your responses to advance questions prior to your previous 
nomination hearing on July 31, 2001, you indicated that ``there are 
dynamics today different from 15 years ago that may warrant review of 
some provisions [of Goldwater-Nichols], such as the personnel 
assignment rules and how we select joint specialty officers.'' You 
expressed an interest in exploring these issues to ensure the services 
have ``sufficient flexibility in the management of our personnel 
resources in a joint environment.''
    Based on your experience as the Assistant Secretary of the Air 
Force for Manpower and Reserve Affairs, are there specific 
modifications to the Goldwater-Nichols Act for which you see a need?
    Answer. The Goldwater-Nichols Act deserves credit for creating a 
strong framework for today's joint warfighting capabilities. Two 
decades of U.S. military successes bear witness to this. However, while 
operational jointness has matured, the personnel system for Joint 
Officer Management has not kept pace. In the global war on terrorism, 
members are integrated within Joint Task Force organizations, serving 
various tour lengths on a rotational basis. The intensity of these 
joint experiences is almost certainly beyond the scope framers of 
Goldwater-Nichols contemplated. We should build on the foundation 
established by Goldwater-Nichols and devise mechanisms to recognize 
joint competencies accrued in these joint operational experiences, as 
well as those derived from joint training and exercises we now 
routinely conduct in preparation for combat.
    Finally, I believe that ``jointness'' is no longer a desirable 
attribute limited merely to the Active component, and the time has come 
to integrate the Reserve component in this valuable framework, and to 
recognize the role of senior non-commissioned officers and senior 
civilians. This means offering joint education, training and 
experiences that will fully acculturate all of these key contributors 
to joint performance; which necessarily entails tracking/recognizing 
joint qualifications. If confirmed, I would enter policy discussions 
from this general platform.
    Question. If confirmed, what actions would you take in the areas 
you have identified?
    Answer. If confirmed, I will work with the Secretary, Joint Staff, 
combatant commands, military services, and Congress to advance the 
vision documented in the Department's recently developed Strategic Plan 
for Joint Officer Management and Joint Professional Military Education.
                                 duties
    Question. Section 136a of title 10, U.S.C., provides that the 
Deputy Under Secretary of Defense for Personnel and Readiness shall 
assist the Under Secretary of Defense for Personnel and Readiness in 
the performance of his or her duties.
    Assuming you are confirmed, what duties do you expect you will be 
assigned?
    Answer. If confirmed, I will assist the Under Secretary of 
Personnel Readiness in carrying out every aspect of his 
responsibilities, functions, relationships, and authorities in law 
consistent with DOD Directive 5124.2, ``Under Secretary of Defense for 
Personnel and Readiness (USD(P&R))'' and DOD Directive 5124.8, 
``Principal Deputy Under Secretary of Defense for Personnel and 
Readiness (PDUSD(P&R)).'' I will be his principal staff assistant and 
advisor in all matters relating to the management and well-being of 
military and civilian personnel in the DOD Total Force structure. I 
will provide oversight for the direction of policies, plans, and 
programs governing Total Force management as it relates to manpower; 
force management; planning; program integration; readiness; National 
Guard and Reserve component affairs; health affairs; training; 
personnel requirements and management; and compensation. This includes 
equal opportunity, morale, welfare, recreation, and quality of life 
matters for both civilian and military personnel and their families.
                             relationships
    Question. If confirmed, what would your working relationship be 
with:
    The Secretary of Defense.
    Answer. If confirmed, I expect to serve the Secretary as an advisor 
and advocate for the management of human resources in the Department.
    Question. The Deputy Secretary of Defense.
    Answer. If confirmed, I would expect my relationship with the 
Deputy Secretary to be fundamentally the same as that with the 
Secretary of Defense.
    Question. The Under Secretary of Defense for Personnel and 
Readiness.
    Answer. If confirmed, I would work directly for the Under 
Secretary. I would take my direction from Dr. Chu and assist him in 
carrying out his duties and responsibilities to ensure personnel 
readiness and quality of life for our military and civilian personnel. 
I would expect to interact with the Under Secretary on a daily basis 
and assist him in formulating policies and providing advice and 
recommendations.
    Question. The Assistant Secretaries of Defense for Reserve Affairs 
and Health Affairs.
    Answer. If confirmed, I would anticipate a close working 
relationship with the Assistant Secretaries toward the achievement of 
Department objectives with respect to our mutual goals. I would expect 
each Assistant Secretary to provide expertise and leadership in his or 
her area of responsibility, to help carry out the responsibilities for 
which I might be held responsible.
    Question. The DOD General Counsel.
    Answer. The General Counsel performs a vital function in support of 
departmental policymaking and the review of myriad decisions. If 
confirmed, I would anticipate regular communication, coordination of 
actions, and exchange of views with the General Counsel and the 
attorneys assigned to focus on personnel policy matters. I would expect 
to seek and follow the advice of the General Counsel on legal, policy, 
and procedural matters pertaining to the policies promulgated from the 
Personnel and Readiness office.
    Question. The Service Secretaries.
    Answer. If confirmed, I would hope to work closely with the 
Secretaries of the Military Departments on all matters relating to the 
management and well-being of military and civilian personnel in the DOD 
Total Force structure.
    Question. The Assistant Secretaries of the Army, Navy, and Air 
Force for Manpower and Reserve Affairs.
    Answer. If confirmed, I would hope that I could look to these 
officials as partners in carrying out the human resource obligations of 
the Services.
    Question. The Deputy Chiefs of Staff of the Army and Air Force for 
Personnel, the Chief of Naval Personnel, and the Deputy Commandant of 
the Marine Corps for Manpower and Reserve Affairs.
    Answer. If confirmed, I would hope to have effective working 
relationships with these officers to ensure that DOD attracts, 
motivates and retains the quality people it needs.
    Question. The Joint Staff, particularly the Director for Manpower 
and Personnel (J-1).
    Answer. If confirmed, I would hope to have a close coordinating 
relationship and open channels of communication with the Joint Staff 
regarding manpower and personnel policy issues.
    Question. The combatant commanders.
    Answer. If confirmed, I would hope to foster mutually respectful 
working relationships that translate into providing the Total Force 
capabilities needed to complete combat missions.
                            major challenges
    Question. Prior to assuming the duties of Assistant Secretary of 
the Air Force for Manpower and Reserve Affairs, in responding to 
advance questions, you anticipated that your top challenges would be 
``recruitment, retention, civilian force management, and preservation 
of quality military health care.''
    What do you consider to be your most significant accomplishments in 
meeting these challenges?
    Answer. Less than a month after my confirmation as Assistant 
Secretary of the Air Force, our problem set was changed by al Qaeda's 
attack on the U.S. Homeland. Instead of recruiting and retention, the 
Air Force's principal force management challenge of the last 4 years 
has been force shaping--re-sizing career fields within the force to 
distribute stress equitably and meet the demand for skills needed to 
fight the global war on terrorism.
    In the area of civilian force management, the standout achievement 
of the last 4 years is authorization by Congress of the National 
Security Personnel System, and the subsequent design and development of 
the specific policies that will improve the agility of the Defense 
Department's civil workforce and emphasize achievement of the 
Department's national security mission over seniority in setting 
compensation.
    The quality of the Military Health System remains superb, and we 
should all note with pride the system's astounding achievements in 
battlefield care and rapid evacuation of casualties. The cost of the 
system--particularly the rapid increase in costs of care for our 
retired constituents--remains of concern.
    I also look back with pride at achievements in two areas that, in 
2001, were not anticipated as problems. First, sexual assaults at the 
U.S. Air Force Academy highlighted this serious problem in the Air 
Force. The Air Force's aggressive attack on this crisis laid much of 
the foundation for the policy architecture the DOD deployed to deal 
with this tragedy. Second, the war on terror has placed demands on the 
Reserve components unprecedented in their depth and duration. I am 
proud to have facilitated and enabled the Air National Guard and the 
Air Force Reserve in meeting those demands to the greatest extent 
possible with volunteers, and through the practices they developed, to 
have defined much of what it means to be an ``operational reserve.''
    Question. What do you anticipate would be the most significant 
challenges you will face if confirmed as the Deputy Under Secretary of 
Defense for Personnel and Readiness, and how would do anticipate 
addressing these challenges?
    Answer. Recruiting and retaining quality men and women to serve in 
the military and as civilians in the Department is a significant 
challenge. Building and sustaining a correctly shaped and skilled force 
to meet the validated demands of the combatant commanders will remain a 
challenge and we will need additional authorities from Congress to 
ensure success. We must not only attract the people who are able to 
carry out the duties required of a 21st century Department of Defense, 
we must retain them by providing appropriate compensation and benefits, 
predictable deployment schedules, care for their families while they 
are away, and work environments free of harassment and prejudice. In 
light of ever-changing threats and operational demands, we must see to 
it that the Total Force, made up of well-balanced Active and Reserve 
components, is trained and ready to defeat our adversaries. When these 
men and women have completed their service, we must help them or their 
survivors transition to different lives, letting them know that their 
contributions made a difference and are appreciated. To meet these 
challenges, I will review current policies and initiatives from the 
broad OSD perspective and recommend adjustments in order to accomplish 
the goal of building and maintaining a military and civilian force that 
can carry out the duties required of a 21st century Department of 
Defense.
                        active-duty end strength
    Question. For fiscal year 2006, the Department of Defense requested 
an authorized Active-Duty end strength for the Army of 482,400. In 
order to meet the manpower demands for current operations, however, the 
Army's actual Active-Duty end strength on a daily basis has averaged 
over 495,000, and strong arguments have been advanced that the Army 
must have substantially more Active-Duty personnel to support 
transformation and operational demands.
    What is your view of the required Active-Duty Army end strength 
needed to perform its various missions?
    Answer. Since 2001, the Army has grown by almost 12,000 soldiers in 
order to support the current national emergency. However, this does not 
imply a need to permanently raise the Active end strength of the Army. 
The Army is taking measures to create a more capable force within its 
current resources. The measures include:

        <bullet> Reallocating personnel from low demand skills to those 
        experiencing greater stress.
        <bullet> Rebalancing skills between and within the Active and 
        Reserve components (70,000 through fiscal year 2005; 55,000 
        more through fiscal year 2010).
        <bullet> Converting historically military positions to civilian 
        performance.

    The net result of these actions should allow the Army to add 
additional Brigade Combat Teams to the Force which will increase the 
combat capability of the Army and reduce operational stress.
    Question. The Air Force is under budgetary pressure to reduce its 
Active-Duty end strength, as well as its Reserve components and 
civilian workforce by as much as 40,000 individuals.
    What is your understanding of the steps that will be taken in 2007 
and beyond with respect to the military and civilian employee manning 
of the Air Force and what impact do you foresee on Air Force readiness?
    Answer. I firmly believe that the decisive and timely actions Air 
Force is taking to shape a stream-lined and more cost effective team of 
uniformed, civilian and contractor personnel will prevent a future 
readiness problem. Moreover, the Air Force will achieve its personnel 
reductions in three broad areas: organizational efficiencies, process 
efficiencies, and manpower reductions tied to legacy force structure 
changes. This, in turn, will free up the resources necessary to address 
compelling recapitalization needs. This manpower realignment will be 
deliberate and carefully controlled. As we secure our future 
capabilities we will not sacrifice today's readiness.
    Question. If confirmed, what role would you expect to play in 
assisting the Air Force in balancing its manpower needs against other 
requirements?
    Answer. Manpower is not a requirement in itself. Our manpower 
investments must complement those in many areas, such as platforms, 
weapons, maintenance and training, to deliver capabilities (such as 
combat air dominance or logistics airlift). These capabilities are the 
real requirements. For manpower we believe it is important to help the 
Air Force, and all the Services, define their workload requirements 
such that capabilities can be operationalized in a cost-effective 
manner. Otherwise we would fail to have adequate funds to pay for other 
required capability enablers. In addition to helping the Air Force 
arrive at a fiscally informed Total Force manpower solution, we must 
work with them to ensure they have the tools to build and shape the 
cost-effective force we have defined.
                 reserve and national guard deployments
    Question. Current policy of the Department provides that under 
section 12302 of title 10, U.S.C., members of Reserve components shall 
not be required to involuntarily deploy more than 24 months 
cumulatively in response to the existing national emergency. This 
policy has exempted thousands of members of the Selected Reserve from 
additional involuntary call ups in support of overseas operations in 
Iraq and Afghanistan.
    What is your understanding of the number of members of the Selected 
Reserve, by Service, who are unavailable for deployment as a result of 
the 24-month policy?
    Answer. As of November 30, 2005, the current Selected Reserve 
population was 826,171. Of that population, 381,180 (or 46.1 percent) 
have been or are currently mobilized. Based on the best available data 
there are 37,007 servicemembers who have served more than 21 months, 
with the overwhelming majority of these personnel being volunteers.
    Question. What is your assessment of the Army's ability to support 
scheduled troop rotation planning beyond 2006, particularly in combat 
support and combat service support missions, given the 24-month policy?
    Answer. The Army in coordination with the Joint Staff is currently 
planning for rotations in 2007 and beyond. It is important that we 
recognize that neither the Army nor the United States are in this 
conflict alone. The Army's Sister Services, our coalition partners, or 
our immensely capable contractor partners can provide capabilities to 
offset any shortfalls that might emerge.
    Question. What measures are being taken in the Department to 
respond to operational requirements for low density, high demand units 
and personnel whose skills are found primarily in the Reserve 
components, e.g., civil affairs, special operations, military police, 
truck drivers?
    Answer. The Services are conducting a ``Rebalancing'' program where 
structure that is in low demand or no longer required is converted to 
skills and capabilities that is in high demand. Over time, rebalancing 
will help ease the stress on the force caused by repeated deployments 
in these skill or capability areas. In the near-term, while the 
Services are conducting rebalancing, the Department is also using Joint 
solutions to meet Combatant Commander Requirements.
                     operations and personnel tempo
    Question. In your view, what would be the effect on recruiting, 
retention, and readiness of the Army and Marine Corps of continuation 
of the current rates of operations tempo and personnel tempo through 
2010?
    Answer. High tempo is stressful, and protracted high tempo 
compounds the stress. Recruiting and retaining the right numbers of 
people in the right skills has always been a challenge and continues to 
be our challenge today. Yet the Department has well demonstrated, with 
strong support of Congress, that we can sustain recruiting and 
retention despite those challenges.
    Question. In your judgment, what would be the impact on the current 
rates of operations and personnel tempo of assigning principal 
responsibility for crisis and consequence management for natural, 
domestic disasters to either our Active or Reserve component forces?
    Answer. Historically, we have always responded to natural, domestic 
disasters as a Total Force, employing state or Federal authority, as 
appropriate. This allows the President and the Secretary of Defense the 
greatest possible flexibility in meeting both forward defense and 
defense at home needs. Because future demand in these two conflict 
domains is uncertain, specialization is apt to be exactly wrong--
increasing stress in some areas and creating surplus capacity in 
others. In my opinion, the Nation is best served with robust general 
purpose forces in both Active and Reserve components.
                 individual ready reserve recall policy
    Question. The Department of Defense established a policy in July 
2005 mandating the discharge of officers in the Individual Ready 
Reserve (IRR) who are beyond their military service obligation (MSO) 
unless the officer specifically requests retention in the IRR. These 
policies have not been applied to enlisted personnel.
    Such a policy cannot be applied to enlisted personnel since they 
are governed by their enlistment contracts, whereas officers serve 
indefinitely, even after completion of their MSO. This policy 
emphasizes communication as a critical aspect in managing the officer 
corps. It focuses on ensuring that our IRR is a viable military asset 
comprised of officers who desire to remain available to the military 
after completing their obligation.
    What are your views about policies affecting continued service by 
officer and enlisted personnel in the Reserve component who have 
fulfilled their MSO?
    Answer. The Department views all service, including that served 
beyond MSO, for both officers and enlisted members, to be voluntary, 
and our policies support that view. Simultaneously, we recognize the 
value of retaining trained and motivated members in the service and we 
therefore continue to offer opportunities to retain our members.
    Question. In your view, should members of the Reserve who are 
deployed when they reach the end of their MSO be treated differently?
    Answer. Department policy treats deployed and nondeployed members 
the same regarding expiration of their MSO unless a stop-loss policy 
has been implemented. Currently, only the Army has a stop-loss policy 
in effect. For Army Reserve component members, this means that they 
will be retained on Active-Duty for the duration of their mobilization 
tour plus 90-days to ensure proper post-deployment transitioning. Use 
of stop-loss policy is sometimes necessary for force stabilization and 
continuity purposes to ensure the safety and security of units and 
members.
     mobilization and demobilization of national guard and reserves
    Question. In the aftermath of the attacks of September 11, 2001, 
the National Guard and Reserves have experienced their largest and most 
sustained employment since World War II. Numerous problems have been 
identified in the planning and procedures for mobilization and 
demobilization, e.g., inadequate health screening and medical readiness 
monitoring, antiquated pay systems, limited transitional assistance 
programs upon demobilization, lack of access to members of the 
Individual Ready Reserve.
    What is your assessment of advances made in improving mobilization 
and demobilization procedures, and in what areas do problems still 
exist?
    Answer. There have been advances in the mobilization and 
demobilization procedures. Notification lead time for mobilization has 
a goal of 30 days or greater for individuals and units ensuring 
individuals have sufficient time to prepare prior to their 
mobilization. Mobilization lengths are being more closely examined to 
ensure prudent and judicious use of Reserve component units and 
individuals. Post mobilization training is more efficient, shortening 
post mobilization training time without endangering the individuals due 
to insufficient or incomplete training. Demobilization advances include 
providing medical screening as soon as possible, sometimes even 
conducting screening in the theater of operations prior to 
redeployment. An issue we will be watching as part of the 
demobilization process is the re-equipping of the Reserve component, 
particularly the Army Reserve and Army National Guard.
    Question. What do you consider to be the most significant enduring 
changes to the Reserve components aimed at ensuring their readiness for 
future mobilization requirements?
    Answer. Among the most significant and enduring changes for our 
Reserves in the Total Force is the shift in the paradigm of their use--
from the traditional strategic Reserve to today's operational Reserve. 
As such, our Reserves are an integral part of all service operations 
across the whole spectrum of conflict. To ensure the maximum readiness 
of the Reserves, the Department in conjunction with the Services, is 
actively working a number of initiatives. We are actively reshaping 
both our Active and Reserve Forces through Rebalancing. We are 
establishing predictable timetables for Reserve component use. With the 
``train, mobilize, and deploy'' approach to Reserve component 
employment we are working to capitalize our efforts on scarce 
resources, reduce cross-leveling of units, and limit unit disruptions. 
Lastly, the improvements legislated in recent years to improve the 
timely access to TRICARE for Reserves, both the members and their 
families, have allowed the Reserves to be ready to be employed with 
less disruptions.
              medical and dental readiness of the reserves
    Question. Medical and dental readiness of Reserve component 
personnel has been an issue of significant concern to the committee, 
and shortfalls that have been identified have indicated a need for 
improved policy oversight and accountability. For example, significant 
problems occurred when mobilizing and demobilizing soldiers were placed 
on medical hold for extended periods of time due to lack of 
coordination and insufficient medical resources. More recently, the 
threatened cancellation by the Department of Health and Human Services 
of a contract for health care services for reservists revealed a lack 
of communication between the Army Reserve, Office of Health Affairs, 
and Reserve Affairs.
    If confirmed, how would you seek to clarify and coordinate 
reporting on the medical and dental readiness of the Reserves?
    Answer. Tracking the medical readiness of the force is an important 
issue. Health Affairs has established a standardized management 
framework for quality assurance and a compliance monitoring program to 
measure Individual Medical Readiness (IMR). On January 3, 2006, DODI 
6025.19 was published. It implements responsibilities, and prescribes 
procedures to improve medical readiness through monitoring and 
reporting on IMR.
    Question. How would you improve upon the Department's ability to 
produce a healthy and fit Reserve component?
    Answer. A fit and healthy Reserve Force is a shared responsibility 
between the Department and each individual member of the Reserve 
components. Ensuring a fit and healthy force is of prime importance to 
the Department and several key initiatives are currently underway to 
support that goal. Making the reservist a partner in managing and 
reporting on their physical, medical and dental readiness through 
periodic health assessments and annual dental screenings is already 
having a positive effect on individual medical readiness. This approach 
is not only revolutionary but is proving to be successful.
                implementation of tricare for reservists
    Question. The National Defense Authorization Act for Fiscal Year 
2006 authorized new categories of eligibility for TRICARE for members 
of the Selected Reserve, which are required to be implemented by 
October 1, 2006.
    What is your assessment of the Department's ability to timely 
implement the new benefits and the challenges it will have to overcome?
    Answer. In order to implement the expanded TRICARE Reserve Select 
program on October 1, 2006, we will need to determine the program 
design and documentation requirements for reservists who are eligible 
unemployment recipients or not eligible for an employer-sponsored 
health plan, establish procedures for an open enrollment season, 
publish regulatory changes, modify the Defense Enrollment Eligibility 
Reporting System to include new categories of eligible beneficiaries, 
modify our TRICARE contracts, and work with the Reserve components to 
educate Selected reservists on their new health care opportunities. 
This is clearly a daunting set of tasks, but I am confident that it can 
be accomplished. Last year, through the untiring efforts of many 
dedicated OSD and Military Department staff members, we implemented the 
initial TRICARE Reserve Select program in a 6-month timeframe.
    Question. If confirmed, what role would you play in coordinating 
the efforts of the Assistant Secretaries of Health Affairs and Reserve 
Affairs in the implementing these new benefits?
    Answer. As noted, several steps are required to meet the deadline 
of October 1, 2006 for implementation, and these steps involve several 
elements within the Personnel & Readiness organization--including 
Reserve Affairs, Health Affairs, and the Defense Manpower Data Center. 
My role would involve tracking progress on the needed tasks, 
coordinating our efforts with those of the Military Departments, and 
quickly resolving issues.
                        training transformation
    Question. The Department has implemented its Training 
Transformation plan and made progress in articulating milestones for 
establishment of a joint national training capability. Despite the 
importance of achieving realistic joint training, however, achievement 
of key goals aimed at supporting joint training, such as establishment 
of a fully trained Standing Joint Force Headquarters, will not be 
achieved until October 2009.
    If confirmed, what role would you expect to play in overseeing the 
DOD Training Transformation Implementation Plan?
    Answer. Realistic joint training within the DOD is not solely 
dependent upon Training Transformation (T2). The Department conducts 
many realistic joint training events. Training Transformation has a key 
role in accelerating progress toward more effective and efficient joint 
operations. I, along with my Service and OSD counterparts, have been 
actively engaged in shaping the strategy and implementing direction 
since the inception of the T2 Program.
    Since we began this program in 2001, the spirit of cooperation and 
collaboration among the Services, Joint Forces Command, Special 
Operations Command, the other combatant commands, and the Joint Staff 
only deepens and broadens. The T2 business process can be described as 
open, collaborative, incentivized and transparent.
    Question. What do you consider to be the greatest challenges to be 
overcome in establishing realistic and required joint training 
opportunities?
    Answer. DOD must persist and expand in its transformation of joint 
training and education of the Total Force (Active military, Reserve 
components, career civilian, and contractor). The goal is to better 
enable joint force operations. We will also build partner capacity and 
enable the continuous, capabilities-based transformation of the 
Department.
    The emergence of new joint mission areas and the inevitability that 
more irregular warfare challenges will surface in the future 
necessitate innovative, effective, and efficient training and education 
concepts to address them without increasing the stress on the force. 
These imperatives require a new approach in providing training and 
education initiatives to equip civil and military warfighters to 
overmatch any future opponent. The Department should continue to pursue 
increased joint training efficiency and capability through live, 
virtual, and constructive technology tradeoffs and explore alternative 
business practices to ensure efficient alignment and consolidation of 
joint training programs and resources with joint training priorities 
based on mission needs.
    Question. How do you evaluate the performance of the services to 
date in supporting joint training initiatives?
    Answer. We have, with your support of the T2 Program and the 
President's budget, made significant progress in the creation of T2's 
three supporting joint capabilities: Joint Knowledge Development and 
Distribution Capability (joint training and education for individuals); 
Joint National Training Capability (joint unit and collective 
training), and Joint Assessment and Enabling Capability (assessments to 
answer the question are we truly transforming training).
    The Joint Knowledge Development and Distribution Capability (JKDDC) 
has fielded its JKDDC.Net website to provide a centralized location for 
accessing Service and DOD Agency learning management systems, populated 
with 19 joint courses for wide area distribution on prioritized 
combatant command needs and with their sponsorship. Another success for 
JKDDC is their hosting of the Combating Trafficking in Persons course 
which was developed collaboratively with the Department of State and 
our Academic Advanced Distributed Learning Co-laboratory at the 
University of Wisconsin. Over this year the office of primary 
responsibility for JKDDC will transition from the Chairman of the Joint 
Chiefs of Staff to Commander, Joint Forces Command.
    Joint National Training Capability (JNTC) works to provide 
realistic distributed joint context to Services' sites and events and 
to the combatant commands as well. JNTC has already moved from discrete 
events to one that is venue centric with significantly decreased 
planning time for the distribution of joint training by moving 
electrons and not people.
    Participation by the Services in Joint National Training Capability 
(JNTC) events has not interfered with their title 10 responsibilities 
to train their forces for the combatant commands. JFCOM achieved JNTC 
Initial Operational Capability in 2004 and we are on track to meet Full 
Operational Capability in 2009 although we will never really have an 
end point to transformation. The asymmetric threats in the 21st century 
will require new, realistic, innovative, and adaptive joint training 
constructs and capabilities to be able to provide robust joint training 
prior to deployment in support of the global war on terrorism 
operations, so that those who serve never experience a joint task in 
combat for the first time.
    The Department is also migrating from the construct under which 
staff and other collective training was planned and completed in an 18-
24 month pre-deployment cycle. JNTC has allowed us to insert 
appropriate joint training into these Service events and mission 
rehearsal exercises. Through your support the JNTC program has started 
to create, for the Department, a Live, Virtual, Constructive (LVC) 
environment that will support efficient participation of joint forces 
in appropriate training across the country and around the world. When 
not utilized for joint training, this LVC environment is being used by 
the Services to improve their own training capability.
    We will, with your help, over the next year expand the persistence 
of JNTC to be more globally postured. The need to build this capacity 
to train with our multinational partners is imperative. When we look at 
the breadth and depth of current and recent operations we have seen the 
need for a persistent global joint training environment so that the 
Department can habitually interact with allies and partners in the 
joint, multinational, intergovernmental, training environment to avoid 
playing a game of pick up football. JNTC will become a Joint Global 
Training Capability (JGTC) in the future.
    Regarding our Joint Assessment and Enabling Capability they created 
this past year a T2 performance assessment architecture and used it as 
a start point for the conduct of a block assessment and balanced 
scorecard assessment. Our first block assessment, due shortly, will 
serve as a baseline set of metrics to measure T2. Are we enabling the 
joint force and are we indeed transforming training? Upon completion of 
these assessments and outcome measurements of T2 missions and programs 
we will adapt and revise our strategic guidance and programmatics.
                     sustainable ranges initiative
    Question. The adverse effects of encroachment pressures, including 
private development, restrictions imposed by environmental regulation, 
and growing competition for airspace and frequency spectrum, on the 
ability to conduct realistic training are well recognized.
    The Department has implemented its Sustainable Ranges Initiative as 
a comprehensive strategic plan at local, State, and national levels 
aimed at preventing further deterioration of the utility of military 
training ranges.
    What do you consider to be the most serious dangers at present to 
essential military training as a result of encroachment?
    Answer. Encroachment is a many-faceted challenge, and requires the 
Department pay comprehensive attention to a number of issues. At the 
root of many of these issues lies incompatible development and urban 
growth adjacent to our training ranges or under key airspace or low-
level training routes, whether within the U.S. or worldwide. DOD is 
working to improve its cognizance of land use activities outside our 
fence line and to partner with States and communities to promote more 
compatible uses around our installations and ranges. Congress has 
provided us with valuable tools in this endeavor, such as the authority 
and funding to partner with conservation organizations and states to 
secure buffer lands around ranges. Success on land use will also help 
address many other encroachment concerns, such as noise complaints, 
further loss of endangered species habitat off DOD lands, and some 
types of frequency interference, to name a few.
    Question. What additional steps are needed, in your judgment, to 
address problems caused by encroachment of all types to enhance the 
effectiveness of the Sustainable Ranges Initiative?
    Answer. The key to counteracting encroachment is understanding and 
managing all the diverse issues and their interdependencies. I believe 
the Department has a comprehensive approach to range sustainment in 
place that will enable us to stay ahead of encroachment. But we must 
remain vigilant, and continue to recognize the importance of test and 
training resources to live training, readiness, and national defense. 
As resource competition increases and undeveloped lands shrink, we must 
place a high priority on protecting the land, air, sea, and spectrum 
resources necessary to prepare our forces for combat. Congress clearly 
recognizes this need; we ask for your continued support in our efforts 
to craft encroachment solutions that protect readiness while also 
safeguarding our environment and the health and welfare of our 
neighbors.
                  defense readiness reporting systems
    Question. The Department is developing guidelines and procedures 
for a comprehensive readiness reporting system that evaluates readiness 
on the basis of the actual missions and capabilities assigned to the 
forces. DOD Directive 7730.65, ``Defense Readiness Reporting System'' 
(DRRS), directed the implementation of a capabilities-based, adaptive, 
near real-time readiness reporting system. This system is required to 
measure and report the readiness of military forces and supporting 
infrastructure to meet missions and goals assigned by the Secretary of 
Defense.
    What is the status of the DRRS, and what advantages over existing 
systems does it possess?
    Answer. DRRS is a single, comprehensive readiness reporting system 
for the Department of Defense. DRRS achieved initial operating 
capability in October 2004, and is on schedule to be fully operational 
by the end of fiscal year 2007. DRRS is data driven, and uses web-based 
software on DOD's classified internet to provide near real time 
readiness information. DRRS is mission and capability focused, and 
provides global visibility of DOD forces. DRRS provides more accurate, 
thorough, and comprehensive readiness information of DOD force 
capabilities to aid in war planning, force management, and risk 
assessment.
    Question. Given the importance to the success of DRRS of 
Department-wide collaboration and cooperation, what is your assessment 
of the support provided by the stakeholders?
    Answer. We have broad DOD support for DRRS. DRRS was fully 
supported by the Joint Chiefs of Staff at a recent DRRS update 
briefing. Furthermore, the Secretary of Defense is briefed every other 
month on the status of DRRS implementation. The combatant commanders 
are some of the strongest DRRS supporters, with PACOM, STRATCOM, and 
NORTHCOM leading the way in realizing the DRRS vision.
    Question. Under section 117(e) of title 10, U.S.C., a report on the 
results of the most recent joint readiness review, including current 
information derived from the readiness reporting system, must be 
submitted on a quarterly basis to the congressional defense committees.
    What steps would you take, if confirmed, to ensure that the 
readiness information available through DRRS and its web-based 
reporting system is made available to the congressional defense 
committees in a timely manner?
    Answer. We are currently developing a DRRS module that will greatly 
reduce the time required to prepare the Quarterly Readiness Report to 
Congress. We have also used DRRS functionality to assist in answering 
readiness questions of the congressional defense committees.
        defense prisoner of war/missing personnel office (dpmo)
    Question. In 2005, the leadership of DPMO came under criticism from 
survivor family groups who alleged that insufficient attention and 
resources were being committed to recovery of U.S. personnel missing 
from conflicts from World War II to the present.
    In view of the mission of the DPMO, do you think that this 
organization, as well as the U.S. Army Central Identification 
Laboratory in Hawaii (CILHI) would more appropriately be placed under 
the proponency of the Under Secretary of Defense for Personnel and 
Readiness?
    Answer. I believe the DPMO program is appropriately aligned within 
the purview of the Assistant Secretary of Defense for International 
Security Affairs under the Under Secretary of Defense for Policy 
(USD(P)). Moreover, the USD(P) can best meet the predictable and often 
complex challenges associated with the necessity to coordinate with 
foreign governments for the recovery of remains. Additionally, the 
USD(P) works, on a daily basis, with the Joint Staff and the combatant 
commands, to include the Pacific Command, on the worldwide use of 
military assets. This is important because the utilization of these 
assets is often central to the planning and conduct of DPMO related 
operations.
    Note: The U.S. Army Central Identification Laboratory no longer 
exists under that title. In 1993, the Laboratory was merged with 
Pacific Command's Joint Task Force-Full Accounting. It is now the Joint 
POW/MIA Accounting Command and remains a Pacific Command asset with a 
worldwide mission.
    Question. Do you believe that the Personnel and Readiness 
organization should have a larger role in the oversight of the DPMO?
    Answer. I believe P&R has an effective relationship with USD(P) and 
that there is no requirement for a direct P&R oversight role. Indeed, 
because of the considerations discussed in the previous answer, 
attempting to inject such oversight in matters dealing with 
international coordination issues could actually have a negative 
impact. Having said the above, I am keenly aware of P&R 
responsibilities to the families of all servicemembers--especially 
those whose loved ones are missing or deceased. If I am confirmed, I 
will ensure P&R coordination with DPMO is all that it should be. 
Moreover, once an individual's remains have been identified through 
work completed by DPMO, P&R should continue to work with the Military 
Services to honor the family's desires as to disposition of remains and 
any military funeral honors.
                     employment of military spouses
    Question. In your view, what progress has been made, and what 
actions need to be taken to provide increased employment opportunities 
for military spouses?
    Answer. DOD has been committed to helping military spouses start 
rewarding careers and to remove barriers to career advancement. We have 
made significant progress in the last 2 years.
    We have begun to raise awareness among employers about the value of 
hiring military spouses and we have increased our efforts at the state 
level where licensing and certification requirements differ state to 
state.
    In the 9 months since www.military.com/spouse site was launched, 
over 800,000 spouses have visited the site; over 500,000 have signed up 
for the newsletter, over 400,000 have visited the chat rooms and over 
1.5 million job searches have been conducted. In recent months, DOD has 
also co-sponsored specialty career fairs that focus employers on 
severely injured servicemembers and military spouses.
    We commissioned research studies to determine which careers were 
most popular and which States provided the most opportunity for 
removing these barriers. We were able to determine that teaching, real 
estate, nursing, and medical assistant positions were popular spouse 
careers that have State-specific licensing requirements. Since then, we 
have worked to use the American Board for Certification of Teacher 
Excellence (ABCTE), a national passport credentialing organization 
supported by No Child Left Behind, as a beneficial alternative 
transportable teaching credential for military spouses. Five States 
have adopted ABCTE's credential and more States with many military 
families are considering it. We are identifying other career 
opportunities where employer affiliations will aid spouses in staying 
on track, such as in real estate; and industries that offer portable 
credentials, such as computer networking.
                             family support
    Question. In your view, do the Services have adequate programs in 
place to ensure support for Active and Reserve component families, 
particularly those who live great distances from military 
installations?
    Answer. Yes, two-thirds of military families do not live on DOD 
installations. Reserve and Guard families are often long distances from 
support systems. Therefore, DOD leveraged technology to reach all 
military families by providing easy access to accurate and timely 
information wherever they may live around the world. Every Service and 
the Reserve components are now plugged into Military OneSource. This is 
an innovative way of providing information and assistance to troops and 
families 24 hours a day, 365 days a year by a toll-free number or 
online, from any place, tailoring services specifically to individuals 
and families. This service also provides counseling and emotional 
support when needed by Master's degree level staff.
    Each of the military services, including their Reserve components, 
also has important, unit-based family support programs. These programs 
provide a human face to families in need, and reinforce the unit 
commander's role in supporting and caring for the families of those who 
are serving.
    Question. If confirmed, what additional steps would you take to 
enhance family support?
    Answer. The Department has done an excellent job designing flexible 
family support programs that meet the needs of our servicemembers and 
their families who live on military installations, near military 
installations, and those who live at a distance. Spreading the word 
about these innovative support programs to the members of the Total 
Force and their families is high on my priority list. Next steps are to 
make sure everyone knows about the services, uses them to their 
advantage, and recognizes it is a wise choice to seek help to cope with 
military life's challenges.
                  general and flag officer nominations
    Question. Under DOD Instruction 1320.4, adverse and alleged adverse 
information pertaining to general and flag officers must be evaluated 
by senior leaders in the Services and in the Office of the Secretary of 
Defense prior to nomination.
    If confirmed, what role would you play in the officer promotion 
system, particularly in reviewing general and flag officer nominations?
    Answer. If confirmed, I would perform those duties and 
responsibilities assigned by the Under Secretary of Defense for 
Personnel and Readiness. Those duties may include management of 
compliance with governing statutes and policy, as well as sustainment 
of consistency in the Department's approaches to major policies.
    Question. What is your assessment of the ability of the Services to 
timely document credible information of an adverse nature for 
evaluation by promotion selection boards and military and civilian 
leaders?
    Answer. The Military Services are diligent in ensuring that timely 
documentation is available for evaluation by promotion selection 
boards, and that it is available to military and civilian leadership 
who oversee that process. If confirmed, I will promulgate policy 
guidance to ensure that the newly-enacted provisions of the National 
Defense Authorization Act for Fiscal Year 2006 are accomplished. That 
statute directs that all substantiated adverse information be made 
available to general and flag officer promotion boards convening after 
October 1, 2006.
                   national security personnel system
    Question. The Committees on Armed Services and Homeland Security 
and Governmental Affairs have closely monitored the implementation of 
the National Security Personnel System (NSPS) throughout its first year 
of development and implementation.
    If confirmed, what would your role be in the management, 
implementation, and oversight of policies relating to NSPS?
    Answer. If confirmed, I anticipate that I will continue as the Co-
Chair of the NSPS Overarching Integrated Product Team (OIPT) along with 
George Nesterczuk, our Office of Personnel Management partner. The OIPT 
is Secretary England's mechanism for providing advice and counsel to 
the NSPS Program Executive Officer and for quickly resolving design, 
development and deployment issues that do not require his personal 
involvement. Secretary England, Dr. Chu, and I are committed to making 
sure we do this right for the benefit of our people and our national 
security mission.
    Question. How do you evaluate the concerns of employee groups with 
respect to changes in collective bargaining, content and collaboration 
over Department of Defense issuances, the independence of the National 
Security Labor Relations Board, and procedures associated with 
performance appraisals?
    Answer. The unions have raised a variety of concerns, and the 
Department has done its best to respond to these concerns. Even so, the 
employee representatives may disagree with how these concerns were 
addressed.
    The continuing collaboration process offers many opportunities for 
employee representatives to participate. It is a very robust process 
that provides employee representatives an opportunity for greater 
involvement in workforce issues, including areas previously excluded by 
law or other agency rules.
    The National Security Labor Relations Board is designed to be 
independent. Members are appointed by the Secretary to fixed terms of 3 
years. Members will be independent, distinguished citizens known for 
their integrity, impartiality and expertise in labor relations and/or 
the DOD mission, and/or related national security matters. Finally, 
members may be removed only for inefficiency, neglect of duty or 
malfeasance in office, which is a standard similar for removing members 
of the Federal Labor Relations Authority and the Merit Systems 
Protection Board.
    Based on feedback from a number of stakeholders, including employee 
representatives, the NSPS Program Executive Office is currently 
undergoing a redesign effort to simplify the performance management 
system.
    Question. What steps, if any, do you believe the Department should 
take to address these concerns?
    Answer. The Department has already taken extraordinary steps to 
address these concerns. For example, we revised the final regulations 
to permit collective bargaining on certain operational matters if the 
Secretary determines that bargaining would advance the Department's 
mission accomplishment or promote organizational effectiveness. The 
proposed regulations did not permit such bargaining. This change was in 
response to concerns raised by several Members of Congress, as well as 
the unions.
    In response to suggestions raised by employee representatives 
during the meet and confer process, we revised the final regulations to 
make clear that each national labor organization with bargaining units 
affected by an implementing issuance will be provided an opportunity to 
participate in the continuing collaboration process. We also modified 
the regulations to make clear that the Department will consider the 
views and recommendations of employee representatives before taking 
final action. The Department will provide employee representatives a 
written statement of the reasons for taking final action regarding an 
implementing issuance.
    In response to concerns by several Members of Congress and employee 
representatives, we revised the final regulations to require the 
Secretary to consider labor organization nominations for two of the 
Board members. This is fair and assures labor organizations a voice in 
the National Security Labor Relations Board selection process.
    In response to concerns regarding the performance management 
system, the implementing issuances will address the specific processes 
and practices that will be used within the Department. The Department 
will ensure that the NSPS performance management system complies with 
the law. It will establish effective safeguards to ensure that the 
management of the system is fair and equitable. Continuing 
collaboration will provide employee representatives the opportunity to 
provide input as needed.
    Question. What metrics do you believe are necessary to assess the 
impact of NSPS on mission readiness of the Department of Defense?
    Answer. The Department's readiness is high. Our employees are 
effective, dedicated contributors today. NSPS will not change that. It 
will improve human resource management practices to heighten commander 
and supervisor attention to their civilian employees' performance, 
increase employees' and supervisors' confidence in their own and each 
other's accountability for mission accomplishment, and be more 
competitive in hiring the people we need in mission-critical 
occupations and labor markets where we have lagged.
    I believe we must monitor employees' satisfaction with working for 
the Department, their jobs, and leadership. We must monitor how 
important employees think their work is and how well prepared they and 
their organizations are to accomplish the mission.
    Measuring employee and supervisor opinions of how effectively we 
deal with poor performers and disruptive employees is as important as 
accounting for associated management actions. We should measure 
relative changes in where supervisors, managers, and commanders invest 
their human resource management time. For example, are they 
increasingly engaged with employees on performance and mission 
objectives, while spending less effort on administrative demands like 
job descriptions, personnel action requests, and answering discovery 
requests in adverse action appeals?
    NSPS effects may be assessed through a combination of job-offer 
acceptance rates, the speed with which we fill vacancies, and 
supervisor satisfaction with candidate quality. NSPS should also 
increase the Department's agility in realigning the workforce to meet 
changing mission demands emanating from a more dynamic security 
environment; we'll need to develop measures to see that we have done 
that. I expect to look at how much use we make of new or more flexible 
employment authorities for emergency hiring to meet urgent mission 
demands, and for term or temporary appointments that help the 
Department get through transformational periods such as BRAC.
    It will take time to see the effects of NSPS--not all authorities 
will be used heavily or early, and there will be a learning curve. 
Additionally, many factors contribute to mission readiness. We 
therefore must use a judicious mix of metrics to assess NSPS impact and 
be wary of pronouncing on the meaning of the metrics too early.
       management of senior executive service civilian personnel
    Question. Although the Office of Personnel Management has recently 
approved the Department's performance management and pay system for 
senior executives, it did so only after finding that the Department's 
initial performance plan was not satisfactory.
    What is your understanding of the status of the DOD transition to 
performance-based management of Senior Executive Service (SES) 
personnel?
    Answer. OPM approved the Department's Executive and Senior 
Professional Performance System on April 1, 2005, and it was 
implemented on June 30, 2005. Since that time, the Department has been 
on a pay for performance system for its Executives and Senior 
Professionals. The new Executive and Senior Professional Pay and 
Performance System made fundamental changes in the way the Department 
establishes performance requirements, assesses performance, and 
compensates and rewards senior executives. In our just completed fiscal 
year 2005 rating cycle, we were able to accurately reflect, assess, and 
recognize individual and organizational performance using the fiscal 
year 2005 performance standards, and we were able to make clear 
distinctions in performance. The Department did very well overall in 
OPM's 2005 assessment, achieving a score of 100 percent in 4 of the 6 
rating areas. It was only in one area in which the Department needed 
improvement.
    Because our Executives and Senior Professionals will have been on a 
pay for performance system a couple years in advance of the 
implementation of NSPS, they understand the magnitude of the changes as 
well as the level of commitment and leadership essential to drive a pay 
for performance culture. The lessons learned will be invaluable as we 
move the rest of the Department into a new pay for performance system. 
Continued training is essential and the Department will be redoubling 
its efforts to train the Executive and Senior Professionals on the new 
pay and performance system. We are confident that our executives will 
be able to lead the way for the Department's transition to a pay for 
performance culture.
    Question. Do you believe that delays in achieving an acceptable 
plan will have an impact on approval of the performance pay for the 
SES?
    Answer. OPM already approved the Department's Executive and Senior 
Professional Performance System on April 1, 2005, and DOD implemented 
it on June 30, 2005. Since that time, the Department has been on a pay 
for performance system for its Executives and Senior Professionals. The 
new Executive and Senior Professional Pay and Performance System made 
fundamental changes in the way the Department establishes performance 
requirements, assess performance, and compensate and reward senior 
executives. The Department already made its first pay outs under the 
pay for performance program.
    Question. If confirmed, how would you propose to ensure that 
performance pay is made in a timely manner, not only for senior 
executives but for all civilian employees within the NSPS?
    Answer. Training is key to the success of moving toward a pay for 
performance culture. Making our managers comfortable with the new 
methodology for calculating payouts will ensure that they are completed 
in a timely manner. Our training plan should be comprehensive and 
incorporate a robust learning strategy that will prepare our managers 
to transition to the new pay for performance system. The NSPS 
implementation plan calls for training of every employee and mock 
performance assessments and payouts.
       management and development of the senior executive service
    Question. Under the NSPS, the Department has broad latitude over 
the management of its SES personnel.
    What is your vision of the approach the Department should take to 
improve its management of the SES under the authorities provided by the 
NSPS?
    Answer. Today, our senior executives require an extraordinary skill 
set to meet the challenges of the global war on terrorism. These 
challenges have accelerated our efforts to make our Department more 
agile, responsive, and more joint in the way we do our business. I 
envision an SES Corps that is prepared to lead in a joint environment; 
has a diverse perspective based upon varied experiences at different 
levels of DOD and, as necessary, outside the Department; is mobile and 
ready to assume leadership responsibilities where needed; has 
substantive knowledge of national security mission; a shared 
understanding, trust, and sense of mission with military leaders; and 
strong leadership and management skills.
    To this end, the Department is currently examining its SES corps 
and will be making recommendations to move toward a more flexible, 
agile, and joint SES corps. As the Assistant Secretary of the Air 
Force, I am involved in these efforts, and I expect to see significant 
progress within the next few months.
    Question. Some SES members within the Department have voiced 
concerns over the lack of professional development and career 
management efforts for the SES within the Department, in contrast with 
other Federal agencies. The Air Force, however, has initiated a senior 
leader management model to enhance and improve management, development, 
and assignment of SES and general officers.
    What is your assessment of how the Air Force program is working?
    Answer. The Air Force program is, to the best of my knowledge, 
unique within the Federal Government, and an unqualified success. About 
15 years ago, the Air Force's senior career civilian executives 
initiated a comprehensive effort to increase the executive competencies 
of members of the SES serving the Air Force, and a companion effort to 
deliberately develop and prepare high grade civil servants for 
executive leadership. Their efforts are now embedded into Air Force 
culture. Aspirants to the SES know they must learn the business by 
moving to different positions, different Air Force commands, and even 
to different functional specialties. More junior Senior Executives know 
that, should they aspire to more senior levels, they must broaden and 
deepen their leadership competencies in the same way. Military leaders 
now embrace members of the SES as peers. The Secretary of the Air Force 
and the Chief of Staff manage both General Officer and SES assignments. 
Some Air Force senior leader positions are filled interchangeably with 
a General Officer or an SES--depending on the best candidate available 
and the needs of the job. There is now an Air Force SES leading one of 
the Air Force's major repair depots. The Air Force invests in executive 
development and provides both General Officers and members of the SES 
continued professional development opportunities. The concept of 
competency-based management was pioneered by the Air Force SES, spread 
into Air Force General Officer management concepts, thence into Joint 
Officer Management concepts, and now is influencing the Department's 
Human Capital Strategy.
    Please understand that even though I am the Assistant Secretary of 
the Air Force for Manpower and Reserve Affairs (M&RA), I claim no 
credit for this ``best practice''. Career Air Force executives 
conceived of and implemented this program. It was in full swing when I 
arrived in August 2001. I have supported and encouraged progress, 
shared the model with the Departments of the Navy, Army, and the Office 
of the Secretary of Defense, and championed the extension of that model 
into the development of joint competencies and joint perspectives in 
our senior civilian executives.
    Question. In your view, should a similar program be designed and 
expanded throughout the Department?
    Answer. We should certainly consider expanding this model more 
broadly across the Department of Defense. The Department of the Navy is 
already moving quickly in this direction. As we think about extending 
this model, we must also be mindful that each component of the 
Department is different, faces a different set of challenges, and will 
likely need to tailor application of this executive management 
``model'' to its own circumstances. If confirmed, I would expect to 
shepherd and encourage this process. I will, in particular, champion 
the Department's efforts to do for the SES corps what Goldwater-Nichols 
did for the Department's officer corps--create a powerful imperative 
for knowing, thinking, and acting joint.
    Question. If confirmed, would you support an initiative to require 
SES members to obtain broadening experiences and assignments in the 
military departments, the Office of the Secretary of Defense, Joint 
Staff, combatant commands, and elsewhere? If so, how would you plan to 
achieve this?
    Answer. Yes, if confirmed I would support an initiative that 
prepares individuals for senior leadership positions in a ``joint'' 
environment. We are currently examining a proposed concept of 
operations for a joint-qualified SES corps as a potential model for the 
Department. We are bringing a group of our best talent together to 
review the proposal and make recommendations for a broader, DOD 
application.
                             sexual assault
    Question. On February 25, 2004, the Senate Armed Services Committee 
Subcommittee on Personnel conducted a hearing on policies and programs 
of the Department of Defense for preventing and responding to incidents 
of sexual assault in the Armed Forces at which the service vice chiefs 
endorsed a ``zero tolerance'' standard. Subsequently, in response to 
congressional direction, the Department developed a comprehensive set 
of policies and procedures aimed at improving prevention of and 
response to incidents of sexual assaults, including appropriate 
resources and care for victims of sexual assault.
    Do you consider the new sexual assault policies and procedures, 
particularly those on confidential reporting, to be effective and, what 
problems, if any, are you aware of in the manner in which this new 
reporting procedure has been put into operation?
    Answer. The Department is fully committed to combating sexual 
assault and eliminating this societal problem from the ranks of the 
military. DOD's comprehensive policy provides commanders at all levels 
the direction and tools necessary to deal with this crime, and the 
military Services have been vigorously implementing its provisions.
    I am unaware of any problems instituting confidentiality, and 
initial data have been very positive. This provision enables many 
victims to receive medical care and treatment who previously would not 
have come forward. Significantly, some of these victims changed from a 
restricted report to an unrestricted report within weeks of receiving 
medical care, thereby enabling law enforcement to conduct 
investigations and increase offender accountability.
    We will evaluate and refine, as necessary, our comprehensive policy 
to ensure it best meets the needs of our servicemembers and becomes the 
benchmark for other organizations to follow.
    Question. What is your vision for the future role of the Joint Task 
Force for Sexual Assault Prevention and Response, and, if confirmed, 
what actions would you take to ensure senior management level direction 
and oversight of departmental efforts on sexual assault prevention and 
response?
    Answer. The Joint Task Force is transitioning into the Sexual 
Assault Prevention and Response Office (SAPRO), a permanent 
organization within the Office of the Under Secretary of Defense for 
Personnel and Readiness. It currently enjoys ready access to senior 
leadership, and, if I am confirmed, it will have equal access to me.
    SAPRO will remain the Department's single point of accountability 
for sexual assault prevention and response policy. This office will 
continue to work closely with the Military Services to evaluate and 
refine sexual assault policies. It will also collaborate with other 
Federal agencies and be a conduit for advocacy groups to interface with 
the Department. SAPRO will spearhead the Department's efforts to 
institute cultural change with the goal of eliminating this societal 
problem from the military.
    If confirmed, I will facilitate SAPRO efforts by ensuring the full 
commitment of Health Affairs, Reserve Affairs and the Service M&RAs in 
implementing and resourcing sexual assault policies throughout the 
Active and Reserve components.
                           service academies
    Question. What do you consider to be the policy and procedural 
elements that must be in place at each of the service academies in 
order to prevent and respond appropriately to sexual assaults and 
sexual harassment and to ensure essential oversight?
    Answer. The Department's sexual assault and sexual harassment 
policies provide the foundation for combating sexual misconduct at the 
service academies as well as the Active and Reserve components.
    The three superintendents have initiated in-depth programs, and we 
are making progress. While more work remains to achieve our goal of 
zero sexual assaults, I believe the service academies' programs are 
setting the standard for collegiate America.
    Augmenting the significant efforts of the superintendents are 
several echelons of oversight to include the Boards of Visitors of each 
institution.
    Question. What is your assessment of corrective measures taken at 
the U.S. Air Force Academy to ensure religious tolerance and respect, 
and of Air Force guidelines regarding religious tolerance that were 
promulgated in August 2005?
    Answer. The Air Force Academy is committed to developing leaders of 
character and to providing cadets with an atmosphere that promotes 
religious tolerance and respect. I personally tasked the Air Force 
Deputy Chief of Staff, Personnel, to form a cross-functional team to 
assess the religious climate at the Academy and the Academy's progress 
in integrating principles of respect into its character development 
program. I believe the Academy has implemented an effective program, 
but it is one it and the senior leadership of the Air Force will 
continue to monitor and improve.
    The realization of the need for guidelines concerning free exercise 
of religion and non-establishment of religion emerged from our 
assessment of the Academy. While we had no evidence of religious 
tolerance issues in the larger Air Force, we developed the guidelines 
to ensure the entire Air Force understood its responsibilities in this 
area. In promulgating the interim religious guidelines, the Acting 
Secretary of the Air Force recognized that, in spite of how hard we 
worked developing them, they would not be perfect. He solicited 
comment, therefore, from a wide range of groups, from Members of 
Congress, from commanders, and from airmen. The comments received have 
convinced the current Secretary of the Air Force, the Honorable Michael 
Wynne, of the need to revise the guidelines to make them simpler and 
easier to understand, and to more carefully balance our responsibility 
to promote free exercise of religion, with our responsibility to avoid 
any appearance of government establishment of religion, and with our 
national security mission. Secretary Wynne has, in addition, committed 
to sharing with our sister Services and with senior officials in the 
Office of the Secretary of Defense, the lessons learned from the 
national dialog stimulated by the Air Force's interim guidelines. I 
believe the Air Force and the DOD will derive significant benefit from 
this dialog. Our understanding of and sensitivity to these 
responsibilities is and will continue to be much increased. We are, 
therefore, better servants of the Nation and its Constitution.
                         tricare fee increases
    Question. Recent press reports have described an initiative within 
the Department of Defense to significantly increase enrollment fees and 
deductibles for retirees and their families.
    What is your view of the need for and the effectiveness of 
increased beneficiary payments in reducing overall Defense Health 
Program costs to the Department?
    Answer. The Department must continue to modernize and sustain the 
health benefit program to provide a health benefits package that is 
effective, efficient, and well suited to the structure of the force. 
Our Department health care costs have risen from $19 billion to $37 
billion in just 5 years. Good stewardship compels us to consider cost-
sharing and to evaluate the effects of restoring the balance that 
existed when TRICARE was established in 1995.
    Question. What other changes in infrastructure, benefits, or 
benefit management, if any, do you think should be examined in order to 
control the costs of health care?
    Answer. The Department has made concerted efforts over the past 
several years to obtain cost savings wherever possible.

        <bullet> We have established annual efficiency and productivity 
        targets for our medical treatment facilities and instituted a 
        value based performance system using a prospective payment 
        methodology--which pays these facilities for the actual work 
        they perform.
        <bullet> In the pharmacy management we seek to achieve 
        considerable savings from our Federal pricing structure.
        <bullet> We have reduced our supply costs by leveraging modern 
        strategies such as Prime Vendor and ``just in time'' delivery 
        services with our vendors.
        <bullet> We have streamlined our managed care support contracts 
        to reduce costs and will continue to do so in future contracts.
        <bullet> We've worked closely with our Department of Veterans 
        Affairs colleagues to share services and reduce duplication of 
        services, wherever possible.
        <bullet> We are making tremendous strides in our infrastructure 
        to maintain modern facilities and the recent BRAC efforts will 
        help us consolidate services in key areas such as here in 
        Washington and in San Antonio.
                foreign language transformation roadmap
    Question. A Foreign Language Transformation Roadmap announced by 
the Department on March 30, 2005, directed a series of actions aimed at 
transforming the Department's foreign language capabilities, to include 
revision of policy and doctrine, building a capabilities based 
requirements process, and enhancing foreign language capability for 
both military and civilian personnel.
    What is your understanding of the status of the actions identified 
in the Defense Language Transformation roadmap?
    Answer. The roadmap outlined 43 actions to support four overarching 
goals: create foundational language and regional expertise within the 
Department; create surge capacity; establish a cadre of highly 
proficient language professionals; and oversee career management of 
members with language skills. I understand that six major tasks are 
completed and the remaining tasks are on track for completion within 
the specified timelines.
    Question. If confirmed, what steps would you take to identify 
foreign language requirements, and to design military and civilian 
personnel policies and programs to fill those gaps?
    Answer. The current roadmap is still quite new. I will maintain a 
sharp focus on the Roadmap to ensure we maintain momentum, evaluate 
results, and capitalize on the progress already achieved.
    Question. What is your assessment of an appropriate timeframe 
within which results can be realized in this critical area?
    Answer. While considerable progress has been made, I believe this 
will be a long-term effort. Language acquisition, particularly at 
advanced levels, takes a long time. This is particularly true in the 
more difficult languages such as Arabic and Chinese. To improve 
language proficiency and regional expertise in our officer corps, we 
need to start early in their careers and grow capability over time. I 
also expect that our language needs will change with world events and 
new ones will need to be addressed. Finally, a real key to success 
rests with a change to our educational system that graduates students, 
both at high school and college level, with language proficiency. The 
National Security Language Initiative, announced by President Bush, 
begins to mobilize the Nation's educational systems toward greater 
emphasis on foreign languages and culture.
                     intelligence community growth
    Question. The Intelligence Community is in the midst of a period of 
rapid growth and reorganization. The number of flag and general officer 
billets that must be filled and senior leader positions in the Defense 
Intelligence Senior Executive Service can be expected to increase. The 
Department has asked to increase the size of the Defense Intelligence 
Senior Executive Service (DISES) by 150 employees by the end of fiscal 
year 2007 and has been given authority to appoint its own Defense 
Intelligence Senior Leaders.
    If confirmed, what role would you play, in coordination with the 
Services and the Combat Support Agencies, in the management of this 
growth?
    Answer. If confirmed, I will work closely with the Under Secretary 
of Defense (Intelligence), who has the responsibility for exercising 
overall supervision and policy oversight of all defense intelligence 
human capital (to include DISES) to ensure that the defense 
intelligence components are manned, trained, equipped, and structured 
to support the missions of the Department and fully satisfy the needs 
of the combatant commands, the military departments, and the Office of 
the Director of National Intelligence as appropriate.
    Question. In your view, should Defense Intelligence Senior 
Executive Service personnel and general and flag officers of the 
Intelligence Community be managed as a single entity more in line with 
the Air Force model?
    Answer. An effective senior leader management system requires 
selection and assignment of the best candidate for each position in an 
organization. Thus, it is essential to consider knowledge, skills, and 
abilities of all senior leaders available to an organization. Moreover, 
it is imperative that we, as leaders, take measures to ensure that a 
deep ``bench'' of superbly qualified candidates is available for each 
potential vacancy. There are, however, many paths to that goal. If 
confirmed, I will work closely with the leaders of the Intelligence 
Community to ensure they have the information, tools, and support 
necessary to effectively manage this cadre of executives.
                      armed forces retirement home
    Question. In the aftermath of Hurricane Katrina, hundreds of 
elderly residents of the Armed Forces Retirement Home (AFRH) in 
Gulfport, Mississippi, were evacuated and now reside at the Armed 
Forces Retirement Home facility in Washington, DC.
    What is your understanding of the official relationship between the 
Principal Deputy Under Secretary of Defense for Personnel and Readiness 
(PDUSD(P&R)) and the Chief Operating Officer of the AFRH?
    Answer. The AFRH is an independent establishment in the executive 
branch. Chapter 10 of title 24, U.S.C., requires the Secretary of 
Defense to appoint the AFRH Chief Operating Officer, who serves at the 
pleasure and is under the authority, direction and control of the 
Secretary of Defense; appoint the Home Directors, Deputy Directors, 
Associate Directors and members of the Local Boards of each Home; 
evaluate the performance of the Chief Operating Officer; prescribe pay 
for the Chief Operating Officer within limits of the Executive 
Schedule; acquire and dispose of AFRH property and facilities; make 
available DOD support necessary for the Retirement Home to carry out 
its functions on a nonreimbursable basis; and transmit a report to 
Congress on an annual basis on financial and other affairs of the Home. 
The Secretary of Defense delegated these responsibilities to the 
USD(P&R) and the PDUSD(P&R) in a memorandum dated March 20, 2003.
    Question. If confirmed what steps would you anticipate taking with 
respect to restoring and improving the AFRH facility in Gulfport, 
ensuring the financial stability of AFRH funding, and responding to 
concerns by residents about the conditions at the AFRH facilities?
    Answer. If confirmed, I will ensure AFRH carries out its 
responsibilities. I will establish regular contact with the AFRH Chief 
Operating Officer to ensure care and services meet or exceed those 
established in law. I will ensure health care accreditation is 
maintained and support continued efforts to build the trust fund and 
seek efficiencies that do not diminish the high quality of care the 
Home's residents expect and deserve. I will require periodic resident 
and staff climate assessments and be responsive to complaints and 
concerns and ensure appropriate corrective actions are taken.
                        military quality of life
    Question. In May 2004 the Department published its first 
Quadrennial Quality of Life Review, which articulated a compact with 
military families on the importance of key quality of life factors, 
such as family support, child care, education, health care and morale, 
welfare and recreation services.
    How do you perceive the relationship between quality of life 
improvements and your own top priorities for military recruitment and 
retention?
    Answer. The Department implemented very successful programs to 
support OEF/OIF troops and families. I believe these programs have 
contributed to DOD's impressive retention rates. We should continue to 
conduct analyses and assessments of these programs, individually and in 
aggregate, to ensure they are meeting the needs of our servicemembers 
and are contributing positively to recruiting, retention, and 
readiness.
    Question. If confirmed, what further enhancements to military 
quality of life would you make a priority, and how do you envision 
working with the Services, combatant commanders, family advocacy 
groups, and Congress to achieve them?
    Answer. If confirmed, I will aggressively pursue the President's 
``Managing for Results'' agenda, developing the clearest possible 
understanding of the needs of our force, how our individual and 
collective programmatic response meets those needs, and how those 
programs contribute, individually and collectively, to recruiting, 
retention, and readiness. Gaps or shortfalls will be filled rapidly 
with the most cost-effective program possible. Results--measured in 
satisfied, healthy families and combat ready servicemembers--will drive 
our efforts.
                commissary and military exchange systems
    Question. Commissary and military exchange systems are critical 
quality of life components for members of the Active and Reserve Forces 
and their families.
    What is your view of the need for modernization of business 
policies and practices in the commissary and exchange systems, and what 
do you view as the most promising avenues for change to achieve 
modernization goals?
    Answer. Commissary System: The Department's strategy remains to 
sustain the value of the commissary benefit without increasing its 
cost. The Defense Commissary Agency's (DeCA) re-engineering efforts are 
aimed at reducing overhead by centralizing support and streamlining 
store operations. Although still in the early stages of re-engineering, 
DeCA has demonstrated successes.
    Exchange System: All three of the exchange systems are continually 
trying to modernize their policies and practices in order to remain 
competitive in a challenging retail market. Force repositioning, BRAC 
and the global war on terror, with its attendant increased costs to 
provide the exchange benefit, will continue to challenge Exchange 
profitability. As the Department has reported to you over the past 2-
plus years, we have embarked on a process to cut operational costs 
within our exchange system by combining backroom functions from all 
three exchanges into a common provider. We currently estimate a $2-plus 
billion reduction over 15 years in total operational costs for our 
three Exchange Services by streamlining process delivery combined with 
elimination of redundancy. By taking an approach focused on backroom 
processes only, the service member's relationship to the Exchange is 
preserved while the total costs he pays to the Exchange are reduced.
    Question. In the Ronald W. Reagan National Defense Authorization 
Act for Fiscal Year 2005, Congress required the Secretary of Defense to 
establish an executive governing body for the commissary and exchange 
systems to ensure the complementary operation of the two systems.
    What is your understanding of the purpose and composition of the 
executive governing body?
    Answer. The Department established the DOD Executive Resale Board 
as the governing body to provide advice to the USD (P&R) regarding the 
complementary operation of resale activities. The Board works to 
resolve issues within the elements of the military resale system. The 
Board is chaired by the PDUSD (P&R), and members include both the 
senior military officers and civilians who oversee and manage the 
commissary and exchanges systems.
    Question. If confirmed, what would your role be with respect to the 
governing body, and what would your expectations be for its role?
    Answer. The Secretary designated the PDUSD(P&R) as the chairman of 
the Executive Resale Board. I envision the Board would continue to meet 
regularly to review operational areas of mutual interest to the 
commissary and exchange systems. Matters reviewed by the board include 
both cooperative efforts and areas of disagreement. The Board should 
not duplicate the roles of the Commissary Operating Board or the 
Exchange Boards or Directors. Thus far, the Board has proved to be an 
effective mechanism to vet operational matters of mutual interest to 
the exchanges and commissary. The Board provides a forum for seeing 
that operating decisions are made in the best interests of the patron 
and of the total resale community.
                     legislative fellowship program
    Question. Each year, the Services assign mid-career officers to the 
offices of Members of Congress under the Legislative Fellows Program. 
Upon completion of their legislative fellowships, officers are supposed 
to be assigned to follow-on positions in their services in which they 
effectively use the experience and knowledge they gained during their 
fellowships.
    What is your assessment of the value of the Legislative Fellows 
program to the Department and the utilization of officers who have 
served as legislative fellows?
    Answer. I support this important training and career development 
program and believe it has great value to the Department and Congress. 
The Department's Legislative Fellows program provides an annual 
opportunity for 22 officers and 5 civilians to broaden their education, 
experience, and knowledge in operations and organization of Congress. 
Senior civilian leadership of the Military Departments validate the 
selection; and in my capacity as Principal Deputy Under Secretary of 
Defense for Personnel and Readiness, if confirmed, I would approve them 
on behalf of the Secretary. We place these fellows with members who are 
in committees with significant relevance to the Department. The 
Assistant Secretary for Legislative Affairs ensures the right officers 
are detailed to the right congressional leadership, defense or 
intelligence oversight committee. Such high-level oversight for this 
program is entirely appropriate as we seek to develop people capable of 
sustaining strong and effective dialogue with the legislative branch.
    The Legislative Fellows program is now a highly-competitive 
program, sought after by some of our most promising mid-career leaders. 
The knowledge they gain from this program will contribute to their 
personal and professional growth, as well as to the Department's 
effectiveness, throughout their careers. We should consider, therefore, 
whether some limited flexibility in the follow-on assignments might be 
warranted. It would be unfortunate, for example, if a rising star 
missed an opportunity to command because he or she was selected while a 
Legislative Fellow and constrained, therefore, in the follow-on 
assignment. If confirmed, I will look closely at this important area.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Deputy Under Secretary of 
Defense for Personnel and Readiness?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John Warner
    1. Senator Warner. Mr. Dominguez, in fiscal year 2005, the Army 
Reserve achieved less than half of its goal in recruiting physicians, 
and a quarter of its goal in recruiting dentists. For an Army that 
relies so heavily on its Reserves for medical support in war, this is a 
troubling and dangerous situation. Are you aware of the critical 
shortages in medical personnel?
    Mr. Dominguez. I am aware that we are experiencing shortages in 
certain critical wartime medical skills in the Reserve components of 
the Army. Shortages that are especially troubling are found in 
emergency services medicine and orthopedics. The Assistant Secretary 
for Health Affairs is working closely with the military Services to 
address incentives and policies that may be required to help overcome 
these shortfalls and avoid such shortages in the future.

    2. Senator Warner. Mr. Dominguez, what authorities or initiatives 
are needed to remedy this situation?
    Mr. Dominguez. The Department is examining a number of incentive 
enhancements that may help overcome current trends and avoid shortages 
in the future. Among them are an increase in the amount we can offer in 
the health professional loan repayment program and an increase in the 
Health Professions Scholarship Program student stipend. In the 
Department's Omnibus program for 2007, we are seeing an increase in the 
amount of special pay for health professionals in critical skills from 
$10,000 annually to $25,000. Additionally, we are looking at the 
Critical Skills Retention Bonus that Congress authorized for the 
Reserve components in last year's National Defense Authorization Act 
for ways in which that bonus, with a $100,000 career limit, can be used 
to assist in meeting our health care professional requirements. As we 
identify other incentives that may assist us, we will include 
appropriate legislative proposals in the Department's annual 
legislative program.

                        required joint training
    3. Senator Warner. Mr. Dominguez, DOD, as part of its Training 
Transformation, is moving toward the establishment of a joint national 
training capability, to enhance the ability of the different Services 
to function in a joint environment. At the moment, this is being 
implemented, as you mentioned in your responses to the advance policy 
questions, in a ``spirit of cooperation and collaboration'' among the 
Services, the various combatant commands, and the Joint Staff. Under 
title 10, however, the Services retain their responsibility to train 
forces. Do you foresee a need to make any changes to those 
responsibilities in title 10 to support the implementation of the 
Department's Training Transformation?
    Mr. Dominguez. The Secretary of a military department is 
responsible for and is tasked to recruit, organize, train and equip the 
forces assigned to the combatant commanders (title 10, U.S.C., sections 
3013(b) and 8013(b)). Training Transformation extends a joint context 
to the world class training already provided by the Services. We can 
accomplish everything we need to within the existing authorities of the 
Secretary of Defense.

             promoting jointness in the civilian workforce
    4. Senator Warner. Mr. Dominguez, in your answers to the advance 
policy questions you stated: ``I will champion the Department's efforts 
to do for the Senior Executive Service Corps what Goldwater-Nichols did 
for the Department's officer corps--create a power imperative for 
knowing, thinking, and acting joint.'' If confirmed, what changes in 
the professional development, training, and assignment of civilians do 
you think are necessary to achieve your vision for the DOD civilian 
workforce?
    Mr. Dominguez. Today, our senior executives require extraordinary 
skills to meet the challenges of the Global War on Terror, a tough and 
uncertain environment. I envision a senior executive cadre that has an 
enterprise-wide perspective; is prepared to lead in a joint 
environment; has strong leadership and management skills; is mobile and 
ready to assume leadership responsibilities where needed; has 
substantive knowledge of the national security mission; and has a 
shared understanding, trust, and sense of mission with military 
leaders.
    The 21st century operating environment and knowledge requirements 
are changing rapidly and constantly evolving. Thus, continuous learning 
and professional development are essential imperatives to maintaining a 
state of constant readiness and building a bench of senior leaders to 
meet current and future DOD requirements.
    To this end, the Department is currently examining ways to improve 
the identification, development, assignment, and management of the 
Senior Executive Service. The Department intends to rebuild a 
professional development framework that is purposeful, focused, and 
experiential. To develop broader senior executive leadership 
competencies, our approach will consider cross-functional development, 
lateral movement across fields and parts of the DOD organization, 
national security education and training, mentoring, coaching, expanded 
intergovernmental exchanges, executive fellowships, and other 
opportunities that build a relevant portfolio of career experiences.
    We intend to strengthen the current organizational structure to 
provide a central focus and DOD-level responsibility for policy and 
accountability of the management and development of senior executives. 
We envision that the Department will own a top level cadre of executive 
positions whose senior executives are deliberately identified, 
developed, assigned, and managed. Finally, through our pay for 
performance system, we will be able to link bonuses, pay increases, and 
advancements to demonstrated proficiency in needed competencies and 
skills.

                         dod civilian workforce
    5. Senator Warner. Mr. Dominguez, the Quadrennial Defense Review 
(QDR) envisions the National Security Personnel System (NSPS) as a 
critical tool in the Department's human capital strategy. What are your 
NSPS goals for the DOD civilian workforce?
    Mr. Dominguez. NSPS is essential to the Department's efforts to 
create an environment in which Total Force, uniformed personnel and 
civilians, thinks and operates as one cohesive unit. It is a results-
driven, mission-focused system that emphasizes employee results that 
contribute to the accomplishment of the Department's national security 
mission. We understand that in order for NSPS to be successful, we must 
take care of our most valuable asset--our people. ``Mission First'' and 
support of our national security goals and strategic objectives have 
been and remain paramount, but while also respecting the individual and 
protecting workers' rights guaranteed by law, including laws pertaining 
to veterans in the civil service.
    NSPS will put a modern, flexible personnel system in place that is 
also credible, transparent, and fair to our employees. DOD will be able 
to hire the right people in a more timely manner, and to pay and reward 
our employees properly, adequately recognizing their contribution to 
the mission. Pay increases will be based on performance rather than 
longevity. The Department will become more competitive in setting 
salaries and able to adjust salaries based on various factors, 
including labor market conditions, performance, and change in duties. 
Managers will be held accountable for making the right decisions and 
for managing their employees--all of their employees.
    These are significant changes and are necessary for the Department 
to carry out its mission and to create a 21st century system that is 
flexible and contemporary while protecting fundamental employee rights.

    6. Senator Warner. Mr. Dominguez, if confirmed, how will you 
leverage NSPS to achieve your goals for the DOD civilian workforce?
    Mr. Dominguez. The NSPS has tremendous potential to greatly enhance 
the way DOD manages its civilian workforce. It is a performance-based 
system that links employee objectives to organizational goals. It 
emphasizes and rewards employees based on results that contribute to 
the accomplishment of the Department's national security mission. The 
NSPS human resources management system is the foundation for a leaner, 
more flexible support structure and will help attract skilled, 
talented, and motivated people, while also retaining and improving the 
skills of the existing workforce. The new system provides a simplified 
pay banding structure that includes performance-based pay. This allows 
managers flexibility in assigning work and it provides greater 
opportunities for career growth for the Department's civilian 
workforce. As the Department moves away from the General Schedule 
system, it will become more competitive in setting salaries and it will 
be able to adjust salaries based on various factors, including labor 
market conditions, performance, and changes in duties. The system will 
retain the core values of the civil service and allow employees to be 
paid and rewarded based on performance, innovation, and results. A more 
flexible, mission-driven human resources system will provide a more 
cohesive Total Force.

                                 ______
                                 
               Questions Submitted by Senator John McCain
                         acquisition work force
    7. Senator McCain. Mr. Dominguez, according to the Air Force 
Inspector General (IG), after your meeting with Senator McCain and 
General Jumper on April 13, 2005, you directed General John Corley and 
Timothy Bayland to ``go convert the contract.'' Is this true?
    Mr. Dominguez. Yes.

    8. Senator McCain. Mr. Dominguez, the Air Force IG also said that 
your direction ``was never interpreted as requiring a full Part 15 
contract.'' In particular, the IG notes, ``The Acquisition Work Force's 
use of the word `convert' was, from the beginning, shorthand for making 
the C-130J `Part 15-like.' '' No one in the Army's Acquisition Work 
Force had a similar understanding regarding the conversion of the 
Future Combat System (FCS) other transaction agreement (OTA) to a Part 
15 acquisition. To exactly whom at the ``Acquisition Work Force'' is 
the IG referring?
    Mr. Dominguez. ``Acquisition Work Force'' meant the entire Air 
Force AQ team, from the top leadership on down. At the time I gave the 
orders to ``convert'' the contract, then Lt. Gen. John Corley was the 
Military Deputy to the Assistant Secretary for Acquisition. The ``Part 
15-like'' comment in the IG report came from Timothy Beyland, who at 
the time was the Special Adviser for Acquisition to the Secretary of 
the Air Force. Generals William Looney and Ted Bowlds served at various 
times during this period as Program Executive Officer, driving the day-
to-day conversion work.

    9. Senator McCain. Mr. Dominguez, is Major General Hoffman, the 
head of the Acquisition Work Force, responsible for not following your 
direction on this contract?
    Mr. Dominguez. Sir, as you are aware my role as the Acting 
Secretary of the Air Force and the Service Acquisition Executive ended 
on 28 July 2005. During the time I served as the Acting Secretary, 
Lieutenant General (Major General at the time) Hoffman was the Director 
of Requirements for Air Combat Command and as a result we did not have 
any discussions involving the C-130J contract conversion. Lt. Gen. 
Hoffman assumed duties as Military Deputy for Acquisition in August 
2005--after I was replaced as Acting Secretary of the Air Force.
    As documented in Air Force Inspector General (IG) Report of Inquiry 
(ROI) (S6649P), which has been provided to this committee, ``The AQ 
community did its best to follow the guidance Secretary Dominguez 
provided.'' The report also makes clear that these Air Force 
acquisition officials ``. . . understood that no plan would become 
final without an indication from he Senate Armed Services Committee, 
and Senator McCain in particular, that it was acceptable.'' The Air 
Force IG ROI ``determined that no one knowingly acted to undermine 
Senator McCain's intent with regard to the C-130J contract.''

    10. Senator McCain. Mr. Dominguez, what communications, if any, did 
you have with Major General Hoffman or any other Air Force officials 
about the conversion of the Part 12 contract?
    Mr. Dominguez. Sir, as you are aware my role as the Acting 
Secretary of the Air Force and the Service Acquisition Executive ended 
on 28 July 2005. During the time I served as the Acting Secretary, 
Lieutenant General (Major General at the time) Hoffman had not assumed 
his current position. As a result, we did not have any discussions 
involving the C-130J contract conversion.
    I did meet with Lt. Gen. John Corley, who at that time was the 
Military Deputy to the Assistant Secretary for Acquisition, and Mr. Tim 
Beyland, who was then serving as my Special Assistant for Acquisition. 
I gave these two officials the order to convert the contract. 
Subsequently, I may have received progress updates from either or both 
of these officials at scheduled staff meetings, but these would not 
have been detailed discussions. While serving as Acting Secretary of 
the Air Force, I received no communication from anyone that gave me 
reason to believe we were not making good progress converting the C-
130J contract.

                             cost overruns
    11. Senator McCain. Mr. Dominguez, in the 2006 National Defense 
Authorization Act (NDAA), Congress instructed the Pentagon to report on 
every program that costs at least 50 percent more than initial 
projections. The provision was designed to tie programs to their 
original cost estimates, rather than updated cost and schedule 
baselines. The Pentagon has been allowed to change its baseline without 
invoking the penalty. For example, you testified in April of last year 
that the C-130J originally cost $33 million a copy but it now costs 
over $66 million a copy. How do you plan to implement this new 
amendment with regard to Nunn-McCurdy violations?
    Mr. Dominguez. In my current position, I have no authority over any 
DOD acquisition program and will have none if confirmed as Principal 
Deputy Under Secretary for Personnel and Readiness. However, the 
Department's acquisition professionals advise us that implementation of 
this new reporting regime over the long-term is straightforward. For 
every Major Defense Acquisition Program (MDAP), we currently compare 
the Program Manager's Current Estimate each quarter to the Acquisition 
Program Baseline (APB) to determine if the program has breached the 
Nunn-McCurdy unit cost thresholds. We will add a comparison against the 
``Original Baseline Estimate'' to this analysis. We will be analyzing 
MDAPs each quarter to determine if there is significant or critical 
cost growth against both the APB and the ``Original Baseline Estimate'' 
using essentially the same procedures we have used in the past to 
evaluate Unit Cost against the APB.
    In the near-term, we are determining the status of programs against 
their ``Original Baseline Estimate'' based on the fiscal year 2007 
President's budget (fiscal year 2007 PB) submission. The fiscal year 
2007 PB was essentially complete on January 6, 2006, when the changes 
to Nunn-McCurdy were enacted. Programs exceeding the ``Original 
Baseline Estimate'' by more than 50 percent will reset their ``Original 
Baseline Estimate'' to the cost baseline in their current APB, and the 
Secretary of Defense will provide a report to Congress on these 
programs. The Secretary of the Air Force will submit a notification to 
Congress on programs with cost growth between 30 and 50 percent.

                          casualty assistance
    12. Senator McCain. Mr. Dominguez, in the NDAA for Fiscal Year 
2006, Congress tasked the Secretary of Defense with developing a 
comprehensive policy and procedure for casualty assistance to be 
followed by all branches of the armed services. The deadline for 
setting the policy is August 1, 2007. The greatest sacrifice that a 
family can make for its Nation necessarily deserves the best service 
possible for the surviving family. In this time of war, there is a 
great urgency for the right policy. The DOD should be working with the 
Department of Veterans' Affairs (VA) to find the right way to develop a 
policy of ``seamless transition'' for survivors. The Gold Star Wives, 
The Armed Forces Services Organizations, and Tragedy Assistance 
Programs for Survivors all have first-hand experience in dealing with 
the needs of survivors. Can you ensure the DOD meets the prescribed 
timeline and advise once you have coordinated with the aforementioned 
groups?
    Mr. Dominguez. The Department's policy on casualty assistance, 
Department of Defense Instruction 1300.18 ``Military Personnel Casualty 
Matters, Policies, and Procedures'' is currently under revision. This 
revision will, among other things, incorporate all the applicable 
provisions contained in the National Defense Authorization Act for 
Fiscal Year 2006. Since August 2005, the Departments of Defense and 
Veterans' Affairs have jointly chaired a Survivors Working Group that 
reviews and addresses survivor issues. The group consists of 
representatives from each of the Military Services, Service Relief 
Agencies, non-governmental agencies (e.g., Gold Star Wives, Tragedy 
Assistance Program for Survivors (TAPS), National Military Family 
Association, Veterans Service Organizations), and surviving family 
members. Each has provided input into the revised instruction and will 
be part of the formal coordination process. The revised Instruction 
will be published by August 1, 2006.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
                          defense laboratories
    13. Senator Sessions. Mr. Dominguez, the DOD laboratories play a 
critical role in developing technologies that support warfighters, as 
has been clearly demonstrated in their efforts to support operations in 
Iraq and Afghanistan. If confirmed, how do you propose to utilize the 
authorities of the laboratory personnel demonstration programs to 
enhance the effectiveness of the defense laboratories and ensure that 
they are technically competitive with their foreign and industrial 
counterparts?
    Mr. Dominguez. The DOD Science and Technology Laboratories (STRLs) 
personnel demonstration project authorities were modeled after the 
first Navy Demonstration Project in ``China Lake'' and San Diego 
started back in 1980. The Department's more than 25 year history with 
the personnel demonstration projects has proven the value of a more 
flexible, responsive human resources system. Certainly, design of the 
new NSPS has benefited from these experiences.
    These demonstration projects were initiated to facilitate 
competitiveness in attracting, recruiting, retaining and rewarding a 
highly skilled workforce. The personnel management authorities granted 
to the Secretary for use in STRLs have been, and continue to be, 
successfully used with encouraging results. When the Office of 
Personnel Management (OPM) evaluated the STRLs in 2002 (Summative 
Evaluation 2002), it found many promising results despite the 
demonstration projects' less than 5 year implementation. For example, 
OPM found that the flexibility to pay higher starter salaries was 
helpful and the laboratories were retaining more of their top 
performers. They also noted that there was a positive effect on 
motivation and willingness to work harder since the implementation of 
pay for performance. Research productivity increased significantly in 
one of the Army laboratories.
    The use of flexible personnel management authorities has clearly 
helped create an environment for technological success and led to 
bolstered international and industrial competitiveness in the DOD labs. 
The Department will consider the best long-term human resources 
management option for the STRLs in a couple of years. Section 9902(c) 
of title 5, U.S.C., provides that NSPS Human Resources System will 
apply to the STRLs on or after October 1, 2008, only to the extent that 
the Secretary of Defense determines that the flexibilities provided by 
NSPS are greater than those under the STRL demonstration project 
authority. The Department's report under section 1107 of the 2005 NDAA 
includes a plan for a fair and thorough comparison of the flexibilities 
between NSPS and the STRL personnel management demonstration authority. 
The evaluation is planned for 2008, when NSPS reaches a sufficient 
level of maturity to make a meaningful comparison. Until then, the 
STRLs will be able to continue to add, refine, and evolve their 
demonstration projects.
                                 ______
                                 
            Questions Submitted by Senator Edward M. Kennedy
                   national security personnel system
    14. Senator Kennedy. Mr. Dominguez, on October 7, 2005 United 
States District Court Judge Rosemary Collyer ruled that the Department 
of Homeland Security's (DHS) new personnel system was unlawful because 
it did not provide meaningful collective bargaining rights. The Judge 
specifically faulted the system because it allowed management 
unilaterally to nullify a contract term or take an issue off the 
bargaining table. The NSPS, like the Department of Homeland Security 
personnel system, allows management unilaterally to declare contract 
terms null and void or remove issues from the scope of collective 
bargaining. In preparing the final NSPS regulations, did the Department 
consider this ruling by Judge Collyer? If not, why not? The lack of 
advance notice clearly was not the focus of Judge Collyer's 
determination that the DHS system was illegal.
    Mr. Dominguez. Yes, we were certainly aware of, and informed by, 
Judge Collyer's decision. However, the statutory authority for NSPS is 
different than the statutory authority provided to DHS. Ultimately, 
changes that were made to the final regulations were a result of the 
many public comments received, as well as input from the unions during 
the meet and confer process.

    15. Senator Kennedy. Mr. Dominguez, have you done anything to 
correct the more fundamental problem that the NSPS does not provide 
enforceable collective bargaining rights because one party is really 
not bound by the contract? If so, why have you not revised your 
regulations to comply with the ruling?
    Mr. Dominguez. Collective bargaining agreements will continue to 
exist under the NSPS and will continue to be important contracts 
between management and labor. Although those agreements will have to 
conform to the NSPS regulations and implementing issuances, the 
Department will not issue a directive simply to override an agreement. 
The employee representatives have a voice in planning, development, and 
implementation of implementing issuances through the continuing 
collaboration process. Also, the Department's authority to override 
union contracts is not unfettered. The Department's authority for the 
labor relations provisions will expire in November 2009--unless the 
Secretary certifies the system. This is a strong incentive to work with 
employee representatives.
    In reference to your questions as to whether any revisions were 
made to comply with the DHS ruling by Judge Collyer, we were aware of 
and informed by her decision; however, the statutory authority for NSPS 
is different than the statutory authority provided to DHS. Ultimately, 
any changes we made were a result of public comments we received as 
well as input from the unions during the meet and confer process.

    16. Senator Kennedy. Mr. Dominguez, please explain to me how a 
system where two parties contract, but one party is not bound by the 
contract, provides meaningful collective bargaining rights as Congress 
intended?
    Mr. Dominguez. Employees will continue to have a voice in resolving 
workplace disputes under the NSPS. The regulation preserves collective 
bargaining, but restricts the scope of bargaining on certain matters, 
including implementing issuances. Implementing issuances apply only to 
policy or procedures implementing NSPS, primarily in the area of human 
resources management. The regulation concerning collective bargaining 
attempts to strike a balance between employee interests and DOD's need 
to accomplish its mission effectively and expeditiously. For example, 
while the regulation eliminates all bargaining on procedures regarding 
operational management rights, it does not eliminate all bargaining on 
procedures. The regulation provides for collective bargaining on 
certain operational matters that are based on the Secretary's 
determination that bargaining is necessary to advance the Department's 
mission or promote organizational effectiveness. The Department bears 
full accountability for national security; therefore, the Secretary is 
in the best position to determine when it is appropriate to permit 
bargaining under these circumstances. The regulation continues to 
provide for bargaining on procedures for personnel management rights. 
The regulation also continues to provide for bargaining on impact and 
appropriate arrangements for all management rights. While the scope of 
bargaining is restricted compared to what occurs today, the regulation 
continues to provide many opportunities for the unions to have a voice 
in workplace issues. Finally, the regulation provides for consultation 
on procedures regarding the operational management rights, which lie at 
the very core of how DOD carries out its mission.
                                 ______
                                 
                Question Submitted by Senator Jack Reed
           utilization of laboratory personnel flexibilities
    17. Senator Reed. Mr. Dominguez, section 1107 of the 2005 NDAA 
required that the Under Secretary of Defense for Acquisition, 
Technology, and Logistics and the Under Secretary of Defense of 
Personnel and Readiness jointly conduct a study to determine how best 
to utilize the laboratory demonstration authorities to increase the 
effectiveness of the defense laboratories. This study was supposed to 
be presented to Congress no later than December 1, 2005 but has not 
been received by the committee yet. Have you reviewed the findings of 
this study and if confirmed, how do you propose to implement these 
findings?
    Mr. Dominguez. The section 1107 report, jointly developed by the 
Under Secretary of Defense (Acquisition, Technology, and Logistics) and 
the Under Secretary of Defense (Personnel and Readiness), is in 
coordination within the Department, and it is expected to be released 
shortly. As a matter of background, section 9902(c) of title 5, U.S.C., 
provides that the National Security Personnel System (NSPS) will apply 
to the designated DOD Science, Technology, and Reinvention Laboratories 
(STRLs) on or after October 1, 2008, only to the extent that the 
Secretary of Defense determines that the flexibilities provided by NSPS 
are greater than those under the STRL demonstration project authority. 
The Department's report under section 1107 of the 2005 NDAA includes a 
plan for conducting a fair and thorough comparative evaluation of the 
flexibilities between NSPS and the demonstration authority. The 
evaluation is planned for 2008, when NSPS reaches a sufficient level of 
maturity to make a meaningful comparison. Until then, the STRLs will be 
able to continue to refine and evolve as needed.
                                 ______
                                 
    [The nomination reference of Michael L. Dominguez follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 December 13, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Michael L. Dominguez of Virginia, to be Deputy Under Secretary of 
Defense for Personnel and Readiness, vice Charles S. Abell, resigned.
                                 ______
                                 
    [The biographical sketch of Michael L. Dominguez, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
              Biographical Sketch of Michael L. Dominguez
    Michael L. Dominguez is Assistant Secretary of the Air Force for 
Manpower and Reserve Affairs, Washington, DC. A political appointee 
confirmed by the Senate, Mr. Dominguez heads a four division department 
that deals at the policy level with Air Force manpower and Reserve 
affairs issues. His areas of responsibility include force management 
and personnel, equal opportunity and diversity, Reserve affairs and Air 
Force review boards.
    As an Air Force dependent, Mr. Dominguez grew up on bases around 
the world. After graduating in 1975 from the U.S. Military Academy at 
West Point, NY, he was commissioned a second lieutenant in the U.S. 
Army, reported to Vicenza, Italy, then worked varied assignments with 
the 1st Battalion, 509th Infantry (Airborne) and the Southern European 
Task Force. After leaving the military in 1980, Mr. Dominguez went into 
private business and attended Stanford University's Graduate School of 
Business. In 1983 he joined the Office of the Secretary of Defense as 
an analyst for Program Analysis and Evaluation (PA&E).
    Mr. Dominguez entered the Senior Executive Service in 1991 as 
PA&E's Director for Planning and Analytical Support. In this position 
he oversaw production of DOD's long-range planning forecast and its $12 
billion in annual information technology investments. He also directed 
the PA&E modernization of computing, communications, and modeling 
infrastructure. He joined the Chief of Naval Operations staff in 1994 
and assisted in the Navy's development of multiyear programs and annual 
budgets. Mr. Dominguez left the Federal Government in 1997 to join a 
technology service organization. In 1999 he began work at the Center 
for Naval Analyses where he organized and directed studies of complex 
public policy and program issues. In 2001 he rejoined the staff of the 
Chief of Naval Operations where he worked until his appointment.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Michael L. 
Dominguez in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Michael Luis Dominguez.

    2. Position to which nominated:
    Deputy Under Secretary of Defense (Personnel and Readiness).

    3. Date of nomination:
    December 12, 2005.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 4, 1953; Austin, Texas.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to the former Sheila Janet MacNamee.

    7. Names and ages of children:
    Michelle, 24; Michael, 22.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    1975 - Bachelor of Science degree, U.S. Military Academy, West 
Point, NY.
    1983 - Master's degree in business administration, Stanford 
University, Stanford, CA.
    1989 - Program for Senior Officials in National Security 
(certificate), Harvard University MA.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    June 1983-September 1988, program analyst, Office of the Assistant 
Secretary of Defense, Secretary for Program Analysis and Evaluation, 
Washington, DC.
    October 1988-September 1991, executive assistant to the Assistant 
Secretary of Defense for Program Analysis and Evaluation, Washington, 
DC.
    October 1991-September 1994, Director for Planning and Analytical 
Support, Office of the Assistant Secretary of Defense for Program 
Analysis and Evaluation, Washington, DC.
    October 1994-April 1997, Associate Director for Programming, Office 
of the Chief of Naval Operations, Washington, DC.
    April 1997-September 1999, General Manager, Tech 2000 Inc., 
Herndon, VA.
    September 1999-January 2001, Research Project Director, Center for 
Naval Anaylses, Alexandria, VA.
    January 2001-August 2001, Assistant Director for Space, Information 
Warfare, and Command and Control, Office of the Chief of Naval 
Operations, Washington, DC.
    August 2001-present, Assistant Secretary of the Air Force for 
Manpower and Reserve Affairs, Washington, DC, including serving as 
Acting Secretary of the Air Force from March 2005 to August 2005.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Civil Air Patrol Board of Governors, November 2001 to June 2005 
including service as chairman of the Audit Committee.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    U.S. Military Academy Alumni Association, June 1975-present.
    Stanford Business School Alumni Association, June 1983-present.
    Troop 1570, Boy Scouts of America, Registered Adult Leader, 
September 1995-September 2001.
    Herndon High School Parent Teacher's Association, Member: September 
1995-September 2002.
    Herndon High School Sports Booster's Club, Member: September 1995-
September 2002.
    College of William and Mary Track and Field Parent's Association, 
Member: September 2002-present.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    1980, Army Commendation Medal.
    1988 and 1994, Defense Meritorious Civilian Service Medal.
    1993, Defense medal for Civilian Service.
    1997, Medal for Superior Civilian Service, Department of the Navy.
    1998, Meritorious Executive Presidential Rank Award.
    2005, Exceptional Civilian Service Award.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    [Nominee responded and the information is contained in the 
committee's executive files.]

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    [Nominee responded and the information is contained in the 
committee's executive files.]

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                              Michael L. Dominguez.
    This 22nd day of December, 2005.

    [The nomination of Michael L. Dominguez was reported to the 
Senate by Chairman Warner on June 27, 2006, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on June 29, 2006.]
                              ----------                              

    [Prepared questions submitted to James I. Finley by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I believe the Goldwater-Nichols Act is one of the most 
significant pieces of legislation passed by Congress regarding DOD 
operations and organization and I'm presently unaware of any need to 
modify its provisions. However, with the passage of time and an ever 
changing landscape of threats, I believe it is prudent for the DOD to 
continuously review and innovatively improve our acquisition and 
technology management systems, including recommending legislation to 
improve organization, command and control and equipping our military 
with a decisive advantage.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. I am not prepared now to recommend any modifications. If 
confirmed, I will review this closely.
                                 duties
    Question. Section 133a of title 10, U.S.C., describes the role of 
the Deputy Under Secretary of Defense for Acquisition and Technology 
(DUSD(AT)).
    Assuming you are confirmed, what duties do you expect that 
Secretary Krieg will prescribe for you?
    Answer. Mr. Krieg and I have not discussed any additional 
responsibilities other than those defined in section 133a of title 10. 
In that respect, if confirmed, my responsibilities would be the 
principal advisor to Mr. Krieg and Secretary Rumsfeld for matters 
relating to acquisition and the integration and protection of 
technology. In addition I would assist Mr. Krieg in the performance of 
his duties relating to Acquisition and Technology. The DUSD(A&T) 
responsibilities, functions and authorities are further defined in DOD 
Directive 5134.13 dated October 5, 2005.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have extensive background and experience in the aerospace 
industry with over 30 years of multi-national business leadership and 
executive management experience in programs that span air, land, sea, 
and space for the DOD including joint programs. I also have background 
and experience with the FAA Automatic Surface Detection Radar systems 
and the NASA Space Shuttle Program. I bring systems and subsystems 
management experience that includes mission analysis, design, 
development, and deployment of weapon delivery, flight control, 
navigation, communications, information management, (C\4\ISR), 
battlespace management and chem/bio defense systems. My background and 
experience also includes marketing, finance, program management, 
engineering and manufacturing.
    I also have a broad experience base of technology management 
including international technology transfer, outsourcing, product 
development, multi-plant operations management, lean manufacturing 
implementation, demand flow technology programs, six sigma/black belt 
systems, information technology systems, purchasing, logistics, 
facilities, security, product support and total quality management. I 
have participated in many acquisitions and divestitures providing 
business analysis including strategic fit, organizational alignment, 
marketing assessments, project evaluations and manufacturing audits.
    My education includes a Masters of Business Administration (MBA) 
and Bachelors of Science in Electrical Engineering (BSEE).
    Question. Do you believe that there are any additional steps that 
you need to take to enhance your expertise to perform these duties?
    Answer. No.
    Question. Do you believe that any significant changes should be 
made in the structure and decisionmaking procedures of the Department 
of Defense with respect to acquisition matters?
    Answer. I am aware that several other recent and ongoing reviews 
address questions such as this. If confirmed, I intend to study the 
recommendations , keep an open mind, assess historical changes, and 
work within the DOD and with Congress in an open and transparent 
manner. My leadership experience indicates that continuous improvement 
causes effective and efficient change for structure and decisionmaking 
procedures.
                             relationships
    Question. In carrying out your duties, what would be your 
relationship with:
    The Secretary of Defense.
    Answer. In working with Mr. Krieg I would support Secretary 
Rumsfeld's priorities in acquisition and technology.
    Question. The Deputy Secretary of Defense.
    Answer. If confirmed I would work with Mr. Krieg to support Deputy 
Secretary England and DOD priorities in matters within the purview of 
acquisition and technology.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics.
    Answer. Mr. Krieg would be my boss and I would support him to the 
best of my ability.
    Question. The other Under Secretaries of Defense.
    Answer. There are many actions that require coordination among the 
offices of the Under Secretaries of Defense. If confirmed, I would 
support Mr. Krieg in working with the other Under Secretaries of 
Defense to best serve the priorities of the Department of Defense.
    Question. The Assistant Secretaries of Defense.
    Answer. If confirmed I would work with Mr. Krieg to cooperate with 
the Assistant Secretaries of Defense to best equip the Services and 
serve Department of Defense priorities.
    Question. The DOD General Counsel.
    Answer. If confirmed I would work with the General Counsel's office 
to ensure that our actions are within the bounds of law and 
regulations.
    Question. The Acquisition Executives in the Military Departments.
    Answer. There are many issues of mutual concern where communication 
and coordination are essential for effective and efficient management. 
If confirmed, I will make communication and coordination a top priority 
in daily management.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. If confirmed I would support Admiral Giambastiani both as 
the Vice Chairman and in his role as co-chair to the Defense 
Acquisition Board (DAB).
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the DUSD(AT)?
    Answer. I believe the major challenges and problems include 
regaining the confidence of our DOD and congressional leadership the 
acquisition system and reshaping the business enterprise associated 
with the acquisition and technology community.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. I am aware that several recent and ongoing reviews propose 
ways to address these challenges. If confirmed, I intend to study the 
recommendations, keep an open mind, assess historical changes, and work 
within the DOD and with Congress in an open and transparent manner.
    Question. What do you consider to be the most serious problems in 
the management of acquisition functions in the Department of Defense?
    Answer. I believe the top three issues are: (1) oversight, (2) 
acquisition strategy, and (3) requirements. I believe resolving those 
issues will serve to put us on the right path to achieve credibility 
and efficiency in the acquisition community.
    Question. What management action and timetables would you establish 
to address these problems?
    Answer. If confirmed, I plan to develop actions that will support 
achievement of Mr. Krieg's goals. As for timelines, I need to become 
better acquainted with all the issues before committing to a timetable.
                    major weapon system acquisition
    Question. The Government Accountability Office (GAO) has reported 
that private sector acquisition programs are more successful than DOD 
acquisition programs, in large part because they consistently require a 
high level of maturity for new technologies before such technologies 
are incorporated into product development programs. Section 801 of the 
National Defense Authorization Act for Fiscal Year 2006 requires the 
Milestone Decision Authority for a major defense acquisition program to 
certify to the technological maturity of key technologies before 
approving an acquisition program.
    In your view, would DOD's major acquisition programs be more 
successful if the Department were to follow the commercial model and 
mature its technologies with research and development funds before 
these technologies are incorporated into product development programs?
    Answer. I believe a commercial model has already been implemented 
to a certain extent and is useful. It offers leverage and lessons 
learned to improve major weapons systems acquisition. We need to 
continuously learn from all available sectors to maintain technical and 
operational superiority. DOD must be at the technological forefront. 
Research and development funds should be used to incubate and mature 
products to a level where risk is considered manageable.
    Question. What steps would you take, if confirmed, to implement 
section 801 and ensure that the key components and technologies to be 
incorporated into major acquisition programs meet the Department's 
technological maturity goals?
    Answer. If confirmed, I will work to implement section 801 to 
ensure incorporation of the key components and technologies into major 
acquisition programs is consistent with maturity goals. I will also 
consult with the Service Acquisition Executives and others as 
appropriate to ensure that the necessary actions and certifications are 
in place.
    Question. DOD weapon systems have generally taken significantly 
longer and cost more money than promised when they are first developed. 
GAO has reported that it is not unusual for estimates of time and money 
to be off by 20 to 50 percent. Section 802 of the National Defense 
Authorization Act for Fiscal Year 2006 attempts to instill more 
discipline into the acquisition process by tightening the Nunn-McCurdy 
provisions in section 2433 of title 10, U.S.C.
    What is your view of the changes made by section 802?
    Answer. If confirmed, I will review section 802 with particular 
emphasis on the changes made in an effort to reduce cost and schedule 
overruns.
    Question. What additional steps do you believe the Department can 
and should take to avoid costly overruns on major defense acquisition 
programs?
    Answer. I believe that enforcing discipline can help minimize 
requirements ``creep'' and capabilities ``growth'' such that cost and 
schedule increases to major defense programs can be avoided. I also 
believe that funding stabilization and maintaining baseline funding 
levels is important to sustaining program performance. An early 
identification of program critical technologies would enable earlier 
risk mitigation to allow lead time to accelerate technology maturation, 
avoid cost, and schedule risk.
            impact of the budget and requirements processes
    Question. A recent report by the Center for Strategic and 
International Studies (CSIS) concludes that ``many of the ills 
attributed to the defense acquisition system are really caused by [the 
requirements and resource allocation] processes. Instability in the 
definition of requirements, often referred to as `requirements creep,' 
creates a moving target for acquirers as they struggle to make trade-
offs among performance, cost, and schedule. Similarly, much, if not 
most, of the instability in acquisition programs is caused by lack of 
discipline in the resource allocation process--that is, funding more 
acquisition programs than the procurement budgets can support and the 
chronic tendency . . . to take procurement dollars to meet operations 
and maintenance (O&M) bills.''
    Do you agree with this assessment?
    Answer. I agree that more discipline and integration among all the 
key decision processes of the DOD would increase stability with 
outcomes matching expectations.
    Question. What steps do you believe the Department should take to 
address this problem?
    Answer. If confirmed, I believe the steps we should take are to 
understand the drivers and root cause of the problems in the 
requirements and resource allocation processes.
    Question. The Defense Acquisition Performance Assessment (DAPA) 
recently recommended that the Department address instability in funding 
for major defense acquisition programs by creating a new ``Acquisition 
Stabilization Account'' and establishing a Management Reserve in this 
account by holding termination liability as a pool at the Service 
level.
    What is your view of these recommendations?
    Answer. I have read the DAPA Executive Summary but have not seen 
the Report. If confirmed, I will read the complete report with 
particular emphasis on the recommended ``Acquisition Stabilization 
Account.'' I believe it is important to understand the recommendation 
in the context of the full report.
    Question. The DAPA report also recommends that the Under Secretary 
of Defense for Acquisition, Technology, and Logistics adjust program 
estimates for major defense acquisition programs to reflect ``high 
confidence''--defined as an 80 percent chance of a program completing 
development at or below the estimated cost.
    What is your view of this recommendation?
    Answer. I have read the DAPA Executive Summary but have not seen 
the Report. If confirmed, I will read the complete report with 
particular emphasis on the adjustment of program estimates for ``high 
confidence'' recommendation. I believe it is important to fully 
understand the recommendation in the context of the full report.
    Question. If confirmed, what steps, if any, would you take to 
implement this recommendation?
    Answer. If confirmed, I will first read the full report to 
understand the recommendation. Any implementation will be done within 
the DOD and with Congress in an open and transparent manner.
                         acquisition cycle time
    Question. The Department of Defense has attempted to reduce cycle 
time for major acquisition programs through the use of spiral 
development and incremental acquisition strategies.
    To what extent have these strategies been implemented throughout 
the Department?
    Answer. I do not know the extent to which cycle time reduction has 
been attempted using spiral development and incremental acquisition 
strategies throughout the DOD.
    Question. How successful do you believe these strategies have been?
    Answer. My experience reflects that there is significant value in 
cycle time reduction utilizing spiral development and incremental 
acquisition strategies.
    Question. What additional steps do you believe the Department can 
and should take to reduce cycle time?
    Answer. My perspective is that there are a lot of success stories 
in the Department on cycle time reduction. Taking those lessons 
learned, finding a methodology to institutionalize their respective 
processes and utilizing lean sigma practices are examples of steps that 
may help to facilitate an environment of continuous learning resulting 
in cycle time reduction.
    Question. The DAPA report recommends a new approach to acquisition, 
described as ``time certain development,'' under which ``useful 
military capability'' would be delivered to operational forces within 
approximately 6 years of the Milestone A decision, even if all 
performance requirements could not be met in that timeframe.
    What is your view of this recommendation?
    Answer. I have read the DAPA Executive Summary but have not seen 
the Report. If confirmed, I will read the complete report with 
particular emphasis on the ``time certain development'' and ``useful 
military capability'' recommendation. I believe it is important to 
understand the recommendation in the context of the full report .
                       commercial item strategies
    Question. Section 803 of the National Defense Authorization Act for 
Fiscal Year 2006 requires a determination by the Secretary of Defense 
and notification to Congress before a major weapon system may be 
treated as a commercial item. Similarly, section 823 requires a 
determination by the Under Secretary of Defense for Acquisition, 
Technology, and Logistics, and notification to Congress before the 
Department may use ``other transaction authority'' for a prototype 
project in excess of $100 million.
    Under what circumstances, if any, would it be appropriate, in your 
view, to treat a major weapon system as a commercial item?
    Answer. If confirmed, I will read section 803 and section 823 to 
fully understand the respective statutory language. I believe there may 
be certain major defense systems, such as communications satellites or 
cargo aircraft, that are offered in the commercial market, either off-
the-shelf or with minor modifications, that fit the definition of 
commercial items and could be treated as such.
    Question. Under what circumstances, if any, would it be 
appropriate, in your view, to use ``other transaction authority'' for a 
prototype project in excess of $100 million?
    Answer. If confirmed, I will read section 823 with regard to 
``other transaction authority'' to fully understand the respective 
statutory language.
                        acquisition organization
    Question. The DAPA report recommends a number of organizational 
changes in the acquisition structure of the Department, including: (1) 
reestablishment of systems commands headed by four-star officers in 
each of the military departments; (2) elevation of the positions of the 
Service Acquisition Executives and Service Under Secretaries to 
Executive Level III; (3) designation of the Service Acquisition 
Executives as 5-year, fixed Presidential appointees; (4) creation of a 
pool of non-career senior executives and political appointees to 
provide leadership stability in the acquisition process; (5) 
designation of the Under Secretary of Defense for Acquisition, 
Technology, and Logistics as a full member of the Joint Requirements 
Oversight Council; and (6) disestablishment of the Acquisition 
Integrated Product Teams and replacement with a small staff focused on 
decisionmaking to support joint programs.
    What is your view of these recommendations?
    Answer. I have read the DAPA Executive Summary but have not seen 
the full report. If confirmed, I will read the complete report with 
particular emphasis on the organizational changes recommendations. I 
believe it is important to understand the recommendation in the context 
of the full report.
    Question. The CSIS report recommends that ``the service chiefs 
should have primary responsibility for acquisition execution.''
    What is your view of this recommendation?
    Answer. I believe that Goldwater-Nichols has it right in providing 
for civilian authority in the military departments and acquisition 
oversight reporting chain. It's my sense that this has worked well. 
However, I am willing to consider the recommendations from CSIS and 
other studies and if confirmed, will seek to understand them fully.
                     lead system integrators (lsi)
    Question. In May 2003, the Department approved the transition of 
the Army's Future Combat Systems program into System Development and 
Demonstration. The Army has hired a lead system integrator to set 
requirements, evaluate proposals, and determine which systems will be 
incorporated into future weapon systems. Section 805 of the National 
Defense Authorization Act for Fiscal Year 2006 requires the Department 
of Defense to report to the congressional defense committees on 
concerns arising out of the use of lead system integrators for the 
acquisition by the Department of Defense of major weapon systems.
    What are your views on the current role and responsibilities of 
lead system integrators?
    Answer. If confirmed, I will research the role of LSIs for the FCS 
Program as well as other programs to further refine my perspectives. My 
experience is that the LSI role has evolved from the system-of-systems 
role that delivers capabilities for joint and combined forces vs. the 
traditional prime contractor, platform centric role delivering 
capabilities for a single service.
    Question. How would you define the line between those acquisition 
responsibilities that are inherently governmental and those that may be 
performed by contractors?
    Answer. I believe the line is unchanged. The rules regarding the 
performance of inherently governmental functions do not vary. The 
Government retains responsibility for the execution of the program, 
makes all requirements, budgeting and policy decisions, and does source 
selections at the prime level.
    Question. If confirmed, what steps would you take to ensure that 
contracting mechanisms which maintain adequate safeguards are put in 
place to ensure that lead system integrator access to sensitive and 
proprietary information is not compromised?
    Answer. If confirmed, I will look to ensure that contracting 
mechanisms are in place for LSIs as they are for Prime Contractors to 
maintain adequate safeguards to protect sensitive and proprietary 
information from compromise.
    Question. What specific steps have--or will--the Department take to 
monitor the progress of the key technologies for the Future Combat 
Systems?
    Answer. If confirmed, I will investigate the steps taken and 
planned for monitoring the progress of key technologies for FCS.
    Question. What policies are in place to ensure that lead system 
integrators do not misuse sensitive and proprietary information owned 
by other contractors and do not unnecessarily limit competition in a 
manner that would disadvantage the government?
    Answer. If confirmed, I will investigate this in detail to ensure 
polices are in place for the proper use of sensitive and proprietary 
information as well as for open competition.
    Question. What additional steps, if any, do you believe are needed 
to address this issue?
    Answer. If confirmed, I will thoroughly review this issue to 
determine what additional steps are appropriate. In addition, I 
understand the National Defense Authorization Act for Fiscal Year 2006 
requires DOD to do a study on LSIs, which should provide additional 
perspectives on this subject.
                        award and incentive fees
    Question. The GAO recently reported that the Department of Defense 
has failed to link award fees to acquisition outcomes. As a result, GAO 
says, ``DOD has paid out an estimated $8 billion in award fees to date 
on the contracts in our study population, regardless of outcomes.'' 
According to GAO, this practice has undermined the effectiveness of 
fees as a motivational tool, marginalized their use in holding 
contractors accountable for acquisition outcomes, and wasted taxpayer 
funds.
    What is your view of the GAO findings?
    Answer. If confirmed, I would read the report and thoroughly 
investigate the GAO findings.
    Question. What steps, if any, do you believe the Department should 
take to better link the payment of award fees to acquisition outcomes?
    Answer. If confirmed, I would take immediate steps to understand 
the situation with corrective actions where appropriate.
    Question. Do you believe that it would be helpful to hold award 
fees as a pool at the Service level (rather than budgeting them to 
specific programs) to ensure that contractors have to compete for award 
fees rather than expecting them as a matter of entitlement?
    Answer. If confirmed, I will investigate and thoroughly analyze our 
business practices on this matter.
                          test and evaluation
    Question. The Department has, on occasion, been criticized for 
failing to adequately test its major weapon systems before these 
systems are put into production.
    What are your views about the degree of independence needed by the 
Director of Operational Test and Evaluation (DOT&E) in ensuring the 
success of the Department's acquisition programs?
    Answer. As an independent voice, the Director of Operational Test 
and Evaluation provides operational test and evaluation results to the 
Secretary of Defense, other decision makers in the Department, and 
Congress before programs proceed beyond Low Rate Initial Production. I 
believe that the independence of the DOT&E is necessary for the 
Operational Test and Evaluation of major weapon systems, and serves to 
ensure that such systems are operationally effective and operationally 
suitable.
    Question. What initiatives in this regard would you take, if 
confirmed?
    Answer. If confirmed, I would encourage a more integrated approach 
to T&E, including developmental testing and systems engineering. 
Developmental and operational testers should be involved as early as 
possible to ensure an adequate test and evaluation program is defined, 
addressed, and maintained in both program budget and schedule. This 
integrated approach will improve the quality of the development phase, 
and shorten the demonstration phase to meet warfighter requirements.
    Question. The Department has used low rate production lots to buy, 
and in some cases to field, significant quantities of some systems 
while continuing development to fix performance problems.
    What steps do you believe the Department should take to ensure that 
milestone decision authorities do not field systems before system 
performance has been adequately demonstrated?
    Answer. Where it makes sense, the DOD could take this incremental 
approach while recognizing the need for future capability improvements. 
I believe it is possible to have an incremental approach to system 
development which allows for rapid fielding of mature technology to the 
warfighter in fully tested increments. Additional development can 
continue to pursue increased system functionality and performance.
    To prevent the fielding of immature systems, we need to increase 
discipline to assure systems have passed exit criteria and demonstrated 
a fundamental core capability before fielding.
    Question. The GAO recently reported that the DOD acquisition system 
incentivizes delayed operational testing ``because that will keep `bad 
news' at bay.'' According to GAO, program managers have an incentive to 
suppress bad news and continually produce optimistic estimates, because 
doing otherwise could result in a loss of support and funding and 
further damage their programs.
    What is your view of the GAO finding?
    Answer. I am not familiar with this specific finding. If confirmed, 
I will fully review this GAO finding to better understand the details 
and basis of the report. I believe program mergers strive to deliver 
systems on-time, at cost, and meeting all desired capabilities. I 
believe that providing sufficient resources, involving testers early, 
utilizing performance metrics, having proper checks and balances, 
defining clear exit criteria via the systems engineering process prior 
to entering Initial Operational Test and Evaluation will help to 
develop systems that are ready for operational testing.
    Question. What steps, if any, do you believe the Department should 
take to ensure that testing takes place early in enough in the program 
cycle to identify and fix problems before it becomes prohibitively 
time-consuming and expensive to do so?
    Answer. I believe an emphasis on rigorous systems engineering 
principles and processes will help to identify and correct problems in 
a timely manner in the program cycle and provide the foundation for a 
solid program. These plans and strategies should include the 
identification of realistic planning, technology maturity verification, 
and early test and evaluation to include Modeling and Simulation, to 
allow for the discovery of problems early enough to correct them in the 
program cycle.
    Early involvement of developmental and operational test personnel 
is essential to ensure the program is defined and identified 
requirements are meaningful and ``testable.'' It also allows for 
required resources and test infrastructure to be identified and 
documented within realistic cost and schedule.
    Question. What is your view of these recommendations?
    Answer. If confirmed, I will review fully the GAO's findings and 
recommendations.
                          services contracting
    Question. DOD spends over $70 billion a year on services. Concerns 
raised by the GAO and the DOD Inspector General about the Department's 
management of these contracts led to a requirement in section 801 of 
the National Defense Authorization Act for Fiscal Year 2002 for DOD to 
establish a management structure to oversee services contracting. 
Because the Department was slow to implement this provision, Congress 
tightened the requirement for a management structure in section 812 of 
the National Defense Authorization Act for Fiscal Year 2006.
    What steps will you take, if confirmed, to implement section 812 
and ensure that the Department has an effective management structure in 
place for the acquisition of contract services?
    Answer. If confirmed, I will review the policies DOD implemented in 
April 2002 in response to section 801 of the National Defense 
Authorization Act for Fiscal Year 2002, and our progress in 
implementing section 812 of the National Defense Authorization Act for 
Fiscal Year 2006.
    Question. What specific steps, if any, do you believe the 
Department should take in this regard in calendar years 2006 and 2007?
    Answer. I believe the Department plans to issue updated policies, 
procedures and best practices for the acquisition of contract services 
by the end of 2006. With that foundation in place before the end of 
this year, if confirmed, I anticipate working with our Service 
Acquisition Executives to ensure that appropriate training for the 
workforce and other details are in place in 2007 to complete phased 
implementation of the targets in section 812.
    Question. At the request of the committee, the GAO has performed 
best practices work on how the private sector manages services. GAO's 
conclusion is that leading companies have greater visibility and 
management over their services contracts and conduct so called 
``spend'' analyses to find more efficient ways to manage their service 
contractors. This recommendation was incorporated into sections 801 and 
802 of the National Defense Authorization Act for Fiscal Year 2002 and 
has been reinforced by subsequent legislation.
    What is the status of the Department's efforts to conduct a 
``spend'' analysis, as recommended by GAO and required by statute?
    Answer. If confirmed, I will assess the Department's progress in 
responding to the GAO recommendations and sections 801 and 802 of the 
National Defense Authorization Act of Fiscal Year 2002, and ensure that 
appropriate ``next steps'' are taken.
    Question. What specific improvements in the management of service 
contracts have been made as a result of the Department's efforts to 
date?
    Answer. If confirmed, I will review specific improvements that DOD 
has made in this area. I believe that the management of service 
contracts and contracting for services is receiving extremely high 
level management attention within the Department. If confirmed, I will 
ensure that the Department develops a coordinated approach to managing 
service contracts.
    Question. What additional steps, if any, do you believe the 
Department should take to implement the requirement to conduct periodic 
``spend'' analyses for its service contracts?
    Answer. If confirmed, I will assess the Department's progress to 
date in this area and ensure that appropriate ``next steps'' are taken 
to attain the goal of efficient, effective management of service 
contracts.
    Question. Section 805 of the National Defense Authorization Act for 
Fiscal Year 2003 established specific goals for the increased use of 
performance-based service contracts and competitive awards of task 
orders under service contracts by the Department of Defense.
    What is your view of the utility of performance-based services 
contracting and the competitive award of task orders?
    Answer. I am not yet in a position to express a view on this 
subject. If confirmed, I will assess the utility of these techniques to 
the Department.
    Question. What is the status of the Department's efforts to achieve 
the goals established in section 805?
    Answer. If confirmed, I will assess the Department's progress in 
achieving these goals.
    Question. What additional steps, if any, do you believe the 
Department should take to meet the goals established in section 805?
    Answer. If confirmed, I will assess the Department's progress in 
achieving these goals, and ensure that appropriate ``next steps'' are 
taken.
                      time and materials contracts
    Question. Recent press reports indicate that some contractors may 
have charged the government one rate under so-called ``time and 
materials'' contracts, while paying subcontractors another, 
substantially lower rate. DOD and other Federal agencies have proposed 
a change to the Federal Acquisition Regulation to address this 
practice.
    What is your view on this issue and the proposed change to the 
Federal Acquisition Regulation?
    Answer. It is my understanding that the clauses in certain time and 
materials contracts provide for payment at the single rate or composite 
rate rather than separate rates for the prime and subcontractors. I 
believe it is therefore important that the contract clauses clearly 
delineate the payment terms. If confirmed, I will assess the proposed 
change to the Federal Acquisition Regulation.
                         contract surveillance
    Question. The GAO and the DOD Inspector General have reported that 
the Department of Defense has failed to provide adequate resources to 
monitor contractors' performance of service contracts. As a result, the 
Department has no assurance that contractors have complied with the 
terms of their contracts and that the Department has received the best 
value when contracting for services.
    What steps, if any, do you believe the Department should take to 
address this problem?
    Answer. If confirmed, I intend to review the Department's current 
guidance on quality assurance oversight and the training currently 
provided to Contracting Officers' Representatives.
                         interagency contracts
    Question. The last decade has seen a proliferation of new types of 
government-wide contracts and multi-agency contracts. These contracts, 
which permit officials of one agency to make purchases under contracts 
entered by other agencies, have provided Federal agencies rapid access 
to high-tech commercial products and related services. In too many 
cases, however, it appears that neither agency takes responsibility for 
making sure that procurement rules are followed and good management 
sense is applied. As a result, the DOD Inspector General, the GSA 
Inspector General, and the GAO have identified a long series of 
problems with interagency contracts, including lack of acquisition 
planning, inadequate competition, excessive use of time and materials 
contracts, improper use of expired funds, inappropriate expenditures, 
and failure to monitor contractor performance.
    What steps has the Department taken to address the abuse of 
interagency contracts and how effective do you believe these steps have 
been?
    Answer. I am not familiar with details of the Department's actions 
in this area. If confirmed, I will assess and take appropriate action 
on the problems identified by the DOD IG, the GSA IG and the GAO. I 
also will assess the progress the Department has made to ensure 
interagency contracts are properly used and are compliant with 
statutory requirements.
    Question. What additional steps, if any, do you believe are needed?
    Answer. If confirmed, I will assess what additional steps are 
needed.
                         acquisition workforce
    Question. What is your assessment of the adequacy of the current 
defense acquisition workforce?
    Answer. This is an area that I am very interested to learn about. 
My understanding is that the Under Secretary of Defense for 
Acquisition, Technology, and Logistics, has directed a comprehensive 
review of the acquisition workforce. I believe this is a very important 
initiative. If confirmed, I plan to be intimately involved and look 
forward to coming back and working with you.
    Question. Should the workforce be increased or decreased, and are 
there specific categories of the workforce such as systems engineers 
that in your view need to be increased?
    Answer. I am aware that the DOD did experience a workforce drawdown 
after the Cold War, that included the acquisition workforce. I have not 
had an opportunity to make specific judgments regarding workforce 
adjustments. However, I am aware, based on my positions in industry, of 
the challenges with the scientific and technical workforce. If 
confirmed, I look forward to working with Congress to best achieve the 
right shaping of the acquisition workforce.
    Question. Does DOD's acquisition workforce possess the quality and 
training needed to adapt to new acquisition reforms, as well as to the 
increased workload and responsibility for managing privatization 
efforts?
    Answer. I believe that I will find a very high caliber and 
dedicated acquisition workforce. Based on recent exposure, it appears 
that they have world class training and performance support resources. 
The Under Secretary of Defense for Acquisition, Technology, and 
Logistics, recently established his number one goal as ensuring a 
``High-Performing, Agile, and Ethical Workforce.'' If confirmed, I look 
forward to supporting him and working with the DOD and Congress on this 
most important strategic goal.
    Question. What are your views regarding assertions that the 
acquisition workforce is losing its technical and management expertise 
and is beginning to rely too much on support contractors, FFRDCs, and, 
in some cases, lead systems integrators and prime contractors for this 
expertise?
    Answer. I am not familiar with the details of these assertions. I 
believe the technical and management expertise in our workforce is 
vital to our national security. If confirmed, I will investigate this 
area in detail and personally champion initiatives that address our 
skill gaps and improve our competencies.
                              buy america
    Question. ``Buy America'' issues have been the source of 
considerable controversy in recent years.
    What benefits does the Department obtain from international 
participation in the defense industrial base and under what conditions, 
if any, would you consider it necessary to impose domestic source 
restrictions for a particular product?
    Answer. I am not familiar with the specific details of the recent 
issues related to ``Buy America.'' I consider this an important area. 
If confirmed, I will investigate and formulate my perspectives. I 
believe international participation promotes defense cooperation among 
allies and contributes to operational interoperability, an essential 
ingredient in today's coalition warfare. However, we also need to 
preserve our options for domestic source considerations.
                      the defense industrial base
    Question. What is your view of the current state of the U.S. 
defense industry?
    Answer. I believe the current state of the U.S. defense industry is 
healthy, innovative and competitive from the perspective of traditional 
business metrics. If confirmed, I would work within the DOD and 
Congress to support our strategic direction with industry.
    Question. Over the last decade, numerous mergers and other business 
consolidations have substantially reduced the number of major defense 
contractors.
    Do you believe that consolidation in the defense sector has had an 
adverse impact on competition for defense contracts? If so, what steps 
should be taken to mitigate those effects?
    Answer. I do not believe that consolidation has had an adverse 
impact on competition for U.S. defense contractors as much as it has 
had an adverse impact on the U.S. industry workforce.
    I believe the Department has worked and should continue to work 
closely with the antitrust agencies to evaluate defense-related mergers 
and mitigate potential competitive impacts and to ensure a healthy, 
innovative, and competitive defense industry.
    Question. Do you support further consolidation of the defense 
industry?
    Answer. I neither encourage nor discourage further consolidation. 
Each proposed transaction must be evaluated on a case-by-case basis. In 
some cases, consolidation can result in the elimination of excess 
capacity, reduce costs, strengthen capabilities, and provide better 
value for DOD and the U.S. taxpayer. At the same time, the Department 
should not support transactions where consolidation benefits do not 
outweigh the benefits associated with maintaining effective competition 
for DOD programs. Competition is healthy.
    Question. What is your position on foreign investment in the U.S. 
defense sector?
    Answer. In general, I favor foreign investment in the U.S. defense 
sector so long as the investment does not pose a threat to national 
security.
                             leasing policy
    Question. Under what circumstances, if any, do you believe that it 
is appropriate for the Department to use leases to obtain new capital 
equipment?
    Answer. I believe leasing is an appropriate option to consider. The 
proper analyses need to be conducted and determination made as to the 
cost effectiveness of leasing compared to traditional acquisition 
approaches. I believe both the taxpayer and warfighter can benefit in 
certain circumstances.
    Question. What criteria would you use, if confirmed, in determining 
whether to support a major lease of capital equipment by the Department 
of Defense?
    Answer. If confirmed, I will investigate our procedures for leasing 
capital equipment to assure that the process includes proper analyses 
and a solid business case.
                           procurement ethics
    Question. The Air Force tanker lease proposal raised a number of 
issues related to contractor ethics and the revolving door between 
industry and the Federal Government. At an April 14, 2005, hearing of 
the Subcommittee on Airland, the U.S. Attorney for the Eastern District 
of Virginia testified that it has been difficult for him to identify 
potential ethics violations by former Department officials who go to 
work for defense contractors, because the Department's records in this 
area are inadequate. An April 2005 report of the GAO also concluded 
that monitoring of former Department employees who go to work for 
defense contractors is limited.
    What is your view of the need to provide greater transparency and 
monitoring of former DOD employees who go to work for the defense 
industry?
    Answer. I am not familiar with the above findings from the 
Subcommittee on Airland nor the GAO report. If confirmed, I will read 
those reports and formulate my view with respect to providing greater 
transparency. I support openness and transparency in our everyday life. 
I believe and support high ethical standards of conduct and behavior 
and will do all I can to promote these standards in DOD. I understand 
this is one of the subjects DOD is considering in the ongoing 
comprehensive ethics review. If confirmed, I will read the reports and 
look at this issue in that context as well.
    Question. What is your view of the adequacy of the tools and 
authorities available to DOD to ensure that its contractors are 
responsible and have a satisfactory record of integrity and business 
ethics?
    Answer. I understand that the current tools and authorities is one 
of the issues under review. If confirmed, I will review this issue in 
that context.
                      shipbuilding industrial base
    Question. In view of the current low rate of ship construction, how 
do we ensure a healthy, viable U.S. shipbuilding industrial base, 
including shipbuilders and second- and third-order supply chains, to 
meet our national security needs?
    Answer. I do not have direct experience in this area. However, I 
understand the importance and challenges of the Navy shipbuilding 
programs. If confirmed, I would work with the Navy and Congress to 
improve the health and viability of the U.S. shipbuilding industrial 
base, and stabilize the shipbuilding programs as much as possible. In 
addition, I believe the Department should seek less expensive 
shipbuilding options. I also believe the Department should contract for 
ships in a manner that provides incentive for better cost performance 
and investment in labor-saving technology, and enables our shipbuilders 
to be more competitive in the global shipbuilding marketplace.
                        shipbuilding acquisition
    Question. In view of the limited competition for shipbuilding 
contracts, which often reduces to sole source procurement or allocation 
following the initial down-select, what incentives would you propose to 
improve contract performance?
    Answer. I believe full and open competition is the preferred 
shipbuilding procurement strategy. I also believe it is in the best 
interest of the government to achieve fixed price type contracts in a 
competitive pricing environment as quickly as possible in our 
shipbuilding programs.
    If confirmed, I will investigate improvement in contract 
performance. For shipbuilding programs where competitive environments 
no longer effectively exist, the Department needs to consider 
reasonable profit incentives on all contract types and appropriate 
share lines on cost type contracts to improve contract performance.
    For example, the performance incentives could be event-based. The 
incentives and share lines need to motivate the shipbuilder to perform, 
and provide some measure of protection to the government if program 
costs rise too much.
    Question. One of the greatest challenges the Navy faces in its 
shipbuilding program is the lengthy timeline that commences with 
defining the requirement for a new ship class and effectively ends with 
deploying the first ship of the class--a timeline that has historically 
run as long as 15 years. This lengthy timeline tends to increase cost, 
introduces obsolescence issues, and causes lost opportunities while 
older ship classes remain ``on the line'' awaiting arrival of their 
more capable replacements.
    What insights can you offer on effective methods to reduce this 
timeline and accordingly reduce cost while increasing capability of the 
Fleet?
    Answer. I believe the Department should continue to leverage 
commercial standards and gather the lessons learned and consider ways 
to provide global shipbuilding with innovation and modernization.
               joint unmanned combat air system (j-ucas)
    Question. This committee established a goal for DOD that by 2010, 
one-third of U.S. military operational deep strike aircraft would be 
unmanned, and by 2015, one-third of all U.S. military ground combat 
vehicles would be unmanned.
    What is your assessment of the Department's commitment to the 
unmanned deep strike mission? What role will you play, if confirmed, in 
the oversight of this effort?
    Answer. If confirmed, I look forward to reviewing and being an 
active participant in the Department's commitment to unmanned deep 
strike mission. It is my understanding that the Department is committed 
to unmanned systems in a variety of roles.
    Question. Over the past year, the Air Force has identified a need 
for an ``interim'' or ``mid-term'' bomber to satisfy deep strike 
mission requirements in the 2015 to 2018 timeframe.
    What is your assessment of the Department's ability and commitment 
to satisfy the deep strike mission in the 2015 to 2018 timeframe with 
an unmanned aircraft system?
    Answer. I have not had the opportunity to review the programs that 
would provide this capability.
                         science and technology
    Question. What, in your view, is the role and value of science and 
technology programs in meeting the Department's transformation goals 
and in confronting irregular, catastrophic, traditional, and disruptive 
threats?
    Answer. I believe that the DOD S&T program has a long history of 
developing superior technologies and capabilities to address the 
current and future security threats. The Department's investment in S&T 
has historically given our forces the technological superiority to 
prevail over predicted threats and the agility to adapt quickly to 
unanticipated threats. I believe this role is still valid in today's 
strategic environment. As the pace of global technology availability 
increases, with a commensurate increase in the pace of threat 
evolution, the role of a well balanced S&T program is more important 
than ever.
    Question. If confirmed, what direction would you provide regarding 
funding targets and priorities for the Department's long-term research 
efforts?
    Answer. If confirmed, I will work with Mr. Young as the DDR&E to 
ensure our S&T investment is balanced. I believe S&T funding is 
important to our future capabilities, and I would be concerned if 
funding levels ever became seriously out of balance with the rest of 
our Defense program.
                          technology strategy
    Question. The Nation is confronted with a dispersed enemy expert at 
using relatively simple, inexpensive technology to achieve destructive 
and disruptive results. Creative prediction and adaptation to 
continuously changing threats is a focus for this Committee. Past 
investments in long-term research have resulted in the Department's 
ability to rapidly pull technologies and solutions from the laboratory 
to confront emerging threats.
    If confirmed, what actions would you take to ensure the 
Department's continued ability to rapidly respond to unexpected 
threats?
    Answer. If confirmed, I would support close collaboration between 
the acquisition, technology, and operational communities to identify 
current needs and to anticipate future operational needs arising from a 
changing national and world security environment.
    Question. How would you direct efforts of the defense research 
community to develop a responsive research strategy capable of quick 
reaction but which is also designed to include sustained investments in 
the development of a set of capabilities based on threat predictions 
and identification of related technology gaps?
    Answer. If confirmed, I will support Mr. Young in his role as the 
DDR&E to ensure our DOD S&T Program investment is balanced to meet 
near-term and long-term needs.
                         technology transition
    Question. The Department's efforts to quickly transition 
technologies to the warfighter have yielded important results in the 
last few years. Challenges remain to institutionalizing the transition 
of new technologies into existing programs of record and major weapons 
systems and platforms. The Department's fiscal year 2006 budget 
includes increases across a spectrum of technology transition programs.
    What challenges to transition do you see within the Department?
    Answer. One of the principal challenges to transition is the lack 
of funding flexibility and the extended timelines of our requirements 
and budget processes. Successful transition requires an appropriately 
mature technology, a user need, an insertion window in the program of 
record and budgeted resources for implementation.
    Question. If confirmed, what steps would you take to enhance the 
effectiveness of technology transition efforts?
    Answer. If confirmed, I will work with Mr. Krieg and Mr. Young as 
the DDR&E to identify impediments or process improvements to ensure the 
Department can effectively and efficiently transition technology to the 
warfighter.
    Question. What is your assessment of the effectiveness of the rapid 
reaction and quick reaction special projects funds?
    Answer. I am not familiar with these funds; however, programs that 
allow flexibility to fund emergent programs to accelerate technology to 
the warfighter are important tools. If confirmed, I will work with Mr. 
Young as the DDR&E to enhance our rapid reaction program and other 
similar programs to meet warfighter needs.
    Question. Are there lessons learned through rapid reaction programs 
that are applicable to the Department's broader acquisition processes?
    Answer. If confirmed, I will work with Mr. Krieg and Mr. Young as 
the DDR&E to identify lessons learned to ensure our rapid reaction 
programs continue to be flexible and enhance our acquisition process.
                         small business issues
    Question. The Small Business Innovative Research (SBIR) program 
accounts for approximately $1 billion in defense research grants 
annually.
    What emphasis will you place on participation by the acquisition 
community in setting research priorities for the SBIR and in accepting 
new solutions into existing programs of record?
    Answer. I believe the SBIR program is an important source of 
technology for the Department. If confirmed, I will continue to 
actively involve the acquisition community in identifying its research 
needs and transition opportunities for all research including SBIR.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Deputy Under Secretary of 
Defense for Acquisition and Technology?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
                             incentive fees
    1. Senator McCain. Mr. Finley, per the DOD Award Fee Guide, ``. . . 
an award fee is an amount of money which is added to a contract and 
which a contractor may earn in whole or in part during performance and 
that is sufficient to provide motivation for excellence in such areas 
as quality, timeliness, technical ingenuity, and cost-effective 
management.'' A contractor starts with 0 percent of an award fee works 
for the evaluated fee for each evaluation period. The contractor does 
not start with 100 percent and get portions deducted along the way. A 
Fee Determining Officer (FDO) ensures the amount and percentage of an 
award fee earned accurately reflects the contractor's performance. The 
award fee guide clearly delineates the roles and responsibilities of 
the FDO and defines how an award fee plan can be developed to map out 
the process of how a contractor should be evaluated. The GAO has shown 
through a recent study that from their sample of 597 contracts the 
median percentage of available award fees paid was 90 percent. This 
study clearly demonstrates that not only is the award fee guide not 
being followed but in some cases it is being blatantly disregarded. Why 
are our FDOs not using their training and the published guidance when 
determining award fees and what do you plan to do to rectify this 
situation?
    Mr. Finley. FDOs review the performance of the contractor and 
determine independently the amount of award fee the contractor should 
receive. The amount of award fee paid on any particular contract is 
dependent upon the award fee criteria established for that contract and 
the judgment of the FDO with regard to how the contractor performed 
against the stated award fee criteria.
    In general, I believe the FDOs are using their training and 
following their Award Fee Guides. Too much subjectivity could be at the 
root of the guides and requirements which can make performance 
measurement less than optimum.
    Guidance is planned to be provided in support of the GAO Report. 
This guidance should include the need for award fee plans containing 
objective measurable criteria when possible, which when combined with 
the subjective judgment of the FDO should improve the correlation 
between contractor performance and award fee earned.

    2. Senator McCain. Mr. Finley, please clarify how incentive fees 
are awarded. Do we first, sign a cost-plus contract that puts most of 
the risk for these major development programs on the government; then 
offer the contractor the chance to earn an award fee on top of having 
their costs reimbursed; then, when a program experiences problems, the 
contractor can still earn millions of dollars in award fees for helping 
to correct the issues which they are partially responsible for 
creating?
    Mr. Finley. Incentive Fee awards are generally tied directly to a 
contractor's cost performance on a particular contract. Incentive fee 
contracts can be based upon a single incentive (usually cost) or upon 
multiple incentives (cost, schedule, and/or technical performance). The 
range of incentive fee is established at contract award as part of the 
basic contract. Incentive fees can be used on either cost reimbursement 
contracts or fixed-price contracts.
    A cost-plus-incentive-fee contract is a cost reimbursement contract 
that provides for an initially negotiated target fee to be adjusted 
later by a formula based on the relationship of the total allowable 
cost to the total target cost. A fixed-price incentive contract is a 
fixed-price contract that provides for adjusting profit and 
establishing a final contract price by a formula based on the 
relationship of the final negotiated total cost to total target cost. A 
fixed-price incentive contract also has an established ceiling price 
whereby any contract costs in excess of the ceiling price are fully 
absorbed by the contractor.
    ``Award Fee'' provisions are used, usually, to supplement a ``base 
fee'' under a cost-plus award fee contract. The base fee on a cost-plus 
award fee contract cannot exceed 3 percent of the estimated cost of the 
contract exclusive of the fee.
    The assignment of risk is a matter of negotiation between the 
Contracting Officer and the contractor. In determining the Government's 
position with regard to the assumption of risk, the Contracting Officer 
considers a number of factors which include, but are not limited to: 1) 
the nature of the work to be performed; 2) the degree of technical 
uncertainty; and 3) the certainty of contract cost and schedule 
performance.
    When a program experiences problems that are ultimately corrected, 
or not corrected, as the case may be, the FDO must ascertain what role 
the contractor played and whether, and to what level, the contractor 
should be held responsible. It is the responsibility of the FDO to 
properly reward, or not to reward, a contractor's performance based on 
the facts and circumstances of each acquisition.

    3. Senator McCain. Mr. Finley, what strategies does the private 
sector use as incentive for their business partners?
    Mr. Finley. Strategies for business partnership incentives in the 
private sector start with relationships. Typically, relationships are 
built, for example, through market opportunities, program experience, 
and competency gaps. From my experience, we build business cases for 
partnerships, for example, that identify incentives to provide 
compelling market entry opportunities, to enhance contract performance 
or to bridge respective competencies such that there is a multiplier 
effect of having vs. not having the business partnership.
    Business incentives become a part of a business case. Examples of 
business incentives are summarize as follows:

        1. Higher profit
        2. Reduced quality control oversight.
        3. Share best practices

    These incentives, for example, are realized as a result of 
demonstrating consistent on-time product delivery, lower deliverable 
defects and best practice implementation over periods of time. Business 
incentives can be structured for different levels of performance 
resulting in the motivation to maximize performance. Measurement 
periods are typically utilized on a continuous basis, with the downside 
for loss of incentives, if/when there is an interruption of the 
performance.
    Sharing and implementing best practices in the private sector 
provided significant payoff due to having a horizontal impact for the 
company vs. any singular program or functional area. Use of Lean Six-
Sigma practices that are fully endorsed by executive leadership can 
provide a culture of continuous learning and proactive process 
improvement. Although the terminology characterizing performance may 
change from time to time, the fundamentals of private sector 
performance (shareholder value, cash flow, earnings, and market share) 
will improve.

    4. Senator McCain. Mr. Finley, what changes do you propose with 
regard to acquisition reform?
    Mr. Finley. Deputy Secretary England and Under Secretary Krieg have 
conducted a comprehensive review of department business practices as 
part of the recently completed Quadrennial Defense Review. As a result, 
a number of actions have been initiated that should improve the 
strategic and tactical acquisition management of the DOD.
    I plan to be part of the leadership team for implementation of the 
above actions and propose that we improve our technology maturity and 
harden our requirements sooner in the acquisition process.

    5. Senator McCain. Mr. Finley, fixed-price contracts shift the risk 
to the contractor and incentivize the contractor to increase the 
reliability of the system components. How can DOD return to a more 
common use of fixed-price contracts?
    Mr. Finley. The preponderance of DOD contract actions in fiscal 
year 2004 and fiscal year 2005 were fixed price. In fiscal year 2004, 
DOD awarded 73 percent of its contract actions and 60 percent of its 
dollar obligations under fixed-price contracts. In fiscal year 2005, 
DOD awarded 93 percent of its contract actions and 61 percent of its 
dollar obligations under fixed-price contracts.
    Fixed price-type contracting is the Department's preferred method 
of contracting. However, the Federal Acquisition Regulation provides 
for a wide spectrum of contract types in order to provide the needed 
flexibility in acquiring the variety of goods and services that the DOD 
acquires.
    Risk needs to be managed and drives the choice of contract 
vehicles. I believe we can do more in the area of fixed-price 
contracting as we bring more mature technology and requirements 
stability reducing the risk to the marketplace faster.

    6. Senator McCain. Mr. Finley, please provide your thoughts on FAR 
Part 12 versus FAR Part 15 contracts for major weapon system 
procurement.
    Mr. Finley. My thoughts are that FAR Part 15 is the appropriate 
statute for major weapon systems procurement. It provides an 
appropriate level of rigor to manage and deliver complex products and 
services such as major weapon systems.
    FAR Part 12 can only be considered by DOD for major weapon systems 
procurement when certain conditions have been satisfied in accordance 
with section 2379 of title 10, U.S.C. Section 2379 was added by section 
803 of the National Defense Authorization Act for Fiscal Year 2006. 
Section 2379 provides that a major weapon system may be treated as a 
commercial item, or purchased under procedures established for the 
procurement of a commercial item, only if the Secretary of Defense 
determines that the major weapon system is a commercial item, as 
defined in the Office of Federal Procurement Policy Act; such treatment 
is necessary to meet national security objectives; and the 
congressional defense committees are notified at least 30 days before 
such treatment or purchase occurs. Section 2379 also provides that the 
authority to make the required determination may be delegated only to 
the Deputy Secretary of Defense.
                                 ______
                                 
    [The nomination reference of James I. Finley follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 December 20, 2005.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    James I. Finley of Minnesota, to be Deputy Under Secretary of 
Defense for Acquisition and Technology, vice Michael W. Wynne.
                                 ______
                                 
    [The biographical sketch of James I. Finley, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of James I. Finley
    Jim has over 30 years of multi-national business leadership and 
management experience. Programs span air, land, sea, and space for the 
DOD (all Services and DARPA) and include the FAA Automatic Surface 
Detection Radar systems and the NASA Space Shuttle Program. Systems and 
subsystems experience includes mission analysis, design, development 
and deployment of weapon delivery, flight control, navigation, 
information management, C\4\ISR, battle space management, chem/bio 
defense systems. His education includes a Masters of Business 
Administration (MBA) and Bachelors of Science in Electrical Engineering 
(BSEE).
    With a background that includes marketing, finance, program 
management, engineering and manufacturing, he brings a broad experience 
base of technology including international technology transfer, 
outsourcing, product development, multi-plant operations management, 
lean manufacturing implementation, demand flow technology programs, six 
sigma/black belt systems, information technology systems, purchasing, 
logistics, facilities, security, product support and total quality 
management.
    His leadership and strategic planning abilities have led many 
companies, including large and small operations, to achieve double-
digit financial growth. Jim has also participated in many acquisitions 
and divestitures providing business analysis including strategic fit, 
organizational alignment, marketing assessments, project evaluations 
and manufacturing audits.
    Jim has achieved significant operational recognition and success 
through progressive, increasing management responsibilities at General 
Electric, Singer, Lear Siegler, United Technologies and General 
Dynamics, where he was a Corporate Officer, President of Information 
Systems and Chair of the Business Development Council. In 2002, Jim 
formed his own consulting company, The Finley Group, LLC, that provides 
business assistance and advice for all facets of the business cycle 
including start-up, growth, acquisition and divestiture.
    He resides in Chanhassen, Minnesota, and enjoys golf, cycling, 
fishing, reading, and volunteer's work.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by James I. 
Finley in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    James I. Finley.

    2. Position to which nominated:
    Deputy Under Secretary of Defense for Acquisition and Technology.

    3. Date of nomination:
    December 20, 2005.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    August 25, 1946; Rockford, IL.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Sharon Bormann.

    7. Names and ages of children:
    Kathleen O'Malley, 37.
    James D. Wood, 35.
    Benjamin J. Finley, 34.
    Daniel J. Finley, 31.
    Christopher J. Finley, 26.
    Alexander J. Finley, 23.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    California State University, Fresno - MBA, 1974, 1972 to 1974, 
Masters of Business Administration.
    Milwaukee School of Engineering - BSEE, 1968, 1964 to 1968, 
Bachelor of Science, Electrical Engineering.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    President - The Finley Group LLC - Chanhassen, MN, 2002 to Present.
    President & CEO - Smartskin Inc. - Chaska, MN - 2000 to 2001.
    Corporate Vice President and President - General Dynamics, 
Information Systems - Bloomington, MN, 1998 to 2000.
    Vice President - Computing Devices International, Bloomington, MN - 
1996 to 1998.
    Vice President - United Technologies, Norden Systems, Norwalk, CT - 
1990 to 1996.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    The Finley Group LLC - President.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    None.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Examples of performance awards under my leadership:
      Boeing Gold Certification Award,
      Honeywell Preferred Supplier Award,
      Northrop Grumman Blue Achievement,
      Lockheed Martin Best In Class Rating,
      Defense Security Service ``Outstanding'' Assessment,
      George Westinghouse Award.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Many articles were authored by me which focused on company 
newspapers. I have also authored an article for the World Radio 
Communications (WRC) Conference as well as the International Society 
for Optical Engineering (SPIE).
    Examples when President at General Dynamics Information Systems and 
Vice President at United Technologies Norden Systems Include:

          1. General Dynamics Interlink in April 1998 featured the 
        launch of ``Bold Prudence.'' ``Bold Prudence'' was an across 
        the board cost competitive program in the company that resulted 
        in higher productivity improvements and substantial cost 
        savings.
          2. United Technologies Engineering Coordination Activities 
        (UTECA) News featured articles from me as Chairman of UTECA 
        addressing future directions.
          3. WRC 2000 in Istanbul, Turkey, had an article by me 
        addressing ``Information Management and E-Business with Little 
        LEO (Low Earth Orbit) Systems.''
          4. SPIE Proceedings in 1998 had an article by me about ``An 
        Industry Perspective on Battlespace Digitization.''

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   James I. Finley.
    This 6th day of January, 2006.

    [The nomination of James I. Finley was reported to the 
Senate by Chairman Warner on February 16, 2006, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on February 17, 2006.]
                              ----------                              

    [Prepared questions submitted to Thomas P. D'Agostino by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                                 duties
    Question. What is your understanding of the duties and functions of 
the Deputy Administrator for Defense Programs?
    Answer. There are a number of duties and responsibilities for the 
Deputy Administrator position. These duties and responsibilities all 
come together and are focused on the nuclear weapons stockpile and the 
nuclear weapons complex. This principal duty will be to lead the 
Defense Programs staff and the senior managers across the nuclear 
weapons complex to maintain a safe, secure, and reliable nuclear 
weapons stockpile, to ensure the safe and efficient operations of the 
nuclear weapons complex, and ensure that capabilities required for 
future national security needs are maintained.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. My background and experience is well suited for these 
duties. As an officer in the U.S. Navy, I was selected by Admiral 
Rickover and trained as a nuclear submarine officer. In this capacity I 
managed technically complex, high-hazard operations on nuclear 
submarines. This training instilled a commitment to quality, 
discipline, and integrity that are so important when dealing with 
nuclear operations. After over 8 years on Active-Duty in the submarine 
force I continued to serve in the national security arena as a Naval 
Reserve Officer and as a propulsion systems program manager for the 
Seawolf (SSN21) submarine. I then moved to the Department of Energy and 
worked in a wide variety of both technical and management positions, in 
the areas of tritium reactor restart, as Deputy Director in the Office 
of Stockpile Computing, as the Deputy Director for Nuclear Weapons 
Research, Development and Simulation, and most recently, as the 
Assistant Deputy Administrator for Program Integration. In that 
capacity, I reported directly to the Deputy Administrator for Defense 
Programs to integrate the stockpile stewardship program and budget 
across four production sites, three national laboratories, and a test 
site. I have earned a Masters in Business-Finance from John Hopkins 
University and a Masters in National Security Studies from the Naval 
War College. I have over 29 years of service as an Active-Duty Naval 
Officer, a career civil servant, and as an Officer in the Naval Reserve 
where I have attained the rank of captain. All of my professional 
experience has been focused on service (military and civilian) in 
support of our national security. I am privileged to have been able to 
serve my country and am confident that this combination of service and 
education qualifies me very well to perform the duties of the Deputy 
Administrator for Defense Programs.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Deputy Administrator 
for Defense Programs?
    Answer. I would focus my action on communications. Clear and 
effective communications are paramount to success in any organization, 
and even more important with an organization that is large, 
geographically dispersed and with high-hazard and technical operations. 
I would look to increase the amount of time I spend talking to the all 
levels of management, technical and support staff, in headquarters and 
the field. My approach has always been to treat everyone with dignity 
and respect and I never fail to learn something when I take the time to 
interact directly with the people in the program.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Administrator of the National Nuclear Security 
Administration (NNSA) would prescribe for you?
    Answer. If confirmed, I expect the Administrator would have me 
focus on the primary duties of the Deputy Administrator as I have 
described above with a focus on leading the transformation of the 
nuclear weapons complex (people, places, processes, and capabilities) 
to ensure that a responsive infrastructure--as described in the 
administration's 2001 Nuclear Posture Review--is fully implemented. 
Additionally I expect that the Administrator will ask me to help him 
make the NNSA an organization that is known for excellence, encourages 
innovation, and fosters dedication by its employees.
    Question. If confirmed, how would you work with the following 
program officials?
    Other deputies in the NNSA.
    Answer. If confirmed, I will work closely with the other Deputy 
Administrators and the supporting Associate Administrators. In NNSA, 
the Administrator has provided expectations for the management team, 
but we rely on each other and constant communication to achieve the 
mission. We meet at least weekly as a group in staff meetings, 
Management Council, or Leadership Council meetings. I will also carry 
forward a technique that I used as Assistant Deputy Administrator for 
Program Integration. In that position I established a periodic set of 
informal one-on-one meetings with some Associate Administrators within 
the NNSA. I found that one-on-one meetings were very useful in quickly 
getting to central issues that need attention and resolution.
    Question. The Assistant Secretary for Environmental Management.
    Answer. If confirmed, I will work closely with the Assistant 
Secretary for Environmental Management. The Secretary has made it clear 
that he is interested in a Department that works together and not as a 
group of disparate organizations. If confirmed, I will focus my work 
with in the area of nuclear materials disposition and consolidation.
    Question. Other Assistant Secretaries of the Department of Energy 
(DOE).
    Answer. Within the context of the NNSA Act I believe it is 
important to have a proactive working relationship with DOE Assistant 
Secretaries. If confirmed, other DOE Assistant Secretaries I would 
expect to work with most are in the areas of Management and 
Administration; Environment, Safety and Health; and Nuclear Energy. I 
already have an established working relationship with all of these 
individuals as a result of my current position as Assistant Deputy 
Administrator for Program Integration. My approach has been to maintain 
the principles of honesty and integrity in all matters. As a result of 
this approach, I have earned a high level of trust and support from 
others within the Department. It is this level of trust that I feel 
will assist me if I am confirmed as Deputy Administrator for Defense 
Programs.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Deputy Administrator for Defense Programs?
    Answer. There are a number of challenges that will need to be 
addressed in the upcoming years. In effect they all roll together into 
the most significant challenge of transforming the nuclear weapons 
stockpile and infrastructure while continuing to support near-term 
deliverables to the Department of Defense (DOD). Within this challenge 
is the need to establish the viability of the Reliable Replacement 
Warhead concept as a means of providing a sustainable nuclear 
deterrent, driving integration within the nuclear weapons complex, 
implementing an appropriate level of interdependence across our 
contractors to maximize efficiency of operations, and continuing on the 
path of developing a responsive infrastructure. This involves also 
keeping a focus on meeting near-term DOD requirements such as the B61 
and W76 Life Extension Program schedules. The Responsive Infrastructure 
initiative and work authorized for the Reliable Replacement Warhead are 
in their early stages but hold promise to set the nuclear weapons 
program on the right course to confidently maintain the Nation's 
nuclear deterrent well into the future.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will focus on working closely with the 
Department of Defense to ensure that changes considered for the 
stockpile consider the effects on the nuclear complex infrastructure 
that supports the stockpile. Where possible we would move away from 
hard to manufacture items, exotic materials and manufacturing 
processes, to a stockpile that is easier to manufacture, uses materials 
that are safer for the environment and our workers, and considers full 
life-cycle costs in the design, manufacture, maintenance, and 
disassembly. Focus will be maintained on near-term DOD requirements by 
providing clear contractor expectations in program plans and in 
performance evaluation plans. This can be best accomplished by looking 
at the nuclear weapons program as an integrated whole vice activities 
being performed across eight different sites. My Navy and program 
management experience has taught me to approach work in a systematic 
way. This involves identifying the problem, writing down and agreeing 
to plans with clear milestones, assigning qualified people, and 
tracking performance.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Deputy Administrator for 
Defense Programs?
    Answer. A problem that I am concerned with deals with the risks 
inherent in the position of being the Deputy Administrator for Defense 
Programs. The work in the nuclear weapons complex involves dealing with 
nuclear weapons, hazardous materials, and complex operations on a daily 
basis. Dealing with nuclear weapons operations is serious business that 
involves accepting and managing risk. The Deputy Administrator, similar 
to the Commanding Officer of a Navy ship, is ultimately responsible for 
the actions of the program and how those actions affect worker and 
public health, safety, and security, including managing risk.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I will commit my personal involvement and 
that of Defense Programs management to aggressively work with the 
national laboratories, production sites, and other interested parties 
such as Congress and the Defense Nuclear Facilities Safety Board to 
deal with the issue of managing risk in the nuclear weapons complex. I 
expect to see a plan in this year to focus attention across the entire 
nuclear weapons complex that will enable Defense Programs to authorize 
and continue the work necessary to meet our mission requirements on 
time, in a safe and secure manner. Additionally, I will work hard to 
communicate the message that line management must take responsibility 
for safety and mission performance and not pass this responsibility to 
the variety of boards, panels, teams, and assessment groups that are 
charged with assessing performance and safety.
    Question. The previous Deputy Administrator, in his confirmation 
hearing on October 11, 2001, testified that a major challenge 
confronting the NNSA was ``a general view that NNSA presently has too 
many overlapping functions and assigned personnel at headquarters and 
field levels, leading to reduced efficiency in the labs and plants. . . 
. The program planning and management tasks are critically tied to 
knowing what to do, when to do it, and to making clear assignments for 
the work. That planning function will be centered at headquarters, with 
execution in the field. There appears to be a major challenge in 
clarifying roles and responsibilities for both the planning function 
and the execution function, with far too much overlap in 
responsibilities (either assigned or assumed) at the present.''
    In your view, what progress has been made in addressing this 
challenge and what progress, if any, remains to be made?
    Answer. Significant progress has been made since Dr. Everet Beckner 
made these remarks. In the past 4 years Defense Programs has 
established and implemented a new program architecture, an improved 
planning and programming process, and a revised budget structure for 
the Stockpile Stewardship Program. Previously, this program was 
organized around 32 program elements, each independently managed. 
Program plans that existed for these program elements were inconsistent 
and did not include milestones that could be tracked over time. 
Consequently there was little linkage between resources and program 
output, and it was difficult to measure performance. This was a 
systematic problem that could only be fixed through significant 
changes. Planning and program management principles were applied that 
developed a planning structure, defined a program milestone structure, 
and identified a change control processes. The end result is program 
and implementation plans that are consistent, as well as a set of level 
1 and level 2 milestones that describe the program over a 5-year 
period. One of the key attributes of changing the programmatic 
structure was to more closely align the budget to the work being 
performed in the program.
    However, despite these improvements much more can be done. More 
time and attention should be given towards identifying expectations for 
the contractor and clearly articulating these expectations into clear, 
coherent, and challenging contractor performance evaluation plans. I 
will focus on the theme of ``being a demanding customer'' in my 
direction and discussion with Defense Programs managers. The selection 
of a new management and operating contractor at Los Alamos National 
Laboratory (LANL) gives us an immediate opportunity to work on being a 
demanding customer in the operations of the laboratory and the 
completion of program deliverables.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues, which must be addressed by the Deputy Administrator 
for Defense Programs?
    Answer. My highest priority revolves around the people in the 
nuclear weapons program. It does not matter whether these are Federal, 
contractor, headquarters or field personnel, the program is successful 
because we have dedicated and qualified people addressing the needs of 
our Nation's security. It is important to take care of these people and 
make sure that decisions that are made are balanced with the impact on 
the workforce. If confirmed, broad priorities I plan to establish 
include transforming the nuclear weapons stockpile and the nuclear 
weapons complex while supporting near-term deliverables to the 
Department of Defense (DOD). The DOD observes our ability to deliver on 
commitments through the lens of the production complex. We must focus 
on continually improving our delivery on commitments to the DOD.
    Question. In your view, should cost containment and cost control be 
a high priority for the Deputy Administrator for Defense Programs?
    Answer. Yes, cost containment and control is a high priority for 
Defense Programs. As the Assistant Deputy Administrator for Program 
Integration I have been working on this very complex issue for NNSA. 
For example, I have been concerned with the different methods that are 
being used by our contractors on managing the costs in the Operations 
of Facilities program. These different methods make it very difficult 
for the Federal program manager to be able to compare costs and develop 
meaningful trends and analysis. To address this, I had directed the 
review of the Operations of Facilities program to drive cost 
efficiencies and consistency across the nuclear weapons sites. As a 
result of that review, Defense Programs will be implementing activity 
based costing principles for selected key mission critical facilities 
and standardized accounting using a common work breakdown structure.
                             relationships
    Question. Please describe your understanding of the relationship of 
the Deputy Administrator for Defense Programs with the following 
officials:
    The Administrator of the NNSA.
    The Secretary of Energy.
    The Deputy Secretary of Energy.
    The Under Secretary of Energy for Energy and Environment.
    The Under Secretary of Energy for Science.
    The Under Secretary of Defense for Acquisition and Technology.
    The Assistant to the Secretary of Defense for Nuclear, Chemical, 
and Biological Matters.
    The Commander, U.S. Strategic Command.
    The Deputy Under Secretary of Energy for Counter-Terrorism.
    The Deputy Administrator for Defense Nuclear Nonproliferation.
    Answer. My understanding of the relationship of the Deputy 
Administrator for Defense Programs with other officials is as follows:
    1. NNSA Administrator: The Deputy Administrator for Defense 
Programs reports directly to the NNSA Administrator. The Administrator 
entrusts the Deputy Administrator with the responsibility of managing 
the nuclear weapons program.
    2. Secretary of Energy: The Deputy Administrator for Defense 
Programs may also report to the Secretary of Energy, through the NNSA 
Administrator. The Administrator will likely trust the Deputy 
Administrator to deal directly with the Secretary on issues in his area 
of responsibility, with knowledge of the Administrator.
    3. Deputy Secretary of Energy: The Deputy Administrator for Defense 
Programs may also report to the Deputy Secretary of Energy, through the 
NNSA Administrator. The Administrator will likely trust the Deputy 
Administrator to deal directly with the Deputy Secretary on issues in 
his area of responsibility, with knowledge of the Administrator.
    4. The Under Secretary of Energy for Energy and the Environment: 
The Deputy Administrator for Defense Programs would deal with the Under 
Secretary of Energy and the Environment through the NNSA Administrator. 
As with the Deputy Secretary and Secretary, the Administrator will 
likely trust the Deputy Administrator to deal with the Under Secretary 
for Energy and Environment with knowledge of the Administrator. I do 
not expect the Deputy Administrator would have much direct dealing with 
the Under Secretary, but would deal with a number of the Under 
Secretary's direct reports (Environment, Safety and Health and Nuclear 
Energy, for example).
    5. The Under Secretary of Energy for Science: When the position of 
Under Secretary of Energy for Science is formalized and filled, I 
expect that Deputy Administrator for Defense Programs will deal with 
the Under Secretary on a variety of issues. With the Department's 
emphasis on science, NNSA will seek to leverage work in the area in the 
areas of supercomputing, high energy density physics and materials 
sciences. As with the Deputy Secretary and Secretary, the Administrator 
will likely trust the Deputy Administrator to deal with the Under 
Secretary for Science with knowledge of the Administrator.
    6. The Under Secretary of Defense for Acquisition and Technology: 
The Under Secretary of Defense for Acquisition, Logistics and 
Technology is also the Chairman of the Nuclear Weapons Council (NWC), 
which is the focal point for Department of Energy (DOE) and Department 
of Defense relations. While the NNSA Administrator is DOE's NWC member 
and would most likely deal directly with the Under Secretary of 
Defense, the Deputy Administrator generally attends NWC meetings and is 
heavily involved in NWC matters.
    7. The Assistant to the Secretary of Defense for Nuclear, Chemical 
and Biological Matters: The Deputy Administrator for Defense Programs 
deals with the Assistant to the Secretary of Defense for Nuclear and 
Chemical and Biological Defense Programs on a regular basis. The 
Assistant to the Secretary is the Chairman of the Nuclear Weapons 
Council (NWC) Standing and Safety Committee, the flag officer or Senior 
Executive Service ``working level'' group in the Nuclear Weapons 
Council system. In this capacity, even though the formal communications 
path to the Assistant to the Secretary position is through the 
Principal Deputy Administrator for Military Application in Defense 
Programs, I expect the Deputy Administrator for Defense Programs will 
spend a significant amount of time working with the Assistant to the 
Secretary, particularly during this period of stockpile transformation.
    8. The Commander, U.S. Strategic Command: The NNSA Administrator 
generally deals directly with the Commander of U.S. Strategic Command; 
however, the Deputy Administrator has significant interaction as well. 
One of the Commander's most important duties related to NNSA is 
providing the annual assessment of the safety, reliability and 
performance of the nuclear weapons stockpile, based on input from 
advisors and the national laboratories. As the Commander is responsible 
for deploying the nuclear weapons stockpile, Defense Programs and 
Strategic Command have a close relationship at many levels. I expect 
the Deputy Administrator for Defense Programs will spend a significant 
amount of time working with the Commander, particularly during this 
period of stockpile transformation.
    9. The Deputy Under Secretary of Energy for Counterterrorism: The 
Deputy Administrator for Defense Programs works closely with the Deputy 
Under Secretary, especially since the counterterrorism assets--people 
and equipment and expertise--are supported by Defense Programs.
    10. The Deputy Administrator for Defense Nuclear Nonproliferation: 
The Deputy Administrator for Defense Programs works closely on both 
programmatic and management issues with the Deputy Administrator for 
Defense Nuclear Nonproliferation. A common example of cooperation 
involves arms control and nonproliferation considerations, where 
Defense Nuclear Nonproliferation may coordinate the NNSA's policy 
position but Defense Programs is heavily involved due to potential 
facility or nuclear material implications.
                           management issues
    Question. The Deputy Administrator for Defense Programs is 
responsible for activities occurring at NNSA laboratories and 
production sites across the country.
    What are your views on the roles and responsibilities of field 
managers relative to those of Defense Programs Headquarters managers?
    Answer. Headquarters managers, to include the Deputy Administrator, 
Assistant Deputy Administrators, and Program Managers work with the 
management and operating contractor managers and site office staff to 
plan the programs and set expectations (via Program Plans, 
Implementation Plans, and contractor performance evaluation plans). 
This is both necessary and appropriate since this brings a 
``corporate'' perspective to prioritization, and the necessary 
balancing among programs and sites. Program Managers at Headquarters 
are typically designated by the field contracting officers as 
Contracting Officers Representatives. These representatives provide 
direction to the contractor for the performance of programmatic work 
through the authority of the contracting officers through the Work 
Authorization Process. If confirmed, I will use the Site Office 
Managers to help me understand what is happening in the field since 
they are the closest to the work being performed and should have a 
better understanding of the local site conditions.
    Question. What is your view of Defense Programs' organizational 
structure?
    Answer. Is there a well-delineated and consistent chain of command 
and reporting structure from the field staff to headquarters staff and 
from the contractors to Federal officials? The Defense Programs 
organizational structure works yet I believe that it can be improved. 
One area for improvement is in the area of management of the Readiness 
in Technical Base and Facilities program. These responsibilities are 
now managed in two different Defense Programs organizations. To help 
meet the goal of having a more responsive and efficient nuclear weapons 
complex, these two offices should be consolidated. This combined office 
will be the driving force for transforming the three weapons 
laboratories, the Nevada Test Site and the four production plants into 
more agile and cost effective entities in terms of their physical plant 
and operations. This office will provide integrated program guidance, 
resources and execution oversight to the site offices and management 
and operating contractors. This office will develop a more common work 
breakdown structure for all of the eight contractors, reduce 
unnecessary and costly variations in tasking, and enable the common 
monitoring of program and financial performance among the eight sites.
    There is a well-delineated and consistent chain of command and 
reporting structure in place but the implementation of this chain of 
command needs more attention and discipline. Interaction with the site 
offices is critical to the organizational structure of Defense 
Programs. Discipline in using the chain of command is paramount in 
achieving an organization that is efficient and effective. I will 
emphasize that communication across the program is important. However, 
direction to the contractor can only be exercised using the chain of 
command. During my tenure at DOE and NNSA I have worked within the 
chain of command as well as serving as one of its leaders. Thus, I have 
developed a great understanding and appreciation for this 
responsibility if confirmed.
    Question. In your opinion, do the Federal managers in the field at 
NNSA facilities have enough autonomy and flexibility to work with the 
contractors at those sites to get work accomplished in a safe and 
efficient manner?
    Answer. Yes, Federal managers in the field at NNSA facilities do 
have the authority accomplish work in a safe and efficient manner and 
to stop unsafe operations. These managers can also help identify and 
resolve issues affecting program work and competing priorities within 
the site. However, it does require a close working relationship with 
Headquarters Program Managers. The interdependent nature of our 
programs, between sites and among the technical programs, drives the 
need for communication between site office and Headquarters managers.
    Question. If you are confirmed, what improvements, if any, would 
you undertake to strengthen the project management skills of your 
Federal workforce?
    Answer. Defense Programs is working to implement a strong program 
and project management culture. This resulted in the development and 
implementation of a Defense Programs Management Manual to guide 
expectations and actions of Program Managers. The goal is to create a 
program management organizational culture that values program and 
project management as a discipline based on qualification, technical 
competence, and consistent operating policies and procedures. Each 
program element in the Defense Programs portfolio has a designated 
Program Manager. These program managers are now recognized across the 
nuclear weapons complex as the single Federal individual responsible 
for that particular program area. Defense Programs is completing the 
definition of Program Manager qualification requirements. This 
qualification activity is aimed at both existing program managers and 
staff. All Defense Programs line item projects have qualified Federal 
Project Directors. If confirmed, I would continue the changes underway.
    Question. Does the Office of Defense Programs require its project 
managers to be credentialed through an accredited project management 
training program? If not, do you believe such a credentialing 
requirement should be established?
    Answer. I support the existing rigorous credentialing program. 
Federal Project Directors (project managers) for capital acquisition 
projects do require credentialing under the DOE Project Manager Career 
Development Program. This program identifies levels of qualification 
based on successful completion of a variety of project management 
related courses and acquisition of experience managing different sizes 
of projects.
                         stockpile stewardship
    Question. Congress established the Stockpile Stewardship Program 
with the aim of creating the suite of computational capabilities and 
experimental tools which--when coupled with the necessary human 
capital--would allow for the continued certification of the nuclear 
weapons stockpile as safe, secure, and reliable without the need for 
full scale, underground nuclear weapons testing. The United States has 
observed a nuclear weapons testing moratorium since 1992.
    As the stockpile continues to age, what do you view as the greatest 
challenges with respect to assuring the safety, reliability and 
security of the stockpile?
    Answer. One challenge will be keeping the right set of skilled 
workers at the laboratories, production sites, and in the Federal 
workforce. Keeping the workforce engaged and exercised will be 
essential in developing a sustaining nuclear deterrent without 
underground testing. Another challenge is gathering enough of the right 
data to maintain confidence in our assessments of the safety, 
reliability, and security of the stockpile. While I am personally 
satisfied with the rigor of the surveillance program, continued 
vigilance is required especially as the average age of warheads in the 
stockpile grows. The Reliable Replacement Warhead (RRW) program may 
address both of these areas of concern. If, with the agreement of 
Congress, we proceed beyond the current feasibility study, we intend to 
more easily assure the safety, reliability, and security of the 
stockpile without the need for underground nuclear testing.
    Question. Most of the experimental and computational facilities and 
tools originally identified in 1994 as required for the science-based 
Stockpile Stewardship program are, or will soon be, in place and fully 
operational.
    In the decade spanning the years 2010 to 2020, what additional 
tools or facilities will be needed to continue to support the Stockpile 
Stewardship program and the goal of assuring a safe, secure, and 
reliable stockpile without a resumption of underground nuclear weapons 
testing?
    Answer. Additional advances in the areas of computation, 
simulation, materials science, and radiography will be needed to 
support the Stockpile Stewardship Program. In the upcoming decade the 
focus will be to fully utilize the tools that we have been developing 
during this decade. An example would be getting the National Ignition 
Facility operational and ready to conduct Stockpile Stewardship 
experiments. Experiments on the National Ignition Facility will allow 
us to probe the extreme conditions of temperature and density found in 
exploding nuclear weapons. It is also important in the upcoming decade 
to pursue a robust experimental program on the Dual Axis Radiographic 
Hydrodynamic Test facility to observe the geometries of imploding 
materials. Additionally, I expect that as material models become more 
refined and as code applications become more complex, that modeling and 
simulation will continue to be a dominant tool as we continue forward 
with Stockpile Stewardship. Also, NNSA plans to increase the Los Alamos 
National Laboratory pit manufacturing capacity to at least 30-40 pits 
per year by the end of fiscal year 2012.
    Question. Have there been any instances in which these new tools 
have successfully resolved a technical issue or uncertainty that in the 
past would have required testing to resolve?
    Answer. Yes, there have been some inherently three-dimensional 
issues in the primary that we could not have resolved without the new 
computational tools that could have required a test for resolution.
                      reliable replacement warhead
    Question. The NNSA is working on a feasibility study for a reliable 
replacement warhead program (RRW), which, if successful could alter or 
replace the need for life extension programs in the future.
    In your view, what benefits could the RRW bring to the Stockpile 
Stewardship program?
    Answer. RRW could bring significant benefit to the Stockpile 
Stewardship Program. The basic principle of the RRW program is to take 
advantage of relaxing legacy stockpile design constraints that were 
based on maximizing the yield of the warhead to the weight of the 
warhead. This should lead us to be able to design replacement 
components that are easier to produce, are safer, more secure and 
environmentally friendly. These replacement components will also be 
designed to increase the design margins of the components that will 
both increase the system reliability and reduce the likelihood that the 
U.S. will need to conduct a nuclear test.
    Question. In your view, would changes be needed to the NNSA complex 
to implement the RRW program?
    Answer. It is too early to tell what types of changes will need to 
be made, if any, to the NNSA complex to implement the RRW program 
because we are in the midst of the RRW study competition. However, 
design parameter priorities for the RRW emphasizes reduced hazardous 
material, ease of manufacture, enhanced safety, increased security, and 
life-cycle costs among others. Specific changes to the complex may, if 
necessary, become more apparent later this year following completion of 
the RRW study.
          progress towards a responsive nuclear infrastructure
    Question. The Nuclear Posture Review issued in the year 2001 called 
for the establishment of a ``responsive'' nuclear weapons 
infrastructure.
    In your view, how should progress towards the establishment of the 
responsive infrastructure be measured?
    Answer. Defense Programs has been jointly developing responsive 
infrastructure mission objectives (e.g., being able to identify, 
understand, and fix a stockpile problem within a specified period of 
time) with the DOD. Our progress towards establishment of a responsive 
nuclear weapons complex infrastructure should be measured on how well 
we are achieving these objectives as judged by DOD. We are also 
evaluating the inclusion of leading indicators of complex 
responsiveness in contracts for our labs and plants. Similar to leading 
economic indicators as forward-looking predictors of future economic 
activity, these responsive indicators, or responsiveness metrics, would 
provide a view on whether we are becoming more or less responsive.
    As the Assistant Deputy Administrator for Program Integration, I 
have been working on leading Defense Programs' current effort to 
developing a responsive infrastructure. I will continue to lead this 
important effort, if confirmed, as the Deputy Administrator for Defense 
Programs.
    Question. Is sufficiently timely progress being made towards the 
goal of a responsive infrastructure?
    Answer. The concept of responsive infrastructure as part of the New 
Triad was first announced in December 2001 with the release of the 
Nuclear Posture Review. Initially, progress was slow as we worked with 
the DOD and others to agree on what a responsive infrastructure really 
is. The pace of progress picked up as the details of a much smaller 
future stockpile and the concept of a Reliable Replacement Warhead was 
developed. The 2012 stockpile plan provided details of a smaller 
stockpile to Congress in June 2004. In the early spring of 2005, we 
established a Responsive Infrastructure Steering Committee and a 
position within Defense Programs to drive actions needed to achieve 
responsive infrastructure goals. Actions have been accelerating since 
that time. I made moving towards a more responsive nuclear weapons 
complex infrastructure one of my key personal goals.
    Question. If confirmed, what would you do to either maintain or 
accelerate this progress?
    Answer. I am committed to accelerating the transformation of the 
nuclear weapons complex into a more responsive infrastructure. 
Infrastructure is defined as the people, business practices, technical 
processes, science and technology base, equipment, and facilities 
required to complete our mission. There are a number of things that we 
can do now (e.g., (1) improve risk management and technical business 
practices and (2) eliminate redundant capabilities) at an affordable 
cost, before any newer, more modern facility would need to be brought 
online.
    Question. The Nuclear Weapons Complex Infrastructure Task Force of 
the Secretary of Energy Advisory Board (SEAB) recently issued a report 
titled, ``Recommendations for the Nuclear Weapons Complex of the 
Future.''
    What is your general view of the report and its recommendations? 
The SEAB Task Force report was well done by a group of professionals 
who are sincerely interested in improving the nuclear weapons complex. 
I thank them for their work and acknowledge their contribution in 
helping frame the debate on the future of the complex. They did not, 
nor could not, fully address all details for a complicated system, such 
as the nuclear weapons complex. The Task Force acknowledges this up 
front in their report. For example, their recommendation on timing for 
a consolidated nuclear production center (CNPC) does not recognize the 
challenge of meeting near-term requirements of the current stockpile 
and transforming the nuclear weapons complex infrastructure at the same 
time. It may be decades before all existing legacy weapons, and the 
constraints they impose (e.g., conventional high explosives), are fully 
removed from the stockpile and dismantled.
    Question. Are efforts underway within Defense Programs to analyze, 
respond to, or implement the recommendations of the task force?
    Answer. In my current capacity, I am taking recommendations of the 
SEAB Task Force, as well as other recent reviews (e.g., Defense Science 
Board, Foster Panel, etc.) very seriously. Over the past 6 months, the 
NNSA has been analyzing these recommendations. In addition, I have held 
two strategic retreats (November and January) of senior nuclear weapons 
complex leadership and a concentrated 3-week session (the ``January 
Process'') with about 50 key middle management personnel throughout the 
weapons complex, to establish our preferred long-term planning scenario 
for the future. I have personally met with Secretary on our plan and 
will meet again with him to determine how we will implement our vision 
of the future. I anticipate that our selected path forward will be 
reflected in discussions with Congress later this spring.
    Question. If you are confirmed, what actions would you take, if 
any, to respond to the task force recommendations?
    Answer. If confirmed, I will keep on the current path. We will 
communicate our preferred long-term, infrastructure-planning scenario 
to stakeholders soon and begin implementation. Some actions may be 
consistent with the Task Force recommendations and some may be 
different. I intend to take some actions within the next 18 months to 
demonstrate that I am serious about transforming the complex into a 
more responsive and cost-effective infrastructure.
                addressing legacy and surplus facilities
    Question. The NNSA continues to maintain programmatic 
responsibility for many legacy nuclear weapons facilities that are 
surplus to current mission needs or have exceeded their design lives to 
such an extent that it is not economic to raise them to current 
standards for continued occupancy and use. Many of these facilities are 
mothballed in a safe shutdown mode while awaiting the funds for 
dismantlement. In some cases, NNSA is using scarce infrastructure 
recapitalization funds for the purpose of dismantling these facilities 
instead of transferring this work to the Office of Environmental 
Management, which is the office within the DOE responsible for cleaning 
up the environmental legacy of the nuclear weapons program.
    If confirmed, would you propose any changes or improvements to the 
process by which these legacy facilities are currently being addressed?
    Answer. I support the work within the Office of Environmental 
Management to ensure that the dismantlement and disposal of excess 
legacy facilities are adequately addressed. The question of legacy 
facility disposition is an issue of concern that cannot be solved by 
any one organization within the Department but will require a DOE 
corporate approach to address since this concern exists across a number 
of both NNSA and DOE organizations.
    Question. In your view, should the dismantlement and disposal of 
these excess legacy facilities be budgeted for and executed by the 
Office of Environmental Management, rather than Defense Programs?
    Answer. At this point in time it is not clear to me that assigning 
all Defense Programs dismantlement and disposal to the Office of 
Environmental Management is the right thing to do. Since these excess 
legacy facilities exist across many Departmental elements, a corporate 
DOE approach that looks at the complete picture of the Department's 
legacy sites is more appropriate.
                      maintenance of the stockpile
    Question. How confident are you of the ability of the nuclear 
weapons complex as currently constituted to identify and fix potential 
problems in all weapons expected to be included in the enduring nuclear 
weapons stockpile?
    Answer. I am very confident of the ability of the nuclear weapons 
complex to identify and fix potential problems in the enduring nuclear 
weapons stockpile. This is fundamental to our core mission--nothing 
else matters if we cannot adequately support the enduring stockpile.
    Question. What do you believe to be the biggest challenges in 
maintaining the nuclear weapons expected to be in the enduring 
stockpile?
    Answer. One of the biggest challenges in maintaining the nuclear 
weapons expected to be in the enduring stockpile will be maintaining 
and exercising the highly skilled workforce across the nuclear weapons 
complex to ensure that appropriate skills and capabilities are 
developed and improved. Additionally, maintaining an appropriate level 
of focus and management attention on the variety of surveillance 
activities for the enduring stockpile will be very important.
    Question. In your view, how would the reliable replacement warhead 
program, if successful, change the approach to stockpile stewardship?
    Answer. I do not expect success in the Reliable Replacement Warhead 
program to fundamentally change the approach to Stockpile Stewardship. 
A successful Reliable Replacement Warhead program is a validation of 
the success of Stockpile Stewardship. The program should result in 
replacement of components and will reduce further the likelihood that 
we would ever need to carry out another underground nuclear test. This 
program should drive performance margins higher and reduce 
uncertainties in design. In order to be able to ascertain progress in 
increasing design margins and reducing uncertainties, stewardship of 
the stockpile will continue to play an important role in being able to 
measure and evaluate these parameters.
    Question. With respect to the nuclear weapons production complex as 
currently constituted, are you confident in the continued ability to 
manufacture or otherwise acquire limited life components for the 
enduring stockpile?
    Answer. Yes. Defense Programs has an excellent record in producing 
and delivering limited life components.
                       warhead pit manufacturing
    Question. A significant challenge facing the nuclear weapons 
complex is reconstituting the ability to manufacture and certify 
nuclear weapons pits, and then ramping this capability up to an 
appropriate production rate, which will permit the timely 
replenishment, or replacement of pits in the stockpile.
    What is your view of the current level of progress in 
reconstituting pit production capability?
    Answer. Reconstituting pit production at Los Alamos National 
Laboratory (LANL) has been quite successful as evidenced by the recent 
manufacture of ``Qual 14,'' the last qualification pit. The next pits 
being manufactured in fiscal year 2006 will be of war reserve quality. 
Six war reserve pits will be manufactured in fiscal year 2006 and 10 
pits are planned for fiscal year 2007. The NNSA considers an 
appropriate pit production capacity to be essential to its long-term 
evolution to a more responsive nuclear weapons infrastructure. Congress 
declined to fund planning for a Modern Pit Facility in fiscal year 2006 
citing concerns that pit aging experiments and a thorough analysis of 
the Nuclear Weapons Complex Infrastructure report are not yet complete. 
As a result, NNSA did not seek funding for the Modern Pit Facility in 
fiscal year 2007. As these concerns will be addressed in the coming 
months, NNSA will work with Congress to identify an approach to a long-
term pit production capacity. In the meantime, NNSA plans to increase 
the LANL pit manufacturing capacity to at least 30-40 pits per year by 
the end of fiscal year 2012. I will be working closely with LANL to 
ensure that we have a good understanding of the real capability and 
capacity of the TA-55 facilities.
    Question. What are the most significant near-term and long-term 
challenges?
    Answer. The most significant near-term challenge is the final 
certification of a newly manufactured W88 pit by the end of fiscal year 
2007. The most significant long-term challenge will be to develop a 
plutonium manufacturing capability that is appropriately sized for the 
future stockpile, reflects our best understanding of weapons specific 
pit aging, and is integrated with our needs to support current 
Department of Defense requirements.
    Question. In your view, is this effort on track to meet program 
requirements?
    Answer. Defense Programs is on track to meet the near-term program 
requirements of final certification of a newly manufactured W88 pit by 
the end of 2007 and to manufacture planned pits in 2006 and 2007. Pit 
production is a key element of a responsive nuclear weapons 
infrastructure. Within the next year I expect to have weapons specific 
pit lifetime estimates, a better understanding of the long-term 
requirements for the Stockpile, and a better understanding of the 
outcomes from the Reliable Replacement Warhead study. These elements 
will help inform a decision to address the appropriate plutonium 
capability for the nuclear weapons complex. I will continue to work 
with the Department of Defense to define the size and composition of 
the stockpile. If confirmed as Deputy Administrator for Defense 
Programs, getting this right will be a high priority for me.
                         test readiness posture
    Question. The National Defense Authorization Act for Fiscal Year 
2004 requires DOE to achieve and maintain thereafter a test readiness 
posture of not more than 18 months. In other words, DOE would be able 
to resume underground nuclear testing within 18 months of a 
presidential decision to conduct a test. DOE is to achieve this 
readiness no later than October 1, 2006.
    Has sufficient funding been appropriated by Congress to allow DOE 
to meet this requirement? If so, how confident are you that this 
statutory requirement will be met by the end of the current fiscal 
year?
    Answer. Sufficient funding has not been appropriated by Congress to 
allow DOE to meet the requirement to achieve and maintain an 18 month 
test readiness posture.
    Question. In your view, is this posture appropriate to support the 
stockpile?
    Answer. The NNSA has made considerable progress in improving its 
test readiness posture to 24 months by a number of actions including 
production of a set of field-test neutron generators, training nuclear 
test diagnosticians, and completing some of the safety basis 
authorization work. Given that proceeding to 18 months would likely 
result in just more progress in the safety authorization basis work, 
the 24 month test readiness posture is appropriate to support the 
stockpile, especially considering more pressing needs within the 
Stockpile Stewardship Program.
                defense nuclear facilities safety board
    Question. The Defense Nuclear Facilities Safety Board (DNFSB) has a 
statutorily-directed independent oversight role over nuclear safety 
issues arising within NNSA nuclear weapons facilities.
    What is your view of the current relationship between NNSA and the 
DNFSB?
    Answer. The current relationship between the DNSFB and the NNSA is 
good. In my current position as Assistant Deputy Administrator for 
Program Integration, I brief the Board on a regular basis to discuss 
items of mutual concern and interest. This forum provides an 
opportunity to discuss areas of agreement and disagreement in a manner 
to keep communication lines open.
    Question. Does the current relationship allow for effective 
execution by the DNFSB of its oversight role?
    Answer. Yes, this relationship allows the DNSFB to execute its 
oversight role.
    Question. If confirmed, what actions, if any, would you take to 
improve communication and transparency between the DNFSB and the NNSA 
facilities under the purview of Defense Programs?
    Answer. If confirmed, I would continue to brief the Board on a 
regular basis on areas of mutual concern and interest. This forum has 
worked well.
                        life extension programs
    Question. If confirmed, you will be responsible for managing the 
life extension programs for existing nuclear warheads.
    What is your general assessment of the effectiveness of the life 
extension programs?
    Answer. I believe the Life Extension Programs are highly effective 
for extending the life of warheads in the nuclear weapons stockpile. 
The W87 (Intercontinental Ballistic Missile warhead) program was 
recently completed, and efforts are well underway on the B61-7/11 
(strategic bombs), W76 (Submarine Launched Ballistic Missile warhead) 
and W80 (cruise missile warhead).
    Question. How well, in your view, does the nuclear weapons 
complex--encompassing the laboratories and the production sites--
function as an integrated complex and, externally, with the Department 
of Defense in executing the life extension programs?
    Answer. The success of highly integrated activities such as the 
Life Extension Programs testifies that the nuclear weapons complex is 
working relatively well together and with the Department of Defense. 
Every one of the nuclear weapons complex sites is involved with the 
Life Extension Programs in some way, and they have served as specific 
focal points with tangible milestones and deliverables. Activities such 
as Defense Programs Quarterly Program Reviews bring the entire complex 
together on a regular basis, to bring high-level NNSA, laboratory, 
plant, and test site attention to issues that are continually addressed 
at the working level. Regular meetings such as the Nuclear Weapons 
Council serve a similar purpose with the Department of Defense. This 
level of integration has been effective in large part because of active 
involvement of the Federal Program Managers to bring the laboratory and 
plant contractor organizations together.
    Question. Do you believe the efficiency with which NNSA manages the 
execution of the life extension programs be improved, and if so, how?
    Answer. Yes, I always believe we can find efficiencies in any 
process. For an effort as comprehensive and far-reaching as the LEPs, 
communication and execution of a common vision are often difficult. 
When dealing with multiple contractors on a single area of emphasis, 
the LEPs for example, a concerted effort has to be made to ensure that 
contractors do not optimize their performance and sub-optimize the 
overall effort. To address this problem, Defense Programs should 
implement a common multi-site incentive that will bind all contractors 
involved in an activity to a common performance measure. This will help 
ensure that contractors work together for the success of the overall 
objective.
                          design basis threat
    Question. Secretary Bodman testified before the Senate Armed 
Services Committee in February 2005 that DOE and NNSA sites will not 
achieve compliance with the current design basis threat until the year 
2008.
    Given the seriousness of the need to secure nuclear materials, both 
abroad and at home, do you believe that this is a sufficiently rapid 
response to the threats currently outlined by the Intelligence 
Community, and against which DOE and NNSA must defend at its nuclear 
sites?
    Answer. I believe that DOE and NNSA are working diligently to 
address security threats appropriately, considering program execution 
needs and fiscal constraints. As the Deputy Administrator for Defense 
Programs, if confirmed, I would work very closely with the Associate 
Deputy Administrator for Defense Nuclear Security to ensure that NNSA's 
sites are safe and secure.
    Question. If confirmed, would you seek ways to accelerate the 
hardening and compliance of facilities under your purview against the 
current design basis threat?
    Answer. If confirmed, I would continue to seek ways to accelerate 
the hardening and compliance of facilities under my purview against the 
current design basis threat. I work closely with the Associate 
Administrator for Defense Nuclear Security on a wide range of issues, 
including facility design and compliance. The design of the Highly 
Enriched Uranium Materials Facility at the Y-12 National Security 
Complex is a good example of a recent facility with modern security 
features. Any future facilities and strengthening of existing 
facilities will consider the current and any future design basis 
threats.
    Question. If confirmed, would you pledge to work expeditiously to 
identify any special nuclear material which is excess to mission need, 
and to develop a plan to consolidate and secure this material against 
current threats?
    Answer. Yes, if confirmed, I will work to identify any special 
nuclear material that is excess to mission need, and to consolidate and 
more heavily secure this material against current threats. Defense 
Programs has a number of related successes (e.g., removal of security 
category I/II special nuclear material from TA-18 at Los Alamos 
National Laboratory) and we are an active participant in the DOE's 
Nuclear Materials Disposition and Consolidation Coordination Committee, 
which is looking at a comprehensive path forward for the entire 
Department.
                                nnsa act
    Question. The NNSA has now been in existence for over five years, 
since it was established by Congress in the NNSA Act of 2000.
    In your view, is the relationship between the NNSA and the 
Department of Energy functioning in an effective and efficient manner?
    Answer. The relationship between the Department and the NNSA 
functions is effective. However, there can always be more improvement 
in driving efficiency in how we work together. Attention and 
improvement in this area can be reflected in existing Department of 
Energy Orders.
    Question. If confirmed, would you propose any statutory changes to 
the NNSA Act?
    Answer. No, I would not propose any statutory changes to the NNSA 
Act.
    Question. Do you believe any organizational changes are needed to 
implement the NNSA Act?
    Answer. No, I do not believe any organizational changes are needed. 
However, work should continue on clarifying relationships between NNSA 
and Department of Energy offices.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. If confirmed, I agree to appear before the Senate Armed 
Services Committee and other appropriate committees of Congress.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Deputy Administrator for 
Defense Programs?
    Answer. If confirmed, I agree to appear before the Senate Armed 
Services Committee, or designated members of the committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to my responsibilities as the Deputy Administrator for 
Defense Programs.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees in a timely manner?
    Answer. If confirmed I agree to ensure that testimony, briefings, 
and other communications of information are provided to the Senate 
Armed Service Committee and its staff and other appropriate committees 
in a timely manner.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
              Question Submitted by Senator Jeff Sessions
                         cost controls for doe
    1. Senator Sessions. Mr. D'Agostino, in the questions you received 
earlier from the committee, you were asked whether--in your view--cost 
containment and cost control should be a high priority for someone who 
leads the DOE nuclear weapons program. This question was submitted to 
you at my request because I believe that we need to do much better--and 
can do much better--when it comes to running government programs more 
cost effectively. While it is appropriate to feel the imperative to 
maintain our nuclear deterrent, we simply must get more for the 
investment we are making. What are your perspectives on the issue of 
cost control and, if confirmed, what actions would you take to drive 
down program costs?
    Mr. D'Agostino. Cost control and getting the absolute most value 
for the taxpayers' dollars are extremely important for Defense Programs 
and for me personally. We are in the midst of a number of aggressive 
cost-control measures and are always looking for ways to improve. As 
noted in my answers to the Advance Policy Questions, we are doing a 
comprehensive review of the Operations of Facilities program due to 
inconsistent practices across the nuclear weapons complex. We are 
looking to standardize systems that work across the complex for 
accounting.
    On a broader scale, as Ambassador Brooks noted during his March 7, 
2006, hearing before the Senate Armed Services Committee Strategic 
Forces Subcommittee, today's nuclear weapons complex is not the same 
one that helped win the Cold War. The U.S. nuclear weapons complex has 
seen dramatic reductions, not only in size but also in terms of 
funding. In 1990, our nuclear weapons complex employed nearly 60,000 
people. Today we employ about half that number and the footprint of our 
facilities has shrunk from 70 million square feet to less than 40 
million. This includes closing down four facilities, including, for 
example, the Rocky Flats plant in Colorado, and the Pinellas plant in 
Florida. We are close to finalizing a preferred infrastructure planning 
scenario for the future nuclear weapons complex and will share our 
plans soon with Congress and other stakeholders.
                                 ______
                                 
    [The nomination reference of Thomas P. D'Agostino follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 27, 2006.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Thomas P. D'Agostino of Maryland, to be Deputy Administrator for 
Defense Programs, National Nuclear Security Administration, vice Everet 
Beckner, resigned.
                                 ______
                                 
    [The biographical sketch of Thomas P. D'Agostino, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
             Biographical Sketch of Thomas Paul D'Agostino
    Thomas Paul D'Agostino is the Assistant Deputy Administrator for 
Program Integration and leads the Office of Defense Programs at the 
Department of Energy's National Nuclear Security Administration (NNSA). 
Mr. D'Agostino directs the Stockpile Stewardship Program (SSP), which 
is responsible for maintaining the safety, security, and reliability of 
the Nation's nuclear weapons stockpile. The NNSA's nuclear weapons 
complex includes three national research laboratories, the Nevada Test 
Site, and four production plants.
    Defense Programs oversees the SSP, which employs over 30,000 people 
around the country. This approximately $5.2 billion program encompasses 
operations associated with manufacturing, maintaining, refurbishing, 
and dismantling the nuclear weapons stockpile. Defense Programs also 
provides oversight and direction of the research, development, and 
engineering support to maintain the safety and reliability of the 
nuclear weapons stockpile in the absence of underground testing, and 
assures the capability for maintaining the readiness to test and 
develop new warheads, if required.
    In other previous assignments, Mr. D'Agostino served as the Deputy 
Director for the Nuclear Weapons Research, Development, and Simulation 
Program where he directed the formulation of the programs and budget 
for the research and development program that supports the SSP. From 
1989 to 1996, Mr. D'Agostino worked in numerous assignments within the 
Federal Government in the startup of the Department's tritium 
production reactors and at the Naval Sea Systems Command as a program 
manager for the SEA WOLF submarine propulsion system.
    Mr. D'Agostino is currently a Captain in the U.S. Naval Reserves 
where he has served with the Navy Inspector General and with the Deputy 
Chief of Naval Operations for Submarine Warfare in developing concepts 
for new attack submarine propulsion systems. He also served with the 
Deputy Chief of Naval Operations for Plans, Policy, and Operations (N3/
5) in the Navy Command Center in the Pentagon. In this capacity, he was 
the French Desk Officer for the Chief of Naval Operations responsible 
for all Politico-Military interactions with the French Navy and served 
as the Duty Captain at the Navy Command Center.
    He spent over 8 years on Active-Duty in the Navy as a submarine 
officer to include assignments onboard the U.S.S. Skipjack (SSN 585) 
and with the Board of Inspection and Survey where he was the Main 
Propulsion and Nuclear Reactor Inspector. In this position, he 
performed nuclear reactor and propulsion engineering inspections for 
over 65 submarines and nuclear-powered ships in the Atlantic and 
Pacific Fleets.
    Mr. D'Agostino's awards include the Navy Commendation Medal with 
Gold Stars, Navy Achievement Medal, Navy Expeditionary Medal, 
Meritorious Unit Commendation, National Defense Service Medal, 
Presidential Rank Meritorious Executive Award, and numerous other 
awards. Mr. D'Agostino is married to Beth Ann Alemany of Manchester, 
CT, and has two children. Mr. D'Agostino is a member of the Senior 
Executive Service.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Thomas P. 
D'Agostino in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Thomas Paul D'Agostino.

    2. Position to which nominated:
    Deputy Administrator for Defense Programs, National Nuclear 
Security Administration, Department of Energy.

    3. Date of nomination:
    January 27, 2006.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    January 17, 1959; Washington, DC.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Beth Ann Alemany.

    7. Names and ages of children:
    Anne Elizabeth D'Agostino, 19; Thomas Scott D'Agostino, 16.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    U.S. Naval War College, August 1996-June 1997, MA, National 
Security Studies.
    Johns Hopkins University, September 1992-May 1995, MS, Business 
Finance.
    U.S. Naval Academy, July 1976-May 1980, BS, Physical Science.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    October 1990-present, U.S. Department of Energy, Office of Defense 
Programs, Washington, DC.
      Jobs:

        - Acting Deputy Administrator for Defense Programs
        - Assistant Deputy Administrator for Program Integration
        - Deputy Director for Nuclear Weapons Research, Development and 
        Simulation
        - Deputy Director, Office of Stockpile Computing
        - Engineer, Office of Economic Competitiveness
        - Engineer, Savannah River Restart Office

    January 1988-present, U.S. Naval Reserves (current rank of 
Captain), Washington, DC.
      Served with:
        - Navy Inspector General
        - Deputy Chief of Naval Operations for Submarine Warfare
        - Deputy Chief of Naval Operations for Plans, Policy, and 
        Operations

    May 1998-October 2005, Uniformed Services Benefit Association (life 
insurance company), Kansas City, Kansas
      Member, Board of Directors and Board of Advisors

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    U.S. Naval War College Foundation.
    U.S. Naval Academy Alumni Association.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Navy Commendation Medal with Gold Stars
    Navy Achievement Medal
    Navy Expeditionary Medal
    Meritorious Unit Commendation (Navy)
    National Defense Service Medal
    Presidential Rank Meritorious Executive Award

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    My speaking style is such that I typically use talking points and 
do not use a completely written speech. As such, one example provided 
was transcribed from a presentation that I gave at the Kansas City 
Plant Leadership Forum in August 2005. The second example is from a 
ground-breaking ceremony for the Chemistry and Metallurgy Research 
Building Replacement Project at Los Alamos National Laboratory in 
January 2006.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                              Thomas P. D'Agostino.
    This 8th day of February, 2006.

    [The nomination of Thomas P. D'Agostino was reported to the 
Senate by Chairman Warner on February 16, 2006, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on February 17, 2006.]


 NOMINATIONS OF CHARLES E. McQUEARY TO BE DIRECTOR OF OPERATIONAL TEST 
 AND EVALUATION, DEPARTMENT OF DEFENSE; ANITA K. BLAIR TO BE ASSISTANT 
 SECRETARY OF THE AIR FORCE FOR MANPOWER AND RESERVE AFFAIRS; BENEDICT 
S. COHEN TO BE GENERAL COUNSEL OF THE DEPARTMENT OF THE ARMY; FRANK R. 
 JIMENEZ TO BE GENERAL COUNSEL OF THE DEPARTMENT OF THE NAVY; DAVID H. 
 LAUFMAN TO BE INSPECTOR GENERAL, DEPARTMENT OF DEFENSE; SUE C. PAYTON 
TO BE ASSISTANT SECRETARY OF THE AIR FORCE FOR ACQUISITION; WILLIAM H. 
TOBEY TO BE DEPUTY ADMINISTRATOR FOR DEFENSE NUCLEAR NONPROLIFERATION, 
 NATIONAL NUCLEAR SECURITY ADMINISTRATION; AND ROBERT L. WILKIE TO BE 
         ASSISTANT SECRETARY OF DEFENSE FOR LEGISLATIVE AFFAIRS

                              ----------                              


                         TUESDAY, JULY 18, 2006

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:39 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Thune, 
Levin, Reed, and Bill Nelson.
    Committee staff members present: Charles S. Abell, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Elaine A. McCusker, 
professional staff member; David M. Morriss, counsel; Stanley 
R. O'Connor, Jr., professional staff member; Lynn F. Rusten, 
professional staff member; Diana G. Tabler, professional staff 
member; and Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Madelyn R. Creedon, minority 
counsel; Richard W. Fieldhouse, professional staff member; 
Gerald J. Leeling, minority counsel; Peter K. Levine, minority 
counsel; and Arun A. Seraphin, professional staff member.
    Staff assistants present: Jessica L. Kingston and Jill L. 
Simodejka.
    Committee members' assistants present: John A. Bonsell, 
assistant to Senator Inhofe; Arch Galloway II, assistant to 
Senator Sessions; Stuart C. Mallory, assistant to Senator 
Thune; Mieke Y. Eoyang, assistant to Senator Kennedy; and 
Elizabeth King, assistant to Senator Reed.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning. The hearing will come to 
order.
    We're going to deviate a little bit. Senator Lott, you have 
an engagement to introduce the Chief Justice of the United 
States at a very important function at which my grandson is 
attending as one of the summer interns in my office. Would you 
please proceed?
    Senator Lott. Thank you very much, Senator Warner and 
Senator Levin.
    I will be introducing the Chief Justice to our interns, so 
it's a very important assignment.

 STATEMENT OF HON. TRENT LOTT, U.S. SENATOR FROM THE STATE OF 
                          MISSISSIPPI

    Senator Lott. It's a pleasure to appear before this 
distinguished committee. I had the great honor of serving on 
this committee for 6\1/2\ years and enjoyed it very much. I 
appreciate all the good work that this committee does for our 
country, and, for the most part, in a very bipartisan way. So, 
thank you for your service.
    It's also a great honor for me to be here this morning to 
support the nomination for Assistant Secretary of Defense for 
Legislative Affairs, Robert Wilkie. This is an outstanding man, 
highly qualified for the position to which he's been nominated. 
He's the son of an Army artillery commander. He spent his youth 
at Fort Sill and Fort Bragg, good qualifications, in 
themselves. He graduated with honors from Wake Forest 
University, received his juris doctor degree from Loyola, of 
the South, in New Orleans, where he received honors in Latin 
American law, international law, and legislation. He also was 
awarded a master of laws in international and comparative law 
from Georgetown University.
    He began his professional career working on the Hill for 
Senator Jesse Helms. He subsequently worked for Congressman 
David Funderburk of North Carolina. Then, in 1997, he joined my 
staff as counsel and advisor on international security affairs 
in the Senate majority leader's office. He did an outstanding 
job there. He also has always been involved, as I know, on a 
personal basis, in his community, in his church, and with his 
family. He has a very lovely wife who is here with us today--I 
know she'll probably be introduced later by Robert--and two 
wonderful children.
    During that time in the leader's office, we had a lot of 
very critical issues we dealt with, and he served the Senate, I 
believe, quite well. He subsequently went to be Special 
Assistant to the President for National Security Affairs, and 
Senior Director of the National Security Council. He worked 
with Dr. Rice and Dr. Hadley--worked on such issues as the 
Moscow Treaty, North Atlantic Treaty Organization expansion, 
the Millennium Challenge Account, and Iraq reconstruction.
    He is an officer in the United States Navy Reserve. He's an 
honor graduate of the Reserve Intelligence Officers Basic 
Course. He was the Junior Intelligence Officer Reservist of the 
Year in 2004. He is a graduate of the Joint Forces Staff 
College, written a lot of articles, and I learned, to my 
amazement, when we were in Europe one time, he's quite a 
European history buff. He knows the history of the countries, 
the players, and the great battles that were fought. He became 
our tour guide as we went through a very important part of 
Europe.
    But here's what I really wanted to appear for. He does have 
a great genealogy, roots in Louisiana and in my State. His 
great-grandmother, as a matter of fact, was the first female 
member of the State's legislature, and one of the founders of 
Delta State University. It's a great military family. It's a 
great family of leadership that has served their country for 
years and years. He has deep roots in my State. I hope that 
will be considered an asset, not a burden for him, because 
we're very proud of him.
    Here's the main reason I am here, and that is, I think this 
is a really important position at the Pentagon. We need to make 
sure we have a person in this position that understands 
Congress, that's worked for Congress, understands Senators, 
understands Congressmen, understands the legislative process--
that's a unique kind of training that's needed to really 
understand that--that can be the liaison and the go-between 
from the Department of Defense (DOD), from the Secretary, if 
you will, and to Congress. I think it's a critical role, and 
one that I know that Robert Wilkie has the qualifications for. 
I think he has the demeanor for it. I think he'll be a great 
credit to the Pentagon and to the institutions that he'd 
serve--the House of Representatives and the Senate. I 
wholeheartedly endorse his nomination to be Assistant Secretary 
of Defense for Legislative Affairs, and I thank you for your 
expeditious handling of his nomination.
    Chairman Warner. Senator Lott, there's no Member of the 
Senate today that knows the Senate better than you do and the 
process.
    Senator Lott. Well, thank you, sir.
    Chairman Warner. For this fine man to have trained under 
your tutelage, that makes him well qualified. I think we can 
dismiss this case and go on with the others right away. 
[Laughter.]
    Senator Lott. Thank you very much, Senator Warner and 
Senator Levin. I appreciate you both very much.
    Chairman Warner. Thank you.
    We now are joined by our colleague from the House of 
Representatives. Why don't we proceed with you, and then finish 
up with Senator Allen.

 STATEMENT OF HON. CHRISTOPHER COX, FORMER REPRESENTATIVE FROM 
                    THE STATE OF CALIFORNIA

    Mr. Cox. Thank you very much, Mr. Chairman, Senator Levin, 
and to all of the Members of the Senate who are here.
    It is a privilege to be able to introduce Ben Cohen to this 
committee as you consider his nomination to be General Counsel 
of the Army. I have known Ben for 20 years, since we were both 
lawyers in the White House Counsel's Office. It was clear to me 
then, and has been clear to me every year since, that Ben is 
not only a superb lawyer, with exacting standards of 
professionalism and excellence, but, more importantly, he is a 
man of uncommonly high integrity and independence of judgment, 
and he has a profound respect for the rule of law.
    I am certain that you know his extraordinary background: 
Yale undergraduate, magna cum laude; University of Chicago Law 
School, and editor of the Law Review; clerk for the Honorable 
Laurence Silberman on the United States Court of Appeals for 
the District of Columbia Circuit; private practice with the 
distinguished law firms of Davis Polk and Swidler & Berlin; and 
senior positions in the Federal Government over a period of 2 
decades.
    I mentioned his service in the White House. He also served 
as a senior member of the leadership staff in the House of 
Representatives as executive director of the House Policy 
Committee, and staff director of the Homeland Security 
Committee. He was Deputy Assistant Attorney General in the 
Department of Justice, and, most relevant today, Deputy General 
Counsel at the DOD.
    He is extraordinarily well-qualified for the duties upon 
which he will enter, if you confirm him to this position. I 
know of no one who is more versatile as a lawyer and as a 
manager, certainly no one with whom I have worked who is more 
erudite or a more inspirational leader of other professionals. 
His management skills are truly impressive. Simply put, his 
staff, the men and women who have worked for him, really enjoy 
working for Ben Cohen. He challenges them and helps them to 
succeed, and he has a marvelous sense of humor, which I hope he 
brings back to the DOD.
    He has a wonderful family sitting behind me, and I want to 
let Ben introduce them, but Ben and Julie and the rest of his 
family have been good friends of mine for a very long time. I 
want everyone here to know how much respect I have for the 
Cohen family, and how honored I have been to work with Ben 
Cohen for these many years.
    I am very pleased that the President has put his name 
before this committee, and I hope and expect that you will see 
fit to confirm him.
    Chairman Warner. Congressman Cox, we are grateful that you 
took the time to cross the aisle, so to speak, and come over 
here and join the other body. It's very important that you add 
your views with regard to this distinguished American. I had 
the opportunity to talk at length with him, and he has a very 
impressive record. We, as citizens, are fortunate that people 
like Mr. Cohen, and every one of these nominees this morning, 
have stepped up for another chapter of public service.
    Thank you very much.
    Mr. Cox. Thank you, Mr. Chairman.
    Senator Levin. How are they treating you over at the 
Securities and Exchange Commission (SEC) these days?
    Mr. Cox. Very well. I'm very pleased with my new position 
and the opportunities we have there.
    Senator Levin. You have a major responsibility, and we are 
delighted you are there. You have done some very independent, 
courageous things already, and I know the House misses you. My 
brother misses you. Thanks for coming by.
    Mr. Cox. I will look forward to that opportunity, as well.
    Chairman Warner. It's always a big step, though, when you 
step across to come to the other body, even though you're not 
there now. Thank you very much.
    Senator Allen?

STATEMENT OF HON. GEORGE ALLEN, U.S. SENATOR FROM THE STATE OF 
                            VIRGINIA

    Senator Allen. Thank you, Mr. Chairman.
    Good morning, Mr. Chairman, Senator Levin, Senator Thune. 
Thank you for allowing me to appear before this committee to 
introduce Anita Blair, who is the nominee for Assistant 
Secretary of the Air Force for Manpower and Reserve Affairs.
    I have known and benefited from the advice of, and admired, 
Anita Blair for many years. When I was Governor, I had the 
opportunity to appoint her to serve at the Virginia Military 
Institute's (VMI) Board of Visitors in 1995. This was an 
historic period for VMI, in that the Supreme Court had ruled in 
the decision of the United States versus Virginia that it would 
have to be coed. Anita Blair, on the Board of Visitors, helped 
design and implement the plans for admitting women to VMI. In 
addition to working very closely with cadets, faculty, and 
staff, she was the chair of the Board's Assimilation Review 
Task Force that provided continuing high-level oversight of all 
the issues relating to the successful admission of women to 
VMI.
    Anita also was a very important member in fashioning and 
creating, planning, and developing what is called the Virginia 
Women's Institute of Leadership (VWIL) at Mary Baldwin College, 
and served as VMI's liaison to that program at Mary Baldwin. 
VWIL has just celebrated its 10th year of operations, and 
currently has about 125 cadets at Mary Baldwin. Every year, 
about 40 percent of the graduates, who are all women, take 
military commissions, and many others pursue national security-
related civilian careers. These are legacies of Anita Blair's 
outstanding leadership.
    She served for 6 years on the VMI Board, and resigned to 
accept the position, in August 2001, to be Deputy Assistant 
Secretary of the Navy for Military Personnel Policy. In that 
role, she has been responsible for policy and oversight related 
to all manpower and personnel matters affecting the Navy and 
the Marine Corps and their families.
    In February 2005, she assumed additional responsibilities 
as the Deputy Assistant Secretary for Total Force 
Transformation, leading efforts to improve and modernize the 
management of the Department of the Navy's total force of 
Active-Duty, Reserve, civilian, and other contractor personnel.
    Like you, Mr. Chairman, and me, Ms. Blair is a graduate of 
the University of Virginia's School of Law, where she met her 
husband, Doug Welty, who is here. They even practiced law 
together. He continues to practice law in Arlington. Her 
practice was in areas of antitrust, franchise and trade, and 
regulation law. She's been working with the Department of the 
Navy since just before September 11, and she has energetically 
deployed her considerable experience in the private sector, her 
public advocacy capabilities and public service to support our 
sailors, marines, and their families.
    I know, Mr. Chairman and members of the committee, that she 
will have the same sort of expertise, dedication, diligence, 
and expert leadership in this new position, and I look forward, 
and hope for, her prompt consideration by this committee, and 
confirmation on the Senate floor. I thank you all for allowing 
me to speak my accolades for one truly outstanding American, 
Anita Blair.
    Chairman Warner. Senator Allen, I share your observations 
about the qualifications and accomplishments of this 
distinguished nominee. It's very important that you, too, found 
time to step over, this morning, and join this committee for 
this very important moment in their public service careers.
    Thank you, Senator.
    Senator Allen. Thank you, Mr. Chairman.
    Chairman Warner. Senator Thune, I understand that you wish 
to join in the introductions.
    Senator Thune. Mr. Chairman, thank you. I have the honor to 
introduce to you----
    Chairman Warner. Excuse me, I'm just going to interrupt.
    Please, Mr. Cox, Mr. Allen, feel free to leave now, because 
you have to move on with other matters. [Laughter.]
    You're free to go.
    Senator Allen. I have to get to the----
    Chairman Warner. Your nominees are on their own now.
    Yes, Senator?
    Senator Thune. I'm not released yet, Mr. Chairman?
    Chairman Warner. Nope. [Laughter.]
    Senator Thune. Mr. Chairman, I have the honor to introduce 
to you and my fellow committee members the President's nominee 
for the position of Assistant Secretary of the Air Force for 
Acquisition, Sue Payton.
    Sue Payton is a distinguished public servant. She's 
eminently qualified to fill the position for which she's been 
nominated. She brings private-sector experience to her duties 
in the DOD that's really invaluable, being able to listen to 
customer needs, integrate solutions, and deliver capability in 
a timely manner. Sue Payton has extensive experience in leading 
government and industry partnerships focused on maturing and 
applying technology, operations concepts, tactics, techniques, 
and procedures to solve national security problems worldwide.
    For the last 5 years, as Deputy Under Secretary of Defense 
for Advanced Systems and Concepts, Sue Payton has demonstrated 
openness and candor in her efforts to get the best technology 
demonstrated and transitioned to the warfighter. Prior to 
taking her current position, in September, Secretary Payton was 
the Vice President of Applied Technology of ImageLinks, 
Incorporated, and the Director of the National Center for 
Applied Technology, responsible for the assessment, prototype 
development, and insertion of commercial technology for DOD 
agencies and worldwide field users.
    Between 1994 and 1996, Secretary Payton was responsible to 
the Vice President of Business Development, Lockheed Martin, 
for leveraging the latest information systems technology to 
meet the program needs of DOD and Intelligence Community 
customers.
    Between 1989 and 1994, Secretary Payton was the senior site 
systems integration manager for Martin Marietta, responsible 
for resolving complex acquisition and technical issues 
associated with systems analysis and trade studies of competing 
space and ground architectures, operations concepts, 
requirements definition, software test and transition to 
operations.
    Secretary Payton is a member of the Defense Science and 
Technology Advisory Group, Eastern Illinois University Alumni 
Association, and 2004 Alumni Award winner, a Gateway member of 
the Purdue University President's Council, and former board 
member of Women in Aerospace.
    Secretary Payton received a Bachelor of Science Degree from 
Eastern Illinois University, and a Master of Science in systems 
acquisition management/systems technology from the University 
of Southern California. She is a 1998 graduate of the Emory 
University executive business program.
    Mr. Chairman, Secretary Payton is clearly among the best 
and the brightest of this generation of public and private 
servants. I thank the committee for considering her nomination, 
and I look forward to a speedy confirmation process.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator Thune. I had 
the opportunity to visit with this distinguished nominee, and 
I'm sure that she appreciates, as I do, your commendation on 
her part.
    We now are joined by our distinguished colleague from 
Florida, Senator Martinez.

STATEMENT OF HON. MEL MARTINEZ, U.S. SENATOR FROM THE STATE OF 
                            FLORIDA

    Senator Martinez. Thank you very much, Mr. Chairman and 
Senator Levin. It's a pleasure to be with you here this 
morning. Thank you very much for recognizing me.
    I have the distinct honor and pleasure to be here today to 
introduce to the committee a good friend and a colleague, a 
Floridian and fellow Cuban-American. These are many things that 
unite us, Frank Jimenez, who has been nominated by the 
President to be the next General Counsel for the United States 
Navy.
    Frank Jimenez graduated with honors in 1987 from the 
University of Miami as a biology major. He received his law 
degree in 1991 from Yale Law School, and also received an MBA 
in 2005 from the Wharton School, at the University of 
Pennsylvania.
    Prior to entering public service, Frank practiced law in 
Miami with the law firm of Steel, Hector & Davis. For 6 years, 
he specialized in commercial litigation and criminal defense, 
including Federal class-action antitrust and product liability 
litigation, and representation of clients under Federal grand 
jury and government agency investigation.
    Previously, Mr. Jimenez served a 1-year clerkship in the 
chamber of Judge Rymer of the U.S. Court of Appeals for the 
Ninth Circuit, in Pasadena, California.
    Mr. Jimenez was admitted to the bars of Florida and the 
District of Columbia. Additionally, Frank served for nearly 4 
years in the executive office of Florida Governor Jeb Bush, 
beginning with his gubernatorial transition in 1998. For those 
2 years, Mr. Jimenez served as Deputy Chief of Staff, with 
oversight duties at various times for the Department of 
Transportation, business and professional regulation, 
environmental protection, community affairs, elder affairs and 
health, as well as the agency for workforce innovation in the 
Division of Emergency Management. Frank also served as my chief 
of staff at the United States Department of Housing and Urban 
Development (HUD) during my tenure as HUD Secretary. As my 
chief of staff, he helped manage more than 9,000 employees and 
an annual budget surpassing $35 billion. Frank also helped 
supervise HUD's many homeownership and affordable housing 
programs for low-income Americans, as well as programs 
supporting the homeless, elderly, people with disabilities, and 
people living with AIDS.
    As legal counsel for the DOD, Frank currently manages key 
litigation matters covering the entire Department, and 
coordinates with the White House Counsel's Office, the 
Department of Justice, and other agencies on pressing legal 
issues.
    Mr. Jimenez was most recently the Principal Deputy General 
Counsel for the Department of the Navy, where he managed over 
600 attorneys worldwide and oversaw the Naval Criminal 
Investigative Service.
    I want to thank Frank for his outstanding public service, 
for his friendship to me, and many accomplishments that I know 
he has had in the past and will continue to have in the future. 
I know that Frank will make an excellent person to serve in 
this very important capacity, Mr. Chairman, at a particularly 
difficult time in our Nation's history, when we face such 
challenges from the global war on terror.
    Frank is accompanied here today by his mother and brother, 
and both are wonderful people and good friends. He comes from a 
terrific family, well-respected folks in the South Florida 
community. His brother also has served this Nation as a U.S. 
attorney for the southern district of Florida for a number of 
years, now in private practice, as well.
    So, I'm just delighted to have the opportunity to present 
to you one of our outstanding Floridians, someone that I know 
will make the Nation proud in his new opportunity for service 
to the committee.
    Chairman Warner. Thank you very much, Senator.
    I've had the privilege of not only meeting extensively with 
the nominee yesterday, but knowing of his record, and he's 
well-deserving of the commendations that you've provided this 
morning.
    Senator Martinez. Thank you, Mr. Chairman.
    Chairman Warner. Thank you for your participation.
    Senator Martinez. Thank you.
    Chairman Warner. It is now time for the committee to speak 
to the nominees. I will submit my opening statement into the 
record, introducing our other nominees. I also submit the 
statement of my colleague, Senator Dole.
    [The prepared statements of Senator Warner and Senator Dole 
follow:]
               Prepared Statement by Senator John Warner
    I am pleased to have before the committee this morning eight 
distinguished individuals who have been nominated for the following 
positions of importance and responsibility within the Department of 
Defense (DOD) and the Department of Energy:

          Anita Blair to be the Assistant Secretary of the Air Force 
        for Manpower and Reserve Affairs;
          Benedict Cohen to be the General Counsel of the Department of 
        the Army;
          Frank Jimenez to be General Counsel of the Department of the 
        Navy;
          David Laufman to be Inspector General of the Department of 
        Defense;
          Charles McQueary to be Director of Operational Test and 
        Evaluation for the Department of Defense;
          Sue Payton to be Assistant Secretary of the Air Force for 
        Acquisition;
          William Tobey to be Deputy Administrator for Defense Nuclear 
        Nonproliferation in the National Nuclear Security 
        Administration; and
          Robert L. Wilkie to be Assistant Secretary of Defense for 
        Legislative Affairs.

    We are joined today by several colleagues who will introduce 
nominees to the committee.

          Senator Lott will introduce Mr. Wilkie;
          Senator Allen will introduce Ms. Blair;
          Senator Martinez will introduce Mr. Jimenez; and
          Senator Thune will introduce Ms. Payton.

    Additionally, former Congressman Christopher Cox of California, who 
served from 1989 through 2005 in the House of Representatives and 
currently serves as the Chairman of the Securities and Exchange 
Commission, joins us today and will introduce Mr. Cohen.
    Welcome to you all, and thank you for being with us today.
    We welcome all family members and guests, and thank you for the 
important support you provide to our nominees. They cannot succeed in 
these demanding positions without your help, as I'm sure they all 
recognize.
    David Laufman has been nominated to be the Inspector General of the 
Department of Defense. Mr. Laufman has served since March 2003 as 
Assistant U.S. Attorney for the Eastern District of Virginia where he 
has specialized in prosecution of terrorism and other national security 
cases. Mr. Laufman also served in the Department of Justice in the 
Office of Professional Responsibility and as Chief of Staff to Deputy 
Attorney General Larry Thompson from May 2001 through March 2003. Mr. 
Laufman has extensive experience in the legislative and executive 
branches of government, in ethics investigations, and in national 
security affairs.
    William Tobey currently serves as the Director of 
Counterproliferation Strategy on the National Security Council staff 
where his responsibilities include U.S. policy on missile defense and 
nonproliferation issues regarding Iran, North Korea, and Libya. Mr. 
Tobey has been a member of the U.S. Delegation to the Six-Party Talks 
during the last three rounds of negotiations, and has served as 
Director of Defense Policy and Arms Control on the National Security 
Council staff from 1986 to 1993.
    Dr. Charles E. McQueary has been nominated to be the Director of 
Operational Test and Evaluation of the Department of Defense. Dr. 
McQueary served as the Under Secretary of Science and Technology of the 
Department of Homeland Security from 2003 through March 2006, leading 
the Department's research and development efforts. Prior to his 
homeland security service, Dr. McQueary was President of General 
Dynamics Advanced Technology Systems and also as a Director for AT&T 
Bell Laboratories. Dr. McQueary, congratulations on your nomination, 
and thank you for your continued willingness to serve in this key DOD 
position.
                                 ______
                                 
              Prepared Statement by Senator Elizabeth Dole
    I would like to express my full support for the nomination of the 
Honorable Charles E. McQueary, of North Carolina, to be Director of 
Operational Test and Evaluation for the Department of Defense. As the 
former Senior Advisor to the Secretary for Science and Technology at 
the Department of Homeland Security, Dr. McQueary has the experience 
and qualifications necessary to fulfill this crucial role.
    In 2003, he was nominated by President George W. Bush and confirmed 
by the Senate to be Under Secretary for Science and Technology at the 
Department of Homeland Security. Prior to this, Dr. McQueary served as 
President of Lucent Technologies' and General Dynamics Advanced 
Technology Systems, and has held the position of Vice President of the 
Federal Systems Advanced Technology Division at AT&T. While at Bell 
Laboratories, he served as Director of the Undersea Systems Development 
Lab, headed the U.K.-based Field Operations Department, and ran the 
Marshall Islands-based Missile Operations Department for the Safeguard 
Antiballistic Missile Test Program. He earned his bachelor's degree, 
master's degree, and Ph.D. in engineering mechanics from the University 
of Texas, Austin, where he was a distinguished engineering graduate.
    I have been great friends with Dr. McQueary and his wife, Cheryl, 
for many years, and I am confident that he will fulfill this role with 
the utmost integrity. Charles McQueary is a most worthy nominee, and I 
look forward to joining the full Senate in quickly confirming his 
nomination.
    I would also like to express my full support for Robert L. Wilkie, 
of North Carolina, in his nomination to be Assistant Secretary of 
Defense for Legislative Affairs. Mr. Wilkie has a remarkable amount of 
experience in both legislative and military affairs that makes him an 
excellent nominee for this position.
    Robert Wilkie is the son of an Army Artillery Commander and grew up 
at Fort Sill and Fort Bragg. After graduating with honors from Wake 
Forest University and earning his Juris Doctor from Loyola University 
of the South, he was awarded a Masters of Law from Georgetown 
University. He is an honor graduate of the Reserve Intelligence 
Officer's Basic Course, a graduate of the College of Naval Command and 
Staff, as well as the Joint Forces Staff College. In 2002, he received 
his Masters in Strategic Studies from the United States Army War 
College.
    In addition to this extraordinary education, Mr. Wilkie has 
extensive legislative experience, having served as counsel and policy 
advisor to Senator Jesse Helms, as legislative director for Congressman 
David Funderburk, and as counsel and advisor on International Security 
Affairs to Senate Majority Leader Trent Lott. From 2003-2005, Mr. 
Wilkie was special assistant to the President for National Security 
Affairs and a senior director of the National Security Council, serving 
as a senior policy advisor to the President's Assistant for National 
Security Affairs. He developed strategic planning for the 
implementation of the Moscow Treaty, NATO Expansion, the Millennium 
Challenge Account, and Iraqi reconstruction. Mr. Wilkie currently 
serves as Principal Deputy Assistant Secretary for Legislative Affairs 
and is the acting Assistant Secretary of Defense for Legislative 
Affairs.
    Mr. Wilkie's military training only adds to his already impressive 
resume. He is an intelligence officer in the United States Navy 
Reserve, and was named the Office of Naval Intelligence Junior 
Intelligence Officer (Reserve) of the year in 2004. He previously 
served with Atlantic Intelligence Command, Joint Forces Intelligence 
Command, and Naval Special Warfare Group Two. As a current division 
officer in the Maritime Threat Targeting Department at the Office of 
Naval Intelligence, Mr. Wilkie has the qualifications that make him an 
outstanding candidate for this position. I look forward to the 
confirmation of Robert Wilkie as Assistant Secretary of Defense for 
Legislative Affairs.

    Chairman Warner. Do you have a comment or two, Senator?
    Senator Levin. I have no comment, other than to welcome 
them and their families, who are so important to their success. 
I thank the nominees for their commitment to public service, as 
well as their family's commitment to public service.
    Chairman Warner. The committee has asked all of our 
nominees, as we do with each nominee coming before the 
committee, to answer a series of advance policy questions. The 
nominees have responded to those questions. Without objection, 
those responses will be made a part of today's record.
    I also have certain standard questions that the chairman of 
this committee, for as long as I've been on the committee--
Senator Levin and I have been here for 28 years on this 
committee--and we ask these questions of each nominee. If you 
all, as a group, would indicate your responses. If anyone 
wishes to be singled out for recognition, please raise your 
hand, and I'll be glad to recognize you to clarify the question 
or clarify your response.
    First, have each of you adhered to the applicable laws and 
regulations governing conflicts of interest? [A chorus of 
affirmative responses.]
    Let the record show that all responded affirmatively.
    Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of the confirmation 
process? [No response.]
    No nominee has indicated to the contrary.
    Will you ensure that your staff--if confirmed and placed in 
office, those staff under your supervision comply with the 
deadlines established for requested communications, including 
questions for the record in hearings? [A chorus of affirmative 
responses.]
    Again, all have agreed in the affirmative.
    Will you cooperate in providing witnesses and briefers in 
response to congressional requests? [A chorus of affirmative 
responses.]
    All have indicated affirmatively.
    Do you agree, if confirmed, to appear and testify, upon 
request, before this committee? [A chorus of affirmative 
responses.]
    All have indicated in the affirmative.
    Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner when 
requested by a duly constituted committee, or to consult with 
the committee regarding the basis for any good-faith delay or 
denial in providing such documents? [A chorus of affirmative 
responses.]
    All, likewise, approved it.
    Now, we will go to each nominee for such opening statements 
as they would like to make. When I recognize you, I would 
appreciate very much if you would introduce the members of the 
family that have come with you today.
    May I say that I look back some 37 years ago, when I sat at 
a table and introduced my family at the time I was nominated to 
join the Navy Secretariat. I recall that my children could not 
reach the floor with their legs. Today, they're in their 40s. 
Time passes, but my children, to this day, remember joining me 
for this very important moment in your public service careers.
    So, according to the roster that's before me for purposes 
of recognition, we'll start with Ms. Blair.

 STATEMENT OF ANITA K. BLAIR, TO BE ASSISTANT SECRETARY OF THE 
           AIR FORCE FOR MANPOWER AND RESERVE AFFAIRS

    Ms. Blair. Good morning. Mr. Chairman, Ranking Member 
Levin, members of the committee, it is the honor of a lifetime 
to appear before you today as the nominee for Assistant 
Secretary of the Air Force for Manpower and Reserve Affairs. It 
is also an honor, and I'm very grateful to Senator Allen, for 
his very kind and gracious introduction this morning. I'm also 
grateful to the President, to the Secretary of Defense, and to 
the Secretary of the Air Force for their support and confidence 
in recommending me for this position. Knowing how many 
difficult and important matters you and they deal with every 
day, I am truly humbled by your consideration.
    If you will permit me, I would like to introduce my 
husband, Doug Welty, whom Senator Allen also recognized. We 
did, indeed, meet at the University of Virginia Law School, and 
did, indeed, practice law together. It's customary, Mr. 
Chairman, to state that your spouse is the true source of all 
your success, but I'm very delighted this morning to have some 
other people who are responsible for my success. A few members 
of my staff were able to come, and I would like to also thank 
them for taking time out of what I know is a busy day.
    Remembering my parents, too, who are not with us anymore, 
but, back in World War II, they were a young Army Air Corps 
family.
    It's been a great privilege to serve in the Department of 
the Navy since shortly before September 11. I've personally 
witnessed the efforts and sacrifices made by our sailors, 
marines, families, and civilian workers, and I would like to 
thank this committee for all you have done to assist them in 
the great struggles they endure. If confirmed, I pledge that 
their example will be my standard in devoting my all to serving 
the people of the Air Force.
    I have felt privileged to be part of the great enterprise 
of transforming the naval services so that they can achieve 
their highest and best purpose for America in the 21st century. 
The members of the Air Force Service family--Active, Reserve, 
Guard, families, and civilians--have impressed me with their 
dedication to integrity, service, and excellence. If confirmed, 
I will be honored to work alongside and for these fine people.
    I look forward to answering your questions, and I hope to 
continue in frequent dialogue and discussion with this 
committee as issues and challenges arise.
    Thank you, again, for your consideration.
    Chairman Warner. Thank you. Would you kindly introduce such 
family members as you have?
    Ms. Blair. Oh.
    Chairman Warner. There he is. What year did you graduate 
from University of Virginia Law School?
    Mr. Welty. 1982, Senator.
    Chairman Warner. 1982. Well, I preceded you, 1953. 
[Laughter.]
    Ms. Blair. Senator, I'd like to remind you that he did 
serve in the Navy during the halcyon years encompassing your 
tenure as Secretary, as well.
    Chairman Warner. Oh. Nomination confirmed. [Laughter.]
    Ms. Blair. Thanks.
    Chairman Warner. Thank you very much for that opportunity.
    Now we'll have Mr. Cohen.

 STATEMENT OF BENEDICT S. COHEN, TO BE GENERAL COUNSEL OF THE 
                     DEPARTMENT OF THE NAVY

    Mr. Cohen. Thank you, Mr. Chairman.
    Mr. Chairman, Senator Levin, and members of the committee, 
it's an honor to appear before you today as the President's 
nominee for General Counsel of the Army.
    I'd like to start, if I could, by introducing my family.
    Chairman Warner. Yes, indeed.
    Mr. Cohen. My wife, Julie, my son, Paul----
    Chairman Warner. Would you kindly stand? We all wish to see 
these folks.
    Mr. Cohen. My wife, Julie; my son, Paul, age 9; my 
daughter, Mary, age 7; and my father-in-law, Bob Gutman, 
veteran of the Somerset Light Infantry and a former Senate 
staffer. Unfortunately, my father, Harold Cohen, who's a 
veteran of the Army Air Corps, couldn't be here today.
    Chairman Warner. We talked about your father yesterday and 
what an interesting career he had in the Army Air Corps. It's 
remarkable.
    Mr. Cohen. Thank you, sir.
    Chairman Warner. So, you've very privileged to have had 
that heritage, and you bring his experience and wisdom to the 
task before you.
    Mr. Cohen. Thank you very much, sir.
    I'd like to thank the President for nominating me for this 
position, and the Secretary for his confidence and support. I'd 
like to thank Chairman Cox for his generous remarks, and for 
the opportunity to work for him for all those many years. I'd 
also like to thank this committee for all that you all have 
done over the years for our men and women of our Armed Forces.
    If confirmed, I look forward to working with the committee 
on the many challenges that are confronting the Army. The Army 
continues its historic transformation to address the issues of 
the 21st century while fighting a long war against terrorism in 
multiple theaters. The legal dimensions of these challenges are 
as complex as any that have ever confronted Army lawyers. If 
confirmed, I want to assure the committee that I will devote 
every effort to address these challenges with humility and 
determination, and with the knowledge that the Army's military 
and civilian attorneys are the finest in the world. It would be 
the greatest honor of my career to have the opportunity to 
serve with these magnificent professionals.
    Finally, I'd like to thank my wife and children for their 
support as I pursue a return to DOD, having already completed 
some 20 years of Federal service. I'm more grateful to them 
than I could ever say for their love and support of my career 
in public service.
    Thank you very much, Mr. Chairman.
    Chairman Warner. Thank you very much, Mr. Cohen.
    We'll have Mr. Jimenez.

  STATEMENT OF FRANK R. JIMENEZ, TO BE GENERAL COUNSEL OF THE 
                     DEPARTMENT OF THE NAVY

    Mr. Jimenez. Good morning, Mr. Chairman, Senator Levin.
    As Senator Martinez mentioned, with me today are my mother, 
Daisy Jimenez, and my brother, Marcos Jimenez. My father, Frank 
Jimenez, cannot be with us today. He's home in Miami.
    It is a distinct honor to appear before you for possible 
confirmation as the 21st General Counsel of the Department of 
the Navy. I thank you, Mr. Chairman, Senator Levin, the members 
of the committee, and staff, for your many courtesies to me and 
for your service to this Nation.
    I would not be here today but for the trust placed in me by 
President Bush and Secretaries Rumsfeld, England, and Winter. I 
have pledged to them--as I now pledge to you--that I will do 
everything in my power, if confirmed, to justify both their 
trust and yours.
    Since the Continental Congress, our Armed Forces have stood 
in the breach to make possible the liberties we enjoy today. 
Their sacrifice is no less indispensable in today's fight 
against tyranny than it was in securing our independence from 
it over 200 years ago. This great sacrifice gives rise to a 
reciprocal moral obligation. But mine is not only a commitment 
to our Nation's finest; above all, it is a pledge to a country 
that has given so generously to my family.
    My parents left the oppression of Castro's Cuba in 1961 so 
that my older brother, then just a year old, could breathe the 
air of freedom. With no college education they came carrying 
all their possessions in hand. Less than a generation later, 
one son has been confirmed by the Senate as a U.S. attorney, 
and the other appears before you now. My grateful family is a 
living embodiment of America's promise.
    Mr. Chairman, if confirmed, I pledge to work closely with 
you and this committee to support and promote the outstanding 
men and women of the U.S. Navy and Marine Corps.
    Thank you very much.
    Chairman Warner. That's a very moving statement you made, 
in acknowledging what this country has provided for you and 
your family, and the opportunity it gives others. Those remarks 
come on a morning in which the world sees a new and extensive 
chapter of violence, and it's important that we be ever mindful 
of the blessings that our country have while we watch the 
suffering of others.
    Mr. Jimenez. I agree. Thank you, Mr. Chairman.
    Chairman Warner. Thank you.
    We'll now have Mr. Laufman.

    STATEMENT OF DAVID H. LAUFMAN, TO BE INSPECTOR GENERAL, 
                     DEPARTMENT OF DEFENSE

    Mr. Laufman. Thank you, Chairman Warner, Senator Levin, and 
distinguished members of this committee. I'm honored to appear 
before you today as the President's nominee to be Inspector 
General (IG) of DOD. I thank President Bush and Secretary 
Rumsfeld for their confidence in me and their commitment to 
effective oversight of DOD. I also thank members of the 
committee and their staff for the courtesies you have extended 
to me and for the outstanding work that you do on behalf of the 
men and women of the Armed Forces and the taxpayers of our 
Nation.
    With me today are my wife, Judy, also a public servant at 
the Department of the Treasury, and my sons, Adam and Michael. 
Also with me today is my brother, Gary. I'd like to thank them 
for their love and support. Their love and support have been 
essential to my ability to pursue a career in public service, 
and I'm indebted to them for the sacrifices they have made over 
the years. With me, also, Mr. Chairman, is my mother, Nora 
Laufman, of Houston, Texas, my hometown. No one approaches life 
each day with greater vitality or curiosity, and she continues 
to inspire me as she nears her eighth decade.
    Chairman Warner. If I might add a personal note, my mother 
lived to be 94, and while I was here in the Senate I would get 
calls in the course of the day to tell me exactly what I was 
doing right and occasionally what I was doing wrong. 
[Laughter.]
    Thank you, Mother, for joining us. That's very important.
    Please continue.
    Mr. Laufman. Thank you, Senator.
    Finally, Senator, I'd like to recognize my late father, 
Herbert Laufman. Over 60 years ago today, my father flew more 
than 60 combat missions over Nazi-occupied Europe, including 
missions on the morning of D-Day, as the bombadier navigator of 
a Martin Marauder B-26. For his excellence and valor, he was 
awarded the Distinguished Flying Cross, the Air Medal, and 
numerous oakleaf clusters. How proud I am to be his son, and 
how proud he would be regarding today's events.
    Today, our country faces global challenges to its security 
that my father's generation could not have anticipated. At the 
forefront of meeting those challenges is DOD. The IG plays an 
essential role in maximizing the effectiveness of the 
Department. The IG is responsible for the oversight of the 
Department's programs and operations, and for preventing and 
detecting fraud, waste, and abuse. If confirmed, I pledge to 
you that the IG's office will demonstrate a commitment to 
excellence befitting the importance of its responsibilities. We 
will conduct rigorous audits to ensure that Department programs 
and operations are carried out efficiently and in full 
compliance with the law. Where investigations are appropriate, 
the IG's office will aggressively pursue the facts, wherever 
they take us, and report our findings and recommendations 
without fear or favor.
    We will pursue our mission with uncompromising independence 
while working together constructively with the leadership of 
this Department and the members of this committee. We will take 
all appropriate measures to ensure that any individuals who 
violate the law or abuse their positions of trust are held 
fully accountable for their actions.
    These are extraordinary times, and we have enormous 
challenges before us. If confirmed, I look forward to working 
with all of you to meet those challenges.
    Thank you very much.
    Chairman Warner. Thank you very much for that opening 
statement, and particularly the reference to your father. I 
think he was part of what Tom Brokaw said, I think, very ably, 
``The Greatest Generation.''
    Mr. Laufman. Thank you, sir.
    Chairman Warner. Now, we'll have Ms. Payton.

 STATEMENT OF SUE C. PAYTON, TO BE ASSISTANT SECRETARY OF THE 
                   AIR FORCE FOR ACQUISITION

    Ms. Payton. Thank you, Chairman Warner, Ranking Member 
Levin, and members of the committee, for the opportunity to be 
here today. Senator Thune, I'd like to thank you very much for 
that very kind introduction.
    I'd also like to thank the members of my family who have 
joined me here today, my husband, Gary, of 34 years, a Space 
Shuttle crew astronaut and an Air Force pilot for 23 years. Our 
daughter, Courtney Callen, has joined us, from Navarre, 
Florida, after 1 week under her belt as a new information 
technology (IT) specialist with Eglin Air Force Base, starting 
her first week in government service. I'm very proud also of my 
son-in-law, Thomas Callen II, a captain in the Air Force, C-5 
pilot, and instructor-in-training at Whiting Naval Air Station. 
My twin brother, Tom Campbell, has joined me, as well, from 
Wheeling, Illinois, a retired third-grade teacher and member of 
the Illinois Army National Guard. When you accumulate all the 
service to our country, we have over 40 years, just in the 
group here, not to mention my father, who served in World War 
II, and a brother who has also served in the Air Force.
    It is the greatest honor of my professional career to 
appear before you as President Bush's nominee to serve as the 
Assistant Secretary of the Air Force for Acquisition. I am 
grateful to Defense Secretary Rumsfeld, Under Secretary of 
Defense Krieg, and Air Force Secretary Wynne for their support 
and confidence in recommending me for this position.
    I'd like to also sincerely thank the members of this 
committee for the crucial leadership and support provided me 
and my team in Advanced Systems and Concepts since September 
2001 as we accelerated the fielding of much-needed joint and 
coalition military capabilities to fight terrorists worldwide.
    My career has spanned both private and public sectors, 
including 17 years of acquisition experience in the Defense 
industry and almost 5 years as the Deputy Under Secretary of 
Defense for Advanced Systems and Concepts. This has given me a 
very valuable and unique range of experiences. But whether in 
the public sector or the private sector, my guiding principles 
regarding acquisition have always been the same: you must 
mandate the highest integrity in all aspects of the process; 
you must drive acquisition, based on customer need, to achieve 
mission success; you must provide the programmatic structure 
that allows success by linking accountability, responsibility, 
and authority; and you must prioritize your investment based on 
progress toward goals.
    Our customers, the warfighters, taxpayers, the families 
whose loved ones go into harm's way, expect our acquisition 
community to deliver the capabilities needed to defend America 
and protect our national security not only today, but into the 
future. Delivery of these capabilities must be done with 
transparency, due diligence, and taxpayer value as the highest 
priority. To ensure the American people stay informed, we must 
make sure that all their Members of Congress, including this 
committee, are well informed of our efforts.
    Mr. Chairman, thank you, again, for the opportunity to 
appear before you today. I look forward to your questions. If 
confirmed, I look forward to continued close working 
relationships with Congress while leading the outstanding men 
and women of Air Force acquisition.
    Chairman Warner. Thank you very much and, indeed, all of us 
are deeply touched by the contributions of your families for 
generations in the support of freedom in this country. Thank 
you.
    Mr. Tobey.

 STATEMENT OF WILLIAM H. TOBEY, TO BE DEPUTY ADMINISTRATOR FOR 
  DEFENSE NUCLEAR NONPROLIFERATION, NATIONAL NUCLEAR SECURITY 
                         ADMINISTRATION

    Mr. Tobey. Thank you, Mr. Chairman.
    I very much appreciate the opportunity to introduce my 
family, because, as Senator Levin observed, their support makes 
my public service possible; therefore, I'm grateful for that.
    With me today are my wife, Elizabeth Tobey, our daughters, 
Emma and Beatrix, and my wife's parents, the Reverend LeRoy 
Ness, who served for 25 years on active duty and retired as an 
Army Chaplain, and his wife, Evelyn Ness, who has been a strong 
supporter of the National Military Family Association.
    Mr. Chairman, Senator Levin, and members of the committee, 
I'm honored to be considered as the President's nominee for 
Deputy Administrator for Defense Nuclear Nonproliferation in 
the National Nuclear Security Administration. I am grateful to 
the President, Secretary Bodman, and Ambassador Brooks for the 
confidence they have placed in me. I would also like to thank 
the members of this committee for your strong support for U.S. 
nonproliferation efforts.
    I am thrilled by the prospect, if confirmed, of leading 
programs that are among the most critical to U.S. national 
security, and humbled by the importance of the task. I have 
always been drawn to issues at the heart of U.S. national 
security, and preventing the proliferation of nuclear weapons 
and material is foremost among them. I believe that my service 
on the National Security Council staff in the Reagan, Bush-41, 
and current administrations dealing with international 
negotiations, defense programs, and nonproliferation, as well 
as my private-sector management experience, have prepared me to 
meet the challenges of the position.
    Over the past several months, I have come to know better 
the people working in the Office of Defense Nuclear 
Nonproliferation and found them to be smart, dedicated, and 
selfless. They work tirelessly to stop proliferation of nuclear 
material and bring to the task unmatched experience and 
expertise. Many spend weeks a year away from their families. 
They work in far-flung places around the world, some where 
conditions are demanding, from Russia's Siberia to Libya's 
desert. They work to secure the materials, expertise, and 
technology that might be used by terrorists against the United 
States and our allies. In short, they prevent threats before 
they reach our shores. They are among those on the front line 
of our global nonproliferation efforts. They implement the 
programs that Congress authorizes and that, if confirmed, I 
will work hard to ensure remain successful.
    If confirmed, I intend to focus on meeting the goals of the 
Bratislava initiative on time, ensuring that effective 
management of nonproliferation programs continues, enabling us 
to secure or dispose of as much material as possible, as soon 
as possible, and ensuring that our strategy keeps pace with the 
evolving proliferation threats, and that our programs reflect 
the most effective strategy we can devise.
    I look forward to working with members of the committee and 
its staff, the National Security Council, and other departments 
and agencies to ensure that we have a well-coordinated plan of 
action. I commit that, if confirmed, I will continue to work 
day and night to ensure that U.S. nonproliferation programs are 
effective and responsive to the urgent threats that we face.
    Thank you.
    Chairman Warner. Thank you, Mr. Tobey. Again, as I reviewed 
with you yesterday, your distinguished career, you're eminently 
qualified for this position, and we thank you for bringing your 
family to join us here this morning. I take note that your 
wife, once upon a time, was a member of my staff and 
contributed greatly at that time, as she continues to support 
you as you take on these challenges. We thank you, Chaplain, 
for your long service to our country.
    Mr. Tobey. Thank you, Senator.
    Chairman Warner. Now, Mr. Wilkie.

  STATEMENT OF ROBERT L. WILKIE, TO BE ASSISTANT SECRETARY OF 
                DEFENSE FOR LEGISLATIVE AFFAIRS

    Mr. Wilkie. Thank you, Mr. Chairman and distinguished 
members of the committee. I do want to thank you for your 
courtesy and kind consideration in the weeks leading up to this 
hearing.
    I would like to introduce, first, my wife, Julie. We've 
known each other since we were high school students back in 
Fayetteville, North Carolina--and she is also a former member 
of the Senate family--and my dearest friend and mother to our 
two little children, Adam and Megan. Also with me is my 
brother, Douglas, and my brother-in-law, Steven Harman.
    I also wish to thank Senator Lott for his courtesy and his 
friendship. I was privileged to be part of Senator Lott's 
family--the Senate family for 6 years, and if anyone questions 
whether people in Washington have an impact on the day-to-day 
lives of Americans, then all that person has to do is go down 
to the Mississippi Gulf Coast and see what Senator Lott means 
to the people recovering from the tragedy of Hurricane Katrina.
    Mr. Chairman, if you would permit me, I would also like to 
acknowledge someone who is not here, that is Senator Jesse 
Helms. I first saw Senator Helms in person back in 1976, when 
he was escorting a former Governor of California around 
southeastern North Carolina prior to the presidential primary 
that year. Ronald Reagan won that primary, due, in large part, 
to Senator Helms. Twelve years later, I was privileged to join 
his staff in this very Dirksen Senate Office building and learn 
many of the lessons that had been passed down to him from his 
mentors, Sam Irvin and Richard Russell. He is one of the great 
gentlemen of this body.
    So, from those remarks, Mr. Chairman, it's pretty clear 
that I am a product of this Senate, having spent 14 of my 18 
years in professional life here. I'm versed in its traditions 
and its histories and the unique responsibilities that this 
committee has for the oversight of DOD.
    There is also a second strain flowing in my life, and that 
is the Armed Forces of the United States. My very first 
childhood memories are of watching the artillery half-section 
roll across the old post parade ground at Fort Sill. My great-
grandfather was a battery commander in the 82nd Infantry 
Division. My grandfather ran convoys in the North Atlantic. I 
grew up watching the 82nd Airborne as a teenager.
    My own military service has been modest compared to those 
of my ancestors, but the constant has been the privilege of 
serving with the men and women who stand vigil for freedom. 
That is why this nomination has particular meaning for me. If 
confirmed, it is another way to serve with and for those who do 
so much for our Nation.
    Again, I thank you very much for your courtesy and look 
forward to your questions, sir.
    Chairman Warner. We thank you, Mr. Wilkie, for first your 
mention of Senator Helms. We knew him well, and I particularly 
recall many moments of working with him in this institution. He 
was a teacher. I may not have always agreed with him, but he 
was a remarkable teacher with a grasp of the rules of the 
Senate. He had a love for the Senate. We wish him well in these 
days.
    Thank you for your family who have joined us here this 
morning, and your reference to your ancestors. Like you, my 
career in the military is very modest compared to that of my 
father and his forefathers, but aren't we fortunate to have, in 
our respective careers and challenges in life, that background 
to live with?
    Now, Dr. McQueary, somehow the papers got mixed up here 
this morning, and there were so many people that jumped in and 
out of that seat in the course of the morning that I failed to 
give you the due recognition that you deserve at the head of 
the line. But now you can take all the time you wish. 
[Laughter.]

   STATEMENT OF HON. CHARLES E. McQUEARY, TO BE DIRECTOR OF 
     OPERATIONAL TEST AND EVALUATION, DEPARTMENT OF DEFENSE

    Dr. McQueary. You're very kind, sir. Thank you very much.
    If I may, I would like to introduce first my wife and 
partner of 34 years, Cheryl. She has been my mainstay for that 
time period, and has been, really, a major influence in my 
career in helping me at every step along the way. She, too, is 
engaged in public service, working at the U.S. Department of 
Agriculture, currently. So, thank you very much for the 
opportunity to be able to recognize her.
    Chairman Warner. Well, we thank you for joining us.
    Dr. McQueary. Mr. Chairman, Senator Levin, other 
distinguished members of the committee, it is an honor and a 
privilege for me to appear before you today as the President's 
nominee to be the Director of Operational Test and Evaluation 
(OT&E) in DOD. I thank the President, Secretary Rumsfeld, and 
Deputy Secretary England for their confidence and support in 
nominating me for this position. If confirmed, I look forward 
to serving my country again, after having served 3 years as the 
Under Secretary for Science and Technology in the Department of 
Homeland Security. In fact, Senator McCain was the chair of the 
committee that I appeared before, when I was considered for 
that position previously. Sir, it's good to see you again.
    If confirmed, I look forward to working with this committee 
and other Members of Congress to ensure that the weapons and 
the equipment we deliver to the men and women in the armed 
services are adequately tested, operationally effective, 
suitable for use, and survivable in the operational conditions 
they encounter. The role of the director and the OT&E team is 
to be the strongest of advocates for the men and women in our 
Services through Congress and the Secretary of Defense.
    Mr. Chairman, I thank you for the opportunity to appear 
before you today. Thank you very much.
    Chairman Warner. Thank you very much, and, again, for your 
family joining us.
    Dr. McQueary. Thank you.
    Chairman Warner. I'm going to allow Senator Levin to 
initiate the questions, but, before doing so, I'd like to call 
on my colleagues, if they have any opening comments or other 
observations.
    Senator McCain?
    Senator McCain. No, sir.
    Chairman Warner. Senator Reed? Senator Nelson?
    Senator Bill Nelson. I look forward to the questions.
    Chairman Warner. Thank you.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    Dr. McQueary, the position that you are being considered 
for was created by Congress to be an independent voice on the 
effectiveness of military systems, and an unbiased judge of the 
results of testing of systems. What are your views about the 
independence of your position and your obligation to speak 
freely to Congress, especially in the face of pressures to 
stifle bad news about acquisition systems, when there is such 
news?
    Dr. McQueary. I believe that's a very essential ingredient 
of the position that was created by Congress in 1983. In fact, 
for it to be effective, I think the reporting relationship 
we've established is appropriate: advisor to the Secretary of 
Defense and direct reporting to Congress. I am prepared to do 
that in the most effective way that I possibly can, based upon 
my skills.
    Senator Levin. Dr. McQueary, the U.S. began deploying a 
Ground-Based Midcourse Ballistic Defense System back in 2004. 
It has not yet had a successful intercept test, and it has had 
no operational testing. So, we have begun to deploy an 
extraordinarily complex multibillion-dollar system without 
being sure that it is going to work. Will you ensure, if 
confirmed, adequate testing of the Ground-Based Midcourse 
Defense System, including operational testing, in order to make 
a determination as to whether the system is operationally-
effective and suitable for combat? Will you convey that 
determination to Congress?
    Dr. McQueary. I certainly will assume the role of oversight 
responsibility. As I understand it--and I have only been 
reading material for about 2 weeks--as I understand it, the 
Missile Defense System was set up separately from the normal 
design and development programs; and, therefore, the director 
of the Missile Defense organization has full responsibility for 
the operational test, up to and to the point of where equipment 
is delivered to the end-user. The role that the Director of 
OT&E has, as I understand it, is to provide oversight and 
provide reports to Congress, and I certainly will do everything 
that is called out statutorily for me to do.
    Senator Levin. Thank you.
    Ms. Blair, back, I guess, 6 or 7 years ago, you served as 
chairman of the Congressional Commission on Military Training 
and Gender-Related Issues. The majority of the commissioners 
voted to recommend that each Service should be allowed to 
conduct basic training in accordance with its current policies. 
You opposed that recommendation, apparently, citing evidence 
that gender-separate training produces superior results. The 
Air Force, as well as the Army and the Navy, have continued to 
use gender-integrated training for military specialties. In 
response to a pre-hearing policy question on this subject, you 
stated only that ``the Services should not stand still, but 
continually re-examine assumptions and seek out better ways to 
accomplish their training mission.''
    If confirmed, is it your intent to reopen the long-resolved 
issue of gender-integrated training in the Air Force?
    Ms. Blair. Thank you for that question, Senator.
    If confirmed, I have no intention to do anything but allow 
the Services to improve training, as they see fit, to meet 
their mission. Currently, in the Department of the Navy, the 
Navy conducts gender-integrated training. The Marine Corps 
conducts gender-separate training. They report that it is 
successful, they're satisfied, and it's meeting the mission. My 
sole interest is in meeting the mission. So, I will be guided 
by the opinions of the experts who are running the training 
programs as to what ways they may want to pursue to attempt to 
improve their training.
    Senator Levin. Now, you're also, I believe, not only a 
member of two organizations that have taken a strong position 
against gender-integrated training, but you also have 
indicated, I believe, in your response to our questionnaire, 
that, if confirmed, you're going to remain a member of those 
organizations, the Independent Women's Forum and the Eagle 
Forum. Are you aware of the positions of those two 
organizations?
    Let me, for instance, read you an issue paper of the Eagle 
Forum. It's titled ``The Feminists Continue Their War Against 
Men.'' It includes a section titled, ``Equality or Feminization 
of our Military,'' and says the following, ``President Bill 
Clinton made clear his disdain for our military, but the 
Clintonista Feminazis were more focused. They were determined 
to give us a gender-neutral military, or, as one of their 
spokespersons put it, an ungendered military.''
    Do you agree with the statements made on the Web sites of 
those two organizations?
    Ms. Blair. Senator, I am not sure what all the statements 
of those organizations are. I would hasten to mention that--
neither one is a membership organization, in the sense that 
anybody who may--one pays dues or is apt to be eliminated if 
one doesn't agree with everything that they say. I think, as 
public policy organizations, they have something to add to the 
mix. In my current position, I seek to be guided by the 
requirements of the law, the established policy. I would not be 
here today, I would not have accepted the job of Deputy 
Assistant Secretary of the Navy, if I had any unwillingness to 
set aside any personal opinions or preferences that I might 
have in favor of executing the law. Part of executing my job 
well, I believe, is soliciting opinions and views from a wide 
range of sources.
    Senator Levin. What about the statement I read? What's your 
reaction to that?
    Ms. Blair. I'm trying to recall it, Senator. I'm sorry----
    Senator Levin. ``President Bill Clinton made clear his 
disdain for our military, but the Clintonista Feminazis were 
more focused. They were determined to give us a gender-neutral 
military, or, as one of their spokespersons put it, an 
ungendered military.''
    Ms. Blair. Yes, it's a pretty rhetorical statement, I 
think. I don't know which individuals they may be referring to 
or anything. I think it's a rhetorical and exaggerated 
statement.
    Senator Levin. How about this other statement, made in that 
same paper of the Eagle Forum, ``Adopting coed basic training 
for all the Services except the Marines lowered the standards 
to the physical capabilities of women. The result is a 
breakdown of military discipline and a dramatic coarsening of 
women, and of men's treatment of women. This has caused a 
critical diversion of time and energy away from the essential 
task of teaching men to be soldiers and to dealing with the 
obvious problems caused by the powerful factor of sex in a 
wartime environment.''
    Ms. Blair. Senator, I suspect that those comments may have 
been made when the gender-integrated training was somewhat 
novel and people were still working through a lot of problems. 
I believe that today the conduct of gender-integrated basic 
training is much improved from the time that they may be 
referring to.
    Senator Levin. Basically, then, you don't have a reaction 
that you disagree or agree with these statements?
    Ms. Blair. It's hard to agree or disagree, because I find 
them, kind of, argumentative and rhetorical. If there were 
facts--it would be easier to say I agree or disagree with a 
fact, but I believe that they were making an argument using 
rhetoric, and I take it for what it is.
    Senator Levin. So do I.
    Ms. Blair. Yes. I do, sir. I emphasize----
    Senator Levin. Offensive.
    Ms. Blair.--well----
    Senator Levin. I take it for what it is, too. Offensive. 
But I'll leave it there. You're the one who is here, not me. I 
don't want to cut you off, though, if you wanted to add 
anything to that.
    Ms. Blair. Sir, that the way I do my job is by putting 
aside any kind of personal opinions or preferences, and, 
instead, looking at what the law is, what the policy is, and 
executing it to the best of my ability.
    Senator Levin. Thank you.
    Mr. Cohen and Mr. Jimenez, last week we had a hearing on 
military commissions with the judge advocates general of each 
of the Services, some active and some retired here as 
witnesses. Each of them testified that we should not authorize, 
through legislation, the military commission process and 
procedures that the administration had previously adopted, and 
that the Supreme Court struck down. Do you agree with the judge 
advocates general on that specific point?
    Mr. Cohen. Thank you, Senator.
    I reviewed the testimony that the judge advocates general 
offered last week, and it seemed to me to be consistent with 
the approach that the President has outlined of wanting to work 
with Congress to reach a middle ground that would command 
congressional support and enable us to legislate, to authorize, 
a judicially supportable system of military justice for these 
terrorists.
    Senator Levin. On that one point, when I asked each of the 
six of them, very specifically, ``do you believe we should 
simply ratify the procedures that were put in place by the 
military commissions, which the administration had set up and 
which were struck down by the Supreme Court?'' Each one 
answered that question, ``we should not ratify those 
procedures.''
    Chairman Warner. Your question, does that suggest that we 
exclude any reference to the Uniform Code of Military Justice 
(UCMJ)? It would just be that one segment?
    Senator Levin. I'm just asking whether they agree with 
their testimony on that specific point, that we should not 
simply ratify the military commissions as set up by the 
administration, and which were considered by the Supreme Court. 
Each one said we should not simply ratify the commissions and 
their procedures as existed prior to the Supreme Court opinion.
    I'm wondering whether you agree with the position that each 
of the six took.
    Mr. Cohen. Senator, this is not an area of law with which I 
am familiar. I've read the Hamdan decision. I read the 
testimony offered to the Judiciary Committee and the Armed 
Services Committees last week. But it's a complicated area, and 
one in which I confess I haven't formed a final, or in any way, 
definitive view.
    Senator Levin. Okay.
    Mr. Jimenez?
    Mr. Jimenez. Senator Levin, I agree with that testimony. 
The Supreme Court has spoken. They've made it clear that they 
want Congress now to speak. There is a strong role for Congress 
in this process. I think that Congress should bring its 
independent voice to this question. I do think that there is a 
middle ground to be reached here of providing fair process to 
those detained, while taking into account the exigencies of 
warfare and the circumstances under which these individuals 
have been captured and detained.
    Senator Levin. Okay.
    For each of you, do you agree that cruel, inhuman, or 
degrading treatment or punishment of detainees in U.S. custody 
is prohibited in all places and at all times?
    Mr. Cohen.
    Mr. Cohen. Yes, Senator, I believe that that's the 
requirement of the Detainee Treatment Act.
    Senator Levin. All places, all times, no matter who the 
government employee or agent is?
    Mr. Cohen. Senator, I can't claim to be an expert on the 
Detainee Treatment Act, but I believe that's a summary of its 
terms.
    Senator Levin. Mr. Jimenez.
    Mr. Jimenez. Unequivocally, yes.
    Senator Levin. Thank you.
    Mr. Chairman, I know there are others waiting to ask 
questions. I will pick up from there when I have another round.
    Chairman Warner. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I want to congratulate the nominees and express my 
appreciation for their willingness to serve our country. I 
believe they're all highly qualified.
    Ms. Payton, right now we have several Air Force programs 
that are over cost and behind schedule. Are you aware of those 
programs?
    Ms. Payton. Senator McCain, yes, I am aware of the 
programs.
    Senator McCain. Do you think that we're going to be able to 
afford this continued cost escalation and reduction in numbers 
which is caused by the cost overruns and delays?
    Ms. Payton. No, sir, I do not believe that we will be able 
to afford this.
    Senator McCain. Are you familiar with the C-130J program? 
This committee uncovered that it was being conducted under a 
provision of the law which applied to small startup companies 
so that they wouldn't have to be burdened with paperwork and 
other obstacles that major corporations have to undergo. Are 
you familiar with that aspect of the C-130J program?
    Ms. Payton. No, sir, I am not intimately familiar. The only 
thing I have done is read, in the paper, instances of this.
    Senator McCain. Well, let me tell you what happened. In 
testimony before this committee, the Air Force testified that 
they would change that contract, because it was never intended 
to apply. Several months later, my staff, examining the 
contract, found out that, indeed, it hadn't been changed. In 
fact, hardly at all.
    I guess my point is, Ms. Payton, I think that the 
acquisition throughout DOD, but particularly in the Air Force, 
is in great disarray. Nine of the 11 major weapons systems last 
year were behind schedule and over cost, and received incentive 
bonuses. Most of my constituents don't quite understand that. 
There's a great question now arising about the affordability of 
both the F-22 and the Joint Strike Fighter, because of cost 
escalations associated with it.
    Are you concerned about those overruns?
    Ms. Payton. Senator McCain, I'm extremely concerned about 
those overruns, and I do not believe that award fees should be 
granted for anything except above-average performance.
    Senator McCain. What do you think we ought to do, Ms. 
Payton?
    Ms. Payton. The first thing I would like to do is fully 
understand the facts and details. I would like to adopt many of 
the practices that the panel, led by General Kadish, described 
so that we have a uniformity of effort, where the requirements 
community, the budget community, and the acquisition community 
collaborate and not in sequence, so that requirements are well 
defined and are not allowed to creep, budgets can be formulated 
realistically, and the acquisition workforce can influence the 
process in a collaborative effort.
    I believe there were mistakes made early in these 
acquisitions, and I believe now we need to take a look at not 
only how to learn lessons from this, but also what the future 
should hold.
    Senator McCain. Well, good luck.
    Ms. Payton. Thank you, sir.
    Senator McCain. Mr. Jimenez, do you believe that the 
process for disposition of the cases of the Guantanamo 
detainees should be addressed through the framework of the UCMJ 
or through commissions?
    Mr. Jimenez. Senator McCain, I think that there is a role 
for the commission process within the framework of the UCMJ. 
Just like I don't believe, after the Hamdan decision, that 
Congress should simply ratify the existing commission 
procedures. I also don't think that the existing UCMJ, in 
total, is workable under these circumstances. I do think there 
is a middle ground where we can----
    Senator McCain. How can you find a middle ground--I'm 
talking about a framework. You either use the UCMJ as a 
framework, or you use the commissions as a framework. So, I'm 
asking you which should be the starting point.
    Mr. Jimenez. Senator McCain, if we start with the UCMJ, 
there are----
    Senator McCain. I wasn't asking you ``if,'' I was asking 
you whether we should start with the UCMJ as a framework or the 
existing commissions process as a framework.
    Mr. Jimenez. I think it would be reasonable to start with 
the UCMJ and modify all of those rules and provisions that are 
impracticable. I think there are a good many that are 
impracticable, but that would be a reasonable approach.
    Senator McCain. Thank you very much.
    Mr. Cohen, the same question for you.
    Mr. Cohen. Thank you, Senator.
    This is an area of law in which I have not previously 
practiced. I have reviewed the Hamdan decision and the 
testimony offered last week, and I was actually particularly 
impressed by the testimony offered by General Black, the Judge 
Advocate General of the Army. But I haven't formed a definitive 
view on the question, whether one should start with the UCMJ 
and----
    Senator McCain. I'm not sure you have to be an expert to--
if you read the decision as to form an opinion on which should 
be the framework, Mr. Cohen.
    Mr. Cohen. Well, sir, the decision was clear that Congress 
needed to act to----
    Senator McCain. I guess I have to ask you to respond to the 
question. Do you believe that the UCMJ should be the beginning 
point for setting up a process for the adjudication of the 
detainees, or the existing commission process being the 
beginning point?
    Mr. Cohen. Senator, without, as I say, having a definitive 
view on the subject, I----
    Senator McCain. You do not have a definitive view on one of 
the most important issues that is now facing DOD?
    Mr. Cohen. Sir, I'm hopeful that, if I'm confirmed, working 
with this committee----
    Senator McCain. Mr. Cohen, before you're confirmed, I would 
like an answer.
    Mr. Cohen. Yes, sir. General----
    Chairman Warner. Were you--excuse me--were you about to 
give an answer there? In the tenor of your voice you were going 
to respond.
    Mr. Cohen. Yes, sir. I was.
    Chairman Warner. Why don't you make your full statement, 
then, and respond to this question.
    Mr. Cohen. Thank you, Mr. Chairman.
    I think that General Black, in his testimony, outlined that 
he felt that there would be a need to make adaptations to the 
UCMJ that might be fairly significant, and, in addition, that 
it would be appropriate to take some of the features of the 
commissions that were already extant, but that, again, very 
significant changes to the existing structure would be 
necessary, as well.
    Chairman Warner. I think they used the term ``a mix.''
    Mr. Cohen. Yes, sir.
    Chairman Warner. Testimony reflects that.
    Mr. Cohen. That seemed to me to be an extremely reasonable 
approach.
    Senator McCain. Mr. Chairman, most of the witnesses didn't 
say ``a mix.'' Most of the witnesses--and I think the record 
will be very clear--said that the UCMJ should be the basic 
framework.
    Chairman Warner. I recall that----
    Senator McCain. With all due respect, Mr. Chairman, I think 
that this is an important issue, because the role that Mr. 
Cohen is going to play is important as we move forward with 
trying to establish framework. I think it's legitimate to know 
whether he feels that the UCMJ should be--no matter what any 
witness said, I think it's important to know whether he feels 
the UCMJ, as the Supreme Court has basically said that we 
should do, or as some in the administration--there's a split 
within the administration now--whether the commissions should 
be the beginning point. I think it's a very legitimate 
question, and one that I'd like to know the answer before I 
vote on this nominee's nomination.
    Mr. Cohen. Senator, if I could, I think the point that Mr. 
Jimenez made, the approach that he outlined, seems very 
reasonable to me, and I don't disagree with him, sir. I agree 
with him.
    Senator McCain. I thank you very much.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator.
    Senator McCain. I thank all the witnesses.
    Chairman Warner. Senator McCain, I share your views. I've 
worked with you on this. But I seem to have a recollection--
I'll go back and check the record--that when the question is, 
``do you think there should be a mix,'' we went down--I thought 
each one of the heads acknowledged that to be a logical way. 
I'll have that record checked, because it's important.
    Senator McCain. That's not my recollection, Mr. Chairman. 
We'll have it checked.
    Chairman Warner. That's fine.
    Senator Levin. My recollection, for what it is worth, is 
that four of them said we ought to begin with the UCMJ as the 
starting point. Two said--they didn't directly answer what the 
starting point is--but they just said that it should end up 
being a mix. So, I think my recollection is the same as Senator 
McCain's. We should check the record.
    Chairman Warner. We'll check that record.
    [The information referred to follows:]

    Clarification of responses from July 13, 2006, hearing on military 
commissions in light of the Supreme Court decision in Hamdan v. 
Rumsfeld.
    Major General Jack L. Rives, USAF, The Judge Advocate General of 
the Air Force and Major General Thomas J. Romig, JAGC USA (Ret.), 
Former Judge Advocate General of the Army both felt the Uniformed Code 
of Military Justice (UCMJ) was a good starting point for setting up a 
process for the adjudication of detainees, but also should include a 
mix of other sources as well.
    Major General Scott C. Black, JAGC USA, The Judge Advocate General 
of the Army; RADM James E. McPherson, JAGC USN, Judge Advocate General 
of the Navy; Brigadier General Kevin M. Sandkulher, USMC, Staff Judge 
Advocate to the Commandant of the Marine Corps; and RADM John D. 
Hutson, JAGC USN (Ret.), Former Judge Advocate General of the Navy all 
stated they believe a mix of various procedures would be the best 
course of action to set up the process for the adjudication of 
detainees and did not specify a specific starting place.

    Thank you very much.
    Any further questions, Senator?
    Senator McCain. No. I thank the witnesses.
    Chairman Warner. Thank you.
    I'll turn to my colleagues on the left here. I see, Senator 
Reed, you're next up.
    Senator Reed. Thank you, Mr. Chairman. I welcome the 
nominees.
    Mr. Laufman, the last several years, DOD has been embroiled 
in allegations with respect to the treatment of detainees. You 
are going to assume a position, if you're confirmed, at the 
apex of--and, as you point out, at the independent agency that 
tries to keep the Department honest. I think your opening 
statement was very emphatic about the need to maintain the 
independence, the need to ask tough questions, the need to 
speak truth, and the need to go after the case, wherever it 
leads you.
    So, with that as a prelude, with respect to the issue of 
detainees, and particularly ``ghost detainees,'' General Kern, 
who conducted an investigation before the committee in 
September 2004 said, ``We have asked two organizations to do 
further investigations, DOD IG and the Central Intelligence 
Agency (CIA) IG, and both have agreed that they will take on 
that task of investigating this ghost detainee policy.''
    Now, over the last several years, I have made inquiries to 
DOD, and, for a while, the presumption was that there was 
actually an investigation by the DOD IG, but it turns out that 
it never really materialized. Secretary Rumsfeld finally stated 
that the investigation was being turned over to the CIA. 
However, a DOD spokesman also stated that DOD could not attest 
to the work done by the CIA during their investigation. I read 
this to mean that DOD doesn't know the effectiveness of the 
investigation and its recommendations, and, therefore, cannot 
use the results to take appropriate action. In fact, I would 
suspect that if the CIA was looking at it, their focus was the 
CIA.
    So, there is a question outstanding of whether anyone has 
seriously looked at the responsibility for senior-level members 
of DOD with respect to this issue. As the proposed nominee for 
the IG of DOD, the question simply is, what are you going do 
about it?
    Mr. Laufman. Thank you for the question, Senator.
    Let me begin by saying that the statutory jurisdiction of 
the IG is broad enough to encompass the type of issue that you 
are inquiring about. I'm not familiar with the Kern matter, or 
the interaction between DOD and CIA on that issue. It's 
probably fair to say that the jurisdiction of DOD's IG 
jurisdiction would extend to that aspect of the matter that 
concerns DOD resources or personnel. If confirmed, I'd be happy 
to look into the status of the matter and make a judgment as 
expeditiously as possible about whether the IG should examine 
that issue with the appropriate resources.
    Senator Reed. You will make that determination independent 
of guidance by anyone else, and you'll do that in your capacity 
as the IG?
    Mr. Laufman. I would expect to make all judgments 
independently, pursuant to my statutory mandate, Senator.
    Senator Reed. I think you're aware, also, that these 
allegations run to the conduct not just of CIA operatives, but 
of military personnel and members of DOD--civilian members. 
You're aware of that?
    Mr. Laufman. I'm aware generally, yes, sir.
    Senator Reed. Thank you very much.
    Mr. Laufman, again, in 2004, Attorney General Ashcroft 
announced the indictment of a CIA contractor for abuse in 
Afghanistan. He also indicated that there were other 
allegations of abuse, and that these were going to be processed 
through the Department of Justice. It's my understanding that 
at least 17 of these cases were forwarded to your previous 
office, as the U.S. Attorney for the Eastern District of 
Virginia. Other than the case against the CIA contractor, could 
you indicate what the status of these cases are? Have they been 
fully investigated? Has there been a determination to charge 
anyone?
    Mr. Laufman. Well, you just gave me a battlefield promotion 
to U.S. attorney.
    Senator Reed. Oh.
    Mr. Laufman. I'm an assistant U.S. attorney.
    Senator Reed. Well, you're in a nomination committee. 
[Laughter.]
    Mr. Laufman. I understand.
    I am aware, Senator, that there are matters pending within 
the U.S. attorney's office for the eastern district of 
Virginia. I am not involved in those matters. It's my 
understanding that they are being examined with diligence and 
the commitment of significant resources. I'm not in a position 
to comment on the status of those matters, except to say that I 
believe the people to whom they are assigned are very able, 
experienced prosecutors, and that they will make their best 
judgments as to what recommendations to make.
    Senator Reed. Thank you very much.
    Let me, again, share the concern illustrated by the 
questions of Senator McCain and Senator Levin with the need to 
clarify after Hamdan, the status of the application of military 
law to these procedures for detainees. I think, Mr. Jimenez and 
Mr. Cohen, your responses were appropriate, in terms of using, 
as the starting point, the UCMJ, and making appropriate 
modifications, and letting Congress do that, as it must, after 
Hamdan. So, I thank you.
    Mr. Chairman, thank you very much.
    Chairman Warner. Thank you, Senator Reed.
    Senator Nelson, why don't you proceed?
    Senator Bill Nelson. Mr. Chairman, thank you.
    Chairman Warner. You bet.
    Senator Bill Nelson. Thank all of you, ladies and 
gentlemen, for offering yourself for public service.
    I would add my comments, as well, for the two nominees to 
general counsel, of using the UCMJ as the starting framework 
for the procedures. I think the line of questioning of Senator 
McCain is quite obvious, and someone who, without a doubt, has 
the credentials to ask those questions. America is different, 
and America is a place where we are known by our standards and 
our values. That often goes back to the Good Book in the 
statement that is issued upon which all the law and--is built 
upon, which is, ``Treat others as you want to be treated.'' 
That has found its way into the Geneva Convention, and it's 
found its way into the procedures of the UCMJ. So, I would echo 
the comments of Senator McCain and Senator Reed.
    I want to take a different tack, and I thank you all for 
offering yourself for public service. Each of you had a 
distinguished career before arriving at this table. Now we have 
the obligation, as well as the privilege, of the checks and 
balances of our Government, of overseeing the executive branch 
and inquiring, of you, things that are concerning to us 
regarding the positions that you're about to enter.
    So, with regard to Dr. McQueary and Ms. Payton, I wanted to 
let you all know that recently I met with General Carlson, who 
is the head of the Air Force Materiel Command. He wanted to 
alert me as to a proposed Air Force effort to cut the test and 
evaluation budget by $581 million. He was given--I think it was 
$1.5 billion that he had to cut in his bailiwick. He came up 
with part of that, roughly a third of it, he was going to 
deactivate the 46th Test Wing and close a number of 
sophisticated testing facilities that happened to end up in my 
State. Now, it's not only the reason that it's my State of 
Florida that I'm asking these questions, but I'm looking at the 
efficiency and the ultimate cost of this proposed cut. 
Obviously, we understand the importance of testing and 
evaluation facilities, and that's especially important to the 
modernization of the Air Force and the safety of our military 
personnel.
    So, one example is that the Air Force, in this proposal 
that was shared with me by General Carlson, was that you shut 
down the McKinley Climatic Test Lab. It happens to be the 
world's largest environmental test chamber in which aircraft 
and vehicles and tents and a bunch of systems are subjected to 
extreme temperatures, to sandstorms, to rainstorms, and many 
other conditions. Those systems range from the B-2 to the F-22 
to the Joint Strike Fighter to the Terminal High Altitude 
Defense missile, and they've all passed through, or will pass 
through, for testing there to consider how they stand up.
    Now, you shut that thing down, and I'm wondering if the Air 
Force is getting around to the idea, ``Well, if you want to 
test for cold, send it to Greenland, or if you want to test for 
hot, send it to the desert.'' The climatic lab is about 
controlled test conditions, it's about cost savings, and it's 
about reduction of risks associated with overseas testing. By 
the way, as I have looked into this, I've found out that the 
lab is booked with reservations through 2011. Now, that sounds 
rather cost effective to me. It doesn't sound like closing it 
makes much sense.
    What I'm concerned about--and I shared some of this with 
General Carlson, but he's got a rigid requirement that he has 
to find $1.5 billion. Obviously, my question is, is that the 
best place, in a big, big Air Force, to find these savings? I'm 
concerned about the drastic reduction of Air Force test and 
evaluation. Is it going to be shortsighted, and is it going to 
end up delaying important Air Force acquisition programs? Is it 
going to end up increasing costs to taxpayers?
    So, I want to ask the two of you, are you aware of these 
Air Force proposals to cut?
    Doctor?
    Dr. McQueary. Sir, I am not aware of the specific case that 
you're talking about. I have never been to McKinley and the 
Climatic Test Range. I have been a participant in using Eglin 
before, so I'm familiar with what goes on there, to a degree. 
I'm not familiar with it, but I'll be happy to agree to look 
into the issue, early on, because, certainly in this position 
that I'm being considered for, ``OT&E'' are the key words in 
the descriptive title, and that must be an important 
consideration in determining whether systems are ready to be 
fielded or not.
    Senator Bill Nelson. Ms. Payton.
    Ms. Payton. Senator Nelson, thank you very much for 
enlightening me on this. I have not heard of this. I started my 
career, back in the early 1980s, in test and evaluation of 
spacecraft systems. You launch them, and you cannot retrieve 
them, for the most part. So, test and evaluation is an 
extremely important part of the life cycle of the acquisition 
of major weapons systems. If confirmed, I will make this one of 
my high-priority items to understand the cost trades and the 
business case analysis that's behind this.
    Thank you.
    Senator Bill Nelson. Thank you both for your responses. 
Clearly, you're aware of it now. I would like for you to look 
into these proposals, and I'd like for you to provide this 
committee with your personal professional analysis, 
conclusions, and recommendations on the potential impacts on 
the Air Force and DOD testing evaluation and our broader 
modernization. Specifically, I'd like you to assess the cost 
and risk to our developmental testing industrial base.
    By the way, I would like you both to join me in visiting 
the facilities at Eglin, and to meet some of the highly 
qualified experts that are involved in these testing 
activities.
    Mr. Chairman, I'm trying to get out ahead of this enough so 
that we're not looking back at this as a done deal that may not 
be in the interest of DOD, as a whole.
    I would also recommend to you that you visit the other 
facilities proposed for closure, in Tennessee, New Mexico, and 
California.
    I want to ask you one more question. If we step back with 
the Air Force trying to develop and deploy advanced systems 
like the F-35, the small-diameter bomb, certain space systems, 
are you concerned that the Air Force is greatly reducing its 
overall investments in test and evaluation?
    Doctor.
    Dr. McQueary. Sir, I spent all of my business professional 
career before joining the Government doing operational tests, 
design-development operational testing. So, there is no 
question that the operational testing near the end of 
completion of a program is absolutely essential to assure that 
a system will work properly and be used in an effective way by 
those service men and women who will be chartered with risking 
their lives at times, and using it.
    Ms. Payton. I certainly do agree with what Dr. McQueary 
just said. Relative to the small-diameter bomb, that particular 
munition could be the most transformational capability that we 
will have in our arsenal. The amount of collateral damage and 
innocent lives that can be spared by that small-diameter bomb 
can be immense, and the cleanup after war will also be 
mitigated. So, I am especially interested in the small-diameter 
bomb and the focused lethality that it can bring to our 
warfighter. I will do everything to make sure it's tested 
properly.
    Senator Bill Nelson. Mr. Chairman, I would note, for the 
record, in Ms. Payton's written answers to questions that had 
been supplied to the committee in advance of this hearing, in 
response to the question, ``What are your views on the 
importance of accurately projecting future test facility 
instrumentation requirements and budgeting for these needs?'' 
that Ms. Payton's answer is, ``In my experience, test 
facilities are a very important contributor to the ability to 
field capable, proven weapons systems for our warfighters. We 
need to do a good job of protecting the test capabilities our 
future systems will require to ensure that they are in place to 
support thorough testing as part of the acquisitions process. 
We cannot permit test infrastructure shortfalls to delay 
acquisition programs.''
    So, given that, I'm looking forward to visiting the 
facilities with both of you on this very important decision. 
It's not the first time that things have been done for 
budgetary reasons. I just want to make sure we're not cutting 
off our nose to spite our face because somebody's been given an 
arbitrary number of dollars to whack out of their particular 
budget.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator.
    I shall ask each of you a question at this point in time.
    First, Mr. Laufman, again, I profited greatly from the 
meeting that we had, and am greatly encouraged about the 
attitude that you have with regard to the mission to which the 
President has selected you to perform. I certainly wish you 
luck.
    Mr. Laufman. Thank you, sir.
    Chairman Warner. It's an important department. Having 
served in that department myself for many years, I recognize 
the complexity and how the IG's office can play a pivotal role 
for the Secretary and his subordinates, as well as all who are 
dedicating their careers to making that department work more 
efficiently. So, thank you and your family for taking this on.
    Mr. Laufman. Thank you, sir.
    Chairman Warner. My question is more or less on oversight, 
and that is, this committee is concerned about the delays in 
completing many of the investigations--that is, by your 
predecessor--and the effective management controls within your 
office. You indicated, I think quite wisely, in your advance 
questions, that your audit resources may be insufficient to 
meet your statutory obligations and that the IG ``may lack 
sufficient resources to conduct necessary in-theater audit and 
investigative activity in Iraq and Afghanistan.''
    Now, this committee wants to help you, and we hope that you 
will not hesitate a minute in coming to the committee for such 
assistance as this committee may be able to give you in 
alleviating what you perceive are serious infrastructure 
deficiencies; thereby, enabling you and your staff not to 
perform the missions required. Do you wish to amplify on the 
answers that you put in the record? If not, they will just 
stand as they are. They're very clear.
    Mr. Laufman. Only to say, Senator, that I can think of no 
area where we should seek to concentrate our efforts more than 
on making sure that we are providing all the necessary 
resources to the Armed Forces that are currently deployed and 
are at risk in Iraq and Afghanistan.
    Chairman Warner. Got it.
    Mr. Laufman. If we reach a determination early on that we, 
as an IG's office, if I'm confirmed, lack the necessary auditor 
investigative resources, it will be my priority to bring that 
to the committee's attention, to the leadership of DOD, and to 
correct that imbalance as soon as possible so that we can 
fulfill our statutory obligations.
    Chairman Warner. Good. All right. We'd like to have you 
note within 3 months or so, send a memorandum over to the 
committee, would you please, on your current status after 
you've had that period of time to make further assessments?
    Mr. Laufman. Yes, sir.
    Chairman Warner. At that time, I will have stepped down as 
chairman, under our 6-year rule, but the fine gentleman on my 
right here, Senator McCain, is hopefully going to be the next 
chairman. I know this is an area in which he shares my concern, 
that you must be adequately staffed to do your job. I presume, 
Senator Levin, you join us on that.
    Senator Levin. I would, either as ranking member, with 
Senator McCain, or as chairman of the committee. So--
[Laughter.]
    In any event, this----
    Chairman Warner. Well, that's nice.
    Senator Levin. Our current chairman is as good as they get. 
They don't come any better.
    Chairman Warner. I said 90 days. That won't happen in 90 
days.
    Senator Levin. You said Senator McCain would hopefully 
become chairman.
    Chairman Warner. Oh, yes, chairman to carry through with 
such reforms as he might recommend.
    Senator Levin. I only heard the word ``hopefully.''
    Chairman Warner. You have the record----
    Senator Levin. I didn't hear the rest of it.
    Chairman Warner. You've stated your case. [Laughter.]
    We've been together for 28 years, and it's been a 
remarkable partnership for the two of us to work together on 
this committee. We both started at the end seat on this long 
dais. It took us 28 years to get up here, and we've been----
    Senator Levin. I actually fell off that twice, it was so 
far out there. [Laughter.]
    Chairman Warner. All right. Now, Mr. Tobey, in your answers 
to the questions the committee sent to you in the hearing this 
morning--I go through these answers; I think they're very 
important--you stated that you would seek to ensure the defense 
nuclear nonproliferation programs are guided strategically to 
address new challenges and opportunities to prevent 
proliferation, including new approaches and work within new 
countries. It was a very good response, by the way. Are there 
countries of proliferation concern where you'd like to initiate 
or expand on cooperative nonproliferation activities?
    Mr. Tobey. Thank you, Senator.
    We have expanded our nonproliferation effort beyond former 
Soviet states. We've worked in Libya and Iraq. I think those 
efforts need to be ongoing. I know that there have been 
discussions with, for example, China to try and improve nuclear 
security there. I'm hopeful that the demonstration project that 
they've undertaken there can actually be applied more widely 
within the Chinese system. I'd also note that President Bush 
and President Putin agreed to a global initiative to combat 
nuclear terrorism over the weekend.
    Chairman Warner. Yes, that was a very encouraging 
announcement by both countries.
    Mr. Tobey. I think it really does pave the way to some 
important progress, because it will allow us to broaden some of 
the efforts that have occurred, or taken place, in former 
Soviet states. In terms of securing nuclear material, to other 
states, and we would hope to encourage other states to adopt 
best practices. These may not necessarily involve exactly the 
same programs that have been undertaken in former Soviet 
states, but I think we can build on the experience that we've 
had with former Soviet states to improve security of 
proliferation-sensitive materials worldwide.
    Chairman Warner. I thank you. Going on to other areas 
regarding Russia, do you think there's some unaddressed 
proliferation threats that should be the focus of further of 
U.S./Russian cooperation? I had some modest experience in that 
area, myself, when I was Secretary of the Navy and negotiated 
the Incidents at Sea agreement, and I got to know the senior 
officials of the Soviet Union, and I have followed carefully, 
in my career here in the Senate, the evolution from the Soviet 
Union to today. Russia is a proud and strong nation in this 
world. But the vastness of the activities of the former Soviet 
Union in an area utilizing fissile material for all types and 
forms of weapons, I just want to make certain that we know, and 
the Russians know, the full extent of those programs and what 
could remain out there that could possibly find its way into 
further proliferation of weapons of mass destruction, with or 
without--well, presumably, let's say, just without the 
knowledge of the current Russian Government.
    Mr. Tobey. I think that's an excellent question Senator. I 
think it's one that's worth continuing to ask. My impression is 
that the broad categories of proliferation-sensitive material 
are covered by U.S. programs. Now, your question also, if I 
understood correctly, included the component about whether or 
not we've completed our efforts, and we have not, yet.
    Chairman Warner. At least they've been identified. I'm more 
concerned, are there other unidentified areas? Not that Russia 
is trying to conceal it, but--again, I was in a position, in 
those days, to get some real insight into the magnitude and 
diversity of their utilization of fissile material for the 
purpose of weaponry. I think, certainly, the Nunn-Lugar 
program--and I was on this committee when that program was 
initiated by those two fine individuals--has gone a long way. 
But it's like everything else, you turn over a new leaf, and 
you find something that you just didn't know existed. Given 
your extraordinary background, I'm certain that you'll keep a 
watchful eye on that.
    Mr. Tobey. I'll do my best, Senator.
    Chairman Warner. Good.
    Mr. Wilkie, we're fortunate, as a Congress, to have you 
once again step up and take on public service. You draw on a 
remarkable background of experience and personal associations 
with former and current Members of the Senate. I think Senator 
Levin and I would acknowledge we've been here a long time, but 
that opening statement by Senator Lott was certainly 
extraordinary in its commendation of you as an individual.
    Mr. Wilkie. Thank you, sir.
    Chairman Warner. I share and respect Senator Lott's views.
    Again, having served in that position--not in that 
position, but in the Pentagon, myself, I remember the 
Secretary, on a weekly basis, used to come around and ask his 
service secretaries, ``Have you answered all of the 
congressional mail?'' We used to have a report that we had to 
file, my recollection, on a weekly basis of what the 
outstanding congressional mail and acknowledgment, or lack 
thereof, by the Department. Now, I just hope that you can 
work--I think anything can be improved, and your predecessor, I 
believe, worked very hard at it, but the challenge is still 
there. These are most extraordinary times in world history. We 
only need to go out and turn on the television now to see what 
the problems are. Your Department--and I say ``your''--DOD is 
right in the mainstream of these worldwide problems.
    So, just if you'll nod your head, or do you have some 
specifics you want to share with the committee----
    Mr. Wilkie. Yes, sir, you mentioned my previous 
associations. I was always told by Senator Helms that there was 
a reason that the framers put the congressional article as the 
first article of the Constitution, and that was beaten into my 
head from a very early time in the beginning of my service 
here.
    Chairman Warner. That's quite interesting.
    Mr. Wilkie. I think it's absolutely vital, in a time of 
war, that there be a strong partnership between DOD and 
Congress, and that has nothing to do with partisanship. That 
means making sure that questions are answered and that leads to 
soldiers, sailors, marines, and airmen having everything that 
they need to carry on the fight.
    You mentioned something that seems very simple, and that is 
getting correspondence answered. Well, we have put in place, 
once again, that weekly report to the Secretary. I've done that 
in my current position as the Principal Deputy. I am very 
fortunate, in that regard, to have very outstanding people 
within the office who also appreciate what Dan Stanley 
appreciated, that the Department--and the Secretary would 
agree--has not been fast enough in responding to congressional 
inquiries so that the program that was in place during your 
service with President Nixon and Secretary Laird is back. Mr. 
Rumsfeld receives that report every week.
    Chairman Warner. Thank you very much. I wish you luck.
    For Dr. McQueary, the committee has been reviewing the role 
of OT&E in supporting rapid fielding and evolving acquisition 
strategies. In your response to advance questions of the 
committee, you note that the OT&E challenge is becoming more 
involved in below-threshold operational testing for equipment 
such as helmets, armor, and ammunition.
    I cannot stress to you the importance of staying on top of 
that one, because many members, fortunately, receive queries 
from their constituents on the question of the current 
inventory, and perhaps lack of an adequate inventory, of those 
very fundamental things that any warrior needs when he or she 
goes into the field of combat and make sure that you've tested 
this equipment. Do you have any new ideas of how you're going 
to approach that?
    Dr. McQueary. Sir, I don't have any new ideas. I have had a 
short briefing on the helmet issue, so I have some 
understanding of what the issue is, but I don't have a proposed 
solution today.
    I do believe that an important adjunct to the position, the 
OT&E position, may be to get more heavily engaged in programs, 
particularly those that could affect the lives of our men and 
women who are in the Services, even though those programs may 
be below the financial threshold that would be set. I would put 
that as an item that, if I am confirmed in the position, I'd 
put it high on my priority list to seek approval from the 
Secretary and Congress that that be included as a part of our 
responsibilities.
    Chairman Warner. Let me make sure of that. In other words 
of that, you want a formal role in testing force production 
equipment? That is a formal role.
    Dr. McQueary. I think it would be appropriate, yes, sir, at 
least for us to have an oversight role to provide inputs to the 
Secretary and to Congress as to whether adequate testing has 
been done on such equipment.
    Chairman Warner. Well, it's not too late for this committee 
to look into it in the context of a conference report. Perhaps 
I'll ask my staff to confer with you further, and let's see 
what we might elect to do in the course of the conference.
    Dr. McQueary. Thank you.
    Chairman Warner. Ms. Payton, the committee is concerned 
about the adequacy of senior-level management technical and 
functional executives in the civilian workforce, particularly 
in the areas of acquisition. As you well know from your own 
personal experience, there are many opportunities on the 
outside of the Pentagon in which the remuneration and other 
benefits are very enticing. Do you think you have enough in the 
senior executives to keep pace with the Department's 
responsibilities in this acquisition?
    Ms. Payton. Thank you very much for that question, Senator 
Warner. I know that Secretary Wynne has great concern that the 
acquisition workforce needs to be strengthened and it needs to 
grow. I have those concerns, as well, and I also, in my opening 
statement, remarked that if someone is accountable and 
responsible, then they must have the authority to stop 
requirements creep, to identify technologies that are not 
mature and should not be part of the design. From my building 
of teams over the years, I believe what's very important for 
our acquisition workforce is to make sure that they have the 
structure that will allow them to flourish and that will allow 
them to be proud of the job they're doing and be recognized. 
So, I very much look forward, if confirmed, to tackling these 
issues with the acquisition workforce and to grow a stronger 
acquisition workforce.
    Chairman Warner. Well, we wish you luck.
    Ms. Payton. Thank you, sir.
    Chairman Warner. We wish you luck. Because this is an area 
in which Senator McCain has devoted a great deal of his time. 
My guess is that he will continue that devotion.
    Ms. Payton. I very much look forward to that. Luck is a 
great thing, but support from Congress and within the 
Department will also be very important in this.
    Chairman Warner. Now to our two counsels here, Mr. Jimenez 
and Mr. Cohen. First, as you reflect on today's hearing and the 
questions put and the answers that you provided, the record 
will remain open until the close of business today if either of 
you wish to supplement your responses. That's true of any of 
the witnesses, but particularly these two. I simply tried to 
bring some clarification, and I will check the record on that 
one point, and provide it to you, as to what those witnesses--
certainly what the record reflects.
    So, my question to you is, not unlike the question to the 
others, do we have enough young people--or people coming up 
through the system in the attorney field to do the work that's 
going to be required in your respective jobs, if confirmed? 
Now, you can answer that for the record or wait until you get 
in to your job. But if you have any current assessment, we'd 
like to know, on the committee.
    Mr. Jimenez. Mr. Chairman, the Office of Navy General 
Counsel has over 600 attorneys in over 100 locations worldwide. 
I do believe that that is a sufficient end strength, so to 
speak, for the office. I wouldn't recommend any cuts, 
necessarily, but I think we do have sufficient staffing at this 
time.
    Chairman Warner. Good.
    Mr. Cohen. Mr. Chairman, it's my understanding, and 
certainly my experience when I was at DOD General Counsel's 
Office, that the Army General Counsel and Office of the Judge 
Advocates General have sufficient resources, but, as you 
mentioned earlier, everything is capable of improvement, and we 
certainly need to continue monitoring whether we have the 
resources required to deliver legal services to the Army 
community.
    Chairman Warner. Good. Thank you very much. We want this 
committee to give you such support as you need.
    Finally, Ms. Blair, in responses you provided to the 
committee's policy questions, you indicated that you have 
worked with Navy medicine to address challenges in medical 
recruiting and retention. It would appear that this problem was 
not adequately foreseen and responded to. Give us your 
assessment of Navy and Reserve recruiting and retention in 
doctors, dentists, and nurses and what steps you might take to 
cure any deficiencies.
    Ms. Blair. Mr. Chairman, in the Department of the Navy, 
Navy Medicine, like the other two Services, has been challenged 
by the need for enough highly qualified medical personnel to be 
able to meet the demands of the force, and particularly for 
Navy medicine, because we have forward operating demands, as 
well as the need to provide medical care for families and all 
the folks back home. There have been shortages in various 
communities. Nurses and dentists strike me as two areas where 
we have particular shortages. Most of the efforts to attract 
and retain medical personnel have focused on bonuses, whether 
they be recruitment bonuses or retention bonuses. Other areas 
in which we have offered economic incentives are to provide 
assistance with payment of loans, to provide medical 
scholarships, and so forth.
    I can assure you that these problems have the attention not 
only of the medical community, but also of the leadership in 
the Department of the Navy, generally. Our Marine Corps is also 
involved in this, because they have a big interest here, too.
    So, we are proceeding with those----
    Chairman Warner. Why don't you address the Air Force, too. 
That'll be your specific responsibility?
    Ms. Blair. Well, sir, I am obviously a lot less familiar 
with the Air Force, but I'm sure that some of the same issues 
are probably present over there. I would like to defer any 
detailed analysis of the Air Force until I might have a chance 
to look into it in detail.
    Chairman Warner. Well, I think that's wise.
    All right. I thank you. Since we've all talked about our 
families, I'm so proud of the fact that my father was a young 
Army captain surgeon who fought in World War I in the trenches 
and was wounded and cared for thousands of others who, 
likewise, bore the wounds of that frightful conflict.
    Ms. Blair. Yes, sir.
    Chairman Warner. I have always been, as a member of the 
committee here, very strong in making sure that the medical 
resources of the military department are adequate. I thank you 
for your stepping up to your public service.
    That concludes the questions I might propound. We'll keep 
the record open. I may desire to put a question or two out 
before the close of business today, because we've had a very 
comprehensive hearing, we've had a lot of witnesses.
    Senator Levin, if you have further matters----
    Senator Levin. I do. Thank you.
    I'd like to just pick up where I left off with the two 
lawyers that are up for general counsel positions.
    I'd like to ask each of you, what do you believe the policy 
is, and should be, if there's any difference, about military 
members appearing at partisan events in uniform? There is an 
issue that was raised, because a couple of marines appeared in 
uniform at a Republican event in Colorado. This led to a number 
of newspaper articles. Without getting into facts or details, 
just tell us in terms of what the policy is and should be.
    Mr. Jimenez. Thank you, Senator Levin. Yes, without 
commenting on that incident, since I don't know the details, 
there is a DOD policy that covers this issue. I agree with that 
policy. It generally prohibits the wearing of uniforms at 
partisan events or events in which the appearance of 
partisanship might be apparent.
    Senator Levin. Mr. Cohen.
    Mr. Cohen. Senator, that's also my understanding of DOD 
policy, and it seems entirely appropriate.
    Senator Levin. Okay, thank you.
    Mr. Laufman, after September 11, the Department of Justice 
detained a significant number of foreigners (approximately 900) 
inside the United States. Now, these detainees had nothing to 
do with the al Qaeda or Taliban detainees which were held at 
Guantanamo. These were foreign citizens in the United States 
who were detained on the basis of suspected immigration 
violations. I want to emphasize that point. None was ever found 
to have had any connection with September 11.
    Senior Justice Department officials assured Congress that 
these detainees were being held in accordance with applicable 
law. Michael Chertoff, who was then the Assistant Attorney 
General for the Criminal Division, testified, in December 2001, 
that, ``Nobody is held incommunicado. We don't hold people in 
secret, cut off from lawyers, cut off from the public, cut off 
from their families and friends. They have the right to 
communicate with the outside world. We don't stop them from 
doing that.''
    However, the Department of Justice IG subsequently found 
that access to counsel was denied to many detainees, sometimes 
for prolonged periods. Communications blackouts lasting from 
several days to several weeks were imposed on some detainees. 
Even when there was no blackout, many detainees were only 
allowed one phone call to a lawyer per week.
    The IG of the Department of Justice, in reviewing this 
matter, found that you, personally, as the chief of staff to 
the Deputy Attorney General, played a role in this practice. In 
particular, the Department of Justice IG reported that you 
called the Director of the Bureau of Prisons (BOP), and she 
stated that you told her that she should not be in a hurry, in 
her words, to provide those detainees with access to 
communications, including calls to their lawyers and families. 
In other words, while senior Department of Justice officials 
publicly assured Congress and the American people that the 
right to counsel and the right to call your family and so forth 
would be protected, according to that IG report, you actively 
sought to undermine that stated position.
    Was the Department of Justice IG's report fair and accurate 
in stating that you made those statements to the Bureau of 
Prisons?
    Mr. Laufman. I think the IG's report was accurate, but I 
think the IG's report also made it clear, both through its 
characterization of the statements I made to their 
investigators and its reporting of the statements that the 
then-BOP Director, Kathy Hawk Sawyer, made, that what we asked 
her to do was to evaluate what the legal limit was of her 
discretion under the regulations that govern BOP, and to 
exercise what unused latitude she might have, particularly in 
the days and weeks immediately after September 11, when we were 
seeking to stabilize the security situation and were concerned 
about another wave of attacks--to circumscribe, to the extent 
permissible under law, outside communications by terrorist 
detainees who might, for example, be communicating with 
confederates outside. We did not get into specific individuals 
or cases, but, at all times, we asked Ms. Sawyer--and I don't 
think she told the IG to the contrary--that we were only asking 
her to exercise that lawful discretion that she had under BOP 
regulations. At no time did she express any discomfort to us, 
either from a policy or a legal matter, about examining the use 
of additional discretion.
    Senator Levin. It wasn't a matter of just examining 
discretion. According to the IG of the Department of Justice, 
you told her not to be in a hurry.
    Mr. Laufman. I think we asked her to use that unused----
    Senator Levin. Were those your words, though?
    Mr. Laufman. I believe they were. It's many years ago, but 
I think the spirit of what I and my colleagues asked Ms. Hawks 
Sawyer to do, as we were seeking to utilize all Department of 
Justice resources in those perilous days after September 11, 
was to use what legal discretion we had under the rule of law--
in this case it was BOP regulations--to maximize the security 
of the people of this country, consistent with the rule of law.
    Senator Levin. Yes. These are alleged immigration 
violators, is that correct? Nine hundred, approximately?
    Mr. Laufman. We were not having conversations, as I recall 
it, with the BOP Director about immigration cases. We were 
focused on terrorist detainees, individuals who had been 
convicted of terrorism or terrorist-related crimes.
    Senator Levin. That's the people you were talking to BOP 
about?
    Mr. Laufman. Our focus, at that time, was on individuals 
who were being held in BOP detention for terrorism-related 
offenses.
    Senator Levin. How many people were there like that?
    Mr. Laufman. I don't know, sir.
    Senator Levin. So, when you talked to her, you weren't 
referring to the approximately 900 people who were being held 
for immigration violations, unconnected to any allegations or 
prior convictions of terrorists or terrorist-related offenses.
    Mr. Laufman. I don't recall making that distinction. It is 
true, though, Senator, that, in some cases, individuals who 
were believed to be engaged in terrorist activity were 
initially detained on immigration offenses, if there was a 
legal basis to do so, until further investigation could be 
completed on the terrorism issue.
    Senator Levin. But were these the only people you were 
referring to when you talked to her?
    Mr. Laufman. Our focus was on people who might be posing a 
security threat to the United States, yes, sir.
    Senator Levin. Has it been the practice of the DOD IG to 
consult with the Secretary of Defense about authorizing 
investigations within the scope of section 8(b)(1) during the 
course of those investigations after they have been initiated 
with the Secretary's approval?
    Mr. Laufman. Your question is, has it been the practice of 
the IG?
    Senator Levin. Yes.
    Mr. Laufman. I can't speak to what the prior incumbent did. 
I could only speak to what my understanding is as to what the 
statute would provide, or what good, sound practice would be if 
I'm confirmed.
    Senator Levin. Is it your understanding, then, that, after 
such an investigation has been initiated by the IG, that the IG 
then continues to consult with DOD?
    Mr. Laufman. You're asking about consultation----
    Senator Levin. Just on section 8(b)(1) investigations.
    Mr. Laufman. National security related investigations.
    Senator Levin. Right.
    Mr. Laufman. I think, in that category, Senator, since 
Congress explicitly, in the statute, gave the Secretary more 
direct control, it probably would be more appropriate for there 
to be a greater amount of consultation on those sensitive 
matters. But I would go on to say that that consultation should 
not go so far as to infringe on the letter or spirit of the 
independence that the IG should continue to exercise. But, in 
those sensitive areas that Congress delineated, I do think it's 
appropriate for there to be some greater interaction between 
the IG and the Secretary. What that is will have to be examined 
with prudence and care on a case-by-case basis.
    Senator Levin. You believe that interaction between the IG 
and DOD and those cases continues after the DOD has authorized 
the section 8(b)(1) investigation to begin?
    Mr. Laufman. If the IG, according to my reading of the 
statute, has initiated an investigation into any of those 
intelligence- or sensitive-related matters, there may be times 
where it is appropriate for the IG to consult some member of 
the Secretary's office, or other senior official, as 
appropriate, to report on some circumstance that merits their 
attention. I don't think it ought to be necessarily a running 
dialogue, but it could be that those areas that implicate 
operational considerations or other matters that may be 
appropriate to bring to the Secretary's attention. It ought not 
necessarily affect the actual ultimate findings or 
recommendations of the IG, but it does seem to me, given the 
way the statute is written, that some greater consultation is 
probably appropriate in those areas.
    Senator Levin. Do you believe that the IG has a statutory 
obligation to consult with the Secretary of Defense regarding 
the findings and recommendations of those investigations prior 
to issuing a report?
    Mr. Laufman. With respect to the national security related 
investigations?
    Senator Levin. Yes.
    Mr. Laufman. I think it is probably a fair reading of the 
statute to construe an obligation on the part of the IG to 
consult with respect to findings on those matters. Again, 
because of the carve-out that Congress created for those 
matters, it would seem to be inconsistent not to ask the IG to 
provide that measure of communication to senior officials.
    Senator Levin. Prior to issuing the report.
    Mr. Laufman. Prior to issuing the report. But I would add, 
too, that that does not mean that the IG should trim the sails 
of any findings or recommendations. It may, in that respect, be 
more of an advisory consultation, as opposed to an invitation 
to alter findings and recommendations.
    Senator Levin. It may not be an invitation to alter it, but 
it sure as heck is the opening to have DOD recommend changes in 
the report. I'm curious, though, about your statement that 
there's an obligation to consult.
    Mr. Laufman. Senator, it's my reading of the statute. It's 
clear that Congress took a different approach.
    Senator Levin. No, I understand that. It is a different 
approach on these. But, in terms of obligation--after the 
investigation is initiated, that you find that there's an 
obligation to consult with DOD prior to issuing findings from 
an IG in those areas. That's what your reading of the statute 
is?
    Mr. Laufman. Based on my reading of the statute, it seems 
to me that Congress intended there to be a different kind of 
relationship between the IG and the Secretary in those matters 
that Congress delineated in the statute. How that is made 
operational, I think, is going to depend on the prudence and 
judgment of the IG, the particular matter at hand, and whether 
the findings or potential recommendations are such as may get 
into areas that are of particular proprietary concern to 
operational commanders or intelligence issues where some 
greater cross-communication is prudent.
    Senator Levin. My question, however, is that, in your 
answers to our questions, you said there's an obligation in 
every report, in those areas, to consult with the Secretary of 
Defense before that report is issued, in those section 8(b)(1) 
areas.
    Mr. Laufman. Well, I don't know if I could say that with 
respect to every report. But, from a 30,000-foot view, it does 
seem to me, as a general proposition, that the statute--not 
explicitly, but this is how I read the statute--places on the 
IG an obligation to engage in greater consultation in those 
sensitive areas. Yes, sir.
    Senator Levin. Have you had any discussions about this 
matter with DOD?
    Mr. Laufman. No, sir.
    Senator Levin. Or the White House?
    Mr. Laufman. No, sir.
    Senator Levin. Have you discussed any pending IG 
investigation with DOD or the White House?
    Mr. Laufman. No, sir.
    Senator Levin. Have you talked to the Acting IG about your 
view that there is such an obligation to involve the Secretary 
of Defense, through consultation, in findings of an IG, after 
the IG has been authorized by the Secretary of Defense to 
proceed with the investigation?
    Mr. Laufman. I've had no conversations with him. I did 
transmit my draft answers to the committee's questions, and 
received no feedback, as best as I recall, on that issue, at 
least none that I recall now.
    Senator Levin. Was that answer to the question then 
basically that you believe the IG has a statutory obligation to 
consult with the Secretary of Defense regarding findings and 
recommendations of those investigations prior to issuing a 
report? Was that then bounced off the Acting IG?
    Mr. Laufman. I think I submitted a written answer, 
substantially identical to what you read as part of the package 
of answers so I could elicit feedback from the IG's office----
    Senator Levin. And received no feedback on that matter?
    Mr. Laufman. I don't recall receiving it.
    Senator Levin. So, you don't know if that has been the 
practice of the current IG or not, or the previous IGs?
    Mr. Laufman. I really don't, Senator. All I can do is do my 
best as a lawyer to read a statute. As I say, that particular 
portion of the IG act seems to be, as a matter of statutory 
construction, one that Congress took a different approach in, 
and that's the basis for my views today, sir.
    Senator Levin. Yes, we did, indeed. It has to do with 
authorizing those investigations and making sure that DOD 
authorizes any such investigation. But I don't believe it has 
been the practice of the IGs to consult with DOD, or to feel 
obligated to consult with DOD, relative to those findings 
following those investigations, because to do so would be a 
real impingement on the independence of the IG. It is these IGs 
that we rely upon for independent findings in investigations. 
If you're proposing a practice--and I say ``if,'' and I believe 
you are--that is different from any that has been followed 
before by any IG, I believe that you are, in fact, proposing a 
practice which will impinge upon that independence. So, that's 
why I am very surprised by your answer. I think it is different 
from the prior practice, and I think it represents a departure, 
in terms of the independence of the IG.
    Mr. Laufman. I appreciate your concern, Senator. I will 
say--and I hope it's been made clear through my answers and 
opening statement today--that the independence of the IG is 
going to be, first and foremost, a guiding principle for me, 
and I do not anticipate taking any course of action that 
infringes on the actual independence of the IG. If, for 
example, I were to consult, if confirmed, with someone in the 
Secretary's office, I think it would be appropriate--and I 
think I made this clear in my answers--that the nature and 
circumstances of those consultations should be memorialized in 
a report if they had any bearing whatsoever on findings and 
recommendations, so there would be--and I would insist on--a 
measure of transparency that would, I think, preserve, in the 
committee's view, the confidence that it reposes in the 
independence of the IG.
    Senator Levin. Do you know about how many section 8(b)(1) 
investigations are currently underway at the IG's office?
    Mr. Laufman. I do not, sir.
    Senator Levin. Ms. Payton, at a committee hearing 2 years 
ago, a senior Air Force acquisition official testified that in 
the 1990s not only did we go through a very serious 
restructuring of our forces in drawdown, but we also went 
through a major acquisition reform that took much of the 
oversight and took much of the checks and balances out. 
Secretary Wynne has attributed some of these problems to the 
depletion of the acquisition workforce over the last decade. In 
his previous capacity as Under Secretary of Defense for 
Acquisition, Secretary Wynne told our committee that ``I 
believe we're at the point where any further reductions in the 
defense acquisition workforce will adversely impact our ability 
to successfully execute a growing workload. The numbers are 
startling,'' he said. ``The defense acquisition workforce has 
been downsized by roughly half since 1990, while the contract 
dollars have roughly doubled during the same period. We need to 
continue to renew and restore the defense acquisition 
workforce. Now, more than ever, I believe we need to increase 
the size of the acquisition workforce to handle the growing 
workload, especially as retirements increase in the coming 
years.''
    Do you share Secretary Wynne's concerns about the 
acquisition workforce?
    Ms. Payton. Senator Levin, I more than share Secretary 
Wynne's concern. Any organization that I've ever gone to and 
then left has improved, and it will be one of my number-one 
goals to look at the acquisition workforce, to look at the 
skill levels, to look at the numbers, and to determine the best 
way ahead to strengthen our acquisition workforce.
    Senator Levin. Thank you. The acquisition of contract 
services has been often neglected by senior DOD acquisition 
officials who spend a majority of their time on the major 
weapons system. As a result, we continue to spend billions of 
dollars for contract services without adequate assurance that 
we are getting our money's worth. If confirmed, will you make 
it a top priority to improve the management of contract 
services by the Department of the Air Force?
    Ms. Payton. Senator, if confirmed, this will be one of my 
top priority items. When I was in industry, I was under a 
services' contract. There were milestones to meet. There were 
deliverables to meet. I believe that we need to examine this 
issue and determine the right way ahead again. If confirmed, it 
will be one of my top priorities.
    Senator Levin. Thank you.
    Mr. Tobey, last week the Nuclear Threat Initiative (NTI) 
issued the Atom Study, reviewing the progress of actions taken 
to reduce the possibility that nuclear or radioactive materials 
or nuclear weapons would be stolen. Much has been accomplished, 
but many of the sites and large quantities of material remain 
unsecured. I'd appreciate it if you would share your thoughts 
on how we address some of the problems highlighted in that 
report. For instance, the report states that two-thirds of the 
highly enriched uranium supplied by the United States to 
overseas research reactors is still not covered by agreements 
to take back the fuel and convert the reactors to safer, lower 
enriched uranium fuels. Is it possible to increase the quantity 
of highly enriched uranium fuels subject to takeback 
agreements? How would you go about that? Are you familiar with 
that NTI report?
    Mr. Tobey. Yes, Senator, I am familiar with the report.
    Senator Levin. Can you just comment, perhaps, on that one 
recommendation, and any of the other recommendations that they 
made, as to how we can do better, in terms of securing 
materials at the many sites that remain unsecured?
    Mr. Tobey. Sure. With respect to your specific question, my 
understanding is that about two-thirds of material not being 
covered by takeback agreements actually resides in France and 
Germany, and is, therefore, a lower priority, in terms of our 
concerns about its safety and security.
    I should say, though, that it's clear that preventing the 
spread of nuclear weapons is a complex and vital issue, and I'd 
expect there to be criticism and advice with respect to the job 
we're doing to deal with the proliferation. It would be my 
intention, if confirmed, to try and use that criticism and 
advice to improve our efforts. So, I welcome the report. I 
intend to talk to the report's authors. I've studied it over 
the weekend, as it just came out last week.
    I would also note that from my reading of the report, the 
three principal recommendations were to: one, launch a global 
coalition to prevent nuclear terrorism; two, forge effective 
global security standards; and three, accelerate removal of 
weapons-usable material. I think, actually, we're doing much of 
what was encouraged in the report. For example, the initiative 
announced by Presidents Bush and Putin over the weekend, I 
think, will do much to accomplish the first two 
recommendations.
    Senator Levin. I think the chairman has asked you about 
that already, and we appreciate that.
    Mr. Wilkie, this relates to a pre-hearing policy question 
as to an e-mail of more than 75 pages of information your 
office sent to a number of congressional offices in connection 
with the debate in the Senate on certain amendments relating to 
Iraq recently. You said that the Department routinely prepares 
position papers and statements of policy for use by Congress. 
This was an effort by the Department in the National Security 
Council. Are you familiar with that 75-page e-mail?
    Mr. Wilkie. Yes, sir.
    Senator Levin. Was that sent to all the offices?
    Mr. Wilkie. The instructions, sir, were to have the 
document sent to the communications list that we had in our 
office. That means the Republican Policy Committee, the 
Democratic Policy Committee, the leadership offices. What 
happened within an hour of that e-mail being sent out, the 
individual in the office who pushed the button on the computer 
started to receive a whole host of administrative errors. We 
cleaned up that list, and, within an hour, we not only re-sent 
the document to your office, to Ms. Pelosi's office, but we 
cleaned up the list. It was a strange list. I don't know how, 
to be honest with you, the U.S. Embassy in Belgium ended up on 
that communications list, but that was one of the 
administrative errors, but the rest of that day, we sent the 
document out to anyone who requested it, both in the press and 
also any congressional offices that had not received it through 
their leadership chain.
    Senator Levin. So, the document that I'm referring to was 
sent to too broad of a list or an inaccurate list, but the same 
document was then sent to our leadership on both sides of the 
aisle?
    Mr. Wilkie. Yes, sir.
    Senator Levin. There were some quotes in that draft that--
where you quoted, I believe, ``only Democrats.'' Are you 
familiar with that?
    Mr. Wilkie. I know that there were, I think, two pages of 
quotes that were placed into that document that quoted members 
of the Democratic Party, yes, sir.
    Senator Levin. Do you know why it was limited to Democrats?
    Mr. Wilkie. I think the authors of the product believed 
that those quotes were in support of the position that the 
administration took. The talking points that were included in 
that document, they were compilations of talking points that 
the President, the Secretary, and, I believe, the Vice 
President had used. So, those talking points were certainly the 
product of the President, the Vice President, and the 
Secretary.
    Senator Levin. Who were the authors?
    Mr. Wilkie. The authors, if you could use that term, sir, 
people just collected talking points. The National Security 
Council (NSC) provided them. The Department provided them, and 
those were put together in that document.
    Senator Levin. Not by your office?
    Mr. Wilkie. We did collate the documents that were handed 
to us by the NSC. We sent it back to the White House and the 
NSC, and they sent it back to us for distribution.
    Senator Levin. Thank you.
    Thank you, Mr. Chairman.
    Thank you all.
    Chairman Warner. Thank you, Senator Levin. I think we have 
very thoroughly examined this distinguished panel. I compliment 
the President and other members of the administration for 
working to see that these nominations were brought to 
Congress--that is, the Senate, specifically, under the advise 
and consent provisions--very expeditiously. It is my hope and 
expectation that our committee can act expeditiously on this 
panel and seek confirmation of the full Senate prior to the 
August recess. We have that as our goal.
    Senator Levin. Mr. Chairman, if the record could be kept 
open for additional questions, it would be appreciated.
    Chairman Warner. I announced earlier we'd keep the record 
open through the close of business today. Do you wish a longer 
period?
    Senator Levin. I think it would be better if perhaps we 
kept it open through close of business on Thursday, that would 
be good.
    Chairman Warner. Fine. We'll try to accommodate the Senator 
in that, for some point on Thursday, in the hopes that perhaps 
by Thursday afternoon we might address--could we make that, 
say, midday Thursday?
    Senator Levin. Questions for the record? That would be 
fine.
    Chairman Warner. Fine. We'll examine those responses to 
questions to determine the ability to get those members of the 
panel who've complied through and confirmed.
    I thank you, and the members of the family who joined us 
today, I appreciate your patience. I see some of our littler 
guests have departed, but I'll see that they get copies of the 
record.
    Senator Levin. Mr. Chairman, also let me just thank you. 
This is a very large panel, an unusually large panel. Even 
though this has been a fairly long hearing, given the number of 
nominees, it's due, I think, to your organization and 
efficiency that we've been able to get through this many.
    Chairman Warner. Senator, it speaks to the good fortune 
that you and I have of an excellent professional staff, who, as 
you said, work together in a bipartisan way to achieve the 
goals of this committee.
    This hearing is concluded.
    [Whereupon, at 12:05 p.m., the committee adjourned.]

    [Prepared questions submitted to Charles E. McQueary by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. I see no need for modifications to any Goldwater-Nichols 
Act provision as I understand them.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. N/A
                                 duties
    Question. What is your understanding of the duties and functions of 
the Director of Operational Test and Evaluation (DOT&E)?
    Answer. I understand that, if confirmed, my duties as DOT&E will be 
to serve as the principal advisor to the Secretary of Defense and Under 
Secretary of Defense for Acquisition, Technology, and Logistics as to 
the conduct of test and evaluation (T&E) within the Department and in 
formulating and implementing operational T&E policy. I would also be 
required to provide to Congress an annual report summarizing 
operational T&E activities, to include comments and recommendations on 
operational T&E resources and facilities, levels of funding made 
available for operational T&E activities. I would provide Beyond Low 
Rate Initial Production reports and respond to specific requests from 
Congress for information relating to operational T&E in the Department 
of Defense. If confirmed, my duties will include responsibility for 
prescribing policies and procedures for the conduct of operational T&E, 
providing guidance to and consultation with the Secretary of Defense 
and the Under Secretary of Defense for Acquisition, Technology, and 
Logistics, and for monitoring and reviewing all operational and live-
fire T&E within the Department. I would also be responsible for 
coordinating joint operational testing, review of and recommendations 
to the Secretary of Defense on all budgetary and financial matters 
relating to operational and live-fire T&E, including test facilities.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. Throughout my private industry career which began in 1966 
and spanned 36 years, I have led various technical activities which 
involved research, development, test, and manufacture of systems to 
support the Department of Defense and other government agencies. 
Specifically, I spent 2 years on Kwajalein (1971-1973) as head of 
Missile Operations on the Safeguard Antiballistic Missile Program. 
Subsequently, I led a group which installed, operated, and provided 
training for an undersea surveillance system at an overseas location. 
This system successfully passed a Commander, Operational Test and 
Evaluation Force evaluation. I have led groups who designed, developed, 
and manufactured towed sonars for submarines, fiber optic undersea 
surveillance systems, fiber optic communication systems, and signal 
processing hardware and software.
    In the final 10 years of my career, I had full profit and loss 
responsibility for those systems designed and developed by my 
organization.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the DOT&E?
    Answer. If confirmed, there are several steps I intend to take, to 
include becoming familiar with the various programs that DOT&E 
oversees, getting involved with the Military Departments' Operational 
Test Agencies, getting out to observe operational testing, and 
communicating routinely with Congress. I see the upcoming development 
of the Director's Annual Report as an opportunity to take many of these 
steps.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense will assign to you?
    Answer. If confirmed, I would expect that Secretary Rumsfeld would 
look to the Director to carry out duties as assigned by statute and 
regulation; in particular, advise and propose policies on all T&E 
activities, and funding/management of operational test facilities, test 
ranges, and other related issues.
                            major challenges
    Question. In your view, what are the major challenges that will 
confront the DOT&E?
    Answer. While I am still learning about the challenges that I will 
face if confirmed, I have formed some initial opinions. The long war on 
terrorism (LWOT) is making resources for adequate OT&E difficult to 
come by. Soldiers, sailors, airmen, and marines are in general either 
deployed into theater or training to return to theater. The Army and 
Marines are particularly affected.
    The workload on the DOD T&E community has been steadily increasing 
without an increase in manning. The Operational Test Agencies are 
struggling in general, and DOT&E is also feeling the pinch. Increased 
demands stem from: complexity of systems, systems-of-systems testing, 
increased emphasis on information assurance and interoperability, 
involvement in rapid acquisition to support the LWOT, ACTD evaluations, 
joint and multi-service testing, new types of weapons systems (e.g., 
directed energy weapons), etc.
    Operational realism incorporated during DT and the open sharing of 
DT data during development is essential to understanding system 
performance and progress and readiness for OT&E.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. My initial thoughts that I would follow-up on if confirmed 
are:
    To forge a stronger bond between the test and training communities 
so that exercises or events can be phased to support both testing and 
training objectives.
    To actively engage in the DOD Planning, Programming, and Budget 
Execution process to ensure organizations with designated 
responsibilities have the resources, including the manning with which 
to carry out those responsibilities.
    To work with the Defense Acquisition Executive and the Service 
Secretaries to promote transparency and sharing of performance data 
early during development so OT&E is not perceived as threatening to a 
program.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the DOT&E?
    My initial thoughts are:
    DOT&E and the OTAs are dependent upon the process for generating 
and validating requirements that are affordable and that will lead to 
``. . . quality products that satisfy user needs with measurable 
improvements in mission capability and operational support. . .'' 
Getting the requirements right and reasonable with a well thought out 
rationale is essential for successful development and to demonstrate 
performance through adequate OT&E.
    Developing acquisition strategies that include adequate OT&E to 
support procurement decisions, and, in today's environment, before 
decisions to deploy systems into combat is essential to ensure 
warfighters receive weapons that are operationally effective, suitable, 
survivable, and lethal.
    Question. If confirmed, what management actions and timelines would 
you establish to address these problems?
    Answer. If confirmed, I plan to meet with the Joint Requirements 
Oversight Council (JROC) Chairman, the Military Department Secretaries, 
and the DAE to address these issues within 30 days of taking office. I 
believe it is imperative that DOT&E participate in the topdown 
leadership structure of the Department. Providing advice to the 
requirements generation process as well as the development of 
acquisition strategies is part of that leadership.
                             relationships
    Question. If confirmed, how will you work with the following: the 
Secretary of Defense; the Deputy Secretary of Defense; the Under 
Secretary of Defense for Acquisition, Technology, and Logistics; the 
Under Secretary of Defense for Personnel and Readiness; the Director of 
Defense Research and Engineering; the Assistant Secretary of Defense 
for Networks and Information Integration; the Inspector General of the 
Department of Defense; the General Counsel of the Department of 
Defense; the Service and agency officials responsible for major 
acquisition programs; the Directors of the Services' T&E organizations; 
the JROC; and the Director of the Defense Test Resource Management 
Center (DTRMC).
    Answer. The relationship of the Director with many of these offices 
is described or defined in regulation or policy documents. If 
confirmed, I intend to develop a rapport with these officials to ensure 
the interests of the public and the Department are served and Congress 
remains informed.
                      independence and objectivity
    Question. Congress established the position of Defense DOT&E as an 
independent and objective evaluator of the performance of major 
systems. Report language accompanying the National Defense 
Authorization Act for Fiscal Year 1984 (Public Law 98-94), which was 
codified as section 139 of title 10, U.S.C. states that ``the Director 
[is] to be independent of other DOD officials below the Secretary of 
Defense'' and ``not circumscribed in any way by other officials in 
carrying out his duties.'' In describing the Director's duties, the 
report also noted an expectation that the Director ``safeguard the 
integrity of operational testing and evaluation in general and with 
respect to specific major defense acquisition programs.''
    Can you assure the committee that, if confirmed, you will be 
independent and objective in your evaluations, and that you will 
provide your candid assessment of Major Defense Acquisition Programs to 
Congress?
    Answer. Yes. I strongly believe independence to be crucial to 
objective testing and reporting. If confirmed, I intend to be 
independent and to provide candid assessments of all oversight programs 
to Congress.
    Question. In your view, does the DOT&E have the necessary 
authorities under sections 139 and 2399 of title 10, U.S.C., and 
applicable departmental regulations to carry out the duties prescribed?
    Answer. Yes, I believe the statutory authority presently ascribed 
to the position of DOT&E is sufficient to allow me to carry out the 
duties as director, if confirmed.
    Question. Section 2399 of title 10, U.S.C., establishes certain 
requirements regarding the impartiality of contractor testing personnel 
and contracted for advisory and assistance services utilized with 
regard to the T&E of a system.
    What is your view of these requirements?
    Answer. I believe the key point is that we must test systems in the 
realistic environment in which they will be employed with the same 
maintenance and logistics structure that will support that system once 
fielded. If contractors are specifically intended to be part of that 
support structure, their participation in test is appropriate. 
Otherwise, their participation is not appropriate. In my view, section 
2399 allows the flexibility to properly structure the operational 
testing, and properly provides for impartial contracted advisory and 
assistance services.
    Question. How will you maintain independence from the often 
conflicting goals of the acquisition community and the mandates for 
necessary operational testing?
    Answer. From DODD 5000.1,``The purpose of the acquisition system is 
to acquire quality products that satisfy user needs with measurable 
improvements to mission capability and operational support, in a timely 
manner, and at a reasonable price.'' I support this purpose. 
Improvement in mission capability cannot be measured without testing in 
relevant operational context. Independence is essential to ensure 
objective T&E reporting. The DOT&E authorities and responsibilities for 
OT&E and LFT&E, set out in title 10 U.S.C., establish that 
independence. I have reviewed DOT&E reports and found them to be fair 
and balanced. In the case of the Missile Defense Agency, in which DOT&E 
provides advice on DT, I also found the reporting to be unbiased and 
credible. If confirmed, I intend to maintain the credibility DOT&E has 
established over the years.
                      test and evaluation funding
    Question. In the fiscal year 2007 budget request, the Air Force 
reduced T&E activities by nearly $400 million over the Future Years 
Defense Program, relative to projected budgets for this activity 
presented to Congress with the fiscal year 2006 budget request. 
Operating and investment budgets for Major Range and Test Facility 
Bases have been historically underfunded.
    Do you believe that the Department's T&E function is adequately 
funded?
    Answer. I am aware of a DSB finding that the T&E process is not 
adequately funded and notes that the age of the facilities and 
capabilities averages over 35 years, with some over 50 years old. 
Service T&E resources investment proportionately reflects the overall 
Service budgets. If confirmed, I will look closely at this issue as I 
believe that as the complexity of systems under test continues to grow, 
so must the investment in new T&E capability.
    Question. What are your views about the importance of accurately 
projecting future test facility instrumentation requirements and 
budgeting for these needs?
    Answer. In my view accurately projecting future T&E resources needs 
within a program's T&E Master Plan at program inception is absolutely 
critical. The discipline required to accurately define these resources 
goes a long way to ensuring a program is deemed executable at 
inception. Such projection also supports and justifies Service planning 
and budgeting for those T&E assets that must be modified or developed 
to meet a program's needs years into the future. Reviewing and 
assessing program T&E resources plans is a critical part of assessing 
the adequacy of testing.
    Question. How do you plan to evaluate and improve the operational 
testing workforce in DOD especially in light of the growing numbers of 
new technologies embedded in weapon systems and the desire to speed the 
acquisition and deployment of systems to the battlefield?
    Answer. In response to section 234 of the Bob Stump National 
Defense Authorization Act for Fiscal Year 2003, the Department reported 
to Congress on the ``Capabilities of the Test and Evaluation Workforce 
of the Department of Defense.'' The report provided an overview of 
ongoing efforts to improve personnel management and concluded that a 
strategic plan would be developed to address future manpower.
    In May 2006, the Department published the initial version of the 
AT&L Human Capital Strategic Plan. This plan addresses recruiting, 
governing, measuring performance, and improving the knowledge of all 
acquisition workforce members, including T&E personnel.
    If confirmed, I will examine this effort and follow-up on the 
Department's plans.
                 operational and developmental testing
    Question. The Government Accountability Office (GAO) recently 
reported that the Department's acquisition system incentivizes delayed 
operational testing ``because that will keep `bad news' at bay.'' 
According to GAO, program managers have an incentive to suppress bad 
news and continually produce optimistic estimates, because doing 
otherwise could result in a loss of support and funding and further 
damage their programs.
    Do you agree with the GAO finding?
    Answer. I am not thoroughly familiar with that report but generally 
understand the argument. Acquisition programs compete each year for 
continued funding and support. Within the Services, program managers 
and resource sponsors vie with others to gain or retain programmed 
funds. The process repeats itself many times as the Defense budget is 
submitted, reviewed, and approved.
    At any point in this process, performance deficiencies identified 
in testing are perceived as weakness. The established planning, 
programming, and budget system tends to reward perceived ``good news'' 
and punish ``bad news'' by reducing funding, sometimes to the point of 
forcing programs to restructure.
    I believe the incentives in the acquisition system could be changed 
to value early realistic testing. Such testing strengthens weapon 
systems by revealing design flaws and allowing time to correct them 
during system development. In my view, incentives could be provided to 
foster the discovery of such design flaws early in development. When 
system developers realistically test their design, subjecting it to the 
stresses expected in combat conditions, they have the opportunity to 
improve that design. The most successful weapon system development 
programs are those that discover and acknowledge deficiencies early and 
commit resources to correct them.
    Question. What are your views on the appropriate point in concept 
development of a new acquisition program for incorporation of T&E 
planning and integration of testing requirements?
    Answer. During concept refinement (Pre-Milestone A = Concept 
Refinement Phase) the major effort should be to develop a strategy to 
evaluate system performance and mission accomplishment. During 
technology development (Pre-Milestone B = Technology Development with 
Program Initiation at Milestone B) the test-related efforts might 
include analysis, modeling, simulation, component, subsystem, and 
breadboard testing. During this phase, detailed T&E activities should 
be planned, resourced, and documented in a Test and Evaluation Master 
Plan (TEMP). The ultimate objective of these activities should be an 
Initial Operational Test and Evaluation in a realistic combat 
environment and full-up system-level live-fire testing prior to full-
rate production and deployment.
    Question. What steps, if any, do you believe the Department should 
take to ensure that testing takes place early enough in the program 
cycle to identify and fix problems before it becomes prohibitively 
time-consuming and expensive to do so?
    Answer. I would strongly support the practice of conducting 
rigorous operationally oriented developmental test and robust 
operational assessment prior to entering low-rate initial production. 
If confirmed, I will continue to emphasize the early involvement of 
operational testers and work to ensure that no weapon system is 
delivered to the warfighter until it has been subjected to the stresses 
of modern combat and objectively evaluated
    Question. Acquisition programs continue to complete developmental 
testing satisfactorily, but perform poorly on operational testing 
suggesting that developmental testing lacks sufficient rigor or realism 
to adequately characterize the technical performance of a system under 
test.
    What are you views on the current relationship between 
developmental and operational testing?
    Answer. Developmental and operational testing complement each 
other. The current DOD relationship is appropriate. Developmental 
testing should be the program manager's tool to understand system 
performance, discover design flaws, and determine readiness to enter 
initial operational T&E. There is evidence that developmental testing 
must be more rigorous and realistic, and that deficiencies discovered 
in developmental testing should be corrected prior to operational 
testing.
    Operational testing should determine that a unit equipped with the 
system can accomplish its mission and determine if the system is 
operationally effective, suitable, survivable, and lethal for combat 
use.
    Question. When is it appropriate for developmental and operational 
testing to be combined?
    Answer. The focus of developmental evaluation is engineering and 
system technical performance. The focus of operational evaluation 
should remain on the ability of a unit equipped with the system to 
successfully accomplish combat missions. Often a single test event 
might be designed to provide needed information to system engineers and 
to operational evaluators. It is appropriate to combine developmental 
and operational testing when the objectives of both evaluations can be 
met. This may provide shared data at a reduced cost.
    I do not believe it is appropriate to combine developmental and 
operational testing solely to recover program schedule. I strongly 
believe in the value of event-based acquisition program management and 
test execution.
    The final step in development should be the field test of end-to-
end missions by an operational unit equipped with the system under 
realistic combat conditions.
               defense acquisition performance assessment
    Question. The Defense Acquisition Performance Assessment (DAPA) 
report recommended that laws governing operational testing be modified 
to add a new ``operationally acceptable'' test evaluation category and 
provide fiscal and time constraints for operational testing.
    What is your view of these recommendations?
    Answer. My initial review of the DAPA highlights some very good 
points, but I do not believe that the provisions governing operational 
testng in title 10 need to be changed to incorporate a new category of 
``operationally acceptable.'' To me, this new reporting category sounds 
like a watered down standard that would be difficult to define and 
enforce. ``Operationally acceptable'' implies something less than 
operationally effective and suitable for combat.
    Question. The DAPA report notes that ``[b]etween fiscal years 2002 
and 2005, the T&E workforce grew by over 40 percent while the program 
management workforce declined by 5 percent, production engineering 
declined by 12 percent, and financial managers declined by 20 
percent.''
    Do you agree with these DAPA findings on the T&E workforce?
    Answer. No, I understand that the DAPA's findings on the T&E 
workforce were based upon flawed or incorrect personnel accounting. 
Those findings seem to confuse the T&E acquisition career field within 
AT&L, which increased by 40 percent, and the T&E workforce (mostly 
outside AT&L) that actually decreased by 10 percent. If confirmed, I 
intend to look into this issue more closely.
          adaptation of t&e to evolving acquisition strategies
    Question. A natural tension exists between major program objectives 
to reduce cost and schedule and the T&E objective to demonstrate 
performance to specifications and requirements. This committee has 
received testimony by senior Defense Department leadership indicating 
the need to streamline the acquisition process to reduce the fielding 
times and cost for new weapons systems and capabilities.
    If confirmed, how would you propose to achieve an appropriate 
balance between the desire to reduce acquisition cycle times and the 
need to perform adequate testing?
    Answer. The time to conduct operational testing is only a small 
percentage of the overall acquisition cycle time. Delays in entering 
operational testing usually are much longer than the timeframe of the 
operational test itself. Because the operational tests supporting full 
production occur near the end of the acquisition cycle, there is 
greater pressure to rush such tests. I feel that the early involvement 
of operational testers can contribute to reducing cycle time by 
identifying issues early in the development cycle when the problems can 
be solved with less impact on the program.
    Question. In your view, would a review of T&E processes be useful 
in light of evolving acquisition approaches?
    Answer. I understand that DOT&E and USD(AT&L) recently commissioned 
and received a study by the National Research Council, titled ``Testing 
of Defense Systems in an Evolutionary Environment.'' I am in the 
process of reviewing the principal findings of that study.
    Question. What requirements and criteria would you propose to 
ensure an effective test program is established for an evolutionary 
acquisition program?
    Answer. Evolutionary acquisition requires a time-phased 
requirements process with a distinct set of requirements for each 
development spiral. The important point is that each spiral should 
remain ``event-based,'' as opposed to'' schedule driven.'' Each spiral 
can then be operationally tested and evaluated against appropriate 
requirements.
    Question. Recent equipment problems have brought to light potential 
testing deficiencies resulting from programs fielded that fall below 
the thresholds established for oversight by the DOT&E. In many cases, 
such as with body armor, helmets, vehicle armor kits, and ammunition, 
the materiel involved is crucial to the everyday mission effectiveness 
and survivability of our military forces.
    If confirmed, how would you ensure acquisition and fielding of such 
critical equipment is effective, safe, and suitable for our military to 
take into combat?
    Answer. It is a challenge for DOT&E to become involved in these 
programs for several reasons. The smaller programs do not meet the 
statutory thresholds that require formal program oversight by DOT&E. 
The Service Acquisition Executive manages and executes these 
acquisition programs and, in most cases, DOT&E does not even know the 
programs exist. DOT&E becomes aware of issues with these systems, such 
as with ground vehicle armor, body armor, helmets, and ammunition, when 
problems surface internally in the Department or through the media. 
Since there is no statutory requirement for DOT&E oversight of these 
programs, the Services are reluctant for DOT&E to become involved. In 
all these cases, DOT&E leadership has successfully engaged with 
Services to conduct a comprehensive review of the issues, and as 
required, conduct adequate analyses and/or testing to address the 
problems. This presents a challenge to DOT&E because the staff size is 
limited to that required for oversight of the Major Defense Acquisition 
Programs (MDAP) only. Time the DOT&E staff spends to resolve these 
critical issues with the non-MDAP programs, detracts from statutory 
oversight of the major programs.
    If confirmed, I will work with the Services to continue to address 
problems with the smaller programs, as they arise. I will try to 
influence the Department to adopt policy that to gives DOT&E formal 
insight to any acquisition program that impacts a soldier, sailor, 
airmen, or marine's personal effectiveness, safety, and survivability.
    Question. What are your views on the testing of systems under 
spiral development?
    Answer. Systems under spiral development should include as much 
operational realism as possible in a robust DT program. Such systems 
should also use operational assessments to support decisions to 
continue low-rate production. Appropriate LFT&E and end-to-end mission 
context OT&E should be completed before a spiral, block, increment, 
etc. is deployed and placed in harm's way.
    Question. Do you believe that follow-on operational testing should 
be required for each program spiral?
    Answer. Each program spiral that is to be deployed and placed in 
harm's way should be required to complete appropriate LFT&E and OT&E. 
In many cases that may be through a follow-on test, as you suggest.
             combination of testing with training exercises
    Question. Some hold the view that the most representative 
operational testing would be to allow operational forces to conduct 
training exercises with the system under evaluation.
    In your view, should testing be combined with scheduled training 
exercises for efficiency and effectiveness?
    Answer. I understand that the Department has combined testing and 
training events since the 1960s. I favor combined test and training 
events in a joint environment when they provide increased test realism, 
more realistic friendly and threat forces, and a broader operational 
context, but still allow for the necessary collection of data. Large 
scale exercises often present an economical way to create such 
conditions.
    Question. What are the barriers, if any, to doing so?
    Answer. On the other hand, I recognize there may be differing 
objectives between testing and training. Testing requires the ability 
to control events and collect data, which may interfere with 
commanders' training objectives. These potential barriers require close 
cooperation between the tester and trainer in order to be successful. 
This is challenging in today's environment as commanders prepare for 
ongoing contingency operations.
                        suitability performance
    Question. A study of acquisition programs from 1985-1990 and 1996-
2000 showed that the percentage of systems meeting reliability 
requirements decreased from 41 percent to 20 percent. This trend may be 
evidence that the Department, in attempting to field systems more 
rapidly, is focusing on effectiveness and treating suitability--to 
include reliability, availability, maintainability, and logistics--as 
less important. Late last year, the Department developed a guide to 
address this concern and to promulgate metrics for reliability, 
availability, and maintainability (RAM) of systems.
    What are your views about the appropriate balance between the need 
for rapid fielding of effective systems and RAM of such systems?
    Answer. My firm belief is that we cannot compromise the mission 
capability of the force and poor RAM does just that. As a practical 
matter, there does not necessarily have to be a trade-off between 
mission effectiveness and suitability (RAM) if both are designed for 
early in-program development. If confirmed, I will ensure that DOT&E 
continues to look for that duel emphasis early in-program development.
                     ``system-of-systems'' testing
    Question. Many programs are now developing what is called a 
``system-of-systems'' approach.
    What inherent challenges exist for operational testing with regard 
to DOD programs that are a part of an overall ``system-of-systems''?
    Answer. I believe there are significant challenges in conducting 
adequate operational T&E of a ``system-of-systems'' or programs that 
are a part of an overall ``system-of-systems.'' Some of the inherent 
challenges are: size of the unit, size of the threat, size of the test 
and test area; complexity of the test and test instrumentation; 
differing Service and Joint solutions; interdependence; 
interoperability between systems and Services; integration of complex 
systems; schedule synchronization; cost of test; and availability of 
operational units and opposing forces for test.
    Question. How should a ``system-of-systems'' be tested to assess 
the effectiveness of the whole?
    Answer. I believe the ``system-of-systems'' should be tested end-
to-end as a complete unit, ideally in conjunction with first unit 
equipping and training activities.
    Question. Complex system integration and related software 
development have emerged as the primary risks to major defense program 
development.
    If confirmed, how would you propose to assess the effectiveness of 
and, if necessary, improve the force's methodology for verification and 
validation of these extremely large, intensive computer programs which 
are so critical to the performance of today's weapon systems?
    Answer. The testing and assessment of complex software programs 
should be based on the same principles that we use for any weapon 
system--realistic, rigorous, and robust testing focused on the missions 
and tasks the software supports; used by the soldiers, sailors, airmen, 
marines, and DOD civilians as they will operate with it in the field or 
in their daily work environment. To do so, the Department must have the 
right tools available to create the complex, joint environment in which 
they often operate. If confirmed, I would urge Congress and the 
Department to support the development of a test environment as outlined 
in the testing in the Joint Environment Roadmap developed under Tom 
Christie's watch.
    In addition, if confirmed I would work closely with the Services 
and Joint Forces Command to develop the means to combine testing with 
training events. Major training events bring large numbers of forces 
and organizations together in a way that can rarely be duplicated for a 
single operational test event--creating that complex, stressful 
environment needed by these programs.
    Our growing reliance on complex software and information 
technologies for net-centric warfare creates a natural vulnerability to 
cyberthreats. If confirmed, I will transition the success DOT&E has had 
in assessing the information assurance posture for the combatant 
commanders to operational testing of systems during acquisition.
    Finally, if confirmed, I would stress the need for intense systems 
engineering and developmental testing prior to moving into operational 
testing. The Department has many hard lessons learned (and relearned)--
if the time isn't taken upfront to engineer the software and it isn't 
exercised in an operationally realistic architecture in a lab 
environment, then there is a high probability it will not work in the 
field. Testing of these complex systems must be event driven--and not 
schedule driven.
                   t&e facilities and instrumentation
    Question. Concern over long-term support for and viability of the 
Department's test ranges and facilities led to creation of the DTRMC in 
2002 and a requirement for direct research, development, and T&E 
support of facilities.
    In your view, how are these changes working to address funding and 
sustainability concerns at the department's test ranges and bases?
    Answer. I understand the Department revised its financial 
regulations in fiscal year 2005 as they pertain to the test 
infrastructure. This resulted in a realignment of funding to support 
the Major Range and Test Facility Base in an amount of approximately 
$600 million per year. The effects of such a significant redistribution 
in Department funding will take time to assess. If confirmed, I will 
continue to work with the DTRMC to ensure that the Department's 
investment strategy for test and evaluation is adequate to meet future 
needs.
    Question. Is the Department developing adequate test targets, 
particularly aerial targets, and ranges to represent emerging threats 
and environments?
    Answer. A 2005 Defense Science Board Study said that threat 
realistic aerial targets, in sufficient quantities, are critical to 
assessing the effectiveness of weapons and sensor systems. The DTRMC 
reinforced this position by establishing Full-scale Aerial targets and 
Supersonic Sea-skimming Missile targets as two of their four Critical 
Interest Items within the Strategic Plan for Defense Test Resources. 
These targets, and their control systems, have historically had 
difficulty competing in Service budget deliberations. If confirmed, I 
will closely monitor the approach that the Services take to these 
critical interest items during the certification of Service T&E 
budgets.
    Question. How can training and testing ranges be used more jointly 
and efficiently?
    Answer. Consistent with the Secretary identifying the 
implementation of joint test, training, and experimentation as one of 
his key priorities for fiscal year 2008, I know that DOT&E has an 
established liaison with Joint Forces Command to more efficiently 
integrate joint testing and training. I recognize this is an important 
issue and, if confirmed, will pursue steps to efficiently integrate 
testing and training.
               advanced concept technology demonstrations
    Question. Advanced Concept Technology Demonstrations (ACTD), to 
include, the new Joint Concept Technology Demonstrations, are one 
mechanism by which the Department rapidly transitions promising 
technology into the hands of the operational forces.
    How do you view the role of operational T&E in the execution of 
ACTDs, especially for those demonstrations where the system is to be 
fielded operationally upon completion of the ACTD?
    Answer. I believe that it is a leadership responsibility to ensure 
that all systems deployed for combat work. If confirmed, I will work 
with the Services and their OTAs to ensure that ACTD systems being 
considered for deployment receive some type of operational assessment 
prior to their employment so that commanders completely understand 
those systems' capabilities and limitations.
                           live-fire testing
    Question. The live-fire testing program is a statutory requirement 
to assess the vulnerability and survivability of platforms, while also 
assessing the lethality of weapons against the required target sets.
    Do you believe that the Department's current live-fire testing 
program is accomplishing its purpose?
    Answer. Yes. The Abrams Tank, the Bradley Fighting Vehicle, the 
M109 Howitzer Family, the F18E/F fighter aircraft, the Apache and 
Blackhawk helicopters, and more recently the Stryker family of 
vehicles, are all outstanding examples where the live-fire program 
directly affected the system design and improved both system and crew 
survivability.
    Question. How would you propose to overcome limitations that the 
live-fire testing program suffers due to shortages in threat-
representative targets?
    Answer. This question addresses two areas--weapon system live-fire 
lethality (section 2366) and operational end-to-end weapon 
effectiveness testing against threat systems, also referred to as 
``live-fire testing.''
    The shortage of high fidelity threat representative targets does 
not have a significant impact on characterizing munitions lethality. 
Much of this testing is at the warhead level in the laboratory or 
controlled test environment where there are adequate threat or threat 
surrogate targets, test methodology, and analytical tools to 
characterize warhead lethality.
    The need for high fidelity threat representative targets is crucial 
for the operational end-to-end weapon effectiveness testing--especially 
in a joint environment where various weapon and sensor platforms using 
a variety of technologies have to detect, acquire, track, and 
successfully engage threat targets. The Department needs to have an 
integrated DOD approach to the target problem. In the near-term, the 
Department should identify and fund innovative initiatives to improve 
the threat representation of the existing target suite. For the longer-
term, the Department should focus on the recent recommendations from 
the Defense Science Board to acquire threat representative supersonic 
missile targets and establish a replacement program for the aging QF-4 
fixed-wing aircraft target. If confirmed, this will be a high priority 
issue for me.
                        modeling and simulation
    Question. Advances in modeling and simulation (M&S) have provided 
an opportunity to streamline the testing process, saving time and 
expense.
    What do you believe to be the proper balance between modeling and 
simulation and actual testing of the developed product?
    Answer. It is appropriate to use models to support core T&E 
processes. For example, M&S can be used to effectively predict results 
of tests to be conducted. It can be used effectively to produce a full 
parametric evaluation of system performance where actual parametric 
testing may be too expensive. Models can also help the Department 
design tests to maximize learning and optimally apply resources. Still, 
M&S is a complement, not a replacement, for operational testing.
    Question. How is the amount of this actual testing determined to 
ensure reliability and maintainability thresholds are met with 
sufficient statistical confidence?
    Answer. The amount of actual testing required to validate RAM 
thresholds would vary from program to program. In terms of using M&S to 
support that process, it would seem to me that program managers who 
make an early commitment to integrate the use of models as tools to 
support learning and to gain insight and understanding throughout the 
life cycle of a program would be much better positioned to be 
successful than those who try to use models late in the life of a 
program as a means to respond to resource or schedule constraints.
    Question. Can T&E modeling and simulation be integrated with 
exercise simulation?
    Answer. Again, T&E modeling and simulation can help represent the 
environment during test to realistically stress the system under test. 
M&S should complement, not replace, actual testing.
                       t&e science and technology
    Question. The Department's T&E science and technology (S&T) effort 
now falls under the jurisdiction of the Director of the Major Test 
Resource Management Center.
    What are your views on the appropriate level of investment in the 
S&T of testing?
    Answer. Given my background, I believe strongly in a robust S&T 
effort. If confirmed, I look forward to investigating means by which we 
can apply technology to enhance our T&E capabilities.
    Question. What mechanisms will you employ to ensure the S&T 
portfolio is responsive to the department's future test instrumentation 
needs?
    Answer. I look forward to working with the USD(AT&L) and his 
subordinate organizations to shape the S&T portfolio to best suit the 
Department's instrumentation needs, if confirmed. I am particularly 
interested in examining the use of embedded instrumentation that can be 
used by testers, trainers, and operator-maintainers.
                       operational test agencies
    Question. Operational Test Agencies (OTA) are tasked with 
conducting independent operational testing and evaluation of 
acquisition programs. Recent demands on these organizations have 
increased to meet rapid acquisition initiatives, to demonstrate joint 
and advanced concept technology programs, and to evaluate information 
assurance, information operations, and joint T&E requirements.
    In your view, are these agencies sufficiently staffed to perform 
the required functions?
    Answer. The OTA staffs appear to be stretched thin by added test 
types and events, such as demonstrations of rapid acquisition 
initiatives; demonstrations of ACTDs; and evaluations of Information 
Assurance, Information Operations, and Joint T&Es. If confirmed, I 
intend to look into manning issues to ensure there is adequate military 
operational experience in the OTAs without inappropriate reliance upon 
contractor support.
    I have also been made aware of the potential adverse impact on the 
Army T&E Command of their impending relocation. If confirmed, I will 
monitor that situation closely as they may suffer a loss of experienced 
personnel and loss of continuity just as they will be involved in the 
testing of the very complex Future Combat System (FCS).
    Question. How would you propose to arbitrate shortfalls between 
program managers' limited funding and OTAs independent test 
requirements?
    Answer. Title 10 and DOD Directives require DOT&E to assess the 
adequacy of operational testing. Service leadership retains the 
responsibility to ensure programs are managed to meet testing 
requirements. If confirmed, I will ensure the DOT&E staff continues to 
facilitate dialogue between program stakeholders.
    Question. Do you have any concerns about the independence of the 
OTAs?
    Answer. Yes, I am concerned that there will always be pressures on 
the OTA Commanders to support component acquisition strategies. I think 
that it is important that they continue to report to the top level of 
their respective components, independent of the acquisition 
organizations.
    Question. Should policies and procedures of the OTAs be 
standardized?
    Answer. Each of the component OTAs has unique processes for the 
conduct of OT&E. As long as these processes lead to a robust 
operational T&E of all acquisitions, I believe DOT&E does not need to 
dictate standard processes that may limit component flexibility. I do, 
however, believe the capability to develop, test, train, and experiment 
complex systems in a joint operational environment needs improvement. 
The ``Testing in a Joint Environment Roadmap,'' approved in November 
2004, defines capabilities in common, measurable, warfighting terms. I 
look forward to advancing the objectives identified in the roadmap, if 
confirmed.
                         information assurance
    Question. Recent defense authorization legislation provided the 
DOT&E with oversight responsibility for information assurance (IA) 
evaluations of fielded systems. There has reportedly been an increased 
focus on IA as an evaluation issue for systems on the operational T&E 
oversight list and a group of acquisition programs have been identified 
for an expanded review of the adequacy of IA evaluation planning.
    Does the operational T&E component of the Department possess 
adequate expertise, staffing, and funding to carry out its IA 
responsibilities?
    Answer. The IA community, both in DOD as well as industry, has for 
many years been relatively small, but has experienced considerable 
growth in the past few years. At present, DOD appears to possess 
adequate expertise within the traditional cryptologic and 
communications professional fields, but may need increased staffing and 
funding to address all of the systems and areas where IA has become 
critical. In multiple assessments, it has been observed that the 
network support personnel are frequently over-tasked in what is a 
growing technical discipline. The OTAs are not currently manned to 
address all of the areas of concern. If confirmed, I will support 
efforts to provide additional resources to the OTAs for hiring, 
training, and fielding IA experts to test, assess, and validate the 
readiness of network systems for operations. Additionally, if 
confirmed, I will continue the work of my predecessor, Tom Christie, in 
revising the IA acquisition policy to ensure that IA is addressed in 
all operational testing for systems in which the secure exchange of 
information is integral to mission success.
    Question. What is the status of the recommendation that IA should 
become an exercise objective wherever information is critical to 
mission accomplishment?
    Answer. The Chairman of the Joint Chiefs has provided direction to 
the combatant commanders requiring that IA be addressed in every major 
combatant command exercise by fiscal year 2007 (and in half of all 
fiscal year 2006 exercises). The combatant commanders have dramatically 
increased the focus on IA in recent years, and the inclusion of 
training objectives specifically addressing networks, network security, 
and network personnel has become more common. If confirmed, I will 
continue to work closely with the combatant commanders, the National 
Security Agency, the Joint Staff, and the Assistant Secretary of 
Defense for Networks, Intelligence, and Integration (ASD-NII) to 
increase attention on IA, improve the way it is assessed, and provide 
the operational commanders with the information they need.
                       ballistic missile defense
    Question. The United States is developing a Ballistic Missile 
Defense System (BMDS) that is intended to defeat ballistic missiles of 
all ranges, in all phases of flight, to defend the United States, its 
allies, and friends with a very high degree of confidence.
    Can you assure the committee that, if confirmed, you will ensure 
that adequate operational testing and evaluation is conducted of the 
BMDS, and that you will make a determination of whether the system and 
its elements that are tested are effective and suitable for combat?
    Answer. DOT&E provides an annual report and a BMDS Block assessment 
report to Congress. If confirmed, I will assess BMDS system operational 
effectiveness and suitability as well as test adequacy in these 
reports.
    Question. If you determine that such operational testing and 
evaluation does not demonstrate that the BMDS or its elements are 
effective and suitable for combat, will you inform Congress of that 
determination?
    Answer. Yes. If confirmed, I will provide my assessment on test 
adequacy and BMDS and element effectiveness and suitability in the 
annual reports to Congress.
    Question. According to title 10, U.S.C., major defense acquisition 
programs are required to complete initial operational T&E before 
proceeding beyond low-rate initial production. This is to ensure that 
weapons systems work effectively before they are produced in large 
numbers and at great expense. The Defense Department has exempted the 
BMDS from this requirement, saying that there will be only one BMDS, 
and thus no question of proceeding beyond low-rate initial production.
    What do you believe is the appropriate role for the office of the 
DOT&E in providing an independent and objective assessment of the 
operational effectiveness, suitability, and survivability of the BMDS?
    Answer. I believe there should be adequate operational testing of 
any element to demonstrate its capability before it is fielded as an 
operational system. Where there are urgent requirements to rapidly 
deploy an element, testing should be conducted to confirm it is safe to 
operate and to characterize its performance capability to address the 
urgent requirement. After the urgency subsides, operational testing and 
assessment should continue to ensure the system is effective, suitable, 
and survivable for its intended mission.
    Question. Concerning the BMDS, the 2005 DOT&E Annual Report states: 
``As reported last year, there is insufficient evidence to support a 
confident assessment of Limited Defensive Operations or Block 04 
capabilities.''
    Do you believe it is essential to conduct operationally realistic 
testing of the BMDS to characterize its operational capability and 
assess whether it is operationally effective, and suitable for combat?
    Answer. Yes. I believe operational testing should be conducted on 
the BMDS to characterize its operational capability and to demonstrate 
its effectiveness, suitability, and survivability.
    Question. Concerning the Ground-Based Midcourse Defense (GMD) 
system, the 2005 DOT&E Annual Report notes that the ``lack of flight 
test validation data for the simulations that support the ground 
testing limits confidence in assessments of defensive capabilities,'' 
that ``robust testing is limited by the immaturity of some 
components,'' and that ``flight tests still lack operational realism.'' 
The last five attempted intercept tests with the GMD system have 
resulted in failures.
    Do you support robust, operationally realistic testing and 
disciplined operational T&E of the GMD system as necessary steps to 
properly demonstrate the system's capabilities and to assess its 
operational effectiveness, suitability, and survivability?
    Answer. Yes. I believe there should be adequate, robust, 
operationally-realistic testing of GMD to demonstrate its capability. 
Where there are urgent requirements to rapidly deploy an element, 
testing should be conducted to confirm it is safe to operate and to 
characterize its performance capability to address the urgent 
requirement. After the urgency subsides, operational testing and 
assessment should continue to ensure the system is effective, suitable, 
and survivable for its intended mission.
    Question. In 2005, the Mission Readiness Task Force (MRTF) examined 
problems with the GMD testing program, found numerous problems, and 
recommended a number of corrective actions, which the Defense 
Department has adopted.
    Do you support the MRTF findings and recommendations as appropriate 
and prudent steps to return the GMD program to successful flight 
testing?
    Answer. Yes. The MRTF review was thorough and sobering. The review 
findings are a reminder that the GMD program is still in development. 
The MDA Director embraced the results and has taken actions to 
implement the recommendations. The slow down in the GMD test program is 
a direct result of his prudent philosophy of ``test-analyze-fix-test'' 
which has proven to be the correct approach as demonstrated by recent 
successes in the Aegis BMD, THAAD, and even the GMD programs.
                     ground-based midcourse defense
    Question. The Senate-passed version of the National Defense 
Authorization Act for Fiscal Year 2007 includes an increase of $45 
million to improve the ability of the Missile Defense Agency (MDA) to 
conduct concurrent test and operations of the GMD system and to improve 
the pace of flight testing.
    Do you support the establishment of procedures and infrastructure 
to support combined operations and robust testing?
    Answer. The capability to test and train on the operational 
configured BMDS as it evolves is critical to ensuring the 
effectiveness, suitability, and readiness of the integrated fielded 
capability. MDA should develop and employ a concurrent test and 
operations capability for the full BMDS. The concept would be similar 
to that used for the Cheyenne Mountain Upgrade Program for training and 
testing the ``on-line'' Integrated Tactical Warning and Attack 
Assessment mission capability. The solution should allow MDA to conduct 
robust end-to-end testing of the fully-integrated operational system, 
including flight test interceptors, sensors, and launch equipment using 
warfighters and operational tactics, techniques, and procedures, while 
the combatant commanders maintain an on-alert posture for the BMDS.
    Question. Do you believe the pace of GMD flight testing can 
reasonably be accelerated?
    Answer. The 1998 Welch Report on Reducing Risk in Ballistic Missile 
Defense Flight Test Programs concluded that schedules can be more 
aggressive, but only if justified by processes or approaches that 
support shorter development times. Accelerating schedules by simply 
accepting more risk carries a high risk of failure. Accelerating the 
GMD flight test schedule would add significant risk to the program. The 
program needs adequate time to accomplish the structured ground and 
flight test program currently planned. Recent intercept successes with 
Theater High-Altitude Area Defense and Aegis proves that MDA's current 
engineering, development, and test-analyze-fix-test philosophy is 
successfully maturing the elements. The MDA is finding and fixing 
problems that are only surfacing due to its test-analyze-fix-test 
initiatives. MDA is allocating time between the conduct of ground and 
flight tests to analyze data, and to find and fix design and 
manufacturing problems that surface from the previous tests. 
Accelerating flight-testing would reduce this critical time and limit 
the MDA's opportunities to find and fix problems that surfaced from the 
previous test. History shows that program timelines are shortened when 
all the essential steps are done right the first time. The MDA's test-
analyze-fix-test philosophy reduces the potential for the ``rush to 
failure'' result highlighted in the Welch Report. MDA appears to be 
working hard to get it right this time--on its own schedule.
    Question. What missile defense lessons do you expect the 
operational test and evaluation  community  to  learn  from  the  North 
 Korean  flight  test  of  short-, medium-, and long-range ballistic 
missiles in July 2006?
    Answer. I am uncertain about what we might be able to learn from 
these recent events. These firings occurred just days ago. It will take 
time to analyze the data that our intelligence assets were able to 
collect. The data may be limited due to the extremely short duration of 
the ballistic missile's flight prior to failure. I am advised that any 
relevant lessons-learned from these events will be addressed as part of 
the February 2007 BMDS Report.
    Question. On April 4, 2006, the Acting DOT&E, David Duma, testified 
before the Strategic Forces Subcommittee that ``with the current 
program and test events scheduled, it's very likely that the [GMD] 
system will demonstrate ultimately that it is effective.''
    Do you concur with this assessment, based upon your initial review 
of the GMD system?
    Answer. Yes. Based on the reports I have seen and the briefings I 
have been given, I believe the GMD element is on a growth path towards 
maturity. However, I am not sure that there is sufficient test data to 
establish where the system is on the maturity growth curve. Future 
testing will ultimately demonstrate whether the system is effective and 
suitable.
                          environmental issues
    Question. The National Defense Authorization Act for Fiscal Year 
2004 included provisions that were intended to add flexibility to the 
Endangered Species Act and Marine Mammal Protection Act (MMPA) to 
ensure the ability to conduct realistic military testing and training.
    What has the DOD experience been conducting test operations under 
these more flexible provisions?
    Answer. Since enactment of the amendments, I understand that the 
Department has been able to conduct its test operations adequately 
while making compensating adjustments to address environmental issues 
when necessary.
    Question. What type of testing has the Department been able to 
conduct and what type of encroachment concerns on military testing have 
been avoided as a result of these provisions?
    Answer. The provisions of the National Defense Authorization Act 
for Fiscal Year 2004 certainly provide the Department overall with 
greater flexibility to conduct its programs that address military 
readiness. Consequently, I believe that the act's provisions 
effectively contribute to the accomplishment of adequate testing for 
the Department's acquisition programs.
    Question. The Secretary of Defense, after conferring with the 
Secretary of Commerce, recently invoked the national security exemption 
to the MMPA for a period of 6 months. During the same week, the Navy 
settled a lawsuit brought by the National Resources Defense Council 
that challenged Navy and Commerce Department compliance with the MMPA 
which sought to halt the Navy's Rim of the Pacific exercise near 
Hawaii.
    How do you envision these developments impacting military T&E of 
sonar and other technologies that involve the marine environment?
    Answer. While I cannot speak to the terms of the litigation 
settlement reached between the Navy and the National Resources Defense 
Council, I believe the exemption is an essential element in the 
statutory framework that supports departmental test programs and its 
judicious use will foster test adequacy.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Question. Do you agree, if confirmed for this high position, to 
appear before this committee and other appropriate committees of 
Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the DOT&E?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
                Questions Submitted by Senator Jack Reed
                testing of force protection technologies
    1. Senator Reed. Dr. McQueary, at the hearing, you and Chairman 
Warner engaged in a discussion relating to the Director's role in the 
development and deployment of helmets and other force protection 
technologies. What role specifically do you think the Director of 
Operational Test and Evaluation (DOT&E) should play in the development 
and deployment of force protection technologies?
    Dr. McQueary. Since force protection equipment directly impacts the 
survivability and well being of our military personnel, I believe the 
Director should have similar oversight authority for these programs as 
for the major defense acquisition programs. Typically, the budget and 
program offices for these type programs are much smaller and require 
less organizational infrastructure than the major acquisition programs. 
I believe that DOT&E should not create unnecessary additional 
bureaucracy for these programs, but should oversee the programs to 
ensure the Services appropriately define operational survivability 
requirements and then plan, execute, and report on adequate testing to 
demonstrate the equipment or technology performs as intended.

    2. Senator Reed. Dr. McQueary, in your answers to pre-hearing 
policy questions on Ballistic Missile Defense, you stated that you 
believe ``there should be adequate operational testing of any [missile 
defense] element to demonstrate its capability before it is fielded as 
an operational system.'' Of course, that is the practice with all other 
major defense acquisition programs, except missile defense. You also 
state that in cases where there are ``urgent requirements to rapidly 
deploy'' a missile defense system, ``testing should be conducted to 
confirm it is safe to operate and to characterize its performance 
capability to address the urgent requirement.'' Do you believe that 
testing has already been conducted on the Ground-Based Midcourse 
Defense (GMD) system to ``characterize its performance capability,'' or 
that such testing remains to be conducted on this system that has been 
deployed since 2004?
    Dr. McQueary. My knowledge of the GMD system test program is 
limited to what I have read in the media and the DOT&E reports while 
preparing for this hearing. Based on those reports, I believe the 
deployed GMD system is not fully characterized at this time and must 
yet demonstrate that it can reliably and repeatably detect, acquire, 
track, and intercept threat ballistic missiles in an operationally 
realistic end-to-end engagement scenario.
                                 ______
                                 
             Question Submitted by Senator Daniel K. Akaka
                         acquisition incentives
    3. Senator Akaka. Dr. McQueary, in your written testimony, you note 
that you believe that incentives in the acquisition system could be 
changed to value early realistic testing and that incentives could be 
provided to foster the discovery of such design flaws. Yet, the 
Government Accountability Office (GAO) has identified the Department of 
Defense's (DOD) use of incentive and award fees as a ``longstanding 
business management challenge'' for the DOD. Given that the GAO has 
found that awarding incentives has not produced the desired results 
and, in fact, can undermine performance, in what ways do you believe 
that adding another layer of incentives will improve program success?
    Dr. McQueary. When I said that incentives in our acquisition system 
could be changed to value early realistic testing, I did not mean to 
imply that the incentives should necessarily be fees. I believe that 
Congress has provided an excellent set of incentives in the new 
language on acquisition in section 801 of the National Defense 
Authorization Act for Fiscal Year 2006. That language specifies that an 
acquisition program may not receive Milestone B approval until the 
milestone decision authority certifies that, among other things. . .

          1. . . . the technology in the program has been demonstrated 
        in a relevant environment;
          2. . . . the program demonstrates a high likelihood of 
        accomplishing its intended mission.

    It seems to me that this language provides a great incentive for 
early realistic testing. The results are also highly visible: the 
certification is to be submitted to the congressional defense 
committees.
    With respect to the GAO report, I believe they recommended DOD 
improve the use of fees, not that DOD abandon them. The GAO 
recommendations were directed to the Under Secretary of Defense for 
Acquisition, Technology, and Logistics.
                                 ______
                                 
    [The nomination reference of Charles E. McQueary follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 29, 2006.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Charles E. McQueary, of North Carolina, to be Director of 
Operational Test and Evaluation, Department of Defense, vice Thomas P. 
Christie, resigned.
                                 ______
                                 
    [The biographical sketch of Charles E. McQueary, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of Charles E. McQueary
    Dr. McQueary was nominated by President Bush to fill the position 
of the Department of Defense, Director Operational Test and Evaluation 
on June 30, 2006. His career spans nearly 40 years of public and 
private sector service in the science, technology, research and 
development fields. His public service includes the honor of serving as 
the Nation's first Under Secretary for Science and Technology in the 
Department of Homeland Security (DHS). Over the past 3 years, his 
efforts at DHS have led to significant technical advancements in our 
country's ability to combat terrorism at home and abroad.
    In 1997, Dr. McQueary joined General Dynamics Corporation, as 
President of General Dynamics Advanced Technology Systems where he led 
all aspects of business operations and strategy in one of America's 
premier defense contractors. From 1987 to 1997, he served as President 
and Vice President of AT&T/Lucent Technologies. Dr. McQueary also held 
executive leadership positions with AT&T Bell Laboratories from 1966 to 
1997.
    A native of Gordon, Texas, Dr. McQueary is a graduate of the 
University of Texas, Austin where he earned a B.S. Degree in Mechanical 
Engineering; M.S. Degree in Mechanical Engineering; and a Ph.D. in 
Engineering Mechanics as a NASA Scholar (M.S. & Ph.D.) and member of 
five Academic Honor Societies.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Charles E. 
McQueary in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Charles Everette McQueary; nickname: Chuck.

    2. Position to which nominated:
    U.S. Department of Defense Director, Operational Test and 
Evaluation.

    3. Date of nomination:
    June 29, 2006.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 1, 1939; Gordon, Texas.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Cheryl McQueary (nee Bath).

    7. Names and ages of children:
    Joanna Lea Gossett (nee McQueary), 43.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    University of Texas, Austin--Ph.D., Engineering Mechanics, 1966.
    University of Texas, Austin--M.S., Mechanical Engineering, 1964.
    University of Texas, Austin--B.S., Mechanical Engineering, 1962.
    Gordon High School, Gordon, Texas--Diploma, 1958.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Senior Executive Service, LT, U.S. Department of Defense, 
Washington, DC, April 2006-present.
    Under Secretary, Science & Technology Directorate, U.S. Department 
of Homeland Security, March 2003-March 2006.
    President, Advanced Technology Systems, General Dynamics, 
Greensboro, NC, October 1997-December 2002.
    President, Advanced Technology Systems, Lucent Technologies, 
Greensboro, NC, 1995-September 1997.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Life Member, Phi Eta Sigma (scholarly organization).
    Life Member, Tau Beta Pi (scholarly organization).
    Life Member, Phi Kappa Phi (scholarly organization).
    Honorary Member, Sigma Xi (scholarly organization).

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Senator Elizabeth Dole--$2,000.
    The Honorable Asa Hutchinson--$500.
    Republican National Committee--$2,000.
    Re-elect Mike Barber--$100.
    Justice Butterfield--$250.
    Kay Hagen--$200.
    Sixth District Republican Party--$250.
    Boyd for Congress--$100.
    Britt for Congress--$100.
    General Dynamics PAC Contributions--$1,200 estimate.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Academic Fraternities: Phi Eta Sigma, Pi Tau Sigma, Tau Beta Pi, 
Phi Kappa Phi, Sigma Xi; Tau Beta Pi Outstanding Senior Engineer; 
Distinguished Engineering Graduate of the University of Texas at Austin 
(1997); NASA Scholarship; NDIA Homeland Security Leadership Award.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Nonlinear Periodic Modes of Oscillation of Elastic Continua 
(Technical paper, 1968).
    Oscillations of a Circular Membrane on a Nonlinear Elastic 
Foundation (Technical paper, 1967).
    Bessel-Function Integrals Needed for Two Classes of Physical 
Problems (Technical paper, 1967).
    Periodic Oscillations of a Class of Non-Autonomous Nonlinear 
Elastic Continua (Technical paper, 1967).
    The SPARTAN Missile--A Major Component of the Sentinel System 
(Technical paper, 1968).
    Recipe for Success in Defense Industry: ``Acquire or Be Acquired'' 
(National Defense article, October 1998).
    Industry Interview (Military Information Technology, Vol. 4, Issue 
5).

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None. I gave approximately 150 speeches in 3 years in my position 
at the Department of Homeland Security.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                               Charles E. McQueary.
    This 10th day of July, 2006.

    [The nomination of Charles E. McQueary was reported to the 
Senate by Chairman Warner on July 20, 2006, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 21, 2006.]
                              ----------                              

    [Prepared questions submitted to Anita K. Blair by Chairman 
Warner prior to the hearing with answers supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. After 20 years, and especially after September 11 and its 
aftermath, it is only prudent to review our basic assumptions about how 
best to organize and operate in the context of today's national 
security mission.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. The Goldwater-Nichols Act has proven immensely valuable to 
the Department of Defense (DOD), especially in establishing the 
conditions for success of joint military operations. National security 
needs today demand close cooperation and coordination between military 
and civilian operations. The Goldwater-Nichols Act provides a 
successful model for improving military-civilian jointness, both within 
the DOD and involving interagency, intergovernmental, nongovernmental, 
and contractor activities. Similarly, to sustain the success of the 
All-Volunteer Force, I believe it is worthwhile to review the way we 
manage our military personnel, including compensation, assignment, 
development, and force integration policies.
                                 duties
    Question. Section 8016 of title 10, U.S.C., provides that the 
Assistant Secretary of the Air Force for Manpower and Reserve Affairs 
shall have the principal duty of ``overall supervision of manpower and 
Reserve component affairs of the Department of the Air Force.''
    Assuming you are confirmed, what duties do you expect that 
Secretary Wynne will assign to you?
    Answer. If confirmed, I look forward to being part of Secretary 
Wynne's management team, and I expect that he will assign me duties 
consistent with the title 10 requirements for this position.
                             relationships
    Question. If confirmed, what will be your relationship with:

        <bullet> The Secretary of the Air Force
        <bullet> The Under Secretary of the Air Force
        <bullet> The General Counsel of the Air Force

    Answer. The Secretary is the head of the Department of the Air 
Force. Along with the Under Secretary, the General Counsel and other 
Assistant Secretaries, I will, if confirmed, report to the Secretary 
and perform duties as he assigns.
    Question. If confirmed, what will be your relationship with:

        <bullet> The Under Secretary of Defense for Personnel and 
        Readiness
        <bullet> The Principal Deputy Under Secretary of Defense for 
        Personnel and Readiness
        <bullet> The Assistant Secretary of Defense for Reserve Affairs
        <bullet> The Assistant Secretary of Defense for Health Affairs

    Answer. The Under Secretary of Defense for Personnel and Readiness 
is the representative of the Secretary of Defense for matters 
concerning those areas. The Principal Deputy and the Assistant 
Secretaries for Reserve Affairs and Health Affairs report to the Under 
Secretary. If confirmed, I will collaborate and cooperate with these 
officials and their staffs.
    Question. If confirmed, what will be your relationship with:

        <bullet> The Chief of Staff of the Air Force
        <bullet> The Deputy Chief of Staff of the Air Force for 
        Personnel
        <bullet> The Surgeon General of the Air Force

    Answer. The Chief of Staff presides over the Air Force staff, 
delivers plans and recommendations of the Air Staff to the Secretary, 
and upon the Secretary's approval, acts as his agent for carrying them 
into effect. He is assisted by deputies, including the Surgeon General, 
who is the chief for Air Force medical matters. If confirmed, I will 
work on behalf of the Secretary to coordinate policies and proposals 
with the appropriate members of the Air Staff. The Air Force Chief of 
Staff is also a member of the Joint Chiefs and has other operational 
duties, including keeping the Secretary fully informed of significant 
operations affecting the Secretary's duties and responsibilities.
    Question. If confirmed, what will be your relationship with:

        <bullet> The Chief, National Guard Bureau
        <bullet> The Chief, Air National Guard
        <bullet> The Chief, Air Force Reserve

    Answer. The Chief, National Guard Bureau is the principal adviser 
to the Secretary of the Army and the Army Chief of Staff, and to the 
Secretary of the Air Force and the Air Force Chief of Staff, on matters 
relating to the National Guard, the Army National Guard of the United 
States, and the Air National Guard of the United States. The Chief, Air 
National Guard heads the air portion of the National Guard. The Chief, 
Air Force Reserve is the head of the Reserve component of the Air 
Force. If confirmed, I will work closely with these officials to 
provide good policies and effective oversight of the Guard and Reserve 
on manpower and personnel matters.
    Question. If confirmed, what will be your relationship with:

        <bullet> Airmen and their families

    Airmen and their families are the reason why there is an Assistant 
Secretary of the Air Force for Manpower and Reserve Affairs--an 
official dedicated to ensuring that the people who serve and make 
sacrifices on behalf of their country are properly treated and cared 
for. If confirmed, I will strive to be their most vigilant guardian and 
humble servant.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I am humbled and honored to be considered for the position 
of Assistant Secretary of the Air Force for Manpower and Reserve 
Affairs. My most relevant background and experience is the past 5 years 
I have served as a Deputy Assistant Secretary of the Navy for Military 
Personnel Policy, responsible for policy and oversight relating to 
manpower and personnel matters affecting Navy and Marine Corps Active-
Duty servicemembers and their families. Major issues have included 
recruiting and retention; training and education; Active-Duty strength 
and compensation; character, leadership development and diversity/equal 
opportunity; health affairs; counterdrug programs; family support; and 
morale, welfare, and recreation. In February 2005, I accepted 
additional duties as Deputy Assistant Secretary of the Navy for Total 
Force Transformation, leading efforts to modernize the management of 
the Department's total force of Active-Duty, Reserve, civilian, and 
contractor personnel. Since August 2001, I have also had the 
opportunity to observe and learn from both civilian and military 
leadership, not only in the realm of manpower and Reserve affairs, but 
across a range of DOD activities.
    Before joining DOD in 2001, I practiced law for about 20 years, 
initially concentrating in corporate law and litigation and later, as a 
nonprofit organization leader, focusing on constitutional equal 
protection and individual rights issues. In prior public service, I 
served on the Virginia Military Institute (VMI) Board of Visitors from 
1995 to 2001, and chaired the Board's committee overseeing the 
successful assimilation of women at VMI. In 1998-1999, I was chairman 
of the Congressional Commission on Military Training and Gender-Related 
Issues, which was established in the aftermath of a string of scandals 
in the mid-1990s involving sexual misconduct in the military.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Assistant 
Secretary of the Air Force for Manpower and Reserve Affairs?
    Answer. If confirmed, I look forward to learning more about the Air 
Force, its mission, and its people so that I can improve my ability to 
perform my duties.
                     major challenges and problems
    Question. In your view, what are the major challenges and problems 
confronting the Assistant Secretary of the Air Force for Manpower and 
Reserve Affairs?
    Answer. People are our most valuable asset. Even if we have the 
most advanced technology and hardware in the world, if we do not have 
good people, we cannot accomplish our mission. The enduring challenge 
is to attract, retain, and manage people in such a way that both they 
and the institution can succeed and thrive.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I look forward to working with others--in the 
Air Force, in DOD, Congress, and beyond--to apply the best knowledge 
and experience toward solving and overcoming these challenges.
             air force active-duty end strength reductions
    Question. Following recommendations made in the Quadrennial Defense 
Review (QDR), the President's budget for fiscal year 2007 begins the 
process of reducing Air Force manpower by 40,000 full-time equivalents 
across the total force. The Air Force plans to take a reduction of over 
23,000 airmen by September 30, 2007.
    What is your understanding of how the Air Force intends to achieve 
these planned Active-Duty Force reductions within the officer and 
enlisted ranks in a single fiscal year, and they will affect readiness 
and recruiting?
    Answer. I understand that the Air Force plans to reduce its end 
strength in the near future. The Navy has faced similar challenges in 
the past few years. If confirmed, I expect to examine this subject 
thoroughly with the Air Force staff and others.
    Question. If the Air Force is unable to implement planned 
retirement of aircraft, such as the F-117, U-2, B-52, and C-21, what is 
your understanding of how this would affect the Air Force's ability to 
achieve planned reductions?
    Answer. I understand that planned reductions may be affected by the 
number and types of platforms in use in the Air Force. As a platform-
based service, the Navy has had to deal with comparable issues. If 
confirmed, I expect to examine this subject thoroughly with the Air 
Force staff and others.
    Question. To what extent does the Air Force plan to rely on 
military-to-civilian conversions to achieve reductions in end strength 
while continuing to perform its missions, and have any studies been 
performed that address military-to-civilian conversions, availability 
of funding for civilian salaries, and the amount of time needed to 
achieve significant reductions using this means?
    Answer. I am not familiar with the Air Force's plans as they may 
relate to military-to-civilian conversions. The Navy and Marine Corps 
have also planned and executed such conversions; both have ``lessons 
learned'' to share. If confirmed, I expect to examine this subject 
thoroughly with the Air Force staff and others.
    air national guard and air force reserve end strength reductions
    Question. Under the QDR, the Air Force plans to cut over 14,000 
part-time end strength positions from the Air National Guard (ANG) and 
about 7,700 part-time positions from Air Force Reserve over the next 5 
years.
    What is your understanding of how the ANG and Air Force Reserve 
will absorb these reductions in end strength over the FYDP given the 
missions they have been assigned worldwide?
    Answer. I understand that the Air Force plans to reduce its ANG and 
Air Force Reserve end strength in the near future. I am not familiar 
with the details of the Air Force plan. If confirmed, I expect to 
examine this subject thoroughly with the Air Force staff and others.
    Question. What is your understanding of the current status of 
coordination about the impact of these reductions with the National 
Guard Bureau and the State National Guard units affected?
    Answer. I am not familiar with the current status of Air Force 
coordination with the National Guard Bureau and State National Guard 
units on the possible impacts of end strength reductions. If confirmed, 
I expect to examine this subject thoroughly with the Air Force staff 
and others.
    Question. What missions currently assigned to the ANG and Air Force 
Reserve would be changed or eliminated in order to meet end strength 
reductions?
    Answer. I am not familiar with the Air Force's plans for adjusting 
ANG or Air Force Reserve missions to meet end strength reductions. If 
confirmed, I expect to examine this subject thoroughly with the Air 
Force staff and others.
              reserve component involuntary recall policy
    Question. The DOD has implemented a policy that limits the 
involuntary recall of Reserve and National Guard personnel for 
mobilization to 24 cumulative months.
    What is your understanding of the impact, if any, of the 24-month 
policy on the Air Force Reserve and ANG with respect to their ability 
to generate forces for operational missions?
    Answer. I understand that the policy limiting involuntary recall to 
24 cumulative months may have an impact on Air Force Reserve and ANG. 
The Navy and Marine Corps have had to deal with the same policy; 
however, I recognize that the policy may have different impacts on 
different Services. If confirmed, I expect to examine this subject 
thoroughly with the Air Force staff and others.
    Question. What is your understanding of the number and percentage 
of members of the Air Force Reserve and ANG who are unavailable for 
deployment as a result of the 24-month policy and the impact, if any, 
that this has on mission readiness?
    Answer. I am not familiar with Air Force statistics on non-
availability of Reserve or Guard personnel or the impact on mission 
readiness, as a result of the 24-month policy. If confirmed, I expect 
to examine this subject thoroughly with the Air Force staff and others.
    Question. What measures are being taken in the Department to 
respond to operational requirements for low density, high demand units 
and personnel whose skills are found primarily in the Reserve 
components?
    Answer. I am not familiar with measures taken in the Department of 
the Air Force to respond to such skill gaps. The Navy Reserve has 
reorganized to align itself better with the Active-Duty Navy and its 
current and forecasted missions. The Marine Corps Reserve remains 
flexible and agile to meet new requirements on a continuous basis. If 
confirmed, I expect to examine this subject thoroughly with the Air 
Force staff and others.
                       officer management issues
    Question. If confirmed as Assistant Secretary of the Air Force for 
Manpower and Reserve Affairs, what role would you expect to play, if 
any, in the officer management and promotion system, including policies 
affecting general officers?
    Answer. If confirmed, I will provide support as directed by the 
Secretary of the Air Force in matters concerning the officer management 
and promotion system, including policies affecting general officers.
                       force shaping initiatives
    Question. The Air Force has requested authority to reduce the 
number of its Active-Duty airmen by 23,000 in fiscal year 2007. In 
order to implement this ambitious plan without irreparably harming 
recruiting, the Air Force intends to employ both voluntary separation 
incentives and involuntary separation procedures.
    What is your understanding of Air Force planning with respect to 
the numbers of officer and enlisted personnel by paygrade who must be 
separated in 2007 to achieve end strength requirements?
    Answer. I understand that the Air Force has requested force-shaping 
authorities. I am not familiar with the Air Force's detailed planning. 
The Navy has engaged in similar planning in recent years in connection 
with its force reductions. If confirmed, I expect to examine this 
subject thoroughly with the Air Force staff and others.
    Question. What oversight role, if any, would you play, if 
confirmed, to ensure that involuntary separations or forced retirement 
are implemented as equitably as possible?
    Answer. If confirmed, and with the advice of the Department's legal 
staffs, I will require that Air Force policies governing involuntary 
separations or forced retirement be implemented in a manner consistent 
with applicable law and policies, as well as fundamental principles of 
fairness.
                implementation of tricare for reservists
    Question. The National Defense Authorization Act for Fiscal Year 
2006 authorized new categories of eligibility for TRICARE for members 
of the Selected Reserve, which are required to be implemented by 
October 1, 2006.
    What is your assessment of the Department's ability to timely 
implement the new benefits and the challenges it will have to overcome?
    Answer. I understand that the Air Force, like other Services, has 
members of the Selected Reserve who are intended beneficiaries of this 
new extension of TRICARE. Effective communication and notification will 
be important in meeting the deadline. If confirmed, I expect to examine 
this subject thoroughly with the Air Force staff and others.
    Question. If confirmed, what role would you play in coordinating 
the Air Force's efforts implementing these new benefits?
    Answer. If confirmed, I expect to oversee the efforts of the Air 
Force staff, including the Air Force Reserve, and to assist the Air 
Force Surgeon General in coordinating those efforts with the DOD 
TRICARE agency.
                       gender-integrated training
    Question. You were the Chairman of the Commission on Military 
Training and Gender-Related Issues that from 1998 to 1999 studied 
cross-gender relationships of members of the Armed Forces and, in 
particular, the basic training programs of the Services. The Commission 
recommended that the Services continue to train recruits of both sexes 
in accordance with their current policies, which for the Air Force, 
Navy, and Army, meant gender-integrated basic training. You disagreed 
with the Commission's finding in this regard, and issued a personal 
statement expressing your view that military effectiveness should 
dictate how the Services conduct basic training and that there were 
unanswered, serious questions about the relative effectiveness of 
gender-integrated versus gender-separate training.
    Based on your experience since August 2001 as the Deputy Assistant 
Secretary of the Navy for Military Personnel Policy and, since February 
2005, Total Force Transformation, what are your current views about the 
military effectiveness of gender-integrated training?
    Answer. I believe that military effectiveness should be the 
standard by which Services make decisions about training. Pursuing 
military effectiveness as a goal, the Services should not stand still, 
but continually reexamine their assumptions and seek out better ways to 
accomplish their training mission.
    In the Department of the Navy today, both Services have retained 
the same format for basic training that they had in 1999: Navy boot 
camp is gender-integrated, and Marine Corps boot camp is gender-
separate. Both Services report that they are satisfied with the product 
they obtain and they are able to perform their assigned missions.
    Question. If confirmed, what actions, if any, would you take with 
respect to evaluating the benefits of gender-integrated versus gender-
separate training in the Air Force?
    Answer. If confirmed, I will let the Air Force know (as I have done 
with both the Navy and Marine Corps) that I stand ready to support 
efforts to improve training results.
                     employment of military spouses
    Question. In your view, what progress has been made, and what 
actions need to be taken to provide increased employment opportunities 
for military spouses?
    Answer. Thanks to congressional support extending over the past 20 
years, many programs exist today to provide increased employment 
opportunities for military spouses. These include relocation 
assistance, both in the United States and worldwide, job search aids, 
Federal preferences for military spouses, education and job training 
programs, and even assistance in starting their own businesses.
    It is important to assess the effectiveness of these programs and 
continue to support those that work, while improving or replacing 
others with new program opportunities that may produce better results 
for our military families.
   management and development of the senior executive services (ses)
    Question. The Air Force has initiated a senior leader management 
model to enhance and improve management, development, and assignment of 
SES and general officers.
    What is your assessment of how the Air Force program is working?
    Answer. I am aware that the Air Force has initiated a new model for 
management, development, and assignment of SES and general officers. I 
applaud the Air Force's initiative in this important area. The program 
is in a very early stage, and it may take several years before the 
program fully takes shape. I look forward to learning more about the 
design, deployment, and results of this model.
    Question. What is your vision of the approach the Air Force should 
take to further improve the management, development, and assignment of 
SES members, especially in the critically important areas of 
acquisition and financial management?
    Answer. I believe these efforts should be aligned with the relevant 
provisions of the QDR and similar strategic documents to achieve the 
vision of a capable, flexible, and agile future Total Force. The 
leadership of the future Total Force must be of the highest character, 
competence, and accountability. I believe the acquisition and financial 
management communities would benefit from studying how other 
professions are organized and governed, to include specific ethical 
rules, some form of internal self-policing, minimum competency 
standards, and requirements for continuing education.
   joint assignment opportunities for military and civilian personnel
    Question. The QDR Report of February 2006 calls for reorienting 
defense capabilities in support of joint operations, to include joint 
air, joint mobility, and joint command and control.
    What is your view of the opportunities for joint training and 
assignment today for both military and civilian personnel in DOD?
    Answer. Opportunities for joint training and assignment for 
military and civilian personnel in DOD remain somewhat limited today, 
but are growing steadily. The leadership in both DOD and the Service 
Departments is focused on increasing capabilities by expanding the pool 
of individuals who may be able to perform the many jobs involved in our 
national defense. ``Jointness'' no longer applies only to the military 
services, but to the Total Force of Active and Reserve component 
military, plus government, nongovernment, and contractor civilians.
    Question. If confirmed, how would you assess the adequacy of the 
Air Force civilian workforce--in terms of training, experience, and 
numbers of government personnel--to support the Air Force mission?
    Answer. I have not had enough exposure to the Air Force civilian 
workforce to be able to assess their training, experience, and numbers. 
If confirmed, I expect to examine these issues in detail with Air Force 
staff and others.
    Question. What steps would you take, if confirmed, to move closer 
to the goal of reorienting Air Force personnel in support of a joint 
concept of operations?
    Answer. If confirmed, I would gather information and data to assess 
the current status of Air Force personnel, identify gaps that need to 
be addressed in order to bring them fully in support of a joint concept 
of operations, and along with Air Force staff and others, develop plans 
and programs to fill the gaps, along with measures of progress and 
performance.
                      medical personnel shortages
    Question. The military medical corps of all three Departments are 
facing unprecedented challenges in the recruitment and retention of 
medical and dental personnel needed to support DOD's medical mission.
    What steps would you take, if confirmed, to address recruitment and 
retention challenges in the Air Force Medical Services as well as the 
Air Force Reserve?
    Answer. I have worked with Navy medicine in addressing similar 
challenges, and I hope that experience will be useful. I am aware, 
however, that the Navy and Air Force medical corps have somewhat 
different missions and requirements, and so I would not assume that 
either the problems or the solutions are the same for both Services. If 
confirmed, I expect to examine these issues in detail with Air Force 
staff and other Service and DOD colleagues, among others.
    Question. Based on your Navy experience, are you confident that the 
Department has sufficient tools to achieve goals for recruitment and 
retention of highly skilled health care personnel? If not, what 
additional tools might be worthy of consideration in the future?
    Answer. Based on my knowledge of Navy medicine's concerns and 
challenges, I know that a number of tools already exist--including 
scholarships, loan repayment programs, and critical skills accession 
and retention bonuses--to recruit and retain highly skilled health care 
personnel. The Navy recognizes that it needs to make full use of the 
tools it already has. Bottom Line: While I cannot say that I am 
confident that the Department has all the tools it might need for this 
purpose, I do believe the Services should look critically and 
creatively at the full range of tools, flexibilities and authorities 
that Congress has already provided and make good use of them.
    It is hard to compete with the private sector on a financial basis 
alone. Further, I believe many people who are attracted to military 
medicine are not necessarily motivated by money alone. In addition to 
financial incentives, the ability to offer flexible career options 
could help us recruit and retain highly skilled health care personnel. 
For example, on- and off-ramps (allowing people to leave the Service 
for a period of time and return later) could be very attractive to some 
of our medical personnel, who may wish to leave the military for a time 
to devote themselves to raising a family or pursuing other personal or 
professional goals, then return to military medicine later. Permitting 
the Services to experiment with different approaches to managing their 
medical Reserve components (for example, adjusting the timing and 
conditions of Reserve duty to avoid undue damage to the physician 
reservist's private practice) also could help with recruiting and 
retention.
                    personnel and health care costs
    Question. Senior military leaders have testified in favor of the 
administration's plan to significantly increase health care fees for 
military retirees as a result of the growing portion of the DOD budget 
devoted to personnel and benefit costs.
    Do you share the view that future operational readiness of the 
Armed Forces is threatened by the increasing costs of personnel 
benefits?
    Answer. The increasing costs of personnel benefits, especially 
health care, do pose a budgetary threat because we must operate within 
the limits of finite resources. Funds for increased entitlement costs 
must come from discretionary spending elsewhere in the budget. Thus, 
dramatic increases in benefit costs are bound to affect the amount of 
money we can apply toward operational readiness.
    Question. What efficiencies and personnel benefit changes do you 
believe warrant consideration to ensure a viable and affordable force?
    Answer. I believe that the government must keep its promises, and 
it is important to keep faith with servicemembers who rely upon 
promises previously made to them. Nevertheless, we all have a stake in 
ensuring a viable and affordable force. I believe there may be more 
creative options that could both reduce costs and increase members' 
satisfaction. For example, cafeteria-style benefits plans enable 
individual employees to select the benefits that are most valuable to 
them personally. Other nonfinancial benefits, such as allowing more 
individual choice in transfers and assignments, might yield equal or 
better retention at lower cost to DOD.
               national security personnel system (nsps)
    Question. Although currently enjoined from implementation of a new 
labor-relations system, the Department is planning to move ahead in the 
implementation of a pay-for-performance civilian personnel system.
    Based on your experience in the Navy, what is your assessment of 
the adequacy and quality of training that is being provided on the new 
personnel system?
    Answer. Based on my experience in the Navy, NSPS training appears 
to be proceeding as planned and receiving a lot of attention from 
leadership. The success of the plan will not be known until results can 
be seen and evaluated. Meanwhile, I believe that the leadership of the 
Department of the Navy is committed to ensuring that managers and 
others receive the training they need. Leaders are watching these 
programs carefully and are willing to adapt in response to experience 
in order to achieve the best results.
    Question. What is your understanding of the manner in which pay 
levels will be determined under the new system?
    Answer. I understand that under NSPS employees will be assigned to 
a pay band that reflects their current pay, with no reduction in actual 
pay, and they will have the opportunity to earn future increases 
through merit and performance.
    Question. If confirmed, how would you monitor the acceptance of the 
new system by the civilian workforce, and how would you intervene if 
acceptance of the system fell below expected levels?
    Answer. If confirmed, I expect to work closely with both Air Force 
staff and other elements of DOD to monitor workforce acceptance of 
NSPS. If acceptance falls below expected levels, I will work with 
colleagues to determine how best to respond to workforce concerns.
                             family support
    Question. In your view, do the Services have adequate programs in 
place to ensure support for Active and Reserve component families, 
particularly those who live great distances from military 
installations?
    Answer. Thanks to Congress, military family support programs have 
improved tremendously. The Services are able to offer a wide range of 
programs to meet the needs of families in both Active and Reserve 
components. Toll-free telephone support, such as OneSource, allows 
families who live far away from military installations to have access 
to support tailored for their needs. Customer surveys and retention 
rates in the Navy and Marine Corps show that family support programs 
appear to be adequate.
    Question. If confirmed, what additional steps would you take to 
enhance family support to airmen?
    Answer. In the Department of the Navy, although there are many 
similarities between the Navy and the Marine Corps, there are also many 
differences, resulting in different programs that nonetheless meet the 
needs of each Service. I have found it is important to ask what people 
feel they need rather than impose ``solutions'' that they don't want 
and can't use. If confirmed, I would not want to make assumptions about 
what airmen and their families need or want, but instead I would ask 
them what they think and do my best to develop programs that respond to 
them.
                  general and flag officer nominations
    Question. Under section 506 of the National Defense Authorization 
Act for Fiscal Year 2006, the Services must provide substantiated 
adverse information to promotion selection boards selecting officers 
for promotion to the grades of O7 and above.
    What problems, if any, do you foresee in the Air Force's ability to 
implement this requirement?
    Answer. I have no information about the Air Force's ability to 
provide substantiated adverse information to promotion selection boards 
for grades of O7 and above.
    Question. If confirmed, what guidance would you provide to 
promotion selection board members about the manner in which such 
adverse information should be considered?
    Answer. Any guidance naturally would start with the legislative 
language itself. In addition, I understand that the Office of Secretary 
of Defense is about to publish regulations providing guidance as 
required under section 506, which will be effective October 1, 2006. If 
confirmed, I expect to provide support in this area as directed by the 
Secretary of the Air Force.
                         interservice transfers
    Question. At the same time that the Army and Marine Corps are 
working harder than ever to achieve recruiting goals, the Navy and the 
Air Force are planning for significant reductions in Active-Duty and 
Reserve military personnel. Under section 641 of the National Defense 
Authorization Act for Fiscal Year 2006, an interservice bonus for 
transfer was authorized. Additional incentives may be necessary, 
however, to encourage ``blue to green'' transfers in order to retain 
sailors and airmen with valuable military training, skills, and 
experience
    What is your assessment of the adequacy of existing incentives for 
interservice transfers?
    Answer. It may be that monetary incentives alone will not prove 
sufficient to persuade members of one Service to join another. Each 
Service has a unique culture, with which its members strongly identify. 
I endorse the idea of promoting ``blue to green'' transfers, but I 
believe that, to be successful, the program should consider other 
methods of motivating departing sailors and airmen to stay in the 
military in another Service.
    Question. If confirmed, and given your experience as Deputy 
Assistant Secretary of the Navy, what steps would you take to enhance 
the number of ``blue to green'' interservice transfers?
    Answer. If confirmed, I would like to explore other possible 
methods of assisting the Army and Marine Corps in fulfilling their 
mission requirements. For example, one barrier to interservice 
cooperation is the lack of a common set of competencies for various 
jobs. Recently, the Navy was able to provide Master at Arms (MA) 
sailors to assist the Army in Military Police (MP) work by identifying 
competency gaps between the two communities and providing ``just in 
time'' training to MAs so that they could do the work of MPs. I look 
forward to continuing to work with other Service Department colleagues 
on this issue.
                       diversity in the air force
    Question. In its policies and practices, the Air Force is committed 
to the principles of equal opportunity with the goal of promoting 
equity, eliminating unlawful discrimination, and building teamwork and 
readiness. Diversity initiatives, including reliance on affirmative 
action plans, according to Air Force instructions, focus on ``broad 
policies seeking to remove barriers to status inequality and to 
capitalize on demographic changes in society. Diversity initiatives 
constitute a philosophy and practical tools aimed at producing 
results.''
    What is your view of the proper use of affirmative action plans and 
measures aimed at achieving or nurturing diversity in the Armed Forces?
    Answer. I am not familiar with the details of the Air Force 
diversity plan, but I appreciate the strategic importance of ensuring 
that service in the Armed Forces is broadly supported by all Americans 
and that our Armed Forces are able to work effectively in many 
different areas and cultures around the world.
    ``Affirmative action'' originally meant taking positive steps to 
identify and remove barriers and to ``cast a wider net'' in seeking to 
offer qualified persons an opportunity to compete based on their own 
merits. I endorse this original intent, and I believe there are many 
ways in which the Armed Forces can take positive steps as just 
described, without resorting to quotas and preferences, in order to 
achieve or nurture diversity. For example, both Navy and Marine Corps 
have produced ads and marketing plans tailored to reach nontraditional 
markets. We also challenged Navy recruiters, not to deliver a certain 
number of minority sailors, but instead to increase measurably their 
contacts with minority prospects. Both these efforts--classic examples 
of ``casting a wider net''--helped to increase diversity without using 
quotas or preferences.
    Question. In your opinion, how, if at all, should considerations 
relating to gender and minority status with respect to race, ethnicity, 
and national origin be addressed in the guidance provided by the 
Secretary of each Service to promotion selection boards?
    Answer. Precept language relating to race, ethnicity, national 
origin, or gender should emphasize that candidates must be evaluated 
based on merit and performance in the assignments they have been given. 
Precepts should also advise boards that the demonstrated ability to 
lead a diverse force and deal successfully with different cultures is 
valued and important.
    Question. What is your understanding of the manner in which 
considerations relating to gender and race, ethnicity, and national 
origin are used in selection processes for the U.S. Air Force Academy?
    Answer. I am not familiar with the manner in which the U.S. Air 
Force Academy considers gender and race, ethnicity, and national origin 
in its selection processes.
    Question. Do you agree with the Air Force Academy's approach with 
respect to the selection of applicants?
    Answer. I am not familiar with the Air Force Academy's selection 
process, but if confirmed, I expect to examine this area in detail with 
Air Force staff and others.
                             sexual assault
    Question. On February 25, 2004, the Senate Armed Services Committee 
Subcommittee on Personnel conducted a hearing on policies and programs 
of DOD for preventing and responding to incidents of sexual assault in 
the Armed Forces at which the Service Vice Chiefs endorsed a ``zero 
tolerance'' standard. Subsequently, in response to congressional 
direction, the Department developed a comprehensive set of policies and 
procedures aimed at improving prevention of and response to incidents 
of sexual assaults, including appropriate resources and care for 
victims of sexual assault.
    Do you consider the new sexual assault policies and procedures, 
particularly those on confidential reporting, to be effective?
    Answer. The new sexual assault policies and procedures have not 
been in effect very long. Early indications seem to show that the 
expanded opportunity for confidential reporting may have had the 
desired effect of inducing more victims of sexual assault (who 
otherwise might not have reported their attacks) to come forward and 
receive assistance and treatment. It is not yet clear whether increased 
reporting rates will yield greater numbers of substantiated cases or 
convictions.
    Question. What problems, if any, are you aware of in the manner in 
which the new policies have been implemented?
    Answer. For over 10 years before the recent DOD policies became 
effective, the Department of the Navy had regulations on Sexual Assault 
Victim Intervention (SAVI), setting standards for mandatory Navy and 
Marine Corps programs in response to sexual assault victim needs and 
rights, reporting requirements, and investigations and prosecutions. As 
a result, the Navy and Marine Corps already had well-developed programs 
and a strong culture of victim support and zero tolerance for sexual 
assault. The only problem I am aware of so far in connection with 
implementation of the new policies is that both Services had to change 
some of their previous terminology (e.g., SAVI to SARC) in order to 
comply with the DOD policy, and those changes seem to have caused some 
confusion in the fleet and field.
    Question. If confirmed, what oversight role, if any, would you 
expect to play?
    Answer. If confirmed, I expect to devote substantial and constant 
attention to these issues.
                    united states air force academy
    Question. In 2003, in response to complaints of sexual assaults and 
harassment of female cadets at the U.S. Air Force Academy, the 
Secretary of the Air Force and the Chief of Staff initiated the 
``Agenda for Change,'' which introduced numerous changes at the Academy 
aimed at preventing and responding to incidents of sexual assault.
    What elements of the Agenda for Change have been repealed, and why?
    Answer. I am not familiar with the details of the implementation of 
the Agenda for Change at the U.S. Air Force Academy.
    Question. What is your assessment of the reforms included in the 
Agenda for Change, and what is your current assessment of the equal 
opportunity climate at the U.S. Air Force Academy?
    Answer. I am not familiar with the details of reforms and the 
current equal opportunity climate at the U.S. Air Force Academy.
    Question. If confirmed, what role would you expect to play with 
respect to implementation of Air Force-wide policies regarding equal 
opportunity and prevention of and response to sexual assault at the Air 
Force Academy?
    Answer. If confirmed, I expect to devote significant attention to 
these issues.
    Question. The reviews focused on the status and problems 
experienced by female cadets at the Air Force Academy in 2003 
demonstrated the importance of focused, informed oversight by service 
civilian and military senior leaders of conditions for female cadets 
and midshipmen. The Service Academy 2005 Sexual Harassment and Assault 
Survey found that even with the implementation of corrective measures, 
sexual assault, and harassment continue to be factors negatively 
affecting female cadets at the military academies.
    What is your evaluation of the conclusions and recommendations of 
the Service Academy 2005 Sexual Harassment and Assault Survey and the 
Report of the Defense Task Force on Sexual Harassment and Violence at 
the Military Service Academies?
    Answer. The 2005 Sexual Harassment and Assault Survey revealed 
that, in the case of the U.S. Naval Academy, 59 percent of female and 
14 percent of male midshipmen indicated they had experienced some form 
of sexual harassment, while 5 percent of women and 1 percent of men 
reported experiencing sexual assault. According to the Defense Manpower 
Data Center, these statistics are consistent with those for civilian 
college students; however, I believe it is fair to expect a higher 
standard of behavior from young people privileged to attend a Service 
Academy and intending to pursue a military career.
    Concerning the Defense Task Force on Sexual Harassment and Violence 
at the Military Service Academies, most of its recommendations were 
consistent with pre-existing policies in the Department of the Navy, 
which has mandated comprehensive sexual assault victim intervention 
programs in the Navy and Marine Corps for over 10 years.
    Question. What actions would you expect to take, if confirmed, to 
address the problems of sexual assault and sexual harassment at the 
U.S. Air Force Academy and with respect to the Air Force's programs in 
this regard?
    Answer. If confirmed, I expect to devote significant attention to 
these issues. As the Task Force noted, ``sexual harassment and assault 
is not a `fix and forget' problem'' but requires ``a long-term, 
sustained effort, not only by the leaders of the Academies, but also by 
the cadets and midshipmen.''
                  religious practices in the air force
    Question. What is your assessment of corrective measures taken at 
the U.S. Air Force Academy to ensure religious tolerance and respect, 
and of Air Force guidelines regarding religious tolerance that were 
promulgated in August 2005?
    Answer. I am not familiar with the details of corrective measures 
taken at the U.S. Air Force Academy or the August 2005 Air Force 
guidelines on religious tolerance and respect. If confirmed, I expect 
to examine this subject thoroughly with the Air Force staff and others.
    Question. What additional steps, if any, do you think need to be 
taken with respect to the role of military chaplains in performing 
their duties in ministering to airmen?
    Answer. I believe the recently revised Department of the Navy 
instruction strikes a proper balance between the free expression rights 
of chaplains and of servicemembers. If confirmed, I would want to learn 
more about the Air Force guidelines on religious tolerance and what 
issues are present in the Air Force before determining any specific 
course of action.
                foreign language transformation roadmap
    Question. A Foreign Language Transformation Roadmap announced by 
the Department on March 30, 2005, directed a series of actions aimed at 
transforming the Department's foreign language capabilities, to include 
revision of policy and doctrine, building a capabilities-based 
requirements process, and enhancing foreign language capability for 
both military and civilian personnel.
    What is your understanding of the status of the actions identified 
in the Defense Language Transformation Roadmap?
    Answer. I am not familiar with the status of Air Force 
implementation of Defense Language Transformation Roadmap requirements. 
In the Navy Department, both Navy and Marine Corps have recently 
submitted progress reports indicating they are on track in executing 
their service-level language transformation plans. Of note, the Navy is 
revitalizing its Foreign Area Officer (FAO) program, and the Marine 
Corps has established a new Center for Advanced Operational Culture 
Learning (CAOCL). As described on its Web site, the CAOCL ``ensures 
marines are equipped with operationally relevant regional, culture, and 
language knowledge to allow them to plan and operate successfully in 
the joint and combined expeditionary environment in any region, in 
current and potential operating conditions, and targeting persistent 
and emerging threats and opportunities.''
    Question. If confirmed, what steps would you take to identify 
foreign language requirements, and to design military and civilian 
personnel policies and programs to fill those gaps?
    Answer. If confirmed, I would encourage a joint approach in which, 
for example, each Service might take the lead for developing culture 
and language capabilities in the regions where that Service typically 
operates. I would also encourage the use of informed risk-management in 
determining how we should allocate both financial and human resources 
to attain optimum cultural and language readiness. Our policies and 
programs should seek ways to leverage existing capabilities, for 
example, by employing knowledge management systems that can help us 
find individuals with the needed mix of skills, no matter what their 
current positions might be.
    Question. What is your assessment of an appropriate timeframe 
within which results can be realized in this critical area?
    Answer. The timeframe for results depends on the nature of the 
actions required. When emergent requirements are known, there may be 
ways to ``jump-start'' capabilities (e.g., recruiting native speakers, 
using new technologies). But in general, building language capabilities 
should be regarded as a long-term investment. We need to acknowledge 
that language skills decline if not properly maintained and provide the 
right kind of assignments and opportunities for skilled linguists.
                        military quality of life
    Question. In May 2004 the Department published its first 
Quadrennial Quality of Life Review, which articulated a compact with 
military families on the importance of key quality of life factors, 
such as family support, child care, education, health care and morale, 
welfare and recreation services.
    How do you perceive the relationship between quality of life 
improvements and your own top priorities for military recruitment and 
retention?
    Answer. Quality of life improvements are definitely one of the most 
important factors in successful military recruiting and retention--
which in turn, is fundamental to mission accomplishment for any 
Service. Some quality of life programs primarily benefit the individual 
servicemember, and others provide support for members' families; both 
kinds are important. We know that families often play a decisive role 
in whether a member stays in or leaves the Service.
    If confirmed, what further enhancements to military quality of life 
would you make a priority, and how do you envision working with the 
Services, combatant commanders, family advocacy groups, and Congress to 
achieve them?
    Answer. If confirmed, I would encourage further enhancements to 
military quality of life that would give servicemembers greater ability 
to select the benefits and programs of most interest to them. I would 
also like to examine quality of service improvements, such as longer 
tours, fewer moves, and greater ability to pursue jobs of special 
interest to the member. The Services, combatant commanders, family 
advocacy groups, and Congress would be vital partners in efforts to 
enhance quality of life programs along these lines.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Air Force for Manpower and Reserve Affairs.
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                        organization membership
    1. Senator Levin. Ms. Blair, at your nomination hearing earlier 
this week, I asked you several questions about two organizations of 
which you are a member--Independent Women's Forum and the Virginia 
Affiliate of Eagle Forum. You responded in part: ``I would hasten to 
mention that neither one is a membership organization in the sense that 
anybody who may--one pays dues or is apt to be eliminated if one 
doesn't agree with everything that they say.'' The Web sites for both 
organizations provide membership application forms, including annual 
contributions for various categories of membership (copies attached). 
In addition, you listed yourself as a member of each organization in 
your response to the committee questionnaire (question A-12). In the 
cover letter for this form, you stated: ``I am a member of certain 
organizations and professional societies, which are either listed below 
or have been previously provided to the committee. None of these should 
pose any conflict of interest with regard to my governmental 
responsibilities.'' How do you reconcile your statement that neither of 
these two organizations is a ``membership organization'' to which ``one 
pays dues'' with the membership forms and dues information provided on 
the organizations' Web sites?
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Ms. Blair. In my oral answer, I was referring to the definition of 
a ``membership organization'' as I used and understood that term when I 
was a nonprofit executive. Under Virginia corporation laws (which 
applied to the Independent Women's Forum when I worked there), if a 
nonstock (nonprofit) corporation opts to have ``members'' under its 
charter or bylaws, the members may have certain statutory rights. A 
``membership'' organization typically requires its members to pay dues 
and comply with other conditions of membership, such as agreeing to 
abide by certain principles or standards.
    During my tenure the Independent Women's Forum was not a membership 
organization, and I believe that is still true today. To the best of my 
knowledge the same is true of the Virginia Eagle Forum. A person who 
``joins'' the Independent Women's Forum or Virginia Eagle Forum 
receives no right to vote on the governance of the organization and is 
subject to no obligations or conditions imposed by the organization.
    When I was involved with the Independent Women's Forum, we tried 
not to use the terms ``member'' or ``membership'' in promotional 
materials because we did not want to imply that any contributor or 
supporter might have any rights or obligations in relation to the 
organization. Since I resigned as an officer and employee 5 years ago, 
prior to accepting my current position in the Department of the Navy, I 
cannot speak for the current policies or practices of the Independent 
Women's Forum. I have never been an officer, employee, or active 
participant in any way in either the National or Virginia Eagle Forum, 
and thus cannot speak for their past or present policies or practices.

    2. Senator Levin. Ms. Blair, how do you reconcile this statement 
with your response to the committee questionnaire, in which you 
indicated that you are a member of these organizations?
    Ms. Blair. In completing the questionnaire, I assumed that the 
committee was using the term ``membership'' in a colloquial sense, and 
I wished to inform the committee fully about organizations with which I 
have had any connection, whether or not constituting ``membership'' in 
the legal sense. In fact, since August 2001, when I commenced my 
current job in the Department of the Navy, I have not been an officer, 
director, or employee nor actively participated in any organizations. 
The only contact I have had with the Independent Women's Forum was to 
attend its 2004 and 2006 dinners in honor of Hon. Lynne Cheney and 
Secretary Condoleezza Rice, respectively. I did so at the group's 
invitation, which was extended to me based on my personal capacity as a 
former president and not connected with my government employment.

    3. Senator Levin. Ms. Blair, have you paid dues (or any annual 
payments in connection with membership, regardless of how they may be 
designated) to these organizations?
    Ms. Blair. I have not contributed any money to the Independent 
Women's Forum since before 2001. I have no record of ever paying any 
dues or contributions to the National Eagle Forum (whose Web site was 
cited in the hearing). For several years my husband and I have 
contributed approximately $20-$40 per year to the Virginia Eagle Forum.

    4. Senator Levin. Ms. Blair, given that each of these organizations 
has taken a position contrary to the position of the Air Force on the 
issue of gender-integrated training, would you agree that your 
continued membership in these organizations could create the appearance 
of a conflict of interest?
    Ms. Blair. Consistent with the standard of ethics set forth in 5 
C.F.R. Sec. 2635.202 (rules for Federal employees concerning the 
appearance of impartiality), I do not believe that any circumstances 
exist that would cause a reasonable person with knowledge of the 
relevant facts to question my impartiality on this subject. I have no 
business, contractual or other financial relationship with these 
organizations, nor does anyone in my family or household. I am not an 
active participant in these organizations. If a particular matter 
involving specific parties should arise that might create the 
appearance of a conflict of interest, I would consult with my agency 
ethics designee to determine how best to handle the matter. As I stated 
at the hearing regarding gender-integrated training in the Air Force: I 
will be guided by the opinions of the experts who are running the 
training programs as to what ways they may want to pursue to attempt to 
improve their training. I have no purpose, plan, or agenda to require 
the Air Force to change its gender-integrated training format.

    4. Senator Levin. Ms. Blair, in the advanced questions sent to you 
by this committee, you were asked several questions regarding 
reductions in Air Force Active-Duty end strength as recommended in the 
Quadrennial Defense Report. In response, you asserted that you hoped to 
employ the ``lessons learned'' by other forces, particularly the Navy 
and Marines, who have experienced similar reductions. To what extent do 
you think that these ``lessons learned'' are directly applicable to the 
Air Force and, in what ways does the Air Force face unique challenges 
in its attempt to implement a reduction in force?
    Ms. Blair. Some of the ``lessons learned'' by other Services may be 
applicable to the Air Force. For example, after the drawdowns of the 
early 1990s, followed by failure to meet recruiting goals later in the 
1990s, the Navy found itself with insufficient numbers of junior 
personnel in certain jobs and year-groups. This created difficulties in 
managing the assignment and promotion systems, and even today some 
year-groups remain at relatively lower levels than expected.
    These problems might have been avoided if the Navy had been able to 
execute its drawdown in a more targeted fashion, taking care to 
preserve the right number, seniority and quality of sailors in various 
jobs, especially those that require a long period of technical 
training. Since that time, the Navy has developed a better system of 
analysis for identifying the types of skills and experience that need 
to be preserved in order to ``shape the force'' without undue stress.
    Another ``lesson learned'' is that, even though the Services have 
broad legal rights to discharge members without cause and without 
compensation, it is important to ensure that members perceive they are 
being treated fairly. Thus it is very desirable for a Service to have 
access to an array of force-shaping tools (monetary or otherwise).
    Not being familiar with the details of Air Force manpower 
management, I am not able to say whether such ``lessons learned'' may 
be directly applicable to the Air Force, nor whether the Air Force 
faces unique challenges. If confirmed, I will be alert to point out 
areas where other Services' experience could be helpful to the Air 
Force, and I will also keep in mind that the Air Force may have unique 
situations where the experience of other Services is not particularly 
relevant.
                                 ______
                                 
    [The nomination reference of Anita K. Blair follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 24, 2006.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Anita K. Blair, of Virginia, to be an Assistant Secretary of the 
Air Force, vice Michael L. Dominguez.
                                 ______
                                 
    [The biographical sketch of Anita K. Blair, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of Anita K. Blair
    Effective 1 February 2005, Anita Blair assumed the responsibilities 
of Deputy Assistant Secretary for Total Force Transformation (TFT). As 
the Deputy Assistant Secretary (TFT), she serves as the Program 
Executive for the Department of the Navy's human capital transformation 
agenda, leading efforts to modernize the management of the Department's 
total force of Active-Duty, Reserve, civilian, and contractor 
personnel. Working closely with the other Deputy Assistant Secretaries 
and with the military Services, the Department seeks to develop a human 
capital management system that is agile, flexible, and integrated in 
support of contemporary requirements, including meeting the challenges 
of the global war on terrorism.
    Dual-hatted as Deputy Assistant Secretary of the Navy for Military 
Personnel Policy (DASN (MPP)), Anita Blair is also responsible for 
policy and oversight related to personnel matters affecting Navy and 
Marine Corps Active-Duty servicemembers and their families. Issues 
include recruiting and retention; training and education; Active-Duty 
strength and compensation; character, leadership development, and equal 
opportunity; health affairs; counterdrug programs; family support; and 
morale, welfare, and recreation. She was sworn in on 15 August 2001.
    In prior public service, Ms. Blair chaired the 1998-1999 
Congressional Commission on Military Training and Gender-Related 
Issues, which investigated ``cross-gender'' issues such as rules on 
adultery, fraternization, and sexual conduct in the military, as well 
as the effectiveness of military basic training. The Commission 
conducted several weeks of hearings with nearly 100 witnesses and over 
a dozen inspection tours of military training and operational 
facilities, including deployments overseas. The Commission's final 
report included extensive new scientific studies and surveys of over 
30,000 servicemembers.
    Ms. Blair also served for 6 years on the Virginia Military 
Institute (VMI) Board of Visitors, originally appointed by Governor 
George Allen in 1995 and reappointed by Governor James S. Gilmore III 
in 1999. She chaired the Board's initial Assimilation Review Task 
Force, providing continuing oversight of issues related to the 
admission of women to VMI.
    Before joining the Department of the Navy, Ms. Blair had been a 
lawyer in private practice in Virginia and the District of Columbia 
since 1981, concentrating in business law and litigation. She served 8 
years on the Board of Governors of the Virginia State Bar Section on 
Antitrust, Franchise and Trade Regulation Law, which she chaired in 
1998-1999. Beginning in 1992 she was also Executive Vice President and 
General Counsel and later President of the Independent Women's Forum 
(IWF), a nonprofit, nonpartisan organization dedicated to research and 
public education on policy issues concerning women. Among other 
activities, Ms. Blair appeared in the media, testified before Congress, 
and oversaw IWF's participation as amicus curiae in several high 
profile constitutional law cases before the U.S. Supreme Court.
    Born in Washington, DC, Anita Blair attended Catholic schools and 
received her bachelor's degree in Classical Greek from the University 
of Michigan in Ann Arbor in 1971. She graduated in 1981 from the 
University of Virginia School of Law in Charlottesville, where she met 
her husband and law partner, C. Douglas Welty.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Anita K. Blair 
in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Anita Katherine Blair, formerly: Anita Katherine Dascola 1970-1974 
(former marriage).

    2. Position to which nominated:
    Assistant Secretary of the Air Force (Manpower and Reserve 
Affairs).

    3. Date of nomination:
    April 24, 2006.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    November 15, 1950; Washington, DC.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to C. Douglas Welty.

    7. Names and ages of children:
    None.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    University of Virginia School of Law, Charlottesville, VA (1978-
1981), J.D., May 1981.
    Washington School of Law, American University, Washington, DC 
(August-December 1974), (no degree).
    University of Michigan, Ann Arbor, MI (1968-1971), B.A., December 
1971.
    La Reine High School, Suitland, MD (1964-1968), high school 
diploma, May 1968.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Deputy Assistant Secretary of the Navy (Military Personnel Policy & 
Total Force Transformation (August 2001-present).
    President, General Counsel, Executive Vice President, Independent 
Women's Forum, Arlington, VA (1995-2001).
    Chairman, Congressional Commission on Military Training and Gender-
Related Issues, Arlington, VA (April 1998-July 1999).
    Managing Director, Welty & Blair, P.C., Arlington, VA (1991-2001).

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Board of Visitors, Virginia Military Institute (1995-2001).

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    [Nominee responded and the information is contained in the 
committee's executive files.]

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.

04/07/02...........................  Cuccinelli for Senate.     $    100
06/29/03...........................  Bush-Cheney 2004......        1,000
09/30/03...........................  Bush-Cheney E-donation        1,000
04/05/04...........................  Citizens for Salazar..          100
06/29/04...........................  Virginians for Jerry            500
                                      Kilgore PAC.
01/06/05...........................  Cuccinelli for Senate.          100
05/11/05...........................  McDonnell for Virginia          125
09/30/05...........................  Virginians for Jerry            250
                                      Kilgore.
04/25/06...........................  Friends of George               450
                                      Allen.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    University of Michigan, Hopwood Awards, Fiction and Poetry (Summer 
1971).

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    [Nominee responded and the information is contained in the 
committee's executive files.]

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Copies of the following are attached:

          (1) Opening Statement before House Committee on Veteran's 
        Affairs (Subcommittee on Benefits) on Military Transition 
        Assistance Programs (18 July 2002).
          (2) Remarks to Navy Counseling, Advocacy and Prevention 
        Biennial Conference (August 12, 2002).
          (3) Remarks at opening of Navy Child Development Group Home, 
        Norfolk, Virginia (October 15, 2003).
          (4) Remarks presented to the Congressional Women's Caucus 
        (status of DOD Task Force on care for victims of sexual 
        assault) (March 31, 2004).

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    Anita K. Blair.
    This 28th day of April, 2006.

    [The nomination of Anita K. Blair was returned to the 
President on December 9, 2006.]
                              ----------                              

    [Prepared questions submitted to Benedict S. Cohen by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. The Goldwater-Nichols Act changed Department of Defense 
operations profoundly and positively. Although I believe that the 
framework established by Goldwater-Nichols has significantly improved 
interservice and joint relationships and promoted the effective 
execution of responsibilities, the Department, working with Congress, 
should continually assess the law in light of improving capabilities, 
evolving threats, and changing organizational dynamics. Although I am 
currently unaware of any reason to amend Goldwater-Nichols, if 
confirmed, I will have an opportunity to assess whether the challenges 
posed by today's security environment require amendments to the 
legislation with a view to continuing the objectives of defense reform.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. This milestone legislation is now 20 years old and has 
served our Nation well. If confirmed, I believe it may be appropriate 
to consider with Congress whether the act should be revised to better 
address the requirements of the combatant commanders and the needs and 
challenges faced by the military departments in today's security 
environment.
                                 duties
    Question. What is your understanding of the duties and functions of 
the General Counsel of the Department of the Army?
    Answer. Section 3019 of title 10, U.S.C., provides that the General 
Counsel of the Army shall perform such functions as the Secretary of 
the Army may prescribe. The Secretary has done so through general 
orders, regulations, and memoranda. The General Counsel provides legal 
advice to the Secretary of the Army, the Under Secretary, the Assistant 
Secretaries, and other offices within the Army Secretariat. As the 
chief legal officer of the Department of the Army, the General Counsel 
determines the controlling legal positions of the Department of the 
Army. The General Counsel's responsibilities extend to any matter of 
law and to other matters as directed by the Secretary. Examples of 
specific responsibilities currently assigned to the General Counsel 
include providing professional guidance to the Army's legal community, 
overseeing matters in which the Army is involved in litigation, serving 
as the Designated Agency Ethics Official, exercising the Secretary's 
oversight of intelligence and other sensitive activities and 
investigations, and providing legal advice to the Army Acquisition 
Executive.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. The diversity and complexity of legal issues confronting 
the Department of the Army are such that no one lawyer can have in-
depth experience in all of them. However, the General Counsel must 
possess absolute integrity, mature judgment, sound legal and analytical 
skills, and strong interpersonal and leadership abilities. I believe 
that my background and diverse legal experiences in both the public and 
private sectors have prepared me to meet the challenges of this office.
    I received my undergraduate degree magna cum laude from Yale in 
1980 and my law degree from the University of Chicago Law School in 
1983, having served as an associate editor of the Law Review. I clerked 
for Judge Laurence H. Silberman of the U.S. Court of Appeals for the DC 
Circuit. I have been in private practice at two law firms. As a staff 
director for two House committees, my principal focus was on legal, 
national security, and homeland security policy. In addition, I served 
as Associate Counsel to President Reagan, Senior Counsel at the U.S. 
Department of Justice's Office of Legal Counsel, Deputy Assistant 
Attorney General in the U.S. Department of Justice's Environment and 
Natural Resources Division, and Deputy General Counsel (Environment & 
Installations) of the U.S. Department of Defense.
    I believe that my extensive experience in the legislative and 
executive branches have helped prepare me for the extraordinary 
challenge of serving as General Counsel of the Department of the Army 
and overseeing the delivery of legal services in the Army during a 
period of wartime and of Army transformation. My familiarity with the 
Department of Defense and with broader governmental legal practice have 
equipped me to address this important responsibility.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the General Counsel of 
the Department of the Army?
    Answer. Based on my 20 years of public service with all three 
branches of government, I believe I have the requisite legal training 
and abilities and leadership skills to serve as the Army General 
Counsel. I look forward to dealing with the full array of legal issues 
associated with the operations of the Army. If I am confirmed, I will 
work to further my understanding and knowledge of the Army, its people 
and organization, the resources necessary to sustain and transform it, 
and the challenges it faces. I will work with and through the talented 
and dedicated civilian and military lawyers serving the Department to 
broaden my expertise and increase my knowledge and will seek advice and 
counsel from the many and diverse stakeholders dedicated to the success 
of the Army, including Members and staff of Congress.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that Secretary Harvey would prescribe for you?
    Answer. Although Secretary Harvey has not discussed with me the 
duties and functions he will expect that I perform, I anticipate that 
he will rely on me to provide accurate and timely legal advice to help 
ensure that the Army complies with both the letter and spirit of the 
law. Presumably, the current enumeration of General Counsel 
responsibilities set forth in the general order prescribing the duties 
of each principal official of the Headquarters, Department of the Army, 
will generally remain in effect. Apart from such formally prescribed 
duties, I believe the Secretary of the Army would expect me to continue 
a collegial and professional relationship with the General Counsels of 
the Department of Defense, the other military departments, and the 
defense agencies and, as required, the legal staffs of other Federal 
agencies. I anticipate that Secretary Harvey will expect me to continue 
the extraordinarily effective and professional working relationship 
between the Office of the General Counsel and The Judge Advocate 
General and his staff. Finally, I anticipate that Secretary Harvey will 
expect me to manage the General Counsel's office efficiently and 
effectively, and to ensure that the Army legal community is adequately 
resourced to perform its important mission.
    Question. In carrying out your duties, how will you work with the 
General Counsel of the Department of Defense?
    Answer. The General Counsel of the Department of Defense is the 
Chief Legal Officer and final legal authority for the Department of 
Defense, including the Department of the Army. If confirmed, I 
anticipate having a close and professional relationship with the 
General Counsel of the Department of Defense, characterized by 
continuing consultation, communication, and cooperation on matters of 
mutual interest, in furtherance of the best interests of the Department 
of Defense.
              relationship with the judge advocate general
    Question. In carrying out your duties, how will you work with The 
Judge Advocate General of the Army?
    Answer. I believe that close, professional cooperation between the 
civilian and uniformed members of the Army's legal community is 
absolutely essential to the effective delivery of legal services to the 
Department of the Army. If confirmed, I will seek to ensure that the 
Office of the General Counsel and The Judge Advocate General and his 
staff continue to work together to deliver the best possible legal 
services to the Department of the Army.
    Question. How are the legal responsibilities of the Department of 
the Army allocated between the General Counsel and The Judge Advocate 
General?
    Answer. The Army General Counsel is the chief legal officer of the 
Department of the Army. The Office of the Army General Counsel is a 
component of the Army Secretariat, and provides legal advice to the 
Secretary of the Army and other Secretariat officials on all legal 
matters. The Judge Advocate General is the legal adviser of the Chief 
of Staff of the Army, members of the Army Staff, and members of the 
Army generally. In coordination with the Army General Counsel, The 
Judge Advocate General serves as military legal adviser to the 
Secretary of the Army. I note that the Ronald Reagan National Defense 
Authorization Act for Fiscal Year 2005 expressly prohibited 
interference with the ability of The Judge Advocate General to give 
independent legal advice to the Secretary of the Army; even in the 
absence of that recent statutory change, I would always welcome the 
expression of independent views about any legal matter under 
consideration. The Judge Advocate General also directs the members of 
The Judge Advocate General's Corps in the performance of their duties. 
By law, he is primarily responsible for providing legal advice and 
services regarding the Uniform Code of Military Justice and the 
administration of military discipline. The processing of military 
claims and the provision of legal assistance are other functions for 
which The Judge Advocate General is primarily responsible. The Office 
of the Army General Counsel and the Office of The Judge Advocate 
General have developed and maintain a close and effective working 
relationship in performing their respective responsibilities. If 
confirmed, I will work to continue our synergistic partnership in 
providing legal services to the Army.
                            major challenges
    Question. In your view, what are the major challenges that will 
confront the General Counsel of the Department of the Army?
    Answer. In my opinion, the major challenge will be to provide 
responsive, accurate legal advice regarding the broad array of complex 
issues likely to arise in connection with the Army's role in the 
prosecution of a global war against an asymmetric enemy while 
simultaneously planning and executing broad strategic transformation 
efforts. Although the current environment makes it difficult to 
anticipate specific legal questions, I expect to confront issues 
relating to operational matters, acquisition reform, privatization 
initiatives, military and civilian personnel policies, compliance with 
environmental laws, and oversight of Department of the Army 
intelligence activities. I am not aware of any serious problems in the 
current delivery of legal services in these areas. However, if 
confirmed, I will work hard to ensure that the Army legal community is 
adequately staffed and resourced to provide the responsive, accurate, 
and timely legal advice necessary to ensure success on the battlefield 
while executing the Department's successful transformation.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will prioritize legal issues in the manner 
that best serves the Department of the Army. I will also ensure that 
the talented and dedicated lawyers comprising the Army legal community 
continue to provide timely legal advice of the highest possible quality 
in response to the Department of the Army's recurring legal 
responsibilities and the numerous issues that the Army confronts every 
day. I would endeavor to keep Army lawyers involved at all stages of 
the decisionmaking process, because I believe that preventive law, 
practiced early in the formulation of departmental policies, will 
undoubtedly facilitate the Department's adaptation to the changing 
operational environment. I would work diligently to adequately resource 
the Army legal community, in order to guarantee decisionmakers at all 
levels access to the best possible legal advice.
                               priorities
    Question. The Army is engaged on a daily basis in combat in 
Operations Iraqi Freedom and Enduring Freedom, restructuring itself in 
accordance with the goals of the Quadrennial Defense Review, relocating 
troops and units from Europe and Asia, and transforming its Total Force 
to deal with a host of traditional and non-traditional threats to the 
security of the Nation,
    In what ways can you, if confirmed as General Counsel, contribute 
to military readiness and the success of the Army?
    Answer. If confirmed, and subject to the guidance of the Secretary 
of the Army, I would focus particularly on the delivery of legal 
services related to Army core functions of recruiting, supplying and 
equipping, training, mobilization and demobilization, and 
administering, to include the morale and welfare of personnel, all with 
a view to generating and maintaining a trained and ready force while 
taking care of our people--individual soldiers and leaders--the Army's 
most important asset.
    Question. What broad priorities will you establish in terms of 
issues which must be addressed by the Office of the General Counsel of 
the Department of the Army?
    Answer. If confirmed, I will focus foremost on the issues that 
directly impact soldiers, their families, readiness, and support of 
Operations Iraqi Freedom and Enduring Freedom. I anticipate that the 
other legal issues of highest priority will arise from the Army's 
transformation to meet the challenges posed by today's dynamic security 
environment. I will also ensure that the Army legal community continues 
to provide timely legal advice of the highest possible quality, 
executing the Department's recurring legal responsibilities and 
anticipating and responding to the numerous issues the Army confronts 
every day.
                attorney recruiting and retention issues
    Question. How do you assess your ability to hire and retain top 
quality attorneys and provide sufficient opportunity for advancement?
    Answer. The Department of the Army continues to recruit and appoint 
top quality attorneys in both civilian and military positions and is 
confident it can maintain current recruiting standards. As I understand 
it, application levels remain high and exceed available positions. One 
key to continued recruiting success in the military context is access 
to law students. Many of the best and brightest law students are 
interested in learning about the Army Judge Advocate General's Corps 
and join the Corps in response to successful recruiting visits by Army 
judge advocates to law school campuses. The Army continues to retain 
and promote top quality attorneys at all grades, civilian and military.
    Question. In your view, does the Department of the Army have a 
sufficient number of attorneys to perform its missions?
    Answer. It is my understanding that the Army has sufficient 
civilian and military attorneys to execute the Department's missions. I 
note that as the Army transforms, it has emphasized the role of the 
military judge advocate as a vital component of the new modular force.
    Question. In your view, what incentives to successful recruiting 
and retention of attorneys, if any, need to be implemented or 
established?
    Answer. I understand that law students continue to accumulate 
tremendous debt in course of becoming attorneys. Many students now 
incur debt in excess of $100,000 in order to become licensed to 
practice law. Electing a career as either a military attorney or a 
civilian attorney in public service presents a financial challenge for 
many. Accordingly, I support the Judge Advocate Continuation Pay as 
well as civilian attorney student loan repayment programs. As a matter 
of principle, I will support programs that enable the Army to recruit 
and retain lawyers of the same extraordinarily high quality as are 
currently serving in the Department.
                  base realignment and closure (brac)
    Question. In 2005, the BRAC process was concluded, and the BRAC 
Commission's recommendations enacted. These decisions will close or 
realign significant numbers of military installations, increasing the 
military value of our infrastructure, transforming certain common 
functions across the Department, and saving valuable resources.
    Now that those recommendations have the force and effect of law, 
how would you approach implementation of those recommendations if you 
are confirmed?
    Answer. I understand that the Department of Defense has a legal 
obligation to implement fully the recommendations of the BRAC 
Commission within the statutorily prescribed 6-year period. I have been 
advised that the Army is developing implementation plans and budget 
justification materials to execute the Army's BRAC recommendations and 
a portion of the joint cross service group recommendations, as assigned 
by the Under Secretary of Defense (Acquisition, Technology & 
Logistics). I understand that the successful implementation of BRAC 
2005 is critical to Army Transformation, the Integrated Global Presence 
Basing Strategy, and operational deployments to Iraq and Afghanistan. I 
will work to ensure that BRAC is executed in a manner that satisfies 
operational and applicable legal requirements. As the Department of 
Defense Deputy General Counsel for Installations and Environment, I was 
involved with several environmental and disposal issues associated with 
the implementation of previous BRAC rounds. If confirmed, and with the 
guidance of the Secretary, I will work closely with the Office of the 
Secretary of Defense, other Federal agencies, Local Redevelopment 
Authorities, Governors, and other appropriate State and local officials 
to accelerate the property disposal process and return closed 
installations to productive economic re-use as soon as possible. The 
Army has effectively used current BRAC authorities to successfully 
implement its closure, realignment, and disposal obligations and, if 
confirmed, I look forward to working with Congress to execute BRAC 
2005.
                        military justice matters
    Question. Article 6 of the Uniform Code of Military Justice gives 
primary jurisdiction over military justice to The Judge Advocates 
General of the Army, Navy, and Air Force.
    How do you view your responsibilities in the performance of 
military justice matters with regard to The Judge Advocate General of 
the Army?
    Answer. Article 6 of the Uniform Code of Military Justice requires 
The Judge Advocate General or senior members of his staff to make 
``frequent inspections in the field'' in furtherance of his 
responsibility to supervise the administration of military justice. 
Although The Judge Advocate General bears primary responsibility for 
administering the military justice system within the Army, I understand 
that he often coordinates with the Army General Counsel on particular 
matters associated with the fair and consistent enforcement of the 
Uniform Code of Military Justice. I will, if confirmed, consult and 
cooperate with the Judge Advocate General on matters of mutual interest 
or concern relating to military justice, recognizing his statutory 
duties and special expertise in this area. If confirmed, I will work 
with the Judge Advocate General in establishing policy for the Army and 
safeguarding the integrity of the military justice system.
    To avoid the appearance or actuality of improper command influence, 
decisions in individual military justice cases must be entrusted to the 
accused's commander, the convening authority, the military judge, and 
court members. The General Counsel, like the Secretary of the Army and 
other senior civilian and military officials of the Department of the 
Army, must avoid any action that may affect or appear to affect the 
outcome of any particular case. The Army General Counsel helps to 
ensure that the military justice system and its judicial officers are 
shielded from inappropriate external pressures that may threaten or 
appear to threaten the independence of the military's judicial system 
or the commander's discretion in exercising his or her responsibilities 
under the Uniform Code of Military Justice to maintain good order and 
discipline.
                         treatment of detainees
    Question. What is your understanding of the definition of ``humane 
treatment'' of detainees?
    Answer. I have been advised that in the law of armed conflict, 
humane treatment has traditionally been understood to be treatment 
consistent with the humanitarian principles of the Geneva Conventions. 
The general protection policy for Army detainees, expressed in Army 
Regulation 190-8, Enemy Prisoners, Retained Personnel, Civilian 
Internees, and Other Detainees, is derived in large part from the text 
of the Conventions.
    Question. What is the role of the General Counsel of the Department 
of the Army in ensuring that all detainees in the custody of U.S. Armed 
Forces are provided humane treatment?
    Answer. I have been informed that the Secretary of the Army is the 
DOD Executive Agent for administering policy related to enemy prisoners 
of war and other detainees. Accordingly, if confirmed, I would consider 
it as my duty to provide the Secretary with legal advice on all matters 
related to his execution of that important responsibility. Further, I 
believe the Army should continue to coordinate with the Office of the 
Secretary of Defense, the combatant commands and Joint Staff, and with 
other Services to broaden its capability to resource and sustain short-
term and long-term detainee operations in support of the global war on 
terror. The humane treatment of detainees is and will continue to be an 
inherent part of the doctrine, training, and culture of Army forces 
charged with performing such operations.
    Question. What is the role, if any, of the General Counsel of the 
Department of the Army in ensuring that interrogation policies under 
the United States Army Field Manual on Intelligence Interrogations, 
including any revisions to the current field manual, are consistent 
with the Detainee Treatment Act of 2005?
    Answer. I understand that, in ordinary circumstances, the revision 
and publication of Army field manuals would not require the Secretary's 
personal attention or that of the Army General Counsel. The November 3, 
2005, publication of DODD 3115.09, DOD Intelligence Interrogations, 
Detainee Debriefings, and Tactical Questioning, however, imposed a 
requirement to submit all implementation plans, policies, orders, 
directives, and doctrine related to intelligence interrogation 
operations to the Under Secretary of Defense for Intelligence for 
review and approval. Accordingly, I understand that the revisions to 
the Army field manual that relates to intelligence interrogations have 
been reviewed by Army attorneys, among others, for compliance with 
applicable law, including the Detainee Treatment Act of 2005, prior to 
submission to the Under Secretary of Defense for Intelligence for 
review and approval.
          consolidation of military and civilian legal staffs
    Question. On September 10, 2001, Secretary Rumsfeld initiated a 
``war on bureaucracy'' stating that in order to make decisions more 
quickly, the Department must slash duplication, encourage cooperation, 
and start asking tough questions about redundant staff. He noted: 
``There are dozens of offices of general counsel scattered throughout 
the Department. Each Service has one. Every agency does, too. So do the 
Joint Chiefs. We have so many general counsel offices that we actually 
have another general counsel's office whose only job is to coordinate 
all those general counsels.''
    What is your understanding of actions that have been taken in the 
Department of Defense and Department of the Army to address the 
Secretary's concerns?
    Answer. As a DOD Deputy General Counsel, I worked closely with my 
counterparts in the military departments, military Services, and 
defense agencies to ensure consistency of approach and eliminate 
duplication of effort, and I share the Secretary of Defense's interest 
in the good stewardship of scarce legal resources.
    Question. What actions need to be taken, if any, in response to 
Secretary Rumsfeld's challenge?
    Answer. If confirmed, and consistent with the Secretary of the 
Army's business transformation initiatives, I would exercise my best 
efforts to ensure that legal resources are effectively allocated and 
deployed to maximize service and minimizing unnecessary duplication of 
function, all with an emphasis on attorney accountability.
    Question. Do you believe that the Department of the Army has the 
legal resources necessary to carry out the missions that may be 
required of it in wartime? If not, what is needed?
    Answer. In view of the worldwide deployments underway and the 
Army's business transformation initiatives, I understand that there is 
a high demand for legal resources in the Army. If confirmed, and in 
consultation with The Judge Advocate General, I would make it a high 
priority to ensure both the sufficiency and quality of the Department's 
legal resources.
                          religious guidelines
    Question. What is your legal assessment of the measures being taken 
by the Services to provide religious guidelines aimed at ensuring that 
members of the Chaplain Corps of the Army, Navy, and Air Force ensure 
religious tolerance and respect?
    Answer. I am informed that the Army's policies support religious 
tolerance and respect. If confirmed, I would make it an objective to 
continue the Army's firm commitment to upholding the constitutional 
tenets of the ``free exercise'' and ``establishment'' clauses. I am 
informed that as they now stand, Army policies appear to require 
chaplains to support all unit personnel, regardless of their beliefs. 
It is my understanding that Army policies are consistent with the First 
Amendment.
    Question. What is your legal assessment of Army guidance regarding 
chaplain prayers during official functions other than worship services 
with respect to praying according to the manner and forms of the church 
of which the chaplain is a member?
    Answer. I am advised that during mandatory official functions, 
chaplains are not compelled to offer prayers that are inconsistent with 
their faith, but are expected to remain sensitive to the pluralistic 
Army and society they serve. It is my understanding that these policies 
are consistent with the First Amendment.
    Question. What is your legal assessment of the adequacy of Army 
guidance to commanders and other leaders regarding free exercise of 
religion in the Army?
    Answer. I am informed that it appears that Army regulations provide 
commanders and other leaders ample guidance regarding the free exercise 
of religion in the Army. AR 600-20, Army Command Policy: AR 165-1, 
Chaplain Activities in the United States Army and DOD Directive 
1300.17, Accommodation of Religious Practices Within the Military 
Services, provide detailed guidance on the important responsibilities 
of commanders and leaders in this regard. It is my understanding that 
these policies are consistent with the First Amendment.
                  general and flag officer nominations
    Question. Under DOD Instruction 1320.4, adverse and alleged adverse 
information pertaining to general and flag officers must be evaluated 
by senior leaders in the Services and in the Office of the Secretary of 
Defense prior to nomination.
    If confirmed, what role, if any, would you play in the officer 
promotion system, particularly in reviewing general and flag officer 
nominations?
    Answer. I understand that for all officer promotions, including 
general officer promotions, the Office of the Army General Counsel, in 
coordination with the Office of the Judge Advocate General, reviews 
Memoranda of Instructions (MOIs) that govern the conduct of promotion 
selection boards and subsequent promotion selection board reports. 
These offices review adverse information that is not in an officer's 
official military personnel file that may be presented to the promotion 
selection board to ensure it is accurate and comports with the 
requirements of title 10, U.S.C., section 615, e.g., that the 
information is ``substantiated, relevant information that could 
reasonably affect the deliberations of the selection board'' and 
whether notice and opportunity to respond to the information has been 
afforded to the officer. For adverse information that becomes available 
after a promotion selection board makes its recommendations, these 
offices assist the Secretary of the Army in determining whether a 
promotion review board should be convened to consider whether the 
Secretary should continue to support the promotion of the considered 
officer or take steps to remove an officer from a promotion list. The 
National Defense Authorization Act for Fiscal Year 2006 amended title 
10, section 615, with regard to the processing of adverse information 
for general officers. In general officer cases, the Office of the Army 
General Counsel provides the same review, except the standard is ``any 
credible information of an adverse nature.''
    Question. What is your understanding of the role of the General 
Counsel of the Department of the Army in ensuring the legal sufficiency 
of statutory selection board processes?
    Answer. I understand that under title 10, U.S.C., chapter 36, the 
Secretary of the Army is responsible for the proper functioning of the 
Department of the Army's promotion selection process. Prior to approval 
by the Secretary of the Army, all MOIs for officer promotion selection 
boards are reviewed by the Office of the Army General Counsel, in 
coordination with the Office of the Judge Advocate General, to ensure 
the Secretary's instructions conform to statutes and accurately reflect 
his guidance regarding attributes necessary for service in the next 
grade. All reports of promotion selection boards are processed through 
the Office of the Army General Counsel prior to final action on the 
report by the Secretary. The Army General Counsel must satisfy himself 
or herself that the Army has met applicable statutory standards and 
that individual selection board reports conform to the law. The Army 
General Counsel must advise the Secretary of the Army of any case in 
which a selection board report fails to adhere to the statutory 
standards, either generally or with regard to a particular officer 
being considered for promotion. In advising the Secretary of the Army 
and the Office of the Assistant Secretary of the Army (Manpower and 
Reserve Affairs), the General Counsel helps to ensure that Army 
promotion policies properly implement applicable laws and regulations 
and are fairly applied. Moreover, the Office of the Army General 
Counsel coordinates closely on these matters with the Office of the 
Judge Advocate General.
    Question. What is the role, if any, of the General Counsel of the 
Department of the Army in reviewing and providing potentially adverse 
information pertaining to a nomination to the Senate Armed Services 
Committee?
    Answer. I have been advised that under current Department of the 
Army practice, the General Counsel's office reviews each selection 
board report, as well as departmental communications to the committee, 
the President, and the Secretary of Defense concerning nominations, to 
ensure that the reports and communications comply in form and substance 
with law and regulation. The General Counsel's office gives special 
attention to cases of nominees with substantiated or potentially 
adverse information, in order to ensure that such information is 
reported to the Senate Armed Services Committee in a timely manner.
                  military personnel policy and cases
    Question. In your view, what role, if any, should the General 
Counsel play in military personnel policy and individual cases, 
including cases before the Board for Correction of Military Records?
    Answer. If confirmed, I will work closely with the Secretary of the 
Army, the Assistant Secretary of the Army (Manpower and Reserve 
Affairs), and other senior Department of the Army leaders to ensure 
that the Department of the Army's military personnel policies are 
formulated and applied uniformly, fairly, and in accordance with 
applicable laws and regulations. If I were to become aware of 
individual cases in which military personnel policies were not fairly 
and lawfully applied, I would take appropriate action to ensure that 
the case is properly resolved. If confirmed, I will coordinate with the 
Assistant Secretary of the Army (Manpower and Reserve Affairs), who 
exercises overall supervision of the Army Review Boards Agency, to 
ensure that the Army Board for Correction of Military Records receives 
the Army legal community's full support.
             sexual assault prevention and response policy
    Question. Numerous cases of sexual misconduct have been reported by 
troops in Iraq, Kuwait, and Afghanistan over the last several years. 
Many victims and their advocates contend that they were victimized 
twice: first by attackers in their own ranks and then by unresponsive 
or inadequate military treatment. They asserted that the military 
failed to provide basic services available to civilians who have been 
raped, from medical attention to criminal investigations of their 
charges. Most of these incidents involve Army personnel because the 
Army has the largest presence in the theater.
    What is your view of the systems and programs the Army has in place 
in deployed locations to offer victims of serious sexual assaults the 
medical, psychological, and legal help they need?
    Answer. If confirmed, I will focus on this area. I understand that 
the Army has taken significant steps to improve the assistance to 
victims of all sexual assaults, with enhanced recognition of the 
special circumstances that apply to deployments. The Army recently 
implemented a comprehensive Sexual Assault Prevention and Response 
Program. Under the program, the Army requires every unit, brigade-sized 
and higher, to appoint and train a deployable Sexual Assault Response 
Coordinator and every battalion to appoint and train two Unit Victim 
Advocates. These individuals are trained to provide victim advocacy and 
help victims through the process of recovery in a deployed location. I 
also understand that Army policy now requires deployed mission 
commanders to conduct monthly command oversight of, and to obtain 
feedback concerning, the implementation of the program. If confirmed, I 
will study this matter in greater depth with a view to ensuring the 
Army is taking appropriate steps to provide medical, psychological, and 
legal help to soldiers who are victims of sexual assault, both in 
garrison and in deployed locations.
    Question. What is your view of the steps the Army has taken to 
prevent additional sexual assaults on female soldiers at their home 
stations and when they are deployed?
    Answer. I have been advised that this is an extremely important 
issue for the Army leadership and, if confirmed, look forward to 
working with them to ensure all appropriate measures are taken to 
prevent sexual assault, both at home stations and in deployed 
environments. With a view to preventing sexual assault, the Army has 
promulgated specific guidance in Army Regulation 600-20, Army Command 
Policy, that reinforces a commitment to eliminating incidents of sexual 
assault through a comprehensive policy that centers on awareness and 
prevention, training and education, victim advocacy, response, 
reporting, and accountability. In accordance with that regulation, 
commanders are required to conduct annual sexual assault prevention and 
response training and ensure that such training is integrated into pre- 
and post-deployment briefings. I understand that the Army maintains a 
Web site with a set of comprehensive training packages to facilitate 
standardized and progressive training at all levels. The Army safety 
office also published guidance to assist commanders to identify risk 
factors for sexual assault and to help reduce or eliminate the risk of 
sexual assault. If confirmed, I will ensure that the legal community 
fully supports these initiatives and will assess whether additional 
steps can be taken.
                        whistleblower protection
    Question. Section 1034, title 10, U.S.C., prohibits taking 
retaliatory personnel action against a member of the Armed Forces as 
reprisal for making a protected communication. By definition, protected 
communications include communications to certain individuals and 
organizations outside of the chain of command.
    If confirmed, what actions will you take to ensure that senior 
military leaders understand the need to protect servicemembers who 
report misconduct to appropriate authorities within or outside the 
chain of command?
    Answer. Department of Defense Directive 7050.6, Military 
Whistleblower Protection, implements title 10, U.S.C., section 1034, 
and affirms that members of the Armed Forces shall be free from 
reprisal for making or preparing a protected communication to a Member 
of Congress; an Inspector General; a member of a DOD audit, inspection, 
investigation, or law enforcement organization; or any other person or 
organization (within or outside the chain of command) designated under 
regulations or established procedures to receive such communications. 
If confirmed, I will work with The Judge Advocate General to ensure 
that military leaders are fully and accurately advised of the 
whistleblower protections accorded by law and regulation, and 
understand their legal responsibilities in this important area. In 
addition, I will ensure that any individual cases involving illegal 
reprisals that come to my attention are addressed in accordance with 
the law.
                   support to army inspector general
    Question. What role, if any, do you think the General Counsel of 
the Army should have in reviewing the investigations and 
recommendations of the Army Inspector General?
    Answer. If confirmed, as the chief legal officer of the Department 
of the Army and counsel to the Secretary and other Secretariat 
officials, I will establish and maintain a close, professional 
relationship with the Inspector General, and will communicate with him 
directly and candidly as he performs his prescribed duties. I will 
provide independent and objective legal advice with regard to all 
matters that relate to Inspector General programs, duties, functions, 
and responsibilities. I will oversee the provision of productive and 
effective legal guidance to the Office of the Inspector General in 
conducting investigations and delineating recommendations. Further, as 
part of my responsibility to review legal and policy issues arising 
from the Army's intelligence and counterintelligence activities, I will 
advise the Inspector General concerning proper reporting of the Army's 
intelligence oversight activities. Of course, given the Inspector 
General's mandate for independence and candor in advising the Secretary 
as to his investigative findings and recommendations, the Inspector 
General has final authority over matters within his functional purview.
                            women in combat
    Question. Section 541 of the National Defense Authorization Act for 
Fiscal Year 2006 requires the Secretary of Defense to report to 
Congress on his review of the current and future implementation of the 
policy regarding assignment of women in combat. In conducting the 
review, the Secretary of Defense must examine Army unit modularization 
efforts and associated personnel assignment policies to ensure their 
compliance with the Department of Defense policy on women in combat 
that has been in effect since 1994.
    What lessons have been learned about the feasibility of current 
policies regarding women in combat from Operation Iraqi Freedom and 
Operation Enduring Freedom and what is your assessment of the Army's 
compliance with the requirements of law relating to women in combat?
    Answer. The study requested by Congress and underway within the 
Department of Defense will help the Department understand the 
implications for, and feasibility of, current policies regarding women 
in combat, particularly in view of the Army's transformation to a 
modular force and the irregular, nonlinear nature of the battlefields 
associated with today's conflicts.
    It is my understanding that the Army's transformation to modular 
units is expected to be based on the current policy concerning the 
assignment of women. Women have and will continue to be an integral 
part of our Army team, performing exceptionally well in all specialties 
and positions open to them. Women make up about 14 percent of the 
Active Army, 23 percent of the Army Reserve, and 13 percent of the Army 
National Guard. Approximately 10 percent of the forces deployed in 
support of the global war on terrorism are women soldiers. Today, 
almost 14,000 women soldiers are serving in Iraq and Afghanistan.
    Question. How do you anticipate you will participate in the review 
of the policy required by section 541?
    Answer. The Office of the Secretary of Defense has undertaken to 
complete the comprehensive review requested by this committee and 
Congress. It is an important study of complex issues critical to the 
Department. The Army will support the Office of the Secretary of 
Defense to complete this review. The Army, DOD, and Congress must work 
together closely on this issue. If confirmed, I will endeavor to 
provide the Secretary with cogent legal advice regarding implementation 
of this policy. If in the future the Army determines that there is a 
need to seek a change to the policy, I will, if confirmed, advise the 
Army to comply fully with all notification requirements in title 10, 
U.S.C., section 652.
                           civilian attorneys
    Question. Judge advocates in the Armed Forces benefit from an 
established career ladder, substantial training opportunities, and 
exposure to a broad spectrum of legal areas and problems. By contrast, 
civilian attorneys in the military departments normally do not have 
established career programs and may do the same work for many years, 
with promotion based solely upon longevity and vacancies.
    In your opinion, does the personnel management of civilian 
attorneys need changing? If so, what do you see as the major problems 
and what changes would you suggest?
    Answer. I believe that the entirety of the Army legal community 
appreciates the growing need for a systemic civilian attorney 
professional development program that appropriately reflects the tenets 
by which we have historically developed judge advocates. In 2005, the 
Office of the Army General Counsel, together with the Office of the 
Judge Advocate General and the other Department of the Army qualifying 
authorities, created, and have committed to long-term participation in, 
a Department of the Army Civilian Attorney Professional Development 
Working Group for the purpose of assessing and recommending programs 
for the professional development of civilian attorneys. The Working 
Group is currently creating a systemic plan for civilian attorney 
professional development that will include identifying civilian 
attorney training requirements and categorizing key management and 
specialty positions for attorneys in the Department of the Army (DA). 
The group is also creating a civilian attorney database to manage all 
DA civilian attorneys and developing a plan for recruiting young 
attorneys into the DA legal community. If confirmed, I would work 
closely with The Judge Advocate General and the other qualifying 
authorities to support this important endeavor.
                          environmental issues
    Question. A number of major environmental statutes include national 
security exemptions. For example, section 7(j) of the Endangered 
Species Act states: ``Notwithstanding any other provision of this 
chapter, the committee shall grant an exemption for any agency action 
if the Secretary of Defense finds that such exemption is necessary for 
reasons of national security.''
    If confirmed as General Counsel of the Army, what role would you 
expect to play in determining whether it would be appropriate to 
exercise a national security exemption in connection with an activity 
or function of the Department of the Army?
    Answer. If confirmed as the General Counsel of the Army, I would 
view my role as one of facilitating both the decision as to whether a 
national security exemption is appropriate and, in those limited 
circumstances where it may be determined that one is proper, assisting 
the processing of the exemption to approval.
    First, where important Army operations or capabilities are 
significantly impacted by application of the requirements of 
environmental law, it would be my role to advise senior Army 
decisionmakers on their legal options, including the possibility of 
pursuing available national security exemptions. However, before 
advising on pursuing an exemption, I believe it would be imperative to 
look at the environmental requirement in light of the operation or 
capability being impacted and determine whether legal alternatives to 
an exemption were available.
    Second, if it were decided that it was appropriate to seek an 
exemption, I would advise and assist in pursuing the exemption on 
behalf of the Army. For example, some exemptions can be exercised only 
in consultation with other agencies (such as that under the Marine 
Mammal Protection Act, which requires consultation with the Secretary 
of Commerce or the Secretary of the Interior). Even where consultation 
is not specifically required, all environmental exemptions implicate 
regulatory programs under the auspices of other agencies at the Federal 
or State level and could benefit from the expertise of those agencies. 
I believe my position as General Counsel would involve me in these 
interagency discussions.
    Question. Under what circumstances do you believe that the use of 
such an exemption would be necessary and appropriate?
    Answer. In crafting the exemptions that currently exist in 
environmental law, Congress has appropriately established a high 
hurdle, often requiring a presidential determination, based on the 
highest possible standard: that the exemption is necessary in the 
``paramount interest of the United States.'' Such is the case under 
section 313(a) of the Clean Water Act, section 6001(a) of the Resource 
Conservation and Recovery Act, section 118(b) of the Clean Air Act, 
section 4(b) of the Noise Control Act, and section 1447(a) of the 
Public Health Service Act (Safe Drinking Water Act). From this 
standard, and from the limited duration for which exemptions may be 
granted, it is clear that Congress intended that exemptions should be 
invoked only in extraordinary circumstances. Such circumstances, I 
believe, include those where a particular environmental restriction 
poses a significant threat to military readiness or national security 
and no effective alternative exists which will allow compliance with 
the environmental requirement and still permit the critical activity to 
proceed.
    In seeking an exemption, I believe the proponent must shoulder the 
burden of identifying not only the restriction imposed and its impact 
on military readiness, but also why the military training, testing, or 
operational activity cannot be modified to avoid a conflict with the 
environmental requirement without diminishing readiness, and an 
explanation of how any environmental impacts of the exemption can be 
mitigated. Finally, I believe the exemption should be tailored to be as 
narrow as possible while still preserving military readiness.
    Although I believe it is important that the existing environmental 
exemptions should be used sparingly and with great caution, I must add 
that their focus on individual activities, facilities, or pollution 
sources, for a limited duration, makes them of limited suitability for 
some ongoing actions, including many categories of readiness activities 
that are part of the day-to-day training regimen for our forces. To 
date, the Department of Defense has worked well and cooperatively with 
the regulatory community and other stakeholders to avoid impacts on 
these activities, which individually might not be significant, but 
which cumulatively could have large impacts on military readiness.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the General Counsel of the 
Department of the Army?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator Jeff Sessions
      relationship between general counsel and corps of engineers
    1. Senator Sessions. Mr. Cohen, please explain your understanding 
of the relationship between the Office of the General Counsel of the 
Army and the various lawyers for the U.S. Corps of Engineers.
    Mr. Cohen. As provided for in General Order No. 3, the General 
Counsel of the Army is the legal counsel to the Secretary of the Army 
and is the chief legal officer of the Department of the Army. In that 
capacity, the General Counsel exercises technical supervision over and 
provides professional guidance to the attorneys assigned to the U.S. 
Army Corps of Engineers (USACE). The General Counsel determines the 
Army's final legal position on all issues. I am aware that the Army 
General Counsel's office is divided into four functional legal practice 
groups: Acquisition, Civil Works and Environment, Ethics and Fiscal, 
and Operations and Personnel. Each practice group is led by a career-
appointed Deputy General Counsel. Each Deputy is a member of the Senior 
Executive Service. I understand that lawyers for the USACE have a close 
professional working relationship with attorneys in the Army General 
Counsel's office. I further understand that frequent and routine 
interaction occurs between USACE attorneys and attorneys in the General 
Counsel's office. I believe that the close working professional 
relationship the Army General Counsel's office has with The Judge 
Advocate General's office, and with subordinate legal offices, 
including the Office of the Command Counsel, Army Materiel Command, and 
the Office of the Chief Counsel, USACE, is one of the strengths of the 
Army's legal community.

    2. Senator Sessions. Mr. Cohen, what is the principal role of the 
General Counsel, and how does it compare or differ from lawyers for the 
U.S. Corps?
    Mr. Cohen. As noted above, the General Counsel of the Army is the 
legal counsel to the Secretary of the Army and is the chief legal 
officer of the Department of the Army. The General Counsel's 
responsibility extends to any subject of law and to other matters as 
directed by the Secretary of the Army. In addition to providing legal 
counsel to the Secretary of the Army, the General Counsel is also 
responsible for coordinating legal and policy advice, for determining 
the final Army legal position on any legal question or procedure, for 
establishing and administering the Army's policies concerning legal 
services, for providing technical supervision over and professional 
guidance to all attorneys and legal offices within the Army, and for 
providing professional guidance and general oversight with respect to 
matters in litigation.
    In contrast, the Chief Counsel of the USACE is the legal counsel to 
the Chief of Engineers, and Commander, USACE. The Chief Counsel 
coordinates legal and policy advice within USACE, determines the final 
USACE legal position on any legal question or procedure, establishes 
and administers policies concerning the delivery of legal services 
within USACE, provides technical supervision over and professional 
guidance to all attorneys and legal offices within USACE, and provides 
professional guidance and general oversight with respect to USACE 
matters in litigation.
    The General Counsel serves as intermediate rater in the performance 
evaluation rating chain for the civilian heads of subordinate legal 
offices. Thus, the General Counsel is the intermediate rater for the 
USACE Chief Counsel. The Chief Counsel, in turn, is the intermediate 
rater or senior rater for each subordinate legal office within USACE. 
All civilian heads of legal offices at any level of the Army (e.g. 
USACE Divisions, Districts, Labs, and Centers) are expected to support, 
promptly communicate with, and generally be responsive to Army 
headquarters. Moreover, each civilian head of a legal office is 
expected to comply fully with higher level legal office guidance. I 
have learned that this performance objective is contained in the 
performance plan of all civil heads of legal offices at any level of 
the Army.

    3. Senator Sessions. Mr. Cohen, if a matter arose regarding the 
Secretary of Army's discretion over U.S. Corps policy or execution of 
Corps regulation, who would typically advise the Secretary: his General 
Counselor U.S. Army Corps of Engineers lawyers? What is the reasoning 
for this practice?
    Mr. Cohen. Under these circumstances, it is my understanding that 
the General Counsel of the Army would advise the Secretary of the Army, 
as the Secretary of the Army looks to his or her General Counsel to 
provide authoritative and independent legal advice and counsel. On 
matters involving the USACE, such as the interpretation of an engineer 
regulation or internal USACE policy, it would be prudent and 
reasonable, in my opinion, for the General Counsel to consult fully 
with the USACE Chief Counsel prior to advising the Secretary of the 
Army. Ultimately, it is the General Counsel's responsibility to provide 
the final legal position to the Secretary of the Army.

                 corps of engineers ongoing litigation
    4. Senator Sessions. Mr. Cohen, in State of Alabama and State of 
Florida v. U.S. Army Corps of Engineers, a case regarding the U.S. Army 
Corps of Engineers, the judge issued a temporary restraining order to 
block implementation of a settlement agreement that had been entered in 
another case. On interlocutory appeal, the 11th Circuit vacated the 
order and remanded the case, holding that the plaintiff failed to 
``establish an imminent threat of irreparable harm'' nor a 
``substantial likelihood of prevailing on the merits of the case.'' 
Based on your understanding of appellate law, what does it mean to have 
a case ``remanded?'' What is the status of such a case--does it 
conclude after the appeal or is it ``pending litigation'' subject to 
further action at the trial court level?
    Mr. Cohen. Generally speaking, it is my understanding that when a 
case is remanded, the case is sent back to the lower court for further 
proceedings. An appellate court usually directs the lower court to take 
specific action consistent with the opinion or ruling accompanying the 
remand. In some cases, the opinion or ruling accompanying the remand 
may actually dictate or result in final disposition of the case. In 
other instances, the opinion or ruling accompanying the remand may not 
dispose of the case but affirm or overrule a specific issue (or issues) 
in the case. In this instance, the lower court then proceeds with 
resolution of the case consistent with the appellate ruling.

                       updating operating manuals
    5. Senator Sessions. Mr. Cohen, 33 C.F.R. Sec. 222.5 pertains to 
the operating manuals that the Corps of Engineers uses to dictate 
waterflow at various locks and dams. The section, in pertinent part, 
provides: ``(3) Water control plans developed for specific projects and 
reservoir systems will be clearly documented in appropriate water 
control manuals. These manuals will be prepared to meet initial 
requirements when storage in the reservoir begins. They will be revised 
as necessary to conform with changing requirements resulting from 
developments in the project area and downstream, improvements in 
technology, new legislation and other relevant factors, provided such 
revisions comply with existing Federal regulations and established 
Corps of Engineers policy.'' Having reviewed that code section, do you 
interpret 33 C.F.R. Sec. 222.5 to create a hard and fast legal mandate 
that these manuals must be updated at a particular point in time, or do 
you understand the section to simply authorize the Secretary to update 
the manuals when he sees fit?
    Mr. Cohen. Based upon my initial review of 33 C.F.R. Sec. 225.5, it 
appears that this regulation is silent as to a specific time when water 
control plans and manuals must be updated. Accordingly, the Secretary 
of the Army must exercise sound discretion in determining when to 
update these documents. The Secretary's discretion, however, is not 
without constraints. In deciding when to commence the updating process, 
the Secretary of the Army, in my opinion, must give due consideration 
to all relevant factors. Unreasonably declining to update the water 
control plans and manuals in the face of changing requirements, or 
indefinitely delaying the updating process without cause, could be 
challenged legally as abuses of the Secretary's discretion in this 
area.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                        acf and act river basins
    6. Senator Chambliss. Mr. Cohen, please comment on your 
understanding of the ongoing conflict over the Apalachicola-
Chattahoochee-Flint (ACF) River Basin and the Alabama-Coosa-Tallapoosa 
(ACT) River Basin in Georgia, Florida, and Alabama. What role, if any, 
do you believe the Army, specifically the Army Corps of Engineers, 
should play in resolving this conflict?
    Mr. Cohen. I understand there is a longstanding dispute between 
Alabama, Georgia, and Florida over appropriate and equitable water 
allocation in two specific river basins, namely the ACF basin and the 
ACT basin. I am also aware of numerous lawsuits that have challenged 
various aspects of the USACEs' water control management of these two 
basins. I have been apprised that the Court in Alabama v. USACE 
recently ordered the three States and the Army to attempt resolution of 
the issues before the Court through mediation. I further understand a 
mediator has been appointed and the parties have begun the mediation 
process.
    I understand that the Secretary of the Army and the USACE have 
specific statutory responsibilities to manage and operate the ACT and 
ACF River Basins to meet the purposes authorized by Congress. With 
regard to the underlying water allocation dispute, it is my 
understanding that neither the Army nor USACE has the authority, or 
responsibility, to allocate water rights among the three States. The 
three States must determine an equitable allocation of water or 
litigate the dispute. When an allocation of water among the three 
States is agreed to, I understand that the Army, and specifically the 
USACE, would then accommodate, consistent with congressionally 
authorized purposes, the allocation formula into its management and 
operation of the two systems by making specific revisions to the 
basin's water control plans and manuals. I understand the Army has 
offered to provide technical and legal assistance to the three 
Governors, to help facilitate an agreement among the States. Resolution 
of the water allocation dispute, in my opinion, is, and should remain, 
a State issue.

    7. Senator Chambliss. Mr. Cohen, the Secretary of the Army stated 
that he will begin the process of updating the water control manuals 
for the ACF and ACT River Basins no later than January 2, 2007. What 
legal impediments, if any, stand in the way of beginning that process 
immediately?
    Mr. Cohen. I am not aware of any current legal impediments that 
would preclude the Army from immediately beginning the process of 
updating the water control manuals and plans for the ACT and ACF River 
Basins. I understand, however, the Secretary of the Army has carefully 
considered all relevant factors, including the recommendation of the 
Federal mediator appointed by the court to facilitate resolution of 
this matter, and, as a matter of discretion, elected to temporarily 
delay the updating process until 2 January 2007, having determined that 
this approach will promote the overall success of the mediation 
process.

    8. Senator Chambliss. Mr. Cohen, in a letter dated January 30, 
2006, from Assistant Secretary Woodley to myself, Senator Isakson, 
Senator Sessions, Senator Shelby, Senator Martinez, Senator Nelson, 
Governor Perdue, Governor Bush, and Governor Riley, he stated ``The 
relevant litigation, as contemplated in my April 26 correspondence, has 
concluded, as the Army presently is under no legal prohibition or 
injunctive order, and must therefore faithfully execute its Federal 
responsibilities in compliance with law and regulation. As the Army 
proceeds with the National Environmental Policy Act (NEPA) analysis 
associated with the interim storage contracts, required by the 
Southeastern Federal Power Customers, Inc. (SeFPC) settlement 
agreement, the Corps will by necessity have to update the operating 
procedures and manuals for the ACT and ACF basins.'' Please provide the 
statutory and regulatory responsibilities with which the Corps of 
Engineers must comply and to which Assistant Secretary Woodley referred 
in his January 30 letter.
    Mr. Cohen. I am advised that the responsibilities may be found in 
the Flood Control Act of 1944, 33 U.S.C. Sec. 709, which provides, in 
pertinent part: On and after December 22, 1944, it shall be the duty of 
the Secretary of the Army to prescribe regulations for the use of 
storage allocated for flood control or navigation at all reservoirs 
constructed wholly or in part with Federal funds provided on the basis 
of such purposes, and the operation of any such project shall be in 
accordance with such regulations. . .
    The statute is implemented in regulations found at 33 C.F.R 
Sec. 222.5. This regulation prescribes policies and procedures to be 
followed by the U.S. Army Corps of Engineers in carrying out water 
control management activities, including establishment of water control 
plans and manuals for Corps and non-Corps projects, as required by 
Federal laws and directives. See section 222.5(a).
    Water control plans developed for specific projects and reservoir 
systems are to be clearly documented in appropriate water control 
manuals. Water control plans and manuals are required to be kept up-to-
date. Revisions to the plans and manuals are required, as necessary to 
conform to changing requirements resulting from developments in the 
project area and downstream, improvements in technology, new 
legislation and other relevant factors, provided such revisions comply 
with existing Federal regulations and established policy. See section 
222.5(f) (2) and (3).

    9. Senator Chambliss. Mr. Cohen, please explain how proceeding with 
the NEPA analysis associated with interim storage contracts does or 
does not, by necessity, require an update of the operating procedures 
and manuals for the ACT and ACF basins.
    Mr. Cohen. I understand the ACF and ACT basins are each a system of 
reservoirs and dams and not collections of independent projects and 
facilities. A change in project operations and allocation of pools in 
the reservoir at Lake Lanier would affect all the reservoirs downstream 
of Lake Lanier in the ACF system. Consequently, studying the 
environmental impacts of proposed interim water storage contracts at 
Lake Lanier will involve studying how that proposed interim storage 
affects releases from Lake Lanier on the downstream dams. In 
considering alternatives to water storage at Lake Lanier, water storage 
elsewhere or water from other systems may need to be considered. As the 
ACT system is some 50 miles from the ACF system at Atlanta, it may be 
an alternate source of water for consideration under NEPA.
    The ACF River Basin includes four USACE reservoirs and three locks. 
The only approved master manual for the ACF basin was prepared in 1958 
and does not include Federal facilities at West Point, Walter F. 
George, or George W. Andrews. Water control plans were developed for 
individual projects as they came on line, or as operations changed 
within the system. An Environmental Impact Statement for reservoir 
projects was prepared in the 1970s. Current water control plans and 
manuals do not address water supply operations. The ACF system is being 
managed and operated in accordance with the draft 1989 water control 
plans and manuals. The 1989 drafts have never been formally approved 
and are currently contested in the Alabama v. USACE lawsuit. 
Implementation of the SeFPC v. Secretary of the Army settlement 
agreement will require interim changes in project operations to reserve 
storage reallocated to water supply and to monitor use of storage. As 
mentioned above, water supply operations are not reflected in existing 
water control plans and manuals.
    In order to execute the interim water storage contracts 
contemplated by the SeFPC settlement agreement within 60 days after 
completion of the NEPA process (a condition of the settlement 
agreement), a revision to the ACF water control plans and manuals is 
required to account for the interim reallocated storage. The revised 
water control plans and manuals and the NEPA process associated with 
the interim water storage contracts contemplated by the SeFPC 
settlement agreement should both be completed before the interim water 
storage contracts can be executed.

    10. Senator Chambliss. Mr. Cohen, the Senate Energy and Water 
Appropriations report contains the following language: ``Apalachicola, 
Chattahoochee, and Flint Rivers and Alabama, Coosa, and Tallapoosa 
Rivers, Georgia, Alabama, and Florida. Prior notification of the House 
and Senate Appropriations Committees and affected congressional Members 
is required before any funding shall be reprogrammed or otherwise used 
for updating masterplans having to do with projects in these river 
basins.'' Likewise the Senate Energy and Water Appropriations bill 
contains the following language: ``Nothing in this act or any other act 
shall be construed to require a specific deadline for implementation of 
33 C.F.R. 222.5(f) (2) and (3).'' Please describe the effect you 
believe these provisions will have on the ability of the Army Corps of 
Engineers to move forward with updating the water control manuals for 
the ACT and ACF River Basins.
    Mr. Cohen. Upon initial review, I do not believe the report 
language or the general provision (section 112 of H.R. 5427) would 
negatively affect the ability of the U.S. Army Corps of Engineers to 
move forward with updating the water control plans and manuals for the 
ACT and ACF River Basins. I understand the Secretary of the Army has 
already been advised by the General Counsel's office that the 
regulation requiring updating of water control plans and manuals does 
not prescribe a specific deadline for when the updating process must 
commence. Therefore, if this general provision is enacted into law, it 
would not alter the current regulation, or cause the Army to modify its 
interpretation of 33 C.F.R. 222.5(f) (2) and (3), as presently 
codified.
    With regard to the report language included in Senate Report 109-
274, Energy and Water Appropriations Bill, 2007, I am confident the 
Army would timely notify Congress of expenditures or reprogrammed 
funding related to updates of water control plans and manuals in 
accordance with the language, and would document the rationale 
justifying any decision to proceed with updating the water control 
plans and manuals for the ACT and ACF River Basins.

    11. Senator Chambliss. Mr. Cohen, at what point in either the 
implementation of the SeFPC settlement agreement or the updating of the 
water control manuals for the ACF and ACT River Basins will the Corps 
of Engineers be able to process the pending permits for Gwinnett, 
Cherokee, and Forsyth counties in Georgia?
    Mr. Cohen. I understand these permit requests are currently being 
processed and are in various stages of review. I further understand 
these permit requests are not dependent upon the update of the water 
control plans and manuals, or the SeFPC NEPA process, and should not be 
delayed by those activities.

    12. Senator Chambliss. Mr. Cohen, what is the anticipated timeline 
for completing an update of water control manuals for the ACF and ACT 
River Basins?
    Mr. Cohen. I understand the current projected schedule has the 
SeFPC NEPA process concluding in early December 2008, and the NEPA 
process associated with updating the water control plans and manuals 
concluding in late March 2009.

    13. Senator Chambliss. Mr. Cohen, what are potential impediments to 
completing such an update on schedule?
    Mr. Cohen. The Army is committed to updating the water control 
plans and manuals for the ACT and ACF River Basins in accordance with 
its responsibilities under applicable law and regulation. As mentioned 
in a previous response, I am not aware of any current legal impediments 
precluding the immediate start of the updating process. Potential 
impediments, as always, could include judicial mandates issued by 
courts of competent jurisdiction, or legislative restrictions imposed 
by Congress.

    14. Senator Chambliss. Mr. Cohen, does updating the water control 
manuals for the ACT and ACF River Basins explicitly or implicitly 
create any legally binding water storage contracts between Georgia, 
Florida, and Alabama?
    Mr. Cohen. I understand that it does not. Management of the 
Nation's water resources is a major Federal responsibility. This 
responsibility, in significant measure, has been assigned to the USACE. 
It includes the planning, design, construction, and operation of water 
resource projects on a national basis. The USACE must direct these 
water management activities on the basis of sound engineering and 
science. The intricacies of water control management require the USACE 
to work out a specific management plan. This plan, defined and 
articulated in various water control plans and manuals, enables the 
USACE to balance a wide array of public interests, including such 
project purposes as flood control, navigation, hydropower, irrigation, 
water supply, recreation, and environmental conservation. A primary 
objective of efficient water control management, as reflected in water 
control plans and manuals, is to produce beneficial water savings and 
improvements in the availability and quality of water resulting from 
project regulation and operation.
                                 ______
                                 
             Question Submitted by Senator Daniel K. Akaka
                          military commissions
    15. Senator Akaka. Mr. Cohen, the Supreme Court recently issued a 
decision in Hamdan v. Rumsfeld which held that the special military 
commissions established by the administration to try detainees violated 
both the Uniform Code of Military Justice and the Geneva Conventions. 
As Congress begins the process of building a system of justice for 
prisoners captured in the global war on terror, it will rely on the 
input from legal experts in the Department of Defense (DOD). What role 
do you believe that the General Counsel should play in the development 
of this new judicial process and how should it be coordinated with your 
respective Judge Advocates General?
    Mr. Cohen. A system of justice for prisoners captured in the global 
war on terror is essential to our Nation's success in that conflict. 
Legal experts from across the Department of Defense must be available 
to consult with Congress as it undertakes to build such a system. I 
believe the Army best can assist in this endeavor by participating 
meaningfully with Congress in developing and implementing the 
legislation invited by the Supreme Court's decision in Hamdan v. 
Rumsfeld. Continuing the close, professional cooperation and 
consultation that long have attended the relationship between the 
Office of the Army General Counsel and the Office of The Judge Advocate 
General, both the civilian and uniformed members of the Army's legal 
community have been working together over the past month to assess 
Hamdan's impact and to apply the Court's holdings in reviewing and 
commenting on preliminary drafts of legislation to constitute a new 
military commission system. Further, The Judge Advocate General has 
recently detailed the Chief of his Criminal Law Division to a 
Department of Justice working group charged with crafting such 
legislation for submission to Congress. Recognizing the special status 
of the Judge Advocate General as the guardian of the military justice 
system within the Department of the Army, and given that congressional 
efforts to develop a system of military commissions to try certain 
detainees likely will be grounded in the tenets of the Uniform Code of 
Military Justice, I perceive Congress's extensive exchanges with the 
Service Judge Advocate Generals over the past weeks as particularly 
important and useful, and would support fully such continued 
consultation.
                                 ______
                                 
    [The nomination reference of Benedict S. Cohen follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  February 6, 2006.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Benedict S. Cohen, of the District of Columbia, to be General 
Counsel of the Department of the Army, vice Steven John Morello, Sr., 
resigned.
                                 ______
                                 
    [The biographical sketch of Benedict S. Cohen, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of Benedict S. Cohen
    Ben has 20 years of experience in high-level positions across the 
Federal Government, with a principal focus on national security and 
foreign policy. He is currently Senior Advisor to Chairman Cox at the 
U.S. Securities and Exchange Commission, where he has focused on legal 
issues facing the agency and enhancing the Commission's crisis-
management and homeland-security capabilities. Prior to taking this 
position, he served as staff director of the Committee on Homeland 
Security of the U.S. House of Representatives; where he managed the 
transition from select committee to full standing committee status and 
the passage of authorization legislation for the Department of Homeland 
Security (DHS) and of legislation reforming DHS's grant program. He has 
also served as Deputy General Counsel (Environment and Installations) 
for the Defense Department, in which capacity he spearheaded DOD's 
Readiness and Range Preservation Initiative, a multifaceted 
legislative, regulatory, and resource-management program to ensure 
sustainability of the military's test and training capabilities and 
foster better environmental stewardship. He also provided legal support 
for DOD's installation initiatives, and served as a principal spokesman 
for the Department on environmental and installations issues. He has 
also served in senior positions in the White House Counsel's Office, 
the congressional leadership staff, and the Department of Justice, as 
well as serving in two law firms.
Education
    Ben graduated from Yale magna cum laude in 1980 with a B.A. in 
history, and from the University of Chicago Law School in 1983, having 
served as an Associate Editor of the Law Review. He clerked for Judge 
Laurence H. Silberman of the U.S. Court of Appeals for the DC Circuit.
    He lives in American University Park in Washington, DC. His wife is 
an attorney in private practice. He has two children, ages 7 and 9.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Benedict S. 
Cohen in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Benedict Simms Cohen.

    2. Position to which nominated:
    General Counsel, Department of the Army.

    3. Date of nomination:
    February 6, 2006.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    January 9, 1959; Nashville, Tennessee.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Julia Evans Guttman.

    7. Names and ages of children:
    Paul Mark Cohen, age 9; Mary Susannah Cohen, age 7.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Montgomery Bell Academy, 1973-1977, high school diploma 1977.
    Yale University, 1977-1980, B.A. 1980.
    University of Chicago, 1980-1983, J.D. 1983.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    2005-2006: Senior Advisor to the Chairman, U.S. Securities and 
Exchange Commission, Washington, DC.
    2005: Staff Director, Committee on Homeland Security, U.S. House of 
Representatives, Washington, DC.
    2002-2005: Deputy General Counsel (Environment and Installations), 
U.S. Department of Defense, Washington, DC (Pentagon).
    1995-2001: Executive Director, Policy Committee, U.S. House of 
Representatives, Washington, DC.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    1990-1993: Deputy Assistant Attorney General, Environment and 
Natural Resources Division, U.S. Department of Justice, Washington, DC.
    1989-1990: Senior Counsel, Office of Legal Counsel, U.S. Department 
of Justice, Washington, DC.
    1987-1989: Associate Counsel to the President, White House 
Counsel's Office, Washington, DC.
    1986-1987: Attorney-Advisor, Office of Legislative Affairs, U.S. 
Department of Justice, Washington, DC.
    1985-1986: Law Clerk to the Hon. Laurence H. Silberman, U.S. Court 
of Appeals for the DC Circuit.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    New York State Bar Association, District of Columbia Bar, 
Federalist Society.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Department of Defense Medal for Distinguished Public Service.
    Attorney General's Special Commendation Award, January 1993.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Ben Cohen, ``Separation of Powers and Federalism in the 104th 
Congress,'' published in a Federalist Society publication in the mid-
1990s (either Engage or the Harvard Journal of Law and Public Policy); 
(b) Benedict Cohen and Dirk D. Haire, ``Environmental Citizen Suits: 
Standing and the Proper Scope of Relief,'' in Citizen Suits and Qui Tam 
Actions: Private Enforcement of Public Policy (National Legal Center 
for the Public Interest, 1996).

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    During the past 5 years, I gave numerous speeches from notes to DOD 
audiences, State and Federal officials, and their representatives on 
the Defense Department's environmental program, and in particular DOD's 
environmental legislative and regulatory initiatives (January 2002-
February 2005, including several annual meetings of the Conference of 
Western Attorneys General and a panel on ``Protecting Living Marine 
Resources'' at the June 2004 American Bar Association Spring Conference 
on the Environment). These speeches were, however, given from summary 
notes.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Benedict S. Cohen.
    This 16th day of February, 2006.

    [The nomination of Benedict S. Cohen was reported to the 
Senate by Chairman Warner on August 1, 2006, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on August 3, 2006.]
                              ----------                              

    [Prepared questions submitted to Frank R. Jimenez by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. The Goldwater-Nichols Act strengthened the civilian 
leadership of the Department of Defense and improved the clarity of the 
chain of command. Implementation of Goldwater-Nichols has enhanced the 
ability of the Services to act quickly and jointly. Although I am 
currently unaware of any reason to amend Goldwater-Nichols, if 
confirmed, I will have the opportunity to assess the act and propose 
changes.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Please see responses to previous question.
                                 duties
    Question. What is your understanding of the duties and functions of 
the General Counsel of the Department of the Navy?
    Answer. Section 5019 of title 10, U.S.C., provides that the General 
Counsel of the Department of the Navy shall perform such functions as 
the Secretary of the Navy may prescribe. The Secretary has done so 
through regulations, instructions, and memoranda. The General Counsel 
is the chief legal officer of the Department, and legal opinions issued 
by the General Counsel are the controlling legal opinions within the 
Department. The General Counsel provides legal advice, counsel, and 
guidance to the Secretary, the Under Secretary and the Assistant 
Secretaries, and their staffs. He is also responsible for providing 
legal services throughout the Department in a variety of fields, 
including business and commercial law, real and personal property law, 
fiscal law, civilian personnel and labor law, intellectual property 
law, environmental law, and litigation. In addition, the General 
Counsel serves as the Debarring Official and Designated Agency Ethics 
Official for the Department, and assists the Under Secretary of the 
Navy in overseeing the Naval Criminal Investigative Service.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. The Office of the General Counsel in the Department of the 
Navy has an extraordinarily broad range of responsibilities, including 
litigation, contracts, acquisition, environmental, personnel, 
legislative, ethics, and other issues. Though it is not possible for 
any attorney to master them all, the General Counsel must possess sound 
legal and analytical skills, as well as sound integrity and judgment. 
The Office of General Counsel is also quite large, with more than 600 
attorneys in over 100 locations worldwide. Accordingly, the General 
Counsel must possess strong managerial qualifications and solid 
interpersonal and leadership abilities. I believe that my experiences 
and background have prepared me well to perform the duties of this 
office.
    I received my undergraduate degree from the University of Miami in 
1987 and my law degree from the Yale Law School in 1991, where I served 
as a notes editor of the Yale Law Journal and won the Harlan Fiske 
Stone Prize (Best Oralist) and Benjamin N. Cardozo Prize (Best Brief) 
in the Yale Moot Court of Appeals. After law school, I clerked for 
Judge Pamela Ann Rymer of the U.S. Court of Appeals for the Ninth 
Circuit in Pasadena, California. I subsequently joined the Miami office 
of Steel Hector & Davis LLP, where I practiced general commercial 
litigation and white collar criminal defense in State and Federal 
courts. A year after becoming a partner of the firm, I was asked to 
join the staff of newly-elected Governor Jeb Bush as Deputy General 
Counsel. In my 3\1/2\ years on the Governor's staff, I also served at 
various times as Acting General Counsel and Deputy Chief of Staff, 
helping in the latter position to supervise executive agencies covering 
the environment, transportation, health, business regulation, land use, 
and emergency management. In 2002, I became Chief of Staff at the U.S. 
Department of Housing and Urban Development, assisting then-Secretary 
Mel Martinez in managing more than 9,000 employees and an annual budget 
surpassing $30 billion. For the last 2 years, I've served in the U.S. 
Department of Defense, first as Principal Deputy General Counsel of the 
Department of the Navy, then as Deputy General Counsel (Legal Counsel) 
of the U.S. Department of Defense. I recently graduated with an MBA 
from the Wharton School at the University of Pennsylvania.
    This experience in both legal and managerial positions in the 
public and private sectors has prepared me to address the wide array of 
challenges and responsibilities faced by the General Counsel of the 
Department of the Navy. In particular, I believe my experience as 
Principal Deputy General Counsel for the Department of the Navy in 
2004-2005 will serve me and the Office of General Counsel (OGC) in good 
stead if I am confirmed. During my year in Navy OGC, I developed many 
relationships and a large volume of working knowledge that will allow 
me to assume the duties of General Counsel quickly and effectively.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the General Counsel of 
the Department of the Navy?
    Answer. I believe that I possess the essential legal expertise and 
leadership skills to be the General Counsel of the Department of the 
Navy. As Deputy General Counsel (Legal Counsel) of the Department of 
Defense, I have enhanced my understanding of the relationships between 
the Office of the Secretary of Defense, the military departments, the 
Defense agencies, and their respective legal communities. During my 
service as Principal Deputy General Counsel of the Department of the 
Navy, I became very familiar with the Department's leadership and 
organization, its uniformed and civilian attorneys, and the legal 
challenges facing the Department. If confirmed as the General Counsel, 
I will continue to rely heavily on the wisdom and knowledge of those 
who have devoted themselves to service in the Navy and Marine Corps, as 
well as the career civil servants in the Department.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that Secretary Winter would prescribe for you?
    Answer. If confirmed, I expect that Secretary Winter will desire my 
candid and objective legal advice concerning issues, opportunities, and 
problems as they arise. I anticipate that my formal responsibilities as 
General Counsel of the Department of the Navy will remain largely as 
they are currently. I also anticipate that Secretary Winter will expect 
me to continue the exemplary relationship between the General Counsel, 
the Judge Advocate General of the Navy, and the Staff Judge Advocate to 
the Commandant of the Marine Corps, in order to ensure the faithful 
execution of the laws throughout the Department of the Navy and the 
successful accomplishment of the Department's mission. I expect to work 
closely with the General Counsels of the Department of Defense, other 
military departments, defense agencies and other Federal agencies, and 
with Congress, on matters of mutual interest or concern.
    Question. In carrying out your duties, how will you work with the 
General Counsel of the Department of Defense?
    Answer. While the General Counsel of the Department of the Navy 
reports to the Secretary of the Navy, the General Counsel of the 
Department of Defense is the chief legal officer of the Department of 
Defense. If confirmed, I will work closely with the General Counsel of 
the Department of Defense on matters of mutual interest or concern.
              relationship with the judge advocate general
    Question. In carrying out your duties, how will you work with the 
Judge Advocate General of the Navy and the Staff Judge Advocate to the 
Commandant of the Marine Corps?
    Answer. The General Counsel, the Judge Advocate General of the 
Navy, and the Staff Judge Advocate to the Commandant of the Marine 
Corps must have relationships marked by full consultation, open 
communication, close and collegial cooperation, and careful 
coordination. These relationships are essential to ensure the faithful 
execution of the laws throughout the Department. In my experience as 
Principal Deputy General Counsel, I found the existing relationships to 
be truly extraordinary, and of great benefit to our clients throughout 
the Department. If confirmed, I am confident that these close and 
collegial relationships will continue.
    Question. How are the legal responsibilities of the Department of 
the Navy allocated between the General Counsel, the Judge Advocate 
General, and the Staff Judge Advocate to the Commandant of the Marine 
Corps?
    Answer. The Department of the Navy is unique among the military 
departments, because it is served by three legal communities: the 
General Counsel and Office of the General Counsel, the Judge Advocate 
General of the Navy and Navy Judge Advocates, and the Staff Judge 
Advocate to the Commandant of the Marine Corps and Marine Judge 
Advocates. The governance model for legal services within the 
Department of the Navy is founded upon close professional and personal 
relationships between the General Counsel, the Judge Advocate General 
of the Navy, and the Staff Judge Advocate to the Commandant of the 
Marine Corps--relationships that emphasize communication, transparency, 
and mutual support. The General Counsel is the principal legal advisor 
to the Secretary of the Navy, the Assistant Secretaries, and their 
staffs, and is the head of the Office of the General Counsel. In 
addition, the General Counsel exercises other special authorities by 
delegation or direction from the Secretary of the Navy, or by law or 
regulation. For example, the General Counsel is the reporting senior 
for the Director of the Naval Criminal Investigative Service, acts as 
the Designated Agency Ethics Official for the Department of the Navy, 
and administers the Department's alternative dispute resolution and 
acquisition integrity programs. The Office of the General Counsel's 
practice includes business and commercial law, environmental law, 
personnel and labor law, fiscal law, intellectual property law, and 
ethics, among other subjects. The Judge Advocate General of the Navy 
also reports directly to the Secretary of the Navy, and generally 
provides legal services in the areas of military justice, international 
law, matters associated with military operations, environmental law, 
military personnel law, administrative law, claims, and ethics. The 
Staff Judge Advocate to the Commandant of the Marine Corps is the 
senior military lawyer to the Commandant, and his responsibilities 
largely parallel those of the Judge Advocate General of the Navy. The 
responsibilities of the General Counsel, the Judge Advocate General, 
and Staff Judge Advocate to the Commandant will overlap from time to 
time. In such instances, the three legal communities address matters by 
working closely together for the benefit of the Department.
                            major challenges
    Question. In your view, what are the major challenges that will 
confront the General Counsel of the Department of the Navy?
    Answer. I believe that the General Counsel's greatest challenge 
will be to deliver timely, responsive, and accurate legal advice as the 
Department of the Navy addresses two fundamental, emerging issues: the 
conduct of global, asymmetric warfare, and the execution of strategic 
and commercial transformation initiatives. To meet the Department's 
needs in these areas, the General Counsel likely will address matters 
concerning acquisition reform, privatization, oversight of 
intelligence, environmental law and policy, and military and civilian 
personnel law and policy. If confirmed, I will work, in cooperation 
with the Judge Advocate General of the Navy and Staff Judge Advocate to 
the Commandant of the Marine Corps, to ensure that the legal 
communities of the Department of the Navy have the resources necessary 
to meet the diverse and changing needs of their clients.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will review the resources, organization, 
and operation of the Office of the General Counsel, and implement 
whatever changes may be necessary to enhance its ability to confront 
these challenges. I will work to maximize coordination and cooperation 
with all stakeholders. I will also continue or enhance the previous 
General Counsel's initiatives on career development and performance 
measurement.
                               priorities
    Question. The Navy and Marine Corps are engaged on a daily basis in 
combat and combat support in Operations Iraqi Freedom and Enduring 
Freedom, restructuring and recaptalizing in accordance with the goals 
of the Quadrennial Defense Review, reducing Navy Active-Duty and 
Reserve end strengths, and transforming the Department of the Navy's 
Total Force to deal with a host of traditional and non-traditional 
threats to the security of the Nation.
    In what ways can you, if confirmed as General Counsel, contribute 
to military readiness and the success of the Navy and Marine Corps?
    Answer. If confirmed, I will strive to deliver effective and 
innovative legal services to assist the Secretary of the Navy in 
carrying out his statutory responsibility to recruit, organize, supply, 
equip, train, service, mobilize, demobilize, administer, and maintain, 
all in the interest of promoting readiness across the Navy and Marine 
Corps. In this regard, I would work closely with the Secretary and the 
senior leadership of the Department to ensure that the priorities of 
the Office of the General Counsel are aligned with those of its 
clients.
    Question. What broad priorities would you establish, if confirmed, 
in terms of issues which must be addressed by the Office of the General 
Counsel of the Department of the Navy?
    Answer. My foremost priority will be to ensure that the Department 
of the Navy receives the highest quality legal advice and services in 
the most efficient manner, and that uniformed and civilian attorneys 
work together to accomplish that goal. If confirmed, I will further 
explore and develop more defined priorities.
                attorney recruiting and retention issues
    Question. How do you assess your ability to hire and retain top 
quality attorneys and provide sufficient opportunity for advancement?
    Answer. I believe that the Department of the Navy continues to hire 
outstanding civilian attorneys. The Office of the General Counsel 
receives a large volume of applications, and competition for employment 
remains intense. Nonetheless, the increasing financial disparity 
between Government attorneys and privately employed attorneys is a 
challenge. If confirmed, I will work with the senior staff of the 
Office of the General Counsel to address these issues. I will also 
enhance the previous General Counsel's initiatives on career 
development.
    Question. In your view, does the Department of the Navy have a 
sufficient number of attorneys to perform its missions?
    Answer. I believe that the Department of the Navy has a sufficient 
number of civilian and military attorneys to perform its missions. The 
demand for civilian attorneys and judge advocates has grown 
significantly, however, both generally and in response to specific 
emerging issues. In this era of intense media scrutiny, complex 
national security questions in domestic and international law, 
environmental concerns, and the penchant of many to litigate, there is 
an increasing demand for sophisticated, specialized legal services. If 
confirmed, I will work with the Judge Advocate General of the Navy and 
the Staff Judge Advocate to the Commandant of the Marine Corps to 
ensure the Department has a sufficient number of lawyers to meet its 
needs.
    Question. In your view, what incentives to successful recruiting 
and retention of attorneys, if any, need to be implemented or 
established?
    Answer. The competition for legal talent is keen, and law students 
typically enter the job market burdened by substantial debt. 
Initiatives by Congress and the Department of the Navy have helped to 
alleviate some of the financial pressures facing our young judge 
advocates, and have improved retention. Similar incentives are not 
currently available to civilian attorneys, but the Department of the 
Navy Office of the General Counsel offers appointments to new attorneys 
at grade levels that are highly competitive with other Federal 
agencies. This may account, in part, for the Office of the General 
Counsel's continued success in recruiting and retaining highly 
competent attorneys. If confirmed, I will work with the senior staff of 
the Office of the General Counsel to address these issues.
                  base realignment and closure (brac)
    Question. In 2005, the Base Realignment and Closure process was 
concluded, and the BRAC Commission's recommendations enacted. These 
decisions will close or realign significant numbers of military 
installations, increasing the military value of our infrastructure, 
transforming certain common functions across the Department, and saving 
valuable resources.
    Now that those recommendations have the force and effect of law, 
how would you approach implementation of those recommendations if you 
are confirmed?
    Answer. I understand that the Department of Defense must fully 
implement the recommendations of the BRAC Commission within 6 years, as 
required by law. I also understand that the Department of the Navy, in 
order to execute its own BRAC 2005 recommendations and a number of 
joint, cross-service group recommendations as directed by the Under 
Secretary of Defense (Acquisition, Technology, and Logistics), is 
developing implementation plans and associated budget materials. BRAC 
2005 is vitally important to the Department of the Navy, because it 
will allow the Department to reduce excess infrastructure (allowing 
scarce dollars to be moved to areas that result in improved readiness) 
and to transform the remaining infrastructure.
                        military justice matters
    Question. Article 6 of the Uniform Code of Military Justice gives 
primary jurisdiction over military justice to the Judge Advocates 
General of the Army, Navy, and Air Force.
    How do you view your responsibilities in the performance of 
military justice matters with regard to the Judge Advocate General of 
the Navy?
    Answer. In article 6, Congress gave the Judge Advocate General of 
the Navy or other senior members of his staff the responsibility to 
``make frequent inspections in the field in supervision of the 
administration of military justice.'' If confirmed, as the chief legal 
officer of the Department of the Navy, I will have an interest in the 
administration of military justice. I envision a close working 
relationship with the Judge Advocate General of the Navy and Staff 
Judge Advocate to the Commandant of the Marine Corps, in which we share 
information and work collaboratively when necessary to resolve issues 
of policy and matters pertaining to specific cases. I believe that a 
close working relationship with the Judge Advocate General and Staff 
Judge Advocate to the Commandant, and reliance on their special 
expertise, will enable us collectively to avoid any potential issues of 
command influence.
                         treatment of detainees
    Question. What is your understanding of the definition of ``humane 
treatment'' of detainees?
    Answer. The President's Military Order, November 13, 2001, requires 
that detainees be treated humanely, without any adverse distinction 
based on race, color, religion, gender, birth, wealth, or any similar 
criteria; afforded adequate food, drinking water, shelter, clothing, 
and medical treatment; and allowed the free exercise of religion 
consistent with the requirements of detention.
    The recently enacted Detainee Treatment Act of 2005 requires that 
no individual in the custody or under the physical control of the 
United States Government, regardless of physical location, shall be 
subjected to cruel, inhuman, or degrading treatment or punishment.
    The Deputy Secretary of Defense issued guidance on July 7, 2006 
stating that the U.S. Supreme Court, in Hamdan v. Rumsfeld,--S.Ct.----, 
2006 WL 1764793 (U.S.) (June 29, 2006) (``Hamdan''), determined that 
Article Three Common to the Geneva Conventions of 1949 (``Common 
Article Three'') applies as a matter of law to the conflict with al 
Qaeda.
    Congress may further define the responsibilities of the United 
States under Common Article Three in any future legislation adopted in 
response to the Hamdan decision.
    Question. What is the role of the General Counsel of the Department 
of the Navy in ensuring that all detainees in the custody of U.S. Armed 
Forces are provided humane treatment?
    Answer. Under the Detainee Treatment Act of 2005, any individual 
under the control of the Department of the Navy (or any other component 
of the Department of Defense) must be treated humanely and kept from 
being subjected to cruel, inhuman, or degrading treatment or 
punishment, including individuals held as a result of counterdrug 
operations (South/Central America), migrant operations, law enforcement 
operations, and armed conflict. In this regard, the role of the General 
Counsel is to provide guidance to the Department of the Navy regarding 
its obligations under the Detainee Treatment Act and all other sources 
of legal obligation toward detainees.
    Regarding current detention operations in Guantanamo Bay, Cuba, 
Afghanistan, and Iraq, the combatant commanders plan, execute, and 
oversee combatant command detention operations. The Chairman of the 
Joint Chiefs of Staff provides oversight to the combatant commanders to 
ensure their detention operations, policies, and procedures are 
consistent with DOD policies and requirements.
    The Secretary of the Army is the Executive Agent for detention 
operations. The Army is in the process of revising AR 190-8, the ``tri-
service'' detainee regulation.
    The Under Secretary of Defense for Policy (USD(P)) is responsible 
for developing, reviewing, and coordinating all DOD policy pertaining 
to the DOD Detainee Program. In July 2004, the Secretary of Defense 
established the Office of Detainee Affairs under the USD(P) to serve as 
the focal point for all detention policy matters.
    Question. What is the role, if any, of the General Counsel of the 
Department of the Navy in ensuring that interrogation policies under 
the United States Army Field Manual on Intelligence Interrogations, 
including any revisions to the current field manual, are consistent 
with the Detainee Treatment Act of 2005?
    Answer. The Department of the Army is responsible for providing 
doctrinal guidance concerning the Army Field Manual 34-52, 
``Intelligence Interrogations.'' The revision to FM 34-52, FM 2-22.3, 
``Human Intelligence Collector Operations,'' is in the process of 
coordination throughout the Department of Defense. It is my 
understanding that the Department of Navy, including the Office of 
General Counsel, has had an opportunity to provide comments concerning 
this draft publication. The role of the General Counsel of the 
Department of the Navy is to advise officials of the Department of the 
Navy in their review of the draft Army Field Manual and in their 
efforts to ensure that all Department of the Navy personnel comply with 
the final version.
    Should any credible allegations of abuse during detainee 
intelligence interrogations come to the attention of the General 
Counsel of the Department of the Navy, he or she should immediately 
report such allegations to superiors and follow through until the 
matter is satisfactorily resolved.
          consolidation of military and civilian legal staffs
    Question. On September 10, 2001, Secretary Rumsfeld initiated a 
``war on bureaucracy'' stating that in order to make decisions more 
quickly, the Department must slash duplication, encourage cooperation, 
and start asking tough questions about redundant staff. He noted: 
``There are dozens of offices of general counsel scattered throughout 
the Department. Each Service has one. Every agency does, too. So do the 
Joint Chiefs. We have so many general counsel offices that we actually 
have another general counsel's office whose only job is to coordinate 
all those general counsels.''
    What is your understanding of actions that have been taken in the 
Department of Defense and Department of the Navy to address the 
Secretary's concerns?
    Answer. As a DOD Deputy General Counsel and as Principal Deputy 
General Counsel of the Department of the Navy, I have worked closely 
with my counterparts in the military departments and other components 
of the Department of Defense to ensure consistency of approach and 
eliminate duplication of effort. I share the Secretary of Defense's 
interest in the good stewardship of scarce legal resources.
    Question. In your judgment, what actions need to be taken, if any, 
in response to Secretary Rumsfeld's challenge?
    Answer. If confirmed, with the guidance of the Secretary of the 
Navy, and in close cooperation with the Judge Advocate General of the 
Navy and Staff Judge Advocate to the Commandant of the Marine Corps, I 
would work to achieve an efficient allocation of legal resources across 
the Department of the Navy. It is critical not only to avoid 
duplication of effort, but also to align legal organizations in a 
manner that best serves the changing needs of our clients.
    Question. Do you believe that the Department of the Navy has the 
legal resources necessary to carry out the missions that may be 
required of it in wartime? If not, what is needed?
    Answer. In wartime, the needs of the Department of the Navy place 
great demands on both uniformed and civilian attorneys. Although I 
believe that the Department of the Navy has the legal resources 
available to execute its missions, the increasing pressure to support 
the Department's operations, at home and abroad, demands careful 
attention. If confirmed, I will work with the Judge Advocate General of 
the Navy and Staff Judge Advocate to the Commandant of the Marine Corps 
to ensure that the legal communities of the Department of the Navy 
continue to meet the needs of their clients.
                          religious guidelines
    Question. What is your legal assessment of the measures being taken 
by the Department of the Navy to provide religious guidelines aimed at 
ensuring that members of the chaplain corps of the Navy ensure 
religious tolerance and respect?
    Answer. It is my understanding that the Navy's guidelines on 
religion ensure religious tolerance and respect. If confirmed, I will 
continue to support the Navy's firm commitment to striking the proper 
constitutional balance between the two tenets of the ``free exercise'' 
and ``establishment'' clauses.
    Question. What is your legal assessment of Department of the Navy 
guidance regarding chaplain prayers during official functions other 
than worship services with respect to praying according to the manner 
and forms of the church of which the chaplain is a member?
    Answer. Military chaplains are trained to be sensitive to 
facilitate the ministry of members of their own faiths, the members of 
other faiths, and to care for all servicemembers. At command functions, 
other than for the purpose of religious worship, chaplains are 
encouraged to be especially sensitive to and inclusive of the diversity 
of faiths of persons attending the functions. Chaplains are not ever 
compelled to offer prayers inconsistent with their faith and, as such, 
are free to decline participation, with no adverse consequences, in a 
command event at which a commander determines the prayer should be 
inclusive. In my mind, this is an appropriate balance between the 
rights of the individual members, the chaplains, and the commander's 
need to preserve good order and discipline.
    Question. What is your legal assessment of the adequacy of 
departmental guidance to commanders and other leaders regarding free 
exercise of religion in the Navy and Marine Corps?
    Answer. I am informed that departmental guidance provides 
commanders and other leaders ample guidance regarding the free exercise 
of religion in the Navy and the Marine Corps. Secretary of the Navy 
Instruction 1730.7C, Religious Ministry Within the Department of the 
Navy, ``The Department of the Navy Guidelines on Religious Ministry,'' 
and DOD Directive 1300.17, Accommodation of Religious Practices Within 
the Military Services, provide detailed guidance on the important 
responsibilities of commanders and leaders in this regard. It is my 
understanding that these policies are consistent with the First 
Amendment.
                  general and flag officer nominations
    Question. Under DOD Instruction 1320.4, adverse and alleged adverse 
information pertaining to general and flag officers must be evaluated 
by senior leaders in the Services and in the Office of the Secretary of 
Defense prior to nomination.
    If confirmed, what role, if any, would you play in the officer 
promotion system, particularly in reviewing general and flag officer 
nominations?
    Answer. If confirmed, my role will be as directed by the Secretary 
of the Navy. I will work closely with the Secretary of the Navy, the 
Assistant Secretary of the Navy (Manpower and Reserve Affairs), the 
Judge Advocate General of the Navy, the Staff Judge Advocate to the 
Commandant of the Marine Corps, and other senior Department of the Navy 
leaders to ensure that the Department of the Navy's military personnel 
policies are formulated and applied uniformly, fairly, and in 
accordance with applicable laws and regulations. Generally, legal 
review of military personnel matters is under the cognizance of the 
respective service judge advocates. I understand that officer promotion 
matters in the Department of the Navy (both Navy and Marine Corps) are 
under the purview of the Secretary and that the Judge Advocate General 
has cognizance over legal review of promotion plans, precepts that 
govern the conduct of promotion selection boards, subsequent promotion 
selection board reports, and review of adverse information.
    Question. What is your understanding of the role of the General 
Counsel of the Department of the Navy in ensuring the legal sufficiency 
of statutory selection board processes?
    Answer. Under chapter 36 of title 10, U.S.C., the Secretary of the 
Navy is responsible for the proper functioning of the Department of the 
Navy's promotion selection process. If confirmed, my role will be as 
directed by the Secretary of the Navy. Generally, military personnel 
matters are under the cognizance of the respective service judge 
advocates. I envision a close working relationship with the Judge 
Advocate General of the Navy and Staff Judge Advocate to the Commandant 
of the Marine Corps, and Office of Counsel for the Commandant, an 
office under my supervision, in which we work collaboratively, when 
necessary, to resolve issues of policy and matters pertaining to 
specific cases.
    Question. What is the role, if any, of the General Counsel of the 
Department of the Navy in reviewing and providing potentially adverse 
information pertaining to a nomination to the Senate Armed Services 
Committee?
    Answer. It is my understanding that within the Department of the 
Navy, the Judge Advocate General reviews each situation where adverse, 
or potentially adverse, information involving an officer may exist 
prior to the nomination of such officer being presented to the Senate, 
in order to ensure that any reports and communications comply in form 
and substance with law and regulation. When requested, the General 
Counsel's office will provide advice on cases of Department of the Navy 
nominees with adverse, or potentially adverse, information, in order to 
ensure that such information is reported to the Senate Armed Services 
Committee.
                  military personnel policy and cases
    Question. In your view, what role, if any, should the General 
Counsel play in military personnel policy and individual cases, 
including cases before the Board for Correction of Naval Records?
    Answer. If confirmed, my role will be as directed by the Secretary 
of the Navy. I will work closely with the Secretary of the Navy, the 
Assistant Secretary of the Navy (Manpower and Reserve Affairs), and 
other senior Department of the Navy leaders to ensure that the 
Department of the Navy's military personnel policies are formulated and 
applied uniformly, fairly, and in accordance with applicable laws and 
regulations. In the event I become aware of individual cases in which 
military personnel policies were not fairly and lawfully applied, and 
it is proper for me to intervene, I will take appropriate action. If 
confirmed, I will coordinate with the Assistant Secretary of the Navy 
(Manpower and Reserve Affairs), who exercises overall supervision of 
the Navy Board for Correction of Military Records, to ensure the Board 
receives full and comprehensive legal support.
             sexual assault prevention and response policy
    Question. Numerous cases of sexual misconduct have been reported 
within the armed services over the last several years. Many victims and 
their advocates contend that they were victimized twice: first by 
attackers in their own ranks and then by unresponsive or inadequate 
military treatment. They asserted that the military failed to provide 
basic services available to civilians who have been raped, including 
proper medical attention, adequate criminal investigations of their 
charges, and timely prosecution.
    What is your view of the systems and programs the Navy and Marine 
Corps have in place in deployed locations to offer victims of serious 
sexual assaults the medical, psychological, and legal help they need?
    Answer. Proper care of victims of sexual assault is a top priority 
for the Department of the Navy, and I understand the Department has 
made significant strides in improving assistance to all victims of 
sexual assault, including those in deployed locations. The Department 
of the Navy has implemented the DOD confidentiality policy and the 
restricted and unrestricted reporting options including the Collection 
of Forensic Evidence. Navy victim advocates now have the option of 
informing commanders of restricted cases of sexual assault for Active-
Duty victims without providing identifying personal information. 
Victims of restricted cases of sexual assault are offered advocacy, 
medical, and counseling services without triggering an investigation 
through law enforcement or command. I understand the Department of the 
Navy now provides 24/7 response capability for sexual assaults on the 
installation and during deployment by activating watchbills for victim 
advocates. If confirmed, I will continue to ensure the Department of 
the Navy remains committed to maintaining policies that ensure the 
proper care of sexual assault victims.
    Question. What is your view of the steps the Navy and Marine Corps 
have taken to prevent additional sexual assaults on female soldiers at 
their home stations and when they are deployed?
    Answer. I am advised that the prevention of sexual assault has been 
a key issue for the Department of the Navy for some time. The 
Department of the Navy was a pioneer in the Sexual Assault prevention 
arena when it developed the Sexual Assault Victim Intervention (SAVI) 
and Marine Corps' Sexual Assault Prevention and Response Office (SAPRO) 
in 1994. Both programs are designed to support the victim, investigate 
fully and fairly, and continually evaluate and improve the programs. I 
understand that the Department of the Navy has uncompromisingly 
promoted victim assistance, awareness and prevention education, and 
reporting of sexual assaults.
    The National Defense Authorization Act for Fiscal Year 2005 
required implementation of a standardized DOD Sexual Assault Prevention 
program. I am told that the Department of the Navy is working closely 
with the DOD Joint Task Force for Sexual Assault Prevention and 
Response to standardize sexual assault prevention and identification 
responses across DOD. If confirmed, I will continue to support all 
efforts along the solid path of change followed by the Joint Task Force 
for Sexual Assault Prevention and Response, and continue to provide 
oversight in all areas under my authority to ensure the prevention of 
sexual assaults and protection of victims of sexual assault.
                        whistleblower protection
    Question. Section 1034, title 10, U.S.C., prohibits taking 
retaliatory personnel action against a member of the Armed Forces as 
reprisal for making a protected communication. By definition, protected 
communications include communications to certain individuals and 
organizations outside of the chain of command.
    If confirmed, what actions will you take to ensure that senior 
military leaders understand the need to protect servicemembers who 
report misconduct to appropriate authorities within or outside the 
chain of command?
    Answer. The Department of Defense implements the Military 
Whistleblower Protection Act through Department of Defense Directive 
7050.6, and the Department of the Navy further highlights the act 
through its own instruction at SECNAVINST 5370.7C that sets forth the 
protections afforded to military whistleblowers. If confirmed, I will 
act to ensure that military members whose actions are protected by the 
act are not subject to illegal reprisals or retaliation. If a case of 
illegal reprisal comes to my attention, I will work to ensure that it 
is addressed in accordance with the law. I am advised that the 
Department of the Navy currently provides great emphasis on compliance 
with the act by ensuring that all prospective commanding officers and 
executive officers are briefed on the act's requirements, and 
addressing the act's protections in the curriculum of eight separate 
courses of instruction for Navy and Marine Corps personnel. If 
confirmed, I will work to ensure that this emphasis on the act in 
formal Department training courses continues.
          support to navy and marine corps inspectors general
    Question. What role, if any, do you think the General Counsel of 
the Navy should have in reviewing the investigations and 
recommendations of the Naval Inspector General and the Deputy Naval 
Inspector General for Marine Corps Matters?
    Answer. If confirmed, I will establish a close and productive 
relationship with the Naval Inspector General and Deputy Naval 
Inspector General for Marine Corps Matters. As in other instances, I 
will cooperate with the Judge Advocate General of the Navy and Staff 
Judge Advocate to the Commandant of the Marine Corps as I cultivate 
that relationship. Independence is essential to the mission of the 
Inspector General, particularly with regard to the findings and 
recommendations that result from investigations. I believe that the 
General Counsel has an obligation, without infringing upon the 
Inspector General's independence, to provide independent and objective 
legal advice concerning the Inspector General's duties and 
responsibilities. Further, as part of his responsibility to review 
legal and policy issues arising from the Department of the Navy's 
intelligence and counterintelligence activities, the General Counsel 
should advise the Inspector General concerning proper reporting of the 
Department's intelligence oversight activities.
                           civilian attorneys
    Question. Judge Advocates in the Armed Forces benefit from an 
established career ladder, substantial training opportunities, and 
exposure to a broad spectrum of legal areas and problems. By contrast, 
civilian attorneys in the military departments normally do not have 
established career programs and may do the same work for many years, 
with promotion based solely upon longevity and vacancies.
    In your opinion, does the personnel management of civilian 
attorneys need changing? If so, what do you see as the major problems 
and what changes would you suggest?
    Answer. During my time as Principal Deputy General Counsel, I found 
that the Department of the Navy offered unique opportunities to its 
civilian attorneys. The Office of the General Counsel, which is 
composed almost entirely of civilian attorneys, occupies a distinct 
place in relation to the Navy Judge Advocate General's Corps and the 
community of Marine Judge Advocates. Certain areas of practice--for 
example, business and commercial law--are reserved to the Office of the 
General Counsel as a matter of departmental policy. In areas of 
practice that are common to the Office of the General Counsel and the 
military legal communities, civilian and uniformed attorneys generally 
represent different organizations within the Department. Thus, while 
the civilian and uniformed legal communities work together closely and 
constructively, there are unique professional opportunities available 
to civilian attorneys. The opportunities for advancement to leadership 
positions within the Office of the General Counsel are substantial. 
There are a number of positions in the Senior Executive Service within 
the Office of the General Counsel, and numerous supervisory positions 
in organizations of all sizes around the globe. Competition for these 
positions, as for entry-level positions, remains robust. The Office of 
the General Counsel values a diversity of experience as a foundation 
for advancement to positions of leadership, and offers a range of 
practice sufficiently broad that attorneys may acquire that experience. 
Although I believe that the Office of the General Counsel offers rich 
opportunities for professional development, if confirmed, I will make 
sure that the Office of the General Counsel will continue to look for 
further ways to assist in the development of its civilian attorneys.
                          environmental issues
    Question. A number of major environmental statutes include national 
security exemptions. For example, section 7(j) of the Endangered 
Species Act states: ``Notwithstanding any other provision of this 
chapter, the committee shall grant an exemption for any agency action 
if the Secretary of Defense finds that such exemption is necessary for 
reasons of national security.''
    If confirmed as General Counsel, what role would you expect to play 
in determining whether it would be appropriate to exercise a national 
security exemption in connection with an activity or function of the 
Department of the Navy?
    Answer. If confirmed as the General Counsel of the Navy, I would 
view my role as one of informing both the decision as to whether a 
national security exemption is necessary and appropriate and, in those 
few exceptional circumstances where it may be determined that an 
exception is appropriate, assisting the processing of the exemption to 
approval.
    Where essential Navy operations or military readiness activities 
may be significantly compromised by application of the requirements of 
environmental law, it would be my role to advise senior decisionmakers 
on their legal options, including the possibility of pursuing available 
national security exemptions. Before recommending that an exemption be 
invoked or sought, however, I believe it would be imperative to look at 
the environmental requirement in light of the operation or military 
readiness activity being affected and to determine whether legal 
alternatives to an exemption may be available.
    Question. Under what circumstances do you believe that the use of 
such an exemption would be necessary and appropriate?
    Answer. In crafting the exemptions that currently exist in 
environmental law, Congress has appropriately established a high 
hurdle, often requiring a presidential determination, based on the 
highest possible standard: that the exemption is necessary in the 
``paramount interest of the United States.'' Such is the case, for 
example, under section 313(a) of the Clean Water Act, section 6001(a) 
of the Resource Conservation and Recovery Act, and section 118(b) of 
the Clean Air Act. From this standard, and from the limited duration 
for which exemptions may be granted, it is clear that Congress intended 
that exemptions should be invoked only in extraordinary circumstances. 
Such circumstances, I believe, include those where a particular 
environmental restriction poses a significant threat to military 
readiness or national security and no effective alternative exists that 
will allow compliance with the environmental requirement and still 
permit the critical military readiness activity to proceed.
    In seeking an exemption, I believe the proponent must shoulder the 
burden of identifying not only the restriction imposed and its effect 
on military readiness, but also why the military training, testing, or 
operational activity cannot be modified to avoid a conflict with the 
environmental requirement without diminishing readiness. Moreover, 
where an exemption is invoked, I believe the proponent must identify 
what measures it is prepared to take to mitigate the environmental 
consequences of its actions.
    Although I believe it is important that the existing environmental 
exemptions be used only in exceptional circumstances, the focus of most 
exemptions on individual activities, facilities, or pollution sources 
makes them of limited suitability for some ongoing military readiness 
activities. To date, the Department of Defense has worked well and 
cooperatively with the regulatory community and other stakeholders to 
avoid impacts on these activities, which individually might not be 
significant, but which cumulatively could have large impacts on 
military readiness.
    Question. Please describe the circumstances that led to the 
decision to invoke the national security exemption of the Marine Mammal 
Protection Act (MMPA).
    Answer. The Secretary of Defense, after conferring with the 
Secretary of Commerce, recently invoked a National Defense Exemption 
(NDE) to the MMPA for a period of 6 months.
    Anti-Submarine Warfare (ASW) proficiency--a highly perishable 
skill--requires quarterly qualification. Sustaining skill levels 
requires individual operator, unit, strike group, and coalition 
training. Thirty-five exercises, on average, are conducted annually to 
achieve and maintain ASW proficiency. The current process for obtaining 
an authorization under the MMPA is inconsistent with realistic planning 
timeframes for several dozen exercises annually. My understanding is 
that it can take more than 2 years to plan and obtain an authorization 
for a single exercise.
    As an alternative approach to an exercise-by-exercise process, we 
have discussed with the National Marine Fisheries Service (NMFS) 
programmatic approaches that would provide authorizations on a 
geographic level or for use of specific types of sonar. Navy remains 
cooperatively engaged with regulators in aggressively working toward 
full compliance. The NDE was necessary to address challenges to 
specific exercises in the near-term, and to serve as a bridge to full 
compliance. It allows Navy to ensure near-term ASW proficiency while 
cooperatively developing new processes for the long-term. Application 
of the exemption was limited initially to 6 months to incentivize 
continued progress.
    In addition to process issues, the National Resources Defense 
Council (NRDC) filed a lawsuit challenging Navy and Commerce Department 
compliance with the MMPA and sought a temporary restraining order 
against the Navy's Rim of the Pacific (RIMPAC) exercise near Hawaii. 
The lawsuit alleged that, despite the lengthy and detailed process 
followed by Navy and NMFS to reach an Incidental Harassment 
Authorization under the MMPA, Navy and NMFS efforts failed to fully 
analyze impacts to marine mammals from the use of mid-frequency sonar. 
The Navy and NRDC settled the lawsuit the same week that the NDE was 
invoked.
    A full report on the need for and scope of the exemption will be 
provided to the House and Senate Armed Services Committees as required 
under the MMPA.
    Question. How will invocation of the national security exemption 
alleviate those concerns?
    Answer. An exemption will reduce but not eliminate all risk from 
lawsuits. It provides the Navy with the opportunity to resolve issues 
within the regulatory authorization process, enabling it to complete 
the analyses and regulatory steps necessary to obtain authorizations 
under the MMPA.
    Question. What does the Navy plan to do to ensure compliance with 
the MMPA in the future?
    Answer. I understand that Navy is executing a prioritized program 
of environmental analyses to obtain regulatory authorization where 
necessary and to otherwise comply with applicable laws. During the 
exemption period, the Navy will continue to employ mitigation measures 
recommended by NMFS.
    Question. What impact did the NRDC lawsuit over MMPA compliance for 
the RIMPAC exercise have on the decision to invoke the MMPA's national 
security exemption?
    Answer. The NDE executed by the Deputy Secretary of Defense on 30 
June 2006 exempted all military readiness activities that employ mid-
frequency active sonar during major training exercises or within 
established maritime ranges or operating areas from the requirements of 
the MMPA for 6 months. During this 6-month period, all exempted 
activities are required to employ a suite of comprehensive mitigation 
measures. For RIMPAC 06, the NDE further specifies that the exercise 
will comply with the Incidental Harassment Authorization provisions 
approved by the National Marine Fisheries Service on 27 June 2006. The 
scope of the NDE, therefore, includes RIMPAC 06, but is not limited to 
RIMPAC 06. The then-pending litigation was only one factor in the 
signing of the NDE. It is important to note that the NDE is designed to 
assist the Navy with its long-term MMPA compliance efforts and was not 
focused on the NRDC lawsuit alone.
    Question. What is the impact of the settlement of the RIMPAC 
lawsuit on future training exercises and military testing and 
evaluation using Navy sonar?
    Answer. In October 2005, the NRDC brought a programmatic challenge 
against the Navy's use of mid-frequency active sonar, challenging all 
past, present, and future use of the sonar system. That case is still 
pending. The RIMPAC 06 lawsuit was a separate legal challenge brought 
by the NRDC on the eve of the training exercise. The settlement 
agreement with NRDC makes clear that the agreement is not to be 
construed as a concession by either party as to the potential impacts 
of sonar on marine mammals, the validity of either party's factual or 
legal positions, or the extent of measures required to comply with 
environmental laws.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the General Counsel of the 
Department of the Navy?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
             Question Submitted by Senator Daniel K. Akaka
                          military commissions
    1. Senator Akaka. Mr. Cohen and Mr. Jimenez, the Supreme Court 
recently issued a decision in Hamdan v. Rumsfeld which held that the 
special military commissions established by the administration to try 
detainees violated both the Uniform Code of Military Justice and the 
Geneva Conventions. As Congress begins the process of building a system 
of justice for prisoners captured in the global war on terror, it will 
rely on the input from legal experts in the Department of Defense 
(DOD). What role do you believe that the General Counsel should play in 
the development of this new judicial process and how should it be 
coordinated with your respective Judge Advocates General?
    Mr. Jimenez. With respect to communications with Congress, the 
General Counsel of the Department of the Navy--as well as the other 
members, both civilian and uniformed, of the DOD's legal leadership 
team--should be available to consult closely with Congress as it 
undertakes the important mission post-Hamdan of crafting a military 
commission structure that comports with the Nation's highest principles 
and traditions, and accounts for the exigencies of armed conflict and 
the safety of our servicemembers. With respect to communications within 
DOD, responsibility for detention and trial by military commission of 
enemy combatants rests with combatant commands and not with military 
departments. Accordingly, within DOD, the role of the General Counsel 
of the Department of the Navy should be to provide opinions and advice 
in the course of any comprehensive effort by DOD to gather informed 
legal judgments from civilian and military legal leadership across the 
Department about the establishment of a fair, legal, and sustainable 
military commission process.
    The Department of the Navy prides itself on close, collegial, and 
collaborative working relationships between the General Counsel, Judge 
Advocate General of the Navy, and Staff Judge Advocate to the 
Commandant of the Marine Corps. If confirmed, I plan to do everything 
within my power to see that this tradition continues. Accordingly, I 
would work closely with my uniformed counterparts to provide 
coordinated opinions and advice concerning military commissions to 
Congress and within DOD.
                                 ______
                                 
    [The nomination reference of Frank R. Jimenez follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 29, 2006.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Frank R. Jimenez, of Florida, to be General Counsel of the 
Department of the Navy, vice Alberto Jose Mora, resigned.
                                 ______
                                 
    [The biographical sketch of Frank R. Jimenez, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of Frank R. Jimenez
    As the Deputy General Counsel (Legal Counsel) for the U.S. 
Department of Defense, Frank R. Jimenez manages key litigation matters 
covering the entire Department and coordinates with the White House 
Counsel's Office, Department of Justice, and other agencies on pressing 
legal issues. He also advises senior Defense officials on a wide 
variety of legal questions and supervises the Office of Legislative 
Counsel and the Defense Office of Hearings and Appeals. Mr. Jimenez was 
most recently the Principal Deputy General Counsel for the Department 
of the Navy, where he served as the alter ego to the General Counsel of 
the Navy in managing over 600 attorneys worldwide and overseeing the 
Naval Criminal Investigative Service. He also advised senior Navy 
officials on litigation, acquisition, environmental, personnel, 
legislative, and ethics issues.
    Mr. Jimenez was previously the Chief of Staff at the U.S. 
Department of Housing and Urban Development (HUD). As Chief of Staff, 
he assisted Secretary Mel Martinez in managing more than 9,000 
employees and an annual budget surpassing $30 billion. He helped 
supervise HUD's many homeownership and affordable housing programs for 
low-income Americans, as well as programs supporting the homeless, 
elderly, people with disabilities, and people living with AIDS. Mr. 
Jimenez's responsibilities also included supervising the Department's 
interactions with the White House, public officials, industry groups, 
and the general public.
    Prior to arriving at HUD, Mr. Jimenez served for nearly 4 years in 
the Executive Office of Florida Governor Jeb Bush, beginning with his 
gubernatorial transition in 1998. For two of those years, Mr. Jimenez 
served as Deputy Chief of Staff, with oversight duties at various times 
for the Departments of Transportation, Business and Professional 
Regulation, Environmental Protection, Community Affairs, Elder Affairs, 
and Health, as well as the Agency for Workforce Innovation and the 
Division of Emergency Management. Mr. Jimenez also served as Acting 
General Counsel and as Deputy General Counsel to the Governor.
    Prior to entering public service, Mr. Jimenez practiced at the 
Miami law firm of Steel Hector and Davis L.L.P. (now Squire, Sanders 
and Dempsey L.L.P.), specializing in complex commercial litigation and 
white collar criminal defense, including Federal class action, 
antitrust and product liability litigation, and representation of 
clients under Federal grand jury and government agency investigation. 
He joined the firm in 1992 and became a partner in 1998. Previously, 
Mr. Jimenez served a 1-year clerkship in the chambers of Judge Pamela 
Ann Rymer of the U.S. Court of Appeals for the Ninth Circuit in 
Pasadena, California; Mr. Jimenez is admitted to the Bars of Florida 
and the District of Columbia.
    Mr. Jimenez graduated with honors in 1987 from the University of 
Miami, where he majored in biology. He received his law degree in 1991 
from the Yale Law School, where he was Notes Editor of the Yale Law 
Journal and won the Harlan Fiske Stone and Benjamin N. Cardozo Prizes 
for best oral argument and best brief, respectively, in the school's 
moot court competition. He also received an M.B.A. degree in 2005 from 
the Wharton School at the University of Pennsylvania.
    Mr. Jimenez, who is proficient in Spanish, resides in Alexandria, 
Virginia.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Frank R. 
Jimenez in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Frank Ruben Jimenez.

    2. Position to which nominated:
    General Counsel, Department of the Navy.

    3. Date of nomination:
    June 29, 2006.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    November 8, 1964; San Juan, Puerto Rico.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Single, never married.

    7. Names and ages of children:
    None.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Miami Christian School, 1973-1982, High School Diploma (June 1982).
    University of Miami, 1982-1987, B.S. (December 1987).
    Florida State University, 1987-1988, no degree.
    Yale Law School, 1988-1991, J.D. (June 1991).
    The Wharton School, University of Pennsylvania, M.B.A. (May 2005).

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Deputy General Counsel (Legal Counsel) (2005-2006), U.S. Department 
of Defense, 1600 Defense Pentagon, Room 3B688, Washington, DC.
    Principal Deputy General Counsel (2004-2005), U.S. Department of 
the Navy, 1000 Navy Pentagon, Room 4E635, Washington, DC.
    Chief of Staff (2002-2004), U.S. Department of Housing and Urban 
Development, 451 7th Street, SW., Washington, DC.
    Deputy General Counsel (1999), Acting General Counsel (2000), 
Deputy Chief of Staff (1999-2000, 2001-2002), Executive Office of the 
Governor, PL05 The Capitol, Tallahassee, FL.
    Associate (1992-1998), Partner (1998-1999), Steel Hector & Davis 
LLP (now Squire Sanders & Dempsey LLP), 200 South Biscayne Boulevard, 
40th Floor, Miami, FL.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Member, President's Task Force on Puerto Rico's Status (2003-2005).
    Member, South Florida Ecosystem Restoration Task Force (2002).
    Chairman, Jimmy Ryce Act Enforcement Task Force (1999-2000).
    Member, City of Miami Blue Ribbon Committee on Single Member 
Districts (1997).

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Director, Missions Reaching Out Compassionately International, Inc. 
(501(c)(3) application pending), P.O. Box 144401, Coral Gables, FL.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, The Florida Bar.
    Member (inactive), The District of Columbia Bar.
    Member, University Baptist Church, Coral Gables, FL.
    Member, Missions Reaching Out Compassionately International, Inc.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Danae Roberts for State Representative ($100), December 2001.
    Bush-Brogan 2002 ($250), September 2002.
    Bush-Cheney 2004 ($2,000), September 2003.
    Mel Martinez for Senate ($1,000), January 2004.
    Mel Martinez for Senate ($1,000), September 2004.
    Charlie Crist for Governor ($200), June 2005.
    Robert Fernandez for State Representative ($100), May 2006.
    Adam Hasner for State Representative ($100), May 2006.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Department of the Navy Superior Public Service Award (2005).
    Wharton Graduate Fellowship (2003).
    Named among ``The 100 Most Influential Hispanics'' in U.S. by 
Hispanic Business magazine (2002).
    Harlan Fiske Stone Prize (Best Oralist) and Benjamin N. Cardozo 
Prize (Best Brief), Yale Moot Court of Appeals (1991).
    Iron Arrow Honor Society (University of Miami) (1987).
    Omicron Delta Kappa Honor Society (University of Miami) (1985).
    Mortar Board National Honor Society (University of Miami) (1985).
    Henry King Stanford Scholarship (University of Miami) (1982).

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Note, ``Beyond Mergens: Ensuring Equality of Student Religious 
Speech Under the Equal Access Act,'' 100 Yale Law Journal 2149 (1991).
    Rebekah J. Poston, Frank R. Jimenez & Kimberly K. Dunn, ``Feds Urge 
Businesses to Cough Up Health Fraud,'' National Law Journal, Sept. 18, 
1995, at B12.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    N/A.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Frank R. Jimenez.
    This 12th day of July, 2006.

    [The nomination of Frank R. Jimenez was reported to the 
Senate by Chairman Warner on August 1, 2006, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on September 21, 2006.]
                              ----------                              

    [Prepared questions submitted to David H. Laufman by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. The Goldwater-Nichols Act represents landmark legislation. 
Although I do not have the benefit of first-hand experience in the 
act's implementation, it is my understanding that the act has succeeded 
in fulfilling its mandate to enhance jointness, increase readiness, and 
create a higher standard of warfighting efficiency. If confirmed, I am 
committed to working with Congress to determine if any legislative 
modifications are needed in the future.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. Please see my response to question above.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Department of Defense Inspector General (DOD IG)?
    Answer. The duties and functions of the Inspector General of the 
Department of Defense are those specified in sections 4 and 8 of the 
Inspector General Act of 1978, as amended. Additional duties and 
responsibilities of the Inspector General are specified in Department 
of Defense Directive No. 5106.01, which was signed by Deputy Secretary 
of Defense Gordon England on April 13, 2006. (A copy of that directive 
is attached hereto for the committee's convenience.) [Nominee responded 
and the information is contained in the committee's executive files.]
    By statute, the Inspector General conducts and supervises audits 
and investigations relating to the programs and operations of the 
Department of Defense. The Inspector General also provides leadership 
and coordination, and recommends policy, for activities designed to: 
(1) promote economy, efficiency, and effectiveness in the 
administration of Department of Defense programs and operations; and 
(2) combat fraud and abuse. In addition, the Inspector General is 
responsible for keeping both the Secretary of Defense and Congress 
fully and currently informed about problems and deficiencies in defense 
programs, the need for corrective action, and the status of such 
action.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense would prescribe for you?
    Answer. If confirmed, I expect that the Secretary of Defense will 
prescribe for me the full range of duties and functions set forth in 
the Inspector General Act, as amended, as well as the additional duties 
and responsibilities specified in Department of Defense Directive No. 
5106.01.
    Question. Section 2 of the Inspector General Act of 1978 states 
that its purpose is to create independent and objective units to 
conduct and supervise audits and investigations; to provide leadership 
and coordination, and recommend policies for activities designed to 
promote economy, efficiency, and effectiveness; to prevent and detect 
fraud, waste, and abuse; and to provide a means for keeping Congress 
fully and currently informed about problems and deficiencies relating 
to the administration of programs and operations and the necessity for 
and progress of corrective action.
    Are you committed to maintaining the independence of the DOD IG, as 
set forth in the Inspector General statute?
    Answer. The ability of the Inspector General to fulfill his or her 
statutory duties and responsibilities depends on establishing and 
maintaining both the appearance and reality of independence. If 
confirmed, I will be strongly committed to maintaining the independence 
of the Office of the Inspector General (OIG) consistent with the 
provisions of the Inspector General Act.
    Question. Are you committed to keeping the Committee on Armed 
Services ``fully and currently informed,'' and, if so, what steps will 
you take, if confirmed, to ensure that this responsibility is carried 
out?
    Answer. If confirmed, I will keep the Committee on Armed Services 
``fully and currently informed.'' I will do so through the 
dissemination of OIG products such as the Semiannual Report to 
Congress, audit reports, and inspection/evaluation reports. In 
addition, I will provide briefings for members and staff, and testimony 
at hearings when requested
    Question. Section 3 of the Inspector General Act of 1978 provides 
that the head of an agency shall exercise ``general supervision'' over 
an IG, but shall not ``prevent or prohibit the Inspector General from 
initiating, carrying out, or completing any audit or investigation, or 
from issuing any subpoena during the course of any audit or 
investigation.'' Section 8 of the act, however, states that the DOD IG 
shall ``be under the authority, direction, and control of the Secretary 
of Defense with respect to certain audits or investigations which 
require access to information concerning sensitive operational plans, 
intelligence matters, counterintelligence matters, ongoing criminal 
investigations by other administrative units of the Department of 
Defense related to national security or other matters, the disclosure 
of which would constitute a serious threat to national security.
    What is your understanding of the supervisory authority of the 
Secretary of Defense over the DOD IG with respect to audits and 
investigations, in view of the independence provided by section 3?
    Answer. Section 3(a) of the act states that ``[e]ach Inspector 
General shall report to and be under the general supervision of the 
head of the establishment''--here, the Secretary of Defense. Although 
the statute does not define ``general supervision,'' that term may 
reasonably be construed to mean such supervision as does not infringe 
on the Inspector General's independence.
    Section 3(a), however, must be read in conjunction with section 8, 
which contains specific provisions regarding the DOD IG and (in section 
8(b)(1)) modifies the last two sentences of section 3(a). Given this 
statutory framework, my understanding is that the Secretary of Defense 
may exercise general supervisory authority over the Inspector General 
and may prohibit the Inspector General from conducting audits and 
investigations that implicate matters specified in section 8(b)(1) of 
the act. I am advised, however, that the Secretary has never exercised 
his statutory authority to preclude the Inspector General from 
conducting any audits or investigations. I am also advised that the 
Secretary has not exercised direct supervision over audits and 
investigations.
    Question. What is your understanding of the procedures in place to 
effect the authority and control of the Secretary of Defense over 
matters delineated in section 8 of the act?
    Answer. Under section 8(b)(2) of the act, the Secretary of Defense 
has the authority to ``prohibit the Inspector General from initiating, 
carrying out, or completing any audit or investigation, or from issuing 
any subpoena . . . if the Secretary determines that such prohibition is 
necessary to preserve the national security of the United States.'' It 
is my understanding that the Secretary has never exercised that 
authority, and I am presently unaware of any procedures in place to 
effect that authority. In the event that the Secretary exercised this 
authority, I would submit an appropriate statement within 30 days to 
this committee and other appropriate committees of Congress, as 
required under section 8(b)(3).
    Question. Sections 4 and 8 of the Inspector General Act of 1978 set 
forth various duties and responsibilities of Inspectors General beyond 
the conduct of audits and investigations.
    What is your understanding of the supervisory authority exercised 
by the Secretary of Defense with regard to these issues?
    Answer. In addition to directing the Inspector General to conduct 
audits and investigations, section 4 directs the Inspector General to 
``review existing and proposed legislation and regulations'' and make 
related recommendations in semiannual reports; recommend policies to 
promote economy and efficiency in the administration of Department 
programs and operations and to prevent and detect fraud and abuse; keep 
the Secretary of Defense and Congress fully and currently informed 
about fraud and other serious problems, abuses, and deficiencies; 
recommend corrective actions for such problems, abuses, and 
deficiencies; and report on the progress made in implementing such 
corrective actions. Section 8(c)(1) adds that the Inspector General 
shall ``be the principal advisor to the Secretary of Defense for 
matters relating to the preventing and detection of fraud, waste, and 
abuse.''
    It is my understanding that the Inspector General's duties and 
responsibilities specified in section 4 and 8 come within the general 
supervisory authority of the Secretary of Defense established under 
section 3(a). It is also my understanding that the Secretary exercises 
that authority by means of weekly updates on ongoing issues that the 
OIG provides, through monthly meetings between the Inspector General 
and the Deputy Secretary of Defense, and through quarterly briefings 
that the Inspector General provides to the Under Secretaries of 
Defense. I am advised that the Secretary of Defense is not involved in 
the day-to-day operations of the OIG.
    Question. The previous DOD IG has been accused of slowing or 
blocking investigations of senior government officials, improperly 
spending appropriated funds on pet projects, and accepting gifts that 
may have violated ethics guidelines.
    Do you believe that these accusations have undermined confidence in 
the integrity of the OIG?
    Answer. I do not have first-hand knowledge regarding the substance 
of these allegations, or whether the allegations have, in fact, 
undermined confidence in the integrity of the OIG. If confirmed, 
however, I am committed to doing everything possible to ensure that all 
personnel in the OIG--including the Inspector General--uphold the 
highest ethical and legal standards, and that the OIG has the full 
trust and confidence of the Secretary of Defense, Congress, and the 
American people.
    Question. What steps would you take, if confirmed, to restore 
confidence in the integrity of the OIG?
    Answer. Please see my answer to previous question.
    Question. What is your understanding of the methods currently in 
use by the Secretary of Defense to exercise supervision over the 
performance of the DOD IG?
    Answer. It is my understanding that the OIG keeps the Secretary of 
Defense and his senior staff informed, to the extent appropriate, of 
audits and investigations through briefings and the dissemination of 
reports.
    Question. Based on your experience as an Assistant United States 
Attorney and former investigative counsel of the House Standards of 
Official Conduct (Ethics) Committee, do you believe that the current 
systems in place for monitoring and evaluating the effectiveness and 
conformance by Inspectors General with the requirements of law are 
sufficient?
    Answer. It is my understanding that the principal mechanism for 
assessing compliance by Inspectors General with law and ethical 
standards is the Integrity Committee, a body that was established in 
1996 by the Chairperson of the President's Council on Integrity and 
Efficiency and the Executive Council on Integrity and Efficiency. As a 
nominee, I do not yet have a sufficient basis to evaluate whether this 
mechanism is effective.
    Question. Under what circumstances, if any, do you believe that it 
is appropriate for the DOD IG to consult with officials in the Office 
of the Secretary of Defense (or other DOD officials outside the Office 
of the Inspector General) before issuing a report regarding the 
findings and recommendations in the report?
    Answer. It is essential to maintain not only the actual 
independence of the Inspector General in accordance with the act's 
mandate, but the appearance of independence as well.
    With respect to audits and inspections, I believe it is appropriate 
to provide officials in the Office of the Secretary of Defense (and 
other appropriate officials outside the Office of the Inspector 
General) with an opportunity to review a draft report to ensure that 
the report is factually accurate and to identify any areas of 
disagreement concerning conclusions, findings, and recommendations. 
Whether any changes are made to a report as a result of such a review 
remains within the sole discretion of the Inspector General.
    With respect to noncriminal investigations such as senior official 
investigations and reprisal investigations, prior consultations 
generally should occur only if such consultations would not compromise 
the Inspector General's independence or the integrity of the ongoing 
investigation. In this regard, it should be noted that in section 
8(b)(1) of the act, Congress expressly provided that ``the Inspector 
General shall be under the authority, direction, and control of the 
Secretary of Defense with respect to audits or investigations, or the 
issuance of subpoenas, concerning: (A) sensitive operational plans; (B) 
intelligence matters; (C) counterintelligence matters; (D) ongoing 
criminal investigations by other administrative units of the Department 
of Defense related to national security; or (E) other matters the 
disclosure of which would constitute a serious threat to national 
security.'' Given this congressional directive, I believe that the 
Inspector General has a statutory obligation to consult with the 
Secretary of Defense regarding the findings and recommendations of 
investigations of matters specified in section 8(b)(1) prior to issuing 
a report concerning such matters.
    Except with respect to appropriate communications with other 
investigative or law enforcement entities, it would be inappropriate to 
discuss criminal investigations with individuals outside the OIG while 
such investigations are ongoing.
    Question. If you believe that such consultation is appropriate, 
what steps, if any, do you believe the Inspector General should take to 
keep a record of the consultation and record the results in the text of 
the report?
    Answer. I believe it is appropriate for the OIG to create and 
maintain a record of consultations with any official outside the OIG 
regarding findings and recommendations contained in a draft report. If 
such consultations result in changes to the findings and 
recommendations in the report, the substance of the consultations 
should be disclosed in the report together with an explanation by the 
Inspector General as to why the changes were made.
                             qualifications
    Question. Section 3 of the Inspector General Act of 1978 provides 
that IGs shall be appointed on the basis of their ``demonstrated 
ability in accounting, auditing, financial analysis, law, management 
analysis, public administration, or investigations.''
    What background and experience do you possess that you believe 
qualifies you to perform the duties of the DOD IG?
    Answer. I have extensive experience in ethics and public corruption 
investigations. In 1992-1993, I served as Senior Associate Minority 
Counsel to the Task Force to Investigate Certain Allegations Concerning 
the Holding of American Hostages by Iran in 1980 ``October Surprise 
Task Force'', a special bipartisan panel of the U.S. House of 
Representatives. Subsequently, I served as Associate Independent 
Counsel to Joseph E. diGenova in the Investigation Concerning the 
Search of William J. Clinton's Passport Files During the 1992 
Presidential Election Campaign. From 1996-2000, I served as 
Investigative Counsel to the House Committee on Standards of Official 
Conduct (``House Ethics Committee''), where I conducted several ethics 
investigations. In 1997, I played a central role in drafting and 
negotiating changes to the ethics rules of the House of Representatives 
in my capacity as Assistant to the Special Counsel to the Ethics Reform 
Task Force. I also conducted professional misconduct investigations for 
the Office of Professional Responsibility at the Department of Justice 
from January to May 2001.
    I also have extensive experience in national security affairs. From 
1980 to 1984, I served as a military and political analyst in the 
Directorate of Intelligence at the Central Intelligence Agency. In 
1990-1993, I was Deputy Minority Counsel to the Committee on Foreign 
Affairs of the U.S. House of Representatives. In 2000-2001, I served as 
Staff Director and Deputy Chief Counsel to the Judicial Review 
Commission on Foreign Asset Control, a congressionally mandated body 
that examined U.S. laws governing the imposition of economic sanctions 
by the U.S. Department of Treasury. Since March 2003, I have served as 
Assistant U.S. Attorney for the Eastern District of Virginia, where I 
have specialized in prosecutions of terrorism and other national 
security cases.
    If confirmed, I would also bring administrative experience to the 
position of Inspector General. In addition to the senior positions 
noted above, I served as Chief of Staff to the Deputy Attorney General 
from May 2001 to February 2003. As Chief of Staff, I coordinated 
oversight of the offices and bureaus of the Department of Justice and 
helped to oversee responses to the extraordinary challenges that 
confronted the Department in the period after the terrorist attacks on 
September 11, 2001.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform these duties?
    Answer. If confirmed, I plan to become more familiar with statutes 
and regulations applicable to government contracting in general and 
defense procurement in particular. I also plan to meet with a broad 
cross-section of officials and personnel within the Department of 
Defense, including members of the Armed Forces overseas, to listen to 
their concerns and identify issues that might merit action by the OIG.
    Question. Based on your background and experience, are there any 
changes that you would recommend with respect to the current 
organization or responsibilities of the DOD IG?
    Answer. If confirmed, I plan to examine how the OIG is organized to 
determine if any structural changes in the office are appropriate. I 
also plan to examine whether the office is meeting the full range of 
its statutory responsibilities within the context of the resources 
available. It would be premature to offer any recommendations for 
change in these areas, however, until I have an adequate opportunity to 
conduct the necessary evaluations.
                             relationships
    Question. If confirmed, what would your working relationship be 
with:
    The Secretary of Defense?
    Answer. Section 8(c) of the act states that the Inspector General 
shall ``be the principal adviser to the Secretary of Defense for 
matters relating to the prevention and detection of fraud, waste, and 
abuse in the programs and operations of the Department . . . .'' In 
addition, section 2(3) provides for Inspectors General to ``keep[] the 
head of the establishment and Congress fully and currently informed 
about problems and deficiencies relating to the administration of . . . 
programs and operations and the necessity for and progress of 
corrective action . . . .''
    If confirmed, I will seek to establish a strong and effective 
relationship with the Secretary of Defense that enables me to carry out 
my statutory duties with the independence required under the act, while 
enabling the Secretary to exercise his statutory supervisory authority. 
I will consult directly with the Secretary as necessary and 
appropriate, particularly with respect to matters governed by section 
8(b)(1) of the act. I also expect to continue the current practice of 
providing weekly updates on ongoing issues to the Special Assistants 
for the Secretary of Defense and Deputy Secretary of Defense, meeting 
on a monthly basis with the Deputy Secretary of Defense, and providing 
quarterly briefings to the Under Secretaries on matters warranting 
their attention.
    Question. The Deputy Secretary of Defense?
    Answer. Section 3(a) of the Inspector General Act states that 
``[e]ach Inspector General shall report to and be under the general 
supervision of the head of the establishment involved or, to the extent 
such authority is delegated, the officer next in rank below such 
head.'' Department of Defense Directive 5106.01, dated April 13, 2006, 
states that `` the Inspector General of the Department of Defense shall 
report to and be under the general supervision of the Secretary of 
Defense and the Deputy Secretary of Defense. . . .'' (Emphasis added.) 
Accordingly, if confirmed, I would expect my relationship with the 
Deputy Secretary of Defense to mirror my relationship with the 
Secretary of Defense.
    Question. The Under Secretary of Defense (Comptroller/Chief 
Financial Officer) (USD(C/CFO)?
    Answer. It is my understanding that the USD(C/CFO) is responsible 
for financial management within the Department of Defense by 
establishing and enforcing requirements, principles, standards, 
systems, procedures, and practices necessary to comply with financial 
management statutory and regulatory requirements applicable to the DOD. 
The USD directs financial management requirements, systems, and 
functions for all appropriated, nonappropriated, working capital, 
revolving, and trust fund activities. In addition, the USD directs 
statutory and regulatory financial reporting requirements.
    It is my further understanding that the Inspector General of the 
Department of Defense is subject to all rules and regulations 
established by the USD(C/CFO).
    I am advised that the Inspector General advises and counsels the 
USD(C/CFO) on areas of concern within the financial management arena to 
include acquisition management, financial statement audits, and 
contracting issues. To accomplish this, I will continue the acting IG's 
current practice of providing quarterly briefings to the USD(C/CFO) on 
current audits and investigations that have fiscal implications.
    I am also advised that the Inspector General provides the USD(C/
CFO) information to develop and defend the concurrent Program Objective 
Memorandum/Budget Estimate Submission to document the OIG's extended 
resource requirements to OSD and OMB. In that regard, I would expect to 
continue to work with the USD(C/CFO) to formulate the OIG's portion of 
the annual President's budget for submission to OSD/OMB, and to request 
required resources to conduct the Inspector General's mission.
    Question. The Under Secretary of Defense for Acquisition, 
Technology, and Logistics?
    Answer. The OIG has identified ``acquisition processes and contract 
management'' as a major challenge for the Department of Defense. It is 
therefore essential for the Inspector General to maintain an effective 
working relationship with the Under Secretary for Acquisition, 
Technology, and Logistics. If confirmed, I expect to work particularly 
closely with the Under Secretary concerning the allocation of OIG 
resources in the acquisition area, and how best to implement audit 
recommendations pertaining to acquisition processes.
    Question. The General Counsel for the Department of Defense?
    Answer. The Office of the General Counsel has extensive legal 
expertise and resources that are valuable to the OIG. It is therefore 
in the best interests of the DOD IG and the General Counsel to work as 
closely as possible without compromising the independence of the 
Inspector General or creating the appearance that the Inspector 
General's independence has been compromised. If confirmed, I would 
expect to work with the General Counsel on proposed legislation and 
regulations, ethics issues, and legal issues associated with audit 
findings and departmental policies.
    According to information provided to me in preparation for my 
confirmation hearing, an action memo governing the relationship between 
the Inspector General and General Counsel was approved by former Deputy 
Secretary of Defense Wolfowitz on September 27, 2004. This action memo, 
titled ``Provision of Legal Services to the Inspector General of the 
Department of Defense,'' apparently superseded a previous memorandum of 
understanding between the Inspector General and the General Counsel 
that was executed in 1985 but was terminated in February 2004.
    The September 2004 action memo contains the following provisions:

        <bullet> Consistent with DOD Directive 5145.4, the Office of 
        General Counsel of the Office of Inspector General of the 
        Department of Defense (OIG/OGC) shall be established as an 
        element of the Defense Legal Services Agency (DLSA). The Office 
        of Deputy General Counsel (Inspector General) in the Office of 
        the DOD General Counsel shall be disestablished.
        <bullet> The legal staff of the Office of the Deputy General 
        Counsel (Inspector General) will transfer from the Office of 
        the DOD General Counsel to the OIG/OGC as part of DLSA.
        <bullet> One SES resource, position, and associated funding 
        will transfer from the Office of the Secretary of Defense to 
        OIG.
        <bullet> Eight non-SES attorney positions, with associated 
        funding, will transfer from the Office of the Secretary of 
        Defense to OIG. The employees encumbering these positions will 
        move with their positions.
        <bullet> Budgeting, managing of ceiling spaces, personnel 
        services, and other administrative support for OIG/OGC shall be 
        the responsibility of the Inspector General. The Inspector 
        General shall be the appointing authority for OGC/OIG, the 
        other attorneys, and staff assigned to OIG/OGC.
        <bullet> The selection of the OGC/OIG and other attorneys 
        assigned to OGC/OIG shall require the approval of the Inspector 
        General and the General Counsel of the Department of Defense. 
        The OGC/OIG and other attorneys in OIG/OGC may not be 
        transferred, reassigned, provided additional duties, 
        disciplined or terminated without the approval of the Inspector 
        General and the General Counsel of the Department of Defense.
        <bullet> The OGC/OIG shall be a member of the Senior Executive 
        Service. The rater and senior rater of the OGC/OIG shall be the 
        Principal Deputy General Counsel and General Counsel of the 
        Department of Defense, respectively. The Inspector General 
        shall sign the performance plan and evaluation of the OGC/OIG 
        as the appointing authority.
        <bullet> The Inspector General shall include the OGC/OIG in the 
        Senior Executive Service bonus pool for the OIG.

    Question. The Director of Operational Tests and Evaluation?
    Answer. I am advised that the Inspector General and the Director of 
Operational Tests and Evaluation have a common interest in ensuring 
that equipment and weapons systems allocated to the warfighter perform 
effectively and as planned. If confirmed, I would expect to consult as 
appropriate with the Director concerning the initiation of audits in 
these areas.
    Question. The Inspectors General of the military departments, 
defense agencies, and the Joint Staff?
    Answer. Section 8(c)(2) of the act states that the DOD IG ``shall . 
. . initiate, conduct, and supervise such audits and investigations in 
the Department of Defense (including the military department) as the 
Inspector General considers appropriate. . . .'' Section 8(c)(9) adds 
that the Inspector General ``shall . . . give particular regard to the 
activities of the internal audit, inspection, and investigative units 
of the military departments with a view toward avoiding duplication and 
ensuring effective coordination and cooperation. . .'' In addition 
Department of Defense Directive No. 5106.01, dated April 13, 2006, 
directs the Inspector General, ``unless precluded by the matter, [to] 
notify the Secretaries of the Military Departments concerned before 
conducting audits, evaluations, inspections, or investigations of 
matters normally under the jurisdiction of the Military Department.''
    I am advised that as a matter of practice, the Inspectors General 
of the Military Departments, who report directly to their respective 
Secretaries, have conducted audits and investigations of matters 
particularly germane to the military departments, including 
investigations of violent crime occurring in operational theaters. In 
contrast, I am advised that the DOD IG traditionally has focused on 
more systemic matters that cross Service lines. Department of Defense 
Directive No. 5106.01 also provides that ``unless precluded by the 
nature of the matter,'' [the DOD IG must] notify the Secretaries of the 
Military Departments concerned before conducting audits, evaluations, 
inspections, or investigations of matters normally under the 
jurisdiction of the Military Departments.''
    I am advised that the DOD IG has a close working relationship with 
the Inspectors General of the Military Departments. Personnel from the 
OIG meet regularly with staff from the Inspectors General of the 
Military Departments in order to keep each other advised of planned and 
ongoing work, coordinate activities and avoid unnecessary duplication, 
and discuss other issues of mutual interest. In addition, Department of 
Defense directives governing certain programs in which the Inspectors 
General of the Military Departments participate also give the Inspector 
General policy and oversight roles with respect to those programs. 
These include the Department of Defense Hotline, whistleblower reprisal 
investigations, and investigations against senior officials. The 
Inspectors General of the Defense Agencies report to their respective 
agency heads. However, in areas such as inspections, audits, and the 
operations of hotlines, they come under the policymaking authority of 
the DOD IG. The Defense Agencies' Inspectors General also serve as the 
contact with the Department's Inspector General in facilitating proper 
implementation of Inspector General recommendations.
    Question. The Criminal Investigative Services of the Military 
Departments?
    Answer. Under the act, the Inspector General has the authority to 
initiate, conduct, and supervise criminal investigations relating to 
any and all programs and operations of the Department of Defense. In 
addition, the Inspector General is statutorily authorized to develop 
policy, monitor and evaluate program performance, and provide guidance 
regarding all criminal investigative programs within the Department. As 
noted above, however, section 8(c)(9) of the act provides that the 
Inspector General ``shall . . . give particular regard to the 
activities of the internal audit, inspection, and investigative units 
of the military departments with a view toward avoiding duplication and 
insuring effective coordination and cooperation. . .'' In addition, 
Department of Defense Directive No. 5106.01 provides that ``unless 
precluded by the nature of the matter,'' [the Department of Defense 
Inspector General must] notify the Secretaries of the Military 
Departments concerned before conducting audits, evaluations, 
inspections, or investigations of matters normally under the 
jurisdiction of the military departments.''
    I expect to work closely with each of the Military Criminal 
Investigative Organizations (MCIOs) to ensure that investigative 
resources are utilized effectively. It is my understanding that the IG 
is more heavily involved in investigations that affect major Department 
programs or that involve or affect more than one military service. I 
also understand that the DOD IG frequently works in close coordination 
with one or more of the MCIOs on joint investigations, particularly in 
the fraud area.
    Question. The audit agencies of the military departments?
    Answer. If confirmed, I expect to work closely and collegially with 
the audit agencies of the military departments to ensure that necessary 
audits are conducted without duplication of effort.
    Section 4(a) of the act establishes broad jurisdiction of the 
Inspector General to conduct audits and investigations within the 
Department of Defense, and section 8(c)(2) states that the Inspector 
General ``shall . . . initiate, conduct, and supervise such audits and 
investigations in the Department of Defense (including the military 
departments) as the Inspector General considers appropriate.'' The 
audit agencies of the military departments, however, have particular 
expertise in a range of matters within the purview of their 
departments, and separate resources available to commit to audits of 
their departments. In addition, section 6.3.1 of Department of Defense 
Directive No. 5106.01 directs the Inspector General, ``unless precluded 
by the matter, [to] notify the Secretaries of the Military Departments 
concerned before conducting audits, evaluations, inspections, or 
investigations of matters normally under the jurisdiction of the 
military departments.''
    It is my understanding that the audit agencies of the military 
departments have worked with the OIG on Hurricane Katrina relief 
efforts and other projects. I further understand that the OIG and the 
military audit agencies work together to train personnel and oversee 
the conduct of peer reviews of the military audit organizations to 
ensure that their work is in compliance with Government Auditing 
Standards.
    Question. The Defense Contract Audit Agency?
    Answer. Section 8(c)(6) of the act directs the Inspector General to 
``monitor and evaluate the adherence of Department auditors to internal 
audit, contract audit, and internal review principles, policies, and 
procedures. . .'' In accordance with this directive, it is my 
understanding that the Defense Criminal Investigative Service and other 
OIG components work collaboratively with Defense Contract Audit Agency 
(DCAA) auditors on audits and investigations involving Department of 
Defense contractors. I also understand that the Director of the DCAA, 
along with other Department Audit Chiefs, meet at least quarterly with 
the Inspector General to discuss and coordinate audit activities. If 
confirmed, I expect to continue these practices.
    Question. The Defense Acquisition Regulatory Council?
    Answer. It is my understanding that the DOD IG provides comments to 
the Defense Acquisition Regulatory Council on proposed changes to the 
Defense Federal Acquisition Regulations Supplement. I also understand 
that the Council occasionally requests assistance from the Inspector 
General with factfinding on especially complex issues. If confirmed, I 
expect to continue these practices.
    Question. The Director of Defense Procurement and Acquisition 
Policy?
    Answer. It is my understanding that the Director of Defense 
Procurement and Acquisition Policy is responsible for a large segment 
of Department operations and, accordingly, is a major recipient and 
user of services and reports provided by the OIG. I am advised that the 
Director's involvement has been especially valuable to the Inspector 
General in audit planning efforts, particularly in the acquisition 
area. If confirmed, I expect to continue the Inspector General's 
practice of soliciting the Director's input where appropriate.
    Question. The Comptroller General and the Government Accountability 
Office?
    Answer. The OIG works closely with the Government Accountability 
Office (GAO) to coordinate planned and ongoing audits and inspections 
and avoid duplication of efforts. If confirmed, I expect to continue 
these practices.
    Department of Defense Directive No. 7650.2, dated July 13, 2000, 
directs the DOD IG to: (1) serve as the DOD central liaison with the 
Comptroller General on all matters concerning GAO surveys, reviews, 
reports, and activities; (2) designate appropriate DOD components to 
work with GAO during the conduct of reviews within the Department of 
Defense, and to prepare responses to GAO reports when required; (3) 
develop and provide guidance, as needed, to facilitate the handling of 
GAO surveys and reviews, and to review and respond to GAO reports and 
requests for security reviews on GAO reports; (4) facilitate resolution 
of disagreements between DOD components concerning the appropriate of 
proposed responses to GAO reports; and (5) arrange and facilitate 
meetings, as necessary, with representatives of DOD components and/or 
the GAO regarding GAO surveys, reports, or other GAO activities within 
the Department of Defense.
                     major challenges and problems
    Question. In your view, what are the major challenges and problems 
facing the next DOD IG?
    Answer. In its semiannual report to Congress, the OIG lists the 
most serious management and performance challenges faced by the 
Department of Defense based on the findings and recommendations of 
audits, inspections, and investigations conducted during the year. The 
most recent semiannual report, covering the period of October 31, 2005, 
through March 31, 2006, identified the following challenges:

        <bullet> Joint Warfighting and Readiness
        <bullet> Homeland Defense
        <bullet> Human Capitol
        <bullet> Information Technology Management
        <bullet> Acquisition Processes and Contract Management
        <bullet> Financial Management
        <bullet> Health Care
        <bullet> Infrastructure and Environment

    In the context of meeting these challenges, the OIG will continue 
to provide extensive oversight in support of the global war on 
terrorism in the areas of readiness, logistics, force management, 
contracting, and financial management. The OIG also will continue its 
audit operations related to Hurricane Katrina.
    It is difficult as a nominee to identify specific problems I will 
confront if confirmed. Based on the information provided to me thus 
far, however, I am concerned that existing audit resources may be 
insufficient to meet the Inspector General's statutory responsibilities 
with respect to defense acquisitions and contract oversight. I am also 
concerned that the OIG may lack sufficient resources to conduct 
necessary in-theater audit and investigative activity in Iraq and 
Afghanistan.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges and problems?
    Answer. If confirmed, I will focus audit, investigative, and 
inspection efforts on the challenges identified in the semiannual 
report, while working to identify new issues in consultation with 
senior Department of Defense officials and Congress. I will also work 
with senior Department officials and Congress to determine what 
additional resources the OIG needs to fulfill its statutory 
responsibilities.
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the DOD IG?
    Answer. It is difficult as a nominee to formulate priorities 
because I have not had access to the full range of information and 
considerations that should inform the setting of priorities. Promoting 
efficiency and preventing fraud in defense acquisitions will obviously 
be a high priority--as will force protection for the men and women of 
our armed services serving in Iraq and Afghanistan. I will also 
aggressively pursue oversight of defense contracts, particularly those 
relating to major weapons systems and the war in Iraq. If confirmed, I 
look forward to consulting with senior officials of the Department of 
Defense and Congress to identify priorities for the OIG.
                     senior officer investigations
    Question. The Office of the DOD IG plays a key role in the 
investigation of allegations of misconduct by senior officers and 
civilian employees of the Department of Defense. The Committee on Armed 
Services has a particular interest in investigations concerning 
officers who are subject to Senate confirmation, and relies upon the 
DOD IG, as well as the Office of the Secretary of Defense, to ensure 
that these investigations are accurate, complete, and accomplished in a 
timely manner.
    If confirmed, what steps will you take to ensure that the 
investigations relating to senior officials are completed in a timely 
manner and that the results of investigations are promptly provided to 
this committee?
    Answer. I have spent much of my career as a government attorney 
promoting the integrity of our institutions of government, including 
service as an Investigative Counsel on the House Committee on Standards 
of Official Conduct. If confirmed, investigations of alleged misconduct 
by senior officers and civilian officials of the Department of Defense 
will receive the highest priority by the OIG. Misconduct by senior 
government officials is a breach of the public trust, and individuals 
found to commit such misconduct must be held fully accountable. I will 
review operations in the OIG's Directorate for Senior Official 
Investigations to ensure that investigations receive the necessary 
resources, that investigative actions are thorough and prioritized, and 
that these matters are completed in a timely manner. Once such 
investigations are completed, I will ensure that their results are 
communicated to the committee.
    Question. Do you believe that the current allocation of 
responsibilities between the DOD IG and the Inspectors General of the 
military departments is appropriate to ensure fair and impartial 
investigations?
    Answer. As a nominee, I do not yet have a precise understanding of 
the current allocation of responsibilities between the DOD IG and the 
Inspectors General of the military departments. Consequently, I am not 
currently in a position to assess whether that allocation is 
appropriate. As a general proposition, however, the Inspectors General 
of the military departments have a comparative advantage in undertaking 
certain kinds of investigations because of their particular expertise 
in operational matters germane to their departments.
    I am advised that most senior official investigations are currently 
conducted by the Service IGs, as monitoring the conduct of 
servicemembers is properly the responsibility of the Service 
Secretaries (to whom the Service IGs report). I am also advised that 
the Service IGs have demonstrated their capability to conduct 
independent and unbiased investigations, apply proper standards, and 
formulate conclusions based on the evidence in light of those 
standards, and that the DOD OIG has found no indication that such 
investigations are subject to undue influence or tainted by lack of 
independence.
    Subject to resource constraints, the DOD IG always retains the 
discretion, pursuant to section 8(c)(2) of the act, to conduct audits 
and investigations of the military departments if deemed necessary and 
appropriate. I am advised that the DOD IG has assumed jurisdiction, for 
example, in circumstances where the independence of a Service IG might 
be questioned, such as matters where allegations have been made 
against: (1) officers senior to the Service IG (4-star rank), (2) heads 
of DOD agencies, (3) presidentially-appointed, Senate-confirmed 
appointees, and (4) the Service IGs themselves. I am also advised that 
the DOD IG has investigated allegations where the Service IGs have no 
or limited jurisdiction, such as those involving senior civilians in 
the Office of the Secretary of Defense, combatant commands, or Defense 
agencies--or allegations that cross Service lines. Finally, I am 
advised that the DOD IG is periodically requested to reinvestigate a 
Service IG investigation that is allegedly flawed or inadequate.
          authorities of the dod ig's office and investigators
    Question. In recent years, the DOD IG has sought and obtained 
increased authority to issue subpoenas, carry weapons, and make 
arrests.
    Do you believe that the authorities of the OIG and its agents are 
adequate in these areas, or would you recommend further changes in the 
law?
    Answer. It is my understanding that the National Defense 
Authorization Act for Fiscal Year 1998 significantly enhanced the 
authorities of Defense Criminal Investigative Service (DCIS) special 
agents. The act inserted language into chapter 81 of title 10, U.S.C., 
that provides DCIS special agents the authority to execute and serve 
any warrant or other process issued under the authority of the United 
States, and to make arrests without a warrant for any offense against 
the United States committed in the presence of that agent. The act also 
gives DCIS jurisdiction over any felony cognizable under the laws of 
the United States if the agent has probable cause to believe that the 
person to be arrested has committed or is committing the felony.
    These authorities are exercised in accordance with guidelines 
prescribed by the DOD IG and approved by the Attorney General and other 
guidelines as prescribed by the Secretary of Defense or the Attorney 
General. With the passage of this act, DCIS special agents received 
full statutory law enforcement authority commensurate with that of 
agents of other Federal law enforcement agencies, such as the Federal 
Bureau of Investigation, Drug Enforcement Administration, U.S. 
Immigration and Customs Enforcement, and U.S. Secret Service.
    I also understand that the authority of DCIS special agents to 
carry firearms derives from language in chapter 81 of title 10, U.S.C., 
section 1585, which states that ``civilian officers and employees of 
the Department of Defense may carry firearms or other appropriate 
weapons while assigned investigative duties or such other duties as the 
Secretary may prescribe.'' Current DCIS policy requires agents to carry 
firearms at all times when in a duty status in the United States, its 
territories, or possessions, except where prohibited or where 
circumstances make it inappropriate to carry firearms. When off-duty, 
special agents can be recalled to law enforcement duties at any time on 
short notice. Accordingly, agents are authorized to carry firearms at 
all times when off-duty and when in a leave status.
    I am currently unaware of any concerns that the authorities 
described above are inadequate. If I am confirmed and such concerns are 
brought to my attention, I will undertake a review to determine whether 
any further change in law may be necessary to enhance the ability of 
DCIS agents to perform their mission.
                  dod financial accounting and audits
    Question. The performance of mandatory statutory duties, such as 
the performance of financial audits, has consumed a growing share of 
the resources of the Inspector General's office, crowding out other 
important audit priorities.
    What is your view of the relative priority of financial audits, and 
the resources that should be devoted to such audits?
    Answer. Financial audits will continue to be a high priority 
consistent with the President's Management Agenda Initiative, the 
Secretary of Defense's top priorities, the Chief Financial Officers Act 
of 1990, and the Federal Financial Management Improvement Act of 1994. 
If confirmed, I will work with the Department and Congress to ensure 
that the appropriate level of resources continues to be dedicated to 
financial audits. I will also seek to ensure that resources committed 
to financial audits do not come at the expense of other audit 
priorities.
    Question. Do you believe that resources currently directed to the 
audit of financial statements that are generally acknowledged to be 
unreliable would better be directed to other objectives?
    Answer. Without the benefit of first-hand knowledge of resource 
challenges faced by the DOD IG, I am not currently in a position to 
determine whether resources would be better directed to other 
objectives. I have been advised, however, that the OIG currently 
allocates few resources to the audit of financial statements, in 
accordance with section 1008 of the National Defense Authorization Act 
of 2002. That section states that ``the DOD IG shall only perform the 
audit procedures required by generally accepted government auditing 
standards consisted with any representations made by management.''
    Question. Do you see any need for legislative changes to give the 
Inspector General greater flexibility to target audit resources?
    Answer. Without the benefit of first-hand knowledge of resource 
challenges faced by the DOD IG, I am not currently in a position to 
determine whether legislative changes are necessary. If confirmed, I am 
prepared to work with the Department and Congress to assess whether 
legislation in this area is appropriate.
                   oversight of acquisition programs
    Question. Problems with procurement, acquisition, and the ability 
of the Department and the military departments to effectively oversee 
acquisition programs have called into question the capability of 
existing DOD oversight mechanisms.
    Do you believe that the DOD IG and the various Defense auditing and 
contracting management activities have the resources needed to conduct 
effective oversight over the Department's acquisition programs?
    Answer. If confirmed, conducting effective oversight over the 
Department's acquisition programs will be among my top priorities as 
Inspector General. The men and women of our Armed Forces, and our 
Nation's taxpayers, have a right to expect that the funds appropriated 
by Congress for defense acquisitions are being utilized with cost-
efficiency and integrity.
    Based on the information made available to me thus far, I am 
concerned that the audit resources of the OIG have not kept pace with 
the growth in contract expenditures for defense acquisitions. I am also 
concerned that the current trend, if unchecked, will significantly 
increase the risk of fraud, waste, and abuse in acquisition programs.
    Therefore, if I am confirmed, it will be vital for the OIG, the 
Department, and Congress to work together in a timely way to assess 
whether the OIG has adequate resources to conduct this essential 
oversight.
    Question. Over the last 15 years, the IG has gone from having one 
auditor for every $500 million on contract by the DOD to one auditor 
for every $2 billion on contract.
    Do you believe that the IG has the resources it needs to conduct 
effective oversight over the Department's acquisition programs?
    Answer. Please see my previous answer.
    Question. The DOD IG has played an important role in advising the 
DOD and Congress on the sufficiency of management controls in the 
Department's acquisition programs and the impact that legislative and 
regulatory proposals could have on such management controls.
    How do you see the DOD IG's role in this area?
    Answer. The DOD IG has an important role in helping the Department 
to effectively and efficiently manage acquisition resources dedicated 
to the support of the Department's mission, and in accounting for 
management of those resources to the taxpayer. Sound management 
controls are paramount in ensuring effective and efficient acquisition 
programs. If confirmed, I will ensure that the DOD OIG continues its 
important advisory role in reporting on the sufficiency of management 
controls over acquisition programs and providing comments on related 
legislative and regulatory proposals.
                           human trafficking
    Question. The Department of Defense has adopted a ``zero 
tolerance'' position against abuses of human trafficking and modified 
its policies to ensure that United States military commands and 
activities and their personnel are informed about factors contributing 
to human trafficking and take preventative measures against behavior 
that contributes to this problem. The DOD IG has investigated 
allegations of human trafficking in Korea and the Balkans, and, earlier 
this year, the DOD IG posted a survey on its Web site designed to 
obtain information about potential human trafficking abuses from DOD 
personnel.
    What is the role of the DOD IG with respect to human trafficking?
    Answer. It is my understanding that the Inspector General supports 
the Department's ``zero tolerance'' policy against human trafficking by 
evaluating programs and compliance, and by investigating allegations of 
human trafficking that have a DOD nexus. If confirmed, I will continue 
these practices.
    Question. What is your understanding of the actions that have been 
taken by the DOD OIG to prevent human trafficking abuses and the 
current role of the DOD IG in formulating and enforcing the 
Department's policies?
    Answer. It is my understanding that the OIG has been actively 
engaged in efforts to prevent human trafficking, and that the OIG works 
closely with other human trafficking ``stakeholders'' within the DOD, 
and with other departments such as the Department of State.
    On May 31, 2002, several Members of Congress wrote to the Secretary 
of Defense to request a ``thorough, global, and extensive'' 
investigation into the publicized allegation that U.S. military 
leadership in Korea had been implicitly condoning sex slavery. In 
response, the OIG initiated a Human Trafficking Assessment Project. The 
first phase of the project focused on U.S. military forces in Korea. IG 
teams visited Korea in December 2002 and March 2003. The second phase 
focused on the European theater, specifically Bosnia and Kosovo. An IG 
team visited the Balkans in June 2003.
    The results of the assessment project indicated that awareness 
training, along with leader focus, were important tools in the effort 
to combat human trafficking. The specific findings are set forth in OIG 
reports published in July and December 2003.
    In October 2004, the OIG distributed over 7,000 Trafficking in 
Persons (TIP) posters to military and DOD civilian activities 
worldwide. Continuing that initiative today, the hotline staff is 
prepared to recognize and receive allegations of this multi-faceted 
crime against humanity, by telephone, e-mail, facsimile, and U.S. mail.
    On November 18, 2005, the OIG announced its ``Evaluation of the 
Department of Defense (DOD) Efforts to Combat Trafficking in Persons.'' 
The OIG expects to publish the report of this latest evaluation in 
August 2006.
    In order to maintain its independence, the OIG does not become 
involved in the formulation of DOD operational policies. However, the 
OIG does play a role in enforcing Department policy through audits, 
investigations, and evaluations.
    Question. In April 2006, the Commander, U.S. Multinational Forces, 
General George Casey, USA, issued an order titled ``Prevention of 
Trafficking in Persons in MNF-I,'' aimed at preventing human 
trafficking abuses by contractors involving possibly thousands of 
foreign workers on U.S. bases in Iraq. Media reports about the problem 
of abuses in Iraq among contractors stated that allegations had been 
raised as early as 2004 with the DOD IG, but that lengthy delays 
occurred before a response.
    What is your understanding of the role the DOD IG has played in 
investigating human trafficking allegations in Iraq?
    Answer. It is my understanding that the OIG has taken several 
actions related to allegations of human trafficking in Iraq.
    For example, I am advised that on April 14, 2006, the OIG responded 
to a request from the Under Secretary of Defense for Personnel and 
Readiness (USD P&R) concerning alleged practices by DOD contractors and 
subcontractors in Iraq that had been reported in a series of Chicago 
Tribune articles regarding the deaths of 12 Nepalese workers inside 
Iraq on August 31, 2004. The allegations concerned involuntary 
servitude occurring under the auspices of DOD contractors in Iraq.
    I am also advised that the DOD IG made the following 
recommendations to the USD P&R, which were provided to Ambassador 
Miller at the State Department by Under Secretary Chu on May 18, 2006:

        <bullet> DOD should continue to prosecute military members who 
        become involved in TIP or TIP-related activities, in accordance 
        with the Uniform Code of Military Justice.
        <bullet> DOD should ensure that all new contracts incorporate 
        the language of the anti-TIP clause in the Defense Federal 
        Acquisition Regulations (DFAR), once it is approved.
        <bullet> DOD should evaluate rewriting existing contracts to 
        incorporate the language of the anti-TIP DFAR clause, once it 
        is approved.
        <bullet> Military Department and Combatant Command Inspectors 
        General should continue their involvement in DOD efforts to 
        combat TIP, within the limits of their authority to do so.

    I have been advised that delays occurred in the OIG's investigation 
of allegations of abuses by contractors in Iraq because the OIG has no 
authority to investigate foreign nations or foreign companies inside 
the countries that are the source of most of the laborers. To address 
that problem, it is my understanding that the OIG has been working with 
the Office of the Secretary of Defense to ensure that necessary changes 
are incorporated into the DFAR Supplement to provide additional 
contractor controls over both contractors and subcontractors.
    Question. What steps would you take, if confirmed as the DOD IG, to 
investigate and prevent the incidence of human trafficking abuses in 
connection with DOD activities?
    Answer. If confirmed, I will ensure that the OIG investigates all 
credible allegations of human trafficking with a DOD nexus. In some 
instances, allegations might be referred to the military Services' 
investigative organizations, but the DOD IG would monitor the progress 
of those Service investigations. To promote compliance with the DOD 
``zero tolerance'' policy, I will also periodically evaluate DOD 
programs to combat human trafficking in coordination with other 
Inspectors General throughout the Department.
                   oversight of iraqi reconstruction
    Question. The Special Inspector General for Iraq Reconstruction 
issued a report last year stating that the Coalition Provisional 
Authority did not establish or implement sufficient managerial, 
financial, and contractual controls to ensure that billions of dollars 
in Development Funds for Iraq were used properly. The DOD IG recently 
opened a field office in Qatar and has supported the development of 
anti-corruptions systems within the Iraqi government.
    What is the relationship of the DOD IG to the Special Inspector 
General for Iraq Reconstruction?
    Answer. It is my understanding that the DOD IG has supported the 
operations of the Special Inspector General for Iraq Reconstruction and 
its predecessor, the Coalition Provisional Authority Inspector General. 
In accordance with the IG Act and Public Law 108-106, title 3, section 
3001(f)(4), the DOD IG coordinates with the Special Inspector General 
for Iraq Reconstruction as well as other oversight community members to 
avoid duplicating oversight efforts and to minimize disruption to 
military operations. If confirmed, and in keeping with the legal 
authorities noted above, I will ensure that the DOD IG continues to 
coordinate with the Special Inspector General for Iraq Reconstruction 
as a fellow member of the IG community.
    Question. What is your understanding of the accomplishments and 
planned participation of the DOD OIG in investigating and preventing 
fraud, waste, and abuse of U.S.-provided resources for reconstruction 
and other purposes in Iraq?
    Answer. It is my understanding that the DOD OIG has, in accordance 
with its legislatively mandated mission, conducted audits aimed at 
identifying and preventing fraud, waste, and abuse of funds 
appropriated to the DOD for its operations in Iraq. The DOD OIG has 
also established an office in Qatar as an in-theater base of 
operations. The staff in the Qatar office is conducting audits, 
inspections, and investigations as required in Iraq, Afghanistan, 
Kuwait, and Qatar to support the operational commander. Additionally, 
audits are being conducted in the continental United States (CONUS) on 
contracts awarded and funds expended in the United States that provide 
significant resources to support reconstruction and other purposes in 
Iraq.
    I am advised that DCIS and its military criminal investigative 
counterparts investigate major frauds, corruption, thefts, and other 
compromises of DOD assets in Afghanistan, Iraq, and other countries in 
that theater. DCIS agents currently deploy from Europe and CONUS with 
investigation partners (e.g., the FBI) into theater to conduct 
investigative operations, such as gathering evidence and conducting 
interviews, when crimes are reported. However, the bulk of their 
investigative activities occur in CONUS where corporate headquarters of 
DOD contractors, key evidence, and Department of Justice prosecutorial 
support are located. With the increased DOD OIG audit presence in-
theater, I expect that DCIS will be assigning more agents in-theater to 
handle a likely increase in referrals of criminal matters.
    If confirmed, and in keeping with the IG Act, I will ensure that 
the DOD OIG continues to focus oversight efforts to investigate and 
prevent fraud, waste, and abuse of U.S.-provided resources for 
reconstruction and other purposes in Iraq.
    Question. The Special Inspector General for Iraq Reconstruction has 
jurisdiction over contracts for the reconstruction of Iraq, however, 
the Special Inspector General does not have jurisdiction over contracts 
to support our troops in Iraq and Afghanistan.
    What role do you believe the DOD IG should play in the audit and 
oversight of such contracts?
    Answer. The DOD OIG has authority to conduct audits of DOD 
contracts awarded in support of Operation Iraqi Freedom and Operation 
Enduring Freedom, and I believe that the OIG should conduct aggressive 
oversight of those contracts. If confirmed, I will ensure that the OIG 
conduct audits of DOD contracts in support of our troops in Iraq and 
Afghanistan.
    Question. Do you believe that a significant on-the-ground presence 
in Iraq is necessary to perform this role?
    Answer. Given the critical need to ensure that funds on behalf of 
our troops in Iraq and Afghanistan are being utilized in a cost-
effective manner--and the volume of contracts awarded for that 
purpose--the DOD OIG almost certainly requires a significant on-the-
ground presence in Iraq. Toward that end, I am advised that the DOD OIG 
has established an office in Qatar as its in-theater base of operations 
for entry into Iraq as well as Afghanistan and Kuwait.
    Question. If confirmed, what would be your goals with respect to 
prevention of corruption in Iraq?
    Answer. If confirmed, I will continue to support the development of 
a strong anti-corruption system within the Iraqi government. It is my 
understanding that the DOD OIG assists the Multi-National Security 
Training Command-Iraq (MNSTC-I) in its efforts with the Iraqi Ministry 
of Defense Inspector General and his staff.
    For example, I am advised that, in regard to the development of 
U.S. and Iraqi anti-corruption initiatives, the OIG has:

        <bullet> Provided a full-time IG advisor to the MNSTC-I in 
        Baghdad to assist, train, and mentor the Iraqi Ministry of 
        Defense Inspector General and his staff and support that effort 
        with a support unit in our Washington, DC, and Qatar offices.
        <bullet> Continues to participate as a member of the Embassy's 
        Anti-corruption Working Group and facilitate communications, 
        coordination, and cooperation among coalition and Iraqi 
        officials to build a self-sustaining Iraqi IG system.
        <bullet> As requested by the Ambassador, Embassy-Baghdad and 
        the commanders of Multi-National Force-Iraq and MNSTC-I, 
        provides support and assistance to establish a stable, 
        professional, and sustainable Iraqi Inspector General System 
        that is integrated and complementary to the U.S. Embassy's and 
        MNSTC-I's overall Anti-Corruption Strategy.
        <bullet> Continues to encourage Iraqi efforts to create a 
        ``National Institute for Integrity and Audit'' to educate and 
        train Iraqi auditors, inspectors, investigators, and government 
        officials in such areas as principled governance, rule of law, 
        human rights, and anti-corruption processes.
        <bullet> As required, collaborates with other U.S. Government 
        agencies and conduct interagency and/or unilateral oversight 
        activities--audits, inspections and evaluations, and 
        investigations--that have a DOD nexus.
                     oversight of medical functions
    Question. In recent months, reports of medical cases from military 
treatment facilities involving tragic outcomes and allegations of 
medical malpractice have raised questions about the adequacy of 
existing reporting, investigatory, and readiness systems within the 
Defense Health Program and military treatment facilities. The ability 
of those outside the military medical system to fairly evaluate 
individual cases and overall quality of care is affected by such 
factors as the tort claim laws and adversarial litigation against the 
United States, reliance on privileges from the release of documents and 
information associated with such litigation and separate quality 
assurance systems, patient privacy requirements, and concern about the 
reputations of individual providers.
    Do you have any views about the role the DOD IG might play in 
improving visibility into and objective assessments of the quality of 
care provided through the military medical system?
    Answer. The military health system is critical to our military 
members and their families. If confirmed, I will ensure that the DOD 
OIG continues to provide the independent review and oversight necessary 
of the military health system. Without the benefit yet of first-hand 
information, however, I am not currently in a position to offer any 
views about specific actions the DOD OIG might take to improve 
visibility into, and objective assessments of, the quality of care 
provided through the military medical system.
    Question. What resources and expertise does the DOD IG currently 
have--or lack--to play a more prominent role in evaluating the 
performance of health care providers in the Department of Defense?
    Answer. Without the benefit of first-hand knowledge of resource 
challenges faced by the DOD OIG, I am not currently in a position to 
determine whether DOD OIG has adequate resources and expertise to 
provide the requisite oversight in this area. If confirmed, I will work 
with the Department and Congress to assess the appropriate level of 
resources and expertise needed to evaluate the performance of health 
care providers in the Department.
                              intelligence
    Question. What is the role of the DOD IG with regard to 
intelligence activities within DOD?
    Answer. The Inspector General, through the Deputy Inspector General 
for Intelligence, has responsibility for oversight of DOD intelligence 
activities and components as identified in DOD Directive 5240.1, ``DOD 
Intelligence Activities,'' dated April 25, 1988. These include all DOD 
components conducting intelligence activities, including the National 
Security Agency/Central Security Service (NSA/CSS), the Defense 
Intelligence Agency (DIA), the Military Department intelligence and 
counterintelligence activities, and other intelligence and 
counterintelligence organizations, staffs, and offices, or elements 
thereof, when used for foreign intelligence or counterintelligence 
purposes. Other organizations and components under the Inspector 
General's oversight not specifically identified in DOD Directive 5240.1 
include the Office of the Under Secretary of Defense for Intelligence 
(USD(I)), the National Reconnaissance Office (NRO), and the National 
Geospatial-Intelligence Agency (NGA).
    Responsibilities and functions of the Inspector General as outlined 
in DOD Directive 5106.1, ``Inspector General of the Department of 
Defense (IG, DOD),'' include the responsibility to ``audit, evaluate, 
monitor, and review the programs, policies, procedures, and functions 
of the DOD Intelligence Community to ensure that intelligence resources 
are properly managed.''
    The DOD IG performs an oversight and coordination role through the 
Joint Intelligence Coordination Working Group (JIOCG). The JIOCG is a 
DOD working group chaired by the Deputy Inspector General for 
Intelligence and includes representatives from the Service audit 
agencies, Military Department Inspectors General, and Defense 
Intelligence Agencies Inspectors General. The primary goal of the JIOCG 
is to avoid duplication of effort and enhance coordination and 
cooperation among Inspectors General and Auditors General inside the 
DOD and promote information-sharing among Inspectors General whose 
functions include audits, inspections, evaluations, or investigations 
of their respective departments and agencies.
    Question. What is the relationship of the DOD IG to the Special 
Assistant to the Secretary of Defense for Intelligence Oversight?
    Answer. DOD Directive 5106.1 requires that intelligence-related 
actions be coordinated, as appropriate, with the Assistant to the 
Secretary of Defense (Intelligence Oversight) to determine respective 
areas of responsibility in accordance with DOD Directive 5148.11, 
``Assistant to the Secretary of Defense for Intelligence Oversight 
(ATSD(IO)),'' dated May 21, 2004. (DOD Directive 5148.11 contains 
similar language for the ATSD(IO) to coordinate with the Inspector 
General, as appropriate.) Department of Defense Directive No. 5148.11 
also directs the ASDI(IO) to ``[m]onitor investigations and inspections 
by the DOD components [defined to include the DOD Inspector General] 
related to intelligence activities, evaluate the findings and, if 
appropriate, submit recommendations for corrective actions to the 
Secretary and Deputy Secretary of Defense.'' I am advised that the 
ATSD(IO) is a charter member of the JIOCG, and that the Office of the 
Inspector General has a long history of coordination and cooperation 
with the ATSD(IO). In a recent case, the Office of the Deputy Inspector 
General for Investigations jointly conducted a review with the 
ATSD(IO). The Inspector General also provides a quarterly report to the 
ATSD(IO) on any significant intelligence activities undertaken.
    Question. What is the relationship of the DOD IG to the Inspector 
General of the Office of the Director of National Intelligence?
    Answer. The DOD IG's primary relationship with DNI IG concerns 
participation in the Intelligence Community Inspectors General (IC IG) 
Forum. The IC IG Forum promotes information-sharing among the IGs of 
the departments and agencies of the Intelligence Community whose 
functions include audits, inspections/evaluations, or investigations of 
their respective departments and agencies. The USD(I) and ATSD(IO) may 
attend forum meetings as observers. The IC IG Forum also strives to 
avoid duplication of effort and enhance effective coordination and 
cooperation among IC IGs. Prior to the creation of the DNI, the IC IG 
Forum was co-chaired by the IGs of DOD and the Central Intelligence 
Agency. The DNI IG now chairs the IC IG Forum. The DOD IG will host the 
next meeting of the IC IG Forum in September 2006.
    In addition to the IC IG Forum relationship, the DOD IG 
participates in various projects and initiatives undertaken by the DNI 
IG. The DNI IG also coordinates with the Office of the Deputy Inspector 
General for Intelligence on all ongoing projects relating to DOD 
organizations and activities.
    Question. What is the role of the DOD IG with respect to detainee 
matters?
    Answer. According to my reading of the Inspector General Act, the 
breadth of the Inspector General's statutory responsibility for 
oversight extends to oversight of detainee and interrogation matters. 
In that regard, I am advised that the OIG recently issued two draft 
reports regarding detainee abuse. In one draft report dated March 1, 
2006, the Deputy Inspector General for Policy and Oversight/Assistant 
Inspector General for Investigative Policy and Oversight reviewed 50 
closed cases investigated by the Military Criminal Investigative 
Organizations and provided findings and recommendations. In a second 
draft report dated April 25, 2006, the Deputy Inspector General for 
Intelligence reviewed 13 senior-level reports and identified systemic 
issues regarding operational planning, reporting of detainee abuse 
incidents, and interrogation techniques. I am advised that the Office 
of Inspector General is in the process of receiving and incorporating 
management comments on both reports, and that both reports will be 
issued by August 2006.
    Question. What is the role of the DOD IG with respect to 
interrogation matters?
    Answer. Please see my previous answer.
 investigation into activities of the office of the under secretary of 
                           defense for policy
    Question. The OIG is currently conducting an investigation into the 
activities of the Office of the Under Secretary of Defense for Policy 
related to pre-war intelligence on Iraq and the purported links between 
Iraq and al Qaeda. This investigation is being conducted in response to 
requests from the Senate.
    If confirmed, will you ensure that this investigation has the 
resources it needs, proceeds without hindrance, is conducted in an 
independent and unbiased manner, and that the results of the 
investigation are provided promptly to Congress?
    Answer. I have been advised that this evaluation is being performed 
within the Office of the Deputy Inspector General for Intelligence, and 
that the draft report is expected in November 2006.
    If confirmed, I will review the status of this matter and determine 
whether it is receiving the necessary resources and is proceeding in an 
independent manner without hindrance. When the matter is concluded and 
a report has been completed, I will ensure that the report is provided 
to Congress.
                          financial management
    Question. In his confirmation hearing in 2001, Secretary Rumsfeld 
was challenged to improve financial management practices within DOD and 
to succeed, where others could not, in developing systems, policies, 
and procedures to monitor financial execution and management. Progress 
in this area has been made, and performance has improved, but much 
remains to be done.
    What is your view of the role of the DOD IG in evaluating and 
contributing to improvements made in the Department's financial 
management processes?
    Answer. The role of the DOD OIG is to serve as a catalyst for 
improvements in the Department's financial management processes. That 
role should be consistent with the President's Management Agenda 
Initiatives, the Department's top priorities, and statutory 
requirements. If confirmed, I will ensure that the DOD OIG continues 
this vital function.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Inspector General of the 
Department of Defense?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Question Submitted by Senator John Warner
             investigation into the death of waleed khaleed
    1. Senator Warner. Mr. Laufman, the committee has received requests 
for assistance from media organizations, including the Committee to 
Protect Journalists, regarding incidents involving the deaths of 
professional journalists in Iraq. These organizations have asserted 
that U.S. military forces have unlawfully attacked journalists in 
violation of applicable rules of engagement and that incidents 
involving journalists have been improperly investigated. The Reuters 
news agency has requested a Department of Defense (DOD) Inspector 
General (IG) review of the circumstances surrounding the death of its 
soundman, Waleed Khaleed, on August 28, 2005, in Baghdad, who was shot 
and killed by U.S. Army forces while filming at the scene of an 
insurgent attack on Iraqi police. If confirmed as the DOD IG, will you 
ensure completion of the DOD IG review of the death of Waleed Khaleed 
and conduct a personal review to determine whether appropriate action 
was taken?
    Mr. Laufman. Based on the attached memorandum of June 30, 2006, 
from Acting DOD Inspector General Thomas F. Gimble to the Secretary of 
the Army, it is my understanding that the Office of the Inspector 
General (OIG) did not initiate its own investigation of Mr. Khaleed's 
death. Rather, on May 11, 2006, citing ``the policy of the Secretary of 
Defense concerning responsibilities for operationally significant 
events,'' Mr. Gimble initially referred this matter to U.S. Central 
Command ``for review and consideration of appropriate action.'' 
According to Mr. Gimble's memorandum, ``U.S. Central Command responded 
that it is not able to address [this matter] as investigations are 
primarily Service functions and the military personnel involved in the 
incident are no longer under the command of U.S. Central Command or its 
Army Service component.'' Mr. Gimble subsequently referred the matter 
to the Secretary of the Army's ``attention for review and action that 
the Army deems appropriate.'' I am unaware of any further action 
regarding Mr. Khaleed's death by either the Army or the OIG.
    If confirmed, I will ensure that investigative action regarding Mr. 
Khaleed's death has received the appropriate priority and resources. If 
the Army has conducted its own investigation, I will review the Army's 
findings to confirm that appropriate investigative action was taken. If 
no investigative action has been taken by the Army, I will initiate an 
investigation by the OIG.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
                                 ______
                                 
             Question Submitted by Senator Daniel K. Akaka
                       ongoing ig investigations
    2. Senator Akaka. Mr. Laufman, the DOD's current Acting IG, Thomas 
Gimble, declined to launch his own investigation of the National 
Security Agency (NSA) electronic surveillance program. According to Mr. 
Gimble, as the NSA is already conducting its own oversight 
investigation, there is no need for a concurrent investigation by the 
DOD IG. What role do you think that the DOD IG should have in the 
ongoing investigations of the NSA electronic surveillance program?
    Mr. Laufman. It is my understanding that the DOD IG has the 
necessary jurisdiction to investigate the NSA electronic surveillance 
program, and it is unclear why the DOD IG did not exercise its 
jurisdiction at the outset. A responsible assessment of what role, if 
any, the DOD IG should now have in ongoing investigations by other 
organizations, however, requires information that, as a nominee, I do 
not currently have. If I am confirmed and I subsequently learn that 
investigations by NSA or other government agencies are pending, I would 
seek to determine the scope and progress of such investigations, the 
extent to which they are fully independent, and whether it is 
practicable at this juncture to establish a role in these 
investigations for the DOD IG. Pending the outcome of these inquiries, 
I would reserve judgment on what action should be taken by the DOD IG.
                                 ______
                                 
    [The nomination reference of David H. Laufman follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      June 5, 2006.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    David H. Laufman, of Texas, to be Inspector General, Department of 
Defense, vice Joseph E. Schmitz, resigned.
                                 ______
                                 
    [The biographical sketch of David H. Laufman, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of David H. Laufman
    David H. Laufman has served since March 2003 as Assistant U.S. 
Attorney for the Eastern District of Virginia, where he has specialized 
in prosecutions of terrorism and other national security cases. In 
2005, Mr. Laufman served as lead counsel in the government's successful 
prosecution of Ahmed Omar Abu Ali, an American citizen who was 
convicted by a jury of providing material support and resources to al 
Qaeda, conspiracy to assassinate the President of the United States, 
conspiracy to commit aircraft piracy, conspiracy to destroy aircraft, 
and other terrorism offenses. Mr. Laufman also successfully has 
prosecuted several other high-profile cases, including United States v. 
Khan (the ``Virginia Jihad'' case), United States v. Keyser, United 
States v. Biheiri, United States v. Bariek, and United States v. al-
Hamdi.
    Prior to joining the U.S. Attorney's Office, Mr. Laufman served as 
Chief of Staff to Deputy Attorney General Larry Thompson at the 
Department of Justice (DOJ). In that capacity, Mr. Laufman helped to 
coordinate the Department's responses to the terrorist attacks of 
September 11, 2001, and prepared an extensive audit of the Federal 
Bureau of Investigation. He also served as DOJ's representative to the 
National Security Council Policy Coordinating Committee on Terrorism 
Finance, and as Executive Secretary of the Department's National 
Security Coordination Council.
    Mr. Laufman's experience in national security affairs dates back to 
the early 1980s, when he served for more than 4 years as a military and 
political analyst in the Directorate of Intelligence at the Central 
Intelligence Agency. In 1990-1993, he was Deputy Minority Counsel to 
the Committee on Foreign Affairs of the U.S. House of Representatives. 
In 2000-2001, he served as Staff Director and Deputy Chief Counsel to 
the Judicial Review Commission on Foreign Asset Contro, a 
congressionally-mandated body that examined U.S. laws governing the 
imposition of economic sanctions by the U.S. Department of the 
Treasury.
    Mr. Laufman also has extensive experience in ethics and public 
corruption investigations. In 1992-1993, he served as Senior Associate 
Minority Counsel to the Task Force to Investigate Certain Allegations 
Concerning the Holding of American Hostages by Iran in 1980 (``October 
Surprise Task Force''), a special bipartisan panel of the U.S. House of 
Representatives. Subsequently, he served as Associate Independent 
Counsel to Joseph E. diGenova in the Investigation Concerning the 
Search of William J. Clinton's Passport Files During the 1992 
Presidential Election Campaign. From 1996-2000, Mr. Laufman served as 
Investigative Counsel to the House Committee on Standards of Official 
Conduct (``House Ethics Committee''), where he conducted several ethics 
investigations. In 1997, he played a central role in drafting and 
negotiating changes to the ethics rules of the House of Representatives 
in his capacity as Assistant to the Special Counsel to the Ethics 
Reform Task Force. Mr. Laufman also conducted professional misconduct 
investigations for the Office of Professional Responsibility at the DOJ 
before becoming Chief of Staff to the Deputy Attorney General in May 
2001.
    In addition to his public service, Mr. Laufman twice has worked in 
the private sector. In 1987-1990, he was an Associate at the 
Washington, DC, firm of Collier, Shannon, Rill & Scott, where he 
specialized in Federal civil litigation. In 1994-1996, he was a Senior 
Associate at the Washington office of Manatt, Phelps & Phillips, where 
he specialized in white-collar criminal defense.
    Mr. Laufman was born in Houston, Texas, where he attended St. 
John's School. He received his bachelor's degree in international 
relations in 1979 from the University of Pennsylvania, graduating magna 
cum laude. He received his law degree in 1987 from Georgetown 
University Law Center. Mr. Laufman is married to the former Judith 
Susan Lansner, an official with the U.S. Department of the Treasury. 
They reside in Vienna, Virginia, with their sons Adam and Michael.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by David H. 
Laufman in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    David H. Laufman.

    2. Position to which nominated:
    Inspector General, Department of Defense.

    3. Date of nomination:
    June 5, 2006.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    March 3, 1958; Houston, Texas.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to former Judith Susan Lansner.

    7. Names and ages of children:
    Adam, 18; Michael, 14.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    St. John's School, Houston, Texas (1964-1976), high school diploma 
(1976).
    University of Pennsylvania (1976-1979), B.A., International 
Relations, magna cum laude with distinction in the major of 
International Relations (1979).
    Georgetown University Law Center (1984-1987), J.D. (1987).

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Assistant United States Attorney, Eastern District of Virginia, 
Alexandria, Virginia (2003 to present).
    Chief of Staff, Office of the Deputy Attorney General, Department 
of Justice, Washington, DC (2001-2003).
    Assistant Counsel, Office of Professional Responsibility, 
Department of Justice, Washington, DC (2001).
    Staff Director and Deputy Chief Counsel, Judicial Review Commission 
on Foreign Assets Control, Washington, DC (2000-2001).
    Assistant to the Special Counsel, Ethics Reform Task Force, U.S. 
House of Representatives, Washington, DC (1997).
    Investigative Counsel, Committee on Standards of Official Conduct, 
U.S. House of Representatives, Washington, DC (1996-2000).

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Associate Independent Counsel (diGenova), Office of the Independent 
Counsel, Investigation Concerning the Search of Passport Records of 
William Jefferson Clinton During the 1992 Presidential Election 
Campaign, Washington, DC (1993-1996).
    Senior Associate Minority Counsel, Task Force to Investigate 
Certain Allegations Concerning the Holding of American Hostages by Iran 
in 1980 (``October Surprise Task Force''), U.S. House of 
Representatives, Washington, DC (1992-1993).
    Deputy Minority Counsel, Committee on Foreign Affairs, U.S. House 
of Representatives, Washington, DC (1990-1993).
    Analyst, Directorate of Intelligence, Central Intelligence Agency, 
Langley, Virginia (1980-1984).

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Director and Secretary, Laufman's Inc., a Texas corporation (family 
business).

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, District of Columbia Bar.
    Member, Temple Rodef Shalom.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Political SES appointment by administration of George W. Bush to 
position of Chief of Staff, Office of the Deputy Attorney General, U.S. 
Department of Justice (2001-2003).
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Not applicable.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Graduated magna cum laude from the University of Pennsylvania 
(1979) with distinction in the major of international relations.
    Appointed Lead Articles Editor for the Georgetown Immigration Law 
Journal at the Georgetown University Law Center (1986-1987).

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Political Bias in United States Refugee Policy Since the Refugee 
Act of 1980, 1 Geo. Imm. L.J. 495 (1986).

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  David H. Laufman.
    This 12th day of June, 2006.

    [The nomination of David H. Laufman was withdrawn by the 
President on December 6, 2006.]
                              ----------                              

    [Prepared questions submitted to Sue C. Payton by Chairman 
Warner prior to the hearing with answers supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions, particularly with respect to the role of the service 
acquisition executives?
    Answer. I do not see a current need to modify Goldwater-Nichols. 
However, if confirmed, I would work with the Secretary of the Air Force 
and others on any proposed changes that may be identified that pertain 
to acquisition matters. The organizational and management structures 
which drive the implementation of Goldwater-Nichols must be 
continuously reviewed and may need to adapt to our current environment.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. [No response required]
                                 duties
    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Air Force for Acquisition?
    Answer. If confirmed, I would expect the Secretary to prescribe for 
me duties and functions commensurate with the position of Assistant 
Secretary of the Air Force for Acquisition for Non-Space. I understand 
that the Assistant Secretary of the Air Force for Acquisition serves as 
the Air Force's Service Acquisition Executive. In that role, if 
confirmed, I would expect to be responsible for all Air Force research, 
development, and non-space acquisition activities and provide 
direction, guidance, and supervision on all matters pertaining to the 
formulation, review, approval, and execution of non-space acquisition 
plans, policies, and programs.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. My career has spanned both public and private sectors with 
varying levels of responsibility as a test engineer, systems engineer, 
systems integrator, and as a manager, director, vice president of 
technology and in my current role as Deputy Under Secretary of Defense 
for Advanced Systems and Concepts. I have been involved in the proposal 
initiation, development, and operation of Department of Defense (DOD) 
systems ranging from the most complex, highly sophisticated and 
classified space systems, to global information management systems and 
small technology development programs--the full-range of the types of 
programs under the purview of a service acquisition executive.
    I learned some things from these experiences which would be on my 
watch list:

        <bullet> The importance of customer involvement in concept of 
        operations development and all phases of the acquisition 
        lifecycle.
        <bullet> The importance of requirements definition and 
        stability and how early prototyping of technology with concepts 
        of operations, interfacing interoperable systems, and spiral 
        development can lead to quality programs.
        <bullet> The importance of excellent systems engineering. This 
        is essential to understanding the requirements and building the 
        system successfully including managing and operating it 
        successfully when built.
        <bullet> The importance of producibility, as a specific design 
        criteria. The cost of production can be decreased if we design 
        in manufacturing and producibility upfront.
        <bullet> The importance of a lean, competent, demanding, and 
        empowered program management staff.
        <bullet> The importance of effective change/configuration 
        management that enables all impacts to the system to be well 
        understood when any one part of the system changes.

    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant Secretary 
of the Air Force for Acquisition?
    Answer. If confirmed for this very important position, there are 
many actions I will take to continually enhance my abilities to perform 
this job. This position has been vacant since January 2005 with many 
outstanding individuals filling the leadership void. I must immediately 
begin to build trusting, working relationships and a detailed knowledge 
of my new role. I will review all directives that define the 
responsibilities of this position and create the structures, 
organizations, and processes necessary for success. Key to this success 
is a transparent, open relationship with Congress and if confirmed, I 
look forward to this partnership.
                             relationships
    Question. If confirmed, what would your working relationship be 
with: The Under Secretary of Defense for Acquisition, Technology, and 
Logistics?
    Answer. If confirmed, I look forward to continuing a close working 
relationship with the Under Secretary of Defense for Acquisition, 
Technology, and Logistics and all his deputies in all acquisition areas 
that impact the Air Force and our warfighting customers the combatant 
commanders.
    Question. The Deputy Under Secretary of Defense for Acquisition and 
Technology?
    Answer. If confirmed, I look forward to a close working 
relationship with the Deputy Under Secretary of Defense for Acquisition 
and Technology especially as we execute Quadrennial Defense Review 
(QDR) direction in such areas as joint air capabilities, joint 
mobility, and joint command and control.
    Question. The Secretary of the Air Force?
    Answer. Subject to the authority, direction, and control of the 
Secretary of Defense, the Secretary of the Air Force is responsible for 
and has the authority necessary to conduct all affairs of the 
Department of the Air Force. If confirmed, I look forward to continuing 
the solid working relationship of the past as a direct report 
responsible to the Secretary for all non-space acquisition, research, 
and development.
    Question. The Under Secretary of the Air Force?
    Answer. Subject to the Secretary of the Air Force's direction and 
control, the Under Secretary is authorized to act for and with the 
authority of the Secretary of the Air Force on all matters for which 
the Secretary is responsible; that is to conduct the affairs of the 
Department of the Air Force. The Under Secretary also serves as the DOD 
Executive Agent for Space. If confirmed, I look forward to working 
closely with the Under Secretary of the Air Force on acquisition 
matters, in particular as they relate to assisting the Under 
Secretary's role as Executive Agent for Space.
    Question. The other Assistant Secretaries of the Air Force?
    Answer. If confirmed, I will work closely with the other Assistant 
Secretaries of the Air Force and foster teamwork and information-
sharing in order to carry out the goals and priorities of the 
Department of the Air Force and in crosscutting areas where horizontal 
integration of Air Force people and resources is required and provides 
best value to DOD, the combatant commanders, and the taxpayer.
    Question. The Chief of Staff of the Air Force?
    Answer. The Chief of Staff, in his Department of the Air Force 
role, is subject to the authority, direction, and control of the 
Secretary of the Air Force, presides over the air staff, and is a 
principal advisor to the Secretary. If confirmed, I would foster a 
close working relationship with the Chief of Staff to ensure that 
policies and resources are appropriate to meet the needs of the 
Department of the Air Force.
    Question. The General Counsel of the Air Force?
    Answer. The General Counsel (GC) of the Department of the Air Force 
is the Department's Chief Legal Officer and it's components. The GC 
serves as the chief ethics official. As the chief ethics official the 
advice of the GC will be crucial to acquisition matters. If confirmed, 
I would look forward to developing a good working relationship with the 
GC.
    Question. The Service Acquisition Executives of the Army and Navy?
    Answer. If confirmed, I look forward to a close working 
relationship with the Service Acquisition Executives of the Army and 
the Navy. The 2006 QDR, signed by the Secretary of Defense in February, 
defines the direction the DOD must follow to fulfill responsibilities 
to the American people. Implementing QDR will demand the use of joint 
capability portfolios, reduction of program redundancy, improved joint 
interoperability across service centric platforms, and increased joint 
research and development (R&D) and acquisition initiatives with new 
organizations and processes that cut across traditional stovepipes. As 
senior leaders in acquisition in the Department, all three Service 
Acquisition Executives must work together to reshape the defense 
enterprise.
                            major challenges
    Question. In your view, what are the major challenges that will 
confront the Assistant Secretary of the Air Force for Acquisition?
    Answer. One of the major challenges is restoring confidence and 
credibility to Air Force acquisition. Additionally, with the Air Force 
commitment to provide our combatant commanders with the capabilities to 
counter the multiple threats in their areas of responsibilities, the 
Air Force must determine the appropriate level of investment and 
actions required to fill current capability gaps, maintain air, space 
and cyberspace dominance and invest in future science, technology, 
research, and development to protect this Nation and our allies from 
conventional, asymmetric, irregular, and catastrophic threats. During 
these times of increasing personnel costs and potential reductions in 
procurement and RDT&E budgets, the Air Force must demonstrate how to 
recognize and manage risk and make trade-off decisions, balancing needs 
and costs for weapon system programs and other investment priorities.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, it is my intention to evaluate and 
aggressively pursue appropriate recommendations of the Defense Science 
Board on Management Oversight in Acquisition Organizations and several 
studies recently published on DOD acquisition reform. Our operational 
forces must adapt to ever-changing threats, therefore the Air Force 
needs an agile acquisition structure that is as fast and flexible as 
the forces they support. This will require more tightly integrating the 
acquisition, technology, and logistics framework: requirements, budget 
and acquisition or the [big] ``A'', not just the [little] A, as 
mentioned in the Defense Acquisition Performance Assessment (DAPA) 
report. The basic underpinning of the plans is integrity in every 
endeavor which must be brought into the process at the top, driving the 
Air Force acquisition system to manage risks and deliver on schedule, 
meeting technical requirements, within cost.
    Question. If confirmed, what management actions and timelines would 
you establish to address these challenges?
    Answer. If confirmed, there are short-, mid-, and long-range sets 
of actions that I believe must be taken to coincident with the budget 
cycle. Immediately, trust and integrity will be emphasized with 
constant reminders for openness and transparency. For upcoming 
milestone decisions between now and ending in fiscal year 2008, we must 
make difficult decisions in reprogramming to meet current and future 
combatant commander's operational needs.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
for Air Force acquisition, research, and technology?
    Answer. If confirmed, restoring credibility to the Air Force 
acquisition enterprise through transparency with Air Force leadership, 
Office of the Secretary of Defense (OSD), Congress, and most of all, 
the American people would be my first priority. This includes 
streamlining our processes, becoming more efficient, and developing our 
acquisition workforce. My goals for research and technology would be to 
provide the warfighter with the best technology available while 
maintaining our historically significant role in world-class basic 
research. This means harvesting research and technology that supports 
concepts of operation, increasing the use of prototyping and working 
transitions that move technology to the warfighter in a more timely 
manner.
             quadrennial defense review execution roadmaps
    Question. In January 2006, the Deputy Secretary of Defense 
commissioned eight QDR Execution Roadmaps, including a DOD 
Institutional Reform and Governance panel led by the Under Secretary of 
Defense for Acquisition, Technology, and Logistics. This panel is 
intended to provide guidance on implementation of new acquisition 
policies, procedures, and processes and to explore options for a 
``portfolio-based approach'' to defense planning, programming, and 
budgeting.
    What is your understanding of the issues being considered and 
conclusions reached by the DOD Institutional Reform and Governance 
Panel to date, and, if confirmed, what role would you expect to play, 
if any, in the work of the QDR Execution Roadmaps?
    Answer. I have not had the opportunity to fully evaluate the DOD 
Institutional Reform and Governance Panel as the portfolio based 
approach to the capabilities investment is an ongoing process being 
explored in test cases in the Department. I fully expect the Air Force 
to be a leader in developing QDR roadmaps and implementation plans and 
if confirmed this would be one of my priorities.
    Question. What is your understanding of the term ``joint 
capabilities portfolios,'' as used in the QDR, and, if confirmed, how 
would you incorporate joint capabilities portfolios into the Air Force 
acquisition process?
    Answer. Joint capabilities portfolios enable the Department to look 
across the enterprise and to re-orient the Department's processes to 
provide the capabilities needed by the combatant commander. If 
confirmed, I would work collectively with the military departments and 
defense agencies to incorporate joint capabilities portfolios in the 
Air Force by placing the Air Force acquisition team as key leaders and 
participants in the portfolio reviews to ensure the best value to the 
taxpayer and greatest capability to our joint warfighters.
    Question. The QDR concluded that the Department is ``encumbered 
with a Cold War organization and mentality in many aspects of 
Department operations'' and noted that the Department intended to seek 
new and more flexible authorities for control of budget, finance, 
acquisition, and personnel.
    What are your views on these QDR conclusions, and, if confirmed, 
what changes, if any, would you seek to make in the Air Force's 
policies in the areas listed?
    Answer. The Department is exploring ways to implement several DAPA 
recommendations and the Air Force should be a part of this exploration. 
These solutions could introduce a more stable funding environment 
within the acquisition world. If confirmed, I look forward to working 
with the Defense Acquisition Executive, the Service Acquisition 
Executives (SAEs), and Congress in this area.
                  streamlining the acquisition process
    Question. Within the past year, several major studies (e.g., the 
QDR 2006; Beyond Goldwater-Nichols by the Center for Strategic and 
International Studies; the DAPA; and Transformation, a Progress 
Assessment by the Defense Science Board) have been completed. The need 
for reduced program risk and greater stability was a common theme 
relating to acquisition procedures in all these reports.
    What concerns, if any, do you have regarding the process the Air 
Force uses to acquire capabilities to support the needs of the 
combatant commanders?
    Answer. Requirements and development processes used to meet 
combatant commander needs are complex. If confirmed, I look forward to 
examining the Air Force's processes and understanding how they best 
meet the needs of the combatant commanders. My goal would be to provide 
the combatant commanders with capability that is timely, meaningful, 
and affordable.
    Question. What is your evaluation of the state of Air Force 
acquisition programs today?
    Answer. I have not reviewed in depth the Air Force program 
portfolio at this time, but if confirmed, reviewing Air Force programs 
will be one of my highest priorities. In evaluating the current 
portfolio I would intend to conduct Air Force acquisition in a 
transparent manner, always mindful of the importance of the 
congressional oversight role, and with special attention to how 
effectively the programs are satisfying combatant commanders' needs and 
future capability gaps.
    Question. If confirmed, what actions would you take to improve 
program stability and reduce program risk?
    Answer. By maintaining strict requirements discipline, focusing on 
the use of mature technology, empowering program managers, assessing 
manufacturing shortfalls and using incentives to reward above average 
performance, we can lower the risk of programs at the same time we 
reduce the time to fielding. If confirmed, I would focus on these 
concepts.
    Question. The studies mentioned above make various recommendations 
regarding the role of the service acquisition executives and the 
combatant commanders in improving military acquisition processes and 
outcomes.
    What are your views regarding proposals for the establishment of 
service acquisition commands that would report to the services' chiefs 
of staff and acquisition executives?
    Answer. I understand there are studies underway, sponsored by the 
Air Force to evaluate options. If, confirmed, I would like to see the 
results of those studies before formulating a position.
    Question. If implemented, would such proposals, in your judgment, 
improve the acquisition process?
    Answer. Again, if confirmed, I would like to see the results of 
those studies before formulating a position.
    Question. What role should combatant commanders play in the 
acquisition process?
    Answer. The combatant commanders should drive requirements. They 
are the commanders supported by the acquisition system and have the 
best feel for what their warfighting capability shortfalls are.
    Question. What is your evaluation of the recommendation in the DAPA 
report that the Department should establish a ``Stable Program Funding 
Account,'' a single account appropriated by Congress that would fund 
all Acquisition Category I Programs?
    Answer. The Department is reviewing this DAPA recommendation to 
create a capital budget.
            impact of the budget and requirements processes
    Question. A recent report by the Center for Strategic and 
International Studies concludes that ``many of the ills attributed to 
the defense acquisition system are really caused by [the requirements 
and resource allocation] processes. Instability in the definition of 
requirements, often referred to as `requirements creep,' creates a 
moving target for acquisition and procurement personnel as they 
struggle to make trade-offs among performance, cost, and schedule. 
Similarly, much, if not most, of the instability in acquisition 
programs is caused by lack of discipline in the resource allocation 
process--that is, funding more acquisition programs than the 
procurement budgets can support and the chronic tendency . . . to take 
procurement dollars to meet operations and maintenance (O&M) bills.''
    Do you agree with this assessment?
    Answer. I generally agree. Often budget cuts to procurement 
accounts are made without an overall assessment of the risk induced 
into programs. In addition, our exuberance to please a customer and 
accept additional requirements introduces unnecessary risk to programs. 
This is not a simple problem with a single answer. You need to address 
all the sources of instability; requirements, budget, technical, 
manpower, and other realities that induce instability into programs. 
Requirements must be bound in ways that are meaningful to the customer 
but do not break the budget. Incremental development techniques should 
be employed to make sure the capabilities delivered meet the mark for 
the warfighter and new capabilities can be rolled out to satisfy future 
needs.
    Question. What steps do you believe the Air Force should take to 
address this problem?
    Answer. We must understand the warfighters' concept of operations, 
the user's perspective and the resulting requirements better by getting 
users in with developers to work together to ensure that requirements 
are realistic and clearly understood on a continuous basis.
    Question. If confirmed, what role would you play in ensuring that 
requirements and budget estimates are reasonable?
    Answer. If confirmed, I will operate in a collaborative environment 
with my requirements and programming counterparts to meet the needs of 
the warfighter. One role would be to emphasize more quality prototyping 
in the early phases to inform requirements and cost drivers. Key to 
this is becoming engaged early in the process to identify issues as 
they arise and work together in developing appropriate acquisition and 
risk mitigation plans.
                       commercial item strategies
    Question. Section 803 of the National Defense Authorization Act for 
Fiscal Year 2006 requires a determination by the Secretary of Defense 
and notification to Congress before a major weapon system may be 
treated as a commercial item. Section 823 requires a determination by 
the Under Secretary of Defense for Acquisition, Technology, and 
Logistics and notification to Congress before the Department may use 
``other transaction authority (OTA)'' for a prototype project in excess 
of $100 million.
    What is your view of the circumstances, if any, in which it would 
be appropriate to treat a major weapon system as a commercial item?
    Answer. If confirmed, I will be committed to thoroughly reviewing 
commercial item considerations during the acquisition planning process 
to ensure compliance with established law and policy. It could be 
appropriate to treat a major weapon system as a commercial item, if it 
clearly meets the criteria established in the definition for a 
commercial item set forth in FAR 2.101 (41 U.S.C. 403(12)), and if such 
treatment is necessary to meet national security objectives. It is my 
perception that this would be an extraordinary circumstance. That being 
said, I would anticipate very few major weapon systems would meet these 
criteria.
    Question. What is your view of the circumstances, if any, in which 
it would be appropriate to use ``OTA'' for a prototype project in 
excess of $100 million?
    Answer. I anticipate that the use of OTAs for prototype projects 
over $100 million would be limited. I have used OTAs very successfully 
on smaller sized programs.
                        lead system integrators
    Question. Section 805 of the National Defense Authorization Act for 
Fiscal Year 2006 requires DOD to report to the congressional defense 
committees on concerns related to intellectual property and technical 
data rights, conflicts of interest, and contractor performance of 
inherently governmental functions arising out of the use of lead system 
integrators (LSIs) for the acquisition by DOD of major weapon systems.
    What are your views on the appropriate role and responsibilities of 
the lead system integrator?
    Answer. For 12 years in the private sector, I was a systems 
integrator and treated as ``an arm of the government, honest broker, 
and system protector.'' Two contributing factors were critical to the 
positive impact this system integrator had on mission success:

          1. A very strong government contracting officer's technical 
        representative and government team who led the effort with 
        vision and superb knowledge of systems engineering and the 
        importance of configuration management and the baseline 
        designs.
          2. A strong commitment on the part of industry to adhere to 
        strict and legally binding organizational conflict of interest 
        (OCI) within a ``fire-walled'' business unit that reported to a 
        dedicated senior vice president.

    From my experience the appropriate role and responsibility of an 
LSI is to maintain in-depth, long-term knowledge of the system-of-
systems, and such things as performance timelines, critical path, 
interfaces, configuration management, risks and risk mitigators and 
schedule drivers.
    Question. How would you define the line between those acquisition 
responsibilities that are inherently governmental and those that may be 
performed by contractors?
    Answer. Under no circumstances should an LSI make programmatic 
decisions or obligate and disperse funds. An LSI should solely advise 
and recommend solutions to the government to problems such as risk 
mitigators, schedule alternatives, or potential design flaws at the 
system-of-system level.
    Question. If confirmed, what steps would you take to ensure that 
contracting mechanisms which maintain adequate safeguards are in place 
to ensure that LSI access to sensitive and proprietary information is 
not compromised?
    Answer. If confirmed, I would look closely at the results of the 
study in response to section 805 and I would work closely with all 
involved in DOD to ensure proper policies and procedures are in effect.
    Question. What policies are in place to ensure that the LSIs do not 
misuse sensitive and proprietary information owned by other contractors 
and do not unnecessarily limit competition in a manner that would 
disadvantage the government?
    Answer. I understand that policies are explained in a memorandum 
that the acting USD(AT&L) sent to the Service Acquisition Executives 
and the Directors of Defense Agencies on July 12, 2004, concerning the 
Selection of Contractors for Subsystems and Components. Policies 
emphasize reliance upon competition at the prime and subcontract levels 
to provide for innovation, flexibility, reduced life cycle costs, and 
increased quality.
    Question. What additional steps, if any, do you believe are needed 
to address this issue?
    Answer. If confirmed, I will be reviewing this issue and the report 
in response to section 805.
                         acquisition workforce
    Question. The Chief of Staff of the Air Force testified in response 
to questions about shortfalls in the Air Force tanker lease program and 
performance in aircraft acquisition that the Air Force ``paid dearly'' 
by streamlining its buying processes and shrinking its oversight 
workforce. He indicated that the Air Force needs more cost estimators, 
testing evaluators, and program managers.
    What is your understanding of the problems referred to by General 
Moseley and of remedial actions that need to be taken?
    Answer. As General Moseley indicated, the Air Force has experienced 
a reduction in acquisition workforce capability. If confirmed, I will 
work with the SECAF and CSAF to ensure that the Air Force has the right 
numbers and mix of acquisition professional government civil service 
and military in critical oversight roles, such as program management 
and systems engineering. I will also review things the acquisition work 
force may be doing that might have little value added and seek to 
reduce the complexity of acquisition.
    Question. If confirmed, how would you assess the appropriate level 
of human capital resources, to include senior level resources, required 
to ensure adequate levels of staffing in the Air force acquisition 
workforce?
    Answer. I am not currently engaged in this issue, but if confirmed 
I will make it a priority.
    Question. Do you believe that contracting out for essential 
acquisition support services contributed to the Air Force's acquisition 
workforce problem?
    Answer. I am unaware of the specific issues regarding the support 
services acquisition mission. If confirmed, I will review this issue. I 
believe the key will be to determine what functions and what level of 
support should be contracted out and what functions need to be 
preserved within the government workforce.
    Question. The Defense Acquisition Workforce Improvement Act (DAWIA) 
established specific requirements for managing the Defense Acquisition 
Workforce and authorized a series of benefits for the workforce.
    Please give your assessment of the strengths and weaknesses of 
DOD's implementation to date of DAWIA.
    Answer. I am not familiar with any metrics that would indicate the 
strengths and weaknesses of the implementation of DAWIA. If confirmed, 
I plan to review the original intent, metrics, and get a more thorough 
understanding of the value added of the intended benefits.
    Question. Does DOD's acquisition workforce possess the quality and 
training needed to adapt to new acquisition reforms, as well as to 
increased workloads and responsibilities?
    Answer. As a nominee, I am not aware of any acquisition workforce 
training shortfalls. If confirmed, I look forward to understanding and 
assessing the impact of increased workloads and responsibilities. Are 
there things the acquisition workforce is doing that they can stop 
doing? Are there things they are doing that could be done more 
effectively? Once those questions are answered, I plan on working 
closely with Mr. Kreig (AT&L) and other SAEs to provide the most 
effective training possible.
    Question. What are your views regarding assertions that the 
acquisition workforce is losing its technical and management expertise 
and is beginning to rely too much on support contractors, FFRDCs, and, 
in some cases, prime contractors for this expertise?
    Answer. My view is that this may be somewhat true. Support 
contractors including FFRDCs are essential to the acquisition mission. 
That being said, the Air Force must always be mindful to retain our 
inherently governmental functions.
                   national security personnel system
    Question. If confirmed, how would you anticipate using the 
authorities of the National Security Personnel System, including the 
authority to hire highly qualified experts, to improve the expertise, 
skill, and performance of the Air Force's acquisition workforce?
    Answer. If confirmed, I will strongly support utilizing pay, 
incentive, and reward systems to link pay to individual and 
organizational performance contributions
                     acquisition technical support
    Question. The Comptroller General has testified that the 
Department's programs often move forward with unrealistic cost and 
schedule estimates, lack clearly defined and stable requirements, use 
immature technologies in launching product development, and fail to 
solidify design and manufacturing processes at appropriate junctures in 
development. The Air Force has begun to use a broader technical 
community to identify and manage risk during acquisition programs and 
to provide a distinct and separate technical voice at the table during 
service acquisition executive and milestone reviews.
    What do you consider to be the appropriate role of the technical 
community in providing advice and recommendations to program managers 
and program executive officers prior to milestone decisions?
    Answer. The technical community, headed by the chief engineers at 
all levels, must provide realistic assessments of technical risk, 
maturity, capability, design, and safety; provide a technical roadmap 
for a successful program execution; and ensure that good systems 
engineering processes are used throughout concept exploration, design, 
evaluation, development, test, production, fielding, and sustainment. 
Technical readiness and manufacturing readiness will be key elements 
for program approvals at milestone decision points. If confirmed, I 
will continue to strengthen the role of the Air Force technical 
community as an honest broker for Program Managers and Milestone 
Decision Authorities. I am committed to having a technical voice at the 
table to advise me on acquisition issues.
    Question. Based on your experience as Deputy Under Secretary of 
Defense for Advanced Systems and Concepts, how early in the development 
of an acquisition program should technical risk assessments and life 
cycle systems engineering commence?
    Answer. Based on my experience with our most successful Advanced 
Concept Technology Demonstrations (ACTDs), technical risk assessments 
and disciplined systems engineering should be considerations from the 
very beginning of the capabilities development process, well ahead of 
Milestone A. It is essential that these elements are included in 
scoping and conducting early trade studies, even before concepts are 
brought forward into Analyses of Alternatives and a selected concept is 
eventually matured into an acquisition program.
    Question. In your view does the Department have sufficient 
personnel and resources to adequately support pre-acquisition systems 
engineering and an increased technical role in acquisition strategies?
    Answer. In 2003, under the leadership of the Under Secretary of 
Defense for Acquisition, Technology, and Logistics, the extreme 
shortage of systems engineers was recognized and organizational and 
training steps were taken to begin to reverse the shortage. If 
confirmed, one of my first actions will be to get a full understanding 
of the current state of systems engineering in the Air Force and across 
the DOD and assess what steps should be taken to strengthen the 
function or create incentives to retain this element of the acquisition 
workforce.
                          test and evaluation
    Question. Rapid fielding initiatives, spiral development, and the 
balance between operational and developmental testing are some of the 
many challenges facing the Department's operational test and evaluation 
activity. In the fiscal year 2007 budget request, the Air Force reduced 
its test and evaluation (T&E) activities by nearly $400 million over 
the Future Years Defense Program, relative to these activities as 
proposed in the fiscal year 2006 budget request.
    What are your views on the importance of accurately projecting 
future test facility instrumentation requirements and budgeting for 
these needs?
    Answer. In my experience, test facilities are a very important 
contributor to the ability to field capable, proven weapon systems for 
our warfighters. We need to do a good job of protecting the test 
capabilities our future systems will require to ensure they are in 
place to support thorough testing as part of the acquisition process. 
We cannot permit test infrastructure shortfalls to delay acquisition 
programs.
    Question. The Government Acountability Office (GAO) recently 
reported that DOD program managers have incentives to suppress bad news 
and continually produce optimistic estimates because doing otherwise 
could result in a loss of support and funding and further damage their 
programs.
    Do you agree with this GAO finding?
    Answer. If this finding is true, then I believe there is a 
violation of honesty, integrity, and transparency in the acquisition 
workforce. If confirmed, I will establish a structure of support for 
our program managers, as I have with my current organization that will 
encourage them to bring ``bad news'' forward so that problems can be 
resolved early in the acquisition process. It is said that ``bad news'' 
does not improve with age, so the sooner problems are discovered and 
addressed the better the outcome.
    Question. What are your views on the appropriate point in concept 
development of a new acquisition program for incorporation of T&E 
planning and integration of testing requirements?
    Answer. Based on my experience with the ACTD program and the early 
involvement of developmental test and evaluation experts from the Army, 
Navy, and Air Force, I am a strong proponent of early engagement with 
the test community. I understand that a new Air Force strategy called 
``Seamless Verification'' integrates all aspects of testing much 
earlier in acquisition programs allowing the acquisition and test 
communities to partner more effectively.
    Question. What steps, if any, do you believe the Department should 
take to ensure that testing takes place early enough in the program 
cycle to identify and fix problems before it becomes prohibitively 
time-consuming and expensive to do so?
    Answer. As with all improvements, the level of emphasis and high 
regard for the process must be communicated by the senior acquisition 
leader in the Air Force. If confirmed, I will not only emphasize this 
as a guiding principle of excellence in acquisition, I will ensure that 
proper support is committed early in the program to resource early 
testing and fixing of problems that are identified.
    Question. The DAPA report recommended that laws governing 
operational testing be modified to add a new ``operationally 
acceptable'' test evaluation category and provide fiscal and time 
constraints for operational testing.
    What is your view of this recommendation?
    Answer. I believe those are changes that are worth further study by 
DOD.
                      service contract management
    Question. DOD spending on contractor-provided services has 
increased by an estimated 50 percent since fiscal year 1995. This has 
resulted in more spending each year for the acquisition of services 
than for the acquisition of products, including major weapons systems. 
Despite this trend, the Department has not updated management processes 
and workforce training to account for the increased volume and 
complexity of service contracts.
    If confirmed, what actions would you take in the Air Force to 
address the need for improved management of contractor-provided 
services?
    Answer. I am not familiar with the increased volume and complexity 
of service contracts but if confirmed, I will fully review the current 
management of contractor provided services with a view toward 
discipline and transparency in these matters.
    Question. The GAO and the DOD Inspector General have reported that 
DOD has failed to provide adequate resources to monitor contractors' 
performance of service contracts. As a result, the Department has no 
assurance that contractors have complied with the terms of their 
contracts and that the Department has received the best value when 
contracting for services.
    What steps, if any, do you believe the Department should take to 
address this problem?
    Answer. I am not familiar with the GAO and DOD IG reports. If 
confirmed, I will review these reports along with the recommendations 
of the GAO and DOD IG. The Department must be accountable to the 
taxpayer for the expenditure of tax dollars. Keeping this in mind, I 
would take steps to review the management of Service contracts with 
appropriate individuals in SAF/AQ.
    Question. If confirmed, what metrics would you use to assess 
whether Service contracts are meeting cost, schedule, and performance 
goals?
    Answer. At the current time, I have not developed a set of metrics 
to use in connection with Service contracts. However, this is a key 
area in Service contract success and if confirmed, I intend to 
undertake this task.
    Question. Concerns raised by GAO and the DOD Inspector General 
about the Department's management of Services' contracts led to a 
requirement in section 801 of the National Defense Authorization Act 
for Fiscal Year 2002 for DOD to establish a management structure to 
oversee Services contracting. Because the Department was slow to 
implement this provision, Congress tightened the requirement for a 
management structure in section 812 of the National Defense 
Authorization Act for Fiscal Year 2006.
    What steps will you take, if confirmed, to implement section 812 
and ensure that the Department has an effective management structure in 
place for the acquisition of contract services?
    Answer. If confirmed, I will review these reports along with the 
recommendations of the GAO and DOD IG.
    Question. What specific steps, if any, do you believe the 
Department should take in calendar years 2006 and 2007 to improve 
management of Service contracts?
    Answer. I consider this important and will make it a high priority 
if confirmed.
    Question. At the request of the committee, the GAO has performed 
best practices work on how the private sector manages services. GAO 
concluded that leading companies have greater visibility and management 
over their Services' contracts and conduct so called ``spend analyses'' 
to find more efficient ways to manage their Service contractors. This 
recommendation was incorporated into sections 801 and 802 of the 
National Defense Authorization Act for Fiscal Year 2002 and has been 
reinforced by subsequent legislation.
    What is the status of the Department's efforts to conduct a ``spend 
analysis,'' as recommended by GAO and required by statute?
    Answer. If confirmed, I will immediately review the status of the 
Department's efforts.
    Question. What specific improvements in the management of Service 
contracts have been made as a result of the Department's efforts to 
date?
    Answer. I am not currently knowledgeable of improvements in the 
management of Services' contracting. If confirmed, I will familiarize 
myself with this important issue.
    Question. What additional steps, if any, do you believe the 
Department should take to implement the requirement to conduct periodic 
``spend analyses'' for its Service contracts?
    Answer. If confirmed and after a complete review, I will identify 
any additional steps I believe should be taken.
                  performance-based service contracts
    Question. Section 805 of the National Defense Authorization Act for 
Fiscal Year 2003 established specific goals for the increased use of 
performance-based Service contracts and competitive awards of task 
orders under Service contracts by DOD.
    What is your view of the utility performance-based services 
contracting and the competitive award of task orders?
    Answer. Performance-based Services' contracting looks to be proving 
itself out as useful and beneficial. If confirmed, I look forward to 
getting involved in PBSA and making it as successful as possible.
    Question. What is the status of the Department's efforts to achieve 
the goals established in section 805?
    Answer. In order to provide status I must have all the facts and 
details. I look forward to working with Congress in this area, if 
confirmed.
    Question. What additional steps, if any, do you believe the 
Department should take to meet the goals established in section 805?
    Answer. Once I have all of the details, I will be in a better 
position to discuss any additional steps which might be required.
                      time and materials contracts
    Question. Recent press reports indicate that some contractors may 
have charged the government one rate under so-called ``time and 
materials'' contracts, while paying subcontractors another, 
substantially lower rate. DOD and other Federal agencies have proposed 
a change to the Federal Acquisition Regulation to address this 
practice.
    What is your view on this issue and the proposed change to the 
Federal Acquisition Regulation?
    Answer. It is important that time and material contracts are clear 
on the rates to be paid for work accomplished by both prime and 
subcontractors. These rates are most effectively established when 
contracts are awarded through full and open competition.
                         interagency contracts
    Question. The last decade has seen a proliferation of new types of 
government-wide contracts and multi-agency contracts. These contracts, 
which permit officials of one agency to make purchases under contracts 
entered by other agencies, have provided Federal agencies rapid access 
to high-tech commercial products and related services. In too many 
cases, however, it appears that neither agency takes responsibility for 
making sure that procurement rules are followed and good management 
sense is applied. As a result, the DOD Inspector General, the General 
Services Administration (GSA) Inspector General, and GAO have 
identified a long series of problems with interagency contracts, 
including lack of acquisition planning, inadequate competition, 
excessive use of time and materials contracts, improper use of expired 
funds, inappropriate expenditures, and failure to monitor contractor 
performance.
    What steps has the Department taken to address problems with 
interagency contracts, and how effective do you believe these steps 
have been?
    Answer. I am aware of some dialogue at the OSD level regarding this 
issue but I am not aware of the current actions being taken to address 
these problems or their effectiveness. If confirmed, I look forward 
learning more and being able to engage at the right levels to resolve 
problems as they relate to the Air Force.
    Question. What additional steps, if any, do you believe are needed?
    Answer. If confirmed, I will review these steps with the Air Force 
acquisition leads and determine if further steps need to be taken.
                   award and incentive fee contracts
    Question. The GAO recently reported that DOD has failed to link 
award and incentive decisions to acquisition outcomes. As a result, GAO 
says, ``DOD has paid out an estimated $8 billion in award fees to date 
on the contracts in our study population, regardless of outcomes.'' 
According to GAO, this practice has undermined the effectiveness of 
fees as a motivational tool, marginalized their use in holding 
contractors accountable for acquisition outcomes, and wasted taxpayer 
funds.
    What, in your view, are the most effective contractual mechanisms 
for providing incentives to reward excellent contractor performance 
which are focused on acquisition outcomes?
    Answer. To ensure incentives reward excellent contractor 
performance, you need to implement contracts using when possible 
objective, verifiable criteria that emphasize outcomes for cost, 
schedule, and performance.
    Question. If confirmed, what steps would you take to improve, or 
overhaul if necessary, Air Force contracting decisions, including the 
use of award and incentive fee contracts?
    Answer. If confirmed, I will ensure Air Force consistency with 
policy concerning incentive contracts that was articulated in the 
recent Deputy Under Secretary of Defense (Acquisition and Technology) 
Policy Memo, Award Fee Contracts (FAR 16, DFARS 215, DFARS 216).
                         science and technology
    Question. If confirmed, you will play an important role in setting 
and implementing policy for development and acquisition of Air Force 
capabilities to confront new and emerging threats.
    Based on your experience in operationalizing innovation, what is 
the role and value of science and technology (S&T) programs in meeting 
the Department's transformation goals and in confronting irregular, 
catastrophic, traditional, and disruptive threats?
    Answer. S&T programs must have a primary focus on meeting 
transformation goals and confronting irregular, catastrophic, 
traditional, and disruptive threats. The S&T investment is our hedge 
against future surprise and uncertainty and the investment must be made 
with our national security in the forefront.
    Question. If confirmed, what actions would you take with respect to 
funding targets and priorities for the Department's long-term research 
efforts?
    Answer. If confirmed, I will strengthen our S&T investment by 
focusing on research in areas of key interest to our combatant 
commanders such as non-lethal weapons, language and cultural tools, 
detection and elimination of WMD, improved propulsion, unmanned aerial 
vehicles, power and energy to include alternative fuels, net-security, 
net-operations and net-warfare, global strike, improved communications 
and multi-mode sensors and platforms for persistent surveillance. While 
a funding target is a viable goal, within the Department, defining a 
viable list of opportunities lost due to limited funds, as we document 
successful transitions (ROI) of our R&D investment to warfighter 
operations, will strengthen our funding levels.
                         technology transition
    Question. The Department's efforts to quickly transition 
technologies to the warfighter have yielded important results in the 
last few years. Challenges remain, however, in institutionalizing the 
transition of new technologies into existing programs of record and 
major weapons systems and platforms.
    What challenges to transition do you see within the Air Force?
    Answer. From my experiences in OSD, I believe it is a cradle-to-
grave process. If confirmed, I look forward to working with the OSD and 
Congress to more efficiently transition technology into the hands of 
the warfighter.
    Question. If confirmed, what steps would you take to enhance the 
effectiveness of technology transition efforts?
    Answer. If confirmed, I will review the business process used to 
select transition projects from Air Force labs to acquisition programs, 
and how program managers communicate to the research and development 
(R&D) community the program needs of our combatant commanders (the 
ultimate customer). I will seek to understand the relationships between 
the R&D workforce and the program management workforce and the 
combatant commands and what incentives exist to drive these entities 
together. I will work closely with the Army and Navy Service 
Acquisition Executives to move cross-cutting technology into the Air 
Force from sister Services and vice versa.
    Question. What is your assessment of the effectiveness of the rapid 
reaction and quick reaction special projects funds?
    Answer. These rapid response programs supplement investment in the 
S&T program and are effective in responding to emergent defense needs 
by taking advantage of technology breakthroughs in rapidly evolving 
technologies. If confirmed, I will continue to support these programs.
    Question. Are there DOD ``lessons learned'' through rapid reaction 
programs that you believe have applicability to the broader Air Force 
acquisition processes?
    Answer. The Department's rapid reaction programs have provided a 
foundation for bringing together operators, technologists, and our 
acquisition community to pursue mission-oriented concepts and 
requirements. These programs have allowed us to move certain promising 
concepts from R&D to the warfighter more quickly than typically 
permitted by normal acquisition and/or budgeting processes.
                          technical workforce
    Question. What are your views on the present sufficiency and 
projected vitality of the Air Force's technical workforce?
    Answer. With the demographics of an aging workforce, I believe it 
is even more important that the Air Force effectively recruit and 
retain the necessary scientists and engineers, while staying alert to 
any shifts in predicted trends. If confirmed, I look forward to 
assessing this important issue.
    Question. If confirmed, what efforts would you pursue to respond to 
workforce challenges, particularly those involving the need for 
technical and highly-skilled experts?
    Answer. If confirmed, I will utilize the flexibilities afforded in 
programs like the Science, Mathematics, and Research for Transformation 
program, the National Defense Education Program, and the Laboratory 
Personnel Demonstration Project to increase the Air Force's ability to 
hire highly-qualified scientists and engineers.
                          joint strike fighter
    Question. The Department has estimated that it will spend about 
$600 billion on the Joint Strike Fighter (JSF), making it the 
Department's most expensive aircraft program. Recent GAO reviews of the 
program have noted significant increases in development costs, a 
decrease in planned procurement, schedule slips, and lack of sufficient 
testing.
    What are your views on the appropriate way forward for this 
program?
    Answer. A way forward for the JSF program is to strike an effective 
balance of technical risk, financial resources, and the Services' 
operational needs and I am committed to making this happen. If 
confirmed, I will work with the JSF stakeholders to reduce cost and 
meet and schedule commitments while assessing performance risk as the 
Air Force progresses through system development and demonstration into 
production.
    Question. In recent years, DOD has revised its acquisition policy 
to embrace an evolutionary, or incremental, approach in order to 
improve program outcomes by maturing technology and delivering 
capability in increments. Each increment of an evolutionary acquisition 
will have its own decision milestones and baseline--cost, schedule, and 
performance requirements.
    If confirmed, what acquisition approach would you recommend for the 
JSF with respect to an incremental acquisition and reliance on proven 
technologies?
    Answer. It would be premature for me to recommend a specific 
acquisition approach without an in-depth review, however, the 
Department should establish clear entry and exit criteria for all 
critical program milestones to ensure that required technologies are 
adequately matured.
                             leasing policy
    Question. The proposed Air Force tanker lease has raised concerns 
about the use of leases to obtain new capital equipment. Opponents of 
such leases have argued that this approach, without adequate 
justification, shifts to future leaders, today's budget problems.
    Under what circumstances, if any, do you believe that it is 
appropriate for the Department to use leases to obtain new capital 
equipment?
    Answer. Without specific details, it would be premature to say 
whether it would be appropriate for the Department to lease, rather 
than purchase, new capital equipment. Any such long-term lease of 
capital assets would have to be supported by a business case analysis. 
Furthermore, the lease would have to be consistent with fiscal and 
acquisition law and regulation.
    Question. What criteria would you use, if confirmed, to determine 
whether to support a major lease of capital equipment by DOD?
    Answer. If confirmed, I would consider all of the circumstances 
surrounding the particular acquisition at the time. As mentioned above, 
any program involving the use of a capital lease by the Department 
would also have to comply with applicable fiscal and acquisition law 
and regulation.
                          incremental funding
    Question. The administration has requested that Congress approve 
incremental funding for the Air Force's F-22 fighter program. The 
funding requested in the budget would pay for about 7 aircraft, yet the 
Air Force has requested the authority to start production on 20 
aircraft. As far as the committee has been able to determine, this is 
the only time that an administration has requested incremental funding 
of production aircraft since Congress shifted to a policy of full 
funding in the early 1950s. Approving this request could set a 
precedent by expanding the types of systems that could use incremental 
funding.
    What are your views on the subject of incremental funding?
    Answer. I am aware that the congressional defense committees have 
expressed reservations about the Department's initial request for 
incremental funding for aircraft production programs. At this juncture, 
it is premature for me to express any view, other than to say I will 
study the matter in depth, if confirmed.
    Question. Under what circumstances do you believe that it would be 
appropriate to use incremental funding for production aircraft, if at 
all?
    Answer. See previous response.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Air Force for Acquisition?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
                Questions Submitted by Senator Jack Reed
                       manufacturing technologies
    1. Senator Reed. Ms. Payton, I know in your past job as the Under 
Secretary for Advanced Systems and Concepts you were in charge of 
Department of Defense's (DOD) Manufacturing Technology Program and 
tried to develop new technologies that could reduce the costs to build 
new weapon systems. They also serve to help sustain our domestic 
manufacturing base and improve U.S. global economic competitiveness. I 
know the Air Force manufacturing technology and research efforts are 
under considerable budget pressure. How high a priority do you think 
manufacturing technology development and manufacturing research should 
play in the Air Force budget?
    Ms. Payton. Manufacturing technology is an extremely high priority 
with me because I have personally witnessed the huge return on 
investment and cost avoidance that can be gained from establishing 
designs early in the weapon system acquisition life cycle that allow 
for streamlined manufacturing. Manufacturing readiness levels should be 
assessed at each milestone decision point and adequate research dollars 
invested to improve manufacturing capabilities. It is my intent to 
emphasize manufacturing research and development as the Assistant 
Secretary of the Air Force for Acquisition.

    2. Senator Reed. Ms. Payton, do you agree with me that small 
amounts invested in these manufacturing programs can result in huge 
savings for big Air Force acquisition programs?
    Ms. Payton. I strongly agree with you. From the early 1950s to our 
current decade, minimal ManTech investments in machine tooling, 
integrated circuits, image intensifier tubes and night vision 
technology, computer aided manufacturing, composite manufacturing, 
lightweight body armor, and our ongoing composites affordability 
initiatives have resulted in huge savings across the entire DOD 
including the Air Force.

                        coordination with darpa
    3. Senator Reed. Ms. Payton, what is your view about the level of 
coordination between Air Force research and acquisition programs and 
the programs of the Defense Advanced Research Projects Agency (DARPA)?
    Ms. Payton. I look forward to making improvements in all areas of 
coordination within Air Force research and acquisition programs and 
building stronger outreach to DARPA. This aligns with my principle of 
achieving the best value for the taxpayer dollar and providing the best 
possible and affordable capabilities for our men and women in uniform.

    4. Senator Reed. Ms. Payton, do you see the need to change this 
relationship in any way? If so, in what way?
    Ms. Payton. All relationships can be improved and I believe direct 
and periodic meetings with the DARPA Director will be very important. 
Top-down communications is the first step in leveraging the great 
research capabilities of Air Force Research Laboratory and DARPA.

    5. Senator Reed. Ms. Payton, what steps will you take to effect 
that change?
    Ms. Payton. Collaborative reviews between DARPA and AFRL would be 
the first step in understanding the investment portfolios followed by 
focusing research in research gap areas. The Director of Defense 
Research and Engineering and the Defense Science and Technology 
Advisory Group are making great efforts in this area and I look forward 
to positive results.
                                 ______
                                 
             Question submitted by Senator Daniel K. Akaka
                      air force acquisition policy
    6. Senator Akaka. Ms. Payton, in support of the efforts by the Air 
Force to develop more reliable cost estimates, RAND's Project Air Force 
assessed a number of ways that risk information could be communicated 
to senior decisionmakers and made several recommendations regarding the 
Air Force's future acquisition policies. These include offering the 
flexibility to use different assessment methods, employing a uniform 
communications format, tracking cost estimate accuracy, and 
establishing reserves to cover unforeseen costs. What, if any, of these 
recommendations do you believe should be integrated into existing 
acquisition policy?
    Ms. Payton. Early risk mitigation and management is an important 
element to controlling cost growth. While I am not familiar with the 
RAND recommendations or progress the Air Force may be making 
implementing solutions, I will make it a high priority to review and 
implement these recommendations as appropriate.
                                 ______
                                 
    [The nomination reference of Sue C. Payton follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 25, 2006.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Sue C. Payton, of Virginia, to be an Assistant Secretary of the Air 
Force, vice Marvin R. Sambur.
                                 ______
                                 
    [The biographical sketch of Sue C. Payton, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                  Biographical Sketch of Sue C. Payton
    Sue C. Payton is the Deputy Under Secretary of Defense (Advanced 
Systems and Concepts). In this role of operationalizing innovation, she 
has oversight responsibilities for technology transition programs to 
include: Advanced Concept Technology Demonstrations, Joint Warfighting 
Program, Foreign Comparative Test, Defense Acquisition Challenge, 
Technology Transition Initiative, ManTech, Defense Production Act Title 
III, and TechLink. Partnering with the military services, defense 
agencies, industry, coalition partners, and combatant commands. These 
programs provide decisive joint and coalition capabilities in 
battlespace awareness, network centric operations, command and control, 
focused logistics, force protection, and force application for U.S. and 
coalition forces. Prior to taking this position in September 2001, Ms. 
Payton was the Vice President, Applied Technology of ImageLinks, Inc. 
and the Director of the National Center for Applied Technology, 
responsible for the assessment, prototype development, and insertion of 
commercial technology for DOD agencies and worldwide field users. These 
prototyping efforts included support to NGA, DIA, U.S. Navy, JCS/J2, 
USSOCOM, USCENTCOM, AFSOC, USAF Battlelabs, NSA, and NRO to rapidly 
bring emerging commercial technology to the warfighter. From 1994 to 
1996, Ms. Payton was responsible to the Vice President of Business 
Development, Lockheed Martin, for leveraging the latest information 
systems technology to meet the program needs of DOD and Intelligence 
Community customers. From 1989 to 1994, Ms. Payton was the Senior Site 
Systems Integration Manager for Martin Marietta responsible for 
resolving complex acquisition and technical issues associated with 
systems analysis and trade studies of competing Space and Ground 
Architectures, operations concepts, requirements definition, software 
test, and transition to operations.
    Ms. Payton has extensive experience leading government and industry 
partnerships focused on maturing and applying technology, operations 
concepts, tactics, techniques, and procedures to solve national 
security problems worldwide. She is a member of the Defense Science and 
Technology Advisory Group, Eastern Illinois University Alumni 
Association and 2004 Alumni Award winner, a Gateway Member of the 
Purdue University President's Council, and former board member of Women 
in Aerospace. She has served in various capacities with the Open 
Geospatial Consortium and the National Correlation Working Group.
    Ms. Payton received a Bachelor of Science Degree from Eastern 
Illinois University, and a Master of Science in Systems Acquisition 
Management/Systems Technology from the University of Southern 
California. She is a 1998 graduate of the Goizueta Business School, 
Emory University Executive Program.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Sue C. Payton 
in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Sue Carol Payton; Maiden Name: Sue Carol Campbell.

    2. Position to which nominated:
    Assistant Secretary of the Air Force for Acquisition.

    3. Date of nomination:
    April 25, 2006.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 29, 1950; Champaign, IL.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Gary Eugene Payton.

    7. Names and ages of children:
    Courtney Ann Callen; 25.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Eastern Illinois University, Charleston, IL; 1968-1972; Bachelor of 
Science, 1972.
    Brevard Community College, Cocoa, FL; 1978-1979.
    El Camino College, Torrance, CA; 1982.
    University of Southern California, LA, CA; 1983-1985; Master of 
Science, 1985.
    Nova Southeastern University, Davie, FL; 1994-1997.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Deputy Under Secretary of Defense, Department of Defense, 3000 
Defense Pentagon, Room 3E144, Washington, DC, September 2001 to 
Present.
    Vice President Advanced Technology, Image Links, Inc., 7700 Boston 
Blvd., Springfield, VA, August 2000 to September 2001.
    Director National Center for Applied Technology, Lockheed Martin, 
7700 Boston Blvd, Springfield, VA, August 1998 to August 2000.
    Manager Advanced Technology, Martin Marietta/Lockheed Martin, 3201 
Jermantown Road, Virginia, July 1994 to August 1998.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Gateway Member of Purdue University President's Club--Scholarship 
Sponsor.
    Eastern Illinois University Alumni Association--member.
    Women In Aerospace--member.
    Women's Golf Association, Springfield Golf and Country Club--
member.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Republican National Committee--Sustaining Member.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    2004--Republican National Committee--$1,500.
    2004--Thune for Senate--$200.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Eastern Illinois University Distinguished Alumni Award, 2004.
    2006 Defense Certificate of Recognition for Acquisition Innovation: 
DPA Title III Radiation Hardened Electronics Team.
    DOD Joint Meritorious Unit Award.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
Articles:
    Nine Technology Insertion Programs That Can Speed Acquisition, 
Defense AT&L, January-February 2006, pages 10-13.
    Fast-Tracking Innovative Technologies, DOD's ACTD Program Supports 
the War on Terrorism, Armed Forces Journal International, April 2002, 
pages 28-29.
    Maps to Information Superiority, The ISR Journal, 2002, Issue 3, 
pages 26-30.
    Technological Innovations--The ACTD Program, Joint Forces 
Quarterly, Summer 2002, pages 71-76.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    DOD Works to Save Lives on Battlefield, Improve Talent Pool.
    DOD Women's History Month--A Challenge to the DOD Women Scientist 
Award Winners and 300 Students from the Close Up Foundation, 29 March 
2006, Washington, DC, Women in Military Service for America Memorial.
    Manufacturing Technology Briefing--Orlando, FL, 28 November 2005, 
Defense Manufacturing Conference.
    Air Armament Symposium--Transitioning Force Application Technology 
to the Joint and Coalition Warfighter, Fort Walton Beach, FL, 4 October 
2005, NDAI Industrial Associates.
    50 States in 5 Days--September 11 Remembrance, Offutt, NE, 10 
September 2005, Omaha Chamber of Commerce and The National Foundation 
for Women Legislators Annual Conference, 12 September 2005.
    Women's History Month 2005--Women in Military Service for America 
Memorial, Washington, DC, March 2005.
    AIAA Panel Presentation, DOD R&D Investments to Meet DOD Policy 
Goals, Charleston, South Carolina, 22 March 2005.
    Joint Non-Lethal Weapons Conference Luncheon Speaker, Washington 
DC, 15 March 2005.
    GEOIntel 2003 Symposium, Geospatial Industrial Base--New Orleans, 
LA, 16 October, 2003.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                     Sue C. Payton.
    This 4th day of May, 2006.

    [The nomination of Sue C. Payton was reported to the Senate 
by Chairman Warner on July 20, 2006, with the recommendation 
that the nomination be confirmed. The nomination was confirmed 
by the Senate on July 21, 2006.]
                              ----------                              

    [Prepared questions submitted to William H. Tobey by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                                 duties
    Question. What is your understanding of the duties and functions of 
the Deputy Administrator for Defense Nuclear Nonproliferation?
    Answer. The Deputy Administrator for Defense Nuclear 
Nonproliferation is responsible for leading efforts to: prevent the 
spread of materials, technology, and expertise relating to weapons of 
mass destruction; detect the proliferation of weapons of mass 
destruction worldwide; eliminate inventories of surplus fissile 
materials usable for nuclear weapons; and provide for international 
nuclear safety. Defense Nuclear Nonproliferation works closely with its 
international and regional partners as well as key Federal agencies to 
accomplish its mission. This work also includes drawing upon the unique 
and invaluable expertise of the U.S. national laboratories in further 
support of Defense Nuclear Nonproliferation mission activities.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have diverse experience that bears on the requirements of 
the job, including:

        <bullet> Twelve years of Federal service dealing with national 
        security issues, international negotiations, nonproliferation, 
        technology research and development programs, and interagency 
        coordination.
        <bullet> Management of large, complex, and demanding 
        interagency operations with direct relevance to the job, e.g. 
        the removal of weapons of mass destruction materials from 
        Libya.
        <bullet> Experience in international negotiations ranging from 
        the Nuclear and Space Talks with the Soviet Union, to the U.S.-
        Russian Space Cooperation Agreement, to the Six-Party Talks.
        <bullet> Participation in senior national security policy 
        deliberations during 10 years on the National Security Council 
        Staff, under three administrations, covering defense and space 
        policy, nuclear arms control, and nonproliferation issues.
        <bullet> Ten years of private sector experience, including 
        management of highly trained professionals and a successful 
        venture capital investment in a high technology start-up firm.

    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Deputy Administrator 
for Defense Nuclear Nonproliferation?
    Answer. I am confident that my past experience has prepared me for 
the duties of the Deputy Administrator for Defense Nuclear 
Nonproliferation. I would like for Defense Nuclear Nonproliferation to 
be more active in the interagency process at senior levels. I believe 
this would both maximize the use of the substantial skills and 
resources offered by the office, and bring to bear insights from other 
departments and agencies which can improve the effectiveness of 
nonproliferation work. I believe this would enhance my ability to 
perform the duties of the Deputy Administrator for Defense Nuclear 
Nonproliferation.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Administrator of the National Nuclear Security 
Administration (NNSA) would prescribe for you?
    Answer. If confirmed, I anticipate that the Administrator would 
instruct and authorize me to carry out fully all of the programs of the 
Office of Defense Nuclear Nonproliferation to support and implement the 
policies of the President. He has not indicated to me that he intends 
to prescribe any additional duties other than those enumerated in the 
NNSA Act.
                             relationships
    Question. If confirmed, how would you work with the following:
    Other Deputies in the NNSA?
    Answer. If confirmed, I intend to work closely with the other 
Deputy Administrators at NNSA and the Associate Deputy Administrators 
on issues such as budgets, security, counterintelligence, personnel, 
and procurement. I intend to support fully the management coordination 
mechanisms established by the Administrator.
    Question. The Assistant Secretary of Energy for Environmental 
Management?
    Answer. Many aspects of the Fissile Materials Disposition program 
must be coordinated with the Office of Environmental Management. If 
confirmed, I intend to work to continue a cooperative and productive 
relationship.
    Question. The other Assistant Secretaries of Energy?
    Answer. If confirmed, I intend to work through the NNSA 
Administrator to establish cooperative working relationships with the 
other Assistant Secretaries of the Department of Energy (DOE) to ensure 
that NNSA and departmental missions are met.
    Question. Heads of relevant nonproliferation offices at the 
Departments of Defense and State, and the National Security Council.
    Answer. As a member of the National Security Council staff, I place 
great importance in interagency coordination to achieve coherent and 
effective national policy and to maximize the effectiveness of 
government programs. I have strong relationships with nonproliferation 
policymakers at other agencies and at the National Security Council 
and, if confirmed, would work to continue them in my new capacity.
    Question. The Department of Homeland Security (DHS), including the 
Domestic Nuclear Detection Office and offices responsible for customs 
and border security.
    Answer. I believe that one of the most important lessons learned 
from September 11, 2001 is that government agencies must coordinate 
their activities fully and effectively and avoid so-called 
``stovepipes.'' We must fill gaps, and to the extent prudent, remove 
overlaps in responsibilities and authorities. Defense Nuclear 
Nonproliferation and the Domestic Nuclear Detection Office (DNDO) have 
important, distinct, and complementary roles. If confirmed, I will work 
to maximize the effectiveness of both offices in advancing U.S. 
security.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Deputy Administrator for Defense Nuclear Nonproliferation?
    Answer. Defense Nuclear Nonproliferation has established, 
substantial, and important missions. Completing those missions requires 
cooperation from other nations, particularly Russia. That Defense 
Nuclear Nonproliferation requires the cooperation of other nations can 
present challenges in and of itself. Moreover, as we complete work in 
Russia, the President has identified new areas for nonproliferation 
work--building on our experience and applying the lessons we have 
learned in Russia and elsewhere more broadly.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, my first priority would be to complete the 
near-term missions assigned to Defense Nuclear Nonproliferation, e.g. 
the Bratislava Initiatives on nuclear security cooperation, on time. I 
would seek to use the substantial leverage provided by the agreement 
between President Bush and President Putin to achieve Defense Nuclear 
Nonproliferation's portion of these initiatives. With respect to new 
areas for nonproliferation work, if confirmed, I would intend to work 
closely with other departments and agencies to ensure that we have the 
best strategy to guide our efforts in new areas and new nations.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Deputy Administrator for 
Defense Nuclear Nonproliferation?
    Answer. In general I believe that the program is well run, but that 
does not mean that it cannot be improved. Strong program management is 
important because every dollar saved by better management can be 
applied to securing more nuclear material. If confirmed, I will also 
seek to continue Defense Nuclear Nonproliferation's improvements in the 
rates at which authorized funds are costed and obligated.
    Question. If confirmed, what management actions and timelines would 
you establish to address these problems?
    Answer. If confirmed, I will work with the Associate Administrator 
for Management and Administration and Office of Management and Budget 
(OMB) to ensure continued implementation of a program management system 
compatible with the 5-Year Nuclear Security Plan. If confirmed, I will 
also work with contractors and program managers to continue to improve 
the rates at which funds are costed and obligated.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Deputy Administrator 
for Defense Nuclear Nonproliferation?
    Answer. I am still listening to and learning from people at DOE, on 
Capitol Hill, and in the private sector with expertise and experience 
in the Defense Nuclear Nonproliferation missions. However, if 
confirmed, the priorities I have provisionally identified are:

          1. Ensure that current Defense Nuclear Nonproliferation 
        missions, e.g. the Bratislava Initiatives, are completed on 
        time or early.
          2. Ensure that program management is as efficient as possible 
        to enable the office to secure or dispose of as much 
        proliferation-sensitive material as possible.
          3. Ensure that Defense Nuclear Nonproliferation programs are 
        guided strategically to address new challenges and 
        opportunities to prevent proliferation, including new 
        approaches and work with new countries.
                  fissile material disposition program
    Question. The fissile material disposition program, under which the 
United States and Russia each committed to dispose of 34 metric tons of 
surplus weapons-grade plutonium, is laudable in intent, but has been 
plagued by numerous problems including: (1) a 4-year delay in the 
program due to an inability to agree on liability issues for U.S. 
contractors. Though an agreement has now been reached, it still awaits 
Russian signature and ratification by the Russian Duma; (2) 
postponement of construction of the U.S. Mixed-Oxide Nuclear Fuel (MOX) 
Fabrication Facility in South Carolina in order to maintain parallelism 
in the program due to the impasse over liability; and (3) a December 
2005 Department of Energy (DOE) Inspector General report that 
criticized the management of the U.S. program and assessed that the 
cost of the U.S. MOX program facility will be $3.5 billion-$2.5 billion 
more than the original DOE estimate in 2002.
    The fiscal year 2007 budget request for the MOX program is $638.0 
million--nearly one-third of the total DOE nonproliferation request, 
but now it appears that the Russians are no longer committed to the 
program as originally conceived.
    What is your understanding of Russia's commitment to disposing of 
excess plutonium through the MOX program?
    Answer. Russia recently affirmed its commitment to dispose of 34 
metric tons of weapons grade plutonium. I am unaware of any desire by 
the Russian Federation to withdraw from that agreement.
    Question. If these programs remain linked, what is your 
understanding of Russia's commitment to disposing of excess plutonium 
using technology other than MOX?
    Answer. The Russian commitment remains to dispose of plutonium as 
nuclear fuel irradiated in reactors. As I understand it, the 2000 
agreement allows for any disposition method that the parties agree to 
in writing. It is not specific as to the type of fuel or reactors used. 
The United States expects Russia to fulfill its commitment and will 
work with the Russians to develop a credible plan to do so.
    Question. What are the costs, benefits, and risks to the U.S. of 
exploring or agreeing to another disposition path with Russia?
    Answer. The United States and Russia remain committed to disposing 
of their surplus weapon-grade plutonium. The two sides are exploring 
possibilities for using Russian advanced reactors instead of light 
water reactors. A potential cost of exploring another disposition path 
is the delay and additional costs of an important nonproliferation 
goal. The risks would depend on what disposition method is used if 
other than MOX. The benefit would be the identification of a specific 
disposition path and an associated timeframe that both sides will drive 
to completion.
    Question. What are the advantages and disadvantages, in your view, 
of continuing to link the U.S. and Russian programs?
    Answer. Plutonium disposition is an important nonproliferation 
program for both the United States and Russia. The U.S.-Russian 
agreement is an important commitment to achieving the disposition of 
the Russian plutonium, regardless of the means of disposition. In 
addition, there are a number of other benefits including reducing the 
costs for plutonium storage as well as for safeguards, security, and 
safety.
    Question. If the U.S. and Russia programs remain linked, would it 
be preferable, in your judgment, for them to continue to proceed at a 
parallel pace, or should they proceed with a specific end date for 
disposition, but not at a parallel pace?
    Answer. Both parties have agreed that their programs will proceed 
in parallel to the extent practicable. We intend to move forward with 
the U.S. program and to hold Russia to its commitment to implement its 
program.
    Question. If the U.S. and Russian programs are delinked, would you 
still consider the U.S. disposition program to be a nonproliferation 
program, or would it then become a domestic program for disposing of 
excess U.S. material that should be considered in the wider context of 
DOE nuclear material disposition and cleanup?
    Answer. Dispositon of the U.S. plutonium is an important 
nonproliferation program because it enables us to hold Russia to its 
commitment to dispose of its plutonium and enables the United States to 
meet its nonproliferation commitments.
    Question. If the U.S. and Russian programs were to be delinked, 
would MOX, in your view, be the most cost effective method for 
disposing of the excess U.S. material at this stage?
    Answer. It is my understanding that DOE is pursuing the MOX program 
as an optimal solution to various U.S. objectives--nonproliferation, 
reducing storage, safeguards, and security costs, and improving the 
safety of nuclear material. If confirmed, I would also seek to use 
disposition of U.S. plutonium to continue to insist on the development 
and execution of a credible plan for disposition of Russian plutonium, 
as provided for in the 2000 agreement.
    Question. If confirmed, what steps would you take to ensure the 
development and presentation to Congress of a clear path forward for 
both the Russian and the U.S. programs before any more funds are put 
into these programs?
    Answer. If confirmed, I will seek to ensure that a clear and 
credible path for plutonium disposition in the United States and Russia 
is presented to Congress and will consult with Congress on the 
appropriate way forward.
  department of homeland security's domestic nuclear detection office
    Question. Last year, a DNDO was established within DHS. This office 
was to be a national-level, jointly staffed office within DHS to 
strengthen the Nation's ability to detect and prevent attempts to 
smuggle nuclear or radiological materials through U.S. ports that could 
be used by terrorists in nuclear devices or dirty bombs. The office was 
also tasked with coordinating domestic research and development for 
detection, identification, and reporting of radiological and nuclear 
materials in U.S. ports and at U.S. border crossings. The office 
coordinates with other agencies including DOE, the Department of 
Defense (DOD), the Department of State (DOS), and the Nuclear 
Regulatory Council, that play a role in the development and deployment 
of nuclear detectors for use in domestic or overseas programs.
    Given that the DOE has historically led U.S. efforts in research 
and development of nuclear detection technologies, how have DOE's 
mission and programs been affected by the establishment of the DNDO?
    Answer. Defense Nuclear Nonproliferation and DNDO each have 
important, distinct, and complementary missions. The Nonproliferation 
Research and Development (R&D) program coordinates fully with DNDO, and 
in particular the DNDO Office of Transformational Research and 
Development, to conduct long-term nuclear detection R&D. It is my 
understanding that NNSA and DNDO have worked closely over the past year 
to ensure that each organization's R&D programs are distinct, yet 
complementary. This has been done both through providing exchange 
personnel and technology exchange/sharing.
    Question. What steps would you take, if confirmed, to ensure that 
DOE has a positive relationship, including a clear delineation of 
respective responsibilities, with the DNDO?
    Answer. If confirmed, I will work to maintain a strong relationship 
with senior leadership within DNDO. I will further encourage the 
members of my staff to continue to maintain the close working 
relationships already in place with their peers at DNDO. The key to a 
successful partnership is a common understanding of the roles and 
responsibilities of each organization. These responsibilities are 
clearly defined within existing congressional language and in NSPD-43/
HSPD-14, which directed the formation of DNDO. I understand that the 
progress made within both organizations over the past year can be 
directly attributed to the close working relationship that has been 
cultivated through both senior-level interactions and daily exchange 
through DOE/NNSA staff detailed to DNDO. Maintaining a dialogue with 
DNDO will ensure that we continue to fill in any gaps and, to the 
extent that is prudent, reduce any overlaps.
    Question. What is the relationship, if any, between the DOE 
Megaports and Second Line of Defense programs and the DNDO program?
    Answer. NNSA and DNDO each have important, distinct, and 
complementary roles. Given NNSA's role as the primary agency 
responsible for international deployments of radiation detection 
equipment, NNSA routinely exchanges information with DNDO to ensure 
that its efforts support a comprehensive global nuclear detection 
architecture. In particular, NNSA works collaboratively with DNDO and 
DOS to identify mechanisms to share overseas alarm data from second 
line of defense deployments. In addition, NNSA and DNDO are also 
jointly establishing operational requirements to support the 
development of future detection systems. NNSA supports DNDO's 
operational testing and evaluation program and continues to monitor 
DNDO technology, as improvements in nuclear detection equipment will 
certainly benefit our international deployment efforts.
                      border security coordination
    Question. Section 3116 of the National Defense Authorization Act 
for Fiscal Year 2006 (Public Law 109-163) required the Secretary of 
Energy to submit a report, in consultation with the Secretary of 
Defense, the Secretary of State, and, as appropriate, the Secretary of 
Homeland Security, on the management of border security programs in the 
countries of the former Soviet Union and other countries.
    What would you do, if confirmed, to ensure better coordination of 
the many and growing U.S. Government programs to enhance border 
security in other nations?
    Answer. If confirmed, I will make this a priority and draw upon my 
interagency experience to do so. I would also direct the senior 
managers of the Second Line of Defense program to continue to 
coordinate closely their work with other related U.S. border security 
efforts. I understand that interagency coordination has greatly 
improved with the establishment of coordinating committees, such as the 
International Nuclear and Radiological Border Security Efforts Sub-PCC 
(INRBSE). I am committed to playing a prominent role in interagency 
efforts to address critical implementation issues. I understand that 
reaching interagency consensus on the best approach to facilitating 
enhanced datasharing with our foreign partners is of particular 
importance.
            doe nonproliferation programs in iraq and libya
    Question. DOE launched an initiative in 2004 to provide employment 
opportunities for Iraqi scientists, technicians, and engineers who may 
have been involved in Iraqi WMD programs. This initiative was intended 
to support reconstruction efforts in Iraq and to prevent the 
proliferation of WMD expertise to terrorists or proliferant states.
    What is the status and progress of this program?
    Answer. Since 2003, DOE has funded projects intended to ensure 
those experts with WMD-related knowledge do not again become a 
proliferation threat. Initial survey work involving over 200 scientists 
revealed Iraqi needs in research on public health, water, the 
environment, and civil engineering. Currently, DOE is funding six 
civilian technical projects that employ WMD scientists. This ongoing 
effort, coordinated with DOS, supports the broader U.S. and Iraqi 
Government reconstruction efforts. DOE/NA-24 has committed a total of 
$3.75 million to this since fiscal year 2004.
    Question. How has this program been marketed to Iraqis who may be 
eligible to participate?
    Answer. DOE/NNSA works primarily through an Arab partner, the Arab 
Science and Technology Foundation (ASTF) and Sandia National 
Laboratory, which has many regional partnerships with Arab countries, 
to reach out to Iraqi scientists. This enables us to focus less on the 
U.S. Government connection and instead on the general call for 
proposals and engagement opportunities that are present in the work.
    Question. How many Iraqi scientists, if any, have been able to take 
advantage of this opportunity to put their talents to work on 
productive, non-military research activities?
    Answer. The projects DOE supports all contribute to civilian 
scientific capacity building. Recently, 6 civilian scientific projects 
that employ 29 scientists, including 12 with a WMD background, were 
funded. They include:

        <bullet> water purification techniques,
        <bullet> the development of new composite material for use in 
        artificial limbs,
        <bullet> improving the indigenous capability of the Iraqi 
        pharmaceutical industry,
        <bullet> the improvement of corrosion resistance in steel,
        <bullet> analysis of the level of radionuclides in water and 
        sediments in the Tigris-Euphrates, and
        <bullet> measurement of natural radiation levels in Western 
        Iraq.

    Such material science and radiation safety projects can be said 
specifically to suit scientists with WMD skills and expertise in 
nuclear weapons/energy, weapons safety, weapons design, operational 
engineers, and explosives.
    Question. How are the scientists and their families protected from 
reprisals?
    Answer. I understand that NNSA is sensitive to the dangers these 
scientists face. That danger is also one of the reasons why ASTF 
remains the organizational face of this project, thereby creating 
distance between the U.S. Government and the individuals involved. 
However, it is not just a U.S. Government affiliation that can endanger 
scientists, but the very status of former weapon scientists--in 
particular, if connected with the current Iraqi government or a 
university. That said, it is a testament to the courage and basic 
desire of the scientific community to rebuild its country that these 
scientists continue to work on civilian scientific projects.
    Question. In your view, could this program be expanded should 
demand for it increase in the future?
    Answer. I understand that starting with the baseline survey in 
2004, NNSA has sought to build the foundation for a program that can 
grow. Commercialization and support for new projects are both goals for 
NNSA in the coming year, although these should remain tied firmly to 
the goal of preventing proliferation. As NNSA increases the number of 
projects it funds, its understanding of where--and how to engage--
former WMD scientists also increases. This is not an open-ended 
program, but will make a significant difference while it continues on 
the ground.
    Question. What is the status of DOE's efforts to establish a 
similar program in Libya?
    Answer. In support of the President's intent to recognize Libya's 
decision to eliminate its WMD program, NNSA is working with DOS to 
engage and redirect WMD scientists and facilities in Libya. The program 
encompasses immediate engagement of WMD scientists through the Global 
Initiatives for Proliferation Prevention (GIPP) program and broader 
scientific collaboration through the Sister Laboratory program. DOE/
NNSA will apply $2-3 million annually for 3-5 years to engage 
scientists and former weapons experts and will draw on the resident 
expertise at DOE/NNSA's national laboratories.
    NNSA is targeting three primary institutes for its scientist 
redirection activities in Libya: the Center for Mechanical Industries 
(CMI), the Tajura Renewable Energies and Water Desalination Research 
Center (REWDRC), and the National Bureau of Research and Development 
(NBRD), which is NNSA's counterpart organization. NNSA has developed 
five direct Scientist Engagement projects with those institutes in the 
areas of water desalination and purification, groundwater management, 
and machine tool use. NNSA also has plans to develop an analytical 
laboratory for use in water desalination and purification efforts in 
Libya.
    The Sister Laboratory program is also working with NBRD and REWDC 
in five areas that promote peaceful nuclear collaboration, mainly 
focused on radioisotope production; health physics; neutron activation 
analysis; environment, safety, and health; and radioactive waste 
disposal projects.
                   global threat reduction initiative
    Question. The DOE Global Threat Reduction Initiative (GTRI) aims to 
identify and secure radiological materials around the world against 
diversion for use in radiological dispersion devices.
    If confirmed, what priority would you give to this important anti-
terrorism initiative?
    Answer. A terrorist attack using a radiological dirty bomb could 
cause significant disruptions. I think it is critical that we continue 
our efforts at balancing our responses to the numerous threats we face 
against the resources we have available.
    Question. What strategy, if any, has the DOE developed for 
prioritizing its activities under this initiative so that the material 
that poses the highest risk is identified and addressed first?
    Answer. I understand that the GTRI program has developed and 
continues to refine a prioritized strategy for radiological threat 
reduction. This strategy takes into consideration the radioactivity 
levels of the materials, the proximity of these materials to key U.S. 
targets (domestic, U.S. overseas military bases, and key shipping 
ports), and the level of threat in the host country. I understand that 
the program's priority is to protect the largest radioactive sources 
closest to potential U.S. targets.
    Question. What is the policy governing work with countries that can 
afford to pay for necessary upgrades?
    Answer. I believe that countries with the means should not only pay 
for protecting radiological materials in their countries but they 
should also be encouraged to take a leadership role in protecting 
radiological material in their region.
                nuclear security cooperation with russia
    Question. At the Bratislava Summit in February 2005, Presidents 
Bush and Putin agreed on a comprehensive joint action plan for 
cooperation in nuclear security, including a plan to complete security 
upgrades of Russian nuclear facilities and warhead sites by the end of 
2008.
    If confirmed, what elements of the Bratislava agreements for which 
DOE is responsible do you think should be implemented first?
    Answer. All five elements are a vital part of the process launched 
at Bratislava, and we are making progress in each of the five areas. 
One is not sequentially dependent on another.
    Question. If confirmed, how would you ensure the agreed completion 
date is met?
    Answer. The Joint Action Plan derives from a document presented to 
both Presidents, and it provides specific completion dates for the 
upgrade work at each of the agreed upon sites. Although NNSA is 
confident that it will conclude these efforts by the end of 2008, if 
confirmed, I will closely monitor progress and will work closely with 
my Russian counterparts to maintain high-level support for reaching 
this goal. The agreed completion date is a priority for both President 
Bush and President Putin and is fundamentally in the national interests 
of both parties, which is the strongest assurance that the target is 
met.
               nonproliferation research and development
    Question. If confirmed, would you commit to review the 
Nonproliferation Research and Development program to ensure that the 
requirements for the program are identified, that the program is 
meeting the needs of the users, and that the program is fully funded?
    Answer. Yes. I believe Nonproliferation Research and Development 
makes an important and unique contribution to U.S. national security. A 
fundamental duty of the Deputy Administrator for Defense Nuclear 
Nonproliferation includes review of each of the relevant programs to 
ensure that they are fulfilling their missions and are appropriately 
funded. I fully intend to ensure that this program is meeting the needs 
of its end users, and that the research and development program has 
clearly defined metrics and outcomes, while maintaining a high-quality, 
cutting-edge research program using all resources available to the U.S. 
Government. In keeping with the President's request, the fiscal year 
2007 funding for this program is at an appropriate level to meet 
mission requirements.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Deputy Administrator for 
Defense Nuclear Nonproliferation?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Question for the record with answer supplied follows:]
             Question Submitted by Senator Daniel K. Akaka
                            disposal of gtcc
    1. Senator Akaka. Mr. Tobey, according to a recent National Nuclear 
Security Administration (NNSA) report regarding the recovery and 
storage of greater than class C (GTCC) low-level radioactive sealed 
sources, while the NNSA has done an excellent job of clearing a 
nationwide backlog of GTCC, no permanent disposal site has been 
designed. What role do you believe that the NNSA should play in 
development of a permanent disposal site?
    Mr. Tobey. The responsibility for the development of a permanent 
disposal site for GTCC low-level radioactive waste gas been assigned by 
the Secretary of Energy to the Office of Environmental Management (EM) 
because development of disposal capacity is within their mission and 
core expertise. It is my understanding that the NNSA will continue to 
recover sources that pose a security, health, or safety threat to the 
United States, and further that NNSA will work with EM in a supporting 
role to provide information and data related to the material to be 
disposed of in the developed disposal site. I also understand that 
Secretary Bodman expects the Department of Energy as a whole to work 
together as a team to carry out its responsibilities for the 
development of a permanent disposal facility.
                                 ______
                                 
    [The nomination reference of William H. Tobey follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                      May 11, 2006.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    William H. Tobey, of Connecticut, to be Deputy Administrator for 
Defense Nuclear Nonproliferation, National Nuclear Security 
Administration, vice Paul Morgan Longsworth, resigned.
                                 ______
                                 
    [The biographical sketch of William H. Tobey, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of William H. Tobey
    William H. Tobey is currently Director of Counterproliferation 
Strategy on the National Security Council staff at the White House. His 
responsibilities currently include U.S. policy on Iran, North Korea, 
and Libya nonproliferation issues and missile defense. He has been a 
member of the U.S. delegation to the Six-Party Talks during the last 
three rounds of negotiations. Previously, he served as Director of 
Defense Policy and Arms Control on the National Security Council staff 
from 1986 to 1993. In that capacity, his responsibilities included U.S. 
policy on the Strategic Defense initiative and related arms control, 
arms control compliance and verification, and the national security 
aspects of space policy. Prior to that, he was an advisor to the U.S. 
Delegation to the Nuclear and Space Talks with the Soviet Union from 
1985-1986, serving on both the START and Defense and Space negotiating 
groups. He entered government service in 1984 as a Presidential 
Management Intern in the Office of the Secretary of Defense.
    From 1993 to 2002, Mr. Tobey worked at investment banking and 
venture capital firms. His last position in the private sector was head 
of institutional convertible securities sales for Wachovia Securities, 
Inc., where he had responsibility for managing sales/trading operations 
for a top 10 firm in the convertible bond and preferred stock markets.
    Mr. Tobey holds a Bachelor of Science degree from Northwestern 
University and a Master of Public Policy Degree from Harvard 
University's John F. Kennedy School of Government.
    He and his wife, Elizabeth Tobey, reside in Bethesda, Maryland, 
with their daughters Emma and Beatrix.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by William H. 
Tobey in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    William Hayward Tobey (Jeffrey Hayward Tobey until August 1971).

    2. Position to which nominated:
    Deputy Administrator for Defense Nuclear Nonproliferation in the 
National Nuclear Security Administration at the Department of Energy.

    3. Date of nomination:
    May 11, 2006.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    August 2, 1959; Decatur, IL.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Elizabeth Ness Tobey.

    7. Names and ages of children:
    Emma Channer Tobey, age 12.
    Beatrix Claire Tobey, age 10.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Harvard University, John F. Kennedy School of Government, 9/1982-6/
1984, Master of Public Policy, 6/1984.
    Northwestern University, 9/1977-6/1981, Bachelor of Science, 6/
1981.
    Glenbrook South High School, 9/1973-6/1977, High School Diploma, 6/
1977.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Director of Counterproliferation Strategy, the National Security 
Council, the White House, Washington, DC, August 11, 2002-Present.
    Head of Institutional Convertible Securities Sales, Wachovia 
Securities, Inc., Old Greenwich, CT, June 2000-2002.
    Senior Vice President, Partner, Forum Capital Markets, Old 
Greenwich, CT, January 1997-June 2000. (Wachovia Securities acquired 
Forum Capital Markets in 2000.)
    General Partner, Embryon Venture Capital LLC, Bethesda, MD, March 
1996-January 1997.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Summer Intern, Office of Management and Budget, 1983.
    Presidential Management Intern, Office of the Secretary of Defense, 
September 1984-September 1986, included service at the Pentagon and as 
Advisor to the U.S. Delegation to the Nuclear and Space Talks with the 
Soviet Union in Geneva, Switzerland.
    Director of Defense Policy and Arms Control, the National Security 
Council, September 1986-January 1993.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Limited Partner, Founders Financial, L.P.
    Limited Partner, JMG Capital, L.P.
    (These are investments, also declared on my SF278, in which I have 
no role in the management of the partnerships.)
    Dean's Alumni Leadership Council, John F. Kennedy School of 
Government, Harvard University.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Glen View Club, Golf, IL.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    Research Assistant, National Republican Senatorial Committee, June 
1981-September 1982.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    I have been registered to vote as a Republican over the past 5 
years.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    National Merit Scholarship Finalist.
    Presidential Management Internship, 1984-1986.
    Outstanding Performance Awards during periods of government 
service.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    I wrote an Op-Ed piece published in the Madison, WI, newspaper on 
ballistic missile defense in 1986. I do not recall the title.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  William H. Tobey.
    This 19th day of May, 2006.

    [The nomination of William H. Tobey was reported to the 
Senate by Chairman Warner on August 1, 2006, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on August 3, 2006.]
                              ----------                              

    [Prepared questions submitted to Robert L. Wilkie, Jr., by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions? If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. The 20-year history of successful operations under this 
organizational construct has demonstrated its wisdom and effectiveness. 
If Congress should pursue adaptations to this construct or if the 
Department proposes changes, I would work closely with this committee 
and Congress to provide witnesses, briefings, and the necessary 
information so Congress can make informed judgments on policy 
alternatives.
                                 duties
    Question. Section 138 of title 10, U.S.C., and DOD Directive 
5142.1, provide that the principal duty of the Assistant Secretary of 
Defense for Legislative Affairs shall be the overall supervision of 
legislative affairs of the Department of Defense (DOD). Additionally, 
the Assistant Secretary of Defense for Legislative Affairs is required 
to provide advice and assistance concerning congressional aspects of 
DOD policies, plans, and programs; to coordinate actions relating to 
congressional consideration of the DOD legislative program; and to 
coordinate responses to congressional inquiries.
    If confirmed as the Assistant Secretary of Defense for Legislative 
Affairs, what would you view as your principal responsibilities to the 
Secretary of Defense and to Congress?
    Answer. If confirmed, my primary responsibility to the Secretary 
would be to keep him informed on congressional actions, requests, 
concerns, and initiatives on matters of importance to the Secretary and 
DOD.
    Question. Assuming you are confirmed, what other duties do you 
expect that Secretary Rumsfeld will prescribe for you?
    Answer. If confirmed, I expect Secretary Rumsfeld to assign me the 
responsibility of ensuring that the Department's liaison with Congress 
is effective, responsive, user and customer friendly, and to ensure the 
Department's goals and priorities are properly articulated.
    Question. What experience do you have that would qualify you to 
perform the duties of the Assistant Secretary of Defense for 
Legislative Affairs?
    Answer. I began my professional career on Capitol Hill as Counsel 
to Senator Jesse Helms, where I served as the Senator's policy advisor 
for Armed Services, Nuclear Energy and Senate Rules and Procedure. 
Later, I served as Legislative Director for Congressman David 
Funderburk and was assigned to the Committee on International Relations 
and the Commission on Security and Cooperation in Europe.
    In 1997, I began service as the Counsel and Advisor on 
International Security Affairs to the Senate Majority Leader, the 
Honorable Trent Lott. In addition to my regular duties, I was the 
principal staffer and editor of the national security section of the 
2000 Republican Party Presidential Platform.
    From 2003-2005, I served as Special Assistant to the President for 
National Security Affairs and as a Senior Director on the National 
Security Council (NSC). In this capacity I served as a senior policy 
advisor to the President's Assistant for National Security Affairs, Dr. 
Condoleezza Rice, and to her successor, the Honorable Stephen Hadley. 
While at the NSC, I developed strategic planning for the implementation 
of the Moscow Treaty, NATO Expansion, the Millennium Challenge Account, 
and Iraqi Reconstruction.
    Finally, I hold a Juris Doctor degree from Loyola University of the 
South (New Orleans), where I received honors in Latin American Law, 
International Law, and Legislation. I was also awarded a Masters of Law 
in International and Comparative Law from Georgetown University.
                             relationships
    Question. If confirmed, what would your working relationship be 
with:
    The Secretary of Defense?
    Answer. If confirmed, I will function as the principal assistant to 
the Secretary on congressional matters. Under the Secretary's 
direction, I will be responsible for coordination of the DOD 
legislative program, liaison with Congress, participation of 
departmental witnesses in congressional hearings, responses to 
congressional inquiries, and DOD support of congressional travel.
    Question. The Deputy Secretary of Defense?
    Answer. If confirmed, I would have a similar relationship with the 
Deputy Secretary of Defense.
    Question. The Under Secretaries and Assistant Secretaries of 
Defense?
    Answer. If confirmed, my relationship with the Under Secretaries of 
Defense and the Assistant Secretaries will be to serve as their 
principal advisor regarding legislative liaison and communications with 
Congress.
    Question. The General Counsel of DOD?
    Answer. If confirmed, I would work closely with the General Counsel 
to ensure responsiveness in matters of congressional interest and to 
assist Office of the General Counsel coordination on legislation under 
consideration within the Department. I would seek the views and 
recommendations of the General Counsel on legal issues.
    Question. The Inspector General (IG) of DOD?
    Answer. I would exercise no authority or control over the DOD IG. 
If confirmed, I would be fully cooperative and supportive of the IG's 
mission.
    Question. The Chiefs of Legislative Affairs of the military 
services?
    Answer. If confirmed, I would routinely meet with the chiefs of 
legislative affairs of the military services to coordinate the 
Department's liaison mission, and ensure responsiveness to this 
committee and Congress. By DOD Directive, ultimate responsibility for 
supervision of legislative liaison activities throughout the Department 
is vested in the Assistant Secretary of Defense for Legislative 
Affairs. I would work closely with the legislative affairs offices of 
the military services to foster a climate of cooperation and support.
    Question. The Legislative Assistant to the Chairman of the Joint 
Chiefs of Staff?
    Answer. If confirmed, I would routinely meet with the legislative 
assistant to the chairman to ensure responsiveness to this committee 
and Congress.
    Question. The defense agencies?
    Answer. If confirmed, I would provide overall guidance to the 
individual defense agencies with respect to the Department's 
legislative issues. I would meet regularly with the legislative 
assistants of the defense agencies to ensure they operate consistent 
with the Department's initiatives, the Secretary's position, and to 
ensure they are responsive to congressional inquiries.
                     major challenges and problems
    Question. In your view, what are the major challenges and problems 
confronting the Assistant Secretary of Defense for Legislative Affairs?
    Answer. The most significant challenge we face is communication. I 
would work to ensure that vital information is provided to Congress in 
a timely and useful manner. Congress should not be in a position of 
reading or hearing about important issues in the media. The second 
challenge is providing timely, valuable advice to the Secretary, Deputy 
Secretary, and the key principals about congressional issues, concerns, 
or requests.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges and problems?
    Answer. If confirmed, I would continue the effort begun by my 
predecessors to reassert the appropriate oversight of the legislative 
affairs function in the Department. I would work to ensure that these 
activities associated with our mission are properly organized and 
coordinated to meet the title 10 responsibilities extended to this 
position. I would continue to advocate organizational and/or procedural 
changes to the Secretary and Deputy Secretary where or if required.
                      legislative liaison offices
    Question. Within the Office of the Secretary of Defense, the 
defense agencies, and the combatant commands, there are various offices 
which have their own congressional liaison personnel.
    What is your understanding of actions taken by the Secretary of 
Defense and previous Assistant Secretaries of Defense for Legislative 
Affairs to limit the numbers of individuals performing legislative 
liaison duties?
    Answer. The Secretary is committed to ensuring that the mandate in 
title 10 assigning the duties of managing the Legislative Program 
resides with the Assistant Secretary of Defense for Legislative 
Affairs.
    Question. If confirmed, what steps, if any, would you take to 
ensure that the Assistant Secretary of Defense for Legislative Affairs 
is the focal point for all of DOD for dealing with Congress?
    Answer. If confirmed, I would continue the efforts of my 
predecessor, on behalf of the Secretary, to ensure that all legislative 
functions of the Office of the Secretary of Defense are coordinated and 
managed by the Assistant Secretary of Defense for Legislative Affairs.
    Question. Based on your experience, does the fact that there are 
two separate offices within the Office of the Secretary of Defense 
dealing with Congress create problems?
    Answer. As with any organizational function that is bifurcated in 
such a manner, this arrangement is not optimal. With that said, in my 
experience, the Office of Legislative Affairs and the Office of the 
Comptroller are committed to working together to support the 
Department's mission and goals. Frequent coordination has been the 
routine and will continue if I'm confirmed.
    Question. Do you believe that the current practice of a separate 
liaison between the Appropriations Committees, the Office of the 
Secretary of Defense, and the budget offices of the military services 
should be continued or should all legislative affairs activities be 
consolidated under the Assistant Secretary of Defense for Legislative 
Affairs?
    Answer. If confirmed, and in consultation with the Defense 
Oversight Committees, this is something that I would examine and 
analyze. I believe that Congress does and should have significant input 
on how the Department liaisons with Congress.
               liaison with the appropriations committee
    Question. The legislative liaison with the Appropriations Committee 
is primarily carried out through the Office of the Under Secretary of 
Defense, Comptroller, not through the Office of the Assistant Secretary 
of Defense for Legislative Affairs.
    Do you believe that this arrangement allows you to fulfill your 
responsibilities under section 138 of title 10, U.S.C.?
    Answer. If confirmed, I would have a cooperative relationship with 
both the Under Secretary of Defense (Comptroller) and the 
Appropriations Committees. I would coordinate closely with the 
Comptroller's office on all matters and issues of interest to Congress 
and would include Comptroller staff in my daily staff meetings. I 
believe this arrangement would allow me to carry out the 
responsibilities under section 138 of title 10, U.S.C.
                     untimely legislative proposals
    Question. Late submission of legislative proposals by DOD to 
Congress for consideration as part of the annual National Defense 
Authorization Act has been a chronic problem. Legislative initiatives, 
which require substantial review and in many cases, testimony and 
discussion at annual posture hearings, are routinely forwarded to 
Congress too late for appropriate action.
    Based on your experience in the Department, what do you consider to 
be the reasons for the inability of DOD to provide Congress with all of 
its legislative proposals at the same time as submission of the 
President's annual budget?
    Answer. Based upon my experience, I believe this problem is due to 
poor management and a lack of emphasis. The submission process occurs 
too late in the year to meet the timelines of the budget submission and 
lacks discipline with regard to what proposals are forwarded for 
consideration.
    Question. If confirmed, what actions would you take to improve the 
Department's performance in providing timely legislative initiatives to 
Congress?
    Answer. If confirmed, I would immediately address the timeline for 
submission of legislative proposals with the General Counsel and the 
Office of Legislative Counsel where this function is managed. I would 
also address this matter with the Office of Management and Budget. 
Starting the process earlier in the year to provide the system adequate 
time to evaluate and approve the proposals is part of the solution. I 
would make more timely submissions of legislative proposals to Congress 
a priority.
         responding to questions and information for the record
    Question. The failure on the part of departmental witnesses to 
timely respond to questions for the record (QFRs) by Senators and 
requests for information for the record (IFRs) following hearings is a 
problem requiring the attention of the Assistant Secretary of Defense 
for Legislative Affairs.
    What is your assessment of the reasons for lengthy delays in 
responding to QFRs and IFRs?
    Answer. Simply put, we need to pay closer attention to the 
timelines of this committee and others of Congress to fulfill our 
responsibility to communicate with Congress in a responsive manner.
    Question. What actions have been taken, if any, during your service 
as Principal Deputy Assistant Secretary to respond to this problem?
    Answer. During my tenure, we reinvigorated our oversight and are 
holding responsible offices within the Department accountable for 
timely submission of their answers.
    Question. If confirmed, what actions would you take to improve the 
Department's performance in providing timely answers to QFRs and IFRs?
    Answer. If confirmed, I would continue to reform the entire 
legislative operation of the Department to ensure that a system of 
timelines is in place for proper response to Congress' request for 
information and for Congress' desire to have all legislative proposals 
and statements submitted to both houses in a complete and timely 
manner.
                              nominations
    Question. If confirmed, what role would you, as Assistant Secretary 
of Defense for Legislative Affairs, expect to play in the military and 
civilian nomination process?
    Answer. If confirmed, I would expect to play a primary role in 
preparing civilian nominations for confirmation, and a primary support 
role to the Chairman of the Joint Chiefs and the Services in preparing 
military nominations for confirmation. In addition, my staff and I will 
track nominations closely and ensure the committee is made aware of all 
relevant information.
                        management of detailees
    Question. The Department has been trying for almost 10 years to 
establish and uniformly enforce rules pertaining to the detailing of 
military and civilian employee personnel to the legislative branch.
    What is your understanding of the Department's rules, including 
necessary approval authority, in responding to requests by 
congressional officers for details of military or civilian employees to 
the legislative branch?
    Answer. The Secretary of Defense has engaged in a broad review of 
the role of all military officers currently assigned to non-operational 
billets throughout the Department. This includes detailees to Congress. 
The Secretary recognizes that it is vital to maintain the link between 
Congress and the Defense Department, consistent with applicable law. 
The DOD Legislative Fellows Program, while not a detail's program, is 
one key aspect of this linkage. This program is also closely monitored 
within the Department.
    Question. What are your views about the limits, if any, that should 
be placed on details of DOD military and civilian employee personnel to 
the legislative branch?
    Answer. The Secretary has emphasized the need to ensure that as 
many officers as possible are sent to operational billets as opposed to 
those in the National Capitol Region.
     military personnel requirements for the office of the asd (la)
    Question. The military departments establish and consistently meet 
personnel requirements for their respective legislative liaison 
offices, carefully selecting and training military personnel for these 
important assignments.
    What military personnel requirements, i.e., billets, presently have 
been established by service in the Office of the Assistant Secretary of 
Defense for Legislative Affairs?
    Answer. We have 10 military officers authorized in the office: 4 
Air Force, 4 Army, and 2 Navy.
    Question. What legislative or congressional experience, if any, and 
what qualifications have been required of officers nominated for 
assignments in the office of the Assistant Secretary of Defense for 
Legislative Affairs?
    Answer. Prior experience in service or joint legislative liaison 
billets is preferred. The office also seeks well-rounded officers from 
operational and staff billets that have an ability to clearly 
communicate Department policy, strategy, and priorities across the 
entire spectrum of congressional interests.
    Question. In order to fully accomplish the responsibilities as the 
Assistant Secretary of Defense for Legislative Affairs, what management 
steps, if any, need to be taken to ensure that fully qualified, 
military legislative liaison personnel in the right numbers and with 
appropriate tour lengths are assigned?
    Answer. We must continue to emphasize the importance of 
congressional relations in the Department's strategic approach to its 
overall agenda. If confirmed, I will work with the Services to ensure 
that service in the Office of Legislative Affairs enhances an officer's 
career and prepares him/her for duties of increased responsibility. 
This fits into the Goldwater-Nichols construct for the joint specialty 
officer.
  information from the office of the secretary of defense during iraq 
                              floor debate
    Question. On the afternoon of June 14, 2006, the Office of the 
Assistant Secretary of Defense for Legislative Affairs sent an e-mail 
to a number of congressional offices providing more than 75 pages of 
information in connection with the debate about certain amendments 
regarding ongoing military operations in Iraq during the Senate's 
consideration of S. 2766, the National Defense Authorization Act for 
Fiscal Year 2007. The information was apparently designed to provide 
information for use by Senators who supported the administration's 
policy on Iraq. Shortly after the e-mail was sent, it was recalled by 
the sender.
    What is your understanding of the facts and circumstances 
surrounding the preparation of the e-mail, and at whose direction was 
the information prepared?
    Answer. The Department routinely prepares position papers and 
statements of policy for use by Congress. This was an effort by the 
Department and NSC.
    Question. What role, if any, did you play in the preparation or 
dissemination of the information included in the e-mail?
    Answer. Members of my staff contributed to preparation of the 
material provided to Congress.
    Question. Why was the e-mail recalled?
    Answer. Addressees on the communicators' distribution list had 
changed resulting in several e-mail failure notices.
    Question. Do you believe it was appropriate for the Office of the 
Assistant Secretary of Defense for Legislative Affairs to prepare and 
distribute this material?
    Answer. Yes.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Defense for Legislative Affairs?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
                Question Submitted by Senator Jack Reed
                          congressional report
    1. Senator Reed. Mr. Wilkie, the National Defense Authorization Act 
for Fiscal Year 2005 included a provision (section 1107) that required 
a report to Congress on the implementation and utilization of personnel 
authorities in defense laboratories. Although this bill was signed into 
law by the President on October 28, 2004, and the law requires the 
report to be submitted no later than December 1, 2005--Congress has 
still not received this report. If confirmed, will you check into the 
status of this report and report back to the committee on its status, 
why it is late, and its expected delivery date?
    Mr. Wilkie. Yes.
                                 ______
                                 
             Question Submitted by Senator Daniel K. Akaka
                     legislative operations reform
    2. Senator Akaka. Mr. Wilkie, in your written responses to the 
advanced questions submitted by the Armed Services Committee, you 
stated that, in order to respond to congressional requests in a more 
timely manner, you have and will continue to reform legislative 
operations. What specific reforms have you already put in place to 
ensure that responses to deadlines are met? Also, in what ways, if at 
all, can this lag in response time be attributed to an inadequate 
number of personnel in the Office of Legislative Affairs?
    Mr. Wilkie. While performing as Acting Assistant Secretary of 
Defense, I have initiated a process to review the Department's 
responsiveness to congressional correspondence and to inform senior 
leadership. In my view, this is not attributable to the number of 
personnel in my office, but rather on our overall focus on answering 
the mail. If confirmed, I will continue to pursue responsiveness and 
transparency.
                                 ______
                                 
    [The nomination reference of Robert L. Wilkie, Jr., 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 26, 2006.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Robert L. Wilkie, Jr., of North Carolina, to be an Assistant 
Secretary of Defense, vice Daniel R. Stanley.
                                 ______
                                 
    [The biographical sketch of Robert L. Wilkie, Jr., which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
              Biographical Sketch of Robert L. Wilkie, Jr.
    The Honorable Robert Wilkie is the Assistant Secretary of Defense 
for Legislative Affairs (Acting). The son of an Army Artillery 
Commander, he spent his youth at Fort Bragg. He attended the 
Fayetteville (NC) City Schools. He graduated with honors from Wake 
Forest University. He received his Juris Doctor degree from Loyola 
University of the South (New Orleans), where he received honors in 
Latin American Law, International Law, and Legislation. He was also 
awarded a Masters of Law in International and Comparative Law from 
Georgetown University.
    He began his professional career on Capitol Hill as Counsel to 
Senator Jesse Helms, where he was the Senator's policy advisor for 
Armed Services, Nuclear Energy and Senate Rules and Procedure. He later 
served as Legislative Director for Congressman David Funderburk where 
he was assigned to the Committee on International Relations and the 
Commission on Security and Cooperation in Europe.
    In 1997, he began service as the Counsel and Advisor on 
International Security Affairs to the Senate Majority Leader, the 
Honorable Trent Lott. In addition to his regular duties, he served on 
the staff of the 1992 and 1996 Republican National Conventions and was 
the principal staffer and editor of the national security section of 
the 2000 Republican Party Presidential Platform.
    From 2003-2005, Mr. Wilkie was Special Assistant to the President 
for National Security Affairs and a Senior Director of the National 
Security Council. In this capacity he served as a senior policy advisor 
to the President's Assistant for National Security Affairs, Dr. 
Condoleezza Rice, and to her successor, The Honorable Stephen Hadley. 
While at the National Security Council, Mr. Wilkie developed strategic 
planning for the implementation of the Moscow Treaty, NATO Expansion, 
the Millennium Challenge Account, and Iraqi Reconstruction. .
    Mr. Wilkie is an intelligence officer in the United States Navy 
Reserve. An honor graduate of the Reserve Intelligence Officer's Basic 
Course, he is currently a Division Officer in the Maritime Threat 
Targeting Department at the Office of Naval Intelligence. He was named 
the Office of Naval Intelligence Junior Intelligence Officer (Reserve) 
of the year in 2004. He previously served with Atlantic Intelligence 
Command, Joint Forces Intelligence Command, and Naval Special Warfare 
Group Two. He is a graduate of the College of Naval Command and Staff 
and in 2002 received a Masters in Strategic Studies from the United 
States Army War College. He is also a graduate of the Joint Forces 
Staff College.
    His articles have been published in The Naval War College Review, 
Parameters, and Proceedings. He contributed a chapter on European 
Defense to the recently published ``Strategy for Empire: U.S. Regional 
Security Policy in the Post-Cold War Era.''
    Mr. Wilkie is married to the former Julia Bullard of Fayetteville, 
North Carolina. They have two small children: Adam, age 6; and Megan, 
age 4.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Robert L. 
Wilkie, Jr., in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Robert L. Wilkie, Jr.

    2. Position to which nominated:
    Assistant Secretary of Defense for Legislative Affairs.

    3. Date of nomination:
    June 26, 2006.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    August 6, 1962; Frankfurt, West Germany (father was 1st LT in U.S. 
Army, 3rd Armor Division).

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Julia Bullard.

    7. Names and ages of children:
    Adam S. Wilkie, age 6.
    Megan C. Wilkie, age 5.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Reid Ross High School, Fayetteville, NC, 1977-1980.
    Tulane University, New Orleans, 1980-1982 (No Degree).
    Wake Forest University, Winston-Salem, NC, 1982-1985, B.A., Cum 
Laude.
    Loyola University School of Law, New Orleans, 1985-1988, J.D.
    Georgetown University Law School, Washington, DC, 1989-1992, LLM, 
International Law.
    U.S. Army War College, Carlisle Barracks, PA, 2000-2002, M.S.S.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    2/2006-Present, Acting Assistant Secretary of Defense (Legislative 
Affairs), Department of Defense.
    9/2005-Present, Principal Deputy Assistant Secretary of Defense 
(Legislative Affairs), Department of Defense.
    2003-2005, Special Assistant to the President, National Security 
Council.
    1997-2003, Counsel, Office of the Senate Majority Leader (Trent 
Lott).

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    N/A

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    N/A.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    The Naval Institute.
    U.S. Army War College Alumni Association.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    Candidate for Republican Nomination for Congress (NC-7) 1996.
    Director, North Carolina Republican Party, 1996-1997.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    N/A.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    N/A.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Tulane Scholarship, 1980.
    Lyskow Lewis Appellate Advocacy Scholarship, 1987-1988.
    American Jurisprudence Awards in Latin American Law, Legislation 
and International Law.
    Bustamante Award of the Society of Jesus for Excellence in 
International Law, 1987.
    Moot Court Board, 1987-1988.
    Honor Graduate Navy Intelligence Officers Basic Course.
    Office of Naval Intelligence Officer of the Year (Reserve), 2004-
2005.
    Navy Achievement Medal.
    Global War on Terrorism Service Medal.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Navy 2001--Back to the Future, Naval War College Review, Spring 
2000.
    Balancing Star Wars and Muddy Boots, Proceedings, October 2000.
    Fortress Europe: European Defense and the Future of the North 
Atlantic Alliance, Parameters, Winter 2002-2003.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    N/A.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Robert L. Wilkie.
    This 10th day of July, 2006.

    [The nomination of Robert L. Wilkie was reported to the 
Senate by Chairman Warner on August 1, 2006, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on September 29, 2006.]


 NOMINATION OF LT. GEN. JAMES T. CONWAY, USMC, FOR APPOINTMENT TO THE 
       GRADE OF GENERAL AND TO BE COMMANDANT OF THE MARINE CORPS

                              ----------                              


                        THURSDAY, JULY 27, 2006

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
room SR-222, Russell Senate Office Building, Senator John 
Warner (chairman) presiding.
    Committee members present: Senators Warner, McCain, Talent, 
Thune, and Levin.
    Committee staff members present: Charles S. Abell, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Ambrose R. Hock, 
professional staff member; Derek J. Maurer, professional staff 
member; David M. Morriss, counsel; Stanley R. O'Connor, Jr., 
professional staff member; Sean G. Stackley, professional staff 
member; Diana G. Tabler, professional staff member; and Richard 
F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; Evelyn N. Farkas, professional staff member; 
Creighton Greene, professional staff member; Gerald J. Leeling, 
minority counsel; and Michael J. McCord, professional staff 
member.
    Staff assistant present: Pendred K. Wilson.
    Committee members' assistants present: Ann Loomis, 
assistant to Senator Warner; Marshall A. Salter, assistant to 
Senator McCain; and Stuart C. Mallory, assistant to Senator 
Thune.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. I'm advised that Senator Levin will soon 
be with us, so we'll start this very important hearing.
    Every one of us who have been privileged--and I underline 
the word ``privileged''--to wear marine green are very pleased 
to have before us today the President's nominee to be 
Commandant of the United States Marine Corps, succeeding 
General Hagee, who's had a very distinguished career. Having 
gotten to know you quite well through the years, I am confident 
that you will find your place in the history of commandants and 
stand as tall as any of them, in terms of your accomplishments 
and leadership for the wonderful men and women of the United 
States Marine Corps.
    I will forego the balance of my statement for a moment, and 
invite our distinguished colleague from Missouri, the chairman 
of the Seapower Subcommittee, landlocked State though it may 
be----[Laughter.]
    You handle your responsibilities very well.
    Senator Talent. We're hopeful someday getting the Navy to 
steam up the Mississippi, Mr. Chairman, maybe turn St. Louis 
into a blue-water port. [Laughter.]
    Chairman Warner. Didn't Grant do that at one time? 
[Laughter.]
    Senator Talent. I think he maybe steamed down and up at the 
same time. [Laughter.]
    Chairman Warner. Yes, that's my recollection. [Laughter.]
    Senator Talent. Mr. Chairman, it's with great pleasure that 
I introduce a fellow Missourian to the committee. He certainly 
needs no introduction to this committee, but I reintroduce him, 
might be the better way of putting it. I also want to welcome 
him and his wife, Annette, and their son, Scott, and his wife, 
Tara, to the committee today.
    Lieutenant General Conway grew up in St. Louis, Mr. 
Chairman. He played football, baseball, and basketball at 
Roosevelt High School. As the General and I were discussing 
yesterday, if you're from St. Louis, where you went to high 
school is a big deal, so, you have to mention that in any 
introduction. However, he went on to graduate from Southeast 
Missouri State University in Cape Girardeau, a great 
institution, where he met his wife, Annette.
    The General comes from a tradition of service, and he is 
now the leader of a true Marine Corps family. His father was a 
World War II veteran who was wounded three times. His sons, 
Brandon and Scott, are Marine Corps officers, and his daughter 
is married to a marine.
    The General served two combat tours in Iraq as the 1st 
Marine Expeditionary Force (MEF) commander. He led his marines 
to Baghdad, and he returned a little over a year later to 
support the new democracy there.
    He brings, Mr. Chairman, a wealth of knowledge and 
experience to this new post which he has gleaned from his 36-
plus years in the Marine Corps. His service includes a 13-month 
deployment off the coast of Beirut in the early 1980s, an 8-
month deployment as a battalion commander in Operation Desert 
Storm, command of the Marine Corps Officers Training in 
Quantico, President of the Marine Corps University, and all the 
way up through his current job as Director of Operations, or J-
3, on the Joint Staff.
    He has a lot of challenges in front him, Mr. Chairman. We 
all are familiar with those. I have a great deal of confidence 
in him. I'm very hopeful that the committee will quickly vote 
to confirm him, and the Senate will do, as well, so he can get 
to this new post. It's certainly a pleasure for me to welcome 
General Conway, a great Missourian who's going to go on and do 
even greater things for his country.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator. Again, I commend you 
for your work on this committee, and particularly the Seapower 
Subcommittee, of which the United States Marine Corps is a part 
of our Marine Corps team.
    Senator Talent. Mr. Chairman, we share a special interest 
in the Navy, don't we? Yours, a little bit longer-standing than 
mine.
    Chairman Warner. I was going to put into the record--I 
think it's important for me to establish that my serial number 
is 050488----[Laughter.]
    Chairman Warner.--date of rank, June 1949. That's before 
most of the people in this room were born. But, anyway, I'm 
proud to still be here, and I tell you, I've said it before, I 
would not be in the United States Senate today had it not been 
for what the men and women of the Armed Forces did for me, not 
what I did, maybe, for them, in training me in both the Navy 
and the Marine Corps, and I'm everlastingly grateful. Together 
with my good friend Senator Levin and colleagues on this 
committee, we try to do our very best for the current 
generation of men and women in the United States Services. That 
is our duty and our responsibility. We owe them no less.
    This morning, Senator Levin and I had breakfast with the 
Secretary of Defense, and we started that breakfast by saying 
that we all recognize in the executive branch and the 
legislative branch, that never before in the history of this 
country have we ever had a finer group of men and women in 
uniform than America has today in its Armed Forces. The Marine 
Corps is an integral part of that structure. I am confident 
that you will be confirmed, and that you will--I believe it's 
in November--take over the leadership of that Corps.
    We welcome everybody. I wanted to talk a little bit about 
another facet of your distinguished career, and that relates to 
your wonderful family, and most particularly your wife. We did 
a careful bit of research, because the military today is very 
much a family-oriented organization. All branches of the 
Services, and the families play such a pivotal and important 
role. But a word or two about Annette Conway, what she has done 
for the men and women of the Armed Forces: she has been a 
volunteer for the United Service Organization (USO) and the 
Armed Services Young Men's Christian Association; presently 
serves on the board of directors of the Injured Marine Semper 
Fi Fund, which was founded on May 18, 2004, by a small group of 
concerned Marine Corps spouses to provide financial grants and 
other assistance to marines, to sailors, and to families of 
those injured serving our Nation. The Injured Marine Semper Fi 
Fund has assisted in over 1,400 cases, and given more than $2.7 
million in grants to our wounded heroes and their families. How 
fortunate you are, General, to have had this extraordinary 
individual as your partner for life.
    A word to your sons. I've always been very proud of my 
father, who was a medical doctor and served in the trenches in 
World War I as a young Army captain caring for the wounded. He, 
indeed, was an inspiration to me throughout my life. I'll never 
forget one time. We were in here confirming a chief of staff of 
the United States Air Force, and I recollected to him that when 
I was Secretary of the Navy, his father was chief of staff of 
the United States Air Force, and I asked him, ``As a First 
Lieutenant, how did you manage that relationship?'' He 
unhesitatingly responded to the committee. He said, ``Every 
morning I got up, I tried to determine where the old man was, 
and then tried to position myself on the other side of the 
world.'' [Laughter.]
    Chairman Warner. So, good luck to the two sons and the son-
in-law. [Laughter.]
    General Conway was commissioned in 1970 as an infantry 
officer, and has had an extraordinary career commanding marines 
in recruiting, training, and educational capacities and in 
operational assignments at the company, battalion, division, 
and expeditionary force levels. You've served through all the 
branches from the bottom to the very top, served as an 
operation officer for the 31st Marine Amphibious Unit, which 
served off the coast of Lebanon just prior to the suicide 
attacks on the marine barracks of October 23, 1983. You and I, 
in our discussion this week, paused a moment to think about 
that incident. John Tower was chairman of the Committee of the 
Armed Services then, and I remember he corralled me, and we 
saddled up and arrived just over 48 hours after that tragedy. I 
can still see those barracks, a heap of rubble, smoke still 
coming up, and operations going on to make sure there was no 
one still alive. We'll not witness that chapter again, but 
we'll not forget it.
    General Conway commanded the 3rd Battalion, 2nd Marines in 
1990 in Operations Desert Shield and Desert Storm, assumed 
command of the 1st Marine Division in 2000, and of the 1st 
Marine Expeditionary Force in November 2002, commanded the 1st 
MEF during two combat tours in Iraq, and currently serves as 
the Director of Operations, J-3, of the Joint Staff.
    General, you have been recognized for your leadership from 
the time that you were a company officer all the way through 
these distinguished assignments. You will assume this office, 
if confirmed, as an individual who has had the experience 
needed to meet this complex world which we face today.
    If I could just make one other observation, and that is, I 
do have recollections of World War II, Korea, Vietnam, and 
today, and I have never seen, in the history of the United 
States, a more complex, a more challenging set of problems than 
faces the Commander in Chief, our President, and his team of 
leaders in uniform and out of uniform. We're fortunate that you 
and your family are willing to step up and take on another 4 
years of service as a part of that team.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman.
    Let me add my thanks to General Conway and to his family. 
Your comments about his family are right on target, Mr. 
Chairman. They are shared by every member of this committee. We 
understand the role of the families in making it possible for 
people like General Conway to serve our country. We are as 
grateful to them as we are to you, and that is mighty grateful.
    I want to say, up front, that I believe that General Conway 
is an excellent choice to lead the U.S. Marine Corps. I am 
impressed by his military record, but I'm even more impressed 
by his ability to think critically and with great insight about 
the challenges facing the Marine Corps and this Nation. I 
particularly appreciate his candor and willingness to tell it 
like it is. I believe that trait has served him, the Marine 
Corps, and this Nation well in the past, and will be even more 
important in the future.
    General Conway is one of our most experienced combat 
commanders. He commanded the 1st Marine Expeditionary Force 
during the major combat operations in Iraq, and then 
subsequently returned with the 1st Marine Expeditionary Unit to 
begin to deal with the burgeoning insurgency. He understands 
the tactics required to conduct full-spectrum warfare. He 
understands how those tactics need to be adjusted to deal with 
the complexities of a counterinsurgency campaign. His advice 
and counsel in that regard have been, and will continue to be, 
invaluable. I, for one, expect to tap into that advice and 
counsel frequently.
    Our marines have served magnificently in Iraq, Afghanistan, 
and other trouble spots around the globe. They have never 
failed us, and I know that they never will.
    However, the Marine Corps is under increasing stress 
maintaining a significant portion of its force structure in 
Iraq over the last 3 years. There is stress on the marines, 
themselves, who have served multiple combat tours, and there is 
stress on equipment, which has been used extensively in very 
harsh conditions.
    The marines went to war with units that were not optimally-
equipped or organized for a long counterinsurgency effort. Unit 
equipment lists had to be adjusted to add more radios, machine 
guns, night-vision devices, and armored trucks, including up-
armored Humvees, to lightly equip marine units to allow them to 
operate over extended distances for a long ground campaign. To 
do so, pre-positioned stocks were stripped, and marine units 
outside of Iraq were raided for equipment to supply units in 
theater.
    While the Marine Corps is taking steps to fix those 
problems, unit readiness rates have fallen, particularly for 
those units which have rotated out of Iraq, but which don't 
have enough equipment on which to train for their next 
rotation.
    I am very concerned about the consequences, should those 
units be required for contingencies outside of Iraq. The Marine 
Corps has been requesting supplemental funding to meet its 
requirements for reset and the costs of war, but I believe 
there is quite justifiable angst in the Marine Corps that the 
supplemental funding will not keep pace with its needs, 
especially as the war drags on and equipment is used up.
    I share those concerns. I look forward to General Conway's 
testimony on the extent of the readiness challenges facing the 
Marine Corps, his assessment of the level of readiness and the 
risk incurred because of that level of readiness, and what must 
be done to raise Marine Corps readiness to acceptable levels.
    The President has said that as Iraqi security forces stand 
up, we will stand down. The training and equipping of those 
Iraqi security forces is nearly complete. General Dempsey, who 
is responsible for that training and equipping, has said that 
the Iraqi army should be fully-manned and trained by the end of 
this year. General Casey, commander of our forces in Iraq, has 
said, on more than one occasion, that he believes that there 
will be fairly substantial U.S. troop reductions in Iraq this 
year. Given his experience in Iraq, I am very interested in 
hearing General Conway's perspective on the general situation 
in Iraq, on the strategy and tactics of the U.S. forces, and 
what he foresees for the future.
    Again, Mr. Chairman, I very warmly welcome General Conway 
and his family. He is a highly-experienced and dedicated 
officer, and he will make a magnificent commandant.
    Thank you.
    Chairman Warner. Senator Levin, we thank you. That is a 
very fine statement that you've delivered on behalf of this 
distinguished nominee. I personally appreciate it.
    Senator Levin. Thank you.
    Chairman Warner. Senator McCain.
    Senator McCain. I don't have any statement, Mr. Chairman, 
except to say that obviously this is a highly qualified and 
outstanding member of the United States Marine Corps, and I'm 
pleased to have him continue to serve. I, like Senator Levin, 
have some questions, and will seize this opportunity to ask 
some questions about his view of the situation in Iraq. I'm 
sure he will respond with his usual candor.
    I thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator McCain.
    Therefore, I'll proceed with the matters of routine for all 
nominees, and then, Senator McCain, I'll yield to you first for 
questions, because I'm going to stay throughout the whole 
hearing.
    We've asked the General, as we ask all of our nominees, a 
series of advance policy questions. You've responded to those 
questions. Without objection, I'll make the questions and 
responses a part of the record.
    May I thank Charlie Abell, Rick DeBobes, and other staff 
who, when I returned from the Pentagon the other day and 
decided we'd go forward, it's through their very able work that 
we are going forward here today.
    I also have certain standard questions we ask of every 
nominee who appears before the committee. So, General, if you'd 
please respond to each of these questions:
    Have you adhered to applicable laws and regulations 
governing conflict of interest?
    General Conway. Yes, sir, I have.
    Chairman Warner. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    General Conway. No, sir, I have not.
    Chairman Warner. Will you ensure that your staff complies 
with deadlines established for requested communications, 
including questions for the record, in the hearings before the 
Congress of the United States?
    General Conway. Yes, sir, I will.
    Chairman Warner. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    General Conway. Yes, sir, I will.
    Chairman Warner. Will those witnesses be protected from any 
possible reprisal for their testimony or briefings?
    General Conway. Yes, sir, they will.
    Chairman Warner. Do you agree, if confirmed, to appear and 
testify, upon request, before this committee?
    General Conway. Yes, sir, I do.
    Chairman Warner. Do you agree to give your personal views--
I repeat, your personal, professional views when asked before 
this committee to do so, even if those views differ from those 
of your superiors in the administration?
    General Conway. Yes, sir, I do.
    Chairman Warner. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly constituted committee of 
Congress or to consult with the committee regarding the basis 
for any good-faith delay or denial in providing such documents?
    General Conway. Yes, sir, I will.
    Chairman Warner. General, the floor is yours for such 
statement as you may wish to make.
    General Conway. Thank you, sir.

   STATEMENT OF LT. GEN. JAMES T. CONWAY, USMC, NOMINEE FOR 
APPOINTMENT TO THE GRADE OF GENERAL AND TO BE COMMANDANT OF THE 
                          MARINE CORPS

    General Conway. Thank you for your gracious comments, both 
Mr. Chairman and Senator Levin, regarding my family.
    Senator Warner, Senator Levin, Senator McCain, thank you. I 
am humbled and honored to be nominated to serve as the 34th 
Commandant of the Marine Corps. I fully appreciate the enormity 
of the challenges that lie before our Nation and the Marine 
Corps' critical role in helping to meet those challenges.
    My duties as the J-3, as well as leading your marines in 
combat, have offered a unique opportunity to view the 
remarkable flexibility and responsiveness that forward-deployed 
marines bring both to warfighting and to crisis response. Even 
while having so many marines deployed in harm's way in Iraq and 
Afghanistan, the Marine Corps has still answered every call--
humanitarian assistance in Indonesia, in the Philippines; 
peacekeeping operations in Haiti; hurricane relief at home, on 
the Gulf Coast; and the ongoing noncombatant evacuation 
operations in Lebanon, to mention just a few.
    If confirmed, I will strive to ensure our Nation continues 
to have a Marine Corps that is capable and ready, both to win 
this generation's war on terrorism and to settle the inevitable 
crisis for which the Nation calls upon her Corps of Marines. 
America deserves nothing less.
    I will remain committed to one of our preeminent 
legislatively mandated missions to be most ready when the 
Nation is least ready. Your Marine Corps remains steadfast, 
but, to continue to do so, we will need your assistance. The 
immediate task before us demands a stubborn commitment to the 
reconstitution of our current force, and modernization to keep 
it strong.
    Clearly, the individual marine is the centerpiece for our 
future. In my 36 years of service, I have never failed to be 
inspired by the selfless sacrifice of our young men and women. 
I have seen some of our Nation's finest perform so very 
unselfishly in ways that I would not have thought possible. 
They remain committed to the best ideals our country stands 
for, while asking almost nothing in return. To these stalwart 
marines we owe everything, the best in training, the best in 
leadership, and the best equipment. I want to express my thanks 
to each of you for your continued support for these valiant 
young men and women.
    Finally, if confirmed, I look forward to working with you 
to meet the challenges ahead. While your role is constitutional 
oversight, my role, when I come before you, will be to always 
tell the truth, only the truth. I pledge that you will always 
have my honest assessment of what is required to maintain the 
health of our Marine Corps and the security of our great 
Nation.
    Mr. Chairman, Senator Levin, Senator McCain, thank you, 
again, for the opportunity to come before this committee, and I 
look forward to your questions.
    Thank you.
    Chairman Warner. Thank you, General.
    Senator McCain.
    Senator McCain. Thank you, General. Thank you for, again, 
your outstanding service.
    For the record, describe your duties in the Iraq war.
    General Conway. Sir, I was the 1st MEF commander. That's 
the Marine Expeditionary Force, constituted of about 60,000 
marines and about 25,000 British forces, before we crossed the 
line of departure. We were part of the 3rd Army. 5th Corps was 
our Army counterpart, and the main attack during the movement 
to Baghdad. Following securing Baghdad, and ultimately Tikrit, 
sir, we were then directed to move to the southern provinces, 
where we had moved through originally, to assume reconstruction 
responsibilities for a period of about 5\1/2\ or 6 months 
before we redeployed. The second time was about 5 months later. 
We came home in November. I redeployed in February, again as 
the MEF commander, this time in command of about 25,000 marines 
in the al Anbar province out west. For that period of time, 
about 7 months before I was relieved by Lieutenant General 
Sattler, we went about trying to secure that area and assist 
the people in recovering their country.
    Senator McCain. Was that during the battle of Fallujah?
    General Conway. Sir, we had what we term now the first 
battle of Fallujah while I was in command, the second time in 
the al Anbar province. The larger battle of Fallujah actually 
occurred in November, and, again, I had the change of command 
in Fallujah, on 13 September of that same year.
    Senator McCain. I know a lot of books have been written 
already, General Conway, like Cobra II, Assassin's Gate, and 
others, that are sort of a depiction of the conduct of the war. 
I know that many of these issues are important to you, given 
the people under you who have sacrificed. Do you agree with the 
general assessment that we didn't have enough troops to secure 
Iraq after our initial victory?
    General Conway. Sir, we had sufficient troops to conduct 
the movement and win the Operation Iraqi Freedom (OIF) aspect 
of it quickly. Our intent, at that point, was to capitalize on 
the Iraqi army. It was, we felt, the most respected institution 
in the country, and my personal view at the time was that, as 
we would be able to stand up these Iraqi army units, we wanted 
to put them in the lead as rapidly as we could. So, I felt, 
initially, that there were enough U.S. forces committed to be 
able to accomplish that.
    When the Iraqi army was not returned to duty, there was a 
requirement on the part of my ground command element commander, 
Major General Mattis, at that point, to move units about to be 
able to amass this combat power to accomplish certain things. 
In that regard, we did not have enough troops to fully cover 
the areas for which we were responsible.
    Senator McCain. At one point, a decision was made, you may 
not have been there at the time--basically to deBaathification. 
No one who had been a member of the Baathist party would be 
allowed to serve in the military. Do you recall that decision?
    General Conway. Yes, sir. I recall it.
    Senator McCain. I think it was made by Ambassador Bremer. 
It's unfair for me to ask you whether you think that was the 
right decision or not. I'm trying not to cause you difficulty, 
because I know you wear the uniform, and I know you carry out 
orders. Maybe you would tell me, in a positive fashion, if it's 
possible--what could we have done better? I think we accept the 
situation is very difficult right now, as we speak, great 
problems within Baghdad. Apparently, we're going to have to 
move troops, probably marines, from the al Anbar province into 
Baghdad, even when we know that Fallujah and Ramadi, 
particularly, are still not under control. What could we have 
done better, in your view, General Conway? Maybe put a positive 
spin on it so that I don't cause you difficulties.
    General Conway. Sir, I can only give you my personal 
impression and the discussions I had with my commanders. We 
felt that there were people who were Baathists, who were 
compelled to be Baathists because of Saddam's reign of terror. 
Nevertheless, those people occupied key positions in the 
government and in the infrastructure that ran the country. When 
we weren't able to maximize on the capacities of those people, 
I think we probably suffered some, and we had to try to conduct 
makeshift mitigations, those manner of things.
    We felt that if there were Baathists with blood on their 
hands in any form or fashion, that those people needed to be 
rooted out and held accountable to the Iraqi people, and that 
we perhaps could have been more discerning as to ``who was 
who.''
    In terms of the army, once again, a similar scenario. There 
were army units, which, I think, were very brutal with their 
own people. Where an army commander had been judged to do those 
types of things, he should not be brought back to any position 
of responsibility, but we felt that had the army been brought 
back, we would have been able to capitalize on that immensely 
and take advantage, again, of this inherent respect that the 
Iraqis still maintained for their army over the decades.
    Senator McCain. The initial training of the Iraqi army was 
not successful, correct?
    General Conway. Yes, sir.
    Senator McCain. So, we had to go back and start a more 
intensive and more thorough type of training operation. We lost 
a lot of time during that period. Would you agree that the 
situation now, to a significant degree, given the political 
environment here in the United States, is, to some degree, up 
to the Iraqi Government and military as to whether they can 
function or not?
    General Conway. Sir, I think that's exactly right. Since 
June 2004, Iraq has been a sovereign nation, and every effort 
on the part of those forces assigned to Iraq has been to 
postulate that with the Iraqis and cause them to resume normal 
functioning and control of their country as soon as that could 
possibly be made to happen.
    Senator McCain. Let me just ask one more question, Mr. 
Chairman.
    Chairman Warner. Go ahead.
    Senator McCain. I'm concerned that we may be making the 
mistake that we made during the Vietnam conflict, and that is 
lowering recruiting standards. I think all of us agree, in 
retrospect, in viewing the Vietnam war, that we took people 
into the Marine Corps and the Army that we should not have. 
They didn't meet certain minimum standards, and we waived 
certain standards. That's just a matter of record. Are we doing 
that again, General?
    General Conway. Sir, I can only speak for the United States 
Marine Corps, and I can give you a categoric response that we 
are not. My eldest son, who is a Marine major and is not here 
this morning, is the commanding officer of a Marine Corps 
Recruiting Station in Portsmouth, New Hampshire. I have a 
direct source of information, of course, through him.
    Even without that, I can tell you that our recruiting goals 
are being met, our retention goals are being met, and in no way 
are we reducing the standards that we have always held for 
marines coming on Active service.
    Senator McCain. We don't have waivers that would lower 
standards?
    General Conway. Sir, there are X number of waivers each 
year that are given to what we would call CAT IV marines, those 
that can't necessarily pass a given test. But those waivers 
have not been increased, let's say, since this global war on 
terrorism has begun. There's always been X number for young, 
motivated men and women who, obviously, we think will make good 
marines, but have not, at that point, completed all of the 
standards.
    [Additional, clarifying information provided for the record 
follows:]

    I would like to clarify my statement that ``there are X number of 
waivers.'' Our CAT IV waivers are, by Marine Corps policy, less than 1 
percent of our total accessions. This standard was established in 1999 
and reiterated in our Marine Corps Accession Strategy in 2005 and we 
have not deviated from that policy.
    I would also like to take this opportunity to put waivers in 
context. A more telling indicator of our long-term commitment to 
sustaining quality accessions is that our first-term expiration of 
active service (EAS) attrition--that is, marines who leave the Marine 
Corps prior to the expiration of their contracted enlistment--has 
decreased by 17 percent in the past 4 years. That means the individuals 
we are recruiting and training are proving that our faith in their 
capability is not misplaced; they have proven to be the quality marines 
that our commanders in the field need.
    I strongly believe that the individual marine is the centerpiece 
for our future and I will continue to monitor this issue to ensure we 
do not lower our standards in order to ``get the numbers.'' Recruiting 
and retaining the right people in the Marine Corps is one of my highest 
priorities. I pledge to keep you informed if ever my review of this 
matter indicates that the quality of our recruits are not providing us 
with the Corps America needs to ensure her security. But as I said, I 
think our rate of first-term non-EAS attrition is telling me that we 
are making marines that America deserves.

    Senator McCain. Are you concerned about retention in the 
Marine Reserve?
    General Conway. Sir, we have to be concerned about all of 
it. We have to keep our eyes on it and watch the trends.
    Senator McCain. Are the numbers indicating that there's 
reason for concern?
    General Conway. Sir, at this point, we're keeping our 
numbers up. Our retention is still good, but as this global war 
continues and we do rely upon the Reserves, we'll have to watch 
to make sure that their needs are met.
    Senator McCain. Do you see signs of problems?
    General Conway. Not at this point, sir.
    Senator McCain. I thank you, and thank you for your 
service. Congratulations to your family.
    General Conway. Thank you.
    Senator McCain. Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator McCain.
    Senator Levin?
    Senator Levin. Thank you, Mr. Chairman.
    On the point that Senator McCain began with, there were 
many of us that were concerned about the total disbanding of 
the Iraqi army. The ones, as you point out, that had blood on 
their hands should not have been returned, but the bulk of the 
army did not have blood on their hands. Do you know whether or 
not our uniformed military leaders were consulted on that 
decision, or was that basically a decision made by civilian 
leaders?
    General Conway. I'm sorry, Senator Levin, I do not know. 
I'm afraid my site picture was pretty narrow at that point in 
Iraq.
    Senator Levin. But it is your judgment that if the Iraqi 
army could have been reconstituted, that that would have been a 
major plus, in terms of security, and that we had, in fact, to 
some extent, in the planning, counted on that.
    General Conway. Yes, sir, that was the original plan, as we 
understood it, as we discussed phase 4 while still in Kuwait, 
at Camp Doha. Again, it was our expectation and anticipation 
that that was intended to be the case.
    To answer the second part of your question, I do think it 
was possible. When we were given a policy to pay former members 
of the Iraqi army, we had to go through some very sophisticated 
planning, in terms of how we were going to manage the numbers 
in various locations. So, they did appear from all over the 
country, really, for those opportunities.
    Senator Levin. The President assured the American people 
and the Iraqis that as Iraqi security forces stand up, our 
forces would stand down. Give us your judgment as to whether or 
not that policy should be effectuated and as to whether or not, 
for that and perhaps other reasons, we should follow through 
with what General Casey has said he expected would happen, 
which would be troop reductions beginning by the end of this 
year.
    General Conway. Sir, I think it's a sound policy. If you 
look at General Casey's lines of operation, security is 
paramount among them. When security is achieved, we think that 
the other lines of operation will be much more plausible and be 
able to take shape. The growth of the Iraqi army, in 
particular--to some lesser degree, the Iraqi police--is 
constant. The equipment is trailing the training a little bit 
and putting those folks in the field, but I still think that, 
under Iraqi security forces, we will be able to eventually 
effect a downsizing of our forces.
    I personally believe that you have Iraqis who have started 
to look at us as occupiers and are resisting us, in some 
instances; whereas, they would not resist an Iraqi force doing 
precisely the same thing. I also think that General Casey 
believes that, as he's discussed the opportunity to draw down. 
So, I think that the strategy is sound, sir, and will be 
effected in time.
    Senator Levin. In terms of the message to Iraqis--as to the 
importance of their taking over responsibility, is it important 
that they understand that our presence is not open-ended and 
unlimited, and that they have the responsibility, as they get 
trained, to take over the major bulk of the responsibility?
    General Conway. Sir, I think it's absolutely critical that 
they understand that. There is a strategic communications 
effort afoot on the part of the insurgents that would tell the 
people of Iraq that we are truly occupiers. We're there to 
steal their wealth and consume their oil. In that regard, I 
think we have to counter that message with an eventual 
reduction of forces, in proof of the fact that we're only going 
to stay there until such time as the Iraqi Government can self-
govern and secure their own country.
    Senator Levin. General Casey has stated, on a number of 
occasions, that he expects that there will be a reduction of 
U.S. forces in Iraq in 2006, and he said that recently at a 
Pentagon press conference. Do you believe that will happen?
    General Conway. Sir, I do believe it will happen. Right 
now, we're experiencing sectarian violence, on a level since 
the bombing of the Samarra Mosque, that we have not seen in the 
country. Baghdad, in particular, seems to be a center of 
activity. I think he has to solve that problem first. That's a 
new and different problem from what we have seen in months 
before, but I think he will need to address that. The new prime 
minister, Maliki, has a number of programs that I think he is 
trying to put into place to strengthen his government and quell 
the insurgency, in large measure. I think a number of those 
efforts, in tandem, will have some results by the end of the 
year.
    Senator Levin. Is it important, in terms of persuading and 
pressuring the Iraqis to reach political compromises, that they 
accept the idea that our commitment is not open-ended?
    General Conway. Yes, sir. I think if you study 
insurgencies, you'll see that it's been that type of effort 
over time. The negotiation, if you will, the ability for people 
to come together--that has been more effective, really, than 
the kinetic activities of trying to put those insurgencies 
down.
    Senator Levin. What do you mean by ``kinetic activities''?
    General Conway. Well, sir, armed force.
    Senator Levin. On readiness issues, can you give us your 
assessment of the ability of the Marine Corps to keep their 
units ready, given the tremendous effort and stress that has 
been placed on the Corps? What's the state of readiness in the 
Marine Corps?
    General Conway. Senator Levin, the state of readiness of 
the forces in Iraq are topnotch, what we would call C1. They're 
fully ready for the missions that they're assigned. That does 
come at some cost, however. We have opted to leave the 
equipment for those units in Iraq, and maintain the maintenance 
on all of that gear through means of forward-deployed depots, 
keeping the mechanics and the spare parts flowing so that the 
vehicles are quickly repaired. The impact that has on the rest 
of the Marine Corps is what has us concerned, at this point. 
The readiness of the remainder of the equipment, ground, and 
particularly aviation, is suffering, and, as a result, our 
readiness ratings for the remainder of the force are not what 
we would ordinarily show.
    Senator Levin. What needs to be done, in your opinion?
    General Conway. I think General Hagee has commented that we 
need to be able to recapitalize that equipment, to ``reset,'' I 
think is the term that's being used. Principally, at this 
point, it's being conducted through supplemental funding. There 
is an annual cost of war that is required, certainly, but there 
is an additional cost of maintaining this equipment--in some 
cases, replacing that equipment--that is significant. I know 
that General Hagee submitted a request for $11.7 billion, 
initially. He received along the lines of about $5.1 billion 
against that. The leftover, plus another $5-billion-plus, puts 
the Marine Corps' bill, at this point, in excess, again, of $11 
billion, just to be able to recap this equipment and give us 
all the Marine Corps that we think we need to have.
    Senator Levin. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator Levin.
    General, this committee will eventually examine in detail 
the allegations and the findings with respect to several 
incidents in Iraq involving marines. I don't wish to discuss 
what you may know about the specifics of the report, but in the 
hopes that I can take your nomination before the Senate, I'd 
like to be able to say that you have represented to the 
committee, to the extent you have knowledge of those reports, 
you, personally and professionally, are in no way involved. 
Would that be correct?
    General Conway. Yes, sir, that is correct.
    Chairman Warner. Thank you very much.
    On the question of Iraq, you draw on a great deal of 
experience from your two successive tours of duty, and now in 
your current position following the daily operations there. I 
think every hearing of this committee, we pause for a moment, 
to reflect on the enormity of the sacrifice of over 2,500 who 
have lost their lives, the tens of thousands, 22-some-odd-
thousand, wounded, and the sacrifices of the families.
    General Conway. Yes, sir.
    Chairman Warner. As you pointed out, Prime Minister Maliki 
and his new government are striving to establish sovereignty, 
control, and accept the full responsibility of sovereignty of 
the Nation of Iraq so that this country can have its own self-
sustaining democracy and take its place in the world.
    Things have not gone as well as we'd hoped there in the 
last 30 or 40 days. In my understanding, the incidents, as you 
record those, have gone up appreciably in the last 30 days, am 
I not correct in that?
    General Conway. Can I ask what you mean by ``incidents,'' 
precisely, sir?
    Chairman Warner. I mean conflicts, sectarian violence, 
insurgency.
    General Conway. Yes, sir.
    Chairman Warner. Unfortunately, a great deal of criminality 
that's taking place. The Iraqis are suffering a loss of roughly 
on the average of 100 citizens a day, is that correct?
    General Conway. That is correct.
    Chairman Warner. There has been an appreciable increase in 
the last 30 or so days. You are nodding in assent that it has.
    To the extent you can share with the committee here in open 
session.
    General Conway. Yes, sir. If you chart the attacks, they 
are on an increasing scale.
    Chairman Warner. This brings me to the responsibilities of 
our Nation, as a strong supporter of Israel and hopefully, in 
the capacity of our traditional role of the United States of an 
honest broker, to work on that situation--and I'm not about to 
discuss the various options before us. I think the Secretary of 
State has handled herself very well. The President has spoken 
very clearly. Yesterday I was privileged, on three occasions, 
to be in the presence of Prime Minister Maliki.
    As a matter of fact, I want the record to reflect that I 
was extremely impressed in the manner in which he spoke at Fort 
Belvoir, in a very informal way, to a gathering of about 300 
uniformed personnel--Army, Navy, Air Force, Marines--and he 
spoke from the heart about his gratefulness to the people of 
this Nation; in particular, as he said, the brothers and 
sisters of our military who have lost their lives, and the 
families who have paid the price, and those who are continuing 
to support the Iraqi security forces in their effort to achieve 
a secure situation in that country. He did so in a very 
heartfelt way, with the President, who likewise spoke and 
expressed the gratitude of our Nation to the men and women in 
uniform. It was a very moving experience. Then, I might add, 
just for those who are interested, there were 25 tables of 
soldiers, sailors, airmen, and marines, and the President and 
the Prime Minister stopped at every table, took pictures, and 
spoke to the individuals. It wasn't one of these hurry-up 
photo-ops. It was a very sincere appreciation by the people of 
Iraq, through their prime minister, for the contributions of 
this country.
    But, back to the conflict between Israel and Lebanon, and, 
to an extent, the Palestinian situation, the heat, the 
bitterness, the acrimony that is flowing out of that. My 
concern is that, in the Muslim world, it could be transmitted 
up to the Iraq area of responsibility (AOR) and, indeed, 
possibly put our uniformed people at greater risk. All I have 
said, and I repeat saying this, that it's a responsibility of 
our Nation as we fulfill our mission trying to help bring about 
a sustainable cease-fire of that conflict. We take those steps, 
being mindful of the investment of over 3 years that we've had 
in Iraq, the progress that we're slowly making, in my judgment, 
but also the extremely delicate situation that exists today and 
tomorrow and in the foreseeable future. Do you share those 
views?
    General Conway. Sir, I do. I can only say, I think, in open 
session, that we are seeing reports, comments made in Iraq that 
reflect the opinion of what's--in effect--an Arab opinion on 
what's taking place in Israel and south Lebanon, and they're 
not encouraging. These people feel an alliance with the 
Hezbollah, and it's disconcerting. We have not yet seen 
indication of additional action in the wake of those comments, 
but certainly there is great knowledge of what's taking place 
there, and great sympathy for both the Lebanese people and the 
Hezbollah.
    Chairman Warner. Yes. I thank you for that recognition. As 
you continue as the chief watch officer for the military, let 
us make sure that those who are trying to work out solutions in 
the Israel/Lebanon area of operations are not unmindful of the 
consequences that can flow to our forces in that AOR, because 
they're all linked together.
    General Conway. They are, sir.
    Chairman Warner. I'm not here to try and sort out exactly 
what the government, or the individuals in the Government of 
Iraq, have said on this matter, but I'm more concerned with the 
people in the streets and the press and a lot of other things 
that are bringing influence on those individuals who could do 
harm to our brave soldiers, sailors, airmen, and marines that 
are in that battle, and, indeed, their coalition partners.
    Improvised explosive devices (IED)--you experienced the 
serious situation with regard to those weapons. I think the 
President and the Secretary of Defense are taking measures with 
the creation of General Meigs' outfit that succeeds another, I 
thought, rather effective outfit, but it was just enlarged and 
brought up to a higher level, through rank, of attention in the 
Department, and those are positive steps. For the members of 
this committee, General Meigs will soon be briefing this 
committee, as he does regularly. As I watched the evolution of 
the various organizations tasked with the responsibility for 
IEDs in the Department, I hope that I carefully left a message 
that the Marine Corps was doing a very important segment of 
that work on IEDs, somewhat independent, as it should be, from 
the Department of Defense, but, at the same time, contributing 
all of their findings, results, and recommendations to the 
Department. I would hope that you could assure the committee, 
as Commandant, that you will put a watchful eye on that, and 
that that contribution by the Marine Corps, particularly down 
in Quantico, can continue.
    General Conway. Absolutely, sir. If you calculate the 
percentage of casualties that occur day-in and day-out in Iraq, 
easily 70 percent of them are still attributable to IEDs. We 
have a very adaptive enemy. So, it is absolutely our first 
priority.
    Where appropriate, and in that the United States Army, 
United States Marine Corps, are in the same location, 
essentially, with the same mission, facing the same threat, we 
do ally our efforts with them immensely, but, at the same time, 
I don't think you can have too many people looking at this 
problem from too many perspectives. We do differ sometimes in 
our approach to testing, and the people that we talk to who may 
have new concepts or new ideas. I think, in answer, you're 
exactly right, that is helpful, and certainly we share 
everything that we find, as the Army is doing, to try to 
overcome the problem.
    Chairman Warner. Will you assure the committee that you 
will continue to allocate such resources as is needed by the 
Marine component of the work going on, on IEDs?
    General Conway. Absolutely, Mr. Chairman.
    Chairman Warner. Good. I'll resume my questions, but I'll 
now turn to our colleague, Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Thank you, General, for your extraordinary service to our 
country. Please extend our appreciation to the troops who serve 
under you. I congratulate you on this nomination. Your combat 
credentials and your overall career biography are more than 
enough information to give me a comfort level with the 
nomination, and hopefully a speedy confirmation. What I also 
would like to note for the record that stands out is the people 
who have served under you, in their descriptions of you as an 
enlisted marine's general. I think that's a great compliment 
and, I think, a great tribute to the qualities of character 
that you bring to the job, and the fact that you always put the 
best interests of the troops first, and, obviously, the mission 
first. Those are great statements about your character, and 
those are echoed by a lot of people who have served with you, 
and under you. So, when it comes to your command philosophy and 
the way you go about conducting your job and the leadership 
that you provide for our country and for our troops, it's very 
commendable. I just want to acknowledge that, as well.
    I have a statement, Mr. Chairman, I'd like to have included 
in the record.
    Chairman Warner. Without objection.
    [The prepared statement of Senator Thune follows:]
                Prepared Statement by Senator John Thune
    General Conway, your combat credentials and overall impressive 
career biography gives me more than enough information to allow me the 
opportunity to make a comprehensive decision regarding your 
confirmation. However, what I find most extraordinary about your 
service to this great Nation is the leadership style in which you have 
commanded the marines under your care. I've found numerous accounts of 
marines describing you as an ``enlisted marine's general'' in your 
dedication to the keystones of successful leadership including your 
objectiveness in decisionmaking, communicating with your marines, 
humility, and leading from the front in both training and in war, to 
name just a few. An incident that stands out to me was your candor 
regarding the decision to have your 1st Marine Expeditionary Force 
invade the city of Fallujah in early April 2004 as a response to the 
brutal killings of four U.S. civilian contractors, and then 
subsequently be ordered to halt attacks just days later. While you were 
following orders from your superiors, you were documented as voicing 
concerns over what you perceived as first a very hasty decision and 
then later extracting prematurely before achieving victory. In the 
aftermath unfortunately it is not irrational to say your assessments 
were valid ones. However it shows that your concerns for the overall 
success of the mission and the protection of our young men and women 
who are willing to give up their lives to defend our freedom remains 
paramount in your command philosophy. That mentality, I believe, is 
what will serve you best should you be confirmed to this position.

    Senator Thune. As we undertake what are a lot of challenges 
around the planet right now, and many of which have been 
touched on already this morning, I want to discuss a couple of 
things. I was over there on my most recent trip to Iraq, 
probably about 4 months ago, with Senator McCain and some other 
Members of Congress and Governors, and we talked about the 
progress that is being made. Obviously it has been three steps 
forward, two steps back, but one of the things that we felt 
good about, and I think is important, in terms of the criteria 
for our ability to succeed there, as well as our ability to 
begin bringing some of our troops home, is getting the Iraqi 
security forces up and trained and prepared to take on more 
responsibilities there. At that time, when we were there, about 
75 percent of the battlespace, about 75 percent of the 
missions, were being performed either independently with Iraqis 
or with them in the lead and our troops supporting them. I'm 
wondering if that's still a fairly accurate characterization. 
Is that improving? What is it and where are we, relative to 
that benchmark, that was shared with us last time we were 
there?
    General Conway. Sure, I think that is about right, without 
having benefit of a map to show you. I don't recall any 
battlespace being turned over to Iraqi main-force units in the 
last 30 days or so, so I think your information is still 
current.
    Senator Thune. Good. Do you still feel, overall, that there 
is progress being made, that we continue to see them being more 
and more up to the task?
    General Conway. Yes, sir, I do. I've not met the man, but 
I'm encouraged by what is reported to be the strength of 
character of the new prime minister. He is facing, of course, a 
difficult startup period, but he does not seem especially 
deterred by the difficulty. He wants to ram through his 
programs, and he's demanding results from his ministers, who 
have, likewise, been elected to their position--selected, in 
some cases; but, in others, elected to the positions. So, there 
is an air of confidence for the long-term. We're certainly in a 
tough fight right now. This sectarian violence thing has to be 
stopped.
    Senator Thune. Right.
    General Conway. But I am confident, in the long-term.
    Senator Thune. It seems to me, at least, that the sectarian 
violence part of this goes back to the bombing of the Samarra 
shrine. That whole component of this fight had really heated up 
at that time, and it continues, to this day. I was very 
impressed, as was the chairman, with the statements that were 
made by the new prime minister, and the very forceful, strong, 
decisive way, I think, of the approach that he's taking to 
getting the government up and running and making it successful. 
That, of course, is the other criteria by which, I think, we 
can measure our success there, and that is, one, the capability 
of security forces, and, two, the stability and longevity of 
the government, and its ability to bring some sort of national 
unity, so that you don't have all this sectarianism going on. 
The message that we tried to deliver when we were over there 
last time, is that it's really important that they focus on 
that and that they get the various factions pulling in the same 
direction. I hope we can make progress on that. His comments 
were certainly encouraging.
    I want to come back to one other point that the chairman 
mentioned earlier; I have been up to Walter Reed several times, 
as have most of my colleagues, I think. You talked about the 
casualties, and we talked about the injuries that our troops 
are sustaining there, most of which are attributable to IEDs. I 
know that this is a public session, and you're probably limited 
to what you can say, but I'm always interested in hearing what 
steps we are taking to address that situation. As you noted, we 
have a very adaptive enemy. It seems as soon as we figure out 
how they're detonating these things and develop 
countermeasures, they then come up with a new way of doing it. 
That has to be just the top priority in terms of our focus 
right now, one of the most critical things that we can look at 
and figure out solutions to. I know you probably can't get into 
the weeds here in great detail, but I would be interested in 
your additional comments?
    General Conway. Sure.
    Senator Thune. General observations about steps that we are 
taking to address what is the most lethal weapon, I think, that 
our enemy has at their disposal.
    Chairman Warner. Senator, may I ask your indulgence for a 
moment? I have to appear, momentarily, before the Commerce 
Committee, right down the hall. Would you continue to chair 
this hearing? If there comes a point in time when you've 
completed your work, would you put the hearing in recess, and 
then I'll be right back to resume additional matters that I 
wish to cover.
    Thank you.
    Senator Thune. Mr. Chairman, so I should not adjourn, but 
recess?
    Chairman Warner. That's correct.
    Senator Thune [presiding]. All right. Very well.
    General Conway. Sir, I think your analysis is spot-on. We 
do have a very adaptive enemy. I think it is safe to say, in 
open session, that he evolves his tactics as we present our 
defensive measures. In some cases, it's cyclical. What we see 
right now is a threat that is pretty much pressure-plate 
initiated. He's attacking the undersides of our vehicles, 
because he gets more value from the explosive that is applied.
    We are attacking that capability, from a number of 
different approaches. Even when I was there--and this was in 
more of its rudimentary stages--we tried to look at, ``What is 
the weak link? Where is it that we can attack to be most 
successful?'' The British would tell us that you look for the 
bombmakers, for the people with the technical expertise, and go 
after them. We have done that. Unfortunately, Iraq still 
remains, in great part, an arsenal, or an armory, with regard 
to ordnance that is available. So, we don't think that supply--
or that link is necessarily one that we can be as successful in 
countering.
    Our training efforts are immense, in terms of the time 
spent just recognizing IEDs, looking for the indicators, 
looking for the patterns of life, if you will, that might 
indicate that there's an explosive device in the area. Our 
success with jammers has been intermittent, but we continue to 
work that, as an inherent capability, to, if not destroy the 
device, certainly render it ineffective as our vehicles pass. 
Again, they're not effective against every device, but, given 
the right frequency and the right overrides, they can be quite 
effective.
    So, we're approaching the problem through a number of 
means. We don't expect, necessarily, that we are going to find 
a silver bullet. We don't think that somewhere in a garage 
there's a guy with pens in his pocket and fuzzy hair and thick 
glasses who's going to come and render us a solution. But that 
doesn't mean that we don't keep trying, and we never should 
stop trying, until we have found a way to completely defeat 
these things.
    Senator Thune. I appreciate your commitment to that end. I 
just can't think of anything, in terms of protecting our 
troops, more important, and I know that they are constantly 
evolving, in terms of their technologies and the things that 
our enemies are doing. I just think we have to focus like a 
laser on how we protect people in the field. If it's a resource 
issue, I hope you will make clear to us, as a committee, and to 
Congress, what your needs are so that we can take the 
appropriate steps to help you best combat what, again, is a 
very serious and lethal capability the enemy has, and one that 
I know it is not easy to be able to solve. In any case, it's a 
question I try and pose as folks come in front of this 
committee, just to get some insights about how we can do a 
better job, and how we can better serve you, in terms of 
resources.
    General Conway. Sir, I would take the opportunity to say 
that, from our perspective inside the Department of Defense, we 
appreciate your recognition of this being the significant 
problem that it is. It appears to us that you have very well 
resourced those people that are attempting to overcome it.
    Senator Thune. I appreciate your answers. Again, thank you. 
I just can't tell you how much we appreciate what you're doing 
for the country and your service. So, thank you for that.
    I think the Senator from Michigan is back. The chairman is 
gone, Senator, so if you had another round of questions, feel 
free.
    Senator Levin. I just have a few. Thank you, Mr. Chairman.
    General, on the question of Marine Corps end strength, the 
Quadrennial Defense Review (QDR) proposed to stabilize the 
Marine Corps' end strength at 175,000 Active and 39,000 Reserve 
component personnel by fiscal year 2011. General Hagee, 
however, has stated he is not sure the Active-Duty Marine Corps 
end strength should be reduced below 180,000 marines, and he 
said that he planned to conduct a capabilities assessment to 
re-examine the issue.
    Has that assessment been completed, do you know? Or do you 
know what the status of it is?
    General Conway. Yes, Senator Levin, it has been completed. 
There was a group of about probably 40 officers who convened 
down at Quantico for a period of about 3 months, who gave a 
series of reports back to General Hagee and his three-star 
generals in the area. I think that what the assessment group 
has essentially validated for the Commandant is what he now 
says, that he believes that we need a Marine Corps of about 
180,000 in order to be able to continue to engage in this long 
war on terrorism.
    Senator Levin. Do you know if it will be presented within 
the next month or so, to Congress or to the Secretary?
    General Conway. Sir, I'm sorry, I do not know the answer to 
that. I have not had that specific conversation with General 
Hagee.
    Senator Levin. All right. In terms of approximately 180,000 
being the correct end strength, in the best judgment of that 
study, should that end strength be built into the permanent 
budget, or should it be left, in part, up to a supplemental 
budget?
    General Conway. Sir, we think it needs to be in the Marine 
Corps budget, as such. Personnel are expensive. Once we bring 
those people on, we bring them on for 4 years. The Marine Corps 
would not be able, with its budget such as it is, to absorb 
those costs for personnel, were the supplementals not there. 
So, for purposes of planning, for purposes of long-range 
understanding of what our capabilities are going to be, I think 
we would much prefer to see it in the top line, as opposed to 
presented in a supplemental.
    Senator Levin. Gotcha. On a question of relocation of some 
of our marines to Guam from Japan, there has been a recent 
agreement with the Government of Japan to relocate 8,000 
marines from Okinawa to Guam. I'm wondering what your reaction 
is to that and whether or not that will have a negative impact 
on the ability of the marines to support Pacific Command's 
requirements for providing presence and security cooperation in 
Asia.
    General Conway. Sir, the most important part first. We 
think that it will not impact on our ability to provide to the 
combatant commander what he has to have for marine forces in 
the Pacific. This same capabilities assessment group was asked 
by the Commandant to examine how best to deploy those forces 
once we commence moves off of both Okinawa and portions of 
mainland Japan. What we would like to see, as a Marine Corps, 
is a determination as to the ultimate disposition of these 
forces, more along the lines of the operational requirements, 
the administrative and logistics sets, that may have initially 
driven the discussion. That's where we are. It's still fairly 
early in the negotiation process, both with our Government and 
the Japanese Government, but we hope to effect that with that 
proposition.
    Senator Levin. Thank you. I think it was the chairman who, 
as I had to leave, was asking a question relative to the 
Haditha investigations, and you may have already answered this. 
Do we have any idea when those investigations will be 
completed? If you've already answered it, I can----
    General Conway. I have not answered it, sir, and I will 
give you the information to the best of my knowledge. There 
were two investigations, of course, I think you're aware. The 
15-6, the Army version of the preliminary investigation that 
was ordered by General Chiarelli, has been completed. General 
Chiarelli has a copy. He's passed his recommendations on to 
General Casey, and, at this point, General Casey and General 
Abizaid are reviewing the investigation. Similarly, the 
ultimate convening authority, if you will, will be the Marine 
component commander, Lieutenant General Sattler, 1MEF commander 
at Camp Pendleton right now. He also has a copy, and is 
reviewing it, at present.
    The other investigation, the NCIS investigation, has not 
been completed, but I am told it is nearing completion.
    That is as much as I can give you, sir, towards an answer 
to your question as to when you'll see both those things.
    Senator Levin. Thank you, General.
    I was just going to ask Senator Warner's staff whether he 
was on his way back. I have completed my questions, and I was 
just going to thank the General, but now you can thank him.
    Chairman Warner [presiding]. Thank you very much. I 
appreciate the opportunity to resume presiding again. I thank 
you and Senator Thune. I thought Senator Thune's questions, 
together with yours, have been very much on point.
    General, one of the most remarkable chapters of our 
military history--if I may say, as a person who's been 
privileged to watch a half a century of our military history--
occurred in this conflict in Iraq, the successive conflicts, 
and that's the role of the National Guard and the Reserve 
component of all of our Services. Those individuals willingly 
responded to orders to leave their jobs, their homes, their 
families, and take their places alongside the Regular Forces 
and quickly get up to speed professionally. There have been a 
remarkable number of incidents of their personal bravery and 
professional achievements at all levels in this conflict, not 
only on the battlefield, but in the aviation components and all 
types of things, and aboard ships. I don't like to talk about 
my inconsequential career, but I served in the Reserves in the 
Marine Corps, and volunteered to come up to duty in the Korean 
War, and served in Korea. When that was concluded, I had no 
obligation to stay in the Reserves, but I did it, and many of 
my colleagues who served with me in Korea, when we returned 
home, they, likewise, stayed in the Reserves, because we felt 
that we--although my tour was fairly limited--had a valuable 
contribution to make to our Reserve components. I stayed in 
some 10 or 12 years.
    Tell us about the Reserves in the Marine Corps and what you 
plan to do. I just hope that you share my tremendous respect 
for what they have done through the years, and that the Corps, 
under your leadership, will continue what it's doing today, and 
perhaps enhance and, if necessary, if you so desire, enlarge 
the Reserve component of the Marine Corps.
    General Conway. Sir, first of all, I completely agree with 
your salute to the Reserves and the Guard. I would add, before 
I address the Marine Corps aspect of it, that in some regards 
it's absolutely amazing that the Army can go about a 
transformation of sorts, a modularization, if you will, of its 
brigades at a time when there's a serious war taking place. In 
the place of the Active Force units, the Army has gone to 
Reserve and the National Guard Forces, and they've just done 
marvelous work, as you say. So, hats off to those folks, and 
they really have stepped up when their country needed them 
most.
    Sir, without being parochial with regard to the Marine 
Reserves, I do think that ours is truly a model system. We call 
it the Total Force, and we mean that in every sense of the 
word, with regard to equipment, with regard to the expectations 
that they will be there when we need them most. They have just 
never let us down. Now, there's an investment that goes with 
that. We have Active-Duty people, some of our best lieutenant 
colonels, command screened, who are out there as the inspector/
instructor. He's in charge of a number of young company-grade 
officers. Some of our best company commanders go out and work 
with the Reserves on a routine basis to make sure that they're 
able to maintain and apply those standards, should the country 
need.
    We're extremely proud of who they are and what they do. It 
comes at a cost, but we are more than willing, I think, because 
of the capability that's added, to accept those costs and 
continue to make them a real combat addition.
    Chairman Warner. Do you think that you need some expansion 
of the size of the Corps' component?
    General Conway. Sir, I'll be honest, I have not sat down to 
look at that in close quarters.
    Chairman Warner. You have 39,600, currently, men and women 
in the Marine Corps Reserve. As you sit down to look at it, 
hopefully you will have the benefit of the Commission on the 
National Guard and Reserves, headed by a fellow marine, General 
Arnold Punaro, who will be working on recommendations. So, I 
hope that you take to heart what recommendations they come up 
with, and would have no reluctance to come before this 
committee if you need such authority to make modifications.
    General Conway. Absolutely, sir. I would make two comments, 
sir. One is that I think we have a smaller percentage of 
Reserves, if you compare the ratio Marine to Army.
    Chairman Warner. Yes, I am aware.
    General Conway. So, that should compel us to ask if that 
percentage is right.
    The second part, though, I think would have to look at the 
determination as to whether or not, for the long war, we would 
see reaccessing the Reserves in order to apply their 
capabilities once again. That would help us to determine 
whether or not we want to expand the size of the Reserve Force.
    Chairman Warner. All right. Let's turn our attention to 
those who have survived the wounding in these current combat 
operations and who are now trying, together with the love and 
affection, hopefully, of their families, to rehabilitate 
themselves. I think it was 2 or 3 years ago, I put in an 
initiative to encourage the Department of Defense to make 
possible every one of those individuals could stay in, assuming 
he or she so desired, and that the wounds that they sustained 
would not severely limit their ability to perform valued 
services. I hope that you will continue to foster that program.
    General Conway. Absolutely, sir. That has been the 
Commandant's directive, and it's a wonderful program. I intend 
to continue it, certainly, if confirmed.
    Chairman Warner. The committee has been concerned that the 
other programs and coordinated efforts of the Services, 
including the ``Marine For Life'' Program, anticipate problems 
and seek out the severely wounded soldiers, sailors, and airmen 
that need assistance, the funding levels and so forth. Will you 
examine that to make sure that that is adequate?
    General Conway. Yes, sir. We have, at present, grant blocks 
of money available to those who have been wounded, based upon 
the nature of their wounds. We have some tremendous private 
organizations who work hard--not least, the Semper Fi Fund--to 
be a help to the families. But there also, I think, is a 
national responsibility to continue to ensure that our wounded 
are provided for.
    Chairman Warner. Mrs. Conway, will you commit to the 
committee that if he doesn't measure up, you will step forward, 
is that correct? [Laughter.]
    Mrs. Conway. I absolutely will, sir.
    Chairman Warner. Thank you very much. Let the record 
reflect that clear and concise response. [Laughter.]
    General Conway. She means that.
    Chairman Warner. On the QDR, according to the QDR 2006, the 
Department is focusing on bringing the needed capabilities to 
the Joint Force more rapidly by fashioning a more effective 
acquisition system and associated set of processes. One of the 
QDR recommendations is to integrate the combatant commanders 
more fully into the acquisition process. Now, that acquisition, 
at the moment, is shared by the military departments, and the 
Department of Defense, and we're looking at how the combatant 
commanders can have a stronger voice. Do you have any views on 
that?
    General Conway. Sir, we have recently had a senior 
executive conference within the Department, that the Secretary 
chaired, to talk somewhat about that issue as it relates to the 
requirements of the combatant commanders on the global war on 
terrorism. We are looking at adjustments to our contemporary 
programs as to how their requirements can be better understood 
and met by the title 10 responsibilities of the military 
departments. So, I would say yes, sir, I think that is ongoing. 
Of course, the Service Secretaries and Service Chiefs still 
bear the responsibility for the ``organize, train, and equip'' 
functioning as directed by title 10, but those that we provide 
forces for, we have to understand clearly what their needs are 
and be able to provide.
    Chairman Warner. The Riverine Force. I happen to have very 
high regard for those capabilities. When I was Secretary of the 
Navy, I visited Vietnam on occasion, and went down and saw 
those operations. I commended the Department of the Navy for 
bringing back the concept, and recently working it into their 
force structure. The 2005 QDR included the Navy's decision to 
field new capability in support of Riverine operations, and, in 
January 2006, the Naval Expeditionary Combat Command (NECC) was 
established to stand up this capability.
    What is the impact of this new Navy capability and 
organization on the Corps' operations and requirements?
    General Conway. Sir, we think it's going to be extremely 
helpful. I salute Admiral Mullen and all that he's done with 
the NECC. He has set aside 40,000 or 50,000 of his Navy 
personnel to assist in this global war on terrorism, and 
they're taking on a number of additional roles that, in some 
cases in the past, soldiers and marines have had to accomplish, 
that now frees them to go do something else. An important part 
of that is the Riverine capability. If you listen to the 
intelligence analysts and hear what they have to say, in terms 
of where the trouble spots in the globe will continue to be, 
there are a lot of rivers, a lot of deltas. We think that 
Riverine Forces, properly manned and equipped, can, and will, 
be very effective in employment.
    Chairman Warner. I point out--and I regret I don't have 
that statistic at my fingertips--the population of the world 
that live within 200 miles of either a major waterway or an 
ocean. Isn't that correct? It's a very high percentage.
    General Conway. Yes, sir, it's huge.
    Chairman Warner. Can you represent to this committee that, 
if confirmed as Commandant, if there are any issues of roles 
and missions of the Corps and the Navy on this--the new 
Riverine Force, that is--that you'll come before the committee, 
and hopefully we can work out the problem?
    General Conway. Yes, sir.
    Chairman Warner. I'd much prefer to do it that way, rather 
than let it fester down in the sinews of the organization.
    General Conway. I understand, sir.
    Chairman Warner. Could you describe the command structure 
that you would envision for integrating overlapping areas of 
responsibility between the Navy and the Marine Corps in the 
execution of a Riverine operation?
    General Conway. Sir, it would vary, of course, with each 
situation on the ground. If I were told that I had a Navy 
Riverine Force coming to join me for operations, if they had a 
parent command in the area, then I would see if the 
relationship needed to be tactical command of those that were 
assigned to me, with operational command remaining with that 
parent headquarters, so they could provide them with the 
sustenance and the things that they would need that are organic 
to the Force. We have had that relationship work superbly in 
many other areas where you have this crossover or overlap. It 
is now analogous to what we call ``supporting/supported.'' I 
would be the supported commander, and the supporting 
commander--i.e., the Riverine Force commander, would be 
providing assets to me to accomplish the mission.
    Chairman Warner. All right. In your answers to the advance 
questions, you state your interest in the long-term health 
effects of combat operations and tempo, and in the sufficiency 
of medical care provided. Operational stress has intensified in 
the war on terror, and is manifest in mental health problems 
among military members and their families. While resilience 
continues to be the hallmark of our military members--in other 
words, they bring themselves back to reality, and salute again 
and march off--some may need help, and more help than we 
envision at this time. What is your assessment of the adequacy 
of mental health screening and assistance programs for our 
marines today?
    General Conway. Mr. Chairman, it's a disturbing trend to 
see the number of folks who are increasingly either discharged 
or treated for mental issues. Trend lines, again, are slightly 
up, compared to what they have been in previous years. I think 
it's an area that we have to be prepared to take a look at. I 
think that diagnosis is key. We are sustaining both what's 
traditionally called Post Traumatic Stress Disorder (PTSD) in 
people who have seen a great deal at a very young age. We also 
are sustaining, actually, physical brain injuries through a lot 
of the concussions and the effects of the IEDs. We're just now 
learning what the relationship to those two types of injuries 
are. We need to pay close attention to it. We need, I think, to 
push the medical field to become more expert at the treatment 
and the resolution of those problems that our young people 
face.
    I really think that it's important, at the command level 
and at every subordinate level, that people understand that we 
will treat the mind just as certainly as we treat a body wound 
to get our marines and sailors back into shape. It is no 
embarrassment. There should be no stigma associated with the 
fact that you're having problems from something you have done 
or experienced or seen in a combat zone.
    Chairman Warner. That's very encouraging, General, because 
it's a part of our medical science that has somehow not 
received, in years past, the needed support. I find within our 
military today, a recognition that this is just as serious as 
that open wound that someone, fortunately, can survive from 
with modern medical technology. So, that is encouraging.
    The Corps is moving to a new operational concept called 
``distributed operations.'' The concept involves changing the 
way infantry battalions operate, providing specialized training 
for many of the marines in those battalions, and increased 
amounts of equipment. How will this new concept affect the 
Marine Corps warfighting capability? How will the support 
requirements for new equipment affect the Marine Corps budget? 
The other question I would have is that, as the Army goes to a 
changed configuration away from the division and the regiment 
concept of years past, and when the Corps, as we are doing 
today, is interoperable with Army units, how will the 
modifications in the Army affect your ability, with today's 
Corps, to work?
    General Conway. I understand, sir. A number of questions 
there, sir. Let me see if I can take them on.
    First of all, we see distributed operations as a logical 
extension of maneuver warfare. What we saw in Operation Iraqi 
Freedom is that the accuracy of our fire support systems is 
such that there's tremendous combat power held in the hands of 
a very few people. That was the case both in Iraq, as well as 
in Afghanistan. It is our thinking that we can certainly cover 
a huge amount of terrain, with conditions and the situation on 
the ground permitting, with smaller units, in distributed 
fashion, having access to this kind of firepower. So, it is a 
tool in the kitbag of the commander. There will be times, I 
suspect, where the situation won't suit that, but, 
nevertheless, a battalion, or any size Marine unit really, that 
has more equipment, better communications, or more capability 
vested in the training of our smaller units, means a better 
Marine Corps.
    Will it be expensive? Yes, sir. There was a price tag 
associated with that, but we think, in the end, again, the 
value of what it provides to us, potentially with deploying 
even a smaller force to accomplish the same objectives, makes 
it appealing.
    In terms of how we would conduct that function with the 
Army, I don't see a conflict. We see that the Army is moving 
more to brigade-size formations, as opposed to, say, the 3rd 
Infantry Division (ID) that we fought alongside of in Operation 
Iraqi Freedom. We think that's not problematic. If anything, 
these individual brigades have as much, or more, combat power 
than what we saw in the brigades of the old 3rd ID.
    That our units would be able to operate alongside them, or 
even integrated with them, in terms of bringing aboard that 
additional firepower, meshing the communications, those are 
things now that we have taken note of since OIF. Our 
communications capability needs to be much better netted than 
it was as late as 2003. Those problems are being addressed 
actively by Joint Forces Command, by the Joint Staff, and we 
think that, when that's all settled, that we will still be able 
to mesh very nicely with Army brigades and Marine battalions 
operating in a distributed manner.
    Chairman Warner. Compare the MEF, which has been a concept 
of the Marines now for well over a decade or more--I can't 
recall the origin of that--with the Army brigade today, from 
the standpoint of the components, the structure, and the 
command-and-control.
    General Conway. Sir, it's probably more appropriate to 
compare the MEF--and its origins were the Marine Amphibious 
Force (MAF), going all the way back to Vietnam days--with an 
Army corps. Probably the biggest difference rests in two or 
three areas. First of all, we bring our own logistics with us. 
A MEF has 60 days of inherent or organic sustainability that it 
can employ before we ever have to tie into theater-level 
resources. So, it is truly an expeditionary capability, a 
package, if you will, that can go virtually anywhere and 
immediately get into action. The Army buildup and the logistics 
and all that type of thing are operated quite differently at 
the corps level. That, I think, is one distinction.
    Chairman Warner. But a corps is several divisions linked 
together. In terms of total numbers, that would be much larger, 
I presume, than a MEF.
    General Conway. Sir, an Army division is about 20,000. A 
corps is somewhere between two and, let's say, five divisions.
    Chairman Warner. Right.
    General Conway. I think it has the command-and-control 
capacity to command that large a force. We had 90,000 in our 
MEF when we crossed the line of departure.
    Chairman Warner. Did you really?
    General Conway. We have the command-and-control to manage 
it, as well.
    Chairman Warner. Although the structures are different, we 
can operate together in the same battlespaces and make it work.
    General Conway. Yes, sir, we did.
    Two other things I would highlight, sir, to maybe finish 
the answer to your question. One, the organic air that the MEF 
commander owns is absolutely amazing. It is such a capability, 
especially given the open desert terrain, where we fought 
Operation Iraqi Freedom, but I would say virtually in any 
campaign where you intend to use air. On any given day, I had 
accessible to me 300 sorties of fixed-wing and Cobra air that I 
could put against any target. That is an amazing capability 
when you're fighting the deep fight, trying to soften things up 
for your division.
    The other difference I think that is compelling in this 
global-war concept on terrorism is the number of infantry that 
is brought about by a Marine division versus what exists now in 
an Army division. We have almost as many boots on the ground, 
if you will, in a Marine regiment as you find in an Army 
division. I'm not making a negative comparison here. I'm just 
saying, where you have to be able to dismount troops and go 
accomplish something in a village or even in an entire 
province, what the Marine Corps can bring to bear with regard 
to those individual troops going about their business is, I 
think, significant and, in some ways, remarkable.
    Chairman Warner. Senator Levin, you had a question.
    Senator Levin. Just one additional question. There has been 
a recent series of articles criticizing strategy and tactics of 
our forces in Iraq as sometimes being too heavy-handed and 
alienating the civilian population, and perhaps fueling the 
insurgency, as a result. You had some real experience. I know 
you have done a lot of thinking about that subject, and I 
wonder whether you would share both with us.
    General Conway. Sir, I think you have to be extremely aware 
of a culture when you are going to operate in any foreign 
country, and whether it's phase 0 all the way through phase 3 
combat operations. The thing that I think that we need to be 
extremely conscious of is an individuals' pride. If you look at 
an Iraqi, let's say, a farmer who lives in a mud hut, and he 
has six children and a wife, he may look as though he is as 
poor as any man on the face of the Earth, but I'll guarantee 
you, that man has a source of pride in his country, in what 
Iraq has meant to world history, and we need to be very 
understanding of that, and we need to avoid stepping on it. 
Even though the early security forces may have been very low 
quality by our standards, we can't appear to, in any way, be 
talking down to them if we expect them to step up and do the 
job.
    I think we have to be very careful with regard to 
unintended consequences when we have the accidents that we had, 
where large numbers of Iraqis were killed in and around 
Fallujah, and families approaching entry control point 
checkpoints, those types of things. Any population would have a 
long memory for those kinds of things, and, although it may 
have been done by a previous unit, you're going to bear the 
effects of it. So, I just think that we have to very much train 
our troops and understand the culture we're about to deal with, 
speak the language as much as we possibly can so we can gather 
the subtleties, and then not trample on their pride, or their 
sense of civic awareness, as we engage.
    Senator Levin. Thank you, General.
    Chairman Warner. Thank you, Senator Levin.
    The Detainee Treatment Act of 2006 was a product of the 
work of this committee--most notably, Senator McCain, Senator 
Levin, and the Senator from South Carolina, Lindsey Graham, and 
myself. I think the four of us were very active in this. That 
established the Army Field Manual 34-52, as the standard for 
interrogation techniques, and also prohibits cruel and inhuman, 
degrading treatment of prisoners. It's a landmark piece of 
legislation. We're still awaiting--and that's not the question 
to you--the promulgation of the most recent Army Field Manual. 
I think it's somewhat perplexing that it's taken so long, but, 
anyway, that's not the question I put to you, because that's 
not in your lane. But how do you, as Commandant, intend to 
implement and ensure compliance with the provisions of the law 
and the new Army Field Manual once it's promulgated?
    General Conway. Sir, we have, in our experiences in Iraq, 
been very conscious of how we treat detainees. It gets back to 
Senator Levin's question, in terms of how you deal with the 
population. If you are going to have detainees--and I suppose 
that is a consequence of attempting to root out an insurgency--
I think that you have to go right by the numbers in terms of 
how you deal with these people, because what you don't want to 
create is an insurgent who didn't have those intentions before.
    Marines have routinely attempted to put our proper people, 
corrections people, mature staff noncommissioned officers 
(NCOs) and officers, in charge of those facilities. We conduct 
frequent inspections. We invite any number of people that want 
to come and take a look to make sure that we are meeting 
standards in those manner of things. There's an internal issue 
there, where you want to make sure that interrogators and the 
detainee handlers are doing their jobs simultaneously so that 
there's a two-man rule there, and that there are no excessive 
treatments in either category. Just transparency, sir, with 
regard to families coming in. Any visitors that want to come 
tend to help those things police themselves. We need to 
continue to do that.
    Chairman Warner. Will you commit to the committee here that 
as you assume your role, if confirmed, that you put in place 
some control measures? In other words, no matter how much 
training, somebody has to watch to make sure it's being 
implemented. Also, do not hesitate to come back to the 
committee if you feel that certain aspects of this are 
inhibiting the ability of your units to perform their missions 
in combat to obtain that very valuable realtime intelligence 
which is needed to perform our operations, and perform it with 
minimal harm to our own warfighters. I think this is an ongoing 
problem, and we don't intend to assign a lawyer to every 
platoon to follow through what they're doing and read the 
Miranda rights to the enemy and all of those sort of things on 
the battlefield. This is a new chapter, but a necessary 
chapter--I don't mean to, in any way, belittle it--a new 
chapter in military life, in military responsibility and 
operations. It's certainly far different than anything that I 
ever witnessed in my somewhat modest and limited observation of 
those engaged in combat operations, but that's going to be your 
task.
    General Conway. Yes, sir.
    Chairman Warner. That's what this country stands for. The 
image of the country in the eyes of the world is something that 
every marine wants to take pride in, because he and his 
forebears have contributed to credibility and the effectiveness 
of this Nation as a leader in the world in so many ways.
    So, we have your assurance on that.
    General Conway. Mr. Chairman, you do. You are correct in 
your earlier statement that as J-3 operations, detainee 
resolution has not been one of my responsibilities, but it 
certainly, if confirmed, will become that. I certainly will 
need to examine it more closely and determine if it's something 
that we can live with. If not, I would be more than willing--in 
fact, I would see it necessary to come back before this 
committee.
    Chairman Warner. Always remember Harry Truman, that little 
sign on this desk, ``The buck stops here.''
    General Conway. Yes, sir.
    Chairman Warner. You ought to get one of those and put it 
on your desk. He was a great soldier and, I think, a great 
President.
    General Conway. I agree, sir.
    Chairman Warner. You are a Joint Speciality Officer (JSO). 
You exemplify that. DOD and the Joint Staff have developed the 
Strategic Plan for Joint Officer Management and brought forward 
legislative changes to the current system by which an officer 
qualifies to become a JSO. This legislation would bring more 
flexibility to the process of awarding credit for joint tours 
of duty of varying lengths and giving greater discretion to the 
Chairman of the Joint Chiefs to identify, fully, joint-
qualified officers. What is the assessment that you have of the 
need for change in this area? Do you think that individual 
officers who have served well in joint capacities are getting 
the credit and recognition under the present system that they 
should receive?
    General Conway. Sir, once again, I will be very honest and 
say I have not looked at this in detail. I can give you my 
impressions, having been in joint billets now a number of 
times, and currently in a joint billet, and even having heard 
the chairman and his immediate staff talk about it. I do think 
that it would be helpful were we to have some greater level of 
flexibility offered to the Chairman of the Joint Chiefs to 
award, if you will, recognition for joint service. There are 
some billets for which that just seem to make sense, and we 
scratch our heads as to why that person, with his day-to-day 
contact, would not be awarded a joint job.
    I do think that it's a marvelous concept to try to enforce 
the fact that jointness occur. Jointness, sir, is a way of 
doing business today. There are still some mechanics that have 
to be solved, but every officer that's been around the other 
Services knows that there's synergy in that. That's the way 
that we have to be able to fight and work on a daily basis.
    I do think that there's legislation in place to ensure that 
the importance of joint duty is recognized. Every time I see a 
promotion list, it has associated with it the numbers of joint 
officers and their selection rate, in comparison to the service 
headquarters selection rate. What I have seen over time now, 
and I experienced this as a colonel's monitor years ago, is 
that you send your best and brightest to joint duty to make 
sure that you don't get your knuckles rapped if your 
percentages should come back less than expected.
    Chairman Warner. That's a very good response, and if I may 
say, with a degree of immodesty, I think we've had a very good 
hearing. I hope you share that, my distinguished colleague.
    Senator Levin. I do, indeed.
    Chairman Warner. We have explored, indepth, a wide range of 
issues, and I compliment you on your responses. As Senator 
Levin said, we'll get the facts, and nothing but the facts, and 
the truthful facts. That, you have provided, and given us also 
your views and opinions.
    So, we wish you and your family well.
    This record will remain open until close of business today, 
should other members, who, for various reasons, are unable to 
attend the hearing wish to put questions to you.
    General Conway. Yes, sir.
    Chairman Warner. As soon as our two chiefs of staff 
indicate that the record has been completed, Senator Levin and 
I hopefully will bring this nomination to the full committee 
for a vote early next week, and then, subsequently, to the 
floor for what I believe will be a well-recognized and well-
earned confirmation by the United States Senate.
    Anything that you have to close on now?
    Senator Levin. Thank you. Thank you, General and family.
    General Conway. Thank you, Mr. Chairman. Thank you, Senator 
Levin, for the opportunity.
    Chairman Warner. Thank you to all in attendance. This 
hearing is adjourned.
    [Whereupon, at 11:41 a.m., the committee adjourned.]

    [Prepared questions submitted to Lt. Gen. James T. Conway, 
USMC, by Chairman Warner prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also vastly improved cooperation between the Services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. Not as the act specifically applies to the Military 
Departments; however, in the broader interagency context there are 
changes that could improve U.S. response to world events.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. The complexities of the global war on terror have 
demonstrated the need for broader participation and closer coordination 
by other Federal departments in order to effectively harness all 
elements of national power. Specifically, we need to continue to make 
progress in achieving greater efficiencies and effectiveness through 
the streamlining of interagency coordination, reducing duplication of 
effort across the Departments and accelerating the decisionmaking 
cycle.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commandant of the Marine Corps?
    Answer. The duties of the Commandant of the Marine Corps are 
primarily spelled out in title 10, section 5043, which I won't repeat. 
Fundamentally, the duties and responsibilities are to prepare the 
Marine Corps to fight and win the Nation's wars. Also, they are to 
advise the President, the National Security Council, the Secretary of 
Defense, and Secretary of the Navy on military matters. The Commandant 
executes these responsibilities as a member of the Joint Chiefs of 
Staff.
    One of the most important institutional responsibilities borne by 
the Commandant is the responsibility to lead our marines. Leadership in 
this context means continuously adapting the doctrine by which the 
Marine Corps will fight, and ensuring that this doctrine is converted 
into the training, tactics, and equipment to be used in executing our 
missions across the full spectrum of conflict and in support of 
humanitarian and other missions, as the President directs. The job of 
the Commandant is to ensure that the marines are ready. My unwritten 
responsibility, if confirmed, is to keep Congress, in its 
constitutional oversight role, informed of the truth.
    Question. What background and experience, including joint duty 
assignments, do you possess that you believe qualifies you to perform 
these duties?
    Answer. I have had the good fortune to serve in key service billets 
and joint assignments within the Department of Defense. I have 
commanded marines at virtually every level from platoon to Marine 
Expeditionary Force and in educating and training marines at every 
level. As a general officer, I have served as both the Deputy Director 
of Operations J-3 for Combating Terrorism and in my current billet as 
the Director for Operations, J-3. Both of these billets along with my 
recent responsibilities as a Division and MEF commander in combat have 
given me great insight into what combatant commands (COCOMs) require 
from the Marine Corps. My current responsibilities have provided me a 
unique opportunity to understand the challenges facing all the Service 
Chiefs today as they strive to meet their title 10 responsibilities in 
support of the combatant commanders.
    Question. Do you believe that there are any steps that you need to 
take to enhance your ability to perform the duties of the Commandant of 
the Marine Corps?
    Answer. No, I believe that with your continued assistance, the 
advice of my fellow Joint Chiefs, the continued exceptional performance 
of our marines and the strong support of my family, I have the 
abilities to perform the duties that will be expected of me, if 
confirmed.
                    major challenges and priorities
    Question. In your view, what are the major challenges that will 
confront the next Commandant of the Marine Corps?
    Answer. The major challenges confronting the next Commandant of the 
Marine Corps center on organizing, training, equipping, and manning 
units deploying in support of combatant commanders in the long war and 
transforming the force for the future. I believe the following specific 
issues will be important for the next Commandant to address:
    We are a Nation at war and our highest priority will remain our 
focus on the long war. At the same time we will seek to balance these 
priorities with our efforts to reset the force so that your marines 
remain most ready when the Nation is least ready.
    As a former MEF Commander and Director for Operations during 
Operation Iraqi Freedom (OIF), I am cognizant of the wear and tear we 
have put on our gear. We need to be honest with ourselves and the 
taxpayer on what it will take to properly reestablish our readiness. We 
must ensure that our material requirements are validated and resourced 
in order to ``reset'' the force for both near- and long-term readiness. 
This will require rigorous reexamination of basic unit requirements in 
view of OIF, and disciplined assessments of material degradation from 
several years of employment under arduous climatic conditions and high-
usage rates. I intend to be a very prudent steward of the resources 
entrusted to me, as marines have always been, and intend to manage 
these resources so that we maximize the capabilities that we make 
available to the combatant commanders.
    I will be working with my naval partner, the Chief of Naval 
Operations, to design and build tomorrow's fleet. My expectation is 
that the next 2 decades will place a premium on flexible and mobile 
sea-based maneuver. In a world of uncertainty, we should exploit the 
global commons and maneuver at sea for advantage ashore.
    As we go forward it is critical to continue our improvements to our 
training and education in the Marine Corps. We have made changes to our 
Professional Military Education that have improved the educational 
experience for our finest asset, the individual marine. The challenge 
for the way ahead is to adapt and stay ahead of our adversaries through 
continual assessment and implementation of our lessons learned from our 
current engagements. If confirmed, I will sustain the numerous 
initiatives in place to advance the training and education so that our 
marines are tactically cunning, culturally savvy, disciplined warriors 
who are led by mentally agile commanders.
    You have a fantastic Marine Corps and you are rightfully proud of 
them. The challenge will be continuing to attract, recruit, sustain, 
and retain quality marines. I am especially interested in the long-term 
effects of our combat Deployment Tempo (DEPTEMPO) and in the 
sufficiency of medical care provided to our marines, particularly those 
recovering from injuries received in Operation Enduring Freedom (OEF) 
and OIF. While our attention is naturally drawn to preparing for 
operations far away, we must ensure we provide for the families of our 
marines while they are away and upon their return.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. I have only just begun to look at these issues in 
preparation for the confirmation hearing. While I am most concerned 
with readiness, I will continue to seek counsel from Congress, visit my 
general officers, the combatant commanders, and work with my sergeant's 
major to develop plans to address these issues. If confirmed, I will 
set my agenda and disseminate my vision during the initial days of 
assuming duties as the Commandant of the Marine Corps.
    Question. If confirmed, what broad priorities would you establish 
in terms of issues that must be addressed by the Commandant of the 
Marine Corps?
    Answer. If confirmed as Commandant of the Marine Corps, my first 
priorities will be to make sure marines are well-trained, well-
equipped, and well-led. The underlying foundation is our marines and 
their families--to them we owe the best in training, leadership, and 
equipment. We will continue to train and educate to sustain a lean and 
agile Service ready to fight the global war on terrorism and ready to 
adapt to change in future environments. The lynchpin to this continued 
readiness for our Nation is a commitment to reconstitution of our force 
and an acceptable pace of modernization.
        role of the marine corps in the global war on terrorism
    Question. The main focus of the United States military has been on 
the war in Iraq and Afghanistan, and the Marine Corps has had a major 
role in OIF and OEF.
    What do you see as the Marine Corps' role in the continuing global 
war on terrorism?
    Answer. We will continue to be engaged in Iraq so long as it is a 
counterinsurgency. The Marine Corps remains committed to balancing an 
increase in irregular warfare capabilities with maintaining essential 
conventional warfighting capabilities. We believe this is necessary to 
identify the right mix of capabilities that support the global war on 
terror while maintaining our ability to respond to any contingency. We 
have established and are fielding the Marine Special Operations Command 
as an integral component of USSOCOM. Additionally, the Marine Corps is 
reprioritizing and improving our irregular warfare capabilities to 
better support SOCOM and other COCOM plans for the global war on 
terror. By accepting and managing risk in traditional capabilities, we 
will increase our SOF-like and irregular capabilities and capacities 
while still maintaining our ability to respond to major war plans.
    Additionally, our forward-deployed posture represents a unique 
capability to respond to humanitarian assistance and disaster relief, 
assist other countries, and thwart terrorism through non-kinetic 
measures. It also supports theater security cooperation enabling us to 
build partner capacity to fight terrorism.
    Question. What role do you envision for the Marine Corps in 
homeland security and homeland defense?
    Answer. It is important to emphasize that defense of the homeland 
begins not on our shores, but on far shores as part of a collaborative 
interagency defense-in-depth. As a Total Force in readiness, this is 
and will continue to be the Marine Corps' primary contribution to 
homeland defense.
    When and if directed by the President or Secretary of Defense, the 
Marine Corps uses its Active-Duty and Reserve Forces to rapidly respond 
to a threat in the homeland, whether the threat is from nature, such as 
a hurricane, or from terrorists. Marine Forces North is our lead 
component dealing with homeland defense and as such regularly 
participates in homeland defense exercises across the country. These 
marines bring the same esprit, hard work, and dedication to mission 
accomplishment and that our forward deployed forces bring to the fight 
overseas.
    Question. If confirmed, do you plan any major changes to Marine 
Corps warfighting doctrine?
    Answer. Major changes--no, I do not. There will likely be 
evolutionary changes associated with lessons learned in the global war 
on terror. Our warfighting doctrine is well-crafted and timely. New 
realities in the post-September 11 world have given cause to examine 
this doctrine and supporting documentation.
                marine forces special operations command
    Question. Marine Corps Forces, Special Operations Command (MARSOC), 
is a new subordinate command to the USSOCOM that was established 
earlier this year.
    What is your assessment of the progress made in establishing 
MARSOC, and what do you consider to be the principal issues that must 
be addressed to make it fully operational?
    Answer. The Goldwater-Nichols Act for jointness and Department of 
Defense efforts at transformation have resulted in a Marine component 
of MARSOC. As noted, MARSOC was created earlier this year and will 
achieve full operational capability in fiscal year 2008. There are 
several issues we need to work through such as deployment and 
employment relationships, the impact of a tour in MARSOC on a marine's 
career pattern, and how the Corps is best able to use their operational 
experience when they return from MARSOC to conventional Marine Corps 
Forces.
                  effects of deployments on readiness
    Question. What is your assessment of the current state of readiness 
of the Marine Corps?
    Answer. We have ensured that all deployed forces are at the highest 
readiness levels. All units are trained, manned, and equipped to 
accomplish their assigned missions. Our marines in harm's way have the 
equipment and resources they need to fight and win.
    Over 2,100 Marine leaders are filling transition teams, manning 
joint headquarters, and providing critical capabilities to forward 
deployed units. Despite this, our manpower readiness remains high and 
morale remains strong. Overall, the current operations tempo (OPTEMPO) 
has not been detrimental to readiness at this point, however this is 
something that we will need to continue to examine in order to 
determine its impact over the course of the long war.
    Training levels are also high, particularly for units deploying to 
OIF. One of the great strengths of the Marine Corps has been the 
ability to rapidly garner lessons learned overseas and insert changes 
into our training plans and exercises. This flexibility has allowed us 
to stay at a high level of readiness for training. One area that does 
bear a close watch is the lack of training opportunities for our non-
deploying units due to shortages in manpower and equipment. Overall, 
our current equipment readiness is good among the units deployed to 
Iraq; a testament to the young men and women who are taking care of 
their gear in severe conditions. However, I am concerned about long-
term readiness. The long war's harsh environmental conditions, higher 
than normal utilization rates, increased wear, and attrition will 
require the accelerated repair and replacement of ground and aviation 
equipment. In addition, depot maintenance repair requirements for our 
equipment will continue past the end of hostilities.
    For our non-deployed forces, replacing combat losses, fielding 
transition team requirements, and lower supply/maintenance priorities 
degrade their readiness.
    If confirmed, my priorities will be to reset the force and to 
support modernization.
    Question. In your judgment, are combat operations in Iraq and 
Afghanistan adversely affecting the readiness or retention of marines 
on Active-Duty and in the Reserve component?
    Answer. In terms of retention, absolutely not. As evidenced with 
our most recent statistics on recruiting and retention, this country's 
young people continue to demonstrate a willingness to join the Marine 
Corps and serve in the Nation's defense. During past fiscal years, the 
Marine Corps has attained its accession goals and anticipates 
continuing this achievement for the foreseeable future. That said, if 
the current DEPTEMPO remains high, we could see long-term consequences. 
If confirmed, I will examine the long-term effect that combat DEPTEMPO 
has on a career.
    Question. If confirmed, what will be your priorities for 
maintaining readiness in the near-term, while modernizing the Corps to 
ensure readiness in the out-years?
    Answer. Current readiness, particularly for our deployed forces 
has, by law, always been the focus of the Marine Corps. Our long-term 
readiness however is dependent upon resetting and modernizing the 
force; I will seek additional funding to defray the cost of the war 
expenses that threaten to eat away at Marine Corps readiness and 
modernization planning for the future.
                        recruiting and retention
    Question. What do you consider to be the key to the Marine Corps' 
success in recruiting the highest caliber American youth for service 
and retaining the best personnel for leadership responsibilities?
    Answer. There will always be great American youth who want to 
accept the challenge to be a United States marine. In order to operate 
and succeed in potentially volatile times, marines must be physically 
fit, morally strong, intelligent, and comfortable with high technology. 
Recruiting quality youth ultimately translates into high performance, 
reduced attrition, increased retention, and improved readiness for the 
operating forces.
    Recruiting is the lifeblood of our Corps, and it is the foundation 
for the Marine Corps to ``Make Marines, Win Battles, and Create Quality 
Citizens.'' As such, the Corps recognizes the importance of assigning 
the best marines to fulfill this vital role in maintaining its 
operating forces. Therefore, the Marine Corps sends Headquarters 
Recruiter Screening Teams throughout the force to ensure the most 
qualified marines are selected for recruiting duty. The Marine Corps 
conducts an annual selection board to select Majors to command 
Recruiting Stations to ensure our best officers are assigned to 
recruiting duty.
    The Marine Corps Recruiting Command (MCRC) serves as the conduit 
that provides the Corps with a steady flow of quality enlisted and 
officer accessions. During fiscal year 2005, the MCRC succeeded in 
achieving its accession mission, ensuring the Marine Corps met its 
appropriate end strength. Unique in this process is the command 
relationship between the recruitment and initial training of these 
young men and women. The commanding general of each recruiting region 
is also responsible for the initial recruit training or ``boot camp.'' 
Therefore, each commanding general is responsible for the recruitment 
and initial training has direct influence on the quality of young men 
and women arriving at boot camp. Additionally, each recruiter is 
evaluated on his applicant's success at boot camp. Quality of 
individuals is stressed at all levels throughout the process of 
transforming marines. This results in young marines who are committed 
to fulfilling a promise to their Nation--that they be ready to fight 
and win when she calls.
    Question. What steps do you feel should be taken to ensure that 
current operational requirements and tempo do not adversely impact the 
overall readiness, recruiting and retention, and morale of the Marine 
Corps?
    Answer. As stated earlier, I am also concerned with the possibility 
of long-term effects of combat DEPTEMPO on career progression. 
Optimally, we would like to achieve a sustainable deployment ratio, 
employ our Reserves as envisioned, and better manage the personnel 
tempo of those marines in high demand-low density MOSs. General Hagee 
has stated the USMC will require about 180,000 marines. If confirmed, I 
will address this challenge. To ensure the Nation retains a viable, 
capable Marine Corps and avoid hollowing our force, endstrength changes 
require a considerable, concomitant investment--in manpower accounts, 
for infrastructure, and equipping the force.
                            quality of life
    Question. What do you consider to be the most essential elements 
supporting the quality of military life for marines and their families, 
and if confirmed, what would be your goals in this regard?
    Answer. Quality of life means ensuring marines are well-trained, 
well-equipped, and well-led, so when we ask them to fight, they can 
win--and return home to their families. If I am confirmed, this will be 
my number one priority.
    Individually, marines define quality of life as sufficient 
financial compensation, a reasonable OPTEMPO, health care, housing, 
infrastructure/installation management, and community services. This 
means that while our marines are deployed, we will take care of their 
families as if they are our own. When our marines return to their home 
stations, we will do our best to ensure that their needs are met, and 
the wide range of community services that we provide are well-tailored 
to support the requirements of the marines and their families.
    Question. Have you recently visited the regimental level enclaves 
at Camp Pendleton?
    Answer. Not since I was the commanding general of 1st Marine 
Division in 2002.
    Question. Does the single unaccompanied Marine Corps housing there 
meet your standards for an appropriate quality of life?
    Answer. Absolutely not. Our marines expect better; they deserve 
better. Historically, in providing for our marine families, we were 
forced into a situation that we could not concurrently provide for our 
single marines. As division commander, I visited all of those 
regimental camps and I found that single, unaccompanied Marine Corps 
housing at Camp Pendleton did not meet my standards for an appropriate 
quality of life. The Marine Corps is currently committed to resolve all 
remaining bachelor housing deficiencies by fiscal year 2012, under a 
program initiated by the Commandant. If confirmed, I intend to carry 
out General Hagee's commitment.
                            recapitalization
    Question. The Marine Corps intends to concurrently recapitalize 
several of its front line systems. The MV-22 Osprey tiltrotor aircraft, 
the Expeditionary Fighting Vehicle, and the Joint Strike Fighter are 
all scheduled to be in production at the same time.
    Do you believe that these production plans are realistic in light 
of the demands on resources imposed by maintaining current readiness?
    Answer. We have no other choice. The dual requirements of 
modernizing the force for the long war while sustaining combat 
operations in support of the global war on terror does strain the 
limited resources available to the Marine Corps. We could not 
accomplish both these tasks without the responsive effort of Congress. 
The Corps has been very careful to ensure that we have clearly 
identified our requirements and that we field only those capabilities 
necessary for our Nation's defense. Through the efforts of marines, 
industry, and Congress, we have an achievable long-term plan to provide 
better trained and equipped marines for the long war.
                   army and marine corps capabilities
    Question. What are your views regarding the joint development and 
acquisition of Army and Marine Corps equipment?
    Answer. I fully support the joint development and acquisition of 
Army and Marine Corps equipment. Our two Services share a great deal in 
common with regard to tactics, and the operational environment. 
Further, insofar as the global war on terrorism is concerned, we fight 
the same enemy side-by-side, on the same ground. We often find that we 
share common requirements. When that occurs, joint development and 
acquisition are clearly warranted; it reduces costs and ensures 
compatibility. I would add a cautionary note, however: under some 
circumstances there are differences in roles and missions that drive 
differences in requirements. These provide the Nation with the broad 
spectrum of capabilities it requires.
    Question. Do you believe the Joint Staff should have a role in 
synchronizing Army and Marine Corps requirements and service programs?
    Answer. Both Joint Forces Command and the Joint Staff are in a 
position to assist the Army and Marine Corps in identifying 
opportunities to exploit commonality in our requirements, and to 
facilitate cooperative development of systems. Joint Staff oversight of 
requirements definition maximizes the interoperability that is critical 
to battlefield success, and ensures requirements for those Service 
unique capabilities are met.
    Question. What programs would you consider to be candidates for 
joint program development for the Army and Marine Corps?
    Answer. Where the Army and Marine Corps find commonality in 
missions, tactics, and operational environments, there will be 
opportunities for joint program development. The global war on 
terrorism provides many examples. Army and Marine Corps forces in Iraq 
and Afghanistan face the same threat, under the same conditions, and 
are accomplishing the same mission. Accordingly, the two Services 
require similar mobility capabilities. As we seek a replacement for the 
aging fleet of High Mobility, Multi-purpose Wheeled Vehicles, the Army 
and Marine Corps should pursue a common replacement, such as the Joint 
Light Tactical Vehicle. Similarly, because the Army and Marine Corps 
have the same requirements in force protection, comprehensive vehicle 
survivability measures are sound candidates for joint development. 
Other areas include command and control systems, some infantry weapons, 
and artillery systems. Our goal is to continue to achieve the same 
resounding success the Army and Marine Corps realized with the joint 
development of the 155mm howitzer.
                               sea basing
    Question. The Sea Base has long been envisioned as an element of 
the Department of the Navy's Sea Power 21 concept and has emerged in 
this future years defense program as one of the centerpieces of the 
future force.
    If confirmed, how will you ensure that the Sea Base concept of 
operations is fully integrated with the Marine Corps operational 
requirements?
    Answer. The Marine Corps uses a concept based requirements system, 
in which our baseline requirements are derived from a family of 
warfighting concepts. We have adopted the Joint Seabasing Concept as 
one of our own, and it appears within our most recently published 
volume of Service concepts. At our Marine Corps Combat Development 
Command, we have established a Seabasing Integration Division that is 
organized and manned specifically for the purpose of ensuring that the 
actions we take to implement the tenets of the Joint Seabasing Concept 
are fully integrated with our other requirements. We vet each 
requirement for its applicability to seabasing to ensure that our 
equipment and our organizational structure are designed to facilitate 
seabased operations.
    Question. What are the Marine Corps' greatest challenges in 
projecting power from the Sea Base in support of operations ashore?
    Answer. Our single greatest challenge is the availability of 
sufficient amphibious and maritime prepositioning ships to enable the 
strategic deployment and operational employment of a credible and 
sustainable seabased force. We work closely with our Navy counterparts 
to address the design and resourcing of these ships, which provide our 
Nation with proven capabilities in forward presence and forcible entry.
                          joint forces command
    Question. In your view, what is the appropriate role for the U.S. 
Joint Forces Command (USJFCOM) with respect to Marine Corps 
experimentation, acquisition, and exercise planning and execution?
    Answer. The greatest impact that the USJFCOM can have is through 
its influence on joint standards and harmonization. With respect to 
acquisition programs, while we do not want to sacrifice what are truly 
unique contributions to national security in the name of jointness, it 
is important that we rigorously consider alternatives. USJFCOM can 
serve as a catalyst for this consideration through its experimentation 
efforts. It is appropriate for USJFCOM to work in partnership with the 
regional combatant commanders to coordinate and synchronize of 
worldwide joint exercises, provide joint training models and scenarios, 
and establish joint training tasks, conditions, and standards.
                       naval surface fire support
    Question. The DD(X) program was initiated to fill the capability 
gap for naval surface fire support. The original requirement for 24 to 
32 DD(X) ships, each with two 155mm Advanced Gun Systems, was reduced 
to 12 ships, and then to 10 ships in prior years and has been further 
reduced to 7 ships in the proposed fiscal year 2007 budget.
    In your view, does this significant reduction in the number of 
DD(X) destroyers meet the Marine Corps' requirement for Naval Surface 
Fire Support?
    Answer. Our operational lessons learned from Iraq and Afghanistan 
emphasizes the value of volume and precision fires. We have 230 years 
of naval interest in this area and know that the transformational 
technology the Navy is developing will make NSFS relevant and vital to 
our concepts for conducting Expeditionary Maneuver Warfare in the 
future.
    Given the current fiscal environment, there is additional risk due 
to the reduction in planned DD(X)s procurement; this results in some 
unaddressed targets and increased time to accomplish the mission during 
a forcible entry scenario.
                       joint acquisition programs
    Question. What are your views regarding joint acquisition programs, 
such as the Joint Tactical Radio System (JTRS) and the Joint Strike 
Fighter (JSF)?
    Answer. The Marine Corps fully supports more joint development 
where common capability gaps exist. The end result of a joint program 
office is to achieve commonality and affordability. Services 
participating in joint programs leverage off each others strengths to 
ensure that the program delivers an affordable solution to a joint 
requirement.
    The JSF program is an excellent example of a joint program 
fulfilling the joint common solution. With the USAF and the USN, the 
JSF program is based on delivering three variants of aircraft that will 
still allow each Service to fill its particular mission set, but 
strives to maintain affordability of the program with commonality. The 
JSF Program Office maintains personnel from all Services and also 
includes an additional eight countries who are interested in procuring 
the JSF, allowing each Service to work on common solutions yet still 
meet their specific mission requirements for the aircraft.
    Another example of a successful joint program office is the V-22. 
Additionally, the Marine Corps is partnering with the Air Force on the 
C-130J.
    JTRS may be a classic example of a single program that is 
challenged by both technology and the attempt to provide all of the 
capabilities desired by all Services. In this case, both requirements 
and technology need to be properly synchronized.
    Question. Do you see utility in encouraging the Services to conduct 
more joint development, especially in the area of helicopters and 
unmanned systems?
    Answer. Yes, there is utility and cost savings inherent in the 
joint development. In the area of unmanned aircraft system development 
opportunity exists to jointly develop common capability sets. Service 
specific requirements most often require unique attributes of the air 
vehicle: speed, range, stealth characteristics, payload capacity, 
launch and recovery method, etc. but command and control methods and 
payload capabilities are often ``commodity capabilities'' that lend to 
joint development.
    For helicopters, there is utility in collaboration on aircraft 
subsystems, aircrew safety/survivability, aircraft safety/
survivability, avionics for situational awareness and communication 
devices. We must continue this process for the long-term and explore a 
joint follow-on aircraft development. However, the unique nature of 
ship-board operations is a prevailing characteristic that marines must 
address and operationalize in our procurement processes.
    Question. If so, what enforcement mechanisms would you recommend to 
implement more joint program acquisition?
    Answer. I have not had an opportunity to study the specifics of 
joint program acquisition in enough detail to provide an acceptable 
answer to the committee.
                            service in iraq
    Question. During your prior combat tours of duty in Iraq, were 
there any incidents within your command of detainee abuse or 
allegations of abuse of civilians like those at Haditha and Hamandiya? 
If so, please explain the circumstances and the describe the actions 
that you took in response to these incidents?
    Answer. My prior tours in Iraq presented, in some ways, a uniquely 
different set of circumstances. OIF Part I was the more traditional 
combat mission. So the interface and interaction with the civilians was 
fundamentally different than that found in Iraq today. However, there 
was the expectation then, as there is today, that marines will comply 
with our core values and that we protect those on the battlefield that 
we should protect and that we will not harm those that come under our 
control.
    We did have some substantiated cases of detainee abuse, but there 
were very few of those. There were cases that included actions such as 
assault (the assault in one case was severe enough that the detainee 
subsequently died), destruction of property, and mistreatment of 
detainees. The marines involved were held accountable at a variety of 
different disciplinary forums--some were court-martialed and others 
received non-judicial punishment. In sum, if a marine went beyond the 
bounds of acceptable behavior they were held accountable.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes, sir.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes, sir.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as Commandant of the Marine 
Corps?
    Answer. Yes, sir.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes, sir.
                                 ______
                                 
    [Question for the record with answer supplied follows:]
                Question Submitted by Senator John Thune
                      changes to the marine corps
    1. Senator Thune. General Conway, as Commandant of the Marine 
Corps, you would obviously have enormous responsibility in attending to 
the organization and readiness of the Marine Corps and for advising the 
President. Given your reputation as an officer who is consistently 
objective, honest, and dedicated to the success of the mission, in 
conjunction with your extensive combat experience, what are some 
changes, if any, that you would propose the Marine Corps make?
    General Conway. There are many issues that I am studying as I 
prepare to assume the duties and responsibilities of Commandant of the 
Marine Corps. My goal will be to provide our Nation that which she has 
come to expect for the past 230 years: marines, trained, educated, 
equipped; ready and determined to prevail over whatever challenges lay 
ahead all the while being prudent stewards of the country's resources.
    Any changes will be designed to hone the unique air-ground-
logistics capabilities inherent in all Marine air-ground task forces 
(MAGTFs). The ability of your marines to operate and win in complex 
environments depends on their ability to expertly coalesce all the 
combat power of an air-ground logistics force. The unique ability of 
marines to operate as a MAGTF provides our Nation with capabilities 
much greater than the sum of its parts--true in all sizes of the MAGTF 
from Marine Expeditionary Unit to Marine Expeditionary Force and 
equally true throughout the spectrum of warfare from humanitarian 
assistance to major combat operations. This unique ability will 
continue to be forged through intense training throughout our Marines' 
military service, from boot camp to battlefield, and at every level, 
from squad-level drills to MATGF staff planning.
    Furthermore, with the additive advantages of the right technologies 
and equipment, our core competencies of warfighting excellence will 
continue to provide certainty in execution whenever our country calls. 
Of course, continued improvement in training, equipping, and 
organization would be negligible if the force we have today is not 
properly and rapidly reconstituted and reset. Providing America a 
credible force--fully manned and equipped--is imperative. My plans will 
focus on ensuring that our Nation will continue to have a Corps of 
Marines, trained, manned, and equipped-ready to answer her call.
    I look forward to discussing these issues and solutions to these 
challenges with you in the future. I am confident that with your 
support, our Marine Corps will remain our Nation's force in readiness.
                                 ______
                                 
    [The nomination reference of Lt. Gen. James T. Conway, 
USMC, follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 14, 2006.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment as Commandant of the 
Marine Corps, and appointment to the grade indicated while assigned to 
a position of importance and responsibility under title 10, United 
States Code, sections 5043 and 601:

                             To be General

    Lt. Gen. James T. Conway, USMC, 0000.
                                 ______
                                 
    [The biographical sketch of Lt. Gen. James T. Conway, USMC, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
       Resume of Service Career of Lt. Gen. James T. Conway, USMC
Date of Rank: 2 Dec. 2002.

Date of Birth: 26 Dec. 1947.

Date Commissioned: 1 Nov. 1970.

MRD: 1 Jul. 2009.

Education/Qualifications:
    Southeast Missouri State University, BS, 1969.
    The Basic School, 1971.
    Marine Corps Command and Staff College, 1983.
    Air War College, 1989.
    CAPSTONE, 1998.
    Joint Flag Officer Warfighting Course, 1998.
    Infantry Officer.
    Joint Specialty Officer.

Language(s): None.

Commands:
    Commanding General, I Marine Expeditionary Force (Lieutenant 
General: Nov. 2002-Sept. 2004).
    Deputy Commander, U.S Marine Forces Central Command (Major General: 
Aug. 2002-Nov. 2002).
    Commanding General, 1st Marine Division (Major General: Aug. 2000-
July 2002).
    President, Marine Corps University (Brigadier General: Oct. 1998-
July 2000).
    Commanding Officer, The Basic School (Colonel: Apr. 1993-June 
1996).
    Commanding Officer, 3d Battalion, 2d Marines, 2d Marine Division 
(Lieutenant Colonel: Jan. 1990-July 1991).

Joint Assignments:
    Deputy Director, J-3 (NMCC-3; J-34), Joint Staff (Brigadier 
General: June 1996-Sept. 1998).
    Senior Aide to Chairman of the Joint Chiefs of Staff (Lieutenant 
Colonel: Sept. 1985-0ct. 1987).

Service Staff Assignments:
    Head, Promotions Branch; Head, Officer Assignments Branch 
(Lieutenant Colonel/Colonel: July 1991-Apr. 1993).
    Operations Officer, G-3, 2d Marine Division (Lieutenant Colonel: 
May 1989-Jan. 1990).
    Head, Current Operations Branch, Plans, PP&O Department (Lieutenant 
Colonel: Oct. 1987-June 1988).

Significant Combat Experience:
    Commanding General, I Marine Expeditionary Force (Operation Iraqi 
Freedom I).
    Commanding Officer, 3d Battalion, 2d Marines (Operations Desert 
Shield/Storm).
    Operations Officer, 31st Marine Amphibious Unit (Beirut).
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Lt. Gen. James 
T. Conway, USMC, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    James T. Conway.

    2. Position to which nominated:
    Commandant of the Marine Corps.

    3. Date of nomination:
    June 9, 2006.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    December 26, 1947; Walnut Ridge, Arkansas.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Annette Louise Drury Conway.

    7. Names and ages of children:
    Brandon, age 34; Scott, age 32; and Samantha, age 28.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Sigma Phi Epsilon SE Missouri State University; President.
    Inter Fraternity Council SE Missouri State University; President.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    Scholarship; Southeast Missouri State University.
    Seminar XXI, Massachusetts Institute of Technology.
    Harvard Executive Leadership Series, 1999.
    Southeast Missouri State University Alumni of the Year, 2004.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                    Lt. Gen. James T. Conway, USMC.
    This 6th day of June, 2006.

    [The nomination of Lt. Gen. James T. Conway, USMC, was 
reported to the Senate by Chairman Warner on August 1, 2006, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on August 2, 2006.]


  NOMINATIONS OF GEN BANTZ J. CRADDOCK, USA, FOR REAPPOINTMENT TO BE 
   GENERAL AND TO BE COMMANDER, U.S. EUROPEAN COMMAND; VADM JAMES G. 
STAVRIDIS, USN, FOR APPOINTMENT TO BE ADMIRAL AND TO BE COMMANDER, U.S. 
SOUTHERN COMMAND; NELSON M. FORD TO BE ASSISTANT SECRETARY OF THE ARMY 
  FOR FINANCIAL MANAGEMENT AND COMPTROLLER; AND RONALD J. JAMES TO BE 
    ASSISTANT SECRETARY OF THE ARMY FOR MANPOWER AND RESERVE AFFAIRS

                              ----------                              


                      TUESDAY, SEPTEMBER 19, 2006

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:36 a.m. in room 
SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Talent, Cornyn, Levin, and Reed.
    Committee staff members present: Charles S. Abell, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: William M. Caniano, 
professional staff member; Regina A. Dubey, professional staff 
member; Gregory T. Kiley, professional staff member; Sandra E. 
Luff, professional staff member; Derek J. Maurer, professional 
staff member; Elaine A. McCusker, professional staff member; 
David M. Morriss, counsel; Lynn F. Rusten, professional staff 
member; Sean G. Stackley, professional staff member; Scott W. 
Stucky, general counsel; Kristine L. Svinicki, professional 
staff member; Diana G. Tabler, professional staff member; and 
Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Evelyn N. Farkas, professional staff 
member; Michael J. Kuiken, professional staff member; Gerald J. 
Leeling, minority counsel; Peter K. Levine, minority counsel; 
and Michael J. McCord, professional staff member.
    Staff assistants present: David G. Collins and Jessica L. 
Kingston.
    Committee members' assistants present: Russell J. 
Thomasson, assistant to Senator Cornyn; Bob Taylor and Stuart 
C. Mallory, assistants to Senator Thune; Mieke Y. Eoyang, 
assistant to Senator Kennedy; Frederick M. Downey, assistant to 
Senator Lieberman; Elizabeth King, assistant to Senator Reed; 
and William K. Sutey, assistant to Senator Bill Nelson.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning, everyone.
    We're pleased that we have four distinguished nominees 
before the committee this morning.
    On our first panel, we have General John Craddock, United 
States Army, who has been nominated to be Commander, United 
States European Command (EUCOM), and Vice Admiral James 
Stavridis, U.S. Navy, who has been nominated to be Commander, 
United States Southern Command (SOUTHCOM).
    On our second panel, we'll consider two civilian 
nominations: Nelson Ford, who has been nominated to be 
Assistant Secretary of the Army for Financial Management and 
Comptroller, and Ronald James, who has been nominated to be the 
Assistant Secretary of the Army for Manpower and Reserve 
Affairs.
    We welcome our nominees, and we welcome their families.
    I now ask General Craddock and Admiral Stavridis to 
introduce their guests. But, first, Senator Levin, do you have 
comments before we continue?

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Let me ask that my full statement be 
inserted into the record and I will simply join you in 
welcoming our four well-qualified nominees. We welcome their 
families. I join you in saying, as we always do, how indebted 
we are to the families of our nominees, because they, indeed, 
sacrifice a great deal to make it possible for the nominees to 
perform their duties. We appreciate their willingness, as well 
as our nominees' willingness, to continue in public service and 
to support that service.
    Chairman Warner. I very much associate myself with that. I 
usually wait until after they're introduced, and then I'm able 
to speak to them, but we'll go right ahead.
    General, won't you introduce your family?
    General Craddock. Thank you, Mr. Chairman. I would first 
like to introduce my wife, Linda, who is the best soldier in 
the Craddock family, by far. She and I have soldiered on 
several great adventures over the last 35 years in support of 
the Army and in support of our Nation's Armed Forces. She takes 
care of soldiers and families, and now, in the joint world, our 
servicemembers and their families, and does it magnificently. 
So, I'm glad she's here with us today.
    Also, I'd like to introduce a dear friend and neighbor from 
Coral Gables, Ana Navarro. We have established a wonderful 
friendship since my assignment down to U.S. SOUTHCOM in the 
Miami area, and I'm certainly glad--and Linda's glad--that 
she's here with us today.
    I have two members, here on the front row, from the 
SOUTHCOM legislative affairs staff that probably are no 
stranger to most folks here, Kim Lowry and Paula Penson. I 
think they have done a magnificent job preparing us for today's 
event.
    So, I thank you, Mr. Chairman.
    Chairman Warner. Thank you very much.
    Admiral Stavridis?
    Admiral Stavridis. Thank you very much, Senator Warner.
    I have my own small delegation here today. Senior member, 
my mom, Shirley Stavridis. She was the wife of my dad, a 
retired Marine colonel, who's passed away, but I hope is with 
us in spirit today. Also, my wife, Laura, who's been with me 
throughout my entire Navy career, and been the keeper of the 
home fires on the 12 operational deployments I've made in 30 
years in the Navy. I'm very proud of her, and I'm proud she 
could be here with us today. Also, my two daughters, Christina, 
who's a senior at the University of Virginia, where they call 
them ``fourth-years.'' She's going to graduate, and hopes to 
come up and work here in Washington somewhere when she finishes 
in school. So, we're all trying to talk her out of that, but 
she'll probably end up coming anyway. My other daughter, Julia, 
who's 15, and she's a sophomore at Bishop O'Connell High 
School, in Arlington, Virginia. We have two good friends here, 
Greg and Diane Lengyel. Greg's an Air Force colonel and is 
doing a fellowship over at Brookings, and thought he might come 
over here and see what a Senate hearing looks like. Lastly, 
Lieutenant Colonel Skip Sherrell, from the Joint Staff, who has 
been very helpful this week in enabling me to come and pay some 
calls on all the distinguished Senators.
    Thank you very much, sir.
    Chairman Warner. Thank you, Admiral.
    I welcome all the families. As my colleague Senator Levin 
said, we recognize that we don't get to these seats, with these 
ranks, unless there's been a strong and full partnership with 
the family members throughout those long careers. Both of these 
gentlemen have been recognized by the President of the United 
States for their extraordinary professional capabilities. In 
these two men, subject to the confirmation by the Senate, the 
President and the Nation reposes a very heavy responsibility, 
not only as it relates to the men and women in uniform under 
their command, and the many civilians that are also associated, 
but entrusted them to keep the freedom that we enjoy here at 
home, and the credibility of the United States in the eyes of 
the world beyond our shores.
    I particularly enjoyed visiting with your mother. I 
reminisced about how cold it was in Korea, and she 
corroborated. Your father, her husband, had the same problem I 
had when we got back home. Thank you for that. That's very 
reassuring.
    General Craddock, you currently serve as Commander of the 
U.S. SOUTHCOM, a position you have held since November 2004. 
You are an armor officer, by specialty; quite the distinguished 
career, with various operational assignments and units in the 
3rd Armored Division, the 24th Infantry Division, was battalion 
commander during Operation Desert Storm, awarded the Silver 
Star, and the ``Big Red One,'' the 1st Infantry Division, which 
you commanded from 2000 to 2002. You served previously on the 
Joint Staff as the Assistant Deputy Director of Strategy and 
Policy and as Senior Military Assistant to the Secretary of 
Defense. That's a very distinguished career.
    Admiral, you currently serve as the Senior Military 
Assistant to the Secretary of Defense. You, too, have had an 
exceptional and distinguished military career: commanding 
officer of the U.S.S. Barry, the second in that class of ships, 
the DDG-52s, from 1993 to 1995; subsequently commanded 
Destroyer Squadron 21, and on it goes with a number of ships. 
But we also talked a great deal about mutual friends that you 
have in the Navy, and particularly Admiral Mack, who is 
Superintendent of the Naval Academy, and what a profound 
influence he had on you.
    Admiral Stavridis. Yes, sir.
    Chairman Warner. The committee has asked our nominees to 
answer a series of advanced policy questions. They've responded 
to those questions. Without objection, I will make the 
questions a part of the record.
    I also have certain standard questions we ask of each 
nominee who appears before the committee, and I'll now propound 
those questions and ask if you will respond accordingly.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    General Craddock. Yes, sir.
    Admiral Stavridis. Yes, sir.
    Chairman Warner. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    General Craddock. No, sir.
    Admiral Stavridis. No, sir.
    Chairman Warner. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    General Craddock. Yes, sir.
    Admiral Stavridis. Yes, sir.
    Chairman Warner. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    General Craddock. Yes, sir.
    Admiral Stavridis. Yes, sir.
    Chairman Warner. Will those witnesses be protected from any 
reprisal for their testimony in the briefings?
    General Craddock. Yes, sir.
    Admiral Stavridis. Yes, sir.
    Chairman Warner. Do you agree, if confirmed, to appear and 
testify, upon request, before this committee?
    General Craddock. Yes, sir.
    Admiral Stavridis. Yes, sir.
    Chairman Warner. Do you agree to give your personal views, 
if asked by this committee to do so, even if those views differ 
or are inconsistent with the administration then in office?
    General Craddock. Yes, sir.
    Admiral Stavridis. Yes, sir.
    Chairman Warner. Do you agree to provide documents, 
including copies of electronic forms of communications, in a 
timely manner, when requested by a duly constituted committee 
of Congress, or to consult with the committee regarding the 
basis for any good-faith delay or denial in providing such 
documents?
    General Craddock. Yes, sir.
    Admiral Stavridis. Yes, sir.
    Chairman Warner. I'd like now to ask if either of the 
nominees has a statement.

     STATEMENT OF GEN BANTZ J. CRADDOCK, USA, NOMINEE FOR 
REAPPOINTMENT TO BE GENERAL AND TO BE COMMANDER, U.S. EUROPEAN 
                            COMMAND

    General Craddock. Thank you, Mr. Chairman. I just have a 
short opening statement, if I may.
    First of all, Mr. Chairman, Senator Levin, and 
distinguished members of the committee, it is, indeed, a 
privilege to appear here before you today as the nominee for 
the positions of command of the United States European Command 
and as the Supreme Allied Commander, Europe.
    I am, indeed, honored and humbled by the nomination from 
the Secretary of Defense and from the President, to take 
command of these historic and, I believe, relevant and 
important commands.
    I'd like to note that I began my military career in Europe, 
arriving, my first assignment to Germany, in 1972. Since that 
time, Linda and I have spent some 14 years in Germany over five 
different tours, where we have seen, upclose and personal, the 
transformation of the North Atlantic Treaty Organization (NATO) 
from a focus on collective defense to one of collective 
security. We've experienced the dramatic drawdown of the United 
States forces in the EUCOM, a transformation, I believe, 
essential to fit the conditions of the changed security 
environment today.
    I believe the challenges are many, and I believe the 
opportunities are great. I must say, I am, indeed, fortunate to 
be sitting here today with a good friend, my partner. We shared 
a cubicle in the Pentagon in the J-5 office in 1996. We worked 
together there as action officers, and we have stayed friends 
since. He is a superb naval officer, and I know he will serve 
with distinction.
    Thank you for the opportunity to be here today, Senator.
    Chairman Warner. Thank you. I think that's a nice personal 
touch.
    Admiral?

    STATEMENT OF VADM JAMES G. STAVRIDIS, USN, NOMINEE FOR 
 APPOINTMENT TO BE ADMIRAL AND TO BE COMMANDER, U.S. SOUTHERN 
                            COMMAND

    Admiral Stavridis. Senator Warner, Senator Levin, and 
distinguished members of the committee, let me echo John 
Craddock's words and simply say it's an honor and it's a 
privilege to be asked to appear here today and to be considered 
for a position at U.S. SOUTHCOM.
    I do want to thank the committee for taking the time to do 
this hearing. I know you have immense pressing responsibilities 
at this particular time, and I appreciate that very much.
    If confirmed, I just, as an overview, want to assure you 
that this job will receive my full energy and attention every 
moment that I bring to work.
    I'd like to also say thank you to John Craddock for those 
nice words. It's been a long hike. If you had told the two of 
us, in 1995, back in the Pentagon, that we'd be appearing here, 
I think we both would have laughed uproariously, and headed out 
for a beer somewhere. John, it's good to be here with you 
today.
    Thank you very much. Thanks, Jim.
    Chairman Warner. I'd like to invite my colleagues--Senator 
McCain, do you have a word or two?
    Senator McCain. No, sir. I appreciate the very outstanding 
service that both of these fine officers have performed in 
behalf of our Nation. I do note that both of them have served 
as the Senior Military Assistant to the Secretary of Defense. I 
wonder if that's the pathway to success these days in 
Washington.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much.
    Senator Inhofe?
    Senator Inhofe. I have no statements, Mr. Chairman, other 
than I'm looking forward to getting these two fine gentlemen 
confirmed.
    Chairman Warner. Thank you very much.
    Senator Cornyn?
    Senator Cornyn. Mr. Chairman, thank you for the 
opportunity. I'll defer until it comes time to ask a few 
questions.
    But thank you both for being here. Congratulations to you 
and your families.
    Chairman Warner. Thank you very much.
    General Craddock, I'd like to start with Afghanistan, your 
perspectives. Preceding you in this office was General Jones, 
who is well known to this committee, who has a level of respect 
that--among all members, on both sides of the aisle--has done a 
remarkable job in his capacity. I recall, in my visits, and I'm 
sure colleagues had similar visits, because whenever, as a 
rule, Members of the Senate, I know--perhaps the House, also--
who were traveling in Europe, he'd often make himself 
available, travel sometimes considerable distance to visit with 
the congressional delegations and to give his perspective on 
the whole area of responsibility (AOR) in which he served. I 
recall his early thoughts about getting NATO involved in 
Afghanistan after the U.S. had done the initial basic 
operations over there, with the assistance of some others. Now, 
that situation has not gone as the world had expected--most 
particularly, this country and those allies who have been with 
us. But NATO has stepped in with a measure of courage, putting 
to the side, in many instances, the national caveats that are 
of great concern to NATO commanders. I think, again, General 
Jones did a great deal to lessen the national caveat problem. 
Those troops are performing bravely and courageously, and have 
experienced considerable loss of life and limb. Let's have your 
perspective on what you would hope to do, building, I hope, on 
General Jones's work, thus far.
    General Craddock. Thank you, Mr. Chairman.
    I just would like to, first, echo and amplify with you 
also, the great respect and admiration that I have for General 
Jim Jones. I know that is shared across the Armed Forces. He 
has done a remarkable job. There has been a reawakening of NATO 
in many different perspectives--and, I think, in Afghanistan.
    I have talked a bit with General Jones about Afghanistan, 
obviously have seen some reports and read of what's happening. 
I think that, as General Jones had characterized it, the 
assumption of the International Security Assistance Force 
(ISAF) mission in the north and spreading to the west, 
proceeded about on plan. Upon assumption of that mission in the 
southern part of the country, I think that there was probably 
an underestimation of the insurgent forces there. That is a 
known area for the large cultivation of the poppies. The opium 
comes out of there--the trafficking, if you will. I think that 
the movement of NATO forces have encroached into areas that had 
been, for a long time, safe havens or operating areas for these 
forces, these forces of instability and insecurity. Now they 
are being challenged, and that's led to the conflict that we've 
seen here recently.
    In watching this and having been there a few times, I agree 
with General Jones' assessment. This is not a military problem. 
It is, to the extent the military will have to set the 
conditions for development, for the reconstruction. That it is 
essential to, one, offer alternatives to the farmers who grow 
the poppies, that are into the heroin trafficking, and also, 
then, to provide services, infrastructure, job opportunities to 
the people of Afghanistan, beyond the cities. It has to happen 
and occur in an organized, structured manner out in the 
countryside. The people have to believe, at the end of the day, 
that governance is a good thing, and that their government is 
making their lives better today, and will continue to do so 
tomorrow. So, I think that that is a good program. I think that 
General Jones is leading that.
    I think that in the future there will have to be much work 
done with the NATO members who are contributing to the ISAF to 
ensure that they remain steadfast in their commitment, that 
they understand that there will be challenges to the security 
and the stability. But the fact is that that is the first 
priority mission for NATO today. I think it will continue to 
be. It is very important that we support that, to the extent 
that we can, and we keep the countries together in a strong 
alliance.
    Chairman Warner. The question of whether or not additional 
forces are needed--there's been some requests from the field 
commanders--I hope that you will give due attention to those 
requests and as soon as you've had a chance, subject to 
confirmation, to, as they say in the military, snap in. I hope 
that you address that problem early on.
    General Craddock. Absolutely, Mr. Chairman. Indeed, there 
is a force capability requirement, and that is the level to 
which the force needs to be resourced. Again, presuming 
confirmation, I would look at that, posthaste.
    Chairman Warner. Thank you.
    On the subject of Iran--you have followed that, I'm 
certain--we awakened this morning with the activities at the 
United Nations, and--I won't go into the details because all of 
us know what the situation is. France has, as of this morning, 
made an unusual move, which I think is somewhat different than 
what the initial thoughts were as to how we were going to deal 
with this problem of Iran's apparent desire to go forward with 
programs which could enable them to someday build, construct, 
and perhaps even have a delivery system for fissionable nuclear 
weapons.
    I just would like, generally, to bring to your attention 
the history of the Cold War, which I'm sure you've studied, 
which this committee--as a member now for 28 years, we went 
through that, and how the containment and the deterrence 
between NATO and the Soviet Union worked. It could well be that 
if diplomacy fails, that NATO could once again begin to perform 
a role of deterrence, because Iran is a threat to the whole 
world, and particularly Europe and the Middle East. Just tuck 
that away in your memory bank, because that worked, and it 
worked successfully, the deterrents for the Soviet Union, and 
we may have to formulate how NATO--because I think, should we 
have any military involvement--and I'm not suggesting in any 
way that, at this time, it will be done, but it should be 
multinational, and a framework of NATO, it seems to me would be 
a good place to start.
    General Craddock. Thank you for that, Mr. Chairman.
    Chairman Warner. Admiral, we discussed, in my office 
yesterday, a matter that's always been of great interest to me, 
and that's the Panama Canal. Apparently, at this point in time, 
Panama, understandably--a sovereign nation, looking at a series 
of very significant upgrades to that canal, and it's going to 
cost several billion dollars. Where will they go for the 
funding? What nations will come in? That all points to perhaps 
bringing in the influence of other nations in that key region 
of the world, and that lifeline which is so important, not only 
to economic trade, but to the transfer of military vessels, 
notably our vessels. Would you give us a comment or two of your 
views on that?
    Admiral Stavridis. Yes, sir. Certainly, the canal is a 
vital resource for the United States. Sixty-five percent of the 
vessels that pass through it are bound for U.S. ports. It's our 
means to swing ships between the Atlantic and Pacific fleets. 
It's of immense importance to this country.
    The Panamanians are seeking, as I understand it, sir, to 
recapitalize a project, $3 to $4 billion. President Torrijos is 
going to the Panamanian public in a referendum to seek approval 
for this process. It is unclear, at this time, exactly where 
the funding would come from. Probably, part of it would be from 
internal taxed resources within the Republic of Panama. Part of 
it would be from outside investors.
    Chairman Warner. That's what concerns me, who those 
investors might be.
    Admiral Stavridis. Yes, sir.
    Chairman Warner. Particularly the extent to which China 
might see this as an opportunity to begin to have greater 
influence in this hemisphere.
    Admiral Stavridis. I think it's an issue that we should 
continue to follow, as we are following, in general, Chinese 
economic and military-to-military contacts throughout the 
region. Senator, if I'm confirmed, I'll continue to look very 
hard at that.
    Chairman Warner. I hope this country might think of being a 
partner--an active partner--to help--respecting the sovereignty 
of that country, but, at the same time, recognizing the key 
strategic importance of that canal to our operations.
    Finally, Venezuela--again, the current leader of that 
country is trying to utilize his influence not only throughout 
littoral nations that provide for Central America, but, indeed, 
throughout the world. Much of his rhetoric and actions is 
antithetical to the interests of our Nation, and just basic 
principles of freedom and fundamental democracy. What do you 
hope to achieve there?
    Admiral Stavridis. Senator, I agree. I would start by 
simply saying that historically, as a country, the United 
States has enjoyed very good relations with Venezuela. 
Unfortunately, the current government has taken many anti-U.S. 
positions in various international fora. There is very harsh 
rhetoric from the leader of the current Venezuelan Government, 
and ties to countries like Cuba, Syria, Iran, and Belarus, that 
are disturbing. It seems as though the current Venezuelan 
leadership is attempting to create a kind of a block of 
countries in Latin America which could then be influenced to 
take anti-U.S. positions.
    The Venezuelans are also in the midst of large arms 
increases. They've just purchased 100,000 AK-103 rifles from 
the----
    Chairman Warner. I think the total bill was several billion 
dollars worth of acquisition.
    Admiral Stavridis. Yes, sir. It's been, again, disturbing. 
It's not just rifles, it's jet aircraft and helicopters, big 
programs. They have a lot of oil money. It's a concern in the 
region, and we need to watch carefully.
    Chairman Warner. Those military sales are being acquired 
primarily from Russia?
    Admiral Stavridis. That's correct, sir. I would conclude by 
saying we still have some military-to-military contact with the 
Venezuelans. To the degree we can influence them to move in a 
positive direction, we should do that. But, at the moment, 
Venezuela's actions, as articulated by their government, have 
to be of concern in the region. If confirmed, it would be an 
area I would focus on, sir.
    Chairman Warner. Thank you very much.
    Admiral Stavridis. Yes, sir.
    Chairman Warner. Senator Levin.
    Senator Levin. Thank you.
    General, in your written answers to pre-hearing questions 
relative to Afghanistan, you said that, ``If NATO's political 
or military will is lost in the Afghanistan ISAF mission, the 
future of NATO out-of-area operations, and, thus, the NATO 
response-force concept, will be severely jeopardized.'' You 
discussed with the chairman the call of General Jones for an 
additional 2,000 to 2,500 troops and transport helicopters to 
bolster the NATO effort in southern Afghanistan, but, so far, 
the only substantial troop offer has come from Poland.
    Do you believe, from what you know, that other NATO members 
are going to provide the additional troops that General Jones 
has called for?
    General Craddock. Senator, in discussions yesterday, in 
talking with General Jones, there are indications, now, other 
nations will be stepping forward.
    Senator Levin. I hope so. Do you believe that other changes 
are going to be needed to support the NATO mission in 
Afghanistan? For example, would you advocate transferring 
responsibility for operations and intelligence relative to 
Afghanistan to the European Command from the Central Command 
(CENTCOM)?
    General Craddock. I don't, at this time, have the finite 
level of detail to be able to determine, right now, whether or 
not, upon the assumption of stage 4 transfer of authority to 
NATO for the entire country ISAF operation, exactly how much or 
what kind of intelligence transfers are needed. I believe that 
in the future there will be a definite need for increased 
communications and intelligence and information transfers 
between U.S. forces in Afghanistan and NATO. The extent of that 
and how the modalities of that will come together, I don't know 
at this time.
    Senator Levin. Our staff heard from U.S. military and 
civilian officials in Afghanistan last month that there are 
insufficient funds for the quick-turnaround, small-scale 
projects that are critical to recruiting the population away 
from the Taliban. There are also reports that the State 
Department and the U.S. Agency for International Development 
requested about $600 million in fiscal year 2006 supplemental 
for Afghanistan, but that the White House approved only $43 
million. It's hard to tell how much of the Commanders' 
Emergency Response Program (CERP) funds are being used by the 
commander in Afghanistan for the Provincial Reconstruction 
Teams (PRTs), but, by all accounts, in Afghanistan, the need 
outstrips the funds that are available. Will you report back to 
the committee on what amount of CENTCOM's CERP funds are being 
spent on small reconstruction and development projects, such as 
the ones being funded by the PRTs? Will you report back to us 
your own professional opinion, as we would expect you to do on 
all matters, as to what the needs are in that area?
    General Craddock. Yes, Senator, I will.
    Senator Levin. Admiral, in June 2006, President Bush 
declared that he would ``like to close Guantanamo.'' Under what 
circumstances, if any, would you recommend that the facilities 
at Guantanamo be closed?
    Admiral Stavridis. Senator, I would start by saying that 
today I see a need for Guantanamo. We have a brutal enemy who 
seeks to do us harm, and it seems to me we need a place to 
legally, transparently incarcerate individuals--detain them, I 
should say. We have had as many as 770 or so in Guantanamo. 
We've been gradually reducing that number down to about 450. I 
think it would be a very good thing if we continued to reduce 
the number of people there. As the numbers go down, if we 
continue to get the other countries to take their own nationals 
back, one could see, eventually, an instance in which we would 
no longer have a need for Guantanamo. I think that's the 
genesis of the President's remarks. So, it's really a matter of 
winning in this war on terror, and also convincing our allies 
and partners to take back the people who are there. 
Unfortunately, it doesn't seem that that's going to happen in 
the immediate future, but it would certainly be everybody's 
hope--my own included, if I were confirmed as Commander, 
SOUTHCOM.
    Senator Levin. Admiral, did you review the recently-
released revised Field Manual on Interrogations?
    Admiral Stavridis. Yes, sir, I have reviewed it. It's a 
very detailed document. I have not read every line of it. I'm 
in the process of doing that. If confirmed, before taking 
command I will have read every line in the Army Field Manual. I 
think it's a good document and an improvement, and it's a clear 
document.
    Senator Levin. What is your assessment as to how it's being 
received by military and civilian personnel?
    Admiral Stavridis. Sir, my assessment, talking not as the 
SOUTHCOM commander, but talking to my friends who are involved 
in this, including, for example, Admiral Harry Harris, who's 
the current commander at Guantanamo--I believe that the 
document is well received because it's written in a way that 
the soldiers, sailors, airmen, and marines who are involved in 
interrogations can understand it. I can understand it when I 
read it, and that's a strong improvement. Also, it has no 
classified annex. It's open and it's transparent.
    Senator Levin. Do you believe that interrogators at 
Guantanamo can carry out their mission within the standards 
that are set forth in that field manual?
    Admiral Stavridis. Senator, I'm not an expert in 
interrogations, but my personal belief is that they can.
    Senator Levin. My time is up. Thank you very much, Mr. 
Chairman.
    Chairman Warner. Thank you very much.
    Senator McCain.
    Senator McCain. General Craddock, opium cultivation has 
reached record levels in Afghanistan. Should the United States 
military be actively engaged in poppy eradication? Or ISAF 
military?
    General Craddock. Thank you, Senator. Tough question. In 
the original agreements, the Brits were to focus their efforts 
on the eradication of the poppy fields. That has not happened. 
Actually, as you said, their production is up. I think that 
there has to be a concerted effort to eradicate those fields. 
As a part of the attraction to the lawless element, to the 
traffickers, to the terrorists who use the proceeds, the 
revenues generated by that trade, it may well be ISAF is going 
to have to, as they move to provide security and stability, 
take on the eradication of those fields. I don't know that, but 
I know it has to be done. As stage 4 occurs and more U.S. 
forces come under the NATO control, it may well be, U.S. forces 
will be involved in that too. That is the genesis of the 
funding for the radicals and extremist insurgents there.
    Senator McCain. A vicious circle.
    General Craddock. Yes, sir.
    Senator McCain. There have been media reports concerning 
some kind of a truce or treaty being concluded between the 
Pakistani Government, President Musharraf, and the Taliban, in 
the areas along the Afghan/Pakistan border. What do you think 
of that? Is it true? What kind of a problem does that create if 
there is some kind of sanctuary along the Pakistan/Afghan 
border?
    General Craddock. I am aware of an agreement. I do not know 
the details, other than what I have read here recently. I think 
that the key here is in assessing it through implementation. We 
need to keep watch. On the surface, it may be an agreement that 
will work to control the border. In application, everyday 
execution, it may not work. So, I think we have to be watching 
closely. We have to see this movement back and forth across 
these borders. If a safe haven is created, it will cause 
enormous problems for NATO and for U.S. forces in Afghanistan.
    Senator McCain. Again, I have no detailed information, but 
it is very disturbing, if some kind of sanctuary is provided 
for the Taliban by the Pakistani Government. We continue to be 
concerned about bad relations between the two countries 
already. But General Jones has recommended that NATO send 
additional forces into Afghanistan. We all know our forces are 
there, but we're also pretty well stretched. Are you 
disappointed, so far, in the reaction of the NATO allies to 
this request for additional troops?
    General Craddock. Senator, I am. I am not surprised, given 
my experience in Europe and having served in a NATO command in 
the Balkans. There was a statement of requirements that the 
plan lays out, ``Here are the troops we need.'' It appears that 
it was sourced to about 85 percent of the capability required. 
A decision was made then to accept that risk and to go ahead 
and assume the mission.
    The key here now is to continue to work with the nations to 
source the remaining capabilities required. I think there's 
some airlift and some attack helicopters and a few other--a 
strategic response force, a battalion strategic force 
available. That's what has to continue to be worked with the 
nations, because it's a plan that was agreed to, now it's a 
matter of owning up to the commitment.
    Senator McCain. I think the facts on the ground indicate in 
Afghanistan that there has been a resurgence of Taliban 
influence and activities, to the point where we now have, some 
cases, hundreds of Taliban engaged in combat. That's very 
concerning. I wonder what may have gone wrong over the last 4 
years that has allowed this resurgence.
    An additional follow-up question. I notice, for example, I 
think four Canadian troops were killed yesterday. Sometimes our 
allies get a little shaky when their personnel, obviously, are 
in harm's way, and killed or injured. Maybe you could give me 
an idea of what went wrong and what needs to be done 
differently if we're going to reverse this trend.
    General Craddock. In talking a bit with those who work this 
every day, to include General Jones, the belief is that these 
Taliban forces, insurgents, had located in that area as a safe 
haven, away from urban areas, out in to the countryside. 
Second, those are large cultivation fields for the poppies. So, 
that was a natural attraction--provides, if you will, the 
sanctuary. I think the movement in of about 8,000 NATO forces 
pushed out into the countryside and confronted these safe 
havens, these sanctuaries, and that caused the contact that 
maybe had not been done previously to the extent that allowed 
it. I think, again, that the forces are adequate. It's a matter 
of, as you said, resolve. There will be casualties taken. The 
assumption of stage 4, it may well be that NATO ISAF finds that 
there'll be tougher fights in the future over in the east. But 
I think that the fact that now they are being engaged in larger 
numbers would indicate that it may be they were there for a 
while, and there were never forces out there engaging them 
where they were living, operating, and training, which has 
occurred. But we must stay the course here, we must continue to 
have the resolve, work with the nations, and do this in a 
smart, meaningful way to set the conditions, then, because if 
the development doesn't come in after the security is 
established in those regions, the people will not believe in 
the government, and the Taliban will be back.
    Senator McCain. Of course, that's based on the ability of 
the government to control the areas.
    Admiral Stavridis. Yes, sir.
    Senator McCain. I thank you.
    I congratulate both of our witnesses. We look forward to 
having you in place as soon as possible, General.
    General Craddock. Thank you, Senator.
    Senator McCain. Thank you.
    Chairman Warner. Thank you, Senator McCain.
    I would simply add, the seriousness of this question that 
both of us addressed, and that is the question of force levels. 
We have watched that debate here in Iraq. It continues. You now 
will be the point person, you will be that field commander that 
has to make the recommendations, make them in accordance with 
your professional judgment, make it strong, make it so it's not 
any equivocation. Because, I have to tell you, NATO did very 
well in the Balkans, was very successful, but the credibility 
of NATO for the future is on the line right now in this 
operation.
    General Craddock. Mr. Chairman, I wholeheartedly agree and 
I will promise you I will do that as soon as possible, once 
confirmed.
    Chairman Warner. Thank you.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    General Craddock, you have served in many critical 
positions, with great expertise and fidelity, but I must 
confess I'm a bit troubled about this nomination. Last July, 
you were here before the committee trying to explain why you 
would not support the recommendation of Lieutenant General 
Schmidt with respect to an adverse action against General 
Miller for his activities in Guantanamo. I said, at that point, 
and that time, it was a moment to draw the line for 
accountability, not just at sergeants and majors, but general 
officers. You didn't draw that line. You said, ``imprecise 
guidance policy,'' you couldn't hold them accountable, but you 
chose to disregard, I think, what was a very considered and 
thoughtful report by the Special Inspector General, in favor of 
avoiding accountability. Today, accountability still, I think, 
has been evaded. I just am troubled. I think that is the 
critical issue of whether or not an individual at your level 
will make tough decisions, regardless of the consequences to 
his fellow officers and regardless of consequences to his 
superiors. It should not go without comment that General Miller 
was intimately involved with civilians and the Secretary of 
Defense in this particular issue and that by exonerating him, I 
think, at least you gave some comfort to the Secretary of 
Defense and to others. I don't know if that's been 
reciprocated.
    But I must say that based upon your career, which is one of 
fidelity to the uniform, I was disappointed then, and I still 
remain disappointed. I said it then publicly, and I say it 
again now.
    I am just dismayed about the failure of senior-level 
civilians and senior military officers to be fully held 
accountable for palpable mistakes that have been made, even 
when recommended by another officer like General Schmidt. So, I 
want that comment to be in the record.
    Thank you, Mr. Chairman.
    Senator McCain. General Craddock may wish to respond.
    Chairman Warner. Yes, I know he does.
    Please respond.
    General Craddock. Senator, I understand your comments. I'm 
not going to review my rationale today. I've done that many 
times, and twice, I believe, before this committee. I will 
stand on the record of what I have said.
    I will tell you though that as a professional officer over 
many years, these decisions are always difficult. I have to act 
on the facts as they are given to me. I have to weigh all of 
the issues at hand. There's obviously deep consideration given.
    I will tell you that it's my personal belief that I will 
always take the hard right as opposed to the easy wrong. There 
will be those who differ with my judgment and the rationale, 
but the fact is the report given to me, the facts presented to 
me, led me to that decision. I then, as I am bound to do, 
referred that to the Army Inspector General who conducted an 
investigation. The results of that turned out to be the same as 
my result and my finding. So, that's all I can say to that, Mr. 
Chairman.
    Chairman Warner. Senator Reed, do you have anything 
further?
    Senator Reed. I have no questions, Mr. Chairman. I just 
think that this represents another example of a lack of 
accountability and being rewarded for being compliant and not 
accountable.
    Chairman Warner. As the committee well knows, we have 
pending before us a hearing, at which time it's anticipated 
General Miller will once again appear before this committee to 
re-examine this issue. As soon as you can advise me, Senator 
Levin, on the matters that you raise in connection with 
preparing for that hearing, we'll move forward.
    Senator Levin. Let me just check with staff.
    I think, Mr. Chairman, the issue is, I'm trying to gather 
what the question is, apparently there's some preliminary 
questions that need to be asked by staff in preparation for 
such a hearing. But, as far as I'm concerned, the quicker we 
get to the bottom of that issue, the happier I'm going to be.
    Chairman Warner. I agree with that. It seems to me, given 
the short period within this Congress is still in business, we 
have to tweak that.
    Senator Levin. Yes. I will, again, check into the status of 
that inquiry.
    Chairman Warner. If you would advise me, I'd appreciate it 
very much.
    Senator Levin. But I do think Senator Reed has raised a 
question about accountability at higher levels that has just 
not been answered satisfactorily. I hope that our hearing with 
General Miller can shed at least some light on that failure of 
accountability at higher levels. We will look into the status 
of our pre-hearing questions and make sure that they're 
promptly done, if they're not already prepared.
    Thank you.
    Chairman Warner. I'd simply add that it's anticipated that 
Colonel Pappas also would be included as a part of that hearing 
series. He'll appear before the committee.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    As I've talked to you before, General Craddock, I've been 
disturbed for a long time about the way the continent of Africa 
is divided up. I think it's confusing. It's difficult to do 
things, such as, right now, when we're looking at the African 
brigades. I've been very active in this area. It's my 
understanding now, although I've not seen anything specific on 
it, that there's going to be an African command. Now, I'd like 
to ask you what that structure would be. How does that relate 
to CENTCOM and to EUCOM as far as your understanding is 
concerned?
    General Craddock. Thank you, Senator.
    Indeed, I understand there are ongoing discussions and 
deliberations. I believe EUCOM has been tasked by the Chairman 
of the Joint Chiefs and the Secretary to provide a proposal. I 
am a proponent of a dedicated command for Africa.
    Senator Inhofe. Now, that would be an additional command, I 
guess?
    General Craddock. That would be an additional combatant 
command.
    Senator Inhofe. Okay.
    General Craddock. Now, the question becomes--and that is 
what the work in progress is--how is it done? What is the 
shape, substance? As you've said, right now Africa is shared by 
three combatant commands. So, how would the arrangement, the 
geography, change, in terms of the Horn of Africa, which is now 
CENTCOM, East African islands, PACOM, and then the rest, EUCOM? 
I think that we have to wait--and I believe it's due here the 
next few weeks--for the first proposal. I think it's on the 
fast track, that we all recognize that our critical national 
interests in Africa are, indeed, very important, both from the 
counterterrorism perspective, the secure and stable 
environment, to the humanitarian perspective, with HIV/AIDS, 
endemic disease; and then, obviously, the energy issues are 
also quite relevant.
    So, we know there's work in progress. It's being pushed to 
a fast track, and I'll be very interested to watch how this 
develops, because it will, indeed, be a key aspect of EUCOM in 
the future.
    Senator Inhofe. I'd like to have this committee get 
involved in that because I have some ideas. I know that General 
Abizaid has been concerned. How can you break off the Horn of 
Africa, for example, where you have Djibouti and you have a lot 
of the terrorist activities that's moving in there as a result 
of the squeeze in the Middle East? So, it's a difficult thing 
to deal with.
    Also, I personally like the idea of a complete command just 
dedicated to the continent of Africa, because it's become so 
incredibly important.
    General Craddock. Yes, sir.
    Senator Inhofe. As I've gone around and talked to--in the 
different areas of the proposed sites for the five African 
brigades, I just think--I just can't imagine that that is going 
to work very well if it's divided into two or three different 
commands. So, we'll be watching that real closely.
    General Craddock. Yes, sir.
    Senator Inhofe. It's already been mentioned, Admiral--
Stavridis?
    Admiral Stavridis. Perfect.
    Senator Inhofe.--Stavridis--oh, yes; well, I've said it 
twice now; that'll be the last time--of the concern that is 
there in that command in the SOUTHCOM with Chavez, with the 
changes in Castro--well, let's start with Castro. Right now, we 
don't know for sure what's going to happen to him. We know a 
little bit about his brother, about as much as you need to 
know. What is your feeling, anything you'd like to say in an 
open hearing, as to how you see Cuba, in the event of Castro's 
stepping aside?
    Admiral Stavridis. Thank you, Senator.
    Certainly, Cuba is front and center on the windshield for 
any commander at U.S. SOUTHCOM. If confirmed, it'll be at the 
center of my site picture. I think, like all of us, I'm very 
hopeful of a peaceful transition to a democratic regime in 
Cuba. I have to say, I'm not optimistic of that happening in 
the immediate future. The basic signals we seem to get from 
Cuba today are that if Fidel Castro were to step aside or pass 
on, his brother, Raoul, would probably take the reins of power 
there. I think, in the end, very little would change under that 
scenario. The Cuban economy is extremely rocky at this moment. 
It's propped up, in large measure, by oil subsidies from 
Venezuela. As a result of all those factors, we experience 
about 8,000 migrants a year coming here to our shores from 
Cuba. I think as well, Cuba is, according to the State 
Department, a state sponsor of terrorism.
    So there is a basket of problems there. I don't think 
there's a hopeful outlook in the immediate future. What the 
United States can do is continue to be supportive of the Cuban 
people and to hope for them, and to assure them that in the 
event of a transition to a democratic regime, we would be there 
for them.
    Senator Inhofe. Some of us have been around long enough 
that we can remember the instability in that whole area down 
there, back during the Reagan years, and the changes that took 
place, very positive changes.
    Admiral Stavridis. Yes, sir.
    Senator Inhofe. But with the contras and the Sandinistas 
and Daniel Ortega--and now he's running again. The information 
I have, he's leading. Their election is in, what, November, I 
believe?
    Admiral Stavridis. Yes, sir.
    Senator Inhofe. What do you see happening in terms of 
Nicaragua, if Ortega were to win that thing?
    Admiral Stavridis. Senator, I'm not an expert at all on 
Nicaraguan politics, which are complicated, but common sense 
would tell me, looking back, as I think you do, from the nature 
of your question, that Daniel Ortega was an opponent of the 
United States, an anti-American force in that country. 
Certainly, the election is a free and democratic one. Nicaragua 
is a sovereign country, and they should pick their own leaders. 
They will. But I think we would be concerned about linkages 
between Nicaragua, Venezuela, and other countries in the region 
which would continue to move toward this idea of a block of 
nations that we spoke about earlier that could take anti-
American positions. So, that would be of concern. If confirmed, 
it would be something I would follow closely, Senator.
    Senator Inhofe. Good. There's not a lot of time left, but 
there is one other subject that I feel very strongly about and 
that is the International Military Education and Training 
(IMET) program. In the National Defense Authorization Bill that 
we hope that we'll be able to pass here shortly, we have some 
provisions that give easier access to that program. There was a 
time, when it first began, that we thought we were doing other 
countries a favor by allowing them to come here and get 
training. That's totally changed, in my thinking, anyway. I 
think that we're the beneficiaries of this program.
    Admiral Stavridis. Yes, sir.
    Senator Inhofe. I'd like to know--because it'll affect all 
countries--we found out, readily, that if we have any 
restrictions on our ability to bring in people to train, the 
Chinese and others are always there, ready to do it.
    Mr. Chairman, I can't think of any single thing that we can 
do that gives us a greater inside track with these countries 
than to be able to get the training over here.
    So, I'd like to ask each one of you to comment as to your 
feeling about the program and where you see it going.
    General Craddock. Thank you, Senator.
    I would say, first, we support the American Servicemembers' 
Protection Act (ASPA). Unquestionably, we want our 
servicemembers protected around the world. Unfortunately, the 
unintended consequence of that is this IMET problem. We are 
losing, every day, engagement opportunities with many nations 
around the world. Over the years, as you said, this has 
benefited them. But to bring them to our schools, our 
institutions, they have the opportunity to live in our culture, 
see strong democratic institutions, and civilian leadership of 
the military as a powerful thing. We gain from the engagement, 
the contact. We understand them better. When we're there, we're 
more appreciative and knowledgeable of their culture. We're 
losing that in very critical countries.
    I have been a strong advocate to de-link the IMET program 
from the ASPA sanction in order that we can engage and not lose 
contact with a generation or two or three of officers and 
noncommissioned officers, in countries that are important to 
us, and it's important to them to be linked with us. So, I 
certainly support and endorse any way possible that we can get 
this program back on track.
    Senator Inhofe. Yes, it was unintended consequences, and 
it's a program that I really feel strongly about. Do you agree, 
pretty much, Admiral?
    Admiral Stavridis. Yes, sir. I think the expression up here 
is, I'd like to associate myself with the remarks of General 
Craddock.
    Senator Inhofe. That's the expression.
    Admiral Stavridis. I do so, completely. I'll just point out 
that within the SOUTHCOM area of responsibility, 32 countries, 
11 of them are affected by this. So, it's extremely significant 
in SOUTHCOM, I completely agree with General Craddock's 
assessment and would hope that we can continue the program.
    Senator Inhofe. Thank you.
    Mr. Chairman, that's another reason we need to really get 
that thing moved along, because this bill will offer new 
opportunities for your guys to take advantage of IMET.
    Admiral Stavridis. That would be great.
    Senator Inhofe. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. Senator, I've always been a strong 
proponent, as you have, of the IMET, and it's interesting, the 
chapter--for those following this hearing, that might not know 
the specifics--it's young officers of the foreign nations who 
are brought here and then given an opportunity, usually of up 
to a year or so, to study in our various military colleges and 
institutions. As you well know, Senator, so often those 
officers who are, let's just say, young captains or majors go 
back home, and they rise through the ranks and usually become 
the senior military officers in their respective nations. That 
bond is of great value in times of stress, should it occur, 
because they often turn to their counterparts here, in American 
uniforms, having served with them, to seek advice and guidance.
    Admiral Stavridis. Yes, sir.
    Chairman Warner. So, you're right on target.
    Senator Inhofe. I would go one step further and say not 
just the educational institutions, but much like Fort Sill and 
the artillery training in some of our military installations. 
It's very significant.
    Admiral Stavridis. Yes, sir. Agree.
    Chairman Warner. No question about it. Also, Senator, we 
want to recognize that on this committee I know of no member 
who has given more time to study Africa than you have. Indeed, 
how many times have you been, say, just in the last 2 years or 
so?
    Senator Inhofe. I'd say about eight times, I think.
    Chairman Warner. About eight times--and several of those, 
into the Darfur region. You're to be commended for finding the 
opportunity to study that, and you are an expert on it.
    Senator Inhofe. Mr. Chairman, a lot of people talk about 
the Darfur problems, but if you get into northern Uganda and 
the Lord's Resistance Army (LRA) problems up there, they're 
every bit as bad, but they don't get the attention.
    Chairman Warner. Correct.
    Senator Inhofe. Thank you very much for your comments.
    Chairman Warner. Thank you very much, Senator Inhofe.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    Gentlemen, in the global war on terror we have come to, I 
think, a greater understanding of the enemy that we confront, 
and it is a form of extremism and radicalism that has hijacked 
one of the world's great religions. Whether you call the enemy 
Islamic extremists, Islamic radicals--others have used other 
terminology--while there may be some fault lines between 
Islamic extremists in different parts of the world, it is, I 
believe, part of the same enemy, which in the words of General 
John Abizaid, celebrates the murder of innocent civilians in 
pursuit of its goals. Recently the people of America, and the 
world, were reminded of one of those groups, Hezbollah, who 
rained down Katyusha rockets supplied by Iran through Syria on 
civilian populations in northern Israel. I don't know many 
people who have doubt that if they had been able to supply more 
lethal weapons--I don't know many people who doubt that 
Hezbollah would have refused to use them, causing more death, 
more injury to innocent civilians.
    One of the other things that the American people have been 
reminded of is that Hezbollah has killed more Americans than 
any other terrorist organization in the world, except al Qaeda, 
dating back to 1983 in Beirut when 241 marines were killed. So, 
I want to ask you a little bit about--and I've had some of 
these conversations with General Craddock; he knows where I'm 
heading, but Admiral, I want to bring this to your attention to 
our backyard--and that is, South America, where Hezbollah has a 
foothold, particularly in the triborder region, where we know, 
as a matter of fact, they supply money to radical causes, to 
the Hezbollah headquarters, so to speak, in the Middle East. We 
also, I think, can all acknowledge the ease with which 
terrorist financing can transition into operations if, in fact, 
some operators were dropped in, or if not homegrown in our 
backyard in South America. So, I would like to get, Admiral, 
from you, please, what you believe that we ought to be doing, 
if confirmed, as part of the SOUTHCOM to deal with this 
potential threat in our backyard.
    Admiral Stavridis. Senator, thank you for the question.
    I've had a chance to read a variety of intelligence 
reports, some of which are classified and we can't go into 
here. But, at the unclassified level, I've looked at a 
Congressional Research Service study and a State Department 
study recently, looked at materials provided from U.S. 
SOUTHCOM. It appears certainly true that Hezbollah has a 
foothold, is a good way to put it, in the SOUTHCOM area of 
responsibility. The triborder area of Bolivia, Paraguay, and 
Brazil--has probably the largest population that we're aware of 
right now. But there are outposts throughout the region.
    At this point, the best I can tell, it appears to be 
largely financing, as you alluded to, but it can segue very 
easily into human trafficking, the ability to move special-
interest aliens into our country through human smuggling 
routes, surveillance--we have indications of the surveillance 
of the Panama Canal, for example. So, within the region, it's 
of real concern.
    What can we do about it? I think our role at SOUTHCOM, at 
this point, is to be very plugged into all the intelligence, to 
work very closely with all of our partners in the region. I 
mean, this is one that obviously we can't go down and solve by 
ourselves. We have to work one-on-one with our partners, and 
also try and create a regional hemispheric, if you will, sense 
of cooperation in this topic. So, I would say building 
partnership capacity with our partners, working with them 
closely, using intelligence aggressively, and being very aware 
of the problem, and highlighting it in all of our military-to-
military activities, sir.
    Senator Cornyn. General Craddock was talking to, I think, 
Senator McCain and other members of the committee about the 
connection between narcotrafficking and terrorist financing. In 
Afghanistan, we continue to see that connection in South 
America and other parts of the world. But, in particular, I'd 
like to get your thoughts, Admiral, about Colombia, but 
primarily about what is happening now in Venezuela, where 
Revolutionary Armed Forces of Colombia (FARC) are getting safe 
haven, where perhaps there's greater participation in illegal 
drug trafficking in Venezuela to help fund FARC's anti-
government activities. I am one who believes that the work that 
we've been able to do to support the Colombians in that 
country, with coca eradication and to enable them, through 
military training and otherwise, to fight and defeat the 
revolutionary forces there, FARC and others, has been a very 
positive development. But if, in fact, that illegal drug 
trafficking merely moves east in a country that if it doesn't 
welcome them, at least tolerates it, what does that tell you 
about what we need to do with regard to the attention we pay to 
Venezuela, which is an avowedly anti-American government, one 
that is associating with the greatest threats to the United 
States, in Tehran, and welcoming armament factories from Russia 
and the like? How would you describe what our role should be 
with regard to the developing activity in Venezuela?
    Admiral Stavridis. Thank you, Senator.
    I would start by saying--and I think you alluded to it--
that Colombia has made tremendous progress over the last 4 or 5 
years. They're militarily very successful against the FARC. One 
of the other major groups there, the United Self-Defense Forces 
of Columbia, is demobilizing. The economy is doing fairly well. 
I think one significant part of helping in that region, in that 
border area, is continued support to Colombia so that their 
economy continues to improve, so that we operate with them in a 
military-to-military fashion, so that we continue to give them 
the benefit of all that we can as they fight this complex 
battle against narcotics and narcoterrorism.
    On the question of FARC operating in that border region 
with Venezuela, I have seen intelligence that indicates that is 
true. Again, I would not want to, in an open hearing, go much 
further than that. I'd like to come back to you on the record 
with an answer more specific to that particular question. It is 
of concern.
    [The information referred to follows:]

    [Deleted.]

    Senator Cornyn. Thank you. General Craddock, I didn't mean 
to leave you out, but since you're moving over to EUCOM, I 
thought I would focus my attention on the Admiral and get his 
views. I know both of you realize that even though Northern 
Command is responsible for the homeland defense function for 
the continental United States, that we can't ignore what is 
happening right out our back door right across the border.
    General Craddock. I agree completely.
    Senator Cornyn. Because of what you've just described, 
Admiral, and what General Craddock and I have talked about 
previously, and that is, when you have international criminal 
organizations, they're more than happy to finance their 
operations using any available commodity, whether it's people, 
drugs, guns, WMD, or the like.
    General Craddock. Exactly.
    Senator Cornyn. I believe it's absolutely imperative that 
the Department of Defense continue to focus greater attention 
on our international borders, and to help the Department of 
Homeland Security, which has the primary responsibility to 
control our international borders, through the use of 
technology, which the United States military has right now, and 
which could, I believe, be deployed with great beneficial 
effect, and in so doing, enhance our national security, because 
our backyard is important for all the reasons we've discussed.
    General Craddock. Yes, sir.
    Senator Cornyn. Mr. Chairman, thank you very much.
    Chairman Warner. Thank you very much, Senator Cornyn.
    We may, gentlemen, have several questions for the record. 
We'll ask that you respond. The record will remain open until 
the recess of the Senate tonight.
    I do want to return to one line of discussion we've had 
today, and that is drug trafficking in Afghanistan, General 
Craddock, and your responses about how you felt there are 
certain responsibilities that NATO must face up to in that 
area. I think parallel and equal emphasis should be given to 
the role to be played by the Afghan military, perhaps, to some 
extent, the police forces, in which the United States put a 
very significant investment. There always will be certain 
instability in a government when it stands up. President Karzai 
has shown tremendous courage. In a recent visit that I had with 
him in Afghanistan a short time ago with several of our 
colleagues here, we talked about this situation. He seemed to 
be dedicated. But there are certain political realities that 
he's faced with. This is a subject that has to be dealt with in 
such a way that it doesn't cause an increase in the instability 
of his government, because that government simply has to 
succeed. It's a freely elected government, so, while I'm 
hopeful that Karzai will remain in office, let's hope it 
remains a freely elected government. Also, we had the privilege 
on this visit to meet for the first time with the 
parliamentarians, a very interesting group, rather a feisty, 
outspoken group of parliamentarians, and in our dialogue with 
them and it was hard to break off, they were so anxious to meet 
with, should we say, their counterparts from the United States, 
the parliamentarians and we legislators.
    So, I think that you have to work hand-in-hand with NATO 
and the Karzai government as we, hopefully, do a joint effort 
to begin to take down this ever-growing problem of the 
narcotics being raised there and the money that comes, as a 
consequence of that crop, into the sinews of that country in 
many ways. I just hope that, in that course of action that you 
will direct, together with the government, that the Afghan 
forces will have a very active, if not a greater role than, 
indeed, the NATO forces in resolving that problem.
    If you'd like to make a comment or two on that.
    General Craddock. Yes, thank you, Mr. Chairman.
    I totally agree with your statements. The Afghan national 
army has made great progress. We're still training, still 
building that army, and it will, as it continues to grow and 
gain competence and professionalism and capability, be able to 
assume more and more of that security burden. I think that they 
will be instrumental in maintaining the control, along with its 
nascent police force that also must be built, and it must gain 
the confidence of the people, out and about in the countryside 
so that these development programs can work.
    Now, the real power of those PRTs is that they are 
generally customized to each region. They work with the local 
elders and government officials. They bring in the national 
government, if you will, out of Kabul--to the extent where the 
people understand that there is a benefit to a new clinic, a 
school, a road, something we take for granted that is not 
there, infrastructure, a job opportunity--that government is a 
positive force in their life. The key is that the 
parliamentarians, the cabinet members, and President Karzai 
participate in that, they support that, and, at the end of the 
day, it's an Afghan face; that in the meantime NATO will be 
providing some security and stability, but what we would want 
to do is work ourselves out of a job.
    Chairman Warner. I certainly understand that. But it's a 
formidable job and it's growing in terms of its challenge. But 
we must succeed.
    General Craddock. Indeed.
    Chairman Warner. I feel strongly that since we've invested 
so much in building up their military forces, that their 
military forces should take the lead in this eradication 
process. Now, you stop to think a moment--and you have, and 
those of us who have been over there and studied the problem--
the amount of the dollars going to the farmers is minuscule. It 
seems to me some program could be devised, for a very modest 
sum of money, just to persuade them to sit back in their arm 
chairs, if necessary, maybe grow a little cabbage and broccoli, 
or whatever they want to do, but get them out of the poppy 
business. Because the big money in this is after it leaves the 
poppy field and these old and venerable farmers, you see them--
they actually have to massage almost every poppy head to 
extract all the product and so forth as they go along. That's 
not where the money is. The money is where it leaves that 
field, and then it goes on up through the many hands that deal 
with it. That's where the big dollars are. It seems to me we 
can just persuade the farmers somehow to not grow it. It's a 
sensitive situation, but it's one that has to be dealt with. I 
think the Gross National Product (GNP). I've seen figures as 
high as three-quarters of the GNP of Afghanistan is monies 
coming from the poppy fields and the narcotics.
    General Craddock. That's right.
    Chairman Warner. That money, as it leaves the farmer, he 
gets a pittance, but as it moves up, certain monies flow back 
into the sinews of Afghanistan in various ways, and it's a big 
challenge. General, the buck stops on your desk now.
    General Craddock. I understand, Mr. Chairman. It is an 
enormous challenge. Recently some Colombians have met with 
Afghans to talk about their fight over the years. The 
Colombians have had some success with alternative development 
to the farmers to convince them that they'll make as much money 
off of a licit crop as an illicit crop. It is successful in 
parts of that country. Those are the types of programs that, 
for a very low cost, can be very important and beneficial. So, 
it's a multifaceted approach. It's not just security, but it's 
offering alternative developments and opportunities.
    Chairman Warner. All right. I thank you both very much. I 
think we've had an excellent hearing. I commend you on your 
direct responses to the questions.
    We'll take about a 2-minute recess as the next panel comes 
up.
    General Craddock. Thank you, Mr. Chairman.
    Admiral Stavridis. Thank you very much, Mr. Chairman.
    [Recess at 10:52 a.m., reconvening at 10:59 a.m.]
    Chairman Warner. The committee will resume.
    Now I ask our two nominees, Mr. Ford and Mr. James, to 
introduce those persons who have accompanied you.
    Mr. Ford. I'm accompanied today by my wife, Cecilia. She is 
a retired government attorney, 34 years with the Department of 
Health and Human Services, most recently as the chair of the 
Departmental Appeals Board. Our children are not able to be 
with us today. We have two on active duty, one in the Air Force 
in San Antonio, and our second son is in the 82nd Airborne at 
Fort Bragg.
    Chairman Warner. I know you're proud of them.
    Mr. Ford. We are, thank you.
    Chairman Warner. Very proud of them.
    Mr. Ford. We have a daughter who's a junior at the 
University of Virginia.
    Chairman Warner. I have some familiarity with that 
institution.
    Mr. Ford. So does my wife. She's a graduate of the law 
school.
    Chairman Warner. My law school class was originally 1953, 
but I went off to the Korean War for a period of time, and came 
back and finished with the class of 1954. You weren't on planet 
Earth then, were you?
    Mrs. Ford. He was, actually. [Laughter.]
    Mr. Ford. She's class of 1972, I think.
    Mrs. Ford. 1972.
    Mr. Ford. 1972.
    Chairman Warner. Well, it's a grand institution.
    Mr. Ford. It is a wonderful school.
    Chairman Warner. I was privileged to go back and give the 
graduation speech at the University of Virginia 50 years from 
the year I graduated from the law school. I hope that you'll 
have that same opportunity someday.
    Anyone else that you might have brought?
    Mr. Ford. The folks from the Army legislative liaison team, 
Bernie Ingold and Mark Rivest.
    Chairman Warner. Good.
    Mr. James, I know you have some of your friends here.
    Mr. James. Thank you, Mr. Chairman.
    Yes, I'm very pleased to introduce Ms. Joyce Blackwell, who 
is my executive assistant, who is a very integral part of my 
team.
    Chairman Warner. She is----
    Mr. James. She's sitting----
    Chairman Warner. Please come up here. He needs all the 
support he can get.
    Mr. James. I agree with that, Mr. Chairman, I need all the 
support I can get. I'm very pleased to introduce a long-time 
friend who is a surprise visitor here today, Betty Murphy.
    Chairman Warner. Won't she come up and join us here?
    Mr. James. I would hope that she would.
    Chairman Warner. Front row, please?
    Mr. James. Yes.
    Chairman Warner. Thank you very much.
    Mr. James. Ms. Murphy and I have known each other for a 
number of years. We both graduated from the same law school.
    Chairman Warner. Please. Thank you.
    Mr. James. She is, in fact, primarily responsible for my 
first tour of duty as a presidential appointee in Washington in 
1975, when she recommended to Secretary Dunlop that I be her 
successor as the Administrator of the Wage and Hour Division.
    Chairman Warner. Isn't that interesting.
    Mr. James. So she's been one of the tailwinds in my life.
    Chairman Warner. That's very important, giving you that 
support. Likewise, she touched on my early career. So, we're 
glad to see you here.
    All right. We welcome all of you. I wanted to make sure 
that we acknowledged the families and friends who support our 
nominees.
    Now, Mr. Ford, you currently serve as the Principal Deputy 
Assistant Secretary of the Army for Financial Management and 
Comptroller. From 2001 to 2004, you served as the Deputy 
Assistant Secretary of Defense for Health, Budgets, and 
Financial Policy. You have held senior management positions in 
various academic and medical disciplines, including as Chief 
Operating Officer of Georgetown University Medical Center. That 
was a challenge, wasn't it?
    Mr. Ford. It was, sir. It was. Academic medicine and the 
Army have many things in common, and not least of which is 
understanding all the jargon.
    Chairman Warner. I recently had just some routine matters 
to attend to, and I selected the Georgetown University Medical 
Center. I must say, it's in good hands today.
    Mr. Ford. I believe it is, sir.
    Chairman Warner. Further, as Executive Secretary of the 
Healthcare Financing Administration. You have a very impressive 
background in these fields and are eminently qualified.
    Mr. Ford. Thank you very much.
    Chairman Warner. Likewise, Mr. James, you are an eminently 
qualified individual nominated to be the Assistant Secretary of 
the Army for Manpower and Reserve Affairs. In 2003, you were 
appointed as the first Chief Human Capital Officer of the 
Department of Homeland Security, where you served through 2005, 
and are presently serving as an acting capacity.
    Mr. James previously has served as the Administrator of the 
Wage and Hour Division, U.S. Department of Labor, where you 
managed the enforcement activities, procedures, and standards 
of 300 offices nationwide; served on active duty in the Army 
from 1961 to 1963, and as a member of the 101st Airborne 
Division Artillery, and thereafter for several years in the 
Army Reserve.
    That'll stand you well in this present position, because 
there is no substitute, really, for having had the privilege of 
wearing the uniform in our country and feeling as a part of the 
great team of the men and women of the Armed Forces, 
irrespective of which uniform you wear. So, I congratulate you 
for that service.
    I understand you've also given up a very fine position to 
take this one on, at the request of the President and, I 
believe, the Deputy Secretary of Defense. Am I correct on that?
    Mr. James. Yes, Mr. Chairman, that is correct.
    Chairman Warner. Whereas, he went out and found you, so to 
speak. Would that be correct?
    Mr. James. That is correct, Mr. Chairman.
    Chairman Warner. Senator Levin, I believe, may be able to 
return here shortly, but in the meantime, you had both 
responded to a series of advance policy questions. Without 
objection, I'll make those part of the record.
    Now I'll ask you the same standard questions we ask of all 
nominees.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    Mr. Ford. Yes, sir.
    Mr. James. Yes, sir.
    Chairman Warner. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Mr. Ford. No, sir.
    Mr. James. No, sir.
    Chairman Warner. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record in hearings?
    Mr. Ford. Yes, sir.
    Mr. James. Yes, sir.
    Chairman Warner. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Mr. Ford. Yes, sir.
    Mr. James. Yes, sir.
    Chairman Warner. Will those witnesses be protected from any 
reprisal for their testimony or briefings?
    Mr. Ford. Yes, sir.
    Mr. James. Yes, sir.
    Chairman Warner. Do you agree, if confirmed, to appear and 
testify upon request before this committee or any other 
committee of Congress?
    Mr. Ford. Yes, sir.
    Mr. James. Yes, sir.
    Chairman Warner. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner when requested by a duly-constituted committee of 
Congress, or to consult with the committee regarding the basis 
for any good-faith delay or denial in providing such documents?
    Mr. Ford. Yes, sir.
    Mr. James. Yes, sir.
    Chairman Warner. Now, I'm going to ask, Mr. Ford, would you 
like to make some opening comments?
    Mr. Ford. I would, sir. With your permission, I'd like to 
make some brief remarks.

 STATEMENT OF NELSON M. FORD, TO BE ASSISTANT SECRETARY OF THE 
         ARMY FOR FINANCIAL MANAGEMENT AND COMPTROLLER

    Mr. Ford. It is an honor to appear before you this morning 
as the President's nominee for Assistant Secretary of the Army 
for Financial Management and Comptroller. I would like to thank 
the President for nominating me for this position, and 
Secretaries Harvey and Rumsfeld for their guidance, confidence, 
and support. I would also like to thank this committee for all 
it's done over the years for the men and women of the Army.
    If I am confirmed, I look forward to working with the 
committee to address the many challenges facing the Army. 
Perhaps the greatest of these challenges is paying for the 
global war on terrorism while transforming the Army into the 
more effective formations needed for the 21st century security 
environment.
    We have to make sure that our soldiers are deployed with 
the best equipment and training, while developing the doctrine, 
tools, and facilities that will attract future generations of 
young men and women to Army careers. As the father of a soldier 
who spent a year in Afghanistan and whose unit is now preparing 
to return to the fight, I understand these challenges 
personally.
    The Army's financial management must be based on sound 
stewardship and good business practices while enhancing our 
capabilities wherever we are called to serve.
    Finally, I'd like to thank my family for their support as I 
continue to serve the American people in this important time. I 
am grateful to them for their love and patience.
    Thank you, sir.
    Chairman Warner. Very thoughtful of you to say that, 
because, as I said in an earlier moment in this hearing today, 
the support of the families is essential for, certainly, not 
only the men and women in uniform, but for those in the 
civilian capacity. I had the privilege of serving in that 
building for over 5 years during the Vietnam War, and I know 
the stress that it placed upon my family and my children. We 
accept it.
    Mr. Ford. Thank you. Thank you, sir.
    Chairman Warner. You'll never regret, of course, that 
service, both of you, in connection with the Defense Department 
and so forth, but it's an important chapter of your life, and I 
hope you look back on it with a sense of satisfaction.
    Mr. Ford. Thank you.
    Chairman Warner. Mr. James?
    Mr. James. Mr. Chairman, with your permission, I have some 
brief opening remarks.
    Chairman Warner. Yes.

STATEMENT OF RONALD J. JAMES, TO BE ASSISTANT SECRETARY OF THE 
             ARMY FOR MANPOWER AND RESERVE AFFAIRS

    Mr. James. Mr. Chairman, I'm deeply honored and privileged 
to appear before this committee as the President's nominee for 
Assistant Secretary of the Army for Manpower and Reserve 
Affairs.
    I'd like to echo my colleague's--Mr. Ford's, thanks to the 
President, the Secretary of Defense, and the Secretary of the 
Army for the confidence and trust they've shown in me by 
nominating me to serve as the Assistant Secretary of the Army 
for Manpower and Reserve Affairs.
    I would also like to take this opportunity to thank this 
committee for all the work it's done over the years for the men 
and women of our Armed Forces. If I am confirmed, I look 
forward to the opportunity to serve my country again at a time 
when our national security environment is markedly different 
and perhaps more complex than it has been at any other time in 
our Nation's history. If confirmed, I look forward to working 
with Congress, the Defense Department, and the Department of 
the Army to address the force and personnel challenges such as 
recruiting and retaining an All-Volunteer Force, building force 
capabilities, and advocating for Reserve component needs.
    I'd like to thank my family, and especially my wife, Pat, 
of 36 years, who could not be here today, for their support as 
I continue to pursue opportunities to serve our country. I am 
very grateful to them for their continued understanding and 
affection.
    Mr. Chairman, I look forward to any questions you and the 
committee may have of me concerning this nomination. Thank you 
very much, Mr. Chairman.
    Chairman Warner. Thank you both. Those were very fine 
opening statements.
    First, Mr. Ford, last year's National Defense Authorization 
Act required certification that military-to-civilian 
conversions not erode the quality or increase the cost of 
military health care services. Secretary Harvey, on June 19, 
2006, provided that certification, indicating that he relied 
solely on the advice of the Surgeon General. If you are 
confirmed, what role would you play in future decisionmaking 
regarding the conversion of military billets to civilian 
positions, and, in particular, in determining the cost-
effectiveness of such conversions? What is your overall 
assessment of the impact of military-to-civilian conversions on 
Army efficiency and readiness?
    Mr. Ford. Thank you very much for that question, Mr. 
Chairman.
    That question, I think, goes back to some of my 
responsibilities that I had when I was the Deputy Assistant 
Secretary of Defense for Health Budgets. Most of the health 
spending in the Department of Defense runs through the TRICARE 
program, the Defense health program. The spending for military 
personnel is about the only spending that actually runs through 
the departmental budgets. Our experience at the time was that 
the conversions of military billets to civilian billets didn't 
have a negative impact; in fact, it had a positive impact. It 
freed up military personnel for deployment purposes. We will 
continue to monitor that as we go forward.
    Chairman Warner. All right. I think we'll want to have you, 
from time to time, consult with our staff to clarify any 
problems that may arise.
    Mr. Ford. I'd be happy to do that, sir.
    Chairman Warner. This question goes to both of our 
nominees. The Army has established a Wounded Warrior Program 
designed to meet the special needs of the most severely wounded 
soldiers. Sailors, airmen, and marines, of course, are affected 
in some other ways by this same program. Each of the Services 
have some comparable form of this. Additionally, the Army has 
conducted several comprehensive studies of the mental health 
conditions of acting Reserve component soldiers following 
deployment to the theater of operations. Have you formed any 
opinions about the adequacy of the resources being devoted to 
the needs of wounded soldiers and those who are in need of 
counseling and mental health services? The families of these 
individuals are also very much a part of this whole equation. 
What role will you play, if confirmed, in ensuring that these 
programs are adequately resourced and are proactively working 
to serve the needs of the soldiers and the families?
    Mr. James. Mr. Chairman, if I am confirmed, I can assure 
you that this will be one of my highest priorities. We ask men 
and women to serve our country. We have an obligation to them 
to assure that they, in fact, have health care. I mean health 
care not just in the traditional sense, because often the 
effects from wartime are more mental than they are physical. If 
I am confirmed, I promise you that I will clearly turn my 
attention to this, because I view it as a sacred obligation, as 
a sacred payback to those who serve our country.
    Chairman Warner. I appreciate that. I've seen tremendous 
advancements in what modern science and the medical profession, 
in particular, can do for mental health. It's come a long way. 
We must provide, for these brave individuals and their 
families, every bit of help we can, because this has been a 
very stressful military operation, really unlike any that this 
country has ever been engaged in--it's a war on terror, not 
State-sponsored, no uniforms, by and large, worn by the 
adversaries. The adversaries are manifold, whether or not it's 
sectarian strife, common hoodlums, insurgents from other 
nations, individuals whose minds are really so distorted with 
erroneous, I think, concepts of religion that they'd give their 
lives in suicidal attacks. We're asking a lot of the young men 
and women in the Armed Forces today. Consequently, we, here at 
home, must give them every conceivable benefit we can to help 
them readjust themselves and once again take up, if they choose 
to leave the military Service, gainful and productive roles in 
the civilian economy.
    Mr. Ford, to financial management modernization, this 
committee has long been concerned about the pace of 
modernization of Department of Defense financial management 
systems. What progress have you observed in the Army's 
modernization of its financial management systems and 
achievement of the goal of having fully auditable financial 
statements?
    Mr. Ford. Thank you for that question. I've been working 
for the Army for about the last 15 months, and I think in that 
15-month period we've made some substantial progress. Perhaps 
not as much as we would like to have made, but the trajectory 
is good. During the last 15 months, we've started the 
implementation of our new general fund accounting--enterprise-
wide accounting--system, we have reinvigorated the development 
of the Defense Integrated Manpower System, which had been 
moribund. I think that's back on track with a very aggressive 
implementation schedule. We've worked on new ways to improve 
our logistics management. All of these are designed to work 
together so that we can get to the point where we are as 
careful and thoughtful about our assets and liabilities as we 
are about our income and our expenses.
    We're pretty good at knowing what we get money for and how 
we spend it. We're less able to really understand what our 
equipment is, what our facilities are, and when they need to be 
refreshed. Our new accounting systems will provide us the 
information we need to do that.
    It will take some time before audited financial statements 
are available, just because of the complexity of putting these 
new systems together. But every year, we produce a financial 
report, and that financial report is judged to be a good, 
thoughtful, clear explication of how the Army is using its 
resources.
    So, I think we're well on the way, and we have much to do, 
but good progress is being made.
    Chairman Warner. Thank you very much. I think it's 
important that you follow through that and strengthen it in 
every way you can.
    Mr. James, recruiting of the highest caliber young men and 
women for the All-Volunteer Army, Army Reserve, and the Army 
National Guard presents a challenge. All through history there 
have been ups and downs in this, but it is a challenge now, 
although I was pleased to see, I think, most of the goals have 
been met for fiscal year 2006. Indeed, in order to make 
recruiting goals, age limits for enlistments have been extended 
to age 42. That's interesting. I find that very interesting, 
but there are a lot of fully able-bodied individuals at that 
age. I remember in World War II, the cutoff was 38 years, 
because I came in, in the last year of the war, and I remember 
our boot-camp class with 17-year-olds, as I was, and some 18s, 
and then some 36, 37, 38-year-old folks, and they had a bit of 
a struggle keeping up with the younger ones, but I hope this 
works out, at age 42. Aptitude standards have been modified to 
allow a greater number of recruits with lower scores to enlist 
in the Army. What role do you expect to play, if confirmed, in 
ensuring that the standards for recruiting in the Active and 
Reserve components remain high? Are there additional recruiting 
incentives that would be helpful, in your view, in assisting 
Army recruiters in making their recruiting goals?
    Mr. James. Thank you, Mr. Chairman.
    I believe we have the finest Army in the world. I'm very 
proud to join that Army. I do not want my legacy to be that I 
let the standards slip. Having been involved in the private 
sector and with clients, the building of an excellent 
workforce, the critical factor of that is the recruiting and 
retaining of the best and the brightest, and providing the kind 
of work environment and the kind of incentives that, in fact, 
help you to do that. That has been my practice in the past. 
That's been the counsel I give to clients. I would expect to 
continue that now. I would expect to be very aggressive about 
it, because without recruiting the best and the brightest and 
keeping the standards high, I would not want to come before 
this committee years from now and say that on my watch I let 
the best Army in the world slide or slip.
    Chairman Warner. Thank you very much. I'll turn to Senator 
Levin momentarily here.
    The management of the Army Senior Executive System (SES), 
Mr. James, in March 2006, Secretary Harvey announced 
implementation of significant changes in the manner in which 
senior civilian executives in the Army would be managed, 
including requiring civilian leaders to move into positions 
where they are most needed. You've indicated in your advance 
questions, however, that you do not anticipate having any role 
in the management of the Army's senior executives, other than 
those assigned to your office. Based on your experience at the 
Department of Homeland Security, would it not be desirable that 
you and your office have a role in the implementation of the 
organizational change? In my own experience in the Pentagon, I 
relied so heavily on the senior civilian executives, as I did 
the military, of course, but we had a team in those days. We 
hardly noticed any different treatment. We were all part of the 
team. I hope that the senior civilians under your jurisdiction 
in the Army are treated with the same respect that we did many 
years ago when I was there.
    Mr. James. Mr. Chairman, I'll go back and read my 
statement, and, if I misspoke in that, I will correct it.
    Chairman Warner. I don't think you misspoke. I wasn't 
suggesting that.
    Mr. James. I will correct it.
    Chairman Warner. You mean in your written statement?
    Mr. James. My written statement, yes, sir.
    Chairman Warner. Yes.
    Mr. James. But let me respond to your concerns. It's my 
understanding that the primary responsibility for the 
allocation and the assignment of SESs has been moved up to the 
Office of the Secretary. I would still anticipate, given my 
experience and background, that Secretary Harvey would, in 
fact, rely on me for advice and counsel. I do know that during 
the course of some discussions we have had, I've talked to him 
about my strong feeling about the need to model the Goldwater-
Nichols legislation on the civilian side, that if, in fact--and 
this is the same thing I practiced and did and encouraged at 
Department of Homeland Security--that is, you need to have 
executives who, in fact, understand security and who understand 
moving of containers. The only way you get that done is that 
you, in fact, have a rotational program. You have a program 
that's very much like what Goldwater-Nichols envisioned, that 
you have jointness. Only then do you really have solid 
executives.
    It's often people like me who get the spotlight, but the 
fact is that if we really care about government, our most 
valuable resource for sustaining excellence in government is 
the senior leadership core, and I will, to the extent I am 
asked--and sometimes even when I'm not asked--raise issues and 
concerns about supporting that program.
    Chairman Warner. Thank you very much.
    Senator Levin, please proceed.
    Senator Levin. Thank you, Mr. Chairman.
    First, Mr. Ford, let me ask you a couple of questions about 
the Army budget process. The budget of the Army has appeared to 
be about one step above complete chaos in recent months and 
years. We have seen a number of reprogrammings being sent to 
Congress to borrow from account B to fill a hole in account A, 
followed shortly by a second request to borrow from account C 
to repay account B, and so forth. We have had reprogrammings of 
this nature pending before us that would simultaneously move 
large amounts of money into and out of your operation and 
maintenance account at the same time. We have seen the Army 
initiate a modularity program before the Army had any plan to 
pay for it. Has the Army's budgeting process been acceptable, 
in your view? What do you plan to do to improve it?
    Mr. Ford. Thank you very much, Senator Levin.
    I have not had a great deal to do with the Army budgeting 
process for last 15 months. Most of my efforts have been in 
internal controls and in cost management. I think that it's 
never good to have a budget process which is in chaos. I think, 
from the perspective of the Army, the current situation we're 
in is not ideal. We are preparing, each year, a budget, at 
least two supplementals, and responding to numerous requests 
from the combatant commanders for operational needs that they 
identify. So, it's been a difficult process.
    My own view is that we need to put as much of the activity 
of the Army as we can in the base budget to make sure that the 
base budgets are available to the Army on a timely basis and to 
have as little of the activity as possible in supplementals, 
and that's what I would work to do, if I'm confirmed to this 
position.
    Senator Levin. I understand that the Army has broken with 
longstanding internal DOD procedures and refused to submit a 
program objective memorandum (POM) for the fiscal year 2008 
budget request to the Office of the Secretary of Defense (OSD). 
Do you know if that's correct?
    Mr. Ford. Sir, we have not submitted our POM to the OSD.
    Senator Levin. Is that not a break with a longstanding 
tradition?
    Mr. Ford. It is a break, as I understand it, with a 
longstanding tradition. Let me explain, if I could, what's 
happened.
    As we began the preparation of the POM this year, we 
identified a mismatch between the current fiscal guidance and 
the Army's missions, as laid forth in the Quadrennial Defense 
Review. When we noticed this mismatch, we informed the OSD. We 
are, at this time, in constant conversation with OSD and with 
the Office of Management and Budget to understand what the 
scope of those differences are, and to look for solutions for 
those differences. As soon as we come to an agreement on that, 
we will prepare and submit our POM.
    Senator Levin. Okay, thank you.
    Mr. James, a recent Government Accountability Office (GAO) 
report noted a significant increase in recruiter misconduct 
between fiscal years 2004 and 2005. The economy, ongoing 
hostilities in Iraq, and pressures to meet recruiting goals 
have reportedly caused some recruiters to resort to overly 
aggressive tactics, which can adversely affect the Army's 
ability to recruit and erode public confidence in the 
recruiting process. Other recruiters have been accused of 
various criminal offenses.
    The GAO found that the Services, including the Army, do not 
track all allegations of recruiter wrongdoing and likely 
underestimate the true number of recruiting irregularities.
    If confirmed, will you act to ensure that the Army is aware 
of the full scope of alleged recruiter misconduct?
    Mr. James. Senator Levin, the answer is yes. I have a 
history of teaching and lecturing in the area of sexual 
harassment. I have written extensively on the issue. It is 
cancerous to an organization to have allegations of any kind of 
harassment. It is unacceptable to have misconduct or 
misrepresentations. That will be a very high priority, if not 
the top priority. It will clearly be a very high priority.
    If the Army is to maintain excellence, if the Army is to 
maintain credibility, we simply can't have that. I will not 
abide by that on my watch, if I am confirmed.
    Senator Levin. You will keep track of those allegations in 
a form that you can report to the committee?
    Mr. James. Yes, sir, because I have a history of experience 
in understanding that sexual harassment and allegations of this 
kind are always underreported, that normally if you go into a 
company and you get two or three harassments, that is more than 
likely the tip of the iceberg because there is a tendency by 
individuals, especially women, the data showed, not to report, 
or to ignore. So, I comment this with the understanding that I 
not only need to look at the hard numbers, I need to understand 
the reality of what may be happening.
    Senator Levin. Thank you.
    Mr. James, just one last question. This relates to the use 
of contract recruiters. There is a pilot program which allows 
the Army to use contract recruiters. We have just received a 
report, the first one, on the effectiveness and efficiency of 
this pilot project. For 3 years of recruiting, from 2003 
through 2005, the report concluded that while contract 
recruiters were statistically less productive than traditional 
recruiters, that the contract recruiter performance improved 
during the first 2 years in the most critical areas, and it was 
determined to be a viable recruiting option. The report 
recommended continuing contract recruiting in some form after 
the end of the pilot test on September 30, 2007.
    I have a number of concerns about this program, about 
contractor recruiters. For example whether or not they are 
subjected to greater pressures than military recruiters to 
achieve or exceed recruiting goals because their compensation 
will be affected by the number of individuals that they are 
able to recruit.
    Can you give us, very briefly, your views on contracting 
out military recruiting? Second, do you know if recruiters are 
given a bonus for each person they recruit? If so, what is that 
bonus, and is that bonus a significant part of their pay?
    Mr. James. Senator Levin, I regret that I simply don't have 
the information to respond to that question. I don't have the 
data that you do. I would, respectfully, suggest that the 
questions that you raise are excellent questions that need to 
be asked, regardless of whether recruiters are civilians or 
military. The question of, ``are they more effective?'' is 
obviously something that would need to be evaluated.
    Senator Levin. If confirmed, will you provide to this 
committee your assessment of this program? Also, would you give 
us details on how these contractors are paid? Because if there 
is a financial incentive to sign up people who otherwise should 
not be signed up, or to engage in pressure tactics which are 
unacceptable for recruiting, we should know that, and it ought 
to be part of our consideration and deliberation as to whether 
to extend this program. But if you could look into this 
program, see how it's operating, see how it works, and report 
to this committee, I'd appreciate it.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Mr. James. Thank you, Senator. If I am confirmed, I 
understand my obligation is to apprise this committee about the 
burning issue of recruiting and if we are being effective and 
if we are doing it in the right ways.
    Senator Levin. The contracting.
    Mr. James. Yes, sir, I understand there's a myriad of 
questions.
    Senator Levin. Thank you.
    Chairman Warner. Senator Levin, those are important 
questions, and I would suggest that the nominee provide 
something for the record on that particular question as 
promptly as possible. My counselor back here has some knowledge 
on that program, and he'd be happy to tell you some of the 
source material that we are looking at on this important issue. 
I thank you, Senator, for bringing it up.
    Senator Levin. Thank you.
    Chairman Warner. We will keep the record open for Senators, 
through close of business of the Senate today, to put their 
questions into the record.
    I thank the nominees, their families, and those who have 
joined us for this very important hearing.
    The committee stands in adjournment.
    [Whereupon, at 11:32 a.m., the committee adjourned.]

    [Prepared questions submitted to GEN Bantz J. Craddock, 
USA, by Chairman Warner prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense (DOD) 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. In your 
previous responses to advance questions in connection with your 
nomination to be Commander, U.S. Southern Command, you expressed your 
support for full implementation of these reforms and noted that 
proposals by the Center for Strategic and International Studies for 
intra-DOD, interagency, and legislative changes could provide a basis 
for change.
    Based on your experience in U.S. Southern Command, do you see the 
need for modifications of any Goldwater-Nichols Act provisions?
    Answer. As the Commander of the U.S. Southern Command, the Joint 
Interagency Task Force-South (JIATF-South) falls under my purview. 
JIATF-South is not only a robust joint military organization, it is 
also a model for combined, interagency cooperation. All four military 
Services work alongside law enforcement agencies, intelligence 
agencies, and liaisons from 12 foreign nations to defeat the flow of 
illicit traffic. In today's environment of limited resources, I believe 
it would be appropriate to expand and strengthen the Goldwater-Nichols 
Act to encourage not only joint operations, but also interagency 
cooperation. I also believe that the combatant commander should play a 
stronger role in the allocation process--resourcing issues are being 
studied by the Joint Task Assignment Process development project within 
DOD. That process should identify recommendations in joint management 
constructs to improve the combatant commander's influence in the 
allocation of resources.
    Question. In your view, do the rules pertaining to joint officer 
management and the qualification of officers as joint specialty 
officers require revision? If so, how?
    Answer. There are implementation practices within the department 
that could be modified, but the law as written is sufficient for 
military officers. We may need to better identify Joint Staff Office 
positions to ensure the right people are in the right positions, and 
then ensure they receive the training and professional military 
education (PME) prior to filling those critical billets. Too often, PME 
is being accomplished after reporting to the Joint Commands. I am also 
aware that there are proposals under review to credit officers with 
joint qualifications based on a variety of duty experience associated 
with joint missions. I think such considerations are an appropriate 
evolution in how we go about identifying and managing joint officer 
resources to meet contemporary requirements of joint staffs and task 
forces.
    An additional consideration for revising the law would be to 
require critical civilian positions to be joint qualified and educated 
as well. As we move more and more to a civilianized force, reducing the 
number of military personnel, we must ensure that we continue to have 
properly qualified personnel in critical billets.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander, U.S. European Command (EUCOM) and North Atlantic Treaty 
Organization's (NATO) Supreme Allied Commander, Europe (SACEUR)?
    Answer. The Commander, EUCOM, is responsible for coordinating and 
conducting all U.S. military operations and activities across the 92 
countries in the EUCOM area of responsibility (AOR) in pursuit of U.S. 
national military objectives. This AOR includes all of Europe, two-
thirds of the African continent, the Middle East, and the Caucasus 
Region. He is also responsible for the health, welfare, and security of 
the approximately 104,000 servicemembers forward deployed within that 
AOR. He coordinates the efforts of the Service component commands 
assigned to the European Theater. The NATO Military Command Structure 
assigns specific roles and duties to SACEUR. These include:

        <bullet> Strategic planning: Identifying and requesting forces 
        for the full range of Alliance missions and contributing to 
        crisis management and effective defense of NATO territory and 
        forces.
        <bullet> Operational leadership: Upon aggression, executes 
        military measures within the capability of the command to 
        preserve or restore the security of NATO nations.
        <bullet> Transformation: Cooperates with the Supreme Allied 
        Commander for Transformation (SAC-T) on integrating 
        transformation efforts. Contributes to stability throughout 
        Euro-Atlantic area for developing contacts and participating in 
        exercises and activities with NATO and Partnership for Peace 
        (PfP) partners.
        <bullet> Strategic Analysis: Conducts strategic level analysis 
        to identify and prioritize type and scale of capability 
        shortfalls. Manages NATO allocated operation and exercises 
        resources to accomplish operational missions as directed by the 
        North Atlantic Council (NAC).

    The responsibilities of the Commander, EUCOM, and the SACEUR are 
complementary. The fact that they have traditionally been vested in one 
officer affords near-seamless coordination between the U.S. and NATO 
military command structures.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have been fortunate to serve in a number of positions 
that I believe have prepared me for these duties. I have had extensive 
command experience in the European Theater. I was the Commander of U.S. 
Forces for the initial entry operation into Kosovo. I have subsequently 
commanded the 7th Army Training Command and the 1st Infantry Division 
(Mechanized)--the ``Big Red One''. In my current capacity as the 
Commander of the U.S. Southern Command, I have been involved with 
similar combatant command issues that include security cooperation, the 
global war on terrorism, interagency cooperation across a range of 
issues, etc. . . These assignments have given me an opportunity to hone 
both operational and diplomatic skills that are critical to the success 
of any commander. Having had the opportunity to spend a significant 
portion of my military career assigned in Europe provides me with a 
better appreciation for the cultural differences and similarities with 
our partners and allies in the EUCOM AOR.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
EUCOM?
    Answer. Key to my ability to perform the duties of Commander, 
EUCOM, and SACEUR will be getting around to the countries within the 
AOR and meeting the Chiefs and Ministers of Defense as well as the U.S. 
Ambassadors. Gaining an immediate appreciation for their insights and 
perspectives will be essential. Just as important, I will need to get 
on the ground and interact with the commanders and forces throughout 
the theater, particularly those involved in the ongoing operations in 
Northern Africa, Kosovo, Iraq, Afghanistan, and the African Union 
Mission in Sudan (AMIS).
                             relationships
    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
(SECDEF) and from the SECDEF to the combatant commands. Other sections 
of law and traditional practice, however, establish important 
relationships outside the chain of command. Please describe your 
understanding of the relationship of the Commander, EUCOM, to the 
following:
    The Secretary of Defense.
    Answer. The Secretary of Defense exercises authority over the Armed 
Forces through the EUCOM Commander for those forces assigned to the 
EUCOM AOR. The EUCOM Commander exercises command authority over 
assigned forces and is directly responsible to the SECDEF for the 
performance of assigned missions and the preparedness of the command.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy SECDEF is delegated full power and authority to 
act for the SECDEF and to exercise the powers of the Secretary on any 
and all matters for which the Secretary is authorized to act pursuant 
to law. The EUCOM Commander coordinates and exchanges information with 
the Deputy Secretary on matters delegated by the Secretary. The 
commander directly communicates with the Deputy Secretary on a regular 
basis.
    Question. The Under Secretary of Defense for Policy.
    Answer. A direct command relationship between the Under Secretary 
of Defense for Policy and the EUCOM Commander does not exist. However, 
the EUCOM Commander regularly interacts, coordinates, and exchanges 
information with the Under Secretary of Defense for Policy on policy 
issues relating to NATO, European, Eurasian, and African affairs. The 
commander directly communicates with the Under Secretary of Defense for 
Policy on a regular basis.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. There is not a direct command relationship between the 
Under Secretary of Defense for Intelligence and the EUCOM Commander. 
However, the EUCOM Commander regularly interacts with, coordinates, and 
exchanges information with the Under Secretary of Defense for 
Intelligence on intelligence related matters.
    Question. The Assistant Secretary of Defense for International 
Security Affairs.
    Answer. There is not a direct command relationship between the 
Assistant Secretary of Defense for International Security Affairs and 
the EUCOM Commander. The EUCOM Commander and the Assistant Secretary of 
Defense for International Security Affairs work together on 
coordinating international security policy and strategy with 
responsibility for Africa.
    Question. The Assistant Secretary of Defense for International 
Security Policy.
    Answer. There is not a direct command relationship between the 
Assistant Secretary of Defense for International Security Policy and 
the EUCOM Commander. The EUCOM Commander and the Assistant Secretary of 
Defense for International Security Policy work together on developing 
security cooperation strategies for Europe, Eurasia, and NATO.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman functions under the authority, direction, and 
control of the National Command Authority. The Chairman transmits 
communications between the National Command Authority and the EUCOM 
Commander as well as oversees the activities of a combatant commander 
as directed by the SECDEF. As the principal military advisor to the 
President and the SECDEF, the Chairman is a key conduit between the 
combatant commander, interagency, and Service Chiefs. The EUCOM 
Commander keeps the Chairman informed on significant issues regarding 
NATO and the EUCOM AOR. The commander directly communicates with the 
Chairman of the Joint Chiefs of Staff on a regular basis.
    Question. The Secretaries of the Military Departments.
    Answer. The Secretaries of Military Departments are responsible for 
administration and support of forces that are assigned or attached to 
the EUCOM Commander. The secretaries fulfill their responsibilities by 
exercising administrative control through the Service component 
commands assigned to EUCOM.
    Question. The Chief of Staff of the Army, Chief of Naval 
Operations, Commandant of the Marine Corps, and Chief of Staff of the 
Air Force.
    Answer. The Service Chiefs are responsible for ensuring the 
organization and readiness of each respective Service and for advising 
the President. However, the Service Chiefs do not have operational 
command authority. The EUCOM Commander must rely upon the each of the 
Service Chiefs to provide properly equipped and capable forces to 
accomplish missions in the EUCOM AOR.
    Question. The Supreme Allied Commander for Transformation.
    Answer. Both NATO's Strategic Commanders, SACEUR and SAC-T, carry 
out roles and missions assigned to them by the NAC or in some 
circumstances by NATO's Defence Planning Committee. SACEUR and SAC-T 
work together to ensure the transformation of NATO's military 
capabilities and interoperability that support Allied Command 
Operations.
    Question. The other combatant commanders.
    Answer. Formal relationships between the EUCOM Commander and the 
geographic and functional combatant commanders derives from command 
authority established by title 10, U.S.C., section 164. Combatant 
commanders closely coordinate as necessary to accomplish all assigned 
missions.
    Question. The Secretary of State.
    Answer. There is not a direct command relationship between the 
Secretary of State and the EUCOM Commander. The EUCOM Commander and the 
Secretary of State cooperate on the development and implementation of 
regional and bilateral strategy and policy for Europe, Eurasia, Africa, 
and NATO.
    Question. The Under Secretary of State for Political Affairs.
    Answer. There is not a direct command relationship between the 
Under Secretary of State for Political Affairs and the EUCOM Commander. 
The EUCOM Commander and the Under Secretary of State for Political 
Affairs work together in developing regional and bilateral policy 
issues in Africa, Europe, Eurasia, and NATO.
    Question. The Assistant Secretary of State for European and 
Eurasian Affairs.
    Answer. There is not a direct command relationship between the 
Assistant Secretary of State for European and Eurasian Affairs and the 
EUCOM Commander. The EUCOM Commander and the Assistant Secretary of 
State for European and Eurasian Affairs work together on developing 
U.S. foreign policy in Europe, Eurasia, and NATO.
    Question. The U.S. Permanent Representative to the NAC.
    Answer. There is not a direct command relationship between the U.S. 
Permanent Representative to the NAC and the SHAPE/EUCOM Commander. The 
U.S. Permanent Representative is 1 of 26 members of the NAC and 
provides direction to NATO's military authorities. The EUCOM Commander 
works with the U.S. Permanent Representative to the NAC to coordinate 
U.S. military contributions to NATO.
    Question. U.S. Chiefs of Mission within the U.S. EUCOM AOR.
    Answer. There is not a formal command relationship between the 
EUCOM Commander and the U.S. Chiefs of Mission for the 92 nations in 
the EUOCM AOR. In a foreign country, the U.S. Ambassador is responsible 
to the President for directing, coordinating, and supervising all U.S. 
Government elements in the host nation. The EUCOM Commander coordinates 
and exchanges information with U.S. Chiefs of Mission regularly on 
matters of mutual interest, to include military operations and 
engagement activities. In addition to the regular exchange of 
information with the U.S. Chiefs of Mission, past EUCOM Commanders have 
hosted regional conferences. If confirmed, I intend to continue this 
practice.
                            major challenges
    Question. In your view, what are the major challenges and problems 
you would confront if confirmed as the next Commander, EUCOM and 
SACEUR?
    Answer. I believe the major challenges facing the next Commander, 
EUCOM and SACEUR can generally be divided into six broad categories: 
Defense Cooperation in Eastern Europe, Africa, Theater Security 
Cooperation Reforms, International Security Assistance Force (ISAF)-
Afghanistan, NATO Kosovo, and NATO Capabilities.
    As the focus of European security continues to shift from Central 
to Eastern Europe, EUCOM strategic plans and activities to address the 
challenges in Eastern Europe and Eurasia compliment NATO efforts to 
strengthen new alliance partner capability in this region. EUCOM 
efforts to stage U.S. forces in Bulgaria and Romania will focus on 
military-to-military activities that continue to build the military 
capacities of new NATO alliance and perspective alliance countries 
along with strategic partners in Eastern Europe and Eurasia.
    The increasing strategic significance of Africa will continue to 
pose the greatest security stability challenge in the EUCOM AOR. The 
large ungoverned area in Africa, HIV/AIDS epidemic, corruption, weak 
governance, and poverty that exist throughout the continent are 
challenges that are key factors in the security stability issues that 
affect every county in Africa.
    Today's theater security cooperation programs provide critical 
resources to increase the security capacity of countries in need, but 
inefficient processes and program planning and design restrictions make 
practical use of our security cooperation programs inefficient. The 
lack of flexibility to respond to rapidly changing security 
requirements hampers the combatant commander's ability to provide the 
kind of training and equipping of foreign military forces. Reform of 
existing theater security cooperation programs is required to 
streamline our processes so that U.S. national security objectives are 
met.
    The future of NATO out of area operations is tied to the success of 
NATO's ISAF mission in Afghanistan. Although the security and stability 
ISAF mission in Afghanistan will not be a short-term or challenge-free 
endeavor, the commitment the Alliance has made exporting security and 
stability to regions in need is what will allow NATO to continue as the 
relevant security organization of the future. If NATO's political or 
military will is lost in the Afghanistan ISAF mission, the future of 
NATO out of area operations and thus the NATO Response Force concept 
will be severely jeopardized.
    The Balkan countries have been a challenge for the last several 
Commanders, EUCOM/SACEURs, and this will not change for the next one. 
In Kosovo, the upcoming decision on the future status of Kosovo holds 
several unknowns that will assuredly affect the region. With continued 
vigilance, this region is on the path to be a NATO success story.
    Finally, continuing to improve the standardized capabilities of 
NATO Alliance militaries will be an ongoing challenge for Alliance 
nations that grapple with scarce resources to contribute to their 
security organizations. Resources for modernization and standardization 
are competing directly with current operational requirements in Kosovo, 
Afghanistan, Iraq, and Darfur along with supporting U.N. peacekeeping 
operations throughout the region.
    Question. If confirmed, what plans do you have for addressing these 
challenges and problems?
    Answer. In the previously mentioned areas, the key to success will 
be proactive engagement and clear direction. The next EUCOM/SACEUR must 
establish clear priorities and provide a strategic vision to guide 
transformation, foster relationships, and set the conditions for the 
successful integration of the new NATO member countries. Additionally, 
constant reassessment of these challenges and coupled with the ability 
to adjust will be critical enablers as we address evolving security 
challenges in the EUCOM AOR.
                           nato capabilities
    Question. This committee has a long history of concern that NATO 
remain first and foremost a highly capable military organization. Over 
the years, there have been concerns that NATO member countries do not 
spend as much as they should on maintaining and modernizing their 
militaries, and that there has been a considerable gap in capabilities 
between the United States and many other NATO members. This issue has 
become an even larger concern as NATO has expanded to include several 
East and Central European nations.
    What is your assessment of the military capabilities of the NATO 
member states, and of the NATO organization as a whole? In what areas 
specifically is more improvement needed? In what areas has there been 
the most progress?
    Answer. The NATO member states are very well trained and equipped. 
The limiting factor for NATO capability is logistics and 
transportation, including strategic airlift. Military equipment and 
capability are the best in the world. Until NATO has the logistics and 
transportation infrastructure needed to be expeditionary in nature, 
greater quantities of unmoved equipment will be rendered irrelevant. 
There has been a great deal of progress in transforming new member 
states of NATO into all volunteer, professional forces.
    Question. What is your assessment of the role of SAC-T in effecting 
positive change among NATO member nations?
    Answer. The role of SAC-T is to effect positive change among NATO 
member nations forces and capabilities to improve NATO's operational 
effectiveness. SACEUR and SAC-T work in cooperation, not competition, 
to realize effective change across the alliance. I look forward to 
continuing the relationship that General Jones has developed.
    Question. What will you do, if confirmed, to ensure that military 
capability and interoperability remain top priorities for NATO?
    Answer. Military capability and interoperability are top priorities 
for NATO, and will continue to be so during my tour. Ongoing operations 
in Afghanistan, Iraq, and Kosovo provide ``real world'' experience to 
base our future plans. Our ability to work together will be enhanced by 
these experiences.
                            nato enlargement
    Question. NATO has indicated that it does not expect to invite new 
members to join NATO at the Riga Summit in November 2006, but that it 
will make clear that the door remains open to new members.
    What do you believe the criteria should be for accepting new 
members into NATO?
    Answer. The criteria for accepting new members is clearly outlined 
in the Washington Treaty, the Alliance's 1995 Study on NATO 
Enlargement, and the NATO Membership Action Plan.
    Chapter 10 of the Washington Treaty notes that the alliance, 
through unanimous agreement, may invite any European State that is in a 
position to further the principles of the treaty and to contribute to 
the security of the North Atlantic area.
    Beyond that very broad statement, Allied Heads of State and 
Government, in September 1995, issued the Study on NATO Enlargement, 
which among many things, noted that any new member, at the time that 
they join NATO, must commit themselves to very specific things, such 
as: settling any international disputes by peaceful means; contributing 
militarily to NATO's collective defense; and maintaining the 
effectiveness of the alliance by sharing its roles, risks, 
responsibilities, costs, and benefits.
    Finally, in 1999, NATO, building on the principles of that study. 
launched a program known as the Membership Action Plan (MAP), which is 
specifically designed to assist aspiring countries in their 
preparations for possible future NATO membership. The MAP lists over 30 
separate political, economic, defense, military, financial, security, 
and legal items, which the alliance expects each NATO aspirant to meet 
upon accession into the alliance. These items range from establishing 
democratic and civilian control of their armed forces and allocating 
sufficient budget resources for the implementation of alliance 
commitments, to having in place sufficient safeguards and procedures to 
ensure the security of NATO information and ensuring, to the greatest 
extent possible, that their domestic legislation is compatible with the 
legal arrangements and agreements that govern cooperation within NATO.
    Question. Is there a limit to how many members NATO can include and 
still be an effective military organization capable of making decisions 
and acting in a timely fashion?
    Answer. It would not be appropriate for me to answer the first part 
of your question since it is a political one, which is best answered by 
the Allied Heads of State and Government, who collectively must answer 
it. However, with regard to the second part of your question, I can 
tell you that the last two rounds of NATO enlargement, which increased 
the size of the alliance by 10 members over the last 7 years, have 
strengthened the Alliance.
                          nato-russia council
    Question. The NATO-Russia Council was established at the Rome 
Summit in May 2002.
    How has the NATO-Russia relationship evolved since that time?
    Answer. NATO-Russia relations have evolved since the Rome Summit 
and have incrementally increased in terms of the number and complexity 
of events. These events include exercises, seminars, academic 
exchanges, and technical conferences. Russian ratification of the NATO 
PfP Status of Forces Agreement remains a necessary next step for 
additional progress, especially in field exercises.
    Question. How do you see this relationship evolving in the future?
    Answer. I anticipate the relationship to continue a deliberate 
positive trend that reflects the mutual interests of both NATO and 
Russia.
    Question. Does Russia continue to have concerns about further 
enlargement of NATO and, if so, should NATO take steps to help mitigate 
Russian concerns?
    Answer. Russia has always been concerned about NATO enlargement, 
but the track history speaks for itself. The NATO-Russia relationship 
is non-adversarial and focused on practical interoperability. NATO has 
always been transparent about the enlargement process, and Russia has 
many opportunities to stay appraised on the enlargement status. The 
ongoing relationship with NATO facilitates this.
                          nato-european union
    Question. The NATO-European Union (EU) relationship is viewed by 
some as competitive and by others as complementary.
    How would you characterize the NATO-EU relationship today?
    Answer. When discussing the NATO-EU relationship it is important to 
understand that the United States considers NATO to be the premier 
security structure in Europe and this drives much of our policy 
decisionmaking. We believe the Alliance formalizes and deepens the 
security and political relationship between North America and European 
allies and partners. In this respect we believe that NATO is the 
natural venue for those nations to consult and act together on security 
matters--a principle that EU Heads of State also affirmed. The U.S. 
supports European Security and Defense Policy (ESDP) and a close, 
cooperative relationship between the EU and NATO.
    Question. How would you like to see this relationship evolve in the 
future?
    Answer. To achieve a close, cooperative relationship between NATO 
and the EU from a military point of view, I believe there are several 
areas that both organizations can work together to improve. Let me 
offer some examples:

        <bullet> Enhanced staff-to-staff dialogue between the EU 
        Military Staff and NATO's International Military Staff.
        <bullet> Full use of Berlin Plus arrangements.
        <bullet> Wider, more active liaison work, including more 
        frequent briefs to the NATO and EU military committees, by the 
        NATO Permanent Liaison Team to the EU and the EU Liaison Cell 
        to SHAPE.
        <bullet> More frequent meetings between the NATO Chairman of 
        the Military Committee and the EU Military Committee Chairman.
        <bullet> Additional informal NATO-EU MILREP off-sites.
        <bullet> Utilization of Crisis Management Exercise 2007 as the 
        primary mechanism for understanding, demonstrating, and 
        enhancing the necessity, possibility, and opportunity for 
        cooperation between NATO and the EU, taking full advantage of 
        the lessons learned.
        <bullet> Expediting establishment of robust ties between the EU 
        Defense Agency (EDA) and the range of comparable NATO 
        structures addressing capabilities development, fully using the 
        Berlin Plus mechanisms, as was agreed in the EDA's ministerial 
        charter.

    Question. What do you believe would be the optimal delineation of 
responsibilities between NATO and the EU?
    Answer. The U.S. has supported ESDP with the understanding that it 
will create real additional military capabilities and conduct missions 
where NATO is not engaged while working in a manner that is 
cooperative, and not competitive, with NATO. This is the purpose of the 
Berlin Plus arrangements for consultations and collaboration between 
the two organizations.
          afghanistan/international security assistance force
    Question. On July 31, 2006, the NATO-led ISAF assumed 
responsibility for security in the southern region of Afghanistan. 
Since that time, NATO forces have had several military engagements with 
the Taliban, and have sustained casualties.
    How confident are you that NATO will be able to sustain its 
commitment to ISAF given the challenging security situation in 
Afghanistan?
    Answer. The NATO Alliance took a significant step when it decided 
to conduct military operations in Afghanistan. That it did so 
reinforces its commitment to the global war on terrorism and the NATO's 
belief that this effort is central to continued peace and stability in 
Europe. It was a decision made with deliberation and a significant 
commitment of resources. Thus far, NATO forces have shown determination 
and resiliency. The alliance has given no indication at this point as 
having any doubt in their decision and I am confident that member 
nations will stay the course in providing Afghanistan the stability and 
security it needs to move forward.
    Question. When do you believe NATO will be ready to assume 
responsibility for security in the eastern region of Afghanistan?
    Answer. Generals Jones and Abzaid have been in close consultation 
with respect to the standards and conditions necessary on the ground to 
affect the transfer of authority (TOA) in the eastern region to ISAF. 
This transition effort has progressed as expected and the commanders 
are confident that the time is near to conduct this transition. Given 
the strength of ISAF and the strength of the U.S. forces currently 
serving in Region East and the performance of ISAF forces recently in 
the Region South, it appears to me that we are approaching the time to 
conduct TOA. Unity of command is an essential element in military 
success and fully vesting ISAF with the stability and security 
responsibilities for all of Afghanistan serves this purpose.
    Question. In your view, should EUCOM assume responsibility for all 
U.S. missions in Afghanistan once NATO has assumed responsibility for 
the ISAF mission?
    Answer. ISAF is organized and manned to accomplish the mission 
authorized by the Alliance. Within that mandate, the force is well 
prepared to meet the broad and varied challenges that it will face in 
Afghanistan. There are other operations that will continue to be 
conducted in the country that are outside those parameters established 
for ISAF. The current command relationships take into account these 
various activities and I believe that these can be conducted in a 
synchronized and coordinated manner. The various operations also take 
into account the unique capabilities of both NATO and the United States 
military forces. After the TOA for Stage 4, nearly 13,000 U.S. 
personnel will be under the direct command of the Commander, ISAF. The 
remaining U.S. forces will continue to conduct complementary and 
coordinated operations in support of the mission to maintain stability 
and security in Afghanistan.
    Question. What challenges do you foresee for NATO when it assumes 
responsibility for this fourth sector in Afghanistan?
    Answer. I think we will see a continuation of what ISAF has 
encountered in the region. The U.S. has been present in Region East for 
some time now. We can expect little change from what we are seeing 
today.
    Question. Are you concerned about U.S. troops participating in a 
NATO-led mission under the control of a non-U.S. general officer? What 
do you see as the benefits of such participation?
    Answer. No, I am not. My predecessors have all worked to make NATO 
the pre-eminent military alliance in the world, and I believe their 
past record stipulates to that great success. In doing so, great effort 
has been made in standardizing operations and procedures, to ensure all 
members of the military forces understand the capabilities and 
limitations of each nation's contributions. U.S. forces have served 
with great distinction under commanders of other nations--as have other 
NATO forces under the command of U.S. leaders. This has been a great 
strength within the Alliance and I see that this will continue in 
Afghanistan and in other areas of future NATO operations.
    Question. To what extent are national caveats a problem with 
respect to NATO forces participating in ISAF?
    Answer. Any time a unit, a component, or a single soldier is given 
the option to default to a national prerogative that may run counter to 
the assigned mission, that mission is put at risk. While I understand 
that there are issues that might rise above the military necessity on 
the ground, it must be understood that any such limitation placed upon 
an essential resource may well create an irrelevance in that resource's 
use to the command. Clearly, this situation has the effect of lessening 
overall military effectiveness and we in the alliance should strive to 
ensure no such limitations are saddled upon a commander. We continue to 
push for elimination of caveats within the alliance and we still have 
room for progress.
    Question. Officials are reportedly expecting opium cultivation in 
Afghanistan to reach record levels this year with a possible 40-percent 
increase in land under poppy cultivation. Are you satisfied with the 
current level of effort to counter the narcotics trade in Afghanistan?
    Answer. Obviously, the rising rate of poppy production in 
Afghanistan is a troubling issue. Drug trade generates enormous amounts 
of money that is being funneled back into Afghanistan, providing the 
resources to both criminal elements and the insurgents to fund their 
operations. This is a source of funding that only exacerbates the 
challenges that ISAF, the Afghan government, international aid efforts, 
and U.S. military forces face in helping to provide stability, 
security, and reconstruction in the Nation. Having faced a similar 
situation as the Commander of the Southern Command, I can assure you 
that there are no easy answers to this problem, but a comprehensive, 
coordinated effort that removes the incentives for poppy production, 
reduces the influence of the criminal element in those poppy production 
areas, creates alternative income sources for farmers, and ensures that 
corruption in local and regional governments is eliminated is critical 
to reversing this trend. I cannot be satisfied with efforts to date 
that have resulted in the current situation that has an immediate, 
negative impact on our military operations.
    Question. Please provide your assessment of the capabilities and 
effectiveness of NATO forces in Afghanistan.
    Answer. Not having been on the ground, I cannot give a personal 
observation or assessment as to either ISAF's current capabilities or 
its effectiveness. From what I have read and seen in news reports, this 
is a groundbreaking mission for NATO that has many implications for the 
Alliance and its future. Great effort and commitment has been 
demonstrated in approving the mission, allocating the required forces, 
moving them into Afghanistan, and conducting operations to date. During 
the recent increase in combat operations, ISAF forces have acquitted 
themselves well in the field as the Alliance moves towards Stage 4 TOA 
expansion to Region East. All this activity and effort demonstrates a 
true commitment to this mission.
                                lebanon
    Question. Recently the Department announced that EUCOM would assume 
responsibility from CENTCOM as the lead unified command for Joint Task 
Force-Lebanon. Is this a change to the Unified Command Plan (UCP) or a 
temporary tasking?
    Answer. U.S. EUCOM assuming the mission from U.S. CENTCOM in 
Lebanon does not change the UCP. The transition of JTF-Lebanon to U.S. 
EUCOM is a temporary requirement given a specific JOA and missions 
focused on supporting the U.S. Embassy in Beirut.
    Question. What was the rationale for this transfer of 
responsibility?
    Answer. The Joint Staff directed the change in operational control 
because the military role began to transition from the nonevacuation 
operations to U.S. Government support to American Embassy Beirut 
(AMEMB) for aviation and maritime lift support, as well as providing 
standby capability for short-notice evacuation of embassy personnel to 
include a security force to augment existing AMEMB security.
    Question. What specific missions have been assigned to EUCOM with 
respect to the current situation in Lebanon?
    Answer. To provide DOD support to SECDEF approved U.S. Government 
humanitarian assistance efforts as requested by Department of State 
(DOS) and U.S. Agency for International Development; continue 
sustainment and security support to AMEMB; and to be prepared to 
conduct short notice evacuation of embassy personnel.
    Question. Do you anticipate that NATO could assume any formal role 
relating to the situation in Lebanon?
    Answer. U.S. EUCOM does not anticipate NATO assuming a role in 
Lebanon. The U.N. has taken on the role and UNIFIL has the lead. 
Currently, the U.N. has begun deploying additional UNIFIL forces to 
Lebanon.
    Question. What role do you anticipate for EUCOM in the disbursement 
of military assistance, including section 1206 funding, to support the 
Lebanese armed forces?
    Answer. U.S. EUCOM does not anticipate a role in the disbursement 
of military assistance to Lebanon Armed Forces. This responsibility is 
retained by U.S. CENTCOM.
                               nato/iraq
    Question. NATO has committed to help train and equip the Iraqi 
security forces to enable Iraq to assume responsibility for its own 
security.
    What is the status of NATO contributions--both inside Iraq and 
outside of Iraq--to training and equipping the Iraqi security forces?
    Answer. Status of NATO contributions inside Iraq: through its NATO 
Training Mission to Iraq (NTM-I) NATO provided assistance to Iraqi 
security forces through the training and education of Iraqi security 
forces. NTM-I began operations on February 20, 2005, and have trained 
over 2,000 Iraqi security forces to date, including military officers 
and civilian leadership. This effort includes the establishment of an 
Iraqi War College, the Iraqi Command and Staff College, and the Iraqi 
Basic Officers Commissioning Course. The NATO Training Equipment 
Coordination Group (NTECG) has coordinated the delivery of more than 
$130 million of equipment for the Iraqi security forces including 
tanks, trucks, small arms, ammunition, and protective equipment. 
Through September 5, the NTECG had trained more than 308 Iraqis at NATO 
institutions and is currently coordinating an additional 225 quotas. 
Finally, with respect to out of country training offered through NATO, 
the Allies have provided 96 quotas in their national institutions and 
the NTECG currently has 69 additional quotas under coordination.
    Question. Do you expect NATO's level of effort in this area to 
expand, diminish, or stay about the same over the coming months?
    Answer. Contingent on sufficient trust funding to support 
operations, NATO's level of effort will expand to include academic 
noncommissioned officer (NCO) training this year. NATO has also 
received, for the first time, an Iraqi generated statement of 
requirements requesting NATO assistance for 2007. This proposal was 
prepared by the Iraqi Ministry of Defense and Ministry of Interior and 
requests assistance in both training and education and equipment.
    Question. Do you believe that there is more NATO could do to assist 
in the development of the Iraqi security forces?
    Answer. There is more that can be done. NATO is an Alliance of 26 
nations with a diversity of approaches and capabilities to offer. For 
instance, many European nations have very capable paramilitary police 
forces such as the gendarmerie or the Carabinieri in Italy. These 
forces are part of the military in many of these nations. NATO is 
currently exploring expansion of the mission to assist the Iraqi 
security forces in developing a Gendarmerie/Carabinieri capability in 
order to assist interior security troops.
                 defense cooperation in eastern europe
    Question. The United States is in the process of building new 
forward operating locations in Eastern Europe.
    Are you satisfied with the current plans, including the proposed 
locations and activities to be conducted at those locations?
    Answer. I am satisfied with current Joint Task Force-East planning 
efforts. The proposed locations and activities are satisfactory and in 
keeping with EUCOM's goal of establishing more strategically forward-
positioned expeditionary forces. The Forward Operating Sites in 
Bulgaria and Romania will increase Theater Security Cooperation and 
bilateral training exercise opportunities across the range of military 
operations with our global war on terrorism partner nations. These 
Theater Security Cooperation events will be synchronized to support our 
regional war on terrorism contingency plans.
    If confirmed, would you plan to review these current and proposed 
arrangements?
    Answer. Although the current and proposed Defense Cooperation and 
implementation agreements with Bulgaria and Romania enter into force 
for 10-year periods, it is my intent to conduct annual reviews to 
ensure the agreements continue to meet the needs of the United States 
and EUCOM.
                                 kosovo
    Question. It appears that agreement could be reached in the near 
future regarding the final status of Kosovo. Nearly 16,000 NATO troops 
currently participate in the Kosovo Force (KFOR) that provides security 
and stabilization assistance in Kosovo.
    What do you anticipate will be the role and requirements for KFOR 
after an agreement on final status for Kosovo has been reached?
    Answer. In the immediate aftermath of the final status talks 
settlement there is a high potential for disaffected parties to 
generate violence and unrest. In the short-term, NATO's role in the 
immediate aftermath will be to ensure that security and stability are 
maintained as the conditions of the talks are implemented. As a longer-
term measure, NATO will need to transition to other security factors to 
include the European Union to ensure that comprehensive approaches to 
Kosovo civil society are met. What cannot happen in the short- or the 
long-term is for the international community to disengage from Kosovo 
until the Kosavars are capable of ensuring their own security and 
stability. If there was a premature withdrawal it would be an open 
invitation for disaffected elements or organized criminal elements to 
move into the environment.
    Question. Is NATO prepared in the event that ethnic violence and 
tension increases in the coming days and months?
    Answer. NATO is very well positioned to respond to civil 
disturbances and unrest throughout Kosovo. KFOR has recently 
implemented a Multinational Task Force Concept that requires all 
maneuver companies in the operating area to be capable of responding to 
events throughout Kosovo. Additionally, KFOR conducts rehearsal 
deployments of its operational reserves that deploy during selectively 
targeted timeframes to ensure forces are positioned and ready to 
respond. It has also developed effective coordination measures with 
international community police forces. Finally, KFOR has procedures in 
place to enable quick reinforcement by other international forces in 
the Balkans.
    Question. If there is no agreement on final status this year, what 
role should NATO play in Kosovo?
    Answer. To begin with, let's keep in mind that agreement is not a 
precondition to final status talks. It is well within the authority of 
the United Nations to generate an imposed settlement. If there is no 
settlement this year, the logical outcome of such an event would be 
unrest and violence on the part of those Kosovars who are seeking the 
settlement. KFOR's role would be to ensure that a safe and secure 
environment is maintained so that efforts can move ahead towards that 
final settlement. NATO's role is to provide the time and the space for 
a comprehensive political solution to be reached.
                           republic of turkey
    Question. In June 2006, the Council on Foreign Relations (CFR) 
issued a report on Turkey that argued that the United States and Turkey 
should take steps to repair their strained relations and help ensure 
that Turkey remains firmly anchored in the west. The recommended steps 
included a trilateral dialogue on the future of Iraq; a proactive U.S. 
diplomatic approach to encourage Europe to agree to Turkish accession 
to the EU; and establishing a high-level U.S.-Turkish commission to 
provide a structured mechanism for regular interaction across agencies 
of government, NGOs, and the private sector.
    Do you believe that Turkey is of enormous strategic importance to 
the United States and Europe?
    Answer. Yes. Turkey remains an important strategic partner for the 
United States and Europe for reasons that made it a viable strategic 
NATO ally for the last 50 years. It is the crossroad of vital air and 
sea lanes of communication and directly supports the EUCOM mission of: 
(1) facilitating security cooperation between partner nations; and (2) 
providing consequence management and crisis response throughout the AOR 
as needed. They provide a stable, moderate, and secular Islamic society 
that is working for accession to the European Union. They are a 
traditional ally, friendly to the United States, and have been loyal 
throughout their history. Turkey's ability to recover economically 
following a crisis is documented by the World Bank and International 
Monetary Fund. This further indicates Turkey's ability to meet western 
economic standards. Another critical piece is the positive diplomacy we 
share and extensive military cooperation that has played a vital role 
in Operations Enduring Freedom and Iraqi Freedom, as well as JTF-
Lebanon. The United States and Turkey share a common strategic vision. 
Turkish security is as important to the U.S. as it is to Turkey itself.
    Question. Do you agree with the recommendations of the CFR report?
    Answer. Maintaining and bolstering relations with Turkey is 
paramount to successful influence in the region. Closely tied with 
energy partners and engaging in relations with nontraditional nation-
states, the importance of improving relations with Turkey is critical 
for U.S. regional success. The CFR stated the ideology and the 
generalized goals that would achieve these results. However, EUCOM with 
interagency assistance would consider putting more concrete tasks to 
match the goals and objectives outlined in the CFR.
    Question. Are there activities you would like to initiate at EUCOM 
and at NATO to promote stronger U.S.-Turkish and European-Turkish 
relations?
    Answer. We should continue to work with Turkey to improve the 
capability of the countries of the Caucasus region to secure their own 
borders while discouraging these countries from using military force to 
resolve ``frozen conflicts.'' Both Turkey and the U.S. have significant 
interests in this region and see the Caucasus countries impeding the 
cross-border movement of transnational threats while allowing free flow 
of valuable hydrocarbon assets out of the Caspian basin. Both Turkey 
and the U.S. have significant security cooperation programs to achieve 
these goals, and, with continued dialogue, these programs can 
complement one another. We've done this well in the past in Georgia, 
and have begun to look at ways to cooperate in Azerbaijan. We have to 
be careful not to provide capabilities that will upset the military 
balance or that hurt movement towards resolution of the frozen 
conflicts, but again that can be done through good dialogue.
                                 africa
    Question. A January 2006 CFR report argued that Africa is of 
increasing strategic importance to the United States and our allies, 
including Africa's role in energy security, combating the spread of 
terrorism, and halting the devastation of HIV/AIDS. EUCOM has been 
active in addressing security threats in Africa, through efforts such 
as the Trans-Sahel Counter-Terrorism Initiative (TS/CTI) to combat 
terrorist networks and deny safe havens throughout the Sahel region.
    In your view, what are the most significant security threats in 
Africa today? What do you foresee as EUCOM's role in addressing those 
threats?
    Answer. Foremost among African security threats to U.S. interests 
is the trans-Sahel's increasing attraction to terrorist groups; the 
undergoverned region provides a sanctuary for terrorist planning and 
training to a ready pool of extremists.
    Other notable threats to U.S. interests in Africa include the 
spread of HIV/AIDS, the spillover effects of insecurity in central and 
eastern Africa, the instability in West Africa that threatens to spread 
and disrupt hydrocarbon production, and the dramatic growth in the 
level and nature of Chinese activities throughout Africa.

        <bullet> HIV/AIDS continues to contribute to social and 
        economic instability. AIDS has surpassed malaria as the leading 
        cause of death in sub-Saharan Africa, and its impact is 
        worsened by the disproportionate toll it takes on their 
        populations. Forty percent of Africans are under the age of 15, 
        and their poverty and lack of economic prospects exacerbates 
        both a growing extremist sentiment and illegal emigration into 
        Europe.
        <bullet> Fighting and lawlessness in Sudan's Darfur region and 
        eastern Democratic Republic of the Congo has created the 
        largest humanitarian crisis in decades.
        <bullet> A rise in both criminal and militant activity in 
        Nigeria's oil-producing delta region this year has disrupted 
        the country's oil output by between 500,000 and 1 million 
        barrels per day. Foreign oil workers, especially Americans and 
        other westerners, are increasingly at risk of being kidnapped 
        for ransom.
        <bullet> While developed countries will continue to rely on 
        Africa to supply much needed raw materials, other major 
        developing economies of the world will compete with the west's 
        demand for these resources. For example, China is the world's 
        leading consumer of copper, steel, cobalt, and aluminum, is 
        second only to the U.S. as an importer of African oil, and is 
        investing heavily in these African resource sectors.

    Despite these challenges, today, Africa is on a course to slowly 
move away from its recent history of mass ethnic violence and 
dictatorial regimes. However, if gradual improvements to security and 
democracy are unable to keep pace with popular expectations for meeting 
basic needs, security will again deteriorate. These conditions could 
provide a fertile environment in which terrorist networks could 
encroach, emerge, and prosper in coming years.
    Question. What do you foresee EUCOM's role in addressing those 
threats?
    Answer. We see our role as conducting operations which contribute 
to an environment inhospitable to violent extremists and their 
ideology. EUCOM is executing Operation Enduring Freedom-Trans Sahara 
(OEF-TS). OEF-TS is the DOD operation supporting the DOS TS/CTI. It 
addresses the defeat of violent extremist networks in Trans-Saharan 
Africa largely through capacity building, information sharing, 
Strategic Communication/Information Operations, and Theater Security 
Cooperation (TSC). It provides a long-term solution, aimed at both 
defeating violent extremist networks, and reducing their underlying 
conditions.
    Question. Are there resource or other challenges that EUCOM is 
facing in effectively executing the TS/CTI or similar initiatives?
    Answer. DOD's top three global war on terrorism efforts (OIF, OEF-
A, OEF-TS) are all currently funded by supplementals. Unless OEF-TS 
becomes a Program of Record in fiscal years 2008-2013, OEF-TS will 
continue living through the supplemental venue. I am encouraged that 
OSD is seeking to find better ways to resource COCOM initiatives and is 
using OEF-TS as their business case for this endeavor.
    Other challenges for TS/CTI/OEF-TS primarily deal with access. 
Policy restrictions, legal roadblocks, lack of service men protections, 
and differing country team perspectives relating to counterterrorism 
create challenges that must be overcome.
                                 darfur
    Question. NATO is currently assisting the African Union (AU) in 
Ethiopia by helping to build the capacity of AU forces that will serve 
in Darfur, and by providing strategic lift in and out of Darfur for AU 
forces that are serving there.
    Do you anticipate that NATO could be asked to play an expanded role 
in providing security and stopping the genocide in Darfur?
    Answer. NATO could be asked to play an expanded role, but any such 
request will have to be carefully weighed against the realities of the 
current strategic situation. Many NATO Allies have commitments in the 
Balkans, Lebanon, Afghanistan as well as supporting our efforts in OIF 
and OEF.
    Question. Is NATO planning for the possibility of an expanded 
mission there?
    Answer. NATO is limited in its ability to plan by political 
decisions reached by the NAC. The NAC has authorized current levels of 
assistance in strategic movement support and capacity building in 
support of AMIS to be extended. NATO military authorities are prepared 
to do more in terms of providing training and support to AMIS and NATO 
is prepared and engaged with the United Nations (U.N.) to explore ways 
for NATO to support U.N. efforts as well. NATO is prepared and ready to 
do more than it has been asked to do by the AU. The key to any 
increased NATO assistance will lie with those who are requesting the 
assistance.
                       unified command plan (ucp)
    Question. In 2004, DOD conducted a review of the UCP. While the 
Department reviewed the command structure in Africa, it did not approve 
establishing a separate command or realigning the existing command 
structure. Under the existing command structure, EUCOM, U.S. Central 
Command (CENTCOM), and U.S. Pacific Command (PACOM) have 
responsibilities for Africa. Since the establishment of the current 
command structure, Africa has become more strategically important to 
the United States. Since 2001, the Department has increased its 
presence and activities in Africa. What is your view on the present 
command structure in Africa?
    Answer. As you've accurately stated, Africa is split between three 
geographic combatant commands under the current UCP. From a unity of 
command and unity of effort perspective, a change in U.S. command 
arrangements in Africa has merit and should be considered. A separate 
command for Africa would provide better focus and increased synergy in 
support of U.S. policy and engagement, but it would also require a 
significant commitment of resources. Establishment of Africa Command as 
a geographic combatant command is included as an initiative in the UCP 
2007 review.
    Question. In carrying out your duties, how will you ensure that no 
seams exist in the operations and activities being carried out in 
Africa between EUCOM, CENTCOM, and PACOM, as well as with other Federal 
agencies of the United States operating in the region?
    Answer. There will always be seams or boundaries; our challenge is 
to mitigate the seams through either UCP changes, where it makes sense, 
or through effective coordination with our respective counterparts both 
within DOD, the Interagency, and our allies and partners. To be 
effective in support of U.S. policy we all have to work as a team. That 
implies sharing information, participating in planning and coordination 
forums, establishing supported and supported relationships, and at 
times establishing a Joint Task Force to operate on the seam, to 
address a specific problem or task. The key to success in working with 
the interagency is not only effective communication and coordination 
within the beltway, but also integrating a full spectrum Joint 
Interagency Coordination Group within the Unified Commands as well.
             theater security cooperation operation reforms
    Question. Recent changes in the Security Cooperation Guidance 
require all DOD components to coordinate their Security Cooperation 
Guidance implementation strategies, plans, and activities with the 
relevant geographic combatant commanders.
    Based on your experience, what is your view of the extent to which 
these changes are being implemented? What impact are they having on the 
development of theater security cooperation programs?
    Answer. The welcomed changes to the Security Cooperation Guidance 
are being implemented in a slow but sure way. Since the release of the 
guidance, many agencies have had to make significant course corrections 
in how they do business, and EUCOM is no different. The process to 
improve interaction takes time and I expect our interagency cooperation 
will improve significantly as we enter the next planning cycle. We 
believe that the increased interagency cooperation will bring about 
better synergy and collaboration at many levels, improving the overall 
coherency of our security cooperation activities.
    Question. Do you anticipate that other changes may be necessary? If 
so, what areas do you believe may need to be addressed?
    Answer. While some security cooperation reform measures have been 
embraced, there still is some work to be done. Specifically, the focus 
of our efforts should be on three areas: DOD reform, interagency 
reform, and legislative action. Within the DOD, the GCC still does not 
have adequate visibility over activities within our AOR nor do we have 
sufficient influence over service Foreign Military Sales decisions 
affecting theater security cooperation programs. Within the interagency 
arena, steps should be taken that allow for true flexibility and 
interagency cooperation at the regional and GCC levels. The GCC should 
have greater input into the FMF/IMET process, integration into the 
budget development process, resource visibility, and an empowered Joint 
Interagency Coordination Group. Finally, legislative action that 
supports funding flexibility designed to allow greater logistics 
support and training for purposes of interoperability, coalition 
operations, and foreign forces fighting in lieu of U.S. forces must be 
pursued. The reform requested should enable proactive capacity 
building, true synchronization of title 10 and 22 funds, and a systemic 
multi-year approach to security cooperation budgeting processes.
    Question. What is your assessment of the effectiveness of the 
interagency process for developing our theater security cooperation 
strategy? What, if any, reforms might be necessary to develop a more 
effective, integrated approach toward our theater security cooperation 
programs?
    Answer. The interagency process has yielded some positive results, 
but the concept and execution still require significant work to achieve 
the integration necessary for security cooperation success on a 
regional and global scale. The EUCOM Joint Interagency Coordination 
Group has been in place for 4 years, and its efficacy has been limited 
due to a shortage of appropriate personnel and limited authorities. The 
representation provided by the interagency is insufficient, in both 
rank and numbers, to coordinate the myriad of activities conducted in 
the AOR. The Joint Interagency Coordination Group needs to be staffed 
and empowered to make decisions for their agencies in theater on 
strategy and objectives. The GCC should look into a reciprocal 
arrangement and provide liaison officers in key agencies that have a 
significant footprint within the AOR.
                   interagency support and processes
    Question. In his 2006 testimony, General Jones noted that due to 
the modern complexity of the EUCOM theater's security challenges, U.S. 
efforts require a broad interagency approach and that EUCOM works ``to 
improve interagency coordination across the spectrum of governmental 
and nongovernmental organizations in order to achieve optimal national 
results.'' It has been suggested that the methods in place for 
interagency cooperation between, for instance, the Defense and State 
Departments overseas, are less than optimal. Some have suggested that 
an overhaul on the pattern of the Goldwater-Nichols Act is needed. What 
is your opinion as to the existing interagency processes for 
coordination and support?
    Answer. Our processes are too cumbersome to deal with in our 
present day security environment and challenges presented in the 21st 
century. Our society allows our enemies to understand how we operate 
and they are exploiting certain limitations to their advantage. An 
overhaul within DOD's other agency partners, patterned after Goldwater-
Nichols, would be a welcome reform.
    Question. What improvements, if any, would you suggest?
    Answer. The improvements necessary for this type of reform point 
toward the concept of unity of command. While the United States 
Government has many tools capable of affecting the various regions, the 
current efforts are not directed by a single entity since there is no 
legally binding requirement for agencies to coordinate their activities 
to create efficiencies and synergy. Coordination towards a collective 
interagency effort in order to deconflict departmental or agency 
priorities should guide any effort to address this issue, one that I 
believe is overdue for detailed study.
                     eucom and nato missile defense
    Question. NATO territory is currently within range of a variety of 
short- and medium-range ballistic missiles from potentially hostile 
states. Some NATO nations (United States, Germany, and Italy) are 
partners in the Medium Extended Area Defense System (MEADS) that will 
use some components of the Patriot PAC-3 system.
    What is your view of the priority of ballistic missile defense in 
the overall NATO/EUCOM security situation? Where does it fit in 
relative to other priorities like combating terrorism, cruise missile 
defense, and providing peacekeeping forces?
    Answer. Rogue states in the Middle East and Southwest Asia possess 
a current ballistic missile capability that threatens a major portion 
of Europe. Iran is aggressively expanding the range and sophistication 
of its ballistic missiles and is pursuing nuclear capabilities that 
dramatically expand the threat to the entire European region. The 
deployment of ballistic missile defense assets in Europe would make a 
significant contribution to the protection of the United States and 
Europe from a Middle Eastern ballistic missile threat. Ballistic 
missile defense must remain a priority so that we are postured to 
counter threats to the United States, deployed forces, and allies. 
Ballistic missile defense is directly linked to the other theater 
priorities such as deterring/defeating the use of missiles and WMD as a 
means of terrorism, defending against cruise missiles, and protecting 
peacekeeping forces from these threats.
    Question. What role do you see for U.S. and NATO missile defenses 
in protecting Europe against existing and near-term missile threats? 
For example, what role do you envision for the Aegis BMD and THAAD 
systems?
    Answer. United States ballistic missile defense assets are 
dedicated not only to defense of the U.S. homeland, but also to the 
defense of deployed forces and allies from the growing ballistic threat 
from rogue states. Sea-based and mobile assets are integral components 
of a comprehensive ballistic missile defense system, but cannot defeat 
the entire range of threats by themselves. Sophisticated sensors are 
required for early acquisition and target discrimination and ground-
based interceptors are needed to defeat longer-range missiles. U.S. 
ballistic missile defenses can synergistically integrate with emerging 
NATO concepts for a missile defense system. The United States is fully 
committed to treaties and alliances and the collective defense of 
Europe.
    Question. Do you believe there are sufficient U.S. and allied 
Patriot/PAC-3 capabilities currently available in the EUCOM AOR, or are 
additional capabilities needed?
    Answer. Joint Staff tasked STRATCOM, in coordination with other 
combatant commanders and force providers, to develop a worldwide 
Patriot Theater Ballistic Missile Risk and Threat Assessment in order 
to recommend to SECDEF an allocation of ballistic missile defensive 
capabilities to cover global requirements. It would not be appropriate 
for EUCOM to preempt that ongoing process. However, we can say that 
EUCOM's current requirement for one Patriot Battalion has been given a 
relatively high priority thus far and does not appear to be at risk for 
deployment to another theater. The Patriot Battalion stationed in 
Germany is currently configured with PAC-2. It is scheduled for upgrade 
to PAC-3 by 2009. The Missile Defense Agency, Joint Staff, combatant 
commanders, and force providers are also engaged in a number of 
assessments intended to develop a comprehensive missile defense 
acquisition, development, and deployment plan. EUCOM is engaged in this 
process and is satisfied with its current progress.
          ground-based midcourse defense (gmd) site in europe
    Question. The Department is requesting funds in fiscal year 2007 to 
acquire and deploy 10 ground-based interceptor missiles at a site to be 
located in a European country by the end of the decade. This missile 
defense site is planned to provide protection for the United States and 
most of Europe against future long-range ballistic missile threats from 
Iran and other locations.
    What is your view on the requirement for such a capability deployed 
in the EUCOM AOR?
    Answer. Rogue states in the Middle East and Southwest Asia possess 
a current ballistic missile capability that threatens a major portion 
of Europe. Iran is aggressively expanding the range and sophistication 
of its ballistic missiles and is pursuing nuclear capabilities that 
dramatically expand the threat to the entire European region. The 
deployment of ballistic missile defense assets in Europe would make a 
significant contribution to the protection of the United States and 
Europe from a Middle Eastern ballistic missile threat. Sea-based and 
mobile assets are integral components of a comprehensive ballistic 
missile defense system, but cannot defeat the entire range of threats 
by themselves. Sophisticated sensors are required for early acquisition 
and target discrimination and ground-based interceptors are needed to 
defeat longer-range missiles. Ballistic missile defense must remain a 
priority so that we are postured to counter threats to the United 
States, deployed forces, and allies. It will also stand as a testament 
of our commitment to the region and attest to the strength of our 
partnership with our NATO allies.
    Question. What role, if any, should NATO play in the decision to 
build, operate, or pay for a European GMD site?
    Answer. Discussions with NATO allies, potential host nations, and 
others are being led by the OSD. Related questions can be answered best 
by OSD. It is our understanding that it is OSD's intent to keep NATO 
allies, potential host nations, and other significant international 
actors informed about its missile defense program and plans, but that 
the U.S. will not ask other countries to assist in building, operating, 
or paying for the system at this time. Potential host nation(s) may be 
asked to share in some costs such as related infrastructure 
requirements.
    Question. What role, if any, will NATO have in developing a concept 
of operations for the employment of a GMD system located in Europe, and 
what role would the Commander, EUCOM, play in executing the GMD mission 
either for the defense of the United States or Europe?
    Answer. These issues are being studied by the Joint Staff, 
STRATCOM, NORTHCOM, Missile Defense Agency, and others. Answers to 
questions regarding command and control of U.S. ballistic missile 
defense forces in Europe have not yet been developed, coordinated, or 
approved. We anticipate that command and control the forces under the 
operational control of EUCOM will be compatible and similar to the 
doctrinal models in use in other AORs. We anticipate that the U.S. will 
exercise sole command and control of the system for the foreseeable 
future.
                        combat training centers
    Question. The Army's combat training centers (CTCs) in the United 
States are heavily utilized in preparing units for rotations to Iraq 
and Afghanistan. Once the proposed drawdown of U.S. forces from 
Germany, is completed, there is a potential that the Combat Maneuver 
Training Center in Hohenfels will be underutilized even as the CTCs in 
the United States are fully subscribed. The addition of new modular 
brigades to the Army over the next few years will increase the demand 
for training rotations at the CTCs. Do you believe there are ways the 
training center at Hohenfels can help absorb this increased demand 
without having to deploy troops from the United States to Germany 
solely to conduct a training rotation?
    Answer. The Joint Multinational Training Center at Hohenfels, 
Germany, is a dual-mission maneuver CTC that is capable of training the 
modular brigades in USAREUR and to export this training capable to 
support units based in. The JMRC can conduct four brigade level 
training rotations at Hohenfels and support four rotations external to 
Hohenfels, including continental United States (CONUS), as part of its 
exportable training capability, thereby providing additional raining 
support to CONUS-based units.
                           acquisition reform
    Question. Within the past year, several major studies (e.g., the 
Quadrennial Defense Review 2006; Beyond Goldwater Nichols by the Center 
for Strategic and International Studies; the Defense Acquisition 
Performance Assessment (DAPA); and Transformation, a Progress 
Assessment by the Defense Science Board) have been completed that 
address the issue of defense acquisition reform. Each of these reports 
emphasized the need for reduced program risk and greater stability with 
respect to acquisition procedures.
    What concerns, if any, do you have regarding the process the 
Services use to acquire capabilities to support the needs of the 
combatant commanders?
    Answer. While improvements in DOD acquisition processes are 
continually being made, I believe it is important that the combatant 
commanders have a larger voice in Defense-wide and Service-specific 
programs early in the acquisition cycle to ensure the COCOM views/
capability requirements are met in a timely manner. The existing 
defense acquisition process is challenged to rapidly fill hardware and 
personnel requirements as changes are identified by COCOMs.
    Question. The studies mentioned above make numerous recommendations 
regarding the role of the service acquisition executives and the 
combatant commanders in improving military acquisition processes and 
outcomes.
    What are your views regarding proposals for the establishment of 
service acquisition commands that would report to the services' chiefs 
of staff and acquisition executives?
    Answer. Existing service acquisition commands generally 
accomplished their missions in generating material solutions to meet 
existing emerging operational needs. However, defense acquisition 
processes writ large, still struggle to rapidly produce large capital 
investments in a timely fashion. In addition, the recent efforts to 
ensure that joint capabilities are considered over larger acquisition 
programs need to continue. I am encouraged by the direction the 
department has taken thus far and the emphasis both from DOD and 
Congress continue to focus on the issue. In your judgment, would such 
proposals improve the acquisition process?
    Answer. I don't believe establishing more service acquisition 
commands, without significantly altering the requirements generation 
process and existing acquisition rules, will improve the current 
acquisition process. As stated above, the laws regulating acquisition 
processes need to be streamlined while maintaining effective oversight.
    Question. In your view, what improvements should be made to enhance 
the combatant commanders' role in the acquisition process?
    Answer. Geographic combatant commanders, as the supported 
commander, should have a larger role in Defense-wide and Service-
specific programs early in the acquisition cycle. This is particularly 
important as it pertains to resourcing capabilities required to 
prosecute the global war on terrorism and theater security cooperation 
initiatives.
             quality of life programs for military families
    Question. The top three quality of life issues in the EUCOM AOR 
include obtaining quality living accommodations; gaining predictable 
access to health care to include family member dental support; and 
ensuring dependent education programs provided by the DOD Dependent 
Schools. In this regard, General Jones has noted that 44 percent of 
EUCOM personnel have children and that commanders in the EUCOM region 
have emphasized their support for and reliance on EUCOM resources to 
provide crucial morale programs, enhance retention, and foster esprit 
de corps.
    What do you see as the most significant longer-term challenges for 
EUCOM in preserving and enhancing the quality of life for assigned 
personnel while force redeployments to the United States proceed?
    Answer. As we transform, it is essential that we stabilize our base 
operational support funding to maintain quality of life programs and 
services comparable to those available stateside. As resources are 
shifted to support expansion of stateside mission locations, we are 
challenged in maintaining EUCOM theater programs and services. While 
expanding our host nation partnerships and creating joint service 
solutions will help minimize the erosion of services and military 
family benefits, maintaining stable base operational support funding in 
the coming years will ensure a mission-focused, fully supported 
military family.
    Question. If confirmed, what steps would you take to ensure the 
adequacy of support services for military families during the 
transition to ensure that vital support mechanisms, such as DOD 
schools; morale, welfare, and recreation services; housing; and 
commissary and exchange continue to serve military personnel?
    Answer. Providing an optimal quality of life remains essential to 
maintaining readiness. Listening to the needs of our warfighters and 
military families is job one in meeting their needs. Each year we ask 
grassroots representatives to meet with senior leaders and subject 
matter experts to identify and tackle theater quality of life 
challenges. Issues that cannot be fixed or supported in theater are 
forwarded to OSD and armed services leaders for the identification of 
joint strategic pathways leading to improvements. The EUCOM quality of 
life office, the link between senior leaders, our joint service 
infrastructure, and theater personnel will remain the critical pulse 
point for identifying and resolving quality of life challenges. I will 
directly champion for support with senior leaders and congressional 
representatives those issues that cannot be fixed in theater. Listening 
and responding to the needs of our military family will continue to be 
one of my top priorities.
                      reserve duty status in eucom
    Question. There are currently 32 different duty status categories 
affecting operational access and benefits for reservists who drill and 
otherwise perform duties in the EUCOM AOR.
    What is your understanding of the nature of the problems caused by 
variations in Reserve duty status? What progress, if any, has been made 
in addressing and resolving this issue?
    Answer. The complexity of Reserve duty status categories makes it 
difficult to access and efficiently utilize reservists. The labyrinth 
of processes, policies, and funding streams results in servicemembers 
working side-by-side, doing the same work, but getting entirely 
different pay and benefits. As you can imagine, these inequities in pay 
and benefits cause morale issues within a command. The section in title 
10 regarding Reserve duty status categories is a cold war relic. I 
advocate for OSD and Congress to work together to completely review and 
rewrite the sections in title 10 regarding Reserve duty status 
categories. The objective of this review should be to simplify access.
                american servicemembers' protection act
    Question. The American Servicemembers' Protection Act (ASPA) 
precludes foreign military financing and international military 
exchange training with countries which have not executed an article 98 
bilateral agreement in which they pledge not to extradite serving or 
former U.S. personnel, officials, or citizens to the International 
Criminal Court. You previously have testified that this law affects 11 
countries in Latin America and has resulted in lost opportunities in 
engaging with generations of military officers and noncommissioned 
officers in nations in the U.S. Southern Command AOR.
    What is your understanding of the impact of this law on military-
to-military relations in the EUCOM AOR?
    Answer. My understanding, based on discussions with General James 
Jones, is the same affect is occurring in the EUCOM AOR.
    Question. If confirmed, would you support modifying ASPA so that 
military assistance programs would not be prohibited for countries that 
have not signed article 98 agreements?
    Answer. I have and continue to support ASPA as protection for our 
servicemembers worldwide. Having said that--I believe there are 
negative unintended consequences that impact one half of the 92 
countries in Europe and Africa through lost opportunities to provide 
professional military training with military officers and 
noncommissioned officers. I have and will continue to advocate for a 
``delinking'' of International Military Education and Training (IMET) 
funding from the ASPA sanction.
                        burdensharing in europe
    Question. The United States is in the process of reducing the 
number of military personnel stationed in Germany and closing 
installations, while at the same time increasing troop levels in Italy 
and Eastern Europe. Both changes have resulted in substantial 
investments to be made in military construction over the next few 
years. This committee has historically advocated for prudent management 
of facility and infrastructure requirements within EUCOM in the 
theater. This includes a constant assessment of opportunities to share 
the financial burden for constructing and maintaining facilities that 
will support NATO or allied operations, and the receipt of residual 
value amounts for improvements funded by the U.S. on installations to 
be returned to the host nation. What is your assessment of the current 
effectiveness of burden-sharing arrangements in Europe?
    Answer. EUCOM actively seeks NATO Security Investment Program 
(NSIP) funding to share the burden of constructing facilities used by 
the U.S. to support NATO operations. The U.S. contributes approximately 
23 percent annually to the NSIP, a 4-percent decrease in our annual 
contribution amount from 10 years ago. In fiscal year 2006, EUCOM 
benefited from over $130 million in NATO construction investment at 
Ramstein, RAF Lakenheath, Rota, Incirlik, and Souda Bay. The U.S. share 
for this investment was $30 million. Through existing and emerging NATO 
Capability Packages, the U.S. has the potential of realizing over $350 
million in planned NATO construction at Aviano, Ramstein, Rota, Souda 
Bay, Moron, and Sigonella over the next 5 years. Additionally, through 
the use of NATO pre-financing statements, we are also ensuring that 
U.S.-funded projects have the future potential to be accepted by NATO 
under emerging capability packages. These statements, although not 
binding in nature, establish the foundation for future acceptance of 
U.S.-funded projects by NATO and the mechanisms by which we may recoup 
our investment.
    Question. If confirmed, how will you ensure that the burdensharing 
and residual value programs are carried out in a manner that ensures 
maximum benefit?
    Answer. We understand congressional concerns over burdensharing, 
and we will continue to aggressively leverage NSIP investment in 
facilities and infrastructure the U.S. requires to maintain its 
commitment to the common defense of our NATO allies. Our ability to 
gain residual value from returned facilities is tied to the re-use of 
those facilities. During closure negotiations, EUCOM coordinated 
closely with the respective host nation in identifying potential re-use 
of returned facilities. After concluding negotiations, we will continue 
to protect U.S. interests by monitoring host nation utilization of 
returned facilities while remaining vigilant to other potential re-use 
opportunities.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes. I fully recognize and understand the importance of 
congressional oversight as it is clearly outlined in the Constitution 
of the United States.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes. Although the President is my Commander in Chief, and 
he and the SECDEF constitute my chain of command, I recognize that my 
oath is to the Constitution. That document clearly divides 
responsibilities with regard to defense between the executive and 
legislative branches. For both the administration and Congress to 
execute their respective responsibilities appropriately, it is 
incumbent upon me to be honest and forthright with both while offering 
my best military advice.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander, U.S. EUCOM and 
SACEUR?
    Answer. Yes. That is an inherent part of my responsibilities as 
outlined above, and I will be happy to appear when called.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                         nato interoperability
    1. Senator Levin. General Craddock, what will you do, if confirmed, 
to ensure that the United States works more closely with its allies on 
technology-sharing, especially in areas such as counter-improvised 
explosive device research, and generally on improving interoperability?
    General Craddock. Operations in Iraq and Afghanistan highlight the 
need for interoperability as we increasingly rely on coalition partners 
and allies to support the global war on terror. Technology cooperation 
provides us not only interoperability, but an increase in coalition 
partner capacity, political cohesion, and common operational systems. 
Technology cooperation is a key piece of Theater Security Cooperation 
planning and I intend to integrate technology cooperation into all such 
plans. Another key piece to this equation is the Office of Defense 
Cooperation personnel at United States embassies. They are the front 
line of communication with the armaments development communities of 
foreign nations, and I would support resourcing this valuable asset.
    European Command (EUCOM) is continually looking for new and more 
effective ways to both share technology amongst our partner nations as 
well as to increase the interoperability of our systems. I will build 
on that trend by continuing to focus our technology efforts and 
programs in ways that broaden and mature the participation of our 
traditional partners, while developing new avenues of participation by 
our emerging partners.

              provincial reconstruction teams--afghanistan
    2. Senator Levin. General Craddock, some Provincial Reconstruction 
Teams (PRTs) are being turned over to the North Atlantic Treaty 
Organization (NATO) to lead, but we are told that U.S. personnel will 
still participate in the teams. Do you support continuing to provide 
Commanders Emergency Response Funds for the PRTs under NATO leadership, 
and if so, what mechanism should be used to provided funding for those 
non-U.S.-led PRTs?
    General Craddock. Nations volunteering to lead PRTs employ a 
structure appropriate for their area and task based upon their 
assessment of both. The NATO provided a set of minimum standards 
required to ensure a consistency of approach in NATO's PRTs in its 
recent operations plan revision. Based on this information, nations are 
able to build on that guidance to standardize the organizational 
structure and methods of operation of PRTs. Many of the ideas on best 
practices come from the PRT's deployed in the northern region of 
Afghanistan and in particular the German model. These PRTs are 
civilian-led (unlike U.S. PRTs) but include military personnel. 
Together they deliver a coherent multi-agency approach to long-term 
reconstruction and development in Afghanistan. How these NATO PRTs are 
funded is a national decision.
    U.S. PRTs reflagged to International Stabilization and Assistance 
Force (ISAF) will continue to be led by U.S. personnel and, as such, 
should continue to receive Commander's Emergency Response Program 
(CERP) funding. Other PRTs operating under ISAF are led by allied or 
partner nations; those lead nations should be encouraged to establish 
(or maintain, where they already exist) funding arrangements similar to 
CERP for their respective PRTs.

                        force posture in europe
    3. Senator Levin. General Craddock, the United States is in the 
process of building new forward operating locations in Eastern Europe. 
Are you satisfied with the current plans, including the proposed 
locations and activities to be conducted at those locations, or do you 
plan to review these current and proposed arrangements, if confirmed?
    General Craddock. We have just completed Defense Cooperation 
Agreements with the countries of Romania and Bulgaria to station U.S. 
forces for training and Theater Security Cooperation. The plan is to 
only add U.S. specific or modernize existing facilities to provide 
adequate work spaces for a small permanent Joint Task Force-East (JTF-
E) headquarters force of approximately 120 personnel at Mihail 
Kogalniceanu (MK) Airbase in Romania, and life support and maintenance 
facilities to support rotational forces during their training cycles.
    JTF-E headquarters will have operational control of rotational and 
assigned forces working out MK Airbase, and rotational ground forces 
split-based between Forward Operating Sites at the 34th Mechanized 
Brigade Base, Romania, and Novo Selo, Bulgaria. Commanded by a general 
officer, this joint headquarters will orchestrate security cooperation 
activities with the newest members of NATO and partners in Eastern 
Europe, including the Black Sea and Caucasus regions.
    Our current plans for this important transformational effort are 
tracking very well and I will continue to support this EUCOM effort to 
improve the military capability of new NATO allies and Eastern European 
partners. While I am satisfied with these current efforts, I intend to 
routinely assess actual activities against the planned efforts to 
ensure we are achieving expected objectives.

    4. Senator Levin. General Craddock, do you believe the EUCOM should 
have Special Operations Forces (SOF) assigned to/stationed in your area 
of responsibility (AOR)?
    General Craddock. Having SOF in the EUCOM's AOR provides the 
operational flexibility required to respond to emerging crises and 
contingencies. SOF remain a key asset in building and developing 
Irregular Warfare and Partner Nation capacity in the regional war on 
terror campaign, as directed in the Quadrennial Defense Review.
    Additionally, SOF demonstrates U.S. regional commitment, and allows 
a rapid response to opportunities, as they arise, in the EUCOM theater. 
SOF are a force multiplier that produce additional value through the 
``partner engagement'' realized in local training and exercises with 
our partner nations.
                                 ______
                                 
            Questions Submitted by Senator Edward M. Kennedy
                     guantanamo detainee oversight
    5. Senator Kennedy. General Craddock, the riots of this past May 
and the coordinated suicides of this past June have raised concerns 
about the treatment of detainees in Guantanamo. To what extent did you 
exercise oversight as to the management of conditions in the camp 
during the period leading up to these unfortunate events, and would you 
please enumerate the responsive measures you took in their aftermath?
    General Craddock. As the Commander of U.S. Southern Command, I am 
responsible for all U.S. military operations in the Caribbean, Central 
America, and South America, including the operation of Joint Task 
Force-Guantanamo (JTF-GTMO), a strategic level detention and 
interrogation facility in support of the global war on terrorism. In 
that regard, I am responsible for ensuring that all detainees at such a 
facility are treated humanely and in accordance with U.S. law, the law 
of war, and U.S. policy. JTF-GTMO is under the command and control of a 
General/Flag Officer (previously Major Genera] Jay Hood and currently 
Rear Admiral Harry Harris, Jr.), who oversees the day-to-day operations 
of the detention facility.
    While exercising oversight of camp conditions, I have ensured JTF-
GTMO complies with new congressional and Department of Defense 
directives and policy. Specifically, I directed compliance with the 
Detainee Treatment Act of 2005. Upon receiving the 30 December 2005 
memorandum from Deputy Secretary England, I forwarded it on 1 January 
2006 to Major General Jay Hood, who, on 2 January 2006. confirmed that 
JTF-GTMO was in compliance with the Detainee Treatment Act. On 3 
January 2006, I endorsed a memorandum from Major General Hood to Deputy 
Secretary England that informed Deputy Secretary England of JTF-GTMO's 
compliance.
    Likewise, on my receipt of the 7 July 2006 memorandum from Deputy 
Secretary England on the application of Common Article 3 to the Geneva 
Conventions of 1949, I forwarded it to Rear Admiral Harris, who on 14 
July 2006 confirmed that JTF-GTMO's directives, policies, practices, 
and procedures comply with Common Article 3 standards. On 24 July 2006, 
I informed the Deputy Assistant Secretary of Defense for Detainee 
Affairs of JTF-GTMO's compliance.
    More recently, following the issuance of Department of Defense 
Directive (DODD) 2310.01E. The Department of Defense Detainee Program, 
on 15 September 2006. I submitted implementing guidance concerning DODD 
2310.01E to the Under Secretary of Defense for Policy for his review 
and approval. On 3 October 2006, Under Secretary Edelman approved my 
proposed guidance to JTF-GTMO concerning DODD 2310.01E, which I will be 
issuing to JTF-GTMO shortly.
    Additionally, in exercising oversight of camp operations, I have, 
since assuming command in November 2004, visited Guantanamo 12 times, 
including visits on 11 and 19 June 2006 immediately following the 
detainee suicides. During those visits, I was briefed by JTF-GTMO 
personnel as well as Naval Criminal Investigative Service (NCIS) 
agents. I was also provided an interim brief on 2 August 2006 by NCIS 
as to the progress of their ongoing investigation of the suicides.
    Finally, I exercise oversight and maintain awareness of camp 
operations through the receipt of daily reports from JTF-GTMO and 
through a multi-disciplined U.S. Southern Command Detainee Coordination 
Team, which I established in November 2005.

                                 darfur
    6. Senator Kennedy. General Craddock, in your written testimony, 
you stated: ``The increasing strategic significance of Africa will 
continue to pose the greatest security stability challenge in the EUCOM 
AOR.'' You also stated that planning for contingencies in the Darfur 
region of Sudan would be dependent upon the scope of authorization 
granted by the North Atlantic Council (NAC) and by the ``realities of 
the current strategic situation'' at the time NAC authorization is 
granted. However, due to the African Union Mission in Sudan's (AMIS) 
inability to provide effective security or to stop genocide in Darfur, 
there is an increasing demand within the international community for 
NATO to enforce the no-fly zone set forth in prior United Nations 
Security Council Resolutions, to increase AMIS's current capabilities, 
and to help AMIS prepare for a transition to a United Nations 
peacekeeping force. Assuming the NAC grants you broad authority, what 
measures are you prepared to take as Supreme Allied Commander, Europe 
(SACEUR), beyond supporting AMIS with strategic movements and capacity 
building efforts, to end the military and humanitarian crises and 
establish strategic stability in the region?
    General Craddock. NATO decisions are taken on the basis of 
consensus after discussion and deliberation among member countries. 
Prior to a decision being reached by the Alliance to undertake a 
mission or operation, the NATO Military Authorities provide their 
advice regarding the military requirements necessary to achieve the 
desired outcome as stated by the NAC. Once the council reaches a 
decision to embark on a mission or operation, the role of the SACEUR is 
to execute all the agreed military measures within the authorities and 
capabilities afforded by the alliance. The SACEUR is generally not 
afforded ``broad authority'' to undertake additional measures without 
the specific authorization of the NAC.
    The NAC has recently endorsed the African Union's formal request 
for additional Staff Capacity Building Seminars. This training should 
impart the principle of how a civilian-controlled military operates in 
a democracy and ensure respect for human rights and lay the foundation 
for the development of competent forces. As long as the Alliance 
remains in a supporting role to the African Union, it must remain 
sensitive to the desires of that organization.

                           force limitations
    7. Senator Kennedy. General Craddock, the war in Iraq has placed a 
strain on our ground and amphibious capabilities, and it may be 
compromising our preparedness to address other contingencies. For 
instance, the United States was unable to respond in a timely manner to 
the onset of crisis in Lebanon. As it happened, the seagoing assets of 
the Iwo Jima Expeditionary Strike Group, including the 24th Marine 
Expeditionary Unit, had to be moved to the eastern Mediterranean from 
exercises in the Red Sea to conduct evacuations. What will you do to 
prevent force limitations from compromising the mission of EUCOM in its 
AOR?
    General Craddock. The U.S. military is one of many instruments of 
political power and does not act unilaterally with regard to U.S. 
policy. The decision to begin evacuations of noncombatants belongs to 
the U.S. ambassador of the affected country and involves far more 
subtle considerations than the proximity of an individual naval vessel. 
I think a more accurate accounting of the EUCOM response to the onset 
of crisis in Lebanon is that the U.S. Embassy in Lebanon received 
exactly the measure and pace of response it requested, with remarkably 
effective results from the perspective of American citizens concerned.
    It would be disingenuous for a combatant commander to tell Congress 
that force limitations don't matter in any AOR. The fact is that 
whether at war or during peacetime, there would never be enough troops 
or equipment to have a robust force omnipresent in an area spanning 92 
countries on 2 continents to mitigate resource constraints across this 
vast area. I plan to continue the EUCOM best practices: proactive 
``phase zero'' operations that reinforce democratic government's 
ability to participate in the regional war on terror; robust security 
cooperation with partner nations around the theater; and effective use 
of the Global Force Management system to provide or request capability 
wherever needed.

                            israel/palestine
    8. Senator Kennedy. General Craddock, your written testimony 
describes the current role of EUCOM in Lebanon, but it does not mention 
EUCOM's role with respect to instability in Israel and the Palestinian 
territories. What specific missions are currently assigned to EUCOM 
with respect to the current state of affairs in Israel and the 
Palestinian territories?
    General Craddock. EUCOM's primary mission with respect to Israel is 
in the area of Theater Security Cooperation, and is primarily focused 
on military-to-mHilary engagement. The Palestinian Authority program is 
managed by Department of State and handled by General Dayton's team 
which is not associated with EUCOM. EUCOM does not conduct any programs 
within the Palestinian Territories.

    9. Senator Kennedy. General Craddock, what specific contingencies 
concerning the safety and security of Israelis and Palestinians can you 
foresee EUCOM taking an active role in situating?
    General Craddock. Israel's security is a U.S. national priority and 
as such it continues to be a significant part of EUCOM planning 
efforts. I will continue to work to improve and expand the ongoing 
military dialogue with the Israeli Defense Forces, as well as ensure 
our military-to-military activities remain relevant to Israel's 
security and EUCOM's regional engagement activities. Transformation 
initiatives and information exchanges will continue to encourage our 
mutual interests and further broaden what has been a positive and 
productive relationship.
    EUCOM is not currently authorized to interact or participate in 
activities in the Palestinian territories or with the authorities 
therein.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka
                          strategy for command
    10. Senator Akaka. General Craddock, EUCOM has recently added 
Israel and Lebanon to its AOR in addition to all of Europe. To what 
extent do you believe that it is possible to have one overarching and 
comprehensive strategy for EUCOM given the extraordinary geographic and 
cultural diversity of this region?
    General Craddock. Lebanon was temporarily added to the EUCOM AOR in 
effort to consolidate efforts between two combatant commands (Central 
Command (CENTCOM) and EUCOM) when dealing with one common problem. 
However, as of 30 September 2006, responsibility for Lebanon was 
returned to CENTCOM. This places Lebanon back in alignment with the 
current Unified Command Plan.
    The strategy that EUCOM pursues is in compliance with the National 
Security Strategy and serves to support allies and partners in the 
region. EUCOM strategy leverages military cooperation in a balanced 
approach with Department of State diplomatic efforts to achieve U.S. 
Government strategic objectives.
    EUCOM strategy is designed to be flexible in order to respond to 
the cultural and geographic diversity of U.S. partners and allies. This 
allows a consistent approach to country and regional issues. 
Consistency is the key to successful policy and a flexible approach 
allows EUCOM to adjust to the individual needs of the partners, create 
a level of understanding between EUCOM and U.S. allies, and to promote 
positive presence in the EUCOM AOR.

                            african command
    11. Senator Akaka. General Craddock, there has been some discussion 
by the DOD of establishing a new African command. Do you believe that a 
separate command for Africa is necessary or does EUCOM have the 
resources it needs to devote to the African continent given its 
potentially important role in the global war on terror?
    General Craddock. I think that our growing focus on the African 
continent is appropriate and critical to U.S. national interests. The 
reasons include: denying terrorists an opportunity to find fertile 
ground, helping to eradicate disease, reducing bloodshed in places such 
as Darfur, and countering China's growing economic activities in 
Africa. EUCOM has committed increasing resources toward Africa and the 
time has come to take steps to formalize these actions. I believe there 
is a place for a unified command focused on this continent, but I also 
believe it must be a deliberate step and that the resources necessary 
for success be provided. This command should ultimately be in Africa, 
it should likely include all of Africa, and it should be established 
over a period of time that permits the United States to take executable 
and effective steps to realize the potential of this important 
initiative.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson
                         u.s. southern command
    12. Senator Bill Nelson. General Craddock, Southern Command's 
(SOUTHCOM) Miami headquarters are at the crossroads of Latin America, 
facilitating contact with regional political and military leadership. 
Why is Miami the best location for this headquarters (HQ)?
    General Craddock. Miami is without a doubt the best strategic 
location for U.S. SOUTHCOM to accomplish its assigned missions.

         LATAM Expatriates--Miami is home to expatriate communities 
        from every country in the hemisphere.
         Transportation and Logistical Hub for the Americas--Miami 
        International Airport is the third largest international 
        passenger hub in the U.S. Latin American destinations account 
        for 70 percent of the outgoing and 81 percent of the incoming 
        cargo traffic.
         Proximity to Educational Institutions--Nearby multi-cultural 
        universities (FIU, UM, and FAU) partner with SOUTHCOM for 
        collaboration on Latin American studies.
         Abundant Interagency Partners--U.S. Government agency 
        satellite offices in Miami (DHS-USCG, DOJ-DEAICE, DOS, FAA, 
        Treasury) enhance interagency collaboration.

    13. Senator Bill Nelson. General Craddock, what is the status of 
the Department's efforts to conclude an arrangement to modernize the 
HQ?
    General Craddock. The U.S. Senate Environment and Public Works 
Committee and U.S. House Transportation and Infrastructure Committee 
each passed a resolution approving the new SOUTHCOM HQs Facility (IAW 
40 U.S.C. 3307). Title 10 notification to Senate and House Armed 
Services Committees is complete (IAW 10 U.S.C. 2662). To gain full 
congressional authority, the Department of the Army is seeking written 
permission to proceed from the Readiness Subcommittee of the House 
Armed Services Committee. The State of Florida, in collaboration with 
the General Services Administration (GSA) and DOD, is leading the 
procurement which is scheduled to conclude in a lease agreement between 
the State and GSA by 22 December 2006. The new facility is scheduled to 
achieve full operating capability by 30 March 2010.

                                  nato
    14. Senator Bill Nelson. General Craddock, are more NATO troops 
needed in Afghanistan?
    General Craddock. The NATO objective in Afghanistan is to enable a 
self-sustaining, moderate, and democratic Afghan government able to 
exercise its sovereign authority, independently, throughout 
Afghanistan.
    The NATO military authorities have created, and the NAC has 
approved, a Combined Joint Statement of Requirements (CJSOR) outlining 
the minimum military requirements for the ISAF mission. Presently, that 
CJSOR is not fully resourced by the alliance. However, the forces 
currently operating as part of the ISAF are meeting current mission 
needs and recent pledges of additional forces have reduced the existing 
shortfall. I intend to go to Afghanistan and after making a personal 
evaluation of force levels and conferring with operational commanders, 
I will present my findings to the Secretary General.
    Perhaps more importantly, however, is the need for greater 
resources to be applied by the entire international community in the 
areas of reconstruction and development. We should all understand that 
the conflict in Afghanistan will not be resolved militarily. It will be 
resolved when the people of that country see improvements in their 
lives as a result of the growing positive influence and capacity of the 
Government of Afghanistan. Progress on that front is beyond the ability 
of NATO to effect alone.

    15. Senator Bill Nelson. General Craddock, what is NATO's will and 
capacity to support expanding the mission?
    General Craddock. Currently 37 nations provide forces for the ISAF 
and by the end of this year, we anticipate that this number may 
increase. Alliance nations understand that the mission in Afghanistan 
is a long-term commitment. As ISAF's roles and responsibilities 
increase, member nations' willingness to provide the capabilities 
required have correspondingly increased. The alliance recently 
completed a Joint Declaration with the Government of Afghanistan titled 
``Framework for Enduring Cooperation and Partnership.'' This 
declaration reflects the alliance's recognition of the long-term nature 
of its relationship with Afghanistan.

    16. Senator Bill Nelson. General Craddock, NATO commanders' hands 
are tied by many countries putting specific limitations on what their 
troops can or cannot do on NATO missions. How damaging are these so-
called ``national caveats'' and what will do you do as SACEUR to limit 
them?
    General Craddock. A national caveat is a limitation, restriction, 
or constraint on any national military forces or civilian elements 
under NATO command and control that preclude NATO commanders from 
deploying and employing these assets according to the approved 
operational plan. Restrictions may limit freedom of movement within the 
designated joint operations area and/or constraints upon the approved 
rules of engagement. Allied Command Operations continually review 
national caveats and provide periodic operational evaluations of the 
individual and collective effects of these caveats to the NAC for their 
information and action by national authorities.
    General Jones has expressed concern regarding the effects of 
national caveats on NATO's ability to carry out various missions. 
Certain NATO units' inability to operate due to national caveats is an 
issue I am prepared to address early in my tenure as SACEUR. I believe 
it is very important to work with the various Chiefs of Defense to 
overcome reticence to lift these restrictions to provide operational 
and tactical commanders the greatest flexibility possible to facilitate 
the accomplishment of assigned missions.

    17. Senator Bill Nelson. General Craddock, please describe the 
division of labor between NATO's operations in Afghanistan and the 
nearly 20,000 American troops in the country? How should this be 
rebalanced in light of NATO's struggles?
    General Craddock. Since the transfer of authority on 5 October for 
Stage 4 of the ISAF mission, the majority of Operation Enduring 
Freedom's (OEF) U.S. forces came under the direct operational control 
of Commander ISAF. Currently, approximately 12,500 U.S. personnel are 
serving in Afghanistan under NATO (ISAF) control, and approximately 
10,500 are under U.S. control.
    The Commander of OEF is also designated the Deputy Commander 
Security for ISAF. This ensures operations involving OEF and ISAF 
troops are coordinated and synchronized at the highest levels. It is 
also important to note that ISAF troops have effectively operated with 
coalition OEF forces.
                                 ______
                                 
    [The nomination reference of GEN Bantz J. Craddock, USA, 
follows:]
                    Nomination Reference and Report
                               Senate of the United States,
                                                     July 14, 2006.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Army to the grade of indicated while assigned to a position of 
importance and responsibility under title 10, U.S.C., section 601:

                             To be General

    GEN Bantz J. Craddock, USA, 0000.
                                 ______
                                 
    [The biographical sketch of GEN Bantz J. Craddock, USA, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
                  Resume of GEN Bantz J. Craddock, USA
Source of commissioned service: ROTC.

Military schools attended:
    Armor Officer Basic and Advanced Courses.
    United States Army Command and General Staff College.
    United States Army War College.

Educational degrees:
    West Virginia University--BA--Political Science.
    United States Army Command and General Staff College--MMAS--
Military Art and Science.

Foreign language(s): None recorded.

Promotions:

------------------------------------------------------------------------
                Promotions                      Dates of appointment
------------------------------------------------------------------------
2LT.......................................  15 Aug 71
1LT.......................................  20 Apr 73
CPT.......................................  20 Aug 75
MAJ.......................................  1 Apr 83
LTC.......................................  1 May 89
COL.......................................  1 Sep 93
BG........................................  1 Aug 98
MG........................................  1 Dec 01
LTG.......................................  21 Aug 02
GEN.......................................  1 Jan 05
------------------------------------------------------------------------


Major duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
Jan 72..........................  Jun 74............  Platoon Leader, C
                                                       Company, later
                                                       Assistant S-3
                                                       (Operations), 1st
                                                       Battalion, 36th
                                                       Infantry, 3d
                                                       Armored Division,
                                                       United States
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany.
Jun 74..........................  Dec 74............  Anti-Tank Platoon
                                                       Leader, Combat
                                                       Support Company,
                                                       1st Battalion,
                                                       36th Infantry, 3d
                                                       Armored Division,
                                                       United States
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany.
Jan 75..........................  Aug 78............  Service Test
                                                       Project Officer,
                                                       Armor Test
                                                       Division, United
                                                       States Army Armor
                                                       and Engineer
                                                       Board, Fort Knox,
                                                       Kentucky.
Aug 78..........................  Mar 79............  Student, Armor
                                                       Officer Advanced
                                                       Course, Fort
                                                       Knox, Kentucky.
Apr 79..........................  Oct 81............  S-3 Air
                                                       (Operations),
                                                       later Commander,
                                                       C Company, 1st
                                                       Battalion, 32d
                                                       Armor, 3d Armored
                                                       Division, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany.
Nov 81..........................  May 84............  Systems Analyst,
                                                       later Executive
                                                       Officer, Office
                                                       of the Program
                                                       Manager, M-1
                                                       Abrams Tank
                                                       Systems, Warren,
                                                       Michigan.
Jun 84..........................  Jun 85............  Student, United
                                                       States Army
                                                       Command and
                                                       General Staff
                                                       College, Fort
                                                       Leavenworth,
                                                       Kansas.
Jul 85..........................  Jun 87............  Executive Officer,
                                                       4th Battalion,
                                                       69th Armor, 8th
                                                       Infantry Division
                                                       (Mechanized),
                                                       United States
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany.
Jul 87..........................  Apr 89............  Deputy G-3
                                                       (Operations), 8th
                                                       Infantry Division
                                                       (Mechanized),
                                                       United States
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany.
May 89..........................  Jul 91............  Commander, 4th
                                                       Battalion, 64th
                                                       Armor, 24th
                                                       Infantry Division
                                                       (Mechanized),
                                                       Fort Stewart,
                                                       Georgia and
                                                       Operations Desert
                                                       Shield/Storm,
                                                       Saudi Arabia.
Jul 91..........................  Jul 92............  G-3 (Operations),
                                                       24th Infantry
                                                       Division
                                                       (Mechanized),
                                                       Fort Stewart,
                                                       Georgia.
Jul 92..........................  Jun 93............  Student, United
                                                       States Army War
                                                       College, Carlisle
                                                       Barracks,
                                                       Pennsylvania.
Jul 93..........................  Jun 95............  Commander, 194th
                                                       Separate Armored
                                                       Brigade, Fort
                                                       Knox, Kentucky.
Jul 95..........................  Aug 96............  Assistant Chief of
                                                       Staff, G-3
                                                       (Operations), III
                                                       Corps, Fort Hood,
                                                       Texas.
Aug 96..........................  Aug 98............  Assistant Deputy
                                                       Director for
                                                       Strategy and
                                                       Policy, J-5, The
                                                       Joint Staff,
                                                       Washington, DC.
Aug 98..........................  Aug 99............  Assistant Division
                                                       Commander
                                                       (Maneuver), 1st
                                                       Infantry
                                                       Division, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany and
                                                       Commander,
                                                       Multinational
                                                       Brigade
                                                       (Southeast),
                                                       Kosovo.
Aug 99..........................  Sep 00............  Commander, 7th
                                                       Army Training
                                                       Command, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany.
Sep 00..........................  Aug 02............  Commanding
                                                       General, 1st
                                                       Infantry
                                                       Division, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany.
Aug 02..........................  Jul 04............  Senior Military
                                                       Assistant to the
                                                       Secretary of
                                                       Defense, Office
                                                       of the Secretary
                                                       of Defense,
                                                       Washington, DC.
------------------------------------------------------------------------


Summary of joint assignments:

------------------------------------------------------------------------
           Assignment                    Dates               Grade
------------------------------------------------------------------------
Assistant Deputy Director for     Aug 96-Aug 98.....  Colonel/Brigadier
 Strategy, J-5, The Joint Staff,                       General
 Washington, DC.
Senior Military Assistant to the  Aug 02-Jul 04.....  Lieutenant General
 Secretary of Defense, Office of
 the Secretary of Defense,
 Washington, DC.
Commander, United States          Nov 04-Present....  General
 Southern Command, Miami,
 Florida.
------------------------------------------------------------------------


U.S. decorations and badges:
    Valorous Unit Award
    Defense Distinguished Service Medal
    Distinguished Service Medal
    Silver Star
    Defense Superior Service Medal (with Oak Leaf Cluster)
    Legion of Merit (with 2 Oak Leaf Clusters)
    Bronze Star Medal
    Meritorious Service Medal (with 3 Oak Leaf Clusters)
    Army Commendation Medal (with 2 Oak Leaf Clusters)
    Army Achievement Medal
    Office of the Secretary of Defense Identification Badge
    Joint Chiefs of Staff Identification Badge
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by GEN Bantz J. 
Craddock, USA, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Bantz J. Craddock.

    2. Position to which nominated:
    Commander, United States European Command and Supreme Allied 
Commander, Europe.

    3. Date of nomination:
    14 July 2006.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    24 August 1949; Parkersburg, WV.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Linda Eaton Craddock.

    7. Names and ages of children:
    Zachary W. Craddock (31) and Amanda E. Craddock (29).

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Association of the United States Army--Member.
    Society of the 1st Infantry Division--Member.
    U.S. Army Armor Association--Member.
    Veterans of Foreign Wars--Member.
    Orange Bowl Committee--Ex-oficio Member.
    Florida Committee of 100--Ex-oficio Member.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    Armor Association--Order of St. George.
    Infantry Association--Order of St. Maurice.
    Ordnance Association--Order of Samuel Sharpe.
    Artillery Association--Order of St. Barbara.
    Honorary Kentucky Colonel.
    Honorary Texan.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Bantz J. Craddock.
    This 14th day of July, 2006.

    [The nomination of GEN Bantz J. Craddock, USA, was reported 
to the Senate by Chairman Warner on September 28, 2006, with 
the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on September 29, 2006.]
                              ----------                              

    [Prepared questions submitted to VADM James G. Stavridis, 
USN, by Chairman Warner prior to the hearing with answers 
supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also vastly improved cooperation between the Services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. Yes, I do.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. The National Defense Authorization Act of 1986 vastly 
improved the way our joint force operates.
    An area that I believe could be readdressed is the resourcing of 
joint requirements. As an example, combatant command headquarters are 
funded through a Service as an executive agent. As a result, Joint 
Commands with different Service Executive Agents are resourced 
according to the budgeting priorities of the respective Service. The 
Quadrennial Defense Review (QDR) highlighted the need to review this 
resourcing approach. The Joint Task Assignment Process development 
project, currently underway by the Department as part of a QDR roadmap, 
is looking at potential improvements in joint management constructs. 
The analysis and recommendations of the group led by the Office of the 
Director, Administration and Management, may provide courses of action 
to strengthen the Goldwater-Nichols Act.
    Additionally, there may be benefit in amending the Goldwater-
Nichols Act to encourage professional education in the civil service 
employee sector, as the original legislation did for military officers. 
As more of the force is civilianized, it is in the Department's 
interest to promote joint educational opportunities for civilian 
employees of the Department of Defense.
                                 duties
    Question. What is your understanding of the duties and functions of 
the Commander, U.S. Southern Command?
    Answer. The commanders of combatant commands (COCOM) exercise of 
assigned forces and are directly responsible for the preparedness of 
their respective commands as well as the performance of assigned 
missions. Combatant commanders prescribe the chain of command within 
their combatant commands and designate the appropriate command 
authority to be exercised by subordinate commanders.
    As the Commander of U.S. Southern Command, the duties and functions 
would include responsibility for the geographical area of 
responsibility (AOR) defined in the Unified Command Plan, which now 
includes 32 countries and 13 territories/protectorates. The duties and 
functions also include, but are not limited to, the authoritative 
direction for all military operations, joint training, and logistics in 
the AOR.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I am deeply honored by the President's nomination to be the 
Commander of U.S. Southern Command. Over the past decades, I have 
served in a wide variety of Navy and Joint Commands that I believe will 
prepare me well for the challenges ahead if confirmed by the U.S. 
Senate.
    Operationally, I have served in several key command positions for 
the Navy, culminating in command as a Rear Admiral of a Navy Carrier 
Strike Group, which conducted operations in the Southern Command AOR as 
well as in the Mediterranean and the Arabian Gulf. I have also served 
on the Joint Staff, the Secretary of Defense staff, the Secretary of 
the Navy staff, and Chief of Naval Operations staff. During my time in 
each of these locations, I actively worked on issues involving Southern 
Command's AOR.
    Most recently, while serving as the Senior Military Assistant to 
the Secretary of Defense, I had the opportunity to travel widely with 
the Secretary throughout Latin America and the Caribbean. This 
experience allowed me to observe international, interagency, joint, and 
combined strategy and policy formulation pertaining to the region.
    Other specific experiences and background include:

         Maritime operations with numerous Latin American and Central 
        American naval forces throughout my operational career--1976 to 
        present, including counternarcotic operations in the Caribbean 
        and Eastern Pacific and multiple combined training operations 
        with most significant militaries in the region at one time or 
        another.
         Integration of an Argentine destroyer, Sarandi, into the 
        Carrier Strike Group I commanded 2002-2004, including a full 
        training work-up and deployment to the Mediterranean during 
        Operation Solid Step, leading to the award to me of the 
        Argentine Naval Cross.
         Ph.D. in International Relations from the Fletcher School of 
        Law and Diplomacy at Tufts University, where my regional work 
        was focused on Latin America.
         Many strategic projects involving Latin America during staff 
        assignments in the Pentagon, including, for example, the 
        Unified Command Plan process shaping Southern Command 
        responsibilities in the late 1990s.
         Numerous visits to the region over the past 2 years, 
        including attending small group meetings with many of the 
        Defense Ministers and Heads of State, as well as attendance at 
        the most recent Defense Ministerial of the Americas in Quito, 
        Ecuador, as a result of my present assignment.
         Working knowledge of Spanish and French, and continuing study 
        of Spanish.

    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Commander, 
U.S. Southern Command?
    Answer. If confirmed, I will engage with key officials and 
personnel within the executive and legislative branches of the U.S. 
Government to uphold and advance the national policies and interests of 
the United States for the region through the missions established and 
executed within the command. To this end, I will also engage with the 
governments and militaries of partner nations to understand the 
magnitude and interdependent issues within the region. I will seek the 
cooperation of the Latin American and Caribbean leadership to work 
together to engage on vital regional issues. Additionally, I intend to 
continue to study Spanish.
                             relationships
    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the combatant commands. Other 
sections of law and traditional practice, however, establish important 
relationships outside the chain of command.
    Please describe your understanding of the relationship of the 
Commander, U.S. Southern Command, to the following:
    The Secretary of Defense.
    Answer. The President and the Secretary of Defense, or their 
authorized alternates, exercise authority over the Armed Forces through 
the combatant commanders for those forces assigned to the respective 
commands. The combatant commander exercises command authority over 
assigned forces and is directly responsible to the National Command 
Authority for the performance of assigned missions and the preparedness 
of the command.
    Question. The Deputy Secretary of Defense.
    Answer. The Deputy Secretary of Defense is delegated full power and 
authority to act for the Secretary of Defense and to exercise the 
powers of the Secretary on any and all matters for which the Secretary 
is authorized to act pursuant to law. The commander coordinates and 
exchanges information with the Deputy Secretary on matters delegated by 
the Secretary. The commander directly communicates with the Deputy 
Secretary on a regular basis.
    Question. The Under Secretary of Defense for Policy.
    Answer. A direct command relationship between the Under Secretary 
of Defense for Policy and the combatant commander does not exist. 
However, the combatant commander regularly interacts, coordinates, and 
exchanges information with the Under Secretary of Defense for Policy.
    Question. The Under Secretary of Defense for Intelligence.
    Answer. A direct command relationship between the Under Secretary 
of Defense for Intelligence and the combatant commander does not exist. 
However, the combatant commander regularly interacts, coordinates, and 
exchanges information with the Under Secretary of Defense for 
Intelligence.
    Question. The Assistant Secretary of Defense for International 
Security Affairs.
    Answer. A direct command relationship does not exist between the 
Assistant Secretary of Defense for International Security Affairs and 
the combatant commander. Although, the combatant commander and the 
Assistant Secretary of Defense for International Security Affairs work 
together on mutual issues of concern.
    Question. The Assistant Secretary of Defense for Special Operations 
and Low Intensity Conflict (SOLIC).
    Answer. A direct command relationship does not exist between the 
SOLIC and the combatant commander. The Assistant Secretary of Defense 
for SOLIC works with the combatant commander on mutual issues of 
concern.
    Question. The Assistant Secretary of Defense for Homeland Defense.
    Answer. There is no direct command relationship between the 
Assistant Secretary of Defense for Homeland Defense and the combatant 
commander. The Assistant Secretary of Defense for Homeland Defense 
works closely with all DOD components, to include combatant commanders.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman functions under the authority, direction, and 
control of the National Command Authority. The Chairman transmits 
communications between the National Command Authority and combatant 
commanders as well as oversees the activities of a combatant commander 
as directed by the Secretary of Defense. As the principal military 
advisor to the President and the Secretary of Defense, the Chairman is 
a key conduit between the combatant commander, interagency, and Service 
Chiefs. The combatant commander continues to keep the Chairman informed 
on significant issues regarding his command and its AOR.
    Question. The Secretaries of the Military Departments
    Answer. The Secretaries of Military Departments are responsible for 
administration and support of forces that are assigned or attached to 
combatant commands. The Secretaries fulfill their responsibilities by 
exercising administrative control through the Service Component 
Commands assigned to the combatant commands.
    Question. The Chief of Staff of the Army, Chief of Naval 
Operations, Commandant of the Marine Corps, and Chief of Staff of the 
Air Force.
    Answer. The Service Chiefs are responsible for ensuring the 
organization and readiness of each respective Service branch and for 
advising the President. However, as with the other Joint Chiefs, the 
Service Chiefs do not have operational command authority. The combatant 
commander must rely upon the Service Chiefs to provide properly 
equipped and capable forces to accomplish missions in his assigned AOR.
    Question. The other combatant commanders.
    Answer. Formal relationships between the combatant commanders are 
based upon operational plans. The plans lay out clearly the roles of 
the commanders as ``supporting'' or ``supported.'' These planned 
relationships mandate close coordination in peacetime and training.
    Question. U.S. Chiefs of Mission within the U.S. Southern Command 
AOR.
    Answer. A formal command relationship between the Chiefs of Mission 
and the commander does not exist. In a foreign country, the U.S. 
Ambassador is responsible to the President for directing, coordinating, 
and supervising all U.S. Government elements in the host nation except 
for those under the command of a combatant commander. Geographic 
combatant commanders are responsible for coordinating in their AOR as 
necessary, across the range of military operations and for negotiating 
force protection agreements with the Chief of Mission in designated 
countries. The commander also coordinates and exchanges information 
with chiefs of mission regularly on matters of mutual interest, to 
include military operations and engagement activities. I understand 
that in addition to the regular exchange of information with the Chiefs 
of Mission, Southern Command Commanders in the past have hosted annual 
subregional conferences with each country's respective U.S. Ambassador. 
If confirmed, I intend to continue these conferences.
                            major challenges
    Question. In your view, what are the major challenges and problems 
you would confront if confirmed as the next Commander, U.S. Southern 
Command?
    Answer. If confirmed, I would seek to learn more about the many 
challenges and transnational threats within the region. Challenges 
include conditions of poverty, inequality, and corruption that create 
an environment conducive to threats such as illicit trafficking and 
narcoterrorists. There are also undergoverned areas within the AOR that 
may be used by individuals affiliated with terrorist organizations and 
criminal groups for logistical support and revenue generation.
    There are also key challenges facing the United States in Cuba, 
where we must remain hopeful that a transition to true democracy will 
begin to unfold soon; in Colombia, where we must continue to aid an 
important regional partner in the fight against narcoterrorism; in 
Haiti, where a fragile democracy struggles against crime with the 
assistance of an important United Nations (U.N.) mission; throughout 
Central America, where important partners combat crime and drugs; and 
in other venues throughout the region. The U.S. Southern Command must 
also be poised and ready to support U.S. Government efforts to provide 
humanitarian assistance throughout the AOR.
    Another important challenge for U.S. Southern Command is running a 
safe, secure, and effective detention facility at Guantanamo Bay, Cuba, 
in full compliance with applicable law, policy, and regulation.
    Question. If confirmed, what plans do you have for addressing these 
challenges and problems?
    Answer. By working collaboratively with our partner nations to 
enhance their capabilities at both national and regional levels, we can 
best ensure the forward defense of the United States. If our partner 
nations are better equipped and trained to face the transnational 
threats facing us all, the entire region, including the U.S., will be 
safer. If confirmed, I would continue to reach out to those countries 
that have been distancing themselves from the U.S. to encourage 
military engagement. Also, if confirmed, I will ensure that the U.S. 
Southern Command develops and executes a comprehensive regional plan to 
address the challenge of regional security throughout the entire AOR.
    Finally, if confirmed as Commander of U.S. Southern Command, I will 
maintain command focus on the detention center in Guantanamo Bay, where 
we must ensure all laws, regulations, and policies are followed fully 
at all times and that we uphold the highest standards in the execution 
of our assigned mission.
                     role of u.s. southern command
    Question. If confirmed as the Commander of the U.S. Southern 
Command, you will be responsible for all military operations in that 
region. These include operations supporting homeland defense and 
security, the Department's counternarcotics efforts in the source 
nations and transit zone, detainee and interrogation operations at 
Guantanamo Bay, security of the Panama Canal, and development of 
democratic values within the military organizations of the region. If 
confirmed, you will face the challenge of pursuing these missions at a 
time when there appears to be movement away from democracy in some 
nations, and increasing instability in other nations.
    If confirmed, what will be your highest priorities?
    Answer. If confirmed as Commander, U.S. Southern Command, my 
highest priority would be to ensure the forward defense of the United 
States. In working toward this, it is imperative to work cooperatively 
with partner nations to meet our shared security challenges. I would 
also continue to support the global war on terrorism by conducting 
safe, secure, and legal detainee operations at the Joint Task Force 
Guantanamo (JTF-GTMO) and through operations to deter and disrupt 
terrorist activity within the region.
    Question. What actions would you propose to counter the growing 
threat to democracy in the region?
    Answer. The key to safeguarding democratic institutions is to 
encourage security, stability, and adherence to the rule of law, which 
allows economic growth and prosperity. Without appropriate security, 
illegal activities and corruption flourish and over time can undermine 
democracy. Southern Command can improve security in the region by 
helping to build Partner Nation security force capabilities through a 
focused Theater Security Cooperation program. Additionally, we can 
further seek opportunities to partner together to promote regional 
security.
    Question. What is your assessment of the strengths and weaknesses 
of military-to-military exchange programs and contacts in the U.S. 
Southern Command AOR?
    Answer. My impression is that Southern Command has an extensive and 
robust defense military exchange and contact program with a broad reach 
from the ministerial to the operational levels. During fiscal year 2006 
alone, there were 503 events. Unfortunately, Southern Command military-
to-military exchanges and contacts have been reduced with some 
countries as political events unfold in those countries. If confirmed, 
I will work hard to increase the military-to-military programs.
                        counternarcotics efforts
    Question. Each year, the Department of Defense spends several 
hundred million dollars for counternarcotics programs. Despite the 
expenditure of about $5 billion since 2000 for these programs, the flow 
of illegal drugs into the United States and the availability of drugs 
on the street have not been significantly reduced, and countries such 
as Colombia and Peru continue to face tremendous internal security 
challenges in responding to this threat. This has led many to question 
the effectiveness and focus of our counternarcotics programs.
    How would you recommend that the success of the Department's 
counternarcotics programs be measured?
    Answer. This is a complicated problem. My impression is that there 
is no single metric to measure Department of Defense success with 
regards to counternarcotics efforts. The Department of Defense is the 
lead agency for detection and monitoring in the source and transit zone 
and we concentrate on successful detections and resultant endgames. 
Recent interdiction and disruption data for the source and transit 
zones indicate the Department's success with 252 metric tons of 
narcotics being seized or disrupted during calendar year 2005. This is 
252 metric tons of cocaine that will not reach its destination. 
Additionally, Department of Defense efforts to train and provide 
logistical support to Partner Nation militaries, and drug law 
enforcement agencies, has substantially improved Partner Nation ability 
to contribute to counternarcotics efforts.
    Question. Do you believe that the current programs that the 
Department is pursuing are the most effective for the region, or should 
the Department's efforts focus elsewhere?
    Answer. My belief is that U.S. Southern Command constantly 
evaluates their efforts and continuously seeks ways to improve results. 
Department of Defense programs are complementary to other U.S. 
programs, such as the Department of State's (DOS) eradication and 
economic development programs. No single focus program is a panacea. I 
believe that current Department of Defense programs are appropriately 
synchronized with other agency efforts, but if confirmed, I would 
continue to explore ways to increase efficiency.
    Question. Compared to other missions that you would be responsible 
for as Commander, U.S. Southern Command, if confirmed, where would you 
rank counternarcotics in terms of its contribution to our national 
security and the ability of the Department of Defense to make a 
meaningful contribution?
    Answer. If confirmed, my number one priority would be supporting 
the global war on terrorism. My impression is that the counternarcotics 
mission is intertwined with the U.S. Southern Command's top priority. I 
believe the Department needs to continue to provide support to U.S. and 
partner nation drug enforcement efforts to deny narcotraffickers the 
freedom of movement they require to transport illegal drugs to the 
United States.
                            coca eradication
    Question. In Ecuador and Bolivia, the governments have adopted 
policies of ``Zero Cocaine--Not Zero Coca,'' asserting that legitimate 
uses of coca crops exist and that coca farmers should be protected. 
Opponents of U.S. policies regarding eradication have argued that its 
side effects of environmental and social damage caused by migrating 
cultivation zones outweigh its benefits and that the policy 
fundamentally isn't working.
    What is your view of the costs versus the benefits of the existing 
eradication policy?
    Answer. My impression is that coca eradication is one of a 
combination of mutually supportive efforts necessary to effectively 
reduce the availability of cocaine in the U.S. market. It appears 
sensible to continue the eradication program while at the same time 
more effectively disrupting the cocaine market by targeting key 
organizers and narcotrafficking leaders.
    Question. In what areas of the counterdrug eradication program, if 
any, is change most needed?
    Answer. Although the DOS is the lead agency for the eradication 
program, my preliminary impression is that the U.S. Southern Command 
needs to continue to seek engagement opportunities with Partner Nation 
forces in order to improve their ability to support DOS-sponsored 
eradication. However, current governments have limited military 
engagement with the United States.
                                 haiti
    Question. The U.N. Security Council voted unanimously on August 15, 
2006, to extend the U.N. peacekeeping mission in Haiti for 6 months. 
Haiti continues to experience turmoil and instability.
    How would you characterize the current military, economic, and 
political situation in Haiti, including the role of the U.N. 
multinational peacekeeping force and the U.S. military?
    Answer. The challenges continue in this fragile democracy. The U.N. 
Stabilization Mission in Haiti maintains a peace-enforcement role in 
Haiti. The U.N. mandate calls for a modest increase in police support, 
a decrease in troop involvement, and support from member nations to 
assist the Government of Haiti in addressing the shortcomings of the 
prison system.
    Question. How do you assess the security situation in Haiti now and 
what is your estimate of how the situation will look in 6 months?
    Answer. The U.N. is directly involved in addressing the security 
situation in Haiti, which continues to be complex and gang-centric. The 
primary threats are turf wars and kidnappings for profit and the 
Government of Haiti continues to address this problem while rebuilding 
their police forces. With continued U.N. involvement, I am hopeful that 
the security situation in 6 months will be improved over that of today.
    Question. What conditions or indicators do you consider important 
in determining whether there will be another wave of Haitian 
emigration?
    Answer. A significant condition for a potential mass migration from 
Haiti is the Haitian perception that they will not be quickly 
interdicted and repatriated by the U.S. Coast Guard and/or other U.S. 
authorities. Another factor is the Haitian perception of the country's 
ability to ensure their safety and develop an effective economy. 
Between June and July 2006, for example, there was a spike in violence 
in Haiti and Haitian emigration increased over 300 percent within that 
period. In August 2006, violence decreased with a commensurate decrease 
in migration.
    Question. In your view, what is the cost and effectiveness of U.S. 
assistance to Haiti?
    Answer. All assistance provided to the people of Haiti is valuable 
as a humanitarian effort. The monetary cost, however, is high for 
military humanitarian projects in Haiti because of force protection 
requirements driven by the current security environment. Fortunately, 
our allies are involved and helpful.
                                  cuba
    Question. The Commander of U.S. Southern Command, General Craddock, 
has stated that he does not view Cuba as a military threat to the 
United States and that policies and laws regarding Cuba need to be 
reviewed ``stem to stern'' in order to determine if they make sense. 
General Craddock questioned whether the continuing ban on U.S./Cuban 
military-to-military contacts should remain in effect.
    What is your opinion about the need for and pros and cons of 
military-to-military contact with Cuba?
    Answer. I believe General Craddock was referring to the fact that 
we now live in a multi-polar, globalized world in which it would be 
prudent for the U.S. to re-examine our engagement policies throughout 
the world. Generally, military-to-military engagement is valuable; 
however, any engagement must be consistent with U.S. Government law and 
policy. Currently, the only authorized military-to-military contacts in 
Cuba are minimal administrative conversations surrounding the military 
facility at Guantanamo Bay. If confirmed, I will assess the specific 
situation regarding military engagement with Cuba.
    Question. What is your view of the need for review and potentially, 
revision of U.S. policies regarding Cuba?
    Answer. I believe the U.S. policy toward Cuba, like all policy, 
should be periodically reviewed and reassessed to ensure it is relevant 
to the changing environment. When adjustments to policy are 
recommended, we should feel free to openly debate both the pros and 
cons of any given proposal for change.
                                bolivia
    Question. In the past few years, Bolivia has experienced extreme 
political unrest and lately, President Morales has taken some positions 
that could complicate U.S. relations with Bolivia.
    How do you assess the situation in Bolivia and, if confirmed, how 
would you seek to accomplish the goals of combating drug trafficking 
and enhancing military engagement goals?
    Answer. The Bolivian Armed Forces continue to pursue military 
engagement with the U.S. If confirmed, I would hope to maintain this 
relationship. My understanding is that Bolivian security forces remain 
cooperative in the interdiction of narcotics and their precursor 
chemicals. My understanding is that although the eradication of illegal 
coca has decreased, Southern Command through its Military Group in La 
Paz intends to supplement the DOS's International Narcotics and Law 
Enforcement division's counternarcotics programs by coordinating 
training and serving as the conduit for equipment as appropriate.
                  joint intelligence operation centers
    Question. Earlier this year, the Secretary of Defense approved an 
executive order that established Joint Intelligence Operations Centers 
(JIOC) in each combatant command as a means to reduce ``stovepiping'' 
of communications and improve the integration of intelligence and 
operations staffs.
    Do you think that U.S. Southern Command will benefit from the 
formation of a JIOC and if so, how?
    Answer. My initial impression is that the command will benefit from 
the reduced time required to plan and execute intelligence driven 
operations. I prefer, however, to reserve judgment until I have the 
benefit, if confirmed, of personal experience as a combatant commander.
    Question. What is your understanding of the steps that must be 
taken within U.S. Southern Command to implement this directive, and 
what resources must be made available to U.S. Southern Command to do 
so?
    Answer. Generally speaking, it appears that we should pursue 
measures that give combatant commanders the authority to task 
intelligence sources relevant to their regions; to possess well 
developed processes that integrate intelligence, planning, and 
operations; have qualified people with appropriate skill sets; and the 
right management tools to produce the most quality intelligence 
products possible.
                               venezuela
    Question. In 2006, U.S.-Venezuelan relations have continued to be 
strained as President Chavez has allied himself with Fidel Castro, 
imported increasing amounts of military armament, politicized the 
Venezuelan military forces, and exported his brand of populism to the 
region.
     How would you characterize the current state of military-to-
military relations between the U.S. and Venezuela?
    Answer. It has been U.S. policy to maintain as much dialogue as 
possible between our militaries. Opportunities for contact have been 
increasingly limited. My understanding is that the Government of 
Venezuela has not been responsive to invitations from the U.S. to 
participate in international and regional military forums. If 
confirmed, I would seek opportunities to engage with the Venezuelan 
military as responsible members of the region.
    Question. What is your view of President Chavez's intentions in the 
region?
    Answer. My impression is that the Government of Venezuela intends 
to create a cooperative group of regional partners, which, they hope 
will coalesce into Latin America's dominant diplomatic, military, and 
economic bloc. All indicators are that this bloc would not be generally 
supportive of U.S. policies.
    Question. What role do you see President Chavez playing in national 
elections throughout the U.S. Southern Command's area of operations?
    Answer. Allegations of the Government of Venezuela's support to 
political parties, grass-roots organizations, and anti-U.S. candidates 
will probably continue as long as the current government is in a 
position to use its nation's oil wealth to attempt to establish 
governments supportive of its regime's efforts.
    Question. How would you assess Venezuelan relations with Cuba, 
China, and Iran vis-a-vis the national interests of the United States?
    Answer. The Government of Venezuela is apparently continuing to 
develop relationships with countries it views as anti-U.S. These 
relationships with Cuba and Iran may be meant to develop ties with U.S. 
antagonists. The Government of Venezuela may hope that its relationship 
with the People's Republic of China (PRC) will give it more credibility 
and a louder voice on the world stage.
                                 panama
    Question. How do you assess the current political and economic 
situation in Panama?
    Answer. The country seems largely stable and is developing well 
economically.
    Question. To what extent do you assess that the Panamanian 
government attempts to interdict the drug flow out of South America 
through Panama?
    Answer. My impression is that Panama actively cooperates with 
United States' counterdrug efforts within the constraints of their 
resources. The Panamanian government is actively engaged in 
restructuring their law enforcement agencies. Resources available to 
traffickers and associated networks challenge the Government of 
Panama's interdiction efforts.
    Question. What is your assessment of how Panama is protecting and 
maintaining the Panama Canal?
    Answer. My preliminary assessment is that protecting and 
maintaining the Panama Canal is a very complex and difficult operation. 
Since the canal plays such a significant role in Panama's economic and 
national identity, the Government of Panama has made the security and 
maintenance of the canal a top priority. Panama continues to invest in 
technology and security training and continues to work collectively 
with allies to protect this very important resource through a number of 
ways to include the annual Southern Command sponsored exercise 
``Panamax,'' which just successfully concluded last month with its 
largest multinational participation to date.
    Question. How vulnerable is the Panama Canal to attack by 
terrorists, and what would be the consequences of an attack to U.S. 
national security interests?
    Answer. Challenges of securing the Canal will continue to exist. 
There has been some reported Islamic extremist operational/pre-
operational activity in Panama. These events include occasional 
surveillance of the locks and other areas around the Panama Canal. For 
example, in 2001, known al Qaeda operative traveled through the 
Caribbean region and into Panama, reportedly to conduct surveillance on 
the Panama Canal. A successful attack on the Panama Canal would 
severely hamper U.S. commerce and trade as, since nearly 15,000 ships 
pass through the canal each year, of which 65 percent are traveling to 
or from U.S. ports. Any degradation of the canal's functioning would 
also restrict the U.S. Navy's ability to swing ships between the 
Pacific and Atlantic fleets.
                      forward operating locations
    Question. One of the elements of the regional counternarcotics 
strategy is the U.S. Southern Command's establishment of forward 
operating locations (FOLs) in the source and transit zone. There is 
some concern that the Department has not deployed sufficient aircraft 
and other resources to these FOLs to justify sustainment costs and 
continued improvements. There is also concern that after U.S. 
investment of several million dollars on these facilities, the host 
nations will restrict our use of these facilities.
    What is the role that these FOLs play in the Department's 
counterdrug efforts?
    Answer. My understanding is that the U.S. Southern Command 
currently has the capability to operate from four FOLs, now called 
Cooperative Security Locations (CSLs): Manta, Ecuador; Curacao and 
Aruba, Netherlands Antilles; and Comalapa, El Salvador. Ongoing 
counterdrug operations are actively conducted from Manta, Curacao, and 
Comalapa. These CSLs are used by command for the strategic basing of 
assets used in the regional detection and monitoring (D&M) operations 
targeting illicit air and sea movement and drug production. They 
provide vital forward basing of aircraft in support of the Department 
of Defense's statutory mission to be the lead Federal agency for D&M in 
the source and transit zones.
    Question. Does current use continue to justify the costs of 
sustaining these locations?
    Answer. From what I have learned thus far, I believe so. 
Specifically, these CSLs continue to support the National Drug Control 
Strategy by targeting the flow of narcotics to the United States. The 
current use of these CSLs appears to justify the costs of sustaining 
these four locations. For example, the CSLs supported the seizure or 
disruption of 252 metric tons of cocaine during 2005.
    Question. What assurance do we have from host nations that these 
locations will continue to be available to us, and under what 
conditions?
    Answer. I am told that there are no concrete assurances from any of 
the host nations with which we have agreements that U.S. Southern 
Command will be able to continue counternarcotics operations from them 
beyond the initial 10-year agreement. However, Southern Command is 
hopeful of maintaining CSLs at all three locations. The command will 
have to monitor that situation closely.
                                colombia
    Question. Under President Uribe's leadership, Colombia has improved 
its military performance in pursuing the narcoterrorist groups, and 
demonstrated an increased willingness and commitment to decisively 
address and defeat the terrorist insurgency.
    Please outline your views regarding the current situation in 
Colombia focusing upon: (1) the current military and political 
situation in Colombia; (2) the ability of the Colombian military to 
regain control of its territory; and (3) ongoing Department of Defense 
programs, including the effects of the caps on U.S. troops and 
contractor personnel.
    Answer. As I learn about Colombia, it appears that:

          (1) The military's capabilities continue to improve as the 
        Illegally Armed Groups (IAGs) in Colombia are attrited either 
        through combat operations or through demobilization. The Uribe 
        administration has done a good job providing support so the 
        Colombian military can effectively prosecute their war.
          (2) Having said this, Colombia has not yet fully defeated the 
        violent terrorist groups within its borders and has not yet 
        fully gained complete control of all of its territory. To do 
        so, they are working to better synchronize actions against IAG 
        centers of gravity.
          (3) The Uribe administration is developing a focused strategy 
        aimed at achieving further success in Colombia within the next 
        4 years. In support, I understand that Southern Command is 
        conducting a review of current programs and is determining how 
        best to support the Government of Colombia in the future.

    When the U.S. began providing increased support through Plan 
Colombia for Colombia's efforts to significantly reduce or eliminate 
narcoterrorists operating in their country, much concern was expressed 
about human rights abuses that the Colombian military forces had 
committed.
    Question. What is your assessment of the record of the Colombian 
military with regard to respect for human rights over the past 3 years?
    Answer. I am told that the Colombian military is one of the most 
respected institutions in Colombia today. While waging a civil war with 
an accelerating operational tempo and increased military presence 
throughout Colombia's territory, the Colombian government and military 
leadership also worked hard to establish a human rights and 
international humanitarian law program. Colombia's human rights program 
has included mandatory human rights training for every officer and 
soldier at every stage of their military careers. The Colombian 
military continues to partner with civil society groups, universities, 
and international organizations to collaborate on strengthening their 
human rights programs. These programs have been instrumental in 
reducing the number of human rights complaints against the Colombian 
military.
    Question. What more remains to be done and how would you approach 
the issue of respect for human rights in the Colombian military?
    Answer. The Colombian government views human rights as a vital 
element in its national strategy. If confirmed, I intend to continue to 
make respect for human rights a key component of U.S. Southern Command 
interaction with Colombia.
    western hemisphere institute for security cooperation (whinsec)
    Question. WHINSEC, which replaced the School of the Americas in 
2001, has the mission of contributing to theater cooperation activities 
through the education and training of students in the Western 
Hemisphere from Canada to Chile. Earlier this year, Bolivia, Argentina, 
and Uruguay joined Venezuela in no longer sending their military 
personnel for instruction at WHINSEC.
    What is the relationship between U.S. Southern Command and WHINSEC?
    Answer. WHINSEC is not subordinate to U.S. Southern Command. 
However, the Commander of Southern Command is a member of the Board of 
Visitors.
    Question. How does U.S. Southern Command participate in command 
oversight and curriculum development?
    Answer. Southern Command reviews the WHINSEC curriculum to ensure 
the school's curriculum supports theater security cooperation strategic 
objectives and the combatant commander's regional priorities and makes 
appropriate recommendations.
    Question. What is your assessment of the impact on regional 
cooperation of the decisions by Venezuela, Argentina, Bolivia, and 
Uruguay to no longer send military personnel to WHINSEC for 
instruction?
    Answer. I have been briefed that Bolivia has 59 students programmed 
to attend WHINSEC in 2006. It is my understanding that Venezuela, 
Argentina, and Uruguay have not stated that they will no longer send 
military personnel to WHINSEC. However, these three countries do not 
currently have any students programmed to attend the institution. These 
countries will miss opportunities to establish lasting relationships 
with the future leaders from the rest of the hemisphere.
    Question. In your view, what more, if anything, does WHINSEC need 
to do to emphasize human rights in its curriculum?
    Answer. I am told that WHINSEC currently has the most complete 
human rights program available to the militaries and police forces of 
the Western Hemisphere. The school has maximized the quantity and 
quality of human rights instruction in its curriculum.
    Question. How can WHINSEC improve its outreach efforts to 
individuals or groups interested in its activities, particularly those 
who have accused the school of contributing to human rights violations 
by former students?
    Answer. In a word, ``transparency.'' It is my understanding that 
WHINSEC has consistently responded with a strong and open program of 
information that allows individuals and groups to see the 
professionalism associated with its instructors and effective human 
rights curriculum. During Human Rights Week, I am told that NGOs are 
invited to participate in classroom discussions and practical 
exercises. Additionally, on an annual basis, WHINSEC invites critics to 
an open house to tour the institute and receive briefings.
                american servicemembers' protection act
    Question. The American Servicemembers' Protection Act (ASPA) 
precludes foreign military financing and international military 
exchange training with countries which have not executed an article 98 
bilateral agreement in which they pledge not to extradite serving or 
former U.S. personnel, officials, or citizens to the International 
Criminal Court. General Craddock has testified that this law affects 11 
countries in Latin America and has resulted in lost opportunities in 
engaging with generations of military officers and noncommissioned 
officers in nations in the U.S. Southern Command AOR.
    What is your assessment of the impact of the ASPA on WHINSEC?
    Answer. I believe ASPA sanctions have not impacted the total number 
of yearly WHINSEC graduates. Most recently, the number of students from 
sanctioned countries has been offset by additional students from 
nonsanctioned countries. However, although the total number of 
graduates has not been impacted, there are hundreds of military 
officers and noncommissioned officers from those 11 sanctioned 
countries that have missed out on the opportunity to attend WHINSEC. 
The United States has lost the opportunity to forge relationships with 
the military officers from those countries and to educate them on the 
democratic principles by which our military operates.
    Question. What changes, if any, in your view are needed to the 
ASPA?
    Answer. My preliminary view is that the exemption of the 
International Military Education and Training (IMET) program from 
sanctions is necessary. The ASPA contains provisions for Presidential 
National Interest Waivers, and while a legislative change is debated, I 
support Presidential National Interest Waivers to allow IMET funding to 
our partner nations.
    Question. What actions, if any, do you believe are needed to 
ameliorate the adverse effects of existing law?
    Answer. I agree with General Craddock that the sooner we can 
reinstate the IMET programs for the currently sanctioned countries, the 
sooner we can begin offering educational opportunities to all our 
partner nations' security forces. The best way to ameliorate the 
adverse effects is to ensure the IMET program is adequately funded to 
support the needs of our partner nations.
                 detainee and interrogation operations
    Question. U.S. Southern Command has been given significant 
responsibility for managing detainee and interrogation operations in 
the global war on terrorism, and is responsible for these operations at 
Guantanamo Bay, Cuba.
    What is U.S. Southern Command's overall role in managing detainee 
and interrogation operations, not only at Guantanamo Bay, but in the 
larger global war on terrorism?
    Answer. I am told that U.S. Southern Command is responsible for the 
operation of a strategic level detention and interrogation facility to 
collect and exploit intelligence in support of the global war on 
terrorism, and Southern Command is responsible for ensuring that all 
detainees at such a facility are treated humanely and in accordance 
with U.S. law, the law of war, and U.S. policy. Southern Command 
exercises these responsibilities through the Joint Task Force-
Guantanamo (JTF-GTMO) at Naval Station Guantanamo, Cuba. Additionally, 
Southern Command and JTF-GTMO are charged with supporting law 
enforcement and war crime investigations, as well as military 
commissions when and if such proceedings are resumed.
    Question. Congress has authorized and appropriated considerable 
sums for military construction and operation of detainee facilities. In 
June 2006, President Bush declared that he would ``like to close 
Guantanamo.''
    Under what circumstances, if any, would you recommend that the 
detainee facilities at Guantanamo should be closed?
    Answer. The Department of Defense and the U.S. Southern Command 
support the global war on terrorism as directed by the Secretary of 
Defense and Joint Staff. If confirmed, I will provide the Secretary and 
Chairman of the Joint Chiefs of Staff with my candid assessment and 
recommendation on all issues affecting U.S. interests within Southern 
Command's AOR, including detention operations.
    As the President recently stated, ``America has no interest in 
being the world's jailer'' and that ``we will move toward the day when 
we can eventually close the detention facility at Guantanamo Bay,'' but 
so long as the United States remains engaged in the global war on 
terrorism, our Nation will likely need to remove from the battlefield 
and detain those who would do our country harm. We must do so in 
accordance with our own law and policy.
    Question. What do you expect to be the population of the Guantanamo 
detainee facilities for the next several years?
    Answer. Since its inception, JTF-GTMO has detained 770 enemy 
combatants. More than 300 have been returned to their country of origin 
leaving approximately 455 detainees at Guantanamo today. I, like the 
President and the Secretary of Defense, hope that the future detainee 
population at Guantanamo continues to diminish. However, that will 
ultimately depend on many factors, including the willingness of other 
countries to accept transfer of their nationals being detained at 
Guantanamo or to provide assurances that those detainees will be 
treated humanely upon return to their own nations or to prevent those 
detainees from returning to the battlefield. Beyond that, I cannot 
speculate how many unlawful enemy combatants JTF-GTMO will be required 
to detain in the future.
    Question. Would you advocate bringing new detainees to the 
facility?
    Answer. JTF-GTMO provides a secure facility for the humane 
detention and interrogation of unlawful enemy combatants. I support the 
transfer of any detainee to Guantanamo if, after an appropriate 
assessment, it is determined by President or Secretary of Defense that 
such transfer is legal and will further U.S. interests in support of 
the global war on terrorism.
    Question. Do you believe that military commissions can and should 
be held at Guantanamo?
    Answer. I have not been fully briefed as yet on this issue, and 
there are clearly issues that must be worked out between the executive, 
legislative, and judicial branches of the Federal Government. From what 
I know now, I believe that the Secretary of Defense has directed 
Southern Command to provide administrative, personnel, logistics, 
facilities, security, linguists, and media support to the Office of 
Military Commissions. To that end, JTF-GTMO has developed procedures, 
prepared facilities, and is well postured to support military 
commissions once prescribed by the President and Congress.
    Question. The Assistant Secretary of Defense for Health Affairs has 
recently issued new guidance on medical support for detainee operations 
(Department of Defense Instruction 2310.08E dated April 28, 2006). The 
new guidelines appear to reaffirm the role of mental health 
professionals, including physicians, in providing assistance to 
interrogators. Standards and procedures are also authorized for 
behavioral science consultants, comprising Behavioral Science 
Consultant Teams (BSCT), in the interrogation of detainees.
    Please describe your understanding of the requirements of this 
policy and what your role would be, if you are confirmed, in its 
implementation at Guantanamo Bay.
    Answer. As I understand it, the policy authorizes mental health 
professionals to provide direct support to interrogators and detention 
personnel as consultants to ensure safe, legal, ethical, and effective 
interrogation and detention operations. However, the policy also states 
that mental health professionals who serve as Behavioral Science 
Consultants to interrogation and detention operations may not serve as 
mental health clinicians who treat mental health issues of detainees or 
staff. If confirmed, I would ensure this policy is followed.
    Question. If confirmed, what criteria would you establish for the 
training and employment of BSCTs in the interrogation of detainees?
    Answer. I am not fully briefed on this program, but my inclination 
is to continue to ensure that each member of the BSCT is properly 
trained in the current policies to work with interrogation teams. As 
part of this training, each member of the BSCT must know the ethical 
standards of their profession--psychology or psychiatry. I will learn 
more about this issue if confirmed and will look at it carefully.
           facilities for headquarters, u.s. southern command
    Question. The headquarters complex for U.S. Southern Command in 
Miami, Florida, has consistently been an issue for Congress since the 
command moved from Panama in 1997. The Department of Defense is 
considering a proposal by the State of Florida that would provide 
leased facilities constructed by a private developer to meet the 
military and space requirements for the 2,884 personnel assigned to 
headquarters at Southern Command. This committee has expressed concern 
that this lease may cost up to $24 million annually, and may not be in 
the best economic interests of the Department over the long-term as 
compared to other alternatives for new headquarters facilities, such as 
new construction on a military installation.
           facilities for headquarters, u.s. southern command
    Question. What is your understanding of the Department's position 
on this proposal?
    Answer. I am told that the Department of Defense currently 
recommends build-to-lease of the new Southern Command Headquarters 
Facility on no-cost State of Florida land. It is my understanding that 
the economic analysis report submitted by the Department of Defense to 
Congress cites this as the best option.
    Question. What are your views about the most desirable location for 
the headquarters complex for U.S. Southern Command?
    Answer. I am not an expert on this issue. It is certainly an 
important one. My current sense is that the best location for Southern 
Command Headquarters is Miami, Florida.
                         command responsibility
    Question. In recent years, you have authored and co-authored 
several books including Command at Sea, The Watch Officers Guide, and 
The Division Officers Guide. The topics covered in these books reflect 
the historical and traditional skills and expectations of the U.S. Navy 
for its officer corps. Developments such as the emphasis on joint 
warfighting, technological advances in communications, information 
sharing, and weaponry, and the asymmetric threats of the 21st century 
may require a re-examination of the responsibilities and accountability 
traditionally placed upon commanders and commanding officers.
    What is your assessment of the responsibility and accountability 
that vests in commanding officers in today's Armed Forces?
    Answer. A commanding officer, first and foremost, must assume the 
role of leader. As leader, that individual is answerable for the people 
and resources entrusted to them. To that end, the commanding officer is 
ultimately responsible for all that happens within his or her command. 
That is the essence of command, and it remains a bedrock principle of 
the U.S. military, even in the changing world of the 21st century.
    Question. Do you believe that evaluating a commander's performance 
and culpability for errors based on whether the actions taken or not 
taken would have made a difference in the outcome is an appropriate 
standard?
    Answer. I believe a commander is responsible and accountable 
whenever the commander or his or her command fails to meet relevant 
standards. The judgment whether standards have been met in a particular 
case must be based on a careful review of the facts and circumstances.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes, I do.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes, I do.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander, U.S. Southern 
Command?
    Answer. Yes, I do.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes, I do.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
              counterdrug policy--central transfer account
    1. Senator Levin. VADM Stavridis, Congress created a Central 
Transfer Account in 1998 to fund the Department of Defense's (DOD) 
counternarcotics activities. Over the last couple of years, in response 
to the Department's requests, Congress has granted permission to the 
Department to use these funds also to combat terrorism where there was 
a nexus between drugs and terrorism. I understand that as part of the 
reorganization of the policy office within the Office of the Secretary 
of Defense this fund may be moved from the policy office and that there 
may be a request to Congress to use these funds also for purely 
counterterrorist operations. Congress' intent, however, was to dedicate 
these funds to counternarcotics operations. Do you have an opinion 
regarding the need for dedicated counternarcotics funds?
    Admiral Stavridis. As I understand the current state of the 
proposed reorganizations, there will be no change to the management of 
the Department's counternarcotics Central Transfer Account or impacts 
to the Command's operations and support efforts. I feel it is important 
to have dedicated counternarcotics funds. However, I support the use of 
counternarcotics funds to attack terrorism where there is a clear nexus 
between terrorist organizations and narcotrafficking. Southern Command 
continues to receive authority from Congress to use these funds to 
support counternarcoterrorist activities in Colombia. Due to the 
significant threat demonstrated by narcoterrorist organizations within 
the region, the Central Transfer Account is a vital component and I 
intend to monitor the effectiveness and administration of this funding.

    2. Senator Levin. VADM Stavridis, if confirmed, would you look into 
the issue and report back to the committee on the likely impact to 
Southern Command operations of any potential change in the way the 
Counternarcotics Central Transfer Account is administered?
    Admiral Stavridis. Yes, I will look into the issue and report to 
the committee on the impact of any potential changes in the way the 
Counternarcotics Central Transfer Account is administered.

                                colombia
    3. Senator Levin. VADM Stavridis, President Uribe, with the help of 
the U.S. military, has made great strides in taking control of his 
country. However, all the resources we have put into the 
counternarcotics effort do not seem to have yielded much progress. 
Cultivation has increased, and kept up with eradication. Do you believe 
that the U.S. counternarcotics policy has been successful? What would 
you propose we alter, given the poor results?
    Admiral Stavridis. As I understand, U.S. counternarcotics policy is 
a balance of complementary programs such as eradication, interdiction, 
alternative development, extraditions, and demand reduction. I believe 
that no single program is a panacea, nor should we rely on any one 
metric to measure U.S. assistance to the Government of Colombia.
    I agree that Colombia has made great strides towards stability with 
U.S. assistance. The Government of Colombia has restored government 
presence to all of its municipalities; lowered violent crimes to the 
lowest levels in 18 years; reformed the judicial system; increased 
gross domestic product, foreign direct investment, and stock market 
capitalization while keeping interest rates, inflation, and 
unemployment at historical lows; negotiated the demobilization of over 
30,000 illegally armed paramilitary members of the United Self-Defense 
Forces of Colombia (AUC) and entered preliminary talks with the second 
largest insurgency group, the National Liberation Army.
    Additionally, Southern Command executes its ``Detection and 
Monitoring'' mission in support of counternarcotics activities of law 
enforcement agencies. Recent interdiction and disruption data for the 
source and transit zones indicate success with 252 metric tons of 
illegal narcotics being seized or disrupted during calendar year 2005. 
This is 252 metric tons of cocaine that will not reach its final 
destination.
    These metrics represent a remarkable turnaround from the late 
1990s. The problems facing Colombia are certainly complicated and 
although the Government of Colombia has made great progress during the 
past 6 years, our job there is incomplete.
    I believe we should continue to explore ways to increase 
efficiency, advance information sharing among nations, promote partner 
nation capability to stem the transnational flow of illicit drugs, and 
ensure DOD programs are appropriately synchronized with other agency 
efforts.

    4. Senator Levin. VADM Stavridis, I understand that the Colombian 
government's priority is to deal with the cultivation and the 
narcoterrorists, but do you believe that we ought to do more on the 
interdiction side, particularly with regard to maritime interdiction?
    Admiral Stavridis. After the change of command, I will need to 
assess the current levels of interdiction and the resources available 
to the command before offering an opinion on the interdiction efforts. 
I am aware that Southern Command has provided significant maritime 
interdiction capability, most recently with the purchase of 12 Midnight 
Express Interceptor boats to contend with the littoral threat. 
Additionally, it is my understanding that the command has also provided 
significant support to the Colombian Navy and Marine Corps to increase 
riverine capability.

    5. Senator Levin. VADM Stavridis, there are reports that the 
Colombian demobilization program is not succeeding, that paramilitaries 
are forming new armed groups, and that demobilized paramilitaries are 
infiltrating the political process. What, if anything, do you think the 
U.S. military can do to help the U.S. and Colombian governments to 
address the weaknesses of this program?
    Admiral Stavridis. The Department of State is the lead U.S. 
Government agency for the demobilization program. However, it is my 
understanding that Southern Command has provided some administrative 
support to the Revolutionary Armed Forces of Colombia (FARC) individual 
demobilization program with Civil Affairs elements. Southern Command 
has not been involved in the AUC force demobilization program, which is 
a program separate and distinct from the FARC individual demobilization 
program and assisted by the Department of State's International Law 
Enforcement--Narcotics Affairs Section.
    Since I have not been fully briefed on this program, it may be 
premature for me to recommend what type of assistance Southern Command 
could provide. I do believe that if Southern Command assistance is 
available, it would have to be carefully weighed against all prevailing 
factors and interagency concerns.

                                  cuba
    6. Senator Levin. VADM Stavridis, in May, General Craddock stated 
that he is in favor of a complete review of U.S.-Cuban relations, 
including military-to-military contacts. What is your opinion regarding 
whether the United States should have military contacts with Cuba?
    Admiral Stavridis. As previously stated, I believe that General 
Craddock was referring to the fact that we now live in a multi-polar, 
globalized world in which it would be prudent for the U.S. to reexamine 
our engagement policies throughout the world. Generally, military-to-
military engagement is valuable; however, any engagement must be 
consistent with U.S. Government law and policy. Currently, the only 
authorized military-to-military contacts in Cuba are minimal 
administrative conversations surrounding the military facility at 
Guantanamo Bay. I will need to assess the specific situation regarding 
military engagement with Cuba once I assume command.
                                 ______
                                 
            Questions Submitted by Senator Edward M. Kennedy
                          guantanamo oversight
    7. Senator Kennedy. VADM Stavridis, the riots of this past May and 
the coordinated suicides of this past June have raised concerns about 
the treatment of detainees in Guantanamo. What specific measures will 
you take at U.S. Southern Command (SOUTHCOM) to ensure that the United 
States consistently honors all of its international treaty obligations 
with respect to detainees; that detention and interrogation operations 
at Guantanamo are compliant with all applicable laws, regulations, and 
policies; and that the standards of the revised Army Field Manual are 
upheld by all DOD personnel and affiliates under your command?
    Admiral Stavridis. I will faithfully and diligently discharge my 
duties as Commander, U.S. SOUTHCOM, to the best of my ability in 
conformance with existing laws, regulations, and orders. This includes 
ensuring that the mission of Joint Task Force-Guantanamo (JTF-GTMO), a 
strategic level detention and interrogation facility in support of the 
global war on terrorism, is accomplished in accordance with U.S. law, 
the law of war, and U.S. policy. General Craddock has previously 
certified that JTF-GTMO's policies, practices, and procedures are in 
compliance with the Detainee Treatment Act of 2005 and Common Article 3 
to the Geneva Conventions of 1949. Furthermore, I understand that 
General Craddock has, in accordance with current directives, submitted 
implementing guidance to the Under Secretary of Defense for Policy and 
the Under Secretary of Defense for Intelligence for review and 
approval. Once such implementing guidance is approved, I will issue it 
to JTF-GTMO and ensure it is followed.

    8. Senator Kennedy. VADM Stavridis, what measures will you take to 
ensure proper accountability standards (as you describe them in your 
written testimony) are applied to commanding officers?
    Admiral Stavridis. As I previously testified, I believe a 
commanding officer is responsible and accountable whenever an officer 
of his or her command fails to meet relevant standards. These 
standards, which are the essence of command, are embodied in the Navy's 
Core Values--Honor, Courage, and Commitment. Very simply, all 
servicemembers, including commanding officers, should be focused on 
``doing the right thing, in the right way, for the right reasons.'' 
With this in mind, any judgment on whether standards have been met in a 
particular case must be based on a careful review of the facts and 
circumstances surrounding that particular case.

    9. Senator Kennedy. VADM Stavridis, if confirmed, would you apply 
those standards to commanders alleged to have committed wrongdoing at 
Guantanamo prior to your tenure at SOUTHCOM?
    Admiral Stavridis. I will investigate all credible allegations of 
misconduct occurring within the U.S. SOUTHCOM geographic area of 
responsibility, including Guantanamo. This includes alleged misconduct 
not previously reported or investigated that occurred prior to my 
assumption of command. Absent new information, I am not authorized, nor 
would I seek, to re-investigate or re-evaluate previously made 
findings, decisions, or determinations as to allegations of wrongdoing.
                                 ______
                                 
             Question Submitted by Senator Daniel K. Akaka
                           terrorist activity
    10. Senator Akaka. VADM Stavridis, in your testimony you asserted 
that if confirmed your number one priority as Commander of SOUTHCOM 
would be supporting the global war on terror. What evidence exists to 
suggest that the terrorist activity conducted by guerilla groups in 
South America against local and regional political leaders are 
definitively tied to international terrorist threats to U.S. national 
security?
    Admiral Stavridis. Colombia's FARC is an international terrorist 
group, recognized as such by the U.S. State Department and the European 
Union. FARC leadership has declared U.S. persons and interests as 
legitimate targets. Members of the Islamic radical group, Jama'at al-
Musilmeen, based in Trinidad and Tobago, initiated a coup there in 1990 
with the goal of establishing an Islamic state. The group remains 
active, and over the past 2 years members have issued threats against 
U.S. interests on the islands. Islamic extremists affiliated with 
Hizballah, al-Gama'at al-Islamiyya, and HAMAS are present in the 
region. Members of these organizations have been caught by local 
officials performing surveillance of U.S. facilities and doing other 
preoperational activities. Hizballah proved capable of attacks in the 
region when it conducted attacks against Jewish interests in Buenos 
Aires in the 1990s.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson
                         u.s. southern command
    11. Senator Bill Nelson. VADM Stavridis, SOUTHCOM's Miami 
headquarters are at the crossroads of Latin America, facilitating 
contact with regional political and military leadership. Why is Miami 
the best location for this headquarters (HQ)?
    Admiral Stavridis. The best location for SOUTHCOM HQs is Miami, FL, 
which provides a wide range of benefits.

         Quick access to area of operations--proximity to Miami 
        International Airport, the only U.S. airport with daily non-
        stop flights to partner nations, reduces travel costs and 
        travel time.
         Proximity to Partner Nation Consulates--Partner Nation 
        consulates are located in Miami Dade, expediting visa 
        processing and enhancing quick access to Latin America.
         Miami is considered the ``Capital of Latin America''--
        SOUTHCOM members stay culturally tied to the area of 
        responsibility. Partner nations are more likely to assign 
        quality liaison officers.
         Communications--Hispanic media has a major presence in South 
        Florida. Univision, the premier Spanish-language media company, 
        operates one of its two production facilities in Miami. Miami's 
        El Nuevo Herald is recognized as the best Spanish language 
        newspaper in the U.S. and a preferred source of information for 
        Latin Americans.

    12. Senator Bill Nelson. VADM Stavridis, what is the status of the 
Department's efforts to conclude an arrangement to modernize the HQ?
    Admiral Stavridis. The U.S. Senate Environment and Public Works 
Committee and U.S. House Transportation and Infrastructure Committee 
each passed a resolution approving the new SOUTHCOM HQs facility (IAW 
40 U.S.C. 3307). Title 10 notification to Senate and House Armed 
Services Committees is complete (IAW 10 U.S.C. 2662). To gain full 
congressional authority, the Department of the Army is seeking written 
permission to proceed from the Readiness Subcommittee of the House 
Armed Services Committee. The State of Florida, in collaboration with 
General Services Administration and DOD, is leading the procurement 
which is scheduled to conclude in a lease agreement between the State 
and GSA by 22 December 2006. The new facility is scheduled to achieve 
full operating capability by 30 March 2010.

                 revolutionary armed forces of colombia
    13. Senator Bill Nelson. VADM Stavridis, three Florida residents, 
Keith Stansell, Marc Gonsalves, and Thomas Howes, were under contract 
with the DOD when they were taken hostage by the FARC 3 years ago. What 
additional resources do you need to find and rescue these Americans?
    Admiral Stavridis. The command's highest priority in Colombia is 
the safe return of the three American hostages. Southern Command's 
efforts remain focused on assuring the safe return of these courageous 
men. As you are aware, the challenging environment in Colombia makes 
obtaining actionable intelligence extremely difficult. Additionally, 
reliable Human Intelligence sources remain a challenge. Although these 
challenges exist, if actionable intelligence is obtained, we are 
confident that appropriate recovery assets will be available to affect 
a rescue.

    14. Senator Bill Nelson. VADM Stavridis, is a prisoner exchange 
between the Colombian Government and the FARC possible?
    Admiral Stavridis. It is my understanding that a prisoner exchange 
is possible.
    The Government of Colombia has conducted a preliminary discussion 
with the FARC on how to move forward with any such proposal. Both sides 
seem willing to conduct an exchange. Currently, the Government of 
Colombia and the FARC are discussing potential sites and stipulations 
for establishing a ``Meeting Zone'' (Zona de Encuentro) for furthering 
negotiations and conducting the exchange.
    However, both sides have made stipulations to any exchange that 
complicates the situation from the U.S. Government perspective. 
President Uribe has stated that the three Americans held hostage would 
have to be included in any negotiation. The FARC has responded that the 
two senior FARC members who have been extradited to the U.S. Government 
would also have to be included in the exchange.
    There has also been discussion between both parties on approaching 
a potential third party moderator.

                                  cuba
    15. Senator Bill Nelson. VADM Stavridis, what should SOUTHCOM's 
role be in any mass migration/emergency situation in Cuba, should the 
political situation change rapidly?
    Admiral Stavridis. Southern Command's role in any mass migration/
emergency situation would be to support the Department of Homeland 
Security to interdict migrants at sea in its area of responsibility and 
assume the duties for migrant operations at Naval Base Guantanamo Bay 
or other locations in the area of responsibility when directed to do 
so.

                             venezuela/iran
    16. Senator Bill Nelson. VADM Stavridis, how extensive is the 
developing relationship between President Chavez of Venezuela and the 
leader of Iran?
    Admiral Stavridis. Venezuela's President Chavez traveled to Iran on 
July 21, 2006, and Iran's President Ahmadinejad visited Caracas for the 
first time on September 17, 2006. It is my understanding that this was 
the 10th visit between high-level Venezuelan and Iranian officials in 
the last 2 years. Chavez and Ahmadinejad's relationship will continue 
to strengthen, with Iran supporting Venezuela's bid for the United 
Nations Security Council seat, Venezuela supporting freedom for Iran to 
act in the field of nuclear energy, and both nations expanding 
bilateral economic agreements beyond the current U.S. $11 billion 
estimate. Both leaders will continue to seek to legitimize their 
radical agendas and to build worldwide alliances to counter U.S. 
interests.

    17. Senator Bill Nelson. VADM Stavridis, are you seeing cooperation 
in the nuclear area? Are they cooperating on any other military issues?
    Admiral Stavridis. [Deleted.]

                                 haiti
    18. Senator Bill Nelson. VADM Stavridis, can you give me your 
evaluation of the effectiveness of the peacekeeping forces in Haiti? 
Are there enough? Are they improving?
    Admiral Stavridis. From my initial observation, the Commander of 
the United Nations Stabilization Mission in Haiti (MINUSTAH) forces, 
Lieutenant General Elito of Brazil, has provided capable and effective 
leadership. Under his direction, MINUSTAH has increased its 
effectiveness by deploying additional troops around Port-au-Prince to 
address the violence there. The new United Nations Security Resolution 
passed on August 15, 2006, calls for the reduction of military forces 
from 7,500 to 7,200 but increases the United Nations Police (UNPOL) 
authorized strength from 1,897 to 1,951. This is part of the United 
Nations' plan to slowly strengthen the Haitian National Police (HNP) 
while also strengthening the mentorship offered by the UNPOL. The 
MINUSTAH troop level will remain roughly consistent until the HNP is 
able to begin effective policing of both the civilian population and 
itself
    This effort, coupled with increased UNPOL and the ever increasing 
cadre of HNP is enough force for the present time. Once the HNP is 
adequately manned and trained, improvements to the HNP will be evident 
with increased arrests of criminals, reduced crime and corruption, and 
increased business activities.
                                 ______
                                 
    [The nomination reference of VADM James G. Stavridis, USN, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                       May 4, 2006.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Navy to the grade indicated while assigned to a position of importance 
and responsibility under title 10, U.S.C., section 601:

                             To be Admiral

    VADM James G. Stavridis, 0000.
                                 ______
                                 
    [The biographical sketch of VADM James G. Stavridis, USN, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
                 Resume of VADM James G. Stavridis, USN


15 Feb 1955                                 Born in West Palm Beach,
                                             Florida
01 Jun 1976                                 Ensign
02 Jun 1978                                 Lieutenant (junior grade)
01 Jul 1980                                 Lieutenant
01 Oct 1984                                 Lieutenant Commander
01 Nov 1990                                 Commander
01 Jun 1997                                 Captain
08 Jan 2001                                 Designated Rear Admiral
                                             (lower half) while serving
                                             in billets commensurate
                                             with that grade
01 Mar 2002                                 Rear Admiral (lower half)
01 Jan 2005                                 Rear Admiral
01 Sep 2004                                 Vice Admiral, Service
                                             continuous to date

Assignments and duties:

------------------------------------------------------------------------
                                         From                 To
------------------------------------------------------------------------
U.S. Naval Academy (Instructor).  Jun 1976..........  Aug 1976
Naval Amphibious Base, Coronado,  Aug 1976..........  May 1977
 San Diego, CA (DUINS).
Service School Command, Naval     May 1977..........  Jun 1977
 Training Center, Great Lakes,
 IL (DUINS).
U.S.S. Hewitt (DD 966) (Anti-     Jul 1977..........  Apr 1979
 Submarine Warfare Officer).
Surface Warfare Officers School   Apr 1979..........  Aug 1979
 Command Newport, RI (DUINS).
U.S.S. Forrestal (CV 59)          Aug 1979..........  Mar 1981
 (Electrical Officer).
Office of the CNO (Strategic      Mar 1981..........  Aug 1981
 Concepts Group) (OP-603).
Tufts University (Student)......  Aug 1981..........  Oct 1983
Surface Warfare Officers School   Oct. 1983.........  May 1984
 Command Newport, RI (DUINS).
Combat Systems Engineering        May 1984..........  Sep 1984
 Development Site, Moorestown,
 NJ (DUINS).
U.S.S. Valley Forge (CG 50)       Oct. 1984.........  Aug. 1987
 (Operations Officer).
Office of the CNO (Assistant for  Sep 1987..........  Jul 1989
 Long Range Requirements).
Surface Warfare Officers School   Jul 1989..........  Oct 1989
 Command Newport, RI (DUINS).
XO, U.S.S. Antietam (CG 54).....  Oct 1989..........  Jul 1991
National War College (Student)..  Jul 1991..........  Jul 1992
Office of the Secretary of the    Jul 1992..........  Mar 1993
 Navy (Special Assistant and
 Speechwriter).
Ships Material Readiness Group,   Mar 1993..........  Jun 1993
 Newport, RI (DUINS).
CO, U.S.S. Barry (DDG 52).......  Jun 1993..........  Dec 1995
Joint Staff (Branch Chief, Force  Dec 1995..........  Nov 1997
 Policy Branch) (J5).
Commander, Destroyer Squadron     Nov 1997..........  Dec 1998
 Two One.
Office of the Secretary of the    Jan 1999..........  Mar 2001
 Navy (Executive Assistant).
Office of the CNO (Deputy         Mar 2001..........  Jan 2002
 Director for Requirements
 Assessment, N81D/Director, CINC
 Liaison Division, N83).
Office of the CNO (Director,      Jan 2002..........  Aug 2002
 Naval Operations Group).
Commander, Cruiser Destroyer      Aug 2002..........  Jul 2004
 Group Twelve.
Office of the Secretary of        Jul 2004..........  To Date
 Defense (Senior Military
 Assistant to the Secretary of
 Defense).
------------------------------------------------------------------------


Medals and awards:
    Defense Superior Service Medal
    Legion of Merit with four Gold Stars
    Meritorious Service Medal with two Gold Stars
    Navy and Marine Corps Commendation Medal with three Gold Stars
    Navy and Marine Corps Achievement Medal
    Joint Meritorious Unit Award with Bronze Oak Leaf Cluster
    Navy Unit Commendation
    Meritorious Unit Commendation
    Navy ``E'' Ribbon with ``E'' Device
    Navy Expeditionary Medal
    National Defense Service Medal with one Bronze Star
    Armed Forces Expeditionary Medal with two Bronze Stars
    Southwest Asia Service Medal with one Bronze Star
    Global War on Terrorism Expeditionary Medal
    Global War on Terrorism Service Medal
    Armed Forces Services Medal with two Bronze Stars
    Sea Service Deployment Ribbon with three Bronze Stars
    NATO Medal
    Kuwait Liberation Medal (Kingdom of Saudi Arabia)
    Kuwait Liberation (Kuwait)
    Expert Rifleman Medal
    Expert Pistol Shot Medal

Special qualifications:
    BS (English) U.S. Naval Academy, 1976
    Designated Surface Warfare Officer, 1978
    Ph.D. (Foreign Affairs) Tufts University, 1984
    Graduate of Naval War College, 1985
    Graduate of National War College, 1992
    Designated Joint Specialty Officer, 1999

Personal data:
    Wife:
      Laura Elizabeth Hall of Ann Arbor, Michigan.
    Children:
      Christina A. Stavridis (Daughter), Born: 20 August 1985.
      Julia E. Stavridis (Daughter), Born: 14 February 1991.

Summary of joint duty assignments:

------------------------------------------------------------------------
           Assignment                    Dates               Rank
------------------------------------------------------------------------
Joint Staff (Branch Chief, Force  Dec 95-Dec 97.....  CDR/CAPT
 Policy Branch) (J5).
Office of the Secretary of        Jul 04-To date....  VADM
 Defense (Senior Military
 Assistant to the Secretary of
 Defense).
------------------------------------------------------------------------

                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by VADM James G. 
Stavridis, USN, in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    VADM James G. Stavridis, USN.

    2. Position to which nominated:
    Commander, United States Southern Command.

    3. Date of nomination:
    24 April 2006.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    15 February 1955; West Palm Beach, Florida.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Laura Elizabeth Stavridis (maiden name: Hall).

    7. Names and ages of children:
    Christina, 20.
    Julia, 15.

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed above.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    U.S. Naval Institute, Surface Navy Association.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognition's for 
outstanding service or achievements other than those listed on the 
service record extract provided to the committee by the executive 
branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.

                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                James G. Stavridis.
    This 2nd day of May, 2006.

    [The nomination of VADM James G. Stavridis, USN, was 
reported to the Senate by Chairman Warner on September 28, 
2006, with the recommendation that the nomination be confirmed. 
The nomination was confirmed by the Senate on September 29, 
2006.]
                              ----------                              

    [Prepared questions submitted to Nelson M. Ford by Chairman 
Warner prior to the hearing with answers supplied follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense (DOD) 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and the chain of command by clearly 
delineating the combatant commanders' responsibilities and authorities 
and the role of the Chairman of the Joint Chiefs of Staff. These 
reforms have also vastly improved cooperation between the Services and 
the combatant commanders, among other things, in joint training and 
education and in the execution of military operations.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. The Goldwater-Nichols Act changed DOD operations profoundly 
and positively. Although I believe that the framework established by 
Goldwater-Nichols has significantly improved inter-service and joint 
relationships and promoted the effective execution of responsibilities, 
the Department, working with Congress, should continually assess the 
law in light of improving capabilities, evolving threats, and changing 
organizational dynamics. Although I am not currently aware of any 
specific proposals to amend Goldwater-Nichols, I will, if confirmed, 
have the opportunity to evaluate those proposals that might come before 
us.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. This milestone legislation is now 20 years old and has 
served the Nation well. It may be appropriate to consider whether it 
addresses the current requirements of combatant commanders and the 
needs and challenges of the military departments in light of today's 
security environment. If Congress believes that a review is required 
and if I am confirmed, I would be pleased to take part in such a 
review.
duties of the assistant secretary of the army for financial management 
                            and comptroller
    Question. As set forth in section 3016(b)(4) and 3022 of title 10, 
U.S.C., the Assistant Secretary of the Army for Financial Management 
and Comptroller (ASA(FM&C)) has the principal responsibility for the 
exercise of the comptroller functions of the Department of the Army and 
shall direct and manage financial management activities and operations 
of the Department of the Army.
    What is your understanding of the duties and functions of the 
ASA(FM&C)?
    Answer. If confirmed, I will be responsible for advising the 
Secretary of the Army on financial matters and directing all 
Comptroller and Financial Management functions of the Department of the 
Army.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have spent the last 30 years in a wide variety of 
financial management positions and currently serve as the Principal 
Deputy ASA(FM&C). Previously, I was the Deputy Assistant Secretary of 
Defense for Health Budgets and Financial Management, where I was 
responsible for the financial performance of the Defense Health Program 
and Tricare. I have more than 10 years of executive branch experience 
in Department of Health, Education and Welfare, the Office of 
Management and Budget, the Department of Health and Human Services, and 
the DOD. Earlier in my career, I was the Chief Executive Officer of a 
privately held medical manufacturing company, the Chief Financial 
Officer and Chief Operating Officer of Georgetown University Medical 
Center, and a partner in Coopers & Lybrand, a public accounting firm. I 
have served on the finance committees or as treasurer of a number of 
not-for-profit organizations, including AcademyHealth, the McLean 
Little League, Westminster-Canterbury of Winchester, and the Hospice of 
Northern Virginia. I am familiar with the fiduciary responsibilities of 
Federal officials, particularly those that are applicable to Army 
personnel, and feel confident that I can meet those high standards.
    Question. Do you believe that there are any actions that you need 
to take to enhance your ability to perform the duties of the ASA(FM&C)?
    Answer. Any new position presents new challenges and opportunities 
for learning. Because my current role has focused on improving internal 
controls and program costing methodologies, I will need to become more 
familiar with Army programming and budgeting procedures. I also will 
need to strengthen my relationships with other senior leaders and staff 
in the executive and legislative branches.
                             relationships
    Question. What is your understanding of the relationship between 
the ASA(FM&C) and each of the following?
    The Secretary of the Army.
    Answer. The roles and responsibilities of the ASA(FM&C) are laid 
out in sections 3016(b)(4) and 3022 of title 10, U.S.C., and 
Headquarters, Department of the Army General Order 3. As the principal 
advisor to the Secretary of the Army on financial matters, the 
ASA(FM&C) directs the comptroller and financial management functions of 
the Department of the Army.
    Question. The Under Secretary of the Army.
    Answer. The Under Secretary of the Army is the Secretary's 
principal civilian assistant and senior civilian advisor. I will strive 
to maintain a cooperative and open relationship with the Under 
Secretary and keep him apprised of significant issues.
    Question. The other Assistant Secretaries of the Army.
    Answer. My relationship with the other Assistant Secretaries would 
support my responsibility to advise the Secretary of the Army on 
financial matters and to direct all comptroller and financial 
management functions and activities of the Department of the Army. The 
Assistant Secretaries work together to bring a civilian perspective to 
Army management and program planning and, in conjunction with the Army 
staff, support the Army leadership in the discharge of its duties.
    Question. The General Counsel of the Army.
    Answer. I would consult and coordinate with the General Counsel on 
all legal matters and financial management and comptroller issues 
requiring legal review.
    Question. The Under Secretary of Defense (Comptroller).
    Answer. If confirmed, I would work closely with the Under Secretary 
of Defense (Comptroller) to ensure that Army financial management and 
comptroller policies dovetail with those of the Office of the Under 
Secretary of Defense (Comptroller).
    Question. The Assistant Secretary of Defense for Networks and 
Information Integration/Chief Information Officer.
    Answer. Financial management systems are critical to enabling the 
Army to perform accurate, timely financial management, and are crucial 
to achieving auditable financial statements. The Army's financial 
managers are working with the Office of the Secretary of Defense (OSD) 
staff, including the Chief Information Officer, to ensure that all 
financial management systems and other Army systems that feed 
information to them meet all relevant OSD standards and milestones 
during their planning and implementation.
    Question. The Director, Office of Program Analysis and Evaluation.
    Answer. If confirmed, I would support the Director, Office of 
Program Analysis and Evaluation (PA&E), in fulfilling his or her role 
of providing independent assessments of Army program alternatives and 
priorities. I also would work with the Director, PA&E, to ensure the 
success of the planning, programming, budgeting, and execution process.
    Question. The Chief of Staff of the Army.
    Answer. If confirmed, I would work closely with the Chief of Staff 
of the Army and the rest of the Army staff to ensure that resourcing 
and financial management decisions support the Army's operational and 
strategic objectives.
    Question. The Assistant Secretaries for Financial Management of the 
Navy and Air Force.
    Answer. If confirmed, I would work with the Navy and Air Force 
Assistant Secretaries for Financial Management to serve as advisors and 
liaisons to the Office of the Under Secretary of Defense (Comptroller) 
and to develop suggestions for more effective and efficient joint 
operations.
                            major challenges
    Question. In your view, what are the major challenges that will 
confront the ASA(FM&C)?
    Answer. I believe that, if confirmed as the ASA(FM&C), I will face 
multiple challenges. In the near-term, the ASA(FM&C) must obtain 
funding sufficient to prosecute the global war on terrorism while 
simultaneously improving and maintaining the readiness of the Army--
Active, Guard, and Reserve. The Army greatly appreciates the strong 
congressional support in providing the necessary resources but the 
unpredictability inherent in supplemental appropriations can create 
inefficiencies in the resource allocation process. Longer-term, the 
challenge will be to improve financial management processes to foster 
more efficient operations and to achieve an auditable financial 
statement. The Army must meet its responsibility to the taxpayers to 
account for the resources that have been provided to support its 
mission.
    Question. Assuming you are confirmed, what plans do you have to 
address these challenges?
    Answer. Central to addressing the near-term challenge of 
predictable and timely funding for both the global war on terrorism and 
the Army's base mission is providing clear and concise explanations of 
those challenges to the Office of the Under Secretary of Defense 
(Comptroller), the Office of Management and Budget, and Congress. 
Further, the Army must encourage, in particular, accelerated submission 
of supplemental budgets for the global war on terrorism. While the war 
continues to be dynamic and unpredictable, there are many aspects of 
the Army's wartime mission that we can now forecast with some degree of 
certainty. With regard to improving our financial stewardship and 
eventually obtaining auditable financial statements, the Army must 
continue development and deployment of the General Funds Enterprise 
Business System (GFEBS) and ensure that its business processes are 
streamlined to take advantage of GFEBS' capabilities. Success will 
require the continued involvement of the Army's senior leaders, both 
military and civilian, and adoption of a more business-like culture.
                               priorities
    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the ASA(FM&C)?
    Answer. If confirmed, I would revalidate the current priorities for 
preparation of auditable financial statements, preparation of fully 
justified budget submissions, and implementation of more efficient 
financial management systems compliant with joint DOD architectures. I 
also would work to strengthen cost management and cost controls as part 
of the Army culture and to improve cost estimating for procurement and 
program planning. Finally, I would expend every effort to ensure that 
adequate funds are available to support our Army to fight and win the 
global war on terrorism and to take care of soldiers and their 
families.
         civilian and military roles in the army budget process
    Question. What is your understanding of the division of 
responsibility between the ASA(FM&C) and the senior military officer 
responsible for budget matters in the Army Financial Management and 
Comptroller office in making program and budget decisions, including 
the preparation of the Army Program Objective Memorandum (POM), the 
annual budget submission, and the Future Years Defense Program (FYDP)?
    Answer. If confirmed as the ASA(FM&C), I would hold responsibility 
for all budget matters within the Department of the Army. The Military 
Deputy to the ASA(FM&C) would serve under my direct supervision. 
Additionally, if confirmed, I would have formal oversight 
responsibility for all financial aspects of POM preparation, the Army's 
portions of the annual President's budget submission, and all Army 
entries in the FYDP.
               supplemental funding and annual budgeting
    Question. Since September 11, 2001, the DOD has paid for much of 
the cost of the global war on terrorism through supplemental 
appropriations. These costs, coupled with the Army's costs of 
transforming and modularizing, have grown every year. Increasingly, the 
reliance on emergency supplemental appropriations as a source for 
funding, rather than the annual budget, has met with opposition.
    What are your views regarding the use of supplemental 
appropriations to fund what can be classified as predictable costs 
associated with ongoing operations?
    Answer. I believe it is appropriate to address contingency 
operation costs within the annual defense budget, if those costs can be 
predicted accurately. Because the annual budget is prepared about a 
year before appropriations are available, in most instances an 
operation needs to have achieved some level of stability before the 
resource requirements can be included in the budget process. In the 
case of current military operations in Iraq and Afghanistan, there are 
some areas where the costs have been reasonably stable and other cases 
with much greater variation. Given that the Army faces an intelligent 
and adaptive enemy in a dynamic operational and security environment, 
everyone involved must make sure that the budget process retains enough 
flexibility to respond to the battlefield's changing conditions.
    Question. In your opinion, should modernization programs under any 
circumstances be funded using supplemental or emergency appropriations?
    Answer. In those instances where modernization is required to meet 
current readiness shortfalls, it is appropriate to use supplemental or 
emergency appropriations to adapt or accelerate ongoing modernization 
programs. In addition, supplemental or emergency appropriations should 
be used to cover battle losses and procurement of force protection 
equipment, even when that occurs through a modernization program.
                       army reprogramming actions
    Question. For the past 2 years, as the end of the fiscal year has 
approached, the Army has sought to reprogram billions of dollars in 
order to pay end-of-year bills, particularly personnel costs. The 
sources for these reprogramming requests in many instances have 
involved borrowing from future year budgets in order to pay today's 
bills.
    What is your view of a budgetary approach that relies on future 
year funds to pay current year bills?
    Answer. It is unwise to use future year funds (usually set aside 
for procurement or research and development) for current year 
operations. However, the fiscal demands placed on the Army over the 
last 2 years have required an unprecedented use of reprogramming, which 
offered the only option for meeting these demands. For example, 
personnel costs have proven to be very dynamic and they are a must-pay 
requirement. Furthermore, the global war on terrorism-generated 
operational tempo of the last several years has created some ``color-
of-money'' mismatches that must be balanced before the fiscal year 
ends.
    Generally, I do not consider the reprogramming process to be a 
budgetary approach, but rather a means to accommodate changing 
priorities and emerging requirements within a given fiscal year.
    Question. If confirmed, what management changes would you implement 
or recommend to the Secretary of the Army to correct this budgetary 
practice?
    Answer. The Army has made substantial improvements in its ability 
to predict personnel costs. To ensure that estimates are as accurate as 
possible, we are instituting a more vigorous review of the personnel 
accounts and assumptions made to build them before submitting those 
figures to OSD and the Office of Management and Budget (OMB). To 
facilitate getting the right amount of military personnel funding, it 
is incumbent upon the Army to advise congressional committees of any 
changes in the assumptions that might have a significant impact on the 
Army's budget estimates. I also would recommend to the Secretary that 
the Army pursue whatever means necessary to ensure that must-fund 
requirements, especially for personnel, are fully accommodated within 
the Army's annual base budget.
                   information access by cbo and gao
    Question. The cost of current operations in Iraq and Afghanistan 
has more than doubled over the past 2 years. The Army has refused 
requests by the Congressional Budget Office (CBO) and the Government 
Accountability Office (GAO) to share its modeling assumptions and 
programs.
    If confirmed, would you be willing to share with agencies such as 
the CBO and the GAO information about how the Army estimates its 
ongoing war costs, including modeling assumptions and programs?
    Answer. I am not aware of any instance in which the Army has 
refused to share the assumptions used to develop estimates of ongoing 
war costs. The model itself--the Contingency Operations Support Tool--
is not an Army model, but is managed by the OSD and used by all 
military departments and the Joint Staff.
                financial management and accountability
    Question. DOD's financial management deficiencies have been the 
subject of many audit reports over the past 10 or more years. Despite 
numerous strategies and inefficiencies, problems with financial 
management and data continue.
    What do you consider to be the top financial management issues that 
must be addressed by the Department of the Army over the next 5 years?
    Answer. I believe the Department of the Army must improve pay 
services to soldiers, and improve financial management systems and 
processes. There are only two metrics for soldier pay: paying soldiers 
the right amount and paying them on time. This has proven challenging 
for an Army at war. The Army has, however, worked through the 
challenges and, through successful collaborations with the GAO and 
Congress, solved many of them. For example, the Army improved delivery 
of pay services to wounded soldiers and successfully implemented 
legislative changes to waive or remit certain types of debt previously 
collected from wounded soldiers.
    The Army must have financial management systems that provide 
accurate, timely, and reliable information that enables sound business 
decisions regarding the allocation of resources during the year of 
execution and over the program years. To accomplish this, the Army must 
replace inefficient, nonintegrated systems and processes with modern 
solutions and best practices that fit within the DOD Business 
Enterprise Architecture. The Army must also instill a strong system of 
management controls to ensure that the information provided by 
financial statements is reliable.
    Question. If confirmed, how would you plan to ensure that progress 
is made toward improved financial management in the Army?
    Answer. I will continue to work closely with the Army leadership, 
the Under Secretary of Defense (Comptroller), and the Defense Finance 
and Accounting Service to improve our financial management practices. 
The Army has made significant contributions to the Department's 
Financial Improvement and Audit Readiness plan. This plan provides a 
detailed, disciplined roadmap to sustainable improvements in financial 
management practices, which ultimately will enable the Army to produce 
accurate financial statements. I will work to ensure that funds are 
made available to pay for these improvement initiatives because, 
without resources, these objectives cannot be achieved.
    Question. If confirmed, what private business practices, if any, 
would you advocate for adoption by the DOD and the Department of the 
Army?
    Answer. There are many private business practices that could be 
valuable in improving the Army's effectiveness and efficiency. One 
embraced by the Secretary of the Army is ``Lean Six Sigma,'' a 
structured business process reengineering designed to generate specific 
financial savings and better outcomes. Another example that holds 
significant potential for the Army is the adoption of commercially 
available software products and associated business practices. For 
instance, the Army's GFEBS initiative is based on commercial off-the-
shelf software. GFEBS will enable the Army to manage financial 
resources, both assets and funding, as an enterprise instead of as a 
conglomeration of disparate activities.
    Question. What are the most important performance measurements you 
would use, if confirmed, to evaluate changes in the Army's financial 
operations to determine if its plans and initiatives are being 
implemented as intended and anticipated results are being achieved?
    Answer. Key performance measures would include production of 
timely, relevant, and accurate financial information; timely and 
accurate pay for soldiers; and continued use of metrics established in 
the President's Management Agenda.
                    budget justification information
    Question. If confirmed, what changes, if any, do you intend to 
initiate to improve the timeliness and accuracy of the budget 
justification books provided to Congress by the Army?
    Answer. The Army has made great strides in improving timeliness and 
accuracy of the Budget Justification Books by initiating the budget 
cycle earlier and by extending coordination actions across the entire 
Army staff (and frequently with Army commands, Army service component 
commands, and Army direct reporting units). These changes already have 
helped the Army to prepare two budgets concurrently, the base budget 
and the supplemental, with the same staffing. Despite some current 
funding challenges, I would continue to oversee, assess, and revise, as 
necessary, the Army's methodology in order to improve further accuracy 
and timeliness. For instance, the Army may be losing precious staff 
time in preparing documents of marginal use. I would propose, working 
through OSD(C), that the Army streamline the amount of data provided so 
that exhibits can be submitted more promptly to the committees. 
Additional information, including specific documentation required by 
the committees, could be provided as needed at a later date.
                  travel and government purchase cards
    Question. The increased use of government travel and purchase cards 
within the Department came about as a result of significant financial 
and acquisition reform initiatives over the past decade. Following 
numerous well publicized instances of abuse of travel and purchase 
cards, however, concerns have arisen about the adequacy of internal 
controls in place for both the travel and purchase cards.
    What is the status of Army efforts to ensure that proper internal 
controls exist and that availability of the cards does not enable 
fraud, waste, and abuse?
    Answer. The Army currently has about 331,000 active individual 
travel cards, which are held by soldiers and civilian employees. This 
represents a 30-percent decrease in the number of travel cards held by 
individuals, and reduces the Army's exposure to fraud, waste, and 
abuse. The Army monitors travel card use, and closes accounts that have 
not been used in the past 12 months. The Army also monitors travel card 
delinquency metrics on a monthly basis, focusing on the delinquent 
dollar amount and the number of delinquent accounts. Currently, about 
1.5 percent of the Army's travel card accounts are delinquent, which 
compares quite favorably to the industry travel card standard of 6.1 
percent.
    The Army's government purchase card program is managed by the 
Assistant Secretary for Acquisition, Logistics, and Technology. The 
Army has nearly 56,000 purchase cards with monthly transactions of 
nearly $300 million. During fiscal year 2005, the program generated 
$25.5 million in rebates to the Army. The ASA(FM&C) is responsible for 
ensuring that proper controls are in place to mitigate the risk of 
waste, fraud, and abuse. These controls include ensuring at least a 
one-to-seven ratio of approving officials to card holders; the Army's 
current ratio is one approving official for every 2.4 cards assigned. 
In addition, the Army has worked with DOD and the bank to review 
purchase data and to identify high-risk transactions. ASA(FM&C) also 
routinely monitors purchases against merchant category codes assigned 
by the bank to check for propriety.
                     business transformation agency
    Question. The Department recently established the Business 
Transformation Agency (BTA) to strengthen management of its business 
systems modernization effort.
    What is your understanding of the mission of this agency?
    Answer. The Deputy Secretary of Defense established the Defense BTA 
in October 2005 in order to ensure consistency, consolidation, and 
coordination of DOD enterprise-level business systems; and to reduce 
redundancies in business systems and overhead costs. The BTA's mission 
is to transform business operations in order to augment warfighter 
support while enabling financial accountability and improving 
investment governance across the DOD.
    Question. What role does the BTA play in the financial management 
of the Department of the Army?
    Answer. The BTA's Enterprise Transition Plan and its Business 
Enterprise Architecture are helping to steer development and fielding 
of all of the Army's major business system implementations, including 
the GFEBS, the Defense Integrated Military Human Resources System 
(DIMHRS), and others. For example, GFEBS will consolidate several 
accounting and financial management systems, giving Army and Defense 
Department officials a holistic view of how money is disbursed. It will 
feed vital, up-to-the-minute information to senior civilians and Army 
leadership, providing top-tier Army and DOD leaders with the timely, 
accurate data needed to make sound business decisions in support of the 
warfighter. It will facilitate congressional oversight and give 
taxpayers the level of financial accountability they expect from the 
Army. ASA(FM&C) works constantly and effectively with the BTA to make 
sure that all Army systems meet the standards set by DOD.
    Question. What benefits, if any, does the establishment of the BTA 
have for the Department of the Army?
    Answer. The BTA provides the DOD a ``unity of command'' and an 
integrated ``unity of effort'' for transforming its business domains. 
The Army has established effective working relationships with that 
office and its staff.
                           army pay problems
    Question. The GAO has reported on extensive problems with the 
National Guard's and Reserve's pay system. Modernizing the military 
payroll system is part of the longer-term Business Management 
Modernization Program (BMMP); however, it is essential that corrections 
be made immediately in this system to minimize personal hardships on 
deployed guardsmen, reservists, and their families.
    If confirmed, what would you do to address these pay problems in 
both the short- and long-term?
    Answer. Timely, accurate pay for soldiers, particularly those 
mobilized or deployed, is one of the highest priorities for the Army's 
leadership and for me in my current position. The Army already has made 
tremendous improvements in pay support for mobilized and deployed 
soldiers since the inception of current operations. While true 
integration of pay and personnel functions into a single, modern system 
is the objective state the Army needs to achieve (Army implementation 
of DIMHRS is scheduled for fiscal year 2008), there has been and 
continues to be much that the Army can do in the interim. The Army has 
implemented numerous near-term actions to increase training, to 
streamline processes, to expand or to stabilize staffing, and to 
improve accountability. Starting in late 2003, the Army initiated an 
88-item soldier pay improvement action plan for the purpose of 
improving pay and travel reimbursement support to mobilized soldiers. 
To date, 70 of those actions have been implemented, leaving only 3 open 
items that are not tied to longer-term system solutions.
    Over the past year, the Army also significantly improved pay 
services for wounded soldiers. In less than a year, the Army reviewed, 
and when needed, corrected the pay accounts of more than 60,000 
soldiers who, since September 2001, were wounded or experienced medical 
problems while deployed. Additionally, the Army installed processes to 
preclude problems in the future. The support of Congress has been 
critical, particularly regarding the introduction of new legislation 
that supports wounded soldiers. If confirmed, I intend to continue to 
work for near-term improvements in training, procedures, and current 
systems, while simultaneously working towards the longer-term goal of 
an integrated, modern personnel/pay system.
           defense integrated military human resources system
    Question. For several years, the Department has been working on the 
DIMHRS, an integrated joint military personnel and pay system for all 
the military Services, as a means to eliminate obsolete legacy payroll 
and personnel management systems. The Army is the first Service that 
has begun to implement DIMHRS. The committee has been informed that the 
DIMHRS program is underfunded in both fiscal years 2007 and 2008.
    What is the role of the ASA(FM&C) with respect to DIMHRS?
    Answer. Although the Army Deputy Chief of Staff, G-1 has the lead 
for DIMHRS implementation, the ASA(FM&C) provides critical support to 
the Army's human resources community in the system's development and 
fielding. This support includes requirements determination and 
validation, development of test scenarios and associated metrics, and 
training tactical finance units on DIMHRS operations. The financial 
management community also is supporting the human resources community 
in the reengineering of current personnel and pay processes in order to 
align them in a manner that will optimize the capabilities of an 
integrated, commercial personnel and pay enterprise system.
    Question. What is your understanding of the Army's requirement for 
DIMHRS and its alternatives if DIMHRS is not successfully implemented?
    Answer. From a very basic level, the Army requires an integrated 
personnel and payroll system that will eliminate the dozens of 
disparate, stand-alone systems in operation today and that will enhance 
the Army's ability to pay soldiers correctly and on time. Although the 
Army has made improvements in soldier pay performance, additional 
improvement is needed. As personnel information is vital to the payroll 
process, this additional improvement will not be achieved until the 
personnel and payroll processes are integrated. Several alternatives 
have been studied, including improving status quo systems and processes 
and developing a government-unique personnel and payroll system. 
Evaluation of these alternatives determined that DIMHRS presents the 
best opportunity for the Army.
    Question. What are your views regarding the pros and cons of DIMHRS 
implementation into the Army?
    Answer. Implementation of an enterprise-wide system on the scope 
and scale of DIMHRS always entails significant risk. The success rate 
of these endeavors in both industry and government is, at best, very 
modest. I believe, however, that the Army and DOD have implemented a 
governance structure that is capable of managing the risk and that 
offers a solid opportunity to successfully deploy DIMHRS.
    Question. If confirmed, what, if anything, would you do to ensure 
adequate resources are provided for DIMHRS implementation?
    Answer. We are working with the Army's human resources community to 
ensure that the proper performance metrics and milestones are 
established and that a robust oversight process is in place to manage 
effectively the development and deployment of DIMHRS. I currently am 
working to ensure that adequate resources (human capital and funding) 
are made available to the DIMHRS effort, with the proviso that DIMHRS 
development and deployment meets key milestones.
                          inventory management
    Question. Do you believe that the Army has adequate information 
about and controls over its inventory?
    Answer. I am aware that the Army's inventory management controls 
need to be improved.
    Question. If not, what steps would you take, if confirmed, to 
improve inventory management?
    Answer. The Army is taking necessary actions now to improve the 
financial accounting and reporting of its inventories. For example, the 
Army is working extensively with the Office of the Secretary of Defense 
(Acquisition, Technology, and Logistics) to establish the baseline 
value of the Army's 391 military equipment programs. This work is vital 
to the Army's ability to positively address financial statement 
assertions regarding the existence, completeness, and valuation of 
military equipment inventories. For its $22 billion of capitalized real 
property assets, the Army is developing sustainable business processes 
designed to establish in financial records the value and condition of 
all real property. These efforts are starting to obtain results. The 
Army has successfully captured the financial accountability of 
equipment provided to contractors, as well as internal-use software, on 
its financial statements. In addition to these efforts, the Army is 
participating in the DOD-led initiative to implement unique identifier 
technology which will enhance visibility and accountability of its 
inventories. ASA(FM&C) has worked with the appropriate DOD and Army 
organizations to document 330 tasks in the Financial Improvement and 
Audit Readiness Plan that must be accomplished in order to provide 
adequate information regarding inventories.
               business management modernization program
    Question. For the past several years, the administration has 
pursued a BMMP aimed, in part, at correcting deficiencies in the DOD's 
financial management and ability to receive an unqualified ``clean'' 
audit. What is the role of the Army Comptroller in the business 
modernization effort?
    Answer. The Army Comptroller has been a leader within DOD in 
embracing BTA guidance, both in terms of adopting business practices 
that conform to the Business Enterprise Architecture (BEA) and 
providing feedback as to their efficacy. The Single Army Financial 
Enterprise architecture explicitly aligns its operational activities 
with those of the BEA. Moreover, the Army's core financial management 
modernization program, the GFEBS, adopted early BEA-initiated data 
standardization initiatives, such as the Standard Financial Information 
Structure and Real Property Inventory Requirements.
    Question. Do you support continuing the BMMP?
    Answer. Over the past few years, the Department has worked to 
coordinate modernization efforts across the DOD enterprise. These 
initiatives will address deficiencies in financial management, 
implement leading commercial business practices, and help the Army to 
achieve a clean audit opinion. Central to these coordination efforts is 
the work of the BMMP and its successors, the BTA and the Department's 
BEA initiatives. The BTA and BEA have a realistic potential for 
orchestrating transformation of business operations across the 
Department and could be key agents of organizational change. To be 
effective, however, the BTA's federated approach to modernization will 
need more clarity and the service components, component domains, and 
program offices will require more specific direction regarding how to 
work together to achieve synchronized modernization.
    Question. The BMMP advocates top-down leadership in establishing 
enterprise architecture for business systems modernization. The 
Services, however, appear to be pursuing independent pilot programs for 
modernizing business systems, despite the risk that a Service-led 
approach could produce numerous incompatible systems.
    Do you support an OSD-led approach to business modernization?
    Answer. It is reasonable for an enterprise modernization effort to 
be led by the enterprise. Of course, with an organization as large and 
complex as the DOD, some measure of sub-organizational flexibility is 
important to success. The Department's coordinated business 
modernization approach recognizes the value of providing the Service 
components the flexibility they need to fulfill their missions within 
an overall framework that ensures interoperability within a defined set 
of standards.
    Question. If so, what would you do, if confirmed, to ensure that 
the Army supports such an approach?
    Answer. If confirmed, I will continue to work to build a support 
structure for collaborative modernization. Under my direction, the Army 
would continue its active participation in DOD's modernization efforts 
and would provide regular feedback regarding its design. Moreover, the 
Army would align its operations with the BEA and execute its mission 
within the bounds of DOD modernization guidance.
    Question. A critical requirement of the BMMP is an ``enterprise 
architecture'' that would establish standards and requirements for 
modernization or new acquisition of business information technology 
systems.
    Why is establishing an effective enterprise architecture so 
important?
    Answer. Enterprise architecture provides a vision for 
modernization. Much as a building's architecture supplies structural, 
electrical, mechanical, and aesthetic perspectives, enterprise 
architecture provides a range of integrated vantage points regarding an 
organization's design, for today and tomorrow. Without it, our systems 
and processes will be fragmented, reactive, and inefficient in 
responding to the threats of the 21st century.
                     gao recommendations for reform
    Question. In testimony before the Readiness and Management Support 
Subcommittee, the Comptroller General of the United States, David M. 
Walker, offered a suggestion for legislative consideration which, in 
his words, is intended ``to improve the likelihood of meaningful, 
broad-based financial management and related business reform at DOD.'' 
The suggestion entailed establishing a senior management position in 
the DOD to spearhead Department-wide business transformation efforts.
    What is your view of this suggestion?
    Answer. The Department has taken meaningful steps to act on Mr. 
Walker's suggestion. The Department created the Defense Business 
Systems Management Council (DBSMC), chaired by the Deputy Secretary of 
Defense. This council is responsible for developing the Department's 
business enterprise transition plan and has final approval of all 
business system initiatives. DOD also recently established the Defense 
Business System Acquisition Executive (DBSAE), who reports directly to 
the DBSMC. The DBSAE has direct oversight of Department-level systems 
development, with a vast portfolio that includes DIMHRS. I believe that 
these two actions implement the intent of Mr. Walker's recommendation 
and the Army fully supports DOD's efforts.
    Question. Mr. Walker testified that the DOD should fix its 
financial management systems before it tries to develop auditable 
financial statements. He explained that: ``Given the size, complexity, 
and deeply ingrained nature of the financial management problems facing 
DOD, heroic end-of-the-year efforts relied on by some agencies to 
develop auditable financial statement balances are not feasible at DOD. 
Instead, a sustained focus on the underlying problems impeding the 
development of reliable financial data throughout the Department will 
be necessary and is the best course of action.''
    Do you agree with this statement? Please explain your view.
    Answer. The Army is too large and complex an organization to 
implement labor-intensive, end-of-fiscal-year efforts designed to 
produce auditable financial statements. I completely agree with Mr. 
Walker on this issue. The right course for the Army is to implement 
sustainable business practices designed to improve financial management 
processes and to produce reliable financial management information. 
These processes must be supported by compliant business systems and an 
effective set of management controls.
              authorization for national defense programs
    Question. Section 114 of title 10, U.S.C., provides that no funds 
may be appropriated for any fiscal year to or for the use of any armed 
force or obligated or expended for procurement, military construction, 
and operation and maintenance, unless funds have been specifically 
authorized by law.
    What is your understanding of the meaning of this provision, and 
what exceptions, if any, in your view exist?
    Answer. The National Defense Authorization Act provides the 
authority for the Department to execute programs. If confirmed, I will 
follow the guidance provided by the Secretary of Defense regarding how 
to approach any issue where there is a disparity between what is 
appropriated and what is authorized. It is normal practice for the DOD 
to work out suitable procedures for these unusual circumstances with 
the relevant congressional committees.
                         future combat systems
    Question. What are your views regarding the requirement for the 
Future Combat Systems (FCS) program and the Army's ability to fund the 
program over the Future Years Defense Program and beyond?
    Answer. The challenges the Nation faces in the future--informed by 
the challenges confronting us today--make it imperative to build a more 
adaptive, expeditionary, and supportable force. The Army is proceeding 
with a holistic modernization plan that includes significant changes to 
organization, leader development, doctrine, and training. The next 
generation of equipment necessary for this modernized force will be 
procured through the FCS effort.
    I believe that FCS will be a cost-effective way to modernize the 
Army. FCS is the first comprehensive modernization of the Nation's 
ground forces in more than 40 years--nearly two generations. The near-
concurrent procurement of 18 platforms and systems has reduced system 
development and demonstration costs by an estimated $12 billion. In 
addition, the Army believes that FCS will help to reduce future costs 
by lowering personnel and fuel requirements and easing the logistics 
support burden. At the same time, these qualities will help make the 
force more expeditionary. With unprecedented levels of oversight, the 
program is making sound progress. An extensive testing plan is 
validating performance and reducing development risk. The Army believes 
that bringing FCS to fruition is essential to providing the soldier the 
best warfighting platform possible and to making the future Army 
affordable to the American taxpayer.
             army future years program objective memorandum
    Question. Recent press reports have described efforts by the Army 
to increase its funding allocation for the Army POM, which was due 
August 15, and asserted that the Army has not been provided sufficient 
resources by the Department to execute the tasks it has been directed 
to carry out, including conventional operations, irregular warfare, and 
homeland defense?
    To your knowledge, has the Army POM been submitted? If not, is 
there a timetable for completion?
    Answer. As of September 12, 2006, the fiscal year 2008-2013 POM/
Budget Estimate has not been submitted to OSD. The Army's senior 
leadership is currently conducting discussions with OSD and OMB about 
the issues faced by the Army in meeting its mission. If these issues 
can be resolved in early October, the Army will be able to make its 
submission in November.
    Question. What is your understanding of the Army's budgetary 
requirements vis-a-vis planned funding by DOD and OMB?
    Answer. My understanding is that the difference between the current 
fiscal guidance and the resources necessary to accomplish the Army's 
mission as delineated by the Quadrennial Defense Review is significant, 
and that the Army's current operational and readiness requirements are 
greater than both the current fiscal guidance and DOD-directed mission. 
We are working now with DOD and OMB to understand the magnitude of 
these shortfalls and to identify solutions that address this strategy-
resources mismatch.
proposed reductions in reserve component personnel for fiscal year 2007
    Question. Proposed cuts in the numbers of Army reservists and Army 
National Guardsmen in the fiscal year 2007 budget submitted by the 
Department were met with a storm of criticism by Congress and State 
Governors about the process by which these proposed reductions were 
arrived at.
    What is your understanding of the reasons for this controversy and 
criticism, and what lessons have been learned?
    Answer. The Army was directed to accommodate a number of fiscal 
adjustments near the end of the fiscal year 2007 budget cycle. Army 
leadership was given limited time to make these adjustments and chose 
to reduce force structure in all components. Those decisions were 
designed to minimize the impact on the operational Army and took into 
account actual Reserve component end strengths at the time. We fully 
understand the importance of the Army National Guard and the Army 
Reserve in executing the homeland defense mission and the National 
Military Strategy. The Army and the Federal Government cannot execute 
their charter missions without participation from all three components. 
As always, decisions of this magnitude must be well coordinated with 
all affected parties.
    Question. If confirmed, what steps would you take to ensure that 
the situation is not repeated in future budget submissions?
    Answer. We are one Army that includes Active, Guard, and Reserve 
personnel. Any future changes to end strength or force structure should 
be fully vetted with all impacted organizations. The Secretary and the 
Chief are committed to an inclusive process and I fully support their 
view.
                       cost of resetting the army
    Question. One of the most challenging issues that Congress will 
face in the years ahead will be the costs of re-equipping and training 
the Army. The Chief of the National Guard Bureau, LTG Blum, has stated 
that it will take $21 billion to reset the Army National Guard and $2 
billion for the Air National Guard. It has been estimated that the 
Active Army needs about $17 billion.
    If confirmed, what role do you foresee in validation of the 
requirements for funding for resetting the Army total force?
    Answer. The $17 billion requirement is for fiscal year 2007 and 
includes $2.5 billion to replace Reserve component equipment, both Army 
National Guard and U.S. Army Reserve. The validation of these 
requirements has been a joint effort among Active Army commands, the 
Reserve component, and the full range of Army staff oversight 
officials. If confirmed, I would ensure a continued leadership role for 
the Army financial management community, not just in validating 
requirements but in guaranteeing accountability for the execution and 
reporting of costs to reset the force.
    Question. Where will the tradeoffs be in terms of modernization and 
support of current operations?
    Answer. Reset is a cost of war that should not come at the expense 
of modernization efforts. The Army must continue to adapt and improve 
its capabilities in order to provide the combatant commanders with the 
forces and resources required to sustain the full range of global 
commitments. Cutting modernization programs to sustain current 
operations would compromise the Army's ability to win in the 21st 
century's evolving battlefields. Any tradeoffs, if absolutely 
necessary, would be made in accordance with the priorities already 
established by the Secretary and the Chief of Staff of the Army. The 
top priority will remain support of the fighting force.
    Question. What is your current assessment of the Army's readiness 
for support of future conflicts in light of the cost of sustaining 
modernization, reset, and support of current operations?
    Answer. The requirement to reset equipment and to restore units to 
full readiness upon their return from operational deployments is 
fundamental to sustaining the full range of current global commitments 
and to preparing for emerging threats. Resetting the force while 
simultaneously fighting the global war on terrorism and transforming to 
become a more powerful, more flexible, more deployable force is a 
complex task that necessitates a sustained national commitment and a 
careful balancing of resources. My assessment is that the Army is 
meeting the challenges it faces in current operations but needs to do 
more to be ready for other threats. With the continued support of 
Congress, the Army hopes to be able to fulfill today's responsibilities 
and to meet the challenges posed by future conflicts.
              military quality of life and family advocacy
    Question. The committee places a high priority on sustainment and 
improvement of quality of life programs, including health care, family 
assistance, child care, morale, welfare and recreation, education, and 
employment assistance for family members.
    How do you perceive the relationship between quality-of-life 
programs and the Secretary of the Army's top priorities for 
recruitment, retention, and readiness of Army personnel?
    Answer. They are inherently related. To meet recruiting and 
retention goals, the Army must sustain improvements already made to the 
quality of life of soldiers and their families, and rectify problems as 
it becomes aware of them.
    Question. If confirmed, how will you guard against erosion of these 
critical quality-of-life programs in a tightly constrained fiscal 
environment?
    Answer. I will carry out the guidance of the Secretary and the 
Chief to protect key quality-of-life programs and to avoid inequitable 
reductions in these programs during the program and budget review 
processes.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the ASA(FM&C)?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                legislative relief for logcap contracts
    1. Senator Levin. Mr. Ford, the Army has submitted an unofficial 
request to Congress to provide retroactive legislative authority for 
fiscal years 2003 through 2006 to allow the unlimited purchase of 
equipment or military construction through Logistics Civil Augmentation 
Program (LOGCAP) funds. My staff has been advised that several military 
construction projects in the Central Command region are on hold pending 
Anti-Deficiency Act or other legal reviews. Please provide a list of 
military construction projects that have been halted pending any legal 
or audit review that would be affected by the Army's proposed 
legislation.
    Mr. Ford. My understanding is that, following a staff delegation 
trip to Iraq in August 2006, several congressional staff asked for a 
list of Army priorities to support operations in Iraq. The Army staff 
provided a document listing several congressional priorities. This 
document was not cleared by the Office of the Secretary of Defense or 
the Office of Management and Budget and, therefore, did not represent 
the administration position. In fiscal year 2004 and fiscal year 2005, 
the Army awarded 103 military construction projects in Iraq through the 
LOGCAP. Construction was not initiated on 37 of those projects, and 4 
projects were found to be below the unspecified minor military 
construction threshold of $750,000 and could therefore be funded with 
operation and maintenance appropriations, under title 10, U.S.C., 
section 2805. Since the projects were halted, the Army has received 
authority to undertake 12 of the remaining 62 projects with operation 
and maintenance funds, pursuant to the contingency construction 
authority conferred by section 2808 of the National Defense 
Authorization Act, 2004. Projects are as follows:

        (Project Number 66276) Class I Storage Warehouse at Anaconda, 
        Iraq
        (Project Number 66279) Incinerator Facility at Anaconda, Iraq
        (Project Number 66358) Multi-Purpose Warehouse at Anaconda Iraq
        (Project Number 66359) Forward Redistribution Point Warehouse 
        at Anaconda, Iraq
        (Project Number 66354) Dining Facility at Anaconda, Iraq
        (Project Number 66361) Laundry Facility at Al Asad, Iraq
        (Project Number 66280) Incinerator Facility at Al Asad, Iraq
        (Project Number 66352) Personnel Bed-Down Area at Al Asad, Iraq
        (Project Number 66360) Materials Storage Warehouse at Victory 
        Base Camp, Iraq
        (Project Number 66356) Incinerator Facility at Victory Base 
        Camp, Iraq
        (Project Number 66278) Combat Logistic Support Area at Camp 
        Speicher, Iraq
        (Project Number 66353) Staging/Marshalling Area at Q-West, Iraq

    The report attached contains the listing of those construction 
projects halted in July 2005.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    2. Senator Levin. Mr. Ford, why does the Army believe that any 
additional authority to use operation and maintenance funds for 
military construction is required beyond the authority for fiscal years 
2004 through 2006 provided in section 2808 of the National Defense 
Authorization Act for Fiscal Year 2004 (Public Law 108-136), as 
amended?
    Mr. Ford. Combatant commanders have expressed the desire to have 
more flexibility to satisfy temporary operational requirements and 
believe the current Department of Defense (DOD) process for invoking 
the contingency construction authority under section 2808 is too slow. 
We need to review our internal DOD policies and procedures and 
streamline them where possible. Legislative relief should only be 
requested if necessary.

    3. Senator Levin. Mr. Ford, have the Army or DOD Audit Agency or 
Inspector General offices undertaken or completed reviews of the 
activities for which the Army is seeking legislative relief? Please 
provide the results of any such reviews that have been completed, or 
the estimated completion date of any ongoing reviews.
    Mr. Ford. The Army has initiated investigations into potential 
violations of the Antideficiency Act associated with LOGCAP funded 
construction activities. One of the investigations is being conducted 
by the DOD Inspector General. The Special Inspector General for Iraq 
Reconstruction has conducted extensive investigations into a variety of 
contract activity in Iraq. In addition, the Army Audit Agency has 
conducted several audits of financial operations. I will consult with 
the Army's Auditor General, Inspector General, and DOD Inspector 
General to identify audits or inspections specifically related to 
activities for which we are seeking informal relief and provide results 
to the committee. Additionally, the Government Accountability Office 
has conducted extensive reviews of the LOGCAP and other logistics 
support contracts (GAO 04-854, GAO 05-328).

    4. Senator Levin. Mr. Ford, do you believe that construction or 
procurement activities contracted through the LOGCAP process should be 
subject to different legal standards than if those items were procured 
through any other contracting mechanism? If so, why?
    Mr. Ford. No. While LOGCAP is just one of many contracting vehicles 
available to commanders, construction and procurement activities 
undertaken pursuant to LOGCAP task orders should be subject to the same 
rigorous legal standards that govern other government contracting 
vehicles. However, commanders should not be constrained by policies 
that are unresponsive to operational needs. We must ensure we provide 
the combatant commanders the authorities and tools they need to 
accomplish their mission while at the same time ensuring Congress has 
sufficient oversight to perform their constitutional duties. I will 
work with the Office of the Secretary of Defense to identify those 
areas where new authorities might be needed and attempt to rectify 
cumbersome regulations that hinder accomplishment of operational 
objectives.
                                 ______
                                 
             Question Submitted by Senator Daniel K. Akaka
                     financial management processes
    5. Senator Akaka. Mr. Ford, you asserted in your advanced testimony 
that a long-term challenge of the Army will be to improve financial 
management processes and to achieve an auditable financial process. 
What do you believe are the primary obstacles to achieving this long-
term goal?
    Mr. Ford. The primary obstacle to improving financial management in 
the Army has been the absence of realistic, integrated plans backed up 
by appropriate resources and senior leader commitment.
    As the Army's senior financial officer, I am fully committed to 
improving the Department's financial management processes but recognize 
that attainment of this goal will require sustained efforts over 
several years. The Secretary of the Army has a strong interest in these 
efforts and has made improved financial management a top priority in 
the Army.
    The Army has developed and is implementing a strategic action plan 
for improving financial management that contains 1,776 discrete tasks 
designed to correct existing problems and provide long-term financial 
management improvements. Our plan integrates technology and process 
requirements and is a key component of DOD's Financial Improvement and 
Audit Readiness (FIAR) Plan and Enterprise Transition Plan. The Army 
plan also identifies the resources needed to develop and implement the 
required technology and business process changes. We monitor our 
progress towards achieving our financial management improvements 
biweekly (and sometimes more often) and believe the Army will be able 
to meet the target for auditable financial statements contained in the 
FIAR Plan.
                                 ______
                                 
    [The nomination reference of Nelson M. Ford follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    August 3, 2006.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Nelson M. Ford, of Virginia, to be an Assistant Secretary of the 
Army, vice Valerie Lynn Baldwin.
                                 ______
                                 
    [The biographical sketch of Nelson M. Ford, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of Nelson M. Ford
    Nelson Ford currently serves as Principal Deputy Assistant 
Secretary of the Army for Financial Management and Comptroller. From 
2001 through 2004, he was Deputy Assistant Secretary for Health Budgets 
& Financial Policy in the Department of Defense where he was 
responsible for financial management, policy development, and program 
evaluation for the Defense Health Program.
    Mr. Ford has held senior management positions in academic medicine, 
medical manufacturing, and health insurance, as well as providing 
strategic and financial advice to a wide range of clients in the health 
care field. From 1997 to 2000, he was President and Chief Executive 
Officer of Clinipad, a manufacturer of disposable medical products. 
During the 1990s, he was Chief Operating Officer of Georgetown 
University Medical Center, with responsibilities including management 
of Georgetown Hospital and practice plans, research activities, and 
academic budgets of the medical and nursing schools.
    Earlier in his career, Mr. Ford was a partner with Coopers & 
Lybrand and was responsible for health care consulting in the Mid-
Atlantic region. He was the Executive Secretary of the Health Care 
Financing Administration and worked on health policy matters in the 
Office of Management and Budget during the 1970s. He serves on the 
board of the AcademyHealth and has served on many other not-for-profit 
boards and advisory committees.
    Mr. Ford holds a bachelor's degree in history from Duke University, 
a master's in education from the University of Delaware, and has 
completed additional professional training at the University of 
Pennsylvania.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Nelson M. Ford 
in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Nelson M. Ford.

    2. Position to which nominated:
    Assistant Secretary of the Army for Financial Management and 
Comptroller.

    3. Date of nomination:
    August 3, 2006.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    June 3, 1947; Wilmington, DE.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Cecilia Sparks Ford (maiden name: Sparks).

    7. Names and ages of children:
    Aven Walker Ford, 27; Alexander Sparks Ford, 25; and Mary Bartlett 
Ford, 19.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Alexis I DuPont HS (9/1959-6/1965), HS Diploma, June 1965.
    Duke University (9/1965-6/1969), B.A., June 1969.
    University of Delaware (1/1971-6/1972), M.Ed, January 1973.
    University of Pennsylvania (9/1975-6/1977), no degree.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Principal Deputy Assistant Secretary of the Army (FM&C), Department 
of the Army, Pentagon, 6/2005-Present.
    Director-Senior Products, Humana, Washington, DC, 9/2004-6/2005.
    Deputy Assistant Secretary of Defense-Health Affairs (HB&FP), Falls 
Church VA, 1/2002-9/2004.
    Executive Vice President-Finance and Strategy, GMI Networks Inc., 
Vienna VA, 9/2000-3/2001.
    Presidents Chief Executive Officer, Clinipad Corporation, Rocky 
Hill, CT, 10/1997-3/2000.
    Chief Operating Officer, Georgetown University Medical Center, 
Washington, DC, 9/1992-2/1997.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Director, AcademyHealth.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    AcademyHealth, Director.
    Washington Golf & Country Club, Member.
    Immanuel Presbyterian Church, Asst. Treasurer.
    George Washington University, Adjunct Associate Professor.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Republican Party, member.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Secretary of Defense Medal for Outstanding Civilian Service.
    USOE Fellowship.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    I've published no books, articles, or reports. I was listed as a 
co-author on two HEW publications on the cost of educating handicapped 
children in the early 1970s but do not remember their titles.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    (See attached.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    Nelson M. Ford.
    This 16th day of August, 2006.

    [The nomination of Nelson M. Ford was reported to the 
Senate by Chairman Warner on September 28, 2006, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on September 29, 2006.]
                              ----------                              

    [Prepared questions submitted to Ronald J. James by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    Answer. The Goldwater-Nichols Act has had a positive influence on 
the operations of the Department of Defense (DOD), particularly in the 
relationships between the combatant commands and the military 
departments. If confirmed, I will have an opportunity to assess whether 
the challenges posed by today's security environment require 
enhancements to the legislation.
    Question. If so, what areas do you believe might be appropriate to 
address in these modifications?
    Answer. If confirmed, I look forward to reviewing this milestone 
legislation and assessing whether any modifications should be 
considered to address the challenges faced in today's security 
environment.
                                 duties
    Question. Section 3016 of title 10, U.S.C., provides that the 
Assistant Secretary of the Army for Manpower and Reserve Affairs shall 
have the principal duty of ``overall supervision of manpower and 
Reserve component affairs of the Department of the Army.''
    Assuming you are confirmed, what duties do you expect that 
Secretary Harvey will assign to you?
    Answer. Although Secretary Harvey has not discussed with me the 
duties and functions he will expect that I perform if I am confirmed, I 
anticipate that he will rely on me to provide accurate and timely 
advice in the area of Army manpower and Reserve affairs, as the statute 
establishing the position of the Assistant Secretary of the Army for 
Manpower and Reserve Affairs provides. I presume also that the specific 
duties assigned to this position would be consistent with the 
responsibilities assigned to the Assistant Secretary for Manpower and 
Reserve Affairs in the Department of the Army's General Order Number 3, 
which sets forth the duties of each principal office of the 
Headquarters, Department of Army. In addition, I believe the Secretary 
of the Army would expect me to continue pursuing an effective, 
professional relationship with the Under Secretary of Defense 
(Personnel and Readiness) and other key officials within the Office of 
the Secretary of Defense, our Military Department Assistant Secretaries 
for Manpower and Reserve Affairs, and the other Army Assistant 
Secretaries. I anticipate that Secretary Harvey will expect me to 
continue and to build upon the effective and professional working 
relationships between the Office of the Assistant Secretary of the Army 
(Manpower and Reserve Affairs) and the Deputy Chief of Staff, G-1 
(Personnel), The Surgeon General, the Chief, Army Reserve, the Chief, 
National Guard Bureau, and the Director of the Army National Guard.
                             relationships
    Question. If confirmed, what will be your relationship with:
    The Secretary of the Army.
    Answer. If I am confirmed, my relationship with the Secretary of 
the Army would be close, direct, and supportive. I would work to 
communicate as effectively as possible with the Secretary regarding the 
advice, views, and plans of the Secretariat and Army Staff and to 
oversee the implementation of the Secretary's decisions through the 
Army. If I am confirmed, I understand that my actions would be subject 
to the authority, direction, and control of the Secretary of the Army.
    Question. The Under Secretary of the Army.
    Answer. If confirmed, I would establish a close, direct, and 
supportive relationship with the Under Secretary of the Army. Within 
the Department of the Army, my responsibilities would also involve 
communicating the Secretariat and Army Staff advice, views, and plans 
to the Under Secretary of the Army and to oversee the implementation of 
his decisions falling within my area of responsibility.
    Question. The other Assistant Secretaries of the Army.
    Answer. The other Assistant Secretaries of the Army set strategic 
direction by formulating and overseeing policies and programs within 
their respective functional areas of responsibility, consistent with 
applicable laws and regulations and in accordance with the objectives 
and guidance of the Secretary of the Army. If confirmed, I will 
establish and maintain close and professional relationships with each 
of the Assistant Secretaries and seek to foster an environment of 
cooperative teamwork, working together on the day-to-day management and 
long-range planning needs of the Army.
    Question. The General Counsel of the Army.
    Answer. The General Counsel is the chief legal officer of the 
Department of Army. His duties include providing legal and policy 
advice to officials of the Department of the Army, as well as 
determining the position of the Army on any legal question or 
procedure. If confirmed, I will establish and maintain a close and 
professional relationship with the General Counsel of the Army.
    Question. The Under Secretary of Defense for Personnel and 
Readiness.
    Answer. Acting on behalf of the Secretary of Defense, the Under 
Secretary of Defense for Personnel and Readiness performs 
responsibilities that require the issuance of guidance to the military 
departments. If confirmed, I will communicate openly and directly with 
the Under Secretary of Defense for Personnel and Readiness in 
articulating the views of the Department of the Army. I will have a 
close and professional relationship with the Under Secretary of Defense 
for Personnel and Readiness, characterized by continuous consultation, 
communication, and cooperation on matters of mutual interest, in 
furtherance of the best interests of the Army and the DOD.
    Question. The Principal Deputy Under Secretary of Defense for 
Personnel and Readiness.
    Answer. Acting on behalf of the Secretary of Defense and Under 
Secretary of Defense for Personnel and Readiness, the Principal Deputy 
Under Secretary of Defense for Personnel and Readiness performs 
responsibilities that require, from time to time, the issuance of 
guidance to the military departments. If confirmed, I will communicate 
openly and directly with the Principal Deputy Under Secretary of 
Defense for Personnel and Readiness in articulating the views of the 
Department of the Army. I will work closely with the Principal Deputy 
Under Secretary of Defense for Personnel and Readiness to ensure that 
the Department of the Army is administered in accordance with the 
guidance and direction issued by the Office of the Secretary of 
Defense.
    Question. The Assistant Secretary of Defense for Reserve Affairs.
    Answer. Acting on behalf of the Secretary of Defense and Under 
Secretary of Defense for Personnel and Readiness, the Assistant 
Secretary of Defense for Reserve Affairs performs responsibilities that 
require, from time to time, the issuance of guidance to the military 
departments regarding the Reserve component. If confirmed, I will 
communicate openly and directly with the Assistant Secretary of Defense 
for Reserve Affairs in articulating the views of the Department of the 
Army. I will work closely with the Assistant Secretary of Defense for 
Reserve Affairs to ensure that the Department of the Army is 
administered in accordance with the guidance and direction issued by 
the Office of the Secretary of Defense.
    Question. The Chief of Staff of the Army.
    Answer. The Chief of Staff of the Army is the Secretary's senior 
military advisor in all matters and has responsibility for the 
effective and efficient functioning of Army organizations and commands 
in performing their statutory missions. If confirmed, I will work 
closely with the Chief of Staff to supervise the implementation of the 
Secretary's decisions through the Army staff, Army organizations, and 
commands. I anticipate working closely and in concert with the Chief of 
Staff.
    Question. The Deputy Chief of Staff of the Army for Personnel.
    Answer. The Deputy Chief of Staff, G-1, serves as the principal 
military advisor to the Assistant Secretary for Manpower and Reserve 
Affairs and formulates, manages, evaluates, and executes military and 
civilian personnel plans and programs for the Army for peacetime, 
contingency, and wartime operations. If confirmed, I will establish a 
close, professional relationship with the Deputy Chief of Staff, G-1 
(Personnel). I will consult with him frequently and communicate with 
him directly and openly as he performs his prescribed duties. I expect 
that, if I am confirmed, he and I will work together as a team on a 
daily basis.
    Question. The Surgeon General of the Army.
    Answer. The Surgeon General is a special advisor to the Secretary 
of the Army and to the Chief of Staff on all matters pertaining to the 
military health service system. In that role, The Surgeon General 
assists the Secretary and the Chief in carrying out their 
responsibilities by ensuring a medically ready force as well as a 
trained and ready medical force. If confirmed, I intend to work closely 
with The Surgeon General to ensure that the Army's health care systems 
and medical policies support the Army's objectives, responsibilities, 
and commitments effectively and uniformly across the total force.
    Question. The Chief, National Guard Bureau.
    Answer. The Chief, National Guard Bureau, is the principal advisor 
to both the Secretary and Chief of Staff of the Army, and to the 
Secretary and Chief of Staff of the Air Force on all matters relating 
to the National Guard and the National Guard of the United States. 
Because the National Guard is a key element of the Reserve component, 
the Assistant Secretary of the Army for Manpower and Reserve Affairs 
must work closely with the Chief, National Guard Bureau, to provide 
overall supervision of National Guard matters across all aspects of 
Army business. If confirmed, I will establish a close, professional 
relationship with the Chief, National Guard Bureau. I will communicate 
with him directly and openly as he performs his prescribed duties.
    Question. The Director of the Army National Guard.
    Answer. The Director, Army National Guard, is responsible to the 
Secretary and Chief of Staff of the Army for assisting the Chief, 
National Guard Bureau, in carrying out his functions as they relate to 
the Army National Guard. Because the National Guard is a key element of 
the Reserve component, the Assistant Secretary of the Army for Manpower 
and Reserve Affairs must work closely with the Chief, Army Reserve, to 
provide overall supervision of Reserve matters across all aspects of 
Army business. If confirmed, I will establish a close, professional 
relationship with the Director of the Army National Guard. I will 
communicate with him directly and openly as he performs his prescribed 
duties.
    Question. The Chief, Army Reserve.
    Answer. The Chief, Army Reserve, is the principal advisor to both 
the Secretary of the Army and Chief of Staff of the Army on all Army 
Reserve matters. Because the Army Reserve is a key element of the 
Reserve component, the Assistant Secretary of the Army for Manpower and 
Reserve Affairs must work closely with the Chief, Army Reserve, to 
provide overall supervision of Reserve matters across all aspects of 
Army business. If confirmed, I will establish a close, professional 
relationship with the Chief, Army Reserve. I will communicate with him 
directly and openly as he performs his prescribed duties.
    Question. Soldiers and their families.
    Answer. The Army owes its success to the versatile young Americans 
who answer the call to duty. These soldiers serve as the centerpiece of 
the Army. Caring for soldiers and the Army families through effective 
quality-of-life programs both demonstrates the Army's commitment to the 
total Army family and endeavors to reflect the value of their service 
to our Nation. If confirmed, I will work diligently to ensure the needs 
of soldiers and their families are addressed across the total Army.
                             qualifications
    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. The diversity and complexity of issues confronting the 
Department of the Army are such that no one can have in-depth 
experience in all of them. However, an Assistant Secretary of the Army 
must possess absolute integrity, mature judgment, and strong 
interpersonal and leadership abilities. I believe that my background 
and diverse legal experiences in both the public and private sectors 
have prepared me to meet the challenges of this office.
    I have more than 45 years of organizational experience, executive 
leadership and distinguished service, both in the public and private 
sectors. I believe that my human capital background and experience, 
including my most recent service as the Chief Human Capital Officer for 
the Department of Homeland Security, a legal career in the private 
sector focusing on employment, labor, and regulatory law cases, and a 
myriad of professional assignments at various levels of government, 
have prepared me to meet the challenges of this office.
    I started my professional career by honorably serving as an officer 
in the U.S. Army. I received my undergraduate degree from the 
University of Missouri, a Masters of Arts from the Southern Illinois 
University, and my law degree from American University Law School. For 
the previous 3 years, I have served the Department of Homeland 
Security, primarily as the Senior Human Capital Officer, and my duties, 
among others, included serving as the Senior Policy Advisor to the 
Secretary of Homeland Security on management, personnel, and employee 
relations. Before that, I worked for 26 years in the private sector, 
culminating in my service as a partner in a law firm that counseled and 
represented national and international clients in regulatory, labor, 
and employment matters. Additionally, I have served at both local and 
national levels of government. Locally, I served as a Director on 
Commission of Human Rights and then an Assistant County Prosecutor in 
the State of Iowa. At the national level, I have served in diverse 
positions at numerous agencies and organizations throughout the Federal 
Government: as an Analyst at the U.S. Commission on Civil Rights; a 
Special Assistant to the Counselor to the President and Director of 
Office of Economic Opportunity; a Trial Attorney at the Department of 
Transportation; an Assistant General Counsel at the Equal Employment 
Opportunity Commission; and the Administrator for the Wage-Hour 
Division of the Department of Labor.
    If I am confirmed, I pledge my best effort every day to be worthy 
of the trust placed in me and to uphold the proud tradition of selfless 
service and duty that characterizes the United States Army.
    Question. Do you believe that there are any steps that you need to 
take to enhance expertise to perform the duties of the Assistant 
Secretary of the Army for Manpower and Reserve Affairs?
    Answer. Based on over 45 years of private sector experience and 
public service in both the legislative and executive branches of 
government, I believe I have the requisite management abilities and 
leadership skills to serve as the Army Manpower and Reserve Affairs 
Assistant Secretary. I look forward to learning about and addressing 
the full array of manpower and Reserve affairs' issues associated with 
Army operations. If I am confirmed, I will work diligently to further 
my understanding and knowledge of the Army, its people, the resources 
necessary to sustain and transform it, and the challenges it faces. I 
will take advantage of the many educational programs available to 
senior Army officials and draw on the wealth of knowledge and 
experience available from dedicated professionals, civilian and 
military, in the DOD and throughout the Army family. I will seek advice 
and counsel from the many and diverse stakeholders dedicated to the 
success of the Army, including Members and staff of Congress.
                     major challenges and problems
    Question. In your view, what are the major challenges and problems 
confronting the Assistant Secretary of the Army for Manpower and 
Reserve Affairs?
    Answer. In my view, the fundamental challenge facing the Assistant 
Secretary of the Army for Manpower and Reserve Affairs is manning the 
force. I view the recruitment and retention of high caliber citizens to 
man the Active, Reserve, and civilian ranks as an important aspect of 
maintaining Army readiness. The Army's ability to staff the Army fully 
with military members (Active and Reserve), and civilians necessary to 
execute the complex and challenging missions of the Army today, and in 
the future, presents unprecedented challenges. The Army will continue 
to have a compelling need to garner support for soldiers, obtain 
sufficient funding to achieve critical recruiting and retention goals, 
and maintain the financial investment in the quality-of-life programs 
that help to sustain the All-Volunteer Force. I believe that the Army 
must continue to actively engage in proactive advertising campaigns, 
pursue robust and attractive initiatives and incentives, and continue 
to seek ways to improve health and well-being programs. If confirmed, I 
would candidly assess the Army recruiting and retention posture and 
work to initiate or enhance programs of the type and quality most 
likely to support the Army's recruiting and retention needs.
    Second, I believe that the Army's ability to prevail in the war on 
terror and to sustain global commitments is critical. The Army must 
continue to maintain the momentum of transformation by adapting the 
Army forces and balancing the employment of Active and Reserve 
component units and soldiers. If confirmed, I would lead and partner on 
efforts to formulate policies that will help facilitate the 
Department's adaptation to the changing operational environment.
    Finally, among the major challenges I would face, if confirmed, is 
the need to foster and maintain an environment in which soldiers and 
civilian employees, regardless of race, creed, or gender, can serve 
free of discrimination and harassment and pursue assignments and 
advancement, that while responsive to the needs of the Army, are based 
on individual qualification and performance.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I will focus immediately on these matters, 
review those actions that are underway, and join with other civilian 
leaders and with my counterparts in uniform to resolve them to the best 
of my ability.
                              end strength
    Question. The 2006 Quadrennial Defense Review Report recommended 
stabilizing the Army's end strength at 482,400 Active personnel and 
533,000 in the Army Reserve components (consisting of 333,000 in the 
National Guard and 200,000 in the Army Reserve) by 2011. Subsequently, 
after an expression of bipartisan concern in Congress and by the 
Governors, senior Army leadership committed to retaining the Army 
National Guard at its current end strength of 350,000, if the Army 
National Guard could recruit to that level. Recently, strains on Army 
manpower have been demonstrated by extending the tour of at least one 
major ground combat unit serving in Iraq beyond 12 months, and 
additional troops have augmented forces in Iraq in an effort to stem 
sectarian violence. What is your opinion of the long-term Active-Duty 
end strength necessary to support ongoing operations in Iraq and 
Afghanistan?
    Answer. It appears to me that there is general agreement on the 
need to increase the size of the pool of soldiers available for world-
wide deployments. I understand that the Army leadership has developed a 
plan to increase the number of high demand soldiers and capabilities 
through a temporary increase in Active component end strength and 
transformation of all three components of the Army. Included in this 
plan is the increase in the size of the Active component operational 
force from 315,000 to 355,000. It will require careful execution and 
sustained support and funding to be successful. The Army has been 
evaluating force requirements within the end strength plan outlined by 
the Secretary of the Army in August 2005. If confirmed, I will 
undertake to review the Army's end strength plan to ensure that it is 
appropriate to building an expeditionary, campaign quality force, 
capable of meeting a broad and complex array of challenges, while 
ensuring its forces remain the preeminent land power and ultimate 
instrument of national resolve.
    Question. Based on demands on the National Guard and the Army 
Reserve, what is your opinion of the optimal end strength for the Army 
National Guard and Army Reserve?
    Answer. I understand that the Army is working to balance force 
capabilities within and across the Active, Guard, and Reserve to 
develop a total force with greater capabilities and greater 
accessibility. This rebalancing is designed to create a larger 
operational Army, improve readiness, and reduce the impact on Reserve 
component structure. Based on my initial review, I support the current 
plan calling for Army Reserve end strength of 205,000, with 58 
supporting brigades and to fund the Army National Guard to the level it 
can recruit, up to its congressionally mandated end strength of 
350,000.
    Question. How many troops have been shifted from the institutional 
Army to the operational Army in order to increase the number of 
soldiers who can be deployed without increasing end strength, and what 
is your understanding of how the Army will make up for the loss of 
manpower in the institutional Army?
    Answer. I understand that the Army's plan incorporates military-to-
civilian conversions and business transformation efforts to accomplish 
the necessary changes. The Army plan will build the operational force 
up to 355,000, a growth of nearly 40,000 spaces over the fiscal year 
2004 total through a combination of military-civilian conversions, Base 
Realignment and Closure and Global Defense Posture realignments, and 
business transformation. I have been advised that the Army is currently 
embarked on a holistic business transformation effort that relies on 
continuous process improvement techniques (using Lean Six Sigma) aimed 
at increasing quality, productivity, reliability, and safety, while 
reducing costs and cycle time.
                 reserve and national guard deployments
    Question. Current policy of the Department provides that under 
section 12302 of title 10, U.S.C., members of Reserve components shall 
not be required to involuntarily deploy more than 24 months 
cumulatively in response to the existing national emergency. This 
policy has exempted thousands of members of the Selected Reserve from 
additional involuntary call ups in support of overseas operations in 
Iraq and Afghanistan.
    What is your understanding of the current number of members of the 
Army Reserve who are unavailable for deployment as a result of the 24-
month policy?
    Answer. I have been informed that to date, more than 425,000 Army 
National Guard and U.S. Army Reserve soldiers have served in the global 
war on terror. It is my understanding that there are currently 263,000 
National Guard and Reserve soldiers still in uniform who are or have 
served a portion or all of the 24 months associated with this policy. I 
understand that 40,000 soldiers have served between 18 and 24 months.
    Question. What is your assessment of the Army's ability to support 
scheduled troop rotation planning beyond 2006, particularly in combat 
support and combat service support missions, given the 24-month policy?
    Answer. It is my understanding that the Reserve component 
contributions to next rotations for overseas global war on terror 
missions have almost all been sourced and are on track for deployment. 
Discussions on sourcing solutions for later in 2007 and beyond are 
ongoing and I am not familiar with the details of that planning. If 
confirmed I would work toward ensuring that the Army's Reserve 
components can continue to serve alongside their Active component 
brothers and sisters by developing and executing robust manning 
strategies, including recruiting and retention programs, that enhance 
the Guard and Reserve capabilities to continue the fight.
    Question. What is your understanding of the measures that are being 
taken in the Department to respond to operational requirements for low 
density, high demand units and personnel whose skills are found 
primarily in the Reserve components, e.g., civil affairs, special 
operations, military police, truck drivers?
    Answer. I have been advised that the Army is pursuing several ways 
to ensure low density, high demand Reserve component units are 
available for operational missions. First, the Army is implementing the 
Army Force Generation (ARFORGEN) readiness process, the structured 
progression of increased unit readiness over time, resulting in 
recurring periods of availability of trained, ready, and cohesive units 
prepared for operational deployment in support of civil authorities and 
combatant commander requirements.
    Second, the Army has implemented the Active component/Reserve 
component rebalance initiative which is an incremental process that has 
evolved over time in a series of phases to hasten the transformation of 
post-cold war Army into a force capable of efficiently and effectively 
addressing the global war on terror. I have been advised that to date, 
the cumulative effects of all phases have resulted in a rebalance or 
programmed rebalance of more than 234,000 of force structure spaces 
across all three components.
    Third, I also understand that the Army has transferred the U.S. 
Army Civil Affairs and Psychological Operations Command from U.S. Army 
Special Operations to the U.S. Army Reserve Command. The transfer was 
intended to integrate Civil Affairs and Psychological Operations units 
into conventional operations, while maintaining support for special 
operations.
     mobilization and demobilization of national guard and reserves
    Question. In the aftermath of the attacks of September 11, 2001, 
the National Guard and Reserves have experienced their largest and most 
sustained employment since World War II. Numerous problems have been 
identified in the past in the planning and procedures for mobilization 
and demobilization, including inadequate health screening and medical 
readiness monitoring, antiquated pay systems, limited transitional 
assistance programs upon demobilization, and, most recently, lack of 
money to transport by Air National Guardsmen returning from deployment 
to their home station.
    What is your assessment of advances made in improving mobilization 
and demobilization procedures, and in what areas do problems still 
exist?
    Answer. The Army's Reserve component soldiers are an essential 
element in the global war on terror. It is my understanding that there 
is little difference in the processes and standards used to deploy 
Active or Reserve soldiers which results in a homogeneous force in 
theater. It is also my understanding Reserve soldiers are also afforded 
the same demobilization processes and procedures as Active soldiers. 
The Army recognizes the inherent differences between the components and 
makes necessary adjustments in mobilization and demobilization 
procedures to accommodate the differences.
    I understand the Army has made progress in policy, health 
screening, and medical readiness tracking. Individual Medical Readiness 
has been made a measure of unit readiness.
    Another example of improvement is TRICARE Reserve Select which is a 
medical insurance program tailored specifically for the Reserve 
component. I have been informed that the Federal Strategic Health 
Alliance contract has been very successful and serves as a critical 
tool for medical screening of Army Reserve component soldiers. If 
confirmed, I will continue to seek opportunities to improve the medical 
screening of Reserve component soldiers.
    I understand that one area currently being improved is the 
automated systems that will improve and expedite the delivery of 
services to soldiers and families, and provide commanders, at all 
echelons, visibility of the status of their soldiers throughout the 
mobilization and demobilization process. The Army is taking the lead to 
field the Defense Integrated Military Human Resources System which will 
provide more timely and accurate recordkeeping and the delivery of 
compensation, benefits, and entitlements.
    Question. What do you consider to be the most significant enduring 
changes to the organization and policies affecting the Reserve 
components aimed at ensuring their readiness for future mobilization 
requirements?
    Answer. The Army National Guard and the Army Reserve are crucial to 
the success of the Nation in fighting and winning the global war on 
terror. This fight places a high demand on the Reserve component. To 
best manage and meet these requirements, the Army is implementing the 
ARFORGEN process. Fundamentally, ARFORGEN is a cyclic training and 
readiness process that synchronizes strategic planning, prioritizing, 
and resourcing to generate trained and ready modular expeditionary 
forces tailored to joint mission requirements. In addition to providing 
the right force mix in support of the National Military Strategy, I 
understand that ARFORGEN provides soldiers and their families with 
needed predictability, enabling them to foresee and plan out their 
future, which benefits recruiting and retention. I have been advised 
that ARFORGEN will also provide a means to integrate and prioritize 
medical and dental screening throughout the deployment cycle.
    Question. To your knowledge, what measures have been taken to avoid 
situations which would require demobilizing reservists to travel by bus 
from Camp Atterbury and other demobilization sites to distant home 
stations?
    Answer. I understand that this event was an anomaly in the 
demobilization and home station transportation process. A delay in the 
unit's movement from theater back to the United States compressed the 
demobilization timeline in such a way that the originally planned air 
travel to home station was not sufficient to meet homecoming events 
already scheduled in Massachusetts. The 1st Army and supporting 
garrison are examining this particular event to see what lessons can be 
learned and applied to future cases as they may arise. I understand 
that the Army's demobilization process is constantly reviewed to 
introduce improvements that will ensure that each soldier is provided 
the best transition service and is reunited with families and 
communities in the most expeditious way. Soldiers' well-being and 
benefits should not be compromised in the interest of saving time or 
resources.
                               recruiting
    Question. The Active-Duty component of the Army missed its fiscal 
year 2005 recruiting goal of 80,000 by about 6,600. The Active Army's 
goal for fiscal year 2006 is another 80,000. What is your assessment of 
the Army's ability to reach its active-duty recruiting goal in fiscal 
year 2006 and 2007?
    Answer. Based on initial briefings I have had, I understand that 
the Army is optimistic about meeting its recruiting goal for all three 
components for fiscal year 2006. The Army is facing a similar challenge 
for fiscal year 2007 given the relatively strong economy and the 
continued deployments in support of the global war on terror. I believe 
that the Army must continue to implement innovative recruiting 
programs, improve recruiter productivity, and offer attractive 
incentives to meet the challenges.
    Question. What is your view about the appropriate assignment and 
overall numbers, if any, of ``Category IV'' recruits in the Army, i.e., 
those individuals who score below the 31st percentile on the Armed 
Forces Qualification Test (AFQT)?
    Answer. The Army has entrance standards for all specialties based 
on scores taken from the AFQT. These standards are used to screen 
applicants and assign recruits to specialties commensurate with their 
ability. Given all of the circumstances, I believe it is appropriate to 
give an opportunity to a portion of those scoring below the 31st 
percentile to serve. The 4-percent standard is probably the right 
percentage based on the DOD goal.
    Question. What is your understanding of trends in the Army with 
respect to incidents of recruiter sexual misconduct with potential 
recruits, and, if confirmed, what actions, if any, would you take to 
prevent such incidents?
    Answer. If confirmed, I would ensure that Army programs and 
policies focus on preventing recruiter sexual misconduct and fully 
investigating all allegations. If confirmed, I would monitor this area 
closely to ensure that policies and practices are effective.
                implementation of tricare for reservists
    Question. The National Defense Authorization Act for Fiscal Year 
2006 authorized new categories of eligibility for TRICARE for members 
of the Selected Reserve, which are required to be implemented by 
October 1, 2006. What is your assessment of the Army's ability to 
timely implement the new benefits and the challenges it will have to 
overcome?
    Answer. I understand that on October 1, 2006, the Army will 
implement the TRICARE Reserve Select benefits required by the National 
Defense Authorization Act of Fiscal Year 2006. I understand that the 
Army has published a plan for each Army component which establishes 
policies and procedures for administration of the TRICARE Reserve 
Select program. I have been advised that the Army will be able to meet 
the challenges associated with TRICARE Reserve Select implementation.
    Question. If confirmed, what role would you play in leading the 
Army's efforts implementing these new benefits?
    Answer. If confirmed, I would fulfill my responsibilities as the 
Secretariat's principal advisor on all military health affairs. This 
includes providing the programming and oversight responsibility for 
implementing the TRICARE Reserve Select benefits required by the 
National Defense Authorization Act of Fiscal Year 2006. Additionally, 
the Assistant Secretary for Manpower and Reserve Affairs assumes 
planning and marketing coordination responsibility for programs 
affecting medical readiness, force protection, and Army maintenance of 
the TRICARE Reserve Select program for the military health system. If 
confirmed, I will support any appropriate health care benefits which 
assist contingency efforts and positively impact readiness, 
recruitment, and/or retention for soldier and their family members.
                     employment of military spouses
    Question. In your view, what progress has been made, and what 
actions need to be taken in the Army to provide increased employment 
opportunities for military spouses?
    Answer. I understand over the last 4 years great progress has been 
made in providing increased employment opportunities for military 
spouses. In December 2002, the Chief of Staff of the Army hosted a 
summit with private and public sector senior executives to establish a 
framework for a collaborative partnership that would increase 
opportunities for spouse employment and career advancement. In October 
2003, the Army formally established the Army Spouse Employment 
Partnership (ASEP) by signing a Statement of Support with 13 Fortune 
100 and 500 companies and 2 military agencies who pledged their best 
effort to increase employment and career opportunities for Army 
spouses. I understand that ASEP has 21 partners and that, through this 
program, more than 11,000 spouses have been hired. The Army continues 
to recruit additional partners and plans to enter into a memorandum of 
agreement with a nonprofit agency dedicated to providing career 
opportunities and job portability for military spouses.
                           officer shortages
    Question. A report issued by the Congressional Research Service 
(CRS) in July 2006 found that the Army projects an officer shortage of 
nearly 3,000 in fiscal year 2007, with the most acute shortfalls in the 
grades of captain and major with 11 to 17 years of service. Unless 
corrective action is taken, CRS found that shortages will persist 
through 2013 unless accessions are increased and retention improves.
    What is your understanding of the reasons for the current 
shortfall, and what steps is the Army taking to meet this mid-career 
officer shortfall?
    Answer. I have been advised that the shortage of officers is a 
result of increased officer force structure at the mid-grade ranks 
(senior captain and major ranks). With the increase in end strength 
(482,000 to 512,000), the Active component picked up an additional 
8,000 officer authorizations. Most of the growth (88 percent) was in 
the mid-grade officer ranks.
    Because it takes 10 years to ``grow'' a major, the immediate 
addition of force structure creates officer shortages which the Army 
estimates total approximately 3,000 by fiscal year 2008.
    Question. If confirmed, what actions would you take to ensure 
adequate numbers of highly qualified captains and majors are serving on 
active duty over the next 10 years?
    Answer. Clearly, the Army must retain more of the ``best and 
brightest'' officers to meet future manning requirements. I believe 
that the Army needs to continue to look at innovative ways to achieve 
this. If confirmed, I would pursue initiatives that include a balance 
between monetary and non-monetary incentives.
                      medical personnel shortfalls
    Question. The Army Surgeon General has stated that the Health 
Professions Scholarship Program is failing to attract critically needed 
medical personnel. Shortfalls in health professional recruiting 
endanger future medical readiness for all the Services.
    If confirmed, what approach would you take to address this looming 
problem for the Army?
    Answer. If confirmed, I would evaluate current recruiting 
approaches and partner with my counterparts in other Services, DOD, the 
private sector, and Members of Congress and their staffs to ensure that 
the Army has relevant and competitive programs in today's market place 
without endangering other existing programs.
                   national security personnel system
    Question. Congress enacted broad changes in the DOD civilian 
personnel system in 2004 to provide the Department with more flexible 
tools for the management of its civilian workforce in support of 
national security. Although the Department is presently enjoined from 
implementation of a new labor-relations system, the Department is 
planning to move ahead in the implementation of a new pay-for-
performance system for its non-union employees.
    Based on your experience, what are the critical factors for 
successful implementation of a total transformation of workforce 
policies and rules, including performance-based pay?
    Answer. Trust, leadership, communication, and training are vital to 
successful implementation of this new system. DOD is making fundamental 
changes to its pay and performance system, moving away from a one-size-
fits-all, longevity-based approach, to one that is based on performance 
and results. There are challenges associated with ensuring the 
credibility and transparency of this system. DOD is mitigating this 
challenge by taking a deliberate, spiraled implementation approach, 
permitting the early identification of problems in early spirals and 
facilitating the correction of those problems before the system is 
implemented throughout the entire department. Training employees and 
managers on the behavioral and functional aspects of National Security 
Personnel System (NSPS) is key to the system's success. Participants 
need to be informed and educated about the NSPS and trust and value it 
as a system that fosters accountability, respects the individual, and 
protects rights under the law. Senior leadership commitment and 
involvement is critical to ease the transition process and to help 
create an environment where people can excel every day.
    Question. If confirmed, how would you monitor the acceptance of the 
NSPS and what role would you expect to play in managing the NSPS 
implementation in the Army?
    Answer. If confirmed, I expect to play a critical role in 
monitoring the acceptance of NSPS and managing NSPS implementation in 
the Army. Managers must be held accountable and evaluated on how well 
they perform their NSPS responsibilities and their effectiveness should 
affect their pay increases. As the Department moves away from the 
General Schedule System, it will become more competitive in setting 
salaries. A more flexible, mission-driven human resources system will 
provide a more cohesive total force. DOD's senior leaders must 
carefully monitor workforce data to ensure that the Department has 
leveraged the flexibilities and advantages that NSPS offers. Ongoing 
evaluation, as well as workforce surveys, will be critical to ensuring 
that the system is credible, trusted, and transparent. Employee 
perceptions of the new system are important.
    If confirmed, I will seek to leverage authorities within NSPS to 
promote a performance culture in which the performance and 
contributions of the civilian workforce are more fully recognized and 
rewarded. The NSPS will allow the Army to be more competitive in 
setting salaries and to attract and retain skilled, talented, and 
motivated people. The NSPS will provide greater opportunities for Army 
civilians by easing the administrative burden routinely associated with 
the current system and providing incentives for managers to turn first 
to civilian employees to accomplish certain vital tasks. This will free 
Army soldiers to focus on matters unique to the military.
    If confirmed, I will help lead the Army in adopting the NSPS by 
providing reliable and consistent information to all employees, and 
ensuring ongoing communications to the workforce. Additionally, I will 
develop and implement methodologies for measuring, evaluating, and 
improving Human Capital results to ensure mission alignment, effective 
Human Resources management programs, efficient Human Relations 
processes, and merit-based decisionmaking in compliance with laws and 
regulations.
    management and development of the senior executive service (ses)
    Question. The transformation of the Armed Forces has brought with 
it an increasing realization of the importance of efficient and forward 
thinking management of senior executives. What is your vision for the 
management and development of the Army senior executive workforce, 
especially in the critically important areas of acquisition, financial 
management, and the scientific and technical fields?
    Answer. The Army should carefully manage and develop the senior 
executive workforce to meet the evolving workforce challenges facing 
the Department. With transformation, members of the SES are 
increasingly being looked to as military replacements in critically 
important areas of acquisition, financial management, and the 
scientific and technical fields. To support this effort, I understand 
the Army is reviewing the quality and potential of the existing senior 
executive pool, reallocating positions to ensure senior executives are 
aligned with evolving business strategy. Since January 2006, 22 senior 
executives have been reassigned within the Department of Army to fully 
utilize their capabilities to lead and manage complex organizations 
during the transformation of the Armed Forces. I understand that the 
current Army's senior executive program also includes periodic 
education and development opportunities and performance-based 
evaluations.
    Question. If confirmed, what role will you, as Assistant Secretary 
of the Army for Manpower and Reserve Affairs, have in the management of 
the Army's SES personnel?
    Answer. I understand that the Army has centralized the day-to-day 
management of its senior executives in a new office that reports 
directly to the Secretary of the Army. Therefore, if confirmed, I would 
not directly manage the Army SES personnel program. However, if 
confirmed, I would have the responsibility for management, development, 
and mentoring of senior executives assigned in the Office of the 
Assistant Secretary of the Army for Manpower and Reserve Affairs.
    It is the Army's intent to develop these executives in a manner 
similar to that in which it has historically developed general 
officers. This includes implementing a systemic and progressive 
assignment pattern leading to positions of greater responsibility. The 
Civilian Senior Leader Management Office, reporting to the Secretary of 
the Army, manages the development and assignment of the Army's senior 
executive workforce and ensures that succession planning is an integral 
part of the management process.
                 support for severely wounded soldiers
    Question. The committee has been concerned by reports that some 
severely-wounded or ill soldiers who do not remain on active duty have 
encountered significant problems in obtaining needed health care, and 
rehabilitative and employment related services upon separation from 
active duty service and that the Army's Wounded Warrior (AW2) program 
is insufficiently resourced to adequately perform its mission. What is 
your understanding of the sufficiency of the manning and resources 
devoted to the AW2 program?
    Answer. The Army has established the U.S. AW2 program as an 
outreach-driven program to provide severely-wounded soldiers and their 
families with a system of advocacy and personal support from the time 
of initial notification to return to military service or to the 
civilian sector. From what I have learned thus far, this program has 
been effective. Although I have not been briefed on the details of 
manning and resources for this program, if confirmed, I will be 
committed to ensuring that injured soldiers receive the best care 
possible and receive support to address their needs and issues 
throughout the recovery process and beyond. I will continually assess 
the effectiveness of this program.
    Question. What suggestions do you have for improving the Army's 
support for severely-wounded soldiers?
    Answer. If confirmed, I would work with Department leaders, 
Department of Veteran Affairs, and Congress to seek innovative 
approaches to this critical challenge. The Department must also 
continue strategies that will result in health care advances and 
promote rehabilitation research for its soldiers with traumatic 
injuries. Additionally, private industry should be engaged in pursing 
strategies for expanded employment opportunities.
                 individual ready reserve recall policy
    Question. A recent July 2006 report by the Center for Strategic and 
International Studies recommended that the Army revitalize its 
Individual Ready Reserve (IRR) program by culling existing IRR 
databases and ensuring that the Army has valid contact information on 
IRR members who may be recalled to serve.
    What has the Army done to clarify the mobilization policy that 
applies to both officer and enlisted members of the IRR?
    Answer. I am informed that the Army continues to mobilize members 
of the IRR in accordance with statute and existing DOD and Army 
policies. My understanding is that the Army has made changes in 
enlistment contracts to emphasize, in greater detail, the totality of 
mandatory service obligations undertaken. Army Transition Centers now 
brief soldiers who are completing their initial enlistments or service 
obligations on their future service options, to include membership in 
the IRR. Current selection criteria for mobilizing the IRR eliminates 
from mobilization consideration those soldiers who are within 9 months 
of completing their military service obligation and those officers that 
are within 3 months of completing their military service obligation. 
Those IRR soldiers and officers that are called back to active duty are 
afforded the opportunity to request exemption from mobilization through 
a Delay and Exemption Board.
    Question. What has the Army done to update its IRR mobilization 
database?
    Answer. As part of the recent Secretary of the Army approved IRR 
Transformation Plan, the Army Human Resources Command (HRC) is making 
progress to capture and record IRR member records. The IRR database is 
constantly evaluated to ensure it accurately reflects the status of the 
IRR as a viable mobilization asset.
                         interservice transfers
    Question. At the same time that the Army and Marine Corps are 
working harder than ever to achieve recruiting goals, the Navy and the 
Air Force are planning for significant reductions in Active-Duty and 
Reserve military personnel. Under section 641 of the National Defense 
Authorization Act for Fiscal Year 2006, an interservice bonus of $2,500 
for transfer was authorized and recently has been implemented.
    What is your assessment of the adequacy of existing incentives for 
interservice transfers?
    Answer. I understand that the response to the interservice bonus 
has been positive. The number of interservice transfers increased from 
11 in fiscal year 2004 to 156 for fiscal year 2006.
    Question. If confirmed, what steps would you take to enhance the 
number of ``Blue-to-Green'' interservice transfers?
    Answer. I have been advised that the interservice monetary 
incentive will increase to $10,000 for fiscal year 2007. If confirmed, 
I will work with the other military departments to garner continued 
support for the ``Blue-to-Green'' program. I will continually monitor 
its progress and I will ensure the Army continues to research and 
address any shortcomings or issues that may cause a lack of 
attractiveness of the interservice transfer option.
                         diversity in the army
    Question. In its policies and practices, the Army is committed to 
the principles of equal opportunity and promoting fairness, justice, 
and equity, eliminating unlawful discrimination, and building teamwork 
and readiness. What is your understanding of the Army's current 
policies regarding affirmative action and achievement of diversity with 
respect to race, gender, and ethnic origin?
    Answer. I believe that Army policies and programs must be committed 
to ensure that the Department's diverse workforce is valued and is 
afforded equal opportunity to reach its potential and to help execute 
the Army's mission. Although the Army is already a diverse institution 
in terms of race, ethnicity, and gender, the true value of workforce 
diversity can best be achieved by removing any identified obstacles, 
barriers, or practices that may compromise the organizational vision of 
equal opportunity treatment of all individuals consistent with legal 
requirements. I understand that the Army recently established the Army 
Diversity Office to develop and coordinate policy, plans, and programs 
that support the Army mission.
    Question. Do the Army's published regulations on equal opportunity 
reflect this policy?
    Answer. In my initial assessment, I believe that the Army's equal 
opportunity policy and program are effective in ensuring fair treatment 
for all persons based solely on merit, fitness, and capability in 
support of the Army mission. I understand that the Army policies are 
aligned with DOD directives and instructions. If confirmed, I would 
work diligently toward ensuring Army policies and programs are 
effective in eliminating discriminatory behaviors and practices that 
undermine teamwork, mutual respect, loyalty, and shared sacrifice.
    Question. What is your view of the proper use of affirmative action 
plans and measures aimed at achieving or nurturing diversity in the 
Army?
    Answer. An affirmative action plan is a management tool intended to 
assist in overcoming the present effects of discriminatory treatment as 
it affects equal opportunity, upward mobility, and the quality of life 
for all qualified personnel, consistent with the law.
    Question. In your opinion, how, if at all, should considerations 
relating to gender and minority status with respect to race, ethnicity, 
and national origin be addressed in the guidance provided by the 
Secretary of the Army to promotion selection boards and how have 
Federal court decisions involving the Army affected that decision?
    Answer. It is my opinion that the Army, consistent with DOD policy, 
is making every effort to encourage service by individuals from all 
backgrounds by providing for the equal treatment and equitable 
consideration of all personnel considered for promotion.
    Question. What is your understanding of the manner in which 
considerations relating to gender and race, ethnicity, and national 
origin are used in selection processes for the U.S. Military Academy 
(USMA), and do you agree with this approach?
    Answer. I understand that the USMA has implemented an admissions 
strategy carefully tailored to expand interest on the part of a number 
of highly-qualified candidates, regardless of race, gender, ethnicity, 
or national origin. The admissions office has a minority outreach 
section whose specific focus is to inspire quality minority candidates 
to apply to USMA and nurtures these candidates throughout the 
admissions process. If confirmed, I would support an approach that 
ensures that qualified individuals regardless of their background have 
an opportunity for commissioning in the Army through the USMA.
                             sexual assault
    Question. On February 25, 2004, the Senate Armed Services Committee 
Subcommittee on Personnel conducted a hearing on policies and programs 
of the DOD for preventing and responding to incidents of sexual assault 
in the Armed Forces at which the Service Vice Chiefs endorsed a ``zero 
tolerance'' standard. Subsequently, in response to congressional 
direction, the Department developed a comprehensive set of policies and 
procedures aimed at improving prevention of and response to incidents 
of sexual assaults, including appropriate resources and care for 
victims of sexual assault.
    What is your understanding of the practices currently in use in the 
Army to ensure awareness of and tracking of the disposition of reported 
sexual assaults?
    Answer. It is my understanding that the Army recently implemented a 
comprehensive Sexual Assault Prevention and Response Program. A key 
element of this program is the awareness training developed and taught 
at every level of the Army's institutional training--from initial entry 
to the Army War College. Additionally, unit refresher training is an 
annual requirement for all Army units. As part of this program, the 
Army collects and analyzes selected sexual assault incident data which 
is provided for quarterly and annual reports to the DOD for 
consolidation into the Secretary of Defense's annual report to 
Congress.
    Question. What progress has been made in ensuring that adequate 
numbers of sexual assault victim advocates are available in Army units 
worldwide?
    Answer. I understand that the Army has taken significant steps to 
improve the assistance to victims of all sexual assaults, with enhanced 
recognition of the special circumstances that apply to deployments. The 
Army recently implemented a comprehensive Sexual Assault Prevention and 
Response Program. I understand that a key element of the program is the 
victim advocacy component which is led by Sexual Assault Response 
Coordinators at every Army installation. These Sexual Assault Response 
Coordinators are supported by a cadre of full-time, professional 
Installation Victim Advocates and Unit Victim Advocates who interact 
directly with victims of sexual assault. Deployable Sexual Assault 
Victim Coordinators and Unit Victim Advocates provide advocacy services 
in a deployed environment. Deployable Sexual Assault Response 
Coordinators are soldiers trained and responsible for coordinating the 
sexual assault prevention and response program in a specified area of a 
deployed theater. Current Army policy requires one deployable Sexual 
Assault Response Coordinator at each brigade level unit and higher 
echelon. Unit Victim Advocates are soldiers trained to provide victim 
advocacy as a collateral duty while deployed. Army policy requires two 
Unit Victim Advocates for each battalion sized unit. If confirmed, I 
will stress the importance of ensuring that the Army is taking 
appropriate steps to provide help to soldiers who are victims of sexual 
assault, both in garrison and in deployed locations.
    Question. If confirmed, what oversight role, if any, would you 
expect to play?
    Answer. If confirmed, I will ensure compliance with established 
policies, procedures, and program implementation at all levels of 
command, including those at the Army National Guard and U.S. Army 
Reserve.
                         u.s. military academy
    Question. The Service Academy 2005 Sexual Harassment and Assault 
Survey found that even with the implementation of corrective measures, 
sexual assault and harassment continue to be factors negatively 
affecting female cadets at the military academies.
    What is your evaluation of the conclusions and recommendations of 
the Service Academy 2005 Sexual Harassment and Assault Survey and the 
Report of the Defense Task Force on Sexual Harassment and Violence at 
the Military Service Academies?
    Answer. The Academy must continue to evaluate and shape its culture 
to create an environment in which the cadets understand that sexual 
harassment and sexual assault is in opposition to everything the Army 
stands for and will not be tolerated. If confirmed, I will support the 
Academy's progress toward this goal. This important survey has 
identified several critical problems that must be addressed, and, if 
confirmed, I will work with Academy officials to ensure that policies 
and programs are in place to correct them.
    Question. What actions would you expect to take, if confirmed, to 
address the problems of sexual assault and sexual harassment at the 
USMA and with respect to the Army's programs in this regard?
    Answer. I understand that the USMA has developed a comprehensive 
action plan to address the findings and recommendations from the 2005 
Report of the Defense Task Force on Sexual Harassment and Violence at 
the Military Service Academies. I have been advised that the 
Superintendent provides quarterly reports to the Secretary of the Army 
on the progress the Academy has made with respect to its action plan. 
If confirmed, I will ensure that the USMA leadership continues to take 
this mission seriously and aggressively pursues actions to better 
educate cadets and to foster a climate geared to eliminating the 
behaviors that may lead to incidents of sexual assault. If confirmed, I 
will work to ensure that the Superintendent of the USMA has the 
resources and support necessary to advance the Army's commitment to 
attacking this problem.
    Question. What do you consider to be the policy and procedural 
elements that must be in place at each of the Service Academies in 
order to prevent and respond appropriately to sexual assaults and 
sexual harassment and to ensure essential oversight?
    Answer. I have been advised that the USMA policy is consistent with 
that of the Army and the DOD: sexual assault and sexual harassment will 
not be tolerated. Taking care of victims and holding offenders 
accountable are essential elements of their programs.
                    religious practices in the army
    Question. What is your assessment of policies within the Army aimed 
at ensuring religious tolerance and respect?
    Answer. I have been informed that the Army's policies support 
religious tolerance and respect and are consistent with the First 
Amendment. If confirmed, I would make it an objective to continue the 
Army's firm commitment to upholding the Constitutional tenets of the 
``free exercise'' and ``establishment'' clauses. I am informed that as 
they now stand, Army policies require chaplains to support all unit 
personnel, regardless of their beliefs.
                            women in combat
    Question. Section 541 of the National Defense Authorization Act for 
Fiscal Year 2006 requires the Secretary of Defense to report to 
Congress not later than March 31, 2006, on his review of the current 
and future implementation of the policy regarding assignment of women 
in combat. In conducting the review, the Secretary of Defense is 
directed to closely examine Army unit modularization efforts and 
associated personnel assignment policies to ensure their compliance 
with the DOD policy on women in combat that has been in effect since 
1994.
    What is your view of the appropriate combat role for female 
soldiers on the modern battlefield?
    Answer. It is my view that women have been and will continue to be 
an integral part of the Army team, performing exceptionally well in all 
specialties and positions open to them. Men and women serving in combat 
service and combat service support branches are performing in an 
outstanding manner, particularly given the complexity and ambiguity of 
combat. Female soldier duty performance in Operation Iraqi Freedom and 
Operations Enduring Freedom has been exemplified by competence, 
dedication, and bravery.
    Question. In your opinion, is the current and planned future Army 
personnel assignment policy for women consistent with the DOD ground 
combat exclusion policy in effect since October 1994?
    Answer. I have been advised that the Army policy is consistent with 
the DOD policy, and if confirmed, I will continue to monitor the 
execution of this assignment policy to ensure the Army maintains 
compliance.
    Question. How do you anticipate you will participate in the review 
of the policy required by section 541?
    Answer. I am informed that the Office of the Secretary of Defense 
has undertaken to complete the comprehensive review requested by this 
committee and Congress. It is an important study of complex issues 
critical to the Department. The Army, DOD, and Congress must work 
together closely on this issue. If confirmed, I will work to provide 
the Secretary with cogent advice regarding implementation of this 
policy.
                foreign language transformation roadmap
    Question. A Foreign Language Transformation Roadmap announced by 
the Department on March 30, 2005, directed a series of actions aimed at 
transforming the Department's foreign language capabilities, to include 
revision of policy and doctrine, building a capabilities based 
requirements process, and enhancing foreign language capability for 
both military and civilian personnel.
    What is your understanding of steps being taken within the Army to 
achieve the goals of the Defense Language Transformation Roadmap?
    Answer. I understand that the Army's Senior Language Authority 
(Deputy Chief of Staff, G-3/5/7 and Deputy Chief of Staff, G-2) offices 
led the Army's efforts to accomplish actions required by the Defense 
Language Transformation Roadmap, working in accordance with validated 
requirements and approved resourcing. I have been advised that the Army 
will continue to integrate its efforts for increasing cultural 
understanding, regional awareness, and language proficiency while 
supporting the Defense Language Transformation Roadmap goals. The Army 
is actively pursuing a number of directed measures, while continuing to 
refine its strategic vision of leader skill needs. Some examples of 
these measures are improving the foreign language testing system, 
providing language support to warfighters in theater, and expanding 
immersion opportunities for Military Academy Cadets, foreign area 
officers, and the professional linguist corps. The most critical 
challenge facing the Army appears to be determining what will be needed 
10-20 years from now in terms of foreign language, cultural awareness, 
and regional expertise. Currently, language familiarization and 
cultural awareness training are integrated into every phase of pre-
deployment training.
    Question. What is your assessment of an appropriate timeframe 
within which results can be realized in this critical area?
    Answer. I have been advised that there are several areas that meet 
the Defense Language Transformation Roadmap timeline, such as the 
expansion of the Translator Aide Program, on-line language training for 
the entire force, and web-delivered Defense Language Proficiency 
testing. I understand that the Army is striving to fulfill the actions 
required by the Defense Language Transformation Roadmap with the 
introduction of programs and processes that brings us closer to DOD 
goals within resource availability. I fully appreciate that this is a 
dynamic requirement that changes as the challenges of global war on 
terror moves from region to region, demanding different language 
skills.
                        military quality of life
    Question. In May 2004 the Department published its first 
Quadrennial Quality-of-Life Review, which articulated a compact with 
military families on key qualify of life factors, such as family 
support, child care, education, health care, and morale, welfare and 
recreation services.
    How do you perceive the relationship between qualify of life and 
your own top priorities for recruitment, retention, and readiness of 
Army personnel?
    Answer. To sustain an All-Volunteer Force composed of highly 
competent soldiers, I believe the Army must ensure soldiers and their 
families are provided a high quality of life. Caring for soldiers and 
Army families through tangible quality-of-life programs provides a 
sense of belonging and sustains motivation for continued service. This 
will be one of my high priorities if I am confirmed.
    Question. If confirmed, what further enhancements to military 
quality of life would you make a priority, and how do you envision 
working within the Army to achieve them?
    Answer. My understanding is the Army Well-Being programs provide 
Army's leaders a variety of ways to care for soldiers and their 
families. If confirmed, I will partner with other Army leaders in their 
commitment to enhance numerous programs such as soldier and family 
housing, education, health care, morale, welfare, and recreation; 
family programs, and the U.S. AW2 Program which will have an enduring 
effect on soldiers' morale and contribute immeasurably to the Army's 
ability to sustain a volunteer force.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Army for Manpower and Reserve Affairs.
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John Warner
                     senior executive service corps
    1. Senator Warner. Mr. James, I note that there has been 
significant movement and reassignment of Senior Executive Service (SES) 
positions in the Army. Please give the committee your views on where 
the Army is going with this process and what the desired end state is 
with the distribution of SESs throughout Army organizations.
    Mr. James. I believe that it is the Army's intent to develop its 
civilian senior executives in a manner similar to that in which they 
have historically developed their general officers. As the Army 
continues their systemic and progressive assignment pattern, the 
desired end state will generate an executive talent pool of adaptive, 
multi-skilled leaders capable of filling increasingly more complex 
senior executive positions vital to supporting the Army's joint, 
interagency, and multinational operations.

    2. Senator Warner. Mr. James, do you think the SES corps should 
routinely be organizationally and geographically reassigned every few 
years, as military officers are?
    Mr. James. I think that the SES corps should periodically be 
reviewed and evaluated for organizational and, as applicable, 
geographical reassignments in support of SES development and the Army 
mission. This systemic and progressive reassignment pattern the Army 
leadership has implemented aligns with and reinforces succession 
planning goals, it provides professional career development of senior 
executives similar to that of general officers, and it facilitates 
interchangeability of general officers and civilian executives, when 
necessary and where practicable. It also reinforces the concept of 
``One Army.''

    3. Senator Warner. Mr. James, the committee understands that there 
are different categories of senior civilian leadership--SES, ST, and 
SL--which typically are comprised of supervisory managing engineers 
(SES), and nonsupervisory scientific specialists (ST) (the SL category 
is apparently not widely used). We also are aware that the Army 
leadership wants to replace SES program management positions with 
nonsupervisory ST positions, at the same pay level. Does this make 
sense to you?
    Mr. James. I believe that it is imperative for leadership to 
utilize its resources in a manner that aligns with and reinforces the 
organization's mission. I understand that the Army is taking a critical 
look at the distinct functions and roles of the SES, ST, and SL 
positions and ensuring that these resources are appropriately utilized 
and aligned. Therefore, when appropriate, Army would replace SES with 
or intermix ST or SL positions strategically in areas involving the 
performance of high-level research and development, such as physical, 
biological, medical, and engineering sciences, and special assistant 
and/or highly specialized work. I further understand that the Army 
intends to manage its executive and senior professional positions in a 
manner consistent with the business transformation goals and 
objectives.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka
                        army manpower capability
    4. Senator Akaka. Mr. James, in your advanced testimony you state 
that the Army's ability to be fully staffed remains one of the most 
complex and challenging missions of the Army today and in the future. I 
am concerned that ongoing operations in Iraq and Afghanistan have had 
an adverse impact on this Nation's ability to respond to crises in both 
the Middle East and other regions. Given that the Army's manpower 
capability is already stretched thin, to what extent do you believe 
that an All-Volunteer Army will be able to effectively respond to 
additional conflicts?
    Mr. James. For the first time in our country's history, we are 
fighting a protracted war with an All-Volunteer Army. During this 
ongoing war on terrorism both recruiting and retention have remained 
strong. In fact the Army has experienced some of its strongest 
retention rates over the past 3 years. We have experienced some 
problems but overall both recruiting and retention continue to meet and 
exceed goals. Our Army is sustaining combat operations and meeting its 
obligations worldwide. Soldiers serving combat tours continue to 
reenlist at high rates. Today's Army is the finest Army in the history 
of our country. The All-Volunteer Force is strong and capable and has 
the ability to respond to our Nation's needs.

    5. Senator Akaka. Mr. James, what contingency plans have been put 
into place in order to effectively respond to new crises?
    Mr. James. The Army, as a member of the Joint Force, is fully 
capable for executing the missions assigned to it by the Secretary of 
Defense or the President. The Army is rebalancing its force structure 
to increase capacities for Special Operations Forces and general 
purpose forces while transforming to a more modular force to improve 
its agility to be decisive against any potential threat. We are 
implementing the Army Force Generation Model to create predictable, 
sustainable force readiness for steady state and surge requirements. 
Also, we are continually reviewing the status of recruiting and 
retention to ensure that we have the necessary skill sets for future 
capabilities as documented in the force structure.
                                 ______
                                 
    [The nomination reference of Ronald J. James follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     July 21, 2006.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Ronald J. James, of Ohio, to be an Assistant Secretary of the Army, 
vice Reginald Jude Brown.
                                 ______
                                 
    [The biographical sketch of Ronald J. James, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of Ronald J. James
    On May 19, 2003, Ronald James joined the Department of Homeland 
Security (DHS) when he was appointed as the first Chief Human Capital 
Officer (CHCO). The CHCO serves as the Department's lead executive for 
all matters relating to Human Resource management, including policy, 
strategic planning, learning and development, recruitment, performance 
management, compensation, benefits, union relations, employee 
relations, and other areas. Mr. James served in this position until 
September 2005 when he was asked by the Secretary to serve as a special 
advisor on human resource issues. Mr. James agreed to return to the 
position of CHCO in an acting capacity as of June 12, 2006, until a new 
CHCO is selected.
    Prior to joining DHS, Mr. James was a partner at the international 
law firm of Squire Sanders and Dempsey in Cleveland, Ohio, where he 
specialized in regulatory, labor, and employment matters. He was 
appointed by former President Ford and confirmed by the U.S. Senate to 
the position of Administrator of the Wage and Hour Division, U.S. 
Department of Labor, where he managed the enforcement activities, 
procedures, and standards of 300 offices nationwide,
    He graduated from the University of Missouri in Columbia, Missouri, 
with a Bachelor of Arts in Political Science and received a Master of 
Arts in Economics and Political Science from Southern Illinois 
University in the Washington, DC, extension. He also earned a Juris 
Doctor from American University Law School in Washington, DC.
    Mr. James also served as a lieutenant in the 101st Airborne 
Division Artillery in the United States Army.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Ronald J. 
James in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Ronald J. James.

    2. Position to which nominated:
    Assistant Secretary--Manpower and Reserve Affairs, Department of 
the Army.

    3. Date of nomination:
    July 21, 2006

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    April 8, 1937; Centerville, Iowa.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Patricia S. (O'Donnell) James.

    7. Names and ages of children:
    Kevin D. James, 44; Ronad James, Jr., 42; Kelly A. James, 30; 
Shannon M. James, 32; Catlin James-Stewart, 25.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Southern Illinois University, Master of Arts, September 1972.
    American University School of Law, Juris Doctorate, June 1966.
    University of Missouri, Bachelor of Arts, August 1959.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Chief Human Capital Officer, Department of Homeland Security, 
Washington, DC, June 2006-Present.
    Senior Policy Advisor to the Under Secretary for Management, 
Department of Homeland Security, Washington, DC, September 2005-May 
2006.
    Chief Human Capital Officer, Department of Homeland Security, 
Washington, DC, May 2003-August 2005.
    Partner, Squire Sanders & Dempsey, International Law Firm, 
Cleveland, OH, March 1977-May 2003.

    10. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    White House Staff, Donald Rumsfeld.
    Assistant County Attorney, Blackhawk County, Iowa.
    Staff, Congressman Donald Rumsfeld (IL).
    Staff, Congressman Jim Bromwell, (IA).
    Regional Attorney-Chicago, EEOC.
    Administrator, Wage & Hour Division, U.S. Department of Labor.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    American Bar Association.
    Iowa Bar Association.
    Member, Delta Sigma Rho, National Speech Honor Society.
    Catholic Youth Organization, Soccer Coach.

    13. Political affiliations and activities:
    Republican.
    Volunteer, Presidential Campaign, Nelson Rockefeller, 1959.
    Volunteer, Presidential Campaign, John McCain, 2000.
    Congressional Campaign Worker, James Bromwell, R-Iowa, 1964.

    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Distinguished Alumnus, Centerville High School, Centerville, Iowa.
    Numerous soccer coaching, volunteer awards, e.g. Catholic Youth 
Organization.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Please see attached list.
    [Nominee responded and the information is contained in the 
committee's executive files.]

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes, I agree.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   Ronald J. James.
    This 30th day of August, 2006.

    [The nomination of Ronald J. James was reported to the 
Senate by Chairman Warner on September 28, 2006, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on September 29, 2006.]


NOMINATIONS OF SCOTT W. STUCKY TO BE A JUDGE OF THE UNITED STATES COURT 
OF APPEALS FOR THE ARMED FORCES; AND MARGARET A. RYAN TO BE A JUDGE OF 
        THE UNITED STATES COURT OF APPEALS FOR THE ARMED FORCES

                              ----------                              


                        MONDAY, DECEMBER 4, 2006

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:34 p.m. in room 
SR-222, Russell Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner and Levin.
    Committee staff members present: Charles S. Abell, staff 
director; Leah C. Brewer, nominations and hearings clerk; and 
Catherine E. Sendak, special assistant.
    Majority staff members present: Regina A. Dubey, 
professional staff member; Ambrose R. Hock, professional staff 
member; Gregory T. Kiley, professional staff member; Sandra E. 
Luff, professional staff member; Derek J. Maurer, professional 
staff member; David M. Morriss, counsel; Stanley R. O'Connor, 
Jr., professional staff member; Lynn F. Rusten, professional 
staff member; Diana G. Tabler, professional staff member; and 
Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Jonathan D. Clark, minority counsel; 
Gabriella Eisen, professional staff member; Gerald J. Leeling, 
minority counsel; Peter K. Levine, minority counsel; and 
William G.P. Monahan, minority counsel.
    Staff assistants present: David G. Collins and Benjamin L. 
Rubin.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good afternoon, everyone. The committee 
will now come to order.
    I'm very pleased to have before the committee this morning 
Scott Stucky and Margaret Ryan, who have been nominated to be 
judges on the United States Court of Appeals for the Armed 
Forces (USCAAF).
    We welcome Mr. Stucky, his wife, Jean, and their children, 
Mary-Clare and Joseph, who have joined us today, and I wonder 
if you'd introduce, Mr. Stucky, at this time, the rather large 
group that you, fortunately, are having to backstop this 
nomination? [Laughter.]
    Mr. Stucky. Thank you, Mr. Chairman.
    In addition to my immediate family, I have here my sister, 
Judi Jacobson, from Kansas City; my sister-in-law, Catherine 
Seibert, her husband, Fred, and their daughter, Emma, from 
Bethesda, Maryland; my brother-in-law, Dick Joyce, and my 
sister, Valerie Stucky, retired Federal employees, who live in 
Fairfax, Virginia; my father-in-law, Ed Seibert, from Oxon 
Hill, Maryland; my wife's cousin and a good friend, Phil 
Seibert, from Cincinnati--Phil served in the 1st Cavalry in 
Vietnam and was awarded the Bronze Star for Valor--and his son, 
Chad.
    Chairman Warner. Thank you very much.
    I think it's so important when families come. I'll address 
it later, but we take note that you join a court that's 
presided over by a chief judge, who, like you, was a member of 
the staff of the Armed Services Committee.
    Mr. Stucky. Yes, sir.
    Chairman Warner. I think it's very important, from time to 
time, that the extraordinary staffs that we have on this 
committee, a number of whom are here today to pay their 
respects to you, Mr. Stucky and your family, are selected by 
the President to hold down positions of great importance 
outside of Congress, drawing on their extensive experience that 
they've had with this committee.
    It is often said that our committee--and I say this with a 
sense of humility, and I'm sure my distinguished friend, and 
the oncoming chairman, will share with me--this committee is 
recognized in the institution of the Senate as having one of 
the finest combined professional and personal staff members of 
any committee of the United States Senate. You are an 
extraordinary representative of that distinguished pool, Mr. 
Stucky.
    Mr. Stucky. Thank you, sir.
    Chairman Warner. We welcome Ms. Ryan and her husband, 
Michael Collins, and their family and friends. Would you kindly 
introduce your family for the record?
    Ms. Ryan. Yes, Mr. Chairman.
    My husband, Michael Collins; my father, Dan Ryan, and my 
mother, Suzanne Ryan; my mother- and father-in-law, Cathy and 
Tom Collins, from Westchester, Pennsylvania; my dear friends, 
Kate and Gordon Todd, from Alexandria, Virginia; and my 
colleague and friend, Fred Fielding--also from Virginia.
    Chairman Warner. I will put into the record, of course, the 
detailed biography of each of you, but I note, Ms. Ryan, you've 
had a very distinguished career in the United States military, 
coupled with your legal career, and we're fortunate to have the 
benefit of that experience. We thank you and your family for 
undertaking this, now, a new chapter in your otherwise 
distinguished career. Thank you.
    The USCAAF was established in 1951 under the provisions of 
the Uniform Code of Military Justice (UCMJ). Since then, the 
court has become firmly established as the guardian and 
provider of civilian oversight over the military justice system 
and has produced a body of jurisprudence that the legal 
profession and all judge advocates can point to with great 
professional pride. It is a great honor to be nominated to 
serve as a judge on the USCAAF, and I commend both of you for 
having received that recognition.
    In light of your respective resumes of service and legal 
achievement, I believe that the President has chosen wisely and 
that you will take your place among the distinguished members 
of this court and continue to uphold its highest professional 
traditions.
    Mr. Stucky is a graduate of Wichita State University and 
the Harvard Law School, holds an LL.M. from George Washington 
University, and served on Active-Duty with the Air Force as a 
judge advocate from 1973 to 1978, including a year-long 
assignment in Thailand in support of the operational forces. 
After leaving Active-Duty, Mr. Stucky continued to serve in the 
Air Force Reserve for over 21 years, rising to the rank of 
colonel. In a memorable ceremony in the Caucus Room in November 
2003, Mr. Stucky retired from the military service with the Air 
Force, receiving the Legion of Merit Award.
    You've also served as a civilian attorney with the Nuclear 
Regulatory Commission and with the Department of the Air Force 
for over 13 years before joining the professional staff of our 
committee as general counsel in 1996.
    In that decade of service, you played a vital role in the 
committee's achievements, and demonstrated your mastery of the 
law. That's a pretty big word, ``mastery of the law.'' 
[Laughter.]
    I think I'll strike that and say your ``understanding of 
the law.'' [Laughter.]
    None of us have mastered it, not even those of us who sit 
here and write it. [Laughter.]
    The unique rules and practices of the Senate and the 
congressional history and precedents on which we rely. Mr. 
Stucky is known for his integrity, his unerring wisdom and 
advice, and his generosity of time and spirit in serving all of 
the Senate and staff who have worked with him on this 
committee. We thank you and your family for your dedicated 
service on this committee and to the Senate.
    Mr. Stucky. Thank you, Mr. Chairman.
    Chairman Warner. Now, Ms. Ryan attended Knox College and 
the University of Notre Dame and served as a law clerk for 
Judge Michael Luttig of the U.S. Court of Appeals for the 
Fourth Circuit, and for Justice Clarence Thomas on the United 
States Supreme Court. That's quite an achievement. I was 
privileged to serve as a law clerk to a Federal Circuit Court 
of Appeals judge, and I'm fully aware of the competition and 
the challenge to serve in those positions.
    Ms. Ryan served on Active-Duty in the Marine Corps from 
1987 through 1999 as a communications officer. I, likewise, 
served in the Marine Corps, first as an infantry officer, then 
as a communications officer. That was before you were born. 
[Laughter.]
    She served as judge advocate, and served as a company 
commander, platoon commander, operations officer, and trial 
attorney. She deployed to the Philippines and to Saudi Arabia 
during Operations Desert Shield and Desert Storm. Her last tour 
on Active-Duty was as aide-de-camp to General Charles Krulak. 
That was a challenge under the former Commandant of the Marine 
Corps. [Laughter.]
    Ms. Ryan. Yes, sir. [Laughter.]
    Chairman Warner. I have the highest regard for General 
Krulak, and was privileged to know his father, who was a 
lieutenant general in the Marine Corps, and he was quite a 
challenge, also. [Laughter.]
    We received a letter from General Krulak supporting your 
nomination. Without objection, I, with great respect for the 
general, place it in today's record of proceedings.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Chairman Warner. I congratulate you and your family, and 
thank you for your continued willingness to be a public 
servant.
    Senator Levin?

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman.
    First let me join you in welcoming our nominees, Mr. Stucky 
and Ms. Ryan, for these very important judgeships. We join our 
chairman, who was also around before I was born. [Laughter.]
    That's not quite true. He's only a couple of years older 
than me, but, nonetheless, we exaggerate a little bit when it 
comes to age. Usually we exaggerate both our ages downward. 
[Laughter.]
    It's been a joy to work with our chairman, and a joy to 
work with you, Mr. Stucky.
    Mr. Stucky. Thank you, sir.
    Senator Levin. I thank your families for coming here, and 
all your friends. Your support for the public service of these 
nominees, may I just tell your family and your friends, is 
absolutely essential to their well-being and to those who they 
serve. We thank you for your support of these nominees over the 
years.
    The USCAAF is an essential component of the military 
justice system. This court, which is sometimes referred to as 
the ``Supreme Court for the Military,'' is, in most cases, the 
final arbiter of the fairness and correct application of the 
UCMJ. This court consists of civilian judges who ensure that 
servicemembers receive the due process and the fair trials that 
they are entitled to while taking into account the military's 
unique requirement for good order and discipline. Through their 
independent judicial review of military justice matters, they 
provide critical civilian oversight to the military justice 
system, and it takes talented judges to strike the correct 
balance. It appears to me that the nominees before us today 
have the skill and the background for these positions.
    As our chairman has pointed out, Mr. Stucky has served as 
general counsel and minority counsel of this committee for the 
last 10 years. He has very ably advised the committee on a wide 
array of legal issues, including issues involving the 
application of the UCMJ. He has worked in a bipartisan manner 
with Senators and staffs--in other words, he's worked with 
staff and members on both sides of the aisle--ensuring the 
smooth operation of the committee.
    The chairman made reference to your unerring wisdom. I'm 
not sure I'd go that far about anybody, but you have shown, 
indeed, wisdom and balance and fairness in all of your 
activities in the committee, and we're grateful for that.
    So, Scott, you can be proud of your service on this 
committee. We're very proud of you and proud of it.
    Mr. Stucky. Thank you, sir.
    Senator Levin. You've also had more than 25 years of 
experience in dealing with military law, including 4 years as 
an appellate counsel and 7 years as an appellate judge on the 
Air Force Court of Military Review.
    Ms. Ryan is similarly well-qualified. Her Active-Duty 
service in the Marine Corps, both as a line officer and as a 
judge advocate, will give her a unique perspective on military 
justice issues as one who was subject to the UCMJ, a commander 
who used the UCMJ to maintain good order and discipline, and as 
a judge advocate. She's also very familiar with appellate 
issues and procedures as a result of her experience as a law 
clerk for two Federal appellate judges, as our chairman has 
pointed out.
    So, Mr. Chairman, I commend the President on these 
nominations, and I look forward to hearing from our nominees.
    Chairman Warner. Thank you very much, Senator Levin.
    I also wish to recognize the presence of Mr. Fred Fielding. 
I have been associated with and known Mr. Fielding for many 
years, a distinguished public servant and a partner to Ms. Ryan 
in that law firm.
    The committee has asked Mr. Stucky and Ms. Ryan to answer a 
series of advance policy questions. Those have been responded 
to. Without objection, I'll make the questions and responses a 
part of today's record.
    I also have certain standard questions we ask of nominees 
who appear before the committee, and I ask Mr. Stucky and Ms. 
Ryan, please respond to each question.
    You have written these questions through the years, Mr. 
Stucky; now it's up to you to answer them, and answer them 
properly.
    Have you, Mr. Stucky and Ms. Ryan, adhered to applicable 
laws and regulations governing conflicts of interest?
    Mr. Stucky. Yes, sir.
    Ms. Ryan. Yes, sir.
    Chairman Warner. Thank you.
    Have you assumed any duties or undertaken any actions which 
would appear to presume the outcome of this confirmation 
process of the United States Senate?
    Mr. Stucky. No, sir.
    Ms. Ryan. No, sir.
    Chairman Warner. Will you ensure that your staff complies 
with deadlines established for requested communications, to the 
extent that that is appropriate in your unusual positions to 
which you're going?
    Mr. Stucky. Yes, sir.
    Ms. Ryan. Yes, sir.
    Chairman Warner. Now, I call on both nominees to provide 
their opening remarks to the committee.
    Mr. Stucky?

   STATEMENT OF SCOTT W. STUCKY, TO BE A JUDGE OF THE UNITED 
          STATES COURT OF APPEALS FOR THE ARMED FORCES

    Mr. Stucky. Mr. Chairman, Senator Levin, it is a great 
privilege to appear before the committee as the President's 
nominee to be a judge of the USCAAF.
    I would first like to thank the President for his 
confidence in me. If confirmed and appointed, I will do my very 
best to vindicate that confidence.
    Mr. Chairman, I am profoundly grateful to you for your 
unfailing support of me throughout this process, and, in 
particular, for holding this hearing in such a timely manner.
    Finally, I would like to thank my family, my wife, Jean, my 
children, Mary-Clare and Joseph, and all my relatives and 
friends who are here today. Your love and support have made 
this day possible.
    I would also like to thank my parents, Joe and Emma Clara 
Stucky, of Pretty Prairie, Kansas, who cannot be here today. It 
was from them that I first learned the values of duty and hard 
work. I would not be here today if it were not for them and 
their influence.
    Mr. Chairman, the administration of military justice under 
law is one of the most important legislative responsibilities 
of this committee. Our country is a democratic republic that is 
also a world power, which maintains large Armed Forces without 
resorting to conscription. In such a situation, a successful 
system of military justice must carefully balance the absolute 
necessity of good order and discipline with due process and the 
rights of the accused. History teaches that Armed Forces that 
lack good order and discipline are not only incapable of 
protecting the liberties of the people, but are a positive 
danger to those liberties. At the same time, to be acceptable 
in a republic of free citizens who serve voluntarily, such a 
system must not only be fair, it must be seen to be fair. A 
great responsibility, therefore, lies upon everyone who labors 
in the vineyards of military justice, from the junior judge 
advocate drafting charges and specifications, or the junior 
enlisted person preparing paperwork, to the judges of the Court 
of Appeals.
    Mr. Chairman, you stated, in a different context earlier 
this year, that ``Congress must get this right.'' Fifty-five 
years ago, this committee and Congress got it right when it 
enacted the UCMJ. While nothing human is perfect, the fact that 
the code has endured since the Korean War with only two major 
amendments, and is in daily use today in circumstances vastly 
different from those that obtained in the Armed Forces when it 
was enacted, is proof of that fact.
    One of the major innovations of the UCMJ was the 
introduction of an independent civilian court, originally 
called the Court of Military Appeals, to provide final review 
of courts-martial. One who studies the history of the court 
will find that there existed a substantial amount of opposition 
to the idea of an independent court at the top of the military 
justice system. Even after the code was enacted, there was some 
question as to what the court would become, a real court, or 
some sort of administrative body within the Department of 
Defense. To the great credit of the early judges of that court, 
it soon became apparent that this would be a true court of 
appeals, acting as such within the jurisdiction that Congress 
gave to it. No one today denies or questions the court's 
status. If confirmed and appointed, I intend to build on the 
work of the first judges and those who came after them, 
continuing the tradition of judicial independence and 
jurisprudence that has marked the court since those early days.
    Mr. Chairman, this concludes my formal opening statement. I 
cannot close, however, without saying one other thing. I have 
served as the general counsel or minority counsel of this 
committee for 10 years. To have worked under chairmen like you 
and Senator Thurmond; under staff directors like Les Brownlee, 
Judy Ansley, and Charlie Abell; with colleagues like Dick 
Walsh, Diana Tabler, Patty Lewis, Dave Morriss, and Ann 
Mittermeyer; and with minority staff of the caliber of Peter 
Levine, Rick DeBobes, and Gary Leeling has been one of the 
great privileges of my life. If confirmed, I look forward to 
the challenges of the future, but I will never forget the 
experience that I had here. This committee is proof that 
bipartisan cooperation in the interest of the Nation works. 
Legislation at the level at which this committee operates can 
only be done in that spirit. Mr. Chairman, Senator Levin, you 
have exemplified that spirit.
    Thank you, Mr. Chairman. I await your questions.
    Chairman Warner. Thank you for a very thoughtful statement, 
Mr. Stucky.
    I would say to my distinguished colleague, Senator Levin, 
in the years to come I would hope that I can reciprocate for 
the strong support that you've given this nomination and 
persons perhaps of your choice in the years to come.
    Senator Levin. Thank you.
    Chairman Warner. They are most deserving, our staff people.
    Now, Ms. Ryan?

  STATEMENT OF MARGARET A. RYAN, TO BE A JUDGE OF THE UNITED 
          STATES COURT OF APPEALS FOR THE ARMED FORCES

    Ms. Ryan. Thank you.
    Mr. Chairman and Senator Levin, thank you for the honor and 
privilege of appearing before you as nominee to be a judge on 
the USCAAF.
    Like Mr. Stucky, I want to express my thanks to the 
President for his confidence and trust in nominating me for 
this position. If I'm confirmed by the Senate, I pledge to do 
everything I can to live up to that confidence and trust.
    To my friends and family that traveled to be here with me 
today, thank you very much. To my mother and father, Dan and 
Suzanne Ryan, you raised six children to be honest, to give 
their best efforts to every job that they had, and to have 
compassion for others. I thank you for those lessons.
    I spent over 12 years in the United States Marine Corps in 
diverse roles and places. The Marine Corps values of integrity, 
honor, courage, and commitment define a way of life, and it's a 
life that I am thankful for having had the opportunity to 
embrace. Over the course of my career in the military, as a law 
clerk, and as a practitioner, I have had the privilege and 
opportunity to work for, and learn from, some very exceptional 
and fine people. I am humbled and grateful for the examples and 
opportunities that I have been given.
    If I am confirmed, I welcome the opportunity for additional 
public service on the USCAAF. The men and women of this 
Nation's Armed Forces are people, men and women, of integrity 
and intelligence, and they are people who sacrifice so much for 
us every day.
    The USCAAF serves an important role in maintaining the rule 
of law in our system of military justice and in ensuring public 
confidence in that system. If I am confirmed, I pledge to 
undertake this grant of public trust with integrity and 
humility, to approach each case with an open mind, and to fully 
and fairly analyze the legal arguments presented, and decide 
each case according to the rule of law. The men and women of 
this Nation's Armed Forces deserve nothing less.
    Thank you for allowing me to appear before you today, and I 
will be happy to answer any questions you may have.
    Chairman Warner. Thank you for your statement; likewise, 
with Mr. Stucky, it was a well-prepared and well-delivered and 
a meaningful statement.
    I must say I thank you for the recognition of what the 
Marine Corps did for you. It certainly did the same for me. I'm 
sure that all who are privileged to serve in the uniform of our 
country look back upon that as a valued chapter in their own 
careers. I appreciate that recognition that you gave; likewise, 
both of you, to your parents.
    So, I'll start off the questions here.
    Each of you has served as a judge advocate on Active-Duty 
and has a wealth of experience with the Armed Forces, the 
military justice system, and the men and women who proudly 
serve in the uniform of our forces. Do you believe that the 
rights afforded to servicemembers who are tried by court-
martial are comparable and equal to the rights of individuals 
who are tried in civilian courts?
    Mr. Stucky?
    Mr. Stucky. Yes, Mr. Chairman, I do. In many respects, the 
rights afforded the accused under the UCMJ are better protected 
and better secured than those afforded the accused in, say, a 
typical State criminal justice system. For one thing, the 
accused is guaranteed competent, trained, free defense counsel, 
provided at Government expense. The accused is tried in a 
system that is protected statutorily and by the oversight of 
the USCAAF from unlawful command influence. The accused is 
tried in a system where the necessary resources are available 
so that the pressure to plea bargain cases, to settle cases, is 
not present, as it is in many civilian court systems. So, I 
would state, Mr. Chairman, that the rights of the accused are 
at least as well--and, in many respects, better--secured under 
the UCMJ than in your average State criminal system.
    Chairman Warner. Thank you very much.
    Ms. Ryan?
    Ms. Ryan. Yes, Mr. Chairman, I join the comments of Mr. 
Stucky and would simply add that I believe that the Article 31 
rights that are afforded to our servicemembers give them 
greater protection against interrogations than people have in 
the civilian world, and that there's also a greater ability to 
have access to information at the investigatory stage, and to 
participate in an Article 32 investigation before any serious 
charges could be referred to a general court-martial. I think 
that that's a very different system than the grand jury system 
that you find in the civilian world.
    Chairman Warner. Thank you.
    Are there any aspects of the military justice procedures of 
criminal law that you feel should be examined by Congress and 
perhaps appropriate legislation placed in the code?
    Ms. Ryan, why don't you lead off on that.
    Ms. Ryan. Mr. Chairman, based on the information that I 
have today, I am confident that the military justice system, as 
it is currently established, is working and functioning as it 
is intended to. I also understand that there are annual reviews 
of the military justice system and of the UCMJ, and believe 
that, if any changes are necessary, that they will be brought 
to the attention of this committee, and that the change will be 
made through the legislative process.
    Chairman Warner. Thank you. I would invite you to either 
incorporate in such opinions as you may write those views, 
should they change.
    Ms. Ryan. Thank you, Mr. Chairman.
    Chairman Warner. Mr. Stucky?
    Mr. Stucky. I would agree with Ms. Ryan, and I would simply 
say, Mr. Chairman, that one of the great benefits of this 
court's status is the fact that it receives meaningful, and, I 
would say, expert oversight, from this committee and the staff 
of this committee in ways that the Article 3 courts don't. As 
Ms. Ryan pointed out, under Article 146 of the code there is a 
Statutory Code Committee that is supposed to conduct an annual 
survey of the code and make legislative recommendations to 
Congress. There is also a nonstatutory Joint Service Committee 
made up of experienced military justice practitioners within 
the Services that does the same thing. The Judge Advocates 
General and the Department annually recommend such changes as 
they think are necessary to the code.
    Chairman Warner. The jurisdiction of the USCAAF is set 
forth in the UCMJ, but, under our system of federalism, each 
State has the authority and responsibility to establish its own 
criminal code to be applied to the National Guard of the 
respective States. A model UCMJ has been drafted, at 
congressional direction, but implementation has been slow to 
change that. Would there be advantages of a UCMJ for the 
National Guard? What role, if any, do you think the USCAAF 
should play in generating that support?
    Mr. Stucky. Mr. Chairman?
    Chairman Warner. Yes.
    Mr. Stucky. A few years ago, in the National Defense 
Authorization Act, this committee and the House committee 
produced legislation that, to some extent, cleaned up the very 
ancient statutes in title 32, U.S.C., that governed courts-
martial in the Guard when not in Federal service. Report 
language accompanying that statutory amendment called on the 
Department to develop such a model code for the States, which 
the Department has done, and has forwarded to the States.
    My personal opinion is that the States, while this is under 
our Federal system, this is a matter for the State 
legislatures--is that the States would benefit from adoption of 
such a code. I have not reviewed the model State code, but I 
believe that the States would benefit from more uniformity in 
this area.
    Because of the court's status, I don't see the court acting 
as a legislative proponent for this kind of thing with the 
States. That's something the Department would have to do, but I 
do think that the States would benefit from greater uniformity 
in this area, if their legislatures see fit to adopt it.
    Chairman Warner. Counselor Ryan?
    Ms. Ryan. Yes, Mr. Chairman, I agree with Mr. Stucky that 
this is a matter for the State legislatures to decide, and that 
there would certainly potentially be some benefit to uniformity 
with respect to the National Guard units, but that that's a 
matter for the State legislatures and one over which the USCAAF 
would not have any input or jurisdiction.
    Chairman Warner. Thank you very much.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    Ms. Ryan, in response to your advance policy questions, you 
identified three areas as weaknesses in the military justice 
system: unlawful command influence, the commander's role in the 
military justice system, and the potential for significant 
variances in treatment of similar offenses by different 
commands. Commanders serve in several roles in the military 
justice system. The lower-level commanders routinely profer 
charges and recommend the type of court to adjudicate the 
charges. More senior commanders refer charges to various levels 
of courts, select court members, conduct post-trial reviews, 
and either approve or reduce sentences adjudged by courts-
martial. Which of the roles, in particular, cause you concern 
and tell us why, if you would.
    Ms. Ryan. Senator Levin, I don't have a particular concern 
about unlawful command influence or about the role of the 
commander in any particular phase of the military justice 
system. I think that my answer is pointing out the fact that if 
you look at the military justice system, and if you look at 
places where there would be potential for concern, that those 
were the three that I identified. I understand that there is a 
lot of public discussion about the issue of the commander 
having a role in every aspect of the military justice system, 
and I would simply respond, sir, that those decisions were made 
by the legislature and are set forth within the UCMJ, which is 
intended to allow commanders to deal with legal issues in 
matters of command discipline at the lowest level possible.
    Senator Levin. Could each of you give us your opinion on 
how well the military Services are doing in preventing unlawful 
command influence?
    Mr. Stucky?
    Mr. Stucky. Senator Levin, my impression from reading the 
advance sheets of the USCAAF and from my service on the Air 
Force court is that the Services and the USCAAF are extremely 
attuned to the danger of unlawful command influence. Certainly, 
the USCAAF is very awake to the danger of it, and, in cases in 
which unlawful command influence is alleged, is very eager to 
look at these things.
    I believe the Services do a good job at trying to put down 
unlawful command influence, but, because of the nature of the 
beast, and, because, as you point out, the commanders at 
various levels are interwoven throughout the system, the 
potential always exists; and, therefore, everyone, particularly 
everyone in a supervisory responsibility in the military 
justice system, has to keep eternally alert for evidence of 
unlawful command influence in particular cases.
    Senator Levin. Thank you.
    Ms. Ryan?
    Ms. Ryan. Yes, Senator Levin. I agree with Mr. Stucky that 
there is certainly a concern about unlawful command influence 
at every level of the military. I believe that the men and 
women that serve in our Armed Forces, across the board, are men 
and women of intelligence and integrity, but I also understand 
that there are times when people don't always do what is right. 
Certainly, the decisions of the USCAAF have dealt very 
carefully with the issue of unlawful command influence, which, 
of course, we all understand is not just the commander, but is 
behavior by any person that is subject to the code that 
attempts to coerce or influence the results of the courts-
martial. Because the USCAAF has dealt with instances of 
unlawful command influence firmly and with results that I'm 
sure that commanders were not happy with, I would expect that 
they have been educating themselves and their subordinates to 
try and deal with the issue at those levels, as well.
    Senator Levin. Thank you.
    I've been calling you ``Stucky'' for 10 years or ``Mr. 
Stucky.''
    Mr. Stucky. Sir, most people do. [Laughter.]
    Senator Levin. So, it's kind of hard to call you ``Mr. 
Stooky.'' [Laughter.]
    I gather when you introduced your dad, your pronounced his 
name ``Stooky.'' I turned around and checked with the staff 
here, and said, ``Have I been mispronouncing your name for 10 
years?'' So have they. So, will you forgive, not only me, but 
the entire staff for mispronouncing your name for all these 
years? [Laughter.]
    Mr. Stucky. Indeed, sir.
    Senator Levin. So, now I'm going to call you ``Mr. 
Stooky,'' for the first, and probably the last, time that we'll 
be talking. [Laughter.]
    As general counsel for this committee, Mr. Stucky, you've 
advised Senators on the shaping of legislation, including 
changes to the UCMJ. Is there some aspect of your work on this 
committee that might disqualify you from acting on certain 
cases?
    Mr. Stucky. Sir, I think the definitive essay on that very 
question can be found in volume 48 of Military Justice (MJ) 
Reporter and was written by my predecessor, Chief Judge Andrew 
Effron, when faced with a similary situation in a case called 
United States v. Gorski. The rule, as I understand it, sir, is 
that involvement with a justice issue in a legislative context, 
without involvement in a particular matter that may come before 
the court, is not disqualifying. In other words, working on 
military justice issues, even working on a specific military 
justice issue that may eventually be construed by the court, is 
not, in and of itself, disqualifying, but handling any sort of 
particular matter, as might be done in casework or that kind of 
thing, would require recusal. Now, if presented with an issue 
in which I thought there was any danger of not only a conflict 
of interest, but the appearance of a conflict of interest that 
might raise questions about my status on the court, I would err 
on the side of caution and probably recuse myself. But Judge 
Effron was faced with that very question, and he wrote a very 
elegant essay on the question, which you can read.
    Senator Levin. What about interpreting or ruling on the 
constitutionality of legislation that you helped to shape, 
would that fall in the recusal area?
    Mr. Stucky. Again, sir, absent involvement in a particular 
matter, as a member of the legislative staff, I don't believe 
so.
    Senator Levin. Let me ask this to both of you. When 
Congress considered the military commissions bill in September, 
we considered giving appellate jurisdiction to the USCAAF, the 
court that you will be soon, hopefully, confirmed to. We 
decided to do something differently, and, rightly or wrongly, 
in one sense, I guess--this is overtaken by events, but--in 
your view, would the court have the appropriate qualifications 
and expertise to handle such jurisdiction? Should we change 
course?
    Mr. Stucky. Sir, if what is contemplated is simply taking 
direct review of final decisions of the commissions from the 
D.C. Circuit and placing it in USCAAF, in my opinion USCAAF has 
the personnel and the organization to do that. If what were 
contemplated were something more, like taking the whole 
Combatant Status Review Tribunal (CSRT) habeas process and 
moving it, that would, in my judgment, completely change the 
character of the court, and would place in it administrative 
litigation of a kind it's never seen. That would be a different 
matter. Your question went to resources and ability. I'm not 
sure that, if the whole CSRT thing were placed over there, the 
court would be set up to handle that.
    Senator Levin. Okay, thank you.
    Ms. Ryan?
    Ms. Ryan. Yes, Senator Levin. I'm not familiar with the 
scope of persons or the number of cases that we're talking 
about that would be subject to the Military Commissions Act, so 
I can't comment, in that respect, with respect to resources, 
but I can say that, with respect to the judges that are 
currently sitting on the USCAAF, and with respect to my review 
of Mr. Stucky's qualification--``Mr. Stooky's'' 
qualifications----[Laughter.]
    --that they all certainly appear to have the requisite 
integrity, intellectual capability, and other abilities and 
resources to handle those matters.
    Senator Levin. Thank you.
    Mr. Chairman, thank you, and I look forward to a prompt 
vote on their confirmations.
    Chairman Warner. I thank you, my distinguished friend and 
colleague.
    I'll ask but one question, then I'll put two into the 
record for purposes of a response by the nominees.
    This intrigues me. The assignments of career-minded judge 
advocates in each of the Services of our Department of Defense 
often involve a wide variety of legal and sometimes operational 
and leadership responsibilities. In other words, he doesn't, or 
she doesn't, have the luxury, as Mr. Fielding--are you still 
paying attention there, Mr. Fielding? [Laughter.]
    --of staying in his office and practicing law, and going to 
and from the courthouse and the library, and he doesn't have to 
wake up and conduct a parade one day, and perhaps a lot of 
other activities. Yet we must recognize that their development 
professionally can be no less than what is afforded in the 
private sector. That is, your level of expertise and 
professional competence must match those of your civilian 
counterparts. So, therefore, my question is, what challenges do 
you see for the Services in ensuring sufficient members of 
judge advocates who are adequately trained in the profession of 
law and so forth, and, at the same time, they have to perform 
these other duties? Perhaps you could comment on that, Colonel, 
since you, perhaps, most recently have departed the uniform.
    Mr. Stucky. Sir, there's no question that in the area of 
trial advocacy in the military justice system, all of the 
Services have a problem that was not the case 20 to 30 years 
ago, when those of us who came out of the Vietnam period as 
JAGs served. In those days, one didn't lack for opportunities 
to prosecute or defend, because, in those days, the base office 
did both--to prosecute or defend accused in courts-martial. 
There were lots of courts-martial. There were lots of 
administrative boards, discharge boards, and the like, where 
one could also get relevant experience.
    If you look at court-martial statistics over the last 30 to 
35 years, in all Services, they have declined a great deal. 
Some of that's due to the fact that the Services have gotten 
smaller. Some of that's due to the fact that we no longer have 
conscription. But a lot of it's due simply to the fact that the 
court-martial rate per thousand personnel, or however you want 
to take it, even given into account the reduction in the size 
of the Services, has gone way down. Young judge advocates in 
the Services do not get the opportunities they once had to try 
courts-martial, or to defend the accused in courts-martial. I 
know the Services have done a variety of things to deal with 
this. Their academic endeavors at the JAG schools are far more 
professional than they once were, but it is a continuing 
problem, and it's something the Services have to watch and, I 
know, are very acutely aware of.
    Chairman Warner. Counselor Ryan?
    Ms. Ryan. Yes, Mr. Chairman. My view of the training that 
is received by judge advocates, which is one part of the 
question I think you're asking--and the other part is, their 
need to do additional things to be part of the military--is 
perhaps slightly different than Mr. Stucky's. As someone who 
had been a line officer in the Marine Corps, when I became a 
judge advocate I think that those experiences as a line officer 
helped me very much in terms of dealing with convening 
authorities and working on cases and understanding where to go 
to find the information I needed to. The lawyers that came in 
that did not have the line experience, the only way that they 
could get that same sort of understanding and respect of their 
peers was to participate in the military aspects of being on 
Active-Duty in the military, even though they were judge 
advocates. But I absolutely agree that those create tensions 
between the things that they need to do, in terms of their job, 
and their need to be an Active-Duty military member or military 
officer. My view is that the training that is received by judge 
advocates in the military is certainly in excess of what you 
need to go and begin practicing law in a private law firm. So, 
for example, though I had graduated from Notre Dame and done 
very well there, the Marine Corps did not say that I could 
simply go and start working on courts-martial, it required me 
to go to Naval Justice School. If I had stayed on Active-Duty, 
there were additional schools that were available. My view, 
based on the experiences I had as a judge advocate in the 
military, is that the staff judge advocates that were in charge 
of the different legal centers did everything that they could 
to ensure that the young lawyers that were in their charge had 
every opportunity to learn a great deal about the military 
justice system, and to get on their feet, if that's what they 
were interested in doing.
    Chairman Warner. Thank you very much. I think that will 
have to bear constant oversight by this committee.
    If you have no further matters, colleague, this committee 
will now stand in recess. We'll forward these nominations, as 
soon as the full committee has had an opportunity to vote on 
them, to the floor.
    I thank all of the family members and others who have 
joined in this most important chapter in the distinguished 
careers of our two nominees.
    Thank you. The hearing is adjourned.
    [Whereupon, at 3:18 p.m., the committee adjourned.]

    [Prepared questions submitted to Scott W. Stucky by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                                 duties
    Question. Subchapter XII of chapter 47 of title 10, U.S.C., 
establishes the United States Court of Appeals for the Armed Forces 
(USCAAF) and provides for its organization and administrative 
procedures.
    What is your understanding of the duties and functions of USCAAF 
and its judges?
    Answer. Congress established USCAAF (then known as the Court of 
Military Appeals) in 1950 to provide appellate review of courts-martial 
by a specialized civilian court that possessed both judicial 
independence and the requisite expertise, in order to promote good 
order and discipline in the Armed Forces while ensuring that justice 
was done in individual cases.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have more than 25 years of experience with military law; 
indeed, if the term is broadly defined, my entire career, other than my 
time in private practice from 1978 to 1982, has been engaged in 
military law. With respect to the appellate review of courts-martial, I 
served for 4 years (1987-1991) as a Reserve appellate government 
counsel in the Air Force, writing more than 100 briefs for the 
government in appeals before the Air Force Court of Military Review and 
the U.S. Court of Military Appeals. I then served for 7 years (1991-
1995, 1997-1998, 2001-2003) as a Reserve appellate military judge on 
the Air Force Court of Military Review (later the Air Force Court of 
Criminal Appeals), one of the Service courts directly below USCAAF in 
the military justice system. During this time, I wrote approximately 75 
judicial opinions on a wide variety of issues.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of a judge on the USCAAF?
    Answer. I have attempted to keep abreast of developments in 
USCAAF's jurisprudence by regularly reading the Court's advance sheets. 
I do not believe that there are other actions that I need to take at 
this time.
                             relationships
    Question. What are the respective roles of each of the following 
with respect to the military justice system and, if confirmed, what 
would your relationship be with:
    The Secretary of Defense.
    Answer. The Secretary of Defense, under 10 U.S.C. 113, exercises 
``authority, direction, and control'' over the Department of Defense. 
He normally would not be involved in particular military justice 
matters, but is ultimately responsible for policy in all areas of the 
Department.
    Article 141 of the UCMJ provides that USCAAF ``is located for 
administrative purposes only in the Department of Defense.'' Thus, my 
relationship with the Secretary would be that of a member of an 
independent judicial establishment within the Department. The drafters 
of the Code and subsequent Congresses clearly intended that the 
military justice system, including USCAAF, be truly independent of 
command influence (see Article 37). In practice, colorable examples of 
interference with the system by senior officials of the Department (as 
opposed to local commanders) have been very rare. See, e.g., United 
States Navy-Marine Corps Court of Military Review v. Carlucci, 26 M.J. 
328 (C.M.A. 1988). Nevertheless, it is essential that the judges of 
USCAAF be ever vigilant to guard the system against any such 
possibility, as the Court of Military Appeals did in the Carlucci case.
    Question. The Chief Judge of the USCAAF.
    Answer. Under Article 143 of the UCMJ, the Chief Judgeship of 
USCAAF is determined by seniority of commission. The Chief Judge has 
certain administrative responsibilities, but is essentially first among 
equals with respect to the other judges of the Court. I would expect 
that my relationship with the Chief Judge would be one of mutual 
respect and collegiality, such as should be the case in an appellate 
court. The fact that the present Chief Judge is a friend for whom I 
have always had the highest respect would only serve to strengthen the 
relationship.
    Question. Judges of the USCAAF.
    Answer. Except for the administrative duties lodged in the Chief 
Judge, the judges of USCAAF are equal, differing only in seniority. I 
would expect that my relations with my fellow judges would be marked by 
that mutual respect and collegiality that should characterize relations 
among judges on any well-functioning appellate court.
    Question. The General Counsel of the Department of Defense.
    Answer. Under 10 U.S.C. 140(b), the General Counsel of the 
Department of Defense is the chief legal officer of the Department, and 
performs such duties as the Secretary may prescribe. The General 
Counsel is not normally involved in the day-to-day operation of the 
military justice system, but is substantially involved in the 
formulation of the Department's legal policy and its legislative 
recommendations to Congress. Subject to the caveats on the independence 
of USCAAF mentioned above in the context of the Secretary of Defense, I 
would anticipate that my relationship with the General Counsel would be 
one of respect, but would not be marked by frequent interaction. It 
should be noted that the judges of USCAAF serve on the Statutory Code 
Committee established by Article 146 of the UCMJ, which is charged with 
the responsibility of making an annual survey of the operation of the 
UCMJ. As members, the judges may have interaction with the General 
Counsel in making recommendations for statutory amendments to the UCMJ.
    Question. The Judge Advocates General of the Army, Navy, and Air 
Force and the Staff Judge Advocate to the Commandant of the Marine 
Corps.
    Answer. Under Article 6 of the UCMJ, the Judge Advocates General 
are statutorily responsible for the administration of military justice 
within their respective Armed Forces. The relationships of the judges 
of USCAAF to the Judge Advocates General must therefore, while 
remaining mutually respectful, always maintain the distance essential 
to the appearance, as well as the actuality, of judicial neutrality and 
independence.
                              legal issues
    Question. What do you anticipate would be the most significant 
legal issues you will face if confirmed as a judge of the USCAAF?
    Answer. The very significant growth in sex offenses, particularly 
those involving children and child pornography, continues unabated. 
USCAAF continues to decide cases involving the Child Pornography 
Protection Act, 18 U.S.C. 2252A, e.g., United States v. Cendejas, 62 
M.J. 334 (2006), and may be expected to continue to do so.
    The USCAAF recently entered the field of privacy rights in e-mail 
sent and maintained on a government server, see United States v. Long, 
64 M.J. 57 (2006). This area will no doubt be productive of litigation 
for years to come.
    Allegations of ineffective assistance of counsel continue to occupy 
a substantial amount of the USCAAF's attention. See, e.g., United 
States v. Miller, 63 M.J. 452 (2006); United States v. Osheskie, 63 
M.J. 432 (2006); United States v. Edmond, 63 M.J. 343 (2006).
    The question of whether Article 125 of the UCMJ (the sodomy 
article) is constitutional in light of Lawrence v. Texas, 539 U.S. 558 
(2003), in the absence of facts such as those present in United States 
v. Marcum, 60 M.J. 198, and its progeny, remains unresolved.
    Question. What challenges, if any, do you anticipate that the Armed 
Services and the USCAAF will encounter in implementing the changes to 
article 120 of the UCMJ regarding the offense of rape by October 1, 
2007, as provided in section 552 of the National Defense Authorization 
Act for Fiscal Year 2006?
    Answer. The revised article 120 was based upon a draft uniform 
State code which has been enacted, as I understand, by several States 
in whole or in part. Thus there should exist some body of precedent 
upon which the USCAAF may draw, as it sees fit, in construing article 
120. Since virtually all the substantive offenses under the new article 
could have been charged under the UCMJ prior to its enactment, I do not 
anticipate any major changes in substantive offenses.
    The revised article 120 may present problems in implementation for 
the Armed Forces, at least initially. Congress in the UCMJ has 
traditionally enacted rather broad statutory language and then left the 
details of implementation to the Executive in the Manual for Courts-
Martial. It has been thought that this approach preserved the ability 
of the Executive to take into account the exigencies of military 
operations. The highly-detailed nature of the revised article will 
likely reduce the area for Executive discretion in the Manual, thus 
prompting a different approach to its implementation.
                       jurisdiction of the uscaaf
    Question. In your view, has the USCAAF fulfilled the expectations 
of Congress when the Court was established in 1951?
    Answer. Yes.
    Question. In your view, are there any legislative changes needed 
regarding the role and responsibilities or the jurisdiction of the 
USCAAF?
    Answer. No. Section 552 of the John Warner National Defense 
Authorization Act for Fiscal Year 2007 amended article 2 of the UCMJ to 
clarify the applicability of court-martial jurisdiction to persons 
accompanying the Armed Forces in the field in time of declared war or a 
contingency operation. Section 4(a) of the Military Commissions Act of 
2006 amended that article to clarify the applicability of such 
jurisdiction to lawful enemy combatants who violate the law of war. I 
do not believe that further modification of court-martial jurisdiction 
in general, or USCAAF's jurisdiction in particular, is necessary at the 
present time.
                        decisions of the uscaaf
    Question. Please describe the three decisions of the USCAAF since 
2001 which you believe to have been the most significant.
    Answer. United States v. New, 55 M.J. 95 (2001) (status of legality 
of an order as question of law; application of political question 
doctrine to courts-martial).
    United States v. Marcum, 60 M.J. 198 (2004) (constitutionality of 
article 125 of the UCMJ as applied, in light of Lawrence v. Texas, 539 
U.S. 558 (2003)).
    United States v. Moreno, 63 M.J. 129 (2006) (due process 
implications of excessive delays in post-trial review; applicability of 
Barker v. Wingo, 407 U.S. 514 (1972) to courts-martial).
    Question. What is your view of the role of stare decisis in terms 
of prior decisions of the USCAAF?
    Answer. Consistency in decisionmaking and respect for precedent are 
essential to any appellate court. Indeed, the need for stability in 
doctrine over time was the principal reason that this committee cited 
for the expansion of USCAAF from three judges to five in 1989. While 
USCAAF must retain the flexibility to meet changed circumstances, the 
doctrine of stare decisis should normally be followed. In the rare case 
when an applicable precedent is overruled, the USCAAF owes to the lower 
courts and to practitioners in the military justice system a clear 
explanation of its rationale for doing so.
    Question. In view of article 36 of the UCMJ, what is your view as 
to the hierarchy of sources of law that must be applied by the USCAAF 
in determining appropriate rules of evidence and procedure in courts-
martial?
    Answer. As in all judicial decisionmaking in the United States, the 
Constitution comes first. Next is Federal statutes, primarily the UCMJ 
but also other Federal laws that may be applicable in a particular case 
(for example, the statutes concerning child pornography, which have 
been construed by USCAAF on a number of occasions). Then come the rules 
and procedures set out in the Manual for Courts-Martial, which is an 
executive order. In the military justice system, the Manual is 
particularly important, since Congress in the UCMJ has usually chosen 
to employ broad statutory language and left implementation up to the 
President. The rules of evidence and much of the procedure of courts-
martial are to be found in the Manual. Next would be DOD and Service 
regulations.
    Question. In your view, what is the appropriate standard for 
determining when the USCAAF should apply a rule that is different from 
the rule generally applied in the trial of criminal cases in the 
Federal district courts?
    Answer. Article 36 of the UCMJ provides that the President may 
prescribe rules which, so as he considers practicable, shall apply the 
principles of law and rules of evidence applicable in the U.S. district 
courts, but which may not be contrary to or inconsistent with the UCMJ. 
Thus, the rule prescribed by the President in the Manual for Courts-
Martial will normally take precedence, whether or not it is the same as 
that applied in the district courts. If the Manual is silent on a 
particular question, then recourse should be had to the rule applicable 
in the district courts, if one exists and it is not contrary to the 
UCMJ. If a Manual rule itself contravenes the Constitution or the UCMJ, 
then the rule applicable in the district courts (if it differs from the 
Manual rule and is not subject to the same infirmities) should be 
applied.
                        military justice system
    Question. In your view, what are the major strengths and weaknesses 
of the military justice system?
    Answer.
Strengths:
         Free, trained, defense counsel are provided to the accused at 
        both the trial and appellate levels.
         Article 31 of the UCMJ affords the accused greater protection 
        against self-incrimination than most civilian criminal justice 
        systems.
         An elaborate system of appellate review is provided, both 
        within each Service and by USCAAF, with certiorari to the U.S. 
        Supreme Court.
         The independence of defense counsel and trial and appellate 
        judges against command influence is carefully secured by law, 
        regulation, and judicial oversight.
         Sufficient resources are available to ensure that each case 
        receives proper attention, without the pressure to plea-bargain 
        that is common in civilian courts.
Weaknesses:
         The public does not have a good understanding of the workings 
        of the system, and sometimes perceives it to afford fewer 
        rights than it does, or to be an instrument of command 
        influence.
         Occasional incidents of actual (or attempted) command 
        influence sully the reputation of the system.
         The role of the commander as convening authority continues to 
        be controversial, since it combines judicial and disciplinary 
        functions in ways that are foreign to civilian criminal justice 
        systems.

    Question. What is your view of the relationship between the rights 
of Service personnel and the disciplinary role of commanders?
    Answer. Congress, in the UCMJ, provided a subtle and largely 
successful balancing of the two. On the one hand, public and 
professional reaction to the operation of military justice during World 
War II necessitated the construction of a uniform system that would 
afford the accused substantially more rights, and secure them more 
firmly, than the old Army and Navy systems. On the other hand, Congress 
also recognized that the imperatives of war require that the Armed 
Forces be different from civilian society. Commanders must have the 
authority to enforce good order and discipline, both to maintain morale 
and to ensure readiness for combat. Thus, the UCMJ retained the 
commander's role as the convening authority with respect to referring 
charges, selecting court members, and post-trial review, while 
providing statutory protection against command influence and ultimate 
review of serious cases by a civilian court insulated from command. The 
fact that the UCMJ has had only two major overhauls since its enactment 
in 1950, and is being used successfully in Armed Forces and in 
situations far removed from those of that time, illustrates the success 
of Congress in balancing these equities.
    Question. Do you think that changes to the military justice system 
are called for in light of the experiences of the armed services in 
Operations Enduring Freedom and Iraqi Freedom?
    Answer. My perception is that the system has adapted successfully 
to the exigencies of the operations in Afghanistan and Iraq. The 
committee should carefully consider any proposals for changes suggested 
by the Judge Advocates General in light of these experiences, if such 
suggestions are made.
                           command influence
    Question. The problem of command influence, including instances 
involving judge advocates as well as commanders, is a constant threat 
to the military justice system.
    What is your view as to the role of the USCAAF in addressing this 
problem?
    Answer. The USCAAF stated in United States v. Thomas, 22 M.J. 388 
(C.M.A. 1986) that ``command influence is the mortal enemy of military 
justice.'' Indeed, the problem of command influence under the pre-UCMJ 
systems was one of the principal reasons for the establishment of an 
independent civilian court in the UCMJ. Accordingly, USCAAF has a 
continuing responsibility carefully to supervise the military justice 
system and to take action whenever unlawful command influence threatens 
the rights of individuals and the integrity of the system. My reading 
of recent cases strongly supports the conclusion that the USCAAF takes 
allegations of such influence very seriously.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John Warner
                convening authorities and accountability
    1. Senator Warner. Mr. Stucky, unlawful command influence by 
commanders has rightly been called the ``mortal enemy of military 
justice.'' There can be situations, however, in which commanders in 
their role as convening authorities decide not to take court-martial 
action when, arguably, it is appropriate to do so. Under these 
circumstances, the requirements of good order and discipline may not be 
met. Do you think that it could be helpful to have an independent 
authority in the military justice system whose role it could be to 
formally review prosecutorial decisions by convening authorities?
    Mr. Stucky. The establishment of such an authority would represent 
a major departure for the military justice system, which has always 
relied on the discretion of the convening authority to make these 
decisions. While the convening authority's decisions on these matters 
are normally unreviewable, it should be pointed out that a superior 
authority may direct that charges, whether or not referred for trial, 
be forwarded to that authority for further consideration, including 
referral, if deemed appropriate. (R.C.M. 601(f)). Given that the role 
of the convening authority is the most frequently criticized feature of 
the system, any measure of this sort should, in my opinion, be part of 
a more general review by Congress of the role of the convening 
authority in the system.
                          personal experiences
    2. Senator Warner. Mr. Stucky, you served on Active-Duty as a judge 
advocate performing military justice duties. What were your most 
memorable experiences and challenges while serving as a judge advocate 
performing military justice duties?
    Mr. Stucky. My most memorable experience as a judge advocate 
performing military justice duties, narrowly defined, was my service as 
a Reserve appellate military judge on the Air Force Court of Criminal 
Appeals. It was in this capacity that I first learned the art and craft 
of appellate judging, and realized how well my abilities and 
temperament fit into service on an appellate court. More broadly, my 
most memorable experience and challenge was my service as a young judge 
advocate at U-Tapao Airfield, Thailand. My principal duty there was 
foreign criminal jurisdiction--handling the cases of servicemembers who 
were accused of violations of local law and tried in the local courts. 
To deal with a completely different legal system, based upon different 
assumptions and using different procedures, and protect the rights of 
our personnel, called upon all the abilities and knowledge that I 
possessed.

    3. Senator Warner. Mr. Stucky, what did you consider to be the 
greatest strengths and weaknesses of the military justice system as you 
observed it?
    Mr. Stucky. The two greatest strengths of the system are: (1) the 
availability of free, trained, defense counsel to the accused at all 
levels of the system; and (2) the availability of sufficient resources 
to preclude the pressure to plea-bargain cases simply to clear dockets, 
as often occurs in civilian criminal justice systems.
    The greatest weakness is the perception that the role of convening 
authority, especially in appointing members to courts-martial, combines 
prosecutorial and judicial functions in an undesirable way.
                                 ______
                                 
               Questions Submitted by Senator John Thune
                 misconceptions about military justice
    4. Senator Thune. Mr. Stucky, one of the biggest misconceptions 
about the military justice system is that it affords fewer protections 
to criminal defendants than the civilian justice system. As you note in 
your prepared answers to the committee's advance policy questions, the 
Uniform Code of Military Justice (UCMJ) actually affords criminal 
defendants greater protection against self-incrimination than most 
civilian criminal justice systems. Could you explain for the record the 
rationale behind giving our soldiers who are criminal defendants 
greater protections against self-incrimination within the military 
justice system than exist in the civilian system?
    Mr. Stucky. The system affords the protections it does at least in 
part because interrogations in the Armed Forces are frequently 
conducted by persons who are not only acting as interrogators, but who 
are also the military superiors of the accused, clothed with the power 
to issue orders that have the sanction of law. This situation may be 
seen as inherently coercive, and these protections are designed to 
counteract that coercion.

    5. Senator Thune. Mr. Stucky, does it represent an effort to 
counteract the risk of any unlawful exercise of command influence?
    Mr. Stucky. Yes, at least in part.

    6. Senator Thune. Mr. Stucky, what, in your estimation, contributes 
to the misconception of the military justice system extending fewer 
rights to a criminal defendant?
    Mr. Stucky. A number of factors may contribute to this 
misconception, including uninformed or inaccurate stories in the media 
and the fact that fewer American families have any direct experience 
with military service, let alone experience with the military justice 
system.

                          rise in sex offenses
    7. Senator Thune. Mr. Stucky, in your answers to the committee's 
advance policy questions, you note that there has been significant 
growth in sex offenses, particularly those involving children and child 
pornography. While this is probably also true in the civilian sector, I 
wonder if you could elaborate on the data regarding sex offenses within 
the military. Could you give the committee a broader picture of the 
problems of sex offenses within our armed services?
    Mr. Stucky. While the statistics on courts-martial for such 
offenses present a mixed picture, the subject of sex offenses in the 
Armed Forces has certainly attracted more public attention in recent 
years. Widely publicized allegations of such misconduct at the Air 
Force Academy, for one, prompted Congress to include in the National 
Defense Authorization Act for Fiscal Year 2005 a requirement that the 
Secretary of Defense report to the Armed Services Committees with 
recommendations for legislative changes in the UCMJ provisions dealing 
with such offenses. The Secretary did so, and in the Fiscal Year 2006 
Act Congress enacted a broad rewrite of Article 120 of the Code, which 
is now a comprehensive sexual offense statute. Because Congress delayed 
the effective date of these amendments to October 1, 2007, in order to 
give the President time to amend the Manual for Courts-Martial, there 
is not yet any experience with the revised statute.

    8. Senator Thune. Mr. Stucky, are the number of courts-martial for 
sex offenses increasing from year to year?
    Mr. Stucky. Statistics from the Services present a mixed picture. 
Courts-martial for such offenses in the Army were virtually the same 
(between 120 and 130 annually) from 2001 to 2003, but them rose by over 
20 percent, to 162, in 2004, and rose again to 183 in 2005. In the Air 
Force, courts-martial for such offenses rose from 96 in 2003 to 129 in 
2004, but then fell to 115 in 2005 and to approximately 103 
(annualized) in 2006. Sex offense courts-martial in the Air Force have 
represented 10-11 percent of total courts-martial for the past 4 years, 
except in 2004 when they were 12.6 percent of the total.
                                 ______
                                 
    [The nomination reference of Scott W. Stucky follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 November 15, 2006.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Scott Wallace Stucky, of Maryland, to be a Judge of the United 
States Court of Appeals for the Armed Forces for the term of 15 years 
to expire on the date prescribed by law, vice Susan J. Crawford, term 
expired.
                                 ______
                                 
    [The biographical sketch of Scott W. Stucky, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                 Biographical Sketch of Scott W. Stucky
    Scott W. Stucky is the General Counsel of the Senate Committee on 
Armed Services. He has served as General Counsel from 1996 to the 
present, except for the period of Democratic control of the Senate in 
2001-2003. In his present capacity, he is responsible for all legal 
matters for the committee majority. From 1987 to 1996, he was the Chief 
of the Legislative Branch, General Law Division, Office of The Judge 
Advocate General, Headquarters U.S. Air Force. He was the principal 
legislative counsel and statutory analyst for the Department of the Air 
Force.
    Mr. Stucky was born on 11 January 1948 in Hutchinson, Kansas. He 
attended Wichita State University, where he was president of the 
Student Government Association and of Sigma Phi Epsilon Fraternity, and 
was a member of Phi Alpha Theta, Omicron Delta Kappa, and Phi Kappa 
Phi. He was awarded an Air Force ROTC scholarship, and was graduated in 
1970 with a B.A. in history, summa cum laude, and a commission as a 
Reserve second lieutenant, USAF. He then entered Harvard Law School, 
where he was president of the Republican Club and vice-president of his 
moot court club. He received his J.D. from Harvard in 1973. Mr. Stucky 
also holds the M.A. in history from Trinity University in San Antonio 
(1980), and the LL.M. in international law, with highest honors, from 
George Washington University (1983). He is a 1988 graduate of the 
Federal Executive Institute, a 1990 graduate of the Harvard Program for 
Senior Officials in National Security, and a 1993 graduate of the 
National War College.
    Mr. Stucky served on Active-Duty as an Air Force judge advocate 
from 1973 to 1978, including a year in Southeast Asia. His duties 
included international law, military justice, administrative law, 
claims, government contracts, medical affairs, and general civil legal 
assistance. Upon leaving Active-Duty, he joined the firm of Ginsburg, 
Feldman, and Bress in Washington, DC, practicing in the field of 
transportation regulation. In 1982, he joined the U.S. Nuclear 
Regulatory Commission as Chief of the Docketing and Service Branch, 
where he remained until joining the Air Force's Legislative Division in 
1983.
    He is a retired colonel in the Air Force Reserve; his last 
attachment was as the Senior Individual Mobilization Augmentee to the 
Chief Judge of the Air Force Court of Criminal Appeals. He is a 
graduate of the Air War College and the Air Command and Staff College. 
His military decorations include the Legion of Merit, the Meritorious 
Service Medal with two oak leaf clusters, the Air Force Commendation 
Medal with one oak leaf cluster, the Air Force Achievement Medal, the 
National Defense Service Medal, and the Armed Forces Reserve Medal with 
silver hourglass.
    Mr. Stucky is admitted to the Kansas and District of Columbia bars. 
He is a past Commander in Chief of the Military Order of the Loyal 
Legion of the United States (a national Civil War commemorative 
society) and is member of the Federal Bar Association, the Judge 
Advocates Association, the Reserve Officers Association, and the Army 
and Navy Club.
    Mr. Stucky is married to the former Jean Seibert of Oxon Hill, 
Maryland, who is Contractor Labor Counsel for the U.S. Department of 
Energy. The Stuckys have two children, Mary-Clare, 14, and Joseph, 11. 
They live in Potomac, Maryland.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Scott W. 
Stucky in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Scott W. Stucky.

    2. Position to which nominated:
    Judge, United States Court of Appeals for the Armed Forces.

    3. Date of nomination:
    15 November 2006.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    11 January 1948; Hutchinson, Kansas.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to the former Jean Elsie Seibert on 18 August 1973.

    7. Names and ages of children:
    Mary-Clare Frances Seibert Stucky, 14; and Joseph Edward Wallace 
Seibert Stucky, 11.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Pretty Prairie Rural High School, Pretty Prairie, KS (Diploma, 
1966).
    Wichita State University, Wichita, KS (B.A. in History, summa cum 
laude, 1970).
    Harvard Law School (J.D., 1973).
    Trinity University, San Antonio, TX (M.A. in History, 1980).
    George Washington University (LL.M. in International and 
Comparative Law, with highest honors, 1983).

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    General Counsel, Senate Committee on Armed Services, 1996-2001 and 
2003-present (Minority Counsel, 2001-2003).
    Chief, Legislative Branch, General Law Division, Office of the 
Judge Advocate General, Headquarters U.S. Air Force, 1987-1996 (located 
at the Pentagon).

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Deputy Chief (1984-1987) and Attorney-Advisor (1983-1984), 
Legislative Division, Office of the Judge Advocate General, HQ U.S. Air 
Force (located at the Pentagon) Chief, Docketing and Service Branch, 
Office of the Secretary, U.S. Nuclear Regulatory Commission (1982-1983) 
(located at 1717 H Street, NW).
    Captain, U.S. Air Force, Judge Advocate General's Department 
(Active-Duty). Served at Brooks AFB, TX (1973-1975); U-Tapao Royal Thai 
Naval Airfield, Thailand (1975-1976), and Hancock Field, NY (1976-
1978).
    U.S. Air Force Reserve (judge advocate), 1982-2003. Served at the 
Pentagon; Bolling AFB, DC; and at the former Lowry AFB, CO. Retired in 
2003 as a colonel.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Director, Adoption Service Information Agency, Silver Spring, MD 
(1998-2002 and 2004-present) (nonprofit adoption agency).
    Director, Omicron Delta Kappa Society, Lexington, KY (2006 -
present) (nonprofit college leadership society).
    Both of these positions are uncompensated.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Federal Bar Association
    Judge Advocates Association
    District of Columbia Bar
    Air Force Retired Judge Advocates Association
    Military Order of the Loyal Legion of the U.S.
    Sons of Union Veterans of the Civil War
    Sons of the American Revolution
    General Society, Sons of the Revolution
    St. Andrew's Society of Washington, DC
    Army and Navy Club of Washington, DC
    Military Order of Foreign Wars of the U.S.
    Military Order of the World Wars
    Wichita State University Alumni Association
    National War College Alumni Association
    Reserve Officers Association
    American Legion
    Sigma Phi Epsilon Fraternity.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    I gave $750 to the Republican National Committee early in 2002.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Air Force ROTC Scholarship and several other scholarships at 
Wichita State.
    OPM LEGIS Fellow for Senator John Warner, 1986-1987.
    Phi Alpha Theta (history honorary society).
    Phi Kappa Phi (scholastic honorary society).
    Omicron Delta Kappa (leadership honorary society).
    Phi Delta Phi (law honorary society).
    Legion of Merit.
    Meritorious Service Medal (3 awards).
    Air Force Commendation Medal (2 awards).
    Air Force Achievement Medal.
    National Defense Service Medal (3 awards).
    Armed Forces Reserve Medal with silver hourglass.
    Global War on Terrorism Service Medal.
    NWC Alumni Association Writing Award, National War College, 1993.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``A Year in Thailand,'' 27 The Reporter (June 2000) at 31.
    ``Joint Operations in the American Civil War,'' in Essays on 
Strategy (Volume XI) (National Defense University Press, 1994), 
excerpted in Joint Force Quarterly 92 (Autumn/Winter 1994-1995).
    ``The Paquete Habana: A Case History in the Development of 
International Law,'' 15 U. Baltimore L Rev. 1 (1985).
    ``Elkison v. Deliesseline: Race and the Constitution in South 
Carolina, 1823,'' 14 N.C. Central L.J. 361 (1984).
    Note, ``Federal Tort Claims Act Liability for False Arrest and 
Imprisonment Under 10 U.S.C. 808,'' 20 A.F.L. Rev. 316 (1978).

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I have given a number of speeches, but I never write them out ahead 
of time; rather, I speak from rather sketchy notes. Therefore, I have 
nothing to provide to the committee.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                              Scott Wallace Stucky.
    This 21st day of November, 2006.

    [The nomination of Scott W. Stucky was reported to the 
Senate by Chairman Warner on December 5, 2006, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on December 9, 2006.]
                              ----------                              

    [Prepared questions submitted to Margaret A. Ryan by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                                 duties
    Question. Subchapter XII of chapter 47 of title 10, U.S.C., 
establishes the United States Court of Appeals for the Armed Forces 
(USCAAF) and provides for its organization and administrative 
procedures.
    What is your understanding of the duties and functions of USCAAF 
and its judges?
    Answer. It is my understanding that the function of the USCAAF is 
to provide civilian oversight of the military justice system through 
independent judicial review of the intermediate military courts, in 
accordance with its jurisdiction. The scope of the USCAAF's 
jurisdiction is set forth in article 67 of the Uniform Code of Military 
Justice (UCMJ), and includes mandatory review of all cases in which the 
sentence, as affirmed by a Court of Criminal Appeals, extends to death; 
cases reviewed by a Court of Criminal Appeals that a Service Judge 
Advocate General orders sent to the USCAAF for review; and 
discretionary review of cases reviewed by a Court of Criminal Appeals, 
upon petition of the accused. The USCAAF also has jurisdiction to 
consider petitions for extraordinary relief under the All Writs Act, 28 
U.S.C.  1651.
    The duty of the USCAAF's judges is to ensure independent civilian 
oversight of the military courts through appellate review of the 
decisions of the criminal courts of appeal, and to provide guidance to 
the military trial courts and criminal courts of appeal through the 
opinions of the USCAAF.
    The judges of the USCAAF have another statutory duty, which is 
advisory rather than judicial in nature. The judges of the USCAAF are 
part of the Code Committee, prescribed by article 136 of the UCMJ. The 
Code Committee is tasked with providing an annual report to this 
committee and to the Secretary of Defense, among others. The report 
includes information on the number and status of pending cases and. any 
recommendations relating to the uniformity of policies as to sentences 
or proposed amendments to the UCMJ.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. My background and experience includes service in the U.S. 
Marine Corps as a communications officer, a company and platoon 
commander, a judge advocate, and the Aide de Camp to the 31st 
Commandant of the Marine Corps (General Charles G. Krulak); service as 
a law clerk to two Federal appellate judges (the Honorable Clarence 
Thomas, Associate Justice of the Supreme Court of the United States, 
and the Honorable J. Michael Luttig, Circuit Judge of the U.S. Court of 
Appeals for the Fourth Circuit); and representation of private sector 
clients in a variety of litigation forums throughout the United States, 
currently as a Partner in the litigation and appellate practices at the 
law firm of Wiley Rein & Fielding LLP. At all times, I have endeavored 
to perform these services and duties to the highest standards of 
excellence and with the civility, fairness, and integrity that are the 
hallmarks of the judicial temperament that I believe a member of the 
USCAAF should possess.
    Due to the dual interests that underlie the UCMJ--namely, the 
protection of the rights of service personnel and the disciplinary role 
of commanders--I believe that a familiarity with the military and the 
military justice system is also ideal, keeping in mind that Article 142 
of the UCMJ specifically provides that each judge of the USCAAF is to 
be appointed from civilian life by the President, with the advice and 
consent of the Senate. Through my military service, I became familiar 
with the military justice system both as a client, from my time as a 
commander, and as an advocate, from my duties as a judge advocate.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of a judge on the USCAAF?
    Answer. Any position, particularly one as important as a judge on 
the USCAAF, requires ongoing efforts to improve one's own abilities. If 
confirmed, I would review and stay abreast of amendments to the UCMJ, 
the Rules for Courts-Martial, and the Military Rules of Evidence. I 
would also continue to read cases rendered by the USCAAF and relevant 
decisions of the Supreme Court of the United States. If confirmed, 
communicating with judges on the USCAAF and other courts, reviewing 
analogous cases by other Federal appellate courts, and reviewing 
scholarly articles on the military justice system would be key ways to 
continue to enhance my perspective as a judge.
                             relationships
    Question. What are the respective roles of each of the following 
with respect to the military justice system and, if confirmed, what 
would your relationship be with:
    The Secretary of Defense.
    Answer. As set forth in article 141 of the UCMJ, the USCAAF falls 
under the Department of Defense for administrative purposes only and is 
wholly independent of the Secretary of Defense. The Secretary of 
Defense is responsible for the formulation of policy related to all 
matters of direct concern to the Department of Defense. In part at 
least, that responsibility for military justice policy is exercised 
through the Joint Services Committee. The Joint Services Committee 
reviews the Manual for Courts-Martial (MCM) and the UCMJ annually to 
ensure that they fulfill their function as a comprehensive body of 
criminal law and procedure, and recommends legislation or other 
changes.
    The Secretary of Defense is directly involved in the military 
justice system in other ways. For example, he is authorized to be a 
convening authority for a general or special courts-martial and also 
has the ability to promulgate orders and regulations, violations of 
which may be actionable under the UCMJ. If confirmed, I would perform 
my duties independently, and with the expectation that I would not have 
any direct relationship with the Secretary of Defense.
    Question. The Chief Judge of the USCAAF.
    Answer. The Chief Judge of the USCAAF is senior in commission among 
the judges of the court who have not previously served as the chief 
judge, and serves in that position for a term of 5 years. The Chief 
Judge has precedence and presides at any session he attends, and it is 
my understanding that he oversees the administrative functioning of the 
USCAAF. If confirmed, my relationship with the Chief Judge would be 
independent on any issue requiring or related to a vote on a petition, 
argued case, or writ, and my expectation is that the relationship would 
be collegial and professional.
    Question. Judges of the USCAAF.
    Answer. If confirmed, my relationships with the other judges on the 
Court would be independent on any issue requiring or related to a vote 
on a petition, argued case, or writ, and my expectation is that the 
relationships would be collegial and professional.
    Question. The General Counsel of the Department of Defense.
    Answer. As set forth in article 141 of the UCMJ, the USCAAF falls 
under the Department of Defense for administrative purposes only and is 
wholly independent of the Department of Defense. The General Counsel of 
the Department of Defense is the chief legal officer of the Department 
of Defense. He performs such functions and delegated duties with 
respect to the military justice system as the Secretary of Defense may 
prescribe. As one example of his delegated duties, the General Counsel 
is responsible for coordinating any recommended legislation or changes 
recommended by the Joint Services Committee. If confirmed, my 
relationship with the General Counsel of the Department of Defense 
would be independent, and my expectation is that the relationship would 
be collegial and professional.
    Question. The Judge Advocates General of the Army, Navy, and Air 
Force and the Staff Judge Advocate to the Commandant of the Marine 
Corps.
    Answer. The USCAAF is independent of both the Department of Defense 
and the Services. Each Service Chief has a Judge Advocate General, who 
both provides advice on military justice matters to the Service Chief 
and oversees the judge advocates throughout that Service. In addition, 
each Judge Advocate General has specific duties under the UCMJ and 
Rules for Courts-Martial with respect to the military justice system. 
For example, each Judge Advocate General is responsible for: (1) 
ensuring field visits, either personally or through senior 
representatives, to supervise the administration of military justice; 
(2) the professional supervision of military judges and counsel; and 
(3) review of and action on certain records of trial. A Judge Advocate 
General may also certify questions to the USCAAF after a decision of a 
Criminal Court of Appeals. Moreover, each of the listed Judge Advocate 
Generals are members of both the Joint Services Committee and the Code 
Committee.
    If confirmed, my relationship with each Judge Advocate General 
would be independent, and my expectation is that the relationships 
would be collegial and professional.
                              legal issues
    Question. What do you anticipate would be the most significant 
legal issues you will face if confirmed as a judge of the USCAAF?
    Answer. It is of great importance that the USCAAF continues to 
serve the function for which it was created and remains vigilant 
against unlawful command influence. Every legal issue faced by USCAAF 
is significant, both as to the individual appellant in a given case, 
and because it gives guidance to the trial and criminal courts of 
appeal. The specific legal issues USCAAF will face in the future will 
be determined by decisions of the criminal courts of appeal, the issues 
presented to USCAAF, and the petitions granted.
    Question. What challenges, if any, do you anticipate that the armed 
services and the USCAAF will encounter in implementing the changes to 
article 120 of the UCMJ regarding the offense of rape by October 1, 
2007, as provided in section 552 of the National Defense Authorization 
Act for Fiscal Year 2006?
    Answer. My understanding is that article 120 of the UCMJ was 
amended in regard to the definition of the offense of rape, among other 
changes. As with any amendment to a criminal statute, the challenges of 
implementing article 120 will be revealed through its application and 
interpretation in specific cases. I expect that some of those issues 
may ultimately reach the USCAAF.
                       jurisdiction of the uscaaf
    Question. In your view, has the USCAAF fulfilled the expectations 
of Congress when the Court was established in 1951?
    Answer. I believe that the USCAAF has fulfilled the expectation of 
Congress that it would provide independent judicial review of the 
military courts and civilian oversight of the military justice system.
    Question. In your view, are there any legislative changes needed 
regarding the role and responsibilities or the jurisdiction of the 
USCAAF?
    Answer. None that I am aware of at this time.
                        decisions of the uscaaf
    Question. Please describe the three decisions of the USCAAF since 
2001 which you believe to have been the most significant.
    Answer.

         United States v. Wiesen, 56 M.J. 172 (C.A.A.F. 2001)--
        analyzing challenge for cause based on implied bias of a member 
        and recognizing that implied bias undermines public confidence 
        in the military justice system.
         Diaz v. The Judge Advocate General of the Navy, 59 M.J. 34 
        (C.A.A.F. 2003) emphasizing that the petitioner's right to a 
        full and fair review of findings and sentence under article 66 
        embodies the concomitant right to have that review conducted in 
        a timely fashion, and that these rights must be recognized, 
        enforced, and protected by the government, by the appellate 
        attorneys, and by the USCAAF.
         United States v. Lewis, 63 M.J. 405 (C.A.A.F. 2006)--
        reemphasizing that unlawful command influence is the mortal 
        enemy of military justice and that, where it is found to exist, 
        judicial authorities must take those steps necessary to 
        preserve both the actual and apparent fairness of criminal 
        proceedings.

    Question. What is your view of the role of stare decisis in terms 
of prior decisions of the USCAAF?
    Answer. Stare decisis, or adherence to principles of law set forth 
in prior decisions, is a fundamental judicial principle. Adherence to 
precedent promotes the evenhanded, predictable, and consistent 
development of legal principles; fosters reliance on judicial 
decisions; and contributes to the actual and perceived integrity of the 
judicial process. Stare decisis is a well-recognized principle of 
judicial decision-making, but an appellate court may re-evaluate 
previous decisions if, for example, the precedent at issue has been 
called into question by subsequent legal developments.
    Question. In view of Article 36 of the UCMJ, what is your view as 
to the hierarchy of sources of law that must be applied by the USCAAF 
in determining appropriate rules of evidence and procedure in courts-
martial?
    Answer. As a general matter, cases subject to the UCMJ, to which 
Article 36 applies, have applied the rules of evidence and procedure 
set forth in the Manual for Courts-Martial, which includes the Rules 
for Courts-Martial, governing pretrial, trial, and post-trial 
procedures, and the Military Rules of Evidence. The USCAAF should apply 
these rules unless it concludes that they are inconsistent with the 
Constitution of the United States or the UCMJ. The USCAAF is also 
guided by its own precedent and bound by the decisions of the Supreme 
Court of the United States.
    Question. In your view, what is the appropriate standard for 
determining when the USCAAF should apply a rule that is different from 
the rule generally applied in the trial of criminal cases in the 
Federal district courts?
    Answer. Where the Rules for Courts-Martial and Military Rules of 
Evidence are not contrary to or inconsistent with the Constitution, the 
UCMJ, or controlling precedent, they should be applied. If they are 
silent on an issue, or set forth a rule contrary to or inconsistent 
with the Constitution or the UCMJ, it is appropriate to look to 
analogous rules applied in the Federal district courts. Military Rule 
of Evidence 101 provides that where no rule governs an evidentiary 
issue, the rule of evidence generally applicable in the trial of 
criminal cases in the Federal district courts applies. Where both 
sources are silent, the Military Rules of Evidence, much like the 
Federal Rules of Evidence, applies the rule of evidence applicable at 
common law.
                        military justice system
    Question. In your view, what are the major strengths and weaknesses 
of the military justice system?
    Answer.
Major Strengths:

         Greater protections against self-incrimination under Article 
        31.
         Ability to participate in pre-trial proceedings in front of 
        an impartial investigating officer under article 32, including 
        the right of accused and defense counsel to be present, and the 
        right to present evidence and cross-examine witnesses.
         The right of every defendant to qualified defense counsel at 
        every phase of trial, post-trial, and appellate proceedings.
Major Weaknesses:
         Actual or perceived instances of unlawful command influence.
         Perception that commanders play too great a role in the 
        military justice system.
         Potential for significant variances in the treatment of 
        similar offenses between different commands.

    Question. What is your view of the relationship between the rights 
of service personnel and the disciplinary role of commanders?
    Answer. The military justice system is intended to protect both the 
rights of service personnel and the disciplinary role of commanders, as 
the preamble to the Manual for Courts-Martial recognizes. The UCMJ 
seeks to ensure fairness to servicemembers, while ensuring that 
commanders maintain the ability to ensure good order and discipline 
necessary for national security. It is crucial to morale and public 
confidence that the military justice system vigorously protect the 
right of servicemembers, and both be fair and perceived to be fair. It 
is also necessary for the good order and discipline of the military 
that commanders are able to enforce standards of behavior not 
applicable in civilian society.
    Question. Do you think that changes to the military justice system 
are called for in light of the experiences of the armed services in 
Operations Enduring Freedom and Iraqi Freedom?
    Answer. The military justice system is intended to operate in a 
decentralized fashion and to contain the flexibility necessary to 
adjust to operations and deployments. I am not aware of any changes 
that are needed in light of the experiences of the armed services in 
Operations Enduring Freedom and Iraqi Freedom based on the knowledge I 
have at this time. However, the Services, the Joint Services Committee, 
and the Code Committee are charged with annual review of the UCMJ and 
the military justice system. I am confident that if changes are needed, 
recommendations for change will be made to or by the Senate Armed 
Services Committee.
                           command influence
    Question. The problem of command influence, including instances 
involving judge advocates as well as commanders, is a constant threat 
to the military justice system.
    What is your view as to the role of the USCAAF in addressing this 
problem?
    Answer. It has long been recognized that unlawful command influence 
is the mortal enemy of military justice. Article 37 of the UCMJ 
prohibits unlawful command influence; the USCAAF, comprised of civilian 
judges, is a further bulwark against unlawful command influence. As 
such, USCAAF has, and must continue: to be vigilant against the taint 
of unlawful command influence at any stage of legal proceedings; to 
ensure that allegations of unlawful command influence have been 
properly litigated at trial and on appeal; and to ensure remedies 
appropriate to the circumstances of the particular case.
                                 ______
                                 
               Questions Submitted by Senator John Warner
                convening authorities and accountability
    1. Senator Warner. Ms. Ryan, unlawful command influence by 
commanders has rightly been called the ``mortal enemy of military 
justice.'' There can be situations, however, in which commanders in 
their role as convening authorities decide not to take court-martial 
action when, arguably, it is appropriate to do so. Under these 
circumstances, the requirements of good order and discipline may not be 
met. Do you think that it could be helpful to have an independent 
authority in the military justice system whose role it could be to 
formally review prosecutorial decisions by convening authorities?
    Ms. Ryan. As with any system of justice, within the military 
justice system there are elements of discretion as to when individuals 
will be charged and on what charges. As a practical matter, those 
decisions are initially made by the servicemember's commander in his or 
her role as convening authority. While the initial decision is the 
commander's, it is my understanding that the men and women who serve as 
commanders in the Armed Forces generally seek the counsel of Judge 
Advocates on the appropriate disposition in any given case. The 
appropriate disposition will likely depend on many factors, including 
the admissible evidence available, the need for a defendant to testify 
against others potentially more culpable, and the commander's view of 
both the seriousness of the offense and the disposition necessary to 
maintain good order and discipline within his or her command. The Rules 
for Courts-Martial appear to provide a viable mechanism for the 
situation described: A decision by a commander not to take court-
martial action ordinarily does not bar a different disposition by a 
superior authority. See R.C.M. 401(c), 601(f). Based on all of these 
factors, I do not currently have reason to believe that an independent 
prosecutorial review authority is necessary. If that policy decision is 
made, it will be both made and implemented by the legislative and 
executive branches and require amendments to the UCMJ and the Rules for 
Courts-Martial.

                          personal experiences
    2. Senator Warner. Ms. Ryan, you served on Active-Duty as a judge 
advocate performing military justice duties. What were your most 
memorable experiences and challenges while serving as a judge advocate 
performing military justice duties?
    Ms. Ryan. I welcome the opportunity to comment on how much I 
enjoyed my time as a Judge Advocate in the United States Marine Corps. 
I met many wonderful attorneys while on Active-Duty. Each of us--trial 
counsel and defense counsel--Ioved our work and was zealous in 
representing our client, whether it was the United States or a 
defendant. But there was a civility between lawyers on the opposite 
sides of the case in the military. My most memorable experiences 
revolve around the outstanding attorneys and support staff with whom I 
had the opportunity to work while on Active-Duty and the opportunities 
I had, as a brand new attorney, to work as a trial counsel representing 
the United States on serious felony cases. The greatest challenges I 
recall were two. One was that when I arrived on Okinawa, Japan, by 
virtue of my seniority in rank, I became the Chief Trial Counsel, 
although I had relatively little litigation experience. In contrast, 
the Senior Defense Counsel was a seasoned court room veteran. The 
learning curve was very steep, but I believe I met that challenge and 
ably served my client. The second challenge that is most memorable to 
me was the responsibility of working with victims of personal crimes 
such as rape and child sexual abuse.

    3. Senator Warner. Ms. Ryan, what did you consider to be the 
greatest strengths and weaknesses of the military justice system as you 
observed it?
    Ms. Ryan. Based on my experience, I believe that the greatest 
strengths of the military justice system were the fact that the overall 
protections provided to defendants are greater than those provided in 
the civilian world and my observation that commanders and judge 
advocates understood the requirements of the UCMJ and Rules for Courts-
Martial and did their very best to comply. I did not personally observe 
any weaknesses in the military justice system, although I am aware of 
the potential for unlawful command influence, among other potential 
weaknesses. Like any commander on the ground, there were times that I 
recall being frustrated with the process when trial level cases or 
administrative discharge boards did not seem to move quickly. However, 
taking a larger view, I believe that such cases and boards in the 
military justice system generally proceed along a timeline that 
comports with the needs and concerns of the defendant, as required by 
the UCMJ, Rules for Courts-Martial, and the U.S. Constitution.
                                 ______
                                 
               Questions Submitted by Senator John Thune
                    variances in treatment of cases
    4. Senator Thune. Ms. Ryan, I note from one of your answers to the 
committee's advance policy questions that you believe one of the 
weaknesses of the military justice system is the ``potential for 
significant variances in the treatment of similar offenses between the 
different commands.'' Do significant variances in the treatment of 
similar offenses currently exist in the system?
    Ms. Ryan. I do believe the potential exists for a situation where 
servicemembers with different convening authorities and/or from 
different Services might all be involved in the same alleged incident 
and there could be significant variances in the way the commands dealt 
with the servicemembers. However, I am not aware of specific instances 
where such significant variances in the treatment of similar offenses 
from the same incident exist within the system.

    5. Senator Thune. Ms. Ryan, is there a way to remedy these 
potential variances through legislation, such as instituting uniform 
guidelines for the treatment of similar offenses between the different 
commands?
    Ms. Ryan. As with any system of justice, within the military 
justice system there are elements of discretion as to when individuals 
will be charged and on what charges. As a practical matter, those 
decisions are initially made by the servicemember's commander in his or 
her role as convening authority. While the initial decision is the 
commander's, it is my understanding that the men and women who serve as 
commanders in the Armed Forces generally seek the counsel of Judge 
Advocates on the appropriate disposition in any given case. The 
appropriate disposition will likely depend on many factors, including 
the admissible evidence available, the need for defendant to testify 
against others potentially more culpable, the commander's view of the 
seriousness of the offense and the disposition necessary to maintain 
good order, and discipline within his or her command. I am not aware of 
specific instances where such significant variances in the treatment of 
similar offenses from the same incident exist within the system. If 
such variances were to arise, any policy decision aimed at addressing 
them will be both made and implemented by the legislative and executive 
branches and require amendments to the UCMJ and the Rules for Courts-
Martial.
                       military appellate process
    6. Senator Thune. Ms. Ryan, the military justice system has two 
levels of intermediate review, which makes it distinct from the 
civilian Federal justice system, which has one level of intermediate 
review. Generally, a soldier convicted at a court-martial may appeal to 
his Service branch's court of criminal appeals, such as the Army Court 
of Criminal Appeals, and subsequently may also appeal to the Court of 
Appeals for the Armed Forces. Do two levels of intermediate review 
function as another way that the military justice system provides extra 
protection of a criminal defendant's rights compared to the civilian 
justice system? Or do two levels of intermediate review make the system 
inefficient?
    Ms. Ryan. The military justice system has many levels of review, 
all of which, in my view, provide extra protection to criminal 
defendants' rights compared to those accorded criminal defendants in 
the civilian system. For example, in the military justice system the 
convening authority, the Staff Judge Advocate, and in many cases the 
Staff Judge Advocate General of the relevant Service, review the 
findings and sentence, along with any clemency matters submitted by the 
servicemember, before the case ever reaches the Service's court of 
criminal appeals. As a result of these reviews, action can be, and in 
some cases is, taken to disapprove the findings and/or disapprove or 
mitigate the sentence. The two levels of appellate review ensure that: 
(a) all eligible cases are reviewed by a military appellate court; and 
(b) that discretionary review of any case is potentially available by a 
civilian court, which oversees all the military appellate courts. I am 
not aware that this extra protection creates any inefficiencies in the 
system.
    7. Senator Thune. Ms. Ryan, are there ways to improve upon the 
current appellate process within the military's justice system?
    Ms. Ryan. There are always ways in which any process can be 
improved. But based on the information I have available to me at this 
time, I am not aware of any specific way in which the current appellate 
process within the military justice system should be improved. The 
Services, the Joint Services Committee, and the Code Committee are 
charged with annual review of the UCMJ and the military justice system. 
I am confident that if changes to the appellate process are needed 
recommendations for change will be made to or by the Senate Armed 
Services Committee.
                                 ______
                                 
    [The nomination reference of Margaret A. Ryan follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 November 15, 2006.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Margaret A. Ryan, of Virginia, to be a Judge of the United States 
Court of Appeals for the Armed Forces for the term of 15 years to 
expire on the date prescribed by law, vice Herman F. Gierke, term 
expired.
                                 ______
                                 
    [The biographical sketch of Margaret A. Ryan, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
                Biographical Sketch of Margaret A. Ryan
    Margaret A. Ryan has been nominated by President Bush to be a Judge 
of the United States Court of Appeals for the Armed Forces.
    Ms. Ryan is currently a Partner in the litigation and appellate 
practices of Wiley Rein & Fielding LLP, which is located in Washington, 
DC. Before joining Wiley Rein & Fielding, she was a litigation Partner 
and Associate at the law firm of Bartlit Beck Herman Palenchar & Scott 
LLP in Denver, Colorado, and an Associate in the litigation and 
appellate practice at Cooper Carvin & Rosenthal LLP in Washington, DC. 
Ms. Ryan served as a law clerk to the Honorable Clarence Thomas, 
Associate Justice of the Supreme Court of the United States, and to the 
Honorable J. Michael Luttig, while he served as a judge on the U.S. 
Court of Appeals for the Fourth Circuit.
    Ms. Ryan served on Active-Duty in the United States Marine Corps 
before entering the private sector. As a Communications Officer, Ms. 
Ryan served in units within the II & III Marine Expeditionary Forces as 
a Staff Officer, Company Commander, Platoon Commander, and Operations 
Officer. Ms. Ryan's tours included deployments to the Philippines, 
during a coup attempt, and to Saudi Arabia during Operations Desert 
Shield and Desert Storm.
    Ms. Ryan attended law school under the Marine Corps Law Education 
Program at the University of Notre Dame, where she was a member of the 
Notre Dame Law Review, received the William T. Kirby Legal Writing 
Award, and was the recipient of the Colonel William J. Hoynes Award for 
Outstanding Scholarship for graduating first in the class. As a judge 
advocate, Ms. Ryan served within the Military Justice System as a Trial 
Counsel and Chief Trial Counsel in Okinawa, Japan, and Quantico, 
Virginia. Ms. Ryan was then selected by the 31st Commandant of the 
Marine Corps, General Charles C. Krulak, to serve as his Aide de Camp.
    Ms. Ryan obtained her B.A. cum laude from Knox College in 1985 and 
her J.D. summa cum laude from the University of Notre Dame Law School 
in 1995. Ms. Ryan was awarded the Meritorious Service Medal, Navy 
Marine Corps Commendation Medal (Two Awards), and the Navy Marine Corps 
Achievement Medal by the Marine Corps. She is admitted to practice in 
Virginia, Colorado, and the District of Columbia, and before the 
Supreme Court of the United States, the U.S. Court of Appeals for the 
Fourth Circuit, the U.S. District Court for the Eastern District of 
Virginia, the U.S. District Court for the District of Colorado, the 
U.S. Court of Federal Claims, and the Supreme Courts of Virginia and 
Colorado. She resides with her husband, Michael J. Collins, and their 
Soft Coated Wheaten Terriers, Fiona, Reagan, and Dagny, in Arlington, 
Virginia.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Margaret A. 
Ryan in connection with her nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Margaret Ann (``Meg'') Ryan.

    2. Position to which nominated:
    Judge of the United States Court of Appeals for the Armed Forces, 
for the term of 15 years.

    3. Date of nomination:
    November 15, 2006.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    May 23, 1964; Chicago, Illinois.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Michael J. Collins.

    7. Names and ages of children:
    None.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Homewood-Flossmoor High School, 1978-1981, no degree.
    Knox College, 1981-1985, B.A., cum laude, in Political Science.
    University of Chicago, 1985-1986, no degree.
    University of Notre Dame Law School, 1992-1995, J.D., summa cum 
laude.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    8/04-present: Partner, Wiley Rein & Fielding LLP, 1776 K Street NW, 
Washington, DC.
    8/02-6/04: Partner, Bartlit Beck Herman Palenchar & Scott LLP, 1899 
Wynkoop Street, Denver, CO.
    7/01-7/02: Law Clerk to the Honorable Clarence Thomas, Associate 
Justice, Supreme Court of the United States, One First Street, NE, 
Washington, DC.
    6/00-6/01: Law Clerk to the Honorable J. Michael Luttig, Circuit 
Judge, United States Court of Appeals for the Fourth Circuit, 401 
Courthouse Square, Alexandria, VA.
    7/99-6/00: Associate, Cooper Carvin & Rosenthal, 1500 K Street NW, 
Washington, DC.
    11/97-6/99: Aide de Camp to the 31st Commandant of the Marine 
Corps, The Pentagon.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Commissioned Officer on Active-Duty in the United States Marine 
Corps from October 1987 through August 1999 as a Communications Officer 
and Judge Advocate.
    Enlisted Member of the United States Marine Corps Reserve from 
October 1986 through October 1987.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Partner, Wiley Rein & Fielding LLP.
    Trustee, Daniel P. Ryan Trust.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, Greater Denver Soft Coated Wheaten Terrier Club.
    Member, Soft Coated Wheaten Terrier Club of America.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.

11/4/02.........................  $250..............  Wayne Allard for
                                                       United States
                                                       Senate Committee
1/22/04.........................  $2,000............  Bush/Cheney 04
10/13/05........................  $150..............  Jim DeMint
1/24/06.........................  $200..............  Rely on Your
                                                       Beliefs Fund
6/23/06.........................  $200..............  Spencer Bacchus
9/12/06.........................  $200..............  Tom Davis
9/13/06.........................  $200..............  Mike McGavick
9/22/06.........................  $500..............  RNC
10/18/06........................  $200..............  Bob Corker
10/18/06........................  $400..............  Lincoln Chafee
10/30/06........................  $200..............  Richard Pombo.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Knox College (1985): Pi Sigma Alpha; B.A. degree cum laude.
    USMC Communications Electronics Officers School (1988): Honor 
Graduate; recipient of the Armed Forces Communications Electronics 
Association Award.
    University of Notre Dame Law School (1995): Notre Dame Law Review 
Editorial Board; Colonel William J. Hoynes Award for outstanding 
scholarship (for graduating first in the class); William T. Kirby Legal 
Writing Award; J.D. degree summa cum laude.
    Naval Justice School (1995): Graduated with Honors.
    Navy Marine Corps Achievement Medal.
    Navy Marine Corps Commendation Medal (two awards).
    Meritorious Service Medal.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Margaret A. Ryan.
    This 27th day of November, 2006.

    [The nomination of Margaret A. Ryan was reported to the 
Senate by Chairman Warner on December 5, 2006, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on December 9, 2006.]


        NOMINATION OF ROBERT M. GATES TO BE SECRETARY OF DEFENSE

                              ----------                              


                       TUESDAY, DECEMBER 5, 2006

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Roberts, Sessions, Collins, Talent, Graham, Dole, Cornyn, 
Thune, Levin, Kennedy, Byrd, Lieberman, Reed, Akaka, Bill 
Nelson, E. Benjamin Nelson, Dayton, Bayh, and Clinton.
    Committee staff members present: Charles S. Abell, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: William M. Caniano, 
professional staff member; Regina A. Dubey, professional staff 
member; Ambrose R. Hock, professional staff member; Gregory T. 
Kiley, professional staff member; Sandra E. Luff, professional 
staff member; Derek J. Maurer, professional staff member; 
Elaine A. McCusker, professional staff member; David M. 
Morriss, counsel; Lucian L. Niemeyer, professional staff 
member; Lynn F. Rusten, professional staff member; Sean G. 
Stackley, professional staff member; Diana G. Tabler, 
professional staff member; and Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Jonathan D. Clark, minority counsel; 
Daniel J. Cox, Jr., professional staff member; Madelyn R. 
Creedon, minority counsel; Gabriella Elsen, professional staff 
member; Evelyn N. Farkas, professional staff member; Richard W. 
Fieldhouse, professional staff member; Creighton Greene, 
professional staff member; Michael J. Kuiken, professional 
staff member; Gerald J. Leeling, minority counsel; Peter K. 
Levine, minority counsel; Michael J. McCord, professional staff 
member; William G.P. Monahan, minority counsel; Michael J. 
Noblet, research assistant; and Arun A. Seraphin, professional 
staff member.
    Staff assistants present: David G. Collins, Micah H. 
Harris, and Jill L. Simodejka.
    Committee members' assistants present: Christopher J. Paul, 
Richard H. Fontaine, Jr., and Paul C. Hutton IV, assistants to 
Senator McCain; John A. Bonsell and Jeremy Shull, assistants to 
Senator Inhofe; Libby Burgess, assistant to Senator Roberts; 
Arch Galloway II, assistant to Senator Sessions; Mark Winter, 
assistant to Senator Collins; D'Arcy Grisier, assistant to 
Senator Ensign; Clyde A. Taylor IV, assistant to Senator 
Chambliss; Matthew R. Rimkunas, assistant to Senator Graham; 
Greg Gross and Arjun Mody, assistants to Senator Dole; Russell 
J. Thomasson, assistant to Senator Cornyn; Bob Taylor and 
Stuart C. Mallory, assistants to Senator Thune; Sharon L. 
Waxman and Mieke Y. Eoyang, assistants to Senator Kennedy; 
Christina Evans and Erik Raven, assistants to Senator Byrd; 
Frederick M. Downey, assistant to Senator Lieberman; Elizabeth 
King, assistant to Senator Reed; Richard Kessler and Darcie 
Tokioka, assistants to Senator Akaka; William K. Sutey, 
assistant to Senator Bill Nelson; Eric Pierce, assistant to 
Senator Ben Nelson; Luke Ballman, assistant to Senator Dayton; 
Todd Rosenblum and Robert J. Ehrich, assistants to Senator 
Bayh; and Andrew Shapiro, assistant to Senator Clinton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning, everyone.
    Dr. Gates, I think I can safely say, on behalf of the 
citizens of our country, we are very pleased that you have 
accepted another challenge, another chapter in public service, 
subject to the confirmation of the Senate. We are very pleased 
to have you before us this morning.
    Dr. Gates has a long and distinguished record of service to 
the Nation. After establishing a firm, educational foundation 
at the College of William and Mary in the Commonwealth of 
Virginia, he served in the United States Air Force from 1966 
through 1969. Dr. Gates then joined the Central Intelligence 
Agency (CIA), where he spent over 26 years, a quarter of a 
century, as an intelligence professional, including a period of 
nearly 9 years assigned to the National Security Council.
    Dr. Gates has served as Deputy Director of the CIA from 
1986 to 1989, subsequently as Assistant to the President and 
Deputy National Security Advisor from 1989 until 1991, then 
nominated by President George Herbert Walker Bush to be the 
15th Director of the CIA in June 1991.
    In September and October 1991, the Senate Select Committee 
on Intelligence, under the leadership of Senator David Boren, 
who's joined us here this morning, and Senator Frank Murkowski, 
conducted hearings on Dr. Gates' nomination. The committee took 
the testimony of some 21 witnesses, compiled a record of over 
2,500 pages of testimony, and favorably reported Dr. Gates' 
nomination to the full Senate. On November 15, 1991, Dr. Gates 
was confirmed by the Senate and served with distinction 
throughout the remainder of former President Bush's term.
    During the Senate floor debate on Dr. Gates' nomination on 
November 4, 1991, I complimented Senator Boren on the very 
thorough way in which you, as the chairman of that Intelligence 
Committee--and I think I'm the only one remaining in the Senate 
who was on the committee at that time--for what you did. I 
stated on the floor that, ``Bob Gates is a very thoughtful man, 
an honest man, an experienced official, a good analyst, a no-
nonsense manager, and a man with a vision of the future 
direction of the role of U.S. intelligence.'' I repeat those 
comments and stand by them this morning.
    I would note that Dr. Gates' additional experience in 
government and the private sector since his departure from CIA 
in 1993, and his continuing academic and scholarly pursuits, 
have enhanced his qualifications to perform the duties of 
Secretary of Defense.
    Dr. Gates, I'd like to address for a few moments the 
challenges that you will face, if confirmed.
    From 1969 to 1974, I had the privilege of serving in the 
Department of Defense (DOD)--specifically, the Department of 
the Navy--under three Secretaries of Defense. Subsequently, 
I've had the opportunity to work as a member of this committee 
with each of the nine men who have followed that period. Upon 
returning from my eighth visit to Iraq with my good friend and 
colleague, the ranking member, and the future chairman of this 
committee--when we came back from Iraq, in October of this 
year, I said the following at a press conference: ``But I 
assure the country that, in 2 or 3 months, if this thing hasn't 
come to fruition, and if this level of violence is not under 
control, and if the government under Prime Minister Maliki is 
not able to function, then it's the responsibility of our 
Government, internally, to determine, is there a change of 
course that we should take? I wouldn't take any option off the 
table.''
    I further observed that the situation was drifting 
sideways. Regrettably, the levels of violence have continued to 
escalate in Iraq, and the ability of Prime Minister Maliki and 
his government to exercise, fully, the range of sovereignty 
remain an enormous challenge.
    Yesterday, I was present at an open forum when General 
Peter Pace, Chairman of the Joint Chiefs, was asked the 
question, ``are we winning the war?'' His response was as 
follows, and I quote him, ``We're not winning, but we're not 
losing.'' There seems to me a parallel between what I said when 
I got back and that distinguished chairman's observation 
yesterday.
    I commend the President, who, for the past 2 months, has 
directed the appropriate Cabinet officers to perform a complete 
review of all issues relating to Iraq and Afghanistan, and our 
future policies, and asked his able executive branch to apply 
their best judgment in determining the way ahead, specifically 
in Iraq. Further, he's met with and indicated that he looks 
forward to receiving the Baker-Hamilton Report, which we, here 
in Congress, will receive tomorrow. This committee has invited 
the members of the Iraq Study Group (ISG) to a hearing at 9:30 
on Thursday. As yet, I don't think--Senator Levin, they haven't 
replied to our letter. The ISG, of which you were a member, 
will formally present its findings and recommendations. I 
commend the members of that group for their public service. I 
think it will be a very important contribution to this critical 
debate at this critical time in our history.
    Additionally, General Pace, Chairman of the Joint Chiefs, 
has his ongoing review. He does that pursuant to his statutory 
authority, exploring all options. That is a continuing advisory 
role that he provides for the President and yourself, assuming 
you're confirmed as Secretary of Defense, and to Congress.
    Most importantly, however, the American people expressed 
their judgment on November 7 that change is needed. The 
President has responded and stated that he desires to obtain 
``fresh eyes'' on the situation in Iraq. Your nomination is 
confirmation of the President's desire to that approach.
    Our committee will continue to look at every option as I 
conclude my chairmanship and the distinguished Senator from 
Michigan assumes his.
    After the President has had the opportunity to review these 
very important reports, I respectfully--and I repeat, 
respectfully--suggest to the administration that he privately 
consult with the bipartisan leadership of the new Congress, 
members who have responded to the mandate of the people, before 
making his final decisions. It is my hope that the executive 
and legislative branches will formulate a bipartisan consensus 
on the way forward. To me, this fulfills a moral obligation 
that our Government--executive and legislative--has to the 
brave men and women of the Armed Forces of the United States, 
and their families, who have sacrificed very heavily in this 
fight to preserve our freedom.
    Dr. Gates, let me remind you of your own words from your 
book, ``From the Shadows,'' about the study of those who serve 
in the executive branch to keep Congress informed in a timely 
and candid manner. I quote from that book, ``I sat in the 
Situation Room in secret meetings for nearly 20 years, under 
five Presidents. All I can say is that some awful crazy schemes 
might well have been approved had everyone present not known, 
and expected, hard questions, debate, and criticism from the 
Hill.''
    Second, from the same book, ``And when, on a few occasions, 
Congress was kept in the dark and such schemes did proceed, it 
was nearly always to the lasting regret of the Presidents 
involved. Working with Congress was never easy for Presidents, 
but then, under the Constitution, it was not supposed to be 
easy. I saw too many in the White House forget that.''
    I urge you, my friend--and we have been friends and 
acquaintances for these many years--to pursue your 
responsibilities in a manner consistent with these salient 
observations as you undertake the duties of Secretary of 
Defense, if confirmed. You have been nominated for one of the 
most important positions in Government. You will be an 
important part of the new review process in determining the 
strategy and the direction this country, together with our 
partners in the coalition, must pursue. I urge you not to 
restrict your advice, your personal opinions, regarding the 
current and future evaluations in these strategy discussions.
    In short, you simply have to be fearless--I repeat, 
fearless--in discharging your statutory obligations as ``the 
principal assistant to the President in all matters relating to 
DOD.'' Good luck.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Mr. Chairman, I join you in welcoming Dr. 
Gates to the committee. Dr. Gates, we appreciate your 
willingness to return to public life after more than a decade 
in what is supposed to be a quieter academic area. Sitting next 
to Senator Boren, who is also in that quiet academic area, I'm 
not sure I can accurately describe it as being that quiet, but 
we do welcome your willingness to return.
    If confirmed as Secretary of Defense, Robert Gates will 
face the monumental challenge of picking up the pieces from 
broken policies and mistaken priorities of the past few years. 
First and foremost, this means addressing the ongoing crisis in 
Iraq.
    The situation in Iraq has been getting steadily worse, not 
better. Before the invasion of Iraq, we failed to plan to 
provide an adequate force for the occupation of the country or 
to plan for the aftermath of major combat operations. After we 
toppled Saddam Hussein in 2003, we thoughtlessly disbanded the 
Iraqi army and also disqualified tens of thousands of low-level 
Ba'ath Party members from future government employment. These 
actions contributed to the chaos and violence that followed and 
to alienating substantial portions of the Iraqi population.
    We have failed, so far, to secure the country and defeat 
the insurgency. We have failed to disarm the militias and 
create a viable Iraqi military or police force. We have failed 
to rebuild the economic infrastructure of the country and 
provide employment for the majority of Iraqis. The next 
Secretary of Defense will have to deal with the consequences of 
those failures.
    Iraq is not the only challenge that you will face. We're 
going to be faced by a resurgent Taliban in Afghanistan; an 
unpredictable nuclear power in North Korea; an Iran that seems 
to be aggressively pursuing nuclear weapons and causing 
problems throughout the region; an Army and Marine Corps in 
need of tens of billions of dollars to replace and repair 
equipment that has been damaged and destroyed in the course of 
ongoing operations; the military's nondeployed ground forces 
that have a declining level of readiness to meet their wartime 
missions; weapons programs that, despite the expenditure of 
more than $100 billion a year, are increasingly unaffordable; a 
military that faces constant challenge in recruiting and 
retaining the troops that it needs; military families suffering 
from the increased strains of repeated deployments and a 
sustained high operational tempo; and a Department whose image 
has been tarnished by the mistreatment of detainees in Abu 
Ghraib, in Guantanamo, and elsewhere.
    Despite these problems, the next Secretary of Defense will 
lead a military that is, by far, the most powerful in the 
world. Our DOD not only has the most capable weapons systems 
ever deployed, but we are blessed with an extraordinarily 
talented and committed military and civilian workforce. 
Unfortunately, the Department's effectiveness has been reduced 
by a civilian senior leadership that has too often not welcomed 
differing views, whether from our uniformed military leaders, 
the Intelligence Community, the State Department, American 
allies, or Members of Congress of both political parties.
    The next Secretary will have to work hard to heal these 
wounds and address the many problems facing the Department and 
the country. Success will require more than total commitment; 
it will require an individual who is creative, fair, and 
openminded, and, above all, an individual who can listen to, 
learn from, and work with others. It will also require an 
individual who is willing to speak truth to power and encourage 
others to do the same.
    Among other things, that means ensuring that the Chairman 
of the Joint Chiefs of Staff is able, on his own behalf and on 
behalf of the other members of the Joint Chiefs and the 
combatant commanders, to give unvarnished direct military 
advice to the Commander in Chief. The next Secretary will not 
only need to respect the Goldwater-Nichols law, which assures 
that such advice will be given directly to the President and 
the National Security Council, he will also need to respect 
that advice himself.
    It is no secret that I voted against Dr. Gates' nomination 
to be Director of Central Intelligence in 1991. I did so 
because I thought that he had been less than candid about the 
role that he played in the Iran-Contra affair. As I have said 
before, however, I, for one, intend to take a fresh and fair 
look at Dr. Gates' record.
    In that regard, I find many of Dr. Gates' responses to the 
committee's prehearing policy questions to be reassuring. For 
example, Dr. Gates stated that two lessons we should learn from 
the war in Iraq are that war planning should be done with the 
understanding that the post-major-combat phase of operations is 
critical and that the Intelligence Community should not 
exaggerate its capabilities or minimize the uncertainty that 
plagues assessments.
    In those prehearing responses, he also stated that there is 
no purely military solution in Iraq. He stated that we should 
not be afraid to engage in direct discussions with our 
adversaries, as we did, ``in the worst days of the Cold War,'' 
when the United States maintained a dialogue with the Soviet 
Union and China. He has reassured the committee that the DOD 
policies and actions relative to detainees must comply not only 
with the revised Army Field Manual on interrogations, but also 
with Common Article 3 of the Geneva Conventions. Last, but not 
least, Dr. Gates has said that he will cooperate with committee 
requests for information or documents, and that he will comply 
with legislation requiring that known costs of ongoing 
operations in Iraq and Afghanistan be funded through the normal 
budget process rather than through emergency supplementals.
    These are all reassuring statements that you have made to 
the committee.
    I look forward to the testimony of our nominee. Again, I 
thank him for his willingness to leave a job that he loves to 
undertake a heavy and a demanding responsibility. I also want 
to thank Senators Dole and Boren, who are such deeply respected 
members of this body and are such good friends of all of us, 
and whose endorsement of you, Dr. Gates, has significance for 
all of us.
    Finally, this hearing has a special meaning for members of 
this committee, because it may well be Senator Warner's last 
hearing as chairman of this committee. Senator Warner has 
always chaired this committee with unfailing fairness, dignity, 
and civility, reflecting his passion for the security of this 
Nation. His devotion to the well-being of our men and women in 
uniform who have dedicated their lives to the service of our 
country has been a hallmark of his chairmanship, as has the 
bipartisan way in which he has worked with all of us and our 
staffs. He has truly been one of the great chairmen of the 
Senate Armed Services Committee.
    I thank you.
    Chairman Warner. I thank you, Senator Levin, for those kind 
remarks. I thank each of my colleagues, whom I've had the 
privilege to serve here these many years. Twenty-eight years 
ago, we came here together, and I pass the gavel to you in but 
a week or so. Good luck to you, my friend.
    Senator Dole, you have been an absolute tower of strength 
in the institution of the United States Senate. As you were the 
majority leader at one time, you have just a bare notch of 
seniority over our colleague, Senator Boren, so we'll let you 
lead off.

  STATEMENT OF HON. ROBERT DOLE, FORMER U.S. SENATOR FROM THE 
                        STATE OF KANSAS

    Senator Robert Dole. Mr. Chairman, I'm probably here by 
accident, because the phone rang at home, and I picked it up, 
and the person on the other end said, ``Senator Dole, would you 
mind introducing me at the hearing?'' I said, ``yes.'' Then I 
learned, later, they were calling for Elizabeth. [Laughter.]
    Senator Robert Dole. So I appreciate the fact that she's on 
the committee, but I appreciate this opportunity, and I'll be 
very brief.
    President John Adams once said, ``If we do not lay out 
ourselves in the service of mankind, whom should we serve?'' 
Bob Gates truly understands this. Granted, I may be a little 
biased, owing to his Kansas roots. It was Kansas where he first 
learned the meaning of service, while growing up in Wichita. 
His appreciation for the interests of others grew as a student 
at William and Mary and throughout his years as a career 
intelligence official and through his subsequent leadership of 
our intelligence services, and, most recently, in his 
stewardship at Texas A&M, one of our Nation's outstanding 
universities. Through it all, Bob Gates has given of himself in 
this great tradition to our Nation and our people.
    Mr. Chairman, as we convene, our Nation's defense policy is 
dominated by a single issue: the war in Iraq. Even those 
critics of the war who want us to withdraw soon or cut our 
forces substantially acknowledge that the stakes are high. I 
believe we can agree with our President, who has said, ``This 
is a massive and difficult undertaking. It is worth our effort, 
it is worth our sacrifice, because we know the stakes. The 
failure of Iraq democracy would embolden terrorists around the 
world, increase dangers to the American people, and extinguish 
the hopes of millions in the region.''
    At this critical hour, Mr. Chairman, you and your committee 
have gathered for an exceedingly rare act, the confirmation of 
a new Secretary of Defense in wartime. The last time this 
happened was in 1968, when President Johnson nominated Clark 
Clifford to replace Bob McNamara. Make no mistake about it, 
history is being made here today.
    Today, Bob Gates is poised to take the helm at the Defense 
Department at a time of intense debate over the war. Some 
contend that, with sufficient time and dedication, victory is 
assured. Yet, there is no denying that, having overthrown 
Saddam Hussein, we have not secured the peace, that Iraqi's 
borders remain porous, that the interests and destabilizing 
involvement of Iran and Syria have not been adequately 
addressed, and that the current power vacuum creates risk of an 
even larger scale sectarian conflict. At the same time, those 
who have been calling for withdrawal or massive date-certain 
drawdowns should acknowledge that these are tactical shifts, 
not a radical overhaul of our policies, that the removal of 
Saddam from power opened the door to democracy, and that to 
realize these are goals worthy of sacrifice and that defeat is 
not an option, but the quality of life in many parts of the 
country is better than it was 4 years ago.
    In the American experience, wars that enjoy equivocal 
support from our people usually end with equivocal outcomes. 
This is why our country must unite behind a strategy for a 
successful military mission, a viable exit plan, and a 
recognizable vision for Iraq's future. I agree with the 
President that Bob Gates is the man to make this happen. He is 
a person of uncommon resolve, intellect, and strength of 
character. He has the force of will to exercise civilian 
control over the military, but be sensitive to respect the 
wisdom and counsel of our generals and admirals, and the men 
and women who serve under them.
    A famous Kansan, Dwight Eisenhower, once said of General 
George C. Marshall that he typified all that we call on or that 
we look for in what we call an American patriot. The same may 
be said of Bob Gates. It is my honor to introduce him formally 
to this committee, and urge you not only to confirm him as our 
next Secretary of Defense, but also to give him your full 
support in the difficult days and months ahead.
    Thank you, and God bless America.
    Chairman Warner. Thank you, Senator Dole. You've had a long 
and distinguished career, beginning as a combat soldier and 
platoon leader in the closing months of World War II. We have 
the highest regard for your contributions here this morning.
    Senator Boren, former chairman of the Senate Select 
Committee on Intelligence at the time that this fine American 
came before us, we're delighted to have you, and have you 
return to the Senate.

STATEMENT OF HON. DAVID L. BOREN, FORMER U.S. SENATOR FROM THE 
                       STATE OF OKLAHOMA

    Senator Boren. Thank you very much, Mr. Chairman and 
members of the committee. Thank you for allowing me the 
privilege to join with my colleague Senator Bob Dole to present 
Dr. Robert Gates, the President's nominee for Secretary of 
Defense.
    Mr. Chairman and members, I also have a statement with me 
of former Senator Sam Nunn, the former distinguished chairman 
of this committee, that he asked that I submit for the record. 
It's a strong statement of endorsement of the nomination of Dr. 
Gates.
    Chairman Warner. Without objection, so admitted.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator Boren. Mr. Chairman and members, I sincerely 
believe that, at this critical moment, Dr. Gates is the best 
possible choice for this position. In my entire adult lifetime, 
our country has never been faced with more dangerous 
challenges. With only 6 percent of the world's population, we 
face economic growth in other nations and regions which is 
likely to bring them into economic parity with the United 
States in a relative short time, and military parity, as well, 
if they decide to use their resources for that purpose. We are 
militarily spread thin in areas of the world where serious 
threats exist, and there are no easy options for extricating 
ourselves from our military involvement in Iraq.
    At the end of World War II and the beginning of the Cold 
War, we also faced threats that could have overwhelmed us. How 
we responded then provides us with an excellent guide for the 
present.
    First, we brought together people of exceptional talent, 
like Bob Gates, to serve us without regard to political party 
affiliation.
    Second, leaders like President Truman, a Democrat, and 
Senator Vandenberg, a Republican, adopted a truly bipartisan 
blueprint that provided us with a consistent policy for over 40 
years, without regard to which party controlled the White House 
or Congress.
    Third, we did not bear all of the burdens of leadership by 
ourselves. We formed strong alliances and partnerships with 
other nations based upon mutual respect. We struck the right 
balance between diplomacy, dialogue, and military strength. We 
made sure that we were always strong enough to act alone, if we 
had to do so, but we were wise enough to avoid that situation.
    We must do exactly the same thing now. Partisan 
polarization, if allowed to continue, will destroy our 
economic, military, social, and moral influence in the world, 
and it will ultimately destroy the fabric of our own country 
itself.
    During his 26 years of service at the CIA and at the 
National Security Council, Bob Gates demonstrated his sincere 
commitment to bipartisanship. He served as Deputy Director of 
the CIA under Republican Presidents with Democratic majorities 
in both Houses of Congress. During the 6 years that I chaired 
the Senate Select Committee on Intelligence, I watched him 
effectively work to build a consensus on sensitive issues. 
Democrats and Republicans had equal seats at the table. During 
those 6 years, in no small part because of his bipartisan 
spirit and his respect for the oversight and policymaking role 
of Congress, our committee, as you remember, Mr. Chairman, had 
only a tiny handful of rollcall votes, and not one of them was 
even close. We simply worked with each other and with the 
executive branch, often represented by Dr. Gates, until a 
consensus was reached.
    I came to respect Bob Gates as a realist who faced up to 
the facts and adjusted to changing situations. He rejected 
inflexible ideological positions and worked hard to fashion 
practical solutions. We badly need those qualities right now.
    Most recently, as a fellow university president, I have 
watched with admiration his leadership in bringing faculty 
members, students, and alumni together to increase the strength 
and diversity of Texas A&M, where he serves as president. Bob 
Gates knows how to lead large and complex organizations. He 
will hit the ground running as Secretary of Defense at a moment 
when we have no time to waste.
    I am here today not only because I believe that Bob Gates 
has exceptional ability, but also because I have confidence in 
his personal integrity and in his sincere desire to serve our 
country. It was my responsibility to chair the hearings which 
resulted in his confirmation to serve as Director of the CIA, 
which has been referenced. His nomination came to our committee 
on June 24, 1991. Our scrutiny of this nominee was not 
completed until October 18 of that year. All questions which 
were raised, even those of doubtful credibility, were 
vigorously pursued. Part of the final committee report reads as 
followed: ``By any standard, the consideration of this 
nomination was the most thorough and comprehensive of any 
nomination ever received by the committee. Thousands of 
documents were reviewed. Hundreds of witnesses were interviewed 
by the committee staff. The nominee testified for 4 long days, 
in open and closed sessions, responding to almost 900 
questions, and written responses were submitted to an almost 
additional 100 questions. In short, these thorough proceedings 
confirmed the commitment of Bob Gates to faithful and honorable 
public service.''
    Today, we have an opportunity to embark upon a new 
bipartisan path to protect our national security. The Senate 
can do its part by quickly and overwhelmingly confirming this 
talented nominee as Secretary of Defense. But confirmation 
alone is not sufficient.
    The President must also do his part by making sure that he 
gives great weight to the bipartisan spirit and realistic 
advice which I believe that he will receive from Dr. Robert 
Gates.
    There are those who say it is an impractical and romantic 
idea that we can replace polarization with civility, 
cooperation, and partnership. To the doubters, I answer that we 
achieved it in the Senate Select Committee on Intelligence, 
with the help of Bob Gates, only 15 years ago. It is not only 
an option we can achieve with hard work and determination, it 
is imperative if the United States is to remain the world 
leader. It is for that reason that it is an honor for me to 
recommend to this committee the confirmation of Dr. Robert 
Gates.
    Chairman Warner. Thank you very much, Senator Boren.
    We, here on this committee, are faced with the reality that 
we have but a few days in this session. I think it's in the 
interest of our Nation that we complete our work as a 
committee, as a Senate, on the advice and consent role 
entrusted to this institution under the Constitution. It is my 
intention--and I have been in consultation with the 
distinguished ranking member--that we will hold this hearing 
throughout this day. As the afternoon approaches, I would hope 
that the members of this committee would advise the two leaders 
here of their own commitments and desires. But it is our 
expectation that, before day's end, we can complete this 
hearing. If not, we'll resume tomorrow. But I would urge that 
we try and complete it today. We will also have an executive 
session today, which is important, to examine the nominee in 
the confines of classified material.
    So, with that in mind, we thank both of our distinguished 
colleagues for joining us this morning.
    Dr. Gates, before we proceed to hear from you, I would ask 
the indulgence of the committee.
    [Recess for a brief business meeting.]
    Chairman Warner. Now, Dr. Gates, we're pleased to have your 
opening comments.

    STATEMENT OF ROBERT M. GATES, TO BE SECRETARY OF DEFENSE

    Dr. Gates. Thank you, Mr. Chairman.
    It is an honor to come before you today for this 
confirmation hearing. I'm also deeply honored by, and grateful 
to, the President for his confidence and trust in nominating me 
for Secretary of Defense.
    I want to express my sincere thanks to both Chairman Warner 
and incoming Chairman Levin for their speedy consideration of 
this nomination. Both of you have been exceedingly gracious to 
me during my courtesy calls.
    I've long been impressed by the experience and collective 
wisdom of this committee. I'm also all too aware that 
Secretaries come and go, but the Senate Armed Services 
Committee remains. If confirmed, I will seek your counsel, and 
take it seriously.
    I want to thank my good friends and former Senators, Bob 
Dole and David Boren, for introducing me this morning, and for 
their kind remarks. I'm also grateful to the former long-term 
chairman of this committee, Senator Sam Nunn, for his 
introductory words of support.
    I would also like to note that I first came before the 
Senate for confirmation more than 20 years ago, in April 1986. 
On that occasion, and twice more, the chairman of this 
committee, Senator Warner, introduced me, and I will always be 
grateful for his kindness and courtesy.
    Chairman Warner. I thank the nominee.
    Dr. Gates. I would be remiss if I also did not thank my 
wife of 40 years, Becky, and our two children, Eleanor and 
Brad, for their infinite patience as I contemplate a return to 
Washington. Becky asked to be excused today, to accompany the 
Texas A&M women's basketball team to an away game in Seattle.
    The DOD, in peacetime and in wartime, always faces multiple 
challenges, many of which were identified in the questions the 
committee asked me to answer. If I am confirmed by the Senate, 
I will do my best to bring progress in addressing as many of 
these challenges as possible.
    At the same time, I am under no illusion why I am sitting 
before you today: the war in Iraq. Addressing the challenges we 
face in Iraq must, and will, be my highest priority, if 
confirmed.
    I welcome the many alternative strategies and tactics 
proposed by Members of Congress and others. More are coming, 
most notably from the ISG, of which I was a member until 
November 8, led by former Congressman Lee Hamilton and former 
Secretary of State James Baker. Other reviews are ongoing 
within DOD and elsewhere in government. I am open to a wide 
range of ideas and proposals. If confirmed, I plan, urgently, 
to consult with our military leaders and our combat commanders 
in the field, as well as with others in the executive branch 
and in Congress. I would then sit down with the President and 
members of the National Security Council to discuss the 
situation in Iraq and offer my thoughts and recommendations.
    I will give most serious consideration to the views of 
those who lead our men and women in uniform. Of course, it is 
the President who will decide what, if any, changes are made in 
our approach.
    While I am open to alternative ideas about our future 
strategy and tactics in Iraq, I feel quite strongly about one 
point. Developments in Iraq over the next year or two will, I 
believe, shape the entire Middle East and greatly influence 
global geopolitics for many years to come. Our course over the 
next year or two will determine whether the American and Iraqi 
people, and the next President of the United States, will face 
a slowly, but steadily, improving situation in Iraq and in the 
region or will face the very real risk, and possible reality, 
of a regional conflagration. We need to work together to 
develop a strategy that does not leave Iraq in chaos, and that 
protects our long-term interests in, and hopes for, the region.
    I did not seek this position or a return to government. I 
am here because I love my country, and because the President of 
the United States believes I can help in a difficult time. I 
hope you will reach a similar conclusion.
    Finally, Mr. Chairman, perhaps the most humbling part of 
the position for which this committee is considering me is 
knowing that my decisions will have life-and-death 
consequences. Our country is at war. If confirmed, I will be 
charged with leading the men and women who are fighting it. The 
patriots who have volunteered to serve in our armed services 
today have no equal in the world and are in the long tradition 
of their forebears who have fought our country's wars for the 
last 230 years. I offer this committee my solemn commitment to 
keep the welfare of our forces uppermost in my mind.
    Thank you, Mr. Chairman. That concludes my opening remarks.
    Chairman Warner. Thank you, Dr. Gates.
    I'll now proceed to question you with regard to the 
standard procedures this committee has with regard to all 
nominations.
    The committee asked Dr. Gates to answer a series of advance 
policy questions. He's responded to those questions. Without 
objection, I'll make the questions a part of the record.
    Now, to the standard questions, if you'll respond to each 
question, we'll proceed.
    Have you adhered to all applicable laws and regulations 
governing conflict of interest?
    Dr. Gates. Yes, sir.
    Chairman Warner. Have you assumed any duties, or undertaken 
any actions, which would appear to presume the outcome of the 
confirmation process?
    Dr. Gates. No, sir.
    Chairman Warner. Will you ensure that your staff, if 
confirmed, will have deadlines established for requested 
communications, including questions for the record in hearings, 
and meet those requests?
    Dr. Gates. Yes, sir.
    Chairman Warner. Will you cooperate in providing witnesses 
and briefers in response to the committees of Congress of the 
United States?
    Dr. Gates. Yes, sir.
    Chairman Warner. Will those witnesses be protected from 
reprisal for their testimony or their briefings?
    Dr. Gates. Yes, sir.
    Chairman Warner. Do you agree, if confirmed, to appear and 
testify upon request before this committee?
    Dr. Gates. Yes, sir.
    Chairman Warner. Do you agree to provide documents, 
including copies of electronic forms of communication, in a 
timely manner, when requested by a duly constituted committee 
of Congress, or to consult with the committee regarding the 
basis for any good-faith delay or denial in providing such 
documents?
    Dr. Gates. Yes, sir, to the limits of my authority.
    Senator Byrd. Mr. Chairman, I didn't hear that answer.
    Chairman Warner. Fine. I'll repeat the question, and we'll 
have the answer.
    Do you agree to provide documents, including copies of 
electronic forms of communication, in a timely manner, when 
requested by a duly constituted committee of Congress?
    Dr. Gates. Yes, sir, to the extent of my authority.
    Chairman Warner. Fine. Or, if you desire, consult with the 
committee regarding any basis for any good-faith delay or 
denial in providing such documents?
    Dr. Gates. Yes, sir.
    Chairman Warner. Thank you.
    We'll now have our 6-minute round of questions. I would 
start off with the following:
    The President, in the past 2 months, as the various studies 
are being undertaken about an analysis of our future course of 
action in Iraq, studies by, internally, the administration, the 
Baker-Hamilton Group, Chairman of the Joint Chiefs, and others, 
but, at a number of opportunities, he's made it very clear--and 
I will read his quote, as follows. President Bush said, ``I 
know there's a lot of speculation that these reports in 
Washington mean that there's going to be some kind of graceful 
exit out of Iraq. We're going to stay in Iraq to get the job 
done as long as the government''--that's the Government of 
Iraq--``wants us there.'' Added statements to the effect, we're 
going to stay until the mission is completed.
    Now, we have to assume that you've had a number of 
consultations with the President to determine exactly what his 
desires are with regard to the mission being completed, your 
understanding of those desires, and your own approach, as best 
you can know it at this time, without the benefit of having all 
of the studies before you. But the question I have is, did you 
understand fully what's in the mind of the President when he 
said, ``We're going to stay in Iraq until the mission is 
completed''?
    Dr. Gates. Mr. Chairman, I have the sense that the 
President's view of accomplishing the mission, at this point, 
is an Iraq that can defend itself, can sustain itself, and can 
govern itself. I also believe that he understands that there 
needs to be a change in our approach in Iraq, that what we are 
doing now is not working satisfactorily. When he asked me to 
take this job, as he put it, he wanted someone with ``fresh 
eyes'' to look at the situation and make recommendations.
    In my view, all options are on the table, in terms of how 
we address this problem in Iraq, in terms of how we can be more 
successful and how we can, at some point, begin to draw down 
our forces.
    I guess the bottom line is that I believe that he wants me 
to take a fresh look, and that all options are on the table.
    Chairman Warner. At this juncture, in your working with the 
President, you're comfortable that the two of you can perform 
this arduous task, not just this phase of the war and such 
change of strategy as we might take, but evolutions that could 
occur in the months to come?
    Dr. Gates. Yes, sir, I am.
    Chairman Warner. On the question of the command and control 
of the U.S. forces in Iraq, and command and control of the 
Iraqi forces: As you well know, Iraq is now a sovereign nation. 
That sovereignty was given to Iraq by the sacrifices of the men 
and women of the Armed Forces of our Nation and other nations 
that fought courageously to enable them to have their 
elections, establish their government, and begin to exercise 
the reins of sovereignty. But an incident in October involving 
orders from Prime Minister Maliki to abandon checkpoints around 
Baghdad concerned me and, I think, many others. The issue is 
command and control of the U.S. forces. Now, our forces have 
taken risks--indeed, perhaps, in some instances, loss of life 
and limb--in establishing the progress, thus far, that we've 
made in Baghdad.
    Several months ago, the military officers came before this 
committee and said Baghdad is the battle that we must win. 
We're going to put considerable emphasis on that battle. To 
date, I think they would acknowledge the goals that they had 
originally established in their minds, the timetable that they 
originally thought of has not been met. But this was a very 
interesting chapter of command and control, when our forces 
took those checkpoints, presumably at the direction of our 
commanders, and that direction presumably was in consultation, 
in some measure, with the Iraqi Government. Then the Prime 
Minister appeared to unilaterally say, ``Take those forces back 
down out of those checkpoints.'' It related directly to Sadr 
and his forces, and, indeed, that area referred to as ``Sadr 
City.''
    What is your understanding of how this command and control 
is working today and how it will work in the future?
    Dr. Gates. Mr. Chairman, I'm only aware of that incident by 
virtue of what I've read in the newspaper. I'm not familiar 
with the particulars. I think that would be a question that I 
would want to address with General Casey early on to see if he 
is content with the command and control arrangements, and what 
changes he thinks need to be made, if any, in the arrangements 
that we have with the Iraqis.
    Clearly, as we ask the Iraqis to stand up, they are going 
to want to stand up by themselves, increasingly. We want Iraq 
to have a sovereign government. But, as long as American men 
and women are putting their lives at risk, clearly the command 
and control of those forces is very important, and I would take 
it as an early priority to get an understanding with General 
Casey about his concerns, if he has any, about those 
arrangements.
    Chairman Warner. That requires a very clear and precise 
understanding, because the men and women of the United States 
Armed Forces--and I think we can speak for the other coalition 
forces--they have to be responsible to the respective heads of 
their government.
    Dr. Gates. Yes.
    Chairman Warner. In our instance, the President of the 
United States.
    Let me turn to the question of the Director of National 
Intelligence (DNI) and your relations, assuming you're 
confirmed as Secretary of Defense. During the debate over the 
Intelligence Reform and Terrorism Prevention Act of 2004 you 
expressed concern about the proper balancing of authorities and 
responsibilities among the major elements of the Intelligence 
Community. Do you believe that the legislation enacted struck a 
correct balance? What areas will you consider to strengthen the 
working relationship between the DNI and the Director of CIA 
and the Secretary of Defense?
    Dr. Gates. Mr. Chairman, I think that the final legislation 
addressed some of the concerns that I had with the 
establishment of the DNI position. I would have to tell you, I 
remain concerned that the law charges the DNI with the 
execution of the National Foreign Intelligence Program, and 
also with other things, such as ensuring that members of the 
Intelligence Community obey the law. But the DNI cannot 
personally hire or fire the heads of a single intelligence 
agency in the United States Government. As somebody who's led 
very large organizations, without having that authority, it 
makes it very difficult to exercise your will, and especially 
if you're trying to change cultures.
    So, I would anticipate, if confirmed, working with the DNI 
to see if there are ways in which we can work together to 
ensure that he has the authority that he needs to fulfill his 
responsibilities.
    Chairman Warner. If there is a view that legislation is 
required, will you promptly, in consultation with the 
President, bring that legislation to Congress?
    Dr. Gates. Yes, sir. I think that we can probably solve the 
problem without legislation, but, should legislation be needed, 
I certainly would work with this committee and the intelligence 
committees.
    Chairman Warner. Thank you.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    Dr. Gates, do you believe that we are currently winning in 
Iraq?
    Dr. Gates. No, sir.
    Senator Levin. Prime Minister Maliki said on November 27 
that ``the crisis is political, and the ones who can stop the 
cycle of aggravation and bloodletting of innocents are the 
Iraqi politicians.''
    Do you believe that the end to violence in Iraq requires a 
political settlement, and that we need to communicate a sense 
of urgency to the Iraqis to pressure them to reach a settlement 
that only their politicians can reach?
    Dr. Gates. Yes, sir, I do.
    Senator Levin. The chairman has asked you about a comment 
of the President that, ``We are going to stay in Iraq as long 
as the Iraqis ask us to be there.'' There was something else 
added to that which the chairman asked you about, but I'm going 
to ask you about that statement of the President, which he's 
made twice in recent weeks, ``We are going to stay in Iraq as 
long as the Iraqis ask us to be there.''
    Doesn't such an open-ended commitment send a message to the 
Iraqis that somehow or other it is our responsibility as to 
whether or not they achieve a nation, rather than it is their 
responsibility to reach a political settlement?
    Dr. Gates. Senator, I haven't spoken with the President 
about those remarks, so I'm going to have to interpret them 
myself. It seems to me that the United States is going to have 
to have some presence in Iraq for a long time. The Iraqi forces 
clearly have no logistical capability of their own, they have 
no airpower of their own. So, the United States clearly, even 
if whatever changed approach or strategy we come up with and 
the President implements, works, we are still going to have to 
have some level of American support there for the Iraqi 
military, and that could take quite some time. But it could be 
with a dramatically smaller number of U.S. forces than are 
there today. So, I would interpret the President's remarks in 
this vein, that we are willing to continue to help the Iraqis, 
as long as they want our help. I don't think that it implies 
that we will be there at the level of force we have, or doing 
the things that we are doing in a major combat way, for the 
indefinite future.
    Senator Levin. Secretary Rumsfeld, in a memo that was 
recently published, outlined options that the President should 
consider relative to Iraq. Some of the options were above the 
line, as he put it, and some were below the line. The ones 
above the line, he basically felt, were worthy of 
consideration. The ones below the line, he did not think were 
worthy of consideration. Two of the options above the line were 
the following: ``Begin modest withdrawals of U.S. and coalition 
forces, so Iraqis know they have to pull up their socks, step 
up, and take responsibility for their country.'' Do you believe 
that option is worthy of consideration?
    Dr. Gates. Yes, sir. As I indicated, I think that all 
options are on the table.
    Senator Levin. Dr. Gates, former Secretary of State George 
Schultz wrote a book in which he was critical of you, when you 
were the Deputy Director of Central Intelligence. He said that 
he told you the following, that, ``I don't have any confidence 
in the Intelligence Community. I feel you all have very strong 
policy views. I wouldn't trust anything you guys said about 
Iran, no matter what. I feel you try to manipulate me. You deal 
out intelligence as you deem appropriate. I feel an effort is 
made to manipulate me by the selection of material that you 
send my way.''
    Would you comment now on those written comments of 
Secretary Schultz, comments that he said he addressed to you 
when you were William Casey's deputy at the CIA?
    Dr. Gates. Yes, sir. It's a significant question, and I 
think that it deserves a detailed response.
    First, let me say that I believe George Schultz was one of 
the greatest Secretaries of State in American history. I would 
also tell you that he was probably one of the best, and most 
avid, users of American intelligence of any senior official I 
worked with in my entire career, and I have very high regard 
for him.
    The reality is that I think Secretary Schultz's views of 
intelligence were influenced, in no small measure, by his 
personal relationship with Director Casey. It was an open 
secret in Washington that the two didn't get along. Director 
Casey was perceived as having his own independent foreign 
policy that he pursued, independent of the Secretary of State. 
He was perceived as not differentiating, in meetings, between 
his personal opinions and the views of the CIA's experts. He 
consistently tried to give advice to the Secretary of State on 
how to do his job, which I am sure was not appreciated. 
Finally, in the fall of 1986, Director Casey wrote the 
President of the United States and recommended that the 
Secretary of State be fired. So, I think it's fair to say that 
they did not have a warm, personal relationship. I think that 
bad blood, frankly, influenced Secretary Schultz's view of 
intelligence.
    I would tell you that I had a dialogue with Secretary of 
State Schultz over a 6-year period on the quality of 
intelligence and the support that we gave him. Frankly, the 
relationship was much more positive, in realtime, than he 
portrays it in his book. He drew heavily on the CIA for 
intelligence relating to arms control verification, 
developments in the Soviet Union, the Pakistani nuclear 
program, a variety of negotiations he was involved in. As I 
said at the outset, he was a very avid user of intelligence 
information.
    At the same time, in this dialogue--and we would meet 
almost weekly--he told me that he felt that the CIA was too 
pessimistic about too many issues--El Salvador, Lebanon, 
Angola, and various others--from one time to another. We 
disagreed on developments in the Soviet Union. Sometimes he was 
right, sometimes we were right. Sometimes we were wrong, also.
    I think that there was a high correlation, frankly, between 
his criticism of the intelligence and when the intelligence was 
focused on issues in which he was engaged in negotiations, and 
particularly when that intelligence analysis provided 
ammunition to his critics inside the administration or here on 
the Hill, or where he felt they complicated his negotiations.
    From a personal standpoint, he was always friendly to me. 
As I said, we met frequently throughout that 6-year period. I 
would tell you that I do not recall him, at any time during 
that 6 years, ever questioning my personal integrity or saying 
that I personally was manipulating the intelligence. We would 
have big meetings, and we would have small meetings. In the 
small meetings--for example, on Angola--he was convinced that 
CIA was trying to manipulate the intelligence on Angola, and I 
kept trying to persuade him that what he was getting was the 
unvarnished views of the intelligence analysts in the CIA, and 
that Director Casey hadn't seen anything that he was receiving, 
in terms of the analysis on Angola. But I think he remained 
skeptical.
    So, we had this dialogue for a long time. I think, as I 
suggest, his views in his memoir, frankly, were much starker 
and much more negative than the working relationship that we, 
and other intelligence analysts from the CIA, had with him at 
the time.
    Senator Levin. Thank you, Dr. Gates. Your acknowledgment 
that we're not winning in Iraq, frankly, is a necessary, 
refreshing breath of reality that is so needed if we're going 
to look at ways of changing course in Iraq to maximize the 
chances of success. I thank you for that and the other candid 
responses that you've given here.
    My time is up.
    Chairman Warner. Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    Dr. Gates, thank you for your willingness to serve this 
Nation again. We are very grateful. We know you left a very 
comfortable life in Texas to serve this Nation again, and we 
are grateful. I'd like to offer my congratulations and 
condolences for your appointment. [Laughter.]
    I'd like to follow on just what Senator Levin said. We are 
not winning the war in Iraq. Is that correct?
    Dr. Gates. That is my view, yes, sir.
    Senator McCain. Therefore, the status quo is not 
acceptable.
    Dr. Gates. That is correct, sir.
    Senator McCain. I know you did a great deal of work with 
the ISG, and there is a general consensus of opinion now, in 
hindsight, that we didn't have sufficient number of troops, at 
the time of the invasion, to control Iraq, either Anbar 
Province, the looting, and most importantly the weapons and 
ammunition depots that were looted at the time. When anarchy 
prevails, it's very difficult to gain control of a country. Do 
you agree that, at the time of the invasion, we didn't have 
sufficient troops to control the country, in hindsight?
    Dr. Gates. I've had to deal with hindsight in some of the 
decisions that I've made, Senator McCain, and sometimes it's 
not very comfortable. I suspect, in hindsight, some of the 
folks in the administration probably would not make the same 
decisions that they made, and I think one of those is that 
there clearly were insufficient troops in Iraq, after the 
initial invasion, to establish control over the country.
    Senator McCain. Yet, at this particular point in time, when 
the suggestion is made, as the situation deteriorates and the 
status quo is not acceptable, that we reduce troops, or, as 
General Abizaid said, that he had sufficient number of troops--
in your study when did we reach the point where we went from 
not having enough troops to having sufficient number of 
troops--boots on the ground--as the situation deteriorated? 
That's a non sequitur that I am unable to intellectually 
embrace.
    Dr. Gates. Senator, I was a part of the ISG during their 
education phase, I would say, and I resigned before they began 
their deliberations. I would tell you that, when we were in 
Iraq, that we inquired of the commanders whether they had 
enough troops, and whether a significant increase might be 
necessary. I would say that the answer we received was that 
they thought they had adequate troops. It seems to me that as 
one considers all of the different options, in terms of a 
change of approach in Iraq and a change of tactics, that 
inquiring about this, again, is clearly something--and it may 
be that a Secretary of Defense might get a more candid answer 
than an outside study group that was visiting them, but the 
response that we received in Baghdad was that they had enough 
troops.
    Senator McCain. Then the second and third question should 
have been asked, and that is, ``why are the conditions and 
situation continuing to deteriorate and not improve if you have 
sufficient assets and people in order to get the job done?''--
which we now agree is not satisfactory.
    One of the reasons given is, it would be too great a strain 
on the military today, that we don't have sufficient Active-
Duty and National Guard Forces. There were some of us, 3\1/2\ 
years ago, that said we needed to increase the size of the Army 
and the Marine Corps. The answer was, ``well, that would take a 
couple of years.'' Years have passed, and we're still putting 
an enormous strain on the Active-Duty and Guard Forces. Do you 
believe that we need to increase the size of the Marine Corps 
and the Army?
    Dr. Gates. Senator, if I'm confirmed, I'm very open to the 
possibility--and the necessity of--an increase in the end 
strength of the Army. However, first, because we have 150,000 
troops in the field, and we have a regular Army of about a half 
a million, and a Guard and Reserve of about another half a 
million, I would like to, if I am confirmed, first of all, 
ensure, for myself, that the other 350,000 troops in the 
regular Army are doing what we want them to be doing, and that 
they are all needed in the roles that they are in. As a way of 
making sure that, before we increase the end strength, that 
we're using the strength that we have in the way we ought to 
be. But if the answer to that question is, ``That's about the 
way it ought to be, that those troops are deployed in the way 
we want them deployed,'' then I'm very open to the possibility 
of an increase in the end strength.
    Senator McCain. We are living in a very dangerous world, 
whether you look at Iran, North Korea, the crisis in Lebanon as 
we speak--the list goes on and on--it would be very difficult 
for us to envision us being capable of handling another 
contingency, given the fact that our military leaders are 
saying it would be too great a strain on the military and the 
Guard even to put additional troops into Iraq. I hope you'll 
look at it very seriously.
    Mr. Secretary, finally, General Zinni, who is highly 
respected by this committee, who was former head of Central 
Command (CENTCOM), was speaking of Prime Minister Maliki and 
said: ``You can't put pressure on a wounded guy. There's a 
premise that the Iraqis are not doing enough now, that there's 
a capability that they've not employed or used. I'm not so sure 
they are capable of stopping sectarian violence.'' Dr. Gates, I 
don't think they're capable, either. I think political 
solutions are bred by stability. If you have military 
instability, it's very hard to come up with a political 
solution. Just about everybody I know who looks at these plans 
for partition, for withdrawal to bases outside of Iraq or bases 
inside of Iraq, believes that a chaotic situation would ensue. 
I agree with most experts that this is our last chance to save 
this situation. Unless we stabilize conditions on the ground, I 
think it's going to be very difficult to get the kind of 
political solution that all of us seek.
    Recently, I saw that there's a proposal to move the marines 
out of Anbar Province into Baghdad. What do we say to the 
families of those young people who died in the first and second 
battle of Fallujah, when we abandon it to terrorist 
organizations again?
    I wish you every success. I know that all of us on this 
committee and in this country have nothing but the interests of 
our Nation's security, and the men and women who serve it, as 
our highest priority. I hope you will help us gain consensus so 
that, as a Nation, we can move forward and make sure that the 
American people are not subjected to more sacrifice as a result 
of the failures that we've experienced in the past in this 
conflict. Again, I thank you for your service, Dr. Gates.
    Chairman Warner. Senator Kennedy.
    Senator Kennedy. Thank you very much.
    Dr. Gates, I join those in thanking you for your public 
service, your willingness to come back in and deal with this 
challenge that we're facing now in national security defense, 
and primarily the issue of Iraq. I'm grateful for the time that 
we had talking in our office. You're going to, obviously, get a 
good deal of different guidance and advice here this morning.
    But just to really pick up on a sentiment that Senator 
McCain caught, we have lost 60 soldiers in my State of 
Massachusetts. I've talked with just about every one of their 
families. They're really interested in hearing from you about 
whether you're going to be an independent figure that's really 
going to fight for the best, in terms of our security, as we 
find our security today. We know, since you have been 
nominated, 59 Americans have been killed, just in the 27 days 
since you've been nominated. In the 27 days just prior to that, 
92 Americans were killed, and in the 27 days prior to that, 81 
Americans were killed. We don't know, in the 27 days prior to 
the first of the year--when we're going to have these, 
evidently, decisions and judgments and a new policy--how many 
more Americans are killed.
    The people, the families in my State, want to know whether 
you're going to be that figure that Senator Warner talked 
about, that fearless champion of the service men and women, 
that is going to be consistent with our national security. 
These families know they were undermanned when they went into 
Iraq, and they were underarmored when they went into Iraq, and 
they know that the military has served in Iraq longer than they 
have in World War II. Longer than World War II. They've done 
everything that they've been asked to do, and they've done it 
brilliantly, with extraordinary courage and valor. What the 
families want is to make sure that we are going to have a 
policy that is worthy of their valor and their bravery. They're 
looking at you. That's what they want for you to make that 
recommendation, and that you'll be fearless in your battle, 
you'll be a standup person and demonstrate the kind of courage 
which is going to be so necessary to do.
    Could you just let them know that you're that person, ready 
to do it for our national security and for them?
    Dr. Gates. Senator Kennedy, 12 graduates of Texas A&M have 
been killed in Iraq. I would run in the morning with some of 
those kids. I'd have lunch with them. They'd share with me 
their aspirations and their hopes. I'd hand them their degree, 
I'd attend their commissioning, and then I would get word of 
their death. So, this all comes down to being very personal for 
all of us. The statistics, 2,889 killed in Iraq as of yesterday 
morning, that's a big number, but every single one of them 
represents not only an individual tragedy for the soldier who's 
been killed, but for their entire family and their friends. I 
see this.
    Somebody asked me about the pressures of this hearing, and 
I said, ``The pressures of the hearing are nothing compared to 
the pressures I got from a woman who came over to me at the 
hotel while I was having dinner the other night, and I was 
seated by myself, and she asked if I was Mr. Gates. I said yes. 
She congratulated me on my nomination, and she said, `I have 
two sons in Iraq. For God's sake, bring them home safe. We'll 
be praying for you.' '' Now, that's real pressure.
    Senator, I am not giving up the presidency of Texas A&M, 
the job that I've probably enjoyed more than any that I've ever 
had, making considerable personal financial sacrifice, and, 
frankly, going through this process, to come back to Washington 
to be a bump on a log, and not to say exactly what I think, and 
to speak candidly and, frankly, boldly to people at both ends 
of Pennsylvania Avenue about what I believe and what I think 
needs to be done. I intend to listen closely to people. I 
intend to draw my own conclusions, and I'll make my 
recommendations. But I can assure you that I don't owe anybody 
anything, and I've come back here to do the best I can for the 
men and women in uniform, and for the country, in terms of 
these difficult problems that we face.
    Senator Kennedy. Thank you for your answer. You'll hear, 
perhaps, from others, but I want to give you just one more 
chance to respond to these statements about, ``What good will 
your new eyes do when we have had the Commander in Chief, who, 
as had been mentioned, has said this in the last month, `We 
have a strategy for victory that will work. I truly believe the 
only way we won't win is if we leave before the job is done.' 
'' As the Chairman and Senator Levin pointed out, the quotes, 
``There's one thing I'm not going to do. I'm not going to pull 
the troops off the battlefield before the mission is complete. 
We're going to stay in Iraq to get the job done, so long as the 
government want us there. This business about a graceful exit 
just simply has no realism to it all.'' Now, in short, should 
we believe you or the President on the critical issue, whether 
the administration is really willing to make a change in its 
policy?
    Dr. Gates. Senator, I'm willing to commit that, if I am 
confirmed, I'll be independent, that I will consider all of the 
options; but, as I indicated in my opening statement, there is 
still only one President of the United States, and he will make 
the final decision.
    Senator Kennedy. Thank you, Mr. Chairman. Thank you very 
much.
    Chairman Warner. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    There's been a lot of talk about the failures and the bad 
things that are going on, but I have had occasion, Dr. Gates, 
to be in the area of responsibility (AOR) over there 12 
different times. Every time I go over, I see some of the 
successes and I see that while there were three terrorist 
training camps in Iraq, they're not there anymore. The mass 
graves--and I've looked down in those--that's not taking place 
anymore. The Iraq security forces and their embedded training 
has worked. I appreciate Senator Dole, in his introduction of 
you, talking about the fact that it's an overthrow of Saddam 
Hussein. I mean, here's somebody who had to be overthrown. He 
said things are better now than they were 4 years ago.
    You were asked the question, ``Are we winning in Iraq?'' 
General Pace was asked that question yesterday. He said, ``No, 
we're not winning, but we're not losing.'' Do you agree with 
General Pace?
    Dr. Gates. Yes, sir, at this point.
    Senator Inhofe. Dr. Gates, this morning in the Washington 
Post there was an article about the reset problem that we have. 
I've had occasion to go to all of these Army logistics centers, 
and I've seen the rows of the equipment that is not getting 
out, the money's not there. Last year, we had to put an 
additional, I think, $23.8 billion into that program. So, that 
is a serious problem.
    Now, when we're faced with these things, and faced with 
choices that we have to make, one of the targets is often the 
Future Combat System of the United States Army. I don't know 
how familiar you are with that program, but, because that's 
something that is not bleeding today, that's where a lot of 
people want to take money out of. Yet, we are so far behind in 
different elements of our modernization program in the Army--
for example, there's the non-line of sight cannon program, and 
the best thing we have is a Paladin, World War II technology. 
You have to swab the breech after every shot. I would like to 
know what your commitment is to the Future Combat System, and 
how you view that.
    Dr. Gates. I think it's very important, Senator. I would 
say that I've not had the opportunity to get briefed in any 
detail on it, or to evaluate any of the tradeoffs that are 
being made in the budget. I would anticipate that, if 
confirmed, I would have to take a look at those things and see 
what the budgetary situation is, and also seek the views of 
members of the committee and others on the Hill.
    Senator Inhofe. You would do that, seek our views on this, 
those of us who have been faced with what I consider to be a 
crisis?
    Dr. Gates. Yes, sir.
    Senator Inhofe. In 2000, we formed the U.S./China Security 
Economic Review Commission, usually referred to as the U.S./
China Commission. They have come out with five reports. This is 
the fifth report that just came out. I've been disturbed that 
no one seems to care about these. They don't seem to read these 
and understand what's in them. I have a couple of questions 
about that I want to ask you. But I am concerned about China 
and I'd like to hear what your thoughts are.
    In the last month, the Chinese hackers, as I'm sure you 
have read, have shut down the e-mail and the official computer 
work at the Naval War College. This is referred to by this 
Commission as the ``Titan Rain.'' In September, the Department 
of Commerce experienced a massive shutdown of its computer 
system. This goes on and on. In July, the State Department 
acknowledged that Chinese attacks had broken into systems 
overseas and in Washington. Recently, China has used lasers to 
blind our satellites. On October 26, a Song-class Chinese 
submarine surfaced near the U.S.S. Kitty Hawk. They had been 
following them undetected for a long period of time.
    I've had occasion to spend quite a bit of time in Africa, 
and I notice that China's presence in Africa, particularly in 
those states around the Sea of Guinea and where they have great 
oil reserves, is there, and they are way ahead of us. It 
happens that China and the United States are the two countries 
that depend on foreign sources of oil more than any of the 
other countries. As this continues, I'd like to ask you what 
your feeling is about this as a top priority, about how you 
view China, about whether or not you have read these reports; 
and, if not, if you would--or do you plan to do that? If you 
agree with some of that which you have heard coming out in 
these reports.
    Dr. Gates. Yes, sir.
    I have not read the reports.
    Senator Inhofe. I would also say that as we were drawing 
down in the 1990s, they increased their military procurement by 
over 1,000 percent, so this is a great concern. Go ahead.
    Dr. Gates. Yes, sir.
    I have not read the reports. I would be more than willing 
to do so. I've been aware, just from reading in the 
newspapers--it's been a number of years since I received any 
classified intelligence on what the Chinese were up to--but 
it's been my impression that they've had a very aggressive 
intelligence-gathering effort against the United States. Some 
of these other things that you've mentioned, this is the first 
time I've heard about that. Clearly, if confirmed, this would 
be something that I would want to get well-informed on quickly.
    Senator Inhofe. That's all I'd ask of you at this time, 
because, after each report's come out, I've actually given 
speeches on the Senate floor, only to find that people are not 
aware of how serious this is. So, if you'd make that commitment 
to become familiar with it, and particularly on the reports 
that this fine commission has done, I would appreciate that 
very much.
    I've often said that in spite of the successes and failures 
that have taken place in that most difficult area over there, 
that the people that we have in charge--General Abizaid, 
General Casey, General Chiarelli, General Pace--I can't think 
of a team, militarily speaking, that is any better, that we 
could have drawn upon than this team. Do you agree with that?
    Dr. Gates. They seem to me to be very fine officers, sir.
    Senator Inhofe. I appreciate that.
    Finally--my time is up--but Senator McCain brought up the 
question on troop levels, and you mentioned the Army. I noticed 
that last week General Conway talked about the Marine Corps and 
the problems that they have right now that is in terms of troop 
strength--not troop availability for the combat situation, but 
troop strength. His statement is, ``We could not operate at the 
current tempo of operations without troop increases.'' You 
addressed the Army shortages. What about the Marine Corps?
    Dr. Gates. I would certainly be willing to look at that, 
Senator. Most of the materials that I've been given in 
preparation for these hearings have focused on the Army, but 
I'm certainly willing to look at the same issues with respect 
to the Marine Corps.
    Senator Inhofe. Thank you, Dr. Gates. I do appreciate our 
early conversation on Wednesday.
    Thank you.
    Chairman Warner. Thank you, Senator.
    I wish to advise the committee that Senator Levin and I 
have just received a communication from the ISG. They welcome 
the opportunity to appear before this committee at 9:30, 
Thursday morning, to discuss in detail their report.
    At this time, I recognize our distinguished colleague from 
West Virginia, Senator Byrd.
    Senator Byrd. Mr. Chairman, I thank you.
    Dr. Gates, our relationship goes back over a number of 
years. We hear all these rumors about the potential for an 
attack on Iran due to its nuclear weapons program, or on Syria 
due to its support of terrorism--do you support an attack on 
Iran?
    Dr. Gates. Senator Byrd, I think that military action 
against Iran would be an absolute last resort, that any 
problems that we have with Iran, our first options should be 
diplomacy and working with our allies to try and deal with the 
problems that Iran is posing to us. I think that we have seen, 
in Iraq, that, once war is unleashed, it becomes unpredictable. 
I think that the consequences of a military conflict with Iran 
could be quite dramatic. Therefore, I would counsel against 
military action, except as a last resort and if we felt that 
our vital interests were threatened.
    Senator Byrd. Do you support an attack on Syria?
    Dr. Gates. No, sir, I do not.
    Senator Byrd. Do you believe the President has the 
authority, under either the 9/11 War Resolution or the Iraq War 
Resolution, to attack Iran or to attack Syria?
    Dr. Gates. To the best of my knowledge of both of those 
authorizations, I don't believe so.
    Senator Byrd. Would you briefly describe your view of the 
likely consequences of a U.S. attack on Iran?
    Dr. Gates. It's always awkward to talk about hypotheticals 
in this case, but I think that, while Iran cannot attack us 
directly militarily, I think that their capacity to, 
potentially, close off the Persian Gulf to all exports of oil, 
their potential to unleash a significant wave of terror, both 
in the Middle East and in Europe, and even here in this 
country, is very real. They are certainly not being helpful in 
Iraq, and I think, doing damage to our interests there, but I 
think they could do a lot more to hurt our effort in Iraq. I 
think that they could provide certain kinds of weapons of mass 
destruction (WMD), particularly chemical and biological 
weapons, to terrorist groups. Their ability to get Hezbollah to 
further destabilize Lebanon, I think, is very real. So, I think 
that while their ability to retaliate against us in a 
conventional military way is quite limited, they have the 
capacity to do all of the things, and perhaps more, that I just 
described.
    Senator Byrd. What about an attack on Syria? Could you 
briefly describe your view of the likely consequences of a U.S. 
attack on Syria?
    Dr. Gates. I think the Syrian capacity to do harm to us is 
far more limited than that of Iran, but I believe that a 
military attack by the United States on Syria would have 
dramatic consequences for us throughout the Middle East, in 
terms of our relationships with a wide range of countries in 
that area. I think that it would give rise to significantly 
greater anti-Americanism than we have seen to date. I think it 
would immensely complicate our relationships with virtually 
every country in the region.
    Senator Byrd. Would you say that an attack on either Iran 
or Syria would worsen the violence in Iraq and lead to greater 
American casualties?
    Dr. Gates. Yes, sir, I think that's very likely.
    Senator Byrd. Your answer is yes on both questions.
    Dr. Gates. Yes, sir, very likely.
    Senator Byrd. With respect to Osama bin Laden, within 8 
months of taking Baghdad our troops captured Saddam Hussein. 
However, 5 years after September 11 and the invasion of 
Afghanistan, Osama bin Laden is still on the loose. Who was 
responsible, Dr. Gates, in your judgment, for the September 11 
attacks, Saddam Hussein or Osama bin Laden?
    Dr. Gates. Osama bin Laden, Senator.
    Senator Byrd. Over the past 5 years, who has represented 
the greater threat to the United States, Saddam Hussein or 
Osama bin Laden?
    Dr. Gates. Osama bin Laden.
    Senator Byrd. How do you intend to catch Osama bin Laden?
    Dr. Gates. Senator, I have no doubt that our forces have 
been trying their best to find Osama bin Laden. I'm not 
familiar with the effort that has been devoted to this over the 
past 2 or 3 years. I will say, I think Osama bin Laden has 
become more of a symbol for jihadist terrorists than an active 
planner and organizer of terrorist attacks. In fact, one of the 
consequences of our success in Afghanistan has been the denial 
of that country as a place to plan these sophisticated 
terrorist operations, such as the attacks that took place on 9/
11.
    So, I think that, while it's important to continue to 
search for Osama bin Laden, I think that his ability to 
directly organize and plan the kind of attacks against us that 
hurt us so badly in September 2001, is very limited now. I 
think that it's important to keep him on the run. I have always 
said that I thought it was much more difficult to find a single 
individual like him, and particularly in as rugged a place as 
Afghanistan, as a lot of things. We had a great deal of 
difficulty finding Noriega in Panama in 1990, and we knew that 
country as well as, practically, we knew our own. So, finding 
these single individuals who are on the run--we had the same 
problem trying to find the hostages in Beirut in the early 
1980s. The challenge is figuring out where they're going to be, 
not where they've been, and getting the information in a way 
that is timely enough to act on it. Frankly, I just think we 
haven't had that kind of intelligence on bin Laden.
    The way we'll catch bin Laden eventually, in my view, is 
that just as in the case of Saddam Hussein, one of his own 
people will turn him in.
    Senator Byrd. Dr. Gates, my time is up, but what is wrong 
with our current tactics, which have allowed Osama bin Laden to 
escape justice for 5 years and continuing?
    Dr. Gates. Senator, I would make it a priority to find out 
what our tactics have been, and the efforts that we have had 
underway, if I am confirmed for this position.
    Senator Byrd. Thank you, sir, for your responses.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator Byrd.
    Senator Roberts.
    Senator Roberts. Thank you, Mr. Chairman. Thank you, sir, 
for your very fine leadership on the committee. I will not go 
into a detailed laudatory speech on your behalf, but I think 
everybody on the committee certainly has been inspired by your 
service.
    Bob Dole and I are very proud of Dr. Gates, since he is a 
native Kansan, so I won't repeat that, but I want to say that 
everybody in Kansas is very enthusiastic about your nomination, 
sir, and very happy. You could let Texas A&M go a little easy 
on Kansas and Kansas State, but that's a whole other matter. 
[Laughter.]
    I want to thank you for your hour of good discussion and 
your courtesy call when we met in the Intelligence Committee. 
As chairman of the Senate Select Committee on Intelligence, I'd 
like to inform my colleagues who are worried about telling 
truth to power, that we went over a considerable amount of 
ground, more especially the 2002 National Intelligence 
Estimate, which was wrong and symbolic of an egregious world 
intelligence failure. I told Dr. Gates that, on the 
Intelligence Committee, we don't take anything at face value 
now. We say, ``What do you know? What don't you know? What do 
you think? What's the difference?'' He agreed with that. So, I 
think with you and General Hayden and John Negroponte, more 
especially with your understanding of intelligence, that you're 
going to make an excellent team. While I share the concern of 
those who are always concerned about whether senior officials 
will tell truth to power, I have no doubt that you will do 
that, sir.
    I want to talk about two realities, if I can. Whether it be 
the Levin plan or the Warner plan or the ISG plan or those who 
wish to leave yesterday, or anybody's plan, all combined with 
the criticism and the election and the politics, and serious 
and growing problems in Iraq, it seems to me the Iraqis--I 
share a little bit of a reverse view that my distinguished 
colleague Senator Levin has--I think the Iraqis know we're 
leaving. I think we've seen that in the al Anbar Province, 
where you don't find the Imams and the people and the leaders 
that you used to find; they've left, and you have thugs, 
thieves, and al Qaeda. So if, in fact, the Iraqis know we're 
leaving, the key is, how and when? Hopefully, with stability. 
On one hand, the lessons of the British experience for 10 
years, way back in the 1930s, now replicated in Iraq, with all 
the tribal warfare, some even believe that stability may not be 
possible. I know Senator McCain spoke to that.
    So, we've heard much about all the current problems in Iraq 
and the new policy options and withdrawal. I think everybody in 
this room would like to see our people home as soon as 
possible. We talked about this. Then you mentioned something in 
your opening speech, and you mentioned something to me, and it 
said something about geopolitical national security threats if 
the withdrawal--i.e., just simply leave, extricate ourselves--
if it was very precipitous, that we face very grave 
geopolitical national threats. Now, with all due respect, I 
want you to get down to the level of the people of Wichita, 
College Station, and everybody's hometown here, and go over 
that a little bit, in terms of their daily lives and 
pocketbooks. We can talk about geopolitical national threats--
sounds pretty good--but what does that mean to them?
    To me, it means, ``If you leave Iraq in a precipitous 
fashion''--and we may want to do that, down the road, I don't 
know--``what happens in Afghanistan? What happens in Iran?'' 
We've had a lot of questions about Iran. What happens to that 
Shiite crescent, with Iran and Syria and Lebanon? Then, what 
happens to Israel? What happens in North Korea, with Kim Jong 
Il, and he sets off a new round of tests in regards to his 
missiles? What happens in China, and our relationship with 
Taiwan? What happens in Russia, where we have a rather 
poisonous situation now, with Mr. Putin? What happens with Hugo 
Chavez, who's involved in five elections south of our border--
he's won three--I say ``won three,'' he has had influence in 
three--and what Senator McCain said some time ago, the attacks 
can follow us home. We had five attacks prior to our entry in 
Iraq: Beirut and Khobar Towers, the U.S.S. Cole, Embassy 
bombings, 1993 attack on the World Trade Center, and then, of 
course, September 11. Will these attacks follow us home, with 
the sleeper cells that are now in this country, not so asleep, 
and the second generation terrorists?
    I think we have to tell the American people, yes, we want 
everybody home as soon as possible, but, if we do it the wrong 
way, we're going to face a lot of credibility problems and a 
lot of dangers that they have to understand affects their daily 
lives and pocketbooks.
    Would you comment, sir?
    Dr. Gates. Senator, I suppose I should just say, ``I 
agree.'' [Laughter.]
    Senator Roberts. Well stated. [Laughter.]
    Dr. Gates. My greatest worry, if we mishandle the next year 
or two, and if we leave Iraq in chaos, is that a variety of 
regional powers will become involved in Iraq and we will have a 
regional conflict on our hands. Iran is already involved in 
Iraq, and, as I suggested earlier to Senator Byrd, could become 
much more so. The Syrians have not been helpful in Iraq, but 
could become much more harmful to our effort.
    But I think that it would be very surprising if the other 
Sunni countries in the Middle East would allow the Sunni 
population in Iraq to be the victims of an ethnic cleansing. I 
think that the Turks would not sit by idly if they saw Iraq 
beginning to fall apart. So, I think that you could have Saudi 
Arabia, you could have Turkey, Syria, Iran--all would be 
involved. We're already seeing Hezbollah involved in training 
fighters for Iraq. I think all of that could spread fairly 
dramatically. As you suggest, I think the manner of our 
managing the next phase in Iraq has very strong lessons for 
other countries in the world. There is no question--in fact, 
Osama bin Laden's been very straightforward about the impact on 
him of our withdrawal from Somalia after our soldiers were 
killed there. So, I think that there is a risk that others, 
looking around the world, would see that we don't have the 
patience and we don't have the will.
    I think those are some of the concerns that we would face 
if we ended up leaving Iraq in chaos.
    Senator Roberts. I have a blue card, which everybody up 
here seems to ignore. At any rate, I just want to add my 2 
cents worth in to my good friend and colleague, Senator Inhofe, 
in regards to the National Guard equipment that we need in 
Kansas, and we need in Kansas for our local missions there, but 
the equipment is coming back, and we are in a world of hurt in 
regards to maintaining that equipment capability, not only in 
Kansas, but in every State represented here, and in Congress. 
So, I do hope that you'll visit with us about the Guard and the 
equipment that we have to have to have security and protection 
in regards to our States, but also is being used in the 
national security effort.
    I thank you for your testimony, sir.
    Dr. Gates. Yes, sir.
    Chairman Warner. Thank you very much, Senator.
    Senator Lieberman.
    Senator Lieberman. Thank you, Mr. Chairman.
    Dr. Gates, thank you for your agreement to serve your 
country again.
    You said something in your opening comments that struck me 
personally, which is that you were here for two reasons. One, 
you love your country, and two, your President asked you to 
serve it. I know you well enough over the years to know that 
those are not words that somebody else wrote for you, but they 
come from within you. They're an inspiration and a model, I 
think, for all of us, and I thank you for them.
    I want to build on some of the questions that Senator 
Roberts asked you. You said this morning, quite appropriately, 
that the war in Iraq will be your highest priority, and that 
you are open to the widest range of alternative strategies for 
Iraq. But, as you just repeated, ``But''--you said, ``But'' you 
are ``very concerned that developments in Iraq of the next year 
or two will have a very significant influence on the Middle 
East, generally, and on the shape of global politics for years 
to come.'' So, is it fair for us to conclude that in accepting 
the President's nomination to be Secretary of Defense, that in 
regard to Iraq, while all of us, of course, would like to bring 
our troops home as soon as possible, that your primary goal is 
to advise the President how to succeed in Iraq, not how to 
withdraw our troops, at any and all costs?
    Dr. Gates. Yes, sir. I think that my goal, and the reason 
that I accepted the position, was really twofold. The first is 
to try and find a path forward in Iraq that allows us to 
achieve the objectives of stabilizing the country so that it 
can govern itself, sustain itself, and defend itself, and be an 
ally in our war on terror.
    Senator Lieberman. Right.
    Dr. Gates. That really is the purpose, and the whole idea 
is, in my view, that the faster that you can make the Iraqi 
forces more effective and able to protect themselves and begin 
to get a handle on their security problems, and diminish the 
sectarian violence, then the sooner we can begin to draw down 
our forces, as the President has said.
    But it also goes back to the point, this isn't entirely a 
military problem.
    Senator Lieberman. Right.
    Dr. Gates. The Iraqis are going to have to make some 
difficult decisions themselves, not only in terms of how they 
deal with sectarian violence, but how they approach national 
reconciliation. How are they going to distribute the oil 
revenues fairly so that everyone has a stake in the society? 
Related to the national reconciliation, how are they going to 
ensure that these different ethnic and religious groups can 
live together peacefully? I think those are some of the 
political decisions that the Iraqis have to make, in addition 
to standing up their military. So, what I am interested in is 
figuring out if there is a better way in which we can achieve 
those objectives than has been the case in the past.
    I would say, also, Senator Lieberman, that there is a 
second reason why I agreed to become a nominee for this 
position. I believe very deeply that one of the fundamental 
factors in our success in the Cold War was our ability to have 
a broad bipartisan agreement on the fundamental strategy on how 
to deal with the Soviet Union through nine successive 
Presidencies and many Congresses, both Republicans and 
Democrats in support. Now, we argued and fought a lot about 
tactics and this and that, but there was, fundamentally, 
agreement on how to approach the Soviet Union.
    I think that it is imperative, in this long war on 
terrorism that we face, that could go on for a generation, that 
there be a bipartisan agreement--probably wouldn't include 
everybody; that's too difficult. But if you could get broad 
agreement on a path forward, not only Iraq, but then in terms 
of how we fight this long war, then there would be consistency 
on the part of whoever is elected President in 2008 and beyond, 
so that we can carry on this struggle in a way that they don't 
think we're going to ``cut and run.''
    Senator Lieberman. Right.
    Dr. Gates. That they don't think we're going to walk away 
from this war on terrorism, and so that they don't think it's 
going to be easy to start attacking us here at home because 
we're not willing to take them on abroad. I see it as one of my 
priorities during the time that I have this position, if I'm 
confirmed, to do what I can in working with Members of Congress 
and both parties, to see if we can forge that kind of a 
bipartisan approach going forward, so that everybody around the 
world who wishes us ill knows that we're in this for the long 
haul.
    Senator Lieberman. I could not agree with you more. I thank 
you for your answer. Our Nation, this Capital, this Government 
desperately needs to reach out and grasp each other's hands so 
that we can go forward to meet the enemies that we have in 
common as Americans, not divided between Democrats and 
Republicans. Your history tells me that you can do that.
    I want to come back to what we said before. One, of course, 
the Iraqis have to reach some kind of political agreement, and 
show political leadership, to get the country to where they, 
and we, want it to be, but it's not just politics that will 
bring Iraq to where we, and they, want them to be; it also 
requires security. Am I right about that?
    Dr. Gates. Yes, sir.
    Senator Lieberman. Is it fair to say that, because of your 
concern about the potential for a regional conflagration, and 
that we not leave Iraq in chaos, that it is highly unlikely 
that you would recommend to the President the beginning of a 
withdrawal of American troops without regard to conditions on 
the ground in Iraq?
    Dr. Gates. I think any decision, Senator, with respect to 
troop levels--first of all, I would seek the views of the 
commanders themselves, but I think that any decision on troop 
levels has to be tied to the situation on the ground in some 
respect.
    Senator Lieberman. That an increase or surge in the number 
of American troops there--for instance, to better embed 
America/coalition forces with the Iraqi security forces, which 
is an idea that has been embraced by many--and a potential for 
a surge or temporary increase in American troops is one of the 
options that you would consider as part of your review now.
    Dr. Gates. That certainly is an option. Related to that 
might be, do we have sufficient number of trainers? If our 
focus is on training and bringing up the Iraqi army, do we have 
enough trainers to do that job in Iraq? Should we be embedding 
more of our troops with the Iraqis? I think these are all 
questions that need to be examined.
    Senator Lieberman. I thank you, Dr. Gates.
    Mr. Chairman, if I may, I want to just read something--and 
I have no further questions. I appreciate what Dr. Gates has 
said about a bipartisan foreign and defense policy. Senator 
Arthur Vandenberg, who Senator Boren quoted in his eloquent 
opening introduction of you, defined bipartisan foreign policy 
in this way: ``It does not involve the remotest surrender of 
free debate in determining our position. On the contrary, frank 
cooperation and free debate are indispensable to ultimate 
unity. In a word, bipartisan foreign policy simply seeks 
national security ahead of partisan advantage.'' That's the 
goal that I heard you express, and I think, if you can help us 
reach that in the next 2 years, you will have done your country 
extraordinary service.
    Thank you.
    Dr. Gates. Thank you, sir.
    Chairman Warner. Thank you, Senator.
    Senator Sessions.
    Senator Sessions. Thank you very much, Mr. Chairman, for 
this opportunity, and for your leadership of this committee. 
You've done so well. You served at the end of World War II, in 
Korea, as Secretary of the Navy, and have led this committee 
with fairness, patriotism, and wise counsel, and it's been an 
honor to serve with you and travel to some of these hotspots 
with you.
    We have many challenges in the Defense Department, Dr. 
Gates: transformation to make sure our equipment and weaponry 
meet the needs that we'll be facing down the road, whatever the 
cost. Sometimes I think our costs are out of control for our 
systems. We need technology, the right technology. We need to 
reset equipment, as several have noted. I'm aware that we have 
great costs that are adding up there. We have to nurture, 
sustain, and honor the men and women who serve us in harm's way 
in our military. They have to be affirmed in every single way 
that we can do so, because they are the greatest treasure we 
have, those people who are prepared to go into harm's way, 
without complaint, to serve our country. I talk to their 
families. I talk to the families of those who lost their lives. 
They have that sense of duty and mission. We, in Congress, must 
do nothing to undermine their selfless patriotism. We have to 
affirm them.
    But our biggest challenge right now, I think all of us 
would agree, is how to handle the situation in Iraq that's 
fallen to your lot. You've come back now, after 26 years in the 
intelligence service. You've briefed Presidents, you've been in 
tough situations before. Do you feel that experience can help 
you think through, with some new perspective, on these issues? 
How would that experience of being in the White House and in 
the top councils of the Government discussing matters of war 
and peace help you today?
    Dr. Gates. Senator, I think that perhaps one of the areas 
that it helps the most--and perhaps some would think it 
ironic--is that it has given me an appreciation of how all the 
different parts of the Government need to work together to get 
anything done. There are always huge bureaucratic interests at 
stake, and disputes among agencies, sort of the ``Who's in 
charge?'' question. One of the things that I learned a long 
time ago is that's probably one of the reasons why the 
political science professors don't let me in their classrooms, 
because I tell them to throw away the organization charts--that 
it's personal relationships that matter.
    When the Secretary of State and the Secretary of Defense 
aren't speaking to one another, it actually matters, in the 
councils of Government. So, one of the most important lessons 
that I have learned is to remember that we all work for the 
same boss, and that boss ultimately is the people of the United 
States, and that it's important for the agencies and the 
organizations to work together. Some of the things that the ISG 
heard early on were problems among our agencies in 
collaborating and cooperating with one another, coordinating 
their efforts. So, I think that one of the most significant 
lessons that I have learned is the importance of the entire 
Government pulling together as a team.
    I would say that the other experience, frankly, has been at 
this end of Pennsylvania Avenue, because most of that time that 
I was in government, I was also dealing with Congress. The 
importance of the consultations, the importance of the lack of 
surprises, the importance of treating people's views with 
respect, I think, are all important lessons learned.
    I also think I learned a thing or two about bureaucratic 
infighting, myself. I don't think I come to this as a 
particularly naive person, in terms of how to get things done 
in this city.
    I think the other lesson that I learned over time was 
respect for the professionals. It's something, frankly, that 
I've carried on since then, and at the university. I think it 
works. That is when you treat the professionals in an 
organization, who deliver the mission, who perform the mission 
of the organization, with respect, and you listen to them, and 
you pay attention to them, I think that everybody is better 
served. They were there before you got there, they'll be there 
after you leave, and if you don't make them a part of the 
solution, they will become a part of the problem.
    I learned part of those lessons the hard way. In my first 
senior position, I was probably too harsh on people. When I 
started working as the deputy to Judge Bill Webster, when he 
came over, after 9 years leading the Federal Bureau of 
Investigation, to direct the CIA, Judge Webster taught me a lot 
about how to get things done in a big organization, and to use 
the professionals--even though you're setting the goals and you 
have the vision, how to use the professionals to get the job 
done.
    So, those are some of the lessons that I think I've learned 
and that I would bring to this position, if I'm confirmed.
    Senator Sessions. Thank you. I do believe that you do bring 
the kind of perspective--and, having been away for a while at 
the university, allow you to come back with a fresh approach, 
and I'm excited about that potential.
    I also would say that your exchange with Senator Lieberman 
about the need for a bipartisan, maybe a tripartisan foreign 
policy is very important. Senator Boren's comments were 
extraordinarily important and wise and valuable to this 
committee, Mr. Chairman.
    I would just say to Senator Levin, our chairman-to-be, I 
think your request--and Senator Boren's, really, challenge--
that we develop a long-term foreign policy, defense policy, for 
this Nation that Republicans and Democrats can sign on to and 
be a foundation for all that we do in the years to come, really 
is critical to our success as a nation, and we just have to 
move more in that direction, I think. That has been our 
tradition in the past. Perhaps, for a lot of reasons, we've 
gotten away from it. But I hope that you can help lead us in 
that direction. From your comments today, I think you might.
    Dr. Gates. Yes, sir.
    Senator Sessions. Thank you.
    Chairman Warner. Thank you, Senator. I wish to associate 
myself with your remarks, that of Senator Lieberman and the 
witness, that that goal has to be achieved, because we're going 
to be in a generational war on this question of terrorism, and 
we owe that obligation to the men and women of the Armed Forces 
that we ask to go out and accept the risk of loss of life and 
limb to make that possible.
    Senator Reed.
    Senator Reed.Thank you very much, Mr. Chairman.
    First, let me recognize Dr. Gates' congressman, Chet 
Edwards, my friend and colleague from Texas. His presence 
speaks volumes for you, Dr. Gates.
    You are about to embark, I think everyone assumes, on a 
mission in the most perilous moment we've had in decades. You 
have an immediate crisis in Iraq, you have enhanced strategic 
threats from Iran and North Korea, with nuclear aspirations and 
nuclear demonstrations, in the case of North Korea, problems in 
Lebanon, problems in Afghanistan, the worst readiness position 
for our land forces we've seen in decades with our Army and 
Marine Corps, the continuing need to fight a global war on 
terror, and, as you point out, in a bipartisan fashion, that'll 
be sustained over many years. You have a budget that's 
substantial, including almost $500 billion in supplemental 
funding, yet the Congressional Budget Office suggests your 
procurement accounts are $53 to $121 billion short. Welcome. 
[Laughter.]
    But I want to focus on Iraq. Now, much has been said today.
    One of the problems, I think, with the strategy we've seen 
evolving over the last several years is the discussion in 
Washington seldom, I think, reflects the reality on the ground 
in Iraq. You've had the opportunity, through the ISG, to look 
at it. My impression--and I want to see if it's your impression 
also--is that what started out as public disorder allowed a 
growing Sunni insurgency to begin to evolve. Certainly, there 
are al Qaeda elements trying to provoke this situation. But, 
certainly since the bombing of the mosque in Samarra, we've 
seen sectarian conflict that many people characterize as civil 
war. In fact, it's an existential conflict. Sunnis feel 
entitled to rule. Shiite recall years, centuries perhaps, of 
oppression, and they're fearful to their bones that they will 
be suppressed--actually destroyed--if they surrender power.
    In that context, do you feel that this is a civil war, or a 
sectarian struggle? The obvious question then is, what is the 
role of American military power in that struggle?
    Dr. Gates. Senator Reed, I guess my own view is that the 
situation today is more complex than a single title or a single 
source of causation accurately describes. You not only have 
sectarian violence and al Qaeda in Iraq, you now have, as you 
suggested, significant disorder and, as an earlier Senator 
indicated, a lot of thuggery and criminal activity. We have the 
Iranians involved. The Syrians are clearly involved, in the 
sense of they're allowing their border to be used, and their 
country to be used as sanctuary. I read news reports that 
Hezbollah is involved in training. So, regardless of how we got 
here, we are in a situation where it sounds like most of the 
``bad guys'' in the Middle East are active in Iraq right now. I 
don't know how you describe that. My worry is, left 
unconstrained, it begins to approach the chaos that I worry 
about, and spoke about earlier.
    But I think all of those different factors are involved. 
Clearly, I would have to say, the presence of U.S. forces is 
used as a provocation by some of those involved in this.
    Senator Reed. Dr. Gates, we've talked about troop 
strengths, troop levels surging or redeploying. Frankly, there 
are several factors that govern troop strength. One is the 
condition on the ground, but another most important one, I 
think, is the mission of those troops. The mission to date, I 
think, has been to train and leave. That mission has been such 
that we've been able to sustain 150,000 troops there. What 
should the mission of American forces be, to accomplish the 
goals that the President has laid out? How many troops do we 
need to accomplish that mission?
    Dr. Gates. Senator Reed, it seems to me that the goal of 
our troops, at this point, or the mission of our troops, is 
really twofold. One is to try and improve the security 
environment, and the other is to prepare the Iraqi army, in 
particular, to take on that burden itself, and increasingly 
perform that burden as U.S. troop presence draws down. I think 
it's a twofold mission, in that respect.
    Senator Reed. Troop levels were a function of how you 
weight that mission. They're almost two distinct missions.
    Dr. Gates. Yes, sir.
    Senator Reed. A training mission and a ``try to stabilize 
the country'' mission. I think where we get hung up in it, 
frankly, is ``try to stabilize the country'' mission. Do you 
have any views as to whether we should be more robustly engaged 
in stabilization efforts there, or if we should shift to more 
emphasis on training?
    Dr. Gates. The honest answer to your question, Senator, is 
that I don't know. It's one of the things that, as I talk to 
the commanders on the ground and the chiefs and others, I want 
to find out their views. In other words, would they recommend 
putting significantly more trainers into Iraq in order to 
accelerate the process with the Iraqi army? As I say, I just 
don't know the answer to the question. That's one of those 
places where I very much am interested in the views of those on 
the ground.
    Senator Reed. Just a final point, Dr. Gates. There's a 
distinct possibility that, whether we change our force 
structure, we redeploy, we will remain there as a presence for 
the foreseeable future. Training capacity, logistical capacity. 
But we could be in a situation where this chaos does 
disintegrate to something like ethnic cleansing--rampant 
violence--and we would find ourselves in the position, with 
American forces on the ground, in a very unstable situation, 
with very adverse consequences to the people of Iraq. Is that a 
possibility that you'd at least consider?
    Dr. Gates. It certainly is a possibility, yes, sir.
    Senator Reed. You will try to think a way through that 
dilemma?
    Dr. Gates. Yes, sir.
    Senator Reed. Thank you.
    Chairman Warner. Thank you very much, Senator Reed.
    Senator Collins.
    Senator Collins. Thank you.
    Dr. Gates, I talked with an individual on Sunday night who 
knows you very well, and he described you to me as a person who 
always puts duty, honor, and country first. He said that is why 
you had answered the President's call. I think that's also true 
of our distinguished chairman, who also always puts duty, 
honor, and country first, and I want to thank you, Mr. 
Chairman, as well, for your distinguished leadership of this 
committee.
    As I look at the issues facing us with Iraq, I think it 
comes down to a fundamental issue. Sectarian violence now 
jeopardizes the very existence of the nation of Iraq. It has 
cost us many lives, including the lives of thousands of 
innocent Iraqis. The question is, would withdrawing American 
troops, either a phased withdrawal, starting in 4 to 6 months 
as the distinguished minority member of this committee has 
proposed, or the kind of modest withdrawals and reducing of the 
American footprint in Iraq, as Secretary Rumsfeld is apparently 
now proposing. The question is, what would be the impact on 
sectarian violence? Do you believe that the withdrawal of 
American troops would decrease the sectarian violence or would 
it leave Iraq in chaos and cause even more bloodshed?
    Dr. Gates. Senator Collins, I would answer the question in 
two ways. First, I think it depends on the conditions on the 
ground under which the troops were withdrawn. But, second, a 
number of members of this committee have been to Iraq many more 
times than I have, and have talked to the commanders on the 
ground many more times than I have. My evaluation of the impact 
of troop levels and so on, on the situation on Iraq, I think, 
frankly, is too uniformed to be helpful. That's one of the 
reasons why I've indicated that one of the first things that I 
would do if I were confirmed would be to go to Iraq and sit 
down and talk to the ground commanders about what their views 
are about these different alternatives that we've been talking 
about. I've been talking about that, with everything at the 
table. But the first thing that I want to find out is, what do 
the commanders think about this? What do they think about these 
different options? What do the Chiefs think? I'm not smart 
enough, and I'm not well enough informed at this point, I 
think, to make a useful judgment.
    Senator Collins. I want to switch to a different issue that 
we discussed briefly in my office. As chairman of the Homeland 
Security and Governmental Affairs Committee, I've worked very 
closely with the Special Inspector General for Iraq 
Reconstruction. He has done a superb job in uncovering and 
exposing numerous cases of outright fraud in contracting in 
Iraq, and putting a spotlight on wasteful practices. 
Regrettably, a provision was included in the defense 
authorization bill that would prematurely terminate the Office 
of the Special Inspector General next year. I have joined with 
a number of my colleagues on the committee, including the 
chairman, the ranking member, Senator Lieberman, Senator 
Feingold, and several other Senators, in pushing legislation to 
extend the term of the Special Inspector General. His work is 
vital, and I believe it must be continued as long as we're 
spending billions of taxpayer dollars in Iraq. Have you reached 
a judgment on whether the term of the Special Inspector General 
should be extended beyond next year?
    Dr. Gates. Senator, is this Mr. Bowen?
    Senator Collins. Yes, it is.
    Dr. Gates. I won't speak for the others on the ISG, but I 
think that I certainly was very impressed when Mr. Bowen came 
and spoke to us and talked to us about a number of things that 
he'd been involved in. It certainly seemed to me that he was 
actually making a really constructive contribution to the war 
effort in Iraq, in some of the problems he'd identified and 
pointed out a pathway to correct. If I were confirmed, I would 
be supportive of continuing that effort.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator Collins. I 
thank you for your leadership on the question of that 
particular individual. I, too, have worked with him, and am 
very impressed with his forthright assessment of the area of 
experience to which he had responsibility in Iraq.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Mr. Chairman, I want to associate myself with some of the 
comments that were made about your leadership as chairman of 
this committee. I want to tell you that, personally, you have 
been an outstanding chairman of this committee, and I wish you 
well in the future.
    Chairman Warner. Thank you, Senator, very much.
    Senator Akaka. I also want to join my colleagues here in 
welcoming the distinguished Dr. Gates to this hearing. It was 
great to hear a person who loves this country, as you do, to 
say the things as you have said about the dilemma that we now 
face in Iraq and the ways in which you intend to approach all 
of this. I like your feeling of the importance of stability as 
one of the goals that we need to achieve in Iraq as soon as we 
can. I like your thoughts of being an ally with Iraq also, and 
to work with them, and also to help them, as we intend to do, 
protect themselves. All of these are certainly bases of 
bringing about a great country in Iraq. I know that you are 
looking at this with fresh eyes and a fresh look, which is very 
appealing to me, I should tell you, and I am so glad that you 
talk about approach towards national reconciliation for Iraq as 
being very important. All of these, we need to consider as we 
look at how we can make positive differences in Iraq.
    What's coming to me presently is that we cannot continue to 
depend on defense, or the DOD, as the department that can 
resolve many of these problems, that we need to look at the 
State Department as well, and to include the State Department 
in all of these deliberations. I like your position about 
working together and through our partners across the globe in 
order to counter the threat of violent extremism. These are 
huge goals. But I'm glad you're talking about that, and, for 
me, I'm here to support you on these.
    If confirmed, Dr. Gates, what steps will you take to 
effectively build the support of the international community 
for our ongoing efforts to stabilize Iraq?
    Dr. Gates. Senator Akaka, clearly the lead, in terms of 
dealing with other countries, belongs to the Secretary of 
State. But I think that our defense relationships, our military 
relationships, and our exchange programs with many countries, 
do provide the Secretary of Defense and our military leaders 
with the opportunity to win friends for the United States 
around the world. There are countries that I, frankly, believe 
are underappreciated, even among our own allies. I think that 
the United States is too often alone, almost, in our embrace of 
Turkey and working with the Turks. I think that they have been 
a very important member of the North Atlantic Treaty 
Organization (NATO) for a long time, and an underappreciated 
one. The Turks offer us a tremendous amount, in terms of both 
Central Asia, as well as the Middle East, as well as being a 
NATO ally. So, there are countries like that, where I think our 
defense relationships and the personal relationships are very 
important.
    I have been, frankly, surprised by the number of letters 
I've received from foreign government officials welcoming my 
nomination to this position. I was, I suppose, most surprised 
that the first communications I got were from both the Israeli 
government and from several Arab governments. So, my hope is 
that under the leadership and guidance of my friend, the 
Secretary of State, that if I'm confirmed for this job, I can 
make some kind of a contribution in that respect. I think our 
senior military leadership can do the same thing.
    Senator Akaka. Thank you for that. As I'm indicating, that 
we cannot continue to rely only on defense, but on the State 
Department, as well as other departments, such as Commerce and 
Agriculture and others, that can certainly help to bring these 
about.
    I'd like to ask a question that has to do with DOD. DOD has 
been granted authority to establish a new personnel system, 
which is the National Security Personnel System (NSPS). That 
must preserve--and we know that NSPS needs to also preserve 
collective bargaining. However, the U.S. District Court for the 
District of Columbia has ruled that the regulations 
implementing NSPS fail to ensure collective bargaining. My 
question to you is, what is your opinion of the NSPS 
regulations affecting collective bargaining?
    Dr. Gates. Senator, I'm aware of this legislation, but, 
quite honestly, have not had the opportunity to look at the 
regulations or become familiar with the details of the program. 
I'd be happy to do that, if I am confirmed.
    Senator Akaka. Thank you.
    Thank you very much. My time has expired.
    Chairman Warner. Thank you, Senator Akaka.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    I would like to add my voice to many others who have 
praised you for your leadership. I have really enjoyed being on 
this committee, and you have made it a real pleasure to serve 
here.
    Dr. Gates, thank you for your willingness to serve. It 
looks like we're going to be working together for at least a 
couple more years. Things are going pretty well for you right 
now.
    Do you believe the Iranians are trying to acquire nuclear 
weapons capability?
    Dr. Gates. Yes, sir, I do.
    Senator Graham. Do you believe the President of Iran is 
lying when he says he's not?
    Dr. Gates. Yes, sir.
    Senator Graham. Do you believe the Iranians would consider 
using that nuclear weapons capability against the nation of 
Israel?
    Dr. Gates. I don't know that they would do that, Senator. I 
think that the risks for them, obviously, are enormously high. 
I think that they see value----
    Senator Graham. If I may----
    Dr. Gates. Yes, sir.
    Senator Graham. The President of Iran has publicly 
disavowed the existence of the Holocaust. He has publicly 
stated that he would like to wipe Israel off the map. Do you 
think he's kidding?
    Dr. Gates. No, I don't think he's kidding. But I think that 
there are, in fact, higher powers in Iran than he, than the 
president. I think that, while they are certainly pressing, in 
my opinion, for nuclear capability, I think that they would see 
it, in the first instance, as a deterrent. They are surrounded 
by powers with nuclear weapons--Pakistan, to their east; the 
Russians, to the north; the Israelis, to the west; and us, in 
the Persian Gulf.
    Senator Graham. Can you assure the Israelis that they will 
not attack Israel with a nuclear weapon if they acquire one?
    Dr. Gates. No, sir, I don't think that anybody can provide 
that assurance.
    Senator Graham. Is Iraq the central battlefront in the war 
on terror?
    Dr. Gates. I think that it is one of the central fronts in 
the war on terror.
    Senator Graham. What would be the others?
    Dr. Gates. I think that what we have seen since the 
destruction of the Taliban regime in Afghanistan is a 
metastasized terror threat from the jihadists, where indigenous 
radicals in countries like Britain, like Spain, and like the 
United States, are, in fact, planning terrorist operations and 
activities. So, I think that, while Iraq certainly is an 
important front in the war on terror, and particularly now that 
all these other bad actors are there that I described earlier, 
I think we face a more dispersed threat that's really a very 
amorphous kind of second front.
    Senator Graham. Would a loss in Iraq, in terms of a failed 
state, affect the war on terror?
    Dr. Gates. I think it would create the conditions where you 
could have a replication of what happened in Afghanistan, and, 
yes, it could be.
    Senator Graham. Why is al Qaeda in Iraq? What do they fear? 
Why are they fighting in Iraq? What is their goal?
    Dr. Gates. I'm no expert on it, Senator, but I believe that 
they are very eager to see us leave the region--not just Iraq, 
but leave the region altogether.
    Senator Graham. Are they threatened by democracy?
    Dr. Gates. Absolutely.
    Senator Graham. Is it the terrorists' worst nightmare for a 
democratic state to be formed in Iraq, where a woman can have 
her say about her children and people of religious differences 
can live together under the rule of law?
    Dr. Gates. I certainly hope it's one of their worst 
nightmares.
    Senator Graham. According to them, it is.
    Now, do you believe the terrorists' goal--al Qaeda and 
other terrorist organizations--to expand on what you said--
includes not only driving us out of Iraq, but the region?
    Dr. Gates. Yes, sir.
    Senator Graham. Do you believe it includes the toppling of 
all moderate regimes in the region?
    Dr. Gates. Yes, sir.
    Senator Graham. All regimes that are unfaithful to their 
view of religion?
    Dr. Gates. Yes, sir.
    Senator Graham. Do you believe it is the ultimate 
destruction of the state of Israel?
    Dr. Gates. Yes, sir.
    Senator Graham. Do you believe in the Powell Doctrine?
    Dr. Gates. I am very familiar with it, and I would say----
    Senator Graham. Do you believe in it, or not?
    Dr. Gates. Sir, there are eight elements to the Powell 
Doctrine.
    Senator Graham. Let me sum them up to one. You go to war 
with overwhelming force.
    Dr. Gates. Yes, sir.
    Senator Graham. Do you believe we have the overwhelming 
force we need to do all the missions required of us to bring 
about a democracy in Iraq, at this point in time?
    Dr. Gates. I need to talk to the commanders to find that 
out, Senator.
    Senator Graham. So, jobs assigned to the military 
leadership, commanders, would include, do you agree, eventually 
trying to disarm the militia, because you can't have a 
democracy with armed religious and political parties?
    Dr. Gates. Yes, sir.
    Senator Graham. Do you also believe it includes training 
the Iraqi army?
    Dr. Gates. Yes, sir.
    Senator Graham. Do you believe it includes rebuilding the 
police force? Because I think it's a miserable failure and we 
need to start over, virtually.
    Dr. Gates. It's not entirely clear to me, Senator, that 
that should be the responsibility of the DOD, but we have, as 
best I can tell, the Department has that responsibility now.
    Senator Graham. Provide security for economic development. 
Forty percent of all money spent on economic development 
projects now are security-related. That would be one mission of 
a military commander in Iraq, to give security to the economic 
development, to get this country up and running.
    Dr. Gates. Yes, sir.
    Senator Graham. Is there any doubt in your mind that the 
current level of troops are overwhelming when it comes to 
fulfilling all those missions, including defeating the 
insurgents? Could you honestly tell this committee and this 
country that the number of troops we have to do all the jobs 
that I've described, including defeating the insurgents, is 
overwhelming?
    Dr. Gates. No, sir, I do not believe it is overwhelming.
    Senator Graham. If we redeploy to a friendly country under 
these circumstances, do you think it's likely that the 
terrorist organizations that we've just talked about would come 
after us in that country, trying to prove to the American 
people, ``There is no safe place for you in this region''?
    Dr. Gates. Probably so.
    Senator Graham. Do you believe, if we set timetables, or a 
policy, to withdraw at a date-certain, it would be seen by the 
extremists as a sign of weakness, the moderates would be 
disheartened, and it would create a tremendous impediment to 
the moderate forces coming forward in Iraq?
    Dr. Gates. I think a specific timetable would essentially 
tell them how long they have to wait until we're gone.
    Senator Graham. Thank you.
    Chairman Warner. Thank you very much, Senator.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Dr. Gates, I thank you for the opportunity yesterday to 
visit with you on many of these subjects that you've been 
testifying on today.
    I have one question. If the Baker-Hamilton Report that 
comes out--and we have a chance to review it tomorrow and 
Thursday--says that we ought to have a drawdown of our troops 
and stop engaging, let's say, in the military activity of 
combat, but being in a support role, what does that do, if 
anything, to our leverage in seeing a political resolution in 
Iraq?
    Dr. Gates. Senator Nelson, I think at least in my view, I 
certainly have the highest regard for my colleagues on the ISG. 
It was a great pleasure to serve with them. In some respects, 
just based on the internal dialogue we had, it is kind of a 
model for the bipartisanship that we've been talking about here 
this morning.
    That said, I don't think that the Baker-Hamilton Report is 
the last word. I think there are a number of different sources 
of information and insight that need to be brought together and 
looked at, in terms of any presidential decision on new tactics 
or a new approach in Iraq.
    It's my impression that, frankly, there are no new ideas on 
Iraq. The list of tactics, the list of strategies, the list of 
approaches is pretty much out there. The question is, is there 
a way to put pieces of those different proposals together in a 
way that provides a path forward? One of those proposals to be 
looked at is whatever the ISG comes up with, but they will be 
putting those pieces together in a certain way. The Chiefs will 
probably put those pieces together in a little different way in 
their review. The ground commanders might have a different 
view. So, I guess what I'm trying to say is that I think that 
the report of the ISG is very important, and we all need to pay 
a great deal of attention to it, and these are very serious 
people that are putting it together. By the same token, I don't 
think it's the last word.
    Senator Ben Nelson. It does resemble a timetable for 
withdrawal, doesn't it, at least to some limited degree?
    Dr. Gates. In all honesty, Senator, I resigned before they 
began their deliberations, and so I actually don't know what 
the report's going to say, other than the one report that I 
read in the newspapers.
    Senator Ben Nelson. At the last Senate Armed Services 
hearing, Secretary Rumsfeld sat there, and I asked a question 
about what have now become known as ``benchmarks,'' or, as we 
discussed yesterday, conditions for staying, measurable goals 
to achieve, more training, if we need to have more Iraqi troops 
trained so we can stand up their military. We have a limited 
number of trainers there. Then we need more trainers to do it 
more quickly, but we need to measure, to know how many Iraqi 
troops need to be trained, how fast that we can do it. What's 
the timeframe? What does it take to get it done? Secretary 
Rumsfeld says, yes, he agreed that kind of an approach was 
necessary and that General Casey was working with Prime 
Minister Maliki in order to be able to do that. Is that your 
understanding, at this point in time?
    Dr. Gates. I have not had discussion with anybody about 
benchmarks, but I think that's the right approach.
    Senator Ben Nelson. If our goal is to ultimately find Osama 
bin Laden, some sort of a net approach is necessary to do it. I 
agree with you, finding out where he's going would be 
advisable, if we had the Intelligence to be able to do that, 
with a capital ``I.'' The other approach that we seem to have 
started, but we haven't really completed, is we put a $25 
million reward for his capture--a bounty, if you will. That, 
obviously, hasn't been enough money to get somebody to turn him 
in--as you say, one of his own forces to turn him in.
    What would you think about increasing the amount of that 
reward, or that bounty, by a million a week--it's certainly a 
small number compared to the cost of our conflict--until it 
reaches a breaking point where somebody says, ``That's enough, 
and I'll give him up for $35 million or $40 million,'' just 
keep adding it? Because the costs of the war are so 
significant, and yet the symbolism of this individual is still 
significant in that part of the world. What are your thoughts 
about that?
    Dr. Gates. Sort of terrorist Power Ball. [Laughter.]
    Senator Ben Nelson. Yes. Somebody always wins the lottery; 
it's just a question of when and how much it is at the time. 
[Laughter.]
    Dr. Gates. I'm certainly open to that, Senator. I must say, 
one of the things, going back to Senator Byrd's question 
earlier that, clearly, I'd like to become informed on quickly 
is what effort we have underway and the nature of our strategy, 
in terms of trying to find him. I think, just as he is not 
organizing things any longer, but remains a powerful symbol, 
being able to capture or kill him would have powerful symbolic 
impact, also.
    Senator Ben Nelson. I agree with you. I would hope that you 
would consider what it would take to increase the bounty or the 
reward, because I do think that money talks. At some point, 
somebody will say, ``That's enough,'' and they'll take the risk 
of turning him in.
    My time is up. Thank you, Mr. Chairman. Thank you, Dr. 
Gates.
    Chairman Warner. Thank you, Senator. In that context, 
always be mindful of the loss of life and limb of the members 
of the Armed Forces, and, indeed, other agencies of the 
Government, our Government, in that quest to find Osama.
    Dr. Gates. Absolutely.
    Chairman Warner. It's been mighty, mighty tough.
    Dr. Gates. In the worst possible conditions.
    Chairman Warner. The worst possible. You have a very 
complicated situation with Pakistan and its borders, its 
sovereignty. You know those things full well.
    Senator Dole.
    Senator Dole. Thank you, Mr. Chairman.
    I certainly want to associate myself with the comments of 
all of my colleagues in thanking you for your outstanding 
leadership of the Armed Services Committee, and especially the 
care with which you have responded to the individual concerns 
of each member. Thank you very much.
    Chairman Warner. I thank you, Senator.
    Senator Dole. Dr. Gates, Philip Hughes, who you served with 
at the National Security Council in the late 1980s, was quoted 
recently as saying, ``Bob has answered his country's call.'' 
Indeed, I want to start by also thanking you for accepting that 
call, and for your service to the public.
    Dr. Gates, the transformation efforts undertaken by 
Secretary Rumsfeld are critical to meeting the challenges of 
the 21st century. While Secretary Rumsfeld made transformation 
of the military a priority, obviously much remains to be done. 
In your view, which transformation programs are the most 
important and effective in fighting this war on terror? Of all 
the transformation initiatives, which, if any, do you feel 
requires continued focus by the Secretary of Defense?
    I'd also just add a third part to this, with regard to a 
specific element of transformation. Do you support the change 
in the organization of the Army from a division-based structure 
to 70 modular brigade teams?
    Dr. Gates. Senator Dole, one of the things that has 
impressed me the most in the very short briefings that I've 
received preparatory to this hearing, is the extent of the 
transformation that actually has taken place in recent years, 
compared to when I was in government. I can't tell you how many 
crisis meetings I sat through in the Situation Room over a 20-
year period, and we would look at military contingencies, and 
we would be looking at 60 to 90 days to generate a brigade, to 
get a military force on the move and in place. So, the 
expeditionary nature of the Army, the mobility, the change in 
mindset--sometimes, perhaps, those of you who have been really 
close to it may not fully appreciate just how dramatically the 
situation already has changed compared to when I was in 
government last.
    I think that the transformation needs to continue. I would 
confess that I don't have a lot of familiarity with it. I have 
read the Quadrennial Defense Review. It seems to me that it's 
on the mark, in terms of the large programs and the directions.
    The two things that I think make a lot of sense has been 
this shift of the Army from being basically a static force to a 
more mobile expeditionary force. I think that's very important.
    I think that, based on very superficial information, at 
this point, the shift from divisions to the brigade structure 
does make a lot of sense. I think it provides a lot more 
flexibility.
    I would say that one of the things that I think is very 
important in the transformation is continuing to strengthen our 
capacity to fight irregular wars. I think that is where the 
action is most likely going to be for the foreseeable future. 
So, I think it's very important that it go forward. But, again, 
I say that's based on a pretty superficial reading of it, at 
this point.
    Senator Dole. Dr. Gates, a World Bank report was released 
just last week on Afghanistan's drug industry and indicates 
that total opium cultivation just in 2006 has increased by 59 
percent. Afghanistan now accounts for 90 percent of the global 
opium supply. Of course, the drug trade in Afghanistan has 
profound implications for the safety of our service men and 
women, and for the supply of heroin around the world, more and 
more of which is coming into the United States.
    Do we need to more aggressively confront this issue in 
Afghanistan? Does this require a more direct effort by our 
military, in terms of opium interdiction and targeting of opium 
production facilities?
    Dr. Gates. Senator Dole, I think it's very important. As a 
matter of fact, just by coincidence, a couple of months ago I 
gave a speech at the World Food Prize ceremonies in Des Moines, 
and addressed this issue. I think that this is an area where 
the Defense Department can make a contribution, certainly in 
interdiction kinds of things. But this is one of those places 
where I think other parts of the American Government need to go 
to war as well, including the Department of Agriculture.
    I'll give you an example. A poppy grower really doesn't 
have a diffuse market for his product. He has one person, or 
one network, buying. So, there's no market flexibility. He gets 
told what the price is. He can't sell it anywhere else. His 
animals can't eat it. So, the notion, sometimes, is that the 
farmer gets so much money from growing poppies and drugs that 
crop substitution won't work. The truth of the matter is, the 
farmer often doesn't make very much money on it, and if we 
could get to work, in terms of providing Afghan farmers with 
other alternative crops, and encouraging those, and even 
subsidizing them, to some extent, for a limited period while 
they made a transition, it seems to me that it would be a very 
productive kind of thing to do. America's Land Grant 
Universities, Texas A&M is already on the ground in Tikrit 
working on these kinds of issues. There's no reason why our 
universities can't contribute to this, as well, frankly.
    Senator Dole. Thank you.
    Let me ask you about financial management systems at the 
DOD. Obviously, Secretary Rumsfeld, early in his tenure, made 
reform of these systems a priority, a top priority, and 
significant progress has been made, but challenges certainly 
still remain. The Office of Management and Budget (OMB), just 
last month, announced that the Defense Department's financial 
management systems have problems right now that are so severe 
that independent auditors still cannot certify the accuracy of 
the financial statements. I'm interested in what plans you may 
have to address what appears to be a severe problem.
    Dr. Gates. I don't have great familiarity with this, 
Senator, but, if I'm confirmed, I certainly look forward to 
working with Deputy Secretary England to address these issues.
    Senator Dole. Thank you.
    My time is up. Thank you very much.
    Chairman Warner. Thank you very much, Senator.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Dr. Gates, I grew up in the old school that said that 
partisanship stopped at the water's edge, particularly on 
matters of national security. You and I have already had a 
discussion about this privately. I'd like for you to share with 
the committee, how do you think that you will facilitate these 
big decisions of war and peace to be done in a bipartisan way?
    Dr. Gates. Senator, for openers, I think that there is a 
lot continuity and a lot of wisdom here in Congress, in this 
committee, and the Appropriations Committees, in particular, on 
a lot of issues relating to the Defense Department and to 
national security issues. I think the place to start is by a 
more frequent dialogue, a more frequent exchange of views and 
creating opportunities to learn and to listen with people, and 
to do that with individuals from both parties. I think that the 
one area where bipartisanship is already practiced, certainly 
by this committee--I'm not as familiar with others--is in the 
many visits that members of this committee have taken to Iraq, 
where members from both parties go. Based on everything I've 
heard, the impact out there is, they're seeing Republicans and 
Democrats who care about men and women in uniform and are 
trying to work together to do the best thing for the country. 
So, in a way, there may be better demonstrations of 
bipartisanship in Iraq than there are sometimes here in 
Washington. But I think we can replicate that in Washington. I 
think it goes back to what I said earlier about the executive 
branch working together, and that is, it depends a lot on 
personal relationships and personal trust, and the recognition 
that you're going to have disagreements about issues, but you 
can do it and maintain your trust and your respect for people.
    Senator Bill Nelson. When I served in the military, every 
young person--at that time, it was every young man--had an 
obligation to serve. We had a draft. Do you think we're getting 
close to the point, in order to have the personnel needs for 
the United States military, that we need a draft?
    Dr. Gates. No, sir, I do not.
    Senator Bill Nelson. Now, you say, then, that we can meet 
our recruiting goals without a draft. Explain that to the 
committee.
    Dr. Gates. Sir, I think that the first encouraging aspect, 
statistically, based on the limited exposure I've had, is the 
great success we've had in retention in the Services. So, we 
don't have a hole in the bottom of the bucket of much 
consequence. My impression is that the Army was authorized to 
add an additional 30,000 troops, and that they have recruited, 
I think, 23,000, or thereabouts, of that 30,000.
    I would tell you, my candid opinion is that I think one of 
the military officers that I was talking to told me that one of 
the concerns that he had about recruitment was that first we'd 
lost the moms, and now we were starting to lose the dads, in 
terms of encouraging young people to join the Services. In all 
honesty, I think that when people perceive that joining the 
Services is not a direct ticket to Iraq, our opportunities for 
increasing numbers are going to be significant. We have this 
problem, frankly, with the Corps of Cadets at Texas A&M, where 
we have a tough time recruiting people, because they think, if 
you put on a cadet uniform at A&M, that mom and dad think 
you're going to go straight to Iraq. So, I think that we have 
what I would call a transitory problem. The military seems 
confident that they can overcome it.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Chairman Warner. Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Mr. Chairman, I would, as the newest member of this 
committee to the most senior member of this committee, add my 
great appreciation, and tell you that it's been an honor to 
serve under your chairmanship. As everyone else has already 
stated, I appreciate your long and very distinguished career in 
service to this country. So, thank you for that.
    Chairman Warner. I thank the Senator very much.
    Senator Thune. Dr. Gates, I want to congratulate you on a 
very successful tenure as president of Texas A&M, culminating 
with a win over Texas in the football game this year. I'm sure 
your performance in that job is probably measured more by the 
battle for football supremacy in Texas than just about anything 
else, and something that my colleague from Texas, no doubt, 
will want to stay out of, I'm quite guessing. But you're 
leaving a very rewarding job for what is arguably the toughest 
job on the planet. We appreciate your willingness to reenter 
the public arena.
    Like many members of this committee, I have a large 
contingent of people in my State of South Dakota. We're a small 
State, populationwise, but, when it comes to military service 
per capita, contribute mightily to the war on terror and to our 
military service. We had 2,900 National Guard members and 750 
Air Guard members who have been deployed to Iraq. We've had our 
casualties in our State continue to grow, as well. So, it's 
obviously on the mind of all Americans.
    The question's been asked and it's been hotly debated, and 
I guess I would just come back to this basic premise. The 
mission in Iraq has been to stand up a government, stand up a 
military. Critical to our success in order to achieve a 
speedier exit from Iraq is to be able to have the Iraqi 
military defend the Iraqi people. The question is of troop 
strength. I guess what I'd like to come back to, in regard to 
that, is to ask the question as to whether or not you believe 
that additional U.S. troops dedicated to training Iraqis, in 
the short term, could lead to a speedier exit in the long term.
    Dr. Gates. Instinctively, Senator, I think that that would 
be the case. I just want to be clear, I think, before I were to 
draw any conclusions on that score, I would want to talk to the 
commanders in the field and get their judgment on it. What I 
know about the number of trainers, I've just read somewhere in 
the newspaper. So, I consider myself to have very superficial 
knowledge about some of these things, and I'd like to sit down 
with General Casey and some of the others and find out what the 
facts are, and find out if there is a need, along the lines 
we've just been discussing.
    Senator Thune. Let me ask you a question about how the 
Pentagon has faced considerable amount of criticism over tying 
intelligence to a preferred policy outcome and overzealously 
guarding its control over the defense intelligence agencies at 
the expense of the larger community. As nominee for the 
Secretary of Defense, you are the Intelligence Community's 
biggest customer. What steps will you take to ensure that the 
intelligence will not be tainted by policy requirements, and 
that intelligence agencies, like the CIA and the Defense 
Intelligence Agency (DIA), will be encouraged to present their 
own objective and independent analyses, free from any type of 
bureaucratic pressure?
    Dr. Gates. Senator, I feel very strongly about that given 
my background. I have actually had great respect for the DIA 
during my career. In fact, during the Reagan administration, on 
a regular basis, we ran contributions from DIA in the 
President's morning brief because of my regard for them.
    The one thing that I don't like is offline intelligence 
organizations or analytical groups. I would far rather depend 
on the professional analysts at DIA and at CIA and at the other 
agencies, and work to ensure their independence, than to try 
and create some alternative someplace. So, I think that relying 
on those professionals, and making it clear from my position, 
if I'm confirmed, that I expect them to call the shots as they 
see them, and not try and shape their answers to meet a policy 
need.
    Senator Thune. I appreciate that answer. I think your 
background will be very helpful and useful in that regard. You 
served on the ISG--it's being reported that one of the 
recommendations will be to engage Iran and Syria with regard to 
Iraq. Do you believe that Iran and/or Syria would, in any 
possible way, act to benefit a democratic Iraq? Let me ask you 
that question, and then follow up by asking, at what price or 
cost would you be willing to pay, diplomatically or otherwise, 
for that kind of beneficial action on either of those 
countries' part?
    Dr. Gates. I'm not prepared to pay for anything that I 
don't get in advance. [Laughter.]
    I have said that I think that having a channel of 
communication with these governments is worthwhile. That isn't 
necessarily a vehicle for negotiation. Because, often, the 
channel of communication between ourselves and the Soviet Union 
and China was merely for the passing of messages and providing 
reassurance that certain actions weren't threatening, and so 
on. I'm not optimistic that a negotiation with Iran would 
provide a lot of benefit. I co-chaired this Council on Foreign 
Relations Study on U.S. Policy Toward Iran in 2004, with Dr. 
Brzezinski, President Carter's National Security Advisor, and 
we recommended a negotiation with Iran. But I would say that 
the conditions have changed fairly dramatically since we wrote 
that report. Among other things, Iran has a new leader, who is 
quite unambiguous about his views of the rest of the world. 
Iran has gone from doing some things in 2004 that were harmful 
to our effort in Iraq, but also some things that could be 
perceived as being helpful to us--as far as I can tell, to 
being entirely negative now. They are clearly helping Hezbollah 
train fighters. So, I think the circumstances that led to our 
recommendations in 2004 have changed in some important ways.
    I think it's worth keeping an open mind, in the vein of 
having all the options on the table. I think it'll be 
interesting to see what the Baker-Hamilton recommendations are 
in this regard. I know that one of Secretary Baker's favorite 
lines is that it was on his 15th trip to Damascus that he 
actually made headway with the Syrians. So, they're clearly a 
tough nut to crack.
    I do believe that long-term stability in Iraq will be 
influenced by Syria and Iran. I think that we need to look at 
ways, either incentives or disincentives, to bring them to try 
and be constructive, in terms of the state on their border. How 
we do that, I don't have any specific ideas at this point. 
Whether that involves negotiations or sitting down with them 
now by ourselves or in an international conference or putting 
it off until some later date, I think, along the lines of 
keeping our options open at least merits thinking about.
    Senator Thune. Thank you.
    Mr. Chairman, my time's expired. Thank you.
    Chairman Warner. Thank you, Senator.
    Senator Levin and I observed a number of members remaining, 
and the clock, and we're going to try and accommodate each 
member who's been here this morning before we conclude. I 
think, therefore we will conclude our morning session around 1 
o'clock. We'll return at 2:15 to this room to resume the 
hearing for those Senators who might have missed the first 
round, and a question or two from the other Senators who wish 
to join.
    Following that, we would hope to go to S-407 of the Capitol 
for our executive session. Thank you.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    I'd like to join with others in saying what an honor it's 
been to serve under your leadership in this committee, also 
that of the ranking member. I thank you both.
    Dr. Gates, I wanted to thank you for your willingness to 
serve your country again. I also say that I've been impressed 
this morning with your candor, your straightforwardness. You've 
asserted your own independence of judgment, which I think 
you've demonstrated so far today. I guess I want to know if you 
will grant that same independence to your military commanders 
who are asked to testify before this committee or other 
committees of Congress to express views that reflect their own 
honest judgments that may differ with your own.
    Dr. Gates. Absolutely, Senator.
    Senator Dayton. Thank you.
    You said, and I agree with you, that hindsight is 20/20, 
and we have all made judgments at the time with hindsight, that 
can be legitimately questioned. Given what we know today about 
the absence of WMD in Iraq, given the predicament that we're in 
today, with that benefit of hindsight, would you say that 
invading Iraq was the right decision or the wrong decision?
    Dr. Gates. Frankly, Senator, I think that's a judgment that 
the historians are going to have to make. I certainly supported 
the decision to go into Iraq in 2003, and not just because 
Saddam had WMD. It was clear that the Food for Peace program--
the Oil-for-Food Program, was failing. It was totally 
corrupted, and the money was being diverted. It's clear that 
the sanctions were weakening. I had no doubt in my mind that, 
once the sanctions were removed by the U.N., and it looked like 
the French and the Russians and others were moving in that 
direction, that Saddam, if he didn't have WMD, would move 
quickly to try and obtain them.
    I think we have to look at the reality, in terms of why we 
all thought that. This is a little bit of a diversion, but I 
think one of the reasons why Iran is determined to have nuclear 
weapons is that they see how complicated it is for us to try 
and deal with a North Korea that has nuclear weapons. I think 
they believe that if Saddam had had a nuclear weapon, we might 
not have attacked him in either 1991 or 2001. There was no 
doubt and I believe Saddam had the same calculus. So, once the 
sanctions were lifted, there was no doubt in my mind that he 
would strive to get a nuclear weapon.
    He clearly hadn't changed his spots in the slightest; and 
so, that's the reason that I supported the decision to go in, 
as well as the fact that I thought he had WMD, as I like to put 
it, just like every intelligence service in the world thought, 
apparently, including the French.
    So, was the decision to go in right? I think it's too soon 
to tell. I think much depends on the outcome in Iraq.
    Senator Dayton. What do you think were the key strategic or 
tactical mistakes that have led to our current quagmire in 
Iraq? How can they be corrected? Or is it too late to do so?
    Dr. Gates. As I say, I think that hindsight, as you 
suggest, is 20/20. I suspect that some of the members of the 
administration would make some different decisions, in light of 
hindsight. I've made my own mistakes, and learned from them in 
hindsight. I would say that, just to give you two or three 
examples, I don't think that we had a full appreciation of just 
how broken Iraq was as a country before we ever went in, that 
after 35 years of Saddam, after 8 years of war with Iran, after 
the first Gulf war, after 12 years of sanctions, that the 
country was broken, economically, socially, politically, in 
every respect. Even if our soldiers had been greeted uniformly 
with flowers in their gun barrels, the cost of reconstructing 
Iraq would have been fairly staggering. I don't think there was 
that realization, or the expectation that we would have to 
reconstruct Iraq.
    I think there are two other problems that I think were 
created. The first was the demobilization of the Iraqi army. I 
know the argument that they have largely dissipated, but I 
think if we had widely advertised the fact that soldiers who 
returned to their barracks would continue to be paid, they 
would have a way to take care of their families, that we 
wouldn't have had several hundred thousand people who knew how 
to use weapons, had weapons, and were unemployed out on the 
streets.
    A third example, I think, was the extreme deBaathification 
policy. Frankly, looking at it from a distance, it seemed to me 
that perhaps we'd forgotten the lessons of our deNazification 
strategy in Germany in 1945 and 1946, and didn't really 
appreciate the fact that every schoolteacher and powerplant 
operator, for the most part, in Iraq, had to be a member of the 
Baath Party to get the job, and that in terms of being a threat 
to our interests or a threat to a democratic Iraq, they weren't 
necessarily that, that it was the people at the top of the 
pyramid that were the problem. So, a few more hundreds of 
thousands of people were thrown out of work, people who 
actually knew how to make some things work and who might have 
had a stake in keeping things together.
    So, this whole thing will be the attention of historians 
for many years to come, but, based on very short-term 
perspective, those seem to me to be some of the concerns that I 
would have had.
    Senator Dayton. Thank you.
    Thank you, Mr. Chairman, my time's expired.
    Chairman Warner. Thank you, Senator, very much.
    One of our colleagues, the distinguished Senator from 
Georgia, Senator Chambliss, met with you extensively yesterday, 
is my understanding. Regrettably, he had to attend a funeral 
and give the eulogy for one of his lifetime friends today, and 
he wished us to acknowledge his absence. But thank you for the 
extensive meeting and opportunity you accorded him yesterday to 
ask a few questions.
    Senator Talent.
    Senator Talent. Thank you, Mr. Chairman.
    Dr. Gates, I'm looking forward to a chance to visit with 
you personally, also, and so I'm going to be as brief as I can.
    I notice most Senators have made a brief comment about the 
general state of the military, and then have asked you mostly 
about Iraq, which is certainly appropriate. I think I'm going 
to do it in reverse, make a general comment about Iraq, and 
then ask you about the state of the military.
    With regard to what you said about WMD, I do think we have 
not fully concentrated on the benefits that we are receiving 
now just because Saddam is gone. We have an Iraq that is not 
attempting to compete with Iran to dominate the region, not 
threatening its neighbors, not trying to develop a nuclear 
weapons programs. Those are benefits that we received from 
removing him.
    I was in the House in the 1990s, and it was clear that as 
that decade wore on, the situation with his regime was 
unacceptable and that something was going to have to be done.
    The other point I've thought about with regard to this is 
when you make decisions in government, you have to make them 
based on the information that you have in front of you and 
discounting against the possibility it may turn out to be 
wrong. You can't say, ``Well, everybody believes, and all the 
data suggests, he's developing WMD, but I'm not going to take 
the obvious step because of the possibility it might all be 
wrong.'' Then you're just paralyzed.
    So, that's a general comment on Iraq. What I want to ask 
you about, though, is the state of the military; in particular, 
our ability to procure the new generation of systems and 
platforms that we are now going to go into an intensive phase 
of buying. The decisions that you make, and that Congress 
makes, in the next couple of years are going to dictate 
precisely the options that a President has 10 years down the 
road in a similar circumstance. I think we all have to 
understand this timeframe.
    Talk about more troops in Iraq. Our options are limited 
because of decisions made in the early 1990s about the size of 
the Army that Senator McCain asked you about. I hope you will 
expedite your study of that. I think you will find that the 
tooth-to-tail ratio is pretty much undefeatable, and you have 
to have an Army bigger than we now have if you want to be able 
to maintain troops in combat, even in the low-intensity combat 
situation. I think you will conclude that's necessary. I hope 
you will then have the courage to advocate that within the 
Department and with the OMB.
    Now, I just jotted down--over the next few years, we're 
going to have to procure the DDG-1000 destroyers. We're going 
to ramp up production of Virginia-class submarines. The 
littoral combat vessel. The Navy's going to have to get its new 
cruiser. It's essential to missile defense. The F-20--and the 
Air Force is going to have to buy F-22, Joint Strike Fighters. 
We need an interdiction bomber to replace the B-52. The Army, 
with the Future Combat System, is essentially going to replace 
its entire capital stock of vehicles, with the exception of 
some tanks. There are other absolutely vital programs that our 
men and women are going to use for the next generation.
    I think you will find, when you look at this, that the 
procurement baseline that we have now in place through the 
Future Years Defense Program is fundamentally inadequate to 
achieve that. I want to know from you that this is going to be 
a priority of your investigations and your work, if you're 
confirmed, and that you will fight for the necessary 
procurement dollars with the OMB, if necessary. We have been 
kicking the can down the road, year after year after year, and 
I think it's landed right at your doorstep.
    If you would comment on that. Do you have any sense of this 
situation? Do you realize what you're going to be confronting? 
Are you prepared for that kind of a struggle? Because if we 
don't begin doing it under your stewardship, then the 
President, a couple of terms from now, is just not going to 
have the kind of options that he or she will need in order to 
be able to protect America's security.
    Dr. Gates. Senator, I'm very familiar with the long lead 
times on these programs. The weapons that we so proudly 
deployed in the early 1980s in the Reagan administration often 
were developed in the Carter administration or the Ford 
administration or the Nixon administration. So, there is a long 
continuity. The irony is, in all of that, this committee, and 
the Appropriations Committee, is probably the only place around 
that has the continuity of experience to have watched the whole 
cycle go through.
    As I understand it, the fiscal year 2008 budget is 
basically put to bed. Clearly, if I am confirmed for this job, 
I'm going to have to take a close look at it. What I can tell 
you is that I am prepared to consult with Congress and with the 
President, others in the administration, if I think changes 
need to be made, changes in allocations and so on.
    But I would also say, just looking at it, as I understand 
it, as a percentage of Gross Domestic Product, defense 
spending, even with the cost of the war in Iraq, is at a 
relatively low level compared to most of post-World War II 
experience. So, I think there may be some flexibility. In the 
very brief conversations that I've had about these matters with 
the President, he clearly is very interested, and understands 
the nature of these problems, as well. Certainly this business 
of planning for the future is every bit as important as taking 
care of today and tomorrow, and I will make it a priority.
    Senator Talent. If not more so. Let me just say that what 
we were able to achieve with the end of the Cold War, winning 
in Operation Desert Storm, I think came directly, or sprang 
directly, from the decisions made by the President and Congress 
at the beginning of the Reagan administration, on a bipartisan 
basis, to sustain, I believe it was, two double-digit increases 
in the top line. If we have that kind of a commitment, it is 
possible to plan--you can do a transformation intelligently, 
you can do it efficiently. If, every year, we're robbing Peter 
to pay Paul, every year, putting the absolutely urgent ahead of 
the important, it ends up costing the taxpayers more and 
imperils American security. I just hope you will have that 
attitude. I think a pretty cursory inspection of the budget 
will lead you to the same conclusions that I've reached. We 
need a Defense Secretary that'll stand up and fight for that, 
and I hope that you'll do it.
    Chairman Warner. Thank you, Senator, very much.
    Senator Clinton.
    Senator Clinton. Thank you, Mr. Chairman. Mr. Chairman, it 
has been a privilege to serve on this committee under your 
leadership. I'm very grateful to you.
    Dr. Gates, thank you for your candor. That's something that 
has been sorely lacking from the current occupant in the 
position that you seek to hold. Your candor to this committee, 
to the American people, and especially to our men and women in 
uniform is crucial to our success. We need a strong Secretary 
of Defense, but that doesn't mean strongheaded. I appreciate 
your openness and willingness to engage with this committee 
today.
    Part of that candor was evident when you responded to 
Senator Levin's question about whether we are winning the war 
in Iraq, contrary to what your predecessor told us from that 
very chair, and what the President has told the American 
people. Can you tell us when and how you came to the conclusion 
that you expressed in your testimony, that we were not winning, 
a conclusion different from the President's?
    Dr. Gates. I think that, frankly, if the President thought 
that the current tactics and strategy that we were employing 
were successful, he wouldn't be looking for fresh eyes and 
looking for new approaches and new tactics in our situation in 
Iraq.
    I suppose that I came to that conclusion during my service 
on the ISG, which was really the first time I had the 
opportunity to look at some of these circumstances in detail.
    Senator Clinton. Dr. Gates, since the President made a 
statement, as recently as October 25, that we were absolutely 
winning, many of us believe that the outcome of the election 
has triggered the willingness of the President to perhaps look 
at other options.
    As you said in your testimony today, you don't believe 
there are any new ideas on Iraq, that we know what the options 
are, and it is incumbent upon us, our Government, hopefully in 
consultation with Congress, on a bipartisan basis, to find a 
path forward.
    Now, with respect to the path forward, have you reviewed 
Secretary Rumsfeld's memo regarding possible policy options for 
changing course in Iraq?
    Dr. Gates. I just read the version of it in the newspaper.
    Senator Clinton. Do you agree with the analysis that 
appeared in the article that contained a copy of the memo that 
you've referred to?
    Dr. Gates. It seemed to me that some of the options that 
Secretary Rumsfeld put forward are exactly among those that 
need to be considered in considering the path forward.
    Senator Clinton. Dr. Gates, I've been honored to serve on 
this committee now for nearly 4 years. Many of the options that 
Secretary Rumsfeld put forward in that memo have been discussed 
in our committee deliberations. They have been offered to 
administration witnesses as possible options, and yet, there 
were no changes. That strikes me as being very troubling, 
because now we're looking at the potential for a thorough 
review that will lead to changes that will be in America's 
interests, be in the interests of our men and women in uniform, 
and, we hope, in the interests of the people of Iraq and the 
region. Based on your experience, which goes back quite a ways 
in this town, do you believe the President, the Vice President, 
and the existing Secretary of Defense are intelligent men?
    Dr. Gates. Yes, ma'am.
    Senator Clinton. Are they patriotic?
    Dr. Gates. Absolutely.
    Senator Clinton. Do they care about our men and women in 
uniform?
    Dr. Gates. Absolutely.
    Senator Clinton. Do they believe the decisions they have 
made for the last 5 years have been in America's best interest?
    Dr. Gates. I have not had that discussion with any of them, 
Senator. I'm sure that they believe that they were in the 
country's best interest.
    Senator Clinton. So, therefore, we have this conundrum. We 
have a President and a Vice President who will ultimately 
decide--as the President is fond of saying, he is ``the 
decider''--about the direction to pursue, going forward in 
Iraq. It is quite frustrating to many of us to see the mistakes 
that have been made, some of which you have enumerated, and to 
wonder whether there is any change that will be pursued by the 
President. Do you have an opinion as to how and when the 
process will occur that might lead to some changes in options 
and strategies?
    Dr. Gates. My sense, Senator Clinton, is that this process 
is going to proceed with considerable urgency. I would tell you 
that if I am confirmed, as soon as I am sworn in, I intend to 
actually move very quickly, in terms of the consultations with 
the commanders in the field and with the Chiefs and with 
others, in terms of formulating my recommendations. So, I would 
say, certainly from my standpoint, and I think also from the 
administration's--with considerable urgency.
    Senator Clinton. Finally, let me ask you, Dr. Gates, that, 
in an oral history of the 1991 Gulf War produced by the PBS 
program Frontline, you made some very definite points about how 
the military often overstate, or even, in your words, 
exaggerate, the level of forces required to accomplish a 
specific objective. I'm concerned that's precisely the attitude 
that we've heard from Secretary Rumsfeld, former Deputy 
Secretary Wolfowitz, and others, with regard to General 
Shinseki's recommendation and many in the uniformed military, 
and civilian experts, who have consistently beat the drum that 
we don't have enough troops, we never had enough troops. 
Therefore, how will you take that set of recommendations from 
your uniformed military onboard and figure out how you're going 
to assess it, given your previously stated position that it's 
often exaggerated when we look at missions to accomplish?
    Dr. Gates. Senator, that statement was made in the context 
of the bureaucratic wars in Washington and the decisionmaking 
process, or the process of considering contingency planning in 
the Situation Room. I would tell you that the CIA also, in 
those same meetings, often would describe very pessimistically 
the prospects for covert actions that were being considered by 
an administration. Frankly, it's my experience that both the 
military and the CIA take that kind of approach, because 
sometimes they hear, as one of the earlier Senators was--I 
think it was perhaps Senator Warner, the chairman--some awfully 
strange ideas in the Situation Room, sometimes from members of 
the National Security Council staff. It was always my 
experience that, contrary to the conventional wisdom, it was 
the State Department that most often wanted to use force, and 
the DOD that most often wanted to use diplomacy, and the CIA 
never wanted to use covert action. Everybody wanted everybody 
else to take the actions.
    I think that when the actual decisions came though, the 
recommendations of the military were taken very seriously. I 
remember when the first President Bush was asking about the 
offensive strategy once--we had 200,000 troops in Saudi Arabia, 
and we were at a meeting in the Situation Room in the fall of 
1990, and the military came in and briefed on what they felt 
they needed to eject Saddam and the Republican Guard from 
Kuwait. They went through a long list of things, moving the 7th 
Corps to the Middle East, six-carrier battlegroups, activating 
the Guard and Reserve. I'll never forget, the President stood 
up and said, ``You have it. Let me know if you need more.'' I 
think that that kind of deference--when you get past the debate 
about what the policy should be, that great deference should be 
extended to the professionals who are going to have to carry 
out the action. I think the first President Bush did that in 
the Gulf War, and that certainly would be my instinct, if I'm 
confirmed as Secretary of Defense.
    Senator Clinton. That would certainly be welcome.
    Chairman Warner. Thank you very much, Senator. Senator, 
that question elicited a very important answer for the record 
of this hearing. I thank the witness.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    Let me also express my gratitude at serving under your 
leadership and chairmanship. It's been an honor. Thank you.
    Dr. Gates, thank you for agreeing to return to public 
service. As I said yesterday, Texas A&M's loss is America's 
gain. Your willingness to accept what I think has to be, if not 
the most difficult, the second most difficult job in 
Washington. I appreciate your willingness to step forward and 
answer that call.
    As we discussed yesterday, the decisions that this country 
makes about the conflict in Iraq and the global war on terror 
will have a lasting impact in the Middle East and on the entire 
world. I hope there remains a bipartisan consensus that we will 
not allow Iraq to become a failed state. If there are some who 
have questioned about whether it is possible to actually 
achieve victory, I hope we at least will do everything we can 
to not lose.
    The consequences of a failed state in Iraq would have a 
devastating impact on our national security interests. This is 
not a matter of partisan differences. No less military expert 
than General Anthony Zinni, who, in today's New York Times, was 
quoted as saying--and he, of course, was a forthright critic of 
the decision to go into Iraq--the article says, ``These days, 
General Zinni is delivering another provocative message, that 
leaving Iraq quickly would strengthen Iranian influence 
throughout the Middle East, create a sanctuary for terrorist 
groups, and encourage even more sectarian strife in Iraq, and 
risk turmoil in this oil-rich region of the world.'' He 
actually has gone so far as saying we ought to leave the door 
open to a temporary increase in American troops so we can 
clear, hold, and build in Iraq, and particularly in Baghdad. As 
General Zinni noted, we all understand that chaos in Iraq 
could, if left to just spiral downward without any attempt to 
control it, allow al Qaeda a base for operations against us and 
our allies. As many noted before, we can't simply leave, 
because the enemy is determined to follow us here.
    But I'd like to focus on another potential consequence. We 
touched on this a little yesterday, but I'd like to do this for 
the public record. That is the expansion of Iranian influence 
in Iraq. I'd like for you to give us your assessment on how 
Iran would react if the United States precipitously withdrew.
    There are some who have said that they will use that 
opportunity to consolidate the Shiite population in southern 
Iraq, and perhaps annex Iraq as part of the Iranian state, 
which, of course, may lead countries like Saudi Arabia, largely 
a Sunni population, to intervene to protect the Sunnis against 
any ethnic cleansing efforts or conflicts, sectarian violence 
that might occur.
    Then, of course, with the partition--de facto partition of 
Iraq into Kurdistan and--which causes, of course, a lot of 
concern in Turkey, I would like for you to, please, just give 
me your best estimate, here in this public forum, of what a 
precipitous withdrawal from Iraq, creation of a failed state, 
would have, particularly with an emphasis on Iranian influence.
    Dr. Gates. One of the assumptions that I think has proved 
questionable, Senator Cornyn, is that the Iraqi Shi'a were, 
first and foremost, Iraqi nationalists, and, having fought 
against the Iranians, would resist Iranian interference and 
Iranian efforts to become involved in Iraq. Based on just what 
I've read in the newspapers, that does not seem to be the case, 
because the Iranians are extremely active, as best I can tell, 
particularly in southern Iraq, but perhaps elsewhere, as well. 
One of the things that I have heard, for example, is that the 
Iranians are very likely involved in the development and 
production of these increasingly sophisticated IEDs that are 
hurting and killing so many of our soldiers.
    I think that the Iranians will seek to have as much 
influence in Iraq as they possibly can. These two states have 
been adversaries ever since Iraq was created, after World War 
I. As I just mentioned, they went to war for 8 years with each 
other, with terrible cost. They clearly never want to have an 
enemy like that on their western border again, and I think that 
their effort will be to try and exercise as much influence in 
Iraq as possible. If you end up with a Shiite government in 
Iraq, and no sense of nationhood with respect to the inclusion 
of the Sunnis and the Kurds, I think it will not be long before 
we will have a government in Baghdad that is as hostile as the 
one in Tehran.
    Senator Cornyn. We know the Iranians are state sponsors of 
terrorist organizations, principally Hezbollah. Would you 
foresee any change if they were to expand their sphere of 
influence and control to Baghdad, that they would somehow 
foreswear their support of terrorist organizations like 
Hezbollah or perhaps others that serve their purpose?
    Dr. Gates. No, I don't see any near-term prospect of the 
Iranians foregoing their use of Hezbollah and other terrorists.
    Senator Cornyn. One final point, as my time is expired. As 
I mentioned to you yesterday, I would appreciate your 
commitment to work with this committee on acquisition reform. 
We need to procure weapons systems more quickly, efficiently, 
and affordably so that we can guarantee that we can meet 
military requirements. On another occasion, perhaps we can talk 
about your recommendations and thoughts on the size of our 
special forces operation, something that has grown a lot, I 
think, to meet a very real need around the world.
    Thank you very much for your willingness to serve, and 
being here.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, Senator. I think it was very 
helpful to have his perspective on what consequences of a 
failed state are.
    Senator Bayh, you're the wrap-up.
    Senator Bayh. Thank you, Mr. Chairman.
    Let me begin my wrapping-up by echoing what every other 
member of the panel has said in thanking you for your 
leadership. You have proven yourself willing to rise above the 
interests of party to do what's right for the country, and I 
admire that in you, Mr. Chairman. So, thank you for that.
    I know our chairman-to-be exhibits the same qualities, so 
I'm looking forward to serving with you, Carl.
    Thank you for your public service, Dr. Gates. I am deeply 
grateful to you for that.
    I did notice, with some interest, however, that you 
recently gave a speech in Des Moines, Iowa. You keep a schedule 
like that, you're going to start tongues to wagging. Just a 
word of friendly advice. [Laughter.]
    I'd like to follow up on something that Senator Clinton was 
asking you about, and that is this. I appreciate your candor, I 
appreciate your openmindness, and I appreciate your realism, as 
opposed to having an ideological view of things. But you are 
not the ultimate decisionmaker. That will be the President of 
the United States.
    We have recently seen some examples, where the National 
Security Advisor issued a memo about the Prime Minister of 
Iraq, raising questions about his capabilities; and the 
President, in a matter of days later, said that he was the 
right man for Iraq. Your predecessor, Secretary Rumsfeld, had a 
memo in the newspaper laying out a series of options that the 
President seemed to very shortly thereafter dismiss, at least 
some of them, as being unrealistic, although the Secretary 
thought they were worth considering. Colin Powell, former 
Secretary of State, offered advice that was not listened to.
    Now, of course, the President's not going to take 
everyone's point of view. That's not possible. My question to 
you, very simply, is--you seem to be a very reasonable man. 
What leads you to believe that the President of the United 
States will accept your counsel?
    Dr. Gates. Senator, because he asked me to take the job.
    Senator Bayh. He asked the others to take the jobs, as 
well.
    Dr. Gates. I think that when they assumed their positions, 
the circumstances that the country and the President faced were 
different. I think the President was very direct in saying, 
both privately to me and then publicly, that he saw the need 
for fresh eyes on the problem, and I think he, at the same 
time, has indicated a willingness to consider different 
options, in terms of seeing how we can do better in Iraq.
    Senator Bayh. I hope you're right. I would simply urge you 
to give him your opinion, if you agree, that changing course 
need not be seen as a sign of weakness. As a matter of fact, it 
may be the intelligent thing to do to strengthen our country, 
to protect our national security interests. I sometimes think, 
in the higher reaches of the administration, those things have 
been confused. So, I wish you well. I hope he does heed your 
counsel.
    Dr. Gates. Thank you, sir.
    Senator Bayh. Two other things. One of the refreshing 
things that you said, and many others would agree, is that 
ultimately the Iraqis have to do this for themselves. We can't 
do this for them, that there are tough political decisions to 
make. Senator McCain raised an interesting issue about what 
comes first, stability or political progress. You outlined some 
of the unfortunate mistakes that were made early on that 
undermined the stability. You can't put Humpty Dumpty back 
together again. Those events tend to take on a momentum all of 
their own. My own judgment is, now, that political decisions 
have to be made, even in the absence of perfect stability; 
otherwise, this is not going to end well.
    So, the nub of this seems to be that there are those who 
believe that setting a timeline, or at least starting to bring 
closure in Iraq, will cause the Iraqi leaders to be insecure 
and to retreat to their religious and their ethnic identity. 
Others believe that they need a wake-up call, and that the 
setting of at least a flexible timeline is essential to keeping 
pressure on them to make the decisions that only they can make. 
We've tried the ``stay the course'' approach and reassuring 
them for 3\1/2\ years. They seem to still behave more like 
Shiites and Sunnis and Kurds, as opposed to Iraqis. Why do you 
think that the setting of a flexible timeline will not succeed 
in getting them to make the political decisions that need to be 
made?
    Dr. Gates. I go back to my original statement, at the 
outset of the hearing--I think that all options have to stay on 
the table. I want to sit down and talk with the commanders in 
the field. I want to talk to the Chiefs. I want to see what 
Secretary Baker and Congressman Hamilton and the ISG have to 
say.
    I have said before, I'm willing to consider all 
alternatives, all options, as we think about how to move 
forward in the most productive way, and to consult with people 
about those, consult with people here on the Hill about those, 
and then I'll decide what recommendation that I want to make to 
the President, in terms of what I think we ought to do. But, I 
believe that, at least going into this process, that all these 
options have to be on the table.
    Senator Bayh. One final question, Dr. Gates, with regard to 
Iran and their nuclear aspirations. I agree with your 
assessment of why they seek to have a nuclear capability. They 
impress me as the kind of individuals, the leaders of their 
country, that will only respond to the prospect of forceful 
steps. Rhetoric alone probably will not be enough.
    I've been told that they see our continued presence in Iraq 
as a constraining factor on us, that it limits us from having 
as credible a deterrent with regard to Iran as we need to have 
to get them to give up their nuclear aspirations, or to at 
least give us the best chance of accomplishing that. Do you 
agree with the statement that bringing closure eventually to 
our presence in Iraq is necessary to maximizing our chances to 
have the deterrent to deter the Iranians from their nuclear 
aspirations?
    Dr. Gates. Senator, I'm not sure about that. I think that 
some of the public statements by the President of Iran, some of 
the actions the Iranians have taken, are beginning, in a 
significant way, to frighten other neighbors and to create 
concerns among countries, both in the region and in Europe and 
elsewhere, who are potentially in a position to be helpful to 
us in bringing pressure to bear, both economic and political 
pressure to bear, on Iran. So, I'm not denying what you're 
suggesting, but I'm not sure it's right either. I think that 
there are some other factors at work that the Iranians are 
going to have to take into account.
    Senator Bayh. Just one final observation. My time is 
expired. Again, I thank you for your presence. I've been told 
by some that they view us as being bogged down in Iraq, from a 
manpower standpoint, from a resources standpoint, and that, 
frankly, they like that. They don't want to see us extricate 
ourselves from that place, because they know it constrains our 
ability to deal more forcefully with other threats, including 
the one that they present.
    Dr. Gates. When we did our study for the Council on Foreign 
Relations on U.S. policy toward Iran in 2004, what we were 
hearing then--and things were going considerably better for the 
United States in Iraq at that time--was that one of the reasons 
the Iranians were ambiguous in their approach to what was going 
on in Iraq was some gestures of assistance to us, as well as 
doing some things that were not helpful, but that they were 
quite frightened by having U.S. troops on both their western 
and eastern borders. What I've heard--and I haven't talked to 
any intelligence analysts about this--is that because they 
think things aren't going as well for us, they're not as 
frightened right now. By the same token, it seems to me that if 
things do start to go right in Iraq, and we do begin to get the 
situation stabilized, that may, in turn, bring considerable 
pressure on them, because they'll see that they have a 
different kind of state on their western border than they had 
anticipated, that may not be as militarily threatening as 
Saddam Hussein was, but is potentially politically threatening, 
and also that the United States will have shown that we were 
able to be successful. It seems to me it could go either way.
    Senator Bayh. Thank you, again, for your candor.
    Chairman Warner. Thank you very much, Senator.
    We've had, I would say--I've been here 28 years--this has 
been as good a hearing as we've had, right, Senator?
    Senator Levin. I agree with you.
    Chairman Warner. All right.
    Senator Levin. It's better than most.
    Chairman Warner. With that the morning session stands in 
recess until the hour of 2:15.
    [Whereupon, at 1:10 p.m., the morning session of the 
hearing was recessed.]


 CONTINUATION OF THE NOMINATION OF ROBERT M. GATES TO BE SECRETARY OF 
                                DEFENSE

                              ----------                              


                       TUESDAY, DECEMBER 5, 2006

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:20 p.m. in room 
SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Roberts, Sessions, Collins, Talent, Graham, Dole, Cornyn, 
Thune, Levin, Kennedy, Byrd, Lieberman, Reed, Akaka, Bill 
Nelson, E. Benjamin Nelson, Dayton, Bayh, and Clinton.
    Committee staff members present: Charles S. Abell, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: William M. Caniano, 
professional staff member; Regina A. Dubey, professional staff 
member; Ambrose R. Hock, professional staff member; Gregory T. 
Kiley, professional staff member; Sandra E. Luff, professional 
staff member; Derek J. Maurer, professional staff member; 
Elaine A. McCusker, professional staff member; David M. 
Morriss, counsel; Lucian L. Niemeyer, professional staff 
member; Lynn F. Rusten, professional staff member; Sean G. 
Stackley, professional staff member; Diana G. Tabler, 
professional staff member; and Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Jonathan D. Clark, minority counsel; 
Daniel J. Cox, Jr., professional staff member; Madelyn R. 
Creedon, minority counsel; Gabriella Elsen, professional staff 
member; Evelyn N. Farkas, professional staff member; Richard W. 
Fieldhouse, professional staff member; Creighton Greene, 
professional staff member; Michael J. Kuiken, professional 
staff member; Gerald J. Leeling, minority counsel; Peter K. 
Levine, minority counsel; Michael J. McCord, professional staff 
member; William G.P. Monahan, minority counsel; Michael J. 
Noblet, research assistant; and Arun A. Seraphin, professional 
staff member.
    Staff assistants present: David G. Collins, Micah H. 
Harris, and Jill L. Simodejka.
    Committee members' assistants present: Christopher J. Paul, 
Richard H. Fontaine, Jr., and Paul C. Hutton IV, assistants to 
Senator McCain; John A. Bonsell and Jeremy Shull, assistants to 
Senator Inhofe; Libby Burgess, assistant to Senator Roberts; 
Arch Galloway II, assistant to Senator Sessions; Mark Winter, 
assistant to Senator Collins; D'Arcy Grisier, assistant to 
Senator Ensign; Clyde A. Taylor IV, assistant to Senator 
Chambliss; Matthew R. Rimkunas, assistant to Senator Graham; 
Greg Gross and Arjun Mody, assistants to Senator Dole; Russell 
J. Thomasson, assistant to Senator Cornyn; Bob Taylor and 
Stuart C. Mallory, assistants to Senator Thune; Sharon L. 
Waxman and Mieke Y. Eoyang, assistants to Senator Kennedy; 
Christina Evans and Erik Raven, assistants to Senator Byrd; 
Frederick M. Downey, assistant to Senator Lieberman; Elizabeth 
King, assistant to Senator Reed; Richard Kessler and Darcie 
Tokioka, assistants to Senator Akaka; William K. Sutey, 
assistant to Senator Bill Nelson; Eric Pierce, assistant to 
Senator Ben Nelson; Luke Ballman, assistant to Senator Dayton; 
Todd Rosenblum and Robert J. Ehrich, assistants to Senator 
Bayh; and Andrew Shapiro, assistant to Senator Clinton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. We'll now resume our hearing from this 
morning.
    Senator Levin and I are in consultation with our colleagues 
with regard to further procedures concerning this nomination. I 
just want to thank Senator Levin and all colleagues for the 
support that they have given me in chairing this hearing and 
preparing for the sequential steps that will take place until 
we have our final vote, on the floor of the Senate.
    At this time, we'll resume questioning, and we'll each take 
our usual 5 or 6 minutes. I'd say, Dr. Gates, that we are all 
very impressed with the candor and forthrightness that you've 
expressed this morning.
    I'd like to initiate this afternoon's session with a 
discussion about your perspectives regarding both Iran and 
Syria. You were quite clear this morning on the questions that 
were put to you, but I'd like to ask--and I don't think we can 
get a definitive answer--you've written on this subject--and 
that is, do we try at some point as we begin to assemble the 
perspectives of the nations surrounding Iraq, to have some 
consultation directly with Iran and Syria, perhaps as a 
preliminary step to bringing the nations together, if that's a 
desire, hopefully, of the President, to try and have a 
conference of the region? There's a lot of suggestions on that. 
Tomorrow's report from the Baker-Hamilton Commission, which 
again, I expressed--and again to the press outside--a lot of 
confidence in the work that they've done, and I'm hopeful that 
we here in Congress will pay very close attention to those 
recommendations. I hope the executive branch will, likewise. 
But it could well be, as part of that report, the initiation of 
some type of overture, some type of formal--perhaps informal 
and formal overtures to both Iran and Syria.
    Dr. Gates. Yes, Mr. Chairman.
    Mr. Chairman, before I answer that question, with your 
indulgence, could I amplify on one of my answers this morning?
    Chairman Warner. Yes.
    Dr. Gates. Only because I'm concerned that the troops in 
the field might have misunderstood something I said. While I 
was having lunch and eating my sandwich, I was watching the 
news, and I certainly stand by my statement this morning that I 
agreed with General Pace that we are not winning, but we are 
not losing, but I want to make clear that that pertains to the 
situation in Iraq, as a whole. Our military forces win the 
battles that they fight. Our soldiers have done an incredible 
job in Iraq, and I'm not aware of a single battle that they 
have lost. I didn't want my comments to be interpreted as 
suggesting that they weren't being successful in their 
endeavors. I think we all applaud and appreciate what they're 
doing. The situation in Iraq is clearly much more complex than 
just the military actions, and the areas where we're having our 
challenges, frankly, are principally in the areas of 
stabilization and political developments and so on, and I just 
wanted to make that clarification, sir.
    Chairman Warner. I appreciate that because in my opening 
statement I recited what I heard General Pace say yesterday. He 
also, in the context of saying that, had nothing but the 
highest praise for the men and women of the Armed Forces and 
the fact that they have given their all. As you say, there's 
not a major engagement that we've had with this very diverse 
enemy in which they have not basically succeeded, given their 
courage and commitment. I think that's an extremely important 
adjunct to those crisp statements, that it doesn't reflect, in 
any way, on the professionalism and the commitment and the 
record of success of the men and women in uniform.
    Dr. Gates. Exactly, Mr. Chairman.
    Chairman Warner. I thank you for bringing that up.
    Dr. Gates. Thank you.
    Chairman Warner. So, we return to the issue of how best we 
deal with Iran and Syria.
    Dr. Gates. Yes, sir.
    Obviously, the decision on what to do in this respect is 
the President's, and he probably will look principally to the 
Secretary of State for advice on this question of Syria and 
Iran. But I guess I would have to say that I think, in the long 
run, we are going to have to acknowledge the influence of 
Iraq's neighbors, and the potential to make the situation 
either better or worse in Iraq. The forum in which we try to 
engage, and how we do it, and when we do it, clearly are issues 
to be determined. But I think we just have to acknowledge the 
reality that they have the opportunity to make things either 
much worse or much better for us, should they choose to do so. 
Figuring out the right way to try and take advantage of that 
really is, I think, principally, probably Dr. Rice's 
responsibility. But, philosophically, that's where I'm coming 
from on the issue.
    Chairman Warner. But as a part of your advice to the 
President, you will share own views, because it's based on many 
years of experience.
    Dr. Gates. Yes, sir.
    Chairman Warner. This morning, in response to several 
questions--and I think Senator Cornyn had one of the final 
questions that prompted your assessment on the problems that 
face not only the United States, but the whole world, should 
our goals--and when I say ``our,'' it's really not just the 
United States, but the coalition forces, particularly Great 
Britain and others, who have stood by our side throughout this 
conflict--to sustain this government and enable it to have the 
security environment, the economic support, and otherwise to 
exercise the full range of sovereignty. I call to your 
attention something that has not been noted by many, and that 
is, on November 28, the Security Council, in a very carefully 
drawn resolution, extended the authority of the coalition 
forces to continue until December 31, 2007, with the juncture 
point somewhere--I believe it's in June--and I'm going to 
produce that document here shortly--that if the Iraqis so 
desire, the government, they can review whether or not the 
resolution should continue. But a key phrase in that is the 
resolution states that the problems in Iraq face the whole 
international community. Whether it's the potential loss of the 
energy so critical to support the economies of the world, or 
whether a failure would incite greater terrorism throughout the 
world. I thought the United Nations Security Council was very 
perceptive in saying it's just not contained in Iraq or the 
region, but how that situation is concluded, hopefully 
successfully; it affects the entire world, because the problems 
in Lebanon, problems in Palestine, all are linked in some 
respects to the situation in Iraq, and, indeed, to some extent, 
Afghanistan.
    Have you had a chance to look over that resolution?
    Dr. Gates. No, sir, I have not.
    Chairman Warner. I would urge that you do so, and how they 
are very perceptive in saying it affects, indeed, the whole 
world. I think in pieces this morning your testimony did, in 
fact, reflect your own judgment that the importance of this 
situation does affect the whole world. Do you share that view?
    Dr. Gates. Yes, sir, I do.
    Chairman Warner. We talked this morning, and I was very 
reassured that you feel a broad bipartisan agreement on the 
future course of action will greatly strengthen the resolve and 
the commitment in this country; indeed, it would be a 
recognition of the mandate, in many respects, this past 
election, where the people of this country spoke, and also to 
the men and women of the Armed Forces. Clearly, a unified, 
bipartisan approach, once the President finally decides on such 
changes in strategy as he approaches the goals that he has 
established, is in our interest. I want to commend you and your 
testimony for giving support to that concept.
    Finally--and this is something that I find particularly 
troublesome, and I'm not sure there's a clear answer, at this 
time--but I was very active in drawing up the resolution that 
authorized the use of force for this conflict, both in Gulf I 
and Gulf II. Senator McCain is associated with me--Senator 
Bayh, Senator Lieberman; the four of us drew it up. I've gone 
back and looked at it many times in the legislative history. 
What troubles me today is that our forces are faced with 
situations in which there's this sectarian violence which is 
simply rooted so deeply in centuries of difference of approach 
to the very important doctrines of the Muslim world, the 
reverence they have for the Quran, the reverence that they have 
for the longstanding tenets. We tend to think that the Muslim 
world is in revolt. It is not. It is a very small fraction of 
the extreme radicals that are fomenting the problems that we 
see today. It is my hope that the moderate elements of the 
Muslim world will finally come together and help us reconcile 
such differences that we have.
    But let's talk about that patrol or platoon or company of 
U.S. forces that are suddenly caught in a situation where 
clearly the fight in front of them is purely sectarian. I feel 
very strongly that they should simply step back, that that's a 
matter that the Iraqi security forces (ISF) would have to deal 
with, not the men and women of the U.S. forces. How do you feel 
about those conflicts, whether there's just a small firefight 
or these mass killings, which are clearly identified as 
sectarian? What should be the involvement, or lack of 
involvement, of our forces? We want to support the Iraqi 
military, but we support them in dealing with the sectarian, 
rather than putting our folks right in that crossfire.
    Dr. Gates. Yes, sir. That tends to be my instinct, but I 
think one of the early conversations that I would want to have, 
if I were confirmed for this position, with the commanders on 
the ground is to address that very question. Clearly they must 
have done some contingency planning and consideration of what 
would happen in the event that this kind of thing begins to 
happen. I'd like to get their professional opinion about how 
they think they are going to respond if and when that kind of 
thing happens.
    Chairman Warner. If I may say, it is happening, it has 
happened, is happening, and it seems to be ever-increasing, the 
sectarian element.
    Dr. Gates. Yes, sir.
    Chairman Warner. Right in that seat, General Abizaid has 
said on two occasions that the initial insurgency, the initial 
infiltration from other countries of people who have come in to 
thwart the efforts of the coalition forces, the preponderance 
of the conflict today has its roots in sectarian violence and 
differences. So, it is taking place, and I'm pleased to have in 
this record your assurance that you'll take that up with the 
commanders.
    Dr. Gates. Yes, sir.
    Chairman Warner. Speaking for myself and, I think, some 
other colleagues around here, our young men and women should 
not be caught in that crossfire. That's the responsibility of 
the 300,000-plus Iraqi forces we've trained and equipped.
    Senator Levin.
    Senator Levin. Mr. Chairman, I think you speak for many 
members of this committee when you say that, and you surely do 
for me. If they are going to have a civil war in Iraq, it is 
going to be one that we should not be caught in the middle of. 
Hopefully, they are going to opt for a nation rather than a 
civil war, at least an all-out civil war, because they have a 
low-grade civil war going on now. But they have to make a 
choice, and it is a political choice. They have said that 
themselves. I think your answers this morning are very helpful 
in pointing out that it is mainly a political decision that has 
to be made in Iraq, rather than anything else.
    The security situation in Iraq is directly connected to the 
lack of a political consensus in Iraq. That is what their prime 
minister has said. He puts the responsibility for achieving 
that consensus right where it belongs, on the political leaders 
in Iraq, and we ought to hold them to it.
    It is in all of our interest that we maximize the chances 
of success in Iraq. I do not think there is any disagreement 
among anybody in that regard. Where there has been the sharp 
difference as to whether or not the current course, whether an 
open-ended commitment of our forces will lead us to maximize 
the chances of success, or whether it basically is sending a 
message to the Iraqis that somehow or other the responsibility 
here is other than their own.
    But, in terms of the goal of trying to leave Iraq in stable 
and in better shape than we found it, I think everybody shares 
that goal, and I know you do.
    Dr. Gates, General Abizaid testified before this committee 
in response to Senator McCain's question about adding 
additional troops, as to why he, General Abizaid, thought it 
would be a mistake. Here is what he said: ``I met with every 
divisional commander, General Casey, the Corps commander, 
General Dempsey. We all talked together. I said to them, `In 
your professional opinion, if we were to bring in more American 
troops now, does it add considerably to our ability to achieve 
success in Iraq?' They all said no. The reason is''--and this 
is General Abizaid now--``because we want the Iraqis to do 
more. It's easy for the Iraqis to rely upon us to do this work. 
I believe,'' General Abizaid said, ``that more American forces 
prevent the Iraqis from doing more, from taking more 
responsibility for their own future.''
    Do you agree with General Abizaid's comment?
    Dr. Gates. As I indicated in my answers this morning, I 
would give great weight to the views of our commanders out 
there. I would want to sit down and talk with General Casey, 
General Dempsey, and myself. But if that is their view, I would 
give great weight to that.
    Senator Levin. Does his reasoning resonate with you?
    Dr. Gates. It makes sense to me.
    Senator Levin. It does to me, too, I might say. On prewar 
intelligence, Dr. Gates, when we met in my office, you told me 
that you did not see evidence of a link between Iraq under 
Saddam Hussein and al Qaeda. Is that your view?
    Dr. Gates. As I indicated in answering a question earlier 
today, I have really received very little in the way of 
intelligence, so on the basis of what I've read in the 
newspapers, that certainly would be my conclusion.
    Senator Levin. You did indicate, in one speech in February 
2002, that, ``We know that at least one of the leaders of the 
September 11 hijackers met twice in Prague with Iraqi 
intelligence officers in the months before the attack.'' What 
did you base that conclusion on, since the intelligence 
community had not reached that conclusion?
    Dr. Gates. Strictly a newspaper story, sir.
    Senator Levin. In response, Dr. Gates, to prehearing 
questions from this committee, you said that you would 
cooperate with committee requests for information or documents 
relating to Defense Department detention and interrogations 
policies and allegations of detainee mistreatment. When we met 
in my office the week before last, I told you that I would be 
renewing a request for Department of Defense (DOD) documents 
that were denied in the past, particularly with regard to the 
prewar intelligence activities of the Office of the Under 
Secretary of Defense for Policy, under the leadership of 
Douglas Feith. Will you make relevant documents available for 
congressional oversight of issues such as those which I talked 
to you about, the prewar intelligence activities of the Office 
of Under Secretary of Defense for Policy?
    Dr. Gates. To the extent I have the authority, yes, sir.
    Senator Levin. When we met in my office, we also discussed 
the role of the Feith operation in providing an alternative 
intelligence channel to the White House, separate from the 
intelligence community. I wrote a lengthy report on that 
subject in which I indicated I thought that was a highly 
inappropriate role for the Office of the Under Secretary. You, 
this morning, said something which resonates with me, which is 
that the one thing you don't like is offline intelligence 
organizations or analytical groups, that you would far rather 
depend on the professional analysts at the Defense Intelligence 
Agency (DIA) and at the Central Intelligence Agency (CIA) and 
at other agencies, and work to ensure their independence, than 
to try and create some alternative someplace.
    From what you know, what is your view of the 
appropriateness of the intelligence activities of the Office of 
Under Secretary of Defense for Policy when it was under Mr. 
Feith's leadership?
    Dr. Gates. I really haven't read very much about it, even 
in the newspapers, Senator. I just have the impression that 
they were, as I say, as I understand from the newspapers, 
analyzing intelligence reports and providing an independent 
evaluation of that reporting, and an analysis based on that 
reporting, to defense officials.
    That's pretty much the extent of my knowledge of it.
    Senator Levin. If that is what happened, what is your view 
of that?
    Dr. Gates. I have a problem with it.
    Senator Levin. Thank you.
    My time is up.
    Chairman Warner. Thank you.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Dr. Gates, I want to come back, if I might, to a line of 
questioning that was asked by my colleague from Missouri 
earlier today, Senator Talent. I have, as he indicated, also 
supported raising the top line of DOD's budget. In a time of 
conflict, I don't believe that we are putting enough resources 
toward effectively fighting the war on terror. In fact, I think 
that, in some cases, Congress has been guilty of increasing the 
burden on the Department by slowing down modernization. I will 
give you an example of that: legacy aircraft requirements such 
as the B-52 are routinely delayed. Aging airframes, like the C-
130, are exposed to dangerously high levels of stress and 
flying hours, or are required to be put into a bed-down status, 
even though they have been grounded for exceeding safe flying 
hours. The question I would have is, with respect to that 
issue, and the fact that we need to reset, and we're running a 
lot of our equipment into the ground, and we need to start 
thinking about the next generation of a lot of these platforms. 
If you are confirmed, what recommendations would you make to 
Congress regarding the adverse effect that sustaining the life 
span of aging platforms is having on the Department?
    Dr. Gates. Senator, if I'm confirmed, it's clear that the 
kinds of issues that you and Senator Talent have referred to 
are going to be high priorities. The resource demands, in terms 
of ensuring readiness, in terms of paying for the costs of the 
war, and in terms of future investments, are really the three 
major buckets. Weighing the balance between those, and seeing 
if additions to the top line are required to be able to do the 
necessary tasks in all three, I think, is a very real 
possibility. As I say, I haven't had the chance to get into the 
2008 budget really at all, or to gather the facts on a lot of 
these specific systems, but it's clear that that will have to 
be a top priority, if I am confirmed.
    Senator Thune. I appreciate that. I would just let you know 
that there are those of us up here who would like to work with 
you on that, who, I think, share the view that we just don't 
have enough to go around for everything that we're doing, when 
we're fighting a war, and we have lots of obligations around 
the world, talking about being spread too thin, and then the 
equipment needs that we have, and to focus on the future in 
that window for what the next generation's needs are going to 
be, in terms of our warfighting capability. I know it's 
difficult fighting the forces at the Office of Management and 
Budget and other places, but I hope that we can count on you to 
do the right thing in terms of what our national security needs 
are down the road, as opposed to looking, just on short term, 
in this year's budget--as Senator Talent mentioned, the urgent 
versus the important--because I have a real concern about that, 
as well. I know that the various branches of the military are 
often in here and competing for dollars and everything else, 
but we have a lot of responsibility and a lot of needs out 
there that are not being met, and I'm fearful that it's going 
to make us less prepared, going forward. So, I appreciate your 
response to that.
    One other question I would ask is that there are some 
recent resignations that have left open positions at the 
Pentagon, and one of those is the Under Secretary of Defense 
for Intelligence. That position, I believe, was created in 
2003, and did not exist when you were at the Director of 
Central Intelligence (DCI). Have you developed any opinions yet 
on the utility of that position, now that you've been 
nominated, and whether to maintain, downgrade, or eliminate the 
position? Is there a potential conflict, or danger, inherent in 
this position of influencing the analytical process?
    Dr. Gates. Senator, I really haven't given it a lot of 
thought, to tell you the truth. I haven't thought about people, 
partly because I figured I wouldn't spend the time on it until 
I knew whether or not I was going to have the job. But I would 
say, I need to look into all of the responsibilities of that 
position. There has been a position like that in DOD at 
different levels for a long time, to coordinate the various 
aspects of the various defense intelligence organizations. So, 
at first blush, my instinct is that there probably is value in 
the position. But I think it's more in the form of coordinating 
the different elements of the defense intelligence 
organizations, working with the Director of DIA and others to 
make sure that the needs of the warfighter are being met by the 
defense intelligence organizations, and cooperating, also, and 
collaborating, with the Director of National Intelligence and 
the Director of CIA. So, my inclination is to think that there 
probably is value in the position, but I have not thought about 
anybody for that position.
    Senator Thune. I appreciate that. I would just say in 
closing, Dr. Gates, that your experience is very relevant to 
the challenges that we face, and I think the role that 
intelligence plays increasingly in this war on terror is so 
critical. I appreciate the answers that you've given, the 
responsiveness that you've demonstrated to the questions that 
have been posed of you today. I suspect that we'll get a good, 
strong, hopefully bipartisan, vote for your confirmation and I 
am looking forward to working with you. But I think you've been 
very forthcoming, and I just appreciate the response that 
you've demonstrated today.
    Dr. Gates. Thank you.
    Senator Thune. Mr. Chairman, I yield back. Thank you.
    Chairman Warner. Thank you very much, Senator.
    Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman.
    Thank you, Dr. Gates. Just to underscore what both the 
chairman and the ranking member have mentioned about the 
battles that are taking place, primarily in Baghdad, that had 
led a number of people, such as Kofi Annan, to believe that 
there is a civil war that is taking place. It's less than 2 
percent--as I understand it, from General Abizaid and General 
Maples--of the people that are actually killed in Iraq are 
foreign fighters. That even includes the suicide bombers. So, 
this level of intensity between the Shiite and the Sunni has 
escalated and, I think, is enormously troublesome about how 
we're going to be able to influence it and what the role of the 
military is going to be. You've responded both to Chairman 
Warner and Senator Levin on this. Obviously, the issue is the 
safety and security of our troops if they become identified on 
a particular side in what I think, personally, is a civil war. 
What you're going to have to find out is what the rules of 
engagement are. You're going to talk to the local commanders, 
but what are their rules of engagement in making their judgment 
to ensure that what we are interested in is the safety and the 
security of the American troops. This is a matter, obviously, 
of great importance.
    Just a second issue--I just want to move through some.
    Dr. Gates. Yes, sir.
    Senator Kennedy. In Darfur, 400,000 killed, 2.5 million 
displaced. It continues to be a human tragedy of such 
extraordinary proportions. The reluctance of the Sudanese 
government to take steps to try and bring about peaceful 
resolutions and negotiations. How long are we going to be able 
to tolerate that? What might the role of the North Atlantic 
Treaty Organization (NATO) countries be? What might the 
possibilities be, in terms of no-fly zone? What options are 
going to be available to the President, should this situation 
continue to deteriorate? You're going to be the one on the 
watch for those issues. I don't know whether you want to--it's 
a very specialized area--make a brief comment. I wanted to just 
raise the issue. I don't expect a detailed kind of response, 
but I would certainly hope that you'd give focus and 
attention--when the confirmation process concludes--to that 
issue, because it's of enormous importance, an incredible 
humanitarian issue.
    An issue that was raised earlier today in the newspapers. 
You haven't had a chance to see it, but the census counts 
100,000 contractors in Iraq--100,000 contractors in Iraq. 
Inside the article, it quotes, ``With few industry standards, 
the military contracts have sometimes lacked coordination 
resulting in friendly-fire incidents, according to Government 
Accounting Office last year. `It takes a great deal of 
vigilance on the part of the military commander to ensure 
contractor compliance,' says William Nash, retired Army general 
and fellow at the Council on Foreign Relations, `trying to win 
the hearts and minds. The contractors driving 90 miles an hour 
through the streets and running over kids, that's not helping 
the image of the American Army. Iraqis aren't going to 
distinguish between a contractor and a soldier.' ''
    You are going to have an opportunity to review this whole 
issue, in terms of the contractors. We've had, of course--and I 
won't have the chance to get into it today, but there is the 
whole question of accountability of these to the law, the whole 
question in terms of the torture issues, with Abu Ghraib, about 
the roles of contractors, and others. It is a very major issue 
and question, and it's one that I know you'll want to have a 
good opportunity to review so there's some real accountability 
and consistency, in terms of policy.
    Dr. Gates. Yes, sir. In fact, my impression, or 
recollection, from the briefings that we received in Baghdad on 
the Iraq Study Group (ISG), was that some of the more useful 
work that had been done by Mr. Bowen in the Special Inspector 
General's office included some of these areas, dealing with 
contractors.
    Senator Kennedy. Just a final issue. The members of this 
committee have spent a great deal of time on the issues of 
military tribunals. We've spent a good deal of time on the 
issues of torture, interrogation, on rendition, and issues of 
that nature. Congress has taken action now, at the end of this 
last session on these issues of tribunals. It's enormously 
important, as you will understand, to get it right. Because, 
really, what a bitter irony it would be if we get it wrong, if 
Congress has it wrong and these high suspects that are being 
tried are found, that the procedures which they are considered 
to be unconstitutional and suddenly they're in a different 
situation. They're in a different situation, having gone 
through the law, they don't necessarily have to be released, 
but if they're found to have the procedures which are there 
violating the Supreme Court, it certainly would be an 
incredible irony that some of them are outside, then, from the 
judicial system.
    The trial procedures used by the commissions, we're hopeful 
that those trial procedures will be consistent with the basic 
fairness. The law does not require public comment to the rules 
that help ensure that they will meet the judicial scrutiny. The 
law does not require that. But there have been many that 
thought that, with the possibility where the DOD gives a chance 
to just get public comments, that it may be enormously useful 
and valuable. I've raised that issue with you. I'll drop you a 
note on it, because it's a technical, but very important, one, 
and follow up with you to see if you review it, and make a 
judgment.
    Dr. Gates. All right, sir.
    Senator Kennedy. My time is up. I thank you very much.
    Dr. Gates. Yes, sir.
    Chairman Warner. Thank you, Senator Kennedy.
    Senator Sessions.
    Senator Sessions. On the question of interrogation of 
unlawful combatants, which these terrorists are, I would just 
say we've had 30 hearings or more on that. The net effect has 
been to suggest to the world that we think our military is out 
of control with regard to these issues. That's just not so. 
Those who violated the rules of war, those who violated our own 
standards and laws and the Uniform Code of Military Justice 
have been punished. But I'll tell you what is really critical, 
Dr. Gates. It's something I've seen and become more convinced 
about in recent months, and that is, we have totally inadequate 
prisons in Iraq for those who are trying to destroy that 
country. In addition to freeing innocents, justice requires 
that those who are guilty be able to be punished, and punished 
severely if they commit severe crimes, such as attempting to 
blow up innocent men, women, and children.
    My meeting on our last trip with Senator Warner, Senator 
Levin, indicated, from the Marines, they felt that our 
dangerous prisoners were being released. Atlantic Monthly 
magazine had an article in which the mayors of Mosul 
complained, in their first round of discussions, most 
vehemently about prisoners being released from Abu Ghraib 
prison. They come back, and they cause disturbances in their 
communities. One Marine Times article indicated that one guy, 
known as ``The Beheader,'' had been released. Another serious 
bomber had been released, and, already, his signature bombing 
technique had reappeared in the community.
    I have run the numbers, and the best we can calculate, on a 
per capita basis, Iraq has one-ninth as many prison beds as the 
State of Alabama. To me, that indicates that we really are not 
there yet. If we're going to provide security for the people in 
Iraq, we have to be able to assure them that bad people who are 
apprehended will be able to be detained and held for long 
periods of time, else they will turn to militias and other 
unauthorized groups to protect their own safety.
    I'm sure you haven't had time to look at this, but I'd like 
a personal commitment from you that you will look at it, and 
look at it hard and quickly, because I think something must be 
done to assure the Iraqi citizens that those who are out to 
destroy them can be arrested, punished, and sent to jail.
    Dr. Gates. Absolutely, Senator Sessions. If I'm confirmed, 
maybe you will send me some of those articles that you have 
referred to. That will help jog my memory so I can do that.
    Senator Sessions. I will definitely do that, and I think 
it's important.
    I just got back from the Riga NATO conference, the summit 
that President Bush attended, and we met with representatives 
from NATO countries and the German Marshall Fund Foundation and 
many conferences. There's a growing unease about Russia's--I 
will just say ``bad behavior.'' We know they're selling 
sophisticated anti-aircraft weaponry to the Iranians. They're 
using oil as a weapon against the new democracies. They're 
taking steps to complicate the ability of new democracies, like 
Ukraine and Georgia, to attain their independence, as if they 
seem to feel that they still are part of the Soviet Empire.
    You're a student of history, you're a student of Russian 
history--do you see a dangerous trend, a downward spiral in 
Russia's behavior? Do you have any thoughts about what we can 
do to change that?
    Dr. Gates. I think, Senator, there are a number of areas of 
concern, in terms of Russian behavior, particularly over the 
last 2 or 3 years.
    I was particularly intrigued when I read that they 
attempted to punish the Ukranians by turning off the gas 
pipelines, the gas supply, they sort of forgot that the gas 
pipelines to Western Europe go through Ukraine, and the 
Europeans began to have some shortages.
    Just as a historical footnote, the members of the committee 
will probably remember that during the Reagan administration, 
we tried very hard to persuade the Europeans that it was not in 
their interest to become dependent on Russian gas--the Soviet 
gas, in those days--and that the potential for the political 
manipulation of the supply was very real. That was 20 years 
ago, and we're now seeing it, as the Russians try to use it on 
some of their neighbors abroad. It clearly has begun to raise 
some concerns on the part of the Europeans.
    So, I think that what Putin is trying to do, frankly, is 
reestablish Russia as a great power. I think we, in the west, 
probably don't fully appreciate the magnitude of the 
humiliation, not only of the loss of the Cold War and the loss 
of Eastern Europe, but, in effect, the destruction of the 
Russian Empire itself, 3 or 4 centuries in the making. I think 
Putin is trying to restore the pride of Russia. I think he has 
a lot of popular support at home for the things he's trying to 
do. He has the money to do it now, thanks to the price of oil. 
I think he's basically trying to make Russia a force, in the 
countries that used to belong to the Soviet Union. I don't 
think he wants to take them over. He doesn't want their 
problems. But he wants to make them dependent on Russia, and 
susceptible to Russian influence and to Russian bidding.
    I think there are a number of things that are going on 
there. I think he is trying to take back control of a state-
owned enterprise--state-owned resources and particular 
strategic resources, whether it's oil and gas or other minerals 
or major industries. How far he'll go, I think, is an open 
question. There are still freedoms in Russia that did not exist 
under the Soviet Union, especially if you don't want to 
challenge Mr. Putin for power. But I think that the 
developments in recent years are really of concern in Russia.
    Senator Sessions. My time is about up, but I would just ask 
you this with regard to your view of a bipartisan long-term 
defense policy for America. If we could reach an agreement on a 
series of weapons systems and other initiatives for the Defense 
Department of America, both sides of the aisle--these are 
things we know we need to do in the next 10 or 20 years--if we 
did that, could we achieve that at less cost and more 
effectively than if we proceed on a year-to-year basis?
    Dr. Gates. I think anytime you have a long-term commitment, 
and people can plan for it, you're likely to save money.
    Senator Sessions. Thank you, Mr. Chairman.
    Chairman Warner. One of the remarkable chapters of current 
military history, and in sharp contrast to previous engagements 
of our Armed Forces overseas in battle, has been the concept of 
embedding journalists. I personally, from my perspective, have 
witnessed it on our trips that Senator Levin and I have taken. 
I think it's been a very effective tool. I think it has brought 
America into the war in a very visible way, a real-time way. 
World War II, we depended on going to the local movie house to 
see a 10-minute clip on Movietone News if we wanted to see any 
of the actual live fighting. But today it's instantaneous.
    Now, this has brought on its problems, because those 
journalists, in most, if not all, instances, are taking 
personal risks and making personal commitments about their own 
security that are equivalent, in many respects, to the men and 
women who are fighting. There have been several instances, 
which I'm going to bring to your attention in a letter, which I 
will send you. But there's a committee to protect journalists 
which is very active in trying to resolve what I regard as very 
few disputes, but, nevertheless, serious disputes, between the 
profession of journalism and the manner in which the embedding 
is taking place. I will be bringing to your attention, I think, 
the need for you to focus on that. I hope that you can continue 
it. I hope that we can reconcile differences and that the 
journalists who are willing to take on these tough assignments 
can be given every protection that's possible. I'll spell that 
out in a letter.
    In sharp contrast is the difficulty of getting persons from 
other departments and agencies of our Federal Government to go 
over to Iraq, and, frankly, exist in the Green Zone, much less 
what the journalists are doing right out on the front with the 
troops. This committee, with the strong support of my colleague 
over here, Senator Levin, actually put in our bill certain 
technical things to provide the Secretaries of the various 
departments and administrators of our agencies of government, 
to give incentives to their employees to go over there and 
participate. That's a subject that I hope that you will address 
also, because you stop to think, we're in a war, and it's a 
dangerous war, and it's a war that's to preserve our freedom, 
yet we don't have the commitment, like we did in World War II, 
to where the whole Nation, be they at home or abroad, was 
unified in the common purpose of succeeding there.
    I have to say--and I've witnessed firsthand the Korean 
situation myself, and then Vietnam, and now this very tragic, 
but important, conflict in Iraq, and the Nation is kind of 
distanced from it. It's the families of the uniformed people 
and those people that are bearing the brunt of this conflict, 
and the rest of us are going about our regular lives. Of 
course, it's a very expensive operation. But I urge that you 
take a look at that, and urge you to take a look at what we can 
do to further incentivize a lot of the civil service structure 
and professionals in our other departments and agencies to 
pitch in over there and help these fledgling bureaucracies 
grow, and do the best we can to help this sovereign nation lift 
itself up and function.
    Dr. Gates. Mr. Chairman, I think it's a very important 
issue. When our ISG was in Baghdad, we heard a good bit from 
the commanders in the field of the numbers of jobs being done 
by soldiers that actually were filling positions that belong to 
other agencies. If I'm confirmed, you can rest assured that I 
will be aggressive in looking at that one.
    Chairman Warner. Your first Cabinet meeting pound that 
table. [Laughter.]
    We are looking for, as the Marines say, ``a few good men 
and women.''
    Earlier, I talked about the Security Council resolution. 
I'll ask unanimous consent that this very important document be 
put in today's record, because it recites the basis on which 
the coalition forces--mainly the United States--are conducting 
their military activities in Iraq in the cause of freedom.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Chairman Warner. I paraphrased a sentence, and I'd ask the 
reporter to go back and replace my paraphrased sentence with 
the following, and that is the extensive preamble clause, and 
the last part of that preamble clause is, ``The Security 
Council determined that the situation in Iraq continues to 
constitute a threat to international peace and security.'' That 
has to be brought home to the world.
    Now, my two remaining questions relate to--you touched on 
Afghanistan this morning, and we should not, in any way, be 
shortsighted about the importance of that conflict. The current 
fighting, led by, we call it, the remnants of the former 
Taliban regime--I presume it's a polyglot of all kinds of 
people that are disaffected with the government, but, 
nevertheless, it was principally the Taliban. Their fighters 
have conducted several increasingly large-scale attacks on 
coalition and Afghan security forces in several southern 
provinces, and namely--when I say ``coalition forces,'' I mean 
NATO, which has taken over there. By the way, I hope you have 
an opportunity to talk with General Jones someday. He's a 
magnificent gentleman. Actually, today, I think it is, that 
he's stepping down as our NATO commander, because we had 
planned to be over there, until this session was scheduled.
    What actions do you believe that we should take to try and 
give additional support to NATO to reduce the effectiveness 
that the enemy is now showing in Afghanistan? Do we need 
additional forces there? You mentioned the drug problem--and 
I'm delighted to have gotten into this record the concept that 
you put forth--as a way to take those farmers and give them 
some very minuscule amounts of money, compared to what they 
receive and what the distributors, way beyond--principally in 
Europe--receive for that terrible product, drugs. But let's 
talk about the troops. What do you think about the level of 
forces over there? We have about, I think, 18,000 to 20,000 of 
our folks over there.
    Dr. Gates. Yes, sir. Mr. Chairman, I think, first of all, 
that the first priority is seeing what further progress we can 
make in getting some of our allies who have troops there to 
reduce some of the restrictions that they have on the use of 
their troops. It throws the burden onto a handful of other 
countries.
    Chairman Warner. That's a national caveat problem.
    Dr. Gates. Yes, sir.
    Chairman Warner. Which is really--I think we should expand 
it a little bit here in the record. It simply says, where a 
NATO member country says we're going to send and allow a 
certain segment of our uniformed troops to be a part of the 
overall NATO force, but once you reach Afghanistan, our troops 
can only perform such missions, and very often those missions 
do not include the higher-risk combat operations. Am I correct? 
Is it your understanding of the national caveat?
    Dr. Gates. As I understand it, that's exactly right, Mr. 
Chairman.
    Chairman Warner. General Jones has tried hard to eliminate 
that. He felt he was making some progress. But it's not fair, 
for example, to an American or a Canadian or a Brit--and I 
think there's certain other forces that are right there, 
sharing the full burdens and risks--to have other elements in a 
rear echelon or supporting capacity such that they're not 
subjected to the same level of risk.
    Dr. Gates. I may be mistaken, but I think that one of the 
subjects at the Riga Summit was to deal with some of these 
national caveat issues. I think that some are embedded in law 
and some are embedded culturally and so on, and may be very 
difficult to change. But I think those that can be changed, we 
ought to try and do that.
    It's very important, it seems to me--we've had a tremendous 
success, an astonishing success, militarily, in overthrowing 
the Taliban regime in Afghanistan. I think it would be a 
tragedy for us to let that victory slip through our grasp by 
later neglect. So, frankly, I'm very sympathetic to the notion 
that if more troops are needed in Afghanistan, that we ought to 
look very hard at that. Whether they should come from our NATO 
allies or from us, I think, is a matter to get recommendations 
from people who are much more knowledgeable about capabilities 
and so on, and what the needs are, than I am. If I am 
confirmed, that would certainly be an important issue to 
discuss with our commanders in Kabul. It would be my hope to 
get there relatively soon, if I am confirmed.
    Chairman Warner. I really believe that if the current mix 
of NATO forces from a number of nations--if those nations would 
bring up to the full complements of the commitment that they 
made back at headquarters in Mons, that will go a long way to 
bring up that force to its----
    Dr. Gates. If I remember some of the materials that I saw 
correctly, the numbers that are being requested are not that 
significant. I think it's about 2,500 troops.
    Chairman Warner. You're correct.
    Senator Levin, do you have further questions?
    Senator Levin. Thank you, Mr. Chairman.
    Chairman Warner. I'll be right back.
    Senator Levin. I want to talk to you for a few minutes 
about the Iran-Contra events. We had asked you a question for 
the record about your testimony at the confirmation hearing, 
that you did not recall a series of meetings, memoranda, 
conversations that were very significant conversations that 
would have linked you to the events of the Iran-Contra affair. 
We went through just a list of those memos and meetings that 
you indicated, at your 1991 hearing, that you did not recall. I 
was troubled enough about that at the time that I did not vote 
to confirm you for the CIA position. We asked you if you 
remembered anything new about that. You, understandably--and 
I'm not challenging this part of your answer--said that you did 
not. However, you gave a number of further explanations about 
these events and your lack of memory. You said that the matter 
had been investigated exhaustively by the Intelligence 
Committee, that key figures in the affair were interviewed or 
testified and affirmed that they had not shared important 
information with you. You indicated that, after you became 
Acting Director of Central Intelligence, in 1986, following 
more than a decade of controversy and conflict between the CIA 
and Congress, that there would not be a significant further 
conflict or major controversy between CIA and Congress for the 
remainder of your career, nor would there be another scandal 
tainting CIA during that time. I think that not only is true, 
but it's significant. Those were the events, and we were 
grateful for those events occurring, or the problems being 
alleviated.
    However, there was one thing that you said in support of 
your answer which troubled me, and I want to give you an 
opportunity to comment on it. That's when you said that, ``The 
Iran-Contra independent counsel, after 7 years of 
investigation, could not find a single witness to testify that 
my role in the matter was other than I described it.'' You 
seemed to invoke the independent counsel at that point in 
support of what you were telling us. That is what troubled me. 
Because to invoke on that issue of memory what Mr. Walsh had 
said to--as a validator, when he was intensely critical at that 
time of your lack of memory, troubled me.
    I'm sure you're familiar with this--and I've shared this 
with you briefly--that what the independent counsel said in his 
book was that, prior to the Intelligence Committee's hearings, 
that he sat down with the chairman, David Boren, and the 
ranking minority member, Senator Murkowski--this is prior to 
the hearings--and he told them that there were two questions 
that had not been answered satisfactorily to the independent 
counsel. One, ``Had Dr. Gates falsely denied knowledge of 
Oliver North's Contra support activity?'' and, ``Had Dr. Gates 
falsely post-dated his first knowledge of Oliver North's 
diversion of the arms sales?''
    Now, Judge Walsh went on in his book to say that he told 
those two Senators that, ``We did not think that we had enough 
corroborating evidence to indict Dr. Gates, but that his 
answers to the questions had been unconvincing. We did not 
believe he could have forgotten a warning of Oliver North's 
diversion of the arms sales proceeds to the Contras. The 
mingling of two covert activities that were of intense personal 
interest to the President was not something the second highest 
officer in the CIA would forget.''
    He also wrote in his book that there were ``33 times that 
Dr. Gates denied recollection of the facts,'' and that he then 
watched the hearings in front of the Intelligence Committee, 
and he felt certain that you would not have brushed off the 
alarming reports if you had already known about the diversion--
if you had not already known about the diversion, ``He had 
simply not wanted to be told by a new witness.'' Then he says 
that he also disbelieved your testimony about President 
Reagan's December retroactive finding purporting to authorize 
the CIA's facilitation of the November 1985 Hawk shipment to 
recover the hostages.
    The bottom line is that--and I think it's fair to say, and 
I'm wondering if you don't agree--that at least at the time 
that Judge Walsh wrote his book, that he had great trouble 
accepting that you did not remember the events that you said 
that you did not remember. I had great trouble, too. My 
question is this, basically. By the way, I understand now that 
Judge Walsh, according to the newspapers, has endorsed your 
nomination. I think that's significant, too, by the way. But 
I'm troubled. I want to just ask you, not so much about the 
lack-of-memory issue, but by your invoking Judge Walsh as kind 
of a validator of your position relative to whether there were 
witnesses who disagreed with your memory, when that was not the 
issue. The issue was the fact that you didn't remember events 
that seemed to be so fundamental and so central to the 
administration. I wanted to just tell you I was troubled by 
that answer, and I want to give you an opportunity, if you'd 
like, to comment on your answer, for the record, in citing 
Judge Walsh to validate your answer.
    Dr. Gates. Sure.
    I think the short answer, Senator, is, in the very short 
time that I had to prepare the answers to the questions that 
came from the committee, that it seemed--and without having 
access to any of the documents or the records that I had seen 
before, that the best way to answer this current committee's 
question was simply to refer to the note, to the response that 
I was invited to place in the record of Iran-Contra report. The 
sentence that you quoted, in terms of not finding any other 
witnesses, was the central part of a three- or four-, I think, 
sentence response that I wrote to the report of the Iran-Contra 
independent counsel. That's fundamentally the reason why that 
sentence was in there.
    Senator Levin. Fine, thank you. So, that basically is 
taking from a past document----
    Dr. Gates. Yes, sir.
    Senator Levin.--a statement which is accurate, presumably--
--
    Dr. Gates.--from 1994.
    Senator Levin. It was from 1994 and not necessarily 
responsive to the point that was being made.
    Dr. Gates. Yes, sir.
    Senator Levin. My time is up.
    Senator Sessions [presiding]. Thank you.
    Senator Levin. I think Senator Nelson on our side is next.
    Senator Sessions. I guess. They gave me a note, said I was 
next, but I think you may be correct.
    I would just say that if he didn't find a witness, it 
wasn't for lack of trying. Mr. Walsh was a tenacious special 
prosecutor that many believe went beyond what was required in 
dealing with some fine American citizens who found themselves 
in a very difficult position.
    I thought of the phrase, recently, somebody said, ``I don't 
know much, but I suspect a lot.'' [Laughter.]
    I think your statement about not being contradicted is an 
important one, and he said that, and he supports your 
nomination. I think that's good.
    Senator Nelson? I've enjoyed serving with Senator Nelson on 
the Strategic Forces Subommittee, and, as my ranking member 
now, I'll be bowing to you. I look forward to serving you, Mr. 
Chairman.
    Senator Bill Nelson. I'll enjoy that bowing. [Laughter.]
    As we discussed yesterday in a private conversation, I 
shared with you what I think has been an excessively partisan 
operation out of the Defense Department, and the lack of shared 
and accurate information having to do with the global war on 
terror. I shared with you specific examples of information that 
I had received that was not correct.
    I think you're going to be a good Secretary. You come to 
the table for all the right reasons, because you don't have to 
do this. I think you're doing it out of a sense of loyalty to 
our country and a sense of patriotism. I think you want to get 
it right. That's how I size you up, Dr. Gates. I just want to 
re-emphasize to you that I don't think that it can be solved 
unless it's done in a bipartisan way and that there is the 
mutual sharing of responsibilities, as envisioned by the 
Constitution, between the executive and the legislative 
branches. So, the example that you set in this position, I 
think, is going to be very important, and I think it's going to 
send some extremely important signals.
    What strategies have you thought about that you might 
implement in the Department to break down the distrust between 
the executive branch and the legislative branch? What have you 
thought about, in ensuring timely and accurate information is 
promptly shared with Congress, and, when necessary, with the 
American people?
    Dr. Gates. Senator Nelson, I haven't really had much 
breathing room to give thought to specific measures along these 
lines. I think coming off of the corporate boards that I've 
served on, if I've learned one thing, it's the importance of 
tone at the top. I think that, first, by the example that I 
set, if I am confirmed, and then by my making clear to the 
people who work for me that I expect the same level of candor 
and forthrightness with Congress, is an important message.
    Further, I would tell you--and this was an arrangement that 
I had with Senator Boren and Senator Cohen when they were chair 
and co-chair of the Intelligence Committee, that if a member of 
this committee believes that someone representing the Defense 
Department has not given forthright testimony, or you have 
questions about the accuracy of the testimony, I would hope 
that you would promptly bring it to my attention. My experience 
in running large organizations is that when the boss is 
unhappy, lots of people get unhappy.
    I think the first step is the tone at the top. It's one of 
the reasons why I wanted to take advantage of today's hearing, 
frankly, to put my views before the committee and the public, 
in terms of the importance of a bipartisan approach, in the 
hope that that message will get through, if I'm confirmed, even 
before I show up.
    Senator Bill Nelson. I can tell you, coming out of this 
election--and I've just been through one, and my State is 
pretty well reflective of the country at large--that not only 
was there the message about Iraq, but there was also the 
message people are tired of this excessive partisanship and 
this partisan bickering. Particularly, as I said this morning, 
I was raised to believe that partisanship stopped at the 
water's edge. So, your comments are refreshing.
    I want to ask you about the Guard and the Reserves. If the 
Army has a new plan to mobilize the Guard and the Reserve every 
5 years, what do you think this kind of mobilization is going 
to have on people reupping in the Guard and the Reserves?
    Dr. Gates. Senator, I know that the Guard and Reserve are 
very important to Members of Congress, and I simply haven't had 
the opportunity to familiarize myself with the Army's new 
policies, in terms of mobilizing the Guard and Reserve. It's 
clearly important. I do have concerns that--and it ties back to 
the discussion we had this morning about the size of the 
regular Army, whether we are asking the Guard and Reserve to do 
things that many of those who joined didn't expect to be part 
of the program. So, clearly one of the number of things we've 
talked about here today that I need to get up to speed on very 
quickly is what the Army's plans are for the Reserve and the 
Guard, and then to have a conversation with some of you up here 
on the Hill and talk about the direction that we're headed.
    Senator Bill Nelson. I would just remind you, as you're 
considering all that, you take an organization like the Florida 
Guard, they were first in Iraq. Their expertise is well known. 
Then, turned around that very next year, we had four major 
hurricanes hit the State of Florida within 6 weeks. Of course, 
the Guard was needed there, too. So, this is something you're 
going to have to consider.
    Mr. Chairman, I have one more question, even though I've 
exceeded my 5-minute time. May I ask this additional question?
    Chairman Warner [presiding]. You may.
    Senator Bill Nelson. Officers in Al Anbar Province have 
stated that they don't have enough troops to defeat the 
insurgency and that the Shiite-dominated central government is 
not providing the ISF with the resources it needs in the Sunni-
dominated Al Anbar Province. Last month, we learned from 
General Abizaid and General Hayden that that province is not 
under control, but that now Baghdad is the focus of an effort, 
and, for Al Anbar, that there are no changes planned, except 
General Abizaid told us that he was going to add one Marine 
expeditionary unit of about 2,200 marines.
    Then yesterday John Negroponte said that Iraq cities are 
less secure, and the enemy harder to identify, and he compared 
it to Vietnam. In fact, he said Baghdad is highly insecure, 
and, he said, ``perhaps one of the most insecure places in the 
country.''
    Two-thirds of our recent casualties have occurred in Al 
Anbar Province. Do you want to opine on any changes in the 
strategy and the troop levels, or is that something you want to 
wait until you get in?
    Dr. Gates. Senator, I think I'd better wait and see, first 
of all, if I'm confirmed. But then, as I've indicated, my hope 
is, if confirmed, to go to the area quite soon. Clearly, what's 
happening in Al Anbar and elsewhere has to be very high on the 
list, in terms of conversations both with General Abizaid and 
General Casey.
    Chairman Warner. I thank you, Senator.
    Senator Bill Nelson. Mr. Chairman, I have one more 
question. I'll just wait.
    Chairman Warner. We really have to move on. You've had a 
good deal of time here to--forgive me for trying to get my 
colleague here to finish up, and then we should conclude this 
part.
    Senator Levin. He has one more question.
    Chairman Warner. Well, no, I think he wanted to wait until 
you took your turn.
    Senator Levin. Okay.
    I just have a few questions, thank you, Mr. Chairman. One 
is on Army readiness levels. The ranking member of the House 
Armed Services Committee, Ike Skelton, asked the Chief of Staff 
of the Army the following question, June 27 ``Are you 
comfortable with the readiness level of the nondeployed units 
that are in the continental United States?'' General Schoomaker 
replied, ``No.''
    Based on the information that you have at this time, are 
you satisfied with the current readiness of our ground forces, 
including those forces that are not currently deployed 
overseas?
    Dr. Gates. Senator, I'm not familiar with the readiness 
state. Clearly, if General Schoomaker thinks that, that's 
probably what I'll think, if I'm confirmed.
    Senator Levin. Okay. There are reports that are required to 
be submitted quarterly to Congress, relative to readiness. The 
last quarterly readiness report was provided to this committee 
7 months ago today. It covered the last half of 2005. None of 
the reports covering calendar year 2005 were actually delivered 
during the years they were supposed to be. The Department now 
is 9 months behind in providing these readiness reports that 
are supposed to be provided quarterly to Congress. We don't 
have any of the three quarters of calendar year 2006 yet. If 
you're confirmed, will you ensure that the Department provides 
the committee with these readiness reports, as required by law?
    Dr. Gates. Yes, sir.
    Senator Levin. I know the Department is represented here 
today, and I'd just like the Department to know that these 
readiness reports, at least one of them, but hopefully two of 
them, will be provided to this committee--and it's up to the 
chairman, but I would hope they would be provided by tomorrow 
night.
    Dr. Gates, relative to North Korea--I don't think you've 
been asked about that, and I want to ask you about North Korea. 
You wrote an article, back in--a long time ago, 1994--about 
dangers posed by North Korea's nuclear weapons. You argued, at 
that time, that steps like phased sanctions and voluntary arms 
trade embargoes would have little or no impact. You write that, 
``The only option now available is to stop its arsenal from 
growing larger,'' and the way to do this was to destroy the 
reprocessing facility. Should we attack North Korea's nuclear 
facilities? Might there be value in high-level bilateral talks 
directly with the North Koreans if our allies, the South 
Koreans and other countries, want us to engage in those high-
level bilateral talks?
    Dr. Gates. First of all, Senator, I've changed my view on 
how to deal with North Korea. I believe that, clearly, at this 
point, the best course is the diplomatic one, and I am 
impressed that, in recent weeks, we seem to have seen the 
Chinese--and certainly the Japanese, but even the Chinese--
begin to take a stronger stand with the North Koreans, and 
people working a little closer with us. So, perhaps the one 
positive piece of news as a result of North Korea's nuclear 
test is that it antagonized the Chinese and got them off the 
dime on the issue.
    I would defer to the Secretary of State on whether 
bilateral direct negotiations with the North Koreans would be 
productive. I think we've talked about that, if I remember 
correctly from the newspapers, in terms of if certain 
conditions were met. But I think, without studying it further 
and without fully understanding or knowing about the various 
aspects of the administration's policy, I'd prefer to take that 
question, sir, and come back to you later.
    [The information referred to follows:]

    The United States is pursuing denuclearization of the Korean 
Peninsula through diplomacy. We are working closely with our allies, 
South Korea, and Japan, with our Six-Party Talks partners, and with the 
broader international community to urge North Korea to live up to its 
agreements as codified in the September 19, 2005, Joint Statement of 
the Six-Party Talks. Our diplomacy has also included numerous bilateral 
meetings with the North Koreans, within the context of the Six-Party 
Talks, as well as vigorous efforts in the United Nations Security 
Council. At this point, I continue to believe that these diplomatic 
efforts constitute the best way to denuclearize the Korean Peninsula.
    We believe that there has been ample opportunity for discussion in 
the Six-Party Talks. To date, there have been several extended 
bilateral meetings between the United States and North Korea. We expect 
that this pattern and opportunities will continue.
    The United States and other countries involved in these discussions 
have made clear to the Democratic People's Republic of Korea (DPRK) the 
substantial benefits that await the people of North Korea through 
denuclearization. However, it is not clear that the DPRK leadership has 
made the strategic decision to denuclearize. The DPRK may judge that 
possession of nuclear weapons is a guarantee of regime survival and may 
be engaging in nuclear negotiations simply to exact concessions. The 
burden of proof whether the DPRK is willing to pursue the opportunities 
that denuclearization will bring about lies with the DPRK.

    Chairman Warner. Thank you very much, Senator.
    Senator Sessions, you have but one question?
    Senator Sessions. Yes, I'd like to follow up on one 
question that I think is important, and that's national missile 
defense. The North Koreans launched their missile on July 4. 
The Iranians have also publicly demonstrated their capabilities 
to launch missiles. I think the American people have come to 
realize how vulnerable we can be if we do not have a national 
missile defense system.
    Dr. Gates, having been involved in this discussion for some 
time, I think it's fair to say, at this point, we've reached an 
acquiescence or consensus in the idea that we would field the 
national ground-based missile defense system that would protect 
us from the North Korean launches, for example. We are 
continuing research on other capabilities that could even be 
more effective in the future. We believe that this hit-to-kill 
technology has been proven, and will work, and we continue to 
refine that.
    But I noticed in one of your answers to the written 
questions, you indicated that you'd like to pursue a full 
spectrum of capabilities. I think the reality is, financially, 
that we're probably going to have to make some choices. While 
we can do research, we're only going to be able to deploy one 
system, well, several--the Ground-based Midcourse Defense 
(GMD), the Aegis Ballistic Missile Defense, the Theater High 
Altitude Area Defense, and Patriot systems. Those are all 
proven. They all need to be deployed. I'm afraid we may have 
attempts to reduce funding for GMD or perhaps some of these 
others.
    With regard to our basic national missile defense system, 
the assembly-line production has been reduced to the point that 
any more reduction would really break the assembly line and 
lose all the efficiencies of scale as we seek to complete 50 
launch vehicles. So, I guess what I would say to you is, I'd 
ask you to be alert to that. I think you're going to need to 
defend that budget, because it may sound like it's not too 
significant to take so many million dollars out of that budget 
item, but I'm afraid if we do, it's going to cost us much more 
in the long run by reducing our capability to maintain a 
production line.
    Will you look at that? How do you feel, in general, about 
national missile defense?
    Dr. Gates. Sir, first of all, I would comply with the 
National Missile Defense Act of 1999. That's the law.
    Senator Sessions. Which said that we would deploy a system 
as soon as technically feasible.
    Dr. Gates. Correct. I have felt for a long time that I know 
we've spent a lot of money on developing missile defense, but I 
have believed, since the Reagan administration, that if we can 
develop that kind of a capability it would be a mistake for us 
not to, and especially when we now have several dozen countries 
that either have, or are developing, ballistic missiles. You 
have at least two or three that are developing longer-range 
missiles. I think we also have an obligation to our allies in 
this respect. So, in principle, I'm very strongly in favor.
    Senator Sessions. Thank you.
    Chairman Warner. Thank you, Senator.
    Thank you to all Senators. Just a minute, I'm getting a 
signal.
    Senator Levin. Let me just add one quick comment.
    Chairman Warner. All right.
    Senator Levin. That is, Senator Nelson reminds me that the 
Missile Defense Act of 1999 talks about an effective missile 
defense system. I assume that you would support a system, if it 
can be an effective system, number one. Is that accurate?
    Dr. Gates. Yes, sir. Although I would say that I think that 
we have deployed systems that were less than perfect in the 
past--the Predators, the Joint Surveillance and Target Attack 
Radar System (JSTARS), and some others--and improved them after 
the initial deployment had begun. I guess my instinct--and I'd 
certainly be willing to hear a different point of view--but my 
instinct would be that, if we have something that has some 
capability, it's better than having no capability.
    Senator Levin. Finally, on that point--and we will give you 
the other point of view on that, to make sure that it is 
effective and there are differences between JSTARS and 
Predator. There are significant differences. But do you support 
realistic operational test and evaluation of those systems as 
we go along, before we deploy systems which might not be 
effective?
    Dr. Gates. Yes, sir.
    Senator Levin. Thank you.
    Chairman Warner. This committee will now resume its hearing 
in executive session, in S-407 of the Capitol. I presume it'll 
take us about 15 minutes to get over there, so the meeting will 
start, hopefully, at 4 o'clock.
    Thank you. We are adjourned.
    [Whereupon, at 3:44 p.m., the committee adjourned.]

    [Prepared questions submitted to Robert M. Gates by 
Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses
                            defense reforms
    Question. The Goldwater-Nichols Department of Defense (DOD) 
Reorganization Act of 1986 and the Special Operations reforms have 
strengthened the warfighting readiness of our Armed Forces. They have 
enhanced civilian control and clearly delineated the operational chain 
of command and the responsibilities and authorities of the combatant 
commanders, and the role of the Chairman of the Joint Chiefs of Staff. 
They have also clarified the responsibility of the military departments 
to recruit, organize, train, equip, and maintain forces for assignment 
to the combatant commanders.
    Do you see the need for modifications of any Goldwater-Nichols Act 
provisions?
    If so, what areas do you believe might be appropriate to address in 
these modifications?
    Answer. It has been 20 years since this landmark legislation 
prepared the Department for the post-Cold War era. At this time, I do 
not know of a particular area that requires change but, if confirmed, I 
will bring an open mind to this issue and will work with the committee 
on this very important topic.
                   duties of the secretary of defense
    Question. Section 113 of title 10, U.S.C., provides that the 
Secretary of Defense is the principal assistant to the President in all 
matters relating to the DOD. Subject to the direction of the President, 
and the law, the Secretary of Defense, under section 113, has 
authority, direction, and control over the DOD.
    Do you believe there are actions you need to take to enhance your 
ability to perform the duties of the Secretary of Defense?
    What changes to section 113, if any, would you recommend?
    Answer. Current statutory authorities for the Office of the 
Secretary of Defense appear to be sufficiently clear and appropriate 
for the proper execution of duties. However, I will not be able to make 
a complete determination on this position until, if I am confirmed, I 
have served as Secretary of Defense.
                            chain of command
    Question. Section 162(b) of title 10, U.S.C., provides that the 
chain of command runs from the President to the Secretary of Defense 
and from the Secretary of Defense to the combatant commands. Section 
163(a) of title 10 further provides that the President may direct 
communications to combatant commanders be transmitted through the 
Chairman of the Joint Chiefs of Staff and may assign duties to the 
Chairman to assist the President and the Secretary of Defense in 
performing their command function.
    Do you believe that these provisions facilitate a clear and 
effective chain of command?
    Answer. Based on my understanding of the existing authority, I 
believe there is sufficient clarity in authority in current law to 
facilitate a clear and effective chain of command.
    Question. In your view, do these provisions enhance or degrade 
civilian control of the military? I believe they should enhance it but 
will have to withhold final judgment until, if confirmed, I have the 
chance to operate within this chain of command.
       advice of the service chiefs and the combatant commanders
    Question. Section 151 of title 10, U.S.C., provides, in part, that 
the Chairman of the Joint Chiefs of Staff is the principal military 
adviser to the President, the National Security Council, and the 
Secretary of Defense and that if any member of the Joint Chiefs submits 
to the Chairman advice or an opinion, in disagreement with, or advice 
or an opinion in addition to, the advice presented by the Chairman, the 
Chairman shall present that advice or opinion at the same time he 
provides his own advice to the President, the National Security 
Council, and the Secretary of Defense.
    Section 163 of title 10, U.S.C., provides that the Chairman of the 
Joint Chiefs of Staff serves as the spokesman for the combatant 
commanders, especially on the operational requirements of their 
commands.
    What changes in law, if any, do you think may be necessary to 
ensure that the views of the individual Service Chiefs and of the 
combatant commanders are presented and considered?
    Answer. At this time, I do not recommend any changes to the law.
    If confirmed, and after I have been in office for a sufficient time 
to determine if changes are advisable, I will recommend changes as 
appropriate or necessary.
                 goldwater-nichols for the interagency
    Question. For more than 2 years, General Pace has been calling for 
a Goldwater-Nichols Act for the entire Federal Government. He argues 
that the U.S. and allied militaries can prevail on the battlefield but 
that the global war on terror requires a concerted effort by a host of 
U.S. agencies. According to General Pace's proposal, a lead agency 
would be selected and several other agencies would be subordinated to 
and subject to the direction of the head of the lead agency.
    What are your views on the merits of General Pace's proposal?
    Answer. The 1986 Goldwater-Nichols Act led to greater jointness and 
interdependence among the military Services. The impact has been 
significant and lasting on DOD. Fighting the global war on terror 
requires that all instruments of national power are brought to bear on 
the task at hand. Drawing on my experience of 9 years of service on the 
National Security Council--and under four Presidents--I believe that 
any steps that can be taken to improve and strengthen interagency 
cooperation and collaboration would be worthwhile. If confirmed, I look 
forward to working with the President, Cabinet colleagues, and Congress 
on this issue.
                   counterintelligence field activity
    Question. DOD has established an organization called the 
Counterintelligence Field Activity (CIFA). CIFA is reportedly charged 
with protecting military facilities and personnel and carrying out 
intelligence collection, analysis, and operations within the United 
States.
    Do you believe that it is appropriate that DOD has such an 
organization?
    Answer. I believe it is appropriate in the current environment that 
DOD be organized and focused in such a way that it gives critical 
attention to counterintelligence and force protection. If confirmed, I 
will take a look at this matter in greater detail.
    Question. What is the appropriate division of functions and 
responsibilities between such a DOD organization and the 
counterintelligence executive within the Intelligence Community?
    Answer. I understand that the National Counterintelligence 
Executive provides strategic guidance, mission management, and 
integration to the National Counterintelligence Community. If 
confirmed, I will work to make sure the Department's activities are 
properly coordinated and synchronized with the rest of the government.
    Question. CIFA is responsible for the TALON data base that was 
found to have inappropriately included information on U.S. persons, 
including reports on peaceful civilian protests and demonstrations 
inside the United States, in contradiction to Executive orders and the 
rules published by DOD.
    What are your views on the steps that should be taken to preclude 
the possibility that CIFA or any other DOD organization deals 
inappropriately with information on U.S. persons?
    Answer. I have not closely studied the allegations concerning CIFA 
and the TALON program. I understand that the Department has conducted 
an internal review of this matter and found procedural weaknesses in 
the program. I further understand that steps are underway to correct 
these deficiencies. If confirmed, I will ensure that all DOD 
activities, including intelligence activities, abide by the law and 
applicable regulations.
        intelligence reform and terrorism protection act of 2004
    Question. The Intelligence Reform and Terrorism Prevention Act 
(IRTA) of 2004, among other actions, realigned the responsibilities for 
budgeting for and management of intelligence organizations between the 
Secretary of Defense and the head of the Intelligence Community, the 
Director of National Intelligence (DNI). You have written in the past 
that you opposed the establishment of a DNI.
    What do you believe is the role of DOD in intelligence under the 
new statute?
    Answer. It is my understanding that the role of the Department was 
not fundamentally changed by this legislation. The Department's focus 
remains on providing critical intelligence support to the warfighter as 
well as supporting the National Intelligence Community in its important 
mission.
    Question. Do you believe that the IRTA strikes the correct balance 
between the duties and responsibilities of the Secretary and the DNI?
    Answer. As you may be aware, I have written on this topic and I 
have opined that early versions of this legislation did not properly 
provide for the proper balancing of authorities and responsibilities 
among the major elements of the Intelligence Community.
    Question. What changes in the IRTA, if any, would you recommend 
that Congress consider?
    Answer. At this point I think it is premature for me to make any 
recommendations or modifications until I see how the program is working 
in actual practice.
    Question. You have also written that ``for the last decade, 
intelligence authority has been quietly leaching from the CIA and to 
the Pentagon, not the other way around.'' You have stated that you and 
other CIA veterans ``are unhappy about the dominance of the Defense 
Department in the intelligence arena.''
    If confirmed, what steps, if any, do you foresee taking to address 
these issues?
    Answer. Clearly, if confirmed, this will be an area that I would 
look into. I do believe that an important factor to take into account 
is the establishment of strong working relationships among leaders of 
the various organizations in question. In this regard, I believe in 
pursuing all opportunities to continue strengthening coordination and 
cooperation.
                         use of military force
    Question. The question as to whether and when U.S. forces should 
participate in potentially dangerous situations is one of the most 
important and difficult decisions that the national command authorities 
have to make. Prior Secretaries of Defense and Chairmen of the Joint 
Chiefs of Staff have proposed criteria to guide decisionmaking for such 
situations.
    What factors would you consider in making recommendations to the 
President on the use of force?
    Answer. The factors that previous Chairmen and Secretaries of 
Defense have put forward remain relevant; for example: the threat to 
our vital interests; the role of non-military means to respond to the 
threat; our capability to defeat that threat and improve our strategic 
situation through the use of military force; and the prospects for 
sustained public support for military action.
    Question. The March 2006 National Security Strategy states, in 
part, that ``If necessary, however, under longstanding principles of 
self defense, we do not rule out the use of force before attacks occur, 
even if uncertainty remains as to the time and place of the enemy's 
attack. When the consequences of an attack with WMD are potentially so 
devastating, we cannot afford to stand idly by as grave dangers 
materialize. This is the principle and logic of preemption. The place 
of preemption in our national security strategy remains the same. We 
will always proceed deliberately, weighing the consequences of our 
actions. The reasons for our actions will be clear, the force measured, 
and the cause just.''
    Given that we now know from the work of the Iraq Survey Group (ISG) 
and the Senate Select Committee on Intelligence (SSCI) that Iraq did 
not possess stockpiles of weapons of mass destruction (WMD) nor any 
active programs to develop them, what degree of certainty do you 
believe is necessary before the United States would use preemptive 
force?
    Answer. I believe the use of preemptive force should be based on 
very strong evidence. It is a decision that must not be taken lightly.
    At the same time, my intelligence background has given me an 
appreciation for the fact that intelligence can be a moving target and 
is often ambiguous.
    I believe that over the years the dedicated men and women in the 
Intelligence Community do their best to get the most reliable 
intelligence possible. Still, we need to be aware of the caveats that 
come with intelligence products. We need to continue to ask the hard 
questions.
         coordination with the department of homeland security
    Question. Since the current Secretary of Defense was confirmed, a 
new Department of Homeland Security (DHS) has been created, and DOD has 
created a new U.S. Northern Command and Assistant Secretary of Defense 
for Homeland Defense. Even so, the Federal, State, and local response 
to Hurricane Katrina demonstrated serious shortcomings at all levels.
    What are your goals, and what is your assessment of the current 
situation, regarding cooperation and coordination between DOD and DHS 
on homeland security matters?
    Answer. I am told that the DOD has established a strong 
relationship with the DHS, although the response to Hurricane Katrina 
does show that there is room for improvement.

        <bullet> I believe DOD and DHS have a common goal: the 
        protection of the United States.
        <bullet> If confirmed, I will work closely with DHS and other 
        Federal departments and agencies to prepare for and respond to 
        threats to the U.S. homeland.
                               priorities
    Question. If confirmed, you will confront a range of critical 
issues relating to threats to national security and ensuring that the 
Armed Forces are prepared to deal with these threats.
    What broad priorities would you establish, if confirmed, with 
respect to issues which must be addressed by DOD?
    Answer. The Department's current priorities appear to cover three 
areas:

          (1) Iraq and winning the long war against violent extremism;
          (2) Supporting the Department's military and civilian 
        personnel; and
          (3) Continuing the transformation of the U.S. military for 
        21st century challenges.

    If confirmed, I look forward to supporting the President in his 
ongoing review of Iraq policy, working with the members of the ISG 
(i.e., the Baker-Hamilton Commission) and working closely with Members 
of Congress to ensure that we have the most comprehensive approach to 
our strategy in Iraq.
    Clearly, to win the long war, the Department needs to strengthen 
key capabilities such as those for irregular warfare. We must work with 
and through partners across the globe to counter the threat of violent 
extremism.
    Recruiting and retaining the best people, and providing quality 
care for the wounded and their families, also remain at the core of the 
Department's priorities.
    Transforming the Department to better deal with 21st century 
challenges, a major charge from the President, must continue. These 
challenges range from the threat posed by terrorist networks, to WMD in 
the hands of hostile regimes and terrorist networks, to states armed 
with advanced weaponry.
    If I am confirmed, these will be critical priorities for me.
              fiscal year 2008 president's budget request
    Question. Striking the right balance between the requirements for 
the future force and the requirements for current readiness is 
difficult in times of peace, and even more so in times of war.
    How do you propose to establish that balance, to ensure that we 
achieve the needed level of investment in the future force in the face 
of pressing requirements for completing the mission in Iraq and 
Afghanistan, for resetting of the force, and for meeting ongoing 
operational commitments across the globe?
    Answer. From my years of service in the public sector, I recognize 
the importance of balancing immediate and future needs. In national 
security matters, such a balance is essential to keeping America safe 
both today and tomorrow.
    If confirmed, I will work with both the Department's civilian and 
military leaders to strike the right balance.
    Question. If confirmed, one of your first tasks will be to weigh 
the Department's final decisions regarding the President's budget 
request for fiscal year 2008 and make your mark on the Department's 
objectives contained within the fiscal year 2008 budget request.
    What is your plan to formally review the Department's 2008 budget 
request and, as necessary, make those changes required to ensure that 
the budget request fully funds the Department's requirements while 
meeting your objectives for fiscal year 2008 and the future years 
defense plan?
    Answer. I understand that the budget process is near completion. If 
confirmed, I will familiarize myself with the key elements of the 
fiscal year 2008 budget on an urgent basis.
    If, through consultation with the civilian and military leadership 
of the Department and the White House, we conclude that there should be 
revisions to the budget, we will work with Congress toward that end.
                    budgeting for ongoing operations
    Question. What level of resources do you believe the DOD will need 
to meet our national security requirements in fiscal year 2008?
    Answer. In general terms, I believe the Department needs sufficient 
resources to maintain prudent near-term force readiness, fully fund 
wartime needs, and invest adequately in long-term defense capabilities. 
Until and if I am confirmed and fully briefed on the fiscal year 2008 
budget, I am not prepared to comment on the specifics of the budget.
    Question. In the John Warner National Defense Authorization Act for 
Fiscal Year 2007, section 1008, Congress required that the President's 
annual budget submitted to Congress after fiscal year 2007 include a 
request for the funds for ongoing operations in Iraq and Afghanistan 
and an estimate of all funds expected to be required in that fiscal 
year for such operations.
    If confirmed, will you comply with the requirements of this 
provision?
    Answer. Yes.
    Question. What problems, if any, do you anticipate the Department 
will encounter in complying with this budgeting requirement?
    Answer. My understanding is that it is difficult to forecast the 
scope and nature of wartime operations many months ahead of time.
                         army budgeting issues
    Question. In the past several months, press reports have claimed 
that the Pentagon's internal budgetary process has broken down. These 
reports have stated that the Army refused to present their budget 
proposal to the Office of the Secretary of Defense because they felt 
their top-line guidance was too low for their ongoing missions, 
including costs of the war and recapitalization of equipment. These 
reports went on to claim the Secretary of Defense gave the Services 
permission to appeal directly to the President's Office of Management 
and Budget.
    What is your understanding of the current status of the 
Department's budget process, and, if confirmed, how would you plan to 
resolve current challenges?
    Answer. While I am aware of some press reporting on this issue, I 
am not familiar with the particulars.
    If confirmed, I will examine thoroughly questions regarding the 
Department's budget process.
    Question. Do you believe the DOD and the military departments can 
and should resolve these issues using the normal budget process, or do 
we need changes in the budget process?
    Answer. As a general matter, I believe the Department should 
utilize the established budget process. Again, if confirmed, I will 
examine thoroughly questions regarding the Department's budget process.
                             transformation
    Question. In 2001, President Bush called for transformation of the 
Armed Forces directing the Department to ``discard Cold War relics'' 
and plan to meet current and future threats.
    How would you assess the progress that has been made since 2001 in 
achieving the President's goal of transforming DOD?
    If confirmed, what would you plan to do to ensure that the 
transformation goals are achieved?
    Answer. If confirmed, I will build upon the President's commitment 
to transform our forces to better fit the 21st century. Transformation 
holds the promise to ensure that our military forces are more agile and 
lethal when confronting the enemies of this new century.
    While I need to learn more about the details, I am also committed 
to the continuing changes in the business process that the Department 
has implemented to support that force.
    If confirmed, I will become more familiar with ongoing 
transformation activities and, in consultation with the civilian and 
military leadership and Congress, direct any necessary changes when and 
where I think it's prudent to do so.
  reorganization of the office of the under secretary of defense for 
                                 policy
    Question. A reorganization of the Office of the Under Secretary of 
Defense for Policy (OUSD(P)) is currently underway. In the John Warner 
National Defense Authorization Act for Fiscal Year 2007, an additional 
Assistant Secretary of Defense position was authorized to support the 
reorganization, however, the conferees expressed various concerns about 
the proposed reorganization that must be responded to in a report from 
the Department by February 1, 2007.
    What is your understanding of the purpose, parameters, and status 
of the OUSD(P) reorganization?
    Answer. I am told that the reorganization of the Department's 
Policy Office is grounded in lessons learned during the QDR, which 
calls on the Department to transform its civilian capabilities just as 
military capabilities are undergoing transformation.
    Question. What is your assessment of the concerns expressed by the 
conferees regarding the reorganization?
    Answer. I understand that the Department will formally respond to 
these concerns in a February 1 report to Congress.
    Question. If confirmed, would you continue the planned 
reorganization or defer any reorganization pending your own inputs?
    Answer. If confirmed, I am inclined to continue the Policy Office 
reorganization effort, but plan to review this proposal and will be 
prepared to engage the committee in a more detailed discussion at that 
time.
                         operation desert storm
    Question. Do you believe it was a mistake not to seize Baghdad in 
1991 during Operation Desert Storm?
    Answer. I do not believe we were mistaken when we decided not to 
expand and extend military operations to seize Baghdad in 1991.
    At the time, the United States and the coalition had achieved our 
strategic objectives of ejecting Iraqi forces from Kuwait and eroding 
Saddam's threat to the region.

        <bullet> Seizing Baghdad was not part of that campaign plan.
        <bullet> The coalition would have shattered if it had been 
        tasked with an invasion or occupation of Iraq.
        <bullet> The coalition had not planned for, or resourced for, 
        military operations to occupy Iraq.
        <bullet> By extending the ground war into Baghdad, we would 
        have violated longstanding principles not to change military 
        objectives mid-stream and engage in ``mission creep.''
                            strategy in iraq
    Question. Do you agree that there is no purely military solution to 
the Iraq situation?
    Answer. Yes, there is no purely military solution in Iraq. The U.S. 
strategy in Iraq depends on political and economic efforts, as much as 
military, though the military component remains critical to success 
there.
    According to the President, the military aspect of the U.S. 
strategy continues to be to help develop self-reliance among Iraqi 
security forces, neutralizing the insurgency, and defeating the 
terrorists. While significant work remains to be done in a difficult 
environment, the Iraqi security forces have made great strides.
    Security progress in many ways is contingent on political and 
economic progress, which will continue to require the full commitment 
of the other departments of the U.S. Government, Iraq's regional 
neighbors, and the international community.
    Question. Do you believe that all options should be on the table 
for changing the current course in Iraq?
    Answer. In principle, all options should be on the table. If 
confirmed, I will seek the advice of the military leadership, consult 
with the President, and consult with Congress in order to implement the 
best strategy with regard to Iraq.
                          iraq lessons learned
    Question. What do you believe to be the major lessons learned from 
the Iraq invasion and the ongoing effort to stabilize the country?
    Answer. I agreed with President Bush's decision to go into Iraq. 
Our men and women in uniform and our coalition partners have served 
admirably there, and, if confirmed, I look forward to working with them 
on a daily basis to help make the future better for the Iraqi people.
    There is no question that Saddam Hussein's regime was a dangerous 
and disruptive force in the region. By the late 1990s, it was clear 
that his dictatorial regime needed to be removed from power. The Oil-
for-Food program was a failure. Saddam's continual defiance of the 
international community was unacceptable.
    In 2002, I supported U.N. Resolution 1441, which called for 
immediate and complete disarmament of Iraq's illegal weapons in order 
to give inspections another chance. Again, Saddam thumbed his nose at 
the international community. I believed that he possessed WMD or the 
capacity for building WMD, and that with the collapse of sanctions he 
would aggressively pursue an effort to increase his WMD capability.
    I believe that leaving Iraq in chaos would have dangerous 
consequences both in the region and globally for many years to come.
    Question. In that regard, what would you have done differently had 
you been Secretary of Defense over the last 6 years?
    Answer. War planning should be done with the understanding that the 
post-major combat phase of operations can be crucial. If confirmed, I 
intend to improve the Department's capabilities in this regard. I 
understand this area has been a major focus of the Department through 
the QDR and if confirmed, I would continue to make this a priority.
    With the advantages of hindsight, I might have done some things 
differently. With the same hindsight, I imagine others in the 
administration would also have done things differently.
    I understand the Department has collected information on lessons 
learned, and if confirmed, I will review that information in detail.
                          pre-war intelligence
    Question. In 1989, you wrote: ``Policymakers usually learn the hard 
way that, although intelligence can tell them a great deal, it only 
rarely . . . provides the kind of unambiguous and timely information 
that can make day-to-day decisions simpler and less risky. Intelligence 
officers occasionally encourage such exaggerated expectations by 
pretending a confidence in their judgments they cannot reasonably 
justify and by failing to be candid about the quality and reliability 
of their information and the possibility of other outcomes.''
    What is your personal assessment of the pre-war intelligence on WMD 
in Iraq and the use of that intelligence by policymakers?
    What lessons do you believe we should draw from this history when 
we contemplate future conflicts?
    Answer. For intelligence, the lessons learned are about the need 
for an all-source intelligence approach that will give the Intelligence 
Community the greatest opportunity for successful collection and 
analysis and also minimize our adversaries' capability to deny and 
deceive us.
    It also, once again, emphasizes the need for good analytic 
tradecraft that carefully vets sources, questions assumptions, clearly 
represents facts, and looks at alternative explanations in order fight 
a tendency to fall into group think.
    Policymakers also recognize that intelligence cannot operate with 
the same standards of evidence used in U.S. courts, especially against 
hard targets such as Iraq. The intelligence collected against such 
targets is often episodic and contradictory.
    Through the combination of all-source collection and strong 
tradecraft, the Intelligence Community can develop intelligence 
assessments which can best inform policymakers in the often difficult 
choices confronting them. Still, the community ought not exaggerate its 
capabilities or minimize the uncertainty that plagues assessments on 
such hard targets.
    There are lessons learned in several respects:

        <bullet> The need for high-quality collection capabilities, 
        both human and technical.
        <bullet> The need for experienced and skilled analytical 
        capabilities.
        <bullet> The importance of intelligence analysts being 
        forthright about the quality of their information and the 
        reliability of their judgments.
        <bullet> The enduring need for decisionmakers to ask tough 
        questions on intelligence.
        <bullet> The importance of not offering single outcome 
        forecasts, which have contributed to past intelligence 
        failures.
                                 china
    Question. China is viewed by some in the United States as a 
potential threat and by others as a potential constructive 
international partner that should be welcomed and integrated into the 
international economic and political community.
    To what extent do you believe the policies and actions of the 
United States and other major regional and international actors will 
affect the direction in which China develops, and the extent to which 
it becomes a cooperative partner or a competitor of the United States?
    Answer. As I see it, the United States, in concert with our allies 
and partners, can create a regional infrastructure to expand those 
areas where our interests converge with China's, while discouraging 
China's activities of concern. China's improved behavior on 
proliferation, increased transparency, and cooperative approach to the 
North Korean nuclear question is welcome.
    Question. What do you believe are China's political-military 
objectives regarding Taiwan, the Asia-Pacific region, and globally?
    Answer. I believe China seeks to integrate Taiwan peacefully, if 
possible. That is their policy but their capabilities suggest they are 
prepared to consider the use of force if peaceful efforts fail.
    Beyond Taiwan, China aspires to be the preeminent power in Asia. 
Beijing is expanding its political and economic influence in the region 
and generating options for military coercion.
    Question. What do you believe are the objectives of China's 
military modernization program (including its nuclear weapons program)?
    Answer. It appears to me that China is building capabilities to 
fight short duration, high-intensity conflict on its periphery. Its 
near-term focus is on generating sufficient combat power to rapidly 
erode Taiwan's will to resist and to deter or deny effective 
intervention in a cross-Strait conflict.
    China is also strengthening its deterrent posture through 
modernization of its strategic forces. Its ``no first use'' policy 
appears intact, but the shift to survivable, mobile nuclear forces 
gives China's leaders new options for coercion or first use in crises.
    Question. How do you believe the United States should respond to 
China's military modernization program?
    Answer. Our strategy must be designed to preserve peace and 
stability in the region. It must be flexible and supported by continued 
transformation of the U.S. military in Asia, maintenance of our global 
presence and access, and strengthened alliances and partnerships.
    We should monitor closely the growth of China's military 
capabilities, while continuing to press Beijing for greater 
transparency. In accordance with the Taiwan Relations Act, we should 
maintain our capabilities to resist China's use of force or coercion 
against Taiwan and assist Taipei in maintaining its self-defense.
    Question. U.S-China military-to-military relations have been modest 
over the past 6 years, however the Commander, U.S. Pacific Command, has 
recently taken steps to reinvigorate this relationship.
    Do you believe that we should make any changes in the quality or 
quantity of our military relations with China? If so, what changes and 
why?
    Answer. I believe that expanded military exchanges with China can 
be valuable but should be based on China's willingness to reciprocate.
                              north korea
    Question. North Korea represents one of the greatest near term 
threats to U.S. national security interests in Asia.
    What is your assessment of the current security situation on the 
Korean peninsula and the diplomatic efforts to date to persuade North 
Korea to verifiably dismantle its nuclear weapons program?
    Answer. North Korea's large, albeit aging, conventional capability 
and its pursuit of asymmetric capabilities in the form of WMD and 
missile delivery systems present a significant challenge to the United 
States, our allies, the region, and the international community.
    I understand the U.S. strategy remains centered on maintaining 
peace through deterrence and diplomacy. Our Republic of Korea (ROK) and 
Japan alliances remain strong, and the combined capabilities of the ROK 
and U.S. remain ready. Our growing missile defense relationship with 
Japan is an important contribution to our deterrent posture.
    I am told the United States is working closely with our allies, our 
Six-Party Talks partners, and the international community to persuade 
North Korea to live up to its agreements as codified in the September 
19, 2005 joint statement.
    Question. What is your assessment of the threat posed to the United 
States and its allies by North Korea's ballistic missile and WMD 
capabilities and the export of those capabilities?
    Answer. North Korea's continuing pursuit of asymmetric capabilities 
in the form of WMD and missile delivery systems presents a significant 
security challenge to the United States, our allies, the region, and 
the international community. The potential for North Korean 
proliferation of nuclear weapons, technology, and fissile material is a 
major concern and a threat that must be addressed.
    President Bush stated clearly in Singapore on 16 November, the 
United States will hold Pyongyang accountable for any transfer of 
nuclear weapons, related technology, or fissile material to state or 
non-state actors.
    Question. In your view, what should be done to strengthen 
deterrence on the Korean peninsula?
    Answer. The true lynchpin to our deterrence is the strength and 
viability of our alliances. We must continue to evolve our 
relationships with both the ROK and Japan to ensure their long-term 
political sustainability and to ensure that the DPRK never doubts our 
resolve to meet our treaty commitments.
    The extended deterrence offered by U.S. nuclear forces to our 
allies must remain a viable component of our strategy both to deter 
aggression in Northeast Asia and to prevent the further spread of 
nuclear weapons globally.
                        republic of south korea
    Question. Since the end of World War II, the alliance between the 
United States and the ROK has been a key pillar of security in the Asia 
Pacific region. This relationship has gone through periods of 
inevitable change.
    What is your understanding of the current U.S. security 
relationship with the ROK?
    Answer. In my view, the U.S.-ROK alliance remains strong and 
viable. Both the United States and ROK are looking to evolve a more 
equal military partnership.
    Question. If confirmed, what measures, if any, would you take to 
improve the U.S.-ROK security relationship?
    Answer. As I understand it, the DOD has been working closely with 
the ROK to realign U.S. forces on the Peninsula.
    The Department is, for example, repositioning U.S. forces to bases 
south of Seoul. This will make the U.S. presence less intrusive on the 
Korean people, remove U.S. forces from the center of Seoul, and result 
in a U.S. force posture that enhances U.S. forces' readiness and 
quality of life.
    Question. What is your view regarding the timing of turning over 
wartime operational command to the ROK?
    Answer. I understand that the United States and ROK have agreed on 
a timeframe for the transfer of wartime operational control. If 
confirmed, I will continue to work with my ROK counterpart to complete 
this process.
                              afghanistan
    Question. What is your assessment of the situation in Afghanistan?
    Answer. Developments in Afghanistan are a concern. There are 
positive trends, such as the International Security and Assistance 
Force (ISAF) completing its expansion and the transition to North 
Atlantic Treaty Organization (NATO) command of the counterinsurgency 
mission.
    But there clearly is a resurgence of the Taliban in certain areas 
of the country. This changing security situation must remain a high 
priority of the United States. In my opinion, we must avoid repeating 
the mistakes of the late 1980s when in retrospect we neglected 
Afghanistan after the Soviet withdrawal.
    Question. What more do you think the United States should be doing 
in support of the Karzai government and ongoing efforts to improve 
security and development in order to stabilize Afghanistan?''
    Answer. I believe that this is an important moment in Afghanistan--
additional investment in extending governance can build on the current 
momentum.
    The United States should continue to develop the Afghan National 
Security Forces to ensure we have capable and an independent Afghan 
National Army and Police that increasingly will take responsibility for 
the security and stability of Afghanistan.
    The United States should also help the government of Afghanistan 
to: extend the rule of law to remote areas; provide economic 
development that will provide people alternatives to opium production 
and the Taliban; and address corruption to ensure a stable state that 
enjoys popular support.
    If confirmed, I will make our continued success in Afghanistan a 
significant priority.
          national limits on use of nato forces in afghanistan
    Question. NATO Secretary General de Hoop Scheffer has repeatedly 
called on NATO members to remove caveats that individual nations have 
placed on the movement and use of forces deployed as part of the NATO-
led ISAF in Afghanistan. For example, in mid-November, German 
Chancellor Merkel ruled out deploying Germany's 2,800 troops to 
southern Afghanistan, saying she would not change the German 
Parliament's requirement that its troops be based in northern 
Afghanistan.
    Have national caveats imposed by certain NATO members on the use of 
their troops reduced ISAF's ability to carry out its mission in 
Afghanistan, in particular to counter the Taliban insurgency in the 
south?
    Answer. I have obviously not been involved with this issue first 
hand. However, it appears to me that caveats imposed by member 
countries restrict the flexibility of NATO commanders to carry out 
missions, and complicate staff planning. Caveats require allies without 
caveats to take up a greater share of the common burden. To the best of 
my knowledge they have not to date, however, led to the failure of any 
mission.
    Question. Are you concerned that as a result of these caveats, 
other NATO members--the Canadian, British, and Dutch troops--are having 
to bear the brunt of the fighting in southern Afghanistan?
    Answer. Yes. I believe it is a concern and one that requires we 
continue to work on with NATO Supreme Command and other NATO allies.
    I am told that the Romanians, Danes, Australians, Estonians, and 
our own U.S. forces have been fighting side by side with the British, 
Dutch, and Canadians since assumption of NATO command in the south this 
past summer.
    Question. What do you believe should be done to induce NATO members 
to remove those national caveats, and to provide additional troops and 
equipment should they be needed?
    Answer. As I understand it, caveats have always existed in NATO 
operations, such as in Bosnia and Kosovo. We need to bear in mind that 
some caveats reflect legal or political requirements and will require a 
prolonged, long-term effort to modify. We must, however, work closely 
with NATO and our allies to do just that.
                        strategy in afghanistan
    Question. The Secretary General of NATO, Jaap de Hoop Scheffer, 
stated in early January that ``There is no military solution'' in 
Afghanistan, and called instead for an expanded development and nation-
building effort in the country.
    Do you agree with Secretary General de Hoop Scheffer that it is not 
possible to win in Afghanistan ``by military means alone?''
    Answer. I agree with Secretary General de Hoop Scheffer that 
Afghanistan cannot be won by military means alone.
    The fight in Afghanistan requires defeating the Taliban, but also 
requires assisting the country in developing into a moderate, stable, 
representative democracy and a partner in the global war on terror.
    Afghanistan has suffered through war for the last 30 years. In 
addition to the millions of lives and billions of dollars lost in the 
conflict, this turbulent period severely damaged the basic fabric of a 
functioning society.
    Success will require demonstrating to the Afghan people that the 
elected government can deliver not only security, but improved quality 
of life.
             afghanistan--force size and command structure
    Question. In September, General Jones called for an additional 
2,000-2,500 troops and additional transport helicopters to bolster the 
NATO effort in southern Afghanistan.
    If you determine those requirement are valid, what do you believe 
can and should be done to induce NATO members to provide the additional 
troops and helicopters that General Jones has called for?
    Answer. In my view, we need to continue to push allies at every 
opportunity and at all levels, as General Jones has done, to contribute 
the forces required for the mission in Afghanistan.
    I am concerned about the limitations that some NATO countries have 
placed upon the operations of their forces in Afghanistan. We need to 
keep working with NATO and our allies to limit the national caveats 
that some have placed on the use of their troops.
    Success in Afghanistan is vital to security in the region--not only 
to NATO as an alliance, but to the strategic interests of each NATO 
member state.
    Question. Do you believe other changes will be needed to support 
the U.S. and NATO mission in Afghanistan? For example, do you advocate 
transferring responsibility for operations and intelligence relating to 
Afghanistan to the European Command? Would you advocate greater 
intelligence-sharing with NATO in Afghanistan?
    Answer. It is my understanding that the Commanders of U.S. Central 
and U.S. European Command, together with General Pace, have prepared a 
transition plan to ensure that we have the right command and control 
relationships in place in Afghanistan to support both the ISAF and our 
Operation Enduring Freedom missions. Intelligence is obviously a topic 
of significant interest to me. The operational needs in Afghanistan 
require a strong intelligence-sharing relationship with NATO. If 
confirmed, I will work to ensure an effective intelligence-sharing 
relationship with Afghans as well.
                      afghanistan--reconstruction
    Question. What is your assessment of the relationship between 
reconstruction and development in Afghanistan and achieving the U.S. 
objective of a stable, self-governing democratic Afghanistan?
    Answer. In my view, Afghan reconstruction and development are 
critical to achieving our objectives.
    The United States needs to do better in ensuring that economic 
development follows military activity. The fight in Afghanistan 
requires defeating the Taliban resurgence, but also requires assisting 
the country in developing into a moderate, stable, representative 
democracy and a partner in the global war on terror.
    The United States also needs to help the government of Afghanistan 
to: extend the rule of law to remote areas; provide economic 
development that will provide people alternatives to opium production 
and the Taliban; and address corruption to ensure a stable state that 
enjoys popular support.
    Question. What is your assessment of international and U.S. 
counterdrug efforts in Afghanistan? Do you believe that NATO and the 
United States military are doing enough to help the Afghan government 
to tackle this problem? If not, what do you believe we should do?
    Answer. The narcotics trade is a major challenge for Afghanistan--
it fuels corruption, drives a wedge between the government and Afghan 
poppy growers, and provides funds for the Taliban and certain criminal 
elements that are a threat to stability.
    The United States needs to continue to work with the Government of 
Afghanistan, our allies, and the international community to address 
this long-term challenge.
    The United States also needs to continue to build the 
counternarcotics capacity of the Government of Afghanistan.
                                  iran
    Question. You co-chaired a task force of the Council on Foreign 
Relations that concluded that ``it is in the interests of the United 
States to engage selectively with Iran to promote regional stability, 
dissuade Iran from pursuing nuclear weapons, preserve reliable energy 
supplies, reduce the threat of terror, and address the `democracy 
deficit' that pervades the Middle East as a whole.''
    Do you believe it would be in the United States' interest to engage 
Iran in a direct dialogue regarding stability and security in Iraq?
    Answer. While the study I co-directed with Dr. Brzezinski in 2004 
was a serious effort to assess policy options for Iran, there have been 
several important developments since that time.

        <bullet> President Ahmadinejad was elected,
        <bullet> The United States has offered to engage in direct 
        talks on the nuclear issue if Iran suspends its enrichment 
        program,
        <bullet> Iran has played an increasingly disruptive role in 
        Iraq and more broadly in the region, including its support for 
        Hizballah in last summer's warfare in Lebanon.

    In addition, I am mindful that it is one thing to direct a study as 
a private citizen and another to serve as a senior policymaker in the 
administration. In general, I believe no option that could potentially 
benefit U.S. policy should be off the table. Even in the worst days of 
the Cold War, the United States maintained a dialogue with the Soviet 
Union and China and I believe those channels of communication helped us 
manage many potentially difficult situations. Engagement with Iran 
might well come as part of an international conference.
    Question. What more do you believe the United States and the 
international community could be doing to dissuade Iran from pursuing a 
nuclear weapons program?
    Answer. The United States has been fully committed to working with 
the international community to find a diplomatic solution to Tehran's 
nuclear weapons ambitions. The State Department properly has the lead 
in these diplomatic and non-military means of dissuading Iran's nuclear 
ambitions, and if confirmed, I plan to review the situation and make 
recommendations to my colleagues, other national security agencies in 
the government, and the President.
                                 syria
    Question. Do you believe it would be in the United States' interest 
to engage Syria in a direct dialogue regarding stability and security 
in Iraq?
    Answer. Our approach to Syria needs to be tied to our overall 
approach to Iraq. As we review our approach to Iraq, all options should 
be on the table. On several occasions in recent years, the United 
States has urged Syria to change its unhelpful behavior.
    Our engagement with Syria need not be unilateral. It could, for 
instance, take the form of Syrian participation in a regional 
conference.
                                 kosovo
    Question. Nearly 16,000 NATO troops currently participate in the 
Kosovo Force (KFOR) providing security and stabilization assistance.
    What do you anticipate will be the role and requirements for KFOR, 
and for U.S. forces in particular, after the conclusion of Serbian 
general elections in January 2007 and after the decision by the Contact 
Group of six major powers regarding the final status for Kosovo has 
been announced?
    Answer. As President Bush said in July 2001, the United States went 
into the Balkans as a member of the alliance and we will leave with the 
alliance; however, we want to hasten the day when we can conclude our 
extraordinary deployments there.
    I am aware there is a U.N. Secretary General-sponsored process 
looking at the U.N. Kosovo progress and until that has run its course 
it would be inappropriate for me to speculate on the possible new roles 
or functions for the U.S. forces in Kosovo.
                                 turkey
    Question. In June 2006, the Council on Foreign Relations issued a 
report on Turkey recommending that the United States and Turkey engage 
in a dialogue on the future of Iraq; that the United States initiate a 
diplomatic approach encouraging Europe to agree to Turkish accession to 
the European Union (EU); and that a high-level U.S.-Turkish commission 
be established to provide a structured mechanism for regular 
interaction across agencies of government, nongovernmental 
organizations, and the private sector.
    Do you agree with the recommendations of the Council's report?
    Answer. My general view is that Turkey's role as a NATO ally and as 
an important player in the Middle East and Central Asia has long been 
underappreciated by too many apart from the United States and the 
United Kingdom. I understand actions to implement many of the 
recommendations have been underway for some time.
    Question. If confirmed, what initiatives would you anticipate 
taking to promote stronger U.S.-Turkish military relations?
    Answer. Historically, our military relationship has provided a 
strong foundation for the broader relationship. The relationship 
remains solid, but the United States and Turkey have much work to do in 
dealing with the challenges of the new security environment.
    I also believe that support for General Joe Ralston's efforts as 
the Special Envoy for Countering the PKK will continue to be critically 
important.
    Question. What do you believe the Government of Turkey should do, 
if anything, to improve its relationship with the United States 
following their refusal to permit military forces to transit Turkey in 
preparation for the war in 2003?
    Answer. Turkey remains an important ally of the United States and 
continues to be an important partner in the global war on terror 
through its significant support in Afghanistan, strong contributions to 
NATO, and support for operations at Incirlik Air Base.
    Turkey also remains an important regional power. Turkey can play a 
constructive role with its neighbors; specifically supporting the 
permanent five members of the U.N. Security Council on Iran, supporting 
the Government in Iraq, and holding Syria accountable.
                                 africa
    Question. In 2004, the DOD conducted a review of the Unified 
Command Plan. While the Department reviewed the command structure in 
Africa, it did not approve establishing a separate command or 
realigning the existing command structure. Under the existing command 
structure, EUCOM, CENTCOM, and PACOM have responsibilities for Africa.
    What is your view on the present command structure in Africa?
    Answer. I believe that changes in the security environment suggest 
that now is a good time to examine how we deal with Africa.
    My understanding is that the Defense Department is considering 
changes to the Unified Command Plan addressing how we approach evolving 
security challenges in Africa.
    Question. What are the significant factors that should be 
considered in determining whether the DOD is properly organized to meet 
its objectives in the region?
    Answer. The threats we face from global terrorist networks 
operating in Africa and security threats from instability, conflict, 
poverty, and disease in Africa are all important factors to consider.
    The DOD needs to be a part of a more comprehensive, political-
military-economic approach to the continent.
                                 darfur
    Question. With agreement in principle on a joint United Nations-
African Union peacekeeping force for Darfur, should U.S. military 
forces be a component of an international peacekeeping force for 
Darfur, and if so, what role should they play?
    Answer. The President has worked with the U.N. Secretary General, 
the NATO Secretary General, and others to highlight the suffering in 
Darfur. The international community needs to meet the challenge 
presented by the situation in Darfur.
    I understand that the United States has provided an appropriate 
contribution to strategic airlift and provided U.S. military advisors 
to the African Union Mission in Sudan as part of previously offered 
NATO assistance.
    Question. What kinds of support do you believe would be appropriate 
for the United States to provide to the joint peacekeeping force for 
Darfur?
    Answer. The United States is already making contributions, and if 
confirmed, I would want to make a more detailed assessment of the 
status of the joint peacekeeping force before making recommendations to 
the President on what appropriate additional U.S. contributions, if 
any, might be made.
                             future of nato
    Question. Outgoing President of the NATO Parliamentary Assembly, 
Pierre Lellouche, in an address to the assembly members recently spoke 
of his concern for the future of the NATO alliance. Mr. Lellouche said, 
``I must admit that I am concerned about the fate of the Atlantic 
Alliance. . . I have my concerns, first of all because our American 
friends and allies do not give me the impression of having truly chosen 
a direction for the future of the alliance.'' Mr. Lellouche said that 
after the September 11 attacks on the World Trade Center, the United 
States had bypassed the alliance during the ``first phase of the war in 
Afghanistan and then Iraq. But I am also concerned about the non-
existence of the famous European pillar of the alliance. Although 
Europe is delighted with its famous European Security and Defense 
Policy (ESDP), in actuality, with the exception of Great Britain and 
France, Europe is in a process of unilateral budgetary disarmament,'' 
he said.
    Do you agree with Mr. Lellouche's observation? What do you believe 
needs to be done to address his concerns?
    Answer. I am quite optimistic about NATO's future, but Mr. 
Lellouche raises a valid concern about the level of effort by allies. 
While the GDP of most allies has grown in recent years, most defense 
budgets are flat or declining, and have been for a long time.
    Question. What are the greatest opportunities and challenges that 
you foresee for NATO over the next 5 years?
    Answer. NATO has the opportunity to complete its transformation 
from a static military alliance, focused solely on territorial defense, 
to an alliance that can deliver security wherever allies' common 
security interests are threatened around the globe.
    NATO's operation in Afghanistan is a step in the right direction. 
However, the need to generate the necessary forces and capabilities has 
been difficult because of budget constraints and a shortage of modern, 
highly capable, interoperable, expeditionary forces.
    Thus a primary challenge will continue to be to get allies to 
devote the resources needed to continue transforming their military 
forces to succeed in expeditionary operations.
    Question. Do you envision further enlargement of NATO within the 
next 5 years?
    Answer. My understanding is NATO's door is open to new members, but 
aspirants must meet NATO's performance-based standards and prepare 
themselves for the responsibilities and obligations of membership.
    Question. What more can the United States do to encourage NATO 
member nations to spend more on defense, transform their militaries, 
acquire advanced capabilities, and enhance their interoperability with 
the United States and other NATO member nations?
    Answer. Transforming allies' forces and funding are among NATO's 
primary challenges.
    The United States can help by working through NATO to address 
today's complex security challenges, and making it clear to allies that 
we expect them to bear an equitable share of the burden.
    Question. In your view, is there a continuing requirement for U.S. 
nuclear weapons to be deployed in NATO countries?
    Answer. I believe that the U.S. nuclear forces committed to NATO 
and based in Europe provide an enduring political and military link 
between the United States and its European allies. They are an 
expression of the common commitment of the Alliance.
                  european security and defense policy
    Question. The EU's ESDP reflects the EU's intention to create a 
capability to conduct military operations in response to international 
crises in cases where ``NATO as a whole is not engaged.'' Many in 
Congress have expressed concern that the ESDP could emerge as a 
competitor, rather than a complement, to the NATO alliance.
    Do you share these concerns about the ESDP?
    Answer. I would support the ESDP, based on the understanding that 
it would:

        <bullet> help build new European capabilities (that are also 
        available to NATO);
        <bullet> conduct operations ``where NATO is not engaged'';
        <bullet> do so in a manner that is cooperative, not competitive 
        or duplicative, with NATO.

    Question. What steps do you believe that the United States and NATO 
members should take to ensure that ESDP is implemented in a way that 
complements and strengthens NATO?
    Answer. The EU capability should remain consistent with NATO's 
ability in order to be interoperable. In addition, the situations in 
the Balkans and Afghanistan offer important opportunities for NATO and 
the EU to cooperate in the Balkans and in Afghanistan.
                           engagement policy
    Question. One of the central pillars of our recent national 
security strategy has been military engagement as a means of building 
relationships around the world. Military-to-military contacts, Joint 
Combined Exchange Training exercises, combatant commander exercises, 
and humanitarian demining operations have been used to achieve this 
goal.
    Do you believe that these activities contribute positively to U.S. 
national security?
    Answer. I agree that military-to-military activities with our 
allies and partners can contribute positively to U.S. national 
security. Such activities can strengthen trust and interoperability, 
and help other nations contribute to coalition operations.
    Such activities should form a key component of our strategy for 
combating violent extremism. We need to work with our partners across 
the globe to counter terrorist groups.
    Question. If confirmed, would you support continued engagement 
activities of the U.S. military?
    Answer. Yes, if confirmed, I would want to continue such 
activities. I would want to ensure that they were focused on our top 
priorities; first and foremost the need to counter violent extremist 
groups across the globe.
    Question. What improvements, if any, would you suggest to the 
interagency process for implementing these authorities?
    Answer. If confirmed, I look forward to working with the Secretary 
of State and others to make such recommendations to the President. I 
would not presume to offer specific suggestions for improving the 
interagency process at this point.
                    stability and support operations
    Question. The U.S. experience in Iraq has underscored the 
importance of planning and training to prepare for the conduct and 
support of stability and support operations in post-conflict 
situations.
    In your view, what are the appropriate roles and responsibilities 
between the DOD and other departments and agencies of the Federal 
Government in the planning and conduct of stability operations?
    Answer. Stability operations clearly are an area of critical 
importance to the challenges the United States will face in the 
international environment.
    Frequently these efforts must be civilian led with the military in 
support. I understand that DOD is currently working with Secretary Rice 
and her colleagues at the Department of State in this regard.
    Question. In developing the capabilities necessary for stability 
operations, what adjustments, if any, should be made to prepare U.S. 
Armed Forces to conduct stability operations without detracting from 
its ability to perform combat missions?
    Answer. I understand there are efforts underway in the Department 
to increase the capability of military Services to conduct stability 
operations. If confirmed, I intend to familiarize myself with these 
efforts and will work with the Service Secretaries and Chiefs to ensure 
appropriate adjustments are made.
    Question. Do you believe that the authorities provided under 
Section 1206 (Building the Capacity of Foreign Military Forces) and 
Section 1207 (Security and Stabilization Assistance) of the National 
Defense Authorization Act for Fiscal Year 2006 contribute to a policy 
of military engagement?
    Answer. I understand the Departments of State and Defense have 
started implementing a new, joint train and equip authority and the 
ability to use DOD funds to help civilians quickly deploy to crises.
    I am told these authorities allow the U.S. Government to move more 
rapidly in response to changing security needs and feature appropriate 
interagency development, review, and implementation.
    Question. Do you believe that the U.S. Government needs to 
establish new organizations or offices to manage stability operations? 
If so, why?
    Answer. As I stated in a previous answer, this is an important 
interagency issue. The ability to manage stability operations is a 
critical challenge facing the Nation. As for a precise prescriptive 
solution, it is premature for me to comment at this time.
                         interagency operations
    Question. In 2005, President Bush issued a new National Security 
Presidential Directive (NSPD-44) aimed at improving the management of 
interagency efforts concerning reconstruction and stabilization 
assistance. In particular, the directive requires that ``the 
Secretaries of State and Defense integrate stabilization and 
reconstruction contingency plans with military contingency plans when 
relevant and appropriate.''
    What challenges do you foresee in implementing this directive and 
in coordinating stabilization and reconstruction contingency plans with 
military contingency plans?
    My service over nearly 9 years under four Presidents on the 
National Security Council staff taught me well about the importance of 
interagency collaboration and cooperation. The United States clearly 
needs a government-wide approach to the challenges we face today and 
will face in the future. If confirmed, this type of interagency 
collaboration and cooperation will be one of my priorities.
                        special operation forces
    Question. Do you believe that the force size, structure, and budget 
of the Special Operations Command is sufficient, given the current 
roles and missions of Special Operation Forces (SOF)? If not, why, and 
what changes would you make, if confirmed?
    Answer. I understand significant enhancements in special operations 
capabilities have been accomplished over the past 5 years and are 
continuing. If confirmed, I will review these capabilities and plans as 
well as others and make recommendations for any necessary adjustments.
                       russia and nuclear weapons
    Question. Although Russia is no longer considered to pose a near-
term threat to U.S. national security, the fact remains that Russia 
retains a huge nuclear arsenal and inventory of strategic and 
nonstrategic nuclear weapons and nuclear-related materials. The 
Cooperative Threat Reduction (CTR) program has accomplished a great 
deal over the past 15 years to help reduce and safeguard such weapons 
and materials in the former Soviet Union, but Russia has many tactical 
nuclear weapons that pose a security and a proliferation threat. The 
1991 Strategic Arms Reduction Treaty (START), with its strict 
limitations, counting rules, verification, and transparency measures, 
will expire in 2009 unless the parties agree to extend its duration. 
The Moscow Treaty remains in force until 2012, but the ability of the 
United States to verify it, and to monitor the status and development 
of Russian nuclear forces more generally will decrease dramatically 
should START be permitted to expire.
    What is your view of the utility of legally binding, verifiable, 
nuclear arms control agreements with Russia at this stage in the post-
Cold War era?
    Answer. The START was negotiated toward the end of the Cold War, 
and today's circumstances are significantly different. The most 
productive path may be continuing dialogue with Russia on how best to 
continue reducing nuclear weapons and increasing transparency and 
confidence.
    Question. Is it in the U.S. interest to extend the duration of the 
START, or, alternatively, to negotiate a new treaty that will offer 
similar benefits to both parties and further reduce their nuclear 
forces?
    Answer. I believe it remains in our interest to continue improving 
our relationship with the Russian Federation. However, formal 
negotiations for Cold War-style, legally binding arms control 
agreements may not further that relationship.
    The United States may want to look at a variety of confidence-
building and transparency measures regarding our respective strategic 
force postures.
    If confirmed, I will certainly review these matters.
               dod's cooperative threat reduction program
    Question. The CTR program, which is focused primarily on 
eliminating Cold War era WMD in the states of the former Soviet Union, 
has several key objectives that include: (1) eliminating strategic 
nuclear weapons; (2) improving the security and accounting of nuclear 
weapons and weapons-usable fissile material; (3) eliminating and 
preventing the proliferation of biological and chemical weapons and 
capabilities; and (4) encouraging military reductions and reforms to 
reduce proliferation threats.
    In your view, what needs to be done to reduce the proliferation 
threat from the residual Cold War stockpiles of WMD and materials in 
the former Soviet Union?
    Answer. Residual Cold War stockpiles of WMD and related materials 
in the former Soviet Union pose a continuing proliferation threat. 
Where host governments are unable to mitigate this threat, CTR and 
other U.S. programs are able to help, provided the recipients work with 
us cooperatively.
    Question. Are Russia and the former Soviet Union countries making a 
significant contribution to efforts to reduce the proliferation threats 
they inherited?
    Answer. My understanding is that the Russian Federation and other 
former Soviet Union states are making varying contributions to reduce 
the proliferation threats they inherited.
    Question. What needs to be done to enable agreement between Russia 
and the United States on access and liability issues that continue to 
hamper progress on some CTR programs?
    Answer. I am told that the United States and Russia have reached an 
agreement that has resolved a number of these issues for a period of 
time.
    Question. Do you think the CTR program is well-coordinated among 
the U.S. Government agencies that engage in threat reduction efforts in 
Russia, e.g., the DOD, the Department of Energy, and the State 
Department?
    Answer. If confirmed, I will become more familiar where we stand on 
these issues, but at this point I have no knowledge if these activities 
are well-coordinated or not.
    Question. Do you believe there are either geographic or 
programmatic areas where the CTR program should be expanded?
    Answer. I understand the original CTR program has expanded 
mitigation activities outside the former Soviet Union and to other 
activities and generally speaking, I believe these developments move 
the program in the right direction.
                       defense acquisition reform
    Question. The Government Accountability Office (GAO) recently noted 
that the total cost of all major defense acquisition programs for 2006 
is over $1.4 trillion, up from $700 billion in 2001. At the same time 
continuously evolving requirements, unregulated program cost growth 
after initial estimates, and failure to utilize economic purchasing 
options result in fewer, yet more costly, weapon systems available to 
support the warfighter. Despite this trend, the DOD continually seeks 
to place more capability on fewer platforms, further increasing the 
cost of these systems while diminishing their ability to project force 
around the globe.
    What are your views regarding the defense acquisition process and 
the need for reform?
    Answer. Efforts to reform the defense acquisition system must be 
continued on behalf of the military and the American taxpayer. There 
have been many studies and recommendations to improve DOD's acquisition 
processes. I understand that initiatives in this area are underway 
under the auspices of Deputy Secretary of Defense Gordon England. If 
confirmed, I plan to familiarize myself with these efforts and review 
the Department's acquisition processes and outcomes using the 2006 QDR 
section on Reshaping the Defense Enterprise as a starting point.
    Question. If confirmed, how would you improve all three aspects of 
the acquisition process--requirements, acquisition, and budgeting?
    Answer. If confirmed, I plan to review how all three aspects of the 
acquisition process work with each other to identify suitable, 
supportable, timely, and affordable solutions.
    Question. If confirmed, how would you improve acquisition 
accountability?
    Answer. See above response.
    Question. Do you believe that the current investment budget for 
major systems is affordable given increasing historic cost growth in 
major systems, costs of current operations, Army modularization, and 
asset recapitalization?
    Answer. I do not have a detailed understanding at this time of the 
various drivers in the budget. If confirmed, I will address the overall 
Department fiscal year 2008 budget as one of my immediate priorities.
    Question. What would be the impact of a decision by the Department 
to reduce purchases of major systems because of affordability issues?
    Answer. I understand that there are ramifications with every 
acquisition decision. If confirmed, I will work to understand those 
issues including effects of reduced purchases.
    Question. If confirmed, how do you plan to address this issue and 
guard against the potential impact of weapon systems cost growth?
    Answer. Again, I understand the issue in general terms, and 
certainly recognize its importance. Weapons system cost growth has been 
a historic challenge to the defense program due to the complexity of 
U.S. systems and the difficulty in making accurate or realistic 
estimates from the outset. I will need to better understand the 
particulars of the current defense acquisition program before being 
able to offer a more informed perspective on this issue.
                          services contracting
    Question. Over the past decade, there has been a dramatic increase 
in the volume of services purchased by the DOD. According to GAO, the 
Department spent more than $140 billion on services in fiscal year 
2005--almost double the amount spent 10 years earlier and more than the 
Department spends on all products, including weapon systems. Indeed, 
the Department has become dependent on contractors to perform most of 
its functions, including acquisition functions. Yet, the Department has 
yet to establish a management structure for services contracts 
comparable to the structure in place for the acquisition of products.
    What is your view of the Department's reliance on service 
contractors?
    If confirmed, how do you plan to address the issue of cost growth 
in services contracting and ensure that the Department gets the most 
for its money in this area?
    Answer. It is my understanding that service contractors provide a 
valuable function to the DOD. If confirmed, I intend to review the 
Department's policies and procedures and make any necessary 
adjustments.
                       tactical fighter programs
    Question. Perhaps the largest modernization effort that we will 
face over the next several years is the set of programs to modernize 
our tactical aviation forces with fifth generation tactical aircraft 
equipped with stealth technology, to include the F-22 and the Joint 
Strike Fighter (JSF).
    Based on current and projected threats, what are your views on the 
requirements for and timing of these programs?
    Answer. If confirmed, I will take a close look at the current and 
projected threats, associated program requirements, and the timing of 
our tactical aviation forces to include the F-22 and JSF.
                            unmanned systems
    Question. Congress has established a goal that by 2015, one-third 
of the aircraft in the operational deep strike force aircraft fleet and 
one-third of operational ground combat vehicles will be unmanned.
    Do you support this goal?
    Answer. I understand the Department is committed to integrating 
unmanned systems into the military force structure to provide a range 
of capabilities including strike/combat capability.
    Question. What is your assessment of DOD's ability to achieve this 
goal?
    Answer. If confirmed, I will continue to pursue the goal of 
unmanned systems capabilities to support the Department needs.
    Question. What steps do you believe the Department should take to 
achieve this goal?
    Answer. If confirmed, I plan to review the Department's priorities 
for unmanned systems to assure they are balanced and focused on the 
Department's highest priority needs.
                           navy shipbuilding
    Question. Today's Navy is at its smallest size in decades--281 
ships--and threatens to continue to decline. In response to concerns 
raised by this committee, the Chief of Naval Operations conducted a 
force structure review and concluded that the Navy requires a 313-ship 
fleet to perform its mission. The Navy estimates that investment in 
shipbuilding must increase by greater than 50 percent--a full $5 
billion to $10 billion per year--to meet this force structure 
requirement.
    What are your views regarding the CNO's force structure review 
conclusions and the adequacy of the Navy's current and projected future 
inventory of ships?
    Answer. I am not familiar with Chief of Naval Operations' force 
structure conclusions at this time. Nevertheless, I recognize the 
importance to sustain the ability of the United States to project power 
globally, a key element of our National Security Strategy. If 
confirmed, I expect to have detailed discussions on this issue with the 
CNO.
            joint improvised explosive device defeat office
    Question. The Deputy Secretary of Defense issued a directive 
granting full authority and responsibility to the Joint Improvised 
Explosive Device Defeat Office (JIEDDO) to lead the Department's 
efforts in fighting the IED threat.
    What are your views regarding the Department's process for 
addressing the combatant commanders' requirements for the fielding of 
IED countermeasures?
    What else can and should be done to get this critical capability to 
the warfighters?
    Section 256 of the National Defense Authorization Act Fiscal Year 
2006 (Public Law 109-163) required the Director of the JIEDDO Task 
Force to work in coordination with the executive agent for blast injury 
prevention, mitigation, and treatment to ensure adequacy of blast 
injury research and collection of data on explosive detect and defeat 
devices and personnel and vehicle armor. The committee believes that 
the lethal and devastating consequences of blast injury to our 
servicemen and women who are affected by IED blasts should be addressed 
along with the important rapid research and acquisition programs to 
detect and defeat IEDs and other threats.
    What is your assessment of the adequacy of the tools and funding 
provided to the DOD for counter IED detect, defeat and mitigation 
research, development and acquisition, including the adequacy of blast 
mitigation efforts and other related military-specific combat casualty 
care programs throughout the DOD?
    Answer. It is vitally important that we not take a business-as-
usual approach to responding to the IED threat. I understand IEDs are 
the most frequent cause of casualties to our Armed Forces in Iraq. I 
also understand that, as a result, the Department has established a 
cross-functional organization designed to streamline the acquisition 
process with the goal of rapidly delivering equipment, intelligence, 
and tactics to the warfighters. This approach appears to be sound, and 
if confirmed, I will continually evaluate its effectiveness and remain 
open to alternative solutions.
                           management issues
    Question. The Government Performance and Results Act (GPRA) is 
intended to provide managers with a disciplined approach--developing a 
strategic plan, establishing annual goals, measuring performance, and 
reporting on the results--for improving the performance and internal 
management of an organization.
    What do you consider to be the most important priorities and 
challenges facing DOD as it strives to achieve these management goals?
    Answer. I have reviewed the 2006 QDR and was impressed by the 
discussion concerning the Department's performance and internal 
management.
    I believe the Department's business mission must support the 
warfighter and be accountable to the taxpayers. Collaboration within 
the Department is essential to support more effective and efficient use 
of resources. To this end, the decisionmaking process needs to be as 
open, transparent, and agile as possible. If confirmed, I look forward 
to working with Deputy Secretary Gordon England on this important 
matter.
    Question. What are your views on the importance and role of 
financial information in managing operations and holding managers 
accountable?
    Answer. I believe that making managers accountable in a fair and 
credible manner will improve performance.
    Visible and credible financial information is essential to this 
process because it enhances decision making and links performance and 
resources in a way that allows the Department to use its resources 
effectively and efficiently.
    Question. The GPRA envisions that agencies will link their human 
capital planning with their strategic and annual plans. The DOD 
workforce has undergone significant downsizing in the past, and with 
the current tight labor market, it is increasingly difficult to attract 
and retain talent.
    How would you work to attract and retain individuals with the 
experience, education, and skills needed throughout the DOD?
    Answer. Any good employer needs focused recruiting and retention 
initiatives, competitive compensation and rewards structures, 
attractive career development opportunities, and education and training 
programs.
    The Department must have a vision that conveys to the public a 
commitment to attract and develop the best mix of people, both military 
and civilian. This vision must be supported by an effective human 
capital strategy that is actively measured against well-defined goals.
                          financial management
    Question. The DOD spends billions of dollars every year to acquire, 
operate, and upgrade business systems needed to support the warfighter, 
including systems related to the management of contracts, finances, the 
supply chain, and support infrastructure. Despite these expenditures, 
the Department's business systems are stovepiped, duplicative, and 
nonintegrated. As a result, the Department remains unable to produce 
timely, accurate, and complete information to support management 
decisions. The Comptroller General has concluded that these problems 
can only be addressed through committed leadership at the most senior 
levels of the DOD. The Comptroller General has recommended that the 
Department establish a new Deputy Secretary of Defense for Management 
to help address this problem. Section 907 of the National Defense 
Authorization Act for Fiscal Year 2006 required an independent study to 
review this problem. This report is due on December 1, 2006.
    If confirmed, will you ensure that the financial management 
problems of the DOD receive priority attention at the senior management 
level?
    Answer. Yes. I believe the Department has an obligation to account 
for and wisely manage taxpayer dollars.
    Question. Will you review the report required by section 907 and 
provide us your views on the feasibility and advisability of 
establishing a new Deputy Secretary of Defense for Management?
    Answer. Yes.
               readiness impact of contingency operations
    Question. Over the past several years, military units have been 
increasingly deployed to contingency operations around the world. 
Participation in these operations disrupts operating budgets, causes 
lost training opportunities, and accelerates wear and tear on 
equipment. Additionally, increased OPTEMPO impacts quality of life and 
could jeopardize retention of high-quality people.
    What ideas do you have with regard to how to reduce the impact of 
these operations on both near- and long-term readiness and 
modernization programs?
    Answer. It is clear to me that the current pace of operations has 
significantly challenged our military forces. I understand that DOD has 
been addressing this challenge through multiple initiatives to reduce 
stress on individual military personnel and support the operational 
needs of the combatant commanders. This is a complex challenge 
involving recruiting, retention, readiness, quality of life, resources, 
and many other critical variables. If confirmed, I will work closely 
with the Department's military leadership and extend this issue 
priority attention.
                             modernization
    Question. In October, the Congressional Budget Office estimated 
that if the Department were to execute the current procurement plans, 
including cost risk, an additional $30 billion a year could be required 
in the procurement accounts alone.
    Do you agree that the current procurement accounts are not 
executable unless there is an infusion of additional funds?
    Do you believe that significant changes are needed in the 
Department's current procurement plans?
    If confirmed, how do you intend to address this shortfall, if it in 
fact exists?
    Even if all of the current aircraft modernization programs execute 
as planned, the average age of the tactical, strategic, and tanker 
fleet will increase. Aging aircraft require ever-increasing 
maintenance, but even with these increasing maintenance costs, 
readiness levels continue to decline.
    Can both the maintenance of the legacy force and the modernization 
efforts be affordable at anywhere near the current budget levels?
    Some critics believe that there is still too much service parochial 
duplication in procuring new systems. Do you agree with these critics? 
If so, what would you recommend to ensure more jointness in 
procurement?
    Answer. The affordability of the defense acquisition program has 
historically been a challenge. I don't have intimate details of the DOD 
procurement program, but I am aware that over the course of the Bush 
administration, procurement investment levels have gone up by a 
significant amount. If confirmed, I will evaluate this process in the 
context of the broader budget discussions facing the Department.
                foreign investment in the united states
    Question. Do you believe the Committee on Foreign Investment in the 
United States (CFIUS) structure and process facilitate sufficient 
communication with the various components of the national security and 
homeland defense community, including intelligence?
    Answer. I understand this matter has received much debate recently 
and that improvements have been made in the manner that the CFIUS 
process operates. If confirmed, I will become more familiar and better 
able to address the issue in more detail.
                        buy american provisions
    Question. Section 842 of the John Warner National Defense 
Authorization Act for Fiscal Year 2007 recodifies the so-called ``Berry 
Amendment'' requiring that certain strategic materials be purchased 
from American sources. This provision repeals the former Berry 
Amendment giving the Department new flexibility in addressing 
noncompliant materials delivered under contracts entered prior to the 
date of enactment. It also contains waiver provisions giving the 
Department flexibility with regard to contracts entered after the date 
of enactment.
    Would you agree that it is important for the Department to make use 
of the flexibility provided by Congress in this provision to ensure 
that it is in a position to accept delivery of weapon systems needed 
for the national defense?
    If confirmed, will you ensure that the provision is interpreted in 
a manner consistent with the congressional intent to provide such 
flexibility?
    Answer. I'm not familiar with the intricacies of the Berry 
Amendment. I believe it is important that the Department be afforded 
necessary flexibility to procure and acquire capabilities needed for 
national defense in today's global marketplace.
                         information assurance
    Question. Protection of military networks, information, and 
communications is critical to DOD operations. The Department's 
Inspector General has noted that the Department does not yet have a 
comprehensive enterprise-wide inventory of information systems which 
makes reliable evaluation of the security of information systems 
impossible. The committee has included a requirement in this year's 
defense authorization report for a progress report on addressing 
previously identified information and cyber security vulnerabilities.
    What is your assessment of the security of the Department's 
information systems?
    What Department-wide policies or guidance do you believe are 
necessary to address information and cyber security challenges for 
current and future systems?
    Answer. I recognize the importance of cyber security and that it is 
a critical challenge to the Department and the Nation as a whole. If 
confirmed, I will get a better understanding of the Department's 
capabilities in this area.
                          test and evaluation
    Question. A natural tension exists between major program objectives 
to reduce cost and schedule and the test and evaluation (T&E) objective 
to demonstrate performance to specifications and requirements.
    What is your assessment of the appropriate balance between the 
desire to reduce acquisition cycle times and the need to perform 
adequate testing?
    Answer. If confirmed, I will seek to balance the acquisition and 
operational testing processes between reducing costs and accelerating 
schedules.
    Question. Under what circumstances, if any, do you believe we 
should procure weapon systems and equipment that have not been 
demonstrated through test and evaluation to be operationally effective, 
suitable, and survivable?
    Answer. I'm aware that in the current environment the Department 
has chosen to field certain systems still under development without 
having completed full testing. These examples are clearly exceptions to 
the normal process but they were needed to meet urgent military 
requirements. If confirmed, I would look at this on a case-by-case 
basis.
    Question. Congress established the position of Director of 
Operational Test and Evaluation to serve as an independent voice on 
matters relating to operational testing of weapons systems. As 
established, the Director has a unique and direct relationship with 
Congress which allows him to preserve his independence.
    Do you support the Director of Operational Test and Evaluation's 
ability to speak freely and independently with Congress?
    Answer. Yes.
             funding for science and technology investments
    Question. In the past, the Quadrennial Defense Review (QDR) and 
Secretary Rumsfeld have both endorsed the statutory goal of investing 3 
percent of the Department's budget into science and technology 
programs.
    Do you support that investment goal?
    Answer. As President of Texas A&M, I recognize the importance of 
basic science and technology research to ensuring the Department 
remains on the cutting edge of emerging technology for the warfighter. 
If confirmed, I plan to place a high priority on a robust science and 
technology program for the Department.
    Question. How will you assess whether the science and technology 
investment portfolio is adequate to meet the current and future needs 
of the Department?
    Answer. Assessing the adequacy of science and technology investment 
is a complex challenge. The program should be addressed as a whole, 
across all Services and technology areas and matched against current 
and emerging threats.
                          technology strategy
    Question. The Nation is confronted with a dispersed enemy which is 
expert at using relatively simple, inexpensive technology to achieve 
destructive and disruptive results. Creative prediction and adaptation 
to continuously changing threats is a focus for this committee. You 
were a member of the National Academy's panel that produced the report 
``Rising Above the Gathering Storm'' recommending doubling investments 
in defense basic research over 7 years.
    What is your assessment of the Department's ability to develop a 
responsive research strategy capable of quick reaction but which is 
also designed to include sustained investments in the development of a 
set of capabilities based on threat predictions and identification of 
related technology gaps?
    Answer. I don't have enough knowledge on this subject to provide an 
assessment at this time. This is an important issue to me and I will 
afford it priority attention.
    Question. How should the Department proceed to implement the 
National Academy's recommendations regarding basic research 
investments?
    Answer. I believe the Department should give this body of work 
serious consideration.
                            missile defense
    Question. The John Warner National Defense Authorization Act for 
Fiscal Year 2007 includes a provision (Sec. 223) stating that it is the 
policy of the United States that the DOD accord a priority within the 
missile defense program to the development, testing, fielding, and 
improvement of effective near-term missile defense capabilities, 
including the ground-based midcourse defense system, the Aegis 
ballistic missile defense system, the Patriot PAC-3 system, the 
Terminal High Altitude Area Defense System, and the sensors necessary 
to support such systems.
    Do you agree that we should not deploy missile defenses that are 
not operationally effective?
    Answer. I understand the administration's policy is to develop and 
deploy a missile defense capability at the earliest possible date.
    I am told that efforts are underway through continuous testing, to 
ensure that these defenses are capable of intercepting missiles that 
threaten our homeland, deployed forces, and friends and allies.
    Question. Do you agree that we should conduct adequate operational 
test and evaluation of our ballistic missile defense systems to 
determine if they are operationally effective?
    Answer. See above.
    Question. Do you agree that our ballistic missile defense program 
and systems should be prioritized to address the missile threats we 
face?
    Answer. We face an international environment where missile threats 
of various kinds are rapidly increasing and proliferating. In response, 
we need to develop a full spectrum of capabilities to defend against 
that threat.
                                 space
    Question. What is your view on weapons in space and the merits of 
establishing an international agreement establishing rules of the road 
for space operations?
    Answer. Space is vital to U.S. national security and that of our 
friends and allies. I support our longstanding national policies of the 
right of all nations to use outer space for peaceful purposes, the 
right of free passage through space, and the right to protect our 
forces and our Nation from those that would use space for hostile 
purposes.
    Question. Do you believe that fielding a ground-based missile 
defense site in Europe is consistent with these near-term priorities?
    Answer. I understand that the administration's policy is to develop 
and deploy ballistic missile defenses drawing on the best technologies 
available to ensure that these defenses are capable of intercepting 
missiles that threaten our homeland, deployed forces, and friends and 
allies. I further understand that this effort could involve the 
placement of elements of the missile defense system in other nations to 
enhance the ability to defeat threats from a broader range of 
locations. If confirmed, I expect to delve into this matter with 
greater detail and with some urgency considering the timing of some of 
these decisions.
    Question. What lessons do you draw for missile defense policy from 
the recent ballistic missile tests conducted by North Korea and Iran?
    Answer. North Korea and Iran continue to develop longer range 
missiles and are determined to pursue WMD. We must stay ahead of this 
threat. In this regard, defenses with a limited operational capability, 
at least initially, are better than no defenses.
                          prompt global strike
    Question. The 2006 QDR concluded that ``the U.S. needs to make 
greater progress in fielding prompt, accurate, non-nuclear Global 
Strike capabilities.'' Accordingly, DOD requested $127 million in 
fiscal year 2007 for the Conventional Trident Modification (CTM) 
program to provide a prompt global strike capability within 2 years. 
The CTM program proved to be controversial within Congress, resulting 
in a funding level of only $20 million for developmental efforts common 
to all global strike alternatives, and two reporting requirements.
    In your view, what is the role for a conventional prompt global 
strike capability in addressing the key threats to U.S. national 
security in the near future?
    Answer. The international security environment is uncertain. The 
United States faces threats from terrorists and certain states, such as 
North Korea and Iran, who either have or seek WMD and the means to 
deliver them rapidly.
    I understand the prompt global strike effort is meant to provide 
the Nation with a conventional capability to strike time-sensitive 
targets, so that distant, hard-to-reach places will no longer provide 
sanctuary to adversaries.
    Currently, the only means we have to strike globally in a prompt 
manner is with nuclear-armed ballistic missiles.
    Question. What approach to implementation of this capability would 
you expect to pursue, if confirmed?
    Answer. I understand Congress has requested additional studies on 
the prompt global strike requirements and alternatives.
    If confirmed, I look forward to reviewing DOD's analysis, and the 
studies Congress has requested.
    Question. In your view what, if any, improvements in intelligence 
capabilities would be needed to support a prompt global strike 
capability?
    Answer. Intelligence will continue to be a necessary critical 
capability for deployment of this and other military capabilities 
tailored to address today's global threat environment.
               nuclear weapons and stockpile stewardship
    Question. Congress established the Stockpile Stewardship Program 
with the aim of creating the computational capabilities and 
experimental tools needed to allow for the continued certification of 
the nuclear weapons stockpile as safe, secure, and reliable without the 
need for nuclear weapons testing. The Secretaries of Defense and Energy 
are statutorily required to certify annually to Congress the continued 
safety, security, and reliability of the nuclear weapons stockpile.
    As the stockpile continues to age, what do you view as the greatest 
challenges with respect to assuring the safety, reliability, and 
security of the stockpile?
    Answer. The legacy nuclear forces in the U.S. arsenal were 
developed to meet the challenges of the Cold War, which ended over a 
decade ago. Our challenge today is dealing with uncertainty--both 
political and technical.
    If confirmed, I will work with the Secretary of Energy, Congress, 
and others, to ensure that the Stockpile Stewardship Program has the 
tools and resources it needs to maintain the credibility of the U.S. 
nuclear deterrent, and ensure its safety and reliability.
    Question. If the technical conclusions and data from the Stockpile 
Stewardship Program could no longer confidently support the annual 
certification of the stockpile as safe, secure, and reliable, would you 
recommend the resumption of underground nuclear testing? What 
considerations would guide your recommendation in this regard?
    Answer. A decision regarding the resumption of nuclear testing 
cannot be made in the abstract. If confirmed, I would rely on input 
from operational commanders, policy, and technical experts to make a 
recommendation to the President that best supports our national 
security interests. Any such recommendation would be grounded on the 
best available assessment of the safety, security, and reliability of 
the nuclear stockpile.
    Question. What is your view of the Reliable Replacement Warhead 
program?
    Answer. I have not had an opportunity to assess the Reliable 
Replacement Warhead program. If confirmed, I will do so.
    Question. Would you support substantial reductions in the U.S. 
nuclear stockpile?
    Answer. I support the substantial reductions in nuclear weapons the 
United States plans to make through implementation of the Moscow 
Treaty.
                   chemical weapons demilitarization
    Question. DOD has encountered significant problems and cost growth 
in the management and implementation of the chemical weapons 
demilitarization program, and the Department has acknowledged that it 
will be unable to eliminate its chemical weapons in accordance with the 
Chemical Weapons Convention time lines.
    What is your understanding of the Department's estimates of its 
ability to comply with treaty commitments under the Chemical Weapons 
Convention?
    Answer. I understand the Department is in the process of requesting 
an extension, but I am not aware of the details. If confirmed, I will 
look into it.
    Question. Would you take steps, if confirmed, to raise the priority 
of the Department's efforts to eliminate the U.S. chemical weapons 
stockpile?
    Answer. I am not very familiar with the programmatic details of the 
chemical demilitarization program. I understand that the U.S. program 
has already expended considerable resources and made significant 
progress toward meeting our goals and obligations. If confirmed, I will 
look further into this issue.
                        active-duty end strength
    Question. What is your view of the adequacy of the active-duty Army 
and Marine Corps end strength to support current missions including 
combat operations in Iraq and Afghanistan?
    Answer. This is an important issue. I am told the Department 
continually reassesses end strength needs with the Combatant Commanders 
and the Joint Chiefs of Staff. If confirmed, I will work with the Joint 
Chiefs, the Service Chiefs, and the civilian leadership to ensure the 
Nation is properly prepared to meet its military requirements.
    Question. As a result of recommendations in the QDR, the Air Force 
plans to reduce its Active-Duty end strength, as well as its Reserve 
components and civilian workforce by as much as 40,000 full-time 
equivalent positions. The impact in the Air Force Reserve and Air 
National Guard is magnified because multiple positions that are 
considered ``part-time'' must be eliminated to achieve one full-time 
equivalent. The Navy has sought and plans to implement comparable 
reductions in its Active and Reserve Forces.
    Are you confident that these plans are still adequate and 
appropriate?
    Answer. I am not familiar with the particulars of the Air Force 
plan, but I understand they are trying to rebalance their program to 
better position the Service to support their organize, train, and equip 
obligations into the future. If confirmed, I will become more familiar 
with this issue and assess as appropriate.
    Question. What is your understanding of the steps that will be 
taken in 2007 and beyond with respect to the military and civilian 
employee manning of the Air Force and Navy?
    What impact on readiness do you foresee as a result of these 
personnel reductions?
    Answer. I cannot give a definitive answer at this point. If 
confirmed, I will review this matter.
                 reserve and national guard deployments
    Question. Current DOD policy provides that members of Reserve 
components shall not be required to involuntarily deploy more than 24 
months cumulatively in response to the existing national emergency. 
This policy has exempted thousands of members of the Selected Reserve, 
including members of the National Guard, from additional involuntary 
call-ups in support of overseas operations in Iraq and Afghanistan.
    Given the current and projected demand for forces in Iraq, what are 
your views on continuing this 24-cumulative-month policy?
    Answer. The transition from strategic reserve to operational 
reserve as I understand it is a necessary step in the proper direction, 
but has presented the Reserve components with new and unique 
challenges. If confirmed, I will delve into these issues with greater 
depth in order to ensure the Department provides the Reserve components 
with the best possible approach to their utilization consistent with 
the concept of an operational reserve.
    Question. What is your assessment of the Army's ability to support 
scheduled troop rotation planning beyond 2006, particularly in combat 
support and combat service support missions, given the 24-month policy?
    Answer. I do not have enough information on the particulars of this 
issue to give an informed response. If confirmed, I will review this 
issue.
                            combat injuries
    Question. Medical care for servicemembers wounded in combat has 
been exceptional. Many servicemembers who would have died in earlier 
wars live today because of the exceptional medical care. However, many 
of these servicemembers suffer from traumatic brain injury and post 
traumatic stress disorder and require continuing care.
    If confirmed, what programs will you put in place to ensure that 
these servicemembers receive the quality health care that they need for 
as long as they need it?
    News accounts indicate that soldiers and marines suffering from 
post traumatic stress disorder are being separated from the Service 
with Other Than Honorable Conditions discharges for misconduct such as 
alcohol and drug abuse, which are classic symptoms of post-traumatic 
stress disorder. The characterization of their discharges can lead to a 
denial of VA benefits needed to treat their post-traumatic stress 
disorder condition.
    What is the Department doing to ensure that servicemembers 
returning from combat are not separated for exhibiting symptoms of post 
traumatic stress disorder and then denied the very VA benefits they 
need to treat this disorder?
    Answer. There is no issue more important that caring for our 
wounded service men and women upon their return. If confirmed, I will 
ensure that we review the issues raised in cooperation with the 
Department of Veterans Affairs.
                           medical holdovers
    Question. Reserve component personnel returning from deployment are 
frequently held on Active-Duty while receiving medical treatment for 
injuries incurred while deployed. Many of these personnel are retained 
for a year or more while receiving medical care.
    What steps can be taken to expedite delivery of effective health 
care to medical holdover personnel so they can be released and returned 
to their civilian communities?
    If confirmed, what steps will you take to ensure that medical 
holdover personnel receive the medical care they need in a timely 
manner, and that their living conditions while retained on active duty 
are at least equal to the living conditions of other active duty 
personnel?
    Answer. I understand the Army has developed programs for Reserve 
component personnel who require medical services near their hometown 
and to be able to get that care at home while remaining on active duty. 
If confirmed, I will work to ensure these service men and women get the 
care, medical treatment, and housing they require in a timely manner.
              sustaining the military health care benefit
    Question. Quality health care for military members and their 
families, as well as for retirees and their families, is a fundamental 
aspect of this country's commitment to those who serve their country in 
uniform.
    In your opinion, how important is it for DOD to reshape health care 
benefits now and in the future?
    Answer. I believe it is critically important to place the military 
health care system on a sound fiscal basis to sustain its long-term 
viability.
    Question. What elements of the military health care system require 
reform and what steps would you take, if confirmed, to accomplish 
reform?
    Answer. If confirmed, I will review these issues in greater detail 
in order to better determine what additional steps can be taken to 
ensure this benefit is sustained well into the future.
                            quality of life
    Question. Throughout the global war on terrorism, military members 
and their families in both the Active and Reserve components have made 
tremendous sacrifices in support of operational deployments. Senior 
military leaders, however, have warned of growing concerns among 
military families as a result of the stress of frequent deployments and 
the long separations that go with them.
    In your judgment, what are the most critical needs of military 
personnel and their families today?
    If confirmed, what would your priorities be for improving and 
sustaining quality of life for military members and their families?
    Answer. Military personnel and their families want to know that 
their service is valued. This starts with fair treatment and a 
competitive compensation package.
    If confirmed, I will ensure that the Department continues to focus 
on these issues.
                         human capital planning
    Question. The GAO has designated human capital planning a high-risk 
area across the Federal Government because of agencies' lack of a 
consistent strategic approach to marshaling, managing, and maintaining 
the human capital needed to maximize government performance. GAO has 
found the problem to be particularly acute at DOD. The DOD faces a 
critical shortfall in key areas of its civilian workforce, including 
the management of acquisition programs, information technology systems, 
and financial management, and senior DOD officials have expressed alarm 
at the extent of the Department's reliance on contractors in these 
areas.
    Would you agree that the Department's human capital, including its 
civilian workforce, is critical to the accomplishment of its national 
security mission?
    Answer. Yes.
    Question. Do you share the concern expressed by others about the 
extent of the Department's reliance on contractors in critical areas 
such as the management of acquisition programs, information technology, 
and financial management?
    Answer. I believe there is a valid concern about the appropriate 
roles of contractors in providing governmental functions. If confirmed, 
I will review the Department's policies and practices, and determine 
the proper balance necessary for the Nation's security.
    Question. If confirmed, will you ensure that the Department 
undertakes necessary human capital planning to ensure that its civilian 
workforce is prepared to meet the challenges of the coming decades?
    Answer. Yes.
                   national security personnel system
    Question. The National Security Personnel System (NSPS) was enacted 
by Congress to provide DOD with needed tools to improve the quality, 
flexibility, and expertise of its civilian work force. Though full 
implementation of the NSPS has been delayed as a result of litigation, 
partial implementation of pay for performance reforms has proceeded for 
nonbargaining unit employees.
    If confirmed, would you continue to implement NSPS in its present 
form or seek some alternative approach to the Department's civilian 
personnel management system?
    Answer. Reforming civil service rules to make our civilian 
workforce more adaptable, flexible, and agile is critical to the future 
of the Department. I believe NSPS is integral to the Department's Human 
Capital Strategy of developing the right mix of people and skills 
across the Total Force. If confirmed, I will review the NSPS program to 
see if any further changes are required.
                            women in combat
    Question. In the National Defense Authorization Act for Fiscal Year 
2006, Congress required the Department to report in the current and 
future implementation of the policy regarding assignment of women in 
the Armed Forces, with particular focus on the Army's plan to 
reorganize its force structure by creating more modular brigade combat 
teams. Currently, the report is overdue, but results are expected early 
in this legislative cycle.
    In your opinion, what have we learned about the assignment of women 
in the Armed Forces through our recent combat operations in Iraq and 
Afghanistan?
    Answer. I understand that Congress has asked the Department to 
review the matter and if confirmed, I will acquaint myself with this 
assessment to better understand what our experiences have taught us.
    Question. If confirmed, will you ensure the required report is 
immediately delivered to Congress?
    Answer. Yes. I am told the report will be ready by January 2007.
                             sexual assault
    Question. In response to congressional direction, the Department 
has developed and implemented a comprehensive set of policies and 
procedures aimed at improving prevention of and response to incidents 
of sexual assaults, including appropriate resources and care for 
victims of sexual assault.
    If confirmed, what actions would you take to ensure senior 
management level direction and oversight of departmental efforts on 
sexual assault prevention and response?
    Answer. I believe that sexual assault has no place in the Armed 
Forces and I understand that the Department currently has a zero 
tolerance policy.
    If confirmed, my goal will be to ensure the Department's sexual 
assault prevention and response program is the standard for other 
organizations to follow. I will work closely with the secretaries of 
the military departments to continue the progress achieved over the 
past 2 years.
                          all-volunteer force
    Question. The All-Volunteer Force came into existence over 33 years 
ago and, since its inception, volunteer soldiers, sailors, airmen, and 
marines have helped to win the Cold War, defeat aggression during the 
Persian Gulf War, keep peace in the former Yugoslavia, liberate Iraq 
and Afghanistan, and defend freedom around the world.
    Are you committed to an All-Volunteer Force?
    Answer. Absolutely. The All-Volunteer Force has served well for 
over 30 years, providing a military that is experienced, high-quality, 
disciplined, and representative of America.
    Question. What factors do you consider most significant to the 
success of the All-Volunteer Force?
    Answer. I believe the most important factor is the patriotism and 
dedication of the American men and women who respond to their nation's 
call to serve. Further, sustaining the success of the All-Volunteer 
Force will require that we:

        <bullet> Treat our people properly, including paying them 
        compensation that's fair and competitive.
        <bullet> Focus on the military personnel and their families. 
        Assuring a quality education for the children and a meaningful 
        career for the spouse is high on the agenda of today's military 
        generation.

    Question. What changes, if any, in pay, compensation, and benefits 
are needed in your view to sustain recruiting and retention?
    Answer. If confirmed, I will review the pay, compensation, and 
benefits plans currently employed by the Department, and consult with 
senior civilian and military leadership to ensure we provide the right 
compensation for our men and women who serve. Following such a review, 
I would be pleased to discuss with Congress any suggested changes or 
recommendations.
                          recruiting standards
    Question. Recruiting highly qualified individuals for military 
service and retaining highly trained and motivated personnel for 
careers present unique challenges, particularly while the Nation is at 
war. Criticism has been aimed at the Department for allowing relaxed 
enlistment standards in the Army with respect to factors such as age, 
intelligence, weight and physical fitness standards, citizenship 
status, tattoos, and past criminal misconduct.
    What is your assessment of the adequacy of current standards 
regarding qualifications for enlistment in the Armed Forces?
    Answer. I am not sufficiently familiar with the standards regarding 
qualifications for enlistment at this time to answer this question. If 
confirmed, I will review the standards.
    Question. In your view, does the Army have adequate procedures in 
place to ensure recruitment of only fully qualified individuals?
    Answer. To the best of my knowledge, yes.
                        foreign language policy
    Question. In February 2005, Deputy Secretary of Defense Paul 
Wolfowitz approved the Defense Language Transformation Roadmap to 
improve the Department's foreign language capability and regional area 
expertise. Since then, the Department has been working toward 
implementing that roadmap.
    In your view, what should be the priorities of the Federal 
Government to expanding the foreign language skills of civilian and 
military personnel and improving coordination of foreign language 
programs and activities among the Federal agencies?
    Answer. Understanding the languages and cultures of other countries 
is a critical component of keeping the peace and defending the Nation. 
Initiatives to advance predeployment language and culture training and 
the provision of interpreter and translation services are critical. I 
was struck by the priority this issue received in the 2006 QDR. If 
confirmed, I will continue the Department's progress.
                       detainee treatment policy
    Question. Do you support the memorandum issued by Deputy Secretary 
of Defense England on July 7, 2006, stating that all relevant DOD 
directives, regulations, policies, practices, and procedures must fully 
comply with the standards of Common Article 3 of the Geneva 
Conventions?
    Answer. Yes.
    Question. Do you support the standards for detainee treatment 
specified in the revised Army Field Manual on Interrogations FM 2-22.3, 
issued in September 2006, and in DOD Directive 2310.01E, the Department 
of Defense Detainee Program, dated September 5, 2006?
    Answer. Yes.
    Question. Do you share the view of the Judge Advocates General that 
standards for detainee treatment must be based on the principle of 
reciprocity, that is, that we must always keep in mind the risk that 
the manner in which we treat our own detainees may have a direct impact 
on the manner in which U.S. soldiers, sailors, airmen, or marines are 
treated, should they be captured in future conflicts?
    Answer. I believe that the Department's leadership should always be 
mindful of multiple considerations when developing standards for 
detainee treatment, including the risk that the manner in which we 
treat our own detainees may have a direct impact on the manner in which 
U.S. soldiers, sailors, airmen, or marines are treated, should they be 
captured in future conflicts.
    Question. If confirmed, will you cooperate with committee requests 
for information or documents relating to Defense Department detention 
and interrogation policies or operations or allegations of detainee 
mistreatment?
    Answer. Yes.
    Question. Section 1402 of the National Defense Authorization Act 
for Fiscal Year 2006 provides that no person in the custody of the DOD 
shall be subject to any treatment or technique of interrogation not 
listed in the Army Field Manual.
    Has the DOD complied with this requirement by ensuring that no 
treatment or technique not listed in the Army Field Manual is or may be 
authorized?
    Answer. I am told within hours of the President's signing of the 
National Defense Authorization Act for Fiscal Year 2006, the Deputy 
Secretary of Defense issued an order implementing the requirements of 
section 1402 of that Act.
                military commission trials for detainees
    Question. In October, the President signed the Military Commissions 
Act of 2006 which established congressional authorization and a 
statutory framework for trial of alien enemy unlawful combatants for 
violations of the law of war.
    How soon do you believe the Department will be ready to begin 
military commission trials under this new law?
    Answer. My understanding is that the Department would like to 
proceed with military commissions as soon as possible.
    Question. What is your understanding of the steps that the 
Department must take before it can begin such trials?
    Answer. The Department is in the process of establishing the 
procedures for commissions as outlined in the Military Commissions Act. 
I understand that DOD expects to have the revised procedures completed 
by the end of the year.
    I understand that there are also logistical challenges that will 
require congressional support for infrastructure improvements at 
Guantanamo Bay.
    Question. If the long-term plan is to end detention operations at 
Guantanamo Bay at some point in the future, why should Congress 
authorize substantial new investment in facilities there?
    Answer. The President has stated, ``America does not want to be the 
world's jailer,'' and that he would like to ``move towards the day that 
we can eventually close Guantanamo.'' At the moment, however, I am 
aware of no good alternative to the Guantanamo Bay facility exists.
             integrated global presence and basing strategy
    Question. DOD is in the process of implementing an integrated 
strategy for the basing of U.S. military force structure around the 
world. The strategy currently calls for reductions in U.S. force levels 
in Europe, Japan, and the ROK and return of those troops to the United 
States. The cost to implement these force structure relocations has 
been estimated to exceed $12 billion, including an estimated $9 billion 
for the restationing of 7,000 marines from Okinawa to Guam.
    In your opinion, what priority should DOD assign to the continued 
investment in infrastructure and new facilities around the world in 
support of this strategy?
    Answer. My impression is that the ongoing effort to change U.S. 
Cold War basing structures to a more relevant forward posture is 
important for helping to strengthen the Department's ability to meet 
this new era's challenges.
    I would not presume to opine at this point on specific 
infrastructure priorities for these facilities. I understand, however, 
that these changes have been endorsed by our allies and partners and 
are in various stages of implementation.
    Question. In your view, are any changes needed in the approach to 
this overseas basing strategy?
    Answer. If confirmed, I would examine this strategy to ensure that 
it is contributing effectively to the Department's adaptation to the 
new strategy landscape.
                      base realignment and closure
    Question. DOD is presently implementing the 2005 Defense Base 
Closure and Realignment (BRAC) decisions. The law authorizing the BRAC 
process requires the Secretary of Defense to complete all closures and 
realignments not later than September 15, 2011.
    Do you believe the Department currently has an adequate plan with 
accurate cost estimates and resources in place to meet the deadline?
    In your opinion, will DOD's current BRAC business plans be 
detrimental to the military services by requiring them to defer other 
critical new and current mission military construction requirements in 
order to compensate for an increase in estimates and costs to carry out 
BRAC decisions?
    What changes, if any, would you propose in order to meet the intent 
of Congress?
    Answer. I do not have enough information on the details of the BRAC 
implementation process to answer these questions.
                              iran-contra
    Question. In your testimony before the Iran-Contra Committee and at 
your confirmation hearing in 1991, you testified that you did not 
recall a series of meetings, memoranda, and conversations that appeared 
to link you to the events of the Iran-Contra affair. These included: a 
September 1985 meeting regarding the Iran project that Clair George 
testified you attended; a conversation reported by Admiral Poindexter 
in which he says you discussed efforts to have the CIA buy the assets 
of a private logistics operation; an August-September 1986 conversation 
in which Richard Kerr says he told you of Charles Allen's concern about 
a possible diversion; a September 1986 memo about Lt. Colonel North and 
Mr. Ghorbanifar, which Charles Allen says he sent you; a conversation 
in which, according to Mr. Allen, you said that you admired Oliver 
North's abilities, but this time he was going too far; an October 3, 
1986 CIA memorandum that you initialed, indicating that you met with 
Admiral Poindexter the previous day to discuss ``a special Iranian 
project''; and a discussion David Doherty says he had with you on 
October 15, 1986 regarding a possible diversion to Central America and 
``contributions from other countries''.
    Do you remember anything now about these meetings, memoranda, and 
conversations?
    Answer. I have no further details to report on these conversations 
beyond my earlier testimonies.
    These conversations and my peripheral involvement in the 20-year 
old Iran-Contra affair were investigated exhaustively by the Senate 
Select Committee on Intelligence during my 1991 confirmation hearings 
for Director of Central Intelligence. Key figures in the affair were 
interviewed or testified, and affirmed that they had not shared 
important information with me. The Iran-Contra Independent Counsel, 
after 7 years of investigation, could not find a single witness to 
testify that my role in the matter was other than I had described it.
    I acknowledged 15 years ago that I should have handled my part in 
Iran-Contra better. I learned important lessons as a result of this 
experience and, in subsequent years as DDCI and Director of Central 
Intelligence (DCI), established a model of CIA and Intelligence 
Community cooperation with congressional overseers of intelligence. 
After I became Acting Director of Central Intelligence in December 
1986, following more than a decade of controversy and conflict between 
CIA and Congress, there would not be a significant further conflict or 
major controversy between CIA and Congress for the remainder of my 
career, nor would there be another scandal tainting CIA during that 
time.
    Finally, it is worth noting that most of the leaders of the 
Congressional Iran-Contra Committee--and the Committee's chief 
counsel--supported my nomination to become DCI in 1991.
                              encroachment
    Question. Some of the most significant issues that impact the 
readiness of the Armed Forces are categorized as outside encroachment 
upon military reservations and resources. This encroachment has 
included, but it not limited to, environmental constraints on military 
training ranges, local community efforts to obtain military property, 
housing construction, and other land use changes near military 
installations, airspace restrictions to accommodate civilian airlines, 
and transfer of radio frequency spectrum from DOD to the wireless 
communications industry. Unless these issues are effectively addressed, 
military forces will find it increasingly difficult to train and 
operate at home and abroad.
    In your opinion, how serious are encroachment problems?
    If confirmed, what efforts would you take to ensure that military 
access to the resources listed above, and other required resources, 
will be preserved?
    Answer. I am generally aware that encroachment is a serious issue 
for the Department and needs to be addressed. I don't have enough 
details to assess the issue at this point, but I recognize it is an 
important component to ensuring the Department can sustain operational 
readiness in the current environment.
                        congressional oversight
    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Secretary of Defense?
    Answer. Yes.
    Question. Do you agree, if confirmed, to ensure that testimony, 
briefings, and other communications of information are provided to this 
committee and its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John Warner
                        military bases in europe
    1. Senator Warner. Dr. Gates, Secretary Rumsfeld proposed a 
significant drawdown of our military forces in Europe and redeployment 
of those forces to the continental United States (CONUS). This would 
result in the closing or downsizing of several long-established bases, 
especially in Germany. Given the new challenges the United States now 
faces in the Middle East, will you revisit the decision to withdraw 
from established European bases?
    Dr. Gates. My understanding is that our ongoing realignment of Cold 
War basing structures reflects the diminished strategic need for large 
heavy maneuver forces in Europe. It also aims to strengthen our 
flexibility to meet operational needs globally, including the Middle 
East. I understand that legacy forces and basing structures are being 
replaced by our most advanced forces and more efficient basing. These 
changes have been supported by our key host-nation allies. While I do 
not plan to revisit the decision to modernize our posture in Europe, I 
understand that this is an ongoing process that affords me 
opportunities to propose any adjustments.

    2. Senator Warner. Dr. Gates, given the reality that our bases in 
Germany are significantly closer to current and potential trouble spots 
than are bases in the United States, do you agree that it makes 
strategic sense to keep significant forces in Europe for rapid 
deployment of equipment and personnel to hot spots?
    Dr. Gates. My view is that we should have forces forward in Europe 
that are relevant to operational needs and to our alliance 
partnerships; the capabilities of these forces will matter more than 
their numbers. It is my understanding that we are redeploying those 
heavy maneuver forces that are less airlift-capable (and which can be 
as responsive by sea from CONUS as from Europe), while putting forward 
more expeditionary forces in locations that facilitate prompt response 
and sustainable operations.

    3. Senator Warner. Dr. Gates, do you agree that it is in our 
national security interest to maintain a visible and powerful military 
presence in Europe in terms of technology, armament, and manpower to 
deter our enemies?
    Dr. Gates. I believe it is in our interest to maintain a military 
presence in many regions of the world, including Europe. As part of the 
broader changes in U.S. global defense posture, the United States is 
making substantial changes to our force posture in Europe. These 
changes reflect the need to shift from a Cold War oriented posture to 
one that more properly addresses the security threats of the 21st 
century. In consultation with our European allies, we are maintaining a 
lighter, leaner, and more mobile military presence in Europe so that 
the United States can meet new challenges.
                                 ______
                                 
               Questions Submitted by Senator John McCain
                             troops in iraq
    4. Senator McCain. Dr. Gates, General Anthony Zinni, former head of 
U.S. Central Command, recently argued that any substantial reduction of 
American forces in Iraq over the next several months would be more 
likely to accelerate the slide to civil war than stop it. Speaking of 
Prime Minister Maliki, General Zinni said, ``You can't put pressure on 
a wounded guy. There is a premise that the Iraqis are not doing enough 
now, that there is a capability that they have not employed or used. I 
am not so sure they are capable of stopping sectarian violence.'' 
Instead of taking troops out, General Zinni said, it would make more 
sense to consider deploying additional American forces over the next 6 
months to ``regain momentum'' as part of a broader effort to stabilize 
Iraq that would create more jobs, foster political reconciliation, and 
develop more effective Iraqi security forces. Do you agree that a 
substantial reduction of American forces over the next several months 
would be ineffective in pressuring the Iraqi government to ``do more'' 
and may even be counterproductive? Please explain.
    Dr. Gates. Yes. On January 10, 2007, the President described a way 
forward to achieve U.S. objectives in Iraq. An important new element is 
that the Iraqis themselves have devised their own strategy and 
committed themselves to significant political, economic, and military 
steps. In the security dimension, Iraqi forces will lead a campaign, 
with our forces in support, to restore stability in Baghdad. This 
requires temporarily increasing U.S. force levels in Iraq.
    The President and his national security team considered 
alternatives that would have begun the process of disengagement from 
the important struggle going on in Iraq; they concluded that doing so 
at this lime would risk a major blow to Iraq's democracy and make the 
situation much worse. This could result in our forces being required to 
stay in Iraq longer and confronting an even more lethal enemy.

    5. Senator McCain. Dr. Gates, do you agree that we should deploy 
additional forces as one component of a broader effort to stabilize 
Iraq? Please explain.
    Dr. Gates. On January 10, 2007, the President described a way 
forward to achieve U.S. objectives in Iraq. An important new element is 
that the Iraqis themselves have devised their own strategy and 
committed themselves to significant political, economic, and military 
steps. In the security dimension, Iraqi forces will lead a campaign, 
with our forces in support, to restore stability in Baghdad. This 
requires temporarily increasing U.S. force levels in Iraq.
    Our change in strategy will be enabled by a ``surge'' of roughly 
21,500 additional combat forces. These combat forces will support the 
Iraqi security forces as they protect the population, creating a more 
secure environment where political and economic progress can occur.

    6. Senator McCain. Dr. Gates, the United States and its allies face 
a number of tasks in Iraq: to clear insurgent sanctuaries and hold the 
territory with a combination of coalition and Iraqi forces; to provide 
sufficient security in Iraq so that economic reconstruction and 
political activity can take place; to arrest the momentum of sectarian 
death squads; to disarm militias; to train the Iraqi army and keep an 
American presence in Iraqi units; and to place U.S. personnel in Iraqi 
police units. Do you agree that we need to do these things? Do you 
believe that we have, today, sufficient force levels in order to 
accomplish all these tasks? Please explain.
    Dr. Gates. On January 10, 2007, the President described a new way 
forward to achieve U.S. objectives in Iraq. An important new element is 
that the Iraqis themselves have devised their own strategy and 
committed themselves to significant political, economic, and military 
steps. In the security dimension, Iraqi forces will lead a campaign, 
with our forces in support, to restore stability in Baghdad. This 
requires temporarily increasing U.S. force levels in Iraq.
    Our change in strategy will be enabled by a ``surge'' of roughly 
21,500 additional combat forces. These combat forces will support the 
Iraqi security forces as they protect the population, creating a more 
secure environment where political and economic progress can occur. 
Once the violence is reduced, it will be up to the Iraqi government, 
with U.S. support, to improve the delivery of essential services, to 
begin reconstruction and improvement of projects, and to invigorate 
economic life.
    In the long-term, the Iraqi government will be responsible for 
creating and implementing policies that will enable Iraq's ethnic and 
sectarian groups to reconcile and move towards common goals. The Iraqi 
government reconciliation initiatives include: enacting the equitable 
distribution of oil revenues; a new de-Baathification law; and selling 
the time and conditions for provincial elections.

    7. Senator McCain. Dr. Gates, some members of the Senate have 
proposed what they refer to not as a withdrawal of American forces from 
Iraq, but rather what they call a ``redeployment'' or an ``over the 
horizon force'' that would, in their minds, continue to exert military 
influence on Iraq after withdrawal from much of the country. The idea 
seems to be that U.S. forces would remain on bases in Iraqi Kurdistan, 
Kuwait, or elsewhere in the region and support the Iraqis with ``rapid 
reaction forces.'' How could we supply a huge forward operating base in 
the Kurdish region if we abandon all of Iraq to the south?
    Dr. Gates. The President's strategy is to take decisive action to 
help the Iraqis stabilize their country, make the Iraqi people more 
secure, and help the Iraqis reconcile with each other. We believe the 
best way to provide this support is for our forces to continue to 
operate within Iraq.

    8. Senator McCain. Dr. Gates, would the Turks be likely to allow us 
to supply it from their territory or would we be forced to fly in all 
required supplies?
    Dr. Gates. Turkey's support for efforts in Afghanistan and Iraq 
remains significant. A considerable volume of supplies supporting 
coalition forces flow through Turkey today. I would hope for this 
important cooperation to continue in the future.

    9. Senator McCain. Dr. Gates, if a quick reaction force is based in 
Kuwait, how would the forces get to Iraq when needed?
    Dr. Gates. Our Armed Forces have sufficient lift capability to 
achieve our strategic and operational objectives regardless of basing 
location.

    10. Senator McCain. Dr. Gates, would progress not be impeded, if 
not thwarted, by improvised explosive devices (IEDs) and a lack of any 
ground-level intelligence from U.S. forces?
    Dr. Gates. IEDs remain a threat throughout the region and the 
Department is committing significant resources to defeat this enemy 
tactic.

    11. Senator McCain. Dr. Gates, if a force based in Kuwait or 
Kurdistan instead flies to engage in combat in Iraq, would it not need 
to secure an airstrip, establish an interim base, transport fuel and 
supplies, and so on? If that is the case, how quickly would such a 
force in fact be able to deploy? Would it ever be relevant for tactical 
emergencies? Even for higher level emergencies, would it be at all 
feasible to move in large quantities of heavy equipment by air?
    Dr. Gates. The hypothetical premise in the question is not 
presently a part of U.S. policy discussions.

                         withholding documents
    12. Senator McCain. Dr. Gates, during your nomination hearing, 
Chairman Warner asked you whether you would provide documents requested 
by Congress or articulate a reasonable basis for withholding these 
documents. This is a standard question asked of all nominees appearing 
before this committee. You responded, ``Yes, to the limits of my 
authority.'' Please explain your qualification fully. Specifically, 
absent an assertion of executive privilege by the President of the 
United States, on what basis would you withhold producing documents 
requested by Congress?
    Dr. Gates. As Secretary of Defense, I intend to cooperate fully 
with Congress to ensure that the Department of Defense (DOD) adequately 
and timely responds to all congressional requests for Department 
documents in accordance with statutory and constitutional law.

                     improved detection technology
    13. Senator McCain. Dr. Gates, it is readily apparent by the damage 
inflicted upon U.S. and multinational forces in Iraq and Afghanistan, 
the continued use of terror bombs borne by humans and vehicles against 
civilians in those countries, the nearly complete neutralization of 
Israeli armor in Lebanon, and the extent to which air travelers are 
being searched for bombs, that no accurate and efficient technology 
exists to detect explosives in real time in a wide variety of 
backgrounds. The Joint Improvised Explosive Device Defeat Organization 
(JIEDDO) was created in the Department for this task, yet having spent 
billions and having created a bureaucracy of thousands with unusually 
high salaries, it has not produced any kind of solution after 3 years. 
Numerous technologies that have never succeeded continue to receive 
money based on previous contracts, political pork, and favors, and 
contractors only seem interested in building careers and not solving 
the problem. This problem--and associated threats such as detecting 
weapons in cargo containers--demands immediate and decisive executive 
action. This could include supporting technologies that the 
establishment deems `too risky'. As this and associated threats will 
not disappear any time soon, what course of action will you take upon 
confirmation to this office?
    Dr. Gates. The IED threat in Iraq and Afghanistan continues to be a 
threat our soldiers, sailors, airmen, and marines face in the combat 
theater. I understand that the JIEDDO was created to counter this 
threat and focuses on seeking out the most promising technologies, 
evaluating their suitability, and developing the best-of-class 
candidates into field-usable equipment--all on a dramatically 
compressed acquisition timeline. I am encouraged by their efforts and 
progress to date, and will continue to make this mission a high 
priority.
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
                              commissions
    14. Senator Sessions. Dr. Gates, the congressionally-mandated 
Electromagnetic Pulse (EMP) Commission and the Commission on the 
Implementation of the New Strategic Posture of the United States are 
both vital to protecting the United States from weapons of mass 
destruction (WMD). Accordingly, Congress designed these commissions so 
they could begin work promptly, and promptly, within 18 months, by June 
2007, deliver their recommendations to Congress. Why has DOD allowed an 
entire year to pass without establishing either commission, without 
providing any resources to support even a single meeting of the 
commission?
    Dr. Gates. I understand that the EMP Commission has been meeting 
periodically since May 2006, and will be meeting regularly to complete 
its work as required in 2007. I will review the legislative and funding 
status of the Strategic Posture Commission and determine whether the 
Commission needs additional funds from Congress or an extension in 
order to complete its work.

    15. Senator Sessions. Dr. Gates, what specific actions will the 
Secretary of Defense promptly undertake to ensure that the EMP 
Commission and the Strategic Posture Commission receive enough funding 
and time to accomplish their vitally important work?
    Dr. Gates. It is my understanding that the EMP Commission is on 
track. I will look into the issues surrounding the Strategic Posture 
Commission, including funding levels.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
                        interagency coordination
    16. Senator Collins. Dr. Gates, earlier this year, President Bush 
signed a National Security Presidential Directive-46 and Homeland 
Security Presidential Directive-15 in order to better orchestrate 
activities across a wide range of bureaucratic jurisdictions to counter 
extremist groups and terrorist networks. As chair of the Senate 
Homeland Security Committee, I fully understand the need for increased 
coordination both within and among government agencies. Some defense 
experts have suggested that new regional command structures--like the 
Joint Interagency Task Force that includes representatives from the 
military, intelligence, and law enforcement agencies to counter the 
drug trade--should be created to deal with terrorism, as well as arms 
and human trafficking. Under the current counterinsurgency doctrine, 
all aspects appear to be controlled through DOD. What efforts will you 
undertake to have the State Department either embed personnel or work 
directly with U.S. military forces on the ground in order to coordinate 
nation building efforts?
    Dr. Gates. There are a series of efforts underway to improve our 
nation-building activities: President Bush signed NSPD-44 to establish 
a framework for U.S. Government stabilization and reconstruction 
efforts; the State Department established a Coordinator for 
Reconstruction and Stabilization; and reform of foreign assistance is 
underway. At DOD, Directive 3000.05 is being implemented to help our 
military be prepared to conduct and support these missions. All of 
these efforts address critical issues for civil-military operations.

                              shipbuilding
    17. Senator Collins. Dr. Gates, the incident just a few weeks ago 
in which a Chinese submarine stalked a U.S. aircraft carrier battle 
group in the Pacific and surfaced within firing range of its torpedoes 
and missiles before being detected underscored the urgency of 
maintaining American seapower superiority and a viable shipbuilding 
industry. China's development of a new ``blue water'' navy makes it 
critical that a new direction at the Pentagon includes a renewed 
commitment to our Navy, to the next generation of warships, such as the 
DDG-1000, and to our shipyards. I am troubled by the decreasing size of 
the United States Navy, and believe that the funding allocated to 
shipbuilding in recent years has not been adequate to sustain the 
number of ships necessary to meet future national security 
requirements. The Chief of Naval Operations, Admiral Michael Mullen, 
has identified a requirement for a 313-ship Navy, but the Navy's fiscal 
year 2007 shipbuilding plan calls for the construction of only 7 new 
ships, far short of what is required to preserve today's fleet in the 
long-term. Budget constraints led to the drastic reduction in the 
acquisition and funding for DDG-1000 destroyers in December 2004, with 
this program being reduced from an original 20-plus ships to now only 
7. Over the last 5 years, the budget requests submitted to Congress for 
the shipbuilding and conversion account have averaged just over $9.5 
billion a year, with only $8.7 billion in the fiscal year 2006 budget 
request. In order for the Navy to achieve the 313 ships envisioned by 
Admiral Mullen's plan, however, defense analysts state that an average 
of $13.5 billion must be spent per year. The Congressional Budget 
Office has reported that the Navy needs to spend $16 billion per year 
between 2007 and 2024 to increase the fleet to about 313 ships, or $19 
billion a year through 2024 if historical trends in cost growth 
continue. Given current and emerging threats, how do you envision 
implementing Admiral Mullen's plan for a 313-ship Navy?
    Dr. Gates. I understand the Navy's commitment to building a 313-
ship force structure is based on its assessment of future operational 
requirements, and I will bear in mind this assessment in considering 
future defense budget submissions.

                              shipbuilding
    18. Senator Collins. Dr. Gates, DOD has been leasing foreign-built 
ships to satisfy long-term U.S. military sealift missions. Many of 
these foreign-built ships have been leased for 10 years each. U.S. 
shipbuilders have demonstrated that the unit cost of ships they build 
is reduced when the volume of ships they are building is increased. 
These savings come from volume in the shipyard and throughout the 
manufacturing supplier base that serves most, if not all, combatant 
ship platforms. If confirmed, would you support limiting the lease 
terms of foreign-built ships and support building these defense 
auxiliary ships in U.S. shipyards?
    Dr. Gates. The Department must ensure that it has and will continue 
to have access to sufficient industrial and technological capabilities 
to meet projected DOD shipbuilding requirements. The option to lease a 
vessel provides a timely and cost effective option to meeting a DOD 
requirement.

               strain on the national guard and reserves
    19. Senator Collins. Dr. Gates, it has now been over 5 years since 
the initial call-up and mobilization of National Guard and Reserve 
forces in support of the global war on terrorism. Under the current 
rules, no member of the Guard or Reserve may involuntarily be mobilized 
for more than 24 months to support any one particular contingency. 
Maine, like many other States, has a number of units who have already 
served the full amount. In fact, Maine's Adjutant General, Major 
General Libby, has stated that just about every unit in the Maine 
National Guard, with the exception of the Army Band unit, has deployed 
to either Iraq or Afghanistan and are no longer available to support 
operations in either Iraq or Afghanistan. If a new contingency 
operation is declared, these Guard and Reserve troops could yet again 
be mobilized. While many of these troops signed up for Guard and 
Reserve duty fully understanding that they could be called up, they 
most likely did not believe that they could spend 2 years out of every 
5 on Active-Duty. If confirmed, how do you plan to ease the strain on 
our Guard and Reserve members and their families?
    Dr. Gates. Our Reserve Forces will not be tasked with more than can 
reasonably be expected. To that end, I have adjusted several tenets of 
our Reserve mobilization policy to provide maximum predictability and 
flexibility. Specifically:

         Involuntary mobilizations shall be limited to a maximum of 12 
        months at any time (with exceptions allowed for some individual 
        training and post-mobilization leave time)
         The planning objective for involuntary mobilization of Guard/
        Reserve units will remain a 1 year mobilized to 5 years 
        demobilized (temporary exceptions may be needed as we move to a 
        broad application of 1:5 as soon as possible)
         Mobilization of ground forces will be managed on a unit basis 
        for cohesion and predictability
         The use of ``Stop Loss'' shall be minimized
         Members who are needed to do more than required by the 
        established mobilization and deployment rotation policies will 
        be compensated for such duty
         Exceptional circumstances facing members and their families 
        shall be recognized and accommodated by our hardship waiver 
        programs

    These adjustments allow for the removal of the 24 cumulative month 
limit on Reserve component members and, taken in total, these policy 
adjustments provide more prudent and judicious use of our Reserve 
Forces and significantly more predictability for members, their 
families, and employers.
    I will continue those programs that have been developed to monitor 
stress on our Reserve Forces and their families. As we implement this 
new policy, a transition period will require some exceptions.
                                 ______
                                 
             Questions Submitted by Senator Elizabeth Dole
                        africa combatant command
    20. Senator Dole. Dr. Gates, Africa is a continent with a number of 
strategic issues for the United States. From the al Qaeda bombings of 
our embassies in Tanzania and Kenya to the current genocide in Darfur, 
I believe it makes sense from a security standpoint for DOD to more 
clearly focus on the issues in the continent of Africa. This continent 
is currently under the European Command, and I am aware that a proposal 
to establish a separate Africa Combatant Command is in its final stages 
of development at the Pentagon. Do you support the establishment of an 
Africa Combatant Command?
    Dr. Gates. Yes. I recognize that the security challenges in Africa 
require greater attention and involvement by the U.S. Government as a 
whole. Establishing a new combatant command to help Africa address its 
security needs makes sense to me as a part of a broader U.S. Government 
approach.

    21. Senator Dole. Dr. Gates, how would you envision an Africa 
Combatant Command being structured?
    Dr. Gates. I am in the process of discussing options for its 
command structure with General Pace and senior defense leaders.

                          service recognition
    22. Senator Dole. Dr. Gates, extraordinary acts of courage and 
heroism are occurring every day in Iraq and Afghanistan. I don't feel 
that servicemembers who receive awards for such acts are getting enough 
attention in the national media. Don't you agree that we need to do 
more to give the courageous men and women who receive awards the 
broader public recognition they clearly deserve, and will you review 
DOD policy concerning the Medal of Honor and the service crosses so we 
can be assured all who deserve these valor awards are properly 
recognized? Only two servicemembers, over the last 5 years, have 
received the highest military recognition possible, the Medal of Honor, 
and only 26 who have served in Iraq have received service crosses. 
Compared to previous conflicts, these are extraordinarily low numbers. 
This generation shouldn't have to look to any other generation for 
heroes; there are plenty among them right now.
    Dr. Gates. I agree that America must recognize and celebrate her 
heroes. I am told that the Department is forwarding information about 
servicemembers who are decorated for acts of valor to Congress. The 
Pentagon also has a Web site that highlights those military men and 
women who have gone above and beyond in the global war on terror. While 
we must recognize heroism, we must be careful to achieve a balance with 
operational security and force protection in any release of 
information.
    In regard to criteria for valor awards, we must sustain a credible 
awards program that is consistent with military tradition and is 
supportive of a strong military ethos. I will work to ensure that our 
men and women achieve the recognition that is their due.

                       special operations forces
    23. Senator Dole. Dr. Gates, when I was recently in Iraq, I visited 
with Special Operations Forces (SOF) and was so impressed by what they 
were doing to fight the enemy. North Carolina is home to the Joint 
Special Operations Command, the Army Special Operations Command, and 
the new Marine Corps Special Operations Command. I, as much as anyone, 
want our SOF to grow, but we need to grow the force in a manner that 
doesn't sacrifice the quality and lower the standards for the people 
going into this force. Would you give me your thoughts on the size and 
responsibilities of these extremely talented forces?
    Dr. Gates. Growth in our SOF must not come at the expense of the 
quality of this very valuable part of our armed forces. I will work to 
ensure that SOF growth continues in a measured, sensible manner.

                           predatory lending
    24. Senator Dole. Dr. Gates, more than 7,000 servicemembers have 
lost their security clearances due to financial problems since 2002. In 
my view, this is not just a financial problem, but a readiness issue as 
well, and predatory lending practices directed at servicemembers are a 
major explanation for their financial problems. Last year, I authored a 
provision in the defense authorization bill requiring the DOD to 
prepare a study for Congress on how to best address the problem of 
predatory lending. This year's defense authorization bill included most 
of the recommendations of this report. I would appreciate your 
assurance that the steps required by this legislation will be fully 
implemented.
    Dr. Gates. I know the men and women of the Armed Forces appreciate 
the support provided by Congress to limit the impact of predatory loans 
on servicemembers and their families. I will ensure the Department 
complies with the law and implements regulations in partnership with 
the seven Federal regulatory agencies listed in the statute.

                       foreign troop restrictions
    25. Senator Dole. Dr. Gates, the President raised concerns during 
last week's North Atlantic Treaty Organization (NATO) summit that the 
troop restrictions on how specific countries' forces can be used in 
Afghanistan are hindering our efforts to defeat the Taliban. Some of 
these caveats had been removed, but how much will actually change 
remains uncertain. Clearly, success in Afghanistan is just as much in 
the interest of Germany, France, Spain, and Italy, countries that still 
continue to insist on maintaining their restrictions. How harmful are 
these restrictions in Afghanistan to achieving our military objectives 
in that country?
    Dr. Gates. I generally oppose national caveats that undermine the 
ability of commanders to deploy and use the troops available in the 
most effective manner.

    26. Senator Dole. Dr. Gates, did last week's agreement go far 
enough in addressing this problem, and wouldn't lifting all troop 
restrictions reduce the need to add more troops in Afghanistan?
    Dr. Gates. I understand that some progress was made in Riga with 
regard to caveats. I welcome the Riga Declaration pledge to ensure that 
ISAF has the forces, resources, and the flexibility needed to ensure 
the mission's continued success. I will work with our allies to ensure 
ISAF effectiveness.

    27. Senator Dole. Dr. Gates, don't these kinds of restrictions 
undermine NATO's long-term overall effectiveness and credibility?
    Dr. Gates. Restrictions can lead to an unequal burden among 
alliance partners.

                               energy use
    28. Senator Dole. Dr. Gates, approximately three-fourths of the 
entire use of energy resources by the Federal Government is used by 
DOD. Energy security is a critical issue for our Nation, especially as 
it relates to our national defense. In a time when we need to be less 
dependent on foreign sources of energy, do you have any thoughts on how 
DOD can be more energy efficient and independent?
    Dr. Gates. I agree that energy efficiency and energy security are 
important issues facing our Nation and DOD.

                            iraq ministries
    29. Senator Dole. Dr. Gates, Secretary Rumsfeld's November 6th memo 
raises important problems concerning the inadequate contribution of a 
number of Federal agencies towards our efforts to strengthen the Iraqi 
security forces. In his memo, Secretary Rumsfeld suggested that we 
strengthen the Iraqi Ministries of Finance, Planning, Health, Criminal 
Justice, Prisons, etc., by reaching out to military retirees and 
Reserve volunteers--and give up on trying to get other U.S. Government 
departments to do it. Will you work with your Cabinet colleagues to 
bring the expertise that exists across our Federal Government to 
contribute to the critical effort of strengthening the Iraq Ministry of 
Defense, Ministry of Interior, and other ministries?
    Dr. Gates. Yes.

                       small business competition
    30. Senator Dole. Dr. Gates, there are many small high-tech 
companies that are in a position to make important contributions to our 
military. Many of these innovative businesses, however, find it 
difficult, at best, to successfully compete for contracts with DOD. 
While the Department does have some programs to address this problem, 
don't you agree that more needs to be done so small business can 
compete more fairly to meet current and future DOD needs?
    Dr. Gates. I believe small businesses are an important source of 
innovation for the Defense Industrial Base. I will work with the 
Department's senior acquisition executives to ensure that small 
businesses are given opportunity to participate in the acquisition 
process.
                                 ______
                                 
            Questions Submitted by Senator Edward M. Kennedy
                    department of defense management
    31. Senator Kennedy. Dr. Gates, Secretary Rumsfeld was known for 
having a contentious relationship with the military, and in particular, 
the Army. What will you do to mend relations with the uniformed 
military?
    Dr. Gates. I believe that strong working relationships among the 
leaders of the Department and the military services are an important 
factor in effective leadership, and to that end, I intend to ensure the 
decisionmaking process is as open, transparent, and agile as possible.

    32. Senator Kennedy. Dr. Gates, how will you seek to elicit candid 
advice from the uniformed leadership?
    Dr. Gates. I will seek to elicit candid advice from the uniformed 
leadership by ensuring the decisionmaking process is as open, 
transparent, and agile as possible.

    33. Senator Kennedy. Dr. Gates, the current secretary spent much of 
his time focused on ``transforming'' the military at the same time as 
he was dealing with Iraq. Some have criticized transformation as moving 
the military towards high-technology warfare that may be inappropriate 
to fighting a counter-insurgency. What is the appropriate balance 
between transformation and other challenges, such as Iraq?
    Dr. Gates. I do not consider transformation to be solely based in 
technology solutions, but on the overall goal of revamping our forces 
to be able to rapidly adapt to current and future global threats. I 
have not been in office for sufficient time to fully evaluate the 
impacts of transformation, but I am impressed with much of the progress 
that I have witnessed thus far. I see transformation as a process of 
effecting fundamental change with the goal of redirecting the 
Department's emphasis and shifting our weight from practices and 
assumptions of the past to those necessary for the 21st century.

    34. Senator Kennedy. Dr. Gates, is transformation advancing our 
goals in Iraq or providing our forces the tools they need to fight an 
insurgency?
    Dr. Gates. Transformation should prepare us to fight the wars of 
the 21st century. In the short term it is also helping advance our 
goals in Iraq and Afghanistan by developing military capabilities that 
are vital to our operations in both countries.

                        relations with congress
    35. Senator Kennedy. Dr. Gates, at its core, Iran-Contra was about 
the Reagan administration's efforts to circumvent the Boland Amendment, 
which prohibited direct aid to the Contras in Nicaragua. Do you believe 
that the President--acting as Commander in Chief--has the authority to 
act contrary to laws enacted by Congress?
    Dr. Gates. Respect for the law is critical to our democratic form 
of government. As Secretary of Defense, I will strive to meet the 
Department's responsibilities under the law. In particular, I will seek 
the legal advice of the Attorney General on matters where the 
interpretation and implementation of statutes are in dispute.

    36. Senator Kennedy. Dr. Gates, President Bush has expanded the use 
of signing statements. Many of these statements suggest that the 
President will choose to comply with legislation at their discretion, 
including on providing reports to Congress. As the Secretary of 
Defense, what weight do you give these statements?
    Dr. Gates. My understanding is that a signing statement expresses 
the President's understanding and interpretation of a particular law, 
not the application of the law in any specific instance. I further 
understand that signing statements are not executive orders. I intend 
to comply with both statutory and constitutional law.

    37. Senator Kennedy. Dr. Gates, do you intend to comply with the 
law, or do you believe the signing statements give you authority to 
ignore statutory requirements?
    Dr. Gates. I intend to comply with the law.

                              intelligence
    38. Senator Kennedy. Dr. Gates, in December 1991 you spoke of the 
difficulty analysts face in seeing the ``world as it is, not as we or 
others would wish it to be.'' You have written extensively on the 
influence policymakers have in seeking intelligence. As Secretary, what 
steps will you take as a policymaker to elicit objective, non-biased 
assessments?
    Dr. Gates. As Secretary, I will hold the Defense Intelligence 
Components accountable to look for alternative explanations. I will 
work closely with the Director of National Intelligence to ensure the 
integrity of the analytic process throughout the Intelligence Community 
is maintained and that analysts have the necessary intelligence 
information to perform their duties.

    39. Senator Kennedy. Dr. Gates, when, if ever, is it appropriate 
for DOD to create a special office, such as the Office of Special 
Plans, to interpret intelligence and make plans outside of the regular 
interagency coordination rules?
    Dr. Gates. The Secretary of Defense does have the authority to 
organize and manage the Department using the authorities inherent in 10 
U.S.C., section 113. As stated in my testimony, I will notify and 
confer with the appropriate committees of jurisdiction to the extent of 
my authority. I believe that the Department of Defense, as well as all 
other executive branch agencies and departments, has an obligation to 
abide by all applicable rules and regulations. This is particularly the 
case in an area of such complexity and subjectivity as intelligence 
analysis.
    I do not have particular knowledge on the activities of the Office 
of Special Plans, but I plan on adhering to this principle during my 
tenure.

    40. Senator Kennedy. Dr. Gates, will you fully cooperate with the 
Senate Select Committee on Intelligence (SSCI) investigation into pre-
war intelligence by providing documents and interviews?
    Dr. Gates. It is my understanding that the Department provided 
extensive and significant support to the SSCI pre-war intelligence 
investigation both in the form of documents and personal appearances. I 
will work cooperatively with the appropriate oversight committees on 
this and other matters.

    41. Senator Kennedy. Dr. Gates, the Department's domestic 
intelligence activities have received some public attention but not 
enough oversight by Congress over the past few years. As I'm sure you 
are aware, serious questions have been raised about a database called 
Talon, run by the Counterintelligence Field Activity containing reports 
on peaceful protest activities by Americans exercising their 
constitutionally guaranteed right to freedom of religion and freedom of 
speech, such as the American Society of Friends or the Quakers and the 
growing number of Americans who oppose the war in Iraq. There have been 
reports about datamining activities by the Department, which are said 
to replicate parts of the Total Information Awareness program that 
Congress sought to halt publicly a few years ago; and of course since 
September 11 the Northern Command (NORTHCOM) has been stood up and it 
has a large intelligence component. If confirmed, will you commit to 
providing this committee and others with jurisdiction, with a full and 
complete picture of all domestic intelligence activities currently 
being undertaken by the Department (e.g. a full accounting of the 
datamining and all other domestic intelligence activities by DOD in the 
United States)?
    Dr. Gates. I will, to the extent of my authority, cooperate with 
appropriate committees of jurisdiction on this and other matters.

    42. Senator Kennedy. Dr. Gates, do you agree that it is 
inappropriate for the defense agencies to be maintaining databases 
about Quakers and others who oppose the administration's policies 
regarding Iraq?
    Dr. Gates. I am not familiar with the specifics you cite, but I 
believe the Department must do all that is lawful to protect our 
country and its citizens. We are guided by EO 12333 and we will ensure 
effective oversight and review of our programs.

    43. Senator Kennedy. Dr. Gates, don't you agree that anti-terrorism 
efforts are diminished and important resources are wasted with 
monitoring Americans who are exercising their fundamental rights?
    Dr. Gates. The Department should not inappropriately monitor the 
legally protected activities of any U.S. citizen.

    44. Senator Kennedy. Dr. Gates, do you agree that domestic 
intelligence gathering is more appropriately the task of agencies other 
than DOD and that the military protects our civil liberties by being 
strong overseas and respecting the privacy of Americans at home?
    Dr. Gates. The Department's intelligence collection activities are 
appropriately governed by U.S. law, executive order, and DOD directive. 
I agree that the Department must carefully balance its force protection 
missions with domestic privacy concerns.

                      unsecured munitions in iraq
    45. Senator Kennedy. Dr. Gates, concerns remain about the threat 
posed to our troops, Iraq's stability, and the region from unsecured 
munitions in Iraq. Would you be willing to conduct a theater-wide 
survey and risk assessment regarding unsecured munitions in Iraq?
    Dr. Gates. Unsecured munitions in Iraq continue to pose a threat to 
our troops, Iraqis, and the region in general. I intend to consult with 
my commanders, the Iraqis, and experts on the subject to determine if 
any additional steps need to be taken in this area.

               stability operations vs. combat operations
    46. Senator Kennedy. Dr. Gates, what steps will you take to ensure 
priority implementation of DOD Directive 3000.05, which states that 
stability operations should be of equal importance to major combat 
operations?
    Dr. Gates. I believe that this directive is a critical tool for 
improving our capabilities to conduct stability operations, 
counterinsurgency and other types of irregular warfare. DOD is changing 
its doctrine, planning, training, education, and exercises, and is 
exploring how to improve intelligence, information sharing, and 
contracting for private sector support. I will review the efforts to 
ensure they meet our objectives.

                                  iran
    47. Senator Kennedy. Dr. Gates, clearly America has an interest in 
preventing Iran from acquiring a nuclear capability. But we also have 
an interest in ensuring that Iran does not promote further instability 
in Iraq and endanger our troops. How do we balance these interests, and 
do we achieve one goal at the expense of the other?
    Dr. Gates. In general, I believe that no option that could 
potentially benefit U.S. policy should be off the table. However, the 
price for peace in Iraq should not be to allow Iran to obtain a nuclear 
weapons.

                              afghanistan
    48. Senator Kennedy. Dr. Gates, how do you define success in 
Afghanistan, and what are our prospects for achieving it?
    Dr. Gates. We will have succeeded in Afghanistan when that country 
is: 1) a reliable, stable ally in the war on terror; 2) democratic, 
with a healthy private-sector economy; 3) capable of effectively 
governing its territory and borders; and 4) respectful of the rights of 
all its citizens. It will take significant effort by the Afghan people, 
the United States, and the international community to fully achieve 
these goals, and I am confident that we will achieve them.

    49. Senator Kennedy. Dr. Gates, in early October, the NATO 
commander in Afghanistan, British General David Richards, said 
Afghanistan is at a tipping point and Afghans are likely to switch 
their allegiance to resurgent Taliban militants if there is no visible 
improvement in people's lives in the next 6 months. What actions would 
you take as Secretary of Defense to capitalize on this window of 
opportunity?
    Dr. Gates. The Government of Afghanistan, the United States, and 
the international community must raise our level of effort across the 
board in Afghanistan. The Department of Defense's most significant 
contribution will be our mission to train and equip the Afghan National 
Security Forces (ANSF), and I understand that the ANSF--the army in 
particular--have exceeded our expectations. By ensuring that the ANSF 
is properly sized and resourced to build on this success, we will set 
the conditions for defeating the insurgency. We have trained and 
equipped over 90,000 members of the ANSF. Other actions include 
extending the tour of the 3/10th Mountain to assist a planned offensive 
in the spring, pressing for more resources from our allies, and 
accelerating our progress on improving Afghan forces, governance, and 
economic development.

    50. Senator Kennedy. Dr. Gates, General James Jones, the Supreme 
Allied Commander for Europe, testified before the Senate Foreign 
Relations Committee on September 21, and was asked by Senator Chuck 
Hagel: ``Is it true, as some allege, that the headquarters of the 
Taliban is in or around the Pakistani city of Quetta?'' General Jones 
responded, ``That is generally accepted. Yes, sir.'' Should we give 
President Musharref a deadline for closing down the Taliban 
headquarters and their recruiting and intelligence operations?
    Dr. Gates. President Musharref has been and continues to be a 
valuable ally in the war on terror. The United States continues to 
actively work with his government to pursue Taliban and al Qaeda 
elements.

    51. Senator Kennedy. Dr. Gates, in 2006, Taliban-led insurgents 
have become more aggressive, in some cases mimicking suicide and 
roadside bombing tactics used in the Iraq insurgency particularly in 
Uruzgan, Helmand, Qandahar, and Zabol Provinces. They have clearly 
learned techniques from Iraq. What steps would you propose taking to 
ensure that lessons from Iraq are being applied to operations in 
Afghanistan?
    Dr. Gates. Our enemy is smart, cunning, and very adaptive to the 
conditions on the ground. The enemy learns from its operations just as 
we do. I am currently reviewing and assessing our operations with the 
senior military leadership to determine a way ahead.

                            drug-trafficking
    52. Senator Kennedy. Dr. Gates, opium poppy cultivation reached its 
highest level in history this year, reaching 165,000 hectares of 
cultivation--60 percent more than last year--and that resulted in 6,100 
metric tons of opium--92 percent of the world supply. Doesn't that 
indicate that the current policy is not working and something different 
needs to be done?
    Dr. Gates. The poppy cultivation figures in Afghanistan are a 
significant concern. I understand that DOD is supporting interdiction 
and helping to build an Afghan capacity to combat the narcotics through 
numerous efforts, primarily training and equipping the Counternarcotics 
Police-Afghanistan (CNPA). DOD is working with the DEA and State 
Department to provide a credible counternarcotics police force that 
will be able to conduct investigations, prosecute the drug traffickers, 
and dismantle drug trafficking organizations. DOD is also assisting in 
building border management and security capacity for the Afghan border 
forces. As a part of my review of our efforts in Afghanistan, I will 
look closely at DOD's support to the counternarcotics mission.

                            drug-trafficking
    53. Senator Kennedy. Dr. Gates, how should our government address 
the involvement of high-level officials, including some governors and 
police chiefs, in drug trafficking?
    Dr. Gates. DOD is assisting the Departments of State and Justice to 
establish a credible judicial system in Afghanistan. Our goal is for 
the police in Afghanistan to be able to prosecute all drug traffickers, 
including high-level officials that are involved. This will, however, 
take the political will of the Afghan leadership.

                                 sudan
    54. Senator Kennedy. Dr. Gates, many of us are troubled by the lack 
of effective action by the international community in dealing with the 
massive genocide taking place in Darfur, Sudan. Over 400,000 people 
have died, and further 2.5 million have been displaced. The unrelenting 
violence goes on, and it's also spilling over into other African 
nations. Now diplomatic efforts are underway to convince the Sudanese 
government to accept a United Nations (U.N.) peacekeeping force to 
supplement the African Union force that's been attempting to reduce the 
violence. But the Sudanese government keeps rejecting every reasonable 
proposal. Should our military be planning for contingencies in Sudan if 
the conditions continue to deteriorate?
    Dr. Gates. The Department continues to work with the Department of 
State and the National Security Council staff to look at ways to 
address the humanitarian crisis in the region and to support potential 
U.N. deployment to help stabilize the situation.

    55. Senator Kennedy. Dr. Gates, if the Sudanese government 
continues the violence, what action by the United States would you 
recommend to the President that he take?
    Dr. Gates. If the President tasks the Department to recommend 
courses of action in Sudan, we will conduct appropriate planning and 
make recommendations that meet U.S. goals.

    56. Senator Kennedy. Dr. Gates, in March 2005, the U.N. Security 
Council declared in U.N. Security Council Resolution 1591 (UNSCR 1591) 
a ban on offensive military flights over Darfur. Since that time, 
however, the Sudanese government has continued to bomb villages and 
civilian targets without repercussions. Do you believe that the no-fly 
zone should be enforced?
    Dr. Gates. I believe that the no-fly zone as called for in UNSCR 
1591 should be respected. If the Government of Sudan were to accept its 
responsibilities as outlined in UNSCR 1591, no-fly zone enforcement 
would not be necessary.

    57. Senator Kennedy. Dr. Gates, if the U.N. calls for enforcement 
of the no fly zone, how could DOD be most helpful?
    Dr. Gates. If the President directs, DOD could support such an 
effort, but it would be important to assess what the implications would 
be for other U.S. missions using the same assets. We also could enable 
others with mission support and would want to work closely with 
partners to meet enforcement requirements.

                                 africa
    58. Senator Kennedy. Dr. Gates, do you support the creation of a 
regional combatant command for Africa? If yes, what do you see as being 
its highest priority missions?
    Dr. Gates. Yes, Africa Command (AFRICOM) is necessary because 
Africa is growing in military, strategic, and economic importance in 
global affairs. AFRICOM's highest priority missions will focus on 
maintaining and promoting regional security and stability. The primary 
emphasis will be on Theater Security Cooperation efforts, humanitarian 
assistance, disaster response, security assistance, and supporting 
global war on terrorism operations. These priority missions will be 
conducted in partnership with the interagency and other organizations 
working in Africa.

    59. Senator Kennedy. Dr. Gates, how important is Africa to the U.S. 
national interests and to the U.S. military in terms of its goals?
    Dr. Gates. The globalization of threats means that we cannot ignore 
any region and Africa is of growing importance to the United States and 
the rest of the world. We will continue to work with our African 
partners to help build their capabilities and support the Department of 
State in its lead role in addressing these emerging concerns.

                         basic research funding
    60. Senator Kennedy. Dr. Gates, overall research and development 
(R&D) investment in the United States is stagnating and the Federal 
share is shrinking. The United States will face increasing 
international competition in R&D from emerging countries and top 
economic performers alike. Between 1980 and 2006, DOD's focus on basic 
research dropped from 20 percent of total science and technology (S&T) 
funds to approximately 12 percent. As the President of Texas A&M, you 
served on the National Academy of Sciences' committee on 
competitiveness, ``Rising Above the Gathering Storm: Energizing and 
Employing America for a Brighter Economic Future.'' That report found, 
``the commitment to basic research, particularly in the physical 
sciences, mathematics, and engineering, is inadequate.'' It paid 
particular attention to reductions in DOD basic research funding, 
especially in light of the benefits of defense research. Among the 
report's recommendations that are applicable to DOD:

          A. The Government should increase funding for basic research 
        by 10 percent each year for 7 years.
          B. The Federal Government should establish 200 new research 
        grants a year at $500,000 each to fund new research 
        opportunities at universities and government labs for early-
        career researchers.
          C. At least 8 percent of the budgets of Federal research 
        agencies should be set aside for high-risk, high-payoff 
        research.

    What steps will you take to meet these goals?
    Dr. Gates. Increasing DOD funding for basic research to these 
levels will require a continuous effort.
    My personal experience in government, my tenure in academia, and 
membership on the ``Gathering Storm'' committee and numerous other 
National Research Council Boards provide a basis for reviewing DOD 
basic research levels. However, I remain mindful of the many factors 
and urgent considerations that are all competing for the same Federal 
dollars. Realizing the importance of basic research to the future of 
the United States, and to our military, I will work hard to maintain an 
appropriate balance between basic research funding and the many other 
competing priorities contained within the defense budget.

                           laboratory talent
    61. Senator Kennedy. Dr. Gates, the technological superiority, 
exhibited by U.S. troops on the battlefield, in large measure is a 
result of scientific and technical innovations and discoveries 
developed over the past 10 or 20 years at the defense laboratories, 
including the U.S. Army Soldier Systems Center in Natick, MA. If we are 
to maintain this battlefield technological superiority, it is essential 
that the defense laboratories remain preeminent scientific 
institutions. This can only occur if these laboratories are able to 
hire, motivate, and retain the best and the brightest scientists and 
engineers. To this end, Congress has provided the defense laboratories 
authorities that have enabled them to compete successfully with the 
private sector for critical technical talent. I believe it is 
imperative that the Department continues to use these authorities 
aggressively to ensure a robust in-house technical capability. Do you 
support the full utilization and expansion of personnel management 
authorities granted to you by Congress under section 342 of the 
National Defense Authorization Act (NDAA) for Fiscal Year 1995 and 
section 1114 of NDAA for Fiscal Year 2001?
    Dr. Gates. I welcome the management authorities provided by 
Congress and will pursue management procedures that enable the 
laboratories to hire, motivate, and retain the Nation's top scientists 
and engineers.

                         islamic fundamentalism
    62. Senator Kennedy. Dr. Gates, in March 1992 you said ``I am not 
ready to concede that Islamic Fundamentalism is, by its nature, anti-
Western and anti-democratic.'' Has your view changed?
    Dr. Gates. In February 1992, I testified before the House Foreign 
Affairs Committee that, ``I think our view of it is often shaped by 
what we have seen with the Shias in Iran, and we certainly have seen 
fundamentalists elsewhere, Islamic Fundamentalists hostile to what we 
would consider democratic values and also the United States, I am not 
ready yet to concede that Islamic Fundamentalism is by its nature, 
anti-Western and anti-democratic. There are some fundamentalist 
elements in the region--they are not in power--that are not necessarily 
that way, and I think that it is also in evolution. There certainly are 
some that are anti-Western and anti-democratic and anti-U.S. I think it 
is premature. This is a phenomenon that we have seen really over a 
period of a dozen years or so, arising out of the Iranian revolution--
of some small part of it before that, too--but I would hesitate to make 
that judgment yet.'' As I did then and now, I recognize that there are 
radical elements within Islam that seek to destroy our democratic way 
of life, however, I still contend that Islamic Fundamentalism, by its 
nature, is not necessarily anti-Western and anti-democratic.

    63. Senator Kennedy. Dr. Gates, what steps would you propose we 
take to address Islamic Fundamentalism?
    Dr. Gates. The United States must engage effectively in the 
ideological struggle with violent Islamist extremists. We must support 
moderate Islamic voices and oppose those who seek to use Islam to 
spread violence and promote extremist ends.

    64. Senator Kennedy. Dr. Gates, on September 30, 2001, you said: 
``I think that we have to--at the same time that we are conducting our 
unconventional war to bring these people to justice, the people that 
were responsible for the disaster on September 11, I think our policies 
also need to have a positive component that illustrates that we do 
understand that there is a great deal of anti-Americanism out there on 
the Arab street among Arab populations and those in the Middle East and 
Gulf area.'' How would you evaluate DOD's performance in this area in 
the last 5 years?
    Dr. Gates. The U.S. Government and the Department need to be more 
effective in demonstrating America's values to Muslim populations 
around the world and particularly in the Middle East.

    65. Senator Kennedy. Dr. Gates, what specific changes would you 
propose, if confirmed?
    Dr. Gates. After I examine the Defense Department's current 
approach to strategic communication, support to public diplomacy, and 
countering ideological support for terrorism, I will be in a better 
position to suggest any changes.

                            detainee issues
    66. Senator Kennedy. Dr. Gates, the President has said we will use 
military commissions to try the worst of the worst. The legitimacy of 
the commissions is enhanced if you bring serious cases first. Will you 
review the people currently slated for trial by commission to ensure 
that we are meeting that goal by trying the leaders of al Qaeda, and 
not watering down the seriousness of the commissions by trying those 
who may have attenuated relations to terrorist acts?
    Dr. Gates. As Secretary, I do not determine who is selected for 
prosecution or the order of trials. I believe, however, that 
prosecutors should work expeditiously to bring to trial cases that are 
ready for prosecution.

    67. Senator Kennedy. Dr. Gates, many members of the medical 
community, as well as leading organizations like the American 
Psychiatric Association and the American Medical Association, have 
expressed serious concern about guidelines issued by DOD that create a 
central role for physicians and other health professionals in 
interrogation, that govern treatment of hunger strikers, and which 
implicate other matters involving professional integrity, because these 
guidelines and the roles they authorize are inconsistent with the 
traditions of health professional ethics. Do you have a view on whether 
the current guidelines are consistent with these traditions? Is further 
review required? If confirmed, what steps would you take to address 
these matters?
    Dr. Gates. I am not familiar with the specifics cited in your 
question. However, I understand that DOD policy concerning care of 
detainees requires medical personnel to treat detainees in a manner 
similar to what is provided for our own personnel.
    I am informed that DOD has engaged in dialog with a number of 
leading medical professionals and societies concerning medical ethics 
issues, and understand that senior leaders of the general medical 
community have visited Guantanamo. I support continued collaboration 
between military and civilian medical leaders, incorporation into DOD 
policy of mainstream principles of medical ethics, and maintenance of 
the historic mutual support between military and civilian medicine.

    68. Senator Kennedy. Dr. Gates, Congress has been very concerned 
about the interrogation guidelines used by military personnel to 
interrogate detainees. In December 2002, your predecessor authorized 
interrogation techniques including stripping detainees naked, use of 
dogs, hooding, and sensory deprivation. The new Army Field Manual, 
Human Intelligence Collector Operations (FM 2-22.3) reiterates that 
such techniques are prohibited. In addition, the Detainee Treatment Act 
reinforces the prohibition on cruel, inhuman, or degrading treatment 
and makes clear that no U.S. personnel may engage in such conduct 
anywhere in the world. Can you assure the committee that you will not 
authorize techniques that violate the Constitution, the Detainee 
Treatment Act, the Geneva Conventions, or the Convention Against 
Torture?
    Dr. Gates. I will not authorize interrogation techniques that 
violate the U.S. Constitution or any applicable U.S. law.

    69. Senator Kennedy. Dr. Gates, in your opinion, are there any 
instances where ``military necessity,'' as the President's February 7, 
2002, directive termed it, might require deviation from the 
requirements of Common Article 3?
    Dr. Gates. I would note that ``military necessity'' is a 
fundamental concept within the law of war and is reflected in the 
Geneva Conventions of 1949. I believe that it is important that the 
U.S. Armed Forces continue to conduct their operations in accordance 
with the law of war, including Common Article 3, as applicable.

    70. Senator Kennedy. Dr. Gates, both the Detainee Treatment Act and 
the Military Commissions Act provide that ``No individual in the 
custody or under the physical control of the United States Government, 
regardless of nationality or physical location, shall be subject to 
cruel, inhuman, or degrading treatment or punishment.'' Please advise 
the committee whether you understand the following to be prohibited by 
these provisions or any other Department directives:

          A. Waterboarding
          B. Inducing hypothermia or heat injury
          C. Forcing the detainee to be naked
          D. Stress positions
          E. Sleep deprivation
          F. Slapping

    Dr. Gates. None of the techniques described in A through F are 
specifically authorized by the U.S. Army Field Manual on Human 
Intelligence Collector Operations. Because the Detainee Treatment Act 
of 2005 provides that no person in the custody or under the effective 
control of DOD or when detained in a DOD facility shall be subject to 
any treatment or technique of interrogation not authorized by and 
listed in the field manual, such techniques would not be permissible.

    71. Senator Kennedy. Dr. Gates, do you believe that the Central 
Intelligence Agency (CIA) and the military should operate under one 
standard when interrogating enemy prisoners?
    Dr. Gates. Department of Defense Directive 3115.09 applies one 
interrogation standard (U.S. Army Field Manual 2-22.3) to all DOD and 
non-DOD personnel interrogating detainees in the custody or under the 
effective control of DOD, or under detention in a DOD facility. DOD 
defers to the CIA concerning detainees not in the custody of or under 
the effective control of DOD.

    72. Senator Kennedy. Dr. Gates, in conducting joint detention and 
interrogation operations with other government agencies, how will DOD 
ensure that its interrogation standards govern and are complied with?
    Dr. Gates. DOD Directive 3115.09 requires that ``other U.S. 
Government agencies, foreign government representatives, or other 
parties who request to conduct intelligence interrogations, 
debriefings, or other questioning of persons detained by DOD must agree 
to abide by DOD policies and procedures before being allowed access to 
any detainee under DOD control. Such agreement shall be formalized in a 
written document signed by the agency, government representative, or 
party requesting access to a detainee. A trained and certified DOD 
interrogator shall monitor all interrogations, debriefings, and other 
questioning conducted by non-DOD or non-U.S. Government agencies or 
personnel. If an interrogator is not available, a DOD representative 
with appropriate training and experience shall monitor the 
interrogation, debriefing, or other questioning. DOD monitor shall 
terminate the interrogation, debriefing, or other questioning, and 
report to higher authorities if the other party does not adhere to DOD 
policies and procedures.''

    73. Senator Kennedy. Dr. Gates, do you believe that the 
preservation of Common Article 3 of the Geneva Conventions is vital to 
the safety of U.S. personnel?
    Dr. Gates. U.S. Armed Forces have conducted, and will continue to 
conduct, their operations in accordance with the law of war, including 
Common Article 3, as applicable.

    74. Senator Kennedy. Dr. Gates, do you believe this standard 
protects all U.S. special operations personnel?
    Dr. Gates. Yes, law of war protections apply to protect all U.S. 
military personnel, including special operations personnel. In the case 
of U.S. military personnel who may be detained during ``armed conflict 
not of an international character occurring in the territory'' of a 
State Party to the Geneva Conventions the protections of Common Article 
3 would be applicable at a minimum.

    75. Senator Kennedy. Dr. Gates, how should DOD work with other 
executive agencies to preserve Common Article 3 protections, including 
the protections on fair trials?
    Dr. Gates. The Department has worked closely with and will continue 
to work with other executive agencies, including, among others, the 
Department of Justice, to ensure compliance with Common Article 3 
protections, including the protections applicable to fair trials.

    76. Senator Kennedy. Dr. Gates, will you provide to Congress the 
details of the Department's treatment of Jose Padilla and Ali Al Marri?
    Dr. Gates. DOD has and continues to operate a secure, safe, and 
humane environment for detainees at the Naval Consolidated Brig 
Charleston. As you are aware, these cases are the subject of pending 
litigation such that I cannot comment beyond what is in the public 
record. Subject to this limitation, however, and should you desire, I 
would be more than happy to provide you with further information 
regarding the conditions of detention for these individuals while they 
were under DOD control.

    77. Senator Kennedy. Dr. Gates, will you provide to Congress the 
intelligence obtained from these two individuals [Jose Padilla and Al 
Marri] while in U.S. custody?
    Dr. Gates. Upon request, the DOD will, consistent with national 
security considerations and the need to protect the integrity of 
ongoing criminal prosecutions, provide to the appropriate committees of 
Congress available information obtained from the interrogations of Jose 
Padilla and Al Marri that were conducted by DOD.

                   consultation with military lawyers
    78. Senator Kennedy. Dr. Gates, prior to passage of the Detainee 
Treatment Act of 2005, the heads of the military Judge Advocate General 
Corps were kept out of the process for developing the military 
commissions guidelines and interrogation guidelines. These general and 
flag officers have great expertise in U.S. military jurisprudence and 
in the law of war. What steps will you take to consistently involve, 
heed, and include the military lawyers' opinions on these and other 
matters?
    Dr. Gates. I am aware generally of the concerns you cite, but am 
not familiar with the particulars. That said, I have great respect for 
the military Judge Advocates General and will seek their views, where 
appropriate.

                          gays in the military
    79. Senator Kennedy. Dr. Gates, we have all read reports of Arabic 
linguists and other servicemembers who have been thrown out of the 
military because of their sexual orientation. At the same time, we have 
seen all too often reports of shortages of Arabic linguists, 
involuntary activations for reservists, and moral waivers given to 
recruits with criminal records. If you were given authority to waive 
the ban on gays in the military for certain specialties that face 
critical manning shortfalls and are important for the Nation's 
security, would you exercise it?
    Dr. Gates. The Department will, of course, continue to follow 
congressional direction on homosexual conduct. I am informed that no 
military member is discharged due to his or her sexual orientation. 
Title 10, U.S.C., section 654 refers to conduct--not orientation. I am 
also told that the number of individuals discharged due to the 
Department enforcing this law represents a very small proportion of 
military discharges overall--0.3 percent for 2004 and 2005.

                        chinese submarine threat
    80. Senator Kennedy. Dr. Gates, recently we were made aware of an 
incident involving the U.S.S. Kitty Hawk, operating in the waters off 
of Japan, and a Chinese Song-class submarine. It has been reported and 
confirmed by the Navy that the Chinese submarine was able to move to 
within 5 nautical miles of the Kitty Hawk while tracking the vessel. 
All this comes as the United States has been engaged in an 
unprecedented level of cooperation with the Chinese military. I find 
these reports troubling. Can you comment on what appears to be a 
serious increase in the Chinese blue water navy's capabilities?
    Dr. Gates. Since the late 1990s, China's maritime strategy has 
evolved along two paths, both of which require naval operations farther 
from the Chinese shore than the Chinese Navy traditionally operated. 
First, China is focused on a regional anti-access capability, which is 
principally applicable in preventing third-party intervention in a 
Taiwan crisis. Second, China is expanding their maritime strategy to 
include a mission to protect China's growing dependence on maritime 
commerce for economic development.
    Much of China's naval modernization program, which has been ongoing 
in earnest since the late 1990s is thus oriented toward building a 
force with the capability to operate in an open ocean environment in 
support of both an anti-access strategy and a mission to protect 
China's maritime commerce and economic interests.

    81. Senator Kennedy. Dr. Gates, how does this alter regional 
security and our forward posture in the eastern Pacific?
    Dr. Gates. DOD's February 2006 Quadrennial Defense Review (QDR) 
highlighted the potential disruptive effects of these capabilities on 
regional security, and commits the United States to work with partner 
states to build capacity and reduce vulnerabilities. Critical 
components of this effort involve diversifying our basing structure; 
promoting constructive bilateral relationships in the region; and, 
developing appropriate counters to anti-access threats.

                         shipbuilding programs
    82. Senator Kennedy. Dr. Gates, today's naval fleet numbers 278 
ships. I understand that the Chief of Naval Operation's 5-year 
shipbuilding plan calls for $14.1 billion for new ship construction 
beginning in fiscal year 2008, with increases each year to $19.1 
billion in fiscal year 2012 in order to begin rebuilding the fleet to 
313 ships. Will you support the Chief of Naval Operation's proposed 
budget of $14.1 billion in fiscal year 2008 to begin rebuilding the 
fleet to 313 ships?
    Dr. Gates. I understand the Navy's commitment to building a 313 
ship force structure based on its assessment of future operational 
requirements, and I will consider that as we make our future defense 
budget submissions.

    83. Senator Kennedy. Dr. Gates, DOD has been leasing foreign-built 
ships to satisfy long-term U.S. military sealift missions. Many of 
these foreign-built ships have been leased for 10 years each. U.S. 
shipbuilders have demonstrated that the unit cost of ships they build 
is reduced when the volume of ships they are building is increased. 
These savings come from volume in the shipyard and throughout the 
manufacturing supplier base that serves most, if not all, combatant 
ship platforms. The Navy believes that they need to have the option of 
leasing some foreign-built ships to support the fleet without 
additional restrictions or limitations beyond those already in law. 
What is you view of limiting the lease terms of foreign-built ships, 
and will you support building new defense auxiliary ships in U.S. 
shipyards?
    Dr. Gates. The Department must ensure that it has and will continue 
to have access to sufficient industrial and technological capabilities 
to meet projected DOD shipbuilding requirements. The option to lease a 
vessel provides a timely and cost effective option to meeting a DOD 
requirement.

                ddg-1000 zumwalt class destroyer program
    84. Senator Kennedy. Dr. Gates, the ongoing DDG-1000 Zumwalt-Class 
Destroyer program is integral to the Navy's Family of Ships (FOS) 
current approach to technology development and reuse. As a 
technologically advanced fleet is crucial in maintaining force 
projection capabilities, how, in your estimation, will the DDG-1000 
program factor into our future maritime posture?
    Dr. Gates. I understand that the DDG-1000 program is intended to 
bring many needed innovations into our surface Navy, and enhance the 
Navy's abilities to deliver sustained, long range, precision fires in 
support of joint forces ashore.

                             u-2 spy plane
    85. Senator Kennedy. Dr. Gates, the National Defense Authorization 
Act for Fiscal Year 2007 reversed Air Force plans to retire the U-2 
reconnaissance plane. The Act established that a U-2 plane could only 
be retired if the Secretary of Defense certifies that no capability 
will be lost through the plane's retirement. The Act also directed the 
Air Force to study the integration of the U-2's imagery collection 
capability onto its possible successor, the Global Hawk Unmanned Aerial 
Vehicle (UAV). To my knowledge, the Air Force has yet to act on the 
study; however, the Under Secretary of Defense for Intelligence did 
restore funding for the U-2 in the Program Objective Memorandum (POM). 
If confirmed, what would you do to sustain and enhance the imagery 
collection capability currently hosted on the U-2 reconnaissance 
aircraft?
    Dr. Gates. Maintaining existing imagery collection capabilities 
necessary to meet the critical intelligence requirements of the 
warfighter remains an important Department mission.

    86. Senator Kennedy. Dr. Gates, what would you do to ensure the Air 
Force will determine how it will migrate this capability to other 
platforms?
    Dr. Gates. The National Defense Authorization Act for Fiscal Year 
2007 directed the Air Force to study the integration of the U-2's 
imagery collection capability onto its possible successor, the Global 
Hawk UAV. I will ensure that the Department complies with this 
requirement.

                               early bird
    87. Senator Kennedy. Dr. Gates, the Current News Early Bird has 
traditionally presented a variety of views on defense issues, but under 
your predecessor's tenure, they have become increasingly less diverse. 
You have noted the importance of a diversity of views and information 
in the policymaking process. Will you review the editorial content of 
the Early Bird to ensure that it presents a variety of views on defense 
issues?
    Dr. Gates. I have always welcomed and encouraged diverse points of 
view. As I understand the Early Bird, it is simply an electronic 
clipping service of defense related print news stories. It is not part 
of the ``policymaking process'' and is but one product designed to 
highlight significant news items to the leadership of the Department. 
As I have the opportunity to read more of the Early Bird and assess it 
along with other available information sources, I will consider changes 
as appropriate.

    88. Senator Kennedy. Dr. Gates, will you bring back the Early Bird 
Supplement to enhance the diversity of content?
    Dr. Gates. I am not familiar with the Supplement. It is my 
understanding that it ceased to exist some time ago when the Early Bird 
expanded from 5 to 7 days per week, thereby extending the coverage. As 
I have the opportunity to assess news and information products coming 
to me, I will consider changes if necessary.

                             public affairs
    89. Senator Kennedy. Dr. Gates, as reported by CNN, in the last few 
months of his tenure, your predecessor began a rapid response operation 
in the Public Affairs Office to respond to negative coverage of himself 
and the Department. How much has the Department spent on this effort, 
and how many people were added to its payroll for this effort?
    Dr. Gates. All budget and personnel costs associated with the 
Department's Public Affairs office were funded through existing budget 
allocations. I have directed that this element of the Public Affairs 
office be disestablished.

    90. Senator Kennedy. Dr. Gates, will you review this effort and 
then describe for Congress its activities?
    Dr. Gates. See previous answer.

    91. Senator Kennedy. Dr. Gates, do you expect this effort to 
continue?
    Dr. Gates. See previous answer.

                               diversity
    92. Senator Kennedy. Dr. Gates, Texas A&M University has received 
significant criticism during your tenure as president of the university 
for harboring a climate that is inhospitable to racial, ethnic, and 
cultural diversity. If confirmed, what specific measures will you take 
to ensure that principles of racial, ethnic, and cultural diversity are 
properly embraced and, if necessary, properly enforced throughout DOD?
    Dr. Gates. Texas A&M University's commitment to diversity 
throughout all aspects of the school is one of long standing. However, 
that commitment was strengthened significantly during my presidency. 
During my tenure as President of Texas A&M University, I identified 
four key areas that would come to represent the fundamental agenda for 
the university. One of those four areas included a substantive 
commitment to enhancing the diversity of the institution in all its 
various aspects.
    Consistent with that commitment, I established the Office of the 
Vice President and Associate Provost for Diversify, and called for the 
development of a diversity plan. The diversity plan laid out with 
specificity the courses of action that the university would pursue to 
enhance diversity and the dates by which identified goals would be 
completed. Among the actions called for in the diversity plan, which I 
approved during my tenure, was the conduct of climate studies involving 
students, faculty, and staff. Data gathering is currently underway. 
Planning for the preparation of status reports on progress made in a 
number of other areas that will be available to the entire campus 
community is also underway.
    An indication of the kind of impact that I had on the campus 
climate and the diversity of Texas A&M University can be seen in the 
increase in the number of applications for admission by ethnic minority 
students, in the growth of the minority student population, and in the 
growth in the composition of the university's faculty that is comprised 
by members of ethnic minority communities. For example, from 2003 to 
2006, the number of completed applications for admission by African 
American students increased by 45.4 percent. Among Hispanic students, 
the increase in the number of completed applications for admission 
between 2003 and 2006 was 38.6 percent. In terms of actual enrollment, 
over the last 3 years, with the implementation of a new admissions 
strategy that I implemented, African American freshman enrollment 
increased by some 77 percent, Hispanic freshman enrollment increased by 
about 59 percent, and Asian American freshman enrollment increased by 
more than 71 percent.
    During my administration, the university also established the first 
statewide network of regional prospective student centers, staffed with 
both admissions and financial aid advisers, to recruit students for 
Texas A&M. The university now has one each in Dallas, Corpus Christi, 
San Antonio, the Brazos Valley, and McAllen, as well as two in Houston. 
An eighth will be added in Laredo this fall. These permanent 
recruitment infrastructures allowed us to establish long-range 
relationships with local counselors, teachers, and principals, as well 
as work with individual families from every ethnic group and socio-
economic background to show them how their son or daughter can apply to 
A&M and, if admitted, alternative ways to finance their education. This 
progressive strategy enhanced the diversity of our applicants as well 
as our admitted students.
    Access and inclusion was such a high priority of mine that I 
invested considerable time visiting predominately minority high schools 
to encourage the students to consider Texas A&M University.
    For the current school year, the total invested by Texas A&M 
University in new scholarship funds is over $20 million since fiscal 
year 2004. For the coming year, that amount will increase by another $4 
million.
    One of my greatest achievements as President of Texas A&M 
University was the enhancement of the university's faculty diversity. 
Over the course of the past 3 years, 352 new faculty positions have 
been filled as part of the Faculty Reinvestment Program, and 55.4 
percent of those new hires were either minority or female (not 
overlapping). During that time period, the increase in the number of 
African American faculty members was 47.4 percent. For Hispanics, the 
increase in the number of new faculty members was 37.2 percent. Those 
increases in the number of faculty members who were either African 
American or Hispanic helped to establish Texas A&M University as a 
leader among the Nation's prominent research-intensive universities 
(including Penn State University, Ohio State University, the University 
of California, Berkeley, the University of Wisconsin-Madison, etc.). 
For example, Texas A&M University ranks second in the proportion of 
Hispanic faculty members among 17 of the leading research-intensive 
universities in the country. It ranks 11th among those same 17 
institutions in terms of the number of African American faculty 
members.
    My focus was not only on increasing the representation of 
underrepresented populations; it reached beyond that to consider the 
campus environment and culture. In recognition of the need to improve 
the campus climate I called for enhanced education of our community 
members with an initial focus on students and faculty.
    To address students, this charge was met by strengthening the 
diversity education session offered during our required New Student 
Conferences for undergraduates. The content of the educational session 
was enriched and the time allotted for the session was lengthened from 
45 minutes to 2 hours. To provide continuing education for returning 
students, I inaugurated the Global Leadership Institute which is a 
year-long, high-quality learning experience characterized by commitment 
to diversity and to the discovery, development, communication, and 
application of culturally broadened knowledge.
    Throughout my time at Texas A&M University, I affirmed diversity as 
a necessary component of academic excellence and I publicly espoused 
this often. To engage the faculty in making this vision more clear and 
the opportunity for a richly diverse campus a reality, I invited all 
academic department heads to join me in participating in a day-long 
retreat led by a leading race scholar. During this session we engaged 
in frank dialogue about how to enhance the quality of life for 
underrepresented members of our community and we shared strategies on 
ways to influence the recruitment and retention of outstanding faculty, 
staff, and students of color. This was a first step in what I 
envisioned would be many more dialogues as we worked together to 
address this complex issue.
    Additionally, to ensure support of the college Deans, I identified 
accountability measures in their performance reviews by requiring 
evidence of measurable progress over the long-term as well as clear 
plans and initiatives that would illustrate sustained engagement in 
achieving our diversity-related goals.
    With regard to staff, Texas A&M University recently became the 
first institution of higher education to be honored with the U.S. 
Secretary of Labor's prestigious Opportunity Award. The university 
received the award November 15, 2006, during the U.S. Department of 
Labor's annual Exemplary Voluntary Efforts ceremony in Washington, DC. 
Texas A&M received the award in recognition of its outstanding efforts 
in recruiting and retaining a diverse workforce. The accomplishments 
noted in the nomination occurred during my tenure through the 
collaborative work of many.
    Likewise, the U.S. military has led the Nation for years in 
providing equal opportunity and equitable treatment for racial and 
ethnic minorities and women. Our Armed Forces are composed of a 
talented, highly qualified, and diverse mix of people. I am committed 
to ensuring that the Department of Defense continues on this track and 
advances the principle of diversity based on equal opportunities and 
equitable treatment.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd
                             preemptive war
    93. Senator Byrd. Dr. Gates, in your answers to the Senate Armed 
Services Committee's advance policy questions, you say that you 
believed, based upon intelligence information at that time, that we 
should have taken this preemptive action and invaded Iraq. Then you 
state that ``with the advantage of hindsight'' and if you had been the 
Secretary of Defense for the last 6 years, you would have handled the 
occupation differently. Would you please expand upon your views on the 
use of preemptive invasion?
    Dr. Gates. I support the National Security Strategy (NSS) of the 
United States signed by President Bush in September 2002, which clearly 
describes the U.S. Government's position on preemptive actions.

    94. Senator Byrd. Dr. Gates, in hindsight, has the Iraq experience 
been in the American national interest?
    Dr. Gates. Saddam Hussein's regime was a dangerous and disruptive 
force to the region and it was and is in America's interest to try to 
bring stability to that part of the world.

                               civil war
    95. Senator Byrd. Dr. Gates, the media has carried speculation that 
the administration may pick sides in the Iraqi civil war: fight on the 
Shia and Kurdish side against the Sunnis. Based upon your experience 
and service on the Iraq Study Group, how would siding with the Shia 
resonate in Saudi Arabia, Egypt, Syria, and Jordan?
    Dr. Gates. The United States should support the legitimate, elected 
government of Iraq. The Iraqis will determine for themselves what the 
makeup of that government will become--and the makeup will change over 
time. I do not believe it would be in our or the Iraqis' interests for 
the United States to side with a particular sect.

    96. Senator Byrd. Dr. Gates, is picking sides in Iraq in the 
American national interest?
    Dr. Gates. The United States should support the legitimate, elected 
government of Iraq.

                               guantanamo
    97. Senator Byrd. Dr. Gates, the detention facility at Guantanamo 
has become an international embarrassment to the United States. Even 
Great Britain, our closest ally, has urged the administration to close 
the camp. In your advance policy questions, you state that you are 
``aware of no good alternative'' to the prison at Guantanamo. Why can't 
we try suspected terrorists at Fort Leavenworth?
    Dr. Gates. I have asked for a comprehensive review of this and 
related matters involving the Guantanamo Bay detainee operation.

    98. Senator Byrd. Dr. Gates, DOD has asked Congress for permission 
to spend $102 million for new buildings at Guantanamo. Why should we 
invest more money in a prison camp that simply reminds the world of 
embarrassments like torture, extraordinary renditions, and Abu Ghraib?
    Dr. Gates. Upon further review, I decided to rescind this request 
and revamp the support structure necessary to conduct military 
commission trials at Guantanamo.

                         anti-insurgent warfare
    99. Senator Byrd. Dr. Gates, the administration is apparently 
designating the invasion as Phase 1, the occupation as Phase 2, and the 
planned long-term, reduced-profile, continued occupation as Phase 3. 
Are our troops qualified to train the Iraqis? Our warfighters are 
brave, competent fighters in the traditional sense, but are they 
experienced insurgency fighters?
    Dr. Gates. During my visit to Iraq earlier this month, I had an 
opportunity to have face-to-face discussions on a wide range of issues 
with our military leadership and the service men and women who are 
serving in harm's way. My initial impressions, after this visit, enable 
me to answer yes to both questions.

    100. Senator Byrd. Dr. Gates, do they, among other skills, have the 
required language skills?
    Dr. Gates. I am told that not all assigned personnel have the 
requisite language skills, but the DOD has instituted compensatory 
measures. Qualified interpreters for example, are embedded with most 
transition teams to ensure full communication between Iraqi and U.S. 
forces. I am also told that the Services have also significantly 
increased pre-deployment and in-deployment-cycle training to improve 
language familiarization and cultural skills of deploying forces. This 
is an area we must continue to emphasize.

                           political solution
    101. Senator Byrd. Dr. Gates, we have heard reports that the Baker-
Hamilton recommendations will include the goal shared by many Senators 
on this committee, namely, that the United States do more to provide 
training and support to Iraqi police and security forces while drawing 
down our own military presence in the Nation. I ask you whether a 
similar strategy should be adopted for finding political solutions to 
the civil war in Iraq. When the Sunni minority joined the government in 
2005, they joined with the understanding that parts of the Iraqi 
constitution would be rewritten and that agreements would be reached on 
how power would be shared among the Shiites, Sunnis, and Kurds. But no 
talks have been held. No framework exists. Without such a framework, I 
fear that the chaos will continue to reign. As a result, gunmen on the 
street and their shadowy bosses--and not diplomats and elected 
leaders--will decide the fate of Iraq. Our troops will be caught in the 
ever-increasing, ever deadlier crossfire. At the same time that we are 
considering shifting our role militarily, should we also shift into a 
new role diplomatically? In essence, should we not help to establish 
the framework for discussions among the Sunnis, Shiites, and Kurds to 
settle on a distribution of political power?
    Dr. Gates. The framework for discussions among the Sunnis, Shiites, 
and Kurds is already in place. The Iraqi Four Point Plan to end 
sectarian violence was announced on October 2, 2006. Sunni and Shiite 
leaders agreed to a plan to end sectarian violence. Commitments were 
obtained from Sadrist and Badr organization leaders as well as from 
those representing Sunni constituencies. Also, on October 16, 2006, the 
Iraqi Presidency Council announced a political timeline that included 
plans for the distribution of power. The United States supports these 
Iraqi efforts.

    102. Senator Byrd. Dr. Gates, do you think that we will see any 
modicum of peace and stability while only focusing on what role our 
troops will play in Iraq's future?
    Dr. Gates. There is no purely military solution in Iraq. Long-term 
security is contingent on political and economic progress, which will 
continue to require the full commitment of the other departments of the 
U.S. Government, the Iraqi government, Iraq's regional neighbors, and 
the international community.

                         budgeting for the war
    103. Senator Byrd. Dr. Gates, in our meeting last week, I raised 
the issue of budgeting for the war. You responded that many decisions 
relating to the President's fiscal year 2008 budget request had already 
been made, and that you intend to begin consultations with Congress on 
budgeting for the war. In your responses to the advance policy 
questions, you stated that you will comply with the McCain-Byrd 
amendment which requires the administration to budget for the war and 
to provide full year's cost estimates to Congress. I wish to clarify 
your statements to me and your answers to the advance policy questions. 
Do you intend to advise the President to include in his budget a 
detailed request for funds for Iraq and Afghanistan?
    Dr. Gates. Yes.

    104. Senator Byrd. Dr. Gates, will you provide Congress with your 
best estimate of the full year's cost of the wars in Iraq and 
Afghanistan when asked to do so by the Senate Appropriations Committee, 
the Senate Armed Services Committee, or the Senate Budget Committee?
    Dr. Gates. Yes.

                             interrogation
    105. Senator Byrd. Dr. Gates, on September 6, 2006, upon release of 
the new Army Field Manual FM 2-22.3, Lieutenant General John Kimmons 
stated: ``No good intelligence is going to come from abusive practices. 
I think history tells us that. I think the empirical evidence of the 
last 5 years, hard years, tell us that. Moreover, any piece of 
intelligence which is obtained under duress, under--through the use of 
abusive techniques would be of questionable credibility. Additionally, 
it would do more harm than good when it inevitably became known that 
abusive practices were used. We can't afford to go there.'' Do you 
agree with General Kimmons' statements?
    Dr. Gates. Yes.

    106. Senator Reed. Dr. Gates, one of the disturbing aspects of the 
promulgation of abusive interrogation techniques from within the Office 
of Secretary of Defense was the decision to ignore the opinions of the 
military top lawyers (the Judge Advocates General)--who objected to 
many of the proposals as illegal and endangering U.S. personnel--and to 
hide from them and particular secretaries of the Armed Forces the 
official detention and interrogation policy. What steps will you take 
to involve, heed, and include the military lawyers' opinions on these 
and other matters?
    Dr. Gates. I understand that the recent enactment of legislation 
has provided DOD with clear statutory guidance on the question of 
interrogation techniques. While I am aware generally of the concerns 
you cite, I am not familiar with the particulars. That said, I have 
great respect for the military Judge Advocates General and will seek 
their views, where appropriate.

                       basic research investments
    107. Senator Reed. Dr. Gates, the National Academies study and 
report, ``Rising Above the Gathering Storm,'' calls for doubling 
investments in defense basic research over 7 years. As a member of the 
panel that wrote that report, would you, if confirmed as the Secretary 
of Defense, seek to increase basic research funding as a means to 
strengthen our Nation's national security?
    Dr. Gates. Increasing DOD funding for basic research to these 
levels will require a continuous effort. My personal experience in 
government, my tenure in academia, and membership on the ``Gathering 
Storm'' committee and numerous other National Research Council Boards, 
provide a basis for reviewing DOD basic research levels. However, I 
remain mindful of the many factors and urgent considerations that are 
all competing for the same Federal dollars. Realizing the importance of 
basic research to the future of the United States, and to our military, 
I will work hard to maintain an appropriate balance between basic 
research funding and the many other competing priorities contained 
within the defense budget.

    108. Senator Reed. Dr. Gates, given that we are due for a change in 
administration in 2 years, will you make it a priority to begin that 
doubling process in the current fiscal year?
    Dr. Gates. As I stated in my December 5 confirmation hearing, I 
will take a close look at a number of issues in the fiscal year 2008 
President's budget.

                             manufacturing
    109. Senator Reed. Dr. Gates, what is your assessment of the role 
that DOD should play in the development of new manufacturing 
technologies that can both support our defense industrial base and 
enhance our civilian manufacturing industries?
    Dr. Gates. DOD needs a responsive industrial base with advanced 
manufacturing technologies and processes that not only advance 
technology, but reduce cost and lead times. The Department will 
continue to encourage industry to meet these goals.

                                 energy
    110. Senator Reed. Dr. Gates, what role do you think DOD should 
play in promoting the development and use of alternative energy 
technologies and energy efficiency technologies to save resources and 
provide enhanced combat capabilities?
    Dr. Gates. Developing and using alternative energy technologies and 
energy efficiency technologies to save resources continue to be an 
important issue for the Department. I will review our current policies 
and look for ways to improve.

    111. Senator Reed. Dr. Gates, DOD has begun to make energy a higher 
priority because of the growing recognition that all military missions, 
both conventional and emerging missions for homeland defense, are 
highly energy dependent. There is apparently growing Pentagon 
recognition that energy systems burdened with large, highly visible 
processing and delivery infrastructures, and labor intensive manpower 
delivery requirements at home and in theater, leave the military 
unnecessarily vulnerable. There is also growing recognition that our 
country's addiction to oil limits U.S. foreign policy options, which in 
turn affect military strategies and options. I understand that 
Secretary Rumsfeld sent down two memos asking what the Generals and the 
Defense Science Board could do about reigning in wasteful energy use 
and improving operational efficiency. Additionally, Marine Corps Major 
General Richard Zilmer called for an immediate delivery of wind and 
solar equipment to Iraq as a ``Priority 1'' need because too many 
personnel hours are being spent on refueling and trucking in fuel in 
convoys that are vulnerable to insurgents, and power is unstable day to 
day. Do you intend to continue, or even strengthen, the Department's 
focus on energy efficiency and renewable energy in order to improve 
conventional and emerging military missions? If not, why not?
    Dr. Gates. I believe energy conservation will continue to be a 
priority, as it impacts both security and overhead costs. I will review 
the Department's energy policy with this in mind.

                            naval fleet size
    112. Senator Reed. Dr. Gates, today's naval fleet numbers 278 
ships. The Chief of Naval Operation's 5-year shipbuilding plan calls 
for $14.1 billion for new ship construction beginning in fiscal year 
2008, with increases each year to $19.1 billion in fiscal year 2012 in 
order to begin rebuilding the fleet to 313 ships. Will you support the 
Chief of Naval Operation's proposed budget of $14.1 billion in fiscal 
year 2008 to begin rebuilding the fleet to 313 ships?
    Dr. Gates. I understand the Navy's commitment to building a 313-
ship force structure based on its assessment of future operational 
requirements, and this will be a key consideration in making future 
budget decisions.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka
                           veterans' affairs
    113. Senator Akaka. Dr. Gates, as a member of the Senate Armed 
Services Committee and the Senate Veterans' Affairs Committee, which I 
will have the privilege to chair, I am deeply concerned about the 
status of the relationship between DOD and the Department of Veterans 
Affairs (VA), especially with regards to meeting the needs of our 
youngest veterans. If confirmed, what steps will you take to promote 
improved cooperation and coordination between the two departments?
    Dr. Gates. I understand that this issue is on the President's 
management agenda. I am told that the departments have undertaken 
significant efforts to collaborate on improving policy oversight, 
sharing healthcare resources, finding ways to improve marketing, record 
keeping, and claims processing, and delivering transition assistance. I 
look forward to continuing to build on this process.

                     irregular warfare capabilities
    114. Senator Akaka. Dr. Gates, in your responses to this 
committee's advance policy questions, you stated that DOD needs to 
strengthen its irregular warfare capabilities. If confirmed, what steps 
will you take toward implementing this change?
    Dr. Gates. The QDR recognized a need to improve the Department's 
ability to conduct irregular warfare. This will require building 
capability and capacity among both our General Purpose Forces and SOF 
for irregular warfare. I will review the Department's policies on 
irregular warfare.

                        recruiting and retention
    115. Senator Akaka. Dr. Gates, you have stated that recruiting and 
retaining the best people is a core DOD priority. Yet, meeting 
recruitment goals has remained a difficult challenge. If confirmed, 
what changes in approach to recruitment and retention, if any, need to 
be made in order to ensure that our Armed Forces have the personnel 
necessary to meet its mission goals?
    Dr. Gates. I understand that all Active components made their 
fiscal year 2006 numerical recruiting and retention goals. The Reserve 
components collectively reached 97 percent of their enlisted accession 
goals in fiscal year 2006. I will continue to monitor achievement of 
our recruiting and retention goals and work with the Secretaries of the 
Military Departments in order to ensure that we have adequate, trained, 
high-quality manpower to defend the Nation.

                          defense intelligence
    116. Senator Akaka. Dr. Gates, in the past, you have been an 
outspoken proponent for having a strong civilian agency counterbalance 
to the efforts undertaken by the Department's various and numerous 
intelligence agencies. If confirmed, in what ways, if any, do you 
intend to strengthen the relationship and cooperation between civilian 
intelligence agencies and the Department's intelligence branches in 
order to provide alternative intelligence perspectives?
    Dr. Gates. As Secretary of Defense and a former Director of Central 
Intelligence, I have a great appreciation for the benefits accrued from 
having a strong, unified Intelligence Community. Competitive analysis 
that results from the diverse group of intelligence organizations that 
exist both within and outside DOD improves the quality of analysis. I 
intend to work closely with the Director of National Intelligence to 
ensure and enhance the integrity of the analytic process through strong 
analytic discipline that promotes information sharing, vets sources 
carefully, questions assumptions, clearly represents the facts, and 
weighs alternative perspectives.

                              north korea
    117. Senator Akaka. Dr. Gates, you have publicly stated that North 
Korea presents a security threat particularly in light of its ongoing 
development of a nuclear weapons program. Do you believe that we have 
the operational capacity necessary to effectively respond to a crisis 
in the U.S. Pacific Command (PACOM) region? If not, what steps will you 
take to ensure that the necessary operational capacity is met?
    Dr. Gates. I intend to review the response capability of all the 
regional combatant commanders. However, I believe that the U.S. PACOM 
has the necessary operational capacity to effectively respond to a wide 
spectrum of possible contingencies, to include possible security 
threats from North Korea.

                                  iran
    118. Senator Akaka. Dr. Gates, you have previously stated that it 
is an ineffective strategy to try and make a ``grand bargain'' with 
Iran. Instead, our efforts should focus on incrementally building 
relations by selectively engaging Iran in areas where the national 
interests of our two countries converge. To what extent do you still 
believe that this is a viable approach to our strategic relations with 
Iraq?
    Dr. Gates. There are certain issues about which we should not 
bargain, whether it is a ``grand bargain'' or selective engagement. For 
example, Iran should not sponsor terrorism or be a haven for terrorist 
cells, such as al Qaeda, or fund terrorist groups in Lebanon that seek 
to destabilize the region. The U.S. also does not want nuclear weapons 
in the hands of the Iranian regime. This is something about which the 
international community has been very explicit. I look forward to 
discussing with Secretary Rice a range of options on the most effective 
approach toward Iran.

                   national security personnel system
    119. Senator Akaka. Dr. Gates, as you may know many Federal 
employees and their unions have criticized the National Security 
Personnel System (NSPS), claiming that the system threatens employees' 
due process rights, effectively eliminates collective bargaining, and 
proposes a pay and performance system that lacks clear training, 
adequate funding, and objectivity. What is your opinion of each of the 
principle objections raised by the employees and unions, and what will 
you do as Secretary to address those concerns?
    Dr. Gates. By enacting NSPS, Congress charged the Secretary of 
Defense with adapting civil service rules to the needs of the 21st 
century. Succeeding in that task must remain a priority. I know that 
several issues related to collective bargaining and employee due 
process rights are now before the courts. I will review the 
Department's progress with NSPS and ensure the program is on course for 
success.

    120. Senator Akaka. Dr. Gates, at the Senate Homeland Security 
Committee Oversight of Government Management Subcommittee hearing on 
the NSPS on April 12, 2006, we received testimony that NSPS training 
was basically an unfunded mandate. This is of great concern because 
some entities, like the Pearl Harbor Naval Shipyard, are mission 
funded. As such, it appears that some programs may be scaled back or 
eliminated by the Department to pay for NSPS training. What steps will 
you take to ensure that NSPS training is fully funded, and that any 
costs associated with implementing the new personnel system do not 
displace other training programs or DOD missions?
    Dr. Gates. A robust training program is essential to the success of 
NSPS. I will review this issue to ensure NSPS and other training 
programs are properly funded.

    121. Senator Akaka. Dr. Gates, during congressional consideration 
of the NSPS in 2003, the Department testified that NSPS would aid in 
the conversion of military positions to civilian positions. It was 
estimated at that time that there were approximately 320,000 positions 
that could be converted. Secretary Chu testified in March 2006 before 
the committee that over 20,000 positions have been converted to date. 
What criteria will you use to determine whether a military position 
should be converted to a civilian position?
    Dr. Gates. When DOD components review the military billets for 
conversion, they verify which of the billets must remain military due 
to laws, treaties, executive orders, and international agreements, and 
which are required for readiness or workforce management reasons. This 
includes military positions needed for wartime assignments, career 
progression, rotation, and other similar requirements. In addition, 
certain inherently governmental responsibilities that require military-
unique knowledge and skills cannot be converted to either DOD civilian 
or private sector performance.
                                 ______
                                 
               questions submitted by senator bill nelson
                         science and technology
    122. Senator Bill Nelson. Dr. Gates, you recently coauthored a 
report for the National Academy of Sciences titled ``Rising above the 
Gathering Storm'', which, in part, treats the decline in American 
investment in S&T, noting the dwindling number of qualified S&T 
graduates and the need to expand the mission for Federal laboratories. 
I share your concern on that issue and hope we can work together on it. 
Are we to expect, therefore, as Secretary of Defense, that you will 
reemphasize the importance of S&T in our defense laboratories and the 
role that university and small businesses play in developing new 
capabilities for the Department?
    Dr. Gates. Based upon my experience in government and universities, 
I recognize the importance of S&T in our defense laboratories, coupled 
with universities and both small and large industry. As the ``Gathering 
Storm'' report makes very clear, for too long the entire country has 
placed S&T education, its promotion, and support into a category marked 
``For future generations.'' The future is now upon us. As President of 
Texas A&M University, I served on numerous National Research Council 
boards which dealt with the breadth of this complex issue in rigorous 
depth. From my experiences, it is clear that the Nation must act in 
this area of vital importance to our economic and military security. 
Given the current unfavorable trends in the Nation's production of 
physical sciences and engineering graduates and postgraduates, we 
should strengthen and encourage the study of physical sciences and 
engineering at all levels. It is in our long-term interest to promote 
and support science and engineering education in the Nation.

    123. Senator Bill Nelson. Dr. Gates, I know that defense labs, like 
the Air Force lab at Eglin Air Force Base, struggle to maintain their 
technically excellent personnel and world class research facilities. 
Will you make it a priority to strengthen the ability of these 
laboratories to hire and retain the quality of scientists and engineers 
and build world class facilities and instrumentation needed to maintain 
these defense laboratories as preeminent scientific institutions?
    Dr. Gates. Having served as the President of a major research 
university, I understand laboratories need world class facilities and 
instrumentation to conduct their research, as well as to recruit and 
retain a top-quality research staff of scientists and engineers.

                          test and evaluation
    124. Senator Bill Nelson. Dr. Gates, the DOD test and evaluation 
community serves an indispensable role in ensuring that our deployed 
soldiers, sailors, airmen, and marines are using the highest quality 
and most effective equipment possible. However, it seems that whenever 
there is a budget crisis--as we are facing now--these testing 
activities are the first to be cut. We are dealing with an issue like 
this right now--regarding the Air Force and some decisions to reduce 
testing infrastructure. If confirmed, will you make it a priority to 
ensure that the Department as a whole and each of the Services 
specifically maintain its testing infrastructure and budgets to address 
both our current and future acquisition needs?
    Dr. Gates. Effective testing is important both for developing 
capabilities and assuring they will work as promised in operations.

                     nuclear aircraft carrier fleet
    125. Senator Bill Nelson. Dr. Gates, for the last several years the 
Navy has argued that the Nation needed 15 carriers to meet combatant 
commander requirements around the world, and that a 12-carrier fleet 
was an acceptable risk driven by budget limitations. Since then, the 
carrier fleet has been reduced even further to only 11. In your 
judgment, can the Nation adequately fulfill its strategic obligations 
with fewer than 12 carriers even though the requirement for years has 
been 15?
    Dr. Gates. The Navy has developed risk mitigation strategies such 
as the Fleet Response Plan (FRP) which allow for greater adaptability, 
flexibility, and sustainability of forces. I will work to ensure that 
the Navy's available carrier fleet is able and ready to meet all 
operational requirements.

    126. Senator Bill Nelson. Dr. Gates, in the Senate Budget 
Committee's hearing on March 2, 2006, Deputy Secretary of Defense, 
Gordon England, reaffirmed his judgment as former Secretary of the Navy 
that it is in the security interests of the United States to establish 
a second nuclear aircraft carrier homeport on the Atlantic coast in 
Florida. Vice Chairman of the Joint Chiefs, Admiral Ed Giambastiani, 
echoed the importance of reducing risk to our carrier fleet by 
dispersing out carriers and their necessary support facilities across 
two ports. What will you do as Secretary of Defense to accelerate the 
process of establishing a second Atlantic coast nuclear aircraft 
carrier base and minimize the strategic risk to our fleet?
    Dr. Gates. I understand that the Navy is taking the preliminary 
steps to determine the feasibility of establishing a second nuclear 
aircraft carrier home port on the Atlantic Coast. The environmental 
impact statement (EIS) for this purpose will be completed in January 
2009. I understand the urgency of this decision and can assure you that 
as this important analysis continues, we will consider all of the 
relevant strategic, budgetary, and environmental factors before 
proposing a way ahead.

                      captain scott speicher, usn
    127. Senator Bill Nelson. Dr. Gates, Captain Speicher was lost 
twice, first when his plane went down in combat, and then when his case 
became tangled in bureaucratic red tape. After 15 years, we still don't 
know what happened after he was shot down over Iraq in 1991. For years, 
I have urged DOD and the Intelligence Community to make this case a 
priority. With the large number of DOD forces in Iraq and the dramatic 
increase in intelligence activities in the region, more information 
should be available on his fate. Will you continue to make a final 
determination of Captain Speicher's and now Sergeant Maupin's fate a 
DOD priority?
    Dr. Gates. I understand that determining the fate of Captain 
Speicher and Sergeant Maupin has been a priority for DOD since their 
loss. They will continue to be a priority under my tenure.

    128. Senator Bill Nelson. Dr. Gates, will you ensure that adequate 
resources are dedicated to this purpose?
    Dr. Gates. I will ensure that the Department employs appropriate 
resources to recover any missing U.S. servicemembers alive, if 
possible, and if not, to recover their remains and return them to their 
families for an honorable burial. The Department will expend every 
reasonable effort to determine the fate of any missing U.S. 
servicemember.
                                 ______
                                 
           Questions Submitted by Senator E. Benjamin Nelson
                     training iraqi security forces
    129. Senator Ben Nelson. Dr. Gates, when General Abizaid appeared 
before the committee in November, he testified that we do need more 
troops in Iraq, but not American troops. I agree with that assessment 
wholeheartedly. The only way I could possibly see more American troops 
going to Iraq is if they were used to speed up the training of Iraqi 
troops. You will bring ``fresh eyes'' to this challenge. From your work 
outside the administration, as a member of the Iraq Study Group, what 
has been the greatest difficulty in the standing up of an Iraqi army?
    Dr. Gates. The greatest difficulty has been in building an 
effective and efficient leadership at the brigade and division level. 
As leadership at this level improves, overall performance of the Iraqi 
army should improve as well.

    130. Senator Ben Nelson. Dr. Gates, what level of confidence do you 
have at present that Iraqi forces can face down former Baathists, al 
Qaeda in Iraq, and Shia militias?
    Dr. Gates. While it is true that the performance of Iraqi forces 
has varied, Iraqi forces have stood their ground when attacked by 
former Baathists, al Qaeda in Iraq, and Shia militias. Iraqi forces 
have also launched raids against elements of those groups. I look 
forward to meeting members of the new Iraqi forces and understand that 
their record in combat is quite strong for such a young army.

                   military readiness stretched thin
    131. Senator Ben Nelson. Dr. Gates, it is undeniable that our 
operations in Iraq and Afghanistan have taken a toll on readiness. 
Specifically, the readiness of the Army and Marine Corps: equipment 
losses combined with equipment left behind by units returning; units 
called to Iraq two, three, and more times; and reports of discussions 
to call National Guard units back into action well before they have 
been given the time and resources to reset are indicators that our 
ground forces are being stretched too thin. Supplemental appropriations 
have dealt with many of the identifiable direct costs associated with 
fighting terrorism, but Service budgets are designed to provide 
resources for training, transforming, and modernizing our armed forces 
which also contribute to the war effort. The Nation needs to take steps 
now to restore our ground forces to preeminence. Are you prepared to 
take the steps necessary to:

          A. Achieve equipment levels for our Army Active-Duty, 
        National Guard, and Reserves to train and fight with;
          B. Provide the resources necessary for the Active-Duty Army 
        to reach 42 Brigade Combat Teams and the National Guard 28; and
          C. Fund Army modernization programs that will better prepare 
        our soldiers for confronting and defeating the growing 
        terrorism menace?

    Dr. Gates. As Secretary of Defense, I will ensure that all our 
soldiers, sailors, airmen, and marines, in both the Active and Reserve 
component, have the necessary equipment and training to perform their 
missions.

                national guard deployments and retention
    132. Senator Ben Nelson. Dr. Gates, news reports have circulated 
about the possibility of National Guard brigades being recalled to 
action much sooner than originally anticipated. The Army's force 
generation model calls for National Guard units to be prepared for 
deployment once every 6 years. This model was put in place to manage 
the equipment, training, and resources in order to have forces ready 
for service. It also provides families and employers of National Guard 
and Reserve soldiers a level of predictability. Current DOD policy 
calls on Army National Guard and Reserve members to serve no more than 
2 years out of 5. Most servicemembers have served 18 months or more 
when training and demobilization are added to the 1 year ``boots on 
ground'' time in Iraq and Afghanistan. An early recall would again 
disrupt their civilian lives and could have a devastating impact on 
retention. Regardless of our new direction in Iraq, do we have your 
commitment that it will not erode our National Guard and Army Reserve, 
weakening our critical operational reserve capability?
    Dr. Gates. I believe that the long-term health of our National 
Guard and Reserve is critical to our national defense. Accordingly, I 
will take those actions that support meeting our mission requirements 
while reducing stress on the total force to the greatest extent 
possible.

             commission on the national guard and reserves
    134. Senator Ben Nelson. Dr. Gates, in light of the increased role 
of the National Guard and Reserves in the global war on terror, 
Congress, in the 2006 National Defense Authorization Act, created the 
independent Commission on the National Guard and Reserves to study and 
report what is necessary to ensure that the National Guard and Reserves 
are tasked, organized, trained, equipped, compensated, and supported to 
best serve the national security interests of the United States. 
Because of the importance of this study, will you commit to ensuring 
DOD's complete cooperation with the Commission so that it can continue 
to obtain all the information it needs in making informed 
recommendations on the issues before it?
    Dr. Gates. Yes, to the extent of my authority.

              governors' authority over the national guard
    134. Senator Ben Nelson. Dr. Gates, in August, all 50 Governors 
wrote to us expressing their concern over an erosion of the Governors' 
authority over the National Guard. Under our Federal system of 
government, the National Guard serves a dual role. They are able and 
capable of performing tasks in the interest of national defense, and 
they also have a very important role under the command and control of 
the Governors to provide assistance during domestic emergencies and 
disasters. How do you view the role of the Guard with respect to 
Governors as Commanders in Chief of the States' National Guard and the 
overall mission of the Guard in national defense?
    Dr. Gates. There is a rich history of the National Guard responding 
to many different domestic emergencies and disasters, both natural and 
man-made, and supporting our national defense as they are doing today 
in Iraq, Afghanistan, and other places. I do not see this dual role 
changing. In fact, it will likely be more important in the future.

    135. Senator Ben Nelson. Dr. Gates, what role do you see the 
regular military and the Guard playing in domestic emergencies and 
disasters, and under whose command?
    Dr. Gates. The regular military may provide support to a lead 
Federal agency when directed by the President or the Secretary of 
Defense. The National Guard of a State, under the command and control 
of that State's Governor, assists State and local responders in the 
event of a disaster. However, the President may call the National Guard 
to Federal Service in cases of national emergency, insurrection, 
invasion, rebellion, a terrorist attack, or a WMD attack. While I am 
aware of an ongoing debate to revisit these longstanding arrangements, 
I believe they have served the Nation well over the years.

    136. Senator Ben Nelson. Dr. Gates, would you be willing to engage 
the Nation's governors in a formal collaborative process that would 
allow them to have more input into decisions affecting the National 
Guard?
    Dr. Gates. I am very open to improving the level of communication 
with our Governors on these issues of mutual interest.

                                biofuels
    137. Senator Ben Nelson. Dr. Gates, DOD is the largest single user 
of energy in the United States, using a little more than 1 percent of 
the Nation's total. Moreover, transportation/mobility fuels account for 
almost 75 percent of the Department's total energy demand. As we 
continue our efforts to improve America's energy security, could you 
explain your thoughts on DOD's role in those efforts both as a user of 
biofuels and to perform studies on biofuels, including studying 
alternative feedstocks such as biomass for producing cellulosic 
ethanol?
    Dr. Gates. I believe energy conservation will continue to be a 
priority, as it impacts both security and overhead costs. However, at 
this time, I am not fully informed on the scope and depth of the 
Department's biofuels focus to assess whether or not it is sufficient.
                                 ______
                                 
         Questions Submitted by Senator Hillary Rodham Clinton
                       darpa fundamental research
    138. Senator Clinton. Dr. Gates, given the Defense Advanced 
Research Projects Agency's (DARPA) critical role in developing new 
defense technologies, if confirmed, will you look into concerns from 
academic, industrial, and even government circles that DARPA is no 
longer playing the role of funding innovative, high-risk, high payoff 
fundamental and applied research that it has traditionally and may need 
adjustments to its program management, development, and personnel 
policies to return to its traditional role of prominence in the 
American innovation system?
    Dr. Gates. I would expect DARPA to continue investing in 
innovative, high-risk, high payoff fundamental and applied research.

    139. Senator Clinton. Dr. Gates, have you heard these concerns 
expressed during your time in academia?
    Dr. Gates. Not directly. In fact, in responding to a request from 
Congress to study and recommend actions that Federal policymakers can 
take to enhance the S&T enterprise in the United States, the National 
Academies suggested that the Department of Energy create a research 
organization based on ``the historically successful DARPA model'' and 
expected that if created, its ``work (like that of DARPA and NIH) 
[would] have important spinoff benefits.''

                darpa coordination within the department
    140. Senator Clinton. Dr. Gates, are you comfortable with the level 
of strategic planning and coordination at DARPA and between DARPA and 
other technology development organizations in DOD? If not, what 
improvements would you recommend?
    Dr. Gates. At this time, I do not have sufficient insight into this 
issue to give you a definitive answer, but will review our current 
levels of planning and coordination.

                            darpa priorities
    141. Senator Clinton. Dr. Gates, do you believe that DARPA is 
focusing enough of its budget on the areas of highest critical long-
term, high risk, high payoff opportunity?
    Dr. Gates. At this time, I do not have sufficient insight into this 
issue to give you a definitive answer, but will review our current 
levels of planning and coordination.

                                 africa
    142. Senator Clinton. Dr. Gates, U.S. relations with Africa are 
marked by increasing strategic importance and complexity. Events and 
systems in Africa, particularly in fragile states, can directly affect 
the security and interests of Americans. In Sudan, where violence 
against millions of civilians continues to frustrate many Americans, we 
are providing assistance through NATO to the African Union, but the 
situation remains grim. In the Horn of Africa, a gateway from the 
Middle East, the U.N. reported recently that weapons are flowing into 
Somalia from at least eight countries, that links to Hezbollah may 
exist, and that the existing arms embargo should be strengthened. In 
Ethiopia, U.S. military personnel are providing valued assistance to 
communities in need, yet humanitarian organizations are expressing 
concern that this may blur the distinction between military and 
humanitarian operations. In many African states, including the largest, 
the Democratic Republic of the Congo, the capacity of African military 
personnel and African peacekeepers is becoming increasingly important. 
Throughout the continent, China is increasing its engagement across the 
political, military, and economic spectrum. Against this complex and 
evolving backdrop, what is your vision for the future of our 
relationship with African states and African regional organizations, 
with specific attention to each of these issues: Sudan, Somalia, 
humanitarian operations, military capacity and peacekeeping, and China?
    Dr. Gates. I intend to continue to develop strong security 
relationships in Africa and seek to improve African capacities to 
promote stability throughout the continent. More broadly, the 
Department will work with the Department of State and with the U.N., 
the EU, and African regional organizations to address instability and 
increased involvement by other nations in the region.

    143. Senator Clinton. Dr. Gates, what are your thoughts about an 
Africa Command (AFRICOM), and would an AFRICOM be helpful to broaden 
U.S. engagement?
    Dr. Gates. An AFRICOM is necessary because Africa is growing in 
military, strategic, and economic importance in global affairs. 
AFRICOM's highest priority missions would focus on maintaining and 
promoting regional security and stability. The primary emphasis would 
be on theater security cooperation efforts, humanitarian assistance, 
disaster response, security assistance, and supporting global war on 
terrorism operations. These priority missions would be conducted in 
partnership with the interagency and other organizations working in 
Africa.

                             darfur report
    144. Senator Clinton. Dr. Gates, the National Defense Authorization 
Act for Fiscal Year 2007 (H.R. 5122) includes a reporting requirement 
on Darfur. Will you provide your leadership and full cooperation to 
ensure the timely publication of comprehensive reports that include 
current details in each subsection, as set forth in H.R. 5122?
    Dr. Gates. The required report on Darfur should be delivered to the 
Senate Armed Services Committee and to your office on March 28, 2007.

                           nuclear terrorism
    145. Senator Clinton. Dr. Gates, the possibility that terrorists 
may acquire and use a nuclear weapon against the United States is an 
urgent threat to the security of our Nation and the international 
community. We must do everything in our power, working in concert with 
other nations, to make sure that these dangerous materials are as 
secure as possible in order to prevent such an attack. If confirmed as 
the Secretary of Defense, what actions would you take in that capacity 
in developing a strategy to prevent nuclear terrorism?
    Dr. Gates. One of DOD's principal responsibilities to reduce the 
threat of nuclear terrorism is to assist with security of nuclear 
warheads in the Russian Federation. I understand that the Department is 
on schedule to complete security upgrades to 24 Russian sites by 
December 2008, as agreed by President Bush and President Putin at the 
February 2005 Bratislava Summit. The Department also assists Russia 
with secure shipment of decommissioned warheads to dismantlement sites. 
The Department's efforts on nuclear security in Russia are part of the 
administration's larger strategy to limit the threat of WMD terrorism.
                                 ______
                                 
    [The nomination reference of Robert M. Gates follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  December 4, 2006.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Robert M. Gates, of Texas, to be Secretary of Defense, vice Donald 
Henry Rumsfeld, resigned.
                                 ______
                                 
    [The biographical sketch of Robert M. Gates, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
               Biographical Sketch of Dr. Robert M. Gates
    Dr. Robert M. Gates is the 22nd President of Texas A&M University, 
the Nation's seventh largest university and an institution recognized 
internationally for its teaching, research, and public service. He 
assumed the presidency of the land-grant, sea-grant, and space-grant 
university on August 1, 2002.
    Dr. Gates served as Interim Dean of the George Bush School of 
Government and Public Service at Texas A&M from 1999-2001.
    He served as Director of Central Intelligence from 1991 until 1993. 
In this position, he headed all foreign intelligence agencies of the 
United States and directed the Central Intelligence Agency (CIA). Dr. 
Gates is the only career officer in CIA's history to rise from entry-
level employee to Director. He served as Deputy Director of Central 
Intelligence from 1986 until 1989 and as assistant to the President and 
Deputy National Security Adviser at The White House from January 20, 
1989 until November 6, 1991 for President George H.W. Bush.
    Dr. Gates joined the CIA in 1966 and spent nearly 27 years as an 
intelligence professional, serving six presidents. During that period, 
he spent nearly 9 years at the National Security Council, The White 
House, serving four presidents of both political parties.
    Dr. Gates has been awarded the National Security Medal, the 
Presidential Citizens Medal, has twice received the National 
Intelligence Distinguished Service Medal, and has three times received 
CIA's highest award, the Distinguished Intelligence Medal.
    He is the author of the memoir, From the Shadows: The Ultimate 
Insider's Story of Five Presidents and How They Won the Cold War, 
published in 1996.
    Dr. Gates serves on the Board of Directors and Executive Committee 
of the American Council on Education, the Board of Directors of the 
National Association of State Universities and Land-Grant Colleges, and 
the National Executive Board of the Boy Scouts of America. He is 
President of the National Eagle Scout Association.
    Dr. Gates serves as Chairman of the Independent Trustees of The 
Fidelity Funds, the Nation's largest mutual fund company, and on the 
board of directors of NACCO Industries, Inc., Brinker International, 
Inc., and Parker Drilling Company, Inc.
    A native of Kansas, Dr. Gates received his bachelor's degree from 
the College of William and Mary, his master's degree in history from 
Indiana University, and his doctorate in Russian and Soviet history 
from Georgetown University. Dr. Gates is 63, and he and his wife Becky 
have two adult children.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Robert M. 
Gates in connection with his nomination follows:]
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Robert Michael Gates.

    2. Position to which nominated:
    Secretary of Defense.

    3. Date of nomination:
    December 4, 2006.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 25, 1943; Wichita, Kansas.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Rebecca Ann Wilkie.

    7. Names and ages of children:
    Eleanor Marie Gates, 31; Bradley Robert Gates, 26.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.

----------------------------------------------------------------------------------------------------------------
                                                                                                  Date Degree
                        Institution                          Dates Attended  Degree Received        Granted
----------------------------------------------------------------------------------------------------------------
Wichita High School East..................................     08/58-05/61          Diploma               05/61
College of William and Mary...............................     08/61-05/65             B.A.               05/65
Indiana University........................................     08/65-08/66             M.A.               08/66
Georgetown University.....................................     08/69-06/74            Ph.D.               06/74
----------------------------------------------------------------------------------------------------------------


    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.

------------------------------------------------------------------------
               Title                      Location             Date
------------------------------------------------------------------------
President, Texas A&M University...  College Station,       08/02-Present
                                     Texas.
Interim Dean, George Bush School    College Station,         08/99-07/01
 of Government and Public Service.   Texas.
Self-employed (Boards, Consulting,  Mount Vernon,            01/93-08/02
 Lecturing).                         Washington.
------------------------------------------------------------------------


    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.

------------------------------------------------------------------------
                    Service/Position                           Date
------------------------------------------------------------------------
Federal Advisory Committee on Deemed Exports, Member...   10/06-Present
Iraq Study Group, Member...............................     05/06-11/06
FBI National Security Higher Education, Member.........   07/05-Present
Director of Central Intelligence.......................     11/91-01/93
Assistant to the President and Deputy National Security     01/89-11/91
 Advisor...............................................
Deputy Director of Central Intelligence................     04/86-01/89
Deputy Director for Intelligence, CIA..................     01/82-04/86
U.S. Air Force.........................................     10/66-01/69
CIA employee...........................................     08/66-01/89
Council on Foreign Relations, Member...................   03/83-Present
Committee on Scientific Communication and National        08/05-Present
 Security, Co-Chair (and previously Member 08/03-02/05)
------------------------------------------------------------------------


    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Chair, Independent Trustees, The Fidelity Funds
    Director, NACCO Industries, Inc.
    Director, Brinker International, Inc.
    Director, Parker Drilling Company
    Consultant, The Mitchell Group
    Director, American Council on Education
    Director, National Association of State Universities and Land-Grant 
Colleges
    Director, Boy Scouts of America
    President, National Eagle Scout Association
    Co-chair, National Academies Committee on Scientific Communication 
and National Security
    Member, Independent Directors Council
    President, Texas A&M University
    Speaker, Washington Speakers Bureau
    Member, BLO Family Properties, LLC
    Member, Aspen Strategy Group
    Director, United Way of Brazos County
    Member, Center for Strategic and International Studies 
Transnational Threat Project.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Boy Scouts of America (Board of Directors; President, National 
Eagle Scout Association)
    Member, Council on Foreign Relations
    Member, Aspen Strategy Group
    Board of Directors, United Way of Brazos County
    Member, Center for Strategic and International Studies 
Transnational Threat Project
    Member, Association of Former Students, Texas A&M University
    Member, Twelfth Man Foundation, Texas A&M University
    Institutional membership, Briarcrest Country Club
    Institutional membership, Pebble Creek Country Club
    Institutional membership, Headliner's Club
    Member, The Rainier Club
    Board of Directors, American Council of Education
    Board of Directors, National Association of State Universities and 
Land-Grant Colleges
    Member, Independent Directors Council
    Committee on Scientific Communication and National Security
    President, Texas A&M University.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    State Senator Steve Ogden: $1,000
    State Representative Fred Brown: $1,000
    President George W. Bush: $2,000
    Governor Rick Perry: $1,000
    Lt. Governor David Dewhurst: $1,000
    U.S. Senator Kay Bailey Hutchison: $1,000.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Presidential Citizen's Medal
    National Security Medal
    National Intelligence Distinguished Service Medal (twice)
    Distinguished Intelligence Medal (CIA) (three times).

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
Book
    From the Shadows: The Ultimate Insider's Story of Five Presidents 
and How They Won the Cold War. Simon and Shuster, 1996
Articles
    ``An Opportunity Unfulfilled: The Use and Perceptions of 
Intelligence at the White House,'' The Washington Quarterly. Winter 
1989
    ``The CIA and American Foreign Policy,'' Foreign Affairs, Volume 
66, Number 2 (Winter 1987/88)
    ``The Prediction of Soviet Intentions,'' Studies in Intelligence. 
Spring 1973 (now declassified)
Op Eds
    May 23,2006, ``An Intelligent CIA Pick,'' The Washington Post
    June 9, 2004, ``Rescuing America's Intelligence Network; Don't Ruin 
the CIA,'' The New York Times
    April 3, 2004, ``Re-open America's School Doors for Foreigners; 
Barriers that Backfire,'' The New York Times
    March 31, 2004, ``International Relations 101,'' Long Beach Press-
Telegram
    September 3, 2003, ``How Not to Reform Intelligence,'' Wall Street 
Journal Abstracts
    May 27, 2002, ``A Former CIA Chief on ``Connecting the Dots,'' Time 
Magazine
    February 25, 2001, ``Spying on Spies: On Guard Against Moles,'' 
Santa Fe New Mexican
    January 23, 2001, ``Revitalize the CIA,'' Wall Street Journal
    May 27, 2000, ``In a New Age of Risk, Old Tests of Loyalty,'' The 
New York Times
    May 12, 1999, ``In War, Mistakes Happen,'' The New York Times
    March 14, 1999, ``The ABC's of Spying,'' The New York Times
    October 29,1998, ``The C.I.A.'s Little Known Resume,'' The New York 
Times
    August 16, 1998, ``What War Looks Like Now,'' The New York Times
    March 20, 1997, ``Does Lake's Withdrawal Stain Confirmation 
Drill?'' Seattle Post-Intelligencer
    March 19, 1997, ``Taking the Heat,'' The New York Times
    January 29, 1997, ``The Case for Confirming Anthony Lake,'' Wall 
Street Journal
    January 31, 1995, ``Russia, Chechnya . . . and U.S. Policy.'' The 
Washington Times
    June 17, 1994, ``It's Too Late To Stop Korea From Making Nuclear 
Bomb,'' Seattle Post-Intelligencer
    April 20, 1992, ``We See a World of More, Not Fewer Mysteries;'' 
CIA Director Robert Gates talks about Saddam Hussein's still hidden 
Scuds, the KGB's new goals and declassifying the J.F.K. assassination 
files,'' Time Magazine
    April 30, 1989, ``The Uneven Cycles of Kremlin Reform,'' The 
Washington Post

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I have given scores of speeches on international affairs for the 
Washington Speakers Bureau during this period. I attach a 
representative sampling.
    [Nominee responded and the information is contained in the 
committee's executive files.]

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the Appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   Robert M. Gates.
    This 27th day of November, 2006.

    [The nomination of Robert M. Gates was reported to the 
Senate by Chairman Warner on December 5, 2006, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on December 6, 2006.]


     TO CONSIDER CERTAIN PENDING CIVILIAN AND MILITARY NOMINATIONS

                              ----------                              


                       TUESDAY, DECEMBER 5, 2006

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:08 a.m. in 
room SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Roberts, Sessions, Collins, Graham, Dole, Thune, Levin, 
Kennedy, Byrd, Lieberman, Reed, Akaka, Bill Nelson, E. Benjamin 
Nelson, Dayton, Bayh, and Clinton.
    Committee staff members present: Charles S. Abell, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: William M. Caniano, 
professional staff member; Regina A. Dubey, professional staff 
member; Ambrose R. Hock, professional staff member; Gregory T. 
Kiley, professional staff member; Sandra E. Luff, professional 
staff member; Derek J. Maurer, professional staff member; 
Elaine A. McCusker, professional staff member; David M. 
Morriss, counsel; Lucian L. Niemeyer, professional staff 
member; Lynn F. Rusten, professional staff member; Sean G. 
Stackley, professional staff member; Scott W. Stucky, general 
counsel; Diana G. Tabler, professional staff member; and 
Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Jonathan D. Clark, minority counsel; 
Christine E. Cowart, administrative assistant to the minority; 
Madelyn R. Creedon, minority counsel; Gabriella Eisen, 
professional staff member; Evelyn N. Farkas, professional staff 
member; Richard W. Fieldhouse, professional staff member; 
Creighton Greene, professional staff member; Michael J. Kuiken, 
professional staff member; Gerald J. Leeling, minority counsel; 
Peter K. Levine, minority counsel; Michael J. McCord, 
professional staff member; William G.P. Monahan, minority 
counsel; Michael J. Noblet, research assistant; and Arun A. 
Seraphin, professional staff member.
    Staff assistants present: David G. Collins, Micah H. 
Harris, Benjamin L. Rubin, and Jill L. Simodejka.
    Committee members' assistants present: Christopher J. Paul 
and Richard H. Fontaine, Jr., assistants to Senator McCain; 
John A. Bonsell and Jeremy Shull, assistants to Senator Inhofe; 
Libby Burgess, assistant to Senator Roberts; Arch Galloway II, 
assistant to Senator Sessions; Mark J. Winter, assistant to 
Senator Collins; D'Arcy Grisier, assistant to Senator Ensign; 
Clyde A. Taylor IV, assistant to Senator Chambliss; Matthew R. 
Rimkunas, assistant to Senator Graham; Greg Gross, assistant to 
Senator Dole; Russell J. Thomasson, assistant to Senator 
Cornyn; Bob Taylor and Stuart C. Mallory, assistants to Senator 
Thune; Sharon L. Waxman and Mieke Y. Eoyang, assistants to 
Senator Kennedy; Christina Evans and Erik Raven, assistants to 
Senator Byrd; Frederick M. Downey, assistant to Senator 
Lieberman; Elizabeth King, assistant to Senator Reed; Richard 
Kessler and Darcie Tokioka, assistants to Senator Akaka; 
William K. Sutey, assistant to Senator Bill Nelson; Eric 
Pierce, assistant to Senator Ben Nelson; Todd Rosenblum and 
Robert J. Ehrich, assistants to Senator Bayh; and Andrew 
Shapiro, assistant to Senator Clinton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. A quorum now being present, we discharge 
our other constitutional function; i.e., confirming the 1,023 
pending military nominations. All of these nominations have 
been before the committee the required length of time. No 
objections have been raised to these nominations.
    Do I hear a motion to favorably report the nominations?
    Senator Levin. So moved.
    Chairman Warner. Is there a second?
    Senator McCain. Second.
    Chairman Warner. All in favor, say aye. [A chorus of ayes.]
    Chairman Warner. Opposed? [No response.]
    Ayes have it.
    Second, nominees--I ask the committee to consider the 
nominations of Scott W. Stucky and Margaret A. Ryan to be 
judges on the United States Court of Appeals for the Armed 
Forces. Yesterday, Senator Levin and I conducted a hearing on 
the nominations, and no objections have been raised to these 
nominations.
    Do I hear a motion that these two nominations be voted on, 
en bloc?
    Senator Levin. So moved.
    Chairman Warner. Second?
    Senator McCain. Second.
    Chairman Warner. All in favor, say aye. [A chorus of ayes.]
    Opposed? [No response.]
    Ayes have it. Thank you very much.
    [The list of nominations considered and approved by the 
committee follows:]
 Military Nominations Pending with the Senate Armed Services Committee 
  which are Proposed for the Committee's Consideration on December 5, 
                                 2006.
    1. COL Thomas J. Sellars, ARNG, to be brigadier general (Reference 
No. 2106).
    2. COL Donald C. Leins, USAR, to be brigadier general (Reference 
No. 2107).
    3. ADM Robert F. Willard, USN, to be admiral and Commander, U.S. 
Fleet Forces Command (Reference No. 2108).
    4. In the Army Reserve, there are 31 appointments to the grade of 
major general and below (list begins with Robert T. Bray) (Reference 
No. 2132).
    5. In the Air Force Reserve, there is one appointment to the grade 
of colonel (Jeffrey C. Carstens) (Reference No. 2133).
    6. In the Air Force, there is one appointment to the grade of 
lieutenant colonel (Stephen R. Geringer) (Reference No. 2134).
    7. In the Air Force, there is one appointment to the grade of major 
(Paul M. Roberts) (Reference No. 2135).
    8. In the Army Reserve there is one appointment to the grade of 
colonel (Willie G. Barnes) (Reference No. 2136).
    9. In the Army Reserve, there is one appointment to the grade of 
colonel (Daniel P. McLemore) (Reference No. 2138).
    10. In the Army Reserve, there are two appointments to the grade of 
colonel (list begins with Josef R. Smith) (Reference No. 2139).
    11. In the Army, there are two appointments to the grade of major 
(list begins with Robert M. Blackmon) (Reference No. 2140).
    12. In the Army, there are two appointments to the grade of 
lieutenant colonel and below (list begins with Nicholas C. Bakris) 
(Reference No. 2131).
    13. In the Army, there are three appointments to the grade of 
colonel and below (list begins with David E. Green) (Reference No. 
2142).
    14. In the Army, there are three appointments to the grade of 
lieutenant colonel and below (list begins with Moon H. Lee) (Reference 
No. 2143).
    15. In the Army, there are seven appointments to the grade of 
colonel (list begins with Terrell W. Blanchard) (Reference No. 2144).
    16. In the Army, there is one appointment to the grade of major 
(Victoria L. Smith) (Reference No. 2145).
    17. In the Army, there is one appointment to the grade of major 
(Ira S. Derrick) (Reference No. 2146).
    18. In the Army, there is one appointment to the grade of major 
(Joseph W. Brown) (Reference No. 2147).
    19. In the Army, there is one appointment to the grade of major 
(Rebecca L. Blankenship) (Reference No. 2148).
    20. In the Army, there is one appointment to the grade of colonel 
(Mark M. Kuba) (Reference No. 2149).
    21. In the Army, there is one appointment to the grade of major 
(Craig H. Rhyne, Jr.) (Reference No. 2150).
    22. In the Army, there are five appointments to the grade of 
colonel (list begins with Lorraine T. Breen) (Reference No. 2151).
    23. In the Navy, there are six appointments to the grade of 
commander and below (list begins with Kimberly S. Evans) (Reference No. 
2152).
    24. In the Navy, there is one appointment to the grade of 
lieutenant commander (David J. Allen) (Reference No. 2153).
    25. In the Air Force, there are 21 appointments to the grade of 
lieutenant colonel and below (list begins with Nevanna I. Koicheff) 
(Reference No. 2155).
    26. In the Army, there are 125 appointments to the grade of colonel 
and below (list begins with Debra L. Cohen) (Reference No. 2156).
    27. In the Army, there are 17 appointments to the grade of colonel 
(list begins with Norma F. Allen) (Reference No. 2157).
    28. In the Army Reserve, there are 632 appointments to the grade of 
colonel (list begins with Michael R. Aberle) (Reference No. 2158).
    29. In the Army Reserve, there are 31 appointments to the grade of 
colonel (list begins with Robin B. Allen) (Reference No. 2159).
    30. In the Army, there are 37 appointments to the grade of colonel 
(list begins with John G. Alvarez) (Reference No. 2160).
    31. In the Army, there are 18 appointments to the grade of colonel 
(list begins with Jeffrey S. Ashley) (Reference No. 2161).
    32. In the Navy, there are six appointments to the grade of captain 
and below (list begins with Harry T. Welan) (Reference No. 2162).
    33. In the Air Force, there are four appointments to the grade of 
lieutenant colonel and below (list begins with Jerzy J. Chachaj) 
(Reference No. 2186).
    34. In the Air Force, there are two appointments to the grade of 
lieutenant colonel and below (list begins with Norman B. Dimond) 
(Reference No. 2187)
    35. In the Army, there is one appointment to the grade of major 
(Shelly M. Taylor) (Reference No. 2188).
    36. In the Army, there are two appointments to the grade of 
lieutenant colonel (list begins with Omar L. Hamada) (Reference No. 
2189).
    37. In the Navy, there are 51 appointments to the grade of 
lieutenant commander (list begins with Keith T. Adkins) (Reference No. 
2190).

    Total: 1023.

    [Whereupon, at 10:10 a.m., the committee adjourned.]
                                APPENDIX

Committee on Armed Services Questionnaire on Biographical and Financial 
               Information Requested of Civilian Nominees

                                ------                                

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)


    2. Position to which nominated:


    3. Date of nomination:


    4. Address: (List current place of residence and office addresses.)


    5. Date and place of birth:


    6. Marital Status: (Include maiden name of wife or husband's name.)


    7. Names and ages of children:


    8. Education: List secondary and higher education institutions, 
dates attended, degree received and date degree granted.


    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.


    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.


    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.


    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.


    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.


    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.


    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.


    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.


    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?


                    COMMITTEE ON ARMED SERVICES FORM
         FINANCIAL AND OTHER INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Information furnished in Parts B 
through F will be retained in the committee's executive files and will 
not be made available to the public unless specifically directed by the 
committee.

    Name:

                Part B--Future Employment Relationships
    1. Will you sever all business connections with your present 
employers, business firms, business associations, or business 
organizations if you are confirmed by the Senate?


    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain.


    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association, or 
organization?


    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service?


    5. Is your spouse employed and, if so, where?


    6. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable?


                Part C--Potential Conflicts of Interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.


    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.


    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.


    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy.


    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)


    6. Do you agree to provide to the committee any written opinions 
provided by the General Counsel of the agency to which you are 
nominated and by the Attorney General's office concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?


                         Part D--Legal Matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.


    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.


    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in any administrative agency 
proceeding or civil litigation? If so, provide details.


    4. Have you ever been convicted (including a plea of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?


    5. Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.


                      Part E--Foreign Affiliations
    1. Have you or your spouse ever represented in any capacity (e.g., 
employee, attorney, business, or political adviser or consultant), with 
or without compensation, a foreign government or an entity controlled 
by a foreign government? If so, please fully describe such 
relationship.


    2. If you or your spouse has ever been formally associated with a 
law, accounting, public relations firm or other service organization, 
have any of your or your spouse's associates represented, in any 
capacity, with or without compensation, a foreign government or an 
entity controlled by a foreign government? If so, please fully describe 
such relationship.


    3. During the past 10 years have you or your spouse received any 
compensation from, or been involved in any financial or business 
transactions with, a foreign government or an entity controlled by a 
foreign government? If so, please furnish details.


    4. Have you or your spouse ever registered under the Foreign Agents 
Registration Act? If so, please furnish details.


                         Part F--Financial Data
    All information requested under this heading must be provided for 
yourself, your spouse, and your dependents.

    1. Describe the terms of any beneficial trust or blind trust of 
which you, your spouse, or your dependents may be a beneficiary. In the 
case of a blind trust, provide the name of the trustee(s) and a copy of 
the trust agreement.


    2. Provide a description of any fiduciary responsibility or power 
of attorney which you hold for or on behalf of any other person.


    3. List sources, amounts and dates of all anticipated receipts from 
deferred income arrangements, stock options, executory contracts and 
other future benefits which you expect to derive from current or 
previous business relationships, professional services and firm 
memberships, employers, clients, and customers.


    4. Have you filed a Federal income tax return for each of the past 
10 years? If not, please explain.


    5. Have your taxes always been paid on time?


    6. Were all your taxes, Federal, State, and local, current (filed 
and paid) as of the date of your nomination?


    7. Has the Internal Revenue Service ever audited your Federal tax 
return? If so, what resulted from the audit?


    8. Have any tax liens, either Federal, State, or local, been filed 
against you or against any real property or personal property which you 
own either individually, jointly, or in partnership?


    (The committee may require that copies of your Federal income tax 
returns be provided to the committee. These documents will be made 
available only to Senators and the staff designated by the chairman. 
They will not be available for public inspection.)

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                ----------------------------------.

    This ---------- day of --------------------------, --------.
                                 ______
                                 

Committee on Armed Services Questionnaire on Biographical and Financial 
       Information Requested of Certain Senior Military Nominees

                                ------                                

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                    COMMITTEE ON ARMED SERVICES FORM
   BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES FOR 
                   CERTAIN SENIOR MILITARY POSITIONS
                      Instructions to the Nominee:
    Complete all requested information. If more space is needed use an 
additional sheet and cite the part of the form and the question number 
(i.e. A-9, B-4) to which the continuation of your answer applies.
    If you have completed this form in connection with a prior military 
nomination, you may use the following procedure in lieu of submitting a 
new form. In your letter to the Chairman, add the following paragraph 
to the end:

    ``I hereby incorporate by reference the information and commitments 
        contained in the Senate Armed Services Committee form 
        `Biographical and Financial Information Requested of Nominees 
        for Certain Senior Military Positions,' submitted to the 
        committee on [insert date or your prior form]. I agree that all 
        such commitments apply to the position to which I have been 
        nominated and that all such information is current except as 
        follows: . . . .'' [If any information on your prior form needs 
        to be updated, please cite the part of the form and the 
        question number and set forth the updated information in your 
        letter to the chairman.]

                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)


    2. Position to which nominated:


    3. Date of nomination:


    4. Address: (List current place of residence and office addresses. 
Also include your office telephone number.)


    5. Date and place of birth:


    6. Marital Status: (Include name of husband or wife, including 
wife's maiden name.)


    7. Names and ages of children:


    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive Branch.


    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.


    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.


    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.


    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?


    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?


                    COMMITTEE ON ARMED SERVICES FORM
         FINANCIAL AND OTHER INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Information furnished in Parts B 
through E will be retained in the committee's executive files and will 
not be made available to the public unless specifically directed by the 
committee.

    Name:

                Part B--Future Employment Relationships
    1. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your military 
service. If so, explain.


    2. Has anybody made a commitment to employ your services in any 
capacity after you leave military service?


                Part C--Potential Conflicts of Interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.


    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.


    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.


    4. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)


    5. Do you agree to provide to the committee any written opinions 
provided by the General Counsel of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?


    6. Is your spouse employed and, if so, where?


                         Part D--Legal Matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.


    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.


    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in any administrative agency 
proceeding or litigation? If so, provide details.


    4. Have you ever been convicted (including a plea of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?


    5. Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.


                      Part E--Foreign Affiliations
    1. Have you or your spouse ever represented in any capacity (e.g., 
employee, attorney, business, or political adviser or consultant), with 
or without compensation, a foreign government or an entity controlled 
by a foreign government? If so, please fully describe such 
relationship.


    2. If you or your spouse has ever been formally associated with a 
law, accounting, public relations firm or other service organization, 
have any of your or your spouse's associates represented, in any 
capacity, with or without compensation, a foreign government or an 
entity controlled by a foreign government? If so, please fully describe 
such relationship.


    3. During the past 10 years have you or your spouse received any 
compensation from, or been involved in any financial or business 
transactions with, a foreign government or an entity controlled by a 
foreign government? If so, please furnish details.


    4. Have you or your spouse ever registered under the Foreign Agents 
Registration Act? If so, please furnish details.
      

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                ----------------------------------.

    This ---------- day of --------------------------, --------.

                                 <all>
      

</pre></body></html>
